<html>
<title> - NOMINATIONS OF ELIZABETH A. McGRATH TO BE DEPUTY CHIEF MANAGEMENT OFFICER OF THE DEPARTMENT OF DEFENSE; MICHAEL J. McCORD TO BE PRINCIPAL DEPUTY UNDER SECRETARY OF DEFENSE (COMPTROLLER); SHARON E. BURKE TO BE DIRECTOR OF OPERATIONAL ENERGY PLANS AND PROGRAMS; SOLOMON B. WATSON IV TO BE GENERAL COUNSEL OF THE DEPARTMENT OF THE ARMY; AND KATHERINE G. HAMMACK TO BE ASSISTANT SECRETARY OF THE ARMY FOR INSTALLATIONS AND ENVIRONMENT</title>
<body><pre>[Senate Hearing 111-896]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 111-896

NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE, SECOND SESSION, 
                             111TH CONGRESS

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   on

                             NOMINATIONS OF

 ELIZABETH A. McGRATH; MICHAEL J. McCORD; SHARON E. BURKE; SOLOMON B. 
 WATSON; KATHERINE G. HAMMACK; VADM JAMES A. WINNEFELD, JR., USN; LTG 
  KEITH B. ALEXANDER, USA; GEN RAYMOND T. ODIERNO, USA; LTG LLOYD J. 
  AUSTIN III, USA; GEN DAVID H. PETRAEUS, USA; GEN. JAMES N. MATTIS, 
USMC; JONATHAN WOODSON, M.D.; NEILE L. MILLER; ANNE M. HARRINGTON; GEN. 
  JAMES F. AMOS, USMC; GEN. CLAUDE R. KEHLER, USAF; AND GEN CARTER F. 
                                HAM, USA

                               ----------                              

   MARCH 23; APRIL 15; JUNE 24, 29; JULY 27; AUGUST 3; SEPTEMBER 21; 
                           NOVEMBER 18, 2010

                               ----------                              

         Printed for the use of the Committee on Armed Services











                                                        S. Hrg. 111-896

NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE, SECOND SESSION, 
                             111TH CONGRESS

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   on

                             NOMINATIONS OF

 ELIZABETH A. McGRATH; MICHAEL J. McCORD; SHARON E. BURKE; SOLOMON B. 
 WATSON; KATHERINE G. HAMMACK; VADM JAMES A. WINNEFELD, JR., USN; LTG 
  KEITH B. ALEXANDER, USA; GEN RAYMOND T. ODIERNO, USA; LTG LLOYD J. 
  AUSTIN III, USA; GEN DAVID H. PETRAEUS, USA; GEN. JAMES N. MATTIS, 
USMC; JONATHAN WOODSON, M.D.; NEILE L. MILLER; ANNE M. HARRINGTON; GEN. 
  JAMES F. AMOS, USMC; GEN. CLAUDE R. KEHLER, USAF; AND GEN CARTER F. 
                                HAM, USA

                               __________

   MARCH 23; APRIL 15; JUNE 24, 29; JULY 27; AUGUST 3; SEPTEMBER 21; 
                           NOVEMBER 18, 2010

                               __________

         Printed for the use of the Committee on Armed Services


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


        Available via the World Wide Web: http://www.fdsys.gov/

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE
  65-070 ODF              WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                      COMMITTEE ON ARMED SERVICES

                         (Before July 22, 2010)

                     CARL LEVIN, Michigan, Chairman

ROBERT C. BYRD, West Virginia        JOHN McCAIN, Arizona
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SAXBY CHAMBLISS, Georgia
BILL NELSON, Florida                 LINDSEY GRAHAM, South Carolina
E. BENJAMIN NELSON, Nebraska         JOHN THUNE, South Dakota
EVAN BAYH, Indiana                   ROGER F. WICKER, Mississippi
JIM WEBB, Virginia                   GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           SCOTT P. BROWN, Massachusetts
MARK UDALL, Colorado                 RICHARD BURR, North Carolina
KAY R. HAGAN, North Carolina         DAVID VITTER, Louisiana
MARK BEGICH, Alaska                  SUSAN M. COLLINS, Maine
ROLAND W. BURRIS, Illinois
JEFF BINGAMAN, New Mexico
EDWARD E. KAUFMAN, Delaware

                                 ______

                      COMMITTEE ON ARMED SERVICES

                         (After July 22, 2010)

                     CARL LEVIN, Michigan, Chairman

JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
DANIEL K. AKAKA, Hawaii              JEFF SESSIONS, Alabama
BILL NELSON, Florida                 SAXBY CHAMBLISS, Georgia
E. BENJAMIN NELSON, Nebraska         LINDSEY GRAHAM, South Carolina
EVAN BAYH, Indiana                   JOHN THUNE, South Dakota
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
CLAIRE McCASKILL, Missouri           GEORGE S. LeMIEUX, Florida
MARK UDALL, Colorado                 SCOTT P. BROWN, Massachusetts
KAY R. HAGAN, North Carolina         RICHARD BURR, North Carolina
MARK BEGICH, Alaska                  DAVID VITTER, Louisiana
ROLAND W. BURRIS, Illinois           SUSAN M. COLLINS, Maine
JEFF BINGAMAN, New Mexico
EDWARD E. KAUFMAN, Delaware
CARTE P. GOODWIN, West Virginia

                   Richard D. DeBobes, Staff Director

               Joseph W. Bowab, Republican Staff Director

                                  (ii)














                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES

                                                                   Page

                             march 23, 2010

Nominations of Elizabeth A. McGrath to be Deputy Chief Management 
  Officer of the Department of Defense; Michael J. McCord to be 
  Principal Deputy Under Secretary of Defense (Comptroller); 
  Sharon E. Burke to be Director of Operational Energy Plans and 
  Programs; Solomon B. Watson IV to be General Counsel of the 
  Department of the Army; and Katherine G. Hammack to be 
  Assistant Secretary of the Army for Installations and 
  Environment....................................................     1

Statements of:

Akaka, Hon. Daniel K., U.S. Senator from the State of Hawaii.....     2
Warner, Hon. John, Former U.S. Senator from the State of Virginia    21
McGrath, Elizabeth A., Nominee to be Deputy Chief Management 
  Officer of the Department of Defense...........................    23
McCord, Michael J., Nominee to be Principal Deputy Under 
  Secretary of Defense (Comptroller).............................    24
Burke, Sharon E., Nominee to be Director of Operational Energy 
  Plans and Programs.............................................    26
Watson, Solomon B., IV, Nominee to be General Counsel of the 
  Department of the Army.........................................    27
Hammack, Katherine G., Nominee to be Assistant Secretary of the 
  Army for Installations and Environment.........................    28

                             april 15, 2010

Nominations of VADM James A. Winnefeld, Jr., USN, to be Admiral 
  and Commander, U.S. Northern Command/Commander, North American 
  Aerospace Defense Command; and LTG Keith B. Alexander, USA, to 
  be General and Director, National Security Agency/Chief, 
  Central Security Service/Commander, U.S. Cyber Command.........   145

Statements of:

Mikulski, Hon. Barbara, U.S. Senator from the State of Maryland..   153
Winnefeld, VADM James A., Jr., USN, Nominee to be Admiral and 
  Commander, U.S. Northern Command/Commander, North American 
  Aerospace Defense Command......................................   155
Alexander, LTG Keith B., USA, Nominee to be General and Director, 
  National Security Agency/Chief, Central Security Service/
  Commander, U.S. Cyber Command..................................   156

                             june 24, 2010

Nominations of GEN Raymond T. Odierno, USA, for Reappointment to 
  the Grade of General and Commander, U.S. Joint Forces Command; 
  and LTG Lloyd J. Austin III, USA, to be General and Commander, 
  U.S. Forces-Iraq...............................................   245

                                  iii

Statements of:

Odierno, GEN Raymond T., USA, Nominee for Reappointment to the 
  Grade of General and Commander, U.S. Joint Forces Command......   251
Austin, LTG Lloyd J., III, USA, Nominee to be General and 
  Commander, U.S. Forces-Iraq....................................   252

                             june 29, 2010

Nomination of GEN David H. Petraeus, USA, for Reappointment to 
  the Grade of General, and to be Commander, International 
  Security Assistance Force, and Commander, U.S. Forces-
  Afghanistan....................................................   329

Statement of:

Petraeus, GEN David H., USA, Nominee for Reappointment to the 
  Grade of General, and to be Commander, International Security 
  Assistance Force, and Commander, U.S. Forces Afghanistan.......   334

                             july 27, 2010

Nomination of Gen. James N. Mattis, USMC, for Reappointment to 
  the Grade of General and to be Commander, U.S. Central Command.   405

Statement of:

Mattis, Gen. James N., USMC, Nominee for Reappointment to the 
  Grade of General and to be Commander, U.S. Central Command.....   410

                             august 3, 2010

Nominations of Jonathan Woodson, M.D., to be Assistant Secretary 
  of Defense for Health Affairs; Neile L. Miller to be Principal 
  Deputy Administrator, National Nuclear Security Administration; 
  and Anne M. Harrington to be Deputy Administrator for Defense 
  Nuclear Nonproliferation, National Nuclear Security 
  Administration.................................................   487

Statements of:

Woodson, Jonathan, M.D., Nominee to be Assistant Secretary of 
  Defense for Health Affairs.....................................   491
Miller, Neile L., Nominee to be Principal Deputy Administrator, 
  National Nuclear Security Administration.......................   493
Harrington, Anne M., Nominee to be Deputy Administrator for 
  Defense Nuclear Nonproliferation, National Nuclear Security 
  Administration.................................................   495

                           september 21, 2010

Nomination of Gen. James F. Amos, USMC, for Reappointment to the 
  Grade of General and to be Commandant of the Marine Corps......   569

Statements of:

Hagan, Hon. Kay R., U.S. Senator from the State of North Carolina   572
Amos, Gen. James F., USMC, Nominee for Reappointment to the Grade 
  of General and to be Commandant of the Marine Corps............   575

                           november 18, 2010

Nominations of Gen. Claude R. Kehler, USAF, for Reappointment to 
  the Grade of General and to be Commander, U.S. Strategic 
  Command; and GEN Carter F. Ham, USA, for Reappointment to the 
  Grade of General and to be Commander, U.S. Africa Command......   635

Statements of:

Kehler, Gen. Claude R., USAF, Nominee for Reappointment to the 
  Grade of General and to be Commander, U.S. Strategic Command...   640
Ham, GEN Carter F., USA, Nominee for Reappointment to the Grade 
  of General and to be Commander, U.S. Africa Command............   641

APPENDIX.........................................................   719
                                     


 
   NOMINATIONS OF ELIZABETH A. McGRATH TO BE DEPUTY CHIEF MANAGEMENT 
OFFICER OF THE DEPARTMENT OF DEFENSE; MICHAEL J. McCORD TO BE PRINCIPAL 
DEPUTY UNDER SECRETARY OF DEFENSE (COMPTROLLER); SHARON E. BURKE TO BE 
DIRECTOR OF OPERATIONAL ENERGY PLANS AND PROGRAMS; SOLOMON B. WATSON IV 
 TO BE GENERAL COUNSEL OF THE DEPARTMENT OF THE ARMY; AND KATHERINE G. 
  HAMMACK TO BE ASSISTANT SECRETARY OF THE ARMY FOR INSTALLATIONS AND 
                              ENVIRONMENT

                              ----------                              


                        TUESDAY, MARCH 23, 2010

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:37 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman), presiding.
    Committee members present: Senators Levin, Akaka, Udall, 
Hagan, Begich, McCain, Inhofe, Sessions, Chambliss, and Thune.
    Former Senator present: Senator John Warner of Virginia.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Creighton Greene, 
professional staff member; Gerald J. Leeling, counsel; Peter K. 
Levine, general counsel; Jason W. Maroney, counsel; Roy F. 
Phillips, professional staff member; John H. Quirk V, 
professional staff member; Russell L. Shaffer, counsel; and 
William K. Sutey, professional staff member.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; Adam J. Barker, professional staff member; 
David M. Morriss, minority counsel; Lucian L. Niemeyer, 
professional staff member; and Richard F. Walsh, minority 
counsel.
    Staff assistants present: Jennifer R. Knowles and Brian F. 
Sebold.
    Committee members' assistants present: James Tuite, 
assistant to Senator Byrd; Gordon I. Peterson, assistant to 
Senator Webb; Jennifer Barrett, assistant to Senator Udall; 
Lindsay Kavanaugh, assistant to Senator Begich; Anthony J. 
Lazarski, assistant to Senator Inhofe; Lenwood Landrum and 
Sandra Luff, assistants to Senator Sessions; Clyde A. Taylor 
IV, assistant to Senator Chambliss; and Chris Joyner, assistant 
to Senator Burr.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    The committee meets today to consider the nominations of 
Elizabeth McGrath to be Deputy Chief Management Officer of the 
Department of Defense (DOD); Michael McCord to be Principal 
Deputy Under Secretary of Defense (Comptroller); Sharon Burke 
to be Director of Operational Energy Plans and Programs; 
Solomon Watson IV to be General Counsel of the Department of 
the Army; and Katherine Hammack to be Assistant Secretary of 
the Army for Installations and Environment.
    I'm going to interrupt my opening comments to call upon 
Senator Akaka, who must leave, but he has an introduction that 
he wants to make. We call upon Senator Akaka for that purpose.

STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR FROM THE STATE 
                           OF HAWAII

    Senator Akaka. Thank you very much, Mr. Chairman and 
members of the committee.
    Since I will not be able to remain at this hearing, I want 
to thank the chairman and the ranking member for permitting me 
this time and honor to briefly introduce and congratulate two 
nominees.
    I ask, Mr. Chairman, that my full introductory statement be 
included in the record.
    Chairman Levin. It will be.
    Senator Akaka. I want to add my welcome to our brother and 
close friend, Senator Warner. Good to see you back here, as 
well as our nominees who are at the table today.
    I'm here, and I'm delighted to speak on the nomination of 
Elizabeth McGrath to be DOD's first Deputy Chief Management 
Officer. I'd like to introduce, also, her family, Beth 
McGrath's son, James, and her daughter, Christine, and her mom 
and dad, who are also here, and welcome them.
    As you may know, I was a strong advocate for the creation 
of a Chief Management Officer at DOD. I first encountered Beth 
McGrath through my Oversight and Government Management 
Subcommittee's work on DOD's Security Clearance Program, which 
has been on the Government Accountability Office's high-risk 
list since 2005. Beth now serves as the vice chair of a joint 
reform team, led by the Office of Management and Budget (OMB), 
reforming the clearance process. She has testified and worked 
with my subcommittee extensively. That group has made 
tremendous progress on modernizing the clearance process, in 
large part due to Beth's hard work and expertise.
    Ms. McGrath is an example of an individual who has 
dedicated her professional career to civil service and has 
advanced through the ranks. She has served as a logistics and 
acquisition manager, a deputy director in the Defense Finance 
Accounting Service, and Assistant Principal Deputy Under 
Secretary, and now as Assistant and Deputy Chief Management 
Officer.
    I will not go further with her qualifications, except to 
say that in my working with her, I have found her to be 
professional and knowledgeable, and I think she will be 
extremely valuable to the Department in this role.
    Again, I congratulate you, Beth, on your nomination to this 
position.
    I also want to add my congratulations to Mike McCord, who 
is the nominee to be the Principal Deputy Under Secretary of 
Defense (Comptroller). I had the distinct pleasure to work with 
him, when I was chairman of the Readiness and Management 
Subcommittee. As a senior staff member of the subcommittee, his 
expertise, dedication, and counsel were invaluable. Mike has an 
unparalleled wealth of experience, a deep understanding of 
defense issues and the budget process, and he will excel in his 
position.
    He is the best person, and the right person, for the job. I 
want to wish him well.
    Mr. Chairman, I thank you again for giving me this time to 
speak on these nominees. Thank you very much.
    [The prepared statement of Senator Akaka follows:]
             Prepared Statement by Senator Daniel K. Akaka
    Mr. Chairman, members of the committee, aloha and good morning. I 
am delighted to be at this hearing considering the nomination of 
Elizabeth McGrath to be the Department of Defense's (DOD) first Deputy 
Chief Management Officer (DCMO).
    As you may know, I was a strong advocate for the creation of a 
Chief Management Officer (CMO) at DOD. After the Deputy Secretary of 
Defense was given responsibility to serve as the CMO, we created the 
position of DCMO.
    The DCMO will effectively serve as the full-time management 
official for the Department, organizing business operations and 
overseeing the Business Transformation Agency and the Performance 
Improvement Officer.
    Ms. McGrath is a long-time career civil servant who has served as 
the Assistant Deputy Chief Management Officer since the DCMO office was 
created. With no DCMO nominated during the last administration, she was 
responsible for the day-to-day operations of the office.
    I first encountered Beth McGrath through my Oversight of Government 
Management Subcommittee's work on DOD's Security Clearance Program, 
which has been on the Government Accountability Office's High Risk List 
since 2005.
    In 2007, Beth was named the lead staffer representing the 
Department on the new Joint Reform Team and later the Performance 
Accountability Council. She has testified and worked with my 
subcommittee extensively since that time.
    Over the last few years, the group has made tremendous progress on 
modernizing the clearance process, in large part due to Beth's hard 
work and expertise.
    Due to her leadership on this issue, she was asked to serve as the 
Vice-Chair of the Performance Accountability Council, and she has 
agreed to continue serving in that role if confirmed.
    Ms. McGrath is an example of an individual who has dedicated her 
professional career to the civil service and has advanced through the 
ranks. She started at the Department in 1988 in the Navy Logistics 
Intern Program. I believe that professional internship programs in the 
Federal Government are a powerful tool to attract talent.
    She has since served as a logistics and acquisition manager, a 
Deputy Director in the Finance Accounting Service, an Assistant 
Principal Deputy Under Secretary in the Office of the Secretary, and 
now as Assistant DCMO.
    I will not go on with her qualifications, except to say that in my 
working with her, I have found her to be professional, knowledgeable, 
and confident. She has been a leader willing to look outside of the box 
to improve performance. She has been a tremendous resource to me and my 
staff, and I am confident that she will bring the same leadership to 
addressing other critical business needs at the Department.
    I have high hopes for this new office under Beth's leadership. The 
Chief Management Officer concept has proven powerful in other agencies, 
such as the Department of Homeland Security, in keeping a strict focus 
on management and process improvement. I hope that we will see the same 
from the DCMO position at DOD.
    Thank you Mr. Chairman. Again, I congratulate you, Beth McGrath, on 
your nomination to this position.

    Chairman Levin. Thank you very much, Senator Akaka. I know 
how important it is to our nominees that you are here to help 
introduce them. I know they're grateful, and so are we, for 
your comments.
    We welcome our nominees and their families. We appreciate 
the long hours and the other sacrifices that our nominees are 
willing to make to serve our country. Their families also 
deserve our thanks for the support that they provide. This is 
essential support to the success of these officials.
    All of our nominees are qualified for the positions to 
which they have been nominated.
    Ms. McGrath is a career civil servant who has worked in 
management positions in DOD for the last 20 years. We heard 
some details about her career from Senator Akaka, so I will not 
repeat that. But, I do believe that Ms. McGrath's rise through 
the ranks of DOD, and the basis of her qualifications and 
achievements, sends an important message, to the entire 
civilian workforce of the Department, that their dedication and 
their hard work can be rewarded.
    Mr. McCord has been a dedicated public servant for more 
than 25 years, including more than 10 years on the staff of 
this committee. We view Mike not only as a friend, but as a 
member of the Senate Armed Services Committee family. We were 
proud of his achievement when Mike was appointed Principal 
Deputy Under Secretary of Defense (Comptroller), last January.
    We were so proud of you, Mike, that we changed the law to 
ensure that you could come back here today as the President's 
nominee for the very same position.
    I just can't imagine anybody who is better qualified for 
this job than Mike McCord.
    Ms. Burke is a dedicated public servant. She spent 3 years 
at the Department of State, 7 years at DOD, 3 years at the old 
Congressional Office of Technology Assessment, before taking a 
series of jobs at nonprofit thinktanks. She's currently vice 
president for national security at the Center for New American 
Security. She's going to be introduced, later on, by a dear 
friend, who all of us on this committee--we have a couple of 
new members, perhaps, who have not yet met Senator John Warner. 
But, for those of us who worked with him, lived with him, 
laughed with him, cried with him, believe in him, and his great 
wife, Jeanne, it's always a treat to see you, John.
    The fact that you have brought Senator Warner with you, Ms. 
Burke, for this introduction, speaks volumes about you, but it 
also gives us an opportunity just to give an old friend a 
couple of hugs and a couple laughs.
    Senator Warner. Thank you, Mr. Chairman.
    Chairman Levin. Mr. Watson has had a 35-year legal career 
at the New York Times, in the course of which he's been 
awarded, among other honors, the Media Law Resource Center's 
First Amendment Leadership Award, the National Association for 
the Advancement of Colored People (NAACP) Legal Defense and 
Education Fund National Equal Justice Award, and the American 
Corporate Counsel Associate Distinguished Service Award.
    Ms. Hammack has spent more than 25 years of experience as 
an energy and sustainability professional with private 
industry. Currently, she is a senior manager at Ernst & Young, 
where she has developed an expertise in the evaluation of 
energy conservation projects, energy efficiency strategies, 
demand-side management programs, and marketing electricity in 
deregulated markets.
    If confirmed, our nominees will all play critical roles in 
helping to manage DOD at a time when we are fighting two wars, 
when we face a wide array of difficult acquisition, management, 
and financial challenges. We look forward to the testimony of 
our nominees, to their speedy confirmation, hopefully.
    I'll now call upon Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman.
    I welcome all the nominees and their families who accompany 
them today. Of course, a special welcome to our dear and 
beloved friend Senator Warner, who is here today to introduce, 
I believe, Ms. Burke. Is that correct? We won't hold that 
against you, Ms. Burke. [Laughter.]
    Of course, Elizabeth McGrath, as you mentioned, Mr. 
Chairman, is to be Deputy Chief Management Officer of DOD; 
Michael McCord, to be Principal Deputy Under Secretary of 
Defense; Solomon Watson, to be General Counsel of the 
Department of the Army; and Katherine Hammack, to be Assistant 
Secretary of the Army for Installations and Environment.
    Solomon Watson IV has been nominated to be General Counsel 
of the Department of the Army. Mr. Watson served from 1966 to 
1968 as an Active Duty lieutenant in the U.S. Army Military 
Police Corps. He performed distinguished military service in 
Vietnam, and subsequently commenced his long career with the 
New York Times Company, from which he retired in December 2006.
    Mr. Watson served as senior vice president and general 
counsel in New York Times Company from 1996 to 2005, and in 
December 2005 he was named senior vice president and chief 
legal officer. During his employment in these capacities, the 
New York Times published two stories, which revealed highly 
classified information, which I intend to discuss further in 
connection with Mr. Watson's nomination.
    The first, which was published on December 15, 2005, 
revealed the existence of what became known as the Terrorist 
Surveillance Program. This highly classified program was 
authorized by President Bush shortly after the attacks of 
September 11, 2001. It targeted communications where one party 
was outside the United States and reasonable grounds existed to 
believe that at least one party to the communication was a 
member or agent of al Qaeda or an affiliated terrorist 
organization. Although the White House asked the New York Times 
not to publish this article, arguing that it could jeopardize 
continuing investigations and alert would-be terrorists that 
they might be under scrutiny, the Times, after delaying 
publication, chose to run the story.
    As a result of the disclosure of the Terrorist Surveillance 
Program, then-Central Intelligence Agency Director Porter Gass 
testified before the Senate Intelligence Committee in February 
2006, ``The damage has been very severe to our capabilities to 
carry out our mission.'' I emphasize that he used the term 
``very severe'' intentionally. He also testified that the story 
had rendered intelligence sources, ``no longer viable or 
usable, or less effective by a large degree.''
    The second story, published on June 23, 2006, which also 
appeared while Mr. Watson was chief legal officer, revealed a 
secret government surveillance program about the Society for 
Worldwide Interbank Financial Telecommunication (SWIFT) 
program. The New York Times article disclosed that, shortly 
after September 11, 2001, SWIFT lawfully began providing the 
U.S. Government with financial information about possible 
terrorist-related transfers. Despite pleas to the New York 
Times by National Intelligence Director John Negroponte, 
Treasury Secretary John Snow, and by the cochairman of the 9/11 
Commission, Thomas Keane and Lee Hamilton not to publish 
information about the SWIFT surveillance program, the New York 
Times chose to disregard those pleas and published the story. 
Subsequently, even the Times' own public editor, Byron Calame 
criticized the decision to publish the story.
    After the committee received Mr. Watson's nomination, I 
sent a number of questions to him by letter about his 
involvement and evaluation of the publication of these stories, 
and Mr. Watson responded by letter on January 7.
    Mr. Chairman, I ask these letters be made a part of today's 
record.
    Chairman Levin. They will be.
    [The information referred to follows:]
      
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator McCain. I will ask him some additional questions 
today, in view of his nomination for this important DOD 
position, about his views regarding the release of this 
information and how he, as chief legal officer of the 
Department in the Army, would respond to public disclosures 
that endanger U.S. citizens, neutralize the effectiveness of 
classified defense programs, and harm national security.
    I acknowledge the government service and private-sector 
accomplishments of Mr. McCord, Ms. McGrath, Ms. Burke, and Ms. 
Hammack, and, again, thank them for their willingness to serve 
in these important positions in DOD.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    Senator Warner, we're going to call on you first, for your 
introduction so that you can be excused and go about your work.

  STATEMENT OF HON. JOHN WARNER, FORMER U.S. SENATOR FROM THE 
                       STATE OF VIRGINIA

    Senator Warner. I'm required to take the oath of office. 
[Laughter.]
    Chairman Levin. I think for us to administer an oath of 
office to you, Senator Warner, would suggest----
    Senator Warner. The law requires you to----[Laughter.]
    Chairman Levin. If you could share what the oath is with 
me, I'd be happy to----[Laughter.]
    Senator Warner. The whole truth and nothing but the truth, 
so help you God.
    Chairman Levin. I do. [Laughter.]
    Senator Warner. I thank you, distinguished chairman. It's 
an unusual framework of laws that will greet you when you 
depart the U.S. Senate, but I've lived by them very carefully, 
as each of you have.
    Chairman Levin. As always, you abide by the law. Frankly, I 
was not aware of that. Now we're going to have to look it up. 
But, we're glad that you pointed it out to us, because it's 
important that we abide by law. You're known for that, and we 
admire you for that, and we thank you for doing what your duty 
requires you to do this morning.
    Senator Warner. Mr. Chairman, needless to say, it's a very 
moving experience for me to appear in this capacity before this 
distinguished committee. I thank you and my dear friend for so 
many years, Senator John McCain.
    We go way back, Senator.
    Senator Inhofe, I duly report again to you and remember 
your distinguished Committee on Environment and Public Works. 
Senator Chambliss, Senator Thune.
    To our new members, you don't really appreciate, at this 
juncture, how fortunate you are to be a member of this 
committee. This committee has an extraordinary reputation, long 
in the history of the Senate, for its ability to handle issues 
of national security in the best interests of this country. I 
commend each of you and wish you well in the future.
    I shall be brief, and I'll ask unanimous consent that my 
statement be included in the record.
    Chairman Levin. It will be, of course.
    Senator Warner. I'm privileged to introduce this very fine 
professional to be the Director of Operational Energy Plans and 
Programs. I commend these committees, the military committees, 
for creating this new position, because if there's one issue 
that's important to this Nation today, I know of no greater 
than the subject of energy. DOD is the single largest user of 
energy of any entity, not only in the United States, but the 
entire world. To be a good shepherd of this responsibility in 
the Department is important. This position was created for that 
purpose.
    What the public may not know--and I say this with a sense 
of humility--is the extraordinary record of DOD and the 
military departments, in the past several years, to be in the 
very forefront of all issues related to energy. When a member 
of this committee and the Senate Environment and Public Works 
Committee, I followed the leadership shown by the Department, 
and have continued to keep myself informed in the ensuing 
years.
    I first met this very fine professional, when she, in the 
capacity as the vice president of her distinguished 
organization, held an extensive dinner meeting for about 25 
individuals, from the National Guard to every department of the 
military, to listen to them--what they're trying to do in the 
area of energy and, indeed, some on climate security. You may 
recall, Mr. Chairman, that I was privileged to join the 
distinguished former Senator, now Secretary of State, Mrs. 
Clinton, in sponsoring the legislation directing the Secretary 
of Defense to, in the forthcoming Quadrennial Defense Review 
(QDR), make certain provisions for these subjects, and I 
commend her for that foresight that Senator Clinton had at that 
time. The Department has moved out. The announcement of the QDR 
has a distinct provision in it on these subjects.
    The Department's record is a great story of public service. 
I would urge the committee this may be an opportunity to make 
that public. But, there's much more to be done, and this fine 
nominee, if confirmed, will give that leadership. She's ideally 
and uniquely qualified, to the credit of the President that he 
selected this candidate, where she's been working in the 
private sector to promote many of the varied goals on energy 
that DOD today is attaining and planning for the future. On a 
number of occasions, I've had the privilege to be with her when 
this candidate has publicly addressed a wide range of energy 
issues and, most significantly, come up with some suggested 
solutions.
    She's widely respected by her peer group of nongovernmental 
organizations, as well as being admired and trusted on her 
views by government leaders. Her exceptional career had its 
roots with membership on the staffs of two very distinguished 
former Members of the U.S. Senate, Senator Paul Sarbanes and 
Senator Chuck Hagel. As you stated, Mr. Chairman, she's 
currently the vice president of the Center for New American 
Security, where she directs the Center's work on the national 
security implications of global energy security. She held 
appointed positions in the U.S. Government as a member of the 
policy planning staff at the Department of State and as a 
country director in DOD's Office of Near Eastern and South 
Asian affairs. She also served on the staff of a former member 
of this committee, our esteemed friend, former Secretary of 
Defense William Cohen.
    Understandably, this exceptional professional, has been 
awarded many recognitions by both public and private 
institutions for her distinguished accomplishments, and I'm 
sure that's part of the record.
    If confirmed, she will become a national leader in the 
field of energy and add another chapter to her distinguished 
public service for the greater benefit of the American public.
    I thank the chair, the ranking member, and members of the 
committee.
    Chairman Levin. Thank you so much, Senator Warner. Thanks 
for coming here for that introduction. I know how important it 
is to the nominee and to us, and it is always great seeing you.
    Senator Warner. I thank you.
    Chairman Levin. Now, we're going to ask all of you standard 
questions, and you can answer them all together.
    Have you adhered to applicable laws and regulations 
governing conflicts of interests?
    [All five nominees answered in the affirmative.]
    Chairman Levin. Have you assumed any duties, or undertaken 
any actions, which would appear to presume the outcome of this 
confirmation process?
    [All five nominees answered in the negative.]
    Chairman Levin. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record in hearings?
    [All five nominees answered in the affirmative.]
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    [All five nominees answered in the affirmative.]
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    [All five nominees answered in the affirmative.]
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify, upon request, before this committee?
    [All five nominees answered in the affirmative.]
    Chairman Levin. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner, when requested by a duly constituted committee, 
or to consult with the committee regarding the basis for any 
good faith delay, or denial, in providing such documents?
    [All five nominees answered in the affirmative.]
    Chairman Levin. Thank you very much.
    As we call upon each of you, we'll call upon you in the 
order that you're listed on the amended notice here, please 
feel free to introduce members of your family or friends who 
have accompanied you here today.
    First we'll call upon Elizabeth McGrath, who has been 
nominated to be Deputy Chief Management Officer of DOD.
    Ms. McGrath.

 STATEMENT OF ELIZABETH A. McGRATH, NOMINEE TO BE DEPUTY CHIEF 
        MANAGEMENT OFFICER OF THE DEPARTMENT OF DEFENSE

    Ms. McGrath. Mr. Chairman, thank you and good morning. 
Ranking Member McCain, distinguished members of the Senate 
Armed Services Committee, I'm truly honored to be here today, 
humbled to be nominated by the President as the Department's 
first Deputy Chief Management Officer, and deeply appreciative 
of both Secretary Gates' and Deputy Secretary Lynn's support 
for my nomination.
    I want to extend a special thanks to Senator Akaka for his 
kind introduction. I've enjoyed our partnership on this 
committee and on others, and I look forward to continuing to 
pursue our shared goal of serving the needs of the American 
people.
    I also want to thank the members of this committee for all 
you have done for the troops and their families, whose efforts 
and sacrifice preserve the freedoms we enjoy today. If 
confirmed, I will work in partnership with this committee to 
ensure their mission is supported and enabled, the best it can 
be.
    I'm grateful to have my family here with me this morning, 
supporting me today, as they have done throughout my life. I 
would like to introduce to you my parents, Jim and Liz Bullock, 
and my two children, James and Christine. My father is a 1960 
graduate of the United States Naval Academy. His 20 years' 
dedicated service as a surface warfare officer instilled in me 
a deep respect for public service which inspires me to this 
day. I'm also pleased for James and Christine to have this 
chance to see our Federal Government in action. I'm certain 
they are happy to be here too, and not only because it's a day 
off of school.
    The committee's emphatic work in establishing the positions 
of both chief and deputy chief management officer highlights 
the challenges the Department faces in managing the business of 
defense. Current contingency operations and projections of 
complex future operating environments require processes and 
institutions that are more agile, innovative, and streamlined. 
The Department faces a clear mandate to modernize its business 
systems, and supporting processes, as part of an enterprise-
wide approach to business transformation. This is an enormous 
undertaking.
    To successfully modernize the business of defense, we must 
energize not only those who work in the business areas, but 
also other key leaders of the Department. In my 20-plus years 
working various business disciplines across DOD, I have 
observed that clear goals and sustained leadership commitment 
are critical to success. If confirmed, I would ensure that our 
business goals were well understood and that leadership 
engagement was sustained.
    The breadth and complexity of the Department's business 
operations would challenge the most qualified executive. Yet, 
despite their scope and scale, our business operations must 
efficiently and effectively enable the larger national security 
mission.
    DOD has the responsibility to secure our Nation, enable our 
warfighters, and steward the taxpayers' dollars. I'm keenly 
aware that defense dollars spent on duplicative, inefficient 
efforts is money not available to take care of our people, to 
win the wars we're in, and improve our capabilities. If 
confirmed, I would be honored to serve in the position of the 
Deputy Chief Management Officer, doing everything in my 
abilities to make the business of defense better.
    Mr. Chairman, members of the committee, I'd be pleased to 
answer your questions.
    Chairman Levin. Thank you very much.
    Mike McCord. Mike?

STATEMENT OF MICHAEL J. McCORD, NOMINEE TO BE PRINCIPAL DEPUTY 
            UNDER SECRETARY OF DEFENSE (COMPTROLLER)

    Mr. McCord. Thank you, Chairman Levin, Senator McCain, and 
members of the committee. It's a pleasure to be back here with 
the committee, where I served for so many years and had the 
opportunity to learn from the outstanding public servants who 
have led the full committee as chairman and ranking member 
during my time here, such as Chairman Levin and Senator McCain 
today, and former Chairman Sam Nunn and John Warner, as well as 
those who served as my chairman and ranking member on the 
Readiness Subcommittee, Senator Akaka, and former Senators John 
Glenn and Chuck Robb.
    I thank Senator Akaka for his kind words, which are so 
characteristic of him.
    I also want to recognize my friends and colleagues on the 
staff, including those who continue today to uphold the 
committee's high standards, such as Rick DeBobes and Chris 
Cowart, as well as their predecessors over the years, including 
especially people like David Lyles and John Hamre, who took the 
time to mentor me when I was new here, quite awhile ago now.
    Whether we serve in the executive or legislative branch, I 
think we all feel that sense of shared responsibility for our 
national security. During my career, I have often felt that the 
two common images, of partisanship or ineffectiveness, that 
serve as caricatures of Washington, bore little, if any, 
resemblance to what I saw here inside the committee.
    It's impossible for me to do justice today to all those 
that I've worked with or for, or what this committee has 
accomplished during all those years, but I would pick just one 
thing, and that's the opportunity to work with former Senator 
John Glenn, who was my first subcommittee ranking member when 
Senator McCain was chairman of the Readiness and Management 
Support Subcommittee in the 1990s. John Glenn is a hero to so 
many Americans, but especially to those of us, like my mother 
and I, who grew up in Ohio. To have had the opportunity to work 
with such a dedicated public servant and wonderful human being 
was a treat I never could have imagined when I graduated from 
Ohio State University, years ago.
    I would like to introduce my family. My mother, Anne, has 
come from Ohio to be with me today, and I'm grateful for her 
guidance and support. I'm especially pleased that both of my 
wonderful daughters could be here with me today, Alejandra, 
who's here from Boston, and Meredith, from Virginia. They grew 
up during my career on the Senate Armed Services Committee, and 
although that path was my choice, and not theirs, they shared 
in the sacrifice that the long hours, required on the 
committee, imposes on a family. I thank them for their 
understanding.
    I'm grateful to the President for appointing me, last year, 
to the position I currently hold, and then for nominating me to 
that same position after it changed to a confirmable one by 
last year's authorization bill. I'm proud to be part of the 
team serving under the President, Vice President Biden, 
Secretary Gates, and Deputy Secretary Lynn.
    It's also a great pleasure to serve under the Comptroller, 
Bob Hale, who was confirmed by this committee last year. We in 
the comptroller family are fortunate to have a boss of his 
caliber.
    There's a strong sense of mission in DOD that I've felt 
since I've been there. You cannot help but feel it when you're 
in the presence of Secretary Gates or when you're with our men 
and women in uniform, especially those who are in harm's way, 
and I think that sense flows from the troops to our Secretary 
and back again.
    The staff of the comptroller team that Bob and I are 
privileged to lead are very capable and work extremely hard to 
do their part to ensure the Department can accomplish its 
missions; in particular, to respond to the ever-changing needs 
of the military at war. We have no shortage of challenges.
    Should I be confirmed, I will continue to do my best to 
support our military, the comptroller organization that 
supports them, our Secretary, our Commander in Chief, and our 
Constitution.
    Thank you.
    Chairman Levin. Thank you very much, Mr. McCord.
    Ms. Burke.

    STATEMENT OF SHARON E. BURKE, NOMINEE TO BE DIRECTOR OF 
             OPERATIONAL ENERGY PLANS AND PROGRAMS

    Ms. Burke. Thank you, Mr. Chairman, Senator McCain, members 
of the committee. I very much appreciate the opportunity to 
appear before you today and that you will consider my 
nomination to be the Director of Operational Energy Plans and 
Programs at DOD.
    I'm grateful for the confidence that President Obama has 
shown in me by nominating me for this position, and I thank 
Secretary Gates, Deputy Secretary Lynn, and Under Secretary 
Carter for their support for my nomination.
    Of course, I owe special gratitude to Senator Warner. He 
had a remarkable career here in the Senate, and it's even more 
remarkable that he continues his service to the Nation as a 
private citizen. I'm very grateful to him for all of his 
support.
    I also deeply appreciate the encouragement and enthusiasm 
of my family, and especially, my husband Paul Fagiolo, and my 
sons, Anthony and Thomas, who are here today; along with my 
father-in-law, Romeo Fagiolo; he's here today, as well. His 
service to the Nation in the Rainbow Division during World War 
II continues to be a great inspiration to me, along with that 
of my own late father, Tom Burke, who was a marine in the Cold 
War. In fact, I hope that, if I am confirmed in this position, 
that my service to the Nation will make them as proud of me as 
I am of them.
    This committee and Congress have shown an acute interest in 
the issues of operational energy by creating this new position 
for which you are considering me today. The President and the 
Secretary of Defense have, likewise, placed a very high 
priority on the energy security of the Nation, and specifically 
to energy posture of DOD. I believe that my experience in 
national security, energy security, and in the Office of the 
Secretary of Defense have prepared me well to help advance 
these priorities. If I am confirmed, I will be tremendously 
honored to work with this committee, with Congress, as well as 
partners across the defense enterprise and in the private 
sector, to address and advance these important issues.
    I thank you again for the opportunity to appear here today.
    Chairman Levin. Thank you very much, Ms. Burke.
    Mr. Watson.

   STATEMENT OF SOLOMON B. WATSON IV, NOMINEE TO BE GENERAL 
             COUNSEL OF THE DEPARTMENT OF THE ARMY

    Mr. Watson. Thank you, Mr. Chairman, Ranking Member McCain, 
and distinguished members of the Senate Armed Services 
Committee. It's a great honor to have been nominated by 
President Obama to be General Counsel of the Army, and to be 
before this committee today.
    I'm also very grateful for the confidence and support of 
Secretary of the Army McHugh.
    I want to thank my extended family for their support. 
Brenda Watson, my wife of 25 years, is with me today, and I 
want to introduce her and to note my appreciation for her. My 
twin daughters are here, along with their husbands and 
children. I note that my 4-year-old twin granddaughters are 
learning to recite the Pledge of Allegiance in their pre-K 
school. Two sisters, a brother, and a nephew round out the 
family contingent. All together, they are a great and 
supportive unit, and I owe them a debt of gratitude for the 
patience that they've shown me over the years.
    I have had an almost lifelong affinity for the Army, 
starting out by seeing photos of our father, an Army veteran, 
in uniform. Two of my brothers served the military honorably. 
One of my brothers, a marine, paid the ultimate sacrifice, 
resulting in our mother's being among the Gold Star Mothers.
    My formal relationship with the Army began with advance 
Reserve Officers' Training Corps (ROTC) at Howard University. 
After graduating in 1966, I entered the Army as a 2nd 
Lieutenant. I did a tour in Vietnam during 1967 and 1968. While 
there, I met Captain Steve Swartz and Lieutenant Michael 
Cahill. It was Swartz that persuaded me to go to law school. It 
was Cahill who served with me in the 9th Division Military 
Police (MP) Company, and I'm honored that my colleagues are 
here with me today.
    I've been a lawyer in the private sector for 35 years. 
Anyone who has worked with me know that the Army and its 
soldiers are not far from my heart or from my mind. Indeed, I 
have always maintained that my military experience was very 
important in my success as a lawyer and an executive.
    Our Army, the world's greatest, is undergoing a substantial 
transformation as it fights two contingency operations and 
deals with the many changes and challenges of the 21st century. 
Throughout my career, I have worked successfully in challenging 
and changing legal, regulatory, and business environments. I'm 
here today as a volunteer, because, if confirmed, I would like 
to make a contribution, in any way I can, to support our Army's 
efforts. If confirmed, I pledge to work with the outstanding 
civilian and military lawyers in the Department to ensure the 
provision of quality, candid legal advice. If confirmed, I will 
put the interests of our country, our Army, and the rule of 
law, above all others.
    Thank you for the opportunity to be here today. I look 
forward to your questions.
    Chairman Levin. Thank you, Mr. Watson.
    Ms. Hammack.

  STATEMENT OF KATHERINE G. HAMMACK, NOMINEE TO BE ASSISTANT 
    SECRETARY OF THE ARMY FOR INSTALLATIONS AND ENVIRONMENT

    Ms. Hammack. Mr. Chairman, Ranking Member McCain, and 
distinguished members of the Senate Armed Services Committee, 
it is an honor and a privilege to appear before you today. I am 
humbled and deeply honored that President Obama had the 
confidence and Secretary McHugh supported my nomination to be 
Assistant Secretary of the Army for Installations and the 
Environment.
    Before I go much further, I would like to recognize my 
family and friends who have joined me here today. First of all, 
my son, Alex, who is going to Arizona State University, 
majoring in sustainability, and also skipping school today. My 
mother, Mary Kate Dellett, also traveled here from Arizona, and 
my brother, Steve Dellett, traveled here from Illinois. Three 
friends have also joined me--Rebecca Truelove, Gopika Parikah, 
and David Matthew. I'm very honored and grateful for their 
encouragement and their support.
    Coming to Washington, DC, will be a return to the place 
where I was born. My father, who is now deceased, was a captain 
in the Air Force, stationed at Fort Myer while my mother worked 
in Washington, DC, at the State Department. I was born after my 
father left the Air Force and was studying law at George 
Washington University College of Law.
    The Army is tackling many challenges today. First of all, 
there's a need to complete the Base Realignment and Closure 
(BRAC) process in a timely manner while still supporting our 
troops' unit readiness in an era of persistent conflict. 
Providing quality housing for soldiers, wounded warriors, and 
their families is critical to restoring a sense of balance in 
the Army. In addition, the 2010 QDR highlighted the importance 
of crafting a strategic approach to climate and energy. The 
White House, in addition, has identified a goal of a 28-percent 
reduction in greenhouse gas emissions by 2020, as called for in 
Executive Order 13514, and an objective of zero net energy in 
all new Federal facilities by 2030.
    I have almost 30 years of experience in energy and the 
environment in the private sector. In the varieties of 
experience I've had over my career, I've obtained many lessons 
learned and seen best practices. It is the application of those 
best practices, leadership experience, and the knowledge 
gained, that I look forward to bringing to the role of 
Assistant Secretary of the Army for Installations and the 
Environment.
    Over the weekend, I was able to take my son to Arlington 
Cemetery to view the burial place for both of my grandparents. 
While there, we visited the John F. Kennedy Memorial, where we 
saw the quote ``Ask not what your country can do for you, but 
what you can do for your country.'' I'm here today to ask for 
the confirmation of my role to serve my country as Assistant 
Secretary of the Army for Installations and the Environment.
    Thank you very much.
    Chairman Levin. Thank you very much, Ms. Hammack.
    We have a lot of nominees, but let's try 8 minutes of 
questioning for our first round, and hopefully we'll have time 
for a second round, should that be needed.
    First, Ms. McGrath, let me ask you this question. Over the 
decades, we have made many efforts to get DOD's business 
systems to function efficiently and in a coordinated way. It 
seems that almost every time we try to acquire a new business 
system which could operate that way for the Department, it is 
over budget, comes in behind schedule, doesn't meet user 
expectations. The Defense Integrated Military Human Resources 
System (DIMHRS) is just the latest example of that failure. 
What, in your judgment, Ms. McGrath, are the most important 
steps that the Department needs to take to get better results 
out of business systems acquisitions?
    Ms. McGrath. Sir, thank you for the question. DIMHRS, I 
would agree, is an example proving our ability not to deliver 
on-time, large-scale, information technology (IT) 
implementations. A lot of the issues associated with the IT of 
acquisitions stem from the lack of business process 
reengineering. In the National Defense Authorization Act for 
Fiscal Year 2010, specifically section 1072, now provides that 
requirement for us in the Department to ensure that we conduct 
appropriate level of business process reengineering. That will 
be paramount to ensuring effective delivery.
    Requirements creep, or appetites suppressant in terms of 
requirements, is also an area that we have struggled with. Our 
IT implementations tend to look 5 to 7, 10 years toward final 
implementation. A different approach, focused on more near-
term, incremental improvements--18 months is what industry 
typically fields--is absolutely necessary to ensure the user 
gets what they want, that they stay closer to the budget, as 
planned, and that we actually have an effective IT solution.
    Chairman Levin. It's important that you keep in touch with 
this committee. This is, frankly, been a long and very 
frustrating road. We've appropriated a lot of money, authorized 
a lot of money, in the case of this committee, to put together 
some business processes which work, and we have, so far, really 
not had much success. Would you, if confirmed, get back to this 
committee with a report, within 60 days, as to progress that 
you're making, what the challenges are, what your plans are, 
and also tell us whether or not you have consulted with some of 
the great IT geniuses that we have in this country? Obviously, 
they can't be part of companies which would bid on anything, so 
you'd have to be talking to people who would not have that kind 
of a conflict of interest. But, we have such incredible 
geniuses in America in this area, the idea that we've been 
unable to get the job done inside DOD's business systems, to 
me, is totally unacceptable. Will you get back to us within 60 
days?
    Ms. McGrath. Yes, sir, if confirmed, I'd be happy to do 
that.
    Chairman Levin. Thank you.
    Mr. McCord, let me talk to you about a similar problem. In 
last year's authorization bill, we required DOD to work towards 
an auditable financial statement by the end of 2017--if my eyes 
are not deceiving me, 2017. What is the Department going to 
need to do to accomplish that objective, which seems awfully 
minimal, nominal? What role are you going to play, when you're 
confirmed, in this effort?
    Mr. McCord. Thank you, Mr. Chairman. Yes, the date is 2017. 
In my view, there's three things you need to achieve that. You 
need correct data, you need the systems that produce that data, 
and you need trained people. I think you can't do it with just 
two, you need all three.
    Mr. Hale, the Comptroller, has laid out his priorities for 
how to get there. His focus is to concentrate on the 
information that managers in the Department use most. That 
information is particularly in what's called the Statement of 
Budgetary Resources. That's his priority of how to start down 
the path to get there. If confirmed, my role would be to 
support Mr. Hale, who is the Chief Financial Officer, and our 
Deputy Chief Financial Officer (DCFO) and his team. The DCFO is 
part of our comptroller organization that plays the lead role 
in that, and I would support them, as Mr. Hale directs.
    Chairman Levin. Since September 11, DOD has paid for much 
of the cost for the wars in Afghanistan and Iraq through 
supplemental appropriations. This is addressed to you, Mr. 
McCord. The current administration has responded to 
congressional concerns by submitting full-year funding requests 
for 2010 and 2011. The budget for 2011 includes a 2010 
supplemental request of $33 billion for an additional 30,000 
troops in Afghanistan, bringing the total 2010 funding for 
overseas contingency operations to $163 billion. Second, the 
budget for 2011 includes a full-year war funding request of 
$159 billion for fiscal year 2011. Third, a placeholder request 
of $50 billion for overseas contingency operations for each 
year after 2011--$50 billion in 2012, $50 billion in 2013, $50 
billion in 2014, and $50 billion in 2015.
    Number one, why is the Department including placeholder war 
funding total for the out years? Second, why $50 billion? What 
is the basis for that kind of a placeholder number? Why not 
$100 billion or some other amount? I'll leave it at that.
    Mr. McCord. Thank you, Mr. Chairman. As you said, it has 
been the practice of the administration to try and budget as 
accurately as we can for the budget year that we're in and that 
is before Congress at any time. We've done that for fiscal year 
2011, as we did last year. The supplemental to which you 
referred, for fiscal year 2010, was solely because of the 
surge, which was a later decision by the President.
    The placeholder in the out years was a subject of great 
debate internally last year. This year, we basically followed 
the decision we reached last year, which was to not attempt to 
forecast with great precision, precision that really was not 
available to us, what would happen that many years in advance, 
and to clearly communicate to the public, to Congress, and to 
people in Afghanistan and Iraq, that we were not making a 
particular projection, and to clearly state that it was a 
placeholder that was not intended to make a policy judgment 
about events of 2012 or 2013 or 2014, today. The number 50, I 
think that was a decision by the Director of OMB, primarily. As 
you state, it could have been some other number, but we felt 
that it was important to have it not be zero, as in the past, 
but to make it a hundred would have sent, maybe, a message that 
was not intended. So, we decided to make it something that was 
clearly a placeholder, and to so state in the budget documents 
of the President.
    Chairman Levin. Thank you very much, Mr. McCord.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    Ms. McGrath, how far off is the Department from being able 
to produce a clean audit?
    Ms. McGrath. I understand the Department's current 
projection is 2017.
    Senator McCain. You think they'll make that?
    Ms. McGrath. I think that, each year, they'll make progress 
against that goal. I think that the focus that Mr. Hale has put 
on, in terms of their prioritization of the efforts and the 
leadership attention and management controls within that 
Department, gives them a higher probability than they had 
previous to that.
    Senator McCain. So, you think we'll make the goal.
    Ms. McGrath. I think that they will make progress against 
the goal. I think time will tell as to whether or not they're 
able to hit the 2017 goal. I will also include that it is an 
aggressive goal and it is tied to the successful implementation 
of our IT systems, as the question that was previously asked of 
me. Enterprise resource planning. The success of the Department 
lies not only on the internal controls, but the ability of our 
systems to deliver.
    Senator McCain. I think most Americans would be astonished 
to know that we have never been able to have an audit of the 
largest expenditure of taxpayers' dollars, a half trillion 
dollars. I hope you work on it. It's a lot more complicated 
than we know, including the legacy systems that are not even 
recording transactions. It's a very frustrating thing, and I 
hope you'll give it a very high priority.
    Mr. McCord, the appropriations bill from last year 
contained a last-minute earmark that was air-dropped in, in the 
final days of the conference, for $300 million to be spent by 
DOD for ``medical transportation infrastructure.'' Are you 
familiar with that earmark?
    Mr. McCord. Yes, Senator.
    Senator McCain. Yet, I understand the general counsel says 
it doesn't allow the Department to expend those monies as 
directed by the legislation. Is that true?
    Mr. McCord. The Department believes it cannot execute the 
money, as written currently, that is correct.
    Senator McCain. You are aware of the situation. Are you 
aware of anyone in DOD who is working with the Appropriations 
Committee to find a way to spend these monies?
    Mr. McCord. I believe the Deputy Secretary met with some 
Members of Congress last week, including members of the 
Appropriations Committee, to discuss the problem, that the 
money could not be executed as spent.
    Senator McCain. In other words, they're trying to spend the 
money.
    Mr. McCord. Congress enacted the funds, and, as with most 
funds, I think Congress intended them to be spent as enacted. 
Yes.
    Senator McCain. Have you figured out what ``medical 
transportation infrastructure'' means, except that it has to be 
spent in Maryland and Virginia?
    Mr. McCord. The statute does not speak to Maryland, 
Virginia, or any other place. I think ``medical 
infrastructure''--``transportation infrastructure'' is 
generally taken to mean roads.
    Senator McCain. I think you ought to double check. I think 
that is earmarked for Maryland and Virginia, Mr. McCord. But, 
do you know what it means, ``$300 million for medical 
transportation infrastructure''?
    Mr. McCord. Again, I think ``transportation 
infrastructure'' is--generally, in the United States, roads, 
which is the primary mean of transportation in this country. 
But, it could be transportation encompasses buses and subways 
and things, as well.
    Senator McCain. So, we throw $300 million at ``medical 
transportation infrastructure.'' No wonder Americans are 
steamed.
    Mr. Watson, in your response to my letter, you cited the 
rationale for publication that was given by the executive 
editor of the New York Times, whom you stated made the decision 
to publish these stories, the Terrorist Surveillance Program 
and the SWIFT program. I'd like to know your personal opinion, 
today, with the benefit of hindsight, about whether publication 
of these stories was justified.
    Mr. Watson. Thank you, Senator. I think it's important for 
me to state for this committee that, as a public citizen and a 
former defender of this country, that I do not like to see 
information based on classified information in the public 
domain. That relates both to our national security and our 
military intelligence processes.
    Senator McCain. Again, I'd appreciate it if you'd answer 
the question. Do you believe that the publication of these 
stories was justified?
    Mr. Watson. Senator, the publications of those stories were 
consistent with the law as it stood at the time they were 
published. There was not a violation of the law to publish 
those stories.
    Senator McCain. I'd ask one more time. Your personal 
opinion, with the benefit of hindsight, do you believe that the 
publication of these stories was justified?
    Mr. Watson. Senator, that puts me in a sensitive position 
of commenting on discussions related to a story that I'm 
responsible for the lawyering on, and I have somewhat of a 
tough legal line to tow on that. But, I wish I could emphasize 
sufficiently my concern and to state that, were I fortunate 
enough to be confirmed in this position, I would take an 
aggressive action against anyone in the Department of the Army 
who leaked classified information.
    Senator McCain. Mr. Watson, when we have hearings here for 
nominees to the administration, no matter what the 
administration is, we ask for people's personal opinion on 
issues. I don't see any reason why you couldn't respond to the 
question, and I'll ask it for the fourth time. I'd like to 
know, in your personal opinion, with the benefit of hindsight, 
about whether publication of these stories was justified. I'm 
simply asking for your personal opinion.
    Mr. Watson. Senator, my opinion is that the decision to 
publish them was justified. Were it my decision to make, I 
would not have made that decision. I take that as to say that, 
``No.''
    Senator McCain. I thank you. Did you have any role or 
responsibility for decisions made by the New York Times in the 
role of general counsel, did you have any role or 
responsibility for decisions, made by the New York Times, which 
involved disclosure of classified national security 
information?
    Mr. Watson. The role of the general counsel is merely to 
provide legal advice to the newsroom department which makes an 
editorial decision. As the general counsel, I'd be responsible 
for the legal advice that was given. In connection with 
reviewing such a story, I'm sure that there would be a 
discussion about the potential impacts of that story on 
national security, sir.
    Senator McCain. You had a role and responsibility for these 
decisions?
    Mr. Watson. Not for these specific decisions. I was not 
involved in reviewing these particular stories. The person 
responsible for reviewing these stories was the deputy general 
counsel, who succeeded me as general counsel.
    Senator McCain. I say with great respect, I would think 
that a decision of this impact, two highly classified programs, 
that perhaps the general counsel would have at least played an 
advisory role. But, I thank you.
    I thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    I just wanted to thank each of you for your willingness to 
take these jobs and these nominations. I appreciate your time 
here, and I appreciate all of your family members being here 
with you today.
    Ms. Burke, I wanted to also mention that one of my nephews 
recently had you in a class, and said that you were an 
excellent professor. I just thought I'd share that with you.
    Secretary Mabus has committed the Navy and the Marine Corps 
to a series of ambitious goals that are aimed at reducing the 
energy footprint of our Nation's expeditionary forces. Senator 
Warner, in his opening comments, made the comment about how 
much energy that our military uses across the world.
    Ms. Burke, as Director of Operational Energy Plans and 
Programs, what contributions will you be able to make in 
assisting the Navy and Marine Corps towards reaching these 
objectives?
    Ms. Burke. Thank you, Senator. I can say that your nephew 
Tyler was also an excellent student.
    The Director of Operational Energy Plans and Programs, by 
statute, has a role in coordinating, overseeing, and helping to 
manage all of the Services in their energy postures, on the 
operational side. If I were confirmed in this job, it would be 
my job to oversee all of their planning in this area, and also 
to be the lead agent for an operational energy strategy for 
DOD. I would have oversight and would help them define better 
what the mutual goals are. I think the challenge there is to 
make sure that it works across the Services and also 
differentiates for the different roles and missions.
    Senator Hagan. Do you have any specifics, that you could 
share with us today, that you would like to see beginning to be 
implemented?
    Ms. Burke. Yes, Senator. One of my top priorities, if I'm 
confirmed, is to make sure that deployed forces have the 
opportunity to be as effective as possible in their missions. I 
believe that right now energy is a vulnerability and a 
constraint on our deployed forces, and that we can do better in 
that area.
    Senator Hagan. Meaning the energy for the deployed forces--
can you give me an example of what you're talking about?
    Ms. Burke. Sure. For example, forces who are deployed in 
Afghanistan have a long fuel supply line. The convoys that are 
taking out are either run by contractors or a required version 
of combat forces for protection. It's a burden on the force, 
and also it can compromise mission effectiveness if you're not 
able to get the fuel you need. These are very fuel-intensive 
operations.
    I think our first mission in this job, if confirmed, is to 
make sure that our deployed forces have better options 
available to them.
    We also need to look at the business processes of the 
Department, make sure that they account for the full cost and 
the full burden of energy.
    Senator Hagan. One other question. There are currently a 
number of offices within DOD, as well as the Department of 
Energy and the national labs, that have an interest in 
capturing the benefits associated with any innovation that we 
have in energy research. If confirmed, do you envision your 
office playing a leadership role within DOD in research, 
development, and advancement of alternative energy 
technologies? How do you expect to reconcile the efforts of 
your office with those of the other stakeholders?
    Ms. Burke. Senator, my office, by statute, would have a 
lead role, if I'm confirmed, in that regard. I believe it will 
be very important to work with Ms. Hammack, if she's confirmed, 
and with all of her colleagues, to leverage the expertise and 
the experience that we already have in the Department and 
across the Government in these issues. There was a Defense 
Science Board report in 2008 on this topic, and it identified 
as one of the major missing elements in the Department's energy 
posture is leadership. I believe that Congress was very smart 
in creating this job so that it could catalyze the leadership 
necessary, and that's what, if confirmed, I would look forward 
to providing.
    Senator Hagan. Thank you.
    Ms. Hammack, I served for 10 years in the State Senate in 
North Carolina, and during those years we were obviously 
involved in the BRAC work. We were concerned about the 
encroachment of development taking place around military bases. 
We wanted to be sure to do whatever we could to protect those 
areas, so that they weren't developed, so that our military 
bases had room to conduct the training and exercises that 
needed to be done at our bases. If confirmed, what measures do 
you intend to pursue in order to address the pressures of 
encroachment at our military installations?
    Ms. Hammack. Thank you, Senator. I understand that there 
are several measures that the Army is already taking on 
encroachment. Some of them have to do with alternative uses, so 
that the land around it is put to a usable purpose, yet is 
defined as not available for development. I think some of those 
are successful, and, if confirmed, I look forward to expanding 
those programs and investigating other alternatives.
    Senator Hagan. How about the funding stream?
    Ms. Hammack. Some of the funding streams could be through 
the enhanced-use lease or through other mechanisms already in 
place. But, that certainly is a challenge that I will look 
into, if confirmed. Thank you.
    Senator Hagan. Mr. Watson, in your response to the 
committee's advance policy questions regarding whether or not 
the Uniform Code of Military Justice (UCMJ) provides 
appropriate jurisdiction over alleged criminal actions in areas 
of combat operations, you noted that both the Department of 
Justice and DOD play a role in determining appropriate 
jurisdiction. With respect to contractor employees in areas of 
combat operations, what do you believe to be the determining 
factors for whether DOD or the Department of Justice should 
exercise jurisdiction?
    Mr. Watson. Thank you, Senator. I've not studied that area 
in depth, but would do so, if confirmed. My view is that the 
decision would have to be made on a case-by-case basis, perhaps 
depending on the nature of the allegation, the jurisdiction 
that the allegation took place in, and the kinds of issues that 
it would raise, either consistent with those which had been 
tried under the UCMJ or those which had been handled by the 
Department of Justice.
    Senator Hagan. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Hagan.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Ms. Burke, in my office we talked a little bit about 
alternative fuel sources, that we have to continue the research 
in the cellulosic and algae landfill waste and other biofuel 
options. I voiced my concern that we must, in the near term, in 
the mid-term, develop and produce alternative fuels using 
proven technologies. Now, I'm talking about your gas-to-liquid 
and your coal-to-liquid. Unfortunately, section 526 creates a 
cloud over some of the Federal agencies from entering into a 
contract for an alternative or synthetic fuel of any mobility-
related use, other than for research. In other words, to 
actually use in combat. When asked about potential impact on 
national security in the near- and mid-term, if this country 
did not start the development of the organic production 
capabilities of alternative fuels--correct me if I'm wrong on 
what you stated twice--that you didn't see that we're going to 
have a supply problem. Is that correct? Or, that we do not have 
a supply problem?
    Ms. Burke. Senator, I would say that we have volatility 
problems with our supply, and certainly tactical issues with 
supplies, with deployed forces that are actually independent of 
any alternative fuels. Our supply problems on the front have 
nothing to do with any alternatives. As for whether or not we 
have a supply problem, I believe what I said, if I recall 
correctly, is that I believe our military forces will not have 
a supply problem in the near- to mid-term, regardless of what 
happens in the larger market. That does not mean that we 
shouldn't be concerned about volatility and other issues with 
supplies, but I don't believe our military forces will----
    Senator Inhofe. All right. In the fiscal year 2010, of our 
authorization bill, in our conference report, the conferees 
acknowledged that section 526 was not intended to preclude DOD 
from purchasing the fuel it needs, and that clarification is 
required. Do you think clarification is required?
    Ms. Burke. Senator, I would have to study that and also 
would want to look at that, if confirmed, in the context of 
what people at DOD think.
    Senator Inhofe. Okay, do you believe, Ms. Burke, that 
importing the majority of our oil supplies put this country at 
risk? Our dependency on foreign oil?
    Ms. Burke. Senator, I do. I think it's a security risk.
    Senator Inhofe. Yes, and I agree. I agree with that.
    Now, in October of this past year, 2009, a report from the 
Congressional Research Service revealed that America's combined 
recoverable natural gas, oil, and coal endowment is the largest 
on Earth, larger than Saudi Arabia, China, and Canada, 
combined. Now, I'd be in a position to make a statement, and 
back it up, that if we did not restrict our own development of 
our own resources, that between Canada and United States we 
would not have to import oil from other countries. Right now, 
in terms of natural gas at the rate of use, we have enough 
natural gas to meet our demand for the next 90 years. We have 
all of these opportunities. Right now in Canada, in 2008, they 
had 1.3 million barrels a day; it should be up around 2 and a 
half million barrels a day today. So, coming to that 
conclusion, along with compressed natural gas and what we're 
doing, I believe that we could be energy independent from 
outside of the North American continent today. Do you agree 
with that?
    Ms. Burke. Senator, first of all, I would say that our 
military forces will not be energy independent, because we do 
procure our fuel where the forces are deployed, so my focus, if 
I'm confirmed in this job, is our military forces.
    Second, I know that you and I have a difference of opinion 
on this, but I consider the security risks of added greenhouse 
gases to be important, as well, and would not promote the use 
of fuels that are carbon intensive.
    Senator Inhofe. We have a job description. Part of your job 
is to look after our national security, in terms of having an 
adequate oil supply. I'm going to read what DOD stated just 
recently, ``Finally, even a narrow interpretation of 526, in an 
effort to reduce the uncertainty and the scope of section 526, 
could still limit the Department's flexibility in making 
emergency fuel purchases--overseas fuel purchases and purchases 
at commercial stations and airports. Currently, there is no 
method to determine whether fuel purchased at these locations 
meet the requirements of section 526.''
    The question I'd ask you is, how could they know? How could 
they know that they would meet the requirements?
    Ms. Burke. Senator, I think it's an excellent question that 
I'm not able to answer at this time, and would certainly want 
to look into, to find out whether or not section 526 restricts 
military operations in that way.
    Senator Inhofe. Okay. Why don't you do that, because in the 
event that it does restrict military operations, there's no way 
that they can know, because we know that they have to purchase 
fuel in places where they can't really determine in advance--
could be South Africa, it could be any place else. We know that 
there are no means of making a determination as to whether or 
not these fuels that they purchase are consistent with the 
requirements of 526. The question I would have of you is, 
assuming that's true, would you have any problem authorizing 
the use of fuels, where you don't know for certain whether or 
not they comply with 526?
    Ms. Burke. Senator, I would have to look into that, to be 
able to answer that question better. But, I will say that, if 
I'm confirmed in this job, I see my top priority would be 
mission effectiveness of our force. That would certainly be a 
guiding principle. But, as to the specific question, I would 
have to find out the answer to that.
    [The information referred to follows:]

    Combined effect on military operations dealing with the National 
Defense Authorization Act for Fiscal Year 2010, section 526, the 
findings of an October 2009 Congressional Research Service (CRS) report 
on American natural gas, oil, and coal resources, and sole-sourcing 
domestic energy.
    My understanding is that the Department of Defense (DOD) is looking 
into concerns about section 526 of the 2007 Energy Independence and 
Security Act; as this is a matter of internal deliberation, I do not 
know the details. In my view, although DOD should of course comply with 
the law, I do not believe it was the intent of this law to constrain 
military operations in any way. If confirmed, I would seek to clarify 
--and correct, if need be --this matter.
    Concerning the October 2009 CRS report, I do not see an operational 
energy connection between the report's findings and DOD's compliance 
with Section 526, given the inability of DOD or the commercial sector 
to differentiate among sources of fuels that go into the United States 
and global distribution chain. The CRS report does do a good job of 
highlighting the potential for domestically-produced fuels, as well as 
the concerns and constraints. Generally, the report finds that while 
the United States has significant technically recoverable fossil fuel 
resources, the expense involved in recovering them also will be 
significant, to be borne by industry and consumers or by the Federal 
Government and taxpayers.
    Nonetheless, the United States, including the U.S. military, is now 
overwhelmingly dependent on fossil fuels and is likely to be for some 
time. All fueling options need to be on the table and given due 
consideration: DOD has to be able to procure whatever fuels the 
military needs to conduct its operations, in a way that is as reliable 
as possible while minimizing opportunity costs. In my view, in today's 
military operations, there are energy alternatives, on the supply and 
demand sides, that the Services should be adopting in order to lower 
operational risks and improve effectiveness. In the longer term, the 
military's dependence on petroleum products constitutes a stark 
vulnerability and it is appropriate and even necessary that in addition 
to pursuing demand management today, the Department research and 
develop other energy alternatives.

    Senator Inhofe. All right. In your written statement, you 
said, ``One of my job priorities would be force protection in 
these areas--and a global operation against terrorist 
organizations.'' I would assume, then, that you believe that 
national defense is one of your top priorities, in terms of the 
availability of fuel to carry out the missions that we have to 
carry out.
    Ms. Burke. Yes, Senator, I believe that this job, as it's 
defined in the statute, its role is to improve the mission 
effectiveness of U.S. forces.
    Senator Inhofe. Okay.
    Ms. Burke. Both the future force and the current force.
    Senator Inhofe. All right.
    Mr. Watson, I was trying to follow along here, and I'm 
looking at your background. You were with the New York Times 
for how many years?
    Mr. Watson. Thirty-two, Senator.
    Senator Inhofe. Thirty-two years, and you were general 
counsel from 1989 to 2005. Is that correct?
    Mr. Watson. Yes, Senator.
    Senator Inhofe. It was during that timeframe that we had a 
lot of problems that came up, that surfaced, where the New York 
Times was notified, in terms of some of the things that they 
were using, and what they were reporting, that this could be a 
problem with our security, specifically talking about the 
Terrorist Surveillance Program (TSP) and other classified 
materials. You're aware that the New York Times, during that 
period of time, was notified by DOD, or the Pentagon--I'm not 
sure who actually did it--that the release of this information 
could impair our national security. Is that correct?
    Mr. Watson. Yes, Senator.
    Senator Inhofe. You--with your job--are not stating, I 
don't believe, that you could not have stopped this, as the 
general counsel for the New York Times during that same 
timeframe. You're not saying that, are you?
    Mr. Watson. Senator, I think it would be helpful if I could 
explain how the organization worked. It was the New York Times 
newspaper, which is kind of a separate organization, with its 
own culture and with its own protocol and its own chain of 
command. There is the corporate side of the business, which I 
worked on. The process, which has always been the case at the 
New York Times, when an executive editor, a senior editor, 
believes that there's a story that's going to run with a legal 
issue, lawyers are brought in to give their legal advice on the 
story, and the final decision, if running the story is not, on 
its face, illegal, is made by, in this case, the publisher and/
or the executive editor.
    Senator Inhofe. When you say ``lawyers are brought in,'' 
were you brought in at that point?
    Mr. Watson. No, the way we were organized is that we have 
experts in various subject-matter areas. I had, at that time, 
three experts in the First Amendment area, including the deputy 
general counsel. They were the lawyers who engaged in what we 
call ``prepublication review.'' They had responsibility for 
that from the publisher and from me. I'm responsible for the 
legal advice that is given.
    Senator Inhofe. Okay.
    Mr. Watson. Thank you.
    Senator Inhofe. My time has expired. But, I am going to ask 
that you put down in writing for us, for the record, just 
exactly what your role was, and was not, during those specific 
inquiries that were made by DOD.
    Mr. Watson. I'll do that, Senator.
    [The information referred to follows:]
      
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Levin. Thank you. Thank you, Senator Inhofe.
    Senator Begich.
    Senator Begich. Thank you, Mr. Chairman.
    Thank you all for your willingness to serve.
    I want to actually follow up on what Senator Inhofe was 
bringing forward, Ms. Burke. First I want to remind everyone--I 
appreciate he mentioned Canada, but don't forget Alaska and 
that mix that we provide. We have one-third of the gas reserves 
of this country, still untapped and full. I know we both have 
talked about this, we recognize that it's an important asset 
for this country.
    But, Ms. Burke, your comment, which I thought was 
interesting--I want to make sure we have a little followup--and 
that is, you slipped in a comment that you're also concerned 
about greenhouse gases. I recognize that. Alaska is ground 
zero, when it comes to this issue, so we understand this. We're 
also one of the largest producers of oil and gas, so we 
understand the balance that's necessary. Gas is, in my view, 
one of the best alternative fuels, in the sense of as we move 
to alternative fuels, the transition fuel. Are you looking at, 
or will you be looking at, within DOD, how to utilize gas in a 
much more aggressive way as a part of the equation?
    Ms. Burke. Senator, I think natural gas is a very important 
bridge fuel, especially for this country and for the world. I 
think that the responsibilities of this position I'm being 
considered for is operational energy, and that natural gas, in 
general, is probably not going to be very appropriate for those 
purposes, for deployed forces and tactical uses. It is 
certainly worth looking at, and I think we should explore all 
options. I do believe that, on the facility side, that we have 
been looking at opportunities there to bring in more natural 
gas.
    Senator Begich. If you can expand a little bit, when you 
talk about operational energy plans that you'll be responsible 
for in developing, how do you see DOD moving from where they 
are now, which is the largest consumer of fuel, both in 
structure as well as mobile operations--how do you see, and 
what do you see--if you could measure 5 years from now or 10 
years from now--where are we at?
    Ms. Burke. Senator, I think that on the facilities side, as 
Senator Warner indicated, we've had a lot of success in cutting 
fuel use and in being more efficient. I'm sure we'll have a 
great deal more if we're fortunate enough to have Ms. Hammack 
confirmed. So, I think we have lessons we can learn there that 
we can transfer over.
    On the operational side, DOD has not been subject to 
executive orders or directives or laws in cutting energy use 
there. I think there are a number of opportunities in weapons 
platforms, in tactical vehicles, in how we're deployed in using 
alternative energy sources, renewable fuels. I think, 
particularly for deployed forces, there are some very 
interesting opportunities. I think, in the way that our 
business processes run and the requirements process, in the 
acquisition process, that we could be considering energy use as 
a performance parameter and incorporating it into how we do 
business, and cutting energy use without compromising 
performance at all. I think there are a lot of opportunities 
for doing that, and there are a number of people in the 
Department who are willing to do so. What we need, at this 
point, is just the momentum and a way to tie it all together. 
I'm very optimistic that in 5 years, we'll see some 
improvements.
    Senator Begich. We talk about energy probably every other 
committee meeting, in some form or another; someone has some 
issues, or so forth. Do you think we should have an opportunity 
for you, as well as mobile but stationary operations, to lay 
out what you are planning to do and how that would impact? 
Because, in reality, where DOD goes in this effort is a huge 
market force. Just as we know, with the solar panel work that 
the military is doing, the Air Force is doing, and others, that 
where you go could drive the economy, one way or another, into 
a new clean-energy economy. Is that a worthwhile discussion 
that we should have, specifically around this area, to elevate 
the importance of it within DOD?
    Ms. Burke. Senator, I think, to be fair, you've already 
done that by creating this position. We will have a discussion 
about it, I hope. I believe that, if confirmed, I have 180 days 
to produce a strategy with goals--near-, mid-, and long-term 
goals--which will be a good point of discussion, as well as the 
metrics for measuring success. We will have something to talk 
about, if I'm confirmed.
    I do think that the Department can provide important demand 
pull and innovation pull, particularly when the Department is 
solving its own problems. When we look at what we need, in 
terms of our military forces, I believe we have tremendous 
ability to affect research development and commercial 
development, as well.
    Senator Begich. Very good.
    If I may, Ms. McGrath, I want to go back to you, in regards 
to the payroll system and some of the business systems. To be 
honest with you, I'm relatively new to the committee, a year-
plus. When I heard the discussion--I think Senator Burris 
brought it up one day--the comment was, ``We killed off the 
program because it wasn't working or didn't do what it needed 
to do, after spending at least a half a billion dollars, maybe 
more.'' I have a great many questions. For me, that's just 
outrageous, to be very frank with you, and I'm trying to 
rationalize, my mind, how we deal with this.
    I know, in your written testimony, you talked about the 
``core IT base of it,'' and I'm not sure exactly the right 
phrase, but some of it might be utilized in the process of each 
area doing their own payroll development or their own business 
systems. How much of that work do you really believe will be 
utilized? Do it on a percent scale.
    Ms. McGrath. Each of the military departments--actually, 
the Services are pursuing their integrated military pay and 
personnel solution for their respective service. The Marine 
Corps will continue to utilize their existing system, which is 
the Marine Corps Total Force system. So, today, I don't expect 
the Marine Corps to adopt any of----
    Senator Begich. Any of that.
    Ms. McGrath.--any of that. However, that said, I do know 
that the Department of the Navy, which includes both Services, 
is looking at how to best integrate pay and personnel for their 
entire department, focusing first on the Navy, because they 
don't have an integrated solution within the Navy.
    Senator Begich. But give me a percentage, out of the 100 
percent we spent, 10 percent of that might be used?
    Ms. McGrath. I think that each are in a different stage, if 
you will, of assessing what I refer to as the Core IT Solution, 
which is the pay-related and entitlements that affect pay.
    The Department of the Army has come on the wire to indicate 
that they intend to utilize the Core IT investment; and, 
according to their numbers, they are approximately 86 percent 
fit, if you will, with the Core. What they're doing is, then, 
doing the analysis surrounding the rest of their environment to 
then determine if they could use more.
    To be complete, the Air Force is doing an analysis of 
alternatives using the Core IT investment as the basis of that.
    Senator Begich. In one of your written responses, it says, 
``Unfortunately, many of these communities and organizations 
were reluctant to adopt the uniform processes and business 
rules with the commercial off-the-shelf (COTS) product,'' so 
forth, so on. What do you think drove the communities or 
organizations not to adopt those processes? What drove that 
decision? Was it just that they were ingrained in a certain way 
of doing business, or that change is not of interest to them?
    Ms. McGrath. I really think that whenever you're trying to 
adopt a COTS out of the box, it's a commercial product that 
certainly would be foreign to DOD. But, recall, that particular 
solution was trying to get every Military Service aligned 
completely, and then utilize the COTS. Not only did you have 
the enormous culture challenge--getting all four Services and 
millions of people to adopt the same approach to military 
personnel and pay--but then, you also had a new IT solution, 
which required us to then do things more commercial-like. I 
think it was a combination of the two.
    Senator Begich. Let me end there. I have plenty more 
questions, but I'll stop, and just leave you with one question.
    Who was at fault for waiting so long? Half a billion 
dollars, to me--I don't know, maybe to DOD, is not a lot of 
money, but to me, it seems like a lot of money. Why wait that 
long until the decision's made to say, ``Pull the plug''? Some 
cases, up to a billion dollars. I'm not sure what the right 
number is, but it's somewhere in there.
    Ms. McGrath. I think each program is different, and there 
are certainly decision points, in every acquisition program, 
where a----
    Senator Begich. Do you think DOD had a responsibility here 
to pull the plug earlier?
    Ms. McGrath. I think DOD made the decision to terminate the 
program, again, the large-scale program, when the determination 
was made that it was not going to go well.
    Senator Begich. Okay.
    Let me end there, Mr. Chairman.
    Senator Levin. Thank you, Senator Begich.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    To each of you, we thank you for your willingness to serve 
your country in this capacity. Some of you, obviously, have 
been involved in public service. We thank you for that. But, to 
all of you, going forward, we're appreciative of your 
willingness to serve.
    Ms. Hammack, you may or may not be aware of the fact that 
at Fort Benning, GA, we're undergoing a significant expansion 
as a result of the BRAC process. It's critical that our armor 
training elements be able to make a smooth transition from Fort 
Knox, KY, to Fort Benning so that we can prepare our second 
lieutenants, basic trainees, and mid-career leaders for future 
battles and maneuver warfare.
    Recently, there's been one slight problem with this 
transition, and it involves an Ecological Society of America 
issue regarding the red cockaded woodpecker. Don't have those 
in many places in the country, but we have them in South 
Georgia. Although I am told that both the Sierra Club and the 
Southern Environmental Law Center are satisfied with Fort 
Benning's efforts to accommodate this rare and important bird 
with the mitigation process that they have gone through and 
will continue to go through, I'd simply like your assurance 
that, if confirmed, you will do everything you can to ensure 
our infantry and Army units have adequate space to conduct 
critical training exercises on their tanks and Bradleys, and 
also with their individual and crew-served weapons, and that 
the integration of the armor and infantry schools at Fort 
Benning is not delayed due to any environmental or habitat-
related issues.
    Ms. Hammack. Yes.
    Senator Chambliss. Thank you.
    Ms. Burke, in your testimony to the Senate Foreign 
Relations Committee last year, on July 21, you stated that any 
recovery in Afghanistan would depend on the restoration of 
natural resources and that achieving U.S. goals in the region 
may well depend on our ability to tie natural resources into 
national security. In your opinion, how important is military 
success in Afghanistan, in comparison to the restoration of 
natural resources there? Do you think economic, civil, and 
political restoration in the region should rank above that of 
the concerns of climate change and biodiversity laws?
    Ms. Burke. Senator, the goals that we have for Afghanistan 
right now for stabilizing the country to the point where 
terrorists organizations would no longer find a hospitable home 
there, that will require some economic development in the 
country. It is a very agricultural country. In order to restore 
those lands, it is going to require some restoration of the 
soils and some improvement in the conditions. Those are studies 
that have been done by the United Nations and also here in the 
United States. We know that's an important part of our effort 
to help stabilize the country and keep us safe.
    As for the question about whether those sorts of issues are 
more important than climate change, I would say that they're 
all linked together and that anything we do to strengthen our 
hand, relative to future climate changes, should also 
strengthen our hand, relative to water use, to our energy use, 
to minerals--strategic minerals--all of those things. Those all 
should be consistent. They should not be in opposition.
    Senator Chambliss. Are you aware of any issues, relative to 
climate change, that are being studied or undertaken by DOD 
within Afghanistan?
    Ms. Burke. I am not.
    Senator Chambliss. Okay.
    If confirmed, what role, if any, would you suggest the 
military play in confronting these global environmental 
threats?
    Ms. Burke. Senator, I think the 2010 QDR does a very good 
job of laying out an appropriate role for military forces, and 
I think that it ranges from things like partnerships with other 
countries to develop capacities to develop military forces that 
can do disaster relief in their own countries, to also being 
prepared for effects that we may see on our own coastal 
installations. I think the QDR does a very good job of laying 
out a very credible and reasonable role for U.S. forces in that 
arena.
    Senator Chambliss. In this new position that's been created 
and that you've been nominated for, what specific goals would 
you set for the military, in terms of mitigating any potential 
climate change factors?
    Ms. Burke. That's not actually in the statute for this job, 
Senator, so I would be doing the job that is statutorily 
defined, which is improving the operational energy security of 
military forces. I believe, if we do it right, that will be one 
of the results, that we will be cutting greenhouse gas 
emissions. But, that's not the role of this job.
    Senator Chambliss. Do you have an opinion, relative to 
whether or not DOD should be engaged in research and 
development (R&D) on the use of alternative fuels?
    Ms. Burke. Senator, yes. I believe DOD should be, and to my 
knowledge, is involved in such R&D.
    Senator Chambliss. Okay.
    As the largest user of energy, whether it's gasoline or 
electricity for that matter, DOD is going to be key in our 
ability to wean ourselves, in this country, off the importation 
of foreign oil. What is your opinion, relative to any actions 
that should be taken by the Department to move us in that 
direction?
    Ms. Burke. Senator, I believe that we have a number of 
actions that we could be taking, including some that are 
required in the law that created the position, such as 
implementing the fully-burdened cost of fuel and the Energy 
Efficiency Key Performance Parameter, which are mechanisms that 
can help DOD appropriately value energy in its business 
processes, from the requirements in war planning, to 
acquisition and procurement. I believe that would go a long way 
towards helping, and that we can improve the efficiency of our 
platforms and our people and our operations, and we can also 
look into alternatives that will improve our mission 
effectiveness.
    Senator Chambliss. Okay. Thank you.
    Mr. Watson, as a member of the Senate Select Committee on 
Intelligence, I think you can understand that I was very much 
troubled by the New York Times article--both the one in 2005, 
again the one in 2006--and the revelations of some very 
sensitive programs that were disclosed. I concur with what 
Admiral Mullen said, relative to those disclosures, that it not 
only had the potential for American lives to be lost, but may 
have, in fact, caused that.
    You were the top lawyer at the New York Times Company, and 
as a lawyer, I can appreciate the fact that you had other 
lawyers working for you who were giving opinions, relative to 
significant issues, whether they were First Amendment, or 
whatever. But, Mr. Watson, at the end of the day, the buck 
stopped with you, and you readily state that in your responses 
to Senator McCain, in your letter dated January 7, 2010.
    What troubles me about your responses in that letter, and 
again today, are the fact that once this article was written in 
the New York Times, it received worldwide attention. It was a 
very explosive story; the one about the TSP program 
particularly. As I understand what you've said, you did not 
know anything about that story being published, until after the 
fact, and that, basically, even after the fact, when you became 
aware of that story and the information released in that story, 
that, as a top lawyer at the New York Times Company, you were 
not involved in any discussions relative to how you go forward, 
which also meant that you were not involved in the decision of 
whether or not to publish the SWIFT article in 2006. Am I 
correct there? Can you explain your involvement, or your lack 
of involvement, but yet, lawyers under you were making very 
critical decisions to the national security of the United 
States?
    Mr. Watson. Thank you, Senator, I would like to try to 
explain that the way we were organized was that the deputy 
general counsel, who was my designated successor, was the 
person in our chain of command, both on the corporate side and 
on the newspaper side, with respect to the publisher, who was 
empowered and authorized to make those decisions. At the time 
of the TSP story, for example, he was the lead lawyer on 
reviewing that; he's a nationally known expert. I became aware 
of it after the fact. We had some discussion about it. I 
presumed that there was discussion with the newsroom about how 
to deal with these particular matters. But, at that time, the 
state of the law was that if a newspaper had information which 
was newsworthy, which was truthful and accurate, and the 
newspaper itself had not violated the law in acquiring that 
information, that it was not illegal to publish that 
information. Once the decision was made that it was not 
illegal, it would have been, in my experience, impossible for a 
lawyer to stop the publication of that story, because to 
publish or not is the decision which was made by the publisher 
and the executive editor.
    Senator Chambliss. I understand that's what you said in 
response to Senator McCain, but I have to tell you, it really 
does trouble me, particularly when the TSP article was delayed 
for months. I don't remember the exact time period, but I do 
remember that the previous administration went to the New York 
Times and asked them not to publish that article, and there was 
a period of time when they agreed that it was too sensitive to 
be published. It bothers me, as a top lawyer in that firm, so 
to speak, that you weren't engaged and weren't involved in the 
decisionmaking process on that. Now you're going to be in a 
position to be the top lawyer at the Army, and you're going to 
be on the other side of the issue; you're going to be charged 
with making sure that no secrets are released. I have grave 
concerns about the fact that you weren't engaged with your 
subordinates to the point to where you weren't involved. Are 
you going to be engaged with your subordinates, your other 
lawyers that are under you at the Department of the Army, to 
make sure that this type of story does not get released in the 
future? You can comment, or not.
    Mr. Watson. No, Senator, I very much appreciate your 
question, because it's one that seems to be circulating. I'm 
here because I believe in the Army. I believe in national 
security. I'm a patriot. I do not, as a professional, abide 
people leaking classified information. I certainly wouldn't be 
a leaker, if that's a question for me. As General Counsel of 
the Army, I certainly wouldn't abide anyone within my 
jurisdiction leaking classified information. My view is that 
there are rules, regulations, and the laws against it, and that 
those rules, regulations should be enforced. There should be no 
question about that in the mind of anyone here. If I'm 
confirmed, Senator, that would be my view.
    I also want to state that in my career as a lieutenant, I 
have had access to classified information. My first duty 
station was on a classified mission. I will also state, for the 
record, that when I was a Military Police lieutenant, in 1967, 
I took a group of volunteers out on a highway in Vietnam to 
retrieve classified information from some soldiers who had been 
killed.
    I can't emphasize enough how committed I would be, if 
confirmed, to providing my personal duty and my professional 
loyalty to the mission of the Army.
    Thank you, Senator, for your question.
    Senator Chambliss. Thank you.
    Thanks, Mr. Chairman.
    Senator Levin. Thank you, Senator Chambliss.
    Senator Sessions.
    Senator Sessions. Mr. Watson, I had the unfortunate duty--
it seemed to me--to be on the Senate Judiciary Committee and 
Senate Armed Services Committee, and to deal with leaks and 
laws and matters for the last 4 years. I believe that aspects 
of the media and aspects of Congress did not conduct themselves 
with high standards in this process. You've repeated--what I 
think you wrote Senator McCain--that the article in New York 
Times revealing the existence of the highly important and 
classified TSP was ``truthful and accurate, based on 
information not illegally obtained by them, and was written and 
published by individuals who were acting to fulfill the 
newspaper's constitutional duty of informing the public about a 
very newsworthy subject.''
    How would you evaluate the Espionage Act, title 18, section 
798 provides that, ``Whoever knowingly and willfully publishes, 
in any manner prejudicial to the safety or interests of the 
United States, any classified information concerning the 
communication of intelligence activities of the United States 
shall be fined, imprisoned, or both''?
    How is it that you would contend that this action wouldn't 
violate that statute?
    Mr. Watson. Thank you, Senator. That was my opinion. I read 
the story. I read the statute. I don't have either one of them 
in front of me, but my reading of the story and my reading of 
the statute led me to believe that there was an arguable 
position, a defensible position, that the statute was not 
violated.
    Senator Sessions. Okay.
    Mr. Watson. If I may. I understand that there are 
reasonable people who disagree. I understand that there are 
reasonable lawyers who disagree. In the final analysis, in our 
situation, whether there was a violation or not is a judgment 
for a judge and/or a jury. I do understand that there were some 
investigations with respect to who may have leaked or maybe 
even whether there should be a prosecution after the 
publication of the stories. But, there was no prosecution, to 
my knowledge.
    Senator Sessions. The statute says, ``If you knowingly 
publish, in any manner prejudicial to the safety or interest of 
the United States, classified information concerning the 
communication, intelligence activities of the United States 
shall be fined or imprisoned.'' But, you say, as long as it's 
truthful and accurate, based on information not illegally 
obtained, and written and published by individuals who are 
fulfilling the newspaper's constitutional duty of informing the 
public about a very newsworthy subject, that's the standard. 
Which one is the standard, your statement, or the statute of 
the United States?
    Mr. Watson. The statute is the final determinant on that, 
but the state of the law, as announced by the Supreme Court, is 
what was stated in my letter. There's not, to my knowledge, 
been a case prosecuting a newspaper under 798. There's clearly, 
Senator, I agree with you, a tension between those two matters. 
But, in our system of freedom of the press, and in our system 
of classifying defense information, there is a tension there. I 
want to make it clear, I'm on the side of protecting--as a 
citizen and, if confirmed, as the general counsel of the Army--
I'm on the side of protecting classified information.
    Senator Sessions. I believe that you were the chief counsel 
of New York Times when all of this occurred, and they were not 
on that side. Once it's leaked--it's hard for the Government to 
do anything about it--whether they want to go back and try to 
prosecute it or not, it's a very difficult thing to take on 
folks who buy ink by the barrel. This was not a happy day in 
our country, I have to tell you.
    Having said this, do you believe that you can be an 
effective advocate for defending the legitimate covert 
activities of the Department of Army?
    Mr. Watson. Oh, Senator, without question. Without 
question.
    Senator Sessions. Forgive me if I have concerns about it. 
Did you ever express concerns to the New York Times about what 
they were doing and the policies they were executing, and 
advise against it?
    Mr. Watson. I was not involved in these particular stories, 
but my views, I think, are relatively well known throughout the 
New York Times Company--that I'm a strong defender of the 
military and national security.
    Senator Sessions. But, were you ever part of a discussion--
any internal lawyer meetings in which questions were raised 
about the wisdom of publishing these stories?
    Mr. Watson. There were discussions within the legal 
department, yes.
    Senator Sessions. Were you in on some of those?
    Mr. Watson. Yes, Senator.
    Senator Sessions. Did you say, ``I vote to go ahead,'' or 
did you say, ``I don't think we should publish this''?
    Mr. Watson. The discussions I participated in were after 
the fact, after the TSP story was published.
    As I've said before, from my personal view, I don't like to 
see that kind of information in the public domain, and that, if 
I wouldn't have done it.
    Senator Sessions. There's a saying, you have the fox 
guarding the henhouse. You were the leading lawyer for the 
institution that is a leading advocate of going the other way. 
Now, that's a fact. Now you're seeking to be the top lawyer for 
the Army, which I think should have a different view.
    Thank you for your testimony.
    Thank you, all of you, for your willingness to serve.
    We have a great Defense Department. It has tremendous 
challenges, is exceedingly large. It's difficult to manage it 
well. I hope all of you will seek to manage it--get the best 
value for the warfighter, and do it in a way that protects our 
interests.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Sessions.
    Let me just ask a couple questions of you, Mr. Watson, 
separate and apart from these two matters which have been 
raised, those two particular publications.
    As counsel to the New York Times, was it your duty--and, 
again, I'm not asking about any particular article, including 
these two--but, was it your duty to give advice to the New York 
Times as to what was legal, to the best of your ability?
    Mr. Watson. Yes, Senator, that was the responsibility of 
the general counsel.
    Chairman Levin. As I understand your testimony, it was not 
your job as to advise the New York Times as to what should be 
legal or what should be published.
    Mr. Watson. That's correct. The decision on whether to 
publish a story or not was not a legal decision. It's always 
been a decision made by--in extreme cases or serious cases--the 
executive editor and the publisher.
    Chairman Levin. I just have a few more questions.
    Ms. Burke, I have a longstanding interest and concern about 
the Department's failure to fully develop renewable energy 
resources on military installations. What is your understanding 
as to who has the lead role on that issue at the DOD level? 
Would it be you or would it be the Deputy Under Secretary for 
Installations and Environment?
    Ms. Burke. Senator, first of all, Under Secretary Carter 
has responsibility for both offices. He would be the senior 
official of record. But, for fixed installations, Dr. Robyn, 
who is currently the Deputy Under Secretary for Installations 
and Energy, would have the lead role.
    Chairman Levin. Mr. Watson, the Defense Task Force on 
Sexual Assault in the Military Services recently recommended 
enactment of a comprehensive military justice privilege for 
communications between victim advocates and victims of sexual 
assault.
    The Task Force found that some victims of sexual assault 
were reluctant to use the services of a victim advocate, 
because their communications with the victim advocate could be 
available to the defense in criminal prosecutions.
    Now, if you're confirmed, would you carefully consider the 
value of a comprehensive military justice privilege for 
communications between a victim advocate and a victim of sexual 
assault?
    Mr. Watson. Yes, if confirmed, Senator, I would.
    Chairman Levin. Ms. Hammack, finally, the statutory 
deadline for completing all work on BRAC recommendations is 
September 15, 2011. That deadline is fast approaching, but only 
28, I believe, of the 222 recommendations have been certified 
as complete. Obviously there's many that are not yet complete; 
they're in the process. But, nonetheless, that is worrisome to 
me. What is your view as to the acceptability of missing the 
deadline for BRAC recommendations?
    Ms. Hammack. Senator, I don't believe it is acceptable to 
miss the deadline. Certainly, completing BRAC in a timely 
manner will be a priority.
    Chairman Levin. We thank you all.
    I'm going to turn this over to Senator Begich, for his 
questions and then to close it out, if he is willing to do 
that, because I must leave.
    But, I just want to close with, again, thanks to all of you 
for your service, your prior service, your future service.
    We hope to get these nominations up to a vote before the 
committee as soon as we can.
    We, again, thank your families. We particularly thank the 
younger kids and those middle-aged kids who have sat through 
this fairly long hearing, trying to look very interested at all 
times, but, in any event, being extremely patient. We always 
like to see the kids here. I think it adds a great deal to the 
hearings. I think it also will have an impact on their lives--
hopefully, a positive impact--when they see government at work 
and they see their relatives or their friends testifying before 
a democratically-elected Senate body.
    For those parents who are here, for those parents who can't 
be here because they're either gone or otherwise, we thank them 
for their interest and their support of their children.
    We now turn this over to Senator Begich.
    Senator Begich [presiding]. Thank you, Mr. Chairman.
    Again, I want to echo the chairman's comments. Thank you 
all for your willingness to serve and being part of the Federal 
Government in the process of helping us move this country 
forward, especially in DOD.
    Mr. Watson, I just want to follow up and I appreciate your 
comments. Again, I'm new to this whole process. No disrespect 
to lawyers. I'm not a lawyer. Don't intend to be one. I come 
from a very commonsense approach of how I look at things. What 
I hear you saying is that you've given advice. The publisher 
makes the final call.
    Mr. Watson. That's correct, Senator.
    Senator Begich. It's no different than me, as when I was 
mayor; managed 3,000 people for 5 years. That's why I also 
encourage my colleagues--no disrespect to them--that they 
should all be mayor just once in a lifetime, rather than just 
legislators, because it gives you a good balance of managing 
people, and how it works.
    I think, in my case, for example, I had a municipal 
attorney, who I appointed, but he was in charge of criminal and 
civil division. Rarely did he get engaged--and I mean rarely--
in the criminal division section, even though he was the top 
dog; he was in charge of it. He depended on his deputy to 
handle that and make decisions on very high-profile legal cases 
which ended up in the paper, sometimes to my chagrin of how 
they were handling it, but that's the way it worked. Would that 
be the same process you went through in the New York Times?
    Mr. Watson. Very similar.
    Senator Begich. Also, the comment that was made earlier 
about ``the fox guarding the henhouse.'' Here's what I did when 
I was mayor: I had a sergeant, who was the head of the police 
union, complained a lot about how the police department 
operated. What do you think I did? He became my deputy police 
chief, and then later, the chief of police. We had a 28-year 
low, in the history of our city, in crime. We had the most 
police officers hired. Very little, if any, corruption of any 
kind.
    Sometimes you want to grab someone from the other side, 
just like I did with the president of the NAACP--she always 
complained to me when I was on the Assembly, so she ended up in 
charge of the Office of Equal Opportunity, and incredible 
scores that we got, nationally, because of that. I don't have 
any problem with that. Sometimes you want to grab from the 
other side as quickly as possible. I'm looking forward to your 
work in the Army and DOD, and doing what's right as an 
attorney. You have an oath that you follow, and your new client 
would be the U.S. Government. Is that fair to say?
    Mr. Watson. Yes, Senator. Thank you for your comments.
    Senator Begich. You bet. I sit here a lot and listen 
patiently to a lot of the politicking that goes on, and it does 
bother me at times, because to be frank with you, you're 
associated with the New York Times. Some people don't like 
their opinions. My view is, they'll have their opinions. Some 
days I like them, some days I don't. But, that is life. We 
select this job we're in, and we get subjected to those 
opinions as they come forward.
    Again, thank you for your willingness to serve.
    I actually have one question here, which I'm going to 
submit to the record for you, because I don't want to burn any 
more of your time. It's on a whole other issue, but it just 
kind of bothered me, some of the questioning that was going on.
    Ms. Hammack, I want to ask you, if I can, a separate 
question. In the authorization bill last year, I proposed, 
along with my colleagues, an evaluation of the housing stock 
that exists in the military bases. Because also what goes on 
here is, everyone tries to grab a piece of the pie for their 
own district whether they may need it or not. But, I believe 
housing stock in the military is substandard in some areas and 
very high quality in others. I've asked for a report to be done 
so we can manage this process a more rational way, rather than 
just who has the muscle and who has the political clout.
    As we move forward, I know, in our State, we have some very 
high quality, but we also have, up in the north section, for 
example, 200 relocatables for housing and offices, in an arctic 
climate, which, I will tell you, is good for a short period, 
not good for a long period.
    Would you have any comment in regards to this issue of 
housing stock and how we go about this in a very systematic way 
to actually do it right, rather than just who can pull the 
lever the hardest?
    Ms. Hammack. At this point in time, Senator, it's my 
understanding the two-thirds of the family housing has already 
been improved and privatized, and there's an evaluation of the 
balance. I have also been led to believe that there's an 
evaluation going on, on the barracks and the other housing, and 
that is something that is going to get my attention, if 
confirmed.
    Senator Begich. Very good. We had a timetable within the 
authorization report. I forget when it actually expires. But, I 
would like, if you do get confirmed, that you could give us 
feedback on how you see that going and the timetable on that. 
Because it goes to those issues you just brought up.
    Let me end there. I'm not going to take up any more of your 
time. You've been very patient.
    Again, I appreciate all of you being here today.
    With that, the hearing is adjourned.
    [Whereupon, at 11:31 a.m., the committee adjourned.]

    [Prepared questions submitted to Elizabeth A. McGrath by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. At this time, I do not believe changes are warranted. If 
confirmed, I would consult with Congress on any modification I found 
potentially useful.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. If confirmed, I would consult with Congress on any 
modification I found potentially useful.
                             relationships
    Question. What is your understanding of the relationship between 
the Deputy Chief Management Officer (DCMO) of the Department of Defense 
(DOD) and each of the following?
    The Secretary of Defense.
    Answer. The Secretary of Defense is responsible for all matters 
within DOD. By law, the Secretary of Defense shall assign such duties 
and authorities to the DCMO he deems necessary for the DCMO to assist 
the Chief Management Officer (CMO) (the Deputy Secretary of Defense) to 
effectively and efficiently organize the business operations of DOD. If 
confirmed, I would faithfully carry out all duties assigned to me by 
the Secretary of Defense.
    Question. The Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense assists the Secretary of 
Defense in carrying out his responsibilities and duties and also 
performs duties either assigned by the Secretary of Defense or by law. 
By law, the Deputy Secretary of Defense also functions as CMO, and is 
responsible for the daily operations of the Department on matters 
including financial management, personnel policies, and acquisition 
management. The Deputy Secretary of Defense delegates duties and 
authorities to the DCMO to effectively and efficiently organize the 
business operations of DOD. If confirmed, I would carry out all duties 
assigned to me by the DOD CMO.
    Question. The Defense Business Systems Management Committee 
(DBSMC).
    Answer. The DBSMC is a governance body designed to oversee 
Department decisions on its business operations, including investments 
in business systems, in order to maximize benefits to the warfighter. 
The DBSMC is chaired by the CMO. The DCMO is the vice chair and 
functions as executive secretary. If confirmed, I would be the vice-
chair of the DBSMC.
    Question. The Under Secretary of Defense for Financial Management 
(Comptroller) (USD(C)).
    Answer. If confirmed, I look forward to continuing work with USD(C) 
on financial management improvement, development of the Department's 
annual performance budget and report, and modernization of the 
Department's financial systems.
    Question. The Other Under Secretaries of Defense.
    Answer. The Office of the DCMO works with the Under Secretaries of 
Acquisition, Technology & Logistics, Personnel & Readiness, 
Intelligence, and Policy in a number Department-wide management and 
business modernization and improvement initiatives. If confirmed, I 
look forward to continuing those efforts.
    Question. The Assistant Secretaries of Defense (ASDs).
    Answer. The Office of the DCMO works with a variety of ASDs on 
matters including acquisition decisions, process improvement, 
performance management and transparency initiatives. The interaction 
occurs in one-on-one meetings and governance council settings.
    Question. The Director of the Business Transformation Agency (BTA).
    Answer. BTA facilitates Department-wide transformational business 
operations to support the warfighter and systematically improve 
business processes, enterprise resource planning systems, and 
investment management. If confirmed, the Director of BTA would directly 
report to me.
    Question. The Secretaries of the military departments.
    Answer. If confirmed, I will work closely with the Secretaries of 
the military departments to help carry out the business management and 
modernization objectives of the Secretary of Defense and Deputy 
Secretary of Defense.
    Question. The CMOs of the military departments.
    Answer. The Under Secretaries of the military departments are the 
CMOs of their respective organizations and, as such, have enterprise 
responsibility for overseeing business operations within their 
departments. The Office of the DCMO interacts routinely with these 
officials on business transformation initiatives. The military 
department CMOs also serve on the DBSMC. If confirmed, I look forward 
to developing strong working relationships with each of the CMOs of the 
military departments.
    Question. The Investment Review Boards (IRBs).
    Answer. The IRBs, along with the DBSMC, constitute a governance and 
oversight framework for effective investment decisionmaking, enabling 
the Department's senior leadership to guide investments to maximize 
benefits to the warfighter. The Office of the DCMO provides direction 
and guidance to the IRB chairs to ensure consistency and rigor in the 
investment management process. If confirmed, I would continue to drive 
robust investment management for defense business systems.
    Question. The Comptrollers of the military departments.
    Answer. If confirmed, I would engage with the Comptrollers of the 
military departments in their capacities as the functional sponsors of 
many of DOD's financial systems. If confirmed, as a member of the 
Financial Improvement and Audit Readiness Governance Board, and in 
collaboration with the USD(C), I would work with the Comptrollers of 
the military departments to further their efforts toward achieving 
financial audit readiness.
    Question. The Business Transformation Offices (BTOs) of the 
military departments.
    Answer. The Military Departments now have CMOs in place, who 
oversee newly-established BTOs. The Office of the DCMO has an ongoing 
relationship with the Service BTOs through the formulation of the 
Strategic Management Plan (SMP) and various business system issues. If 
confirmed, I would work to further interactions between the Office of 
the DCMO, BTA, and the CMOs of the Military Departments.
    Question. The Inspector General of the Department of Defense (IG, 
DOD).
    Answer. The Office of the DCMO responds to inquiries by the 
Government Accountability Office (GAO) and the IG, DOD relating to 
defense business operations. These inquiries pertain to the status of 
recommendations regarding a variety of business issues. If confirmed, I 
will continue to respond to these GAO and IG, DOD inquiries.
    If confirmed, I will refer all appropriate matters to the Inspector 
General.
    Question. The General Counsel of the Department of Defense.
    Answer. If confirmed, I will seek advice from the General Counsel 
on all relevant subjects.
    Question. The Directors of the Defense agencies.
    Answer. The Office of the DCMO and its subordinate agency, BTA, 
have effective relationships with many Defense agencies to further the 
Department's strategic goals. Additionally, the Office of the DCMO and 
BTA are also Department resources for broad business transformation 
guidance. If confirmed, I would look for opportunities to improve the 
Department's business operations both through and within the Defense 
agencies.
             duties of the deputy chief management officer
    Question. Section 132 of title 10, U.S.C., provides that the Deputy 
Secretary of Defense serves as the CMO of DOD. The Deputy Secretary is 
to be assisted in this capacity by a DCMO.
    What is your understanding of the duties and responsibilities of 
the CMO and DCMO of DOD?
    Answer. The duties and responsibilities of the CMO and DCMO are 
prescribed by the Secretary of Defense so that they may effectively and 
efficiently organize the business operations of the Department. The 
CMO's primary duties are to (a) ensure that the Department can carry 
out its strategic plan, (b) ensure the core business missions of the 
Department are optimally aligned to support the warfighting mission, 
(c) establish performance goals and measures for improving and 
evaluating overall economy, efficiency, and effectiveness and monitor 
and measure the progress of the Department, and (d) develop and 
maintain a Department-wide strategic plan for business reform. In 
general, the duty of the DCMO is to assist the CMO in carrying out 
those objectives and, if delegated, assume primary responsibility for 
those functions.
    Question. What specific duties and responsibilities do you expect 
the Deputy Secretary to assign to you in your capacity as DCMO?
    Answer. While the specific duties and responsibilities of the DCMO 
remain at the discretion of the Deputy Secretary of Defense, if 
confirmed, I would expect that the Deputy Secretary would empower me 
to: (1) develop the Strategic Management Plan (SMP) as the primary 
vehicle for strategic planning of the Department's business operations; 
(2) drive the development and implementation of the Business Enterprise 
Architecture (BEA); (3) implement a robust performance management and 
improvement framework through the development and tracking of outcome-
focused measures and metrics; (4) synchronize, integrate and coordinate 
the Department's cross-functional business stakeholders and operations; 
and (5) oversee day-to-day operations of the DBSMC. Additionally, I 
believe that, if confirmed, the Deputy Secretary of Defense may ask me 
to oversee the defense business systems investment management process 
and to serve as acquisition Milestone Decision Authority for certain 
Major Automated Information Systems.
    Question. What background and expertise do you possess that you 
believe qualify you to perform these duties and responsibilities?
    Answer. If confirmed, I will bring over 20 years of DOD business 
experience to the position. During my tenure as a civil servant with 
the Department, I have served across a broad array of organizations and 
business areas, which would provide a solid foundation for performing 
the duties of the DCMO. During my career I have been part of a military 
department, a Defense Agency, and the Office of the Secretary of 
Defense (OSD)--and I have worked extensively in the interagency 
environment. I have operational experience in supply chain management, 
business financial management (to include Planning, Programming, 
Budget, and Execution), and acquisition (to include contracting and 
program management). These experiences have given me significant 
insight into how the Department's business operations must work 
together in a cross-functional manner - knowledge that would be 
invaluable as the DCMO.
    Additionally, I recently led the stand-up of the Office of the DCMO 
within DOD and currently serve as the Assistant DCMO and the 
Department's Performance Improvement Officer. In these roles, I lead, 
on behalf of the CMO, the Department's effort to better synchronize, 
integrate, and coordinate its business operations and I serve an 
advisor to the Secretary and Deputy Secretary of Defense for matters 
relating to the management and improvement of DOD business operations. 
I led the Department's development of the 2008 and 2009 SMPs, have 
established performance goals and measurements for the Department's 
business operations, am responsible for implementing DOD's Continuous 
Process Improvement/Lean Six Sigma efforts, work extensively with the 
many business stakeholders in the Department to drive the adoption of 
end-to-end business processes; and am frequently called upon to work 
interagency initiatives.
    Question. Do you believe that the CMO and DCMO have the resources 
and authority needed to carry out the business transformation of DOD?
    Answer. I believe the CMO and DCMO have the resources and authority 
needed to carry out the business transformation of the Department. If 
confirmed, I would consult with the CMO if I discovered that those 
resources and authorities were insufficient.
    Question. What role do you believe the CMO and DCMO of DOD should 
play in the planning, development, and implementation of specific 
business systems by the military departments?
    Answer. I believe the CMO and DCMO of DOD should set policy, based 
on sound best practices, regarding planning, development, and 
implementation of business systems, including those in the military 
departments, and verify those policies are being followed 
appropriately. Importantly, this includes development of business 
architectures. The CMO and DCMO, utilizing the DBSMC, IRBs, and BTA, 
should work to ensure the Department manages its entire suite of 
business systems, including those in the military departments, from an 
enterprise portfolio perspective--eliminating redundant system 
development, transferring lessons learned, and integrating the work of 
all components to build enterprise capabilities. If confirmed, I would 
work with the military department CMOs to help them institute rigorous 
investment management and business process reengineering (BPR) 
procedures for their organizations' business systems.
    Question. Do you believe that the DCMO should have clearly defined 
decision making authorities, or should the DCMO serve exclusively as an 
advisor to the Deputy Secretary in his capacity as CMO?
    Answer. The 2008 National Defense Authorization Act left it to the 
Secretary of Defense to assign the DCMO specific duties and authorities 
necessary to assist the Deputy Secretary of Defense in the execution of 
his responsibilities as CMO. While a primary function of the DCMO is to 
provide advice to the CMO, the Department, through the formal charter 
of the DCMO position, signed October 2008, gave the DCMO specific 
authority to set Departmental policy on issues within the position's 
purview.
    Question. What changes, if any, would you recommend to the 
statutory provisions establishing the positions of CMO and DCMO?
    Answer. At this time, I do not believe that any changes are 
necessary, but if confirmed, I would consult with Congress if my 
experience led me to believe that changes were warranted.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the DCMO?
    Answer. In my view, the biggest challenge confronting the DCMO is 
overcoming the size and complexity of the Department to affect enduring 
transformation. Additionally, for business transformation to be 
successful there needs to be a shift in the culture of DOD to move from 
improving business operations within organizations to improving them 
across organizations.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. While these challenges are profound, I believe they can be 
overcome through the use of strong governance; active performance 
management; utilization of standards; and improved processes. If 
confirmed, I would continue to drive the use of these methods 
throughout the Department.
                               priorities
    Question. What broad priorities would you establish, if confirmed, 
with respect to issues which must be addressed by the DCMO?
    Answer. If confirmed, I would assist the CMO on the five business 
priorities established in the 2009 SMP: (1) support the All-Volunteer 
Force; (2) support contingency business operations; (3) reform the DOD 
acquisition and support processes; (4) enhance the civilian workforce; 
and (5) strengthen DOD financial management.
    Additionally, I would strengthen the governance of the Department's 
business operations, work with stakeholders to establish a better 
approach to the acquisition of information technology systems, ensure 
that sufficient BPR has been conducted before investing in a system 
modernization, further develop and implement the BEA, drive the use of 
Continuous Process Improvement methodology, and seek opportunities to 
achieve greater efficiencies throughout the Department.
                            management goals
    Question. If confirmed, what key management performance goals would 
you want to accomplish, and what standards or metrics would you use to 
judge whether you have accomplished them?
    Answer. If confirmed, my focus would be on ensuring the 
Department's performance goals drive support to the Warfighter and that 
this support is an effective and efficient use of the taxpayers' money. 
The 2009 SMP and the Department's High Priority Performance Goals, 
which were included as part of the fiscal year 2011 President's budget, 
and their associated performance measures, reflect the Department's key 
performance goals and measures. If confirmed, I would continue to drive 
active performance management throughout the Department.
    Question. The Government Performance and Results Act (GPRA) is 
intended to provide managers with a disciplined approach--developing a 
strategic plan, establishing annual goals, measuring performance, and 
reporting on the results--for improving the performance and internal 
management of an organization. The Government Accountability Office has 
reported that DOD's initial SMP, issued in July 2008, fails to meet 
statutory requirements to address performance goals and key initiatives 
to meet such goals.
    What is your understanding of the role of the DCMO in the 
development and implementation of the Department's SMP?
    Answer. With regard to the development of the SMP, the role of the 
DCMO is to provide the vision for the document, enable the supporting 
strategic planning process, and compose the document itself. This 
includes analysis of, and alignment with, higher level strategic 
documents and creation of a framework for development of the SMP that 
will facilitate collaboration with the military department CMOs, 
combatant commanders, Under Secretaries, and other leadership elements. 
In terms of implementation, I believe, the role of the DCMO is to 
facilitate the Department's performance management framework by 
assisting the components and agencies to embed the SMP's goals and 
outcomes into their own strategic plans and rigorously track results.
    Question. What is your assessment of adequacy of the current 
version of the Department's SMP?
    Answer. The 2008 SMP served as a primer that described governance 
structures and processes used to support the warfighter through the 
improvement of the Department's business operations. It lacked 
strategic business objectives and key supporting initiatives. However, 
the 2009 SMP provided a key building block for institutionalizing 
active performance within DOD. The document defined five strategic 
priorities and supporting goals, outcomes, measures, and key 
initiatives. It was a significant step forward toward providing 
strategic business focus and direction. If confirmed, working with the 
rest of the Department, I would seek to build upon this effort.
    Question. What improvements, if any, would you like to see the 
Department make in its SMP?
    Answer. If confirmed, the next steps I would take to improve the 
SMP would be to: (a) institutionalize a more formal strategic planning 
process for the Department's business operations; (b) focus on the 
alignment and synchronization of the SMP with other DOD planning and 
budgeting processes (Policy, Planning, Budgeting and Execution system) 
and strategic guidance documents such as the QDR; (c) work to enable 
execution of cross-functional, end-to-end processes through the SMP and 
in the Department's BEA; and (d) further develop performance outcome 
measures.
    Question. What steps would you take, if confirmed, to ensure that 
the Department meets statutory requirements for its SMP?
    Answer. While I believe the 2009 SMP is compliant with statutory 
requirements, if confirmed, I would seek to further strengthen the link 
between the priorities and goals contained in the SMP and the 
Department's established budgeting process to ensure we are properly 
aligning resources with desired outcomes.
                         staffing and resources
    Question. Do you believe the Office of the DCMO has the staffing 
and resources needed to effectively carry out its mission?
    Answer. I believe the Office of the DCMO, established in October 
2008, has sufficient manpower authorizations and resources to carry out 
its current responsibilities. If confirmed, I will work with the CMO to 
ensure the office continues to have sufficient resources to effectively 
carry out its mission.
    Question. What types of expertise do you believe the office of the 
DCMO needs to effectively carry out its mission?
    Answer. The Office of the DCMO requires experts in business 
processes and process improvement, strategic planning, change 
management, performance management and measurement, enterprise 
architecture, enterprise business systems implementation, and 
governance and investment management. If confirmed, I would ensure the 
Office of the DCMO has staff with the right skills to carry out its 
mission.
    Question. What mix of employees, contractors, and individuals 
detailed from other organizations in DOD has the DCMO relied upon to 
provide it with needed expertise?
    Answer. While the Office of the DCMO is predominately staffed by 
its own government employees, the office also leverages the expertise 
of other DOD organizations, such as BTA, Federally Funded Research and 
Development Centers, contractors, and inter-agency resources, as 
appropriate. If confirmed, I would ensure the Office of the DCMO 
maintains the right mix of employees, contractors, and detailees to 
carry out its mission.
    Question. To what extent do you believe that it is appropriate and 
effective for the DCMO to rely upon contractors to provide it with 
needed expertise?
    Answer. Expertise in business operations resides in both industry 
and government. I believe it is important to appropriately utilize both 
resources. However, if confirmed, I will ensure that inherently 
governmental functions are performed by government employees.
    Question. To what extent do you believe that it is appropriate and 
effective for the DCMO to rely upon other organizations within DOD to 
provide it with needed expertise?
    Answer. While it is important for the Office of the DCMO to 
maintain a core staff with the expertise detailed above, I believe it 
is appropriate and effective for the Office to leverage the vast 
expertise that already exists within the Department to achieve our 
collective business operations improvement goals. If confirmed, I look 
forward to working with other organizations to achieve success.
          business enterprise architecture and transition plan
    Question. Section 2222 of title 10, U.S.C., requires that the 
Secretary of Defense develop a comprehensive BEA and transition plan to 
guide the development of its business systems and processes.
    What is your understanding of the role of the DCMO in the 
development and implementation of the BEA and transition plan required 
by section 2222?
    Answer. The DCMO is directly responsible for the development and 
implementation of the BEA and transition plan. The DCMO must establish 
the strategic direction and priorities for the Department's business 
operations which the BEA and transition plan must align to, and has 
ultimate responsibility for their publication. If confirmed, further 
development and implementation of the BEA and transition plan will be 
one of my highest priorities.
    Question. Do you believe that a comprehensive, integrated, 
enterprise-wide architecture and transition plan is essential to the 
successful transformation of DOD's business systems?
    Answer. In my view and experience, a single architecture for an 
organization as large and complex as DOD is impractical, which is why I 
support DOD's approach of architecture federation. However, the layer 
of architecture OSD maintains through the BEA must include all 
standards, policies, and processes needed at the enterprise-level. 
Additionally, to be effective, it is critical OSD provides appropriate 
technical guidance and policy to the Services, components, and agencies 
on how to build and federate their architectures. If confirmed, this 
would be a key focus area for me.
    Question. What steps would you take, if confirmed, to ensure that 
DOD's enterprise architecture and transition plan meet the requirements 
of section 2222?
    Answer. In order to meet the requirements of section 2222, the 
established processes for the architecture and transition plan must 
continue to be strengthened and enforced. If confirmed, I would work to 
strengthen the alignment between the SMP and the BEA and use the IRBs 
to ensure we are investing our business system modernization dollars on 
the Department's most important cross-functional business management 
challenges.
    Question. What are your views on the importance and role of timely 
and accurate financial and business information in managing operations 
and holding managers accountable?
    Answer. Timely and accurate financial and business information is 
essential in managing the Department's business operations. In order to 
make informed decisions, the Department's senior leaders must have 
authoritative information at the right time.
    Question. How would you address a situation in which you found that 
reliable, useful, and timely financial and business information was not 
routinely available for these purposes?
    Answer. If confirmed, and if I found reliable, useful, and timely 
financial and business information was not routinely available, I would 
work with the appropriate DOD leaders to rectify the situation.
    Question. What role do you envision playing, if confirmed, in 
managing or providing oversight over the improvement of the financial 
and business information available to DOD managers?
    Answer. If confirmed, improving the information available to the 
Department's leaders regarding the performance of DOD's business 
operations would be a key part of my responsibilities. With better 
information the Department will be able to better target business 
improvement opportunities and address deficiencies through the BEA and 
transition plan and through the use of Continuous Process Improvement 
methodology.
    Question. The Department has chosen to implement the requirement 
for an enterprise architecture and transition plan through a 
``federated'' approach in which the BTA has developed the top level 
architecture while leaving it to the military departments to fill in 
most of the detail. The Comptroller General has testified that ``the 
latest version of the [business enterprise architecture] continues to 
represent the thin layer of DOD-wide corporate architectural policies, 
capabilities, rules, and standards'' and ``well-defined architectures 
[do] not yet exist for the military departments.''
    If confirmed, would you continue the federated approach to BEA and 
transition plan?
    Answer. If confirmed, I would continue the federated approach to 
the BEA and transition plan.
    Question. What is your understanding of the extent to which the 
military departments have completed their share of the federated 
architecture and transition plan?
    Answer. The military departments are each at different stages and 
levels of maturity in developing their architectures and transition 
plans and significant gaps remain. However, there are positive signs as 
well. If confirmed, I would work with the military department CMOs on 
initiatives to enhance federation.
    Question. What is your assessment of the organization and staffing 
of the military departments to address this issue?
    Answer. The military department organizations that support their 
CMOs are each at different stages of maturity in their ability to 
develop architectures and transition plans. If confirmed, I would 
monitor their ability to effectively deliver on their responsibilities 
under section 2222.
    Question. What steps do you believe the military departments need 
to take to improve their BEAs and transition plans?
    Answer. I believe it is important for the military departments to 
leverage the experience of BTA gained while building the BEA. If 
confirmed, I would work with the military department CMOs to ensure 
this happens.
    Question. What steps do you believe the military departments need 
to take to improve their organization and staffing in this area?
    Answer. I believe the military department CMOs are vitally 
important to successful federation of the Department's architecture. 
The Office of the DCMO, BTA, and the military department CMOs, working 
together, can drive the necessary uniformity of approach to business 
practices across each organization and development of the architecture 
to ensure interoperability of business systems and services, and 
effective sharing of business data, which is the ultimate goal of 
section 2222.
    Question. If confirmed, how would you work with the Secretaries and 
CMOs of the military departments to ensure that a federated 
architecture meets the requirements of section 2222?
    Answer. In addition to the actions outlined above, if confirmed, I 
would work to ensure regular communication between the military 
department CMOs and the IRB Chairs to ensure there is an integrated 
approach to managing and constraining our defense business system 
investments.
    Question. Section 2222 requires that the DBSMC review and approve 
all major defense business system modernization programs to ensure that 
they are in compliance with the Department's BEA and transition plan.
    What is your understanding of the extent to which the process for 
DBSMC review and approval has ensured that business system 
modernization programs are fully coordinated with the BEA and 
transition plan, as intended?
    Answer. The investment review process that supports the DBSMC 
review and approval of business system modernization investments is 
extensive. Every system that has come before the DBSMC has been 
assessed by both the component Pre-Certification Authority and 
appropriate IRB as being compliant to the BEA. If confirmed, I would 
establish an audit capability within the Office of the DCMO to ensure 
the review process is accomplishing the outcomes that are intended.
    Question. How meaningful do you believe DBSMC review and approval 
has been, in light of GAO's assessment that the Department's BEA and 
transition plan has not yet been completed to the statutory standards?
    Answer. Despite GAO's findings regarding the BEA and transition 
plan, I believe the Department's investment review process is 
meaningful. The BEA is a long way from being complete, but is 
recognized as one of the more refined architectures in the Federal 
Government, and won an award just last year from the 1105 Government 
Information Group. As we continue to mature the target architecture, 
the value of this review will become even more meaningful in leveraging 
information technology for strategic outcomes. Also, the addition of 
the requirement for the review process to assess systems' BPR efforts 
will add further value to the review.
    Question. Do you believe that the DBSMC has the expertise and 
resources needed to conduct a meaningful, independent review of 
proposed business system modernization programs, or is the DBSMC 
reliant on the representations made by the military departments and 
their program managers?
    Answer. I believe the DBSMC, supported by the IRB process, has the 
expertise and resources needed to conduct these reviews. If confirmed, 
I would establish an audit capability within the Office of the DCMO to 
ensure the review process is accomplishing the outcomes that are 
intended.
    Question. What recommendations, if any, do you have for improving 
the DBSMC review process?
    Answer. If confirmed, I would establish an audit capability within 
the Office of the DCMO to ensure the review process is accomplishing 
the outcomes that are intended. If confirmed, I would also work with 
the IRBs to further standardize their processes and procedures to 
ensure each of them are providing a similarly rigorous review of a 
system before it came to the DBSMC. Finally, if confirmed, I would 
initiate a detailed analysis of the performance of the review process 
over the past 5 years to better inform our decisionmaking and policy 
setting in the future.
                          financial management
    Question. What is your understanding of the efforts and progress 
that have been made in DOD toward the goal of being able to produce a 
clean audit?
    Answer. Overall, I believe DOD is making progress toward a clean 
audit, but significant improvements are still needed--including efforts 
to address some of the most difficult challenges. The recent successful 
audit of the U.S. Army Corps of Engineers and ongoing audit of the 
Marine Corps Statement of Budgetary Resources are both important steps 
forward. Another improvement the Department made recently is increasing 
senior leadership attention to this effort. In my current role as 
assistant DCMO, I participate as a member of the DOD Financial 
Improvement and Audit Readiness Governance Board that Under Secretary 
Hale chairs. Importantly, the military department CMOs are also members 
of this board. If confirmed, I will work closely with Under Secretary 
Hale to support his efforts to improve the financial management of the 
Department.
    Question. Do you believe that the Department can achieve a clean 
audit opinion through better accounting and auditing, or is the 
systematic improvement of the Department's business systems and 
processes a perquisite?
    Answer. I believe improved business systems are necessary to 
achieve and sustain a clean audit opinion. This is because our legacy 
systems are not capable of recording financial activity at the 
transaction level. In order to achieve a clean audit opinion, we need 
to both reengineer our underlying business processes and implement new 
systems that provide transaction level detail. Each of the military 
departments is in the process of installing a new Enterprise Resource 
Planning (ERP) system that will move us significantly forward. The 
Department will rely heavily on the military department CMOs to help 
ensure proper governance is in place within each military department to 
successfully field these systems.
    Question. What is your assessment of the current version of the 
Financial Improvement Audit Readiness (FIAR) plan prepared by DOD?
    Answer. I agree with Under Secretary Hale and GAO that the last 
FIAR plan and associated report prepared by the Department lacked 
sufficient strategic objectives and priorities and systematic means of 
achieving them. I believe the next FIAR plan should include better 
strategic direction, utilize standard methodology, implement results-
oriented metrics, and identify accountable people and organizations. 
Implementing these changes would be a step in the right direction.
    Question. What steps do you believe the Department should take to 
improve the FIAR plan?
    Answer. I believe the changes I detailed above would be significant 
improvements to the FIAR Plan. Additionally, if confirmed, I will work 
with Under Secretary Hale to better integrate the ERP implementations 
and FIAR efforts.
    Question. What role do you expect to play, if confirmed, in the 
Department's efforts to achieve a clean audit?
    Answer. If confirmed, I would work with Under Secretary Hale and 
the military department CMOs to ensure the Department's underlying 
business processes and information technology investments support the 
goal of achieving a clean audit opinion. I would also work to 
synchronize the efforts of the cross-functional business community in 
support of Under Secretary Hale's efforts.
    Question. When do you believe the Department can achieve a clean 
audit?
    Answer. If confirmed, I will work to assist Under Secretary Hale as 
the Department seeks to achieve a clean audit by fiscal year 2017, as 
required by the National Defense Authorization Act for Fiscal Year 
2010.
                    acquisition of business systems
    Question. Most of the Department's business transformation programs 
are substantially over budget and behind schedule. In fact, the 
Department has run into unanticipated difficulties with virtually every 
new business system it has tried to field in the last 10 years.
    What is your assessment of the extent of the problems the 
Department faces in its acquisition of new business systems?
    Answer. I believe the Department's biggest problems in this area 
are that we take a weapon systems approach to the acquisition of 
information technology capabilities and our business system investments 
are often aligned to a specific business area within the Department and 
do not reflect how we truly perform our daily business. If confirmed, I 
would work with key stakeholders in the Department to find better 
approaches for the acquisition of business systems.
    Question. What do you see as the root causes of these problems?
    Answer. There are a number of root causes for these problems, 
including:

        <bullet> Need for Cross-Functional Governance: Our business 
        systems must operate across traditionally stovepiped 
        communities with disparate interests making integrated 
        governance a challenge because there is not a single process 
        owner.
        <bullet> Lack of Business Process Re-Engineering: Too often the 
        Department pursues business systems investments without taking 
        a hard enough look at improving the underlying business 
        processes. Business system investments are therefore frequently 
        tied to legacy business processes.
        <bullet> Weak Performance Measures: Performance measures must 
        be tied to specific and measurable business outcomes and linked 
        to the Department's SMP. Proposed business system acquisitions 
        are indeed linked to Key Performance Parameters but these 
        measures are not usually tied to how the Department conducts 
        its day-to-day business
        <bullet> Rigid Funding Processes: Private industry is able to 
        deliver information technology capability in 12 to 18 month 
        cycles yet the planning, programming, and budgeting process 
        requires a program manager to forecast budget needs at least 2 
        years in advance of need.

    Question. Do you believe that unique problems in the acquisition of 
business systems require different acquisition strategies or 
approaches?
    Answer. Yes. While there are indeed overall improvements that could 
be made to the Defense Acquisition System, I believe there are unique 
characteristics associated with acquisition of business systems that 
require focused attention.
    Question. What is your understanding of the role of the DCMO in the 
management and oversight of specific business transformation programs?
    Answer. If confirmed, I believe it would be my responsibility to 
ensure that business process re-engineering is completed, that programs 
are aligned with strategic business priorities, and that these programs 
comply with the BEA.
    Question. If confirmed, what steps would you take to help address 
the shortcomings in the Department's business transformation programs?
    Answer. If confirmed, I would work with key stakeholders in the 
Department to find better approaches for acquisition of business 
systems.
    Question. Section 1072 of the National Defense Authorization Act 
for Fiscal Year 2010 requires DOD to undertake business process 
reengineering efforts before initiating business system modernization 
efforts. The Department is required to review ongoing business system 
modernization programs to ensure that appropriate business process 
reengineering efforts have been undertaken on these programs as well.
    Do you believe that the Department has undertaken appropriate 
business process reengineering efforts before initiating business 
system modernization efforts in the past?
    Answer. I believe section 1072 builds on what is currently mandated 
in the Clinger-Cohen Act. Specifically, it recognizes BPR involves more 
than just information technology and deliberately ties BPR to the 
military department CMOs and the DCMO who are also responsible for 
broader business dialogue. This will help to drive necessary functional 
business involvement in a system's BPR efforts. If confirmed, I will 
continue to enhance BPR implementation.
    Question. What is your understanding of the current status of the 
Department's efforts to comply with the requirements of section 1072?
    Answer. The Office of the DCMO issued initial BPR guidance in 
February 2010. The military department CMOs and the Office of the DCMO 
are now moving deliberately to comply with this guidance.
    Additionally, since section 1072 became law on October 28, 2009, 
every system certified by the DBSMC has had a condition placed upon it 
that once guidance was issued, the system would be required to comply 
with it.
    Question. What role do you expect to play, if confirmed, in the 
Department's efforts to comply with the requirements of section 1072?
    Answer. If confirmed, I would continue to drive implementation of 
section 1072.
                     business transformation agency
    Question. Five years ago, the Secretary of Defense established the 
BTA to ensure an organizational focus for business transformation 
efforts within the Department. The Director of the BTA reports to the 
DCMO in his capacity as vice chairman of the Defense Business Systems 
Management Committee.
    What role do you believe the BTA should play in improving the 
business operations and business systems of DOD?
    Answer. I believe that BTA plays a crucial role in the 
transformation of the Department's business operations--specifically in 
five areas:

        <bullet> Managing the acquisition of a portfolio of enterprise 
        business systems that are utilized across the entire 
        Department.
        <bullet> Engaging with deployed warfighters and combatant 
        commands to assist them to improve processes and systems in 
        direct support of their missions.
        <bullet> Working with the principal staff assistants to 
        identify business requirements and policies that will generate 
        business benefit for the Department.
        <bullet> Providing expertise and assistance to the component 
        business system modernization efforts to drive best practices.
        <bullet> Developing and maintaining the BEA and Enterprise 
        Transition Plan.

    BTA provides critical and complimentary support to the DCMO and 
provides DOD a unique execution agency designed to look across the 
enterprise and drive improvement. If confirmed, I would work to ensure 
BTA is properly equipped with the resources it needs to continue to be 
successful.
    Question. What role do you expect to play, if confirmed, in the 
supervision and management of the activities of the BTA?
    Answer. If confirmed, the Director of BTA, consistent with section 
192 of title 10 and the DCMO's chartering directive, would report 
directly to me. As described above, BTA is the lynchpin of the 
Department's business transformation efforts and, if confirmed, I would 
work to ensure BTA's efforts are strategically aligned with our overall 
business strategy and that the agency is attentive and responsive to 
the requirements of its organizational customers, both internal and 
external to DOD.
    Question. Do you see the need for any changes in the BTA, or the 
statutes authorizing the BTA? If so, what changes would you recommend?
    Answer. If confirmed, I would work to ensure BTA is properly 
equipped with the resources, to include senior personnel, and expertise 
it needs to be successful.
   cancellation of defense integrated military human resources system
    Question. The Defense Integrated Military Human Resources System 
(DIMHRS) was an enterprise program of the BTA's Defense Business 
Systems Acquisition Executive. As the largest enterprise resource 
planning program ever implemented for human resources, DIMHRS was to 
subsume or replace over 90 legacy systems. After 10 years of 
development and expenditure of approximately $850 million, DOD 
cancelled the program. At the DOD posture hearing on February 2, 2010, 
Admiral Mullen stated: ``This program has been a disaster.'' Secretary 
Gates stated: ``Many of the programs that I have made decisions to cut 
have been controversial within DOD. This one was not. I would say that 
what we've gotten for a half billion dollars is an unpronounceable 
acronym.''
    What is your understanding of the DOD goals that DIMHRS was 
intended to achieve?
    Answer. The overall goal for DIMHRS was to provide a fully 
integrated military personnel and pay capability for all components of 
the Military Services of DOD.
    Specifically DIMHRS was to address five major problem areas:

        <bullet> Timely and accurate data for combatant commanders
        <bullet> Standardization of Human Resources data
        <bullet> Issues surrounding mobilization of Reserve and 
        National Guard members
        <bullet> Tracking of personnel into and within a theater of 
        operations
        <bullet> Elimination of multiple redundant systems.

    Question. What plan is in place within DOD to address the 
requirements for a human resources management system, now that DIMHRS 
is no longer considered a viable answer?
    Answer. As part of the restructuring of the DIMHRS program, the 
Department proceeded with completing a DIMHRS Core IT Investment, which 
was defined as those common data and process elements, along with DOD 
enterprise-level inbound and outbound interfaces required to achieve 
timely and accurate military pay. Each Service will now deploy a 
Service-level integrated personnel and pay system that uses the DIMHRS 
Core IT Investment to the maximum extent practical.
    The Service-level systems will provide the opportunity to include 
Service specific requirements and will still address problem areas such 
as standardization of Human Resources data, issues surrounding 
mobilization of Reserve and National Guard members, tracking of 
personnel into and within a theater of operations, and elimination of 
multiple redundant systems.
    Additionally, if confirmed, I would oversee deployment of an 
Enterprise Information Warehouse which will meet the requirements for 
enterprise-level information visibility.
    Question. What is your understanding of why this system became a 
``disaster,'' and what steps would you take, if confirmed, to prevent 
it from happening again?
    Answer. I believe the key problems with DIMHRS related to a lack of 
strategic alignment, governance, requirements management, and the 
overall size and scope of the effort. Successful implementation would 
have required many traditionally separate communities and 
organizations--personnel management and payroll services, each of the 
Services, Active, Reserve, and Guard Forces--to adopt uniform business 
practices to support the single, integrated personnel and pay system. 
Unfortunately, many of these communities and organizations were 
reluctant to adopt the uniform processes and business rules within the 
commercial-off-the-shelf product.
    Many of the Department's large scale business system modernization 
efforts face similar challenges. If confirmed, I would take the 
following actions to increase the probability of success with a DIMHRS-
like implementation: First, I would task the CMOs within the military 
departments to take an active role in governance. Second, I would seek 
alignment on the core business processes that truly can be operated in 
an integrated manner. Third, I would seek a process owner to manage the 
end-to-end business processes. Fourth, I would require in-depth BPR to 
define the to-be process. I would create performance based metrics 
aligned to the business process to ensure clear alignment around the 
desired outcomes of the re-engineered process. I would also require the 
redesigned processes to be fully documented and DOD policy to be 
changed (if necessary) before pursuing an information technology 
solution. Finally, I would document and enforce data standards to 
ensure information can be effectively exchanged between information 
consumers.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the DCMO?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Question Submitted by Senator Roland W. Burris
                             cost overruns
    1. Senator Burris. Ms. McGrath, cost overruns for the Joint Strike 
Fighter (JSF) and little or no oversight of billion dollar contracts to 
support the war are examples of poor or mismanagement. What is your 
philosophy on the role of the Secretariat within DOD to provide 
management oversight over policy making and enforcement of standards?
    Ms. McGrath. I believe the Office of the Secretary of Defense (OSD) 
has a clear role to play in terms of management oversight, policy 
making and enforcement of standards. In fact, I believe that it is 
OSD's primary responsibility. This includes oversight of Major Defense 
Acquisition Programs (MDAPs), such as the JSF, and also the large 
service contracts. While these specific examples fall within the 
immediate realm of the Under Secretary of Defense for Acquisition, 
Technology & Logistics (USD AT&L), it is true across the board. If 
confirmed, I look forward to working with the USD(ATL), and the rest of 
the Department's senior management team, to improve the management 
oversight and the enforcement of standards.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                          financial management
    2. Senator McCain. Ms. McGrath, although DOD continues to have the 
largest budget in the Federal Government (with over a half trillion 
dollars in fiscal year 2010), it has not been able to produce reliable, 
auditable financial statements in the 20 years that it has been 
required by law. Do you agree that a lack of effective financial 
management processes and strong internal controls exposes the 
Department to continued risk of fraud, waste, and abuse?
    Ms. McGrath. I agree that strong internal controls embedded into 
documented, repeatable processes, is important.
    While the Department has not yet received a clean audit opinion, 
stewardship of public funds has always been a priority. As the 
Department makes investments in business systems, it is important to 
ensure that thorough process reengineering has been accomplished that 
enable entity-wide controls.

    3. Senator McCain. Ms. McGrath, how do the Quadrennial Defense 
Review (QDR) and the fiscal year 2010 budget request address that 
problem?
    Ms. McGrath. While the QDR did not address specific financial 
management improvement initiatives, the Department has subsequently 
incorporated these items into several strategic planning efforts, is 
devoting significant management attention to the issue, and is actively 
working to execute against these plans. For example, the DOD Strategic 
Management Plan includes the strategic priority, ``Strengthen DOD 
Financial Management.''
    The fiscal year 2010 budget does include funding to support 
financial improvement initiatives to include system implementations 
that are intended to support auditability. Also, it is my understanding 
that the fiscal year 2011 budget request specifically identifies 
dollars that that are aligned to the auditability milestones in the 
Financial Improvement Audit Readiness (FIAR) plan.

    4. Senator McCain. Ms. McGrath, how far off is the Department from 
being able to produce a clean audit?
    Ms. McGrath. If confirmed, I will work with Under Secretary Hale 
and the military department Chief Management Officers (CMOs) as the 
Department seeks to achieve a clean audit by fiscal year 2017, as 
required by the National Defense Authorization Act for Fiscal Year 
2010. Additionally, we will continue to utilize the FIAR Governance 
Board to manage the progress of the effort against the milestones 
established in FIAR plan.

    5. Senator McCain. Ms. McGrath, how much of a prerequisite to a 
clean audit is the improvement of the Department's business systems to 
its ability to achieve a clean audit opinion?
    Ms. McGrath. I believe improved business processes and systems are 
necessary to achieve and sustain a clean audit opinion. If confirmed, I 
will work closely with the components to ensure that adequate business 
process reengineering has been conducted prior to systems 
implementation.

               financial improvement audit readiness plan
    6. Senator McCain. Ms. McGrath, the FIAR plan (which describes the 
Department's progress in achieving clean auditable financial 
statements) was not issued for the period ended September 2009. Why 
not?
    Ms. McGrath. The National Defense Authorization Act of 2010 
required the FIAR Plan Status Report for the first time. The Act 
requires reports from the Under Secretary of Defense (Comptroller) 
(USD(C)) by November 15 and May 15 of each year. There was not 
sufficient time between the signing of the act and November 15 to 
produce a meaningful report. The Department was also in the process of 
modifying the FIAR Plan to address the strategic priorities established 
by the USD(C) and approved by the CMO.

    7. Senator McCain. Ms. McGrath, when will the plan be issued?
    Ms. McGrath. My understanding is that USD(C) will issued the FIAR 
Plan Status Report on or before the required date of May 15, 2010.

    8. Senator McCain. Ms. McGrath, until the plan is issued, how is 
OSD holding the agencies and the Services accountable for progress?
    Ms. McGrath. The USD(C) established a FIAR Governance Board of 
which I am a member. This body meets regularly to monitor progress and 
hold components accountable. Additionally, the OUSD(C) holds monthly 
meetings of the components' Senior Executive Servicemembers responsible 
for achieving audit readiness. These bodies use progress, schedule, and 
outcome metrics to monitor progress. Also, status of financial 
management progress is also presented to the Defense Business Systems 
Management Committee, chaired by the Deputy Secretary.

    9. Senator McCain. Ms. McGrath, what progress has been made to 
date?
    Ms. McGrath. Overall, I believe DOD is making progress toward a 
clean audit, but significant improvements are still needed--including 
efforts to address some of the most difficult challenges. The recent 
successful audit of the U.S. Army Corps of Engineers and ongoing audit 
of the Marine Corps Statement of Budgetary Resources are both important 
steps forward. Another improvement the Department made recently is 
increasing senior leadership attention to this effort. In my current 
role as assistant DCMO, I participate as a member of the DOD Financial 
Improvement and Audit Readiness Governance Board that Under Secretary 
Hale chairs. Importantly, the military department CMOs are also members 
of this board. If confirmed, I will work closely with Under Secretary 
Hale to support his efforts to improve the financial management of the 
Department.

    10. Senator McCain. Ms. McGrath, where do significant weaknesses 
continue to exist?
    Ms. McGrath. There is a substantial amount of work still to be 
done, including efforts to address some of the most difficult 
challenges. These challenges include successfully implementing 
Enterprise Resource Planning systems with the internal controls needed 
to support audits and maintaining supporting documentation sufficient 
for audit of transactions.
    If confirmed, I will pursue appropriate actions to ensure continued 
progress toward meeting clean audit goals.

        business enterprise architecture and transition planning
    11. Senator McCain. Ms. McGrath, the Department is implementing the 
legal requirement for an enterprise architecture and transition plan 
through a federated approach--whereby the Business Transformation 
Agency has developed a top-level architecture while leaving it to the 
military departments to fill in most of the details. How far along is 
each of the military departments in completing their part of the 
federated architecture and transition plan?
    Ms. McGrath. Although by definition, architecture and transition 
plans are never complete, we continue to make progress. We learn from 
each iteration of the architecture and make improvements in both the 
process of building architecture and transition plans and in content. 
In general, each of the Services has now federated each of its major 
(Tier 1,2,3) business systems with the DOD Business Enterprise 
Architecture (BEA) as part of the annual statutory certification 
process and reflects the relationship between their systems and the BEA 
in their Service Enterprise Architectures. This is a positive step.
    With respect to the Enterprise Transition Plan, each of the 
military departments is synchronizing their own transition plans with 
the Enterprise Transition Plan and is a full partner in its 
development, maintenance, and use.

    12. Senator McCain. Ms. McGrath, which departments are being most 
challenged and why do you think they are being challenged?
    Ms. McGrath. In my opinion, the size and complexity of the military 
department makes business transformation challenging. However, the 
establishment and appointment of a CMO in each of the military 
departments, has created an opportunity to enable progress across their 
respective enterprises in the areas of governance, process 
reengineering, and systems implementation. If confirmed, I will work 
closely with military department CMOs to enable better business 
outcomes.
                                 ______
                                 
    [The nomination reference of Elizabeth A. McGrath follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    March 10, 2010.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Elizabeth A. McGrath of Virginia, to be Deputy Chief Management 
Officer of the Department of Defense. (New position.)
                                 ______
                                 
    [The biographical sketch of Elizabeth A. McGrath, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
            Resume of Career Service of Elizabeth A. McGrath
Education:
        <bullet> George Mason University (1988)

                <bullet> Bachelor of Science, Economics

        <bullet> Federal Executive Institute

                <bullet> Graduate
        <bullet> Program Management

                <bullet> Certified Acquisition Level III
Employment Record:
        <bullet> Department of Defense, Office of the Secretary of 
        Defense

                <bullet> Assistant Deputy Chief Management Officer
                <bullet> October 2008-Present

        <bullet> Department of Defense, Office of the Secretary of 
        Defense Acquisition, Technology, and Logistics

                <bullet> Assistant Deputy Under Secretary of Defense 
                for Business Integration (served as Principal Deputy 
                during supervisor's absence)
                <bullet> May 2005-October 2008

        <bullet> Department of Defense, Office of the Secretary of 
        Defense Comptroller

                <bullet> Deputy Director, Business Modernization/
                Systems Integration
                <bullet> January 2004-May 2005

        <bullet> Department of Defense, Defense Finance and Accounting 
        Service

                <bullet> Deputy Director, Systems Integration
                <bullet> June 1999-January 2004

        <bullet> Department of Defense, Department of the Navy

                <bullet> Business Financial Manager/Logistics 
                Management Specialist
                <bullet> July 1990-June 1999

        <bullet> Department of Defense, Department of the Navy

                <bullet> Naval Sea Systems Command, Logistics Intern 
                Program
                <bullet> July 1988-June 1990
Honors and Awards:
        <bullet> ODNI--Meritorious Unit Award (2009)
        <bullet> Presidential Rank Award, Meritorious Senior 
        Professional (2008)
        <bullet> Presidential Rank Award (2008)
        <bullet> DOD Civilian Service Award (2008)
        <bullet> Federal 100 Award (2007, 2008)
        <bullet> Navy Logistics Intern Program (1988-1990)
        <bullet> Superior Performance Awards (numerous)
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Elizabeth A. 
McGrath in connection with her nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Elizabeth Anne McGrath
    Elizabeth Anne Bullock (maiden)
    Nickname: Beth.

    2. Position to which nominated:
    Deputy Chief Management Officer, Department of Defense.

    3. Date of nomination:
    March 10, 2010.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 20, 1964; Long Beach, CA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Divorced.

    7. Names and ages of children:
    James McGrath, 14.
    Christine McGrath, 12.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Secondary: Langley High School, High School Diploma; June 1982.
    George Mason University, B.S., Economics, Dates Attended: Aug. 
1985-Dec. 1987, Degree granted: January 1988.
    Also attended Radford University, Aug. 1982-Dec. 1984.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Assistant Deputy Chief Management Officer; Department of Defense, 
OSD; 9010 Defense Pentagon, Washington, DC; October 2008-Present.
    Assistant Deputy Under Secretary of Defense for Business 
Integration (served as Principal Deputy during supervisor's absence); 
Department of Defense, OSD Acquisition Technology and Logistics; 
Defense Pentagon, Washington, DC; May 2005-October 2008 (Note: this 
organization was subsumed into my current organization in accordance 
with National Defense Authorization Act 2008--which established the 
Deputy Chief Management Officer position).
    Deputy Director, Business Modernization/Systems Integration; 
Department of Defense, OSD Comptroller; 801 South Bell Street, 10th 
floor, Arlington, VA; January 2004-May 2005.
    Deputy Director, Systems Integration; Department of Defense, 
Defense Finance and Accounting Service; 801 South Bell Street, 4th 
Floor, Arlington, VA; June 1999-January 2004.
    Business Financial Manager/Logistics Management Specialist; 
Department of Defense/Department of the Navy; Crystal Park 3, Crystal 
Drive, Arlington, VA; July 1990-June 1999.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    American Society of Military Comptrollers, member.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Presidential Rank Award.
    DOD Civilian Service Award.
    ODNI--Meritorius Unit Award.
    Federal 100 Award, 2007.
    Federal 100 Award, 2008.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    No formal speeches.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                              Elizabeth A. McGrath.
    This 17th day of March, 2010.

    [The nomination of Elizabeth A. McGrath was reported to the 
Senate by Chairman Levin on May 5, 2010, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on June 22, 2010.]
                              ----------                              

    [Prepared questions submitted to Michael J. McCord by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. I believe the Goldwater-Nichols Act was and continues to be 
an important and effective defense reform enacted by Congress. At this 
time, I do not see any need for modifications. However, if confirmed, I 
will keep an open mind regarding changes.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. I do not see any need for modifications at this time.
                             relationships
    Question. What is your understanding of the relationship between 
the Principal Deputy Under Secretary of Defense (Comptroller) and each 
of the following?
    The Secretary of Defense.
    Answer. The Under Secretary of Defense (Comptroller) is the 
principal assistant and advisor to the Secretary and Deputy Secretary 
of Defense on fiscal and budgetary matters. If confirmed, I would 
support the Secretary in any aspect of the responsibilities of the 
Comptroller that the Secretary or the Comptroller may prescribe.
    Question. The Deputy Secretary of Defense.
    Answer. If confirmed, I would support the Deputy Secretary in any 
matter within the purview of the Comptroller that the Deputy Secretary 
or the Comptroller may prescribe.
    Question. The Under Secretary of Defense (Comptroller).
    Answer. The Principal Deputy supports the Under Secretary in all 
aspects of his responsibilities. As Principal Deputy, I perform such 
tasks as the Comptroller directs, and act for the Comptroller as 
needed, and would continue to do so if confirmed.
    Question. The other Under Secretaries of Defense.
    Answer. If confirmed, I will work closely with the other Under 
Secretaries, as directed by the Comptroller, the Secretary, or the 
Deputy Secretary, to carry out the policies and guidance of the 
Secretary and Deputy Secretary.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. If confirmed, I intend to work closely with the Chairman, 
the Vice Chairman, and the Joint Staff on resource and financial 
management issues.
    Question. The Secretaries of the military departments.
    Answer. If confirmed, I would work with the Secretaries of the 
military departments on a wide range of resource allocation, execution, 
and other financial management issues. Much of this work is carried out 
through interactions with their Assistant Secretaries for Financial 
Management, as described below.
    Question. The heads of the defense agencies.
    Answer. As the Department's Comptroller and Chief Financial 
Officer, the Under Secretary works closely with the heads of the 
defense agencies, and specifically, with our financial management 
counterparts in those agencies. If confirmed, I will perform such 
duties in support of these efforts as the Comptroller may direct.
    Question. The Assistant Secretaries for Financial Management of the 
military departments.
    Answer. The Comptroller and I meet regularly with these Assistant 
Secretaries to ensure that they are aware of the President's and the 
Secretary of Defense's policies and priorities, to exchange 
information, and to assist them in contributing to the successful 
development and implementation of effective Department of Defense (DOD) 
policies and programs.
    Question. The General Counsel of DOD.
    Answer. The Office of the Under Secretary of Defense (Comptroller), 
including the Comptroller and the Principal Deputy, work closely with 
the Office of the General Counsel on a daily basis, in particular on 
matters that require decisions by the Secretary or Deputy Secretary of 
Defense. I will, if confirmed, rely on the General Counsel, who is the 
Chief Legal Officer of DOD, on all legal matters, and will consult and 
coordinate with the General Counsel on all matters relating to 
financial management that may have legal implications.
    Question. The Director, Office of Program Analysis and Evaluation.
    Answer. The Office of the Under Secretary of Defense (Comptroller), 
including the Comptroller, the Principal Deputy, and our career staff, 
work closely with the Director and the Office of Cost Assessment and 
Program Evaluation throughout the program and budget review process.
    Question. The Deputy Chief Management Officer (DCMO).
    Answer. If confirmed, I would, as directed by the Comptroller, 
establish an appropriate relationship with the DCMO, once an official 
is confirmed to that position, and work to improve management of the 
Department's complex operations and organization. I anticipate the 
greatest interaction between our organizations would lie in the realm 
of financial management, the systems that provide management 
information, particularly financial management information, and the 
development of appropriate metrics in those areas.
    Question. The Director for Force Structure, Resources, and 
Assessment on the Joint Staff.
    Answer. The Office of the Under Secretary of Defense (Comptroller), 
including the Comptroller and the Principal Deputy, have and will 
maintain a close working relationship with the office of the Director 
for Force Structure, Resources, and Assessment of the Joint Staff, in 
particular with respect to matters relating to operating tempo, force 
structure, and overseas contingency operations.
    Question. The Director, Office of Management and Budget.
    Answer. The Office of the Under Secretary of Defense (Comptroller), 
including the Comptroller and the Principal Deputy, have and will 
maintain a close working relationship with the Office of Management and 
Budget. That relationship is carried out primarily through near-daily 
interaction with the National Security Division of OMB.
    Question. The Comptroller General.
    Answer. If confirmed, I would perform such duties with respect to 
interactions with the Comptroller General and the Government 
Accountability Office regarding DOD matters as the Comptroller may 
prescribe for me.
duties of the principal deputy under secretary of defense (comptroller)
    Question. The Deputy Under Secretary of Defense (Comptroller) 
assists the Under Secretary of Defense (Comptroller) in the performance 
of his or her duties and acts for him when the Under Secretary is 
absent. The duties of the Comptroller of DOD are set forth in section 
135 of title 10, U.S.C., and in DOD Directive 5118.3. Among the duties 
prescribed in statute are advising and assisting the Secretary of 
Defense in supervising and directing the preparation of budget 
estimates of DOD, establishing and supervising Department of Defense 
accounting policies, and supervising the expenditure of DOD funds.
    Assuming you are confirmed, what duties do you expect that 
Secretary Gates and Under Secretary Hale will prescribe for you?
    Answer.

        <bullet> To assist the Comptroller in providing high quality, 
        timely advice to the Secretary of Defense and Deputy Secretary 
        on issues related to the financial management of the 
        Department.
        <bullet> To assist the Comptroller in ensuring that the men and 
        women in the military services, especially those engaged in 
        overseas contingency operations, have the resources they need 
        to meet national security objectives.
        <bullet> To assist the Comptroller in ensuring that funds are 
        spent in accordance with laws and regulations and that the 
        American taxpayers get the best possible value for their tax 
        dollars.
        <bullet> To assist the Comptroller in accounting in an accurate 
        manner for the funds spent by the Department.
        <bullet> To serve as the Department's Senior Accountable 
        Official for implementation of the American Recovery and 
        Reinvestment Act of 2009.

    Question. What background and experience do you possess that you 
believe qualifies you to perform the duties of the Principal Deputy 
Under Secretary of Defense (Comptroller)?
    Answer. I was appointed to the position for which I have been 
nominated in January 2009, and have now served in that position for 14 
months. I believe my experience performing the duties of the position 
for which I have been nominated, and the manner in which I have 
performed those duties, demonstrates my qualification for this 
position.
    I have more than 25 years of experience in the field of defense 
budget and financial management analysis including:

        <bullet> Twenty-one years as a professional staff member of the 
        Senate Armed Services Committee overseeing the DOD budget, 
        including many of the same issues that I continue to work on, 
        from a different perspective, in DOD, including funding the 
        cost of overseas contingency operations, analysis of the fiscal 
        impact of legislation, reprogramming of funds to meet emerging 
        needs, questions of fiscal law and financial management, the 
        analysis of alternative courses of action with respect to 
        specific programs, and knowledge of the Federal budget process.
        <bullet> Two years at the Congressional Budget Office working 
        as an analyst performing tasks very similar to those performed 
        by the staff of the Office of the Under Secretary of Defense 
        (Comptroller).
        <bullet> Service on the staff of the House Budget Committee 
        working topline funding issues for both DOD and Veterans 
        Affairs, which enhanced my understanding of benefit issues and 
        the areas of interaction between the two Departments, as well 
        as the analysis of the cost of contingency operations and the 
        overall Federal budget process.

    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform these duties?
    Answer. I believe I can continue to increase my expertise by 
continuing to gain experience on current, specific DOD budget and 
financial management issues.
                        chief financial officer
    Question. DOD Directive 5118.3 designates the Comptroller as the 
Chief Financial Officer of DOD.
    Has Secretary Gates designated Under Secretary Hale as the Chief 
Financial Officer of DOD?
    Answer. Yes.
    Question. If so, what role do you expect to play, if confirmed, in 
assisting Secretary Hale with these duties and acting for him when he 
is absent?
    Answer.

        <bullet> To assist the Comptroller/Chief Financial Officer in 
        overseeing all financial management activities relating to the 
        programs and operations of DOD;
        <bullet> To assist the Comptroller/Chief Financial Officer in 
        developing and maintaining integrated agency accounting and 
        financial management systems;
        <bullet> To assist the Comptroller/Chief Financial Officer in 
        managing and providing policy guidance and oversight of DOD's 
        financial management personnel, activities, and operations;
        <bullet> To assist the Comptroller/Chief Financial Officer in 
        preparing audited financial statements; and
        <bullet> To assist the Comptroller/Chief Financial Officer in 
        monitoring the financial execution of budgets.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the Principal Deputy Under Secretary of Defense (Comptroller)/Chief 
Financial Officer?
    Answer.

        <bullet> To prepare and manage defense budgets so that the 
        Department obtains the resources necessary to accomplish 
        national security objectives--especially the resources needed 
        to meet wartime requirements and for our military forces to 
        successfully conduct their operations.
        <bullet> Responding to the needs of our operational commanders 
        for additional resources or flexibility within the constraints 
        imposed by laws and regulations.
        <bullet> Improving the financial information most needed by DOD 
        managers.
        <bullet> Managing our workforce through the challenges of 
        converting out of the National Security Personnel System.

    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. If confirmed, I will work closely with other senior 
officials in DOD and the Comptroller staff, military departments, 
defense agencies, Office of Management and Budget, and Congress to 
develop policies to meet these challenges.
    I will also provide strong leadership and support for our staff in 
meeting these priorities of the Comptroller.
              authorization for national defense programs
    Question. Do you believe that an authorization pursuant to section 
114 of title 10, U.S.C., is necessary before funds for operation and 
maintenance, procurement, research and development, and military 
construction may be made available for obligation by DOD?
    Answer. It has been the Department's practice to work with all the 
oversight committees to resolve matters relating to the authorization 
or appropriation of DOD activities. If confirmed, I will respect the 
prerogatives of the Department's oversight committees and will work 
closely with the committees to achieve a consensus necessary to meet 
our defense needs.
              supplemental funding for military operations
    Question. Since September 11, 2001, DOD has paid for much of the 
cost of ongoing military operations through supplemental 
appropriations. The fiscal year 2010 and fiscal year 2011 budget 
included full-year requests for overseas contingency operations.
    What are your views regarding the use of supplemental 
appropriations to fund the cost of ongoing military operations?
    Answer. The Department and the administration are striving to 
eliminate the use of planned supplemental funding and have worked hard 
to put known requirements for ongoing operations into the overseas 
contingency operations portion of the budget request and to limit the 
use of supplementals to unanticipated needs.
    The primary focus of this effort is to estimate the requirements 
for the budget year as accurately possible. As a general rule, I do not 
believe it is possible to achieve that same standard of accuracy for 
the out-year projections.
                       program and budget review
    Question. The Department has operated under a planning, 
programming, and budget (PPBS) system for decades. The programming and 
budgeting functions have sometimes been combined in a single reporting 
chain and at other times, as is currently the case, been run by 
distinct offices (Program Analysis and Evaluation and the Comptroller, 
respectively) that report separately to the Secretary of Defense. The 
program and budget review processes have also been revised in recent 
years and have been made more concurrent than was previously the case.
    Based on your experience working in the Comptroller's office for 
the last year, what are your views on the proper relationship between 
the program and budget processes and the offices responsible for those 
functions?
    Answer. I believe there must be regular and effective coordination 
and communication between the Comptroller and Cost Assessment and 
Program Evaluation organizations. I believe both organizations have an 
important role to play in the PPBS system.
    Question. What role do you expect to play, if confirmed, in the 
PPBS system and the program and budget review processes?
    Answer. If confirmed, I would represent the Office of the Under 
Secretary of Defense (Comptroller) in any or all parts of the program 
and budget review process as directed by the Comptroller.
    Question. Do you anticipate changes in these relationships and 
processes?
    Answer. The Department is currently assessing potential changes to 
the PPBS process. Those decisions will be made by the Secretary and 
Deputy Secretary.
                     management of defense spending
    Question. In November 2008, the Government Accountability Office 
(GAO) released its list of ``urgent issues'' for the next 
administration and Congress. Among those issues was defense spending. 
According to GAO, ``The department's current approach to planning and 
budgeting is based on overly optimistic planning assumptions and lacks 
a strategic, risk-based framework for determining priorities and making 
investment decisions. As a result, it continues to experience a 
mismatch between programs and budgets, and it does not fully consider 
long-term resource implications and the opportunity cost of selecting 
one alternative over another.'' Since GAO published that statement the 
Defense Department has crafted two budgets and completed the 2009 
Quadrennial Defense Review.
    What are your views on the concerns raised by GAO?
    Answer. The concerns raised by GAO are valid, and this 
administration has taken action to establish a new approach to planning 
and budgeting. Congress has also mandated reforms in this area in the 
Weapon Systems Acquisition Reform Act of 2009 which I believe will, 
when fully implemented, improve our future outcomes.
    The Quadrennial Defense Review and related studies give us a 
strategic, risk-based framework for determining priorities and making 
investment decisions. Our program-budget process has incorporated those 
priorities into our fiscal year 2011 budget request, and will continue 
those efforts in future budgets.
    DOD also is doing much more to consider long-term resource 
implications and opportunity costs, e.g., by more rigorous analysis by 
our Cost Assessment and Program Evaluation office in partnership with 
our Comptroller staff.
    Question. Has the Office of Comptroller addressed these issues over 
the last year?
    Answer. Yes. Besides the general actions highlighted above, there 
are several specifics:
    To make better use of acquisition funding, the Department has taken 
some bold action, beginning with the Secretary's decision last year to 
discontinue several unneeded or underperforming programs, including the 
F-22, and to focus on achieving a better balance between capabilities 
needed to succeed in the wars we are in and capabilities needed to 
prepare for potential future conflicts. This approach has continued in 
the fiscal year 2011 budget request, which proposes to cancel the Joint 
Strike Fighter alternate engine and end further production of the C-17 
aircraft.
    The Department has also invigorated the acquisition reform process 
by taking steps to strengthen the acquisition workforce and improve 
contract execution. The objective is to provide our warfighters with 
the capabilities they need while also serving as good stewards of 
taxpayer dollars.
    Question. Are there additional efforts that need to be taken that 
with respect to those aspects of the management of the Department that 
are within the purview of the Comptroller that may be relevant to the 
concerns raised by GAO?
    Answer. Yes, we need to continue our efforts to scrutinize 
requirements, costs, schedules, and program direction--in cooperation 
with other DOD offices--to manage defense spending effectively.
                                earmarks
    Question. On January 29, 2008, President Bush signed Executive 
Order 13457, which stated that agency decisions to commit, obligate, or 
expend funds may not be ``based on language in any report of a 
committee of Congress, joint explanatory statement of a committee of 
conference of Congress, statement of managers concerning a bill in 
Congress, or any other non-statutory statement or indication of views 
of Congress, or a House, committee, Member, officer, or staff 
thereof.''
    What is your understanding of the current status of Executive Order 
13457 (has it been rescinded or modified)?
    Answer. Executive Order 13457 has not been rescinded or modified by 
the current administration. Until the President rescinds or modifies 
the executive order, it is still in effect.
    Question. What is your understanding of the current direction from 
the White House on earmarks?
    Answer. The President believes that transparency is crucial to 
improving government. The President outlined his principles for earmark 
reform on March 11, 2009. Two key principles of his approach are 
maximizing the transparency of earmarks and the use of competition in 
earmarks for for-profit entities. I believe Congress has taken 
significant steps on earmark reform in the past few years, in 
particular to increase such transparency. As a member of the staff of 
the Armed Services Committee, I personally participated in implementing 
some of the transparency reforms undertaken by Congress in recent years 
such as the inclusion of the disclosure tables for member requests 
beginning with the fiscal year 2008 authorization bill.
    Question. If confirmed, what steps would you expect to take to 
ensure that DOD abides by congressional funding decisions and that 
funds available to the Department are expended only for the purposes 
for which they have been appropriated?
    Answer. If confirmed, I will work to ensure that DOD carries out 
funding decisions in accordance with the law.
                             funding tables
    Question. The 2010 National Defense Authorization Act included 
funding tables in both report and bill language. Concern has been 
expressed that incorporating funding tables into the bill could limit 
the flexibility of DOD to transfer funds to meet emerging high-priority 
needs.
    What is your view on funding tables in the text of bills 
authorizing and appropriating funds for DOD?
    Answer. The Department does require flexibility. No matter how 
carefully we prepare our budget, requirements change. The Department 
should continue to work with Congress to seek the right balance of DOD 
flexibility and congressional oversight.
                        chief management officer
    Question. The positions of Chief Management Officer (CMO) of DOD 
and DCMO of DOD were established by section 904 of the National Defense 
Authorization Act for Fiscal Year 2008. In accordance with section 904, 
the purpose of these new positions is to improve the overall efficiency 
and effectiveness of the business operations of DOD and to achieve an 
integrated management system for business support areas within DOD.
    Do you believe that a comprehensive, integrated, enterprise-wide 
architecture and transition plan is essential to the successful 
transformation of DOD's business systems?
    Answer. I think an effective architecture and transition plan to 
guide the needed overhaul of DOD business systems should be our goal. 
The more ambitious the goal, however, the more difficult it is likely 
to be to achieve.
    Question. What is your understanding of the role of the Comptroller 
in implementing such a business enterprise architecture and transition 
plan?
    Answer.

        <bullet> To work with and support the CMO and DCMO in building 
        such an architecture and transition plan.
        <bullet> In implementing the architecture and plan, the 
        Comptroller would have a key role for the areas of its 
        responsibilities--notably, budgeting and financial management.

    Question. Do you believe that the Department needs senior 
leadership from a CMO and DCMO to cut across stovepipes and ensure the 
implementation of a comprehensive, integrated, enterprise-wide 
architecture for its business systems?
    Answer. Yes.
    Question. Over the last year, how has the Comptroller's office 
worked with the CMO and the DCMO to improve the business operations of 
DOD?
    Answer. The President has pledged to bring change to Washington, 
and we at DOD are working to carry out his policies such as increasing 
the transparency of government. A key first step in this effort has 
been to promulgate this administration's management priorities, which 
include the High Priority Performance Goals contained in the fiscal 
year 2011 budget request and the Deputy Secretary's Strategic 
Management Plan. The Office of the Under Secretary of Defense 
(Comptroller) has worked with the DCMO office on those goals and 
management priorities that fall within our purview.
    Question. Are there responsibilities performed by the Comptroller 
that you believe should be reassigned to the CMO or the DCMO of DOD?
    Answer. I believe that once an official is confirmed as the first 
DCMO, it would be appropriate for our office to work with the DCMO 
office to address any gaps or areas of overlap and to make such changes 
in our respective charters as may be mutually agreed.
    Question. Are there responsibilities performed by the CMO that you 
believe should be performed by the Comptroller?
    Answer. No, not that I have identified so far in my tenure here, 
but my answer to the previous question applies here as well.
                incremental funding versus full funding
    Question. Do you believe DOD should continue to adhere to the 
longstanding practice of fully funding the purchases of major capital 
assets, including ships and aircraft, in the year the decision to 
purchase the asset is made, or do you believe incremental funding of 
such purchases is justified in some cases?
    Answer. Yes, I agree with longstanding Office of Management and 
Budget policy on full funding. However, I believe incremental funding 
may be appropriate in limited circumstances--such as for aircraft 
carrier procurement or for large, complex construction projects such as 
hospitals that take several years to complete.
                          financial management
    Question. What is your understanding of the efforts and progress 
that have been made in DOD since 1999 toward the goal of being able to 
produce a clean audit?
    Answer. I believe DOD is making progress toward a clean audit. The 
large trust funds for retiree benefits and several Defense Agencies 
have received positive audit results. Recently the U.S. Army Corps of 
Engineers earned a clean audit opinion and the U.S. Marine Corps' 
Statement of Budgetary Resources is currently under audit.
    There is, however, a substantial amount of work still to do, 
including efforts to address some of the most difficult problems. The 
Department recently implemented a new strategy to achieve a clean audit 
that focuses improvement efforts on the financial information most used 
to manage. If confirmed, I will pursue appropriate actions to ensure 
continued progress toward meeting clean audit goals.
    Question. Do you believe the Department's Financial Improvement and 
Audit Readiness (FIAR) plan will lead to achieving a clean audit 
opinion for DOD, or are changes in that plan necessary in order to 
achieve that goal?
    Answer. The Department's progress toward achieving a clean audit 
opinion has been slower than we would like. The Department needs to 
agree on common goals and priorities in the audit readiness area. 
Toward that end, last August the Comptroller issued his guidance to the 
Department on his audit priorities. Our office is implementing this new 
approach, which is focused on improving the quality, accuracy and 
reliability of the financial and asset information that we use every 
day to manage the Department. Specifically, we plan to focus initially 
on two types of information--budgetary information and the existence 
and completeness of assets. It is too early to assess whether further 
changes will be needed to achieve this goal.
    Question. What are the roles and responsibilities of the Office of 
the Comptroller toward realizing a clean audit?
    Answer. The Under Secretary of Defense (Comptroller) (USD(C)) 
provides the vision, goals, and priorities of the FIAR Strategy. We 
then work with the Military Services and Defense Agencies to make the 
process and system improvements needed to achieve financial management 
improvement and clean audits. The Comptroller organization supports the 
components and is charged with the responsibility of managing 
development and implementation of DOD-wide financial management systems 
and overseeing financial management activities relating to the programs 
and operations of the DOD.
    The Office of the USD(C)'s oversight responsibilities relevant to a 
clean audit include: (1) holding components accountable for meeting DOD 
financial management improvement goals; (2) establishing financial 
management policies for DOD including its Reporting Entity parts; (3) 
ensuring compliance throughout DOD with applicable accounting policy, 
standards and principles, as well as financial information and systems 
functional standards; (4) establishing, reviewing, and enforcing 
internal control policies, standards, and compliance guidelines 
involving financial management; (5) providing oversight of financial 
management activities and operations including preparation and revision 
of the FIAR Plan Status Report.
    Question. What role do you expect to play, if confirmed, in the 
Department's efforts to achieve a clean audit?
    Answer. If confirmed, I would perform such duties with respect to 
these matters as the Comptroller may prescribe for me.
    Question. When do you believe the Department can achieve a clean 
audit?
    Answer. While many significant challenges remain we now have 
focused financial improvement and audit readiness efforts on 
information we use to manage. We believe that this makes the business 
case for improving financial information clear. The combination of this 
business case and increased resources will lead to better results. We 
are required to provide regular reports to Congress, and beginning with 
our May 2010 report the Comptroller will provide more details on the 
plan.
                fully funding the defense health program
    Question. For the fiscal years 2010 and 2011, Secretary Gates has 
recognized the importance of fully funding medical care requirements 
for military personnel, retirees, and their families.
    If confirmed, would you ensure that budget requests presented to 
Congress continue to fully fund all known medical requirements?
    Answer. If confirmed, I would do my utmost to ensure that DOD 
budget requests fully fund all known healthcare requirements.
    Question. Secretary Gates has also stated that he wishes to engage 
with Congress on ways to sustain the military health care benefit in 
the future, with the goal of achieving reasonable trade-offs between 
the cost of premiums and the cost of the program.
    What is your understanding of the major cost drivers in the defense 
health program?
    Answer.

        <bullet> Enrollment fees for the TRICARE Prime program have not 
        been modified since its inception in fiscal year 1995.
        <bullet> Increases in users--many beneficiaries are returning 
        to the Military Healthcare System (MHS), opting to use their 
        more generous TRICARE benefits versus using other health plans 
        (e.g. other health insurance either through employer's or a 
        spouse's plan);
        <bullet> Increases in utilization--the MHS continues to see 
        increases in the number of health care visits per user.
        <bullet> Greater benefits authorized by Congress (e.g., TRICARE 
        for Life and expanding TRICARE for reservists).

    Question. If confirmed, what approach would you recommend to 
achieve the Secretary's goal?
    Answer. If confirmed, I would recommend continuing to work closely 
with our Military Services and health care leaders to ensure that all 
healthcare requirements are identified and analyzed during each year's 
program and budget review. Changes in health care policies also require 
a consensus with Congress.
                          mycaa program pause
    Question. The Department initiated The Military Spouse Career 
Advance Account Program (MyCAA) to help military spouses obtain 
credentials and training needed to begin or advance their careers, 
especially in high demand fields which are portable across communities. 
DOD abruptly halted the program on February 16, 2010, citing the need 
to conduct a review of ``software applications, financial assistance 
documents and overall program.'' Subsequent explanations indicated that 
the program had unexpectedly reached its budget threshold. It appears 
that inadequate financial management of the program may have been a 
root cause for the program's floundering.
    What was the budget threshold for the MyCAA program in fiscal year 
2010 and what were the factors that led to rapid halting of the 
program?
    Answer. The amount budgeted for MyCAA in fiscal year 2010 was $65 
million. This was a new program which began in March 2009. There was no 
accurate way to gauge interest or participation levels when the fiscal 
year 2010 budget was built. After some months of lower participation, 
it is my understanding that participation rates started increasing 
substantially. The $65 million budgeted for the program in fiscal year 
2010 proved to be inadequate to meet this higher demand. The 
participation levels increased to the point where the program was on 
the verge of exceeding the available funding.
    Question. What is your understanding of the fiscal health of the 
MyCAA program and the reasons that necessitated a pause in the 
program's operation?
    Answer. The fiscal health of the MyCAA program must be addressed 
quickly. The current program funding levels are inadequate to meet the 
demand.
    The pause was initiated by the MyCAA program office in order to 
limit the Department's potential funding liability and to evaluate the 
program's near-term funding options.
    We are currently preparing a reprogramming action to provide 
adequate funding for those spouses already enrolled in the program. We 
will need the assistance of Congress to fully fund our current 
enrollees. We will monitor the program's demand, and will prepare 
another reprogramming action this fiscal year if necessary to ensure 
the fiscal health of the MyCAA Program.
    Question. What measures, if any, has the DOD Comptroller instituted 
to ensure the MyCAA program proceeds on a sound financial footing in 
the future?
    Answer. The DOD Comptroller and the Under Secretary of Defense 
(Personnel and Readiness) are currently working with other stakeholders 
on options to ensure the program is adequately funded in the future to 
meet the needs of the military spouses. In my view, the key to this 
effort is forecasting demand as accurately as possible.
    A longer-term solution may entail changes to the program parameters 
that allow for maximum participation within a more adequate fixed 
budget level. As we gain more experience with the program participation 
levels, further budget adjustments will be made to keep pace.
                 tracking and timeliness of dod reports
    Question. The responsibility for tracking congressionally-required 
reports largely is the responsibility of the USD(C).
    Based on your experience in both the legislative and executive 
branches, how do you evaluate DOD's current system for tracking, 
evaluating the sufficiency of reports required by Congress, and 
delivering required reports in a timely fashion?
    Answer. The Assistant Secretary of Defense for Legislative Affairs 
is responsible for tracking reports due to Congress. I believe the 
tracking system is basically sound. Some of the reports are difficult 
to deliver within the stated deadlines given the scope of work required 
and the limits of the resources available to respond.
    The Department's response time could be improved. If confirmed, I 
intend to look for ways to make such improvements.
    Question. If confirmed, would you support efforts on behalf of the 
Department to review current reporting requirements and, where 
appropriate, recommend elimination of reporting requirements?
    Answer. Yes. Both Congress and DOD would benefit from eliminating 
unneeded reports.
    Question. If so, how would you intend to implement such a plan in 
order to achieve efficiencies?
    Answer. I would recommend that Congress and DOD each identify 
reporting requirements that seem unnecessary and seek agreement on 
eliminating them.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Principal Deputy Under 
Secretary of Defense (Comptroller)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis of any good faith delay or denial in providing such 
documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
            Questions Submitted by Senator Roland W. Burris
                             cost overruns
    1. Senator Burris. Mr. McCord, during the March 11, 2010, hearing 
on the Joint Strike Fighter (JSF), the witnesses confirmed that the 
unit cost has increased from $50 million in 2002 to a cost of $112 
million in today's dollars. Additionally, the total cost to complete 
the Pratt F135 engine is now estimated to be $7.28 billion, an overrun 
of $2.5 billion. Programs such as JSF provide an example of how the 
Department of Defense (DOD) is not being a good steward of the 
taxpayers' money. How will you enforce fiscal responsibility?
    Mr. McCord. To enforce better fiscal responsibility in programs 
like the JSF, the Department has embarked on a comprehensive effort to 
reform the acquisition process. That effort includes an overarching 
strategy to expand and improve the capabilities of the DOD acquisition 
workforce including our ability to conduct contract planning, 
execution, and oversight. Consistent with that strategy, we are growing 
our acquisition workforce by 20,000 positions over the fiscal years 
2010-2015--including over 9,000 contracting, cost estimating, pricing, 
and contract oversight personnel. Our intent is to improve our capacity 
and technical ability to conduct component and independent cost 
estimates.

    2. Senator Burris. Mr. McCord, given the continued cost overruns 
with the JSF program, how will you look at writing and enforcing future 
contracts?
    Mr. McCord. DOD plans to explore greater use of fixed-price 
development contracts, when appropriate. To align profitability with 
performance, we will align incentive fees to contractor performance. 
Under an incentive fee contract, the contractor will maximize its fee 
when it delivers a product that demonstrates the required capability, 
on-time and within cost. Alternatively, the fee will be reduced when it 
fails to deliver. Finally, contractors that have validated poor 
performance will have that adverse information captured in the past 
performance database and will negatively impact opportunities to be 
successful in future competitions. These efforts, combined with other 
acquisition process initiatives, are designed to ensure that our 
programs are based on firm technical foundations, executable 
requirements, rigorously estimated costs, and thoughtfully designed and 
executed contracts.
                                 ______
                                 
               Questions Submitted by Senator John McCain
 financial integrity and cost accounting in the defense health program
    3. Senator McCain. Mr. McCord, a congressionally-mandated task 
force chartered in 2007 to examine the future of military health care 
found DOD's medical cost accounting system, in use since 1986, ``highly 
inaccurate and inadequate''. Among the reasons cited for this finding 
were: (1) it does not capture all DOD health care costs; (2) it is 
inconsistent in how labor costs are allocated; and (3) it relies on 
self-reporting on policies that are inconsistent across the Services. 
Do you agree that the Department's $50 billion medical program care 
warrants modernization and standardization of medical cost accounting 
systems?
    Mr. McCord. The cost of the healthcare provided by the Department 
to servicemembers and their families is a key concern of the Secretary 
of Defense since it makes up a significant and rising portion of the 
DOD budget each year. Controlling these costs is important to the 
Department's ability to meet its mission in a way that we can afford to 
sustain over time. I agree that modernizing our medical cost accounting 
processes and systems is one part of the larger effort the Department 
and Congress need to make to control DOD health care costs.

    4. Senator McCain. Mr. McCord, if confirmed, what will you do to 
achieve the long overdue improvements?
    Mr. McCord. I chair the Department's Senior Assessment Team, which 
oversees financial reporting controls and addresses the Department's 
material financial reporting weaknesses. Accounting for military health 
care costs and related liabilities is one of the weaknesses we have 
identified and are working to fix. The Office of the Assistant 
Secretary of Defense for Health Affairs has the primary responsibility 
for these medical cost accounting systems. I intend to continue working 
through this group to ensure this issue has the appropriate support and 
attention within the financial management community.
                                 ______
                                 
    [The nomination reference of Michael J. McCord follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     March 1, 2010.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Michael J. McCord of Virginia, to be Principal Deputy Under 
Secretary of Defense (Comptroller). (New Position)
                                 ______
                                 
    [The biographical sketch of Michael J. McCord, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
             Resume of Career Service of Michael J. McCord
Education:
        <bullet> The Ohio State University (September 1977-June 1981). 
        Bachelor of Arts in Economics with honors in the liberal arts, 
        June 1981
        <bullet> University of Pennsylvania, Master of Arts in Public 
        Policy Analysis, May 1984
Employment Record:
        <bullet> Department of Defense, Principal Deputy Under 
        Secretary of Defense (Comptroller), January 2009-present
        <bullet> Committee on Armed Services, U.S. Senate, Professional 
        Staff Member, January 1987-January 2003 and March 2004-January 
        2009
        <bullet> Committee on the Budget, U.S. House of 
        Representatives, Budget Analyst, January 2003-February 2004
        <bullet> Congressional Budget Office, Assistant Analyst, 
        December 1984-January 1987
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Michael J. 
McCord in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Michael John McCord.

    2. Position to which nominated:
    Principal Deputy Under Secretary of Defense (Comptroller).

    3. Date of nomination:
    March 1, 2010.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    January 23, 1959; Marion, OH.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Divorced.

    7. Names and ages of children:
    Alejandra E. McCord, age 24.
    Meredith J. McCord, age 22.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    River Valley High School, Marion, Ohio, fall 1972-spring 1977, high 
school degree received May 1977
    The Ohio State University, September 1977-June 1981, Bachelor of 
Art in Economics with honors in the liberal arts, June 1981
    The University of Pennsylvania, September 1981-May1984, Master of 
Arts in Public Policy, May 1984

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    January 2009-present, Principal Deputy Under Secretary of Defense 
(Comptroller), U.S. Department of Defense, The Pentagon, Washington DC
    March 2004-January 2009, Professional Staff Member, Committee on 
Armed Services, U.S. Senate, Washington DC
    January 2003-February 2004, Budget Analyst, Committee on the 
Budget, U.S. House of Representatives, Washington DC
    January 1987-January 2003, Professional Staff Member, Committee on 
Armed Services, U.S. Senate, Washington DC

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    President-Elect's Transition Team, Department of Defense Agency 
Review Team, The Pentagon, Washington DC, November-December 2008 (on 
detail from the Senate Armed Services Committee staff)

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Unitarian Universalists for Social Justice, Silver Spring, MD. 
Board member, Secretary, and member of the Executive Committee
    Member, Accotink Unitarian Universalist Church, Burke VA
    Member, Communities of Faith United for Housing, Fairfax County, VA
    Member, American Society of Military Comptrollers, Alexandria, VA.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    No formal offices held.
Services:
    Canvassing for Obama Presidential campaign, Columbus, OH, October 
2008
    Volunteer member of defense policy team, Obama campaign, 2007-2008
    Canvassing for Marsden for Delegate campaign, Fairfax County, VA, 
November 2005
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    My contributions that aggregate to $100 or more during the 5-year 
period covering calendar years 2005-2009 are as follows:

         Democratic Senatorial Campaign Committee (2005-2009) $598
         Obama for America (2007-2008) $560
         Democratic National Committee (2005-2009) $495
         Democratic Party of Virginia (2005, 2007-2009) $380
         Democratic Congressional Campaign Committee (2006-2009) 
        $357.80
         Mark Warner for Senate (2007/2008) $150
         Webb for Senate (2006) $140
         Deeds for Governor (2009) $120
         Forward Together PAC (Mark Warner) (2006) $100

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    National Merit Scholarship, The Ohio State University, 1977-1981
    Member, Phi Beta Kappa, The Ohio State University, 1981
    Stennis Congressional Staff Fellow, 110th Congress, The Stennis 
Center for Public Service Leadership, 2007-2008

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Remarks on Managing the Future of DOD Acquisition to the Defense 
Acquisition University Business Managers' Conference, Fort Belvoir, VA, 
May 19, 2009.
    Remarks on DOD Budget and Financial Management Priorities to the 
Association of Government Accountants/American Society of Military 
Comptrollers Professional Development Institute Conference, Honolulu, 
HI, October 14, 2009.
    Copies to be provided separately.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Michael J. McCord.
    This 18th day of March, 2010.

    [The nomination of Michael J. McCord was reported to the 
Senate by Chairman Levin on May 5, 2010, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on June 22, 2010.]
                              ----------                              

    [Prepared questions submitted to Sharon E. Burke by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. Currently, I see no specific changes in the act that I 
would recommend.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. See above.
                                 duties
    Question. Section 139b of title 10, U.S.C., establishes the duties 
and functions of the Director of Operational Energy Plans and Programs 
(DOEPP).
    What is your understanding of the duties and functions of the 
DOEPP?
    Answer. My understanding of the duties and functions of the DOEPP, 
as established by the law, are as follows:

        <bullet> Provide leadership, facilitate communication, and 
        conduct oversight of operational energy plans and programs 
        within the Department of Defense and the Army, Navy, Air Force, 
        and Marine Corps;
        <bullet> Establish an operational energy strategy;
        <bullet> Coordinate and oversee planning and program activities 
        of the Department of Defense and the Army, Navy, Air Force, and 
        the Marine Corps related to implementation of the operational 
        energy strategy; the consideration of operational energy 
        demands in defense planning, requirements, and acquisition 
        processes; research and development investments related to 
        operational energy demand and supply technologies; and monitor 
        and review all operational energy initiatives in the Department 
        of Defense;
        <bullet> Serve as the principal adviser to the Secretary of 
        Defense and the Deputy Secretary of Defense regarding 
        operational energy plans and programs and as the principal 
        policy official within the senior management of the Department 
        of Defense regarding operational energy plans and programs.

    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. With more than 20 years of relevant experience, I have 
extensive background in energy security policy and Department of 
Defense programs and priorities. I first worked in energy policy at the 
Office of Technology Assessment of the U.S. Congress, where I 
researched a range of energy and public works issues. In the 1990s, 
after graduate education that focused on energy policy, I was selected 
to join the Office of the Secretary of Defense as a Presidential 
Management Intern. This program involved a 2-year period of postings 
across the Defense Department, including the Office of the Under 
Secretary for Acquisition and Technology. After joining the civil 
service, I served as a Country Director for South Asia in the Office of 
the Under Secretary of Defense for Policy, where I was the lead in 
coordinating U.S. defense policy toward the region with defense 
agencies, the Joint Staff, the military departments, and the 
interagency. Subsequently, I served as an aide to the Secretary of 
Defense and then the Deputy Secretary of State, with direct exposure to 
leadership challenges during military operations. Most recently, as an 
executive at a small non-profit business, I directed a research program 
on energy security and related issues, such as critical minerals, and 
have conducted research on national energy security strategy, energy 
security roles and missions in the Federal Government, Department of 
Defense use of operational fuels, and how climate change may affect 
strategic planning in the Department of Defense.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of DOEPP?
    Answer. If confirmed, I will need to take actions common to many 
new officials, such as deepening my knowledge of the portfolio and 
developing partnerships with key stakeholders across the Department, in 
other agencies, and in the private sector. In addition, if confirmed, I 
will need to take actions that may be less common for incoming 
officials in standing up a new office fully capable of executing a new 
mission for the Department of Defense.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of Defense would prescribe for you?
    Answer. If confirmed, I expect that the Secretary of Defense will 
prescribe duties and functions in accordance with the requirements in 
the law. He may also expect me to play a supporting role in addressing 
other Department of Defense energy challenges.
    Question. What is your vision for how the DOEPP should interface 
with the installations and environment community to tie together 
installation and operational energy policy and goals?
    Answer. If confirmed, I intend to build a close partnership with 
the installations and environment community. There are fairly clear 
delineations in law and regulation on the responsibilities of these 
communities within DOD, but there is a high degree of collaboration in 
practice. First, given the way the term ``operational energy'' was 
defined in law, there is operational energy used by both deployed 
forces and at installations in the United States and around the world. 
Second, the DOEPP will need to leverage the expertise and experience 
the Department has amassed on the full range of defense energy 
challenges within the installations and environment community, both in 
the Pentagon and across the country. Indeed, the Department's energy 
strategy must make common cause in improving the capabilities of our 
forces and assuring their access to essential resources while reducing 
our energy costs and demonstrating leadership on climate change. If 
confirmed, I look forward to collaborating with Dr. Dorothy Robyn, the 
DUSD(I&E), and the many other OSD, Service, and Defense agency 
officials dedicated to these goals.
    Question. How should DOEPP interface with the Services' existing 
and new energy offices?
    Answer. If confirmed, I will work closely with the Services' energy 
offices to integrate their respective efforts, including by developing 
strategy, overseeing energy-related budgets, and promoting the improved 
energy performance of our forces as directed in the law.
                             relationships
    Question. In carrying out your duties, what would be your 
relationship with:
    The Secretary of Defense.
    Answer. If confirmed, I would serve as the Secretary's principal 
advisor on operational energy matters. In keeping with statute, I would 
communicate directly with the Secretary to convey timely advice 
grounded in sound energy strategy.
    Question. The Deputy Secretary of Defense.
    Answer. If confirmed, I would serve as the Deputy Secretary's 
principal advisor on operational energy matters. In keeping with 
statute, I would communicate directly with the Deputy Secretary to 
convey timely advice grounded in sound energy strategy.
    Question. The Service Secretaries.
    Answer. If confirmed, I would engage with the Service Secretaries 
and their senior operational energy officials to ensure that 
operational energy concerns are addressed in their policy priorities 
and inputs into joint planning.
    Question. The Service Chiefs.
    Answer. If confirmed, I would engage with the Service Chiefs, their 
staffs, and their operational commanders to help incorporate 
operational energy concerns into their statutory responsibilities to 
recruit, organize, train, equip, and maintain military forces.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics.
    Answer. If confirmed, I would directly support the USD(AT&L) in 
incorporating operational energy considerations throughout the 
acquisition process, research and development priorities, and logistics 
planning.
    Question. The Assistant Secretary of Defense for Logistics and 
Material Readiness.
    Answer. If confirmed, I would seek to collaborate with the 
ASD(L&MR) to reduce the logistics burden that high energy consumption 
can place on our forces.
    Question. The Deputy Under Secretary of Defense for Installations 
and Environment.
    Answer. If confirmed, I would seek to collaborate with the 
DUSD(I&E) in a wide variety of ways, but primarily in setting a 
comprehensive DOD energy strategy that helps advance the capabilities, 
cost-effectiveness, and environmental stewardship of the Department of 
Defense to the greatest degree possible.
    Question. The Deputy Under Secretary of Defense for Science and 
Technology.
    Answer. N/A (this position was absorbed into the Research Director 
under DDR&E)
    Question. The Director of Defense Research and Engineering.
    Answer. If confirmed, I would work closely with the Director on 
DOD's energy-related research and development portfolio, and to promote 
investment in energy technologies and design innovations that may lead 
to a more capable, more cost-effective and sustainable force. Further, 
I would seek a partnership in the oversight of the energy-related 
budget in DOD, consistent with the requirements of the DOEPP under law.
    Question. The Director of Systems Engineering.
    Answer. If confirmed, I would support the Director's, the 
Department's, and Congress' efforts to strengthen systems engineering 
practice and oversight in DOD's acquisition process.
    Question. The Director of Force Transformation.
    Answer. N/A (this office was disbanded in the last administration 
and its functions were split between NII and OSD Policy.)
    Question. The Joint Requirements Oversight Council.
    Answer. If confirmed, I would support the USD(AT&L)'s participation 
on the Joint Requirements Oversight Council (JROC), focusing on the 
incorporation of operational energy concerns into the requirements 
process. I would work with the key Joint Staff members who manage and 
contribute to the JROC's work to also ensure that concepts of operation 
and other doctrinal documents they review and approve are giving 
adequate consideration of fuel demand in the force and the value of 
efficiency and alternatives.
    Question. The Combatant Commanders.
    Answer. If confirmed, I would seek lessons learned from both the 
regional and functional combatant commands in on-going and past 
operations related to operational energy challenges and solutions. I 
would also seek to work together to promote experimentation with new 
energy capabilities.
    Question. The Service Acquisition Executives of the military 
departments.
    Answer. If confirmed, I would work closely with the Service 
Acquisition Executives to promote the use of energy management tools, 
such as the Energy Efficiency Key Performance Parameter and the Fully 
Burdened Cost of Fuel, in the acquisition programs they oversee.
    Question. The Director of the Defense Logistics Agency.
    Answer. If confirmed, I would work with the Director, DLA to ensure 
compliance with DOD policies, executive orders, and current laws that 
seek to reduce energy burdens on the force. Further, I would work with 
the Director of the Defense Energy Support Center, a subordinate entity 
within DLA, to ensure the implementation of the DOD operational energy 
strategy.
    Question. The program executive officers and program managers of 
major defense acquisition programs.
    Answer. If confirmed, I would offer support on the use of energy 
planning and management tools, such as the Energy Efficiency Key 
Performance Parameter and the Fully Burdened Cost of Fuel. This would 
include soliciting their ideas for how to ensure program executive 
officers and program managers have greater incentives to drive towards 
more energy efficient technology, alternative fuels, and other design 
options to improve energy use.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront DOEPP?
    Answer. The primary challenge confronting DOEPP will be to change a 
longstanding, underlying assumption across the defense enterprise that 
energy will always be relatively cheap and available where it is 
needed, when it is needed. Moreover, in addressing this challenge, 
DOEPP will have to confront the reality that there is no one-size-fits-
all solution. A successful operational energy strategy for the 
Department will have to place high priority on improving the energy 
posture of deployed forces, both in forward operating positions and in 
support bases, for example, at the same time that it incorporates 
energy considerations into DOD's normal business processes, from 
wargaming to requirements to budgeting. If confirmed, I expect to find 
these challenges eased by the growing, pervasive awareness of the 
importance of the Department's energy posture, given experiences in 
Operations Enduring Freedom and Iraqi Freedom. If DOD incorporates 
energy as both an enabler and as a liability in how it designs and 
builds the force, we can make major improvements in our capability, 
flexibility, effectiveness, affordability, and sustainability. In this 
way, energy can be a strategic and tactical advantage for U.S. forces, 
rather than a significant source of risk.
    Question. Assuming you are confirmed, what plans, management 
actions, and timelines do you have for addressing these challenges?
    Answer. If confirmed, I would work with the Department's senior 
leadership to improve the operational energy posture of current 
deployments as well as incorporating operational energy considerations 
into the Department's planning and strategy development, requirements, 
acquisition, and budgeting processes on an ongoing and long-term basis.
    Question. What do you consider to be the most serious problems in 
the coordination of operational energy efforts across the Services?
    Answer. At this time I do not have first-hand knowledge of what may 
be the most serious problems in the coordination of operational energy 
efforts across the Services, though I am certainly aware that each 
Service has its own roles, missions, materiel, training, and cultures. 
If confirmed, I would plan to work closely with Service energy 
executives and other key stakeholders to ensure that the Department's 
energy strategy allows for implementation that can promote coordination 
and also accommodate differentiation.
                       organization and staffing
    Question. Managing operational energy is vitally important but will 
be challenging because of the cross-cutting nature of the problem which 
permeates DOD and the Services. The authorizing language for this 
position prescribes certain tools such as budgetary certification to 
ensure that the Director has the access and ability to conduct 
oversight needed to be successful.
    Are there any additional tools you feel you might need to be 
successful?
    Answer. Not at this time but I will examine this question if I am 
confirmed.
    Question. What is your understanding of the extent to which the 
Department has made the changes necessary to establish the office of 
DOEPP, in accordance with the statutory requirements?
    Answer. Although I have limited knowledge of the arrangements 
already made, I believe that the Department has taken steps to 
establish the office of DOEPP and other energy policy infrastructure as 
required in the law.
    Question. Do you see the need for any changes in the structure, 
organization, or reporting relationships of the office of DOEPP?
    Answer. No, not at this time.
    Question. What steps do you plan to take, if confirmed, to assess 
the staffing needs of your office and ensure that you have sufficient 
staff of appropriately qualified and trained personnel to carry out 
your duties and responsibilities?
    Answer. If confirmed, I will carefully consider the best way to 
fully establish this new office in order to meet the statutory 
requirements. That will include determining the optimal office 
organization, creating or fine-tuning position descriptions, adopting 
success metrics, and recruiting qualified individuals.
    Question. What is your view of the current staffing of operational 
energy plans and programs of the military departments and defense 
agencies?
    Answer. If confirmed, I will review the resources allocated to 
operational energy plans and programs across the defense enterprise.
    Question. If confirmed, what role if any do you expect to play in 
ensuring that the operational energy planning and program functions of 
the military departments and defense agencies have sufficient staff of 
appropriately qualified and trained personnel to carry out their duties 
and responsibilities?
    Answer. If confirmed, I plan to work with leadership to assess the 
capability and capacity of the Department to execute the Department's 
energy strategy. This assessment would include an appraisal of staff 
qualifications.
    Question. Do you think that the Department is currently doing an 
adequate job of coordinating operational energy planning and 
programming across the services?
    Answer. No, not at this time. Military and civilian leadership in 
the Department have done an admirable job of identifying concerns about 
operational energy and beginning to put in place the policies and 
staffing to deal with these concerns, but these efforts are still in 
their early stages, particularly when it comes to implementation. 
Coordination across the services, Combatant Commands, the Office of the 
Secretary of Defense and Joint Staff will be a high priority for me, if 
confirmed.
                                training
    Question. Section 332 of the Duncan Hunter National Defense 
Authorization Act for Fiscal Year 2009 requires consideration of fuel 
logistics support requirements in planning, requirements development, 
and acquisition processes.
    What is your view of the steps that should be taken to ensure 
wargames, planning processes, other training, and acquisitions 
appropriately consider the operational impacts of systems that create 
energy and fuel demand?
    Answer. The key mission of the DOEPP office will be to make sure 
planning processes, wargaming, and acquisitions consider the 
operational impacts of energy consumption. If confirmed, I and my staff 
will best accomplish this by deepening relationships and partnerships 
with key stakeholders across the building, contributing to these 
processes and activities, and providing useful expertise and 
information, to include best practices and lessons learned. Also, key 
leadership statements and strategy documents can be useful tools, 
especially the 2008 Defense Science Board Task Force report on DOD 
Energy Strategy and the 2010 Quadrennial Defense Review, which set 
important baselines.
                        research and development
    Question. What do you see as the role or need for research and 
development to meet DOD's operational energy needs?
    Answer. Research and development related to operational energy and 
force capability is of great importance in meeting the Department's 
operational energy needs. If confirmed, I look forward to working with 
the Director, Defense Research and Engineering, the Services, the 
Department of Energy and the national labs, and the commercial sector 
to drive and/or capture the benefits of innovation in energy research.
    Question. What is your current understanding of the way that the 
Office of the Secretary of Defense and the military departments 
coordinate budgets for operational energy research and development?
    Answer. My understanding is that the Under Secretary of Defense for 
Acquisition, Technology, and Logistics, supported by the Director, 
Defense Research and Engineering, oversees the RDT&E investment 
accounts and programs of the Services and Defense Agencies and 
coordinates their budget requests with their sponsors.
    Question. Do you believe that any of the military department's 
research and development programs in this area are redundant or 
overlapping?
    Answer. I do not have sufficient information about the programs to 
make an informed judgment at this time.
    Question. If confirmed, what steps would you take to coordinate the 
research and development efforts of the military departments for 
operational energy?
    Answer. If confirmed, I will work closely with the Services, 
Department leadership, and other stakeholders to ensure that energy 
research needs are being performed where the best capability exists, 
and to coordinate efforts to make the most progress as quickly as 
possible.
    Question. Do you believe that specific areas of responsibilities 
should be assigned to each military department? If so, how would you go 
about defining those areas of responsibility?
    Answer. I believe the military departments should have a lead role 
in determining the capabilities they need to meet military missions and 
support military forces. If confirmed, I would support OSD and Joint 
Staff efforts to facilitate collaboration and/or reduce overlap in 
military R&D responsibilities.
    Question. What role do you believe DARPA should play in research 
and development to meet operational energy needs?
    Answer. DARPA has a major role to play in pursuing leap-ahead, 
often high risk, technological advancements to improve U.S. forces' 
capabilities. This is true for energy-related technologies just as it 
is for other areas.
    Question. In your view, should DOD accelerate research and 
technology development efforts related to renewable energy and 
efficiency, procurement of equipment, and conservation efforts? If so, 
what steps would you take, if confirmed, to accelerate such efforts?
    Answer. I believe that DARPA, and DOD writ large, should accelerate 
research and technology efforts in any area with strong promise for 
improving our forces' capability, capacity, and efficiency, 
particularly where DOD has a unique mission-critical need that cannot 
be served by the commercial sector. Concerning energy, I am mindful of 
the fact that DOD has been most successful in driving innovation when 
DOD is focused on meeting military needs. If confirmed, I would work 
with the Director, Defense Research and Engineering, the Deputy Under 
Secretary of Defense for Installations and Environment, and the 
relevant military department leadership to ensure we are investing in 
energy innovations to advance our warfighter's capabilities.
    Question. In your view, should DOD accelerate demonstration 
programs with respect to renewable energy platforms to better aid 
deployed forces in combat zones where energy and resources are derived 
solely from power generators and convoy/airlift support? If so, what 
steps would you take, if confirmed, to accelerate such programs?
    Answer. If confirmed, one of my top priorities will be to improve 
the capabilities, force protection, effectiveness, and efficiency of 
deployed forces in Iraq, Afghanistan, and global operations against 
terrorist organizations. I believe that energy innovations can further 
that goal.
    Question. What specific metrics would you use, if confirmed, to 
assess funding targets and priorities for DOD's long term research 
efforts and determine whether DOD is making adequate investments in its 
basic research programs?
    Answer. I do not have sufficient knowledge or perspective yet to 
make such a judgment. However, if confirmed, I would plan to work with 
key stakeholders to develop a prioritization scheme for energy-related 
reforms and their implementation, complementing and informed by the 
Quadrennial Defense Review and other relevant strategy and guidance. 
This would provide the strongest context for making informed resource 
allocation and funding target assessments.
                          department of energy
    Question. If confirmed, how would you work with the Department of 
Energy (DOE), including the Advanced Research Projects Agency-Energy, 
on the development of new or advanced approaches for operational energy 
requirements?
    Answer. If confirmed, I would look forward to working closely with 
the Department of Energy, including the Advance Research Projects 
Agency-Energy, to develop new or advanced approaches for meeting 
operational energy requirements where opportunities for collaboration 
exist.
    Question. Are there any specific areas where you think DOD or the 
Services are best suited to partner with DOE?
    Answer. At this time, I do not have specific thoughts on 
technologies or other areas that are best suited to a partnership.
    Question. The Secretary of Energy recently outlined plans to invest 
up to $366 million to establish and operate three new Energy Innovation 
Hubs focused on accelerating research and development in three key 
energy areas. Each Hub, to be funded at up to $122 million over 5 
years, will bring together a multidisciplinary team of researchers in 
an effort to speed research and shorten the path from scientific 
discovery to technological development and commercial deployment of 
highly promising energy-related technologies.
    In your view, would similar plans and efforts within DOEPP 
similarly benefit DOD?
    Answer. If confirmed, this is a concept I would discuss with the 
Director, Defense Research and Engineering and the appropriate Service 
points of contact.
                                biofuels
    Question. What do you see as the advantages and disadvantages of 
the use of biofuels by DOD?
    Answer. Although I do not know the specifics of DOD's current or 
planned biofuels use, I believe the advantages and disadvantages of the 
Department of Defense biofuels programs likely mirror those of the 
civilian economy. The chief advantages are: the ability to improve U.S. 
energy security and cut operating and economic vulnerabilities by 
decreasing reliance on foreign energy sources; the benefit to the U.S. 
economy and provision of jobs that come with a domestic industry; 
improvements in climate security through lower greenhouse gas 
emissions; and the promotion of a long-term transition away from fossil 
fuels. The disadvantages include: competition with other uses (such as 
food) depending on the feedstock used; challenges with meeting 
technical specifications and performance standards; high capital and/or 
lifecycle costs; insufficient gains in cutting greenhouse gas 
emissions; and opportunity costs for investment in other energy 
innovations.
    Question. What are the costs and benefits (including environmental 
costs and benefits) associated with the use of biofuels?
    Answer. The costs and benefits of biofuels are complex and depend 
on the feedstock, water demands of the feedstock and fuel production, 
byproducts, and total lifecycle greenhouse gas emissions. A thorough 
and objective cost-benefit analysis of all these considerations will be 
vital to capturing the benefits and minimizing the costs of biofuels.
    Question. If confirmed, how will you help ensure that the use of 
biofuels by the services do not result in prolonged increased energy 
costs, detract from operational readiness, or unduly burden existing 
logistics systems?
    Answer. If confirmed, I will ensure that the Department's energy 
strategy considers all of these factors and will work with the Defense 
Energy Support Center to ensure any alternative fuels contracts DOD 
enters into conform with EISA Section 526 and protect the taxpayer 
against excessive costs. I will also ensure any alternative fuel 
purchased for deployable systems are fully fungible with conventional 
fuels and do not compromise performance or sustainment of our forces.
    Question. In your view, does the Department need any additional 
statutory or contract authorities to increase the production of 
biofuels?
    Answer. I do not yet have access to sufficient information to make 
an informed judgment.
                          expeditionary energy
    Question. In a deployed environment, forward operating bases rely 
on ground-based and air logistical support and generators to function, 
produce electricity, and accomplish their combat mission, often at the 
risk of casualties and high costs. One alternative is the use of solar 
and wind renewable energy resources in theater to provide energy to 
units.
    In your view, which of the concepts and technologies that are 
currently available or under development provide the most promising 
sources of energy for deployed units?
    Answer. If confirmed, I will seek more information on the technical 
and demonstration data particular to combat missions in order to make 
informed judgments on this issue. This would be a priority issue I 
expect to discuss with the Director, Defense Research and Engineering 
and the appropriate Service points of contact.
    Question. Another alternative currently in use to conserve energy 
and operational costs is the foaming of tents and structures. The 
Marine Corps tends to favor insulating fabric layers rather than foam 
to provide a more lightweight and maneuverable capability to shelters.
    What is your understanding of the advantages and disadvantages to 
using foam as insulation?
    Answer. My understanding is that the foaming of tents and some more 
permanent structures overseas is a great success story in terms of 
reduced fuel demand. There have also proven to be some challenges 
related to mobility, disposal, ventilation, and flammability. If 
confirmed, I will review this program and work with the Services and 
COCOMs to develop clear and consistent guidance.
    Question. What is your understanding of the extent to which tents 
and structures currently use foaming technology?
    Answer. I am not aware of the total number or proportion of 
operational structures that have been foamed, or that are planned to be 
insulated in some way.
    Question. What is your understanding of DOD's goals for use of 
foaming in the future?
    Answer. I am not aware of any goals or current contracts to further 
foam any structures. If confirmed, I will collect this data from the 
Services and COCOMs and discuss options with them to set clear guidance 
for the future.
    Question. In 2007, the Joints Chiefs of Staff rejected an urgent 
request for renewable power stations in Iraq on the grounds that solar 
and wind-powered technologies were ``not mature enough'' to deploy. As 
a result such potentially beneficial technologies have generally been 
limited to demonstration programs and deployed units are left without 
renewable and independent energy sources that could ease the threat and 
burden of logistical support convoys and airlifts.
    If confirmed, what steps would you take to overcome such problems?
    Answer. If confirmed, I would work with senior civilian and 
military leaders to ensure we are better supporting our warfighters in 
the field. This means testing and fielding operational energy solutions 
as quickly and as prudently as possible in order to enhance the ability 
of deployed forces to achieve their missions. In assessing any urgent 
operational needs, the Department must balance the quick and the 
prudent; for urgent operational needs with energy as a factor, I would 
expect the Director for Operational Energy to have a role in such 
assessments.
    Question. Do you consider energy conservation and the use of 
renewable energy to be a combat multiplier or key performance 
parameter?
    Answer. Both. Improved energy efficiency and use of renewables can 
be important combat multipliers, if they are implemented in ways that 
improve the capability of systems and military units, or if they reduce 
the total logistics footprint in the theater of operations. At the same 
time, I believe the energy efficiency key performance parameter will be 
a vital factor in requirements and acquisition decisions going forward.
    Question. In your view, is there a need for a cultural change in 
the mindset of our Armed Forces with respect to renewable energy, 
efficiency, and conservation?
    Answer. Yes. My impression is that a cultural change is underway 
but is in the early stages of taking hold. A number of factors are 
spurring this change. First, U.S. and partner forces have faced great 
challenges in securing and maintaining supply lines in Iraq and 
Afghanistan, along with high costs. This has underscored the need to 
cut the consumption of fuel and develop energy alternatives. The 
Quadrennial Defense Review explicitly and firmly identified energy 
security as an important national security goal, which will provide a 
baseline for new thinking. It is my understanding that some wargames 
and other defense planning activities have also begun to incorporate 
challenges to energy supplies.
                      fully burdened cost of fuel
    Question. The fully burdened cost of fuel accounts for not only the 
fuel price but all other costs associated with delivery, often to 
forward operating locations. It can vary depending on the region and 
operating platform, but moving fuel by convoy and airlift is often very 
expensive depending on the analysis.
    Do you believe that the fully burdened cost of fuel provides a 
useful metric for the Department's operational energy programs?
    Answer. I believe it can be a useful metric. Right now, the costs 
of fuel consumption are not fully accounted for; developing a credible 
metric for the fully burdened cost of fuel will help assign the 
appropriate value to energy efficiency, conservation, and other 
alternatives. It can be a vital tool for making smarter decisions on 
both the performance and sustainment of our future force, but also on 
the total ownership costs of the forces DOD is developing. If 
confirmed, I look forward to working within OUSD(AT&L), with the 
Director of Cost Analysis and Program Evaluation, and with the military 
departments to find the best way to implement the fully burdened cost 
of fuel in the DOD acquisition process.
    Question. If confirmed, what steps if any would you take to ensure 
that the fully burdened cost of fuel is accurate, incorporated into 
funding requests, and becomes efficient as possible?
    Answer. I understand that the development and implementation of the 
fully burdened cost of fuel methodology is a core responsibility of the 
Director's office. If confirmed, I would work closely with my 
colleagues in OUSD(AT&L), the Office of the Director, Cost Analysis and 
Program Evaluation (CAPE) and their equivalents in the military 
departments to ensure their estimates are developed consistent with 
acquisition policy, and that they are applied properly within the 
established acquisition decision processes.
    Question. If confirmed, what technologies, programs, and efforts 
would you advocate to help reduce the fully burdened cost of fuel?
    Answer. If confirmed, I would work with the Director, Defense 
Research and Engineering, in particular, but also with the Service 
acquisition and research and development commands, to pursue leads with 
the most promise for improving U.S. forces' endurance, sustainment in 
the field, and mission capability. I believe that by keeping the 
improvement of our forces' mission capability as our central focus, we 
will advance DOD's energy innovation to the greatest degree possible.
                           contingency plans
    Question. Most military installations rely on energy provided by 
the local civilian energy grid, which is owned and operated outside of 
military jurisdiction. The risk of power outages in the civilian energy 
grid may pose significant threats to their readiness and ability of 
some installations to perform their mission.
    Do you believe that the security and reliability of energy provided 
to military installations is a significant source of concern?
    Answer. Yes. I believe the overall security of the U.S. electric 
grid is a significant source of concern--for the civilian economy as 
well as for the Department of Defense. Although I have read reports 
that there may be unappreciated risks to DOD critical missions from 
electric grid vulnerabilities, I do not have sufficient exposure to 
classified and technical data to make an informed judgment on the 
matter. If confirmed, I expect to work with the assistant Secretary of 
Defense for Homeland Defense, the Deputy Under Secretary of Defense for 
Installations and Environment, and the other DOD organizations with 
equities concerning this issue to better understand current policies 
and practices.
    Question. What role if any do you see for DOEPP in initiatives to 
improve the security and reliability of energy provided to military 
installations both in the United States and abroad?
    Answer. My understanding is that the responsibilities for ensuring 
reliable energy supply to military installations cross-cuts numerous 
policy, oversight, and operational organizations. Given that the 
definition of ``operational energy'' includes energy consumed at 
military bases in the United States in execution of mission critical 
tasks supporting forward deployed forces and other operational 
functions, it would be appropriate for DOEPP to be involved in policy 
formulation and coordination in this area.
    Question. In Afghanistan, fuel convoys must pass through unstable 
regions and single points of entry through mountain passes.
    What role if any do you see for DOEPP in the development of 
contingency plans to ensure energy support to the warfighter in the 
case of the disruption of lines of supply?
    Answer. I am not aware of any authority or requirement in statute, 
regulations, or policy for DOEPP to review and approve contingency 
plans, which are the responsibility of the Under Secretary of Defense 
for Policy and the relevant Combatant Commands. The same is true for 
planning on current operations, although the USD(AT&L) has a role in 
logistics oversight in current operations. If confirmed, I plan to 
collaborate with the Office of the Under Secretary of Defense for 
Policy, the Joint Staff J8, the Director, Cost Analysis and Program 
Evaluation (CAPE), and the related offices in the military departments 
to ensure energy support to warfighters.
                            renewable energy
    Question. What is your understanding of the extent to which 
military operational energy is currently derived from renewable energy 
sources?
    Answer. I have not seen an assessment of current operational use of 
renewable energy. If confirmed, this is a question I will seek hard 
data on.
    Question. If confirmed, what steps if any will you take to increase 
the percentage of operational energy from renewable sources?
    Answer. I believe it is in the Department's interest to assess 
which renewable sources may reliably meet operational energy needs 
before setting percentages or targets. An accurate assessment may well 
demonstrate that there are circumstances in which renewable sources 
will improve performance and/or reliability and/or lower costs, 
especially once management tools such as the fully burdened cost of 
fuel are implemented. I am not aware of whether an assessment has been 
done to date, but if confirmed, I will examine how decisions are being 
made about fielding renewable energy sources and technologies to 
support operational activities.
    Question. In your view, are renewable energy technology and other 
alternatives to fossil fuels too expensive to compete with refined 
petroleum sources of energy?
    Answer. In my view, it would not be prudent to make any blanket 
statements about the cost competitiveness of alternatives to fossil 
fuels, especially since the full cost of these fuels is not reflected 
in the price. Moreover, in the context of military operations, 
performance is the most important metric, with reliability and cost 
being important but not necessarily decisive considerations. I do think 
it is important for the Department to factor into its decisions, 
especially its procurement decisions, considerations such as ``total 
ownership cost'' and the fully burdened cost of fuel, which can help 
accurately incorporate full energy costs.
    Question. If confirmed, what approach will you take to ensure that 
any efforts to reduce energy demand or shift to renewable energy 
alternatives will not degrade mission effectiveness?
    Answer. If confirmed, one of my driving concerns will be to improve 
mission effectiveness, especially for deployed forces. I will advocate 
for energy policies that do so. I will not advocate for any energy 
option that has a negative effect on mission effectiveness of U.S. 
forces. If confirmed, I will work diligently to ensure that the way DOD 
measures the capability, cost, and other implications of energy 
alternatives is done consistently and rigorously, in line with the 
other capability considerations.
    Question. One common criticism of renewable energy platforms and 
technologies relates to a lack of power storage or concerns with 
battery capabilities.
    If confirmed, what steps if any would you expect to take to address 
such potential issues and concerns?
    Answer. If confirmed, I will collaborate with the Director, Defense 
Research and Engineering, as well as the military department research 
and development and energy lead officials, to ensure our energy storage 
and related technology investment and testing is keeping up with our 
forces' operational needs.
    Question. DOD has significant experience in partnering with 
industry to develop renewable power resources--such as solar or 
geothermal power--for military installations.
    Do you see a role for similar partnerships with industry for the 
development of renewable fuel approaches to operational energy 
requirements?
    Answer. Yes. Partnerships with industry are likely to be crucial to 
meeting operational energy requirements.
                              energy goals
    Question. How would you define operational energy security for DOD?
    Answer. Section 331 of the 2009 National Defense Authorization Act 
defines operational energy as ``the energy required for training, 
moving, and sustaining military forces and weapons platforms for 
military operations. The term includes energy used by tactical power 
systems and generators and weapons platforms.''
    Question. If confirmed, what goals would you establish for DOEPP in 
achieving operational energy security for DOD?
    Answer. If confirmed, I will have a top goal to identify and 
implement energy policies that can improve the mission effectiveness of 
deployed forces in Afghanistan, Iraq, and in the global fight against 
terrorist organizations. Another top goal will be to better integrate 
energy policy into the Department's business approaches in the research 
and development, requirements, and procurement processes, to include 
implementing tools required by law and regulation, such as the Energy 
Efficiency Key Performance Parameter and the Fully Burdened Cost of 
Fuel. If confirmed, I will also make assessing, assisting with, and 
reporting on energy-related budgets across DOD a priority. Finally, an 
important goal will be to integrate a full understanding of energy 
security into the Department's strategic planning, force planning, and 
logistics, raising awareness of energy challenges and opportunities 
across the defense enterprise and identifying ways and means to improve 
DOD's energy security in the near, mid, and long term.
    Question. What is your understanding of the responsibilities of 
DOEPP for setting and implementing energy goals, including energy 
conservation goals and goals for alternative and renewable types of 
energy, within DOD?
    Answer. My understanding is that, if confirmed, I would have a 
leading role in drafting the Departmental operational energy strategy 
and policy, in support of the Secretary. I would plan to work with all 
DOD entities with operational energy in their own portfolios to devise 
goals and specific changes that advance the capability, affordability, 
and sustainability of U.S. forces, now and into the future. I would 
also coordinate with the DUSD(I&E) on ensuring that the operational 
energy strategy is compatible with the sustainability management plan 
and other departmental energy management goals.
    Question. In your view, are existing DOD energy goals, including 
energy conservation goals and goals for alternative and renewable types 
of energy, realistic and achievable?
    Answer. From my experience in the private sector, I understand the 
Department's current goals to be focused on installations and 
compliance with current laws and the new Executive Order 13514 
regarding greenhouse gas emissions from energy use. To my knowledge, 
those issues will be overseen by the USD(AT&L) with the 
DUSD(Installations & Environment) as his primary staff lead. I am not 
aware of any systematic assessment that has been done on whether these 
goals are sufficient for DOD's purposes but have read anecdotal success 
stories.
    Concerning operational energy, I believe there will be differences 
in how the Department will measure operational energy benefits in 
current operations from how it measures energy benefits in the design 
of future capabilities. I am aware of no specific DOD energy goals in 
either domain at this time, but if confirmed, I would anticipate having 
a role in developing those within a DOD energy strategy.
    Question. What changes, if any, would you recommend to these goals?
    Answer. I am not in a position to recommend proposed changes at 
this time.
                      execution of executive order
    Question. On October 8, 2009, the President signed Executive Order 
13514, Federal Leadership in Environmental, Energy, and Economic 
Performance, to establish the policy that Federal agencies shall 
increase energy efficiency and measure, report, and reduce their 
greenhouse gas emissions. The Secretary of Defense has designated the 
Under Secretary of Defense for Acquisition, Technology, and Logistics 
to serve as the Senior Sustainability Officer responsible for ensuring 
compliance with the directives in this executive order.
    Are you familiar with the Department of Defense's integrated 
Strategic Sustainability Performance Plan required by the executive 
order?
    Answer. Yes, I am familiar with the requirement in the executive 
order.
    Question. What role do you expect to play, if confirmed, in working 
with the Under Secretary of Defense to carry out the requirements of 
the executive order?
    Answer. I believe that, if confirmed, I would partner with the 
DUSD(I&E) in supporting the USD(AT&L) to meet these requirements.
    Question. What issues, if any, do you anticipate for the Department 
of Defense in satisfying the goals in the executive order?
    Answer. Beyond noting the recent announcement of greenhouse gas 
emissions targets, I do not have sufficient insight into how the 
Department is planning to implement the executive order to anticipate 
such issues.
    compliance with section 526 of the u.s. energy independence and 
                              security act
    Question. Section 526, which was signed into law in December 2007, 
prohibits Federal agencies from entering into procurement contracts of 
alternative or synthetic fuel for any mobility-related use, other than 
for research or testing, unless the contract specifies that the 
lifecycle greenhouse gas emissions are less than or equal to emissions 
from the equivalent conventional fuel produced from conventional 
petroleum sources.
    What is your understanding of the Department of Defense's concerns 
associated with the implementation of section 526?
    Answer. I am not aware of any Department of Defense concerns about 
this matter.
    Question. If confirmed, how would you address these concerns?
    Answer. If confirmed, I believe that my responsibilities would 
include addressing concerns or legislative initiatives related to 
section 526.
                           army energy policy
    Question. In your view, what renewable technologies and fuel types 
have the most potential for certification and use by tactical vehicles?
    Answer. I do not have sufficient technical information at this time 
to make an informed judgment on which technologies have the most 
potential for tactical vehicle use. However, if confirmed, I will seek 
information from the relevant acquisition and technology development 
authorities in DOD, the R&D labs, and industry to gain a better 
perspective. I strongly believe, though, that there is great promise in 
developing, proving, and adopting more energy efficient designs and 
technologies and renewables, if we can show that they improve the 
capability of platforms, lower the total ownership cost of forces, and/
or reduce the scale of the logistic support required to sustain 
missions.
    Question. What is your view of the feasibility and advisability of 
using alternative and renewable technologies for tactical vehicles?
    Answer. I believe there is a bright future for incorporating 
technologies and designs that improve efficiency and utilize 
alternative power sources in tactical vehicles. My intent, if 
confirmed, is to ensure DOD's planning processes incorporate 
technologies and designs that maximize capability while minimizing the 
limitations our systems have due to their demand for energy.
    Question. In your view, what applications for hybrid-electric 
drives, if any, could be applied to tactical vehicles?
    Answer. I consider it very important to find ways to lighten the 
logistics burden on deployed forces, including the fuel burden of 
tactical vehicles. I believe there may be some applications for hybrid-
electric drives, but also that current technologies may not be suitable 
for all tactical vehicles. Though I do not have detailed information on 
this subject, I am aware that the U.S. Army Tank Automotive Research, 
Development and Engineering Center (TARDEC) is currently evaluating 
Hybrid-Electric (HE) technologies and look forward to learning more 
about their findings.
    Question. What is your understanding of the Department's current 
plan for certification of tactical vehicles for alternative fuel use?
    Answer. The Air Force began a significant effort in 2007 to start 
certifying its entire fleet of aircraft on blends of synthetic and 
conventional fuels. From what I have read, most of their aircraft have 
since been certified. Secretary of the Navy Mabus has issued a policy 
regarding the Navy's certification of surface ships and aircraft for 
use of synthetic fuels, but I am not sure of the status of this effort. 
I understand the Army is currently evaluating synthetic and renewable 
fuel blends for some systems. I am unaware of any Marine Corps plans to 
certify their tactical vehicles for alternative fuel use. I am not 
aware of a DOD-wide policy on alternative fuel certification.
    Question. If confirmed, would you support such efforts and what 
similar policies and initiatives would you support?
    Answer. If confirmed, I would work with the Deputy Under Secretary 
of Defense for Installations and Environment and the military 
departments' installation and energy officials to promote the use and 
testing of initiatives that reduce costs, improve the resilience of 
installations to perform critical missions, and to improve DOD's 
greenhouse gas emissions.
                        air force energy policy
    Question. In your view, what renewable technologies and fuel types 
have the most potential for certification and use by aircraft?
    Answer. I strongly support policies in place that address reducing 
carbon emissions, reducing dependence on foreign oil, promoting 
alternative energy sources, and increasing energy efficiency. I believe 
renewable technologies and fuels can play a role in helping the 
Department succeed in these areas. Therefore, if confirmed, I will 
perform a comprehensive review of current Air Force and other Service 
efforts regarding specific technologies and fuel types and recommend to 
the Secretary of Defense those alternative fuel sources that I believe 
are in the best interest of the Department.
    Question. What is your view of the feasibility and advisability of 
using alternative and renewable energy technologies for aircraft?
    Answer. If confirmed, I will consult with the Air Force and other 
Services regarding the feasibility of specific alternative and 
renewable energy technologies being considered for aviation use. I will 
recommend to the Secretary of Defense those technologies which show the 
most promise to enhance mission capability while meeting or exceeding 
the Department's energy goals.
    Question. What is your view of the cost effectiveness of 
alternative and renewable fuels for use as aviation fuels?
    Answer. Although there are promising scientific and technological 
developments, the market for alternative and renewable aviation fuels 
is not yet mature. It is still early to speculate on the cost 
effectiveness of these fuels. It will be up to industry to produce 
alternative and renewable fuels for the Department that can be obtained 
cost-competitively.
    Question. How much of a premium if any do you believe the 
Department should be willing to pay for the use of alternative and 
renewable fuels for aircraft?
    Answer. If confirmed, I will consult within the Department and the 
Defense Logistics Agency to determine the feasibility of considering 
premiums for the purchase of alternative and renewable fuels.
                           navy energy policy
    Question. In October 2009, Secretary Mabus announced various energy 
goals for the Navy including the creation of a ``Green Strike Group'' 
powered by biofuels by 2012 and deploying by 2016; by 2015, reducing 
petroleum use in its 50,000 commercial vehicle fleet by 50 percent by 
phasing in hybrid fuel and electric vehicles; producing at least half 
the shore-based energy requirements from renewable sources, such as 
solar, wind and ocean generated by the base; and by 2020, ensuring at 
least 40 percent of the Navy's total energy consumption comes from 
alternative sources.
    What is your understanding of the ``Green Strike Group''?
    Answer. I am pleased that Secretary Mabus has given operational 
energy such a prominent place on his list of priorities, and if 
confirmed, I would look forward to working closely with him on 
improving the capability, sustainability, and cost-effectiveness of the 
forces under his purview. My understanding of his ``Green Strike 
Group'' concept is that he will meet the targets he has through a 
combination of nuclear powered vessels, efficiency improvements, and 
the use of alternative fuels.
    Question. What is your understanding of the anticipated cost and 
schedule for the implementation of the ``Green Strike Group'' and 
associated energy goals?
    Answer. I have not seen a cost estimate or specific schedule of its 
implementation plan, besides those target dates mentioned above.
    Question. What is your understanding of the role and responsibility 
of DOEPP for establishing and implementing Navy energy policy within 
the DOD?
    Answer. My understanding of the role and responsibility of DOEPP in 
this case is fourfold. While the Navy should establish and implement 
its own energy policy, the DOEPP will provide leadership, facilitate 
communication, and conduct oversight of operational energy plans and 
programs within the Navy, as well as the Army, Air Force, Marine Corps, 
and defense agencies. Second, DOEPP will establish an operational 
energy strategy that will guide the Navy and other Services and defense 
agencies in establishing their plans. Third, DOEPP is responsible for 
coordinating and overseeing planning and program activities of the Navy 
and across the defense enterprise in the implementation of the 
operational energy strategy. Finally, DOEPP has other statutory 
responsibilities to review and certify the energy portions of budget 
submitted by the Navy, the other Services, and across the Department.
    Question. In your view, what renewable technologies and fuel types 
have the most potential for certification and use by ships?
    Answer. To date, I have not seen a technical assessment that would 
give me sufficient information on which to base such a judgment.
                               logistics
    Question. If confirmed, what would be your priorities with respect 
to logistical and materiel support, supply chain management, and 
sustainment efforts as they pertain to operational energy?
    Answer. Responsibility in OSD for these issues rest with the 
USD(AT&L), supported by the assistant Secretary of Defense for 
Logistics and Materiel Readiness(ASD(L&MR)). If confirmed, I hope to 
work closely with the ASD(L&MR) on ways to reduce energy demand in the 
current and future force, and to promote energy solutions that will 
improve the supportability, flexibility and mobility of U.S. forces.
    Question. What is your view of the role DOEPP will play in 
addressing logistical support challenges associated with the delivery 
of energy to deployed units, particularly in harsh environments like 
Afghanistan?
    Answer. My view is that DOEPP should play a lead role in DOD in 
advocating for aggressive testing, demonstration, and fielding of 
energy solutions that can reduce the resupply burdens on U.S. forces 
wherever they are operating. According to the 2010 Quadrennial Defense 
Review, our forces face anti-access challenges from near-peer 
competitors and others in the future as well, which could put fuel and 
logistics resupply in the air and at sea at much greater risk.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as DOEPP?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Mark Udall
            operational energy security and military culture
    1. Senator Udall. Ms. Burke, in a deployed environment, forward 
operating bases rely entirely upon ground-based and air logistical 
support and electric generators to produce power, often at the risk of 
casualties and high costs. Secure and renewable energy sources without 
a risky logistical tail, vulnerabilities, or burden on combat 
capability would greatly benefit our Armed Forces. Recently, the 
Department has made some progress in setting renewable and sustainable 
energy goals but we still have a long way to go. If confirmed, how do 
you plan to transition from well-intentioned goals, small scale 
demonstrations, and good ideas on paper, and make the leap to rapidly 
test, evaluate, and field expeditionary energy platforms?
    Ms. Burke. If confirmed, I would place high priority on improving 
fuel demand management at deployed locations. As part of the strategy 
development required by legislation, I would seek to assess the 
technologies and practices that have already been fielded in current 
deployments and in U.S.-based military installations, collecting 
information on best practices and lessons learned that can be applied 
to operational energy. This assessment would especially look for tested 
strategies and technologies that can be scaled for wider use. My 
understanding is that this may include but is not limited to: smarter 
and more resilient power management systems and approaches, more 
efficient or efficient use of generators, improved energy storage 
(batteries), insulation of tents and generators, solar panels for 
structures or individuals, small wind turbines, and a range of options 
for mobility. In addition, if confirmed, I would cooperate with the 
Director of Defense Research and Engineering (DDR&E), other defense 
components, the Military Services, the Department of Energy, and the 
private sector to identify promising technologies and push the pace of 
research, development, demonstration and deployment. The operational 
energy strategy itself can provide an important roadmap to help 
prioritize areas for investment, experimentation, field testing, and 
further development.

    2. Senator Udall. Ms. Burke, how can Congress assist you in that 
endeavor?
    Ms. Burke. Congress took important action in creating the office 
for which I am being considered, but in my current position it would be 
difficult to know if any further action is required. If I am confirmed 
as the Director, I would consider an ongoing dialogue with Congress to 
be crucial to the success of my office.

    3. Senator Udall. Ms. Burke, how do you plan to reduce demand and 
improve efficiencies through changing military culture while providing 
them with renewable and sustainable battlefield solutions that reduce 
vulnerability but also increase expeditionary capability?
    Ms. Burke. If confirmed, my top priority would be to harness 
military culture to improve the military's energy security. The 
Military Services focus fiercely on mission effectiveness and have 
strong leadership traditions, and I believe it is possible to 
demonstrate to soldiers, sailors, marines, and airmen--and their 
leadership--that changing their energy use will improve their mission 
effectiveness. At the same time, I would keep in mind that 
organizational cultures change when the incentives and policies change, 
with clear leadership support. If confirmed, I would seek to work with 
the Department's leaders to change policies and incentives, including 
by committing adequate resources to and rewards for demand management 
and integrating operational energy concerns into the strategy, 
planning, and procurement processes.

                      fully burdened cost of fuel
    4. Senator Udall. Ms. Burke, the logistical efforts to deliver our 
troops the fuel and other resources they need to fight are dangerous 
and expensive. The Fully Burdened Cost of Fuel (FBCF) accounts for all 
costs associated with delivery to forward operating locations, such as 
combat outposts in Afghanistan. While some of the Services differ on 
the exact price of FBCF, estimates range into the hundreds of dollars 
per gallon, and logistical convoys often dedicate well over half of 
their load to fuel and water. What is your understanding of FBCF today 
in Afghanistan?
    Ms. Burke. Military missions, from training to combat, tend to be 
dangerous and expensive; the challenge is to eliminate unnecessarily 
high risks and costs. Indeed, the Nation's leaders owe it to the men 
and women in uniform to be aggressive about doing so. I believe the 
patterns of operational energy use today in Afghanistan incorporate far 
more risk than they need to and that there are alternatives and 
approaches that will cut the risk and also potentially support broader 
strategic goals in theater. To the best of my knowledge, the ``Fully 
Burdened Cost of Fuel'' has not been explicitly used as a tool to help 
cut these risks in Afghanistan. The Department's leaders are clearly 
aware, however, that fuel costs and logistics vulnerabilities in 
Afghanistan are too high. The variances in the estimates of FBCF that 
you cite are due to calculations based on different methods of fuel 
delivery.

    5. Senator Udall. Ms. Burke, if confirmed, what steps would you 
take to ensure that FBCF is accurate and incorporated into funding 
requests and the acquisition process?
    Ms. Burke. If confirmed, I would first look at all studies and 
pilot programs that have been completed to date on how the Fully 
Burdened Cost of Fuel might be calculated and then lead a collaborative 
effort with the Joint Staff, relevant defense agencies, the military 
services, and the private sector, if appropriate, to delineate a 
reasonable process and implementation plan.

    6. Senator Udall. Ms. Burke, do you believe that current Department 
of Defense (DOD) requirements and acquisition processes adequately 
consider the fully-burdened life-cycle costs of energy?
    Ms. Burke. No.

    7. Senator Udall. Ms. Burke, if confirmed, what technologies, 
programs, and efforts would you advocate to help reduce FBCF?
    Ms. Burke. Generally, I believe the Director of Operational Energy 
Plans and Programs should focus on making the link between improved 
energy security and improved mission effectiveness and force 
capabilities. In that regard, if confirmed, I would look forward to 
working with the Director, Defense Research and Engineering, the 
Service senior energy officials, industry, and interagency partners to 
advocate for technologies, programs and efforts that minimize current 
and future energy risks and costs to U.S. forces. At the same time, it 
is my belief that the Director of Operational Energy Programs and Plans 
should use tools that incentivize and identify rather than prescribe 
the best mix of technologies and approaches for improved mission 
effectiveness and force capabilities.

    8. Senator Udall. Ms. Burke, what expeditionary renewable energy 
platforms could help reduce the logistical burden of fuel and water for 
deployed combat units?
    Ms. Burke. The majority of fuel used in current military operations 
is for tactical vehicles, aircraft, and generators (for space heating 
and cooling, lighting, and communications on bases or in forward 
operating positions). Renewable energy platforms that target these end 
uses, either on the supply or demand side, may reduce the logistical 
burdens on deployed forces. I believe the Department should be careful 
not to focus, however, on a single or solely high-tech set of tools and 
solutions; there has to be room for unexpected developments and 
options. For example, the Government Accountability Office showcased in 
a recent report a variety of ongoing initiatives, from the testing of a 
``renewable energy tent city'' to one commander who achieved 
significant energy savings just by rearranging the ``network'' of his 
generators. Indeed, this study and others suggest that the practices of 
energy consumers on defense installations and at forward positions can 
affect energy usage as much as the design of equipment. If confirmed, I 
would review all studies and ongoing pilot efforts on the use of 
renewable technologies and collect information on promising 
developments in this area for currently deployed forces.

                           alternative fuels
    9. Senator Udall. Ms. Burke, DOD has begun to research and certify 
renewable fuels such as algae and camelina to create alternatives to 
petroleum products. These renewable alternatives could increase energy 
security, reduce operational demand and dependence on petroleum 
products, and reduce greenhouse gas emissions, which could result in a 
plethora of benefits for DOD and by extension other Federal agencies 
and academia. How do you define energy security and how does energy 
security tie into the operational requirements of the military?
    Ms. Burke. For the Nation, I define energy security as having 
reliable, affordable, and sustainable energy supplies to support a 
robust economy. For the Department specifically, I concur with the 
definition of energy security in the Quadrennial Defense Review (QDR): 
``energy security for the Department means having assured access to 
reliable supplies of energy and the ability to protect and deliver 
sufficient energy to meet operational needs.'' Given the QDR wording, 
it is fair to say that energy security ties into the military's 
operational requirements geostrategically, strategically, and 
tactically. These considerations can range from the way relations with 
oil-producing nations may affect U.S. military commitments, to the role 
of energy availability in campaign planning, to the opportunity cost of 
volatile and high energy prices, to the vulnerability of fuel convoys 
to attacks from Improvised Explosive Devices and ambush.

    10. Senator Udall. Ms. Burke, how can the Department improve the 
security and reliability of energy provided to our military abroad and 
in the United States?
    Ms. Burke. The Department can improve the security and reliability 
of energy provided to the military by managing demand, especially by 
improving energy efficiency and promoting conservation. The Department 
also needs to promote diversity of fuel sources so that it relies on a 
portfolio of energy sources and suppliers, lessening its vulnerability 
to disruption, price volatility, and the unintended security 
consequences of relying on problematic and insecure suppliers. In 
addition, my understanding is that the Department is considering a full 
range of risk management strategies for domestic U.S. bases, which rely 
on the commercial electric grid.

    11. Senator Udall. Ms. Burke, if confirmed, what specific metrics 
would you establish to monitor DOD's progress with respect to 
alternative fuels?
    Ms. Burke. If confirmed, my first task would be to develop a 
strategy that identifies goals against which to measure success and set 
priorities--both for the Department and more specifically for the 
Office of Operational Energy Plans and Programs. I think it is 
important to do this before identifying specific metrics for 
alternative fuels or overall operational energy security. Generally 
speaking, though, I believe metrics should be developed in cooperation 
with stakeholders, should measure inputs, outputs, outcome, and impact, 
and they should be clear, limited in number, and flexible and iterative 
enough to adjust for changing circumstances. Of course, the bottom line 
in measuring DOD's energy progress will be how energy impacts military 
effectiveness, and I anticipate implementing metrics along those lines, 
as well as on cost and other issues.
                                 ______
                                 
            Questions Submitted by Senator Roland W. Burris
                           energy technology
    12. Senator Burris. Ms. Burke, a recent Government Accountability 
Office (GAO) report stated, ``DOD relies overwhelmingly on commercial 
electrical power grids for secure, uninterrupted electrical power 
supplies to support its critical assets and DOD is the single largest 
consumer of energy in the United States.'' Additionally, Secretary 
Gates and each of the Service Secretaries have stated in their fiscal 
year 2011 testimony that energy and conservation overall is a priority 
effort. What are the plans to use more clean energy technologies within 
DOD?
    Ms. Burke. The Deputy Under Secretary of Defense for Installations 
and Environment has responsibility for energy policies related to fixed 
installations, and environmental quality of the whole Department, 
including for fleet vehicles. For installations, the Department is 
preparing plans to meet the greenhouse gas (GHG) and other 
``sustainability'' targets described in Executive Order 13514 of 2009, 
which will require more aggressive use of clean energy sources. If 
confirmed, I would expect to work closely with the DUSD(I&E) and the 
Service senior energy leaders to promote experimentation and adoption 
of renewable energy solutions and more efficient distribution systems 
to help mitigate risks from prolonged outages, to reduce environmental 
impact, and to help advance the state of the art for these technologies 
in the civil sector.

    13. Senator Burris. Ms. Burke, what are the plans to reduce 
reliance on commercial electrical power?
    Ms. Burke. I know the Department is looking at how to improve its 
security relative to the commercial electric grid, but I do not know 
the specifics of the Department's plans or whether reducing reliance on 
commercial electrical power would meet DOD's energy security goals. DOD 
must ensure it retains the ability to complete its critical missions 
even in the event of failure by the commercial power grid. Although the 
Director of Operational Energy Plans and Programs has no explicit 
responsibility for this issue by statute, I understand that if 
confirmed, I would likely play a supporting role in improving the 
Department's energy security at domestic installations.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                               dod energy
    14. Senator Inhofe. Ms. Burke, in a July 2008 letter to my office, 
DOD stated that section 526 ``is overly broad both in design and 
application. . . . The provision opens the Department up to court or 
administrative challenges to every fuel purchase it makes, with the 
inherent potential for an adverse decision that would cover fuels the 
military already relies on as well as potential reliable sources of 
fuel that could be developed in the future.'' Do you believe section 
526 has the potential to affect the availability of alternative and 
conventional fuel sources which the military may procure? Why or why 
not?
    Ms. Burke. At this time, I do not have sufficient information to 
answer this question. If confirmed, I would review the letter, the 
findings that informed it, and confer with appropriate leadership in 
order to fully answer this question. Generally, if confirmed, I would 
see it as my job to help ensure that U.S. forces always have access to 
the energy they need to conduct current and future military operations.

    15. Senator Inhofe. Ms. Burke, do you believe DOD should have the 
option of utilizing alternative fuels to include coal-to-liquid or gas-
to-liquid fuels?
    Ms. Burke. Yes.

    16. Senator Inhofe. Ms. Burke, in the hearing you said that you 
``would not promote the use of fuels that are carbon intensive''. In 
your opinion, are fuels derived from Canadian oil sands carbon 
intensive?
    Ms. Burke. In the hearing, I was referring to current research, 
development, and demonstration of alternative fuels by the Department 
of Defense and the need to balance operational capability gains with 
environmental costs. While I am not privy to the latest research on 
fuels derived from the Canadian oil sands, they are commonly understood 
to have a higher carbon intensity than fuels already in use by DOD. I 
believe U.S. forces should procure fuels that contribute to mission 
success and am open to evaluating whether fuel from Canadian oil sands 
would do this.

    17. Senator Inhofe. Ms. Burke, what fuels do you consider carbon 
intensive?
    Ms. Burke. I consider fuels that generate relatively high carbon 
dioxide emissions per unit of energy produced to be carbon intensive. 
Fossil fuels (and, in some cases, biomass fuels) tend to be carbon 
intensive, absent carbon capture and sequestration.

    18. Senator Inhofe. Ms. Burke, to what degree could mission 
effectiveness reasonably be sacrificed due to what you consider ``the 
security risks of added greenhouse gases''?
    Ms. Burke. Mission effectiveness should never be sacrificed; at the 
same time, I do not believe that mission effectiveness is a zero sum 
game. DOD needs to do everything possible to ensure mission success in 
current deployments and also engage in the strategy development, 
planning, and procurement that will prepare the military and the Nation 
for future mission success.

    19. Senator Inhofe. Ms. Burke, in the National Defense 
Authorization Act for Fiscal Year 2010 conference report, the conferees 
acknowledged that section 526 was not intended to preclude DOD from 
purchasing the fuel it needs and that clarification is required. Do you 
believe that simple report language is sufficient in this regard?
    Ms. Burke. I do not know, but I believe it will be important to 
clarify this matter with the leadership at the Department, if 
confirmed. As the Senator notes, it was clearly not the intent of the 
legislation to inhibit military operations in any way.

    20. Senator Inhofe. Ms. Burke, if the security of our troops comes 
into conflict with avoiding the use of carbon intensive fuels or 
addressing climate change, which, in your view, should take priority?
    Ms. Burke. DOD's energy decisions should always support the welfare 
and mission success of our soldiers, sailors, airmen, and marines. If I 
am confirmed, it would be my job to help make sure U.S. forces always 
have the energy they need to achieve operational objectives. One way to 
accomplish this goal is to reduce the amounts of fuel needed to support 
current military operations, given that our supply lines are 
vulnerable, difficult to protect, present unnecessarily high mission 
risks, and are costly to operate and protect in dollars and in lives. 
Therefore, in my view, the security of American troops will not come 
into conflict with avoiding the use of carbon intensive fuels or 
addressing climate change. In fact, I believe the security of our 
troops will be enhanced by the prudent consideration of these factors, 
as delineated in the 2010 QDR.

    21. Senator Inhofe. Ms. Burke, in your answers to the advance 
policy questions, you said one of your top priorities with respect to 
renewable energy will be to improve the capabilities, force protection, 
effectiveness, and efficiency of deployed forces in Iraq, Afghanistan, 
and global operations against terrorist organizations. The question 
specifically addressed energy and resources derived solely from power 
generators and convoy/airlift support. Power to operate equipment 24/7 
in all of our areas of responsibilities (AORs) is critical to mission 
success. Please provide specific examples of alternative sources of 
energy you would be looking at in Afghanistan.
    Ms. Burke. I agree with what I believe to be the basic premise of 
this question, which is that reliability is essential in deployed 
energy supply. It is my belief, however, that current supply lines are 
not as reliable as they could be or need to be. If confirmed, I would 
plan to work with the Military Services to improve the energy security 
of deployed forces, both by looking for alternative sources of energy, 
but also by reducing the demand for energy. If confirmed, I would start 
by assessing supply and demand options that have already been tested or 
fielded. My understanding is that these options include, but are not 
limited to: smarter and more resilient power management systems and 
approaches, more efficient or efficient use of generators, improved 
energy storage (batteries), insulation of tents and generators, solar 
panels for structures or individuals, small wind turbines, and a range 
of options for mobility. I believe there will be important lessons 
learned, both about what works and what does not work, which can help 
guide more systematic decisions and leadership support for energy 
security in theater. I also believe that military bases in the United 
States may have experience with energy innovations that can be applied 
in theater and should be included in an assessment of the range of 
possibilities.

    22. Senator Inhofe. Ms. Burke, how do size of footprint on the 
ground, logistics support, and threats from attack play into using and 
accelerating such programs?
    Ms. Burke. Today's U.S. forces and support operations are energy 
intensive and require significant logistics support. In addition to the 
2010 QDR, recent studies by the Government Accountability Office, the 
Defense Science Board, Deloitte Consulting, Global Green USA, and 
others have found that supply convoys have been heavily targeted in 
current operations both in Iraq and in Afghanistan and that the 
majority of these convoys are moving fuel. That vulnerability is 
exacerbated, ironically, by our strength: it is my belief that U.S. 
forces are likely to outclass any enemy for the foreseeable future, and 
one result of that asymmetry is that our foes will continue to try to 
attack and block our logistics ``tail'' and other relatively soft 
targets, regardless of the size of our military ``footprint.'' 
Strategies, technologies, and approaches that can lessen the reliance 
of U.S. forces on frequent resupply and lighten the logistics burden 
will help make our operations more robust and resilient. In that sense, 
operational energy use is as much an opportunity to improve mission 
effectiveness as it is a vulnerability.
                                 ______
                                 
    [The nomination reference of Sharon E. Burke follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                 December 11, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Sharon E. Burke, of Maryland, to be Director of Operational Energy 
Plans and Programs. (New Position)
                                 ______
                                 
    [The biographical sketch of Sharon E. Burke, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
              Resume of Career Service of Sharon E. Burke
Education:
        <bullet> Williams College

                <bullet> September 1984-June 1988
                <bullet> Bachelor of Arts Degree awarded June 1988

        <bullet> Columbia University, School of International and 
        Public Affairs

                <bullet> September 1992-June 1994
                <bullet> Master of International Affairs Degree awarded 
                June 1994
                <bullet> Certificate of Middle Eastern Studies awarded 
                June 1994
Employment Record:
        <bullet> Center for a New American Security

                <bullet> Vice President for Natural Security
                <bullet> Senior Fellow
                <bullet> July 2007-present

        <bullet> Third Way

                <bullet> Director of the National Security Project
                <bullet> February 2006-July 2007

        <bullet> Corporation for National and Community Service

                <bullet> Speechwriter
                <bullet> September 2005-February 2006

        <bullet> Independent Consultant

                <bullet> Speechwriting consultant
                <bullet> January 2005-October 2006

        <bullet> U.S. Department of State

                <bullet> Member, Policy Planning Staff
                <bullet> Special Assistant to the Deputy Secretary of 
                State
                <bullet> July 2002-January 2005

        <bullet> Amnesty International USA

                <bullet> Advocacy Director for the Middle East and 
                North Africa
                <bullet> March 2001-July 2002

        <bullet> U.S. Department of Defense

                <bullet> Speechwriter to the Secretary of Defense
                <bullet> Country Director for South Asia, Office of 
                Near Eastern and South Asian Affairs (OUSDP)
                <bullet> Presidential Management Intern
                <bullet> October 1994-January 2001

        <bullet> Office of Technology Assessment of the U.S. Congress

                <bullet> Research Analyst, Energy and Transportation 
                programs
                <bullet> September 1989-July 1992

        <bullet> Office of U.S. Senator Paul Sarbanes

                <bullet> Staff Assistant
                <bullet> October 1988 (approx)-September 1989
Honors and Awards:
        <bullet> Leadership Team, Next Generation Project, American 
        Assembly (2007)
        <bullet> Next Generation Fellow, American Assembly (2006)
        <bullet> Department of State Superior Honor Award (2004)
        <bullet> Department of Defense Exceptional Public Service Award 
        (2001)
        <bullet> Department of Defense Meritorious Service Group Award 
        (1995)
        <bullet> Presidential Management Intern, U.S. Department of 
        Defense (1994-1996)
        <bullet> Foreign Language and Areas Studies Fellow, Georgetown 
        University (1993)
        <bullet> International Fellow, Columbia University (1993)
        <bullet> Zuckerman Fellow, Columbia University (full tuition 
        and stipend, 1992-1994)
        <bullet> Dean's List, Williams College and St. Lawrence 
        University.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Sharon E. 
Burke in connection with her nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Sharon Eileen Burke.

    2. Position to which nominated:
    Director of Operational Energy Plans and Programs, U.S. Department 
of Defense.

    3. Date of nomination:
    December 11, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    January 12, 1966; South Laguna, CA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Paul Anthony Fagiolo.

    7. Names and ages of children:
    Thomas Romeo Fagiolo, age 9.
    Anthony Foster Fagiolo, age 5.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Palos Verdes High School, 1980-1984, high school diploma received 
June 1984.
    Williams College, 1984-1988, BA degree received June 1988.
    Columbia University, 1992-1994, Master of International Affairs 
degree received June 1994.
    Certificate of Middle Eastern Studies received June 1994.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Center for a New American Security, Senior Fellow 2007-2008, Vice 
President, 2008-present.
    Director of the National Security Project, Third Way, Washington, 
DC, February 2006-July 2007.
    Speechwriter, Corporation for National and Community Service, 
Washington, DC, September 2005-February 2006.
    Independent Speechwriting Consultant, January 2005-present (note 
that in this capacity, was on the Senate payroll working for U.S. 
Senator Chuck Hagel from February 2005-September 2005). Note that 
though technically I am still open to working on such contracts, but I 
have not accepted any such work since October 2006.
    Member, Policy Planning Staff and Special Assistant to the Deputy 
Secretary of State, U.S. Department of State, July 2002-January 2005, 
Washington, DC.
    Advocacy Director for the Middle East and North Africa Amnesty 
International USA, March 2001-July 2002, Washington, DC.
    Speechwriter to the Secretary of Defense, November 1998 
(approximately)-January 2001, Washington, DC.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Naval Studies Board, National Security Implications of Climate 
Change on U.S. Naval Forces, September 2009-present.
    Member, Emergency Preparedness Committee, City of Takoma Park, MD, 
2006-2008.
    Consultant to Senator Chuck Hagel, February 2005-September 2005 (on 
U.S. Senate payroll in that capacity).
    Department of Defense, Country Director for South Asia and for 
North Africa in OSD (Policy) 1996-1998; Presidential Management Intern 
1994-1996.
    Research Analyst, Office of Technology Assessment, September 1989-
July 1992.
    Staff Assistant, Office of U.S. Senator Paul Sarbanes, September 
1988 (approx)-September 1989.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Center for a New American Security, Senior Fellow 2007-2008, Vice 
President, 2008-present.
    Project 2049, Board of Directors, 2009-present.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Women in International Security, Member 1996 (approximately)-
present.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    $250 to Chap Petersen for Lieutenant Governor of Virginia, 2004
    $500 to Forward Together PAC 2/23/2006
    $500 to Obama Victory Fund 10/22/08
    $200 to Jack Reed for Senate, September 2007

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Leadership Team, Next Generation Project, American Assembly (2007)
    Next Generation Fellow, American Assembly (2006)
    Department of State Superior Honor Award (2004)
    Department of Defense Exceptional Public Service Award (2001)
    Department of Defense Meritorious Service Group Award (1995)
    Presidential Management Intern, U.S. Department of Defense (1994-
96)
    Foreign Language and Areas Studies Fellow, Georgetown University 
(1993)
    International Fellow, Columbia University (1993)
    Zuckerman Fellow, Columbia University (full tuition and stipend, 
1992-1994)
    Dean's List, Williams College and St. Lawrence University

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    ``China is Calling for your Cell Phone,'' Defense News, October 12, 
2009.
    Occasional contributor to Natural Security Blog at www.cnas.org 
since June 11, 2009.
    Natural Security, Center for a New American Security, June 11, 
2009.
    Climate Change Wargame: Major Findings and Background, Center for a 
New American Security, June 1, 2009.
    Clout and Climate Change Wargame: Participant Briefing Book, Center 
for a New American Security, May 29, 2009.
    Clout and Climate Change Wargame: Materials Generated by the Game, 
Center for a New American Security, May 29, 2009.
    Uncharted Waters: the U.S. Navy and Climate Change, Center for a 
New American Security, March 30, 2009.
    Remodeling the U.S. Government for Energy Security: Initial 
Findings from the Big Energy Map, Center for a New American Security, 
December 4, 2008.
    A Strategy for American Power: Energy, Climate, and National 
Security, Center for a New American Security, June 11, 2008.
    With Campbell et al., Climatic Cataclysm: The Foreign Policy and 
National Security Implications of Climate Change, Brookings Institution 
Press, 5/22/2008.
    With Kamarck and Galston, Security First: A Strategy for Defending 
America, Third Way, 2007.
    With Matt Bennett, Beyond Bush: A New Strategy of Constriction to 
Defeat al Qaeda and its Allies, Third Way, 2007.
    With Harlan Geer, The Neo Con: The Bush Defense Record by the 
Numbers, Third Way, 2006.
    With Matt Bennett, Addressing Iraq in a Charged Political 
Environment, Third Way, 2006.
    With Matt Bennett and Jim Kessler, Winning the National Security 
Debate: Lessons from a New Poll, Third Way, 2006.
    With Matt Benett, Tough and Smart: A Winning National Security 
Strategy, Third Way, 2006 (A message memo series that includes focused 
pieces on Latin America, China, the U.S. military, WMD, and homeland 
security).
    Occasional contributor to Third Way ``Dispatch,'' 2006-2007, at 
www.thirdwav.org.
    Research contributor to U.S. Congress, Office of Technology 
Assessment, Energy in Developing Countries, OTA-E-486, Washington, DC, 
U.S. GPO, January 1991.
    With Joy Dunkerley et al., U.S. Congress, Office of Technology 
Assessment, Fueling Development: Energy Technologies for Developing 
Countries, OTA-E-516, Washington, DC, U.S. GPO, April 1992.
    Contributor to U.S. Congress, Office of Technology Assessment, 
Rebuilding the Foundations: A Special Report on State and Local Public 
Works Financing and Management, OTA-SET-447, Washington, DC, U.S. GPO, 
March 1990.
    Contributor to U.S. Congress, Office of Technology Assessment, 
Delivering the Goods: Public Works Technologies, Financing, and 
Management, OTA-SET-477, Washington, DC, U.S. GPO, April 1991.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Please see attached.
    October 29, 2009 Remarks to the Asia-Pacific Chiefs of Defense, 
U.S. Pacific Command
    October 22, 2009 Talking Points for Remarks to the Sandia National 
Laboratory Leadership Conference
    July 23, 2009 Testimony before the Senate Foreign Relations 
Committee
    June 11, 2009 CNAS Annual Meeting Remarks on Natural Security
    June 11, 2008 CNAS Annual Meeting Remarks on Energy Security

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                   Sharon E. Burke.
    This 18th day of March, 2010.

    [The nomination of Sharon E. Burke was reported to the 
Senate by Chairman Levin on May 5, 2010, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on June 22, 2010.
                              ----------                              

    [Prepared questions submitted to Solomon B. Watson IV by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. This milestone legislation is now more than 20 years old 
and has served our Nation well. Although I believe that the framework 
established by Goldwater-Nichols has significantly improved inter-
Service and joint relationships and promoted the effective execution of 
responsibilities, the Department, working with Congress, should 
continually assess the law in light of improving capabilities, evolving 
threats, and changing organizational dynamics. Although I am currently 
unaware of any reason to amend Goldwater-Nichols, if confirmed, I hope 
to have an opportunity to assess whether the challenges posed by 
today's security environment require amendments to the legislation.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. As noted above, I have no specific proposals to modify 
Goldwater-Nichols. As with any legislation of this magnitude, however, 
I believe it may be appropriate to review past experience with the 
legislation with a view to identifying any areas in which it can be 
improved upon, and then to consider with Congress whether the act 
should be revised.
                                 duties
    Question. What is your understanding of the duties and functions of 
the General Counsel of the Department of the Army?
    Answer. Title 10, U.S.C., section 3019 provides that the General 
Counsel of the Army shall perform such functions as the Secretary of 
the Army may prescribe. The Secretary has done so through general 
orders, regulations, and memoranda. The General Counsel provides legal 
advice to the Secretary of the Army, the Under Secretary, the Assistant 
Secretaries, and other offices within the Army Secretariat. As the 
chief legal officer of the Department of the Army, the General Counsel 
determines the controlling legal positions of the Department of the 
Army. The General Counsel's responsibilities extend to any matter of 
law and to other matters as directed by the Secretary. I understand 
that examples of specific responsibilities currently assigned to the 
General Counsel include providing professional guidance to the Army's 
legal community, overseeing matters in which the Army is involved in 
litigation, serving as the Designated Agency Ethics Official, 
exercising the Secretary's oversight of intelligence and other 
sensitive activities and investigations, providing legal advice to the 
Army Acquisition Executive, and taking final action on certain claims 
filed against the Army.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. The duties and responsibilities of the General Counsel of 
the Department of the Army are broad and far-reaching. Consequently, 
the General Counsel must possess sound legal and analytical skills 
along with absolute integrity and mature judgment. As the diversity and 
complexity of the legal and policy issues confronting the Army are such 
that no one lawyer can have in-depth experience in all of them, the 
General Counsel must have strong interpersonal and leadership abilities 
and a willingness to work collaboratively with experts in numerous 
areas. I believe that, if confirmed, my background and diverse legal 
and executive experiences have well prepared me to execute the duties 
of General Counsel of the Department of the Army.
    I received my undergraduate degree in 1966 from Howard University 
where I was in Advanced Army ROTC and, after graduation, was 
commissioned a Second Lieutenant in the Military Police (MP) Corps. I 
served with the 9th Infantry Division MP Company for almost 1 year in 
Vietnam and received the Bronze Star and Army Commendation Medals for 
my service. After completing my military service in 1968, I entered 
Harvard Law School and received a JD degree in 1971. I have been a 
practicing lawyer for more than 35 years.
    I was an associate at a large Boston law firm for 3 years before 
joining the legal department of The New York Times Company (a public 
company) in 1974. I have held various legal and executive positions 
during 32 years of service at the company, including 12 years as 
Corporate Secretary and, more recently, 16 years as General Counsel. In 
the latter role I was responsible for the legal affairs of The Times 
Company and its operating units. I have practiced law in such areas as 
antitrust, employee benefits, corporate acquisitions, and public 
company reporting and disclosure, and have adapted to changing legal, 
regulatory and economic environments throughout my career.
    As General Counsel, I have regularly advised the board of directors 
and the senior management of The Times Company on a broad range of 
issues including compliance, legal and enterprise risk, governance, 
conflicts of interest and human resources. Additionally, as a member of 
the company's senior management team, I have participated in strategic 
planning, management development, organizational design and 
acquisitions/dispositions.
    I believe that my military, legal and executive experiences have 
helped prepare me for the extraordinary challenge of serving as General 
Counsel of the Department of the Army and overseeing the delivery of 
quality legal services. I recognize the legal and policy issues that 
face the Department of the Army in this time of war and transformation. 
If confirmed, I commit to diligently and effectively perform the duties 
of General Counsel of the Department of the Army.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the General Counsel of 
the Department of the Army?
    Answer. I am confident that I have the requisite legal experience, 
analytic abilities and leadership skills to serve as the General 
Counsel of the Department of the Army. If confirmed, I will work to 
broaden my expertise and further my understanding and knowledge of the 
major legal challenges facing the Army, including its personnel and its 
organizations. Additionally, if confirmed, I will undertake to 
establish and maintain collaborative and productive professional 
working relationships with the career civil servants in the Office of 
the General Counsel as well as with the Judge Advocate General of the 
Army and with other related offices dealing with matters of mutual 
interest. If confirmed, I would expect to benefit from their knowledge 
as we work collaboratively to provide the best possible legal services 
to all members of the Department of the Army.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of the Army would prescribe for you?
    Answer. Although the Secretary of the Army has not discussed with 
me the duties and functions he will expect of me, I anticipate that he 
will rely on me to provide accurate and timely legal advice to help 
ensure that the Army complies with both the letter and spirit of the 
law. I would expect the current enumeration of General Counsel 
responsibilities set forth in the General Order prescribing the duties 
of each principal official of Headquarters, Department of the Army, 
generally to remain in effect. Apart from such formally prescribed 
duties, I believe the Secretary of the Army would expect me to continue 
a collegial and professional relationship with the General Counsels of 
the Department of Defense, the other military departments, and the 
Defense agencies and the legal staffs of other Federal agencies. I 
anticipate that the Secretary of the Army will expect me to continue 
the extraordinarily effective and professional working relationship 
that exists between the Office of the General Counsel and The Judge 
Advocate General and his staff. Finally, I anticipate that the 
Secretary of the Army will expect me to manage the General Counsel's 
office efficiently and effectively, and to ensure that the Army legal 
community is adequately resourced to perform its important mission.
    Question. In carrying out your duties, how will you work with the 
General Counsel of the Department of Defense?
    Answer. The General Counsel of the Department of Defense is the 
Chief Legal Officer and final legal authority for the Department of 
Defense. The General Counsel of the Department of Defense, Mr. Jeh 
Johnson, has made clear in his testimony before this Committee and in 
his actions in the Department, that he intends to work closely with the 
Service General Counsels. If confirmed, I anticipate having a close and 
professional relationship with Mr. Johnson, characterized by continuing 
consultation, communication, and cooperation on matters of mutual 
interest, in furtherance of the best interests of the Department of 
Defense.
                            major challenges
    Question. In your view, what are the major challenges that will 
confront the General Counsel of the Department of the Army?
    Answer. In my opinion, one major challenge will be to consistently 
provide responsive, accurate legal advice on the broad array of complex 
issues likely to arise in connection with the Army's role in the 
prosecution of contingency operations while simultaneously transforming 
our business operations. Although the current environment makes it 
difficult to anticipate specific legal questions, I expect to confront 
issues relating to operational matters, acquisition reform, 
privatization initiatives, military and civilian personnel policies, 
compliance with environmental laws, and oversight of Department of the 
Army intelligence activities. I am not aware of any problems in the 
current delivery of legal services. However, if confirmed, I will work 
hard to ensure that the Army legal community is adequately staffed and 
resourced to provide the responsive, accurate, and timely legal advice 
necessary to ensure success in all of the Army's endeavors.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will prioritize legal issues in the manner 
that best serves the Department of the Army. I will also ensure that 
the talented and dedicated lawyers comprising the Army legal community 
continue to provide timely, value-added legal and policy advice of the 
highest possible quality, executing the Department's recurring legal 
responsibilities and anticipating and responding to the numerous issues 
that the Army confronts every day. I will endeavor to keep Army lawyers 
involved at all stages of the decisionmaking process, because I believe 
that preventive law, practiced early in the formulation of departmental 
policies, will undoubtedly facilitate the Department's adaptation to 
the changing operational environment. Additionally, if confirmed I will 
work diligently to resource adequately and staff expertly the Army 
legal community, in order to guarantee decisionmakers at all levels 
access to the best possible legal advice.
    Question. What broad priorities will you establish in terms of 
issues which must be addressed by the Office of the General Counsel of 
the Department of the Army?
    Answer. If confirmed, I will focus foremost on the issues that 
directly impact soldiers, their families, readiness, and the support of 
military operations. I anticipate that the other legal issues of 
highest priority will arise from the Army's operational readiness to 
meet the challenges posed by today's dynamic security environment while 
simultaneously transforming the business operations of the 
institutional Army. I will ensure that expert advice is provided to 
those engaged in the Army's efforts to improve the acquisition process 
and to eliminate fraud, waste, and abuse. I will also ensure that the 
Army legal community continues to provide timely legal advice of the 
highest possible quality, executing the Department's recurring legal 
responsibilities and anticipating and responding to the numerous issues 
the Army confronts every day.
              relationship with the judge advocate general
    Question. In carrying out your duties if you are confirmed, how 
will you work with the Judge Advocate General of the Army?
    Answer. I believe that close, professional cooperation between the 
civilian and uniformed members of the Army's legal community is 
absolutely essential to the effective delivery of legal services to the 
Department of the Army. If confirmed, I will seek to ensure that the 
Office of the General Counsel and The Judge Advocate General and his 
staff, as well as The Judge Advocate General and I, work closely 
together to deliver the best possible legal services to the Department 
of the Army.
    Question. How are the legal responsibilities of the Department of 
the Army allocated between the General Counsel and the Judge Advocate 
General?
    Answer. The Army General Counsel is the chief legal officer of the 
Department of the Army. The Office of the Army General Counsel is a 
component of the Army Secretariat, and provides legal advice to the 
Secretary of the Army and other Secretariat officials on all legal 
matters. The Judge Advocate General is the legal adviser of the Chief 
of Staff of the Army, members of the Army Staff, and members of the 
Army generally. In coordination with the Army General Counsel, The 
Judge Advocate General serves as military legal adviser to the 
Secretary of the Army. The law expressly prohibits interference with 
the ability of The Judge Advocate General to give independent legal 
advice to the Secretary of the Army. Even in the absence of that 
statutory requirement, I would always welcome the expression of 
independent views about any legal matter under consideration. The Judge 
Advocate General also directs the members of the Judge Advocate 
General's Corps in the performance of their duties. By law, he is 
primarily responsible for providing legal advice and services regarding 
the Uniform Code of Military Justice and the administration of military 
discipline. The Office of the Army General Counsel and the Office of 
The Judge Advocate General have developed and maintain a close and 
effective working relationship in performing their respective 
responsibilities. If confirmed, I will work to continue this 
synergistic partnership.
    Question. If confirmed, how would you ensure that legal opinions of 
your office will be available to Army attorneys, including judge 
advocates?
    Answer. It is my understanding that the majority of legal opinions 
provided to Army attorneys and judge advocates are issued by the Office 
of The Judge Advocate General, and that many of these opinions are 
coordinated with the Office of the Army General Counsel. The close, 
professional cooperation between the civilian and uniformed members of 
the Army's legal community is absolutely essential to ensure that legal 
opinions issued by the Office of the Army General Counsel will be 
available to all Army attorneys and Judge Advocates and vice versa. If 
confirmed, I will seek to ensure that the Office of the General Counsel 
appropriately makes available any legal opinions that it issues.
    Question. In response to attempts within the Department of Defense 
to subordinate legal functions and authorities of the Judge Advocates 
General to the General Counsels of the Department of Defense and the 
military services, Congress enacted legislation prohibiting any officer 
or employee of the Department of Defense from interfering with the 
ability of the Judge Advocates General of the military services and the 
legal advisor to the Chairman of the Joint Chiefs of Staff to provide 
independent legal advice to the Chairman, service secretaries, and 
service chiefs.
    What is your view of the need for the Judge Advocate General of the 
Army to have the authority to provide independent legal advice to the 
Secretary of the Army and the Chief of Staff of the Army?
    Answer. The Judge Advocate General's statutory responsibility and 
authority to provide independent legal advice, set forth in title 10, 
U.S.C., section 3037, has repeatedly been recognized as essential to 
the effective delivery of legal services. Uniformed attorneys bring 
another perspective to the practice of law, providing insight and 
advice shaped by years of service across the Army. In today's 
environment, our senior leaders both demand and deserve independent 
advice from their counsel.
    Question. What is your view of the responsibility of Army judge 
advocates to provide independent legal advice to military commanders?
    Answer. I believe that Army Judge Advocates in the field are vested 
with a critical responsibility: to provide quality, candid, legal 
advice to military commanders. Army commanders need and deserve the 
best legal advice and judgment available--that is in part made possible 
when Judge Advocates operate independently, with appropriate advice and 
guidance from supervising attorneys in their technical chain.
    Question. If confirmed, would you propose any changes to the 
current relationships between the Judge Advocate General of the Army 
and the Army General Counsel?
    Answer. Based upon my knowledge and understanding to date, I 
believe that The Judge Advocate General and the Army General Counsel 
have an excellent working relationship. If confirmed, I will continue 
to foster this professional and collaborative relationship with The 
Judge Advocate General and his staff to ensure the effective delivery 
of legal services to the Department of the Army.
    Question. Article 6 of the Uniform Code of Military Justice gives 
primary jurisdiction over military justice to the Judge Advocates 
General of the Army, Navy, and Air Force.
    How do you view the responsibilities of the Army General Counsel in 
the performance of military justice matters with regard to the Judge 
Advocate General of the Army?
    Answer. The Judge Advocate General's responsibilities to ensure the 
proper administration of the military justice system require his direct 
and independent advice to the Secretary of the Army on military justice 
matters. I look forward to providing The Judge Advocate General with 
whatever support and coordination I can in this respect. I will, if 
confirmed, consult with The Judge Advocate General on matters of mutual 
interest or concern relating to military justice, recognizing his 
statutory duties and special expertise in this area. I will also work 
with The Judge Advocate General in safeguarding the integrity of the 
military justice system.
                attorney recruiting and retention issues
    Question. If confirmed, how do you assess your ability to hire and 
retain top quality attorneys and provide sufficient opportunity for 
advancement?
    Answer. I understand that the Army continues to recruit and retain 
top quality military and civilian attorneys and provide them 
opportunities for advancement. If confirmed, I will continue to monitor 
and assess recruitment, retention, and advancement programs for our 
military and civilian attorneys.
    Question. In your view, does the Department of the Army have a 
sufficient number of civilian and military attorneys to perform its 
missions
    Answer. I understand that new and enhanced mission requirements in 
recent years have fueled growth in the Army's legal community. If 
confirmed, I will evaluate whether the number of attorneys in the 
Department of the Army is sufficient to accomplish the Army's missions.
    Question. In your view, what incentives to successful recruiting 
and retention of attorneys, if any, need to be implemented or 
established?
    Answer. In my view, retention of top military and civilian 
attorneys is essential to the current and future success Army legal 
services. Although I am unfamiliar with the full scope of attorney 
retention programs available in the Army, if confirmed, I intend to 
review these programs carefully and support those incentives and 
initiatives that affect the retention of the best attorneys to support 
the Army mission.
                            detainee issues
    Question. What role do you expect to play, if confirmed, in 
addressing legal issues regarding detainees?
    Answer. Properly addressing legal and policy issues associated with 
detainees and detention operations is of vital importance to the 
Department of Defense and the Nation as a whole. I understand that the 
Office of the General Counsel and the Office of The Judge Advocate 
General support the DOD General Counsel in executing elements of the 
President's Executive Orders related to detainee operations. 
Additionally, if confirmed, and in coordination with The Judge Advocate 
General, I will provide advice to the Secretary of the Army in his role 
as the Department of Defense Executive Agent for the administration of 
detainee operations policy, with particular focus on our obligation to 
treat all detainees humanely.
    Question. Section 1403 of the National Defense Authorization Act 
for Fiscal Year 2006 provides that no individual in the custody or 
under the physical control of the United States Government, regardless 
of nationality or physical location, shall be subject to cruel, 
inhuman, or degrading treatment or punishment.
    In your view, is the foregoing prohibition in the best interest of 
the United States? Why or why not?
    Answer. Yes, I firmly believe that this prohibition is in the best 
interest of the United States. This prohibition is consistent with the 
long-standing military tradition of applying the humanitarian 
provisions of the Law of War to those individuals who, for whatever 
reason, are no longer actively participating in hostilities and find 
themselves in custody. Moreover, this prohibition is consistent with 
international standards to which the United States is a party. As 
President Obama recently noted, ``[a] democracy as resilient as ours 
must reject the false choice between our security and our ideals.'' 
Prohibiting the cruel, inhumane, or degrading treatment or punishment 
of individuals in our custody or under our physical control upholds our 
ideals and reinforces our moral authority around the world.
    Question. Do you believe that the phrase ``cruel, inhuman, or 
degrading treatment or punishment'' has been adequately and 
appropriately defined for the purpose of this provision?
    Answer. Although the phrase ``cruel, inhuman, or degrading 
treatment'' is, on its face, susceptible to broad interpretation, the 
proscriptions on such conduct contained in the Department's 
implementing directives, as well as the provisions of the Geneva 
Conventions that are embodied in those directives, make it clear to 
soldiers what conduct is prohibited. If confirmed, I will ensure the 
Army's implementation of this policy in doctrine, to include training 
manuals, is clearly understood.
    Question. What role do you believe the General Counsel of the Army 
should play in the interpretation of this standard?
    Answer. The appropriate role of the General Counsel is to provide 
advice to the Secretary of the Army and his staff on detention and 
interrogation policies that implement this standard. If confirmed, I 
will ensure Army implementation is consistent with the law, the intent 
of the administration, and the guidance issued by the Secretary of 
Defense.
    Question. What role do you believe the Judge Advocate General of 
the Army should play in the interpretation of this standard?
    Answer. The appropriate role of The Judge Advocate General is to 
provide advice to the Chief of Staff of the Army and the Army staff on 
detention and interrogation policies that implement this standard. The 
Judge Advocate General should also continue to train and supervise the 
Judge Advocates in the field, who are so instrumental in attaining and 
maintaining this standard.
    Question. If confirmed, will you take steps to ensure that all 
relevant Army directives, regulations, policies, practices, and 
procedures fully comply with the requirements of section 1403 and with 
Common Article 3 of the Geneva Conventions?
    Answer. I will. I believe the requirements of section 1403 and 
Common Article 3 of the Geneva Conventions are essential to maintaining 
a disciplined Army, whose actions are grounded in the rule of law.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the 
Department of Defense Detainee Program, dated September 5, 2006?
    Answer. I do. These standards have been instrumental in restoring 
the confidence of the American people in the Army and have been and 
will continue to be important in guiding our soldiers' actions in 
contingency operations.
    Question. Section 2441 of title 18, U.S.C., as amended by the 
Military Commissions Act of 2006, defines grave breaches of common 
Article 3 of the Geneva Conventions, including torture and cruel and 
inhuman treatment.
    In your view, does section 2441 define these terms in a manner that 
provides appropriate protection from abusive treatment to U.S. 
detainees in foreign custody and to foreign detainees in U.S. custody?
    Answer. These sections of the War Crimes Act were necessary to 
define the ``serious crimes,'' or ``grave breaches,'' of Common Article 
3 to the Geneva Conventions. Defining these felony-level offenses in 
our domestic law manifested our international law obligations to 
define, with specificity, the grave breaches which must be prosecuted 
under the law of war. In addition, I believe that we must continue to 
enforce these standards through the promulgation of doctrine, training, 
and oversight, and that we must hold soldiers accountable for 
violations of these standards.
                     contractors on the battlefield
    Question. U.S. military operations in Iraq have relied on 
contractor support to a greater degree than any previous U.S. military 
operations. The extensive involvement of contractor employees in a 
broad array of activities--including security functions--has raised 
questions about the legal accountability of contractor employees for 
their actions.
    Do you believe that current Department of Defense and Department of 
the Army regulations appropriately define and limit the scope of 
security functions that may be performed by contractors in an area of 
combat operations?
    Answer. It is my understanding that Department of Defense 
Instructions 1100.22 and 3020.41 currently define the limit and scope 
of security functions that may be performed by contractors in an area 
of combat operations; however, I have been advised that these 
instructions are presently under review. Accordingly, it would be 
premature for me to offer an opinion at this time regarding whether 
current Department of Defense and Department of the Army regulations on 
this subject are adequate. If confirmed, however, I will support this 
review, as appropriate. Additionally, Section 321 of the National 
Defense Authorization Act for Fiscal Year 2009 directed the Office of 
Management and Budget (OMB) to review whether the definition of the 
term ``inherently governmental'' is ``sufficiently focused to ensure 
that only officers or employees of the Federal Government or members of 
the Armed Forces perform inherently governmental functions or other 
critical functions necessary for the mission of a Federal department or 
agency.'' I understand that the Office of the Assistant Secretary of 
the Army for Manpower and Reserve Affairs is participating in this 
review, which I too will support, if confirmed.
    Question. What changes, if any, would you recommend to such 
regulations?
    Answer. It would be premature for me to recommend any changes to 
Department of Defense or Department of the Army regulations. If 
confirmed, I will consider the findings and recommendations of the 
reviews of this subject matter and make appropriate recommendations to 
the Secretary of the Army.
    Question. Do you believe that current Department of Defense and 
Department of the Army regulations appropriately define and limit the 
scope of contractor participation in the interrogation of detainees?
    Answer. I understand that the current Department of Defense and 
Department of the Army regulations define and, as properly implemented, 
limit the scope of contractor participation in the interrogation of 
detainees. However, the National Defense Authorization Act for Fiscal 
Year 2010 significantly limits DOD's authority to use contractors in an 
interrogation role. DOD and Army policies must be reviewed and amended 
to comply with the new law. If confirmed, I will support this review 
process.
    Question. What changes, if any, would you recommend to such 
regulations?
    Answer. Although I have no basis of knowledge on which to propose 
changes at this time, I will, if confirmed, review applicable 
Department of Defense and Department of the Army regulations to 
determine what, if any, changes may be necessary and appropriate.
    Question. OMB Circular A-76 defines ``inherently governmental 
functions'' to include ``discretionary functions'' that could 
``significantly affect the life, liberty, or property of private 
persons.''
    In your view, is the performance of security functions that may 
reasonably be expected to require the use of deadly force in highly 
hazardous public areas in an area of combat operations an inherently 
governmental function?
    Answer. I understand that support services that require the 
exercise of substantial discretion or prudent judgment are inherently 
governmental. That said, there are many factors that must be considered 
in assessing whether a particular mission or set of duties is 
inherently governmental. If I am confirmed, I intend to examine this 
issue in greater depth.
    Question. In your view, is the interrogation of enemy prisoners of 
war and other detainees during and in the aftermath of hostilities an 
inherently governmental function?
    Answer. Currently, DOD policy allows properly trained and cleared 
contractors to conduct government-approved interrogations, provided 
they are supervised and closely monitored throughout the process by 
properly trained DOD military or civilian personnel. However, the 
National Defense Authorization Act for Fiscal Year 2010 significantly 
limits DOD's authority to use contractors in an interrogation role. DOD 
and Army policies must be reviewed and amended to comply with the new 
law. If confirmed, I will support this review process.
    Question. What role do you expect to play, if confirmed, in 
addressing the issue of what functions may appropriately be performed 
by contractors on the battlefield?
    Answer. If confirmed, I will provide advice to the Secretary of the 
Army and the Assistant Secretaries regarding the functions that 
contractors may legally perform on the battlefield. I will assist them 
in implementing policies regarding the use of contractors that are 
consistent with applicable statutory and regulatory constraints.
    Question. The Military Extraterritorial Jurisdiction Act (MEJA) was 
enacted in 2000 to extend the criminal jurisdiction of the U.S. courts 
to persons employed by or accompanying the Armed Forces outside the 
United States.
    In your view, does MEJA provide appropriate jurisdiction for 
alleged criminal actions of contractor employees in Iraq, Afghanistan, 
and other areas of combat operations?
    Answer. I understand that MEJA was intended to address a 
jurisdictional gap in U.S. criminal law as applied to civilians 
employed by or accompanying the Armed Forces outside the United States, 
members of the Armed Forces, and former members of the Armed Forces, 
including their dependents. In my opinion, MEJA provides an effective 
means of exercising extraterritorial criminal jurisdiction over 
contractor employees in Iraq, Afghanistan, and other areas of 
operation, who engage in conduct that would constitute a felony-level 
Federal crime in the United States.
    Question. What changes, if any, would you recommend to MEJA?
    Answer. I understand that legislation has been proposed in the past 
that would expand MEJA to cover individuals employed under a contract 
(or subcontract at any tier) awarded by any department or agency of the 
United States, where the work under such contract is carried out in an 
area, or in close proximity to an area (as designated by the Department 
of Defense), where the Armed Forces are conducting contingency 
operations. If confirmed, I will assess whether this or any other 
change to MEJA may be appropriate.
    Question. What role would you expect to play, if confirmed, in 
developing administration recommendations for changes to MEJA?
    Answer. If confirmed, I would play an active role in the 
development of any proposals to change MEJA. I would also coordinate 
closely with The Judge Advocate General in the development of any such 
proposals given the complementary and sometimes competing availability 
of criminal jurisdiction under the Uniform Code of Military Justice.
    Question. Section 552 of the National Defense Authorization Act for 
Fiscal Year 2007 extended criminal jurisdiction of military courts-
martial under the Uniform Code of Military Justice (UCMJ) to persons 
serving with or accompanying an armed force in the field during time of 
declared war or a contingency operation, such as our current operations 
in Iraq and Afghanistan.
    In your view, does the UCMJ provide appropriate jurisdiction over 
alleged criminal actions of contractor employees in Iraq, Afghanistan, 
and other areas of combat operations?
    Answer. The UCMJ provides commanders the tools necessary to 
maintain good order and discipline and the morale, welfare and safety 
of all those under their jurisdiction during military operations. 
Because misconduct by contractors may undermine good order and 
discipline, Congress extended UCMJ jurisdiction to cover such 
individuals. The Secretary of Defense, in turn, published guidance on 
the prudent exercise of such jurisdiction. This guidance ensures that 
the Department of Justice and the Department of Defense each play an 
appropriate role in resolving whether, and under which system, 
jurisdiction might be better exercised in each potential case.
    Question. What is your view of the procedures agreed upon by the 
Department of Defense and the Department of Justice to reconcile 
jurisdictional responsibilities under MEJA and the UCMJ?
    Answer. I have not had an opportunity to review the procedures 
agreed upon by the Department of Defense and the Department of Justice 
to reconcile jurisdictional responsibilities under MEJA and the UCMJ. 
If confirmed, in coordination with The Judge Advocate General, I will 
monitor cases in which MEJA and the UCMJ are employed to assess the 
effectiveness of the procedures and whether further refinements of 
these procedures may be necessary.
    Question. What changes, if any, would you recommend to the UCMJ to 
ensure appropriate jurisdiction for alleged criminal actions of 
contractor employees?
    Answer. At this time, I am not aware of any specific provisions in 
the UCMJ that need change in this area.
    Question. What are your views on the impact of Article 12 of the 
Status of Forces Agreement between the United States and Iraq on U.S. 
jurisdiction over contractor personnel pursuant to either MEJA or the 
UCMJ?
    Answer. As I understand it, Article 12, paragraph 2 of the 
``Agreement Between the United States of America and the Republic of 
Iraq On the Withdrawal of United States Forces from Iraq and the 
Organization of Their Activities during Their Temporary Presence in 
Iraq'' provides that Iraq shall have the primary right to exercises 
jurisdiction over U.S. contractors and U.S. contractor employees. This 
will not preclude the U.S. from exercising jurisdiction over such a 
person pursuant to MEJA or the UCMJ in the event that Iraq agrees to 
waive its primary right of jurisdiction in a particular case.
    Question. How are jurisdictional matters arising out of Article 12 
being addressed?
    Answer. I have been informed that the United States will cooperate 
with Iraq to address jurisdictional matters on a case-by-case basis 
when such issues arise.
                          attacks at fort hood
    Question. The recent attack that resulted in the deaths of 12 
soldiers and one civilian employee and the wounding of many more at 
Fort Hood was allegedly carried out by a Muslim Army medical officer. 
Media reports indicate that warning signs of the Major's extremist 
views were observed but not documented in official personnel records 
that were shared with the FBI.
    In your view, do current Army policies limit the ability to include 
information in official records that may assist in the identification 
of potential threats?
    Answer. At this time, I am not sufficiently familiar with current 
Army policies regarding the filing of information in official records 
to permit me to express an opinion on this important question. I am 
informed, however, that the issues associated with the identification 
of potential threats are being addressed in the course of the reviews 
currently underway within the Army and the Department of Defense. If 
confirmed, I will look closely at this issue, in coordination with the 
Assistant Secretary of the Army for Manpower and Personnel; the Deputy 
Chief of Staff, G-1; and the Deputy Chief of Staff, G-2.
    Question. Do current Army procedures hinder the ability to share 
this type of information with other official agencies charged with 
identifying and monitoring potential extremist or terrorist activities?
    Answer. I am not aware of any problems in this area at the present 
time. However, if confirmed, I will ensure that this matter is included 
in the Army's review of its procedures for sharing potential threat and 
other force protection-related information both internally (e.g., with 
the Army Criminal Investigation Command), and with other Department of 
Defense or Federal law enforcement or intelligence agencies, as 
appropriate.
    Question. What is your understanding of how the Army balances the 
need to identify and respond to potentially harmful extremist views 
held by soldiers against individual privacy and respect for the right 
of soldiers to hold and express personal beliefs?
    Answer. It is my understanding that the Army currently has a robust 
policy that proscribes participation in extremist organizations and 
activities. Commanders have been empowered to maintain good order and 
discipline in their units, and enforcement of this policy is a function 
of command; I further understand that the Army mandates reporting of 
suspected or possible international or domestic terrorist activity, 
espionage, compromises of security or classified information, and 
similar activities. I have been informed that the Army regulation 
addressing counterintelligence awareness and reporting is currently 
under revision, and that in the interim, the Army has published 
guidance to commanders that includes a list of indicators of potential 
terrorist-associated threats that may arise inside the Army. If 
confirmed, I will work closely with the proponents of force protection 
policies to ensure that Army programs addressing potential threats 
maintain the proper balance between the need for commanders to maintain 
good order and discipline and protect the force, and soldiers' rights 
to privacy and to hold and express personal beliefs.
    Question. Do you see a need for a change in this balance?
    Answer. At this time, I have no basis of knowledge on which to 
formulate an opinion on this important issue. As noted above, however, 
it is my understanding that the ongoing reviews within Army and 
Department of Defense will attempt to determine whether existing policy 
in this area may have contributed to the circumstances surrounding the 
incident at Ft. Hood. If confirmed, I would examine the review panel's 
report in detail, and participate in the Army's efforts to address the 
report's findings and recommendations.
                          religious guidelines
    Question. What is your understanding of current policies and 
programs of the Department of Defense and the Department of the Army 
regarding religious practices in the military?
    Answer. It is my understanding that the Army's policies support 
religious tolerance and mutual respect. If confirmed, I would continue 
the Army's firm commitment to upholding the Constitutional tenets of 
the ``free exercise'' and ``establishment'' clauses and review policies 
as necessary to assure continued compliance with the First Amendment.
    Question. In your view, do these policies accommodate the free 
exercise of religion and other beliefs without impinging on those who 
have different beliefs, including no religious belief?
    Answer. I have been informed that current Army policies require 
chaplains to support all unit personnel, regardless of their beliefs. 
It is my view that these Army policies do accommodate free exercise of 
religion. If confirmed, I am willing to study this issue further to 
determine if changes in policy are necessary and appropriate.
    Question. In your opinion, do existing policies and practices 
regarding public prayers offered by military chaplains in a variety of 
formal and informal settings strike the proper balance between a 
chaplain's ability to pray in accordance with his or her religious 
beliefs and the rights of other servicemembers with different beliefs, 
including no religious belief?
    Answer. I understand that during mandatory official functions, 
chaplains are not compelled to offer prayers that are inconsistent with 
their faith, but are expected to remain sensitive to the pluralistic 
Army and society they serve. In my opinion, these policies strike an 
appropriate balance, given the diversity of religious views in the 
Army. If confirmed, I would be willing to study this issue further to 
determine if changes in policy are necessary and appropriate.
         role in the officer promotion and confirmation process
    Question. What is your understanding of the role of the General 
Counsel of the Department of the Army in ensuring the integrity and 
proper functioning of the officer promotion process?
    Answer. I have been informed that under title 10, U.S.C., chapter 
36, the Secretary of the Army is responsible for the proper functioning 
of the Department of the Army's promotion selection process. In 
addition to the legal review of memoranda of instruction and selection 
board reports to ensure they comport with statutory standards, the Army 
General Counsel must also ensure the conduct of the board process 
conforms to all legal requirements. The diligent execution of this 
function requires advising the Secretary of the Army of any case in 
which a selection board report or selection board process fails to 
adhere to the statutory standards, either generally or with regard to a 
particular officer being considered for promotion. In advising the 
Secretary of the Army and the Office of the Assistant Secretary of the 
Army (Manpower and Reserve Affairs), the General Counsel helps to 
ensure that Army promotion policies properly implement applicable laws 
and regulations and are fairly applied. In these matters, the Office of 
the Army General Counsel coordinates closely with The Office of the 
Judge Advocate General.
    Question. Do you see a need for change in this role?
    Answer. It is my understanding that the current process is working 
well; however, if I am confirmed and determine that a change is 
necessary, I would work closely with the Assistant Secretary of the 
Army (Manpower and Reserve Affairs), The Judge Advocate General, and 
the Assistant Chief of Staff, G-1, to effect such change, while 
maintaining both the integrity of the Army's promotion process and the 
trust of the officer corps, Congress, and the American people.
                  general and flag officer nominations
    Question. Under DOD Instruction 1320.4, adverse and alleged adverse 
information pertaining to general and flag officers must be evaluated 
by senior leaders in the Services and in the Office of the Secretary of 
Defense prior to nomination for promotion and certain assignments.
    If confirmed, what role, if any, would you play in the officer 
promotion system, particularly in reviewing general officer 
nominations?
    Answer. I have been informed that for all officer promotions, 
including general officer promotions, the Office of the Army General 
Counsel, in coordination with the Office of The Judge Advocate General, 
reviews the following:

    a.  Memoranda of Instruction that govern the conduct of promotion 
selection boards and subsequent promotion selection board reports.
    b.  Adverse information that is not in an officer's official 
military personnel file that may be presented to the promotion 
selection board. I have been advised that this information is reviewed 
to ensure it is accurate and comports with the requirements of Title 10 
in that it is ``substantiated, relevant information that could 
reasonably affect the deliberations of the selection board.''
    c.  Adverse information related to general officers. In general 
officer cases, the standard for adverse information that must be 
presented to a promotion selection board is ``any credible information 
of an adverse nature.'' I have been advised that the Office of the Army 
General Counsel participates in a detailed screening process in which a 
panel of senior officials reviews all credible information related to 
officers whose records will be reviewed by a promotion selection board 
for promotion to a general officer grade. The panel ensures that all 
adverse information is properly identified for presentation to the 
promotion selection board.
    d.  Adverse information that becomes available after a promotion 
selection board makes its recommendations. I have been advised that the 
Office of the Army General Counsel and the Office of The Judge Advocate 
General coordinate in providing legal advice to the Secretary of the 
Army so that he may determine whether a promotion review board should 
be convened to consider whether to continue to support the promotion of 
the considered officer or take steps to remove the officer from the 
promotion list.

    Question. What is your understanding of the role of the General 
Counsel of the Department of the Army in ensuring the legal sufficiency 
of statutory selection board processes?
    Answer. I understand that under title 10, the Secretary of the Army 
is responsible for the proper functioning of the Department of the 
Army's promotion selection process. Prior to approval by the Secretary 
of the Army, all Memoranda of Instruction for officer promotion 
selection boards are reviewed by the Office of the Army General 
Counsel, in coordination with the Office of The Judge Advocate General, 
to ensure the Secretary's instructions conform to statutes and 
accurately reflect his guidance regarding attributes necessary for 
service in the next grade. All reports of promotion selection boards 
are processed through the Office of the Army General Counsel prior to 
final action on the report by the Secretary. The Army General Counsel 
must satisfy himself or herself that the Army has met applicable 
statutory standards and that individual selection board reports conform 
to the law. The Army General Counsel must advise the Secretary of the 
Army of any case in which a selection board report fails to adhere to 
the statutory standards, either generally or with regard to a 
particular officer being considered for promotion. In advising the 
Secretary of the Army and the Office of the Assistant Secretary of the 
Army (Manpower and Reserve Affairs), the General Counsel helps to 
ensure that Army promotion policies properly implement applicable laws 
and regulations and are fairly applied.
    Question. What is the role, if any, of the General Counsel of the 
Department of the Army in reviewing and providing potentially adverse 
information pertaining to a nomination to the Senate Armed Services 
Committee
    Answer. It is my understanding that under current Department of the 
Army practice, the Office of the Army General Counsel reviews each 
selection board report, as well as Departmental communications to the 
Committee, the President, and the Secretary of Defense, to ensure that 
the reports and communications comply in form and substance with law 
and regulation. The Office of the Army General Counsel gives special 
attention to cases of nominees with substantiated or potentially 
adverse information and cases with reportable information in order to 
ensure that such information is reported to the Senate Armed Services 
Committee in a timely, accurate, and comprehensible manner.
                  military personnel policy and cases
    Question. In your view, what role, if any, should the General 
Counsel and civilian attorneys assigned to the Office of General 
Counsel play in military personnel policy and individual cases, 
including cases before the Board for Correction of Military Records?
    Answer. If confirmed, I will work with the Secretary of the Army, 
the Assistant Secretary of the Army (Manpower and Reserve Affairs), and 
other senior leaders to ensure that the Army properly develops and 
fairly applies military personnel policies. Were I to become aware that 
the Department did not fairly and lawfully apply military personnel 
policies, I would take appropriate action to ensure that the Army 
properly resolves the issue. If confirmed, I would coordinate with the 
Assistant Secretary of the Army (Manpower and Reserve Affairs), who 
provides oversight for the Army Review Boards Agency, regarding the 
legal sufficiency of Army Board for the Correction of Military Records 
recommendations to the Secretary of the Army. In addition, I am aware 
of and fully respect the independent role that the Army Board for the 
Correction of Military Records plays in the correction of military 
records.
             sexual assault prevention and response policy
    Question. Numerous cases of sexual misconduct involving soldiers 
have been reported from Iraq, Kuwait, and Afghanistan over the last 
several years. Many victims and their advocates contend that they were 
victimized twice: first by attackers in their own ranks and then by 
unresponsive or inadequate military treatment. They asserted that the 
military failed to respond appropriately by providing basic services, 
including medical attention and criminal investigations of their 
charges.
    What is your understanding of the resources and programs the Army 
has in place in deployed locations to offer victims of serious sexual 
assaults the medical, psychological, and legal help they need?
    Answer. This is an extremely important issue for the Army and, if 
confirmed, I will focus significant attention on it. Although I am not 
fully aware of all Army initiatives or resources to help sexual assault 
victims, I understand that the Army has taken significant steps to 
improve the assistance to all victims of sexual assaults, with specific 
attention to victims in a deployed environment. If confirmed, I will 
study this matter in greater depth with a view to ensuring the Army 
continues to take appropriate steps to provide medical, psychological, 
and legal help to soldiers who are victims of sexual assault, both in 
garrison and in deployed locations.
    Question. What is your view of the steps the Army has taken to 
prevent sexual assaults on female soldiers at their home stations and 
when they are deployed?
    Answer. It is my view that the Army has taken several extremely 
important steps in its campaign to prevent sexual assaults on female 
soldiers at their home stations and when deployed. I am aware that the 
Army launched a new comprehensive sexual assault prevention campaign in 
2008. If confirmed, I will ensure that the legal community fully 
supports this initiative.
    Question. What is your view of the adequacy of the training and 
resources the Army has in place to investigate and respond to 
allegations of sexual assault?
    Answer. At this time I am not familiar with all of the Army's 
training and resources to investigate and respond to allegations of 
sexual assault. If confirmed, I will assess whether additional steps 
should be taken to support victims and hold offenders accountable.
    Question. Do you consider the Army's current sexual assault 
policies and procedures, particularly those on confidential reporting, 
to be effective?
    Answer. I have been advised that the Army has focused both on 
eliminating sexual assault from its ranks and on victim support--both 
key elements of an effective program to address sexual assault. I have 
been advised that part of the focus on victim response was the 
implementation of confidential reporting (also called ``restricted'' 
reporting), which I understand allows sexual assault victims to 
disclose confidentially the details of their assault to specified 
individuals and receive medical treatment and counseling, without 
triggering the official investigative process. If confirmed, I will 
work with knowledgeable professionals to assess and ensure the 
continuation of effective Army programs.
    Question. Specifically, do you think that Sexual Assault Response 
Coordinators should be attended a confidentiality privilege in order to 
help them perform their duties more effectively?
    Answer. I am advised that the Army is currently considering whether 
a confidentiality privilege should be extended to communications with 
Sexual Assault Response Coordinators. If confirmed, I will work with 
knowledgeable professionals to determine whether extending a 
confidentiality privilege to Sexual Assault Response Coordinators would 
allow them to perform their duties more effectively.
                       homosexual conduct policy
    Question. The current Homosexual Conduct Policy, commonly referred 
to as ``Don't Ask, Don't Tell,'' went into effect in February 1994 
after months of congressional hearings and debate resulting in the 
enactment of a Federal statute (10 U.S.C. section 654). Although there 
have been some changes in how this policy has been implemented, the 
basic policy has not changed. President Obama has made it clear that he 
intends to work with the military and with Congress to repeal the 
policy.
    What is your view of the current policy, as stated in section 654?
    Answer. I recognize the effort that went into the enactment of 
title 10, U.S.C., section 654, and I respect the decisions of Congress 
and the President on this issue. I have been informed that, as 
implemented within the Department of Defense, the policy has met the 
general intent of Congress.
    Question. What is your view on the merits of repealing or changing 
this policy?
    Answer. I understand that a review of the policy has been initiated 
by the President and, if I am confirmed, I would work closely with my 
counterparts in the other Services, The Judge Advocate General, and the 
General Counsel of the Department of Defense to assess the current 
policy and to make recommendations for appropriate changes that are 
consistent with law and promote good order and discipline in the Armed 
Forces.
    Question. In your view, would changing this policy have an adverse 
impact on good order and discipline in the military?
    Answer. It is my understanding that good order and discipline are 
fundamental to the success of our Nation's military. Consequently, if I 
am confirmed, and were changes to the policy to be approved, I would 
work diligently to ensure that the implementation of any new law or 
policy did not adversely impact the good order and discipline of the 
Army.
    Question. If confirmed, what role would you play in efforts to 
repeal or change this policy?
    Answer. As noted above, if confirmed, and as directed by the 
President, I would work closely with my counterparts in the other 
Services, The Judge Advocate General, and the General Counsel of the 
Department of Defense to assess the current policy and to make 
recommendations for appropriate changes.
    Question. If the policy is changed by Congress, would you recommend 
a phase-in period for implementation of the new policy?
    Answer. If Congress and the President were to amend current policy, 
the incremental implementation of the new policy should be carefully 
considered. The potential impact on good order and discipline, military 
necessity, and the intent of Congress are important factors to be 
considered in the analysis of whether a phase-in of any new policy is 
appropriate.
    Question. If confirmed, what role will you play in implementing a 
new policy?
    Answer. If confirmed, and were a new policy approved, I would work 
closely with The Judge Advocate General and our counterparts to ensure 
that its implementation within the Army accorded with all applicable 
laws, regulations, and directives.
                        whistleblower protection
    Question. Section 1034 of title 10, U.S.C., prohibits taking 
retaliatory personnel action against a member of the Armed Forces as 
reprisal for making a protected communication. By definition, protected 
communications include communications to certain individuals and 
organizations outside of the chain of command.
    If confirmed, what actions will you take to ensure that senior 
military leaders understand the need to protect servicemembers who 
report misconduct to appropriate authorities within or outside the 
chain of command?
    Answer. Whistleblower protections for military personnel affirm 
that members of the Armed Forces must be free from reprisal for making 
or preparing a protected communication to a Member of Congress; an 
Inspector General; a member of a DOD audit, inspection, investigation, 
or law enforcement organization; or any other person or organization 
(within or outside the chain of command) designated under regulations 
or established procedures to receive such communications. I believe 
that these protections are essential. If confirmed, I will work with 
The Judge Advocate General to ensure that senior military leaders are 
fully and accurately advised of the whistleblower protections accorded 
by law and regulation to all soldiers, and that they understand their 
legal responsibilities in this important area. In addition, I will 
ensure that any individual cases involving allegations of illegal 
reprisal that may come to my attention are fully addressed in 
accordance with the law.
                   support to army inspector general
    Question. What role, if any, do you think the General Counsel of 
the Army should have in reviewing the investigations and 
recommendations of the Army Inspector General?
    Answer. If confirmed as the chief legal officer of the Department 
of the Army and counsel to the Secretary and other Secretariat 
officials, I will establish and maintain a close, professional 
relationship with The Inspector General, and will communicate with him 
directly and candidly. I will provide independent and objective legal 
advice to the Inspector General and the Secretary with regard to all 
matters that relate to Inspector General programs, duties, functions, 
and responsibilities. In coordination with The Judge Advocate General, 
I will oversee the provision effective legal guidance to the Office of 
the Inspector General in conducting investigations and making 
recommendations. Further, as part of my responsibility to review legal 
and policy issues arising from the Army's intelligence and 
counterintelligence activities, I will advise The Inspector General 
concerning proper reporting of the Army's intelligence oversight 
activities.
                            women in combat
    Question. Current DOD policies regarding the combat role of women 
in uniform have been in effect since 1994.
    What is your understanding of the conclusions and lessons that have 
been learned from Operation Iraqi Freedom and Operation Enduring 
Freedom about the feasibility of current policies regarding women in 
combat?
    Answer. At this time, I do not have enough information to make an 
informed assessment of the conclusions and lessons learned from OIF or 
OEF in regard to women in combat. It is my understanding that the Army 
is in compliance with the DOD policy relating to the assignment of 
women.
    Question. What is your assessment of the Army's compliance with the 
requirements of law relating to women in combat?
    Answer. It is my understanding that the Army is in compliance with 
the requirements of the DOD policy relating to women in combat. Women 
have and will continue to be an integral part of the Army team, 
performing exceptionally well in all specialties and positions open to 
them.
    Question. In your view, should the current policy regarding 
assignment of women in combat be revised to reflect the realities of 
the modern battlefield, effective counter-insurgency requirements, and 
changing societal expectations regarding roles for female soldiers?
    Answer. At this time, I do not have enough information to make an 
informed judgment about whether the policy should be changed. If 
confirmed, and if after careful study and deliberation, the Army 
determines that a change to the policy is appropriate in the current 
operating environment, I will provide the Secretary with cogent legal 
advice on this matter and work closely with Department of Defense 
officials to implement any approved changes.
                           civilian attorneys
    Question. Judge advocates in the Armed Forces benefit from an 
established career progression, substantial mentoring and training 
opportunities, and exposure to a broad spectrum of legal areas and 
leadership responsibilities. By contrast, civilian attorneys in the 
military departments normally do not have established career programs 
and may do the same work for many years, with promotion based solely 
upon longevity and vacancies.
    What is your understanding of the personnel management and career 
development system for civilian attorneys?
    Answer. It is my view that robust attorney career development 
programs result in excellence in client service, the recruitment and 
retention of high-performing professionals, and building the bench for 
the future. If confirmed, I will be in a position to examine this issue 
closely to ensure comprehensive and effective personnel management and 
career development programs for civilian attorneys.
    Question. In your view does that system need revision? If so, what 
do you see as the major problems and what changes would you suggest?
    Answer. I understand that there is a Working Group in the Army for 
the purpose of assessing and recommending programs for the professional 
development of civilian attorneys. If confirmed, I will assess the 
current situation and the Working Group's recommendations.
                                 client
    Question. In your opinion, who is the client of the General Counsel 
of the Department of the Army?
    Answer. The client of the General Counsel of the Department of the 
Army is the Department of the Army, acting thorough its authorized 
officials.
                           acquisition issues
    Question. What role should the General Counsel play in ensuring 
that Army procurement programs are executed in accordance with the law 
and DOD acquisition policy?
    Answer. If confirmed, I will work closely with the Secretary of the 
Army, the Assistant Secretary of the Army (Acquisition, Logistics and 
Technology), and other senior Department of the Army leaders to ensure 
that the Department of the Army's acquisition and procurement programs 
are executed in accordance with applicable provisions of the United 
States Code, as well as controlling regulations and policies. Today's 
acquisition professionals face the challenge of managing their 
programs' cost, schedule, and performance while remaining in compliance 
with a myriad of legal and policy requirements. I believe it is the 
responsibility of Army lawyers to proactively assist their acquisition 
clients in meeting that challenge. From the earliest stages of program 
development, counsel should be involved in identifying potential issues 
and, where appropriate, legally-compliant alternative courses of 
action. In those rare situations where an issue cannot be 
satisfactorily resolved, it is incumbent on counsel to promptly elevate 
their concerns in order to protect the Department's overarching 
interests.
    Question. What role should the General Counsel play in ensuring 
that ethics provisions on conflict of interest are followed both by 
Army personnel and by Army contractors?
    Answer. Structuring Departmental business practices to avoid both 
personal and organizational conflicts of interest should be one of the 
Army's highest priorities. If confirmed, I will work closely with the 
Secretary of the Army, the Assistant Secretary (Acquisition, Logistics, 
and Technology) and other senior Departmental officials to promote an 
organizational climate that is sensitive to the need to avoid conflicts 
of interest and that reacts appropriately when specific issues arise. I 
believe that Army lawyers can make a significant contribution to this 
endeavor through the provision of acquisition ethics training and 
through early and sustained involvement in the Department's acquisition 
programs and procurement activities.
    Question. Allegations of fraud and abuse during contingency 
contracting in Iraq and Afghanistan have been wide-spread.
    What role should the General Counsel play in ensuring that Army 
personnel are properly trained in contingency contracting and are 
supervised in the performance of their duties?
    Answer. I understand that during his tenure as the Secretary of the 
Army, Pete Geren created a commission, led by Dr. Jack Gansler, to 
assess the current state of the Army's acquisition and contracting 
system in support of expeditionary operations and to provide long-term 
strategic-level recommendations for improvement. If confirmed, I will 
work closely with the Secretary of the Army, the Assistant Secretary of 
the Army (Acquisition, Logistics, and Technology), and other senior 
Department of the Army personnel to ensure that the legal community 
continues to fully support the initiatives recommended and currently 
being implemented as a result of the Gansler Commission's assessment. I 
would also work closely with the Army Judge Advocate General and the 
other Army legal qualifying authorities to ensure that adequate legal 
resources are available to support the contingency contracting mission.
                    detecting conflicts of interest
    Question. Personal and organizational conflicts of interest have 
become a major concern. DOD's expanded use of private contractors being 
tasked to perform key functions that the services had formerly 
performed in-house and the new requirement to fill thousands of DOD 
civilian positions with experienced, qualified individuals present 
challenges in preventing conflicts of interest and the appearance of 
conflicts of interest.
    What do you think the Army should do, and what should the General 
Counsel's role be, in ensuring that the Army identifies personal and 
organizational conflicts of interests and takes the appropriate steps 
to avoid or mitigate them?
    Answer. If confirmed, I would closely examine the Army's process 
for reviewing and preventing both personal and organizational conflicts 
of interest. I believe that ethics awareness and instruction for all 
personnel is vitally important, and I would ensure that ethics training 
is a priority at all echelons. Bringing functions back ``in-house'' 
must be closely monitored with respect to former contractor employees 
and their relationships to their former employers. If confirmed, I 
would place special emphasis on review of these employment actions to 
prevent conflicts of interest at the inception.
    Question. What is your understanding of the steps the Army takes to 
identify and address potential conflicts of interest during the hiring 
process?
    Answer. I understand that financial disclosure reporting is a 
primary source of information to identify and prevent conflicts of 
interest. If confirmed, I would emphasize the importance of properly 
identifying positions requiring financial disclosure reporting and 
ensure that rigorous and timely review of the reports is accomplished 
by both ethics counselors and supervisors. If confirmed, I will 
emphasize education in conflicts of interest in the Army's ethics 
training program.
    Question. Recent reports have raised concerns about potential 
personal conflicts of interest by contractor employees, including 
retired general and flag officers (``senior mentors'') who advise 
senior government officials.
    What is your understanding of existing statutes and regulations 
pertaining to personal conflicts of interest by contractor employees 
who advise senior government officials?
    Answer. I understand that concerns have been raised in media 
reports about the Services' ``senior mentor'' programs. I have been 
told that there are a variety of ways such mentors may be obtained 
through contracts or Government employment arrangements. The laws and 
regulations applicable to such arrangements are different for contracts 
and Government employment. If confirmed, I would place a high priority 
on examining the various ways that the Army might tap this wealth of 
experience and expertise for the ultimate benefit of the war-fighter. I 
would also emphasize the importance of finding acceptable employment or 
contract arrangements that would minimize conflicts of interest or any 
appearance thereof that could undermine the public's confidence in the 
integrity of this program.
    Question. Do you see any need for changes to these statutes and 
regulations?
    Answer. At the present time, I believe that the statutes and 
regulations on personal and organizational conflicts of interest 
adequately protect the public interest. If confirmed, I would monitor 
this issue and, if I concluded that any changes were warranted, I would 
proceed through the Department's procedures for proposing legislative 
and regulatory changes.
    Question. What role do you see for the General Counsel in 
identifying and addressing potential conflicts of interest by employees 
of Army contractors?
    Answer. In my opinion, the General Counsel should work closely with 
the Assistant Secretary of the Army for Acquisition, Logistics and 
Technology to ensure compliance with restrictions imposed by the 
Federal Acquisition Regulation pertaining to organizational conflicts 
of interest. I also would ensure that Army lawyers emphasize this area 
as part of the Department's program for annual ethics training.
                              legal ethics
    Question. What is your understanding of the action a Department of 
the Army attorney or an Army judge advocate should take if the attorney 
becomes aware of improper activities by a Department of the Army 
official who has sought the attorney's legal advice and the official is 
unwilling to follow the attorney's advice?
    Answer. Army attorneys generally provide legal advice to Army 
officials in their capacity as representatives of the Department of the 
Army. The Department of the Army is the attorney's client, and no 
attorney-client privilege is established between the attorney and the 
Army official. When an Army attorney advises an Army official, the 
official may use that advice to exercise official functions and duties. 
If an Army attorney suspects that the individual Army official, either 
in exercising such functions or in failing to do so, violates a law or 
standard of conduct, I believe the attorney has an obligation to report 
the potential violation. Potential violations of the conflict of 
interest laws may be reported to Army criminal investigators; potential 
violations of provisions of the Federal Acquisition Regulation may be 
reported to the appropriate contracting officer; and potential 
violations of ethics standards may be reported to an Army ethics 
counselor, the head of the Army command or organization, the 
individual's or attorney's supervisor, or the Army Inspector General, 
as appropriate. At all times, Army personnel and attorneys may report 
any allegation of misconduct to the Inspector General or to criminal 
investigators, either in person or anonymously.
    Question. Do you believe that the present limits on pro bono 
activities of government attorneys are generally correct as a matter of 
policy or does the policy need to be reviewed and revised?
    Answer. I understand that government attorneys may participate in 
pro bono activities so long as the representation is consistent with 
general governmental ethical rules and with the rules of professional 
responsibility applicable to attorneys. I understand that Army civilian 
attorneys may, for instance, perform pro bono work with supervisory 
approval so long as the representation does not occur on Government 
time or at its expense, does not interfere with official duties, and 
does not create a conflict of interest or the appearance of a conflict 
of interest. I understand the Army also operates a legal assistance 
program for soldiers and families, providing free services in areas 
such as family law, wills and estate planning, tax law, landlord/tenant 
matters, contract disputes, consumer law, and assistance during the 
disability evaluation system. If confirmed, I would review the current 
policies in coordination with The Judge Advocate General and recommend 
revisions, if appropriate.
    Question. In your view, do the laws, regulations, and guidelines 
that establish the rules of professional responsibility for attorneys 
in the Department of the Army provide adequate guidance?
    Answer. The Army has comprehensive regulations, based upon the 
American Bar Association Model Rules of Professional Conduct, that 
govern the ethical conduct of Army lawyers, both military and civilian. 
All Army attorneys must, at all times, be in good standing with the 
licensing authority of at least one state, territory of the United 
States, the District of Columbia, or the Commonwealth of Puerto Rico. 
This regulatory system would appear to provide adequate guidance; 
however, if confirmed, I would review the current policy in 
coordination with The Judge Advocate General and, as appropriate, 
recommend revisions.
            litigation involving the department of the army
    Question. What is your understanding of the relationship between 
the Department of the Army and the Department of Justice with respect 
to litigation involving the Department of Defense?
    Answer. The Department of Justice represents the Department of the 
Army in civil litigation. In general, it is my understanding that 
coordination between the Justice Department and the Army is timely and 
consistent on every level. If confirmed, I will work with The Judge 
Advocate General to ensure the continuation of a collaborative 
relationship with the Department of Justice with respect to litigation 
involving the Department of the Army.
    Question. In your view, does the Department need more independence 
and resources to conduct its own litigation or to improve upon its 
current supporting role?
    Answer. The Army's interests in civil litigation are effectively 
protected and defended by the Department of Justice. If confirmed, I 
will work with The Judge Advocate General to ensure that adequate 
resources are available to ensure that the Army is able to provide the 
appropriate level of support to the Department of Justice and to 
protect the Army's interests and equities in civil litigation in which 
the Army is involved.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the General Counsel of the 
Department of the Army?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
            Questions Submitted by Senator Roland W. Burris
                      don't ask, don't tell policy
    1. Senator Burris. Mr. Watson, during the fiscal year 2011 budget 
request hearing both Secretary Gates and Chairman of the Joint Chiefs 
of Staff Mullen voiced their support to conduct a study of how to 
repeal the current Don't Ask, Don't Tell (DADT) policy. In their fiscal 
year 2011 budget request hearing, the Army leadership, Secretary McHugh 
and General Casey, endorsed this approach as well. What role will you 
play in the DADT study that the Secretary of Defense plans to direct 
the Services to conduct?
    Mr. Watson. If confirmed and appointed as General Counsel of the 
Army, I will provide any necessary legal advice to the Secretary of the 
Army with respect to this issue.

    2. Senator Burris. Mr. Watson, what role will you play in the 
enforcement of a moratorium for DADT, if directed by Congress?
    Mr. Watson. Until such time as Congress changes the law, it would 
be my obligation as General Counsel of the Army to ensure that the 
current law was being faithfully executed.
                                 ______
                                 
               Questions Submitted by Senator John McCain
        involvement in the new york times publication decisions
    3. Senator McCain. Mr. Watson, you indicated in your response to my 
letter that you were not aware of either the Terrorist Surveillance 
Program or the SWIFT program prior to the publication of the articles 
about them. This seems strange in view of your responsibilities as 
General Counsel. Certainly, after the controversy that erupted after 
the New York Times' publication of the Terrorist Surveillance Program 
article in December 2005, I would think you would have insisted on 
having a voice in subsequent decisions of this nature. Did you have any 
role or responsibility for decisions made by the New York Times which 
involved disclosure of classified national security information?
    Mr. Watson. I was not involved in the decisions made by the New 
York Times which involved disclosure of classified national security 
information. As was the case with the TSP, the ultimate decision to 
publish a given story in The Times--whether legal advice is provided or 
not--is a journalistic decision made by the executive editor of The 
Times, in some cases with the consent of the publisher. Similarly, it 
is part of the editorial function to determine whether an article 
should be reviewed by a Times Company lawyer prior to publication. The 
role of the lawyer in such prepublication review relates to resolving 
any identified legal issues.
    As earlier stated, I was not aware of or involved in providing 
legal advice in connection with these articles. In January 2006, I 
became Chief Legal Officer and while I was familiar with all legal 
areas relevant to the Company and its operations, including First 
Amendment and litigation, I did not participate in prepublication 
review. To the extent that the legal department was asked for pre-
publication review of these articles, the newly-appointed General 
Counsel (formerly the Deputy) provided that advice. As an 
organizational matter, the General Counsel was an experienced 
practitioner in the First Amendment area and was authorized to make 
decision therein, advising me when necessary.

    4. Senator McCain. Mr. Watson, were you involved in or aware of the 
negotiations with the White House and others with respect to the 
newspaper's decisions to publish these articles?
    Mr. Watson. No.

    5. Senator McCain. Mr. Watson, were you consulted in any way about 
the significance of the decision to publish these articles, including 
the harm that would be done, by the New York Times?
    Mr. Watson. No. Please refer to answer to QFR #3.

              publication of leaked classified information
    6. Senator McCain. Mr. Watson, you make it clear in your letter 
dated January 7 that, if confirmed, you would ensure that all leaks are 
fully investigated and where wrongdoing is found, the leakers 
prosecuted. Do you think a newspaper has the prerogative under law to 
publish any information that its reporters obtain through unauthorized 
leaks of classified information?
    Mr. Watson. Under applicable case law, publication of classified 
information is legal where the article is truthful and accurate, based 
on information not illegally obtained by the newspaper; and was written 
and published by individuals who were acting to help fulfill the 
newspaper's constitutional duty of informing the public about a very 
newsworthy subject. In the final analysis, if a prosecution were ever 
brought, the question of whether there has been a violation of law 
would be determined by a judge and jury.
    As stated during my testimony, I am very troubled anytime 
classified information is published. There are aspects of our military 
and intelligence operations that should not be in the public domain. It 
is my personal belief that executive editors and publishers have a 
substantial obligation to weigh the impact on national security when 
considering the publication of articles based on classified 
information.

    7. Senator McCain. Mr. Watson, what factors do you think should be 
applied by a newspaper in making the decision whether to publish 
information that is classified?
    Mr. Watson. Please refer to answer to QFR #6.

    8. Senator McCain. Mr. Watson, if you are confirmed as General 
Counsel of the Department of the Army and you were asked to participate 
in negotiations with a newspaper aimed at preventing publication of 
classified information, what factors would you consider most important 
going into those negotiations?
    Mr. Watson. If confirmed and appointed as General Counsel of the 
Department of the Army, I would work aggressively and diligently to 
prevent the leaking and the publication of classified information. With 
our nation fighting two wars and combating global terrorism, the safety 
of our troops and the American people must be our paramount objective. 
The publication of classified information that would jeopardize either 
is a matter of great concern.
    Such a negotiation should start with discussion of any statute that 
arguably might be violated by such publication. If, based on the 
current state of the law or otherwise, that were not persuasive, the 
discussion should include the following: the harm to national security 
and the known bases on which certain newspapers, at the request of 
government, have been known to omit some articles completely, or to 
delay publication of articles, and/or to omit potentially harmful 
information from articles that were published. I understand that such 
cases have included both circumstances in which there was potential 
immediate harm (such as troop movements) as well as potential harm to 
longer term aspects of national security (such as elements of 
intelligence and diplomacy).
    Please note that as a signatory to the ethics pledge, I would be 
prohibited from participating in any matters involving the New York 
Times.

         prosecution for publication of classified information
    9. Senator McCain. Mr. Watson, in the information you included in 
your letter regarding the rationale for publication of these stories, 
it is clear that the Executive Editor of the New York Times believes 
that he has the authority, if not the obligation, to publish classified 
information which comes before him if it meets his criteria. Do you 
think that there are any circumstances under which the editor or 
publisher of a newspaper could be successfully prosecuted under 
existing criminal laws for publishing classified information?
    Mr. Watson. Under applicable case law, publication of classified 
information is legal where the article: is truthful and accurate, based 
on information not illegally obtained by the newspaper; and was written 
and published by individuals who were acting to help fulfill the 
newspaper's constitutional duty of informing the public about a very 
newsworthy subject. I believe that there may be circumstances under 
which an employee of a newspaper could be successfully prosecuted. For 
instance, a newspaper employee could be found criminally liable if the 
employee engaged in illegal activity to obtain the information.

                   leaking of classified information
    10. Senator Inhofe. Mr. Watson, while you were General Counsel and 
Chief Legal Officer for the New York Times, the paper published 10 
articles that revealed highly classified information about the 
existence of the Terrorist Surveillance Program and the Terrorist 
Finance Tracking Program. In response to a written letter from Senator 
McCain, you said that even though you were ultimately responsible for 
your department's legal judgments, in this case, you were ``not 
involved in providing the legal advice in connection with this 
particular article.'' In addition to articles about the Terrorist 
Surveillance Program and the Terrorist Finance Tracking Program, the 
New York Times published at least three more articles about classified 
military information in 2006. On June 25, 2006, the Times published an 
article about a classified briefing to reduce troop levels in Iraq. On 
September 24, 2006, the Times published an article about the National 
Intelligence Estimate. On November 1, 2006, it published an article 
detailing a classified briefing about the level of violence in Iraq. 
Please describe in detail the decisionmaking process for publishing all 
the articles referenced above.
    Mr. Watson. As was the case with the TSP and the SWIFT Program, the 
ultimate decision to publish a given story in The Times--whether legal 
advice is provided or not--is a journalistic decision made by the 
executive editor of The Times, in some cases with the consent of the 
publisher.
    As stated above, I was not involved in providing legal advice in 
connection with these articles. In January 2006, I became Chief Legal 
Officer and while I was familiar with all legal areas relevant to the 
Company and its operations, including First Amendment and litigation, I 
did not participate in prepublication review. To the extent that the 
legal department was asked for pre-publication review of these 
articles, the newly-appointed General Counsel (formerly the Deputy) 
provided that advice. As an organizational matter, the General Counsel 
was an experienced practitioner in the First Amendment area and was 
authorized to make decision therein, advising me when necessary.

    11. Senator Inhofe. Mr. Watson, please describe in detail what role 
you, as General Counsel and Chief Legal Officer, played regarding the 
publishing of these articles as well as the role you played in 
discussions after each of the articles were released?
    Mr. Watson. I was not involved in the legal review of the articles 
and became aware of each of the articles after it was published. The 
ultimate decision to publish a given story in The Times--whether legal 
advice is provided or not--is a journalistic decision made by the 
executive editor of The Times, in some cases with the consent of the 
publisher. Similarly, it is part of the editorial function to determine 
whether an article should be reviewed by a Times Company lawyer prior 
to publication. The role of the lawyer in such prepublication review 
relates to resolving any identified legal issues.
    After such a review, the executive editor, or his designee, makes 
the final determination as to what, if any, changes will be made to the 
story in response to any legal advice received, and whether and when 
that story will be published. An issue such as the potential effect 
that the publication of the article may have on national security is an 
editorial matter to be determined solely by the executive editor and, 
at times, the publisher.
    Any legal opinion or communication I may have made to the New York 
Times leadership, before or after the publication, is subject to the 
Attorney-Client privilege and I am therefore not allowed to disclose 
such information. As I stated during my testimony, I am very troubled 
anytime classified information is published.

    12. Senator Inhofe. Mr. Watson, please describe in detail what was 
your legal and personal opinion of the decision to publish each of 
these articles?
    Mr. Watson. Any legal opinion or communication I may have made to 
the New York Times leadership is subject to the Attorney-Client 
privilege and I am therefore not allowed to disclose such information. 
As I stated during my testimony, I am very troubled anytime classified 
information is published.

    13. Senator Inhofe. Mr. Watson, did you make your opinions known to 
the New York Times leadership? If yes, how did you make them known?
    Mr. Watson. Please refer to answer to QFR #12.

    14. Senator Inhofe. Mr. Watson, what were their responses to your 
opinions?
    Mr. Watson. Please refer to answer to QFR #12.

    15. Senator Inhofe. Mr. Watson, did you issue any memoranda or 
other general guidance regarding the publication of any of these 
articles?
    Mr. Watson. As stated above, I was not involved in providing legal 
advice in connection with these articles. To the extent that the legal 
department may have created written memoranda with respect to these 
articles, I do not have access to these documents.

    16. Senator Inhofe. Mr. Watson, even if you knew nothing about the 
Terrorist Surveillance Program before the first article was published, 
why did you permit the paper to continue to run additional stories 
after you learned the information was classified?
    Mr. Watson. The ultimate decision to publish a given story in The 
Times--whether legal advice is provided or not--is a journalistic 
decision made by the executive editor of The Times, in some cases with 
the consent of the publisher. Similarly, it is part of the editorial 
function to determine whether an article should be reviewed by a Times 
Company lawyer prior to publication. The role of the lawyer in such 
prepublication review relates to resolving any identified legal issues.
    After such a review, the executive editor, or his designee, makes 
the final determination as to what, if any, changes will be made to the 
story in response to any legal advice received, and whether and when 
that story will be published. An issue such as the potential effect 
that the publication of the article may have on national security is an 
editorial matter to be determined solely by the executive editor and, 
at times, the publisher.

    17. Senator Inhofe. Mr. Watson, do you still think the New York 
Times' decision to publish the classified information related to the 
Terrorist Surveillance Program was appropriate?
    Mr. Watson. As I stated during my testimony, I am very troubled 
anytime classified information is published.

    18. Senator Inhofe. Mr. Watson, do you still stand by your 
assertion that ``the individuals who wrote the article and who were 
responsible for its publication did not violate the Espionage Act''?
    Mr. Watson. Yes.

    19. Senator Inhofe. Mr. Watson, is it your position that the New 
York Times had a constitutional duty to publish the classified 
information contained in its December 15, 2005, article?
    Mr. Watson. A constitutional duty of a newspaper in such a 
circumstance is to balance the newsworthiness of the subject and the 
importance of informing the public against the potential harm to 
national security in publishing the article. This is a journalistic 
determination which in the case of the TSP was made by the executive 
editor with the consent of the publisher.

    20. Senator Inhofe. Mr. Watson, under what circumstances, in your 
opinion, should the public interest in a very newsworthy subject 
outweigh national security interests?
    Mr. Watson. Your question is hypothetical and requires a highly 
fact specific analysis. As a citizen I support and defend the role that 
public debate must by necessity play in our democracy and recognize 
that there are aspects of our military and intelligence operations 
which should not be in the public domain. Further, I am a proponent of 
a strong national security, including a robust and effective 
intelligence service.

    21. Senator Inhofe. Mr. Watson, Jack Goldsmith, who led the Justice 
Department's Office of Legal Counsel from 2003 to 2004, has argued that 
the Times' December 2005 article regarding the Terrorist Surveillance 
Program, and a June 2006 article regarding the Terrorist Finance 
Tracking Program, seriously damaged national security interests because 
the articles ``helped terrorists to avoid forms of communication that 
we were good at monitoring, and instead switched to channels of 
communication in which we lack comparative advantage.'' Do you agree 
that the New York Times' decision to publish classified information 
damaged national security interests? Why or why not?
    Mr. Watson. As a citizen I support and defend the role that public 
debate must by necessity play in our democracy and recognize that there 
are aspects of our military and intelligence operations which should 
not be in the public domain. Further, I am a proponent of a strong 
national security, including a robust and effective intelligence 
service. That said, I do not have sufficient information to agree or 
disagree with Mr. Goldsmith's comments.
                                 ______
                                 
               Question Submitted by Senator David Vitter
                         legal responsibilities
    22. Senator Vitter. Mr. Watson, in your letter responding to 
Senator McCain's questions, you said you were not involved in providing 
legal advice in connection to the New York Times article on the 
Terrorist Surveillance Program, and the Deputy General Counsel provided 
advice ``to the extent that the legal department was asked for advice 
on this particular matter.'' However, the Executive Editor of the New 
York Times wrote a memo stating that the newspaper worked on this story 
for months and had considerable interaction with the Bush 
administration arguing against its publication. So I am surprised that 
a story that clearly received a significant amount of internal debate 
and discussion, including the initial decision against running the 
story, never came to your attention and was delegated down, and that 
you were never consulted on this issue and story. If confirmed, will 
you accept complete responsibility for all legal advice and 
determinations made by the Army Office of the General Counsel?
    Mr. Watson. Yes.
                                 ______
                                 
    [The nomination reference of Solomon B. Watson IV follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                 November 20, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Solomon B. Watson IV, of New York, to be General Counsel of the 
Department of the Army, vice Benedict S. Cohen, resigned.
                                 ______
                                 
    [The biographical sketch of Solomon B. Watson IV, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
            Resume of Career Service of Solomon B. Watson IV
Education:
        <bullet> Woodstown High School; 1958 to 1962
        <bullet> Howard University; 1962 to 1966; BA, 1966
        <bullet> Harvard Law School; 1968 to 1971; JD, 1971
Employment Record:
        <bullet> I have been retired since December 2006
        <bullet> The New York Times Company, New York; 1974 to 2006

                <bullet> Senior Vice President and Chief Legal Officer: 
                2005-2006
                <bullet> Senior Vice President & General Counsel: 1996-
                2005
                <bullet> Vice President & General Counsel: 1990-1996
                <bullet> General Counsel: 1989
                <bullet> Corporate Secretary: 1979-1989 (and 2000-2002)
                <bullet> Corporate Counsel: 1974-1979

        <bullet> Associate, Bingham, Dana & Gould, Boston; 1971 to 1974
Honors and Awards:
        <bullet> Army Commendation and Bronze Star medals for Service 
        in the Republic of Vietnam (RVN)
        <bullet> Media Law Resource Center's First Amendment Leadership 
        Award
        <bullet> NAACP Legal Defense & Education Fund National Equal 
        Justice Award
        <bullet> Minority Corporate Counsel Association's Pioneers of 
        the Profession Award
        <bullet> American Corporate Counsel Association (Greater NY 
        Chapter) Distinguished Service Award
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Solomon B. 
Watson IV in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Solomon B. Watson IV.

    2. Position to which nominated:
    General Counsel of the Department of the Army.

    3. Date of nomination:
    November 20, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    April 14, 1944; Salem, NJ

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to the former Brenda J. Hendricks.

    7. Names and ages of children:
    Katitti Watson Williams; age 40.
    Kira Watson LeBlanc; age 40.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Woodstown High School; 1958 to 1962; Diploma, 1962
    Howard University; 1962 to 1966; BA, 1966
    Harvard Law School; 1968 to 1971; JD, 1971

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    I was employed by The New York Times Company in various legal 
positions from 1974 to 2006 until my retirement in December 2006.
    The New York Times Company, New York; 1974 to 2006
    <bullet>  Senior Vice President and Chief Legal Officer: 2005-2006
    <bullet>  Senior Vice President & General Counsel: 1996-2005

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Lieutenant, U.S. Army Military Police Corps; 1966 to 1968
    Court-appointed Special Master in the Appellate Division of the New 
York State Supreme Court from 2008 to date.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    The Howard University Institute on Entrepreneurship, Leadership & 
Innovation: advisory board member
    Whitney Realty Corp.: director, president of the board
    Hudson River Foundation, New York, NY: director
    ReServe Elder Service: director
    Skadden Fellowship Foundation: trustee

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    In addition to those provided in response to 11:

        Sigma Pi Phi Fraternity: member
        The Executive Leadership Council: member
        The American Bar Association: member
        Association of the Bar of the City of New York: member

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Obama for America, 4/15/2008, $300.
    Obama for America, 2/28/2008, $250.
    Obama for America, 9/18/2007, $1,000.
    Obama Victory Fund, 9/30/2008, $500.
    Corey Booker for Mayor, 8/21/2009, $500.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Army Commendation and Bronze Star medals for Service in the 
Republic of Vietnam (RVN)
    Media Law Resource Center's First Amendment Leadership Award
    NAACP Legal Defense & Education Fund National Equal Justice Award
    Minority Corporate Counsel Association's Pioneers of the Profession 
Award
    American Corporate Counsel Association (Greater New York Chapter) 
Distinguished Service Award

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                              Solomon B. Watson IV.

    [The nomination of Solomon B. Watson IV was reported to the 
Senate by Chairman Levin on May 5, 2010, with the 
recommendation that the nomination be confirmed. On December 
22, 2010, this nomination was returned to the President under 
the provisions of Senate Rule XXXI, paragraph 6, of the 
Standing Rules of the Senate.]
                              ----------                              

    [Prepared questions submitted to Katherine G. Hammack by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. This milestone legislation is now more than 20 years old 
and has served our Nation well. Although I believe that the framework 
established by Goldwater-Nichols has significantly improved 
interservice and joint relationships and promoted the effective 
execution of responsibilities, the Department, working with Congress, 
should continually assess the law in light of improving capabilities, 
evolving threats, and changing organizational dynamics. Although I am 
currently unaware of any reason to amend Goldwater-Nichols, if 
confirmed, I hope to have an opportunity to assess whether the 
challenges posed by today's security environment require amendments to 
the legislation.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. As noted above, I have no specific proposals to modify 
Goldwater-Nichols. As with any legislation of this magnitude, however, 
I believe it may be appropriate to review past experience with the 
legislation with a view to identifying any areas in which it can be 
improved upon, and then to consider with Congress whether the act 
should be revised.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of the Army for Installations and Environment?
    Answer. I have been informed that the Assistant Secretary of the 
Army for Installations & Environment has primary staff responsibility 
for policy development, program oversight and coordination of a wide 
variety of Army activities relating to installations, energy and 
environmental matters, to include resource management and requirements 
validation. These include (but are not limited to): design, 
construction, operations, maintenance and management of Army 
installations; base realignment and closure (BRAC) execution; energy 
security and management; sustainability; privatization of Army family 
housing, lodging, real estate, utilities and other infrastructure 
programs; environmental compliance, clean-up and site disposal 
programs; and management of the Army's safety and occupational health 
programs. Inherent in those responsibilities is the requirement to 
ensure the Army complies with law, policy and regulations within the 
Assistant Secretary's area of responsibility, ensuring Reserve 
component integration and providing guidance and oversight to the 
Assistant Chief of Staff for Installation Management.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I have almost 30 years of experience in energy and the 
environment in the private sector. While employed by Carrier Air 
Conditioning, I was part of a small group that founded the U.S. Green 
Building Council and the Leadership in Energy and Environmental Design 
(LEED) certification program, which is now a requirement for all new 
Federal Buildings. This program sets sustainability guidance for 
facilities design, construction, maintenance, utilities and operations.
    For the last 4 years I have been involved in developing a new 
energy and environmental building code. Currently, with Ernst & Young, 
I lead projects to certify some of the largest green buildings in the 
world to the LEED certification program which involves renewable 
energy, energy efficiency, water efficiency, indoor environmental air 
quality and building material selection. If confirmed, I will apply my 
leadership to installation improvement, energy management and 
privatization efforts in the Army.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Assistant Secretary 
of the Army for Installations and Environment?
    Answer. Yes. If confirmed, I would seek to learn more about the 
installations and facilities within my purview, as well as to 
understand the installation and environment related issues, challenges 
and initiatives relating to them. Using my significant private sector 
experience with large building projects, I would expect to work with 
the Secretary of the Army and my counterparts in the other military 
departments to develop efficient and effective policies for the Army's 
benefit. If confirmed, I would also plan to meet with key members of 
agencies such as the Environmental Protection Agency, Department of 
Energy and General Services Administration to determine how we can work 
together to leverage best practices, technologies and programs. I would 
also seek the advice and counsel of the Army institutional and 
operational commands to find ways to better serve the needs of soldiers 
and families.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of the Army would prescribe for you?
    Answer. If confirmed, I would address the scope of my duties with 
the Secretary of the Army at the earliest available opportunity. I 
would expect the Secretary of the Army might ask me to use my 
background in the energy and sustainability fields to support the 
Army's Energy Security and Sustainability Programs, as well as policy 
and program oversight of all areas of installation management, to 
include BRAC execution. If confirmed, I would look forward to 
implementing the Secretary of the Army's guidance on how best to meet 
the needs of soldiers and families and to further Army and President's 
goals and priorities.
                             relationships
    Question. If confirmed, what would be your professional 
relationship with:
    The Secretary of the Army.
    Answer. As the head of the Department of the Army, the Secretary of 
the Army is responsible for, and has the authority to conduct, all 
affairs of the Department. As the Assistant Secretary of the Army for 
Installations and Environment, if confirmed, I would strive to 
establish and maintain a close, professional relationship with the 
Secretary of the Army, openly and candidly discussing with him all 
issues that arise as I execute the responsibilities he has assigned to 
me. I would expect the Secretary of the Army will discuss the roles and 
responsibilities he wishes me to assume in furthering the goals and 
priorities of the President.
    Question. The Under Secretary of the Army.
    Answer. The organizational relationship between the Assistant 
Secretary of the Army for Installations and Environment and the Under 
Secretary of the Army is defined by the Secretary of the Army, and 
published in Army General Orders. The Under Secretary is the Secretary 
of the Army's principal civilian assistant and most senior civilian 
advisor, and designated Chief Management Officer of the Army. If 
confirmed, I would establish a strong, cooperative and open 
relationship with the Under Secretary, keeping him informed of any and 
all significant issues, and supporting his business transformation 
efforts.
    Question. The Chief of Staff of the Army.
    Answer. If confirmed, I would work closely with the Chief of Staff 
of the Army, the senior military leader of the Army, as well as the 
Army Staff in areas of mutual interest and shared responsibility. I 
expect that I would coordinate closely with the Army Staff regarding 
the duties assigned to the Assistant Chief of Staff for Installation 
Management.
    Question. The Deputy Under Secretary of Defense for Installations 
and Environment.
    Answer. If confirmed, I look forward to establishing a cooperative 
and professional relationship with the Deputy Under Secretary of 
Defense for Installations and Environment in all areas of mutual 
interest. If confirmed, I would work collaboratively with the Deputy 
Under Secretary in the development and implementation of Department of 
Defense (DOD) policies relating to installations, environment, and 
safety and occupational health.
    Question. The Other Assistant Secretaries of the Army.
    Answer. If confirmed, as part of the ``One Army'' team, I would 
work closely, openly, and collaboratively with the other Assistant 
Secretaries of the Army in executing the Army's missions, goals, and 
objectives.
    Question. The Assistant Secretaries of the Navy and Air Force for 
Installations and Environment.
    Answer. I look forward to establishing a cooperative and 
professional relationship with the Assistant Secretaries of the Navy 
and Air Force for Installations and Environment, pursuing opportunities 
to enhance cooperation among the Military Services. If confirmed, I 
would work collaboratively with the other Service Secretaries in the 
development and implementation of DOD policies relating to 
installations and environment, including joint-base operations.
    Question. The General Counsel of the Army.
    Answer. The General Counsel is the chief legal officer of the Army 
and serves as counsel to the Secretary and other Secretariat officials. 
Were I to be confirmed, my relationship with the General Counsel of the 
Army would involve close and regular consultation, given the legal 
complexities of the programs assigned to the Assistant Secretary of the 
Army for Installations and Environment. If confirmed, I would actively 
seek the General Counsel's guidance in order to ensure that the 
policies and initiatives of the Assistant Secretary of the Army for 
Installations and Environment are in strict accord with all laws and 
regulations and the highest principles of ethical conduct.
    Question. The Judge Advocate General of the Army.
    Answer. If confirmed, I would work closely with The Judge Advocate 
General of the Army and in areas of shared responsibility and mutual 
interest. I expect that I would coordinate closely with The Judge 
Advocate General of the Army regarding the duties assigned to the 
Assistant Chief of Staff for Installation Management.
    Question. The Army Chief of Engineers.
    Answer. If confirmed, I would work closely with the Chief of 
Engineers and the U.S. Army Corps of Engineers' Districts and Divisions 
in areas of shared responsibility. I expect that I would coordinate 
closely with the Chief of Engineers regarding the military programs 
executed by the U.S. Army Corps of Engineers including military 
construction, BRAC, real property management and disposal, energy 
security, and environmental matters.
    Question. The Assistant Chief of Staff of the Army for Installation 
Management.
    Answer. If confirmed, I look forward to establishing a close and 
professional relationship with the Assistant Chief of Staff of the Army 
for Installation Management, one based on mutual trust and confidence. 
If confirmed, I would work collaboratively with the Assistant Chief of 
Staff of the Army for Installation Management and his staff to provide 
oversight in developing and implementing Departmental policies relating 
to management of the Army's real property assets, installations, and in 
particular, the Army's military family housing and barracks.
                     major challenges and problems
    Question. In your view, what are the major challenges that confront 
the Assistant Secretary of the Army for Installations and Environment?
    Answer. It is my understanding that the next Assistant Secretary of 
the Army for Installations and Environment will face a number of 
challenges. The most significant challenges relating to soldiers and 
families will include sustaining our installation facilities, services 
and programs in support of an Army at war and returning from war; 
achieving Energy Security and Environmental Sustainability; and 
successful implementation of BRAC 2005--all in the most cost-effective 
manner possible. As this committee is well aware, the soldiers and 
families of the Army have answered their nation's call to duty and we 
must ensure we deliver to them a quality of life that befits their 
service and preserves the All-Volunteer Force.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I would work closely with Congress, the 
Office of the Secretary of Defense, Service counterparts, State and 
local governments, and other partners to develop and implement 
solutions to address our challenges and achieve administration 
objectives.
    Question. What do you consider to be the most significant problems 
in the performance of the functions of the Assistant Secretary of the 
Army for Installations and Environment?
    Answer. At this time, I have not been informed of any significant 
issues or problems related to the performance of the functions of the 
Assistant Secretary of the Army for Installations and Environment.
    Question. If confirmed, what management actions and timelines would 
you establish to address these problems?
    Answer. If confirmed, I would work closely with the Secretary and 
the Under Secretary of the Army to review and develop a strategic plan 
and appropriate processes to address issues that may arise.
                               priorities
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Assistant Secretary 
of the Army for Installations and Environment?
    Answer. If confirmed, I would review Army programs immediately and 
establish priorities consistent with those of the President, the 
Secretary of Defense, and the Secretary of the Army. I would work 
closely with my counterparts within DOD and the Army, as well as 
members of Congress, to develop and maintain our facilities, services, 
and programs in support of mission readiness, soldiers, and families.
    Question. Do you have any specific plans to help improve the 
quality of life for Army families who are under considerable strain as 
a result of repeated deployments?
    Answer. I am not in the position at this time to address specific 
plans, but I am very aware of the impact of repeated deployments on our 
soldiers and families. If confirmed, I would be completely committed to 
supporting Army quality of life initiatives.
    Question. The Assistant Secretary of the Army for Installations and 
Environment has responsibility for, among other things, two largely 
distinct programs--the military construction program and the 
environmental program.
    In the competition for resources inherent in the Defense Department 
budget process, which of these two major programs do you believe should 
have priority in terms of funding?
    Answer. Although I have not been fully briefed on these programs, 
my preliminary sense is that it may not be prudent to separate these 
programs as they complement each other in many ways.
    Question. Why?
    Answer. Based on my current knowledge and understanding, all Army 
construction is predicated on sound environmental planning. To be good 
stewards of resources, I believe we must consider sustainability and 
energy security, as well as support for operational readiness, as we 
manage our facilities and installations. Construction and environmental 
programs must work in harmony to achieve Army goals and objectives.
                         military construction
    Question. DOD currently uses a range of facility assessment metrics 
to determine adequate levels of annual funding for military 
construction, modernization, and repair accounts. In recent budget 
years, investment goals were established by determining annual rates of 
capitalization of the physical plant to justify the levels of annual 
investment required for facilities and infrastructure. While the goal 
was annual funding for military construction and facility modernization 
equal to a recapitalization rate of 67 years, the military services 
consistently fell short of this rate of investment in their budget 
submissions.
    Do you believe that current metrics provide an accurate assessment 
of the condition of facilities in order to allow military leaders to 
assess the impact on military readiness of annual budget investment 
decisions?
    Answer. If confirmed, I would take time to gain a detailed 
understanding of the metrics and goals currently being used by the Army 
before taking any initiative to propose additions or modifications to 
them.
    Question. If confirmed, what other goals and metrics, if any, would 
you consider establishing to assess the rate of facility 
recapitalization?
    Answer. If confirmed, I would take time to gain a detailed 
understanding of the metrics and goals currently being used by the Army 
before taking any initiative to propose additions or modifications to 
them. I would ensure the Army is effectively measuring facilities 
recapitalization in a manner that supports addressing the worst 
facilities first.
                     base closure and realignments
    Question. The Department of the Army is in the process of 
implementing the decision of the 2005 Defense BRAC round. The DOD 
installation closure process resulting from BRAC decisions has 
historically included close cooperation with the affected local 
community in order to allow these communities an active and decisive 
role in the reuse of property.
    What would your role be, if confirmed, in carrying out these 
responsibilities?
    Answer. If confirmed, and subject to the guidance of the Secretary 
of the Army, I would work closely with the Office of Economic 
Adjustment, Local Redevelopment Authorities, the Governors, and other 
appropriate State and local officials to accelerate the property 
disposal process whenever possible.
    Question. If confirmed, what priorities would you set for the 
process of disposal of any property at Army bases affected by BRAC 
decisions?
    Answer. If confirmed, my priority would be to support the 
acceleration of the property disposal process as much as possible so 
that affected communities can begin to redevelop the property. I 
understand that the Army is committed to the economic principles of 
redevelopment which dictate that capital investment is best achieved in 
the marketplace.
    Question. If confirmed, what goals would you establish to assist 
affected communities with economic development, revitalization, and re-
use planning of property received as a result of the BRAC process?
    Answer. If confirmed, I would work to understand communities' 
redevelopment plans and schedules. In my view, the Army needs to work 
closely with the Office of Economic Adjustment to ensure that affected 
communities have the resources necessary to accomplish their 
comprehensive planning for the reuse of installation property. I will 
evaluate the Army's BRAC Master Plan and environmental cleanup program 
to ensure they are in line with community development planning.
    Question. Although the Services have made solid progress in turning 
over properties from prior rounds of BRAC to local communities, there 
remain several properties that are both valuable and problematic. 
Congress provided new authority in the National Defense Authorization 
Act (NDAA) for Fiscal Year 2010 aimed at expediting the process and at 
removing legislative impediments that have caused friction between the 
Department and local communities.
    Do you believe that those new authorities will be sufficient to 
jump start these long stalled negotiations?
    Answer. Yes, I do. I understand that the changes made to the NDAA 
for Fiscal Year 2010 expand and broaden the Department's property 
disposal authorities, and if confirmed, I look forward to working with 
affected communities to expedite property disposal actions.
    Question. What is your understanding of a reasonable period of time 
to show substantial progress?
    Answer. I have not had an opportunity to review the status of all 
conveyances, so I am unable to make such an assessment at this time. If 
confirmed, I would study each conveyance, particularly those at 
critical stages of negotiation, to set forth a reasonable period of 
time in which to show substantial progress.
    Question. The Department of the Army submitted to Congress a 2005 
BRAC Implementation Plan that included specific decisions for military 
construction requirements and mission realignment plans in order to 
complete all moves by September 15, 2011.
    If confirmed, would you ensure that Army BRAC actions are carried 
out in accordance with the plans submitted to Congress?
    Answer. If confirmed, I would ensure the Army has the proper 
resources and policies in place to properly implement the BRAC 2005 
decisions.
    Question. What steps, if any, do you believe the Army should take 
to update the 2005 BRAC Implementation Plan before spending amounts 
authorized by Congress specifically for BRAC construction projects on 
requirements that were not originally included in the Plan?
    Answer. I understand that the Army submits a budget justification 
book every year to Congress that lists its BRAC projects for the fiscal 
year. I also understand that if changes become necessary the Army 
submits notification in accordance with the procedures established by 
Congress.
    Question. In your opinion, can the Department of the Army implement 
all BRAC decisions by the statutory deadline of September 15, 2011?
    Answer. I understand that the Department of the Army has an 
aggressive set of plans and milestones to implement BRAC 2005; it is my 
understanding that the Department is on track to meet the 2011 BRAC 
statutory deadline.
            investment in defense industrial infrastructure
    Question. Witnesses appearing before the committee in the past have 
testified that the military services underinvest in both the 
sustainment and recapitalization of depots, arsenals, and ammunition 
plants compared to private industry standards. Decades of under-
investment in our industrial facilities has led to substantial backlogs 
of facility maintenance activities, created substandard working 
conditions, and made it harder to take advantage of new technologies 
that could increase productivity.
    If confirmed, what recommendations would you have for restoring and 
preserving the quality of our defense industrial infrastructure?
    Answer. I have not had an opportunity to study the quality of the 
Army's industrial base. If confirmed, I would work closely with the 
Assistant Secretary of the Army for Acquisition, Logistics and 
Technology and the Army Chief of Staff to develop a plan that ensures 
the viability of our defense industrial infrastructure and facilities.
    Question. This underinvestment in infrastructure is particularly 
acute in Army arsenals and ammunition plants.
    If confirmed, how would you plan on addressing this shortfall?
    Answer. If confirmed, I would work closely with my counterpart, the 
Assistant Secretary of the Army for Acquisition, Logistics and 
Technology and with the Army Staff to ensure resources are available to 
adequately invest in industrial facilities.
                          enhanced use leases
    Question. Congress has provided the authority for each of the 
Service Secretaries to lease underutilized non-excess property and to 
use revenues generated by those leases to enhance infrastructure and 
operating costs on those installations. This so-called ``enhanced use 
lease'' (EUL) authority is being used in different ways and for 
different purposes by each of the military departments.
    What is your understanding of the EUL authority?
    Answer. I understand that Congress provided EUL authority to the 
military departments and that it applies to underutilized property that 
has not been declared excess. I understand that the revenue from these 
leases may be used, in part, to supplement installation maintenance and 
repair expenses and can even be used for the construction of 
facilities.
    Question. What do you see as the future of the Army's EUL program?
    Answer. I understand that the Army has completed several EUL 
projects and has several more in various stages of completion. This 
program is a significant asset management tool that creates needed 
revenue for the Army.
    Question. What EUL projects do you see as most viable in the near 
term?
    Answer. I am not in a position to know what EUL projects are 
presently being considered by the Army. Nevertheless, if confirmed, I 
intend to become fully informed about this program in order to make 
such an assessment.
    Question. What is your understanding of the main concentration of 
the Army's EUL program?
    Answer. I am not currently in a position to know the specifics of 
the Army's EUL program. However, if confirmed, I would study the 
program closely.
    Question. Do you think the authority should be used to provide 
support to energy initiatives?
    Answer. Yes. Given what I know at this time, I believe that the EUL 
authority can be an effective tool in putting energy initiatives in 
place at Army installations. If confirmed, I would consider such 
initiatives wherever it was in the best interests of the Army.
    Question. If confirmed, would you continue the Army's focus on the 
construction of facilities and in-kind reimbursement to base operating 
costs?
    Answer. The construction of facilities and the receipt of in-kind 
reimbursement to installation operating costs are proven approaches to 
lease consideration. Nevertheless, each EUL proposal is unique and, if 
confirmed, I would focus on those proposals that are in the best 
interest of the Army.
    Question. The Congressional Budget Office has expressed concern 
that EUL authority could be used to acquire expensive facilities 
through long-term leases that commit DOD to make payments (rather than 
receiving payments) over an extended period of time.
    Do you believe that it would be appropriate to use EUL authority to 
commit future years DOD funds for long-term projects to acquire 
facilities that have not received approval through the normal budgeting 
process?
    Answer. No. My understanding of the EUL authority is that acquiring 
facilities through long-term leasing that commits future-year funding 
is not allowed.
    Question. If confirmed, how would you address proposals to use EUL 
authority in this manner?
    Answer. If confirmed, and based upon my current understanding of 
the EUL authority, I would not support such proposals.
     facility sustainment, restoration, and modernization accounts
    Question. The Army has historically budgeted for facility 
sustainment accounts at 90 percent of the annual requirement. Much of 
this funding is then used to address emerging facility repair and 
modernization requirements during the year of execution.
    How would you assess the level of funding actually carried out for 
facility sustainment on an annual basis to maintain Army facilities and 
infrastructure?
    Answer. I have not had the opportunity to review facility 
sustainment accounts in detail, so I cannot make specific assessment 
about their use. My understanding is that facility sustainment, 
restoration and modernization are crucial to the Army's mission given 
the current initiatives to grow the Army. If confirmed, I would review 
the current funding level, and if necessary, develop a strategy to 
ensure that adequate funding is garnered for restoration and 
modernization.
    Question. If confirmed, what would you do to address adequate 
levels of facility sustainment, repair, and modernization?
    Answer. I would continue the ongoing development of a Facility 
Investment Strategy to ensure future infrastructure requirements are 
properly identified.
                         base operating support
    Question. What is your understanding of the processes used by the 
Department of the Army to determine annual requirements for ``must 
pays'' and discretionary base operating support?
    Answer. It is my understanding the Department of the Army ``must 
pays'' are those that the Army is legally obligated to pay and that if 
unfunded would result in mission failure or loss of life or limb. 
Although discretionary requirements support the mission, reducing the 
level of support does not prevent the mission from being accomplished.
    Question. In your view, do the Army's annual budgets adequately 
fund base operating support to meet those requirements?
    Answer. I have not had an opportunity to review base operating 
funding in detail so I cannot make specific judgments or assessments 
about the adequacy of funding for such a large complex set of 
requirements. If confirmed, I would review the current and future 
requirements for base operating support funding to ensure that the Army 
can support its mission.
    Question. In your view, how might the Department of the Army 
distribute base operating funds to best ensure sound investment of 
constrained resources?
    Answer. I do not yet have an understanding of the options available 
to distribute base operating funds. If confirmed, I am committed to 
learning the methods and processes the Army has in place across the 
Department to guide investment decisions and distribute resources.
                    family housing and privatization
    Question. In recent years, DOD and Congress have taken significant 
steps to improve family housing. The housing privatization program was 
created as an alternative approach to speed the improvement of military 
family housing and relieve base commanders of the burden of managing 
family housing. If confirmed for the position of Assistant Secretary of 
the Army for Installations and Environment you will have a key role in 
decisions regarding military family housing.
    What are your impressions of the overall quality and sufficiency of 
Army family housing both in the United States and abroad?
    Answer. I understand that the Department of the Army has taken huge 
strides in just the past few years to improve the quality and amount of 
housing inventory, and that quality family housing is very important to 
retaining quality soldiers and their families. If confirmed, I would 
visit military installations to assess the quality and sufficiency of 
family housing and take steps to ensure the Army continues to make 
progress in this important area.
    Question. What are your views regarding the Army's success in 
privatizing family housing?
    Answer. I understand that family housing privatization has proven 
to be a great success in that it has allowed the Department of the Army 
to partner with private industry to leverage industry expertise and 
market incentives for the benefit of America's soldiers and their 
families.
    Question. What is your view of the structure and general goals of 
the Army's current housing privatization program?
    Answer. Based on what I have learned to date, I believe the 
structure and general goals of the Department's housing privatization 
program are sound. The goals of the program have been to provide 
soldiers and families with quality housing. This is absolutely critical 
given our commitment to maintaining the All-Volunteer Force.
    Question. The Department of the Army has historically relied on 
consultants to assist with assessment of industry trends, analyses 
financial statements, and the preparation of proposals. The Department 
of the Army is currently in the process of soliciting requests for 
proposals for a contractor to provide future consultation.
    How would you assess the quality of this support to date?
    Answer. I am not in a position to make a judgment about the quality 
of this support at this time. If confirmed, however, I look forward to 
evaluating the Army's use of consultants in this area.
    Question. Do you believe the housing program should be modified in 
any way?
    Answer. I am not in a position to make such an assessment. If 
confirmed, however, this is an area to which I would devote focused 
study.
    Question. If so, how?
    If confirmed, would you expect to take part in the source selection 
process to ensure a fair and objective review of proposals?
    Answer. I believe that any Federal procurement should be conducted 
in a manner that treats all offerors fairly and objectively. If 
confirmed, however, I do not anticipate being involved in the source 
selection process.
                       army barracks requirements
    Question. The Army has established goals to ensure adequate housing 
for unaccompanied personnel both in the condition of the quarters and 
the privacy of the rooms.
    In your opinion, is the Army investing at an adequate level in 
various facility accounts to be able to meet their goals?
    Answer. To answer this question appropriately will take a greater 
measure of understanding, review and analysis on my part than I am able 
to provide at this time. I look forward to learning as much as possible 
about the Army's goals and accomplishments in this area, if confirmed.
    Question. The Army has had to respond repeatedly in past years to 
complaints about deficient conditions of living quarters for Army 
personnel, including housing for wounded warriors, troops returning 
from deployments, and transient personnel.
    If confirmed, what steps would you take to ensure that Army 
personnel are not required to live in deteriorated or substandard 
conditions?
    Answer. If confirmed, I would need to learn as much as possible 
about the current living conditions of our soldiers and their families. 
I understand that providing all soldiers, including wounded warriors, 
troops returning from deployments, and transient personnel, with 
quality housing is a critical element in maintaining the All-Volunteer 
Force. It is simply the right thing to do for those who have sacrificed 
so much for the safety and security of our Nation. If confirmed, I 
would commit my efforts to improving the quality of life in this regard 
for all soldiers.
            privatization of unaccompanied personnel housing
    Question. The Army has recently used authorities granted by 
Congress to enter into public/private transactions for the 
construction, maintenance, and operation of Army lodging and certain 
unaccompanied personnel housing projects.
    What do you view as the pros and cons of these transactions and 
initiatives?
    Answer. I have been advised that early reviews of the lodging 
privatization program are positive. However, I do not have a deep 
enough understanding of the program at this time to identify pros and 
cons of these transactions and initiatives.
    Question. In your opinion, how can privatization authorities be 
used to address barracks requirements for junior enlisted personnel?
    Answer. This is an issue that I would need to review at more 
length. I understand that the idea of using privatization authorities 
to address barracks requirements for junior enlisted personnel seems to 
have great potential, but believe that such an initiative would need to 
be evaluated based on benefits of the program in light of Army culture 
issues and deployment considerations.
                         overseas installations
    Question. The Army maintains a global basing infrastructure to 
support a substantial number of forward deployed troops. Recent 
decisions contained in the 2009 Quadrennial Defense Review will result 
in substantial changes in the Army's current plan for overseas bases.
    If confirmed, what would your role be in the development and 
implementation of facility investment programs for the normalization of 
tours in the Republic of Korea?
    Answer. If confirmed, I would work closely with the Office of the 
Secretary of Defense, the command and staff of U.S. Forces Korea, the 
Army Chief of Staff and my counterpart in the Office of the Assistant 
Secretary of Manpower and Reserve Affairs to plan and implement 
Secretary of Defense directed tour normalization in the Republic of 
Korea. If confirmed, one of my objectives would be to ensure that our 
bases in Korea have the facilities investments needed to provide 
soldiers and families with a quality of life that meets Army standards 
and is consistent with that on Army installations worldwide.
    Question. If confirmed, what would your role be in the 
establishment of installation development master plans for 
installations in U.S. European Command to support the stationing of 
four Brigade Combat Teams?
    Answer. If confirmed, I would work closely with Army Chief of Staff 
and the staff of European Command to execute facilities investment 
planning to support the four Brigade scenario. In addition, I would 
endeavor to ensure that the resultant Master Plan is appropriately 
resourced to provide adequate facilities for the two Brigade Combat 
Teams impacted by the recent Quadrennial Review should they remain 
stationed in the European Theater.
    Question. If confirmed, how would you ensure prudent investments in 
facilities in the U.S. Central Command area of responsibility?
    Answer. If confirmed, I would work closely with the Office of the 
Secretary of Defense and the Army Chief of Staff to ensure the U.S. 
Central Command area of responsibility receives an appropriate and 
prudent level of facilities investments in direct support of its 
current missions. As I understand it, planning and programming for 
these investments would be accomplished and monitored through the U.S. 
Army Central Command.
                        environmental challenges
    Question. In your view, what are the most critical environmental 
challenges facing the Army, and what is the best way for the Army to 
address these challenges?
    Answer. In my view, based on what I know today, one of the most 
critical environmental challenges will be ensuring execution of the 
2005 BRAC as mandated by Congress and Army Transformation actions. I 
understand that these challenges include cleanup and disposal of closed 
installations, adherence to applicable regulatory requirements for 
environmental documentation under the National Environmental Policy 
Act, and consideration of the mandates of the Endangered Species Act. I 
have not yet had the opportunity to study the Army's approaches to 
addressing these challenges, however, if confirmed I will work closely 
with the Secretary of the Army to ensure the Army meets its regulatory 
obligations. From my perspective, another important challenge will be 
ensuring compliance with environmental sustainability and energy goals 
in Federal mandates.
    Question. If you are confirmed for this position, how would you 
balance the need to maintain military readiness and the goal of 
protecting the environment?
    Answer. If confirmed, I would work closely with the Secretary of 
the Army to strike the right synergy and balance between maintaining a 
well trained and well equipped force, while maintaining the Army's 
longstanding commitment to environmental stewardship of its lands, 
facilities, and operations.
    Question. How is the Army prioritizing funding for environmental 
compliance expenditures necessary to comply with requirements of law 
and regulation?
    Answer. I am not in a position at present to comment on the current 
Army funding priorities. If confirmed, I would work with the 
appropriate experts to ensure that the final funding decisions are in 
the best interest of the Army, DOD, and our Nation.
                       environmental restoration
    Question. What do you see as the main priorities for clean-up 
within the Army's environmental restoration program?
    Answer. My understanding is that the Army's top cleanup priority is 
to address sites that represent the highest risk to human health and 
the environment. I understand that the Office of the Secretary of 
Defense and the Secretary of the Army have established cleanup goals 
that reflect a cleanup strategy to address this ``worst first'' 
priority.
    Question. If confirmed, what would you do to ensure that adequate 
funding is requested and received so that clean-ups under the 
Installation Restoration Program and under the Military Munitions 
Remediation Program continue apace?
    Answer. If confirmed, I would ensure that I fully understand the 
cleanup goals as established by the Office of the Secretary of Defense 
and would work closely with the Secretary of the Army to ensure that 
these two cleanup programs are adequately funded to achieve their 
respective goals.
    Question. What is your understanding of the Army's unexploded 
ordnance problems, and what steps do you plan to take, if confirmed, to 
address these problems?
    Answer. It is my understanding that the Army is responsible for 
addressing unexploded ordnance issues not only at its own 
installations, but also on properties no longer controlled by DOD. If 
confirmed, I would emphasize safety and work with regulators and 
community stakeholders to ensure that these sites are addressed as 
quickly as possible.
    Question. In August 2009, the Deputy Under Secretary of Defense for 
Installations and Environment signed a memorandum that sets forth the 
benefits of green and sustainable remediation practices and encourages 
the military departments to consider and implement such strategies 
where appropriate.
    What is your view of bioremediation technologies and other 
sustainable remediation strategies, in general?
    Answer. I believe that bioremediation is a promising strategy, 
particularly as applied to certain chemical pollutants. I understand 
that the Army Corps of Engineers has utilized bioremediation strategies 
successfully in several applications. If confirmed, and as 
bioremediation technologies and techniques continue to be developed and 
improved, I look forward to employing these techniques in Army 
facilities in an appropriate manner.
    Question. If confirmed, what will you do to ensure the Department 
of the Army actively considers and implements green and sustainable 
remediation strategies where appropriate?
    Answer. The priority in any cleanup is protecting human health and 
the environment. Where green and sustainable remediation strategies 
have shown to be effective and lifecycle costs are competitive, I 
would, if confirmed, encourage the Army to take full advantage of the 
benefits of such strategies.
                 encroachment on military installations
    Question. Encroachment by commercial and residential development on 
military installations has negatively impacted operations at military 
airfields and training ranges, and development of new facilities has 
been problematic.
    What do you see as the main constraints or encroachments on the 
Army's ability to use its facilities, including training ranges?
    Answer. I am not presently in a position to have developed an 
informed opinion on the main constraints or encroachments affecting the 
Army's ability to use its facilities and training ranges. I believe 
that the Army should consider sensible workarounds to limit or avoid 
adverse environmental impacts in its use of land and airspace, ever 
mindful of the need to ensure that the quality of training and testing 
of equipment is not compromised.
    Question. If confirmed, what policies or steps would you take to 
curtail the negative impacts on operations and training resulting from 
encroachment?
    Answer. I strongly believe the Army should work closely with the 
local communities around installations to ensure that its requirements 
are properly balanced with community needs. If confirmed, I would work 
with the Secretary of the Army to develop and implement a comprehensive 
multi-faceted policy and program that provides Army installations with 
the appropriate tools and strategies to engage current and future 
encroachment challenges.
    Question. In your view, how can the Army best address the issues of 
encroachment around its bases in the United States, particularly with 
respect to encroachment caused by residential development?
    Answer. I believe that the ideal way to address encroachment issues 
caused by residential development is to engage with the local community 
to identify the community's requirements and concerns about the use of 
the land surrounding our installations. If confirmed, I would ensure to 
continue and endeavor to enhance positive Army working relationships 
with local communities and participation in, local land use planning 
and zoning efforts to ensure compatible land use.
                             energy policy
    Question. If confirmed, what would your responsibilities be for 
setting and implementing energy policy within the Department of the 
Army?
    Answer. It is my understanding that the Assistant Secretary of the 
Army for Installations and Environment has oversight of Army 
installation energy policies; the responsibility to promulgate policies 
for energy security measures (including renewable and alternative 
energy generation); building energy efficiency; standards for energy 
efficiency; and performance of military construction and renovations. I 
understand that the Assistant Secretary also co-chairs the Army's 
Senior Energy Council with the Vice Chief of Staff of the Army.
    Question. What do you see as the key elements of the Army's energy 
strategy?
    Answer. It is my understanding that energy security is the driving 
concept for the Army's energy strategy. The Quadrennial Defense Review 
provides DOD definition of energy security as--assured access to 
reliable supplies of energy and the ability to protect and deliver 
sufficient energy to meet operational needs. I have been advised that 
the Army Energy Security Implementation Strategy is consistent with 
this definition and establishes the Army's five strategic energy 
security goals:

        Reduced energy consumption
        Increased energy efficiency across platforms and facilities
        Increased use of renewable/alternative energy
        Assured access to sufficient energy supply
        Reduced adverse impacts on the environment

    Question. What is your understanding of the energy conservation 
goals within DOD and the Department of the Army?
    Answer. My understanding is that the Army's goals are tightly 
linked to the Federal energy mandates set forth in legislation and 
executive orders.
    Question. If confirmed, what steps would you take to promote energy 
conservation within the Department of the Army?
    Answer. Although I have not had an opportunity to assess and 
appreciate the full progress made by the Army to achieve energy 
conservation and incorporate specific energy conservation measures, if 
confirmed, I would review and build on efforts to date and promote 
energy conservation across the Army to its full potential.
    Question. With respect to renewable energy, which strategies do you 
believe provide the best prospects for meeting the energy needs at Army 
installations and in the ground fleet?
    Answer. I understand that the Army is pursuing many options to 
incorporate renewable energy on installations and in its facilities and 
that the Army's fundamental strategy relates to energy security, 
providing sufficient power for its operational needs. In light of this, 
if confirmed, I would endeavor to identify the best renewable energy 
solutions for a given installation or facility.
    Question. Renewable energy technologies such as solar currently 
carry a high capital cost and so financing is a major obstacle. CBO 
often cites direct scoring costs which can prevent the investment or 
loan guarantees necessary for solar implementation.
    If confirmed, what steps will you take to tackle this issue?
    Answer. Although I am aware of the high capital cost of many 
renewable energy technologies, current Federal and State incentives and 
innovative alternatives (such as Enhanced Use Leases) can significantly 
reduce costs. I have not had an opportunity to explore the details of 
direct scoring of costs for renewable energy systems potentially useful 
to the Army. If confirmed, I would review this issue and assess 
renewable energy opportunities at my earliest opportunity.
    Question. What renewable technologies and fuel types have the most 
potential for certification and use by Army ground and air platforms?
    Answer. It is my understanding that all bulk fuel is purchased for 
DOD by the Defense Energy Support Center, which has the responsibility 
to certify those fuels. I do not have enough information at this time 
to know what technologies and fuel types have the most potential for 
certification and use by Army ground and air platforms. If confirmed, I 
would review this matter closely at my earliest opportunity. I would 
also coordinate with the other Army Assistant Secretaries, the other 
Services, and the Office of the Secretary of Defense to address this 
important issue.
    Question. With respect to aviation fuel requirements, what examples 
can you provide of policies or initiatives currently in practice that 
both conserve fuel use and cost while balancing appropriate readiness 
levels and pilot training requirements?
    Answer. I understand that mission readiness is a top priority for 
both fixed and rotary wing Army aviators. If confirmed, I would 
coordinate with Army operational and training commands to explore what 
approaches could be employed under the Army energy security program to 
conserve fuel usage while balancing readiness and training 
requirements.
    Question. Do you believe energy audits are helpful in reducing 
demand and increasing energy efficiency?
    Answer. Yes. I believe that energy audits are an important tool for 
helping to reduce energy demand and increase energy efficiency in 
buildings, vehicles and energy-consuming operations. I expect that 
energy audits will be helpful to the Army in prioritizing energy-
efficiency projects.
    Question. When was the last energy audit conducted on Army 
installations?
    Answer. I am not currently in a position to have access to the 
progress of the Army energy auditing program.
    Question. The Department of the Navy recently signed a memorandum 
of agreement with the Department of Agriculture to commit to 
cooperation and coordination on energy matters.
    Is there a similar plan for the Army or with other Federal 
agencies, and would such an agreement be helpful for the Army?
    Answer. I am not currently in a position to have access to Army 
agreements. It is my understanding that other Federal agencies have 
specific expertise and roles in technology development that can support 
the Army energy security strategy. If confirmed, I would explore 
possible avenues of cooperation and collaboration across the Federal 
Government that could benefit the Army energy program.
    Question. Much of your background has involved LEED advisory work 
and ``greening'' of various buildings.
    If confirmed, would you intend to focus on similar initiatives to 
Army installations?
    Answer. Yes. I believe that the programs and guidelines defined by 
the LEED program provide excellent guidance. The Army dropped the 
``SPiRiT'' program in 2006 and adopted the LEED program as a design and 
construction requirement.
    Question. If so, specifically how?
    Answer. LEED is a menu of options for green buildings with a few 
mandatory characteristics. Every building built to LEED program 
standards will have different energy efficiency characteristics; some 
could be barely above building code minimums. In January 2010 a 
building code version of LEED was introduced. This standard (189.1) 
provides more guidance and direction to facilities that want high 
performance green buildings and energy efficiency. 189.1 was developed 
in building code format and consists of mandatory characteristics with 
a few optional compliance paths. I have spent the last 3.5 years 
serving on the 189.1 committee to develop the standard and I believe 
that compliance with 189.1, as part of the Army's LEED program, will 
result in more sustainable, energy efficient buildings. A study 
conducted by National Renewable Energy Laboratory identified a 30 
percent improvement in energy efficiency on average in buildings 
designed or remodeled to 189.1 criteria.
    Question. The Department of the Army has stated it will lease 
several thousand Neighborhood Electric Vehicles (NEVs) at installations 
to reduce fuel costs and lower green house emissions. However, the 
energy which powers NEVs is currently derived from the electric grid 
which is largely powered by coal supplies.
    Is there a plan to supply NEVs and Army installations at large with 
truly renewable or ``green'' energy sources, other than coal and 
petroleum products?
    Answer. It is my understanding that the utilization of electric and 
hybrid vehicles at Army installations addresses the primary mandates of 
the Energy Independence and Security Act of 2007 and Executive Order 
13423 as they specifically relate to reducing Federal fleet fossil fuel 
use by 20 percent by 2015. If confirmed, I would explore the 
opportunities to expand renewable and alternative energy sources for 
the Army vehicle fleet.
    Question. Other countries such as Germany, Spain, and China are 
aggressively investing in renewable energy sources such as wind and 
solar power production capabilities.
    Is there legislation or funding mechanisms that other countries 
benefit from that the Army could possibly adopt that would enhance or 
ease the transition to renewable energy platforms?
    Answer. If confirmed, I would perform a thorough analysis of 
possible legislative options and funding mechanisms that could enhance 
the Army's energy program.
    Question. DOD recently announced that it will reduce greenhouse gas 
emissions from non-combat activities 34 percent by 2020. The target 
includes more than 300,000 buildings and 160,000 fleet vehicles which 
account for roughly one quarter of DOD's energy consumption but nearly 
40 percent of its greenhouse gas emissions.
    What is the Army's plan, milestones, and funding strategies to meet 
these goals?
    Answer. Executive Order 13514 mandated that DOD develop a 
sustainability performance plan to support its greenhouse gas emissions 
reduction goals. It is my understanding that this plan is due by June 
2010 and has not been fully vetted through the Services and other DOD 
agencies. If confirmed, I would ensure that the Army plan, milestones, 
and funding strategies support the DOD plan, the Federal mandate, and 
administration goals.
                     implications of climate change
    Question. What do you see as the national security implications of 
climate change for the United States?
    Answer. My views align with those expressed in the 2010 Quadrennial 
Defense Review regarding climate change. Climate change has the 
potential to act as an accelerant to instability. Economic and 
environmental conditions in already fragile areas of Asia, Africa, and 
the Middle East may further erode if food production declines, diseases 
increase, clean water becomes increasingly scarce, and populations 
migrate in search of resources.
    Question. What do you believe will be the impact of climate change 
on the Army?
    Answer. As indicated in the 2010 Quadrennial Defense Review, the 
military will need to adjust to the impacts of climate change on 
facilities and operational capabilities. In terms of facilities, 
drought conditions could affect water supply, and increased frequency 
and intensity of storms may create flood risks for coastal and island 
installations. Operational effects may include increasing demand to 
respond to growing numbers of climate-induced disaster events and 
peace-keeping operations to stabilize conditions before conflict 
arises.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of the 
Army for Installations and Environment?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis of any good faith delay or denial in providing such 
documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Mark Udall
               energy contracts at military installations
    1. Senator Udall. Ms. Hammack, title 10 U.S.C. 2922a refers to 
contracts for energy or fuel for military installations, and provides 
the authority to a Secretary of a military department to enter into 
contracts for periods of up to 30 years; however, the provision 
requires approval by the Secretary of Defense and only affords this 
authority for geothermal renewable energy platforms as further outlined 
in title 10 U.S.C. 2917. In your opinion, does title 10 U.S.C. 2922a or 
2917 need to be expanded to include other renewable energy platforms?
    Ms. Hammack. I am not familiar with how these laws are implemented 
within the Department and affect Army initiatives. However, if 
confirmed, I will look into the issue and how they impact the Army.

    2. Senator Udall. Ms. Hammack, to your knowledge, does the 
requirement for the Secretary of Defense's approval discourage any of 
the Services to pursue such contracts?
    Ms. Hammack. I am unfamiliar with the process and policies within 
the Department of Defense (DOD) to comply with the requirement to 
obtain the Secretary of Defense's approval for these actions. If 
confirmed, I will study this matter and work toward the most 
expeditious means to pursue such contracts consistent with the 
requirements of the law.

                            renewable energy
    3. Senator Udall. Ms. Hammack, DOD currently holds approximately 28 
million acres of land and almost 2 billion square feet of building 
space on military installations, providing a vast opportunity for 
renewable energy platforms. However, the sticking point is often 
financing. The Department frequently does not budget or allocate 
funding for renewable energy in a time of war, and to exacerbate 
matters, the Office of Management and Budget (OMB) and the 
Congressional Budget Office (CBO) typically score any creative 
legislative language attempting to create new financing opportunities. 
Currently, OMB requires long-term contracts to be paid in the full 
amount in the year of execution, which makes renewable energy projects 
difficult. Enabling the Department to budget and fund over the full 
life cycle of a contract could expedite and enhance implementation of 
renewable energy platforms. What opportunities exist in the area of 
public/private ventures or partnerships with respect to renewable 
energy?
    Ms. Hammack. If confirmed, I will take actions to further the best 
interests of the Army, including seeking to leverage the expertise of 
private industry and public entities. Public-private-partnerships are 
recognized as an innovative method of funding high quality renewable 
energy infrastructure projects to reduce costs, accelerate delivery, 
create jobs, and transfer risks to the private sector.

    4. Senator Udall. Ms. Hammack, how will you help bridge this gap 
with respect to renewable energy?
    Ms. Hammack. If confirmed, I will continue developing public-
private-partnerships with industry for their energy expertise and 
financial resources. This is a recognized effective approach and is 
already used in certain circumstances by the Army. I believe it also 
may be used to create a robust program of renewable energy projects at 
installations.

    5. Senator Udall. Ms. Hammack, if you are familiar with current OMB 
and CBO scoring methods, do you believe they are outdated?
    Ms. Hammack. I am not sufficiently familiar with all of the aspects 
of these scoring methods at this time to offer an informed assessment. 
If confirmed, I will certainly become proficient in these scoring 
methods and address any perceived issues with the appropriate officials 
within the Army and DOD.

    6. Senator Udall. Ms. Hammack, if so, how might they be improved?
    Ms. Hammack. Same answer as above.
                                 ______
                                 
            Questions Submitted by Senator Roland W. Burris
                            base operations
    7. Senator Burris. Ms. Hammack, it has been reported that the 
fiscal year 2011 Army budget had cuts as deep as 40 percent at some 
bases. In February, the Secretary of the Army and the Army Chief of 
Staff reported that $500 million would be added to the budget for base 
operations. Even with the additional $500 million, many concerns remain 
as to what services and facilities will suffer from the cuts. What is 
your assessment of the state of base operations and services?
    Ms. Hammack. Although I am aware there is concern on this subject, 
I have not yet been afforded access to internal Army information and 
data to review and analyze the Army's base operations support funding. 
If confirmed, I will review the requirements associated with base 
operations to ensure that the Army provides the necessary services and 
programs to sustain its installations.

    8. Senator Burris. Ms. Hammack, what is the top environmental 
concern for the Army and how will it affect base operations and 
services?
    Ms. Hammack. In my view, one of the most critical environmental 
challenges facing the Army will be ensuring execution of the 2005 Base 
Realignment and Closure (BRAC) as mandated by Congress and Army 
Transformation actions. These challenges include cleanup and disposal 
of closed installations, regulatory requirements for environmental 
documentation under the National Environmental Policy Act, and 
consideration for the requirements of the Endangered Species Act. I 
have not yet had the opportunity to study the Army's approaches to 
address these challenges; however, if confirmed, I will work closely 
with the Secretary of the Army to ensure the Army meets its legal and 
regulatory obligations. Another important environmental challenge will 
be ensuring compliance with sustainability and energy goals in Federal 
mandates such as Executive Order (EO) 13514, EO13423, Energy 
Independence and Security Act 2007, and Energy Policy Act 2005.

    9. Senator Burris. Ms. Hammack, what is the projected number of 
family and single soldier housing units the Army will build over the 
next 24 months?
    Ms. Hammack. I am unfamiliar with the Army's projected number of 
family and single soldier housing units to be built over the next 24 
months. It is my understanding that there is a need for additional 
government-owned Army family housing units and barracks. If confirmed, 
I will investigate and obtain this information for you.

    10. Senator Burris. Ms. Hammack, will any child and/or youth 
programs on bases need to be cut due to these budget reductions?
    Ms. Hammack. I have not had an opportunity to review the Army's 
base operations support funding in detail which includes funding for 
these vital programs. If confirmed, it is my intention to fully support 
the resourcing required to provide the quality of life that is 
commensurate with the service of our soldiers' families and the 
sacrifices they make in support of our Nation.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                  army base realignments and closures
    11. Senator McCain. Ms. Hammack, in the answers to questions posed 
by this committee in preparation for this hearing, you state that the 
Army is on track to meet the 2011 BRAC statutory deadline. We've 
received information recently that the Army may have concerns with 
three pending Army realignments. Do you realize the importance of the 
deadline to ensure the effects on impacted communities are minimized?
    Ms. Hammack. Yes, I understand the importance of complying with the 
statutory BRAC deadlines to ensure that the impacts to the affected 
communities are minimized. If confirmed, I will make compliance with 
the 2011 BRAC deadline one of my highest priorities.

    12. Senator McCain. Ms. Hammack, if confirmed, will you inform this 
committee promptly of any concerns within the Army in meeting the BRAC 
deadline?
    Ms. Hammack. Yes, if confirmed, I will keep the committee informed 
of any Army concern or issue in meeting the statutory BRAC deadline.

                     housing privatization support
    13. Senator McCain. Ms. Hammack, in carrying out housing 
privatization efforts, the Department of the Army has historically 
relied on consultants to assist with assessment of industry trends, 
analyses, financial statements, and the preparation of proposals. The 
Department of the Army is currently in the process of soliciting 
requests for proposals for a contractor to provide future consultation. 
If confirmed, will you report back to this committee with an assurance 
that the source selection process for this solicitation includes a fair 
and objective review of proposals?
    Ms. Hammack. Yes, if confirmed, I will report back to this 
committee with assurances from the Army that the source selection 
process for this particular solicitation included a fair and objective 
review of proposals.
                                 ______
                                 
    [The nomination reference of Katherine G. Hammack follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  January 20, 2010.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Katherine Hammack, of Arizona, to be an Assistant Secretary of the 
Army, vice Keith E. Eastin, resigned.
                                 ______
                                 
    [The biographical sketch of Katherine G. Hammack, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
          Resume of Career Service of Katherine Grace Hammack
Education:
        <bullet> BS, Mechanical Engineering, Oregon State University, 
        Corvallis, OR: 1977-1981
        <bullet> MA, Business Administration, University of Hartford, 
        Hartford, CT: 1985-1990
Certifications:
        <bullet> Certified Energy Manager (CEM), 1997
        <bullet> Certified Indoor Air Quality Professional (CIAQP), 
        1998
        <bullet> Certified Indoor Air Quality Technician (CIAQT), 1999
        <bullet> Certified Indoor Air Quality Manager (CIAQM), 2000
        <bullet> Leadership in Energy and Environmental Design 
        Accreditation (LEED-AP), 2003
Employment Record:
        <bullet> 2001-Present: Senior Manager, Ernst and Young
        <bullet> July 2004: Paid consultant to Veteran's Administration 
        regarding Performance Tracking measures for VA Cogeneration 
        Facilities
        <bullet> 1998-2001: Senior Account Executive, Arizona Public 
        Service Company (Energy Services)
        <bullet> 1995-1998: Senior Marketing Executive, Trade Ally 
        Segment, Arizona Public Service Company
        <bullet> 1993-1995: Senior Product Manager, Air Handler 
        Products, United Technologies, Carrier Corporation
        <bullet> 1993-94: Voluntary consultant to Clinton 
        administration regarding ``Greening of the White House''
        <bullet> 1991-1993: Senior Product Manager, Global Indoor Air 
        Quality Products Group, United Technologies, Carrier 
        Corporation
        <bullet> 1991: Senior Manager Analog Products, Bristol Babcock
        <bullet> 1986-1991: Product and Sales Manager, The J.M. Ney 
        Company, Neytech Division
        <bullet> 1984-1986: Senior Product Specialist, Honeywell, 
        Skinner Valve Division
        <bullet> 1981-1984: Product Marketing and Application Engineer, 
        United Technologies, Carrier Corporation
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Katherine G. 
Hammack in connection with her nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Katherine Grace Hammack.
    Katherine Grace Dellett (Maiden Name)

    2. Position to which nominated:
    Assistant Secretary of the Army for Installations and Environment.

    3. Date of nomination:
    January 20, 2010.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    November 23, 1959; Washington, DC.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Divorced - ex-husband is Timothy Hammack.

    7. Names and ages of children:
    Randolph Lawrence Hammack, age 23.
    Alexander Jennings Hammack, age 19.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Oregon State University, 1977-1981, Bachelors of Mechanical 
Engineering, June 1981
    University of Hartford, 1985-1990, Masters Business Administration, 
May 1990

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    03/2001-Present; Senior Manager, Climate Change and Sustainability 
Services, Tax Advisory; Ernst & Young, Phoenix, AZ
    06/1998-03/2001; Senior Account Executive, Arizona Public Service 
Company (Energy Services), Phoenix, AZ

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Voluntary consultant to Clinton administration as part of 
``Greening of the White House'' project in 1993-4
    Paid consultant (through Ernst & Young) to Veterans Administration 
regarding Performance Tracking Measures for VA Cogeneration facilities 
in July 2004

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    1993-present. Member, U.S. Green Building Council, National and 
Arizona Chapter (past president Arizona chapter in 2003)
    1993-present. Member, American Society of Heating Refrigeration and 
Air Conditioning Engineers, National and Arizona Chapter (past 
president Arizona chapter in 2000)
    2006-present. Member, American Society of Heating Refrigeration and 
Air Conditioning Engineers, Standard 189 Committee High performance 
Green Buildings committee
    1997-present. Member, Association of Energy Engineers, Arizona 
Chapter
    2000-present. Member, Desert Foothills Lutheran Church.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    None.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    For the last 2 years all published materials have been through 
Ernst and Young on climate change, green buildings and incentives.

        IRC Section 179D, Seven Answers to frequently asked questions, 
        EY SCORE No. ZZ0266, published 2009
        Building Efficiency, EY SCORE No. DF0048, published 2008
        Cleantech tax opportunities, EY 0805-0942458, published 2008
        Cleantech Matters, Climate Change Opportunity and Risk, EY 
        SCORE No. BE0047, 2008

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Over the years I have given many presentations to organizations 
such as the Global Energy Conference, conferences sponsored by the 
American Institute of Architects, International Facility Management 
Association (IFMA), Building Owners and Managers Association (BOMA), 
CoreNet, Association of Energy Engineers, U.S. Green Building Council, 
and American Society of Heating, Refrigerating and Air-Conditioning 
Engineers (ASHRAE), and other construction, real estate, engineering 
and environmental organizations. All of my presentations are on energy, 
efficiency, environmental sustainability, green tax incentives and 
buildings. I do not have copies of these speeches because I speak 
extemporaneously or from notes. While I don't have records of all such 
presentations I have given, these are some of the more recent ones:

        <bullet> Dec 4, 2009, Green/Energy Efficient Buildings 
        Incentives, American Institute of CPA's Construction Conference
        <bullet> Nov 17/18, 2009, Climate Change and sustainability, 
        internal training for EY Employees
        <bullet> Nov 4, 2009, LEED tax incentives and credits for Green 
        Buildings, webinar for Lorman Education
        <bullet> Oct 22, 2009, Utilities Public Private Partnerships 
        Panel, Alliance for construction Excellence
        <bullet> Sept. 15, 2009, Carbon Markets 101, Arizona Chapter of 
        U.S. Green Building Council
        <bullet> July 2009, Section 179D Bootcamp, Internal training 
        for EY employees
        <bullet> April 2009, Energy Credits going green, Tax Executives 
        Institute
        <bullet> April 2009, What is ASHRAE/USGBC/IESNA Std 189.IP?, 
        Southwest Facilities Expo

    I am attaching copies of two power point presentations that I gave 
recently. [Copies are retained in the committee's executive files.]

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                              Katherine G. Hammack.
    This 19th day of March, 2010.

    [The nomination of Katherine G. Hammack was reported to the 
Senate by Chairman Levin on May 5, 2010, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on June 22, 2010.]


  NOMINATIONS OF VADM JAMES A. WINNEFELD, JR., USN, TO BE ADMIRAL AND 
 COMMANDER, U.S. NORTHERN COMMAND/COMMANDER, NORTH AMERICAN AEROSPACE 
  DEFENSE COMMAND; AND LTG KEITH B. ALEXANDER, USA, TO BE GENERAL AND 
  DIRECTOR, NATIONAL SECURITY AGENCY/CHIEF, CENTRAL SECURITY SERVICE/
                     COMMANDER, U.S. CYBER COMMAND

                              ----------                              


                        THURSDAY, APRIL 15, 2010

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:36 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Udall, Hagan, Burris, Kaufman, McCain, and Thune.
    Other Senator present: Senator Barbara Mikulski.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Richard W. Fieldhouse, 
professional staff member; Creighton Greene, professional staff 
member; Jessica L. Kingston, research assistant; Peter K. 
Levine, general counsel; and Thomas K. McConnell, professional 
staff member.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; Adam J. Barker, professional staff member; Paul 
C. Hutton IV, professional staff member; Michael V. Kostiw, 
professional staff member; and David M. Morriss, minority 
counsel.
    Staff assistants present: Paul J. Hubbard and Kevin A. 
Cronin.
    Committee members' assistants present: James Tuite, 
assistant to Senator Byrd; Christopher Griffin, assistant to 
Senator Lieberman; Gordon I. Peterson, assistant to Senator 
Webb; Jennifer Barrett, assistant to Senator Udall; Nathan 
Davern, assistant to Senator Burris; Halie Soifer, assistant to 
Senator Kaufman; Anthony J. Lazarski, assistant to Senator 
Inhofe; Sandra Luff, assistant to Senator Sessions; Jason Van 
Beek, assistant to Senator Thune; and Kyle Ruckert, assistant 
to Senator Vitter.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets today to consider the nominations of two senior officers 
to serve in important command positions. Vice Admiral James 
Winnefeld, Jr., has been nominated for promotion to the rank of 
admiral and to be Commander of U.S. Northern Command (NORTHCOM) 
and Commander of the North American Aerospace Defense Command 
(NORAD). Lieutenant General Keith Alexander has been nominated 
for promotion to the rank of general and to be Director of the 
National Security Agency (NSA), the Director of the Central 
Security Service, and to be Commander of the new U.S. Cyber 
Command (CYBERCOM).
    We welcome both our nominees and we thank them, we thank 
their families, for their long and distinguished service that 
they've already provided to the Nation. We thank them both also 
for their willingness to continue serving our Nation in these 
senior military positions for which they are so well qualified.
    Vice Admiral Winnefeld has had a long and distinguished 
naval career, including a number of joint duty assignments. He 
has commanded the U.S. Sixth Fleet, North Atlantic Treaty 
Organization Striking and Support Forces, and Carrier Strike 
Group 2. He is currently serving as the Director of Strategic 
Plans and Policy, J-5, on the Joint Staff.
    NORTHCOM, which Admiral Winnefeld has been nominated to 
lead, was created following the terrorist attacks of September 
11, 2001. It is charged with two primary missions, defense of 
the United States and providing defense support to civil 
authorities in circumstances where the Federal Government is 
needed to respond to natural or manmade disasters in the 
homeland. This latter mission requires a high level of 
cooperation and coordination with other Federal agencies and 
State agencies, especially the Department of Homeland Security 
(DHS).
    The Commander of NORTHCOM is also dual-hatted as the 
Commander of NORAD, our binational command with Canada that 
provides aerospace warning and control and since 2006 maritime 
warning for North America. NORAD has been a key link between 
our two nations for more than 50 years.
    In addition to Canada, Mexico is also in the NORTHCOM area 
of responsibility (AOR). Given the continuing high level of 
drug-related violence in Mexico and the attendant risks to our 
southern border region, the administration has been focusing 
high-level attention on Mexico. This future close cooperation 
between our countries in this and many other matters is 
critically important to both our countries.
    Finally, NORTHCOM is the combatant command responsible for 
the operation of the ground-based midcourse defense (GMD) 
system that has interceptors deployed in Alaska and California 
to defend our Nation from limited long-range missile attack. 
That system has been of considerable interest to this committee 
for a number of reasons, including that we need it to be tested 
in a way that will give us confidence in its operational 
effectiveness.
    General Alexander too has had a long and distinguished 
career in military intelligence. He has served as the Director 
for Intelligence, J-2, for U.S. Central Command; Commanding 
General for the Army Intelligence and Security Command; and the 
Deputy Chief of Staff of the Army for Intelligence before 
becoming Director of NSA in 2005.
    With respect to the position to which General Alexander has 
been nominated, the creation of a new combatant command, even 
at the subunified level, is an extremely important matter. The 
creation of CYBERCOM in particular warrants careful scrutiny on 
the part of this committee for a variety of reasons. CYBERCOM 
is to be formed solely around the mission involving the 
relatively sudden dominance of the new computer and 
communications technology of our age, technology that is 
ubiquitous, rapidly evolving, and fraught with both great 
promise and new perils for the country and the world.
    As the committee's examination has confirmed, capabilities 
to operate in cyber space have outpaced the development of 
policy, law, and precedent to guide and control those 
operations. This policy gap is especially concerning because 
cyber weapons and cyber attacks potentially can be devastating, 
approaching weapons of mass destruction in their effects, 
depending on how they are designed and used.
    Coupled with the fact that the U.S. economy and Government 
are the most dependent in the world on the Internet and are 
therefore the most vulnerable to attacks, the Nation must not 
only invest in the effectiveness of its defense, but think 
carefully about the precedents that it sets, hopefully acting 
wisely in ways that we will accept if others act in the same or 
similar ways.
    Combatant commanders respond to attacks that affect our 
forces and their ability to execute their missions. The 
implications of their responses are usually limited and pertain 
to the theater in which forces are operating. But responses and 
initiatives in cyber space could have extremely broad and 
damaging consequences and in the future may require rapid 
decisionmaking. In this context, some have expressed concern 
about an officer without strong career experience in commanding 
combat forces serving as a subunified combatant commander.
    Faced with that complex situation, the committee proceeded 
methodically to gain an understanding of what Congress is being 
asked to approve and what the key cyber space issues are that 
need to be addressed. Committee staff have held numerous 
meetings with senior Department of Defense (DOD) officials on a 
host of policy and operational issues associated with CYBERCOM 
and military and intelligence operations in cyber space. 
Committee members held a classified meeting with the Vice 
Chairman of the Joint Chiefs of Staff, General Cartwright, and 
the Principal Deputy Under Secretary of Defense for Policy, Dr. 
Jim Miller. The committee posed a lengthy set of policy 
questions to be answered in writing by the nominee in advance 
of today's hearing and followed that up with additional 
meetings and discussions, including with General Alexander.
    The committee has been assured that DOD's leadership and 
the administration as a whole is committed to rapidly closing 
the cyber space policy gap. The committee has also been assured 
that DOD is proceeding with appropriate caution and care 
regarding military operations in cyber space.
    We look forward to hearing from our witnesses. There's a 
possibility that a closed session will be required and if so 
that session will be held in the Office of Senate Security in 
the Visitors Center of the Capitol.
    Before we turn to our wonderful colleague Senator Mikulski 
to introduce General Alexander, let me call on Senator McCain 
for his opening comments.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you very much, Mr. Chairman. I join 
you in welcoming Lieutenant General Alexander and Vice Admiral 
Winnefeld and their families.
    General Alexander, CYBERCOM was established, as we all 
know, by the Secretary of Defense last year. Since then I have 
shared the concerns of Senator Levin and others about ensuring 
that the role, mission, legal authorities, and rules of 
engagement that CYBERCOM will employ are well thought out and 
understood. I think we've made progress in achieving greater 
clarity in this regard and that you are well qualified for this 
new assignment.
    The Department must have a centralized command to address 
the challenges of cyber warfare, to provide the support to the 
regional combatant commands, and to ensure that DOD, while 
focused on its own military networks and information grid, also 
is ready, if directed by the President, to assume a position of 
leadership and support to civilian authorities in this regard.
    Continuing intrusions and attacks by difficult to identify 
and locate actors on our civilian and military networks and web 
sites demand not only a robust defensive capability, but the 
ability to respond offensively when the circumstances call for 
it. One need only consider the examples of cyber warfare 
conducted against the Republic of Georgia in 2008 and Estonia 
in 2007 to appreciate the nature of this form of modern 
warfare.
    We look forward to your testimony about how CYBERCOM will 
function in protecting our vital national assets and 
infrastructure. I also noted in the media this morning that you 
believe there are certain gaps in legislative form and also in 
regulations that need to be improved in order to help you 
complete your mission successfully and under the legal 
framework that you feel is necessary. I look forward to hearing 
from you on that aspect of your new responsibilities.
    Admiral Winnefeld, I congratulate you on your nomination to 
head NORTHCOM and NORAD. The vicious attacks of September 11 
are never far from our thoughts. Ensuring effective support of 
civilian authorities should be among our highest priorities. 
The same is true, of course, for natural disasters, which 
demand a capable, tested, intergovernmental response in which 
NORTHCOM is a key player.
    Admiral Winnefeld, I want to particularly emphasize the 
continuing growing threat to our national security posed by the 
violence along our border with Mexico. Your answers to the 
committee's advance policy questions about the importance of 
combatting drug trafficking and drug violence reflect my deep 
concerns about the corrosive effect of this plague on both the 
United States and Mexico. The drug-related violence in Mexico 
is appalling. As you noted, there were over 6,500 drug-related 
murders in Mexico last year. So far this year, there have been 
nearly 2,000 deaths resulting from drug-related violence. Last 
month, the murders in Juarez of Lesley Enriquez, an American 
consulate worker, and her husband Arthur; of Jorge Salcido, the 
husband of a U.S. consulate employee; and the murder of Robert 
Krentz, a rancher in Douglas, AZ, underscored the cross-border 
nature of this problem.
    I've supported the assignment of federally-funded National 
Guardsmen to our southern border in the past and I have 
endorsed Arizona Governor Jan Brewer's recent request for 250 
federally-funded National Guardsmen in Arizona to assist in 
this effort to stop the flow of illegal immigrants and 
narcotics.
    Mr. Chairman, I'd like to insert two letters into the 
record: one I wrote to Secretary Napolitano on March 29; and 
the other addressed to the mayor of Douglas, AZ, on March 31 in 
this regard.
    Chairman Levin. They will be made part of the record.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
      
    Senator McCain. Unfortunately, the administration has 
rejected Governor Brewer's request.
    Admiral, I'm interested in your assessment of the security 
situation along the border and what steps can be taken to 
improve not only the ability of the United States to confront 
this drug trafficking threat, but also the ability of our 
allies in Mexico.
    Admiral, I understand that yours is a military command and 
your role is one to be carried out in combat. I can make an 
argument that we are in combat with the drug cartels in Mexico. 
I can make an argument that the war between the drug cartels 
and the Government of Mexico directly threatens the very 
existence of the Government of Mexico. I don't say these words 
lightly, and I think that it's very clear that when you're 
talking about a $65 billion a year business that is harming 
American citizens and killing them because of the product, that 
this struggle with the drug cartels is going to and already has 
spilled over into the United States of America and has taken 
the lives of American citizens.
    I look forward to perhaps taking a visit with you to our 
southern border. I look forward to working with you and 
determining how we can best use some of the military equipment 
we have, such as surveillance technologies, use of unmanned 
aerial vehicles (UAVs), and better ways to enforce our border 
and make sure that it is secure. I look forward to discussing 
this and working with you, Admiral Winnefeld. This is a grave 
threat and I am afraid that a lot of Americans are not aware 
how serious the consequences would be of the Government of 
Mexico failing and being overthrown by these drug cartels, or 
at least marginalized so that the drug cartels can act freely, 
and the consequences to American security.
    I thank you and I will look forward to your testimony and 
look forward to working with you as we carry out what I believe 
is a national security requirement, and that is to secure our 
southern border.
    I thank you, Mr. Chairman.
    Chairman Levin. Thank you very much.
    General Alexander, you could have no more effective 
advocate than Senator Mikulski. I want you to know that this 
has been a long period of time for considerations because of 
the newness of this position and the importance that it has for 
the reasons which we've stated. But I don't think a week went 
by during this long period that Barbara Mikulski did not ask 
me: So when's the hearing? You're lucky to have her as a 
Senator, but also as a wonderful advocate.
    Senator Mikulski.

STATEMENT OF HON. BARBARA MIKULSKI, U.S. SENATOR FROM THE STATE 
                          OF MARYLAND

    Senator Mikulski. Thank you very much, Mr. Chairman, 
Ranking Member McCain, and colleagues. I have the opportunity 
today to introduce Lieutenant General Keith Alexander, who is 
the current Director of NSA, located in Fort Meade, MD. I also 
am very proud to sit here today with Admiral Winnefeld, and I 
would like to re-echo Senator McCain's sense of urgency about 
another war that we're fighting south of our own border.
    I'm here today in my scope as the Senator from Maryland. My 
State is the home to the mothership of signals intelligence in 
the U.S. military, which is NSA. I would recommend in a 
classified hearing that the scope, breadth, and talented 
workforce, the nature of it really be further explored, because 
I think it's often underestimated and it's undervalued because 
it does come in under everybody's radar.
    But today is an exciting day in introducing General 
Alexander for his confirmation hearing to lead something called 
CYBERCOM. He will elaborate on that command, but I'm going to 
elaborate on General Alexander. President Obama nominated him 
and I think it's a great choice. This job, to head up CYBERCOM, 
is going to require expertise, leadership, and know-how. The 
know-how is going to require technical competence in fields 
that change in web years, not in fiscal years. It requires 
someone who has incredible organizational skills that could 
head up major dot-com companies in our own country and the 
diplomatic skills to navigate not only with foreign leaders, 
but the vagaries of our own governance structures.
    I believe that General Alexander brings all of those 
talents, skills, and even more. He brings a great deal of 
expertise. His biography speaks for itself and the command 
recognitions that he's received. He's been the head of NSA for 
5 years. He was the Deputy Chief of Staff at the Army, General 
of the U.S. Army in Intelligence Security Command, and the 
Director of Intelligence for U.S. Central Command, and numerous 
other positions.
    That's kind of the resume stuff. But as you know, all of 
you here, that it is one thing to talk about credentials and 
bars on the shoulder and so on, but it's another thing to talk 
about leadership. I believe that General Alexander has led the 
transformation of NSA from an agency that was once focused on 
Cold War threats to now a world of new world threats, 
supporting both people who are literally in battle in Iraq and 
Afghanistan, standing sentry over those others who have 
predatory intent against us, and bringing that leadership.
    Right now he is leading the fight against cyber spies who 
want to steal our State secrets, cyber terrorists who want to 
disrupt everything from our financial services to our power 
grids, while supporting the wars in Iraq and Afghanistan, 
working with NORTHCOM and our forces at the border protecting 
our borders.
    Lieutenant General Alexander is a leader and a 
professional. I believe he's an indispensable asset. He's had 
to deal with everything from other generals and admirals to 
deal with us and our often sluggish response to situations. 
He's had to deal with Google as it's been threatened by China 
and he's had to develop a workforce and develop technology and 
he's had to do it with speed, diligence, while he's trying to 
avoid attacks on the United States, he's been trying to avoid 
fiscal boondoggles with his own agency.
    The CYBERCOM leader needs to be respected by the military. 
His service speaks for itself. He needs to be able to deal with 
the private sector. They're already coming to him for advice 
and how to work with us to protect dot-mil and other important 
things. He's been a promoter of innovation.
    I come to this because the committee must come to deal, 
have a sense of urgency, not only on the confirmation, but on 
cyber security. Those who have predatory intent against us are 
dealing in web years. They're continually focusing on the 
rapidity of change in a dynamic web environment. That's every 3 
months. We deal in fiscal years, congressional sessions, 
quadrennial reviews. That's pretty dated when it comes to cyber 
security.
    Our cyber shield is thinning. We need a unified response. 
We need CYBERCOM and we need the leader who has the right stuff 
to do it. I believe that's General Alexander and I hope you 
confirm him with web year speed.
    Mr. Chairman, I thank you for your kind attention.
    [The prepared statement of Senator Mikulski follows:]
             Prepared Statement by Senator Barbara Mikulski
    Thank you Chairman Levin and Ranking Member McCain for the 
opportunity to introduce Lt. Gen. Keith Alexander, the current Director 
of the National Security Agency (NSA), located in Fort Meade, MD.
    As the Senator from and for Maryland, I am pleased and honored to 
introduce Lieutenant General Alexander to the Senate Armed Services 
Committee for his confirmation hearing to lead Cyber Command. In 
October 2009, President Obama, with the support and backing of Defense 
Secretary Gates and Director of National Intelligence (DNI) Blair, 
nominated Lieutenant General Alexander to lead Cyber Command.
    I have known Lieutenant General Alexander since he started as 
Director of the NSA in 2005. Lieutenant General Alexander's leadership 
and expertise as Director of the NSA for the past 5 years, Deputy Chief 
of Staff of the Army, General of the U.S. Army and Intelligence and 
Security Command, Director of Intelligence, U.S. Central Command and 
numerous other positions make him uniquely qualified to lead Cyber 
Command.
    Lieutenant General Alexander has led the transformation of the NSA 
from an agency focused on counter-terrorism into an organization that 
is leading the fight against cyber spies who want to steal our State 
secrets, cyber terrorists who want to disrupt our power grid and cyber 
criminals who want to make a quick buck, all while still supporting the 
wars in Iraq and Afghanistan. Lieutenant General Alexander is a leader, 
a professional and, most important for this job, he is an indispensable 
asset to our Nation's cyber security.
    As a member of both the Intelligence Committee and Defense 
Subcommittee on Appropriations, which funds the NSA, I have seen the 
tremendous things that the NSA is doing in cyber space both to protect 
our national security systems and to keep us ahead of our cyber 
adversaries.
    The United States is being hacked and being attacked by cyber 
adversaries and foes each and every day. Cyber spies want to steal our 
State secrets, weapons systems, and restricted technology. Cyber 
hackers who want to make off with our intellectual property and patents 
and cyber criminals who want to make a quick $10,000.
    Our cyber shield is thinning and a unified response is necessary. 
The U.S. military needs a unified effort--a Cyber Command--to have the 
ability to respond with speed, agility, and flexibility to increasingly 
sophisticated cyber adversaries.
    As DNI Mike McConnell--a former NSA Director himself--once told me, 
Lieutenant General Alexander is an asset to our national security, and 
I agree with him. Cyber hackers and warriors continue to hack and 
attack us each day. Cyber hackers and warriors are operating with 
increasing speed and sophistication.
    This nomination is one that cannot wait. I strongly support his 
nomination to lead Cyber Command and I urge his quick confirmation.

    Chairman Levin. Thank you so much, Senator Mikulski. We 
haven't acted yet with web year speed, but we surely from this 
point on would hope to do so. The reasons we haven't are the 
reasons that I tried to outline, though, in my introduction, 
which intended to set out at least, some of the very 
significant issues that this new command raises. But your 
eloquence is very helpful in this regard and your comments are 
very welcome.
    Senator Mikulski. Good luck. I have your back.
    Chairman Levin. Admiral, I think we're going to start with 
you, so please proceed with your opening comments and please 
introduce anybody that you'd like to introduce to us. We always 
welcome family and friends should people be lucky enough to 
have them with them.

 STATEMENT OF VADM JAMES A. WINNEFELD, JR., USN, NOMINEE TO BE 
 ADMIRAL AND COMMANDER, U.S. NORTHERN COMMAND/COMMANDER, NORTH 
               AMERICAN AEROSPACE DEFENSE COMMAND

    Admiral Winnefeld. Yes, sir. Chairman Levin, Senator 
McCain, and distinguished members of this committee, it's a 
great honor to have been nominated by the President to become 
the Commander of NORTHCOM and the Commander of NORAD. I thank 
you all for the opportunity to appear before you this morning.
    I'm joined this morning--and thank you, sir--by my family 
and with your permission I'd like to introduce them: first my 
wonderful wife and best friend, to whom I owe so much, from 
Menomonie, WI, my wonderful wife Mary, who is a volunteer for 
the Navy and Marine Corps Relief Society here in Washington and 
who brings so much joy into my family's life. Sweetheart.
    Here also are my two sons, of whom I'm so proud: my son LJ, 
who tells me he'd like to follow his father's footsteps into 
the Navy; and his brother Jonathan, who tells me he would 
prefer to serve in the Marine Corps.
    Chairman Levin. Both of them belong in school. How come 
they're not there today? [Laughter.]
    Admiral Winnefeld. I think they got a senatorial waiver, 
sir.
    Mr. Chairman, over the last 3 years my friend General Gene 
Renuart has led the NORTHCOM and NORAD team with distinction 
and he'll leave behind a tremendous legacy of continuous 
improvement. If confirmed, I look forward to being able to 
build upon his efforts.
    In this light, I'd like to make two simple but important 
points before receiving your questions. First, I can think of 
no greater responsibility than protecting our people and our 
way of life by leading our homeland's last military line of 
defense and by providing support at the Federal, State, and 
local level in times of great need. There are no points for 
second place in either one of these missions and I view this as 
a sacred trust.
    Second, I have observed no other commands, no other 
combatant command for sure, in which cooperation with and 
support for partners is more important than with NORTHCOM and 
with NORAD. I believe the significant part of my career and my 
professional life spent in joint assignments has helped prepare 
me for this task.
    If confirmed, I will reinforce the critical importance of 
close partnerships and teamwork with the other combatant 
commanders and Service Chiefs, with DHS, and a host of other 
interagency, State, local, and nongovernmental partners, with 
our close friends and neighbors Canada and Mexico, and with the 
National Guard and Reserve.
    I view all of these relationships as vital, but I would 
like to particularly emphasize the latter. Our Nation's Guard 
and Reserve have never been better or more versatile and I look 
forward, if confirmed, to forging a strong personal partnership 
with them.
    I also look forward to working closely with the members of 
this committee to ensure we're correctly tackling the 
critically important job of defending our homeland and 
providing support to civil authorities.
    Once again, I'm very grateful for the opportunity to appear 
today and I'd like to thank you, Mr. Chairman and Senator 
McCain, and the members and superb staff of this committee for 
the ongoing support that you provide to our men and women in 
uniform and to their families.
    I look forward to your questions.
    Chairman Levin. Thank you so much, Admiral. We welcome you. 
We welcome your wife and your kids here today. We know how much 
you treasure them and we are delighted to see them here.
    General Alexander.

STATEMENT OF LTG KEITH B. ALEXANDER, USA, NOMINEE TO BE GENERAL 
AND DIRECTOR, NATIONAL SECURITY AGENCY/CHIEF, CENTRAL SECURITY 
             SERVICE/COMMANDER, U.S. CYBER COMMAND

    General Alexander. Chairman Levin, Senator McCain, 
distinguished members of the committee, it is a distinct honor 
and privilege to appear before you today. I am honored that 
President Obama and Secretary Gates have placed their trust and 
confidence in me by nominating me for the position of Director, 
NSA; Chief, Central Security Service; and for Commander, 
CYBERCOM. If confirmed, I look forward to working closely with 
the committee to address the cyber security challenges facing 
our Nation today and in the future.
    Sir, I'd like to introduce my wife Debby, who is with me 
today--right here, just so I can identify her. Debby has 
overseen 20 moves, experienced the highs and lows of almost 35 
years in service, brought 4 lovely daughters into the world, 
and is grandmother to our 12 grandchildren. I am indebted to 
her for her love, unflagging support, wise counsel, and 
occasionally letting me win in Yahtzee.
    We face a growing array of cyber threats, from foreign 
intelligence services, terrorists, criminal groups, and 
individual hackers, who are capable of stealing, manipulating, 
or destroying information that could compromise our personal 
and national security. DOD in particular requires a focused 
approach to secure its own networks, given our military's 
dependence on them for command and control, logistics, and 
military operations.
    In recognition of this, Secretary Gates directed the 
creation of CYBERCOM to establish a framework under which a 
single military commander can achieve unity of command and 
operational integration across the full range of cyber space 
operations.
    If confirmed, my main focus will be on building the 
capacity, the capability, and the critical partnerships 
required to secure our military's operational networks. This 
command is not about efforts to militarize cyber space. Rather, 
it is about safeguarding the integrity of our military's 
critical information systems. Working with U.S. Strategic 
Command (STRATCOM) and Department leadership and with help from 
this committee, my goal, if confirmed, will be to significantly 
improve the way we defend ourselves in this domain.
    If confirmed, I also intend to draw upon the extensive 
lessons I have learned over the almost 5 years serving as both 
Director of NSA and Commander of the Joint Functional Component 
Command Net Warfare, to ensure that CYBERCOM can effectively 
leverage NSA's global intelligence capabilities.
    I would like to note, however, that while there will be, by 
design, significant synergy between NSA and CYBERCOM, each 
organization will have a separate and distinct mission with its 
own identity, authorities, and oversight mechanisms. NSA's own 
mission and authorities will not change as a result of the 
creation of this command and, while cyber space is a dynamic, 
rapidly evolving environment, what will never change will be an 
unwavering dedication by both CYBERCOM and NSA to the 
protection of civil liberties and privacy of American citizens.
    Finally, if confirmed, we can stand up the command under 
existing authorities, but there is undoubtedly much unchartered 
territory in the world of cyber policy, law, and doctrine. If 
confirmed, I intend to work closely with the Under Secretary of 
Defense for Policy charged by Secretary Gates to develop a 
comprehensive strategy for DOD's cyber space operations. I will 
also rely heavily on the wisdom and guidance of this committee 
to ensure that we get this critically important mission right 
for our military and for our Nation.
    In closing, I want to again express my sincere appreciation 
to this committee for holding today's hearing. If confirmed, I 
look forward to working closely with you. Your wisdom, support, 
and sustained engagement are critical to ensuring the success 
of this endeavor.
    Thank you again for the opportunity to be here with you 
today. I look forward to your questions.
    Chairman Levin. Thank you very much, General. We welcome 
you. We welcome your wife. I'm a little bit jealous of the 2 of 
you with 4 daughters--I only have 3--and 12 grandkids--I only 
have 5. But it's wonderful to have you both here.
    I want to explore with you, General Alexander, some of that 
unexplored territory that you just mentioned, cyber policy, 
cyber law, and cyber doctrine. You as the first Commander of 
CYBERCOM are going to be in a critical position, not just in 
commanding the command, but in really setting the precedents 
for how that command is going to operate. There's a lot of 
unchartered territory; you and I have talked about this.
    What I'd like to do is share some hypothetical scenarios. 
You and I talked about your doing this and I wanted to let you 
know that's what I wanted to do because I wanted you to be able 
to know in advance what these scenarios are and to give us your 
thoughtful response to these. This is a new area, not just for 
our country, but an area which is particularly challenging, I 
must say, to me, being generationally challenged when it comes 
to understanding some of these issues.
    Let me give you the hypotheticals, starting with the 
easiest one, I think, which is assume the following: U.S. 
forces are engaged in a traditional military conflict with a 
country, we'll call it Country C. Now, how would you conduct 
cyber operations in that country in support of the combatant 
commander? Under what authorities, processes, and orders would 
you be operating in that particular scenario? Then I'll give 
you two additional scenarios.
    General Alexander. Yes, sir. We would be operating under 
title 10 authorities, under an execute order, supporting 
probably that regional combatant commander. The execute order 
would have the authorities that we need to operate within that 
country. We have standing rules of engagement of how to defend 
our networks.
    I think that's the straightforward case. There would be an 
execute order that comes down to that regional combatant 
commander, that includes the authorities for cyber parsed and 
approved by the President.
    Chairman Levin. All right, so that is kind of a traditional 
role. You have an execute order. You have rules of engagement.
    By the way, we'll have an 8-minute first round for 
questioning.
    Now the second hypothetical. I want to add a complicating 
factor to the scenario. Assume that an adversary launches an 
attack on our forces through computers that are located in a 
neutral country. That's what you've determined. The attack is 
coming from computers in a neutral country. How does that alter 
the way that you would operate and the authorities that you 
would operate under?
    General Alexander. Sir, that does complicate it. It would 
still be the regional combatant commander that we're supporting 
under title 10 authorities. There would be an execute order. In 
that execute order and the standing rules of engagement, it 
talks about what we can do to defend our networks and where we 
can go and how we can block.
    The issue becomes more complicated when on the table are 
facts such as we can't stop the attacks getting into our 
computers, and if we don't have the authorities in accordance 
with the standing rules of engagement we'd go back up to 
STRATCOM, to the Secretary, and the President for additional 
capabilities to stop that.
    But right now the authorities would be to block it in 
theater under the current standing rules of engagement, and it 
would be under an execute order, and again under title 10 in 
support of that regional combatant command.
    Chairman Levin. Is that execute order likely to have the 
authority to do more than defend the networks, or would you 
have to, in all likelihood, go back for that authority if it 
were more than defensive?
    General Alexander. Sir, it would probably have the 
authority to attack within the area of conflict against the 
other military that you're fighting. There would be a rules of 
engagement that articulate what you can do offensively and what 
you can do defensively. Sir, in offense that's both in the 
exploitation and in the attack role. Both of those would be 
laid out in the execute order.
    What you would not have the authority to do is to reach out 
into a neutral country and do an attack, and therein lies the 
complication from a neutral country: What do you do to take 
that second step?
    Chairman Levin. Neutral being a third country, presumably? 
Is that synonymous or does the word ``neutral'' mean literally 
neutral?
    General Alexander. It could be either, sir. It could be a 
third country or it could be one that we don't know. I should 
have brought in attribution, because it may or may not be a 
country that we could actually attribute to, and that further 
complicates this. The neutral country could be used by yet a 
different country, the adversary, and it's only an attack 
through.
    In physical space it's a little bit easier to see firing 
from a neutral country, and I think the law of armed conflict 
has some of that in it. It's much more difficult and this is 
much more complex when a cyber attack could bounce through a 
neutral country, and therein lies the complexity for this 
problem.
    Chairman Levin. That's the complexity that you've 
addressed.
    Now a third scenario, more complicated yet. Assume you're 
in a peacetime setting. All of a sudden we're hit with a major 
attack against the computers that manage the distribution of 
electric power in the United States. The attacks appear to be 
coming from computers outside the United States, but they're 
being routed through computers that are owned by U.S. persons, 
located in the United States. So the routers are in here, in 
the United States.
    How would CYBERCOM respond to that situation and under what 
authorities?
    General Alexander. Sir, that brings in the real complexity 
of the problem that we face today, because there are many 
issues out there on the table that we can extend, many of which 
are not yet fully answered. Let me explain.
    First, DHS would have the responsibility for the defense of 
that working with critical infrastructure. DHS could, through 
the defense support to civilian authorities, reach out to DOD 
and ask for support. Sir, one of our requirements in the 
unified command plan is to be prepared for that task. We would 
have that responsibility.
    If asked to do that, again we'd get an execute order and 
we'd have the standing rules of engagement that we operate 
under all the time. The issues now, though, are far more 
complex, because you have U.S. persons. Civil liberties, 
privacy all come into that equation, ensuring that privacy 
while you try to on the same network potentially take care of 
bad actors. A much more difficult problem.
    As a consequence, you have a joint interagency task force, 
the Federal Bureau of Investigation, who has a great joint 
cyber investigative task force that would be brought in. All of 
these come to bear.
    This is the hardest problem because you have attribution 
issues, you have the neutrality issues that we mentioned in the 
second scenario, you have interagencies working together with 
industry. I think that's one of the things that the 
administration is trying to address with DHS and with DOD, how 
do we actually do that with industry? That's probably the most 
difficult and the one that we're going to spend the most time 
trying to work our way through: How does DOD help DHS in a 
crisis like that?
    Chairman Levin. Is that policy that's now under way in 
terms of debate and discussion, is that scheduled for 
completion by the end of the year? Is it what the hope is, the 
goal is, for that?
    General Alexander. I think DOD portions that would support 
that are, yes, sir.
    Chairman Levin. Admiral, let me ask you about the missile 
defense system that we have. If I have time, I'll ask about the 
issue, the GMD system that we have in Alaska and California. 
But as I may run out of time, let me focus first on Europe.
    We have a ballistic missile defense system in Europe. Last 
September the President announced a new missile defense plan 
for Europe that was unanimously recommended by Secretary Gates 
and the Joint Chiefs of Staff. That plan includes a number of 
elements that are intended to enhance the defense of the United 
States against potential future long-range Iranian missiles, 
particularly long-range Iranian missiles.
    The forward-deployed radar in southeastern Europe would be 
part of that. Development of an improved version of the 
Standard Missile III Block 2 for deployment in Europe. This, of 
course, would work to complement or in concert with the GMD 
system that I referred to.
    But first, do you agree that new missile defense plan will 
improve our capability to defend the homeland against potential 
future long-range missiles from Iran?
    Admiral Winnefeld. Senator, in particular the radar that 
would be placed presumably in southeastern Europe or in the 
southeastern part of that AOR would provide much earlier 
warning of a missile attack from Iran and therefore give much 
earlier warning for the ground-based missile or ground-based 
midcourse system in the United States to launch, and 
potentially that will dramatically raise the ability of that 
system to counter a threat coming from Iran. That's the most 
important part. The SM III Block 2, obviously further down the 
line with some potential intercontinental ballistic missile 
capability is an adjunct to that.
    Chairman Levin. If the Russian radars finally were able to 
be joined to that system, would that add capability?
    Admiral Winnefeld. If the Russian radars are able to feed 
in into that system, then presumably, yes, sir, it would 
augment that capability on top of the radar that we would have 
in southeastern Europe.
    Chairman Levin. Thank you very much.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    General Alexander, I think it would be helpful for this 
committee, and also I note the presence of the chairman of the 
Senate Homeland Security and Governmental Affairs Committee, if 
perhaps you could submit to us for the record some of the 
changes that you think are needed both in law and in regulation 
to allow you to perform your functions in a not only more 
efficient fashion, but to make sure that you are protected 
constitutionally. Do you see my point, General?
    General Alexander. Yes, sir.
    Senator McCain. Do you think that would be helpful to the 
committee and Congress, for us to get a laundry list of what 
you think needs to be done in order for you to be able to carry 
out your duties in a most efficient and effective fashion?
    General Alexander. Yes, sir. We'll do that, sir.
    [The information referred to follows:]

    [Deleted.]

    Senator McCain. I think it's obvious from General 
Alexander's testimony that close coordination between DHS and 
DOD is critical in taking effective measures in this new cyber 
war that we are in.
    Chairman Levin. If I could just support what your request 
is on that, Senator McCain. It's a very useful point and the 
answer that you give to us in response to Senator McCain will 
go to the Homeland Security and Governmental Affairs Committee 
as well. It's a very important point. Thank you.
    Senator McCain. It may at some point argue for a joint 
committee hearing, depending on how urgent the needs are. But 
this is obviously a brand new field of combat and one that we 
are going to have to make significant adjustments to.
    Admiral Winnefeld, you are new in your responsibilities and 
I congratulate you for your long years of service. Do you agree 
with my opening statement concerning this real crisis we have 
on our southern border and with our southern neighbor 
concerning this struggle, the existential struggle of the 
Government of Mexico with the drug cartels?
    Admiral Winnefeld. Senator, I certainly share your deep 
concern over the levels of violence in Mexico and along our 
border and certainly the corrosive effect that it ultimately 
has inside our cities.
    Senator McCain. Have you had time yet to assess whether the 
Government of Mexico, whom we are helping out a great deal, I 
think it's $1.5 billion in the Merida Plan. Have you any 
assessment as to whether we are succeeding or failing or where 
the drug cartels are as far as this struggle is concerned? Have 
you an assessment of the situation yet?
    Admiral Winnefeld. Senator, I'm in the early stages of my 
assessment, to be quite honest with you. In preparation for the 
hearing, I have done my own reading. I was privileged to 
accompany the large delegation that the Government sent down to 
Mexico City in March to meet with their counterparts in Mexico, 
and I'm watching this very closely. Of course, if I'm confirmed 
I intend to really burrow into it once I get out and in 
command.
    Senator McCain. Would you agree that your initial 
assessment is that the Government of Mexico is in an 
existential struggle with the drug cartels?
    Admiral Winnefeld. I believe that the drug cartels really 
want to be left alone. They want to have space for them to 
compete for market share. I don't believe at this point that 
they are intent on overthrowing the Government of Mexico.
    Senator McCain. I agree with that assessment. But if the 
government does not have control of large parts of its 
territory, then, if not an existential threat, certainly a 
threat to its ability to govern.
    Admiral Winnefeld. Yes, sir.
    Senator McCain. Have you had an opportunity yet to visit 
the border?
    Admiral Winnefeld. I have not, and I was delighted that you 
made the offer during your opening remarks, sir, because it's 
one of my very first priorities, if confirmed. When I get out 
there, I want to get down there and see for myself what's going 
on. I would very much welcome the opportunity to accompany you 
on a trip down there, sir.
    Senator McCain. I would look forward to it, and soon, 
Admiral.
    One of the aspects of this struggle we're in--and I'm very 
aware of our Constitution and the role of the military inside 
the United States and all of that. But I also would argue that 
when we have a level of violence that thousands of people are 
being murdered on the other side of the border, American 
citizens have been murdered, as I just described to you, that 
at least we ought to scrutinize more carefully and utilize some 
of the lessons we have learned in, say, Iraq. What I mean by 
that is surveillance capability as well as physical barriers.
    I do not mean to draw too close a comparison between the 
war in Iraq and our struggle on the border. But I do believe 
you could make a comparison between the use of UAVs, 
surveillance capabilities, as well as barriers. We all know 
that barriers only work if they are surveiled and maintained. 
It seems to me that we could use some of the technology that 
we've developed in Iraq and are using in Iraq and Afghanistan 
to better surveil and enforce our borders, because I'm not sure 
when this struggle between the Mexican Government and the drug 
cartels is going to be over, but I do believe it's going to be 
a while, and I do believe that therefore we have an obligation 
to secure our borders to prevent further incidents such as the 
murder of a rancher in Douglas, AZ, just a short time ago.
    I look forward to visiting with you on the border. Every 
area of the border has its challenges. I think factually that 
the Tucson border area has the largest number of incursions. We 
also have the Goldwater Ranges down near the border and some of 
the illegal activity has affected our training capabilities 
there. There are a number of implications associated with the 
struggle on the border that argues I think for our highest 
attention.
    I hope that you would also, as we assess this situation, 
help us assess the manpower requirements as well as the 
technology requirements, since our Governors in the border 
States have said that they need the National Guard there. That 
request has not been met with a favorable response as of yet.
    I would look forward to it and will go to work right away. 
Frankly, I am more concerned than I have ever been about the 
fact that many indicators are that the drug cartels are 
certainly not losing, if they're not winning. If they're not 
losing in any war, then they are winning. This is an irregular 
warfare situation. It has many different complications. Where 
are they getting the sophisticated weapons? The Mexican police 
and army many times are outgunned. Also, this effect on the 
United States of America of what is judged to be about a $65 
billion a year business as well.
    I thank you for your commitment to get down there and I 
look forward to joining you as soon as possible. I know that my 
colleagues that represent border States share the same concern 
that I do about the size and implications of this issue.
    I've been down there many times over the years and I've 
visited Mexico City. I have the greatest respect and 
admiration, as I know you do because you were in Mexico City, 
for President Calderon. I think he is doing everything that 
they can, but they are crippled by corruption and they're 
crippled by a lack of training and capability of their police 
and military.
    I also believe that we have made some very wise investments 
in helping them with technology and training that may be of 
significant benefit to them in the long run.
    Do you agree?
    Admiral Winnefeld. Absolutely, sir, and I absolutely share 
your view that the Calderon Government has exhibited extremely 
good leadership and courage in this fight, because one thing--
if they wanted to immediately tamp down the violence, they 
could back off the pressure on the drug cartels, and they have 
had the courage to not do that. I think it's a tremendous sign 
of our partner in Mexico, and I'm proud to have potentially the 
opportunity to work with them, yes, sir.
    Senator McCain. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Before I call on Senator Lieberman, let me ask you the 
standard questions which we place before all of our nominees. 
Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    General Alexander. Yes, sir.
    Admiral Winnefeld. Yes, sir.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Admiral Winnefeld. No, sir.
    General Alexander. No, sir.
    Chairman Levin. Do you agree, when asked, to give your 
personal views, even if those views differ from the 
administration in power?
    Admiral Winnefeld. Yes, sir.
    General Alexander. Yes, sir.
    Chairman Levin. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record in hearings?
    General Alexander. Yes, sir.
    Admiral Winnefeld. Yes, sir.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to Congressional requests?
    Admiral Winnefeld. Yes, sir.
    General Alexander. Yes, sir.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    General Alexander. Yes, sir.
    Admiral Winnefeld. Yes, sir.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    General Alexander. Yes, sir.
    Admiral Winnefeld. Yes, sir.
    Chairman Levin. Finally, do you agree to provide documents, 
including copies of electronic forms of communications, in a 
timely manner when requested by a duly constituted committee or 
to consult with the committee regarding the basis for any good 
faith delay or denial in providing such documents?
    Admiral Winnefeld. Yes, sir.
    General Alexander. Yes, sir.
    Chairman Levin. Thank you very much.
    Senator Lieberman.
    Senator Lieberman. Thank you, Mr. Chairman.
    General Alexander, Admiral Winnefeld, thank you for your 
service to our country. I must say, going over your biographies 
in preparation for the hearing, your answers, listening to you 
this morning, you're two extraordinarily capable people and our 
Nation is fortunate indeed to have you in our service. I look 
forward to supporting your nominations.
    General Alexander, I want to pick up a bit on the line of 
questioning that Senator McCain began. But first, just if you 
would briefly lay on the record, as we stand up this new 
CYBERCOM and you as its first leader, how serious is the cyber 
threat to the United States today? To the extent that you're 
able to say in open testimony, particularly about DOD web sites 
and networks, how frequently are we today under attack?
    General Alexander. Sir, I think one of the underlying 
principles, beliefs, that the Secretary had for standing up 
this command was just the amount of attacks that we're seeing 
coming into DOD gateways every day.
    Senator Lieberman. Right.
    General Alexander. Hundreds of thousands of probes a day.
    Senator Lieberman. Every day?
    General Alexander. Every day.
    Senator Lieberman. Right.
    General Alexander. The issue that we saw was, how do you 
fight against that? By putting the command together, I think 
that was what he saw as the first big step that we need to make 
to build the capacity and to take that on. We saw it as very 
serious. We have been alarmed by the increase, especially this 
year, both in the critical infrastructure within the Nation and 
within DOD. So it's growing rapidly.
    Senator Lieberman. Right. Hundreds of thousands of probes, 
these are not attacks in the sense that we normally consider an 
attack; is that correct?
    General Alexander. That's correct, Senator.
    Senator Lieberman. They're an attempt to probe and to 
exploit our system to gain information?
    General Alexander. That's correct, Senator. They may scan 
the network to see what type of operating system you have, to 
then facilitate an exploit or an attack.
    Senator Lieberman. Right. Is it fair to presume that, while 
some degree of these are individual hackers, others are working 
for nation states that are trying to determine what they can 
about our defense structure?
    General Alexander. That's correct, Senator.
    Senator Lieberman. Okay. That I think quickly but strongly 
outlines the nature of the threat certainly to our national 
security structure.
    Let me get into some of the questions about the 
relationship between DOD and DHS because, as Senator McCain 
said, I'm privileged to be chair of the Senate Homeland 
Security and Governmental Affairs Committee. There's a lot of 
overlap, not surprisingly, between the membership on these two 
committees.
    The existing system allocates responsibility between DOD 
and DHS, DOD obviously having responsibility not only for 
offensive cyber operations, but for the defense of DOD's 
networks. DHS has responsibility for defending the civilian 
networks of our Government and working with the private sector 
to defend the civilian infrastructure, which probably itself 
would be a target of attack, could be certainly at some point.
    I welcome Senator McCain's suggestion that these two 
committees work together and that we have your responses to how 
we might clarify responsibilities in the future. But I think it 
is important to get on the record the extent to which NSA, 
which you head, is now cooperating with DHS in enabling its 
work. The bottom line here is that the NSA is a treasure, a 
national treasure. Its resources are extensive. No one I think 
would want DHS to try to replicate those resources to carry out 
its responsibility to protect Federal Government civilian 
networks and outside civilian networks.
    Therefore the cooperation is really critically important. 
Can you explain both what that relationship is now and how you 
envision CYBERCOM that you'll now head and NSA playing a 
supporting role to DHS in protecting non-military networks?
    General Alexander. Senator, I'm going to break that into 
two parts, one that talks about what NSA is doing to support 
DHS in executing their mission. As you stated, it's their 
mission to defend the rest of the dot-gov and to work with the 
civilian community for critical infrastructure. Our 
responsibility is to provide technical support to DHS. We do 
that under the comprehensive national cyber initiative to help 
them build the technology that they need to defend those 
networks.
    In part of that, sir, we have a responsibility to provide 
them the technical information for what the threat is trying to 
do to them.
    Senator Lieberman. Right, right.
    General Alexander. Provide them early warning to that. But 
they would operate and defend that system. So our 
responsibility, we provide people and capabilities to help them 
do that.
    I think that partnership continues to grow. We've had a 
number of meetings and I think we're trying to work through it. 
That's part of the issue, as you can see. Then I think what 
Secretary Napolitano and the country's going to have to look 
at, how do we work with private industry, who owns and operates 
many of these networks?
    Senator Lieberman. Right.
    General Alexander. On the CYBERCOM side, if a crisis were 
to occur, now CYBERCOM or DOD may be called in to help, defense 
support to civilian authorities. What we would be asked to do 
is dependent on the situation. It could go through NORTHCOM, it 
could go to STRATCOM or to CYBERCOM to provide either technical 
support or help prevent an attack, or in the case of a 
sustained attack actually help defend our networks.
    Those are the cases, and as you get into each one of those 
you run into a series of issues that we have yet to work out 
with the roles and responsibilities, especially with private 
industry.
    Senator Lieberman. Right. That was very helpful.
    The second situation, the second area of overlap, would be 
in what I would describe as a national security crisis, the 
extent to which CYBERCOM would come in and work with DHS to 
defend either Federal Government civilian networks or private 
civilian networks; is that correct?
    General Alexander. That is a mission that we would plan for 
under the unified command plan and that we have to work out the 
specifics of how to do that.
    Senator Lieberman. Am I correct that you would say that the 
current allocation of responsibility between DOD, CYBERCOM, 
NSA, and DHS is a good one? Understanding that you have to work 
out some of the questions you've talked about, but bottom line, 
that DOD has responsibility for the defense networks in defense 
and DHS has responsibility for the Federal Government civilian 
networks and private civilian networks?
    General Alexander. Yes, sir. I think it is absolutely 
important to have DHS operate and defend those networks. I also 
believe that there necessarily needs to be a linkage and 
leverage of that capability for us to provide the technical 
support, the early warning, and others. I think we're walking 
down that road. I think it is written out right, but there's 
more to understand as we go into that, what are the exact lanes 
in the road for that and how can we help, and what happens in a 
true crisis.
    Senator Lieberman. I appreciate that answer very much.
    One of the things I think was implicit in what Senator 
McCain said, and I certainly share this hope, is that we can 
work together to determine both with yourself and Secretary 
Napolitano whether there are any legislative changes necessary 
to enable DOD components to better assist DHS in its cyber 
security mission.
    General Alexander. Yes, sir.
    Senator Lieberman. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Lieberman, and we will 
work closely as committee chairmen, and our ranking members I 
know will be joining us in this coordinated effort to 
understand this new world and to oversee it properly.
    Senator Lieberman. Thank you.
    Chairman Levin. Thank you very much.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I only wish I knew as much about this as Senator Lieberman 
does and Senator McCain, because I'm kind of new to this and 
when I saw your command, as I told you when you were in my 
office, I'm on the surface, I started getting into it and 
recognizing that there is a reason for it, and that there are 
problems out there.
    Chairman Levin. Senator Inhofe, if I could interrupt just 
for a moment. I'm going to have to leave for a short time and 
I've asked Senator Udall, who will be next in line anyway to 
ask questions, if he could then continue after that. He 
indicated he could. After you're completed, Senator Inhofe, 
it'll go then to Senator Udall, then back to somebody on your 
side if there is someone here. But Senator Udall can take care 
of that.
    Thank you.
    Senator Inhofe. Yes. Over the last decade as the use and 
connectivity has become more pervasive, most of the Information 
Technology (IT) security spending has been invested in 
perimeter defense of the distributed network. There has been a 
reduction in appropriations or in spending in some of these 
areas, and I am concerned about that.
    I've been told that DOD has created and adhered to a strict 
set of security configuration controls for their mainframe 
systems, but there have been some reports of classified 
government systems being breached. I'd like to have you just 
take as much time and as much detail on this, the problems that 
we have.
    Second, I want to talk about some of the systems outside of 
the military that I'll be asking you about, due to something 
that appeared this morning in the media. Does DOD have any 
issues with its mainframe security, both in its air-gapped or 
non-wired systems and in the systems that are connected to the 
Internet? What problems do you see that you haven't already 
mentioned in the previous questions?
    Again, I apologize for not being here for your opening 
statement, you may have covered this. If so, that's fine.
    General Alexander. Yes, sir. I think the key issue that you 
bring up is some of the legacy defense capabilities would look 
at a perimeter defense. As we begin to merge our offensive and 
defensive capabilities onto one team, one of the things we did 
was change the strategy from perimeter defense to defense I 
depth.
    Senator Inhofe. Okay. Now, before that took place--and I'm 
sorry I have to ask this question; I should know and I don't--
who was doing this then?
    General Alexander. This was separated in responsibilities 
between what the network defenders and operators would do 
versus what you would do in the attack and exploit arena.
    Senator Inhofe. Okay.
    General Alexander. In many of our war games, in many of our 
exercises, we noted that the offense always had the upper hand. 
When you look at that, the red teams and the blue teams that we 
would bring out to test our networks we saw were largely 
successful. As a consequence, one of the issues that we said is 
can we bring some of that great talent that's on the offense to 
help on the defense? When we started doing that, we made 
changes to some of our doctrine, some of the operational 
concepts, and some of the ways that we do it.
    You bring out a key one, Senator, and that is defense in 
depth. That's absolutely important because the adversary is 
always going to try to penetrate our network. We have to remain 
vigilant and try new capabilities, tests, and always be on 
guard for those exploits or attacks into our network.
    Senator Inhofe. That's good and I appreciate that.
    This morning on Dark Reading--it's a business IT web site--
they talk about, even with minimal Internet access, malware and 
breaches are increasingly occurring. We're talking about the 
nonmilitary, nondefense field. While only 10 percent of the 
industrial control systems are actually connected to the 
Internet, these systems that run water, waste water, utility 
power plants have suffered an increase in cyber security 
incidents over the past 5 years.
    Now, why don't we shift over into what is being done to 
secure those networks and systems that are not government or 
military, but are critical to us, such as those that are 
mentioned in this article? What do you anticipate to do--you've 
talked about the problems that are out there--in terms of 
approaching those problems, finding solutions? Then getting 
into the technology, do you really have the resources that you 
need to do what you think, you anticipate, you're going to have 
to do in these nonmilitary, nondefense areas?
    General Alexander. Sir, the key issues that come on the 
table as you lay that out is most of our infrastructure for our 
Government is owned and operated by private industry. If we are 
going to be successful in defending our networks, we have to 
have a great partnership between DHS, who has the lead in this 
area with civilian industry, with DOD and the Intelligence 
Community to bring in those techniques and the early warning to 
work with private industry. That's the hard issue that I see 
facing us today.
    Senator Inhofe. What I would ask you is, as this 
progresses, I'm very interested in this. As I mentioned in my 
office, if we could keep an ongoing conversation as to what 
might be out there, what resources you might need, and so 
forth, because I see this as just a huge area. You're the right 
person for it. I'm glad that you're doing what you're doing. I 
think that will probably take care of it.
    Admiral Winnefeld, when you were in my office we talked 
about one of the major concerns I had. I was very much involved 
early on in the negotiations with both Poland and the Czech 
Republic on the radar site and on the third site that we were 
going to put in Poland. It was pretty risky on their part to do 
something that Russia was opposed to, and they agreed to do it. 
I was very much concerned when that was pulled out from under 
them a year ago in the first budget of this administration.
    Now, I had two concerns. One was can they really believe 
what we're telling them? I've talked to them since that time 
and I think that's probably all right. But the whole reason for 
that is, we all know that we have ground-based interceptors in 
Alaska and California and we know that we're in pretty good 
shape on anything coming from that direction.
    My concern is this. Our intelligence tells us--and it's not 
even classified--that as early as 2015 they could have the 
capability in Iran of sending one over to the eastern part of 
the United States. Now, that may not be right. Maybe after 
that. But nonetheless it says it could be that early.
    My understanding on the third site, is that it would be 
deployable by around 2012. I was very comfortable with that 
time. I know the arguments, and I heard you respond to Senator 
McCain's question. To me, if we're not going to use that third 
site or a site someplace else--at one time we talked about 
Florida--before the SM III 2-Bravo would be there--first of 
all, do you have any date at all that that would come into 
play, where that could be deployed?
    Admiral Winnefeld. The SM III 2-Bravo is still under 
development.
    Senator Inhofe. I know that.
    Admiral Winnefeld. About 2020, I believe is when it would--
--
    Senator Inhofe. That's the date that I have heard. What 
bothers me is what happens between 2015 and 2020? I heard your 
response to that, but there has to be a percentage that's tied 
to that, because when we look at it--I've had a lot of 
briefings and I've seen the map of the coverage and the area of 
how far can they reach with both radar and interception 
capability from the west coast to the east coast. Frankly, I'm 
just not comfortable with that.
    I'd like to have all the assurance I can have that what 
we're doing right now is not going to give us the vulnerability 
that I think we're going to have in that period of time 
somewhere between 2015 and 2020.
    Do you want to elaborate on that?
    Admiral Winnefeld. I would say that under the current 
laydown, Alaska and Vandenberg, that there is a footprint that 
covers the entire United States from both Iran and Korea. The 
percentages go up as you get the radar into Europe, and 
certainly if the SM III Block 2-Bravo pans out then they will 
go up accordingly.
    I understand your concern completely about the potential 
risk in that little band before the SM III 2-Bravo would be on 
line, and if confirmed that's certainly something that I would 
want to understand better.
    Senator Inhofe. My time has expired, but when you say the 
percentages will go up, that's something you can't talk about 
in an open meeting. Maybe some time we'll have a chance to 
visit about that. Just keep me informed as this moves along 
because I do have a great concern.
    Admiral Winnefeld. I will, sir.
    Senator Inhofe. Thank you.
    Senator Udall [presiding]. Thank you, Senator Inhofe.
    I want to recognize Senator Reed for a minute. He has a 
special acknowledgment he wants to make.
    Senator Reed. Very briefly, I want to welcome General 
Alexander. I think we met about 40 years ago and in the 
intervening 40 years he has acquitted himself magnificently as 
a soldier. I'm very confident that your leadership will improve 
our national security.
    Admiral, thank you for your service to the Navy, and to 
your family, and to Keith's family, too. I'm sure we'll have a 
chance in the days ahead to talk seriously about these very 
critical issues. Thank you for your service.
    Thank you very much.
    Senator Udall. Thank you, Senator Reed.
    Let me recognize myself for 7 minutes, and let's start with 
Admiral Winnefeld. Welcome. General Alexander also, thank you 
for taking the time to come by and see me in the last couple of 
weeks.
    General Renuart was here recently and he talked about the 
synergy of his commands, Admiral, and what he believes is truly 
an interdependent relationship between NORAD and NORTHCOM. Can 
you tell us your thoughts about the relationship between NORAD 
and NORTHCOM?
    Admiral Winnefeld. Very close, clearly. The missions are 
very symmetrical, aerospace warning, aerospace control, and 
maritime warning for NORAD and, of course, homeland defense and 
defense support to civil authorities to NORTHCOM. When you look 
at the fact that NORAD might be providing some aerospace 
warning of, for instance, the ballistic missile threat, that 
then NORTHCOM would then assume the responsibility for 
defending against, then there's clear synergy there.
    I think it's important and a good move that General Renuart 
has brought the staffs together. I know that the staffs enjoy 
that, and my understanding is that Canada shares that view. I 
think I look forward, if confirmed, to going out there and 
exploring it further.
    Senator Udall. We, of course, are looking forward to having 
you based in Colorado, and I look forward to working with you, 
as I have with General Renuart.
    General Alexander, let me turn to you, if I might. We 
talked about the benefits of dual hatting--speaking of dual 
hatting in another setting, CYBERCOM and NSA. You talked about 
your understanding of the importance that oversight 
transparency will play in this new structure. Yet in the 
advance policy questions you were only able to provide 
classified answers to what seemed to be some of the fundamental 
challenges facing CYBERCOM. Is there anything you can tell us 
in this open session to get at some of those basic questions?
    General Alexander. I think first transparency is important, 
especially in the cyber arena, what we do on the NSA side to 
support that and what we do on the CYBERCOM side. The reason I 
say that, I believe that the Government combined, Congress and 
the administration, to the American people, we have to help 
explain that. We have to show what we're doing to ensure that 
we comply with the laws. As you may know, Senator, we stood up 
a Directorate of Compliance at NSA to ensure that we train our 
folks significantly, we hold them accountable to complying with 
that. It is important to us, and we'll carry that into CYBERCOM 
as well to ensure that we have those same things.
    It seems to me that's one of the fundamental issues, that 
we all take an oath to the Constitution and that we support 
that Constitution. Our folks take that very seriously.
    Senator Udall. Let me follow on and turn the question to 
the relationship with CYBERCOM and NORTHCOM. I'll ask you first 
to give us your thoughts and then I'll turn to the Admiral to 
provide his thoughts, if I might.
    General Alexander. I think there's a great partnership. We 
have already talked about this and our partnership would really 
go through requests from DHS when they have an issue. From my 
perspective, I could be supporting or supported depending on 
the situation, and the Secretary would choose that. But it will 
be a close working relationship, and I think one of the key 
things that we'll look at in the future is asymmetric attacks 
in cyber space on this country and how do we help DHS do their 
mission.
    Senator Udall. Admiral, would you care to comment?
    Admiral Winnefeld. Senator, I've forged a close friendship 
with Keith Alexander over the last 18 months in our respective 
roles and we get along very well. I would first tell you that I 
look forward to being a satisfied customer if I'm confirmed in 
terms of having networks protected and potentially, if it came 
down to it, getting the types of information that I would need 
in order to perform my job as the Commander of NORTHCOM or 
NORAD.
    I also believe that with the tremendous number of 
interagency relationships that a command like NORTHCOM has to 
have, that I'll have a tremendous source of information for 
General Alexander on the kinds of support that those people 
need, and of course with DHS in the lead. But he will be an 
integral player in that process. I look forward to plugging 
into that system and helping in any way I can.
    Senator Udall. I understand when there's additional time 
available we can discuss the respective merits of the football 
teams at the two academies; is that accurate? Neither one of 
you need to--well, you look like you want to comment.
    Admiral Winnefeld. Being a graduate of the Georgia 
Institute of Technology, but being a very loyal Navy football 
fan, I think that we're in pretty good shape.
    Senator Udall. Let me leave that there.
    General Alexander, at a recent conference the White House 
Cyber Security Adviser Howard Schmidt questioned whether an 
event such as a cyber war can exist, and I'll quote what he had 
to say. He said: ``A cyber war is just something that we can't 
define. I don't even know how a cyber war would benefit 
anybody. Everybody would lose. There's no win-lose in the cyber 
realm today. It affects everybody. It affects businesses. It 
affects government. So, number one, there's no value in having 
one.''
    That statement leaves me with a number of questions. Do you 
think that a cyber war can exist? Can you define it? If there's 
no value in having one, is there a need for the United States 
to develop offensive cyber war capabilities?
    General Alexander. Senator, in general terms I do think a 
cyber war could exist. I believe it would not exist in and of 
itself, but as part of a larger military campaign. I believe 
that the tools and stuff for command and control that we have 
today to affect those in cyber space are analogous to the tools 
that we had 40 years ago for jamming communications. But now in 
cyber space you can not only jam, but you can do a lot more to 
information, and therein lies part of the problem.
    We see that go on in civilian industry and governments 
around the world, public knowledge. The issue is from a 
military perspective, if these things are impacting our 
networks today we have a responsibility to defend those and set 
up cyber security.
    I think the steps that we're taking with CYBERCOM is to do 
just that: How do we secure these networks and how do we bring 
those pieces of the team together under one single commander to 
benefit each of the combatant commands in our Nation as a 
whole?
    Senator Udall. The old doctrine--and it's still in some 
cases a very effective doctrine--of mutually assured 
destruction or deterrence certainly could perhaps apply in a 
cyber war or cyber context when you have nation states. But 
when you have a lot of these individual actors under way, they 
may not comport with existing both written and unwritten rules 
as to how you conduct these kinds of operations. Is that a fair 
characterization of the threat we face?
    General Alexander. Senator, it is. Attribution will be very 
difficult.
    Senator Udall. We can certainly track, for example, if a 
nuclear weapon is used the perpetrator of that particular 
attack, from everything I know. There are signatures tied to 
nuclear materials. But this is a much more difficult realm in 
which to understand who may have attacked us or tried to 
penetrate our systems; is that right?
    General Alexander. That's correct, Senator.
    Senator Udall. Let me move to this term ``geek-speak'' 
which I just became familiar with. You mentioned that in 
developing policies for how far CYBERCOM can help protect 
critical infrastructure that trying to translate that into an 
understanding in the private sector is crucial. How are you 
going to convey the seriousness of the threats that now are 
framed in this geek-speak way, but the average individual or 
even the Chief Executive Officer (CEO) in some of these 
civilian operations may not fully understand?
    General Alexander. Senator, I think our CEOs of many of the 
information technology companies are seeing the threats today 
and that's becoming increasingly more public knowledge. The 
banking community, your IT infrastructure, your antivirus 
community, I think they see. They're on the leading edge.
    They have great capability, they have great talent. Therein 
lies part of the issue, the Government's going to have to 
leverage part of that talent, because they own the 
infrastructure that the Government operates on, and for 
continuity of government DHS has a tough set of issues. In 
crisis, that's where calling between DHS and DOD, that's where 
the real issue is going to go.
    I do think this is an education process, though. We're 
going to have to teach people several things: What are the 
rules and how are we operating? We have to be transparent in 
how we do it. I think that's one of the key things, so that 
they can see that what we're doing is just trying to protect 
our networks, not invade their civil liberties and privacy.
    That's a very difficult issue, because this area is so 
complex it's hard for people to see it. We have to help them 
understand that. I think the way to do that is by showing you 
and other members of the committee and the Government and 
critical infrastructure in DHS, a team, how we're doing it and 
ensure that follows the right legal framework, that we're 
complying with that, and you can see how we actually audit 
ourselves and do that.
    Senator Udall. My sense, as I close, is that in order of 
focus and understanding, we're best prepared right now on the 
dot-mil domain, dot-gov next. But then when you get into the 
dot-com, dot-org, dot-edu, those are more vulnerable systems 
and networks.
    General Alexander. They have a wider spread, Senator, so 
some of them really are where you say, and some of them may be 
amongst the best. Your IT industry and antivirus are probably 
up at the top and others like you said, yes, sir.
    Senator Udall. Thank you. I look forward to working with 
both of you when you're confirmed.
    Let me recognize the Senator from North Carolina, Senator 
Hagan.
    Senator Hagan. Thank you, Senator Udall.
    I, too, want to thank both of you for your service in the 
past and certainly for your upcoming service in these new 
positions. Admiral Winnefeld, I want to be sure that your boys 
know that I think a Senate waiver in missing school today is 
critical. I think it's very important for them to be here. The 
rest of your families I think, family support, certainly allows 
you to do a much better job. Thank you to all of the families.
    I also wanted to say I thought Senator Mikulski's 
introduction was right on. We always enjoy hearing Senator 
Mikulski.
    Admiral Winnefeld, many defense analysts have noted that 
it's time for the Nation to look beyond Goldwater-Nichols and 
institute reforms that will address the needs of a new 
strategic era in a manner that more effectively leverages all 
of the instruments of national power. As Commander of NORTHCOM, 
do you feel that there are any changes in organizational design 
or statutory authority that would enable you to more 
effectively close the seams between DOD and DHS and other 
governmental agencies with respect to creating a more 
integrated approach to homeland defense?
    Admiral Winnefeld. Senator, I think that the relationship 
between NORTHCOM and DHS is illustrative in this regard. My 
understanding from what I've learned over the last couple of 
months here is that they do have a very close relationship, a 
very close working relationship, both at the planning, exercise 
and training, and operational execution levels.
    At the planning levels, a lot of collaboration is going on, 
pre-scripted mission assignments that DHS has worked out with 
NORTHCOM, and I can go on on the planning side. On the exercise 
side, the national exercise programs are participated in by 
both organizations. Then on the operational side, on a day-to-
day operations piece, both of the command centers are connected 
together very well. There are liaison officers from DHS and 
into NORTHCOM, and vice versa.
    Then of course, in the event of a disaster or some sort of 
event that would require NORTHCOM to support DHS, NORTHCOM very 
clearly, I believe, understands its supporting role.
    I think that relationship is very strong, but we are always 
receptive to new and better ways of doing business, to include 
all of the numerous partners that are involved in homeland 
security and homeland defense.
    Senator Hagan. From the standpoint of statutory authority, 
you don't see a need for a change?
    Admiral Winnefeld. I don't think right now, Senator, we 
need any. But I will certainly keep an open mind on that, and 
I'm always willing to explore it.
    Senator Hagan. The U.S. Armed Forces responded to the 
devastating earthquake that struck Haiti in a tremendous 
fashion and we all want to give credit where credit is due. I 
think our military did great. The servicemembers provided 
support to the relief effort that included assistance with the 
preservation of order, protection for vital supplies, and the 
overhead imagery of the devastated areas. I was able several 
weeks ago to shake 200 young men's hands as they were coming 
back from Haiti and just thank them for their hard work.
    Admiral Winnefeld, in the event that an equally devastating 
earthquake or hurricane were to strike here in the United 
States, do you believe that you would have statutory authority 
to provide the same support to civil authorities which is 
essential to restoring public order in the aftermath of a 
natural disaster?
    Admiral Winnefeld. Senator, I believe that the events in 
Haiti were very instructive for us, for one thing. It was a 
very nearby reminder of the kinds of things that we're going to 
have to do in a disaster like that, heaven forbid that it 
happen inside our own country.
    I do believe that most of the authorities that are required 
are there. I think there are a couple of additional things, at 
least one, that we need to pursue. As you're probably aware, we 
are interested in having the authority for the Reserve 
component to be activated in order to support the immediate 
support to the disaster there. I think that we have a very good 
understanding with the Governors and the National Guard on that 
and I think we can come to closure on that.
    Senator Hagan. Speaking of the National Guard, during 
Tuesday's Airland Subcommittee hearing I voiced concerns over 
the Air Force decision to transfer 12 C-130 aircraft from 
various Air National Guard units to an Air Force Reserve unit 
based in Arkansas without consulting the affected adjutant 
generals or State Governors. Obviously, North Carolina is one 
of the States where this is being discussed.
    Within the total force structure, how do you intend to 
satisfy your statutory responsibilities for providing homeland 
defense and support to civil authorities at the Federal level 
without disrupting the capacity of State governments to do the 
same?
    Admiral Winnefeld. I think we have to have a very close 
partnership with the Governors and with their adjutant 
generals, and if confirmed it's one of my very highest 
priorities, to develop that relationship, my personal 
relationship with the adjutant generals, to ensure that we have 
a very clear understanding and that they know that I'm a 
believer in playing the supporting role that NORTHCOM has been 
identified statutorily with in a crisis.
    It's one of the things, if I'm confirmed, that I look 
forward the most to, is building that relationship.
    Senator Hagan. I think a lot of the individuals within 
those States are quite concerned about this request.
    General Alexander, our growing reliance upon technologies, 
such as robotics, unmanned sensors, computer-based 
communications systems, has created a vulnerability within the 
architecture of our Armed Forces and within our Government as a 
whole. Protecting the platforms and the networks that our 
Nation relies upon obviously must be treated as a priority, 
which is why I truly support the concept of CYBERCOM. I think 
we had a good discussion in my office this week about some of 
the areas of expertise that you bring to the table, as well as 
your concerns about many of the issues that I know that you'll 
be facing.
    But as Director of NSA, Chief of Central Security Service, 
and Commander of CYBERCOM, how do you envision leveraging the 
capabilities of each of these organizations in order to enhance 
our national security posture?
    General Alexander. Senator, perhaps one of the greatest 
honors I've had is to lead NSA. They have great people, 
tremendous people. Our Nation has put a lot into building NSA 
up--over 700 Ph.D.s up there that have operated in this arena. 
We built this over 60 years. Billions and billions of dollars 
have gone into it.
    Over the last 5 years we've had the privilege of having the 
Joint Functional Component Command Net Warfare and NSA 
together, so we could leverage that infrastructure and that 
talent. What I think this does for CYBERCOM is it puts our 
soldiers, sailors, airmen, and marines, the young folks that 
are coming in, with this experienced group for training, and 
when we deploy these folks forward to support regional 
combatant commands we have folks that know the best in the 
world that they can reach out--they operate at the tactical 
operational level and can talk to the strategic level, because 
in cyber space it's one network and we have to operate as one 
team.
    I think that absolutely one of the key principles is 
leveraging that human capital that we have within NSA that is 
absolutely superb, to help train, coach, and work with these in 
peacetime, crisis, and war.
    Senator Hagan. When you mentioned the 700 Ph.D.s that are 
working there, I'm curious, and I know we talked about this, 
too, the human capital. I just left an Education Subcommittee 
meeting where we were talking about the reauthorization of No 
Child Left Behind, and obviously we have to have an emphasis in 
education to be sure that you have the talented work pool that 
you need in order to conduct the requirements that are put 
before you.
    Can you discuss a little bit about the quality of the 
workforce that you're seeing and where you're recruiting 
individuals? If there is something from an education standpoint 
that we need to do as a country, I'd be very curious as to your 
thoughts on that?
    General Alexander. Senator, I'm a huge advocate of science, 
technology, engineering, mathematics (STEM). I think it's 
absolutely crucial for our country that we continue to push our 
younger folks that way. We'll work on Admiral Winnefeld's great 
two sons here. It's the future for our country, having this.
    We have tremendous, great programs out there. I have 
personally seen what the Bill Gates Foundation is doing and how 
that's going throughout the country. What that does for us is 
build the capacity, the capability that we need, not just for 
CYBERCOM and NSA, but for our country's leadership in this key 
area. That's absolutely important.
    We have partnerships from our information assurance part 
with over 100 universities around the United States to help 
come up with curriculums that meet a certain set of standards 
that DHS and NSA jointly work. It is superb because it trains 
people on how to secure networks, what are the key 
fundamentals. They don't all come to NSA. Many of those will go 
out to industry and that's good for our country. But we do get 
an awful lot of good talent.
    What I would say is we have great people, and one of the 
key things is--I am a technologist. I love computers. I have a 
new iPad. People are the key to this, and good quality trained 
people is what our Nation needs in NSA and CYBERCOM.
    Senator Hagan. Thank you, and I think that is critical. I 
think that national security is certainly interdependent on our 
education system, too. I think the STEM program is something as 
a country we have to be focused on.
    Thank you very much.
    Senator Udall. Thank you, Senator Hagan.
    I'm tempted to get a critical review of the iPad, but 
perhaps we can----
    General Alexander. Wonderful.
    Senator Udall. Wonderful. We'll put that for the record.
    General, I'd like to talk more specifically about an area 
in our infrastructure world that could be vulnerable. There's 
been a lot of excitement about smart grids. I know Senator 
Hagan's been a leader in this area, and we see some real 
potential to lessen our dependence on foreign oil, use our 
energy that we have more effectively. But at the same time, I 
understand there are some vulnerabilities that may arise 
because of the deployment of the smart grid technologies. Would 
you care to comment?
    General Alexander. Senator, I'm a proponent for the smart 
grid and using some of this, but we have to walk into this with 
our eyes wide open. I think these information assurance 
programs between industry, government, and understanding the 
full spectrum of threats that we face from individual hackers 
up to nation states in securing that are going to be key.
    We all have a responsibility on the NSA side and on the 
future CYBERCOM side to help identify flaws in those, share 
those with industry and DHS. But this is going to be an area, 
Senator, I think we're going to have to work in because it will 
always evolve. Someone will figure out a new way in and we have 
to be there to close that gap.
    Senator Udall. I was listening to you earlier talk about 
defensive capabilities that exist today and the challenge we 
face with providing defensive tools and techniques. It seems to 
me--and I'm thinking out loud, which can be dangerous--that if 
you have a kinetic environment, say at a forward operating base 
in Afghanistan, if that base were to be overrun by the enemy in 
a tactical effort, it would not threaten the entire effort we 
have under way in Afghanistan. On the other hand, if you have a 
portal or an entry point that is the site of a tactical 
incursion in cyber space and that point is overrun in a 
tactical sense, it could have strategic ramifications that are 
much greater than those we might face on the ground in a place 
like Afghanistan.
    Is that a fair characterization? Straighten me out, 
elaborate on that?
    General Alexander. Senator, that's absolutely right. 
General McChrystal has reached out to work with the other 
combatant commands, with us, with NSA, in building an Afghan 
mission network and ensuring that network is secure, because it 
will not only be for the United States but the other coalition 
partners there.
    There are a lot of issues in developing that we're working 
through as a joint team. I think you've hit it right on the 
head, because those communications bring in our intelligence, 
our operations, our logistics, and his ability to command and 
control all those forces across more than 40 countries. He has 
to ensure that those communications are reliable and protected. 
A huge issue and one of the key ones that we're working right 
now.
    Senator Udall. This could be specific to Afghanistan, but 
if you penetrate, again, a network and a system anywhere in the 
world, it could then have effects anywhere else in the world. 
You alluded to this earlier, I think, when you talked about 
what defines a country, what is ground that we have to defend. 
That server that's being attacked could be in any number of 
countries or the attacker could be based in any number of 
countries. This raises some very thorny questions, does it not?
    General Alexander. Senator, it does. Those are the issues, 
the policies, that we have to, I think, address. It brings up 
issues such as attribution. It brings up the neutrality. I 
think our response we put in there, we are trained for 
proportional and discriminate, but there are still a number of 
issues that are out there. As you look at the complexity from 
mobile devices--we mentioned the iPad--the tremendous 
capability you will have from mobile devices only makes this a 
more complex issue.
    Senator Udall. One of the arguments that has been brought 
forth about networks is that you get particular nodes cut off 
and the network itself can continue to operate. That concept's 
also being applied to kinetic activities on the ground in the 
kind of warfare we're now fighting. Would you elaborate a 
little bit more on that, that point as well?
    General Alexander. Senator, I think one of the difficult 
parts that we'll have is what are the actions of the adversary 
on our network? Is it exploitation or attack? Who is it, and 
attributing it and their intent, in time to come up with a 
coherent response. The easiest and the most important probably 
is the security aspects of it.
    If a system is exploited or has an infection, closing that 
off is one of the key things that we do early on, segregating 
that so it can't infect other systems. The network can operate 
with several nodes out. That's the intent of a network for the 
future. But it also causes concern of what is the adversary's 
intent, what's his game plan, does he have one. These are tough 
issues, especially when attribution and neutrality are brought 
in, and trying to figure out what's come in, was it a hacker, 
was it an annoyance, or was this a real attack?
    Senator Udall. The potential to generate an escalating 
conflict is not insignificant, much like we saw during the Cold 
War era with nuclear weapons. I take your cautions with real 
seriousness.
    Admiral, I haven't allowed you an opportunity to speak. Did 
you have any comments? I'm going to bring this hearing to a 
close here shortly, but I wanted to see if you had any 
additional thoughts.
    Admiral Winnefeld. Yes, sir. I was just reflecting on the 
fact that some of the questions you asked were very insightful 
in the sense of deterrence against a hard-to-deter nation in 
the cyber world, an empowered individual in the cyber world the 
same. We see the same thing with the sorts of terrorist attacks 
with potential nuclear, chemical, biological, or radiation.
    I would also echo your point on the education piece. 
Educating citizens about the cyber world, the same thing 
applies in the kinetic world as well. This phenomenon of a 
super-empowered individual is something that we have to be very 
watchful of.
    Senator Udall. It's a great concern to all of us. That 
super-empowered individual could have a goal of trying to 
trigger a significant conflict between nation states or other 
entities while he or she stands to the side chortling, with 
their mission to create chaos, conflict, tragedy, and all the 
rest that we've seen in the toolbox that terrorists bring. So 
this is very important work you are doing.
    One final question. General, I think you're going to be 
charged with further integrating and understanding these title 
10 and title 50 responsibilities, are you not? We haven't 
answered all of those questions yet. You've certainly been at 
the forefront at NSA in taking on some of those challenges. 
You've at times received some criticism, I think we all have, 
because these are somewhat different missions, but they're 
certainly interlinked.
    Would you care to comment?
    General Alexander. Senator, one of the key things that 
we're doing is we will have a unique set of authorities, a 
unique staff for CYBERCOM operating under title 10, and the 
NSA, Central Security Service under title 50. We do have some 
title 10 responsibilities. We are a combat support agency. We 
do forward deploy people to help the regional combatant 
commanders. But there will be two distinct staffs, with 
distinct authorities and responsibilities for how we operate 
for intelligence, for information assurance on the NSA side, 
and for CYBERCOM how we defend and secure our networks and 
conduct cyber space operations if directed.
    Senator Udall. I thank you for your focus on that. As 
somebody who's a strong supporter of our civil liberties, who 
believes that Ben Franklin had it right, to paraphrase him, 
when he said: A society that would sacrifice essential 
liberties for short-term security deserves neither. I think 
you're on the forefront, and Admiral Winnefeld as well, of 
protecting those civil liberties, but also surveiling and 
developing intelligence that lets us protect those very 
freedoms that we hold so dear.
    Thank you both for being here. I'm going to bring the 
hearing to a close. Admiral, I think we ought to send one of 
your boys over to the U.S. House of Representatives to 
demonstrate how to behave properly, and we'll keep one here in 
the U.S. Senate. It's been wonderful to have your family here, 
and General Alexander as well.
    We will keep the record open for additional questions for a 
period of time. But with that, this hearing is adjourned. Thank 
you very much for being here.
    [Whereupon, at 11:17 a.m., the committee adjourned.]

    [Prepared questions submitted to VADM James A. Winnefeld, 
Jr., USN, by Chairman Levin prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff. These 
reforms have also vastly improved cooperation between the Services and 
the combatant commanders, among other things, in joint training and 
education and in the execution of military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. I have served in various joint capacities throughout my 
naval career and witnessed firsthand the tremendous advancements this 
landmark legislation has created, not only among our Nation's military 
and civilian leadership, but as a whole within the joint services and 
interagency environment. As such, I do not see an immediate need to 
change the provisions of this legislation. However, if confirmed, I 
will take a hard look at ways Northern Command (NORTHCOM) does business 
to determine if changes in the legislation are warranted.
    If so, what areas do you believe might be appropriate to address in 
these modifications?
    Answer. Not applicable.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commander, NORTHCOM?
    Answer. The Commander of NORTHCOM is responsible for detecting, 
deterring and preventing threats to the people and territory of the 
United States; providing military support to Federal, State and local 
authorities in response to natural or manmade disasters or for other 
missions, as directed by the President or the Secretary of Defense; and 
executing theater security cooperation programs with Mexico, Canada and 
the Bahamas.
    Question. What is your understanding of the duties and functions of 
the Commander, North American Aerospace Defense Command (NORAD)?
    Answer. The Commander of NORAD is responsible to both the President 
of the United States and the Canadian Prime Minister for aerospace 
warning, aerospace control and maritime warning of North America. The 
Commander of NORAD provides tactical warning and attack assessment to 
the Governments of the United States and Canada through an integrated 
picture of any aerospace threat.
    Question. What background and experience do you possess that you 
believe qualify you to perform these duties?
    Answer. It has been my honor to serve for over 30 years in a 
diverse set of positions that I believe have prepared me to command 
NORTHCOM and NORAD. Given my background as a naval aviator, I will 
bring both an air and maritime perspective to the two commands. I have 
experience on Joint Staff, Combatant Command, and Service staffs, 
served as both a joint and combined commander, and have worked closely 
with Congress on a variety of issues. In my current position as the 
Director for Strategic Plans and Policy on the Joint Staff, I have 
gained additional insight into the conduct of joint, combined and 
international operations; the duties of a combatant commander; the 
importance of interagency teamwork, particularly in response to natural 
disasters; and the critical role of the National Guard and Federal 
Reserve forces in defending our homeland and supporting civil 
authorities in times of crisis.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Commander, 
NORTHCOM and Commander, NORAD?
    Answer. If confirmed, I intend to capitalize on every opportunity 
to further my understanding of NORTHCOM's homeland defense and civil 
support operations; specifically, how the National Guard and Federal 
Reserve forces contribute to those missions and the whole-of-government 
approach to responding to natural and manmade disasters. This includes 
maintaining strong relationships with The Adjutants General, State 
Governors, and the leadership of key Federal agencies.
    I also intend to deepen my growing knowledge of the threat posed to 
the United States and our neighbors by drug trafficking organizations, 
as well as existing strategies to defeat them.
    If confirmed in my role as Commander of NORAD, I will continue to 
expand my knowledge of NORAD's aerospace warning, aerospace control, 
and maritime warning operations and how the command integrates with its 
partners to detect, intercept and, if necessary, engage any air-
breathing threat to North America. Additionally, I will receive the 
same training provided to other NORAD senior leaders required to direct 
the actual, formal process of engaging aerospace threats to our Nation.
                             relationships
    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense 
and from the Secretary of Defense to the commanders of the combatant 
commands. Other sections of law and traditional practice, however, 
establish important relationships outside the chain of command. Please 
describe your understanding of the relationship of the Commander, 
NORTHCOM, to the following officials:
    Question. The Secretary of Defense.
    Answer. The Commander of NORTHCOM has direct title 10 
responsibility to the Secretary of Defense for accomplishing the 
missions assigned to the command through the Unified Command Plan. If 
confirmed, I will ensure NORTHCOM continues the close working 
relationship it currently has with the Secretary of Defense.
    Question. The Deputy Secretary of Defense.
    Answer. The Commander of NORTHCOM provides the Deputy Secretary of 
Defense information required to accomplish his duties and 
responsibilities as directed by the Secretary of Defense. The Commander 
of NORTHCOM also coordinates with the Deputy Secretary of Defense on 
major homeland defense and civil support issues.
    Question. The Under Secretary of Defense for Policy.
    Answer. The Under Secretary of Defense for Policy serves as the 
principal staff assistant and advisor to the Secretary and Deputy 
Secretary of Defense for all matters on the formulation of national 
security and defense policy and the integration and oversight of DOD 
policy and plans to achieve national security objectives. She is also a 
key advocate for NORTHCOM's requirements. As such, the Commander of 
NORTHCOM coordinates and exchanges homeland defense, support of civil 
authorities, and security cooperation information with the Under 
Secretary of Defense for Policy for use in formulating planning 
guidance and policy.
    Question. The Under Secretary of Defense for Intelligence (USD(I)).
    Answer. The USD(I) is the principal staff assistant and advisor to 
the Secretary and Deputy Secretary of Defense regarding intelligence, 
counterintelligence, security, sensitive activities, and other 
intelligence-related matters. The Commander of NORTHCOM works closely 
with the Under Secretary of Defense for Intelligence to ensure the 
command has predictive and actionable threat estimates and timely 
warning of worldwide threats to the homeland.
    Question. The Assistant Secretary of Defense for Homeland Defense 
and Americas' Security Affairs.
    Answer. The Commander of NORTHCOM routinely works with the 
Assistant Secretary of Defense for Homeland Defense and Americas' 
Security Affairs on significant matters regarding homeland defense, 
support of civil authorities, and security cooperation.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman serves as the principal military advisor to 
the President, the Secretary of Defense, and the National Security 
Council. The Goldwater-Nichols DOD Reorganization Act of 1986 permits 
the President to place the Chairman in the communications chain, and 
oversight of the activities of combatant commanders may be delegated by 
the Secretary of Defense to the CJCS. In concert with this authority, 
the Commander of NORTHCOM communicates closely with the Chairman to 
enable him to perform his duties. As the current Director for Strategic 
Plans and Policy for the Joint Staff, I have been deeply involved in 
interactions between the Chairman and combatant commanders, and 
understand the process well.
    Question. The Secretaries of the Military Departments.
    Answer. The Secretaries of the Military Departments are responsible 
for organizing, training, and equipping forces for assignment to the 
Commander of NORTHCOM and other combatant commanders. The Commander of 
NORTHCOM coordinates with the Secretaries to ensure homeland defense 
and civil support requirements are met. This advocacy is particularly 
important for ensuring the Reserve component is ready to answer the 
call here at home, and for ensuring speed of response in times of 
crisis.
    Question. The Chiefs of Staff of the Services.
    Answer. The Commander of NORTHCOM communicates with the Chiefs of 
Staff of the Services to support their responsibility for organizing, 
training and equipping forces to accomplish homeland defense and civil 
support missions. In addition, the NORTHCOM Commander seeks the advice 
and judgment of the Chiefs of Staff on matters of mutual interest, and 
has a key relationship with the Chiefs on matters of force protection 
within his area of responsibility. If confirmed, I intend to rely on 
the Service Chiefs as valuable sources of advice.
    Question. The other combatant commanders, particularly U.S. 
Southern Command (SOUTHCOM).
    Answer. The Commander of NORTHCOM maintains regular dialogue 
concerning issues of mutual interest and frequently interacts with the 
other combatant commanders to support and execute U.S. National 
Military Strategy. If confirmed, I intend to further strengthen 
NORTHCOM's established, vital relationships with the other combatant 
commanders. Of note, NORTHCOM has an extremely close relationship with 
SOUTHCOM and recently deployed more than 100 of its headquarters staff 
to SOUTHCOM headquarters and Joint Task Force Haiti in support of the 
catastrophic January earthquake. NORTHCOM also maintains particularly 
close relationships with U.S. Strategic Command, U.S. Transportation 
Command, U.S. Special Operations Command, and U.S. Pacific Command 
(PACOM).
    Question. The Chief of the National Guard Bureau.
    Answer. Strong teamwork between the National Guard Bureau and 
NORTHCOM is critical to defending our homeland and supporting civil 
authorities. In my current position as Director for Strategic Plans and 
Policy for the Joint Staff, I have developed a strong belief in the 
vitality of the National Guard, and enjoy an excellent relationship 
with the Chief of the National Guard Bureau, General Craig McKinley. If 
confirmed, I look forward to further advancing this key relationship so 
together we may best serve the American people.
    Question. If confirmed, in carrying out your duties, how would you 
work with the Department of Homeland Security, the Homeland Security 
Council, and other Federal agencies, as well as State and local 
authorities and representatives from the private sector?
    Answer. From my vantage point on the Joint Staff, I have observed 
NORTHCOM successfully operate within the most complex interagency 
network of any combatant command. If confirmed, I will establish my own 
relationships with--and ensure NORTHCOM continues to work issues 
closely and as appropriate with--the National Security Council; the 
Department of Homeland Security; the various other Federal departments 
and agencies; State, tribal and local authorities; and the private 
sector. I look forward to collaborating with every possible partner to 
defend the homeland while ensuring that NORTHCOM is fully prepared to 
assist civil authorities in support of the primary Federal agency in 
accordance with the National Response Framework and as directed by the 
President and the Secretary of Defense.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the next Commander, NORTHCOM?
    Answer. I believe one of our Nation's most serious security 
challenges is protecting the United States from an attack by violent 
extremists using weapons of mass destruction; accordingly, this is one 
of NORTHCOM's enduring challenges. I am increasingly concerned by the 
evolving nature of this extremist threat towards smaller scale, hard-
to-detect operations. This threat is determined and patient, will 
attempt to use our freedoms against us, will search for any path to 
produce violent events, and harbors no qualms about killing innocent 
men, women, and children to achieve its objectives.
    I am also concerned about the corrosive effect on our nation's 
security of drug trafficking, including its associated violence both 
inside Mexico and along our border. If confirmed, I will ensure 
NORTHCOM continues to support a whole-of-government approach on both 
sides of our border with Mexico and in strengthening Mexico's ability 
to reduce and minimize this violence by dismantling and defeating 
transnational drug trafficking organizations.
    In the longer run, I am concerned about the potential acquisition 
by rogue nations, such as North Korea and Iran, of the combination of a 
nuclear weapons capability and the capacity to deliver it to our 
shores. Finally, the constant potential for a major natural disaster is 
something for which the NORTHCOM Commander must always be prepared.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will do everything in my power to ensure 
our Nation is prepared to handle the full spectrum of threats to our 
homeland. I will be an advocate for the sense of urgency required to 
maintain vigilance against these threats; nurture a culture that 
continuously challenges and improves our capability, particularly in 
the area of information sharing with our partners; and continue 
improvements to NORTHCOM's rigorous exercise program. I will examine 
the command's homeland defense and civil support plans to ensure they 
address evolving threats and are tailored to need. I will continue to 
strengthen NORTHCOM's relationships with its National Guard, 
interagency, State, local, tribal, and international partners to ensure 
the whole is greater than the sum of the parts.
                      mission of northern command
    Question. What is the mission of NORTHCOM?
    Answer. NORTHCOM anticipates and conducts homeland defense and 
civil support operations within its assigned area of responsibility in 
order to defend and secure the United States and its interests. In 
addition, the command is responsible for executing theater security 
cooperation with Mexico, Canada, and the Bahamas, with full respect for 
their sovereignty.
    Question. How does NORTHCOM's mission relate to the mission of the 
Department of Homeland Security?
    Answer. The Department of Homeland Security is responsible for 
guarding against terrorism; securing our borders; enforcing our 
immigration laws; and improving our readiness for, response to, and 
recovery from natural and man-made disasters. NORTHCOM is responsible 
for detecting, deterring, and preventing external threats to the United 
States, and when directed by the President or Secretary of Defense, 
providing defense support of civil authorities (DSCA). NORTHCOM 
cooperates closely with--and for DSCA missions will be in support of--
the Department of Homeland Security in the execution of its missions in 
accordance with direction from the President or the Secretary of 
Defense.
    Question. Are there circumstances under which you would anticipate 
NORTHCOM would have the lead Federal role in responding to a terrorist 
incident?
    Answer. Normally, the DOD (including NORTHCOM) will be in support 
of agencies such as the Department of Homeland Security, the Department 
of Justice, and the Federal Bureau of Investigation in preventing, 
countering, and responding to terrorist incidents in the United States. 
However, the President may determine that a terrorist incident rises to 
the level of an armed attack against the United States and therefore 
direct that DOD take the lead in the defense of the Homeland. The 
Commander of NORTHCOM, as the Geographic Combatant Commander, would 
likely be assigned as the supported DOD commander.
    Question. Or do you believe NORTHCOM would operate only in support 
of other Federal departments and agencies?
    Answer. See previous answer.
    Question. What responsibility, if any, does NORTHCOM have with 
respect to the Defense Critical Infrastructure Program?
    Answer. In accordance with the Secretary of Defense's January 2010 
directive on critical infrastructure, as a regional combatant command, 
NORTHCOM is responsible for preventing or mitigating the loss or 
degradation of DOD-owned critical assets within its area of 
responsibility.
                       organization and authority
    Question. NORTHCOM has been assigned responsibility for force 
protection and antiterrorism within its area of responsibility.
    What actions would you take, if confirmed, to mitigate force 
protection vulnerabilities, and what force protection challenges do you 
anticipate you would face within NORTHCOM's area of responsibility?
    Answer. If confirmed, I will employ an all-hazards approach to 
force protection. I also understand that it is challenging to strike 
the right balance between threat mitigation, responsible stewardship of 
resources, and installation efficiency--areas that depend upon robust 
DOD and interagency coordination to provide for mission assurance at 
over 2,500 installations located in the NORTHCOM area of 
responsibility. If confirmed, I will make a concerted effort to 
determine where we stand on this key issue, and continue the command's 
ongoing efforts to mitigate force protection vulnerabilities.
    Question. What actions would you take, if confirmed, to ensure 
efficiency in the use of funding for force protection and to prevent 
unnecessary duplication of efforts between NORTHCOM, the Military 
Services, and the Office of the Assistant Secretary of Defense for 
Homeland Defense?
    Answer. If confirmed, I will emphasize coordination among NORTHCOM, 
the Joint Staff, the Services, and the Assistant Secretary of Defense 
for Homeland Defense and Americas' Security Affairs on force protection 
planning and resourcing to maximize efficiencies and preclude redundant 
efforts. In addition, I will focus the command's ongoing efforts to 
share force protection information to support critical analysis, as 
well as employing force protection and biometric technologies that are 
state-of-the-art and cost effective.
    Question. What specific forces, if any, have been assigned to 
NORTHCOM?
    Answer. The forces assigned to NORTHCOM are those inherent within 
the Headquarters staff, as well as the staffs of the subordinate/
component commands listed below:

        U.S. Army North
        Marine Forces North
        Air Forces Northern
        Joint Task Force Civil Support
        Joint Task Force North
        Joint Force Headquarters National Capital Region

    Question. How has the assignment of forces to NORTHCOM changed 
since NORTHCOM was established on October 1, 2002?
    Answer. On 1 October 2003, when Full Operational Capability was 
achieved, the forces assigned to NORTHCOM consisted of the Service 
component headquarters and two standing Joint Task Force headquarters. 
In 2004, the command stood up a third Joint Task Force, Joint Force 
Headquarters National Capital Region.
    On 1 October 2008, NORTHCOM was assigned forces in support of the 
standing Chemical, Biological, Radiological, Nuclear, and High Yield 
Explosive (CBRNE) Consequence Management Execute Order for a period of 
12 months (October 2008 to September 2009). On 1 October 2009, the 
status of the CBRNE Consequence Management forces was changed back to 
allocated vice assigned, per the 2010 Global Force Management 
Allocation Plan.
                                 norad
    Question. What is the mission of the NORAD?
    Answer. NORAD is charged with the missions of aerospace warning, 
aerospace control, and maritime warning for North America. Aerospace 
warning includes the detection, validation, and warning of attack 
against North America whether by aircraft, missiles, or space vehicles, 
through mutual support arrangements with other commands. Aerospace 
control includes ensuring air sovereignty and air defense of the 
airspace of the United States and Canada. Maritime warning consists of 
processing, assessing, and disseminating maritime intelligence and 
information, and warning of maritime threats to or attacks against, 
North America.
    Question. How has NORAD's mission evolved since the creation of 
NORTHCOM?
    Answer. Since NORTHCOM stood up in 2002, NORAD's mission expanded 
in two areas: maritime warning and ballistic missile warning. The April 
2006 NORAD Agreement renewal added a maritime warning mission, which 
entails a shared awareness and understanding of the activities 
conducted in U.S. and Canadian maritime approaches, maritime areas and 
inland waterways. NORAD also provides ballistic missile warning to 
NORTHCOM in support of Ground-Based Midcourse Defense operations. 
Additionally, NORAD has been instrumental in rapidly developing a close 
operational relationship between NORTHCOM and Canada Command, the 
Canadian equivalent to NORTHCOM, which was established in 2005.
    Question. How does NORAD's mission relate to NORTHCOM's mission?
    Answer. NORTHCOM and NORAD are separate commands; neither is 
subordinate to the other. The commands have complementary missions, 
operate within a common security environment, and share a largely 
integrated headquarters staff. NORTHCOM is committed to the defense of 
the United States and NORAD is committed to the air defense of and 
maritime warning for both the United States and Canada.
    Question. How does NORAD's mission relate to the mission of the 
Department of Homeland Security?
    Answer. NORAD, by performing its bi-national defense mission, 
provides significant but indirect support to the Department of Homeland 
Security by deterring threats in the air and maritime domains.
    Question. Do you believe that NORAD should continue to have a 
combined operations and planning staff, and a consolidated command 
center, with NORTHCOM? Why or why not?
    Answer. I understand that the NORAD and NORTHCOM staffs are fully 
integrated, with the exception of separate operations directorates, and 
that both commands believe this is effective. In my experience, where 
organizations are integrated well, greater effectiveness and efficiency 
can be the result. If confirmed, I will examine whether this 
organizational structure maximizes the operational effectiveness of 
both commands.
                       northcom joint task forces
    Question. Since the establishment of NORTHCOM, several multi-
service task forces, e.g., Joint Task Force-Civil Support (JTF-CS), 
Joint Task Force-North (JTF-North), have been placed under its 
authority.
    What is the current status of the Joint Task Force organizations 
under NORTHCOM in terms of organization, planning, personnel 
allocation, and capability?
    Answer. NORTHCOM currently has three Joint Task Forces:

        <bullet> Joint Task Force Civil Support: Aligned under U.S. 
        Army North; provides command and control of DOD incident 
        management forces that respond to catastrophic CBRNE events.
        <bullet> Joint Task Force North: Aligned under U.S. Army North; 
        supports counterdrug and border patrol support along the United 
        States-Canada and southwestern U.S. border, and other 
        operations against transnational threats.
        <bullet> Joint Force Headquarters National Capital Region: 
        Provides land-based homeland defense, civil support, and 
        incident management in the National Capital Region.

    Joint Task Forces under NORTHCOM's authority are well-manned multi-
service organizations that plan and execute Homeland Defense and 
Defense Support of Civil Authorities operations, as directed by the 
President or the Secretary of Defense. Joint Task Force operational 
planning is synchronized through continuous development and 
coordination of Joint Task Force plans that support NORTHCOM concept 
plans. These Task Forces further develop and refine plans, and exercise 
with HQ NORTHCOM, to enhance execution of existing and emergent 
homeland defense and civil support missions.
                       counter-narcotics efforts
    Question. Each year the Department of Defense (DOD) spends several 
hundred million dollars to counter the flow of illegal drugs into the 
United States, yet the availability of drugs on the street has not been 
significantly reduced, and some countries continue to face internal 
security challenges in responding to this threat. Some of these funds 
are executed within the NORTHCOM AOR, and some have questioned the 
effectiveness and focus of our counter-narcotics programs.
    What role does NORTHCOM play in the DOD's overall counterdrug 
mission and organization?
    Answer. DOD supports the counterdrug mission in both domestic and 
international environments, fully respecting jurisdictional and 
sovereignty restrictions in each area. NORTHCOM plays an integral role 
in these efforts, including cooperating closely with SOUTHCOM and PACOM 
in sharing information and situational awareness of drug-related 
threats to U.S. national security.
    Question. NORTHCOM's Joint Task Force North provides DOD support of 
civil authorities for U.S. law enforcement agencies in counternarcotics 
operations, as well as working with Mexican military and civil 
authorities along the border to enhance their capability. NORTHCOM is 
working with Mexico as it continues to build their overall capability 
and capacity to fight drug trafficking organizations as part of DOD's 
support to the Merida Initiative. NORTHCOM also partners with Canada 
and with the Bahamas on counterdrug matters.
    Question. What is your assessment of the ongoing counternarcotics 
operations within the NORTHCOM AOR and the geographic seam NORTHCOM 
shares with U.S. Southern Command (SOUTHCOM)?
    Answer. Interdicting drug flow in the Western Hemisphere is a 
complex, ever-evolving effort against a determined and resourceful 
adversary. Substantial efforts by U.S. Federal civilian agencies and 
State and local law enforcement agencies, supported by DOD, along with 
efforts by military and police forces from other nations, have made 
progress. However, demand for drugs remains a problem within our 
country, and the United States needs to continue its whole-of-
government efforts to counter the flow of drugs coming north and the 
flow of weapons and money to the south. I view this as a major 
problem--where NORTHCOM can contribute to solving it, it should be an 
important part of the command's mission. If confirmed, I will ensure 
NORTHCOM continues to work with interagency and international partners 
on all fronts to reduce the flow of narcotics into and within the 
NORTHCOM area of responsibility.
    The geographic seam between SOUTHCOM and NORTHCOM is a key route 
for drugs to enter Mexico on their way to the United States My 
understanding is that the two commands work closely together on this 
issue. Based on our collaboration in the aftermath of the Haiti 
earthquake, I have developed a close working relationship with General 
Doug Fraser, the Commander of SOUTHCOM. If confirmed, I fully expect to 
continue our work together to ensure a seamless effort across the 
border between the two areas of responsibility, to include further 
strengthening the relationships among Joint Interagency Task Force-
South (JIATF-S), NORTHCOM's Intelligence Directorate, and JTF-North.
    Question. How are counterdrug operations coordinated across 
combatant command boundaries with PACOM?
    Answer. Counterdrug operations, including those occurring on the 
boundaries with PACOM, are coordinated through sharing of intelligence 
information among combatant commands, interagency partners, the 
National Interdiction Centers, and PACOM's Joint Interagency Task 
Force-West. I believe that synchronization among combatant commands is 
a critical ingredient of our Nation's unity of effort in counterdrug 
operations. If confirmed, I will continue to nurture the relationship 
among NORTHCOM, PACOM, and SOUTHCOM regarding counter-drug information 
sharing and operations.
    Question. If confirmed, what changes, if any, would you propose?
    Answer. If confirmed, I look forward to working with the other 
combatant commanders and interagency partners NORTHCOM supports to 
identify and eliminate any operational seams to improve counterdrug 
operations.
    Question. How would you recommend that the success of the 
Department's counter-narcotics programs be measured?
    Answer. I believe that success in counternarcotics is not easy to 
quantify. Traditional metrics, such as the price of drugs for sale on 
the street, are the product of many different factors, and their 
exclusive use could lead to false optimism or pessimism over our 
efforts. If confirmed, I intend to further explore this topic to 
determine whether there are useful input and output metrics that could 
be applied to NORTHCOM's counternarcotics efforts.
    Question. Do you believe that the current programs that the 
Department is pursuing are the most effective for the region, or should 
the Department's efforts focus elsewhere?
    Answer. DOD's experience in countering insurgent and violent 
extremist networks is useful in countering drug trafficking networks, 
as all of these networks move people, material, money and information 
using clandestine methods. Accordingly, DOD's contribution to 
interagency counternarcotics efforts is expanding. DOD normally takes a 
supporting role to the interagency in this arena. If confirmed, I look 
forward to forming my own assessment, and assisting DOD in determining 
which counternarcotics programs are most effective in the region to 
improve operational mission support to law enforcement and theater 
security cooperation efforts in combating these threats.
    Question. Compared to other missions that you would be responsible 
for as Commander, NORTHCOM, if confirmed, where would you rank counter-
narcotics in terms of its contribution to our national security and the 
ability of DOD to make a meaningful contribution?
    Answer. NORTHCOM conducts missions to defend and secure the United 
States and its interests--these are no-fail missions. Drug trafficking 
directly affects our national security in several ways, including its 
corrosive effects within our society, violence along our border, and 
violence that severely impacts our neighbor and friend, Mexico. As 
such, I would rank contributing to counternarcotics efforts very high 
among NORTHCOM's missions. If confirmed, and within appropriate 
limitations of jurisdiction, sovereignty, and available resources, I 
will continue NORTHCOM's efforts to support its domestic partner 
agencies and partner nations to address illicit narcotics and 
transnational threats to the Homeland.
    Question. There has been a surge in drug-related violence in Mexico 
over the past year, which has increased the risk of cross-border 
violence into the United States. Much of the drug supply comes into 
Mexico across its southern border. The vast majority of Latin America, 
however, is in the SOUTHCOM AOR, so the security situation in Mexico is 
an example of the need for a well-coordinated effort between NORTHCOM 
and SOUTHCOM.
    What is your vision of how SOUTHCOM and NORTHCOM could work 
together in a fully coordinated and seamless fashion with respect to 
Mexico and other security challenges?
    Answer. While I believe the geographic boundary between NORTHCOM 
and SOUTHCOM is appropriately placed, it is absolutely critical that 
these two commands work effectively together on common security 
threats, including counternarcotics. This will require: a strong 
partnership based on personal relationships; overall and theater 
security cooperation strategies that mesh closely together; deep 
information sharing enabled by quality liaison officers and modern 
technology; and a willingness to allow the opposite command to relate 
to partners in each other's area of responsibility. If confirmed, I 
look forward to capitalizing on the excellent working relationship I 
developed with General Doug Fraser, the SOUTHCOM Commander, during 
operations in the aftermath of the Haiti earthquake.
    Question. The United States and Mexico announced in 2007, the start 
of a multiyear, bilateral security agreement called the Merida 
Initiative. This Initiative aims to combat drug trafficking and other 
criminal activity along the U.S.-Mexican border, as well as in Central 
America. The U.S.-Mexican border is viewed as especially important for 
U.S. counternarcotics efforts because Mexico is currently the primary 
point of entry for cocaine and other drug shipments smuggled into the 
United States.
    What is your understanding of the Merida Initiative as it relates 
to NORTHCOM?
    Answer. It is my understanding that NORTHCOM plays a vital role in 
coordinating acquisition, contracting, and delivery of items provided 
through the Foreign Military Sales (FMS) and Foreign Military Financing 
(FMF) Programs within the auspices of the Merida Initiative. These 
items improve the Mexican military's ability to deploy rapid-reaction 
forces quickly in support of police operations against drug trafficking 
organizations, and to conduct maritime surveillance in an effort to 
deny the use of the eastern Pacific and western Caribbean to 
transnational criminal organizations, including drug traffickers and 
potential terrorists.
    Additionally, NORTHCOM assists its Mexican military partners--while 
respecting Mexican sovereignty--with focused training, equipment, and 
related support intended to help reduce violence, weaken the drug 
trafficking organizations, ensure rule of law and respect for human 
rights, and set the conditions for the eventual operational takeover of 
the drug war by Mexican law enforcement authorities.
    Question. What is your view of the appropriate role of DOD in 
countering transnational drug cartels and gangs?
    Answer. Countering drug trafficking organizations is a 
transnational, trans-border effort that must be approached in a 
holistic, ``whole-of-governments'' manner. The DOD plays largely a 
supporting role in countering drug trafficking organizations and gangs 
by working closely with both domestic and international partners to 
counter these transnational threats.
    In accordance with Federal statutes, NORTHCOM provides military 
support to Federal law enforcement agencies to assist in the 
identification and interdiction of transnational threats within and 
along the approaches to the United States. NORTHCOM also supports 
Federal law enforcement agencies through information collection, 
analysis, fusion, and sharing appropriate information.
    Through its Theater Security Cooperation efforts, NORTHCOM is 
focused on building partner capability and capacity with Mexico and The 
Bahamas, and on enhancing coordination and interoperability with 
Canada, in order to develop and strengthen mutually beneficial 
partnerships to counter transnational drug trafficking organizations 
and gangs. NORTHCOM also works closely with its partner combatant 
commands through common strategies and information sharing in order to 
mutually enhance each command's effectiveness in these efforts.
             security relationships with canada and mexico
    Question. The NORTHCOM area of responsibility includes the land 
areas of the United States, Canada, and Mexico. The binational NORAD 
Command ensures close cooperation between the United States and Canada 
on security matters. NORTHCOM has been working with the Mexican 
military on security cooperation related to Mexico's efforts to counter 
drug trafficking and violence.
    What is your assessment of the current security relationship 
between the United States and Canada?
    Answer. I believe that our security relationship with Canada is 
excellent at all levels and in every Department of the U.S. Government. 
This relationship is characterized by extraordinary trust and 
confidence, evidenced by the long standing cooperation our two nations 
have enjoyed through the NORAD agreement. Canada has been an absolutely 
vital partner in the International Security Assistance Force's role in 
Afghanistan, conducting operations and making enormous sacrifices in 
some of the most challenging areas of that country. My understanding is 
that NORTHCOM also has a very strong relationship with its Canadian 
counterpart, Canada Command. If confirmed, I look forward to 
contributing to the success of this longstanding partnership.
    Question. What is your assessment of the current security 
relationship between the United States and Mexico?
    Answer. In my opinion, the current security relationship on a 
military-to-military level between the United States and Mexico is the 
best it has ever been. This was recently exemplified by the 30 March 
2010 Merida Initiative High-Level Consultative Group discussions held 
in Mexico City at the highest levels of our governments, which included 
the defense minister equivalents from both countries, as well as our 
Chairman of the Joint Chiefs of Staff. It is also reflected by 
military-to-military discussions that continue to grow in substance and 
importance, to include recently-held U.S.-Mexico Defense Bilateral 
Working Group discussions in Washington, DC.
    Mexico is a critical partner that has demonstrated its commitment 
to combating drug trafficking organizations that affect the safety and 
security of North America. President Calderon and the Mexican military 
have been on the leading edge of a 3-year national effort to disrupt 
the drug trafficking organizations and curtail narco-violence in 
Mexico. NORTHCOM security cooperation activities continue to be a key 
and successful element of fostering a new era of U.S. Government-
Government of Mexico collaboration.
    Question. If confirmed, what would be your goals as Commander of 
NORTHCOM for improving security relations with Mexico, and how would 
you plan to achieve them?
    Answer. If confirmed, I will continue the positive momentum 
NORTHCOM has established in this relationship. This will include: 
developing personal relationships with my counterparts informed by an 
understanding of their concerns; extending this level of trust downward 
through our respective chains of command; working to accelerate 
delivery of equipment under the Merida initiative, as well as other 
capabilities; and continuing to provide training and information 
sharing requested by the Mexican authorities. I will capitalize on past 
and ongoing successes and look for new and innovative ways to build 
upon these achievements.
    Question. What is your assessment of the security challenges to the 
United States posed by drug-related violence in Mexico?
    Answer. In addition to the corrosive effects of drugs within our 
own cities, I believe the violence associated with drug trafficking in 
Mexico is a significant security challenge to the United States through 
its potential to spill over the border and by virtue of its severe 
negative impact on the internal security of a neighbor and friend. 
Mexican criminal organizations have been responsible for murders 
(including U.S. personnel who work in Mexico), kidnappings, extortion, 
human smuggling, arms and drug trafficking, and other violent 
activities.
    It is my understanding that narco-violence increased in 2009, with 
some reports indicating 6,587 drug-related murders, up from 5,207 drug-
related murders in 2008. Despite the increase in violence, President 
Calderon and the Mexican military are fighting back with notable 
successes, including the attempted apprehension of Arturo Beltran Leyva 
(Head of the Beltran Leyva Cartel, who was killed in the ensuing gun 
battle), the capture of his brother Carlos Beltran Leyva, and the 
arrest of Roberto Sanchez Arras, the one-time number three man in the 
Juarez Cartel. It is my belief that the U.S. Government should continue 
to provide security assistance to Mexico to build its capability and 
capacity to counter the violence that poses such a threat to their 
society.
                        northcom-state relations
    Question. NORTHCOM has the primary military responsibility to 
provide defense support to civil authorities (DSCA) when directed by 
the President and the Secretary of Defense, including consequence 
management operations. Such military assistance would support Federal 
assistance to State and local emergency response units.
    Do you believe it is important for NORTHCOM to have an 
understanding of the emergency response capabilities and plans of the 
various States before a crisis arises, in order to optimize NORTHCOM's 
consequence management support to civil authorities?
    Answer. Yes. I understand NORTHCOM already works collaboratively 
with the Federal Emergency Management Agency (FEMA), National Guard 
Bureau, and the States to anticipate DOD consequence management support 
to civil authorities and to coordinate potential requirements for 
effective consequence management. I have also observed that through 
NORTHCOM's Component Command, U.S. Army North, and their assigned 
Defense Coordinating Officers, that NORTHCOM works with the FEMA 
regional offices and States to improve relationships, information 
exchange, and mutual understanding. If confirmed, I look forward to 
participating in the Council of Governors meetings to further 
understand the States' capabilities and how DOD can best prepare to 
assist States in an emergency.
    Question. If so, how would you plan to ensure that NORTHCOM has 
sufficient knowledge of State emergency response capabilities, 
including capabilities of National Guard units, and a good working 
relationship with State emergency response leaders?
    Answer. If confirmed, I will ensure NORTHCOM continues its progress 
with FEMA, the National Guard Bureau, and the States in planning and 
integrating a whole-of-government approach to natural disaster 
response. In addition, if confirmed, I will examine NORTHCOM's staff 
substructure to determine if the command is organized optimally for 
this important mission area.
                      force provision for northcom
    Question. NORTHCOM has the mission of conducting military 
operations for homeland defense and, when directed by the President or 
Secretary of Defense, for providing military assistance to civil 
authorities, including consequence management for natural disasters and 
CBRNE incidents. Yet NORTHCOM has relatively few military forces 
assigned to it on a permanent basis.
    What is your understanding of how forces are planned to be 
allocated to NORTHCOM for its full range of mission requirements, and 
the role that U.S. Joint Forces Command plays in that process?
    Answer. It is my understanding that NORTHCOM's contingency plans 
and orders contain force requirements that are allocated by joint force 
providers. Forces are not normally identified and sourced until just 
prior to a planned event or impending incident, or immediately after a 
no-warning incident. The exceptions are the standing Execute Orders for 
CBRNE Consequence Management response forces and the Homeland Defense 
Quick Reaction Force/Rapid Response Force. Additionally, under the 
Defense Support of Civil Authorities Operations Standing Execute Order, 
the NORTHCOM Commander has the authority to place certain military 
capabilities on a 24-hour prepare-to-deploy order in advance of or in 
response to a contingency.
    Question. If confirmed, how do you intend to ensure that NORTHCOM 
will have sufficient forces available to it, properly trained and 
equipped, to accomplish its assigned missions?
    Answer. The Secretary of Defense allocates forces to Combatant 
Commands based on global requirements. The Service Chiefs, in 
accordance with their title 10 responsibilities, are responsible for 
providing combatant commanders trained and ready forces for employment 
within their respective areas of responsibility. If confirmed, I will 
ensure the Joint Staff and the joint force providers are aware of my 
force requirements, and that allocated forces are ready to perform 
their various missions required in supporting civil authorities and 
protecting the United States. I will maintain continuous liaison with 
joint force providers and the Services and, in order to promote speed-
of-response, I will explore innovations that would enable pre-
identification of the units that would be sourced to NORTHCOM in a 
contingency.
    Question. If confirmed, how will you monitor the personnel, 
equipment and training readiness of U.S. military forces (Active and 
Reserve) for homeland defense mission-essential tasks in support of 
NORTHCOM's contingency plans, and for its DSCA missions?
    Answer. As I understand it, NORTHCOM has the ability to track the 
readiness of title 10, title 32, and non-DOD capabilities of individual 
States throughout its area of responsibility using the Defense 
Readiness Reporting System (DRRS). NORTHCOM directly interfaces with 
the National Guard Bureau to obtain the readiness status of title 32 
capabilities and is supporting the National Guard Bureau in 
establishing DRRS in every State. Moreover, if confirmed, I intend to 
work closely with my Service and National Guard counterparts to 
personally observe, when possible and appropriate, the readiness of 
units that will be assigned Homeland Defense or DSCA missions.
                       northcom-dhs relationship
    Question. The Department of Homeland Security is still a relatively 
new Federal agency, and is continuing to improve its ability to meet 
its homeland security missions.
    As the Department of Homeland Security improves and matures its 
homeland security capabilities, do you expect that will reduce the 
demands on NORTHCOM to provide DSCA?
    Answer. This really depends on whether the combined capacity of 
civil and military resources in a particular mission area (such as 
counternarcotics or disaster response) is currently adequate. Where 
this is true, it can be viewed as a zero-sum situation in which 
additional Department of Homeland Security capability could reduce 
demands on NORTHCOM. However, there may be areas where our current 
capacity is inadequate, and increased Department of Homeland Security 
capacity will merely make additional progress towards buying down risk 
to a more acceptable level. If confirmed, I will collaborate with the 
Department of Homeland Security to understand how the various 
capacities mesh--both where savings may be realized and where 
additional capacity may be required.
    Question. What do you consider to be the appropriate role for DOD 
and NORTHCOM's vis-a-vis DHS and State authorities in identifying and 
validating the dual-use equipment and other requirements associated 
with defense and homeland security missions?
    Answer. In accordance with the Secretary of Defense's guidance, I 
believe the role of NORTHCOM is to coordinate with the Secretaries of 
the Military Departments, the Commander of SOCOM, the Commander of 
PACOM, and the Chief of the National Guard Bureau to identify critical 
dual-use equipment necessary for Active and Reserve component units and 
personnel to assist civil authorities in responses to natural 
disasters, acts of terrorism, and other man-made disasters as 
identified in the national planning scenarios. In accordance with my 
answer above, I believe it is also incumbent on NORTHCOM to coordinate 
with the Department of Homeland Security and State authorities as 
required to more fully understand equipment requirements in a resource-
constrained environment.
              response to christmas day aircraft bomb plot
    Question. There has been considerable confusion about the events 
surrounding the attempted bombing of a commercial U.S. aircraft over 
Detroit on Christmas Day 2009.
    Do you believe that NORTHCOM or NORAD have any responsibility for 
apprehending, detaining, or interrogating a terrorist suspect who tries 
to destroy an aircraft in flight inside U.S. airspace? If so, what is 
that role?
    Answer. Apprehending, detaining, or interrogating an individual 
alleged to have committed a criminal act within U.S. jurisdiction is a 
law enforcement function. NORAD conducts air defense operations as part 
of Operation Noble Eagle and would likely be involved operationally if 
needed, and both NORAD and NORTHCOM would remain alert for potential 
associated or follow-on attacks.
                             national guard
    Question. There is still debate about the role the National Guard 
should play in the Homeland. In an April 21, 2008 letter to the 
committee concerning the recommendations of the Commission on the 
National Guard and Reserves, Admiral Mullen, the Chairman of the Joint 
Chiefs of Staff, wrote that, ``I have some concerns about the 
Commission's ideas on enhancing the Defense Department's role in the 
Homeland. While Reserve component civil support requirements are 
important, they should not be of equal importance to DOD combat 
responsibilities.''
    Do you agree with this view of Admiral Mullen?
    Answer. Yes. Defending our country is the military's primary duty, 
which is why all DOD forces, including the National Guard and Federal 
Reserves, are organized, trained, and equipped to fight our Nation's 
wars. This is not to minimize the absolutely vital role the National 
Guard and Reserves play in civil support, and we must ensure these 
agile forces are adequately resourced and prepared for this mission.
    Question. Do you believe that defending the Homeland or civil 
support should become the National Guard's primary missions?
    Answer. As a component of the Total Force, the National Guard has 
distinguished itself across full spectrum of DOD operations, both at 
home and abroad. Never has this been more true than over the last 9 
years of both conflict abroad and pressing missions at home. In my 
view, the National Guard should remain a full member of the Total 
Force. Their contribution to the success of DOD's mission is too 
significant to be limited to just homeland defense and civil support. 
Moreover, to create additional force structure to execute the Federal 
missions currently being accomplished by the National Guard would be 
cost-prohibitive. In short, the Guard is providing exceptional service 
and flexibility to our Nation in its current status.
    Question. What is the current status of the working relationship 
between NORTHCOM, the National Guard Bureau, and individual State 
National Guard headquarters?
    Answer. My sense is that the working relationship among NORTHCOM, 
the National Guard Bureau, and individual States' Guard headquarters 
has never been better and continues to improve. The robust National 
Guard presence within the NORTHCOM headquarters bears witness to this 
and fosters information sharing, collaborative planning, and Total 
Force mission execution that are paying dividends every day. If 
confirmed, I look forward to leveraging the excellent rapport I 
maintain with General Craig McKinley and other Guard leaders whom I 
have met in order to further advance this vital relationship.
    Question. If confirmed, what type of liaison relationships for 
planning and operational purposes would you advocate between NORTHCOM, 
the Department of Homeland Security, Federal, State, and local first 
responders, and National Guard units under State authority?
    Answer. As a former Joint Task Force Commander, I understand the 
value of strong liaison relationships and their contribution to an 
organization's success. If confirmed, I intend to enhance the existing 
liaison relationships that NORTHCOM currently already employs with 
these organizations by ensuring that liaison officers are empowered, 
motivated and prepared to take all actions necessary to build 
relationships and understanding, conduct mutual planning, and remain 
prepared to transition seamlessly to cooperative execution. Where 
necessary, appropriate, and permitted by personnel resources, I will 
build new liaison relationships with key partners.
                      cbrne response capabilities
    Question. NORTHCOM has two primary missions: Homeland Defense and 
DSCA, including preparation for and response to an incident or attack 
involving CBRNE materials or weapons, in the NORTHCOM area of 
responsibility.
    If confirmed, how would you approach the challenge of ensuring 
adequate military forces, capabilities, and plans to respond to such 
incidents in support of civil authorities?
    Answer. I believe the CBRNE Consequence Management (CM) mission in 
our homeland is a no-fail mission, and that forces assigned to this 
mission must be able to respond as required. NORTHCOM has developed 
detailed plans to support CBRNE CM in support of civil authorities. I 
understand the NORTHCOM CBRNE CM Response Forces are in transition and 
evolving into what is designed to be a robust and responsive force to 
provide faster life-saving capability and mitigate human suffering. If 
confirmed, I will work closely within DOD and with the National Guard 
and the States to ensure adequate forces are allocated to this mission 
and that they are properly trained, resourced, and exercised to 
maintain their readiness to respond when needed.
    Question. There are currently a variety of organizations and units 
intended for CBRNE response and consequence management, including Joint 
Task Force-Civil Support (JTF-CS), the CBRNE Consequence Management 
Response Force (CCMRF), the U.S. Marine Corps Chemical-Biological 
Incident Response Force (CBIRF), National Guard Weapons of Mass 
Destruction Civil Support Teams (WMD-CSTs), and National Guard CBRNE 
Enhanced Response Force Package (CERFP) units.
    If confirmed, how would you plan to manage this mix of capabilities 
to ensure the best possible response force to support civil authorities 
in the event of a CBRNE incident, and to avoid unnecessary duplication?
    Answer. The military organizations designed to respond to a CBRNE 
CM incident are structured to provide a graduated response capable of 
handling small incidents, as well as large-scale incidents, in support 
of civil authorities. Some are Federal forces, while others are 
National Guard forces normally controlled by the State Governors. Each 
echeloned element is designed to respond under different timelines to 
build upon and integrate with the others to provide capability to civil 
authorities.
    If confirmed, I intend to work closely with the National Guard 
Bureau and the States to ensure all forces established to accomplish 
this mission are properly manned, trained, equipped to execute it, and 
that timelines and command and control relationships during execution 
are clearly understood and effective.
    Question. What is your assessment of the ability of the CBRNE 
CCMRF, as currently constituted, to provide a significant capability to 
support Federal civil authorities in the event of a CBRNE incident?
    Answer. It is my understanding that the two existing CCMRFs provide 
a responsive and flexible capability with federally-controlled forces 
that are trained, equipped, exercised, evaluated, and employed by 
NORTHCOM to respond to near-simultaneous incidents. I also understand 
that incremental modifications have been made to the CBRNE CCMRF 
concept--based on analysis and lessons learned from State- and 
national-level exercises--in order to improve its ability to provide 
comprehensive and self-sustaining support to first responders. I am 
also aware that DOD has determined that further improvements in CBRNE 
response capability are warranted to provide rapid response capability 
that is aligned within FEMA regions and responsive to State Governors.
    Question. How would you assess the relative capabilities of a 
trained and equipped CCMRF to a trained and equipped National Guard 
CBRNE Enhanced Response Force Package (CERFP)?
    Answer. It is my view that each of these forces present 
complementary capabilities that enhance our overall CBRNE Consequence 
Management response.
    The CBRNE CCMRF is a relatively large force (4,000-4,500 personnel) 
that contains the required centralized capabilities to integrate with 
and support a Federal response under the National Response Framework. 
These capabilities include search and extraction, decontamination, air 
and ground casualty evacuation, mortuary affairs, information 
dissemination, communications, logistics, and a command and control 
structure to support integration of follow on forces.
    CBRNE Enhanced Response Force Packages (CERFPs), under the control 
of State Governors, represent a much smaller (90-180 personnel), more 
agile and timely response force that is focused on regional support to 
provide security, triage, mass casualty and patient decontamination and 
stabilization.
    When responding to a domestic event, both force elements provide a 
balanced approach by integrating and synchronizing the advantages of 
the National Guard CERFP and the robust Federal capability of the 
CCMRF.
    Question. Do you believe that U.S. military forces providing DSCA 
in the event of CBRNE incidents should be under the command of the 
Commander, NORTHCOM?
    Answer. In most cases, the incident will be managed at the State 
level with DOD in support. For all incidents, Federal forces would 
``lean forward'', as permitted under the National Response Framework, 
in order to monitor and assess CBRNE capabilities and provide 
additional support if requested. If title 10 forces do respond, I 
believe the Commander of NORTHCOM should maintain command and control 
of these forces in a ``direct support'' relationship aligned closely 
with the primary Federal agency and the affected State Governor(s) 
under the principle of unity of effort. In certain rare circumstances, 
the NORTHCOM Commander may be asked to assume overall command and 
control due to the nature or scope of an incident. If confirmed, I will 
ensure that Federal forces under my command are responsive under either 
command and control framework.
                          wmd-csts and cerfps
    Question. There is now at least one National Guard Weapons of Mass 
Destruction-Civil Support Team (WMD-CST) in each of the 54 States and 
territories, and there are 17 National Guard CBRNE Enhanced Response 
Force Package (CERFP) units.
    Do you believe the WMD-CSTs and CERFPs are appropriately organized, 
sized, trained, and equipped to accomplish their assigned missions?
    Answer. Yes, in my view, WMD-CSTs are appropriately organized, 
sized, trained and equipped to accomplish their assigned detection and 
analysis mission. WMD-CSTs are standardized forces and their training 
and readiness is overseen by NORTHCOM through its Army component, U.S. 
Army North.
    I understand that there may be a need to improve CERFP 
organization, equipment standardization, and readiness. If confirmed, I 
will work with the National Guard Bureau to assist in any way to ensure 
that CERFPs are ready to accomplish their assigned mission in 
accordance with the CBRNE Enterprise identified in the 2010 Quadrennial 
Defense Review (QDR).
    Question. If not, what changes do you believe are needed?
    Answer. Today, I cannot say with certainty what changes are needed. 
However, if confirmed, I will quickly focus on CBRNE consequence 
management to do my part to ensure our nation has adequate response 
capability across the spectrum.
           cbrne consequence management response force units
    Question. Several years ago, the Department decided to create three 
CBRNE CCMRF units to provide DSCA in the case of major CBRNE incidents 
in the United States requiring Federal consequence management. The 
recently released 2010 QDR proposed a significant restructuring of the 
CBRNE response force, from the 3 CCMRFs under DOD control, to 1 robust 
CCMRF, 2 military command and control units, and 10 future Homeland 
Response Forces (HRFs) within the National Guard and under the control 
of Governors in the 10 FEMA regions.
    Do you believe the CCMRF concept, organization, and capability 
remain sound?
    Answer. I believe the existing CCMRF concept was an important 
milestone toward achieving increased capability for this vital mission. 
The makeup of CBRNE response should inevitably represent a balance 
among speed, capability, resources, and ownership. Clearly, a robust 
Federal response to augment State and local responses is a vital 
component of this response. It is my sense that the restructuring 
directed by Secretary of Defense and outlined in the 2010 QDR 
represents an effort to refine this concept, and that DOD is committed 
to ensuring forces within the CBRNE CM Enterprise remain trained and 
ready, regardless of how they are organized. I understand NORTHCOM is 
actively working to fully outline this concept with DOD partners, 
especially the National Guard Bureau, and Federal interagency partners 
to ensure it is effectively employed.
    Question. What is your assessment of the organization, capability, 
and potential effectiveness of the proposed HRFs in responding to a 
major CBRNE incident, as compared to the capability of the existing 
CCMRFs?
    As I understand it, the intent of this decision is to rebalance the 
Nation's CBRNE CM forces to better reflect the shared roles of the 
States and Federal government during a domestic event. As such, it 
appears to me that the HRFs were designed to provide a faster life-
saving response than the existing CCMRFs, and to capitalize on the 
advantages of alignment with the FEMA regions, deeper regional 
knowledge, and State ownership.
    That said, it remains important that a robust Federal response be 
prepared to augment the HRFs. This will be provided by a revised CCMRF 
that has 700 additional personnel and a more rapid response capability, 
along with two command and control CCMRFs that can coordinate responses 
to additional CBRNE events using general purpose forces.
    It is my understanding that work is in progress at NORTHCOM, in 
collaboration with the requisite partners, on detailed implementation 
planning for this modified construct. If confirmed, I look forward to 
working with the National Guard Bureau and others to implement it 
properly, while at the same time closely monitoring training and 
readiness levels to ensure we provide the nation the strongest possible 
response capability.
    Question. In your position as Director for Strategic Plans and 
Policy on the Joint Staff, were you involved in the debate and/or 
formulation of the HRF plan as outlined in the QDR?
    Answer. No. Within the Joint Staff, the Force Structure, Resources, 
and Assessment Directorate partnered with the Office of the Secretary 
of Defense to lead the formulation of the HRF plan within the QDR 
effort. I was informed of my pending nomination for the position of 
Commander, NORTHCOM towards the end of the formulation and decision 
process, at which time I requested an information brief and attended 
two meetings as an observer.
    Question. Do you believe it would be prudent to disestablish an 
existing CCMRF unit and eliminate its capability prior to having an 
equivalent alternative capability in place?
    Answer. I do not believe it would be prudent to give up an existing 
capability prior to an alternative capability being in place.
    Question. In order to ensure adequate defense support of civil 
authorities, do you believe the three CCMRFs, or any related units 
created from the proposed restructuring outlined in the QDR, should be 
Federal forces under the command of NORTHCOM?
    Answer. In the new concept, Federal Restructured-CCMRF and the two 
smaller command and control elements created under the proposed 
restructuring outlined in the QDR should and will be under the command 
and control of the NORTHCOM Commander. State assets, such as the HRFs, 
CERFPs, and WMD-CSTs, will be under the command and control of the 
Governors through their Adjutants General, but could be Federalized 
under title 10 if needed. If confirmed, I intend to work closely with 
the National Guard Bureau and the individual States to ensure command 
and control arrangements are clear and are exercised.
         western hemisphere institute for security cooperation
    Question. The Western Hemisphere Institute for Security Cooperation 
(WHINSEC), which replaced the School of the Americas in 2001, has the 
mission of contributing to theater cooperation activities through the 
education and training of students in the Western Hemisphere from 
Canada to Chile. If confirmed, you will be a member of the WHINSEC 
Board of Visitors.
    What is the relationship between NORTHCOM and WHINSEC?
    Answer. I understand that the National Defense Authorization Act of 
2008 added the Commander of NORTHCOM to the WHINSEC Board of Visitors. 
The Board of Visitors reviews curricula to ensure compliance with U.S. 
laws, regulations, and policy goals, with an emphasis on human rights.
    Question. In your view, does WHINSEC promote the national security 
interests of the United States in the Western Hemisphere?
    Answer. It is my belief that WHINSEC is a strategic tool for 
international engagement that supports principles set forth in the 
Organization of American States Charter. WHINSEC's professional 
education and training has a positive impact upon the 800-1,000 Latin 
American students in attendance annually from military, law enforcement 
and civilian institutions. I agree with the sense of Congress, as 
expressed in section 1084 of the National Defense Authorization Act for 
Fiscal Year 2010, that WHINSEC is building partner capacity that 
enhances regional and global security.
    Question. In your view, how should NORTHCOM participate in command 
oversight and curriculum development?
    Answer. As I understand it, NORTHCOM has an Academic Outreach and 
Human Rights Officer who is responsible for the hands-on oversight of 
WHINSEC from a NORTHCOM perspective and raises concerns to the 
commander as appropriate. If confirmed, I will evaluate the 
effectiveness of this arrangement to see if any changes are necessary, 
and will exercise personal oversight to ensure this process is 
effective.
    Question. In your view, what more, if anything, does WHINSEC need 
to do to emphasize human rights in its curriculum?
    Answer. I believe that human rights are an absolutely essential 
ingredient of the WHINSEC curriculum. If confirmed, I will examine this 
issue closely and determine if more emphasis is needed.
    Question. In your view, how can WHINSEC improve its outreach 
efforts to individuals or groups interested in its activities, 
particularly those who have accused the school of contributing to human 
rights violations by former students?
    Answer. After WHINSEC was activated, safeguards such as the Board 
of Visitors were put in place to ensure compliance with U.S. laws, 
regulations, and policy goals, with an emphasis on human rights. If 
confirmed, I will examine outreach efforts in order to determine 
whether they are effective, and to reassure these groups of NORTHCOM's 
commitment to human rights within the WHINSEC curriculum.
    Question. If confirmed, will you attend the WHINSEC Board of 
Visitor's annual meeting?
    Answer. If confirmed, I look forward to attending the Board of 
Visitors annual meeting--I will ensure that only a higher priority 
event requiring my presence would interfere with my attendance at the 
annual meeting.
         intelligence sharing/national counterterrorism center
    Question. What is NORTHCOM's role and involvement in developing 
intelligence assessments regarding terrorist threats?
    Answer. It is my understanding that NORTHCOM develops all-source 
intelligence assessments of the transnational terrorist threat in order 
to provide warning and situational awareness in support of the missions 
of Homeland Defense, Defense Support of Civil Authorities, and Force 
Protection. NORTHCOM collaborates with all members of the Intelligence 
Community, other combatant commands, and the National Counterterrorism 
Center to ensure the command is able to anticipate potential responses 
to transnational terrorist threats as they develop.
    Question. What intelligence agencies are involved in providing 
input to NORTHCOM's staff for the development of intelligence 
assessments?
    Answer. I understand that NORTHCOM develops intelligence 
assessments based on all-source intelligence derived from all 16 
Intelligence Community members. This collaborative environment is 
fostered by a networked approach that allows NORTHCOM analysts to 
leverage relevant expertise throughout the Intelligence Community.
    These collaborative relationships are created and maintained by a 
robust liaison program. National Agency Representatives from the 
Central Intelligence Agency, National Security Agency, Federal Bureau 
of Investigation, National Geospatial-Intelligence Agency, Department 
of Homeland Security, the Service intelligence agencies, and the 
Defense Intelligence Agency are located within NORTHCOM.
    Similarly, NORTHCOM liaison officers are located at the Department 
of Homeland Security, the Federal Bureau of Investigations, the 
National Counterterrorism Center (NCTC) the Canadian National Defence 
Headquarters in Ottawa.
    Question. What is the current relationship between NORTHCOM and the 
NCTC?
    Answer. It is my understanding that NORTHCOM has a strong 
relationship with the National Counterterrorism Center in a 
collaborative information-sharing environment. NORTHCOM routinely 
relies on the Center's finished production and their collaborative 
tools, all of which is facilitated by having two full-time NORTHCOM 
personnel who are physically assigned to the Center as liaison 
officers.
    Question. Does NORTHCOM have representatives located at the NCTC on 
a daily basis? If so, what are their functions and responsibilities? If 
not, why not?
    Answer. Yes. NORTHCOM currently has two full-time liaison officers 
at the National Counterterrorism Center who facilitate the flow of 
information between NORTHCOM and the Center.
    One liaison officer is assigned to the Defense Intelligence Unit, 
which is responsible for reviewing intelligence databases for 
information related to DOD equities. The other liaison officer is 
assigned to the Directorate of Strategic Operational Planning at the 
Center and ensures NORTHCOM is aware of and involved in community 
operational and contingency planning.
    Question. Do you believe NORTHCOM representatives at NCTC have the 
access to intelligence needed to fully perform their functions?
    Answer. Yes. It is my understanding that NORTHCOM liaison officers 
have access to all intelligence databases available to other Center 
analysts and are fully capable of performing their functions in support 
of the Center.
    Question. How do posse comitatus, privacy restrictions, and other 
laws and regulations concerning the collection of intelligence within 
the United States, affect the way NORTHCOM receives and uses 
intelligence?
    Answer. NORTHCOM accomplishes its intelligence mission within the 
framework of existing laws and policy; I understand NORTHCOM is 
vigilant in ensuring all intelligence activities conducted in support 
of its mission comply with intelligence oversight law and policy. If 
confirmed, I will ensure all intelligence activities conducted in 
support of NORTHCOM operations are reviewed by legal staff to ensure 
they are conducted in accordance with law and policy.
                       ballistic missile defense
    Question. One of NORTHCOM's missions is the defense of the United 
States against the threat of limited ballistic missile attack. The 
recently released Ballistic Missile Defense Review report stated as one 
of its policy priorities: ``Before new capabilities are deployed, they 
must undergo testing that enables assessment under realistic 
conditions.''
    Do you agree that it is essential that our deployed ballistic 
missile defense systems are operationally effective?
    Answer. Yes. In light of the growing threat from North Korea and 
Iran, both in numbers and sophistication, the capability to defend the 
Nation with an effective ballistic missile defense system is becoming 
increasingly important. The recently-announced Phased Adaptive 
Approach, a four-phase global approach, will provide a layered defense 
capability for the homeland, as well as for forward-deployed troops and 
allies.
    Question. Do you agree that it is important to conduct 
operationally realistic flight tests to demonstrate the operational 
capability and reliability of the Ground-based Midcourse Defense (GMD) 
system?
    Answer. Yes. Operationally realistic flight tests are one of the 
most important, and visible, ways of demonstrating the operational 
capability and reliability of the GMD system. I understand the NORTHCOM 
staff has worked closely with U.S. Strategic Command and the Missile 
Defense Agency in the formation of the Integrated Master Test Plan. 
This robust test plan lays the foundation for increasingly realistic 
operational flight tests over the next several years, and beyond.
                         cruise missile defense
    Question. NORTHCOM and NORAD have responsibilities for warning and 
defending the United States against airborne threats, including cruise 
missiles.
    Relative to cruise missile defense, what do you believe should be 
the relationship between the Joint Integrated Air and Missile Defense 
Organization (JIAMDO) of the Joint Staff, on the one hand, and NORTHCOM 
and NORAD, on the other hand?
    Answer. I understand the JIAMDO has maintained a working 
partnership with NORAD since 1999 and NORTHCOM since its establishment 
in 2002. The JIAMDO has expanded its theater focus to include homeland 
air and cruise missile defense gaps, as well as ballistic missile 
defense gaps, through operational concept, architecture, and roadmap 
development efforts. The JIAMDO has a liaison office at NORAD and 
NORTHCOM to ensure daily coordination and collaboration. If confirmed, 
I look forward to building upon this relationship to enhance our 
homeland capabilities against the potential threat of a cruise missile 
attack.
    Question. Relative to the full spectrum of threats to the United 
States, how would you assess the cruise missile threat to the United 
States and its territories?
    Answer. I believe the overall cruise missile threat to the United 
States and its territories is currently low. While technically 
feasible, there are other means to use that are operationally easier 
for those who would harm us.
    Question. If confirmed, what capabilities would you prioritize to 
address this threat?
    Answer. While I believe the threat is currently low, continued 
efforts in Wide Area Surveillance of North America are needed to 
improve capabilities to address future capabilities. If confirmed, this 
will be a key area I will address, as well as a review of the NORAD and 
NORTHCOM Surveillance Gap Filler strategy. As I understand it, this 
strategy outlines the NORTHCOM plan to address air and maritime 
surveillance shortfalls through a family-of-systems approach to sensor 
development and improved information sharing of interagency sensors. 
Finally, through our intelligence resources, it is imperative that we 
remain alert to any game-changing evolution in capability that would 
raise the prominence of this threat.
                        continental air defense
    Question. How has the continental air defense mission changed since 
the end of the Cold War and the events of September 11, 2001?
    Answer. Prior to 11 September 2001, NORAD's air defense posture was 
aligned to counter external threats to North America. In response to 
the attacks on 11 September 2001, the command's mission was expanded to 
protect against domestic airborne threats originating within the United 
States and Canada.
    Operation Noble Eagle began immediately after the September 11 
attacks and continues today to protect and defend the airspace of the 
United States and Canada. NORAD implemented an improved air defense 
system by integrating radar, air patrols, surface-launched missiles, 
and control centers. This system also includes the capability to 
protect the National Capital Region from air attacks.
    Question. Do you believe that current U.S. continental air defense 
capabilities are adequate to meet national security needs?
    Answer. Yes. NORAD continues to adapt in an effort to counter the 
terrorist threat posed to the United States and Canada by maintaining a 
network of alert fighters, tankers, airborne early warning aircraft, 
and ground-based air defense assets. This capability, combined with 
improvements to surveillance and communications systems, as well as 
better coordination and information sharing with the interagency 
community, ensures NORAD provides air defense for the United States and 
Canada.
    Question. If confirmed, what capabilities and programs would you 
prioritize to address any identified deficiencies?
    Answer. If confirmed, I will examine NORAD's air defense 
capabilities with the goal of further improving the North American air 
surveillance picture not only for DOD, but also for our interagency 
partners--notably the National Capital Region Coordination Center and 
U.S. Customs and Border Protection. I understand that Homeland Air and 
Cruise Missile Defense, wide-area air surveillance, and refining 
intelligence sharing within the interagency community are critical to 
this effort. I will also work closely with the Services to ensure 
continuity of air sovereignty mission commensurate with postulated 
threats.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as Commander, NORTHCOM, and 
Commander, NORAD?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John McCain
                            border security
    1. Senator McCain. Vice Admiral Winnefeld, what is your assessment 
of the current security situation along our southern border?
    Admiral Winnefeld. I view with concern the escalating violence 
along the Southwest border that in many cases is attributable to drug 
trafficking organizations. In addition to the corrosive effects of 
drugs within our own cities, I believe the violence associated with 
drug trafficking in Mexico is a significant security challenge to the 
United States through its potential to spill over the border and by 
virtue of its severe negative impact on the internal security of a 
neighbor and friend. As I mentioned in my hearing, if confirmed I plan 
to travel to the border region soon after taking command in order to 
more closely assess the situation.

    2. Senator McCain. Vice Admiral Winnefeld, what is your view about 
the need for deployment of federally-funded national guardsmen along 
the southern border to assist and support civilian law enforcement 
agencies?
    Admiral Winnefeld. I believe that the National Guard has a place in 
support of civilian Federal, State, and local law enforcement agencies 
along the border. Indeed, over 300 title 32 forces from the 4 border 
States, specially trained in counterdrug activities, are currently 
deployed in support of the Department of Homeland Security (DHS), which 
is the lead Federal agency responsible for border security. I believe 
such deployments should be subject to the following principles: First, 
they should be undertaken only to the extent that the capacity of 
civilian agencies is exceeded by the security requirement or where the 
Guard can provide unique capability in support of civilian operations. 
In some cases, it may be necessary for the Department of Defense (DOD) 
forces to provide a bridge to increased DHS or local capacity. Second, 
such deployments should account for the impact they would have on 
support for U.S. troops that are engaged in combat overseas, as some of 
the capabilities that may contribute to border security are in short 
supply overseas. Third, I believe we need to be cautious about the 
perception of militarizing the border, though we should not allow this 
to prevent deployments required to guard against serious threats. 
Finally, these deployments should be made in response to a request from 
civilian agencies that is approved by the President or the Secretary of 
Defense. If confirmed, I will contribute to interagency assessments 
intended to assess the capacity and capabilities of civilian law 
enforcement and the suitability and magnitude of DOD contributions.

    3. Senator McCain. Vice Admiral Winnefeld, what additional steps 
can U.S. Northern Command (NORTHCOM) take, in coordination with DHS, 
U.S. Southern Command (SOUTHCOM), and the Government of Mexico, to 
bring the drug-trade violence we are seeing on both sides of our 
southern border under control?
    Admiral Winnefeld. I believe that NORTHCOM has separate but 
complementary roles north and south of the border. It is my 
understanding that NORTHCOM is well-engaged with interagency partners, 
the Embassy Country Team, the Government of Mexico, and SOUTHCOM in 
evaluating ways the command can effectively support U.S. Government 
efforts to stem drug-trade related violence in our hemisphere. As one 
example, the command recently hosted and facilitated the Ciudad Juarez-
El Paso Merida Planning Initiative from 22-26 February, 2010, with 
these organizations. Those discussions, as well as coordination with 
these organizations on a daily basis, point to several additional steps 
that can be taken to stem the wave of violence that has gripped the 
border region.
    If confirmed, I look forward to broadening and deepening the 
asymmetric warfare experience that we share with our domestic and 
Mexican partners. I will further pressurize our efforts in intelligence 
fusion and sharing, secure communications systems, biometrics 
equipment, night vision equipment, and accelerating the delivery of the 
helicopters and surveillance aircraft that are part of the Merida 
Initiative. I will seek ways to more effectively support DHS, the 
Department of Justice (DOJ), and other critical stakeholders in a 
whole-of-government approach to enhancing security along the southwest 
border. I will review current NORTHCOM initiatives, visit the Southwest 
border, listen to our Mexican partners, and assess how best the command 
can support U.S. Government efforts to assist Mexico and other 
international partners in the region. Finally, I will work closely with 
SOUTHCOM to explore what additional steps we might take to enable the 
countries on Mexico's southern border to act more effectively to 
interdict drug traffic in that region.

            legislative gap in reserve activation authority
    4. Senator McCain. Vice Admiral Winnefeld, DOD currently lacks 
statutory authority to order Reserve personnel to involuntary Active 
Duty service for the purpose of providing civil support in response to 
a natural disaster. While such authority exists for terrorist attacks, 
proposals to give this legislative authority in response to a natural 
disaster has been opposed by State Governors, apparently due to a 
dispute about who will have operational control of Federal forces. What 
is your understanding of this problem and why have the States opposed 
ensuring that Federal Reserve Forces can be called up, if needed?
    Admiral Winnefeld. Federal Reserve Forces have capabilities but 
only limited authorities to make important and timely contributions in 
support of local and State officials in response to domestic disasters. 
First, they may only be used for immediate, life-and-limb support when 
they are already on Active Duty status if/when a crisis occurs. Second, 
if they volunteer, they may be used only if there is also a request for 
assistance for title 10 support from another Federal agency. DOD is not 
authorized in any scenario to involuntarily mobilize Reserve Forces in 
response to a catastrophe or disaster.
    State Governors, bound by their State constitutions to act as 
Commanders in Chief of their State forces, have been reluctant to 
support such authority until they better understand how such forces 
would be employed. Accordingly, they have taken the initial position 
that they must have command of all military forces (State and Federal) 
operating within their States. However, it is my understanding that 
constitutionally, the President of the United States, as Commander in 
Chief, cannot relinquish command of Federal forces.
    To resolve this issue, OSD has proposed a concept to the Council of 
Governors addressing the command relationship as one of ``direct 
support'' using the principle of ``unity of effort.'' Under this 
arrangement, which I fully support, Federal forces would ``consult, 
coordinate with, and respond to State authorities'' during a domestic 
disaster while maintaining existing command relationships. In this 
manner, Federal forces, including Federal Reserve Forces, would 
technically remain under the command of Federal authorities while 
responding directly to a Governor's needs. I have experienced this type 
of unity of effort relationship several times during my career, and it 
works. This concept is supported throughout the National Response 
Framework, which also emphasizes unity of effort vice unity of command.

    5. Senator McCain. Vice Admiral Winnefeld, do you believe that 
title 10 Federal forces should be placed under the operational or 
tactical control of State Governors?
    Admiral Winnefeld. No, I believe the Commander of NORTHCOM should 
maintain command and control of title 10 forces in a ``direct support'' 
relationship, remaining closely aligned with the primary Federal agency 
as well as coordinating closely with and remaining responsive to the 
affected State Governor(s) under the principle of unity of effort. I 
believe there is good balance in this construct. On the one hand, the 
President should maintain operational command of Federal forces for a 
variety of reasons. On the other hand, Federal forces should be very 
responsive to a Governor's needs in a crisis and be tightly aligned 
with the Adjutant General of the affected State. If confirmed, I intend 
to make it very clear to my State partners that we will act in support 
of a Governor's needs in time of crisis.

    6. Senator McCain. Vice Admiral Winnefeld, what has been Secretary 
Gates' position on this issue?
    Admiral Winnefeld. Secretary Gates supports title 10 forces 
remaining under the Federal chain of command in accordance with 
subsection (b) of title 10, U.S.C. Sec. 162. Secretary Gates also 
reiterated at the Council of Governors meeting in February 2010 that he 
believes we can find a consensus approach that respects the 
Constitutional authorities of both the Governors and the President of 
the United States. I believe this is a sound approach and provides a 
positive way forward.

    7. Senator McCain. Vice Admiral Winnefeld, do you believe NORTHCOM 
currently has sufficient authority to access Reserve component 
personnel and capabilities to fulfill your command's mission?
    Admiral Winnefeld. In terms of NORTHCOM's primary mission of 
homeland defense, I believe DOD does, in fact, have sufficient 
authority to access Reserve component personnel and capabilities. 
However, in terms of NORTHCOM's mission for Defense Support of Civil 
Authorities, I do not believe there is sufficient access to the Reserve 
component. In accordance with title 10, Army, Navy, Air Force, and 
Marine Federal reservists are only available for civil emergencies 
while in voluntary Inactive Duty for Training status.
    The National Governors Association supported Congress's rejection 
of a DOD-proposed statutory change that would have allowed the 
Secretary of Defense to order reservists to Active Duty to provide 
assistance when the response capabilities of Federal, State, and local 
civilian agencies are or could be exceeded. Under the knowledge 
possessed by the Governors at the time, I understand and am sympathetic 
to their rationale for not supporting this initiative. However, since 
then, OSD has begun working closely with the Governors to outline DOD's 
concept of ``direct support,'' briefly described above. I am very 
hopeful that DOD can come to agreement with the Governors on this 
construct so that they will support a statutory change. I understand 
that the Council of Governors will discuss this issue further during 
their next meeting in June 2010, and if confirmed, I plan to attend 
that meeting to help forge a way ahead--and to make it clear to the 
Governors that I will be responsive to their needs in a crisis

    8. Senator McCain. Vice Admiral Winnefeld, would you recommend that 
we take action this legislative session to fix this problem?
    Admiral Winnefeld. I believe that it is important to have the 
support of the Governors on solutions to this problem. I understand it 
was discussed extensively in the first Council of Governors meeting 
with the Secretary of Defense in February 2010. It is also my 
understanding that it will be further addressed at the next Council of 
Governors meeting in June 2010, and if confirmed, I plan to attend that 
meeting. With a better understanding of both DOD and the Governor's 
concerns, appropriate actions for legislative session can be proposed--
and I am hopeful that this will occur this year.

    9. Senator McCain. Vice Admiral Winnefeld, what is the potential 
vulnerability if we do not take action?
    Admiral Winnefeld. Certain DOD capabilities reside exclusively or 
in significant numbers in the Federal Reserve Forces, such as aerial 
spray, ``Hurricane Hunter'' weather reconnaissance, combat surgical 
hospitals, search and rescue, aeromedical evacuation, mortuary affairs, 
engineering and logistical support. Without this authority, these title 
10 Federal Reserve Forces, which can be the most capable and closest 
unit to a disaster, cannot be involuntarily called forward to support a 
response, ultimately increasing costs and more importantly, risk to 
American lives. This is why it is critical that we forge a consensus 
solution as soon as possible and provide recommendations to Congress at 
that time.

                       joint responses to attacks
    10. Senator McCain. Vice Admiral Winnefeld, how will NORTHCOM and 
CYBERCOM work together to support civil authorities in the event of a 
computer network attack on the Homeland?
    Admiral Winnefeld. As I understand it, NORTHCOM has developed a 
very strong relationship with U.S. Strategic Command (STRATCOM). Once 
CYBERCOM stands up, I believe NORTHCOM will extend this relationship to 
CYBERCOM as well. Similar to other combatant commands, NORTHCOM is a 
routine consumer of the cyber security and information that STRATCOM 
and CYBERCOM will provide. In the event of an attack, NORTHCOM will 
work in a supported-supporting relationship as designated by the 
Secretary of Defense to ensure the .mil domain is protected and that 
all available support is provided, as appropriate, to the owners of 
other domains.

    11. Senator McCain. Vice Admiral Winnefeld, do roles and 
authorities exist to guide a joint response, if the Nation is attacked?
    Admiral Winnefeld. The 2008 Unified Command Plan recognizes 
cyberspace as a warfighting domain, and NORTHCOM's mission set crosses 
all domains in order to defend, protect, and secure the United States 
and its interests against all threats, including cyber.
    There are myriad authorities supporting Homeland Defense and Civil 
Support missions, as well as a joint response to cyber attack against 
the Nation. These include NORTHCOM authorities identified in title 10, 
as well as title 50, and the Unified Command Plan, Joint Strategic 
Capabilities Plan, Guidance for Employment of the Forces, and the 
National Response Framework. Additionally, there are a number of DOD 
policies and orders, contingency plans (to include NORTHCOM's Homeland 
Defense CONPLAN 3400), and Joint Staff-directed orders that guide a 
joint response. The authorities that are in place today for cyber 
center primarily on self-defense. If we had to act today in response to 
a cyber attack on critical national assets, the joint response would 
also be guided by the National Cyber Incident Response Plan. That said, 
I believe one of CYBERCOM's key roles will be to advise STRATCOM in 
recommending any adjustments to existing authorities required to better 
provide a joint response to an attack.

    12. Senator McCain. Vice Admiral Winnefeld, with respect to other 
combatant commands, the Military Departments, and the many 
organizations within DOD, how will CYBERCOM function to ensure cyber 
operations are protected?
    Admiral Winnefeld. As I understand it, CYBERCOM will have both 
supported and supporting cyber roles. As the supported command for 
defense of the Defense Information Networks, CYBERCOM will have the 
technical capability to conduct effective ``defense in depth'' 
protection of cyber operations and infrastructure that is common to all 
combatant commands. At the same time, as the supporting command, 
CYBERCOM will have the technical capability to provide information and 
awareness to enable its customers to effectively mitigate cyber threats 
to operations within their own areas of responsibility.

                        threats to the homeland
    13. Senator McCain. Vice Admiral Winnefeld, what do you consider to 
be the biggest threats to the Homeland?
    Admiral Winnefeld. There are many potential threats to our 
Homeland, among which I would name five of particular concern. First, 
extremists who are directed, supported, or inspired by al Qaeda 
continue to plan terrorist attacks on our Homeland. Those attempting to 
obtain weapons of mass destruction pose the most consequential threat, 
while those pursuing smaller scale, hard-to-detect attacks using 
improvised explosive devices or conventional weapons represent the most 
likely threat. Second, I am concerned about the corrosive effect on our 
Nation's security of drug trafficking, including its associated 
violence, both inside Mexico and along our border. Third, the cyber 
threat to our information infrastructure is increasing in parallel with 
our growing reliance on the Internet. Fourth, North Korean and Iranian 
pursuit of nuclear weapons and the means to deliver them against our 
Homeland using long-range ballistic missiles or other means is a 
growing concern. Finally, the constant potential for a major natural 
disaster, which can produce damage far greater than most terrorist 
attacks, is something for which the NORTHCOM Commander must always be 
prepared.

    14. Senator McCain. Vice Admiral Winnefeld, where do you assess the 
greatest vulnerabilities in our ability to defend the Homeland?
    Admiral Winnefeld. I believe our greatest vulnerability remains 
extremist threats, who are determined and patient, will search for any 
path to produce violent events, and harbor no qualms about killing 
innocents to achieve their objectives. Our vulnerabilities to this 
threat derive from the immense array of potential targets within our 
Nation, the relative ease of entering a large and diverse country, and 
the extremists' intent to exploit the freedom of movement (and other 
important freedoms) we enjoy within our country.

    15. Senator McCain. Vice Admiral Winnefeld, if confirmed, how will 
you address these vulnerabilities?
    Admiral Winnefeld. If confirmed, I will do everything in my power 
to ensure our Nation is prepared to handle the full spectrum of threats 
to our homeland. I will:

        <bullet> Advocate the sense of urgency required to maintain 
        vigilance against these threats;
        <bullet> Nurture a culture that continuously challenges and 
        improves our capability, particularly in the areas of 
        information sharing with our partners and speed-of-response;
        <bullet> Continue improvements to NORTHCOM's rigorous exercise 
        program;
        <bullet> Examine the NORTHCOM's homeland defense and civil 
        support plans to ensure they address evolving threats and are 
        tailored to need;
        <bullet> Strengthen NORTHCOM's relationships with its National 
        Guard, interagency, State, local, tribal, and international 
        partners to ensure the whole is greater than the sum of the 
        parts;
        <bullet> Work closely with the other COCOMs and service chiefs 
        on issues of relevance to defending the Homeland;
        <bullet> Remain cognizant of the health of our ballistic 
        missile defense program; and
        <bullet> Support a whole-of-government approach on both sides 
        of our border with Mexico and strengthen Mexico's ability 
        efforts against drug trafficking organizations.

         interoperability with state and local first responders
    16. Senator McCain. Vice Admiral Winnefeld, a tragic lesson learned 
in the response to the attacks of September 11 was the inability of 
first responders to communicate amongst one another. Given the role DOD 
forces would assume in assisting State and local authorities in 
responding to large-scale incidents, the importance of these varying 
groups to communicate is vitally important if we are to avoid 
unnecessary miscommunication and risk. If confirmed, what steps will 
you take to ensure interoperability between title 10 forces and their 
civilian counterparts?
    Admiral Winnefeld. It is my belief that communications 
interoperability among all mission partners is a cornerstone of the 
Nation's response to disaster events. As I understand it, NORTHCOM has 
taken several initiatives to reduce miscommunication and ensure 
information sharing among our partners. NORTHCOM is a key participant 
in the Interagency Board for Equipment Standardization and 
Interoperability and the Federal Partnership for Interoperable 
Communications and, in concert with DHS and the National Guard Bureau, 
developed both the Strategic Operational Information Sharing Plan and 
the Deployable Communications Standards Publication. These efforts are 
critical in establishing interoperability protocols and standards for 
both communications systems and information exchange processes and will 
be used as the foundation for future procurement of DOD communications 
systems. I also believe it is important that we test these systems to 
ensure they function.
    Further, NORTHCOM continues to partner with the National Guard 
Bureau and the Federal Emergency Management Agency on use and 
employment of our Deployable Cellular Systems and Incident Awareness 
and Assessment/Full Motion Video suites. These systems are designed for 
rapid employment to an incident to improve communications and shared 
situational awareness through augmented cellular phone services and 
video situational awareness to facilitate decisionmaking. In 
particular, mobile cellular capability can be used to mitigate 
commercial communications outages by providing cellular voice and data 
devices for key civilian leadership and agencies while at the same time 
providing radio communications interoperability among first responders 
and title 32/title 10 DOD forces.

    17. Senator McCain. Vice Admiral Winnefeld, are you aware of any 
interoperability gaps between State and local first responders and 
title 10 forces?
    Admiral Winnefeld. I am not aware of any specific interoperability 
gaps forces among first responders and title 10 forces, but if 
confirmed I will look closely at interoperability in communications. As 
I understand it, NORTHCOM is dedicated to constantly improving 
processes and procedures to mitigate potential and unidentified gaps. 
For instance, since 2005 NORTHCOM has hosted an annual communications 
exercise solely designed to refine interoperable communications among 
National Guard, State, and local emergency management personnel and 
first responders. Last year's exercise conducted in Texas, Arizona, and 
South Carolina drew over 50 different participants from Federal, State, 
and local agencies.
    Additionally, NORTHCOM is participating in efforts conducted by the 
Interagency Board and DHS's Office of Interoperability and 
Compatibility to develop a Communications Unit Leader track under the 
National Incident Management System. This track is designed to train 
and certify communications personnel in typing incident scene 
communications requirements, standardizing processes and protocols, and 
providing a credentialing system to ensure equivalency among 
communications personnel.

        sharing of information and intelligence between agencies
    18. Senator McCain. Vice Admiral Winnefeld, if confirmed, how will 
you seek to break down the barriers relating to intelligence collection 
and evaluation between agencies to ensure NORTHCOM has an accurate 
picture of potential threats?
    Admiral Winnefeld. I believe that persistent engagement and 
collaboration with our interagency partners is essential to ensure we 
are aware of and prepared to deal with emerging threats. To the maximum 
extent allowed by law and policy, we must strive for an ``information 
push'' rather than an ``information pull'' culture, as well as seek new 
ways of manipulating the information we do have in order to separate 
key threat signals from the noise. Often, this information is sensitive 
and closely held in law enforcement and/or intelligence channels. If 
confirmed, I will consistently articulate mission needs, particularly 
in the Force Protection and Defense Support of Civil Authorities 
arenas, while assuring the lead Federal agencies that we will safeguard 
their operational and investigative sensitivities. We must also pursue 
these activities in full compliance with Intelligence Oversight 
guidelines and ensure we maintain public trust in our ability to 
protect civil liberties. I will also strive to develop and maintain a 
solid and trusted set of relationships with the various intelligence 
agencies that includes as many liaison officers as feasible.

           restructuring of federal homeland response forces
    19. Senator McCain. Vice Admiral Winnefeld, the Quadrennial Defense 
Review (QDR) calls for a significant restructuring of the force 
packages NORTHCOM provides in support of civil authorities in the event 
of a large-scale disaster or attack. The proposal calls for the 
restructuring of one existing brigade-sized element, the elimination of 
another, and the creation of 10 smaller Homeland Response Forces (HRFs) 
to be spread throughout the 10 Federal Emergency Management Agency 
(FEMA) regions of the country. What are your views about this new 
approach?
    Admiral Winnefeld. As I understand it, the intent of this decision 
is to rebalance the Nation's Chemical, Biological, Radiological, 
Nuclear, and high-yield Explosives (CBRNE) Consequence Management (CM) 
forces to better reflect the shared roles of the States and Federal 
Government during a domestic event. It also appears to me that the HRFs 
are designed to provide a faster life-saving response than the existing 
CBRNE CM Forces (CCMRFs) and to capitalize on the advantages of 
alignment with the FEMA regions, deeper regional knowledge, and State 
ownership.
    That said, it remains important that a robust Federal response be 
prepared to augment the HRFs. This will be provided by a revised CCMRF 
that has 700 additional personnel and a more rapid response capability, 
along with two command and control CCMRFs that can coordinate responses 
to additional CBRNE events using general purpose forces.
    It is my understanding that work is in progress at NORTHCOM, in 
collaboration with the requisite partners, on detailed implementation 
planning for this modified construct. If confirmed, I look forward to 
working with the National Guard Bureau and others to implement it 
properly, while at the same time closely monitoring training and 
readiness levels to ensure we provide the Nation the strongest possible 
response capability.

    20. Senator McCain. Vice Admiral Winnefeld, are there any concerns 
about the apparent shift of authority of these forces from Federal 
control to that of the States, particularly given the potential for 
these forces to be moved and utilized across State lines?
    Admiral Winnefeld. Although work is ongoing to develop this new 
construct, I believe the various Federal and State response forces, 
under the National Response Framework, will be able to achieve unity of 
effort. My sense is that advance planning, gaming, exercising, and 
effective employment of the Emergency Management Assistance Compact 
will be important elements of a successful program. If confirmed, I 
intend to work closely with and through the National Guard Bureau to 
the States to ensure all forces established to accomplish this mission 
are properly manned, trained, and equipped to execute it, and that 
timelines and command and control relationships during execution are 
clearly understood and effective.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                 guard and reserve in northern command
    21. Senator Inhofe. Vice Admiral Winnefeld, the integration of 
Active, Reserve, Guard, and interagency elements into your headquarters 
and the makeup of your subordinate units, makes NORTHCOM one of the 
most diverse agencies this Government has. As we all know, without our 
Guard and Reserve Forces, it would be impossible to conduct operations 
abroad while ensuring that our Homeland is secure and safe. I have 
legitimate concerns with respect to the impacts of Operation Enduring 
Freedom and Operation Iraqi Freedom rotations on our National Guard, as 
well as what I have been told to be the Air Force fighter reduction 
plan of 250 aircraft for the Air National Guard and its impacts on the 
18 Air Sovereignty Alert site requirement. As I have been informed, 
this reduction in aircraft will reduce or cancel Operation Noble Eagle 
and the associated Combat Air Patrols (CAP) that were instituted post-
September 11. What are your thoughts on the state of our National Guard 
and Reserves and their ability to provide support in times of crisis?
    Admiral Winnefeld. I believe our National Guard and Reserves have 
never been more capable than they are today; they are an amazingly 
versatile and battle-hardened force. From my point of view, they are 
critically important to NORTHCOM's mission, and their ability to 
provide support in times of crisis is solid and growing. If confirmed, 
I intend to develop a close relationship with the leadership of the 
Guard and Reserve--indeed, I already enjoy a superb relationship with 
the Chief, National Guard Bureau. While the Air Guard force structure 
resulting from the Air Force recapitalization plan remains to be seen, 
the professionals who employ this force will adapt with the 
demonstrated skill necessary to safeguard the Homeland.

    22. Senator Inhofe. Vice Admiral Winnefeld, do you believe that 
NORTHCOM has the right mix of Active Duty, Reserve, and National Guard 
present within your command?
    Admiral Winnefeld. It seems to me that the NORTHCOM staff has a 
healthy mix of Active Duty and Reserve component--although, if 
confirmed, I will develop a more informed view. My understanding is 
that NORTHCOM has a Reserve component presence in every staff 
directorate HQs working alongside their Active Duty co-workers. In 
addition, I understand that the National Guard has made a significant 
investment in personnel assigned to NORTHCOM. In fact, NORTHCOM has the 
largest concentration of title 10 National Guard officers in a joint 
organization outside of the National Guard Bureau. I am aware that 
there are over 50 full-time Reserve component authorizations in 
NORTHCOM HQs, of which 45 are filled, which is about the same 
percentage that applies to the active component.

    23. Senator Inhofe. Vice Admiral Winnefeld, can you confirm if 
there will be an Air Force fighter reduction in the Air National Guard? 
If so, what impact will it have on the 18 Air Sovereignty Alert sites 
and CAP requirements?
    Admiral Winnefeld. In my current position as Director of Strategic 
Plans and Policy for the Joint Staff, I am unable to confirm a 
reduction of the number of fighters in the Air National Guard; the 
balance between active and Guard force structure is a decision process 
led by the Department of the Air Force. However, if a reduction occurs, 
NORAD and NORTHCOM will work closely with the Air Force to ensure that 
the resulting force structure will still meet the requirements of 
Homeland Defense as directed under Operation Noble Eagle. I understand 
that the Air Force submitted to Congress, in response to National 
Defense Authorization Act language, a report that indicated that the 18 
Air Sovereignty Alert sites would be unaffected by the fiscal year 2011 
President's budget position. If confirmed, I will work closely with the 
Air Force to ensure the Air Sovereignty Alert site configuration 
supports national guidance on Homeland Air Defense.

                            missile defense
    24. Senator Inhofe. Vice Admiral Winnefeld, I have spent a lot of 
time and energy with regards to missile defense and I am convinced that 
the current administration does not take the necessity of the program 
seriously. I believe we are underfunding missile defense programs and 
not driving the Missile Defense Agency (MDA)  and  others  to  develop  
a  robust,  layered,  and  integrated  system  of  ground-, sea-, and 
space-based radars and interceptors. I have specific concerns about the 
Phased Adaptive Approach:

        <bullet> there is no map or plan showing the deployment of the 
        system and how it will be integrated;
        <bullet> while Aegis and our SM-3s are outstanding assets and 
        vital to our National security, we do not have enough Aegis 
        ships that are Ballistic Missile Defense (BMD) capable;
        <bullet> I have been told we are having problems with the 
        development of SM-3 1B which has taken expertise and focus away 
        from 2A and 2B development, potentially pushing back the 
        timeline;
        <bullet> I am concerned about our ability to integrate all the 
        radars we have into the existing BMD architecture which I have 
        been told is limited looking out to the east (Iranian threat) 
        as well as integrating Aegis with existing ground based radars;
        <bullet> I am concerned there is not enough testing for our 
        ground-based interceptors (GBIs) in Alaska and California nor 
        are there enough missiles to ensure we can continue to test as 
        well as maintain enough on status;
        <bullet> I am concerned we have not tested the new kill 
        vehicles that are being installed on our GBIs; and
        <bullet> I am concerned that we are not moving forward on 
        testing the two-stage GBI.

    Every day there are open source reports of the efforts of North 
Korea and Iran, known enemies of the United States, to develop more 
advanced missiles and munitions with the intent to target the United 
States and our military forces. China and Russia continue their 
advancements as well, even as our President works to reduce our own 
capabilities and restrain our efforts to adequately defend the Nation. 
In short, our enemies are advancing their ability to reach out and hit 
us in a devastating way. What are your thoughts on whether we are 
assuming too much risk? If not, what can you tell me on how we are 
mitigating the known risk from those threats I have mentioned?
    Admiral Winnefeld. DOD spent considerable time during the recently 
concluded Ballistic Missile Defense Review (BMDR) assessing both 
evolving threats as well as our country's current and projected 
capabilities over the next 10 years. I believe the Ground-based 
Midcourse Defense (GMD) system, as currently envisioned, will provide 
adequate defense against the evolving threat from North Korea and Iran, 
neither of which are currently capable of attacking the United States 
but which certainly possess the ambition to develop this capability. At 
the same time, DOD is placing additional emphasis on regional missile 
defense under the Phased Adaptive Approach (PAA) in order to pace the 
threat and provide assurance to our allies and partners. As such, we 
will be able to provide some measure of defense against medium and 
intermediate range missiles launched from the Middle East against our 
forces and our allies in Europe sooner than previously planned. 
Moreover, Homeland ballistic missile defense will benefit from this 
approach as soon as a surveillance radar becomes operational in 
southeastern Europe, which will provide earlier warning of an Iranian 
attack against the United States and increase the probability of 
success of GMD interception. In the longer term, when future 
interceptors such as the SM-3 Block IIB become operational, they could 
provide an additional layer of defense for the Homeland.
    If confirmed, I will participate along with the other combatant 
commanders and service chiefs in the department's ongoing analysis to 
ensure our future capability requirements and hedge strategies continue 
to stay ahead of the threat. I will also work to ensure that our 
systems are adequately tested and our operators properly trained to 
execute this important mission.

    25. Senator Inhofe. Vice Admiral Winnefeld, have you looked at the 
recommendations on the development of either the three-stage or two-
stage GBIs?
    Admiral Winnefeld. Yes, though if confirmed I will reinforce my 
knowledge of this program. My understanding is that the BMDR includes a 
hedge strategy that includes the continued development and assessment 
of a two-stage ground-based interceptor, including a test later this 
year. If confirmed, I will work closely with the MDA to explore the 
potential advantages of deploying a three-stage, two-stage mix of GBIs 
within the Homeland.

    26. Senator Inhofe. Vice Admiral Winnefeld, what are your thoughts 
on a Third Site location on the east coast of the United States?
    Admiral Winnefeld. As a follow-on to the BMDR, the Department is 
examining how it will execute, operationally and programmatically, the 
tenets laid out in the BMDR. I understand that as part of the ongoing 
analysis, the capabilities and deployment strategy being studied by 
NORTHCOM includes an east coast capability.

    27. Senator Inhofe. Vice Admiral Winnefeld, on February 11, the 
Airborne Laser successfully intercepted a boosting ballistic missile--
the first time a directed-energy system has destroyed such a target in 
any phase of flight. In a time of crisis, is there any plan to be able 
to use this aircraft to protect our Homeland?
    Admiral Winnefeld. The recent engagement test of the Airborne Laser 
demonstrated a unique capability in the area of BMD and is a pathfinder 
for future directed energy technologies. However, it is my 
understanding that due to the operational challenges associated with 
effectively employing this system against a real-world threat as 
opposed to the high cost of maintaining it, the program has been 
redesignated as a technology demonstration program and is therefore not 
part of the baseline BMD architecture.

    28. Senator Inhofe. Vice Admiral Winnefeld, should we look into 
that?
    Admiral Winnefeld. It is my belief that during a time of crisis, 
the Department will seek to provide the combatant commands with the 
required capabilities to deter or, if necessary, defeat the threat.
                                 ______
                                 
            Questions Submitted by Senator George S. LeMieux
                            border security
    29. Senator LeMieux. Vice Admiral Winnefeld, one of your areas of 
responsibility is the southwest border shared with Mexico. How secure 
are our southern borders and what recommendations do you have to stem 
the flow of humans and narcotics through them?
    Admiral Winnefeld. Illicit trafficking of drugs, arms, and bulk 
cash challenge the U.S. and Mexican Governments on both sides of the 
border. As such, my sense is that NORTHCOM has separate but 
complementary roles north and south of the border. Regarding the 
former, the command plays a supporting role to DHS, DOJ, and other 
critical stakeholders in a whole-of-government approach to enhancing 
security along the southwest border. If confirmed, I will look for ways 
to improve this support that are both effective and legal. Regarding 
the latter, given the Mexican military's assigned role in the struggle 
against drug trafficking organizations, NORTHCOM plays a vital role in 
enhancing the Mexican military's capability and capacity, which I would 
seek to enhance. If confirmed, I look forward to reviewing current 
NORTHCOM initiatives, visiting the Southwest border, listening to our 
Mexican partners, and assessing how best the command can support U.S. 
Government efforts to assist Mexico and other international partners in 
the region.

                       ballistic missile defense
    30. Senator LeMieux. Vice Admiral Winnefeld, what is your 
assessment of America's current ballistic missile defense capabilities 
and in what areas would you like to see further development?
    Admiral Winnefeld. It is my belief that the GMD system adequately 
addresses the potential rogue threats we face today. The MDA's 
evolutionary development of the GMD system continues to demonstrate 
technology enhancements that will enable us to defeat the evolving 
threats from long-range missiles under development by North Korea and 
Iran.
    Meanwhile, the newly-adopted Phased Adaptive Approach (PAA) in 
Europe, intended to pace the threat by providing defense against medium 
and intermediate ballistic missiles coming from the Middle East much 
sooner, should also provide deployable, agile, and tailorable defensive 
capabilities to enhance defense of the Homeland. For example, in the 
near term, a PAA surveillance radar in southeastern Europe will provide 
earlier warning of a ballistic missile attack from Iran, and thus 
provide the GMD system with a higher probability of intercepting such a 
threat. In the long term, when future interceptors such as the SM-3 
Block IIB become operational, they will provide an additional layer of 
defense.
    As for areas requiring further development, I believe we must 
continue developing our space-based sensor capabilities in order to 
attain a birth-to-death tracking and engagement capability and we need 
to continue moving into a net-centric integrated architecture to enable 
service, agency, and potentially allied systems integration to 
facilitate data sharing, situational awareness and coordinated 
engagement capabilities.

                            eguardian system
    31. Senator LeMieux. Vice Admiral Winnefeld, the eGuardian system 
is an unclassified system, that once implemented, will help DOD and law 
enforcement identify suspicious activity and hopefully preempt a 
terrorist attack. How close are we to implementing this system?
    Admiral Winnefeld. As I understand it, the Under Secretary of 
Defense for Policy will establish a plan and issue policy and 
procedures for the implementation of the eGuardian system no later than 
June 30, 2010. The Assistant Secretary of Defense for Homeland Defense 
and Americas' Security Affairs estimates that the fielding and 
implementation of eGuardian will begin in September 2010. 
Implementation in the NORTHCOM area of responsibility will be scheduled 
in four phases, followed by a fifth phase for the other Geographical 
Combatant Commands. Each implementation phase will involve all Service 
components, Services, and agencies and each phase will require 60-to-90 
days for completion.

                             cyber attacks
    32. Senator LeMieux. Vice Admiral Winnefeld, in your opinion, how 
should government-sanctioned Chinese cyber penetrations of American 
companies be categorized? Is it an act of war, a violation of 
international law, or something else?
    Admiral Winnefeld. It is my belief that, depending on the 
circumstances, a cyber intrusion into a privately owned network could 
constitute one of the following: a violation of international law, a 
violation of domestic law, espionage, a violation of a State's 
sovereignty, or an act of trespass. In my opinion, such an intrusion 
would only be an act of war if it were conducted by an identifiable 
adversary and included demonstrated intent, planning, and execution, 
leading to actual destruction of our infrastructure or our financial 
system.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins
                           homeland response
    33. Senator Collins. Vice Admiral Winnefeld, in the recently 
released QDR, the Pentagon announced plans to develop HRFs in each of 
the 10 FEMA regions. These units would respond to domestic incidents 
involving weapons of mass destruction, or other catastrophic disasters. 
How do you envision the HRF's coordinating, planning, training, and 
exercising with the FEMA regional offices?
    Admiral Winnefeld. NORTHCOM is working closely with the National 
Guard Bureau and other mission partners to develop integrated plans for 
employment of the HRFs. The HRF concept aligns the HRFs with the 10 
FEMA regions and tasks them with coordinating regionally focused 
military planning, training, exercises, and other efforts to support 
unity of effort across Federal, State, and local responses. As such, I 
would expect a close coordinating relationship between the HRFs and the 
FEMA regional offices, as well as with the NORTHCOM Defense 
Coordinating Officer within each FEMA region. If confirmed, I look 
forward to working together with the National Guard Bureau as the HRF 
capability stands up.

    34. Senator Collins. Vice Admiral Winnefeld, one of the most 
effective ways to enhance our National preparedness is to develop 
coordinated and detailed plans for preventing and responding to 
disasters before they occur. DOD has unique planning capabilities that 
can be brought to bear to assist in these efforts. How can the 
Pentagon, and NORTHCOM specifically, more effectively leverage its 
planning expertise to assist DHS and other Federal agencies in planning 
for catastrophic natural disasters or terrorist attacks?
    Admiral Winnefeld. It is my understanding that DOD (including 
NORTHCOM) has for some time leveraged its planning expertise to assist 
DHS and other Federal agencies under the Integrated Planning System 
(set forth in the National Strategy for Homeland Security of 2007, and 
Annex I (National Planning) to Homeland Security Presidential Directive 
8 (HSPD-8) (National Preparedness). Specifically:

        <bullet> NORTHCOM planners participate, in coordination with 
        OSD and the Joint Staff, in all levels of planning with DHS and 
        FEMA, from mission analysis to approved and published Federal 
        plans.
        <bullet> NORTHCOM, when requested by DHS/FEMA, routinely sends 
        planners to assist in planning efforts.
        <bullet> NORTHCOM attends and hosts planning conferences with 
        its mission partners to coordinate and provide planning 
        assistance.
        <bullet> NORTHCOM shares its plans with critical mission 
        partners, including Federal agencies.

    The National Security Staff is leading the development of a 
National Preparedness Presidential Policy Directive that will supersede 
HSPD-8 (including Annex I) and will implement a new planning system. If 
confirmed, I will ensure NORTHCOM continues to provide planning 
expertise on the development of Federal interagency plans, attend and 
host planner-related events, and continue to share plans and 
information to foster a closer working relationship with Federal 
partners.
                                 ______
                                 
    [The nomination reference of VADM James A. Winnefeld, Jr., 
USN, follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  January 20, 2010.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the U.S. Navy to the 
grade indicated while assigned to a position of importance and 
responsibility under title 10, U.S.C., section 601:

                             To be Admiral.

    VADM James A. Winnefeld, Jr., 0000.
                                 ______
                                 
    [The biographical sketch of VADM James A. Winnefeld, Jr., 
USN, which was transmitted to the committee at the time the 
nomination was referred, follows:]
                            Department of the Navy,
                                        2000 Navy Pentagon,
                                  Washington, DC, October 29, 2009.
Hon. Carl Levin, Chairman,
Committee on Armed Services,
U.S. Senate,
Washington, DC.
    Dear Mr. Chairman: The President, under the provisions of section 
601, title 10, U.S.C., has submitted to the Senate the nomination of 
Vice Admiral James A. Winnefeld, Jr., U.S. Navy, for appointment to the 
grade of admiral.
    Vice Admiral Winnefeld is presently serving as Director, Strategic 
Plans and Policy, J-5, Joint Staff; Senior Member, U.S. Delegation to 
the United Nations Military Staff Committee. He will be assigned as 
Commander, Northern Command/Commander, North American Aerospace Defense 
Command. He is 53 years of age.
    This action will not result in the Navy exceeding the number of 
authorized four-star positions.
    For the information of the committee, I am enclosing a career 
resume on Vice Admiral Winnefeld which includes a summary of his joint 
duty assignments.
            Most respectfully,
                                              R.S. Erskine,
                                             Director, Flag Officer
                                       Management and Distribution.
cc:
Hon. John McCain, Ranking Member,
Committee on Armed Services,
U.S. Senate,
Washington, DC.
                                 ______
                                 
 Transcript of Naval Service for VADM James Alexander Winnefeld, Jr., 
                                  USN

24 April 1956.............................  Born in Coronado, CA
07 June 1978..............................  Ensign
07 June 1980..............................  Lieutenant (junior grade)
01 July 1982..............................  Lieutenant
01 September 1988.........................  Lieutenant Commander
01 September 1992.........................  Commander
01 September 1997.........................  Captain
01 October 2003...........................  Rear Admiral (lower half)
06 May 2006...............................  Designated Rear Admiral
                                             while serving in billets
                                             commensurate with that
                                             grade
01 August 2006............................  Rear Admiral
14 September 2007.........................  Vice Admiral, Service
                                             continuous to date



Assignments and duties:

------------------------------------------------------------------------
                                                     From         To
------------------------------------------------------------------------
Naval Station, Annapolis, MD (Division Officer).   June 1978   Nov. 1978
Naval Aviation Schools Command, Pensacola, FL      Nov. 1978   Apr. 1979
 (DUINS)........................................
Training Squadron SIX (Student).................   Apr. 1979   June 1979
Naval Aviation Schools Command, Pensacola, FL      June 1979   Dec. 1979
 (DUINS)........................................
Training Squadron TWO THREE (Student)...........   June 1979   Dec. 1979
Training Squadron TWO TWO (Student).............   Dec. 1979    May 1980
Fighter Squadron ONE TWO FOUR (Replacement         Jun. 1980   Apr. 1981
 Pilot).........................................
Fighter Squadron TWO FOUR (Power Plants Branch     Apr. 1981   Nov. 1983
 Officer).......................................
Naval Fighter Weapons School, San Diego, CA        Nov. 1983   Jan. 1987
 (Quality Assurance Officer)....................
Fighter Squadron ONE TWO FOUR (Replacement Naval   Jan. 1987   Apr. 1987
 Aviator).......................................
Fighter Squadron ONE (Operations Officer).......   Apr. 1987   Jan. 1990
Joint Staff (Action Officer, EUCOM/CENTCOM         Feb. 1990   July 1991
 Branch, J3)....................................
Joint Staff (Senior Aide-De-Camp to the Chaiiman   July 1991   Aug. 1992
 of the Joint Chiefs of Staff)..................
Fighter Squadron ONE TWO FOUR (Student).........   Aug. 1992   Jan. 1993
XO, Fighter Squadron TWO ONE ONE................   Jan. 1993   Apr. 1994
CO, Fighter Squadron TWO ONE ONE................   Apr. 1994   Mar. 1995
Naval Nuclear Power Training Command, Orlando,     Mar. 1995   Feb. 1996
 FL (Student)...................................
Prospective Executive Officer, USS John C.         Feb. 1996   Mar. 1996
 Stennis (CVN 74)...............................
Naval Reactors, Department of Energy,              Mar. 1996   Aug. 1996
 Washington, DC (Student).......................
XO, USS John C Stennis (CVN 74).................   Aug. 1996    May 1998
CO, USS Cleveland (LPD 7).......................    May 1998   Feb. 2000
CO, USS Enterprise (CVN 65).....................   Feb. 2000   Mar. 2002
Office of the Vice Chief of Naval Operations       Mar. 2002   July 2003
 (Executive Assistant)..........................
Commander, U.S. Atlantic Fleet (Director,          July 2003   Dec. 2004
 Warfare Programs and Readiness) (N8)...........
Commander, Carrier Strike Group TWO.............   Dec. 2004   June 2006
Commander, U.S. Joint Forces Command (Director     June 2006   Aug. 2007
 of Joint Innovation and Experimentation, J9)...
Commander, SIXTH Fleet/Commander, Striking and     Sep. 2007   Aug. 2008
 Support Forces NATO/Deputy Commander, U.S.
 Naval Forces Europe/Commander, Joint
 Headquarters Lisbon............................
Joint Staff (Director, Strategic Plans and         Aug. 2008     To date
 Policy) (J5)/Senior Member, U.S. Delegation to
 the United Nations Military Staff Committee....
------------------------------------------------------------------------

Medals and awards:
    Defense Superior Service Medal
    Legion of Merit with two Gold Stars
    Bronze Star Medal
    Defense Meritorious Service Medal
    Meritorious Service Medal
    Air Medal with First Strike/Flight Award
    Navy and Marine Corps Commendation Medal with one Gold Star
    Joint Service Achievement Medal
    Navy and Marine Corps Achievement Medal
    Joint Meritorious Unit Award
    Navy Unit Commendation with one Bronze Star
    Navy ``E'' Ribbon with ``E'' Device
    National Defense Service Medal with one Bronze Star
    Armed Forces Expeditionary Medal with two Bronze Stars
    Southwest Asia Service Medal with one Bronze Star
    Global War on Terrorism Expeditionary Medal
    Global War on Terrorism Service Medal
    Sea Service Deployment Ribbon with one Silver Star and one Bronze 
Star
    Expert Pistol Shot Medal

Special qualifications:
    BS (Aerospace Engineering) Georgia Institute of Technology, 1978
    Designated Naval Aviator, 1980
    Capstone, 2004-3
    Designated Level IV Joint Qualified Officer, 2009

Personal data:
    Wife: Mary Alice Werner of Menomonie, WI
    Children: James A. Winnefeld (Son) Born: 29 November 1995; and 
Jonathan J. Winnefeld (Son) Born: 11 May 1998.

Summary of joint duty assignments:

------------------------------------------------------------------------
            Assignment                   Dates               Rank
------------------------------------------------------------------------
Joint Staff (Action Officer,         Feb. 90-July 91                  LCDR
 EUCOM/CENTCOM Branch, J3).......
Joint Staff (Senior Aide-De-Camp     July 91-Aug. 92                   CDR
 to the Chairman of the Joint
 Chiefs of Staff)................
Commander, U.S. Joint Forces         June 06-Aug. 07               RADM
 Command (Director of Joint
 Innovation and Experimentation,
 J9).............................
Commander, SIXTH Fleet/Commander,    Sep. 07-Aug. 08               VADM
 Striking and Support Forces NATO/
 Deputy Commander, U.S. Naval
 Forces Europe/Commander, Joint
 Headquarters Lisbon.............
Joint Staff (Director, Strategic     Aug. 08-To date               VADM
 Plans and Policy) (J5)/Senior
 Member, U.S. Delegation to the
 United Nations Military Staff
 Committee.......................
------------------------------------------------------------------------

                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by VADM James A. 
Winnefeld, Jr., USN, in connection with his nomination 
follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    James A. Winnefeld, Jr. (nickname: Sandy)

    2. Position to which nominated:
    Commander, Northern Command/Commander, North American Aerospace 
Defense Command.

    3. Date of nomination:
    20 January 2010.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    24 April 1956; Coronado, CA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to the former Mary Alice Werner.

    7. Names and ages of children:
    James A. Winnefeld III, age 13; Jonathan J. Winnefeld, age 11.

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member (otherwise referred to as a Trustee) of U.S. Naval Academy 
Foundation: Athletic and Scholarship Programs (a nonprofit 
organization).

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    Member of the Academy of Distinguished Engineering Alumni, Georgia 
Institute of Technology.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                            James A. Winnefeld, Jr.
    This 29th day of October, 2009.

    [The nomination of VADM James A. Winnefeld, Jr., USN, was 
reported to the Senate by Chairman Levin on May 5, 2010, with 
the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on May 7, 2010.]
                              ----------                              

    [Prepared questions submitted to LTG Keith B. Alexander, 
USA, by Chairman Levin prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. The integration of joint capabilities under the Goldwater-
Nichols Act has been a remarkable achievement. Our military forces are 
more interoperable today than they ever have been in our Nation's 
history. I do not see a need to modify the Goldwater-Nichols Act at 
this time.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commander, U.S. Cyber Command?
    Answer. In accordance with Secretary of Defense guidance of June 
23, 2009, the Commander, U.S. Cyber Command is responsible for 
executing the specified cyberspace missions detailed in Section 18d(3) 
of the Unified Command Plan (UCP) as delegated by the Commander, U.S. 
Strategic Command to secure our freedom of action in cyber space and 
mitigate the risks to our national security that come from our 
dependence on cyberspace and the associated threats and 
vulnerabilities. Subject to the Commander, U.S. Strategic Command, 
delegation and in coordination with mission partners, specific missions 
include: integrating cyberspace operations and synchronizing 
warfighting effects across the global security environment; providing 
support to civil authorities and international partners; directing 
global information grid operations and defense; executing full-spectrum 
military cyberspace operations; serving as the focal point for 
deconfliction of the Department of Defense (DOD) offensive cyberspace 
operations; providing improved shared situational awareness of 
cyberspace operations, including indications and warning; and providing 
military representation to U.S. national agencies, U.S. commercial 
agencies, and international agencies for cyberspace matters.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I am deeply honored that the President nominated me to be 
the first Commander of U.S. Cyber Command. Over the past 3 decades, I 
have served in a wide variety of Joint and Army positions, including 15 
years in command, that have prepared me well for the challenges ahead 
if confirmed by the U.S. Senate.
    First, I have 35 years in the profession of arms, serving in 
various command, staff and intelligence positions in the military. I 
have served as the Deputy Chief of Staff of Intelligence, Headquarters, 
Department of the Army; Commanding General of the U.S. Army 
Intelligence and Security Command; Director of Intelligence, U.S. 
Central Command; and Deputy Director for Requirements, Capabilities, 
Assessments, and Doctrine, J-2, for the Joint Chiefs of Staff.
    Second, my experiences and knowledge gained over the last 4\1/2\ 
years serving as Director, National Security Agency (NSA), Chief, 
Central Security Service and Commander, Joint Functional Component 
Command-Network Warfare (JFCC-NW) have been instrumental in preparing 
me for the challenges of this new complex warfighting domain that is 
cyberspace. NSA's cryptologic work in SIGINT/Computer Network 
Exploitation, Information Assurance and Network Threat Operations is 
second to none and foundational to our future success in the cyber 
domain. I have personally championed NSA's work and learned a great 
deal from the outstanding professionals at NSA/CSS. Over the last 4\1/
2\ years, I have also forged important partnerships with both our 
allies and with industry to strengthen the defense of our collective 
networks. Furthermore, my assignment as the Commander, JFCC-NW, 
including operational control over Joint Task Force-Global Network 
Operations (JTF-GNO) for the past 18 months, has provided me with the 
experience, particularly in the realm of deliberate and crisis action 
planning, to ensure the effective execution of cyberspace 
responsibilities as directed by the Secretary of Defense through 
Commander, U.S. Strategic Command.
    Finally, I believe my academic background has intellectually 
prepared me for the challenges of high-level command and complex 
environments. I have Masters of Science degrees in Business 
Administration, Systems Technology (Electronic Warfare) and Physics, as 
well as National Security Strategy.
    Question. If confirmed as the Commander of U.S. Cyber Command, 
would you have command of or exercise operational control of the 
Defense Information Systems Agency's (DISA) and Military Services' 
communications networks?
    Answer. If confirmed as Commander, U.S. Cyber Command, I will be 
responsible for directing the operation and defense of DOD's military 
information networks as specified in the UCP and as delegated by 
Commander, U.S. Strategic Command. I will execute this mission through 
each of the Service Network Operations and Security Centers. I will not 
exercise command or operational control over the DISA communications 
networks. DISA will continue to be responsible for acquiring, 
engineering and provisioning enterprise infrastructure to assure the 
availability of military information networks. As a Combat Support 
Agency, DISA will maintain a close working relationship with U.S. Cyber 
Command, providing expertise on the networks, communications and 
computing infrastructure operated by DISA through both a DISA Field 
Office and a DISA Support Element.
    Question. As a career intelligence officer, what experience do you 
have that qualifies you to command these networks and to command 
military forces and military operations?
    Answer. Answer provided in the classified supplement.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Commander, 
U.S. Cyber Command?
    Answer. I fundamentally believe that there is always something to 
be learned to enhance my expertise in this very complex and dynamically 
changing domain. If confirmed, I will engage with combatant commanders 
to understand better how U.S. Cyber Command can best support and help 
meet their operational missions. Additionally, I would engage with key 
officials and personnel within the Executive and Legislative branches 
of the U.S. Government, senior military leaders, and leaders throughout 
the Intelligence Community in order to identify, assess, and mitigate 
the cyber threats we face.
    Question. Is there a precedent for a career intelligence officer to 
serve as a combatant commander?
    Answer. I know of no career intelligence officers who have 
previously served as either a combatant or subunified commander. 
However, two former Directors of NSA, General Lew Allen and Admiral 
Noel Gayler, served with great distinction as the Chief of Staff, U.S. 
Air Force and Commander, U.S. Pacific Command, respectively.
                             relationships
    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense 
and from the Secretary of Defense to the commanders of the combatant 
commands. Other sections of law and traditional practice, however, 
establish important relationships outside the chain of command. Please 
describe your understanding of the relationship the Commander, U.S. 
Cyber Command, will have to the following officials:
    The Secretary of Defense.
    Answer. Pursuant to title 10, U.S.C., section 164, subject to the 
direction of the President, the Commander, U.S. Strategic Command, 
performs duties under the authority, direction, and control of the 
Secretary of Defense and is directly responsible to the Secretary for 
the preparedness of the command to carry out missions assigned to the 
command. As a subunified command under the authority, direction, and 
control of the Commander, U.S. Strategic Command, U.S. Cyber Command 
will be directly responsible to the Secretary of Defense through the 
Commander, U.S. Strategic Command . If confirmed, I will work closely 
with the Secretary in coordination with Commander, U.S. Strategic 
Command, on matters of strategic importance.
    Question. The Deputy Secretary of Defense.
    Answer. In accordance with title 10, U.S.C., section 132, the 
Deputy Secretary of Defense will perform such duties and exercise 
powers prescribed by the Secretary of Defense. The Deputy Secretary of 
Defense will act for and exercise the powers of the Secretary of 
Defense when the Secretary is disabled or the office is vacant. If 
confirmed, I will work closely with the Deputy Secretary, in 
coordination with Commander, U.S. Strategic Command, on matters of 
strategic importance.
    Question. The Director of National Intelligence.
    Answer. The Intelligence Reform and Terrorist Prevention Act of 
2004 established the Director of National Intelligence to act as the 
head of the Intelligence Community, principal advisor to the President, 
National Security Council, and Homeland Security Council on 
intelligence matters pertaining to national security, and to oversee 
and direct the implementation of the National Intelligence Program. 
Pursuant to title 50, U.S.C., section 403, subject to the authority, 
direction, and control of the President, the Director of National 
Intelligence is responsible to coordinate national intelligence 
priorities and to facilitate information sharing among the Intelligence 
Community. If confirmed, I will work closely with the Commander, U.S. 
Strategic Command and through the Secretary of Defense to coordinate 
and exchange information with the Director of National Intelligence as 
needed to ensure unified effort and the leveraging of available 
synergies within the Intelligence Community to support matters of 
national security.
    Question. The Under Secretary of Defense for Policy.
    Answer. Title 10, U.S.C. and current DOD directives establish the 
Under Secretaries of Defense as the principal staff assistants and 
advisors to the Secretary of Defense regarding matters related to their 
respective functional areas. Within these areas, the Under Secretaries 
exercise policy and oversight functions, and in discharging their 
responsibilities, the Under Secretaries may issue instructions and 
directive memoranda that implement policy approved by the Secretary. If 
confirmed, I look forward to working with the Under Secretary of 
Defense for Policy, in coordination with Commander, U.S. Strategic 
Command, on all policy issues that affect U.S. Cyber Command 
operations.
    Question. The Under Secretary of Defense for Intelligence.
    Answer. Title 10, U.S.C. and current DOD directives establish the 
Under Secretaries of Defense as the principal staff assistants and 
advisors to the Secretary of Defense regarding matters related to their 
respective functional areas. Within these areas, the Under Secretaries 
exercise policy and oversight functions and, in discharging their 
responsibilities the Under Secretaries may issue instructions and 
directive memoranda that implement policy approved by the Secretary. If 
confirmed, I look forward to working with the Under Secretary of 
Defense for Intelligence, in coordination with Commander, U.S. 
Strategic Command, on matters in the area of U.S. Cyber Command's 
assigned responsibilities.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics.
    Answer. Title 10, U.S.C. and current DOD directives establish the 
Under Secretaries of Defense as the principal staff assistants and 
advisors to the Secretary of Defense regarding matters related to their 
respective functional areas. Within these areas, the Under Secretaries 
exercise policy and oversight functions and, in discharging their 
responsibilities the Under Secretaries may issue instructions and 
directive memoranda that implement policy approved by the Secretary. If 
confirmed, I look forward to working with the Under Secretary of 
Defense for Acquisition, Technology, and Logistics, in coordination 
with Commander, U.S. Strategic Command, on matters in the area of U.S. 
Cyber Command's assigned responsibilities.
    Question. The Assistant Secretary of Defense for Networks and 
Information Integration .
    Answer. Under the authority of DOD Directive 5144.1 and consistent 
with titles 10, 40, and 44, U.S.C., the Assistant Secretary of Defense 
for Networks and Information Integration (ASD(NII)) serves as the DOD 
Chief Information Officer (CIO) and is the principal staff assistant 
and advisor to the Secretary of Defense and Deputy Secretary of Defense 
on networks and network-centric policies and concepts; command and 
control (C2); communications; non-intelligence space matters; 
enterprise-wide integration of DOD information matters; Information 
Technology (IT), including National Security Systems (NSS); information 
resource management (IRM); spectrum management; network operations; 
information systems; information assurance; positioning, navigation, 
and timing policy, including airspace and military-air-traffic control 
activities; sensitive information integration; contingency support and 
migration planning; and related matters. Pursuant to chapter 113, 
subchapter III of 40 U.S.C., the ASD(NII)/DOD CIO has responsibilities 
for integrating information and related activities and services across 
DOD. If confirmed, I look forward to working with the Assistant 
Secretary of Defense for Networks and Information Integration through 
the Secretary and Deputy Secretary of Defense and Commander, U.S. 
Strategic Command, on matters in the area of U.S. Cyber Command's 
assigned responsibilities.
    Question. The Assistant Secretary of Defense for Homeland Defense.
    Answer. The Assistant Secretary of Defense for Homeland Defense 
executes responsibilities including overall supervision of the homeland 
defense activities of the DOD while serving under the Under Secretary 
of Defense for Policy. Any relationship the Commander, U.S. Cyber 
Command requires with the Assistant Secretary of Defense for Homeland 
Security would exist with and through the Under Secretary of Defense 
for Policy. If confirmed, I look forward to working with the Assistant 
Secretary of Defense for Homeland Defense in concert with Commander, 
U.S. Strategic Command, Commander, U.S. Northern Command, and 
Commander, U.S. Pacific Command on related national security issues.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman is the principal military advisor to the 
President, National Security Council, and Secretary of Defense. title 
10, U.S.C., section 163 allows communication between the President or 
the Secretary of Defense and the combatant commanders to flow through 
the Chairman. By custom and tradition, and as instructed by the UCP, I 
would normally communicate with the Chairman in coordination with the 
Commander, U.S. Strategic Command.
    Question. The Secretaries of the Military Departments.
    Answer. Under title 10, U.S.C., section 165, subject to the 
authority, direction, and control of the Secretary of Defense, and 
subject to the authority of the combatant commanders, the Secretaries 
of the Military Departments are responsible for administration and 
support of forces that are assigned to unified and specified commands. 
The authority exercised by a subunified combatant commander over 
Service components is quite clear but requires close coordination with 
each Secretary to ensure that there is no infringement upon those 
lawful responsibilities which a Secretary alone may discharge. If 
confirmed, I look forward to building a strong and productive 
relationship with each of the Secretaries of the Military Departments 
in partnership with Commander, U.S. Strategic Command.
    Question. The Chiefs of Staff of the Services.
    Answer. The Service Chiefs are charged to provide organized, 
trained, and equipped forces to be employed by combatant commanders in 
accomplishing their assigned missions. Additionally, these officers 
serve as members of the Joint Chiefs of Staff and as such have a lawful 
obligation to provide military advice. Individually and collectively, 
the Service Chiefs are a tremendous source of experience and judgment. 
If confirmed, I will work closely and confer regularly with the Service 
Chiefs.
    Question. The combatant commanders and specifically the Commanders 
of U.S. Strategic Command and U.S. Northern Command.
    Answer. U.S. Cyber Command is a subordinate unified command under 
U.S. Strategic Command. The Commander, U.S. Cyber Command, will have 
both supported and supporting relationships with other combatant 
commanders, largely identified within the UCP, the Joint Strategic 
Capabilities Plan, execute orders and operation orders. In general, the 
Commander, U.S. Cyber Command, will be the supported commander for 
planning, leading, and conducting DOD defensive cyber and global 
network operations and, in general, is a supporting commander for 
offensive missions. Specific relationships with Commander, U.S. 
Northern Command will be delineated by the Secretary of Defense or the 
President in execute and/or operation orders. If confirmed, I look 
forward to working with the combatant commanders to broaden and enhance 
the level and range of these relationships.
    Question. The Director of the Defense Information Systems Agency.
    Answer. DISA is a DOD combat support agency that provides command 
and control capabilities and enterprise infrastructure to continuously 
operate and assure a global net-centric enterprise in direct support to 
join warfighters, national-level leaders, and other mission and 
coalition partners across the full spectrum of operations. Commander, 
U.S. Cyber Command must maintain a close relationship with the 
Director, DISA to coordinate and represent requirements in this mission 
area, in order to accomplish U.S. Strategic Command delegated UCP 
missions. To this end, Lieutenant General Pollett, the current Director 
of DISA, has committed to providing both a DISA Field Office as well as 
a DISA support element unique to U.S. Cyber Command. If confirmed, I 
will continue to work closely with the Director of DISA on matters of 
shared interest and importance.
                               oversight
    Question. The duties of the Commander, U.S. Cyber Command will 
include conducting integrated intelligence collection and offensive and 
defensive operations in cyberspace. However, the resourcing, planning, 
programming and budgeting, and oversight of these three basic 
activities is fragmented within DOD, the executive branch as a whole, 
and within Congress. Multiple elements within the Office of the 
Secretary of Defense and the Joint Staff have responsibilities for one 
or more of the missions of Cyber Command. The same is true for the 
Secretary of Defense and the Director of National Intelligence, as well 
as the Armed Services and Intelligence Committees in Congress. The 
single point of confluence would be the Commander of Cyber Command, 
dual-hatted as the Director of NSA.
    How do you anticipate that the Department will ensure the necessary 
degree of coordination and timely decisionmaking across the Department 
to guide the operations and resourcing of Cyber Command?
    Answer. Through the Secretary of Defense's policy initiatives for 
cyberspace operations and implementation guidance concerning national 
security directives, the Department will ensure the necessary degree of 
coordination and timely decisionmaking across the Department to guide 
the operations and resourcing of U.S. Cyber Command. If confirmed, I 
envision that the Department will retain its commitment to close 
coordination both internally and externally to guide the operations and 
resourcing of this command.
    Question. What is the risk, in your view, that this fragmented 
policy and oversight structure will result in a lack of coherent 
oversight of cyberspace and U.S. Cyber Command?
    Answer. I believe we have a coherent policy and oversight structure 
in place for cyberspace and that there is no risk that we will lack 
coherent oversight. If confirmed, I can assure you that my actions will 
be guided by the authorities vested in me by the Secretary of Defense 
and Commander, U.S. Strategic Command and oversight of my actions will 
be clearly auditable for overseers.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Commander, U.S. Cyber Command?
    Answer. I believe the major challenge that will confront the 
Commander, U.S. Cyber Command will be improving the defense of our 
military networks as they exist today. Additionally, in order to defend 
those networks and make good decisions in exercising operational 
control over them, U.S. Cyber Command will require much greater 
situational awareness and real-time visibility of intrusions into our 
networks. Finally, I believe the Commander, U.S. Cyber Command will 
have to identify continuously policy and authority gaps to U.S. 
Strategic Command and our civilian leadership as computer and 
communication technologies evolve.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. Answer provided in the classified supplement.
    Question. What are your priorities for the U.S. Cyber Command?
    Answer. Answer provided in the classified supplement.
                      u.s. cyber command missions
    Question. In an overarching sense, how do you define the U.S. Cyber 
Command missions?
    Answer. Answer provided in the classified supplement.
                  offensive cyber warfare capabilities
    Question. The attached solicitations and program descriptions show 
that the military services are developing capabilities to stealthily 
penetrate foreign computer networks, maintain a presence on those 
networks, collect and extract information clandestinely, and undertake 
offensive actions. The National Military Strategy for Cyberspace 
Operations, published in 2006, also indicates that the U.S. military 
places considerable importance on acquiring potent offensive cyber 
warfare capabilities.
    Does DOD possess significant capabilities to conduct military 
operations in cyberspace at the tactical, operational, and strategic 
levels?
    Answer. Answer provided in the classified supplement.
    Question. Is there a substantial mismatch between the ability of 
the United States to conduct operations in cyberspace and the level of 
development of policies governing such operations?
    Answer. President Obama's cybersecurity 60-day study highlighted 
the mismatch between our technical capabilities to conduct operations 
and the governing laws and policies, and our civilian leadership is 
working hard to resolve the mismatch. In the June 23, 2009 memorandum 
outlining the establishment of U.S. Cyber Command, the Secretary of 
Defense directed the Under Secretary of Defense for Policy to lead a 
review of policy and strategy to develop a comprehensive approach to 
DOD cyberspace operations. This review is active and ongoing.
    Question. Are you concerned that you are being assigned to command 
an organization that may be directed to conduct activities whose 
legality and rules have not been worked out?
    Answer. Given current operations, there are sufficient law, policy, 
and authorities to govern DOD cyberspace operations. If confirmed, I 
will operate within applicable laws, policies, and authorities. I will 
also identify any gaps in doctrine, policy and law that may prevent 
national objectives from being fully realized or executed to the 
Commander, U.S. Strategic Command and the Secretary of Defense.
    Question. When does the administration intend to close existing 
policy gaps?
    Answer. The administration has provided a comprehensive set of 
cyber security initiatives that will inform policy making (e.g., 
Comprehensive National Cybersecurity Initiative (CNCI) and the 
President's Strategy to Secure Cyberspace). In support of the Secretary 
of Defense, we will continue to work to identify gaps, inform the 
development of meaningful and enduring national cyber policy, and be 
prepared to adjust rapidly to changes.
     support to the comprehensive national cybersecurity initiative
    Question. Under the CNCI, NSA is providing support to the 
Department of Homeland Security.
    What is the nature and extent of that support?
    Answer. Answer provided in the classified supplement.
    Question. Is this support provided as a DOD activity or as an 
intelligence activity through the Director of National Intelligence? If 
the latter, what is the Secretary of Defense's role as the President's 
executive agent for signals intelligence (SIGINT) under Executive Order 
12333?
    Answer. The support provided by NSA to DHS is provided as a DOD 
activity, in coordination with the Director of National Intelligence.
    Specifically, with respect to the Foreign Intelligence support to 
DHS, per Executive Order 12333, as amended, NSA is an element of both 
the Intelligence Community, of which the Director of National 
Intelligence serves as the head, and DOD, whose Secretary acts, in 
coordination with the Director of National Intelligence, as the 
Executive Agent for the U.S. Government for SIGINT activities. In these 
capacities, NSA conducts SIGINT activities for both national and 
departmental requirements.
    Further, with respect to Information Assurance support to DHS, for 
such support that is given in connection with NSSs, National Security 
Directive 42 provides that the Secretary of Defense shall serve as the 
executive agent of the Government for National Security 
Telecommunications and Information Systems Security. NSD 42 further 
designates the Director NSA as the National Manager for National 
Security Telecommunications and Information's Systems Security and is 
responsible to the Secretary of Defense as Executive Agent for carrying 
out those responsibilities. With respect to Information Assurance 
support to DHS that is provided in connection with non-NSSs, NSA is 
authorized by EO12333 to provide technical assistance to other U.S. 
Government departments and agencies for either NSSs or non-NSSs.
                      support to civil authorities
    Question. DOD officials have informed the committee that U.S. Cyber 
Command will have a mission to support civil authorities, such as the 
Department of Homeland Security and law enforcement agencies, to help 
defend government networks and critical infrastructure networks owned 
and operated by the private sector.
    Please describe in detail your understanding of the ways that U.S. 
Cyber Command is most likely to assist civil authorities.
    Answer. If I am confirmed as Commander, U.S. Cyber Command, I will 
work closely with the Commanders of U.S. Strategic Command and U.S. 
Northern Command to answer any request for assistance from the 
Department of Homeland Security. Our assistance could include technical 
assistance and recommendations for immediate defensive actions, as well 
as technical assistance and recommendations for more systemic 
mitigation, such as improvements in network configurations and 
improvements in information assurance measures or best practices. 
Additionally, U.S. Cyber Command would continually assess the cyber 
threat to DOD's information systems to ensure we are prepared to 
provide cyber support to civil authorities in the event of a cyber 
threat to the Nation's critical infrastructure.
    Question. U.S. Northern Command was established to serve as the 
focal point for DOD support to civil authorities.
    Will cybersecurity support to civil authorities be provided through 
U.S. Northern Command, as a supported command, or otherwise? If not, 
why not?
    Answer. Answer provided in the classified supplement.
                       use of force in cyberspace
    Question. Does DOD have a definition for what constitutes use of 
force in cyberspace, and will that definition be the same for U.S. 
activities in cyberspace and those of other nations?
    Answer. Article 2(4) of the U.N. Charter provides that states shall 
refrain from the threat or use of force against the territorial 
integrity or political independence of any State. DOD operations are 
conducted consistent with international law principles in regard to 
what is a threat or use of force in terms of hostile intent and hostile 
act, as reflected in the Standing Rules of Engagement/Standing Rules 
for the Use of Force (SROE/SRUF).
    There is no international consensus on a precise definition of a 
use of force, in or out of cyberspace. Consequently, individual nations 
may assert different definitions, and may apply different thresholds 
for what constitutes a use of force. Thus, whether in the cyber or any 
other domain, there is always potential disagreement among nations 
concerning what may amount to a threat or use of force.
    Remainder of answer provided in the classified supplement.
    Question. Has DOD or the administration as a whole determined what 
constitutes use of force in cyberspace in relation to the War Powers 
Act, the exercise of the right of self-defense under the U.N. Charter, 
and the triggering of collective defense obligations? If not, when will 
these fundamental policy issues be resolved?
    Answer. The President of the United States determines what is a 
threat or use of force/armed attack against the United States and 
authorizes DOD through the SROE to exercise our national right of self-
defense recognized by the U.N. Charter. This determination involves an 
objective and subjective analysis that considers the facts surrounding 
a particular cyber attack, and is made within the bounds of U.S. and 
international law. If the President determines a cyber event does meet 
the threshold of a use of force/armed attack, he may determine that the 
activity is of such scope, duration, or intensity that it warrants 
exercising our right to self-defense and/or the initiation of 
hostilities as an appropriate response. It is also within the 
President's authority to determine, based upon the circumstances of any 
event, including a cyber event, and the contemplated response, what 
consultations and reports to Congress are necessary consistent with the 
provisions of the War Powers Resolution. The U.N. Charter recognizes a 
State's inherent right of individual and collective self-defense, and 
the United States would evaluate its collective defense obligations 
when another State is threatened or subject to a use of force in the 
cyber domain just as it would in the other warfighting domains.
    Question. Could U.S. Cyber Command lawfully employ offensive cyber 
weapons against computers located abroad that have been determined to 
be sources of an attack on the United States or U.S. deployed forces if 
we do not know who is responsible for the attack (i.e., a foreign 
government or non-state actors)?
    Answer. The establishment of U.S. Cyber Command, in and of itself, 
does not change the lawful employment of military force for self-
defense. In this case, if the ``attack'' met the criteria approved by 
the President in our Standing Rules of Engagement, the military would 
exercise its obligation of self-defense. Operationally, it is difficult 
to develop an effective response when we do not know who is responsible 
for an ``attack''; however, the circumstances may be such that at least 
some level of mitigating action can be taken even when we are not 
certain who is responsible. Regardless whether we know who is 
responsible, international law requires that our use of force in self-
defense be proportional and discriminate. Neither proportionality nor 
discrimination requires that we know who is responsible before we take 
defensive action.
    Question. Without confident ``attribution,'' under international 
law, would DOD, in your judgment, be allowed to ``fire back'' without 
first asking the host government to deal with the attack?
    Answer. Answer provided in the classified supplement.
    Question. Traditionally, espionage has not been regarded as a use 
of force or an act of war. Generally speaking, in cyberspace 
operations, experts agree that gaining access to a target for 
intelligence collection is tantamount to gaining the ability to attack 
that target. If a penetration is detected, the victim cannot determine 
whether the purpose of the activity is limited to espionage or also 
constitutes preparation for an attack.
    With the foregoing in mind, are there or should there be classes of 
U.S. or allied targets that the U.S. Government would consider off-
limits from hostile penetration because of the danger that any such 
breaches would present to national security?
    Answer. Answer provided in the classified supplement.
    Question. Would or should such targets be immune to penetration by 
the United States in peacetime even for intelligence collection?
    Answer. Answer provided in the classified supplement.
              authorities of commander, u.s. cyber command
    Question. Offensive cyber warfare weapons or operations could have 
devastating effects, depending on the target of the attack and the 
method used, which conceivably could be comparable to those caused by 
weapons of mass destruction.
    If confirmed as Commander, U.S. Cyber Command, would you have the 
authority to use offensive cyber weapons against the following 
representative classes of targets:

        Military command and control networks;
        Military air defense networks;
        Military platforms and weapons;
        Power grids;
        Banks and other financial institutions and networks;
        Transportation-related networks; and
        National telecommunications networks?

    Answer. The categories listed are all potential targets of military 
attack, both kinetic and cyber, under the right circumstances. It is 
difficult for me to conceive of an instance where it would be 
appropriate to attack a bank or a financial institution, unless perhaps 
it was being used solely to support enemy military operations.
    Offensive cyber weapons would only be authorized under specific 
lawful orders by the Secretary of Defense and the President and would 
normally come with supplemental rules of engagement.
    All military operations, to include actions taken in cyberspace, 
must comply with international law that governs military operations. 
Specifically, any U.S. military operation must comport with the 
principles of military necessity, discrimination, and proportionality. 
These legal principles are addressed during the planning and 
operational phases of all military operations.
    Question. Do you have this authority now as the Joint Functional 
Component Commander for Network Warfare?
    Answer. Answer provided in the classified supplement.
    Question. At what level of command can decisions be made to pre-
deploy offensive cyber weapons against these same classes of targets? 
Will this change after the standup of U.S. Cyber Command?
    Answer. This authority rests with the Secretary of Defense and the 
President. It will not change after U.S. Cyber Command is established.
    Question. Operations in cyberspace occur at nearly the speed of 
light. Speed of response is widely considered to be necessary in some 
circumstances when operating in cyberspace.
    Is there currently or do you anticipate that there will be a 
requirement to pre-authorize the use of force in cyberspace below the 
level of the National Command Authority? If so, to what level and in 
what circumstances?
    Answer. Answer provided in the classified supplement.
    Question. Is it your understanding that, as is the case with the 
Commander of the subunified U.S. Forces Korea Command, the subunified 
Commander of Cyber Command will have freedom of action to fight the 
war?
    Answer. The Commander of U.S. Cyber Command will have freedom of 
action to conduct military operations in cyberspace based upon the 
authorities provided by the President, the Secretary of Defense, and 
the Commander, U.S. Strategic Command. Because cyberspace is not 
generally bounded by geography, the Commander of U.S. Cyber Command 
will have to coordinate with U.S. agencies and combatant commanders 
that would be affected by actions taken in cyberspace.
    Question. What is the role of the Commander, U.S. Strategic 
Command, in directing or approving courses of action of the Commander, 
U.S. Cyber Command?
    Answer. Commander, U.S. Strategic Command, as the combatant 
commander, has the responsibility to specify U.S. Cyber Command 
missions and tasks and delegate appropriate authority to accomplish 
those tasks. In accordance with joint doctrine, authority is normally 
given to subordinate commanders to select the methodology for 
accomplishing the mission, including selection and approval of courses 
of action. However, this authority may be limited by directives or 
other orders of the superior commander. Commander, U.S. Strategic 
Command has indicated to the Secretary of Defense he will delegate 
authority for all UCP cyber tasks, with the exception of advocacy for 
cyberspace capabilities and integration of the Theater Security 
Cooperation activities with Geographic Combatant Commanders.
                              laws of war
    Question. Has DOD determined how the laws of armed conflict 
(including the principles of military necessity in choosing targets, 
proportionality with respect to collateral damage and unintended 
consequences, and distinguishing between combatants and non-combatants) 
apply to cyber warfare with respect to both nation-states and non-state 
entities (e.g., terrorists, criminals), and both when the source of an 
attack is known and unknown?
    Answer. Per DOD guidance, all military operations must be in 
compliance with the laws of armed conflict--this includes cyber 
operations as well. The law of war principles of military necessity, 
proportionality and distinction will apply when conducting cyber 
operations.
    Question. If not, when will the Department produce authoritative 
positions on these issues?
    Answer. See answer above.
                           balancing equities
    Question. There have been many instances in history where military 
and political leaders had to struggle with the choice of acting on 
intelligence information to save lives or forestall an enemy success 
but at the cost of the enemy learning that their communications, 
information, or capabilities had been compromised. These choices are 
referred to as ``balancing equities'' or ``gain-loss'' calculations. 
U.S. Cyber Command is to be headed by the Director of the NSA, which, 
like all intelligence agencies, could be naturally expected to seek to 
protect sensitive sources and methods.
    Who will be in charge of the equities/gain-loss process for 
cyberspace within the military?
    Answer. Within DOD, the equities/gain-loss process is built into 
the deliberate and crisis action planning process and initiated by the 
combatant commanders. In most cases, the gain-loss recommendation 
within DOD is initially made by the supported combatant commander after 
the risk of loss is well articulated by the Intelligence Community. If 
there is disagreement I, as the commander of JFCC NW, serve as the 
focal point for DOD offensive cyberspace operations in accordance with 
the deconfliction process directed in NSPD-38. If the NSPD-38 
deconfliction process does not resolve the interagency disagreement, 
the issue goes to the Chairman, Joint Chiefs of Staff, the Secretary of 
Defense, the NSC Deputies, the NSC Principals, and then the President, 
where the gain-loss determination continues to be considered. (In 
counterterrorism issues, the National Counterterrorism Center is 
brought in before the Deputies Committee considers the issue.) If 
confirmed as Commander of U.S. Cyber Command, I will continue to have 
responsibility for this process within the Department.
    Question. If these decisions will rest with the Commander of Cyber 
Command, how would you expect the process to work to ensure that the 
combatant commands, the Military Services, and other defense agencies 
have the opportunity to defend their interests and are not overruled by 
NSA?
    Answer. We would use the process outlined by the Joint Staff and 
used by other combatant commands. Intelligence Gain-Loss is a 
consideration of target vetting and is coordinated with the 
Intelligence Community agencies and with supporting combatant commands 
throughout the planning process. Those agencies and commands provide 
comments on their equities and issues for the commander's review and 
validation. The supported command then makes a determination based on 
their mission and expected effects. If the targeting issues cannot be 
resolved between the Commander, U.S. Cyber Command/Director, NSA and 
the Federal Bureau of Investigations Cyber Division, the issue goes to 
the NSC Deputies Committee, and if still unresolved, the NSC Principals 
Committee.
    Question. If confirmed, how will you ensure that equities/gain-loss 
decisions are made for the Nation as a whole? How will the interests of 
the vulnerable private sector, critical infrastructure, and civil 
agencies be weighed in the selection of targets for intelligence 
collection and attack in wartime?
    Answer. Our deconfliction process, documented in a Tri-lateral 
Memorandum of Agreement among DOD, DoJ and the Intelligence Community, 
includes appropriate representation of other agencies as directed in 
NSPD-38. As with targeting issues within the Department, the reclama 
process for issues spanning Federal agencies matriculate from the 
Seniors to the Deputies Committee to the Principals Committee if they 
remain unresolved.
                   deterrence and escalation control
    Question. The U.S. Government currently does not appear to have a 
cyber warfare deterrence strategy or doctrine. Promulgating such a 
doctrine requires at least some broad statements of capabilities and 
intentions regarding the use of offensive cyber capabilities, both to 
influence potential adversaries and to reassure allies. Such statements 
are not possible given the current degree of classification of all 
aspects of U.S. cyber warfare capabilities.
    Do you agree that it is necessary to declassify some information 
about U.S. cyber warfare capabilities in order to support deterrence 
and engagement with allies and potential adversaries?
    Answer. I agree and fully support the President's executive order 
regarding security classification. This is a complex subject, and we 
will continue to implement directed policies and inform policymakers of 
operational impacts.
    Question. Is there a process and timetable in place to accomplish 
this objective?
    Answer. I am not aware of any plan or timetable to declassify 
detailed information about U.S. offensive cyber capabilities. 
Articulating new processes and timetables would flow from direction set 
by the White House.
    Question. Most experts believe that the attacker has a substantial 
advantage over the defender in cyber warfare. It is also widely 
believed that preemptively striking first against an adversary's 
networks offers an advantage if the adversary's command and control 
networks can be degraded, and because the attacker can take steps to 
protect itself from a retaliatory attack. These considerations suggest 
that cyber warfare is currently ``unstable'' from the perspective of 
classic deterrence theory and escalation control.
    Do you, or to your knowledge, experts in the Department, have a 
different view of these dynamics?
    Answer. I'd certainly agree that cyber warfare has unique and 
important differences from classic deterrence theory and escalation 
control. Experts, both inside and outside government, as well as within 
DOD and Intelligence Communities, have widely differing views of these 
dynamics, as should be expected. A consensus has yet to emerge, either 
on how to characterize the strategic ``instability'' or on what to do 
about it.
                  u.s. military strategy in cyberspace
    Question. The National Military Strategy for Cyberspace Operations 
(NMS-CO), December 2006, states that ``The United States must have 
cyberspace superiority to ensure our freedom of action and deny the 
same to our adversaries through the integration of network defense, 
exploitation, and attack. . . . The NMS-CO is the comprehensive 
military strategy for the U.S. Armed Forces to ensure U.S. superiority 
in cyberspace.''
    Is this strategy statement consistent with current policy? If not, 
is there a plan to issue a new or revised NMS-CO?
    Answer. Answer provided in the classified supplement.
    Question. Is this strategy realistic in light of the vulnerability 
of U.S. Government and private networks to attack?
    Answer. The military strategic goal of cyberspace superiority is 
realistic, but not without difficulty in achieving its objectives in 
the current national security environment. The 42 tasks in the NMS-CO 
Implementation Plan continue to inform how DOD will move towards 
achieving cyberspace superiority. Many of these tasks are defensive, 
directed at addressing the vulnerabilities of the DOD networks, and 
take into consideration the fact that the internet is a completely 
connected environment where both DOD and private networks reside.
    Question. In an interview on ``60 Minutes,'' former Director of 
National Intelligence Michael McConnell said that ``If I were an 
attacker and I wanted to do strategic damage to the United States . . . 
I would sack electric power on the U.S. east coast, maybe the west 
coast, and attempt to cause a cascading effect. All of those things are 
in the art of the possible from a sophisticated attacker.'' He was then 
asked whether he believes that adversaries have the ability to bring 
down the power grid, and he replied ``I do.'' Crippling the U.S. power 
grid would not only cause catastrophic economic problems; presumably it 
would lead to significant loss of life, especially if the outage was 
prolonged. Likewise, it could cripple DOD's ability to generate and 
sustain forces.
    In light of our current vulnerability to cyber attack, what is the 
risk in your view that DOD and U.S. Cyber Command could be deterred 
from undertaking coercive action against countries such as Iran or 
North Korea because of the possibility that they could successfully 
launch devastating attacks on critical U.S. infrastructure?
    Answer. Answer provided in the classified supplement.
    Question. Is this level of vulnerability consistent with the NMS-CO 
assertion that the United States ensures ``superiority'' in cyberspace?
    Answer. Yes, it is consistent that the United States seeks to 
ensure superiority in cyberspace: Even with the clear understanding 
that we could experience damage to our infrastructure, we must be 
prepared to ``fight through'' in the worst case scenario. Based on 
vulnerability, step one is to ensure that we can defend our networks. 
In fact, the use of the term superiority, versus dominance or 
supremacy, reflects the limits of our capabilities throughout the 
domain. Having recognized the gap between the end states of the NMS-CO 
and current capabilities, the Department developed an implementation 
plan to close these gaps. The current state of our networks presents a 
strategic vulnerability for the Department and the Nation. If 
confirmed, I will focus U.S. Cyber Command on securing the Department's 
networks and, as requested, assisting other Federal agencies to secure 
the networks for which they are responsible.
    Question. The NMS-CO states that ``U.S. law and national policy 
assign DOD three main roles: defense of the Nation, national incident 
response, and critical infrastructure protection. . . . Although 
partner departments and agencies have responsibilities to secure 
portions of cyberspace, only DOD conducts military operations to defend 
cyberspace, the critical infrastructure, the homeland, or other vital 
U.S. interests. If defense of a vital interest is implicated, DOD's 
national defense mission takes primacy even if that would conflict 
with, or subsume, the other support missions.''
    Are these statements consistent with DOD's statements that U.S. 
Cyber Command will not have the mission to defend the ``.gov'' and 
``.com'' networks?
    Answer. Yes, they are consistent. Although U.S. Cyber Command's 
mission will not include defense of the .gov and .com domains, given 
the integration of cyberspace into the operation of much of our 
critical infrastructure and the conduct of commerce and governance, it 
is the obligation of the Department to be prepared to provide military 
options to the President and Secretary of Defense if our national 
security is threatened. Any defensive action in support of a domain 
other than .mil would require a proper request for assistance or a 
directive from the President.
    Question. Has ``critical infrastructure'' been formally defined or 
otherwise identified for the purposes of cybersecurity?
    Answer. Yes, specifically ``critical infrastructure'' has been 
formally defined in HSPD-7 as those systems or assets, whether physical 
or virtual, so vital to the United States that the incapacity or 
destruction of such systems and assets would have a debilitating impact 
on security, national economic security, national public health or 
safety, or any combination of those matters.
    Question. Do these statements reflect current policy?
    Answer. Yes, they reflect current policy.
    Question. Do these statements mean that DOD's mission to defend the 
Nation ``takes primacy'' over the Department of Homeland Security's 
role in some situations?
    Answer. Yes, when war or any attack or other national security 
crisis arises whereby the use of force is contemplated, DOD would take 
the lead in defending the Nation. However, a Presidential order calling 
on DOD to take the lead role in responding to a cyber attack on the 
United States would be required before DOD assumes this lead role. I 
believe that DOD and DHS are completely in synch on this point.
    Question. The NMS-CO states that ``under the authorities of the 
Secretary of Defense, DOD will use network exploitation to gather 
intelligence and shape the cyberspace environment as necessary to 
provide integrated offensive and defensive options.'' This statement 
appears to mean that DOD will attempt to gain access to foreign 
networks to create the ability to conduct offensive operations.
    Under what conditions would DOD prepare foreign networks for 
offensive operations when access is acquired for intelligence 
gathering?
    Answer. DOD conducts extensive planning for a wide range of 
contingencies including planning for cyberspace operations. Effective 
planning for offensive cyber operations requires extensive knowledge 
and understanding of foreign networks and is accomplished by foreign 
intelligence collection. Any preparation of foreign networks outside 
that is beyond the realm of intelligence gathering can only be 
conducted by lawful order (EXORD) from Secretary of Defense and the 
President.
    Question. Are such actions authorized and reported to Congress 
under title 10 or title 50?
    Answer. Preparation of foreign networks for offensive operations is 
authorized only when part of a Secretary of Defense-approved military 
operation under title 10 of the U.S.C.; such military operations are 
subject to congressional armed services committee oversight. Foreign 
intelligence collection activities are subjected to congressional 
intelligence oversight.
    Question. Does the Secretary of Defense have the unilateral 
authority to direct intelligence-gathering operations in cyberspace?
    Answer. The Secretary of Defense, as authorized by law and 
executive order, can direct intelligence activities in cyberspace for 
those intelligence activities, such as SIGINT, under his operational 
control.
    Question. If the Secretary of Defense is the President's executive 
agent for SIGINT, what is the role of the Director of National 
Intelligence in directing SIGINT collection in cyberspace?
    Answer. The DNI provides the National Intelligence Strategy and the 
National Intelligence Priority Framework, among others, to the entire 
Intelligence Community. The DNI also plays a role with respect to 
resource allocation via the National Intelligence Program.
    Question. Under the Secretary's role as the executive agent for 
SIGINT, what was the Secretary's responsibility for the policy 
decisions regarding the NSA's Terrorist Surveillance Program, and the 
assistance that NSA is providing to the Department of Homeland Security 
through the Einstein 3 intrusion detection and prevention program?
    Answer. Answer provided in the classified supplement.
    Question. The NMS-CO states that ``Adversaries are deterred from 
establishing or employing offensive capabilities against U.S. interests 
in cyberspace. DOD will deter malicious adversary use of cyberspace, 
while promoting freedom of action and trust and confidence in U.S. 
cyberspace operations. Through deterrence, DOD seeks to influence the 
adversary's decisionmaking processes by imposing political, economic, 
or military costs; denying the benefits of their actions; and inducing 
adversary restraint based on demonstrated U.S. capabilities.''
    In your opinion, is it the case that ``adversaries are deterred'' 
from acting against U.S. interests in cyberspace?
    Answer. Answer provided in the classified supplement.
    Question. Does the United States have a deterrence doctrine and a 
deterrence strategy for cyber warfare?
    Answer. Answer provided in the classified supplement.
    Question. Has the United States ever ``demonstrated capabilities'' 
in cyberspace in a way that would lead to deterrence of potential 
adversaries?
    Answer. Not in any significant way. We have conducted exercises and 
war games, and responded to threats, intrusions, and even attacks 
against us in cyberspace. Law Enforcement and the Counter-Intelligence 
community have responded to intrusions and insider threats. Even 
industry and academia have attempted to ``police'' the Internet. How 
all of these have deterred criminal actions, terrorists, hostile 
intelligence entities, and even nation states cannot be systematically 
measured.
           implications of u.s. dependence on cyber networks
    Question. Many experts assert that the United States is the most 
vulnerable country in the world to cyber attack because we are the most 
networked nation and the one that has most fully-exploited computer 
networks for business, government, and military functions. This 
judgment implies that the United States has the most to lose in a 
serious cyber conflict.
    How could DOD best compensate for U.S. dependence on vulnerable 
cyber networks in developing effective deterrent strategies?
    Answer. Answer provided in the classified supplement.
    Question. Given U.S. vulnerabilities, is it in our interest to 
engage in certain kinds of offensive cyber warfare, and possibly set 
precedents by example that other nations might follow?
    Answer. Answer provided in the classified supplement.
          covert action versus traditional military operations
    Question. What is your understanding of whether clandestine 
offensive actions in cyberspace conducted by DOD in connection with an 
ongoing military conflict where the hand of the U.S. Government is 
intended to be concealed ``covert action'' under the law, or are they 
considered traditional military operations?
    Answer. Covert action, as defined by law, includes ``an activity or 
activities of the U.S. Government to influence political, economic, or 
military conditions abroad, where it is intended that the role of the 
U.S. Government will not be apparent or acknowledged publicly.'' The 
law goes on specifically to except ``traditional . . . military 
activities'' from being considered covert actions. (50 U.S.C. 
413b(e)(2000)) Traditional military activities are often clandestine in 
order to guarantee mission success and protect tactics, techniques, and 
procedures--this is no different in cyberspace. DOD believes the 
traditional military activities exception applies to the emerging field 
of cyberspace operations.
    Question. Does it matter whether such actions are conducted within 
or outside of a theater of ongoing, traditional armed conflict?
    Answer. This is a matter of ongoing debate. Proposed actions to 
deliver effects to combatant commanders at the tactical and operational 
level should be pursued as traditional military operations, under 
existing authorizations, if possible. Any actions that we take must be 
approved by the Secretary of Defense and the President through a lawful 
order.
                     requirement for transit rights
    Question. Under international law, nations enjoy sovereign rights 
over the territorial extent of their countries and the airspace above 
it, although not in space. Transiting that sovereign territory and 
airspace for military purposes requires permission.
    In a situation where a government intends to deliver a cyber weapon 
or capability to a country not adjacent to its territory, through 
terrestrial telecommunications networks, what is the legality of doing 
so without the permission of the governments of the Nations through 
which the weapon must pass?
    Answer. Answer provided in the classified supplement.
                      the challenge of attribution
    Question. An essential feature of military, intelligence, and 
criminal or malicious activities in cyberspace is the ease with which 
the origin and the identity of those responsible for an attack can be 
concealed. This ``attribution'' problem is severe. If it is impossible 
to say with certainty who committed an attack, no one can be held 
responsible, making deterrence and retaliation alike problematic. The 
attribution capabilities that do exist appear to be time- and resource-
intensive, which can make appropriate, timely responses difficult or 
even impossible.
    How can deterrence be established in the absence of reliable 
attribution?
    Answer. I agree that attribution can be very difficult. We must 
approach this problem in two ways. First and foremost, the most 
effective way to deter adversaries is to increase the security of our 
own networks. This will act as a deterrent to those adversaries who 
target the United States simply because we are an easy mark. This is a 
national problem and better security solutions must be encouraged for 
all U.S. public and private networks.
    Concurrently, we must partner closely with the Intelligence 
Community to improve our ability to determine attribution. We must also 
establish partnerships with nation-states that share common goals for 
lawful behavior in cyberspace. Such agreements would establish 
expectations of normative behavior for cyber activities and thresholds 
for bad behaviors that would not be allowed to continue. Such 
expectations will require standards of evidence that are mutually 
acceptable and include highly automated procedures that allow attacks 
to be alerted on and halted quickly.
    Criminal law models depend on deterrence, as well. Legal scholars 
have argued that crimes that often go unsolved (vandalism, for example) 
should be punished more harshly to ensure an effective example is 
offered in the few cases when it's available. Under this model, the 
United States should take swift and effective action in every case in 
which it can attribute an offensive action to a particular adversary.
    Attribution has been a problem since the beginning of the terrorism 
era. For example, in 1983 when the Marine barracks in Beirut was 
bombed, the United States would likely have taken strong action against 
the perpetrator--but the perpetrator was dead and the planners were 
unknown. This problem continues today in kinetic operations as well as 
in cyber.
    The bottom line is, the only way to deter cyber attack is to work 
to catch perpetrators and take strong and public action when we do.
    Question. What authorities are required, or what procedures must be 
invoked, to track back through layers of an attack involving computers 
located in the United States and owned by U.S. persons?
    Answer. Investigations of cyber attacks originating or appearing to 
originate from the United States are typically law enforcement 
investigations and a law enforcement warrant is used to attempt to 
track back through layers involving computers located in the United 
States or owned by U.S. persons. If there is reason to believe that the 
attack is being conducted by a foreign power or agent of a foreign 
power, though appearing to originate from the United States, the 
investigation can be a counter intelligence investigation and the 
Foreign Intelligence Surveillance Act order would be used to track back 
through layers involving computers located in the United States or 
owned by a U.S. person.
    Question. What are the legalities, both in domestic and 
international law, involved in ``shooting back'' immediately at the 
sources of a large-scale attack, with and without a determination that 
the sources are commandeered computers?
    Answer. A commander's right to general self-defense is clearly 
established in both U.S. and international law. Although this right has 
not been specifically established by legal precedent to apply to 
attacks in cyberspace, it is reasonable to assume that returning fire 
in cyberspace, as long as it complied with law of war principles (e.g., 
proportionality), would be lawful.
    Remainder of answer provided in the classified supplement.
    Question. The law regarding self-defense in the case of an attack 
has never required a determination of identity before action can be 
taken. For example, if someone is shooting at you, it isn't necessary 
to establish what his name is before shooting back. If someone in a car 
is trying to run down a police officer, the officer is not required to 
determine whether the car is stolen before shooting out the tires in 
self-defense. Similarly, the fact that computers may be commandeered is 
irrelevant to the exercise of self-defense.
    The United States has always hoped that the Internet would play a 
``subversive'' role in countries with authoritarian governments.
    If the U.S. Government takes vigorous diplomatic action, as some 
experts recommend, to establish the norm that governments are 
responsible for what happens in cyberspace within their sovereign 
domains as a way to deal with the attribution problem, is there a 
danger we could be providing a strong justification for governments 
abroad to intensify surveillance and increase government controls on 
the Internet?
    Answer. Governments that have a tendency to curtail the freedoms of 
their citizens will likely take such actions regardless of U.S. 
policies regarding cyberspace. However, the United States has the 
opportunity to model for other nations the process by which a nation-
state can allow freedom of expression, and even advanced concepts such 
as Net Neutrality, and still insist on cyberspace behaviors that meet 
the norms of international expectations in that they could not be 
construed as constituting an attack in cyberspace. We can do this 
without increased individual surveillance.
    Question. Is it accurate that a large proportion of world-wide 
unauthorized cyber intrusions and malicious cyber activity originates 
or appears to originate within the United States?
    Answer. Answer provided in the classified supplement.
    Question. Is it reasonable to hold other governments responsible 
for all such activity originating in their countries if the U.S. 
Government cannot or will not stop it here?
    Answer. Every government is responsible for actions originating in 
its own country. We make every effort to address activity originating 
in the United States, and we expect other countries will do the same.
            title 10 versus title 50 reporting and oversight
    Question. As the attached solicitations and program descriptions 
indicate, and the National Military Strategy for Cyberspace Operations 
implies, gaining access to a cyberspace target for the purpose of 
collecting intelligence also provides the basis for attacking that 
target, and vice versa. Intelligence collection in cyberspace is 
authorized and overseen under title 50 procedures, whereas operational 
preparation of the environment for military action is authorized and 
overseen under title 10 procedures.
    Has the administration determined how it is going to authorize 
these actions and report them to Congress?
    Answer. Intelligence collection in cyberspace is conducted as part 
of a foreign intelligence mission and is subject to congressional 
intelligence oversight; e.g., the SIGINT Computer Network Exploitation 
mission is conducted in accordance with SIGINT procedures and is 
reported to the intelligence oversight committees. Military actions in 
cyberspace done to prepare the environment for possible cyber attack 
are authorized through Secretary of Defense Execute Orders and 
reportable to the Armed Services Committees.
    The attached solicitations and program descriptions indicate that 
non-intelligence elements of DOD are developing capabilities to 
penetrate foreign networks clandestinely, remain there undetected, and 
exfiltrate data secretly.
    Question. Are non-intelligence elements of DOD authorized to 
collect intelligence in cyberspace through the clandestine penetration 
of networks?
    Answer. Non-intelligence elements of the DOD are not authorized to 
collect intelligence or conduct preparation of the environment without 
an appropriate execute order.
                          systems acquisition
    Question. Combatant commands by design play a restricted role in 
the acquisition process. However, the Commander, U.S. Cyber Command, is 
to be dual-hatted as the Director of NSA, which is a large enterprise 
with substantial resources for developing, procuring, and supporting 
new equipment, systems, and capabilities. In addition, the Commander 
will exercise operational control of DISA networks, which also acquires 
systems and capabilities.
    Answer. Commander, U.S. Cyber Command will not exercise command or 
operational control over the DISA communications networks. DISA will 
continue to be responsible for acquiring, engineering and provisioning 
enterprise infrastructure to assure the availability of military 
information networks. As a Combat Support Agency, DISA will maintain a 
close working relationship with U.S. Cyber Command, providing expertise 
on the networks, communications and computing infrastructure operated 
by DISA through both a DISA Field Office and a DISA Support Element.
    Question. Is there a precedent for a combatant commander to 
exercise this degree of direct control over acquisition organizations, 
aside from Special Operations Command, which Congress expressly 
provided with acquisition authority?
    Answer. Commander, U.S. Cyber Command, would depend upon the 
Military Departments and Agencies to deliver on U.S. Cyber Command-
documented requirements for capabilities. Each of the military 
departments and agencies has oversight to ensure that this is done 
properly. This is consistent with other combatant and subunified 
commands, with the exception of U.S. Special Operations Command.
    Question. What measures is the Department taking to guarantee that 
Commanders of U.S. Cyber Command do not circumvent the requirements 
process and the established acquisition process by directing 
subordinates at NSA or DISA to directly address needs perceived by 
Cyber Command?
    Answer. U.S. Cyber Command will be a separate organization with a 
separate and distinct acquisition authorities/process and staff from 
the NSA and DISA. The separate oversight, accountability chains, and 
the ability to audit actions taken by the two distinct organizations of 
NSA and the future U.S. Cyber Command exist to ensure that the 
Commander, U.S. Cyber Command follows the Cyber Command requirements 
process and that the Director of NSA follows the established NSA 
acquisition process. Specifically, NSA and U.S. Cyber Command will have 
separate staffs with distinct authorities and oversight. U.S. Cyber 
Command will operate under the same authorities and oversight as other 
Combatant Commands and Subunified Commands.
    NSA must operate under the authority and oversight of DOD and 
Director, National Intelligence. Operating under distinct authorities 
is not a new condition for the Director of NSA. I, like all the DIRNSAs 
before me, am used to working under distinct authorities (title 10 and 
title 50) and oversight (DOD and DNI), because of NSA's two separate 
missions in Foreign Intelligence and Information Assurance.
    Furthermore, as Director of NSA, I have delegated acquisition 
authority to the Senior Acquisition Executive (SAE), who is not 
assigned to or aligned with U.S. Cyber Command. The SAE position was 
established in response to recommendations by Congress in 2000. 
Additionally, the Under Secretary of Defense for Acquisition, 
Technology, and Logistics (USD (AT&L)) and the Office of the Director 
of National Intelligence (ODNI) both have Milestone Decision Authority 
(MDA) for some NSA Major System Acquisitions (MSA). While ODNI and 
USD(AT&L) have delegated the NSA SAE Milestone Decision Authority for 
certain major acquisition programs through the annual delegation 
process, they retain joint acquisition oversight over all MSAs. Both 
organizations conduct quarterly reviews of all MSA/Acquisition Category 
I and Special Interest Programs, and USD(AT&L) conducts a tri-annual 
review of NSA's contracting process in accordance with the Defense 
Financial Acquisition Regulation Supplement.
    The Director of DISA reports to ASD(NII) and will not be a 
subordinate of Commander, U.S. Cyber Command. Additionally, Commander, 
U.S. Cyber Command will have no subordinates in DISA.
                   extended deterrence in cyberspace
    Question. With respect to close allies who depend upon the United 
States for their security, will DOD provide a defense capability 
against attacks on their critical military, government, and economic 
infrastructure?
    Answer. Answer provided in the classified supplement.
    Question. Is DOD considering an ``extended deterrence'' model 
similar to that which we have offered through the U.S. ``nuclear 
umbrella''?
    Answer. I am not aware of any efforts to develop an extended 
deterrence model for cyber.
    Question. The financial sector in the United States is tightly 
integrated with and dependent upon the global financial network, such 
that a massive attack on financial networks abroad would probably 
inflict great harm on the United States.
    To what extent does DOD consider that the defense of some U.S. 
critical infrastructures must encompass network extensions abroad?
    Answer. Answer provided in the classified supplement.
    authorities and procedures for investigating ``.mil'' intrusions
    Question. One of the difficult issues confronting the Einstein 3 
intrusion detection and prevention program is what to do when packets 
are detected that contain malicious code. Attackers usually act 
indirectly against their targets, routing attacks through a series of 
innocent intermediaries to hide their identities and locations. A 
malicious penetration or attack on a ``.gov'' computer or network may 
be launched from a specific computer but without the knowledge of the 
legitimate owner of that computer. However, government personnel 
discovering such an attack have no way of knowing, without further 
investigation, which computer owners in a chain may be complicit. The 
Federal Government has not announced how it will specifically respond 
in terms of investigating actual or apparent attacks, retaining and 
analyzing associated data, when a warrant is required, and so forth, 
for the defense of the civil ``.gov'' networks. However, DOD has 
already fielded intrusion detection and prevention capabilities 
developed by NSA at the gateways to the ``.mil'' networks.
    Does this mean that the Department has developed and received 
approval for protocols and procedures for investigating U.S. persons 
whose computers may be implicated in attacks on ``.mil'' targets?
    Answer. Answer provided in the classified supplement.
         explaining cybersecurity plans to the american people
    Question. The majority of the funding for the multi-billion dollar 
CNCI is contained in the classified National Intelligence Program 
budget, which is reviewed and approved by the congressional 
intelligence committees. Almost all important aspects of the CNCI 
remain highly classified, including the implementation plan for the 
Einstein 3 intrusion detection and prevention system. It is widely 
perceived that the Department of Homeland Security is actually likely 
to simply extend the cyber security system that the NSA developed for 
DOD into the civilian and even the private sector for defense of 
critical infrastructure. DOD is creating a subunified Cyber Command 
with the Director of NSA as its Commander.
    In your view, are we risking creating the perception, at home and 
abroad, that the U.S. Government's dominant interests and objectives in 
cyberspace are intelligence- and military-related, and if so, is this a 
perception that we want to exist?
    Answer. No, I don't believe we are risking creating this perception 
as long as we communicate clearly to the American people--and the 
world--regarding our interests and objectives.
    Question. Based on your experience, are the American people likely 
to accept deployment of classified methods of monitoring electronic 
communications to defend the government and critical infrastructure 
without explaining basic aspects of how this monitoring will be 
conducted and how it may affect them?
    Answer. I believe the government and the American people expect 
both NSA and U.S. Cyber Command to support the cyber defense of our 
Nation. Our support does not in any way suggest that we would be 
monitoring Americans.
    I don't believe we should ask the public to accept blindly some 
unclear ``classified'' method. We need to be transparent and 
communicate to the American people about our objectives to address the 
national security threat to our Nation--the nature of the threat, our 
overall approach, and the roles and responsibilities of each department 
and agency involved--including NSA and DOD. I am personally committed 
to this transparency, and I know that DOD, the Intelligence Community, 
and rest of the administration are as well. What needs to remain 
classified, and I believe that the American people will accept this as 
reasonable, are the specific foreign threats that we are looking for 
and how we identify them, and what actions we take when they are 
identified. For these areas, the American people have you, their 
elected representatives, to provide the appropriate oversight on their 
behalf.
    Remainder of answer provided in the classified supplement.
    Question. What are your views as to the necessity and desirability 
of maintaining the current level of classification of the CNCI?
    Answer. In recent months, we have seen an increasing amount of 
information being shared by the administration and the departments and 
agencies on the CNCI and cybersecurity in general, which I believe is 
consistent with our commitment to transparency. I expect that trend to 
continue, and personally believe and support this transparency as a 
foundational element of the dialogue that we need to have with the 
American people on cybersecurity.
                military service roles in cyber command
    Question. Each of the military services is planning to create new 
organizations and structures, or expand existing ones, to support the 
new U.S. Cyber Command. However, cyberspace is a virtual realm, 
considerably removed from the physical world.
    Has the Department undertaken any analyses of alternative means of 
providing forces and capabilities to the new Command?
    Answer. In accordance with the Secretary of Defense memorandum 
directing the establishment of U.S. Cyber Command, each of the Services 
conducted a thorough mission analysis on how best to provide 
capabilities to U.S. Cyber Command, selected a course of action for the 
near term, and briefed that selection to the Deputy Secretary.
    Further, U.S. Strategic Command, in coordination with the Services 
and other combatant commanders, completed a study last year that gives 
us an initial vector for required force size and composition for a 
portion of the force. To that end, the Joint Requirements and Oversight 
Committee approved that recommendation and directed a more in-depth 
study. The study, the Cyber Analysis Campaign, is underway and should 
give us a force sizing construct by the end of the summer.
    Question. Can it be said that there is a logical basis for ground, 
sea, and air components in cyberspace--apart from the fact that each of 
the Services operate networks that must be defended?
    Answer. There is a logical basis for the department to organize 
both efficiently and consistently to achieve its assigned mission. In 
much the same manner that--from a mission standpoint--Special 
Operations or logistics crosses all warfighting dimensions, so does 
cyberspace. There may come a time when this would merit further 
consideration based upon lessons to be learned. Currently, the Military 
Departments organize, man, train, and equip to generate and sustain 
mission capacity on behalf of the Nation. Like other operational 
commands, it will be U.S. Cyber Command's business to take this cyber 
capacity--built to a common standard--and turn that into joint, 
combined cyber capability to achieve the supported commander's assigned 
mission as authorized by the Secretary of Defense.
    Question. Is it optimal that each service have a separate 
organization for supporting U.S. Cyber Command, especially in the areas 
of intelligence and offensive cyber warfare?
    Answer. Yes, I believe so. If cyberspace was homogenous and the 
entirety of the work force did the same job, one could make the 
argument that the Department doesn't need each Service to have its own 
cyber component. But that would be a vast oversimplification of the 
complexity of the domain. At the operational and tactical levels of 
war, the Service components will be responsible for significant cyber 
operations. They will depend upon the networks for command and control 
of their forces and must be able to defend those networks. Over time 
the Services will also bring resources to bear in the intelligence and 
offensive cyber realm that will support their component missions at the 
operational and tactical levels of war, with deconfliction by U.S. 
Cyber Command. Each Service brings a unique perspective and some 
specialized capability to the fight that would be neither efficient nor 
effective to flatten into a singular whole. In cyberspace, as in all 
the domains, each Service brings capability to be employed in the 
combined arms philosophy that makes the whole greater than the sum of 
the parts.
               command of national defense in cyberspace
    Question. A cornerstone of military doctrine is the importance of 
unity of command, particularly in time-sensitive scenarios such as 
those that are likely to arise in cyberspace. In the Federal 
Government, the Department of Homeland Security is in charge of 
defending the country against cyber attacks, but authorities and 
responsibilities are fragmented and spread across the Intelligence 
Community, DOD, the Department of Homeland Security, the Justice 
Department, the Treasury Department, and the Department of Energy. 
Also, each department and independent agency is responsible for 
operating and equipping its own networks.
    In your opinion, is there adequate unity of command and authorities 
for the Nation's response to serious cyber attacks?
    Answer. Unity of command within DOD is being improved with the 
establishment of U.S. Cyber Command; however, unity of effort, vice 
command, is equally important and achievable since effective cyber 
security requires a whole-of-government approach.
    As securing and defending our national cyber interests is an 
evolving work in progress, coordination, cooperation, and information 
sharing across the Federal Government is paramount. A rigorous 
partnership with DHS--as they look to secure and protect the .gov 
domain and critical infrastructure--is particularly crucial.
    DOD continually reviews its existing authorities and directives to 
determine what, if any, changes need to be requested to support ongoing 
or contingency plans. Our unique challenge in this domain is to develop 
a thorough understanding of the domain, posture to be prepared to 
recognize as rapidly as possible those vulnerabilities or threat 
unknowns and set effective ``post-crisis'' frameworks and conditions 
for decisionmakers, policymakers, and legislators pre-crisis.
    Question. If not, what is the process and schedule for defining and 
establishing an effective construct?
    Answer. Ultimately, the best processes and policies are those that 
enable our national decisionmakers and operating forces to achieve the 
best desired outcome. DOD continues to support and help protect our 
national cyber interests as authorized and directed.
               designing the internet for better security
    Question. Cyber security experts emphasize that the Internet was 
not designed for security.
    How could the Internet be designed differently to provide much 
greater inherent security?
    Answer. The design of the Internet is--and will continue to 
evolve--based on technological advancements. These new technologies 
will enhance mobility and, if properly implemented, security. It is in 
the best interest of both government and industry to consider security 
more prominently in this evolving future internet architecture. If 
confirmed, I look forward to working with this committee, as well as 
industry leaders, academia, the Services, and DOD agencies on these 
important concerns.
    Question. Is it practical to consider adopting those modifications?
    Answer. Answer provided in the classified supplement.
    Question. What would the impact be on privacy, both pro and con?
    Answer. Answer provided in the classified supplement.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as Commander, U.S. Cyber Command?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
    intelligence collection goals versus military warfighting goals
    1. Senator Levin. Lieutenant General Alexander, there was a recent 
Washington Post report of a supposed offensive cyber operation to take 
down an internet site that, according to the report, was providing 
valuable information to the Intelligence Community. Whether this 
article is accurate or not, the article highlights the concern about 
arbitrating between the potentially competing priorities of protecting 
useful intelligence sources, versus taking offensive or defensive 
action to achieve military objectives. What do you believe is the 
appropriate mechanism for arbitrating between protecting a potentially 
valuable source of intelligence and conducting cyber operations in 
support of some military objective?
    General Alexander. [Deleted.]

    2. Senator Levin. Lieutenant General Alexander, do you agree that 
it is appropriate that this committee be informed of all significant 
U.S. offensive cyber operations in a timely manner?
    General Alexander. Yes, I agree that in almost all circumstances 
the Armed Services Committees should be informed in a timely manner of 
significant offensive cyber operations conducted by Cyber Command 
(CYBERCOM).

                oversight for offensive cyber operations
    3. Senator Levin. Lieutenant General Alexander, one of the 
committee's major concerns is that an action to penetrate a network in 
order to collect intelligence in many situations is deemed by experts 
to be virtually identical to the steps one would take to prepare that 
target for offensive operations. In the advance policy questions, we 
asked you under what authorities these activities would be conducted, 
reported, and overseen by Congress.
    You replied that that preparation of a target network for offensive 
operations is ordered only by the Secretary of Defense in an Execute 
Order and is reported to the House and Senate Armed Services 
Committees, while penetration for intelligence collection is approved 
under intelligence authorities and reported to the intelligence 
committees.
    Unfortunately, the reality is not that clear. There is no neat and 
clear distinction between these two activities in cyberspace. In fact, 
a distinction does not really exist, which is why we posed the question 
in the first place to ensure that you, the Department of Defense (DOD), 
and the administration address this problem.
    Unfortunately, we also learned, after asking a specific question 
following the appearance of a Washington Post article reporting on an 
apparent offensive cyber operation, that DOD has undertaken a number of 
offensive cyber operations in the last several years, none of which was 
reported to the Armed Services Committees, notwithstanding your answer 
to the question. Have the Armed Services Committees been informed of 
all U.S. offensive cyber operations?
    General Alexander. [Deleted.]

    4. Senator Levin. Lieutenant General Alexander, do you agree that 
it is appropriate that the Armed Services Committees be informed of all 
U.S. offensive cyber operations?
    General Alexander. Yes, I agree that in almost all circumstances 
the Armed Services Committees should be informed in a timely manner of 
significant offensive cyber operations conducted by CYBERCOM.

                   acquisition conflicts of interest
    5. Senator Levin. Lieutenant General Alexander, if confirmed, you 
would lead the development of requirements for CYBERCOM. At the same 
time, you would remain as the Director of the National Security Agency 
(NSA), which has a sizeable acquisition budget. Why should we have 
confidence that you will be able to arbitrate effectively between your 
requirements definition role at CYBERCOM and your acquisition provider 
role at NSA?
    General Alexander. While the Commander, CYBERCOM, and the Director, 
NSA, roles are slated to be dual-hatted under the same individual, each 
organization will have separate and distinct staffs.
    Acquisition Authority for the NSA has been delegated by the 
Director, NSA, to the NSA Senior Acquisition Executive (SAE), who is 
not assigned to nor aligned with CYBERCOM. The SAE position was 
established in response to requests/recommendations by Congress in 
2000. Additionally, the Under Secretary of Defense for Acquisition, 
Technology, and Logistics (USD(AT&L)) and the Office of the Director 
for National Intelligence both have Milestone Decision Authority (MDA) 
for NSA Major Systems Acquisitions. These two safeguards will ensure 
that acquisition processes and external oversight are properly 
executed.
    CYBERCOM, as a subunified command of STRATCOM, will not have 
acquisition or procurement authority and will work through its 
Executive Agent, the U.S. Air Force, to satisfy its requirements.

    6. Senator Levin. Lieutenant General Alexander, what thoughts do 
you have for how we can build the appropriate firewalls between your 
multiple roles, and how we can develop an acquisition process for 
cyberspace that provides the high degree of agility required to keep 
pace with the technology while preserving acquisition discipline and 
oversight?
    General Alexander. [Deleted.]

                        decision on use of force
    7. Senator Levin. Lieutenant General Alexander, in our advance 
policy questions, we asked you if you would have authority to fight the 
war as does U.S. Forces Korea, the only other subunified command. You 
said that you would have the authorities provided by the President, the 
Secretary of Defense, and the Commander of the U.S. Strategic Command 
(STRATCOM).
    In answer to another question, you said that under joint doctrine 
``authority is normally given to subordinate commanders to select the 
methodology for accomplishing the mission,'' implying that you would 
have the freedom to decide how to accomplish mission orders. You went 
on to say that the Commander of STRATCOM has indicated already that he 
would delegate to CYBERCOM ``authority for all UCP [Unified Command 
Plan] cyber tasks.'' If you were to view these answers collectively, 
CYBERCOM could have the discretion to use offensive weapons to achieve 
any or all assigned cyber tasks.
    If you are confirmed, will authority to employ such weapons be 
delegated to you? If so, under what circumstances would you have 
authority to act without having further direction from the President, 
the Secretary of Defense, or the Commander of STRATCOM?
    General Alexander. [Deleted.]

          authorities of the director of national intelligence
    8. Senator Levin. Lieutenant General Alexander, in the advance 
policy questions, you were asked to characterize the role of the 
Director of National Intelligence (DNI) in signals intelligence 
(SIGINT) in cyberspace in light of the emphasis DOD is placing on the 
role of the Secretary of Defense as the President's Executive Agent for 
Signals Intelligence under Executive Order 12333. You said that the 
DNI's role is to issue the National Intelligence Priorities Framework 
and to oversee resource allocation.
    Your answer appears to overlook the fact that the Intelligence 
Reform and Terrorism Prevention Act of 2004 explicitly provides the DNI 
with the operational authority to task all national intelligence 
collection and analysis. That includes SIGINT.
    Could you elaborate on the respective roles and authorities of the 
Secretary of Defense and the DNI with this in mind?
    General Alexander. [Deleted.]
    Both the DNI and the Secretary of Defense have roles and 
responsibilities for the direction and management of the Nation's 
SIGINT activities. These roles and responsibilities were provided for 
in the ``Intelligence Reform and Terrorism Prevention Act of 2004'' 
(IRTPA), and implemented through amendment of Executive Order 12333 
(EO12333), ``United States Intelligence Activities.''
    Section 1018 of IRTPA said the President shall issue guidelines to 
ensure the effective implementation and execution within the executive 
branch of the authorities provided to the DNI without abrogating the 
statutory responsibilities of the Secretary of Defense. The President 
did so with EO12333, as amended by EO13470. For example, the DNI shall 
determine requirements and priorities for, and manage and direct the 
tasking, collection, analysis, production, and dissemination of, 
national intelligence by elements of the Intelligence Community. At the 
same time, the Secretary of Defense is the U.S. Government's executive 
agent for SIGINT but, as provided for in section 1.10(e) of EO12333, 
exercises his executive agent responsibilities ``in coordination with'' 
the DNI. As a result, as the Director of NSA, I take direction from 
both the Secretary of Defense and the DNI to ensure that I am 
collecting and producing SIGINT that is responsive to national and DOD 
requirements (to include support to military operations).

    9. Senator Levin. Lieutenant General Alexander, does the Secretary 
of Defense have the authority to direct SIGINT collection and analysis 
unilaterally, or only at the direction or approval of the DNI?
    General Alexander. [Deleted.]

             role of commercial industry in cyber security
    10. Senator Levin. Lieutenant General Alexander, it is widely 
believed and reported that the NSA has advised the last administration 
and the current one that only the NSA has the technology and know-how 
to provide effective defenses for the Government and the companies that 
own and operate critical infrastructure--like banking, transportation, 
power distribution, and telecommunications. However, the committee 
understands that the major telecommunications companies, as well as 
leading information technology companies, believe that their industries 
possess major capabilities that in some respects exceed those of the 
Government.
    For example, the so-called tier 1 communications providers who own 
and operate most of the world's telecommunications networks on which 
the Internet operates have unparalleled insight into what is happening 
in cyberspace on a global scale, and have tools to detect and stop 
threats as they are materializing. Do you agree that the commercial 
sector has untapped potential to help solve our cyber security 
problems?
    General Alexander. [Deleted.]

    11. Senator Levin. Lieutenant General Alexander, do you support 
pilot projects and demonstrations to test out some of these ideas?
    General Alexander. [Deleted.]

    12. Senator Levin. Lieutenant General Alexander, if the commercial 
telecommunications providers have the legal authority and capability to 
see cyber threats as they arise and traverse across the global network, 
they would be in a position to quickly identify where attacks 
originate, whereas the Government, as you have pointed out, must get 
warrants to start backtracking to trace the route of an attack. Is 
industry in principle in a better position to sense, characterize, and 
respond rapidly to threats in cyberspace?
    General Alexander. [Deleted.]

    13. Senator Levin. Lieutenant General Alexander, which Government 
agency should manage a relationship with industry in which commercial-
sector warning and threat information is provided to the Government? 
Should it be the Department of Homeland Security (DHS)?
    General Alexander. [Deleted.]

                adequacy of nsa cyber security solution
    14. Senator Levin. Lieutenant General Alexander, Howard Schmidt, 
the President's recently appointed cyber policy coordinator, just 
released a description of the equipment--known as Einstein 3--which NSA 
developed to help defend the military and Federal civilian networks 
from cyber attacks. He characterized it as a signatures-based intrusion 
detection and prevention system. Experts in cyber security, and leading 
security officials in DOD, believe that such intrusion prevention 
devices cannot by themselves defend against all threats, especially not 
certain kinds of sophisticated or unknown threats. DOD's strategy is to 
include the Einstein 3 technology as one part of a defense-in-depth. Do 
you agree that Einstein 3 is but one element of a robust defensive 
capability?
    General Alexander. [Deleted.]

    15. Senator Levin. Lieutenant General Alexander, do you think that 
the investments made to date under the Comprehensive National 
Cybersecurity Initiative, for non-DOD .gov agencies and departments, 
have reflected a proper balance between all the various aspects of a 
strong defense-in-depth?
    General Alexander. [Deleted.]

                  response to attacks on dod networks
    16. Senator Levin. Lieutenant General Alexander, in the advance 
policy questions, we asked you what the legal process is for 
backtracking through the layers of computers or servers located in the 
United States. Your reply was that law enforcement agencies have to do 
that, and they have to have a warrant. Then, if there are grounds at 
some point for believing that a foreign power is behind the attack that 
is routed through U.S. computers, a Foreign Intelligence Surveillance 
Act (FISA) warrant may be necessary. These procedures appear 
necessarily time-consuming--hardly matching the net speed that everyone 
touts as necessary.
    We also asked you about the legality of shooting back against an 
attack that seems to come from U.S. sources, even if we cannot tell 
whether the attacking computers are the source of the attack, or 
whether they may have been commandeered for such as purpose.
    Your answer is that the right to self defense allows commanders to 
return fire. Are you really saying that it is lawful and appropriate 
for U.S. military commanders to shoot back against computers located in 
the United States under the doctrine of self-defense--especially in 
light of the fact your answer to the first question was that a warrant 
is required to start to unravel the origins of an attack?
    General Alexander. Under normal circumstances, U.S. military forces 
would not be authorized to engage targets in the United States. 
However, the right and obligation of self-defense recognizes that under 
exceptional circumstances such a course of action may be justified. For 
example, if a military member comes under fire when guarding a military 
installation, even in the United States, the member is authorized to 
return fire in self-defense. There is no requirement for the member to 
hold fire and try to determine whether the attacker is a U.S. national. 
Similarly, in the cyber arena, when a military system comes under 
attack, the commander charged with protecting the system is authorized 
to act in self-defense. That right and obligation of self-defense may 
include cyber actions, which would be based on the severity of the 
attack, and could be characterized as ``firing back'' in order to stop 
the threat. Obviously, as in all military operations, the principles of 
necessity and proportionality would be applied. Military members would 
take care to use the minimally effective solution to stop the attack.

    17. Senator Levin. Lieutenant General Alexander, how do you 
reconcile these answers?
    General Alexander. See answer to question #16.

    18. Senator Levin. Lieutenant General Alexander, how could we ever 
get to a suitably rapid response to attacks that have been routed 
through U.S.-based computers and infrastructure if a complicated legal 
procedure is required?
    General Alexander. The challenge for U.S. cyber leadership is to 
balance the critical constitutional and legal protections we provide 
U.S. persons with the necessity of defending our Nation from attack. We 
must make use of every instrument of national power, drawing on the 
resources and authorities of every agency of our Government to prevent 
attacks on American interests. When prevention fails, we must have the 
clear authority to act swiftly to end adversary attacks. Working within 
the interagency process to determine how best to strike this balance is 
one of DOD's top priorities.

                   real time regional gateway program
    19. Senator Levin. Lieutenant General Alexander, an NSA Inspector 
General report on the Real Time Regional Gateway (RTRG) program found 
that the NSA SAE recommended to you in 2006 that the RTRG program be 
designated as a major acquisition, which would have subjected the 
program to a significantly higher degree of internal and external 
oversight. This recommendation was based on the fact that RTRG had 
grown immensely in size and scope and plans were being made to extend 
the fielding to multiple combatant commands. You rejected that 
recommendation and did not brief the USD(AT&L), even though you briefed 
the President, the Secretary of Defense, and other senior officials. 
Why did you not brief the USD(AT&L), and reject your SAE's 
recommendation, in spite of the fact that you briefed the program to 
higher-level officials?
    General Alexander. [Deleted.]
                                 ______
                                 
           Questions Submitted by Senator E. Benjamin Nelson
                        interagency cooperation
    20. Senator Ben Nelson. Lieutenant General Alexander, one thing 
that I commonly look for are stovepipes and whether the Services are 
duplicating efforts or truly enhancing overall mission effectiveness. 
Last year at the STRATCOM hearing, General Chilton highlighted the 
importance of sharing information among agencies, including the DHS, 
the Intelligence Community, and DOD, in addressing security risks in 
cyberspace. I worry that in response to cyber security threats, without 
strong coordination, agencies will create their own unique defenses. If 
each agency builds their own protective walls, they ultimately stifle 
collaboration and the ability to disseminate intelligence information 
among agencies, which has been our Achilles heel--an inability to share 
intelligence, connect the dots, and prevent future attacks. What do you 
see as your role in interagency coordination of cyber security and 
information exchange protocols?
    General Alexander. I believe my role in interagency coordination of 
cyber security and information exchange protocols centers on improving 
mechanisms to foster this activity. Principal among these activities 
will be the collaboration/coordination across the operational 
cybersecurity centers such as NSA's NTOC, DHS's US-CERT, FBI's NCIJTF, 
JTF-GNO's JOC and others. Additional coordination efforts include to 
the Joint Interagency Task Force-Cyber (JIATF-Cyber) whose membership 
includes the NSA/Central Security Service, Defense Intelligence Agency, 
Central Intelligence Agency (CIA), Department of Justice, Federal 
Bureau of Investigation (FBI), Joint Warfare Analysis Center, Office of 
the Secretary of Defense/Joint Staff, Army, Navy, Air Force, Marine 
Corps, Joint Functional Component Command-Network Warfare (JFCC-NW), 
Joint Task Force-Global Network Operations (JTF-GNO), Joint Functional 
Component Command for Global Strike, Joint Information Operations 
Warfare Center (JIOWC), Departments of Treasury (DOT), State (DOS), and 
Homeland Security, and the combatant commands. As CYBERCOM matures, we 
will look to refine and improve our coordination processes with all our 
Cyber partners.
    I believe my role must be as a proponent for improving the 
information exchange protocols among a variety of DOD and interagency 
partners every day. We need to do this not only through changes within 
our organizational structure and improvements to our procedures, but 
also through a change in organizational culture that fosters 
information sharing as essential to deterring our adversaries and 
preventing future attacks.

    21. Senator Ben Nelson. Lieutenant General Alexander, how do you 
see the relationship between the Defense Information Systems Agency 
(DISA) and U.S. CYBERCOM?
    General Alexander. DISA is a DOD combat support agency that 
provides command and control capabilities and enterprise infrastructure 
to operate and assure a global net-centric enterprise in direct support 
of joint warfighters, national-level leadership, and other mission and 
coalition partners across the full spectrum of operations. A strong 
relationship between DISA and CYBERCOM is essential to ensure we build, 
lease, and/or operate networks so that they are defensible and so that 
we are able visualize a Common Operating Environment (COE) in 
cyberspace, which serves as a foundation for CYBERCOM's execution of 
delegated missions assigned to STRATCOM in the Unified Command Plan.
    In recognition of the crucial nature of this relationship, the 
Director of DISA has committed to providing both a DISA Field Office to 
support CYBERCOM and a DISA Support Element, unique to CYBERCOM which 
will be integrated into the Joint Operations Center. CYBERCOM will 
provide a liaison officer to DISA to facilitate the exchange of 
information and coordination between the two commands.

    22. Senator Ben Nelson. Lieutenant General Alexander, do you have 
or expect to have a formal process to provide requirements for DISA to 
use as it acquires future network systems?
    General Alexander. [Deleted.]

    23. Senator Ben Nelson. Lieutenant General Alexander, how will you 
ensure that DISA and the Service components' technical solutions to 
cyber security issues do not end fielding proprietary solutions 
resulting in information stovepipes that limit our cyberspace 
operational effectiveness?
    General Alexander. Technical capability development to support 
CYBERCOM mission needs will be driven by a formal requirements process, 
the definition and use of standards, and a force integration plan that 
will include the Service cyber components assigned to the command as 
well as DISA. Joint membership on a requirements review board will 
ensure that all entities participate in the identification, 
prioritization, and resource investment decisions for technical 
solutions. Close collaboration and joint status reviews among the 
respective development organizations will avoid duplication of effort, 
and ensure activities remain complementary whether developed by the 
Government or by industry. Supporting acquisition organizations must 
ensure the careful crafting of acquisition contracts and associated 
statements of work to ensure that the rare proprietary solution is not 
a stovepiped solution, but rather is fully integrated with cyber 
operations across the enterprise. If confirmed, we will work closely 
with STRATCOM, Joint Chiefs of Staff, Office of the Secretary of 
Defense, Acquisition, Technology, and Logistics, and the Military 
Departments to ensure these solutions are properly aligned and 
integrated.

                             cyber threats
    24. Senator Ben Nelson. Lieutenant General Alexander, in February, 
Admiral Mullen stated before this committee that ``Threats in 
cyberspace are increasing faster than our ability to adequately defend 
against them.'' A key aspect of providing a strong cyber defense is 
having enough talented people with the right skills to do the job. The 
fiscal year 2010 budget increased the training capacity for cyber 
experts to attempt to improve the DOD's ability to safeguard our 
information and information systems. What progress are the Services 
making in providing forces to address the cyber threat from a manning 
perspective?
    General Alexander. [Deleted.]

    25. Senator Ben Nelson. Lieutenant General Alexander, is cyber 
training capacity sufficient to get out in front of this rapidly 
evolving threat? If not, what else is needed?
    General Alexander. [Deleted.]

    26. Senator Ben Nelson. Lieutenant General Alexander, are the 
Services properly coordinating their cyber efforts such as training and 
material solutions to ensure we are adequately protected against the 
threat of a substantial cyber attack?
    General Alexander. The Services are leveraging existing mechanisms 
to coordinate training and material solutions to ensure our protection 
against cyber attacks, and I will continue to work closely with them on 
these efforts. The creation of CYBERCOM along with its Service cyber 
components should significantly enhance the efforts of the Services to 
train and equip cyber forces to a common standard.
    Service initiatives to address cyber training shortfalls are well 
developed and coordinated. STRATCOM and NSA/CSS along with the Services 
have combined experience and expertise to confront the complicated 
issues related to Computer Network Operations (CNO) workforce 
development. Subject matter experts representing each of the CNO job 
functions have defined each work role, and outlined the knowledge, 
skills, abilities needed to perform those CNO tasks. Further enhancing 
this initiative are the combined efforts of the Consolidated Staff 
(JFCC-NW/JTF-GNO), under the auspices of STRATCOM and JFCOM, to develop 
a Cyber Training Initiative to assess combatant commander and Service 
joint cyber training efforts. Collectively, these efforts are ensuring 
our cyber training is coordinated among the Services and poised to 
address the threat of cyber attacks.
    The Services' continued use of the Joint Capabilities Integration 
and Development System (JCIDS) remains an essential element of 
coordinating material solutions to address our pressing cyber needs. 
These efforts--including capability needs, capability gap and non-
materiel solutions--must continue. Concurrent with this, we will ensure 
the technical capability development to support CYBERCOM mission needs 
will be driven by a formal requirements process, and will include the 
Service cyber components.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                             cyber threats
    27. Senator Inhofe. Lieutenant General Alexander, I am convinced 
that DOD's decision to stand up CYBERCOM is the right answer to a 
drastically growing threat. As you well know, there is a significant 
threat to our National security in the cyber world; a threat we are 
dealing with daily - attacks against our civilian and military 
infrastructure. Like threats to space assets, cyber threats fall into 
that nebulous realm of what is a direct attack and what is something 
just short of that. What are your thoughts on the seriousness of these 
threats?
    General Alexander. The adversaries our Nation faces today cover the 
full spectrum, from individual hackers to terrorists and organized 
criminal groups, as well as foreign militaries and intelligence 
services. Indeed, the growing cyber threat has outpaced our defenses, 
and we are experiencing increasingly sophisticated, coordinated, and 
damaging cyberpenetration. We face a dangerous combination of known--
and unknown--vulnerabilities, strong adversary capabilities, and weak 
situational awareness that could compromise our personal and national 
security. Moreover, we have witnessed a dramatic rise over the past 
several years in the number of intrusions against our military 
networks; DOD networks are now scanned millions of times a day by 
unauthorized users. In the most serious and significant cyber incident 
to date on U.S. military computer networks, several thousand computers 
were infected by malicious software attempting to exploit military 
systems and compromise national security. These intrusions affected a 
number of critical systems responsible for military command and 
control. The seriousness of the threats our Nation faces in cyberspace 
prompted the Secretary of Defense to stand up CYBERCOM and ensure our 
military could maintain its ability to use cyberspace for critical 
mission operations. The interconnected nature of these networks will 
require CYBERCOM to actively coordinate its operations both within the 
Department as well as in close partnership with the other agencies 
authorized to address these threats.

    28. Senator Inhofe. Lieutenant General Alexander, what do we need 
to do to combat these threats?
    General Alexander. [Deleted.]

    29. Senator Inhofe. Lieutenant General Alexander, besides the 
charter of CYBERCOM to address cyber-based threats, what else is within 
the CYBERCOM's purview?
    General Alexander. [Deleted.]

                       network/internet security
    30. Senator Inhofe. Lieutenant General Alexander, over the last 
decade, as internet use and connectivity have become pervasive, most 
information technology (IT) security spending that has been invested in 
``perimeter defense'' of the ``distributed network''. Breaches seem 
frequent and sometimes seem easy, and therefore focusing on IT security 
of the distributed network has been critical. While there has been 
increasing focus and increasing spending on the IT security of the 
distributed network over the past decade, I have been told that 
spending on IT security for the mainframe has declined. This could 
potentially lead to serious cyber security vulnerabilities in our 
mainframe network. I have been told that DOD has created and adhered to 
a strict set of security configuration controls for their mainframe 
systems. However, there have been reports of classified Government 
systems being breached. As I have been told in some detail, the 
peripheral security of networks has been the primary focus with less 
effort spent on the mainframes. Does DOD have any issues with its 
mainframe security, both in its air-gapped systems and in the systems 
that are connected to the internet?
    General Alexander. [Deleted.]

    31. Senator Inhofe. Lieutenant General Alexander, what is being 
done to secure those networks and systems that are not Government or 
military but are critical to us, such as civilian agencies, State 
governments, and private sector elements such as utility companies, 
banks, pipelines, phone companies, et cetera?
    General Alexander. [Deleted.]

                         law and cyber command
    32. Senator Inhofe. Lieutenant General Alexander, I just read a 
news release from Defense News on the legal issues associated with our 
ability to conduct operations in cyber space. It basically said that 
the NSA can monitor when we are under attack but right now DOD is 
powerless to respond due to DHS ownership of responding to network 
attacks. The article was not overly complimentary of the current 
process. Experts indicated that we need to look at doing some serious 
review of our statutory law. What are your thoughts on where we stand 
with the legal aspects of responding to cyber attacks?
    General Alexander. The process for DHS to request and receive DOD 
support for any national event is known as Defense Support to Civil 
Authorities (DSCA). If there is a national cyber emergency for which 
DOD assistance is requested, the Secretary of Defense will provide 
guidance, and we will comply with such guidance under all 
circumstances. Any DOD cyber assistance will partner with the U.S. 
Computer Emergency Readiness Team (US-CERT), the DHS lead organization, 
under their National Cyber Security Division, for the day-to-day 
defense of the Federal executive branch (.gov) networks.
    Separate from the DSCA process, however, a new legal framework may 
be needed to ensure the cyber security of our Nation at large. 
President Obama's Cyberspace Policy Review specifically highlighted the 
mismatch between our technical capabilities to conduct operations and 
the governing laws and policies for the United States.
    As stated in the Cyberspace Policy Review, law applicable to 
cyberspace is a ``complex patchwork'' that ``shapes viable policy 
options.'' This patchwork is the result of the convergence of once very 
diverse industries and technologies--each governed by different laws 
and policies--to create what we now call ``cyberspace.'' In response to 
this convergence, ``law and policy should continue to seek an 
integrated approach'' that leverages all the capabilities and expertise 
of both the public and private sectors so that, together, we can 
enhance the national security, economic competitiveness, public safety 
and civil liberties and privacy of the American people. I completely 
agree with this finding.
    Until this integrated approach can be realized, policy gaps exist 
that prevent us from doing all that can be done to increase the cyber 
security of the Nation, especially our Nation's critical 
infrastructure. Foremost amongst these gaps are the potential 
impediments to the public-private cybersecurity information sharing 
partnership, which I believe is critical to more effectively 
attributing and countering this threat. These include two core issues. 
First, the U.S. Government needs to be able to disseminate to the 
owners of the critical infrastructure and other private sector entities 
threat information that reflects real time exigencies, and to receive 
such information from private entities, while balancing concerns 
regarding anti-trust regulations and other unfair competition matters; 
civil liberties and privacy; and due regard for the Constitution and 
all applicable laws, policies, and procedures. The second issue 
involves how private companies will protect sensitive Government 
information and use it for the purpose of better cybersecurity without 
incurring liability or unduly disrupting their network operations.
    NSA/CSS, as a member of both DOD and the Intelligence Community and 
in partnership with DHS and other departments and agencies, is working 
closely with the President's Cybersecurity Coordinator, Mr. Howard A. 
Schmidt, on these issues. We are exploring options within existing law, 
policy, and doctrine to address these issues and we will inform 
Congress if any legislation may be needed.

    33. Senator Inhofe. Lieutenant General Alexander, what needs to be 
done to ensure that the bureaucracy does not interfere with our 
security necessities?
    General Alexander. In my experience, we currently have an 
unprecedented level of commitment across the public and private sectors 
to improving the cybersecurity of our Nation. Evidence of the 
commitment and cooperation is seen in the implementation of the 
Comprehensive National Cybersecurity Initiative (CNCI) and the 
President's Cyberspace Policy Review. The issues the Nation faces in 
this domain are complex and challenging, necessarily taking time to 
thoughtfully resolve even with the complete commitment of all 
stakeholders. As stated in the Cyberspace Policy Review, integrating 
the Nation's response to such challenging issues needs to be led ``from 
the top,'' which is happening under the leadership of Mr. Howard A. 
Schmidt, Special Assistant to the President and Cybersecurity 
Coordinator. In support of the Secretary of Defense, and if confirmed, 
I will continue to work to identify gaps, inform the development of 
meaningful and enduring national cyber policy, and be prepared to 
adjust rapidly to changes.

                  education in information technology
    34. Senator Inhofe. Lieutenant General Alexander, when we met in my 
office yesterday, we discussed the need to attract extremely technical, 
qualified, and diverse professionals. This begins with ensuring our 
colleges and universities throughout the United States have programs in 
place to educate and groom future generations of IT professionals. One 
program we discussed was University of Tulsa's iSec, specializing in 
educating students in cyber defense, deterrence, and warfare. Are we 
doing enough in academic institutions to produce the IT professionals 
this country needs in the future?
    General Alexander. We have seen a lot of progress in academic 
institutions responding to the high demand for IT professionals, but 
more can be done to build this critical resource. The explosion of 
cyber threats and increases in organized cyber crime activity has 
driven the trend for information technology professionals upward. We 
are starting to see more 4 year programs like the one at Tulsa and even 
2 year programs at Community Colleges. For example, the Chronicle of 
Higher Education reported that as early as 7 years ago, virtually no 
Community Colleges offered cyber security programs. Now cyber security 
education has spread across the 2 year college sector, spurred by 
Federal grants and post-September 11 focus on infrastructure security. 
Finally, President Obama is stressing the importance of such colleges 
and a new White House cyber security push points to the need for 
workforce training. All of this demand does lead to an increasing role 
for 2 and 4 year colleges that can supply government agencies and 
private companies with workers steeped in cyber security.
    Through partnerships with Government, academia, and industry, NSA's 
Information Assurance (IA) Mission advocates improvements in IA 
education, training, and awareness. The National IA Education and 
Training Program (NIETP) operates as the national manager for IA 
education and training relating to national security systems. Its 
programs assure the very finest preparation of professionals entrusted 
with securing our critical information. The NIETP develops IA training 
standards with the Committee on National Security Systems. It also 
assesses current course IA offerings to identify gaps and determine how 
to fill those gaps. The NIETP encourages and recognizes universities 
through the National Centers of Academic Excellence in IA Education and 
the National Centers of Academic Excellence in Research. The NIETP is 
also one of the Government sponsors of the Colloquium for Information 
Systems Security Education. There are over 106 National Centers of 
Academic Excellence in the field of Information Assurance as recognized 
by the NSA/Central Security Service. Including The University of 
Tulsa's iSec program, these institutes of higher learning are located 
in 37 different States, Washington, DC, and Puerto Rico. Prior to 
submitting an application for the National Center of Excellence 
Program, IA courseware must be certified under the IA Courseware 
Evaluation Program as meeting the Committee on National Security 
Systems (CNSS) Training Standards, and the certification must remain 
current. There is a minimum number of points required in nine different 
criteria to qualify as a National Center of Academic Excellence.
    The partnership that we have with all of these institutions of 
higher education will continue to evolve in order to meet the future 
need of producing the very best IT professionals. Through NSA and other 
government and industry efforts, we must remain engaged with academia 
to ensure we foster the development of the right curriculum, based on 
identifiable standards, to ensure the continued growth in the numbers 
of IT professionals our country will need in the future.

    35. Senator Inhofe. Lieutenant General Alexander, is there a 
research/development gap in cyber defense/deterrence/technology/
intelligence?
    General Alexander. There are research and development gaps that do 
exist in the areas of cyber operations and intelligence; principally 
these involve a need for shared situational awareness, better 
attribution technologies, and real-time visibility of intrusions into 
our networks. These and other gaps are being identified and used to 
influence DOD's research and development priorities. The technical 
solutions associated with cyber defense will continue to evolve rapidly 
as our adversaries become increasingly sophisticated. Given that 
intrusions into DOD systems are virtually the same as those attacks 
experienced by the commercial sector, DOD can both benefit from and 
influence commercial development efforts, consistent with DOD 
authorities, to address those vulnerabilities. Ultimately, we believe 
automated solutions which adapt to rapidly increasing adversary 
capability sophistication and to employ proactive measures to defeat 
adversary attacks will be critical to ensuring the defense of our 
military networks.

                       standing up cyber command
    36. Senator Inhofe. Lieutenant General Alexander, as I have seen 
with the standup of U.S. Africa Command (AFRICOM), putting together a 
combatant or functional command organization is a tall order. It 
requires herculean efforts on the parts of all entities and can easily 
be subjected to inertia and bureaucracy. What is your understanding of 
the infrastructure and capabilities requirements and status of 
CYBERCOM?
    General Alexander. [Deleted.]

    37. Senator Inhofe. Lieutenant General Alexander, what is needed to 
ensure the command is fully functional?
    General Alexander. Since CYBERCOM will initially be established 
with the existing personnel from JFCC-NW and JTF-GNO along with 
existing military Service component organizations, I believe that we 
will be fully functional upon establishment of the command. That being 
said, if confirmed and upon activation, we will be looking to 
continually enhance and evolve our mission effectiveness. We need to 
build capacity (trained personnel, facilities, communications, IT . . . 
), enable effective collaboration (DOD, interagency, government, 
industry, academia, foreign partners), and achieve collocation of a 
critical set of core capabilities to provide agility in defeating 
known, emerging, and unanticipated threats. In the short term, we are 
standing up the headquarters within the Fort Meade area/NSA campus by 
merging the JTF-GNO and JFCC-NW mission sets to better leverage the 
capabilities of the global SIGINT enterprise while using existing 
infrastructure. As necessary, we will pursue more contiguous space 
solutions to house our authorized strength, host key Service cyber 
component elements and liaison offices.

    38. Senator Inhofe. Lieutenant General Alexander, what will be the 
interagency support to the headquarters?
    General Alexander. Currently, we have several representatives from 
key interagency partners integrated into the Consolidated JFCC-NW/JTF-
GNO staff. My intent is to grow and strengthen these relationships by 
increasing the level of integration of our key interagency partners. As 
an example, we intend to further promote this enhanced coordination and 
collaboration by seeking the integration of interagency personnel on 
the CYBERCOM operations floor. We will also explore opportunities to 
expand DOD/NSA liaison positions at other key departments and agencies. 
In addition we will seek ways to improve the interagency coordination 
process under the command's purview. One such process is the day-to-day 
operational planning, deconfliction, and execution performed by JIATF-
Cyber that coordinates offensive cyberspace operations. Current member 
organizations of JIATF-Cyber includes the NSA/Central Security Service, 
Defense Intelligence Agency, Central Intelligence Agency (CIA), 
Department of Justice (DOT), Federal Bureau of Investigation (FBI), 
Joint Warfare Analysis Center, Office of the Secretary of Defense/Joint 
Staff, Army, Navy, Air Force, Marine Corps, JFCC-NW, JTF-GNO, Joint 
Functional Component Command for Global Strike, JIOWC, Departments of 
Treasury (DOT), State (DOS), and Homeland Security and the combatant 
commands. As CYBERCOM matures, we will look to improve this process and 
expand our coordination to full-spectrum cyberspace operations.

    39. Senator Inhofe. Lieutenant General Alexander, how will your 
responsibilities for the NSA impact or integrate with your 
responsibilities for CYBERCOM?
    General Alexander. Across my 4\1/2\ years as the Director of NSA/
Chief, CSS, and Commander of JFCC-NW (18 months of which I also served 
as the operational commander of JTF-GNO), I have worked closely with 
and been supported by excellent line commanders and leaders across the 
STRATCOM, NSA, and CSS organizations who, in turn, have taken on 
greater responsibility for executing their assigned tasks while 
ensuring greater synchronization with all. I fully expect to be able to 
draw upon the capabilities and talents of that broad leadership cadre 
combined with the additional leaders that will join us upon activation 
of CYBERCOM to effectively synchronize their work across NSA and 
CYBERCOM.
    While CYBERCOM's ability to leverage NSA's cryptologic capabilities 
and its world class Information Assurance expertise will be critical to 
its success in operating in the cyber domain, CYBERCOM and NSA will 
remain separate and distinct organizations with their own identities, 
authorities, missions, funding, and oversight mechanisms. I intend to 
draw upon the extensive lessons I have learned over the past 4\1/2\ 
years to ensure that I am able to perform both missions effectively. 
The addition of a three-star Deputy Commander for CYBERCOM, a fully 
resourced joint staff and robust Service cyber components will be 
critical enablers in this regard.

    40. Senator Inhofe. Lieutenant General Alexander, where would you 
like to see CYBERCOM in the next 1, 5, and 10 years?
    General Alexander. Over the next year, I see CYBERCOM focusing on 
building the command and staff; implementing an effective operational 
construct; and informing, and benefiting from, the development of DOD's 
policy and strategy review to address cyberspace operations. Building 
the command includes relocation of over 400 JTF-GNO personnel from 
Arlington to Fort Meade, the establishment of a joint staff structure, 
and the stand up of Service cyber components. Implementing an effective 
operational construct is also key during the coming year and centers on 
improving our ability to dynamically defend our military networks as 
well as the development of a structured process to receive and respond 
to combatant command cyber requirements. Underlying all of these goals 
is the ongoing, Under Secretary of Defense for Policy-led, review of 
DOD cyberspace policy. This effort, as it comes to fruition, will 
significantly shape and influence our actions in the cyber domain.
    At year 5, I envision a significant improvement in defending of our 
military cyber infrastructure. This improvement will be bolstered by 
substantive growth and maturation of our Service cyber capacity and 
capability as well as a considerable investment in physical and 
information technology infrastructure to support shared cyber 
situational awareness. Moreover, I envision a robust partnership with 
the DHS and commercial sector to ensure the defense of the .mil, .gov, 
and critical infrastructure, with roles, responsibilities and 
authorities clearly defined and executed. At year 10, I envision 
CYBERCOM, working closely with the Services, component commands, and 
select agencies achieving a mature integrated operational construct 
that allows for seamless interoperability, a capability to conduct net-
speed operations and a COE to conduct effective operations in 
cyberspace.

    41. Senator Inhofe. Lieutenant General Alexander, what level of 
funding is necessary to achieve these goals?
    General Alexander. [Deleted.]
                                 ______
                                 
            Questions Submitted by Senator George S. LeMieux
                             cyber attacks
    42. Senator LeMieux. Lieutenant General Alexander, what threshold 
would constitute an act of war?
    General Alexander. [Deleted.]

    43. Senator LeMieux. Lieutenant General Alexander, would we be 
willing to commit kinetic forces in response to a cyber attack?
    General Alexander. The President and the Secretary of Defense would 
determine whether kinetic forces were to be committed. Important 
considerations informing this decision would include the scale of the 
attack and the ability to attribute it to a specific adversary as well 
as the destructive effect. The use of kinetic force in response to a 
cyber attack would also need to satisfy necessity and proportionality 
requirements of the law of armed conflict.

    44. Senator LeMieux. Lieutenant General Alexander, who are the 
decisionmakers in reacting and responding to a cyber attack?
    General Alexander. [Deleted.]

    45. Senator LeMieux. Lieutenant General Alexander, a March 23rd 
article in Defense News claims that 120 countries have or are 
developing offensive cyber attack capabilities. Is the United States 
prepared to deal with this threat?
    General Alexander. While the majority of these nations developing 
offensive cyber attack capabilities are not our adversaries, the United 
States does in fact face a serious threat from a spectrum of actors. 
The growing cyber threat has, in fact and in my opinion, outpaced the 
country's defenses and we are experiencing increasingly sophisticated, 
coordinated, and damaging cyber penetration, for which I do not believe 
we are adequately prepared.
    The ever increasing intrusions into on our classified and 
unclassified military networks, specifically, led to the Secretary of 
Defense's decision to establish CYBERCOM in order to confront the 
threats and reduce the vulnerability of our military cyber 
infrastructure. As recognized in the President's Cyberspace Policy 
Review, what is truly needed, however, is a comprehensive framework to 
ensure coordinated response and recovery by the whole of government 
working with the private sector. The interconnected nature of DOD 
networks and the free flow of information across various domains 
necessitate an active partnership between DOD and agencies across the 
U.S. Government, along with the private sector, to ensure that the 
security of these networks is synchronized. CYBERCOM will focus on 
securing the Nation's military networks. Military operations and 
command and control, however, no longer consistently fit neatly within 
the boundaries of the .mil networks. Increasingly, key logistics and 
other operational missions are performed by cleared defense contractors 
and commercial vendors via routine network communications. Thus, 
protecting the Nation's military networks and operations from 
disruption will increasingly require close interaction with such 
entities and new constructs to guarantee unimpeded operations.
    As DOD works through the development of these new constructs, we 
will do so in concert with the White House, the Justice Department, 
DHS, and other agencies to ensure we develop a synchronized way ahead 
within an overall national cyber policy framework. These collective 
efforts will be foundational to our Nation's success in the cyber 
domain.
                                 ______
                                 
              Questions Submitted by Senator David Vitter
                             cyber attacks
    46. Senator Vitter. Lieutenant General Alexander, first, I want to 
thank you for our productive meeting and discussion last month about 
NSA's continuing operations and future plans. How important do you view 
an American offensive cyber capability?
    General Alexander. [Deleted.]

    47. Senator Vitter. Lieutenant General Alexander, will you make 
offensive capabilities a priority to counter or deter other nations' 
cyber attacks?
    General Alexander. [Deleted.]
                                 ______
                                 
              Questions Submitted by Senator Susan Collins
                government/private sector collaboration
    48. Senator Collins. Lieutenant General Alexander, how critical is 
collaboration between the private sector and the Government to reducing 
our cyber vulnerabilities?
    General Alexander. Collaboration is absolutely essential. I believe 
building an effective partnership between the U.S. Government and the 
Nation's private sector is integral to reducing the country's cyber 
vulnerabilities.
    Cyberspace is fundamentally owned and operated by the private 
sector. Most of the government infrastructure is owned and operated by 
private industry. For our mutual defense, the Government must share 
information and expertise regarding threats and vulnerabilities with 
the private sector--and the private sector should be able to do the 
same. It must be a partnership.

    49. Senator Collins. Lieutenant General Alexander, can you discuss 
how the NSA and CYBERCOM currently interact with the private sector and 
your plans for that interaction to be stronger in the future?
    General Alexander. [Deleted.]

    50. Senator Collins. Lieutenant General Alexander, what specific 
provisions in Federal law prevent information sharing between the 
Government and the private sector, thus hampering our efforts to 
protect cyberspace?
    General Alexander. [Deleted.]

    51. Senator Collins. Lieutenant General Alexander, if the private 
sector shares information with the Government to help protect against 
criminal and terrorist attacks, are there adequate protections in place 
within the NSA and CYBERCOM to guard against the release of trade 
secrets and other proprietary information?
    General Alexander. [Deleted.]

                           cyber coordination
    52. Senator Collins. Lieutenant General Alexander, NSA and CYBERCOM 
play lead roles in protecting U.S. military networks. DHS is the lead 
agency in terms of protecting the Federal Government's civilian 
networks and the Nation's critical infrastructure. How do you plan to 
coordinate the different responsibilities of NSA, CYBERCOM, and DHS in 
this regard?
    General Alexander. Each organization has specific missions and 
authorities, and all will be required in order to increase the 
cybersecurity of the Nation. Therefore, as you state, coordination is 
essential for success. In my experience, the elements of effective 
coordination are communication, collaboration, and respect. In response 
to cyber threats and intrusions already encountered NSA, the Joint Task 
Force for Global Network Operations (JTF-GNO) and DHS are continually 
strengthening coordination in a manner that recognizes and respects 
each others' authorities and capabilities, supports the exchange of 
vital information, and results in collaboration on solutions that 
mitigate the threat and reduce vulnerabilities. DHS, NSA, and the 
Consolidated Staff (Joint Functional Component Command Network Warfare 
and JTF-GNO) have also conducted a series of table top exercises to 
improve coordination in cyberspace. Coordination, however, is necessary 
beyond these three organizations. Coordination with other key 
departments and agencies, to include the Federal Bureau of 
Investigation, the Department of State, and the Department of Justice, 
as well as State, local, and tribal government, industry and our allies 
is imperative. In accordance with the White House Cyberspace Policy 
Review, the White House Cybersecurity Coordinator is leading this 
national effort.
    Secretary Gates directed the creation of CYBERCOM to establish a 
framework under which a single military command can achieve unity of 
command and operational integration within DOD across the full-range of 
cyberspace operations. CYBERCOM will increase the DOD's effectiveness 
in this critical domain.

    53. Senator Collins. Lieutenant General Alexander, what is the 
NSA's role in forming the technical standards, guidelines, or best 
practices for protecting the evolving networks of the Government and 
the private sector?
    General Alexander. [Deleted.]

                             cyber attacks
    54. Senator Collins. Lieutenant General Alexander, the former DNI, 
Mike McConnell, recently pronounced that the United States ``is 
fighting a cyber war today and it is losing.'' Various reports have 
indicated that foreign powers have been at the root of serious and 
malicious cyber attacks against U.S. Government networks and against 
private interests. The recently released Quadrennial Defense Review 
states that DOD's networks ``are infiltrated daily by myriad of 
sources, ranging from small groups of individuals to some of the 
largest countries in the world.'' In many cases, the attacks have been 
conducted through private networks to cover their tracks. At what point 
does an attack by a foreign power on our Government's systems or on a 
U.S. private sector system become an act of war?
    General Alexander. [Deleted.]

    55. Senator Collins. Lieutenant General Alexander, authentication 
of the source of a cyber attack is a critical component of any response 
to the attack. However, authentication can often be a difficult 
undertaking in the area of cyber security. It often requires the 
cooperation of multiple Federal agencies as well as the assistance of 
foreign governments. What steps is CYBERCOM taking to address this 
challenge?
    General Alexander. [Deleted.]

    56. Senator Collins. Lieutenant General Alexander, what actions 
should the U.S. Government take to improve authentication efforts, 
including the need to pass any new laws?
    General Alexander. We must approach this problem in several ways. 
First, we must continue to encourage collaboration within the 
Intelligence Community to improve our ability to determine 
authentication. Second, we must invest in the right technologies to 
promote rapid attribution of cyber intrusions as well as agile tipping 
and cueing mechanisms to provide early warning and rapid response to 
these threats. This must be done with careful attention to the 
protection of privacy and civil liberties; if we are successful, these 
measures and the resulting strengthening of cybersecurity will enhance 
privacy through better protection of private information.
    It is not clear at this time whether new laws are required to 
improve U.S. Government authentication efforts, though some gaps do 
exist today that prevent us from using technology to its fullest to 
increase the cyber security of the nation, especially our Nation's 
critical infrastructure. Foremost amongst these gaps are the potential 
impediments to the public-private cybersecurity information sharing 
partnership, which I believe is critical to more effectively 
attributing and countering this threat. These include two core issues. 
First, the U.S. Government needs to be able to disseminate to the 
owners of the critical infrastructure and other private sector entities 
threat information that reflects real time exigencies, and to receive 
such information from private entities, while balancing concerns 
regarding anti-trust regulations and other unfair competition matters; 
civil liberties and privacy; and due regard for the Constitution and 
all applicable laws, policies, and procedures. The second issue 
involves how private companies will protect sensitive government 
information and use it for the purpose of better cybersecurity without 
incurring liability or unduly disrupting their network operations.
    NSA/CSS, as a member of both DOD and the Intelligence Community and 
in partnership with DHS and other departments and agencies, is working 
closely with the President's Cyber Security Coordinator, Mr. Howard A. 
Schmidt, on these issues. We are exploring options within existing law, 
policy, and doctrine to address these issues and we will notify 
Congress if any legislation maybe needed.
                                 ______
                                 
    [The nomination reference of LTG Keith B. Alexander, USA, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  October 20, 2009.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the U.S. Army to the 
grade of indicated while assigned to a position of importance and 
responsibility under title 10, U.S.C., section 601:

                             To be General.

    LTG Keith B. Alexander, 0000.
                                 ______
                                 
    [The biographical sketch of LTG Keith B. Alexander, USA, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
                            Department of the Army,
                Office of the Chief of Legislative Liaison,
                                  Washington, DC, October 15, 2009.
Hon. Carl Levin, Chairman,
Committee on Armed Services,
U.S. Senate,
Washington, DC.
    Dear Mr. Chairman: The President has forwarded to you under 
separate cover the following nomination.

        For appointment to the grade of General:
        Lieutenant General Keith B. Alexander, Director, National 
        Security Agency/Chief, Central Security Service, Fort Meade, 
        MD, as Director, National Security Agency/Chief, Central 
        Security Service/Commander, U.S. Cyber Command, Fort Meade, MD.

    For the information of the committee, I am enclosing a military 
career resume for this officer showing his assignments and grades held.
            Sincerely,
                               Bernard S. Champoux,
                                  Major General, U.S. Army,
                                      Chief of Legislative Liaison.
Enclosure
                                 ______
                                 
      Transcript of Naval Service for LTG Keith B. Alexander, USA
Source of commissioned service: USMA.

Educational degrees:
    U.S. Military Academy - BS - No Major
    Boston University - MS - Business Administration
    Naval Postgraduate School - MS - Electronic Warfare
    Naval Postgraduate School - MS - Physics
    National War College - MS - National Security Strategy

Military schools attended:
    Armor Officer Basic Course
    Military Intelligence Officer Advanced Course
    U.S. Army Command and General Staff College
    National War College

Foreign language(s): None recorded.

Promotions:

------------------------------------------------------------------------
                                                            Date of
                     Promotions                           appointment
------------------------------------------------------------------------
2LT.................................................           5 Jun 74
1LT.................................................           5 Jun 76
CPT.................................................           8 Aug 78
MAJ.................................................           1 Sep 85
LTC.................................................           1 Apr 91
COL.................................................           1 Sep 95
BG..................................................           1 Jan 00
MG..................................................           1 Jan 03
LTG.................................................           1 Aug 03
------------------------------------------------------------------------


Major permanent duty assignments:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
Feb. 75.........................  Mar. 76...........  Platoon Leader, B
                                                       Company, 2d
                                                       Battalion, 81st
                                                       Armor, 1st
                                                       Armored Division,
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany
Mar. 76.........................  June 77...........  Assistant S-4
                                                       (Logistics),
                                                       later S-4, 511th
                                                       Military
                                                       Intelligence
                                                       Battalion, 66th
                                                       Military
                                                       Intelligence
                                                       Group, U.S. Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany
July 77.........................  June 78...........  Commander, Field
                                                       Office, 511th
                                                       Military
                                                       Intelligence
                                                       Battalion, 66th
                                                       Military
                                                       Intelligence
                                                       Group, U.S. Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany
July 78.........................  Feb. 79...........  Student, Military
                                                       Intelligence
                                                       Officer Advanced
                                                       Course, U.S. Army
                                                       Military
                                                       Intelligence
                                                       Center and
                                                       School, Fort
                                                       Huachuca, AZ
Feb. 79.........................  July 79...........  Electronic Warfare
                                                       Staff Officer,
                                                       525th Military
                                                       Intelligence
                                                       Group, Fort
                                                       Bragg, NC
July 79.........................  Jan. 81...........  Commander, 336th
                                                       Army Security
                                                       Agency Company,
                                                       319th Military
                                                       Intelligence
                                                       Battalion (Corps
                                                       Electronic
                                                       Warfare
                                                       Intelligence),
                                                       525th Military
                                                       Intelligence
                                                       Group, Fort
                                                       Bragg, NC
Jan. 81.........................  July 81...........  Assistant S-3
                                                       (Operations),
                                                       525th Military
                                                       Intelligence
                                                       Group, Fort
                                                       Bragg, NC
Aug. 81.........................  Sep. 83...........  Student, Naval
                                                       Postgraduate
                                                       School, Monterey,
                                                       CA
Oct. 83.........................  June 85...........  Operations
                                                       Officer, later,
                                                       Chief,
                                                       Intelligence
                                                       Electronic
                                                       Warfare Systems
                                                       Task Force, later
                                                       Chief, Concepts
                                                       and Studies
                                                       Division, U.S.
                                                       Army Intelligence
                                                       Center and
                                                       School, Fort
                                                       Huachuca, AZ
June 85.........................  June 86...........  Student, U.S. Army
                                                       Command and
                                                       General Staff
                                                       College, Fort
                                                       Leavenworth, KS
June 86.........................  June 88...........  Deputy Director,
                                                       Intelligence and
                                                       Electronic
                                                       Warfare Master
                                                       Plan Special Task
                                                       Force, later
                                                       Intelligence
                                                       Staff Officer,
                                                       Office of the
                                                       Deputy Chief of
                                                       Staff for
                                                       Intelligence,
                                                       U.S. Army,
                                                       Washington, DC
June 88.........................  Mar. 90...........  S-3 (Operations),
                                                       later Executive
                                                       Officer, 522d
                                                       Military
                                                       Intelligence
                                                       Battalion, 2d
                                                       Armored Division,
                                                       Fort Hood, TX
Mar. 90.........................  June 91...........  Assistant Chief of
                                                       Staff, G-2
                                                       (Intelligence),
                                                       1st Armored
                                                       Division, U.S.
                                                       Army, Europe and
                                                       Seventh Army,
                                                       Germany and
                                                       Operations Desert
                                                       Shield/Storm,
                                                       Saudi Arabia
June 91.........................  July 93...........  Commander, 204th
                                                       Military
                                                       Intelligence
                                                       Battalion, U.S.
                                                       Army, Europe and
                                                       Seventh Army,
                                                       Germany
Aug. 93.........................  June 94...........  Student, National
                                                       War College, Fort
                                                       McNair,
                                                       Washington, DC
June 94.........................  May 95............  Chief, Army
                                                       Intelligence
                                                       Initiatives,
                                                       Office of the
                                                       Deputy Chief of
                                                       Staff for
                                                       Intelligence,
                                                       U.S. Army,
                                                       Washington, DC
May 95..........................  June 97...........  Commander, 525th
                                                       Military
                                                       Intelligence
                                                       Brigade, Fort
                                                       Bragg, NC
June 97.........................  July 98...........  Deputy Director
                                                       for Intelligence,
                                                       J-2, The Joint
                                                       Staff (Defense
                                                       Intelligence
                                                       Agency),
                                                       Washington, DC
July 98.........................  Feb. 01...........  Director for
                                                       Intelligence, J-
                                                       2, U.S. Central
                                                       Command, MacDill
                                                       Air Force Base,
                                                       FL
Feb. 01.........................  July 03...........  Commanding
                                                       General, U.S.
                                                       Army Intelligence
                                                       and Security
                                                       Command, Fort
                                                       Belvoir, VA
Aug. 03.........................  July 05...........  Deputy Chief of
                                                       Staff, G-2, U.S.
                                                       Army, Washington,
                                                       DC
Aug. 05.........................  Present...........  Director, National
                                                       Security Agency/
                                                       Chief, Central
                                                       Security Service,
                                                       Fort Meade, MD
------------------------------------------------------------------------


Summary of joint assignments:

------------------------------------------------------------------------
                                         Date                Grade
------------------------------------------------------------------------
Assistant Chief of Staff, G-2       Mar. 90-June 91         Lieutenant Colonel
 (Intelligence), 1st Armored
 Division, U.S. Army Europe and
 Seventh Army, Germany and
 Operations Desert Shield/Storm,
 Saudi Arabia (Partial Joint
 Credit)........................
Deputy Director for                 June 97-July 98                    Colonel
 Intelligence, J-2, The Joint
 Staff (Defense Intelligence
 Agency), Washington, DC
 (Cumulative Joint Credit
 Awarded).......................
Director for Intelligence, J-2,     July 98-Feb. 01   Brigadier General
 U.S. Central Command, MacDill
 Air Force Base, FL.............
Director, National Security         Aug. 05-Present   Lieutenant General
 Agency/Chief, Central Security
 Service, Fort Meade, MD........
------------------------------------------------------------------------


Summary of operations assignments:

------------------------------------------------------------------------
                                         Date                Grade
------------------------------------------------------------------------
Assistant Chief of Staff, G-2       Mar. 90-June 91         Lieutenant Colonel
 (Intelligence), 1st Armored
 Division, U.S. Army Europe and
 Seventh Army, Germany and
 Operations Desert Shield/Storm,
 Saudi Arabia...................
------------------------------------------------------------------------

U.S. decorations and badges:
    Distinguished Service Medal (with two Oak Leaf Clusters)
    Defense Superior Service Medal (with Oak Leaf Cluster)
    Legion of Merit (with four Oak Leaf Clusters)
    Bronze Star Medal
    Meritorious Service Medal (with four Oak Leaf Clusters)
    Air Medal
    Army Commendation Medal (with Oak Leaf Cluster)
    Army Achievement Medal (with Oak Leaf Cluster)
    Senior Parachutist Badge
    Joint Chiefs of Staff Identification Badge
    Army Staff Identification Badge
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by LTG Keith B. 
Alexander, USA, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Keith B. Alexander.

    2. Position to which nominated:
    Director, National Security Agency/Chief, Central Security Service/
Commander, U.S. Cyber Command.

    3. Date of nomination:
    October 20, 2009.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    December 2, 1951; Syracuse, NY.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Deborah Lynn Alexander (nee Douglas).

    7. Names and ages of children:
    Jennifer Lynn Leonard, age 33.
    Julie Marie Bailey, age 31.
    Diana Lauri Glaser, age 29.
    Heather Michelle Burton, age 25.

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Association of U.S. Army.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power.
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                Keith B. Alexander.
    This 1st day of July, 2009.

    [The nomination of LTG Keith B. Alexander, USA, was 
reported to the Senate by Chairman Levin on May 5, 2010, with 
the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on May 7, 2010.]


 NOMINATIONS OF GEN RAYMOND T. ODIERNO, USA, FOR REAPPOINTMENT TO THE 
  GRADE OF GENERAL AND COMMANDER, U.S. JOINT FORCES COMMAND; AND LTG 
LLOYD J. AUSTIN III, USA, TO BE GENERAL AND COMMANDER, U.S. FORCES-IRAQ

                              ----------                              


                        THURSDAY, JUNE 24, 2010

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Ben 
Nelson, Webb, Hagan, Burris, Kaufman, McCain, Inhofe, Sessions, 
Chambliss, Graham, Thune, LeMieux, Burr, and Vitter.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jessica L. Kingston, 
research assistant; Michael J. Kuiken, professional staff 
member; Michael J. Noblet, professional staff member; John H. 
Quirk V, professional staff member; and William K. Sutey, 
professional staff member.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; John W. Heath, Jr. minority investigative 
counsel; and Dana W. White, professional staff member.
    Staff assistants present: Jennifer R. Knowles, and 
Christine G. Lang.
    Committee members' assistants present: Vance Serchuk, 
assistant to Senator Lieberman; Carolyn A. Chuhta, assistant to 
Senator Reed; Nick Ikeda, assistant to Senator Akaka; 
Christiana Gallagher and Ann Premer, assistants to Senator Ben 
Nelson; Patrick Hayes, assistant to Senator Bayh; Gordon 
Peterson, assistant to Senator Webb; Roger Pena, assistant to 
Senator Hagan; Lindsay Kavanaugh, assistant to Senator Begich;, 
Roosevelt Barfield, assistant to Senator Burris; Sandra Luff, 
assistant to Senator Sessions; Andrew King, assistant to 
Senator Graham; Jason Van Beek, assistant to Senator Thune; 
Brooks Tucker, assistant to Senator Burr; and Michael Wong, 
assistant to Senator Vitter.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    The committee meets this morning to consider the 
nominations of two extremely distinguished senior military 
officers, General Raymond Odierno, nominated to be Commander, 
U.S. Joint Forces Command (JFCOM) and Lieutenant General Lloyd 
Austin, nominated to be general and Commander, U.S. Forces-
Iraq. On behalf of the committee, let me thank you both for 
your devotion, your commitment to the service of our country, 
your willingness to be in positions of extreme responsibility.
    We know that nominees are not alone in making these 
sacrifices, and so in advance we thank your family members for 
the support which they will need to continue to provide to you. 
We have a longstanding tradition of asking our nominees to 
introduce family members who are present, and let me do that at 
this time.
    General Odierno, if you have family members with you, we'd 
be delighted for you to introduce them.
    General Odierno. Thank you, Mr. Chairman. I do have my 
wife, Linda, with me today.
    Linda, if you could stand up, please?
    My wife of 34 years has been with me my entire Army career, 
supported our families and our soldiers and continues to do 
that on a volunteer basis. As you all know, and we know, we 
couldn't do it without their great support that they give us, 
and I thank her for her support and sacrifices that she's given 
these last several years.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you. Thank you so much for your great 
service in support of not only your husband, but all that he 
does for our Nation.
    General Austin, do you have family members with you?
    General Austin. I do, Mr. Chairman, and I'd ask my wife, 
Charlene, to stand up, please?
    Before I introduce Charlene, though, Mr. Chairman, I'd like 
to applaud the efforts of all of the family members that 
support our military day in and day out. They've made great 
sacrifices to our Nation and they give a lot each and every 
day.
    Charlene's no exception. She's been my bride for 25 years. 
She's a trained counselor by profession, and she's been in the 
service of our soldiers and family members for the entire time 
that we've been together. I'm very grateful for her sacrifices 
and her continued support.
    Thanks a lot, Mr. Chairman, for allowing me to introduce 
her.
    Chairman Levin. Thank you, and thank her as well.
    We, this committee, spend a lot of time supporting our men 
and women in uniform and we also make it a point to focus on 
their families and the kind of support that they deserve.
    Each of our nominees has served this country in the 
military for more than 30 years. They've shouldered the awesome 
responsibilities of senior leadership of American troops in 
combat.
    General Odierno is no stranger to this committee, he's 
commanded U.S. and coalition forces in Iraq nearly continuously 
since December 2006. In fact, during that time, General Odierno 
has had, I understand, only one small 7-month break in the last 
47 months.
    General, your service and sacrifice and that of your family 
are well-known to all of us. They are deeply appreciated. We 
have a tremendous respect and confidence in you. If you are 
confirmed, you have the important responsibility of providing 
mission-ready joint-capable forces to our combatant commanders 
around the world. This command also supports the development 
and integration of present and future joint interagency and 
multi-national capabilities.
    Our committee has a longstanding interest in this Command's 
mission, responsibilities, authorities and activities with 
respect to joint doctrine development, training, 
experimentation, and acquisition.
    The conflicts in Afghanistan and Iraq continue to stress 
the readiness and resources of our Armed Forces. JFCOM's 
leadership as the joint force provider for present and future 
operational needs of the Department of Defense (DOD) is 
essential.
    We're particularly interested in hearing General Odierno's 
views on JFCOM's contribution to the development of 
capabilities and the generation of forces to meet the 
requirements of the combatant commanders, as well as his 
assessment, based on his experience over the last few years of 
the readiness of both deploying ground forces, and nondeploying 
forces, and we'd be particularly interested, also, to hear 
General Odierno's views on the future of JFCOM's contribution 
to the joint acquisition, transformation, and readiness of our 
military through what promises to be the very challenging years 
ahead.
    In addition, the committee is interested in the role that 
joint experimentation, including JFCOM's modeling and 
simulation activities plays in advancing our warfighting 
capabilities. We have a significant interest in pressing the 
Department on plans to reduce the number of contractors and to 
transfer responsibility to DOD staff, as Secretary Gates has 
said that he would do.
    Lieutenant General Austin currently serves as Director of 
the Joint Staff at the Pentagon, and that is an extraordinarily 
important position. We've come to know of his great service in 
that position. But he also has important recent experience 
commanding U.S. and Coalition Forces in combat as Commanding 
General of Multi-National Corps-Iraq, and prior to that, 
commanding the 10th Mountain Division in Afghanistan.
    If confirmed, General Austin will assume command of 
approximately 82,000 U.S. troops in Iraq, on the way down to 
50,000 by the end of this coming August and leading to the 
eventual withdrawal of all of our forces by December 2011.
    The drawdown of U.S. forces is based on our security 
agreement with the Government of Iraq. It is supported by the 
increasing capability of the Iraqis Security Forces to shoulder 
the responsibility of maintaining order in their country.
    However, enough challenges remain, as the Iraqis still have 
not established a government following the elections last 
spring. They still need to wrestle with the political future of 
their Northern Provinces, and come to an agreement on how to 
distribute Iraq's abundant oil revenues.
    Within that context, the drawdown of U.S. forces is a 
complex military operation. When confirmed, General Austin will 
continue to carefully manage the change of the U.S. force's 
mission from counterinsurgency to advising and assisting the 
Iraqi security forces, targeted counterterrorism operations and 
force protection. All of which must occur while redeploying to 
the United States tens of thousands of personnel, and shipping 
millions of pieces of equipment out of Iraq.
    A critical part of the drawdown of U.S. forces is the 
interagency transition from DOD lead to the Department of State 
lead with respect to U.S. long-term relations, and the host of 
stability and reconstruction activities in Iraq. We'd be 
interested in hearing General Austin's views on the importance 
of that transition, and if confirmed, what actions he will 
take--if any--to ensure that it is accomplished efficiently and 
effectively.
    We're also interested to hear General Austin's views on the 
challenges of redeploying those large numbers of equipment and 
the remaining 82,000 personnel from Iraq. Some of that 
equipment needs to be sent to Afghanistan for our operations, 
and where appropriate, by transferring some of that equipment 
to the Afghan Security Forces to accelerate their taking 
responsibility for their country's own security.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman.
    Let me thank our two very distinguished witnesses for 
appearing before the committee this morning. General Ray 
Odierno and General Lloyd Austin are two of America's finest 
military leaders. They are also, for some of who are smaller in 
stature, causing us to ask whether there is a height 
requirement for command of our mission in Iraq.
    I want to take this opportunity today to thank our 
witnesses, and especially their families, for their many 
decades of faithful service and sacrifice to our Nation. I'd 
like to extend our gratitude to both of you for your tremendous 
commitment to our Nation's fighting men and women of whom we 
ask so much, and who never has let us down.
    This hearing, obviously, is colored and dominated by the 
issue of Iraq, its past, its present, and its future. When 
General Odierno returned to Iraq in 2006, it was all but a 
failed state. But over the next 2 years, as the operational 
commander of the surge, a strategy which was opposed by many 
members of this committee and dire predictions of failure were 
made, and then for 2 more years as our top commander, General 
Odierno was instrumental in the U.S. and Iraqi effort that 
turned the situation around.
    Perhaps the highest compliment I can pay to General Odierno 
is that he has ably and impressively filled the very big shoes 
of his predecessor, General David Petraeus. I'd go one step 
further: much of the credit for the amazing turnaround in Iraq 
has gone to General Petraeus, and that credit is richly 
deserved. But not enough people understand the absolutely 
indispensable role that General Odierno played, both in 
conceiving of the surge strategy and then driving it day in and 
day out, hour by hour, toward victory. There is no way that the 
surge could have succeeded without him.
    General Odierno's forward-looking and adaptive leadership 
make him an ideal choice to head up our JFCOM where he will be 
on the forefront of defining and shaping how our force will 
tackle a complex and diverse array of challenges in the years 
ahead, from raging insurgencies and rising powers, to 
humanitarian relief and building partnership capacity.
    General Austin has also been a vital part of our Iraq team. 
Under his leadership of our day-to-day operations, U.S. forces 
in Iraq carried out the critical work of consolidating the 
success of the surge and beginning the transition to Iraqi 
leadership. Perhaps the highest compliment I can pay to General 
Austin is that he took over for General Odierno as our 
operational commander in Iraq in 2008, and we never missed a 
beat.
    With the prospect of a second command transition from 
General Odierno to General Austin, and with the final phase of 
our redeployment out of Iraq soon to unfold, we can be 
confident that our mission in Iraq is in the best of hands.
    To be sure, the situation in Iraq is still fragile and 
fraught with difficulty. The country is in the midst of a 
pivotal and challenging process to form a new government, which 
is taking longer than many of us had hoped. Still, it is more 
important to get a good government in Iraq than a fast 
government. At the same time, serious internal and external 
threats to Iraq remain, as we have so tragically seen in recent 
months. Yet, the Iraqi security forces continue to grow more 
capable and professional, and they, not our troops, are now in 
the lead in the most critical parts of the mission. It is 
absolutely essential that the United States, including the 
Congress, remain deeply engaged with Iraq during this critical 
transition. Though the nature of our commitment to Iraq is 
changing, that commitment is enduring.
    We would welcome the views of both of our witnesses on some 
of the most important issues now facing us in Iraq, on the 
continued Iraqi efforts to form a new government, on the 
transition from a military to a civilian-led U.S. mission, and 
especially on this committee's decision to cut $1 billion from 
the President's $2 billion request for the Iraq Security Forces 
Fund, by the way, without consultation with the minority, and 
replaced by earmarked pork-barrel projects. One of the really, 
most unusual acts that I have seen in the years that I have 
served on this committee.
    The United States has sacrificed so much in Iraq. So many 
lives have been given and so many resources have been 
committed, and against all odds, success is within our grasp. 
The one Iraqi institution that will do the most to determine 
whether this success will be sustained is the Iraqi security 
forces. Considering how high the stakes are in Iraq, it is 
inconceivable why this committee would arbitrarily slash 
funding for Iraq's security forces.
    I look forward to discussing this and many other issues 
pertaining to our mission in Iraq with our witnesses today. I 
want to thank them again for their many years of service, and 
for their desire to step forward once again to be considered 
for these two important commands.
    Thank you.
    [The prepared statement of Senator McCain follows:]
               Prepared Statement by Senator John McCain
    Thank you, Mr. Chairman. Let me thank our two very distinguished 
witnesses for appearing before the Committee this morning.
    General Ray Odierno and General Lloyd Austin are two of America's 
finest military leaders. They are also causing some of us to ask 
whether there is a height requirement for command of our mission in 
Iraq.
    I want to take this opportunity today to thank our witnesses, and 
especially their families, for their many decades of faithful service 
and sacrifice to our Nation. I would also like to extend our gratitude 
to both of you gentlemen for your tremendous commitment to our Nation's 
fighting men and women--of whom we ask so much, and who never let us 
down.
    This hearing is colored by Iraq--its past, its present, and its 
future.
    When General Odierno returned to Iraq in 2006, it was all but a 
failed state. But over the next 2 years, as the operational commander 
of the surge, and then for 2 more years as our top commander, General 
Odierno was instrumental in the U.S. and Iraqi effort that turned the 
situation around.
    Perhaps the highest compliment I can pay to General Odierno is that 
he has ably and impressively filled the very big shoes of his 
predecessor, General David Petraeus. I would go one step further: Much 
of the credit for the amazing turnaround in Iraq has gone to General 
Petraeus, and that credit is richly deserved. But not enough people 
understand the absolutely indispensable role that General Odierno 
played, both in conceiving of the surge strategy and then driving it 
day in and day out, hour by hour, toward victory. There is no way that 
the surge could have succeeded without him.
    General Odierno's forward-looking and adaptive leadership make him 
an ideal choice to head up our Joint Forces Command--where he will be 
on the forefront of defining and shaping how our force will tackle a 
complex and diverse array of challenges in the years ahead, from raging 
insurgencies and rising powers, to humanitarian relief and building 
partnership capacity.
    General Austin has also been a vital part of our Iraq team. Under 
his leadership of our day-to-day operations, U.S. forces in Iraq 
carried out the critical work of consolidating the success of the surge 
and beginning the transition to Iraqi leadership. Perhaps the highest 
compliment I can pay to General Austin is that he took over for General 
Odierno as our operational commander in Iraq in 2008, and we never 
missed a beat. Now, with the prospect of a second command transition 
from General Odierno to General Austin, and with the final phase of our 
redeployment out of Iraq soon to unfold, we can be confident that our 
mission in Iraq is in the best of hands.
    To be sure, the situation in Iraq is still fragile and fraught with 
difficulty. The country is in the midst of a pivotal and challenging 
process to form a new government, which is taking longer than many of 
us had hoped. Still, it is more important to get a good government in 
Iraq than a fast government. At the same time, serious internal and 
external threats to Iraq remain, as we have so tragically seen in 
recent months. Yet, the Iraqi security forces continue to grow more 
capable and professional, and they, not our troops, are now in the lead 
in the most critical parts of the mission. It is absolutely essential 
that the United States, including the Congress, remain deeply engaged 
with Iraq during this critical transition. Though the nature of our 
commitment to Iraq is changing, that commitment is enduring.
    We would welcome the views of both of our witnesses on some of the 
most important issues now facing us in Iraq--on the continued Iraqi 
efforts to form a new government, on the transition from a military to 
a civilian-led U.S. mission, and especially on this committee's 
decision to cut $1 billion from the President's $2 billion request for 
the Iraq Security Forces Fund. The United States has sacrificed so much 
in Iraq. So many lives have been given and so many resources have been 
committed, and against all odds, success is within our grasp. The one 
Iraqi institution that will do the most to determine whether this 
success will be sustained is the Iraqi security forces. Considering how 
high the stakes are in Iraq, it is inconceivable why this committee 
would arbitrarily slash funding for Iraq's security forces.
    I look forward to discussing this and the many other issues 
pertaining to our mission in Iraq with our witnesses today. I want to 
thank them again for their many years of service, and for their desire 
to step forward once again to be considered for these two important 
commands.

    Chairman Levin. Thank you very much, Senator McCain.
    Senator Inhofe has asked for a very brief unanimous 
consent.
    Senator Inhofe. Yes, Mr. Chairman, I appreciate it.
    Unfortunately, I won't be able to stay for this hearing, 
but I want to make sure that I get on record.
    I've been blessed to get to know both General Odierno and 
General Austin in the place where it means the most: in the 
field, and seen them in action. I want to thank them so much 
for their service, and for the time that each one of you gave 
me in my office yesterday. All of my questions have been 
answered, and just for the record, I would like to say that 
these guys today are not nominees, they're American heroes.
    Thank you, Mr. Chairman, for giving me a chance to say 
that.
    Chairman Levin. All right, thank you, Senator Inhofe.
    General Odierno.

     STATEMENT OF GEN RAYMOND T. ODIERNO, USA, NOMINEE FOR 
REAPPOINTMENT TO THE GRADE OF GENERAL AND COMMANDER, U.S. JOINT 
                         FORCES COMMAND

    General Odierno. Mr. Chairman, Senator McCain, 
distinguished members of the committee, I'm deeply honored to 
be here today, and humbled that I've been nominated by the 
President and the Secretary of Defense to serve as the 
Commander of U.S. Joint Forces Command.
    Thank you for giving me the opportunity to appear before 
the committee today. I promise you that, if confirmed, I will 
dedicate myself to carrying out my duties to the best of my 
ability and continue to work openly with Congress.
    Should you confirm me, my first priority will be to support 
all of our combatant commanders, and prepare our U.S. Joint 
Interagency Team to meet the needs of this evolutionary and 
complex environment in which we must continue to operate--but 
not only operate, but succeed.
    I will never forget my responsibilities to ensure our 
soldiers, sailors, airmen and marines, as well as our dedicated 
families, are prepared and ready to take on all of the 
challenges ahead.
    If I could just take a few minutes, I would like to speak 
just quickly about Iraq. Today we are at a pivotal time in 
Iraq. Following successful elections in March, and the seating 
of the parliament on June 14, the new legislative body has 
begun the process of forming the next government.
    We are working closely with Iraqis partners to enable a 
process that yields an inclusive governing body, that is 
representative of the diversity of the Nation and the results 
of the elections. Although violence still persists in Iraq, we 
continue to see a steady decline in overall incidents, in 
overall civilian casualties and Iraqi security forces 
casualties, and also a reduction in the number of high-profile 
attacks inside of Iraq.
    Since 30 June 2009, the Iraqi security forces have assumed 
full responsibility for planning and executing security 
operations inside of Iraq. Working closely with the Central 
Command (CENTCOM) Commander, Secretary of Defense, and the 
President of the United States, we have developed a roadmap for 
the future of Iraq and our mission there. In accordance with 
the Presidential guidance, our plan to responsibly drawdown our 
force to 50,000 and end combat operations and transition to 
stability operations by 1 September is on track.
    Today, we have just under 82,000 U.S. troops on the ground, 
down from a high of 165,000 in 2008. As we transition to a 
civilian-led presence, we will continue to conduct partnered 
counterterrorism operations and provide combat enablers to help 
the Iraqi security forces maintain pressure on the extremist 
networks.
    But our primary mission will be to train, advise, and 
assist the Iraqi security forces, to protect the population 
against internal and external threats. Additionally, we will 
support the U.S. Embassy, and specifically Provincial 
Reconstruction Teams, the United Nations, and other 
nongovernmental organizations dedicating to continuing the 
build of Iraqis capacity. Guided by the Strategic Framework 
Agreement between the United States and the Government of Iraq 
and using a whole-of-government approach, we will continue to 
set conditions for a secure, stable, self-reliant Iraq, and set 
the foundation for an enduring strategic partnership between 
the United States and the Government of Iraq. The stability of 
the region and the interests of the United States depend on it.
    During my time in Iraq, I've had the privilege to watch our 
servicemembers perform superbly. Whether conducting full 
spectrum combat, counterinsurgency, or stability operations, in 
a complex and ever-changing operating environment, our 
servicemembers have displayed unparalleled adaptability and 
ingenuity to work through the toughest issues.
    If confirmed, I'm committed to applying the lessons I've 
learned in almost 5 years as a Division, Corps, and Force 
Commander inside of Iraq, that I will dedicate myself to ensure 
that in my duties as the Commander of JFCOM, I plan to use that 
experience to develop our joint doctrine and capabilities, 
evolve our professional military education, and support our 
servicemembers currently deployed around the world.
    I'm very thankful for the continuous support I've received 
from Congress, and I'm deeply honored by the confidence placed 
in me to continue to serve. It is the greatest privilege to 
lead the men and women of our Armed Forces. I look forward to 
your questions.
    Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you so much, General Odierno.
    General Austin.

   STATEMENT OF LTG LLOYD J. AUSTIN III, USA, NOMINEE TO BE 
            GENERAL AND COMMANDER, U.S. FORCES-IRAQ

    General Austin. Mr. Chairman, Senator McCain, and to all of 
the distinguished Senators of the Senate Armed Services 
Committee, thank you for the opportunity to be here today and 
thanks to all of the members of this committee for your 
unwavering support to our service men and women and their 
families.
    As we enter our 9th year of sustained combat operations, 
our young men and women, along with their families, continue to 
answer the Nation's call, and carry the heavy burdens of the 
current wars, and they are performing magnificently. As a 
soldier, it has been my great privilege to serve the United 
States of America for the last 35 years, and it is a tremendous 
honor to be nominated to command U.S. Forces-Iraq. If 
confirmed, I look forward to continuing our Nation's work in 
Iraq. I understand that a stable environment in the Middle East 
and Southwest Asia is essential to U.S. interests, and that the 
future of Iraq is inseparable from the future of this critical 
region.
    A sovereign, stable, and self-reliant Iraq will contribute 
to the stability in the region, and will be a major ally in our 
fight against al Qaeda and its extremist allies.
    Conditions in Iraq have improved significantly over the 
past 3 years. The government has demonstrated respect for the 
rule of law, and is moving towards the peaceful transfer of 
power through legitimate elections. Civil capacity and economic 
conditions continue to improve, and al Qaeda in Iraq, and other 
violent extremist groups have been severely degraded.
    While we have achieved progress over the last few years, I 
am keenly aware that the mission is not without risk, and our 
work remains unfinished. Malign external influences continue to 
infringe on Iraqi sovereignty, and al Qaeda and other violent 
extremist groups still pose a threat to the government and to 
the Iraqi people, and ethno-sectarian tensions continue to 
impede a unified national vision for all Iraqis.
    If confirmed, I would focus on a number of things. We would 
continue to develop a long-term and mutually beneficial 
relationship with the Iraqis. An enduring U.S.-Iraqis strategic 
partnership and positive strategic relationships between the 
Government of Iraq and its regional neighbors are essential to 
security and prosperity in Iraq and across the region.
    We would accomplish the U.S. military drawdown by 
responsibly transferring missions and tasks to the Government 
of Iraq, to the Department of State, and to other appropriate 
international organizations. During this transition period, our 
forces would continue to advise and train the Iraqi forces to 
develop their security capabilities, and support their ability 
to protect the Iraqi people.
    In conjunction with our regional and global 
counterterrorism strategy, we will continue to conduct 
partnered counterterrorism operations to defeat al Qaeda and 
other extremists in Iraq. We would assist the development of 
effective ministries, and enable Iraq to meet the needs of the 
people, and we would support efforts to advance enduring 
solutions for Iraqi national unity. The foundational 
requirement for all of this is security and stability, and that 
can only happen through a capable and professional Iraqi 
security forces.
    We've achieved much in Iraq through the courage and 
sacrifice of our U.S. service men and women, and the Iraqi 
people and the Coalition Forces that fall alongside the Iraqis 
in some of their most perilous times. I am committed to 
achieving our national objectives and I am dedicated to all of 
the brave people who've sacrificed to help build toward a 
stable and secure Iraq.
    I want to assure everyone that, if confirmed, I will work 
tirelessly to achieve our national objectives in Iraq. I would 
look forward to working with this committee and I would ensure 
that the American values are adhered to by the U.S. forces in 
Iraq.
    Thank you very much, Mr. Chairman, I look forward to your 
questions.
    Chairman Levin. Thank you, General Austin.
    Let me ask, now, standard questions that are asked by this 
committee of all of our nominees.
    First, and you can answer together, have you adhered to 
applicable laws and regulations governing conflicts of 
interest?
    General Austin. I have.
    General Odierno. I have.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    General Austin. No.
    General Odierno. No.
    Chairman Levin. Will you ensure that your staff complies 
with deadlines established for requested communications 
including questions for the record at hearings.
    General Austin. I will.
    General Odierno. I will.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    General Odierno. I will.
    General Austin. Yes.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    General Odierno. Yes.
    General Austin. Yes.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    General Odierno. Yes.
    General Austin. Yes.
    Chairman Levin. Do you agree to give your personal views, 
when asked, before this committee to do so even if those views 
differ from the administration in power?
    General Odierno. Yes.
    General Austin. Yes.
    Chairman Levin. Do you agree to provide documents, 
including copies of electronic forms of communication in a 
timely manner when requested by a duly-constituted committee, 
or to consult with the committee regarding the basis for any 
good faith delay or denial in providing such documents?
    General Odierno. Yes.
    General Austin. Yes.
    Chairman Levin. Thank you both.
    Let's try a 7-minute first round.
    General Odierno, let me ask you first, the legislative 
elections were held last March, they provided no clear winner 
and the government has not yet been formed. Let me ask you, and 
then General Austin, what is your assessment of the situation 
in Iraq, particularly relative to the delay in the formation of 
a new government and what is its impact on the security 
situation in Iraq and on the planned drawdown of U.S. forces?
    General Odierno. Thank you, Mr. Chairman.
    First, I would just say the elections themselves were 
historic in nature, and the outcomes were historic. We had 
record numbers of Iraqis show up for the elections. In addition 
they had a chance to vote freely.
    In a poll that we took, 85 percent of the people felt that 
they were not influenced at all in their votes, and I think 
that shows why we had such a close outcome in the elections, 
and I think that's extremely positive.
    We then had a challenge to the election results, they did a 
recount, and the recount, once again, validated that, in fact, 
the elections were credible and legitimate. All of this 
reinforcing the democratic processes that were put in place by 
the Iraqi High Electoral Commission, supported by the United 
Nations. I think all of these things added to the credibility 
of the elections.
    The long time period has made many of the people in Iraq a 
bit nervous during this period where we have what we call a 
caretaker government, but what's been encouraging to me has 
been the actions of the Iraqi security forces. The Iraqi 
security forces have remained professional and dedicated to 
accomplishing the mission at hand: sustaining security levels, 
and allowing the process to continue.
    It's important that the Iraqis get the government right, 
that they have a government that is a unity government that is 
representative of all of the people, and it's important that 
they be given time to do that. But they must realize they must 
also move forward quickly, so that people don't take advantage 
of that.
    Chairman Levin. General Austin, do you wish to add anything 
to that?
    General Austin. Mr. Chairman, I share your concern with the 
amount of time that it's taking to form the government. Having 
said that, I am confident that the Iraqis will transfer power 
peacefully.
    I agree with General Odierno that it's absolutely 
encouraging that despite the fact that it's taken them a little 
longer than we'd like to see them take, the numbers of attacks 
in Iraq have continued to go down and the Iraqi security force 
is performing admirably.
    Chairman Levin. Let me ask you both, do you continue to 
support the drawing down to 50,000 U.S. troops in Iraq by 
September 1?
    General Austin. I do, Mr. Chairman.
    General Odierno. Mr. Chairman, I've been clear about this, 
I think it's the right time to do that. I think with 50,000 
soldiers, sailors, airmen, and marines on the ground it gives 
us enough capability to continue to ensure that we continue to 
make progress towards a self-reliant Iraq.
    I think the Iraqi security forces have been in control of 
the security situation, in charge of it for several months, 
now. They've proven that they can do this with our support. 
Over the next few months, we'll slowly reduce that support, and 
I think we're in line to get to 50,000 by 1 September.
    Chairman Levin. General Austin, when you take over, now, 
you'll be facing the reduction by the end of next year to no 
U.S. combat troops in Iraq. Do you support that?
    General Austin. I absolutely do, Mr. Chairman, and I'm 
confident that based upon plans that have currently been laid 
out that we're on a good glide slope to get to where we need to 
be.
    Chairman Levin. General Odierno, the number of contractors 
working under JFCOM currently outweighs the number of military 
personnel assigned to JFCOM. Some of those contractors, the 
ones that are hired as senior mentors can earn upwards of 
$1,600 a day for their services, which is more than an Army 
private running combat missions earns in an entire month.
    Given the decision by Secretary Gates to convert the in-
source contractors to government employees, will you look at 
this situation and see whether or not JFCOM is going to move in 
that direction, as well?
    General Odierno. Thank you, Mr. Chairman.
    I have looked just peripherally, initially at the number of 
contractors, civilians, and military in JFCOM. I'm going to 
take a look at it when I get down there and understand what the 
dynamic is.
    As you've stated, there are more civilians and contractors 
than military. We want to make sure that we have military 
people doing military roles, governmental employees doing 
inherently governmental roles, and that contractors are limited 
to doing only those roles that they are authorized to do, and 
we'll continue to look at that.
    In regards to the senior mentor program, I understand that 
JFCOM is working with the Department of the Navy, who is the 
executive agent for JFCOM to be in line with Secretary Gates' 
guidance in bringing that program online. I would just say that 
the value of that program has been immense. I have personally 
been trained with this program for 10 or 12 years, now, and the 
impact it's had on preparing me to be ready to face complex 
issues is extremely important.
    It's important that we get this program right, and that we 
continue to have a program that allows senior leaders to have 
mentors and help them to learn through others what they have 
experienced.
    Chairman Levin. I hope you will not only look at those 
matters, but look at the way in which the funding is provided 
to those mentors and contractors which then apparently get a 
cut of the money that goes to the mentors themselves. There's a 
lot to be looked at in that area, and I'm glad to hear you'll 
be doing it.
    Are you familiar, General Odierno, with the request of the 
Defense Minister in Iraq for the upcoming budget of $7.4 
billion and the fact that, apparently, the Finance Minister of 
Iraq reduced that request from $7.4 billion to $4.9 billion, 
are you familiar with that?
    General Odierno. I am, Mr. Chairman.
    Chairman Levin. Did you weigh in on that issue?
    General Odierno. We did. I would just say that, as all 
budgets are formed, I believe that the Defense Minister's 
request was an unconstrained requirement. It was reviewed with 
the rest of the requirements in Iraq, and decisions were made 
in order to establish the budget.
    I would say that the defense spending has gone up every 
year since 2004. It went up again in 2010 from 2009. As we look 
at the defense budget within Iraq, we look at both the Minister 
of Interior and the Minister of Defense budgets, since they 
both contribute significantly to the internal security. In 
2010, that was $11 billion, approximately 17.5 percent of the 
total budget. I think that's a significant amount, and they 
continue to contribute immensely to building the Iraqi security 
forces, police, and army.
    Chairman Levin. Did you support the Minister's request of 
$7.4 billion?
    General Odierno. What we did is, we looked at what we 
thought were mission-central capabilities and we thought that 
$7.4 billion was what would be necessary to help them attain 
that capability.
    Chairman Levin. Thank you.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    As I mentioned in my opening statement and I'm sure you 
heard this, the majority on the committee decided to take $1 
billion out of the administration's request and substitute 
items such as $1 million for foreign language correlation and 
transition, $3 million for plant-based vaccine development, and 
other very vital national security programs, i.e., the earmark 
and pork barreling goes on despite the dissatisfaction of the 
American people.
    General Odierno and General Austin, if this committee's $1 
billion cut to the Iraqi security forces is enacted, what 
impact do you think that will have on the Iraqis military and 
police capabilities and effectiveness, and on the security and 
stability of Iraq as the U.S. troops withdraw?
    General Odierno. Senator McCain, let me answer first.
    I did submit the request through CENTCOM for $2 billion in 
Iraqi security force funding for fiscal year 2011. That was 
based on developing mission-essential capability for the Iraqi 
security forces in preparation for our departure in the end of 
2011. That request was based on getting them to a certain 
capability, which we thought would mitigate and reduce the risk 
of U.S. forces leaving Iraq by the end of 2011.
    This money, we'd all be cost-sharing. That money would be 
added to what the Iraqi security forces have available within 
their budget. In order to continue to develop their strategic 
logistics, intelligence collection integration, foundational 
external security items, such as air sovereignty, and continued 
improvements in the Navy in order to protect the oil 
infrastructure, as well as other key enablers, such as 
intelligence, surveillance, and reconnaissance (ISR) and 
others, that they are just beginning to develop. We think all 
of those are important as we move forward, and get them to a 
minimum capability. This does not, by any means, complete what 
they absolutely will need in the long run. That will take 
several more years. But we think it would give them initial 
capability that would mitigate the risk in reduction of the 
U.S. forces by the end of 2011.
    Senator McCain. General Austin?
    General Austin. Thank you, sir.
    If confirmed, I would assess the impact of the loss of 
these resources once I'm on the ground, but generally speaking, 
as we try to conduct our responsible drawdown, and by the end 
of calendar year 2011, what we're trying to do is stand up 
capability with the Iraqi security forces as efficiently and 
effectively as possible. Certainly, we're balancing risk as we 
do that. If confirmed, as I go into theater, I would take a 
hard look at what the loss of those resources would do to 
either increase or not increase that risk.
    Senator McCain. Maybe we could hear again, and I think you 
partially answered this question from the chairman, as we took 
this billion dollars and put it into earmark and pork barrel 
projects--one of the arguments used by the majority was that 
the Iraqi Government is not committing sufficient resources to 
its own security and that it has surplus resources to direct to 
its military and police.
    How do you respond to that, General, again?
    General Odierno. Senator, as I stated, I know that in 2010, 
$11 billion has been dedicated to the security forces, which is 
about 17.5 percent of the total budget.
    In addition, the Iraqi budget for 2010 is $77 billion. We 
believe revenue will be around $52 billion. They have $10 
billion in excess cash which will be used to take care of part 
of the $25 billion deficit, and then they are planning on 
borrowing $2 to $3 more million from the International Monetary 
Fund----
    Senator McCain. Billion.
    General Odierno.--billion--and that still would leave them 
about $12 billion deficit in 2010.
    For 2011, they have a $79 billion budget. They are 
predicting a revenue of about $62 billion, which would be an 
increase, obviously, over 2010, based on the fact that they 
hope to increase oil exports in 2011. But it's unclear, yet, 
whether they'll be able to do that or not, but it will still 
leave them at a deficit in their spending.
    Senator McCain. I thank you, and I just don't see, very 
frankly, how our side of the aisle, could agree to an 
authorization bill moving forward where we've substituted $1 
billion of badly needed help to finish up our conflict in Iraq, 
pursuing a successful strategy which was opposed by the same 
individuals who want to spend $1.5 million for an acoustic 
search glider and $1 million for a permafrost tunnel. I don't 
think that I could support moving forward with an authorization 
bill that would cut $1 billion from our ability to succeed in 
our mission in Iraq. Too much American blood and treasure has 
been expended to allow it to be undermined, because earmark and 
pork-barrel spending seems to be the top priority.
    I thank both of the witnesses, I look forward to confirming 
them, and I thank them both for their service to our country.
    Chairman Levin. Thank you, Senator McCain.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Thanks to both of you. I was thinking as I looked around 
the room that there's not a big crowd here, today, it's not the 
size of the crowds that we used to get in hearings on Iraq, and 
that's good news. Crowds tend not to turn out for good news, 
and a lack of controversy. That's the result of a, really, 
extraordinary effort by the American military, and the military 
and people of Iraq, as well. Both of you have played a critical 
leadership role in that. I think this has been one of the great 
chapters in the proud history of the American military. The 
results, as both of you testified to them today are--I'd use 
the word miraculous. The Iraqi military really is in charge, 
has been since last summer, in the major population centers. 
The Iraqi people turned out in a democratic election, in great 
numbers. While they're struggling with the parliamentary 
process of putting the government together, that's a lot better 
than what they experienced under Saddam Hussein for a long 
time. The economy is improving, we're going over there next 
week, but last time we were there in January, this is a country 
really coming alive and moving forward.
    It's really a remarkable accomplishment. I know we talk 
about it, but we can't talk about it too much or thank you 
enough for the role that the both of you have played, and 
General Austin, you will continue to play.
    General Odierno, as you depart Iraq, I wanted to ask you to 
take us to a kind of bigger picture look at this because 
clearly there's broader strategic implications of a stable and 
secure democratic Iraq, pro-American, anti-terrorist in the 
Middle East. I wanted to give you an opportunity to talk for a 
moment or two about the significance--and, of course, we always 
know we have to hold that, but if we continue along this path, 
what's the significance to America's broader national security 
interests in a region of the world where we have always felt 
that we had a very important national security interest?
    General Odierno. Thank you, Senator. I believe we have an 
opportunity that we might never have again with such an 
important country in Iraq. We just look at where it is 
geographically inside of the Middle East, and the important 
position that it has where it's in the center of the many 
different Middle Eastern religions, many of the different 
Middle Eastern populations, and the impact that Iraq can have 
on that.
    The fact that Iraq is developing economically and moving a 
little bit towards a capitalist system, the fact that Iraq has 
now implemented a democracy and has had a successful election 
run completely by the Government of Iraq is something that is 
unique in the Middle East.
    I think as they continue to build their security depth, 
their economic depth and their political depth, I think what 
that means is more stability in the Middle East. For a very 
long time, Iraq contributed to stability, but in the wrong 
way--it created more instability. Where it is, the importance 
to the rest of the Middle Eastern nations allows us an 
opportunity, here, to develop the Middle East economically, 
diplomatically, and from a security standpoint.
    The Iraqi people have rejected al Qaeda, they have rejected 
the ideology of al Qaeda, they are fighting al Qaeda 
themselves. That example is tremendous. The way ahead is, we 
now have to get them working with other regional neighbors in 
order to continue this fight against extremism, of all kinds, 
that is all around the world, and that we can become long-term 
partners with them, in my mind, could add significantly to the 
security of the United States.
    Senator Lieberman. I appreciate that.
    Let me bring General Austin in on this. As you look around, 
I know the Status of Forces Agreement (SOFA) moves us to, 
essentially, zero troops at least at the end of 2011, although, 
I think there's been a presumption that the democratically 
elected Government of Iraq might ask us to maintain some 
presence there in the future.
    As you look around the Middle East, the truth is in just 
about every country, we have some military presence--training, 
prepositioning, our troops on the ground, our military 
alliances. I wanted to ask you your thoughts, going forward as 
you take command, particularly if the Iraqis do ask us to stay 
in some way after 2011, are we prepared to continue to help 
them?
    General Austin. Senator, as you pointed out, this region is 
important to the United States of America, and the country of 
Iraq is important to the region.
    I think that what we want and what we're working towards is 
a healthy, long-term relationship with the country of Iraq, and 
that relationship will be centered on a number of issues--
economic issues, political issues, and certainly if, in terms 
of the way forward, I think it's incumbent upon the government 
and the leadership of Iraq to engage the leadership of the 
United States at the highest levels, and at the highest levels 
whatever our future will be will be worked out at that level. 
We, in the military, stand ready to support whatever the 
decision is made.
    But, whatever we do in the country of Iraq should be a 
whole-of-government approach, and we should look to establish 
great relationships with them along a number of dimensions, 
here.
    Senator Lieberman. Thank you.
    General Odierno, let me ask you about Iran. It's true that 
we understand that Iraq's in the neighborhood, it has to have 
relations with its neighbors, but my impression is that Iran 
continues to try not to just have good bilateral relations, but 
in some sense, to exercise undue influence over political 
activities in Iran. What's the status of that at this point, as 
you depart?
    General Odierno. I would say that Iran continues to be 
extremely active in attempting to influence the outcome of the 
formation of the government inside of Iraq. I think it's 
important to know that they're doing that and just make sure 
that we ensure that the Iraqis get to decide what their 
government is and that we don't allow external influence to 
decide what the next Iraqi Government will be.
    I am confident that the Iraqis are nationalists, they want 
Iraq to run Iraq. They do not want to be influenced by other 
regional powers, they do not want Iran meddling inside of their 
activities. I think, again, it's important for us to support 
Iraq and the process that they have for Iraqis to choose the 
next government. I think that's how we're trying to go about 
our business today as we move forward.
    Senator Lieberman. Thanks very much, General Odierno.
    My time is up, I just wish you well at JFCOM. I must say 
that when General Mattis testified before the committee and we 
talked to him about the role that command has in developing 
doctrinal concepts that apply across the Military Services, he 
indicated, I thought, that JFCOM has too often been a bystander 
to the actual decisions made by the Services, and that his 
greatest power was the power of persuasion. I think you come 
with such credibility and stature, and I hope you use it all to 
push, not yourself, but really, the JFCOM approach into the 
center of the decisionmaking about what our military is going 
to look like in the future.
    I thank you very much for taking on this next assignment.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Chambliss.
    Senator Chambliss. Thank you very much, Mr. Chairman.
    To both of you, once again, thanks to you, thanks to your 
families for your continued service to our country. You are 
certainly great leaders and you provide the kind of quality 
leadership that is needed in a very difficult time for our 
country, and a very complex time for the world.
    Mr. Chairman, I have to qualify my support for General 
Austin by saying that he and my wife are from the same 
hometown, and his high school football coach was also my son's 
coach. They were champions in both instances, and as a result, 
I have several General Austin stories that I think I'll 
probably save for another day, General. But needless to say, 
we're all very proud of you down our way.
    General Odierno, let me start with you. One of the great 
success stories with Iraq under General Petraeus as well as 
under you was the conversion of the Iraqi people and their 
support for the American soldier and our effort and the mission 
there. Where does that stand right now? What do you see from 
the standpoint of the attitude of the Iraqi people towards the 
American soldier?
    General Odierno. I would say, Senator, this is always a 
very difficult issue. I would just say, first, they understand 
what the U.S. mission is, there, but Iraqis are tired of forces 
outside Iraq inside of Iraq. Been there a long time, they 
appreciate the progress that they're seeing, they want to move 
forward and they want to take over their own country.
    What we've done lately which I think has really been very 
good is the fact that we are supporting Iraqi security forces 
and allowing them to do more. They are starting to see that 
future, and that's helping them to appreciate the role of the 
U.S. soldiers even more, because they realize that they need 
our support in order to get to where they want to be--an Iraq 
that can be run by Iraqis, Iraq that can be secured by Iraqis.
    Because of that, I'm starting to see this improvement in 
relationships among Iraqi leaders and U.S. leaders as well as 
our soldiers and their soldiers. There's links that will never 
be broken, between Iraqi security forces and U.S. forces, 
because we've stood by each other, now, through some extremely 
difficult times, and shared some common sacrifices. It doesn't 
matter where you come from, when you work together and share 
those sacrifices, there will be a bond that will be always 
linked between the two. I think we'll continue to see that as 
we move forward, Senator.
    Senator Chambliss. General Austin, you and I discussed 
briefly, yesterday, the fact that General Cucolo and the 3rd 
Infantry Division are leading the effort along Iraq's northern 
border to bring some--or to mitigate some issues between the 
Arabs and the Kurds. I know that U.S. assistance is a critical 
component in this area. Could you give us your thoughts about 
your confidence in the fact that we'll be able to solve this 
issue. Is it going to continue to be necessary to devote 
brigade combat team to that region?
    General Austin. Senator, I think the Arab-Kurd tension 
issue is an issue that the Iraqis must take on, and they must 
solve for themselves.
    I think that we can do a tremendous amount of work, and a 
tremendous amount of good by advising, assisting, any way we 
can, building confident measures to bring some of the parties 
closer and closer together. We've already done that in the 
north, the 3rd Infantry Division has been an instrumental part 
of that, and we'll continue to work that as we, if confirmed, 
if I go back into theater.
    But, I think that this will take some time, it's a very 
complex issue, and again, I think it's an issue that the Iraqi 
Government must fully embrace and work hard at.
    Senator Chambliss. General Austin, as we look to the 
withdrawal of troops, as I told you yesterday, I think your 
leadership may be coming at the most critical time, because of 
the fact that it's going to be necessary to get an awful lot of 
equipment moved around, as well as our troops out in a safe and 
secure manner. I think your comment to me was that you're 
prepared for them to take a swing at you as you come out. I'd 
appreciate your comments relative to what your thoughts are 
regarding safety and security of our troops as you transition 
out.
    General Austin. I have every reason to believe, Senator, 
that as our footprint decreases, there will be extremist 
elements that will try to place additional pressure on us. 
We'll be prepared for that, we'll make sure that all of our 
intelligence systems are working, we'll work with the Iraqi 
security forces to make sure that we continue to approach these 
issues as partners.
    But the Iraqi security forces really have to play a big 
part in providing for our security. The security of our forces 
is foremost in my mind. If, as conditions change on the ground, 
I need resources to accomplish a particular mission, I won't 
hesitate to let my chain of command know that. But I'll assess 
that every day as in theater, if I'm confirmed.
    Senator Chambliss. Lastly, General Odierno, you mentioned 
yesterday the number of incidents in Iraq, particularly in 
Baghdad, it decreased in a significant way. But yet when 
something does happen it's all over the news. I wish you'd 
comment on that, because I think that's a point that the 
American people need to understand, relative to casualties that 
we're seeing there.
    General Odierno. I would just say, as I said in my opening 
statement, Senator, incidents are down significantly from the 
height, they're down over 90 percent from what they were in 
2006 and 2007. But, more importantly, they've continued to go 
down since the Iraqi security forces have taken over 
responsibility in the cities in June 2009.
    What's interesting is as security has gotten better, we're 
starting to see life come back to all of the cities in Iraq, 
each event gets more publicity, every single individual event, 
which is important, and good. But, I think sometimes we tend to 
focus so much on these incidents, we really forget to put it in 
perspective, to once where we were and where we are today. It's 
really pretty significant.
    As you fly over Baghdad today, compared to just a year ago, 
it is a significantly different place. Traffic jams all over, 
markets exploding, private investments coming in--that would 
not be occurring if you did not have security. You see that in 
other cities around Iraq, as well.
    I don't want to give the impression that there is not 
violence in Iraq--there is still violence, there is still work 
that has to be done, but it is at a level where I believe the 
Iraqi security forces are capable of handling that level of 
violence. As we continue to develop the police and the army for 
our departure at the end of 2011, I believe they will be ready 
to protect the people of Iraq.
    Senator Chambliss. Thanks to both of you, again, for your 
service. I hope as you assume these new commands, that you will 
take a moment to express to those men and women that serve 
under you how much the American people appreciate their great 
commitment, and their great service.
    Thank you very much.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Let me add my appreciation for your service to our country 
and your families for their support.
    One thing that I've looked for from almost the beginning of 
my time, here, is about stovepipes, and whether Services are 
duplicating their efforts or truly enhancing overall mission 
effectiveness. With regard to the unmanned platforms, both the 
Army and the Air Force are making substantial investments in 
relatively similar platforms--MQ-1 and MQ-9 unmanned aerial 
vehicles (UAVs). As the lead for joint capabilities 
development, JFCOM, General Odierno, I know you're responsible 
for trying to find a way to make sure that there's 
interoperability and that we don't end up with stovepipes.
    In your response to the committee's advance policy 
questions, you state that you would like to continue efforts 
that allow, ``Services to develop Service-specific,'' systems 
and capabilities after joint review. How will you ensure that 
the coordination is occurring as opposed to discoordinating, 
going separate directions with respect to comparable equipment?
    General Odierno. Thank you, Senator. It's about 
integration, it's about how these systems are integrated into 
joint warfare and the joint fight, and it's how we get them in 
the hands of all of our soldiers, sailors, and marines and they 
understand the capabilities that are there and how they use 
these different capabilities to integrate them together to get 
the best results.
    What we've learned over the last several years is one of 
the key things that we have to be able to do better is manage 
information. We now have systems available that collect an 
enormous amount of information at the strategic, operational, 
and tactical level. One of the things I want to focus on is how 
do we best manage that information around the world with our 
joint forces.
    We still have issues, sometimes, of moving information from 
one Service to another, or in some cases even within the 
Service from one stovepipe to another, and I think that's the 
key. I think I can focus that through doctrinal work, through 
simulation experimentation work that we can do in working very 
carefully with the combatant commanders in the Services and 
integrating these capabilities. That what will help us in 
fighting this unique threat that I foresee over the horizon of 
regular warfare, that we have to continue to be adaptive and 
show agility as we continue to improve our capacities.
    Senator Ben Nelson. Another area where I am concerned about 
stovepiping is how we process the information that's collected 
by ISR. During the Air Force posture hearing, I asked General 
Schwartz about the manning of the ISR mission, and he stated 
that the current manning structure to support UAV operations 
was ``unsustainable'' in light of projected growth. I wonder 
what your view at JFCOM would be in ensuring that the Services 
aren't necessarily duplicating investments in that area, 
because we're obviously going to have limited capabilities?
    General Odierno. I think, again, we have to separate the 
strategic operational, tactical fight, we have to understand 
what are the capabilities we have in each and are needed in 
each, and how we integrate those together to ensure that want a 
little bit of redundancy, but not too much redundancy.
    What I think in JFCOM, what we can do is reach out to the 
combatant commanders to understand what their needs are and 
then react to those needs and then work the doctrinal piece as 
well as the simulation experimentation piece, and really the 
staff training piece, in order to understand what capabilities 
we have and how we'll integrate those. If confirmed, I'll focus 
myself on that.
    Senator Ben Nelson. In regard to that, if we're struggling, 
let's say, to have sufficient personnel and/or the cost of 
sufficient personnel. If we don't do what you're talking about 
doing, we'll have an avalanche of information and will be 
unable to utilize any of it for our own benefit.
    General Austin, according to the President's plan for 
withdrawing troops, obviously the success of that depends on 
our ability to train Iraqi security forces to secure Iraq. As 
General Odierno has said, that security system seems to be 
working much better with the reduction in the events that have 
cost us so many of our own troops.
    Secretary McHugh stated that, ``In terms of training, a 
major lesson is that versatile and agile units that are 
fundamentally competent can adapt to any threat from across the 
spectrum of conflict.'' I'm interested in what your thoughts 
are about the progress of Advisory and Assistance Brigades 
(AABs) that we've trained, and that would now be mentoring 
Iraqi units. Can you speak to the particular type of training 
that we're giving to the AABs, versus traditional combat 
brigade teams? Is there a difference?
    General Austin. Senator, first of all, I'm pleased to see 
that the AABs are doing so well. When I was last in Iraq, I 
worked with General Odierno to help develop that concept. The 
foundation for the AABs is a brigade combat team. What we've 
done is added some additional capability to that brigade combat 
team to help them be able to engage at the brigade and division 
level and help train those staffs.
    All of the indications that I've seen to date have been 
very positive. That we, just taking a brigade combat team and 
augmenting it with the right things, we've done the appropriate 
thing, in this case.
    In terms of the impact on the Iraqi security forces, I 
think, as I look at where they are now, versus where they were 
3 years ago, the change is remarkable. I think that change was 
brought about, in large measure, because of the fact that we 
partnered with the Iraqi security forces and really worked 
side-by-side with them and developed them as quickly as we 
possibly could to reach a certain level. Now we need to 
continue to focus on those brigade and division staffs to 
complete their training.
    Senator Ben Nelson. Do we have enough AABs, or are we 
planning to increase the number of AABs to be certain that the 
conditions on the ground will support our direction in 
departing?
    General Austin. My assessment, and again, I'll continue to 
refine this assessment, if confirmed, as I go in, is that we 
absolutely have the right amount of AABs on the ground, and 
certainly we're going down to 50,000 troops by 1 September. 
From all that I've seen of the plans that U.S. Forces-Iraq and 
General Odierno have put together, they have shaped this 50,000 
force exactly right and that has all of the capability in terms 
of training and force protection that it needs to be 
successful.
    Senator Ben Nelson. If conditions change, because 
conditions are always fluctuating, will you be certain to let 
us know if you need more AABs to facilitate that withdrawal?
    General Austin. I will not hesitate to inform my 
supervisors, Senator, in the event that things change and I 
need to ask for additional capability.
    Senator Ben Nelson. Again, thank you.
    General Austin. You have my word on that. Thank you, sir.
    Senator Ben Nelson. General?
    General Odierno. Senator, if I could just add on the AABs, 
I've been very pleased with the work of the AABs, we have six 
on the ground today. The way they've been trained, we have 
passed lessons learned back to the Army, the Army is the one 
whose developed these, and they've changed how they operated 
the National Training Center and the Joint Readiness Training 
Center. They have prepared them to deal with the specific 
environ that we've asked them to work in, and I've been very 
pleased with the outcome. It shows the flexibility of the 
Brigade Combat Team of the Army that they're able--with some 
adjustments--to meet different mission requirements. I think 
that's the important piece, and that gets to the flexibility 
and adaptability that Secretary McHugh talked about, and I 
think that's important to understand because as I go to my new 
job in JFCOM, you want forces that are flexible and adaptable 
and can meet the requirements of many different mission sets. 
That's what we're going to need in order to have an efficient 
armed services here, as we move forward, and continue to look 
at doing things with maybe less resources in the future.
    Senator Ben Nelson. Thank you both for your comments, and 
good luck to both of you.
    Thank you.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    Congratulations to both of you on the job you have done and 
the new jobs you're going to undertake, here.
    General O--I always butcher your name, I'm just going to 
call you General O--there must be a height requirement for 
these jobs. [Laughter.]
    We mentioned yesterday the World Cup is going on and it's 
fun to watch, and I'm pulling for the U.S.A., but I have really 
no idea what they're doing when they play soccer. So, we're 
going to talk football. I think you indicated, we're probably 
on the 10-yard line when it comes to Iraq?
    General Odierno. I did, Senator. I do think we are on the 
10-yard line. I think the next 18 months will determine whether 
we get to the goal line, or really give the Iraqis an 
opportunity to get the goal line beyond 2011.
    Senator Graham. But, from our national perspective, we're 
on the 10, and I think you said we probably have four downs? 
It's first and 10 on the 10, we have a new quarterback coming 
in.
    General Odierno. That's right.
    General Austin. I'll take the ball, Senator.
    Senator Graham. I couldn't have found a better guy to be 
the new quarterback.
    Now, the Sons of Iraq, how is that going, General O, in 
terms of getting those people integrated in the Iraqi security 
forces?
    General Odierno. We started out with about 103,000 Sons of 
Iraq. About 40,000 have been transitioned into other Government 
of Iraq jobs. They actually stopped the transition because they 
were starting to realize the value in many areas of what they 
were providing in terms of intelligence and other things, so 
they've slowed that down, and they're now doing some 
reevaluation of the Sons of Iraq program, and how they want to 
transition that.
    Senator Graham. Are they still getting paid?
    General Odierno. They are.
    Senator Graham. One thing that we need to watch for, 
General Austin, is you have thousands of young Sunnis that are 
receiving a government paycheck, I think it's like $90 a month, 
is that right?
    General Odierno. Three hundred.
    Senator Graham. Three hundred? Okay, $300 a month. We have 
to make sure that if that pay stops that we have a plan, do you 
agree with that, General Austin?
    General Austin. I absolutely agree with that, Senator. I 
was there, again, in the early days we begin to transition the 
Sons of Iraq to working for the government and work along with 
the Prime Minister to outline a plan to effectively transition 
them. I think they've done a pretty good job, and we need to 
continue to do that in the future.
    Senator Graham. Okay, who's paying? Is that coming from the 
Iraqi budget?
    General Austin. Absolutely.
    Senator Graham. Okay.
    Now, Article 140 boundary dispute issues, I think there are 
a couple of trip wires left in Iraq and one of them that stands 
out to me is how do you resolve the Arab-Kurdish conflict in 
Kirkuk and the boundary dispute. If you could both give me, 
maybe, a 30-second overview of where we're at and what could we 
do in Congress to help you?
    General Odierno. We have established a tripartite security 
architecture in the disputed areas for about 6 months now, and 
it's been very successful in reducing tensions. It's Pesh 
Merga, Iraqi Army and U.S. forces manning checkpoints and joint 
security areas where they do patrolling in these areas, and it 
has calmed things down considerably. The United Nations (U.N.) 
is now taking on the role of now mediating the long-term issues 
of the border issues and the status of Kirkuk and other issues.
    Senator Graham. Do you think that will get resolved for 
this new government in a year?
    General Odierno. It depends. My guess is, some of that will 
be discussed during the governmental formation process. How 
well that goes could determine how quickly it could happen. I 
do believe though, to solve the whole problem, it will be 
longer than a year.
    Senator Graham. General Austin, do you agree that is one of 
the big outstanding issues that the Iraqi people have to 
resolve?
    General Austin. Senator Graham, I absolutely do.
    I think that, I would be delighted if it could be resolved 
in a year but----
    Senator Graham. Probably not.
    General Austin. I really believe that it's going to take 
awhile.
    Senator Graham. Do you feel like we have enough resources 
and focus to help them get it resolved?
    General Austin. I think that we're doing the right things 
in terms of working with the government to help them build 
confidence--bring about confidence-building measures to bring 
the two sides closer together. I think, again, it's encouraging 
to see that the U.N. is continuing to try to help, we'll 
require their help in the future.
    Senator Graham. Okay.
    General Austin. But this is going to take a lot of work.
    Senator Graham. Okay.
    The hydrocarbon law. Have you had to pass the hydrocarbon 
law, is that right, General O?
    General Odierno. That's correct, Senator.
    Senator Graham. From my point of view, for what it's worth, 
is that until the Iraqis have a statute that divides the oil up 
between each group where everybody feels like they're getting 
the resources of the country fairly shared, it's going to be a 
tough go. Do you see a breakthrough in the hydrocarbon law any 
time soon?
    General Odierno. I think the hydrocarbon law, itself, 
probably might not get passed. But, I think there are other 
alternatives.
    Senator Graham. They do it year-by-year, budgeting-wise, 
don't they?
    General Odierno. Yes, year-by-year, but also they get a 
revenue-sharing agreement.
    Senator Graham. Right.
    General Odierno. I think it would be important. I think 
that's something that people are looking at now, and I think 
that would help significantly.
    We've had some thawing, there was an argument about whether 
the Kurdistan Region could develop their own oil, they have 
solved that problem. They have now begun to develop that. The 
Government of Iraq, the central government is helping them, so 
that's a breakthrough. We're starting to see small 
breakthroughs in the overall resolution of this. But again, 
there's still work that has to be done in that area.
    Senator Graham. The rules of engagement--as I understand 
it, we're partnering with the Iraqi security forces, we have 
right of self-defense, obviously, but when you make a raid, 
now, at night, do you have to get a warrant?
    General Odierno. Under the security agreement, all 
operations must be warranted.
    Senator Graham. Is that working okay?
    General Odierno. It is working very well.
    Senator Graham. Do you have good confidence in your 
judicial system, there are no leaks?
    General Odierno. It's not perfect.
    Senator Graham. Not perfect.
    General Odierno. No system is perfect. But our ability to 
present evidence and get warrants, we absolutely have the 
ability to do that. That's working well.
    Senator Graham. That's very encouraging.
    One last question to both of you. General O, we're talking 
about the consequences to the United States of winning in Iraq, 
and I think they're enormous. Probably a good time now, given 
Afghanistan and where we are at in the world--if, for some 
reason, we didn't make it into the end zone, what would be the 
consequences of Iraq failing?
    General Austin, if you could tell this committee, what are 
the one or two things that keep you up at night when you think 
about Iraq?
    General Odierno. First, if we had a failed state in Iraq, 
it would create uncertainty and significant instability, 
probably, within the region. Because of the criticality of 
Iraq, its relationship to Iran, its relationship to the other 
Arab states in the region, if it became unstable, it could 
create an environment that could continue to increase the 
instability. If it becomes unstable and ungoverned, it opens 
the area, potentially, for terrorists, in order to allow Iraq 
to become a place where terrorism could be exported.
    Now, I don't believe we're close to that. I believe we're 
far away from that happening. I think we're definitely on the 
right path. But those are the kinds of things that would happen 
if we had a complete breakdown inside of Iraq.
    General Austin. Senator Graham, we will be successful in 
Iraq, we will get the ball into the end zone. I believe that 
because of all of the great work that our young men and women 
continue to do on a daily basis and the commitment of this 
entire country to accomplishing that in the right way.
    You mentioned the thing that keeps me awake at night, the 
one thing that is foremost in my mind is that if their 
leadership is unable to transfer power in a peaceful manner, 
that would create conditions that would cause us to, perhaps, 
revert to sectarian behavior and people to lose confidence in 
their ability to be properly represented. That is one of the 
major things.
    But I am confident that, based upon what we've seen thus 
far, this peaceful transition will occur. It will just take 
some time for them to form a government.
    Chairman Levin. Thank you, Senator Graham.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    I did want to tell our nominees today, not only are you 
nominees, but you certainly are American heroes, and we thank 
you for your commitment and your service.
    I also want to thank Mrs. Odierno and Mrs. Austin, because 
I too have been married around 30 years. We all chose great 
partners, but I really appreciate your support of these two 
excellent individuals before us today. Thank you for all that 
you have done over the years for our troops and their families, 
because I know how critically important that is.
    General Odierno, I'm delighted that you've been nominated 
to replace General Mattis as Commander of JFCOM and you are 
extremely well-qualified to lead the joint integration effort. 
You effectively established a coherent and integrated joint 
force in Iraq, you know what it takes to fight jointly in an 
irregular warfare environment, and you are also one of the 
primary architects of the surge in Iraq and the Sunni-Anbar 
Awakening. I appreciate the time you spent with me and several 
of our other Senators this past March, and your team. I thank 
you for that time.
    General Austin, I'm also incredibly proud that you have 
been nominated to replace General Odierno as the commander of 
the U.S. forces in Iraq. You, too, are extremely well-qualified 
to lead our forces in Iraq as we draw down our military 
presence there and develop a long-term relationship with the 
Government of Iraq and the Iraqi security forces. I'm proud of 
your outstanding work as the Commander of the 18th Airborne 
Corps, and the Multi-National Corps-Iraq. You did a tremendous 
job in planning and executing all of the military operations in 
Iraq, and fighting alongside the Iraqi Army, and our coalition 
partners.
    General Odierno, among your expected duties as the 
Commander of JFCOM will be to serve as the joint conventional 
force provider and oversee joint military concept and doctrinal 
development, joint training, and joint interoperability and 
integration. How will you work with the Military Departments, 
geographical combatant commanders, and intergovernmental 
agencies to resolve gaps in joint warfighting capability, and 
how do you plan to respond to overseas contingencies utilizing 
the whole-of-government approach?
    General Odierno. Thank you, ma'am, very much.
    I would say a couple of things. The first thing I have to 
be able to do is reach out to the combatant commanders 
themselves, have a discussion with them of what their needs and 
requirements are, whether it be U.S. Northern Command 
(NORTHCOM), associated with our internal defense and work with 
Department of Homeland Security and what we need there, or 
whether it be CENTCOM and all of the things associated with 
that. I have to be able to help us to understand how we can use 
and integrate all of the capacities and capabilities we have 
within the Services in order to meet those requirements, and I 
have to understand what those requirements are.
    Then I have to work with the Services, with the Service 
providers within the Services, as well as the Service doctrinal 
leaders in order to ensure that we are integrating all of the 
efforts that are going on to meet the future needs, whether it 
be irregular warfare or homeland defense requirements that we 
have. We will continue to dedicate ourselves to that to include 
a training program that allows us to continue to train with our 
interagency partners. We continue to build relationships with 
the interagency as we go after this whole-of-government 
approach, which applies whether it be in NORTHCOM for internal 
U.S. security, or whether it is in the CENTCOM area of 
responsibility (AOR), or the PACOM AOR in Korea, as we have to 
work with all of our interagency partners, and how we better 
utilize that, and gain efficiencies in using this whole-of-
government approach, which is the way ahead for us.
    Senator Hagan. Let me take that one step further, how will 
you synchronize concepts for joint warfighting with the 
President's national security strategy, the Secretary of 
Defense's Force Employment guidance, and the combatant 
commanders' theater security cooperation strategy?
    General Odierno. Clearly what we have to do is we have to--
I have to personally go out and first talk with them, 
understand those concepts, and then figure out how I--through 
working with the Services--can help to develop the right 
capacities and capabilities to meet those needs. What we have 
to do is, in addition to that, through our simulation 
experimentation, come up with new ideas, come up with better 
ways to integrate these requirements and integrate the 
solutions that are being developed by the Services to meet the 
requirements of the national security strategy, of the guidance 
I get from the Secretary of Defense, and the combatant 
commanders' requirements.
    This is a very complex process. But we have to figure out a 
way to do it as efficiently as possible, and yet have the right 
capabilities at the right place at the right time. That's what 
I have to focus on, ma'am.
    Senator Hagan. Okay.
    General Austin, I know that the U.S. military drawdown in 
Iraq should not be equated with disengagement from Iraq. We 
have to define our relationship to reflect a strategic 
partnership between both countries across economic, political, 
security and developmental sectors, and assist the Iraqi 
Government in transitioning to full management and funding of 
its own security and governance programs.
    The U.S.-Iraq Strategic Framework Agreement does that, 
laying out the contours for a long-term bilateral strategic 
relationship. The challenge is to translate the Strategic 
Framework Agreement into programs that will ensure Iraq's 
security, stability and development, while respecting Iraqi 
sovereignty and acknowledging that the Iraqis are in charge of 
shaping their future. A long-term, strategic relationship with 
Iraq is fundamental in achieving lasting security and stability 
in the country and in the region.
    As Commander of the U.S. forces in Iraq, how will you work 
with the State Department to translate the Strategic Framework 
Agreement into programs that will ensure Iraq's security and 
stability?
    General Austin. Thanks, Senator. I believe that the 
relationship between Commander of U.S. Forces-Iraq and the 
Ambassador is a very important relationship. Going into Iraq, 
if I'm confirmed, I'll do everything within my power to, number 
one, establish a great relationship and nurture that 
relationship each and every day.
    I think that the both of us, engaging the Iraqi leadership 
routinely, and shaping the way ahead, along all lines of 
operation--economic, political, cultural--I think we certainly 
can build towards a very strong relationship and sustained 
relationship.
    This will take a whole-of-government approach. We often 
focus solely on the military, but it's clear to me that as we 
continue on, the Iraqis want to have a good relationship along 
a number of dimensions with the U.S. Government, and not just 
solely the military.
    I think that relationship between myself and the Ambassador 
and then between the both of us and the leadership of the 
Government of Iraq is really important and we'll work hard at 
that as we go in, Senator.
    Senator Hagan. How do the current election results and the 
timing and the leadership in Iraq affect this?
    General Austin. Certainly, Senator, we'd like to see a 
government formed as quickly as possible. Having said that, we 
want it done right, and not necessarily quick, but the Iraqis 
will form their government on their own time, and they will 
make their own choices.
    The longer it takes, of course, it creates space for other 
events to occur, it also creates the space for people to feel 
as if they won't be properly represented, they've been 
disenfranchised. We are concerned about that. But, I think 
whoever is the leadership when the government's formed, we'll 
move out and engage that leadership and develop a strong 
partnership with them, and shape the way ahead for a lasting 
relationship.
    Senator Hagan. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Hagan.
    Senator LeMieux.
    Senator LeMieux. Thank you, Mr. Chairman.
    I want to start by echoing the comments of my colleagues 
and thank you, both of you, for your service and your wives for 
their support of you. I know how difficult it is for families 
of people in the military, and we are all supported by our 
spouses, but especially those in the military, so a special 
thank you for both of your wives.
    I want to talk to you about the neighbors that surround 
Iraq. In looking at a map, it occurs to me that Iraq's in a 
pretty tough neighborhood.
    Recently we've read reports about Iran conducting military 
attacks again Kurdish villages inside Iraq. There's also been 
incursions by Turkey, as I understand it, with the Kurdish 
section of Iraq.
    If you could give, General Odierno, an update to us about 
the relationship between Iran and Iraq, and Turkey and Iraq, 
and I want to talk to you, then, afterwards also about Syria, 
and give us an overview and then I'll have some specific 
questions for you.
    General Odierno. On the northern areas and the border 
issues that are going on, these are generated by the Kurdish 
terrorist organizations that have been operating up in Northern 
Iraq for a very long time who, in the spring, has conducted 
offensive operations into both Iran and Turkey to kill Iranian 
as well as Turkish military forces. This has caused a response 
back, both from Iran and Turkey into the Northern mountains of 
Iraq.
    We have set up with Turkey a trilateral intelligence 
collection organization, coordination element between the 
Government of Iraq, Turkey, and with some support from the U.S. 
Government, in order for Turkey to help and respond against 
this threat.
    Iran, although they have come close to the border, there's 
no indication that Iran has actually conducted any ground-
crossed border operations into Kurdistan.
    Overall, with the relationship with Iran to the Government 
of Iraq--many people have many different opinions. Mine is that 
Iran would like to see an Iraq that is weak, that does not have 
strong relations with its other Arab nations, therefore would 
leave a larger void for Iran to have more influence inside of 
Iraq.
    In addition, Iran does not want to see a long-term 
strategic relationship with the United States. They want to 
have that relationship. There's many reasons why they want 
that. But, in my view, that's why it's so important for us to 
execute the strategic framework agreement, and build strong 
bilateral ties with the Government of Iraq for the future.
    Turkey has huge investments inside of Iraq, in Northern 
Iraq, Central Iraq. They have been working extremely hard to 
help build the economies in both Kurdistan and Northern Iraq. 
They have a lot of equities inside of Iraq, they're trying to 
build a strong relationship, there's been quite a bit of 
political engagement between the leaders of Turkey and the 
leaders of Iraq, and I think that's something that we will, 
hopefully, continue to see.
    We've seen the strongest relationships we've seen in a very 
long time between President Barzani and the Prime Minister in 
Turkey in trying to work together to solve some of this Kurdish 
terrorist issues that occur up in Northern Iraq. We've seen 
some good meetings, agreements to assist each other with these 
problems, and also agreements for the first time that the 
Government of Turkey would recognize Kurdish rights inside of 
Turkey. I think those are all positive developments. There's 
still a lot more work that has to be done in that area, but it 
is a positive development.
    Senator LeMieux. Is Iran still trying to actively 
destabilize Iraq?
    General Odierno. Iran still funds smaller groups, they 
still fund, train smaller groups inside of Iraq to 
destabilize--for two reasons. One, to go after U.S. forces 
inside of Iraq. Second, in order to, I believe, intimidate in 
some cases, in order for political reasons inside of Iraq, with 
the Government of Iraq.
    Although the movement is smaller, the size of the elements 
are smaller than they once were, they are still active.
    Senator LeMieux. Are they providing weapons?
    General Odierno. They provide training and weapons to these 
groups.
    Senator LeMieux. Can you speak for a moment about Syria, 
and what the Syrians are doing? Are they providing weapons? I 
was reading that there was a recent attack along the border 
area between Syria and Iraq.
    General Odierno. I do not believe that the Government of 
Syria is providing weapons to groups to conduct attacks inside 
of Iraq. However, we continue to see foreign fighter 
facilitation occur through Syria, although it is lower than 
it's been before, they are still able to move through Syria. We 
would like to continue to see them take action against these 
facilitation networks that originate in many other places--
Northern Africa and many others--in order to attempt to conduct 
operations inside of Iraq.
    In addition, there still is a large ex-Ba'ath Party element 
inside Syria who continues to be very active and boisterous 
against the Government of Iraq, which appears to be somewhat 
destabilizing to the Government of Iraq, and we'd like to see 
them take action against that, as well.
    Senator LeMieux. Okay.
    General Austin, can you speak to how you envision the troop 
drawdown going? I mean, that's obviously going to be a big 
issue during your time of leadership and how will that process 
work, and how will you be able to maintain the stability that 
the U.S. forces, as well as the Iraqi Government have been able 
to achieve in recent months, with less troops?
    General Austin. First of all, Senator, I think that U.S. 
Forces-Iraq and General Odierno have laid out a really good 
plan to accomplish the drawdown and get us to where we need to 
be by the end of calendar year 2011. As I go in, I'll assess 
where we are with that plan, if I'm confirmed, and adjust, as 
needed.
    But, I think that the current plan takes us to where we 
need to be, we're ahead of schedule in terms of the retrograde 
of a rolling stock, our vehicles and a vast amount of other 
equipment that we've moved out. There have been good control 
mechanisms and oversight mechanisms that have been put in place 
to manage and monitor the flow of equipment and people and so 
we'll make sure that that remains on track.
    The key to executing a responsible withdrawal is ensuring 
that the Iraqi security forces have the capability to provide 
for their own internal security as we transition. Certainly, it 
will be this continual balancing act of making sure that they 
have a level of proficiency and required equipment and the 
resources to do what needs to be done to continue to secure the 
people, the country as a whole, as we draw down.
    I'm confident, right now, we're well on the way to 
accomplishing that. Again, if there are any changes that need 
to be made, certainly we'll evaluate and adjust on target.
    Senator LeMieux. Thank you, both.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator LeMieux.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    General Odierno, General Austin, I would like to begin by 
thanking you for the clarity and the careful precision of your 
answers today. A lot of issues here have a lot of nuance to 
them, and I think it's been very helpful to listen to how 
precise you have been answering some questions that could have 
taken you one place or another.
    I have read the Strategic Framework Agreement and the SOFA. 
There are a lot of implications in those documents that are a 
bit vague, and we've been hearing your answers today with 
respect to what might happen if we leave too soon, and quite 
frankly, what might happen if we stay too long. I think both of 
those concerns need to be addressed.
    I wanted to ask you a question about this withdrawal plan, 
but before I do, I don't want to forget, or lose the time, 
General Odierno, on the mentor program, to follow-on a comment 
of the Chairman, I hope you'll take a really hard look at that. 
I don't think that there's anyone up here who would deny the 
value of mentor programs. There was a lot of mentoring that 
went on in the United States military well before this specific 
type of program came into place, and there are, I think, 
legitimate concerns about, in some cases, the amount of 
compensation that has been provided, and in others the lack of 
transparency, quite frankly, with individuals who are retired, 
receiving retirement pay, also working for defense industry and 
not required, because of the form of these contracts, to 
disclose potential conflicts of interest and these sorts of 
things. There's a lot of concern up here on that.
    Also, out in the retired community at large, I think 
there's a lot of concern from people who are not involved in 
the mentor program. I just hope you'll take a look at that.
    With respect to the transition in Iraq, this is not a 
classical military retrograde. This is not the shrinking 
perimeter that you've seen in historical cases of a military 
disengaging from a country. It's a very complicated set of 
issues involving funding and involving transfers of missions, 
involving the longevity of intermediate programs. Some of them 
involve transfer of functions to the Iraqi Government, which 
has been discussed. Some of them involve transfer of functions 
to civilian contractors, as we discussed briefly yesterday. 
Some of them involve transfer of responsibilities and functions 
to the Department of State.
    What I would like to hear from you, is in a form that is 
now taking place, what is this going to look like at the end of 
2011? What's the U.S. military going to be doing at the end of 
2011 and where will these other overlaps have occurred?
    General Odierno. Senator, thank you very much for the 
question. It is a very important one. It is the key to what we 
need to do here between now and the end of 2011. How we 
transition and how we do this will have a long-term impact, I 
think, on our relationship with the Government of Iraq, and 
that's why this is such an important time.
    I call it a thinning of the lines. I've called it that for 
a while. As we slowly withdraw our forces, we don't leave any 
areas, but we think our presence there and we give more and 
more responsibility over to the Government of Iraq. But it's 
more complex than that, that's from a security perspective. 
Overall, our relationship with Iraq will be determined by how 
we transition the many tasks that U.S. Forces-Iraq does now to 
other entities. General Austin mentioned a couple of these, how 
we transfer to the U.S. Embassy, what we transfer to the 
Government of Iraq as a task. Then some will be transferred to 
CENTCOM, because many of the things we do as we plan the future 
of regional security architecture and a long-term engagement 
with Iraq, will be run by CENTCOM. It's our responsibility to 
build a plan, to determine which of these tasks gets 
transitioned to which entity, and who is best qualified to do 
that.
    We have gone through and done this. We have looked at over 
1,200 different tasks. Some will be terminated because they're 
no longer necessary, some will be turned over to the embassy, 
some will be turned over to CENTCOM, and some will be given to 
the Government of Iraq. It's important which tasks go where, 
who has the capacity to execute which tasks, and who will be 
the ones who will be able to best engage with the Government of 
Iraq on these tasks.
    Although I won't get into any specifics, I want to assure 
you that we're spending an awful lot of time on this. A part of 
this is contractors. We have been working very hard to reduce 
the size and number of contractors in Iraq to make sure we only 
need those that are necessary. As we transition, we will 
continue to do this analysis, because fundamentally, as you all 
know, contractors are very expensive on the battlefield. We 
will continue to look at this very carefully.
    We're also working with the State Department to transition 
what we have that can be reasonably transitioned to them, in 
order to support their missions beyond 2011. We're looking at 
this in a lot of detail, Senator.
    Senator Webb. Thank you very much for that comment.
    General Austin, we only had a brief period to meet 
yesterday because of overlapping schedules, but I hope we can 
count on having this Wartime Contracting Commission make 
another visit soon into Iraq and come out with an idea on the 
contracting side of how this is going to look like. They've 
been very valuable to us.
    General Austin. Senator, if confirmed, you have my guaranty 
that we will embrace them as they come back into theater. You 
also have my guaranty that I will work hand in hand as a 
partner with the embassy to ensure that we don't just hand off 
tasks, but we work to develop and shape the capability that's 
required to accomplish those tasks. I know that's the road that 
General Odierno has started down, and I'll pick up from where 
he left off and continue to make sure that we have a great 
relationship working with the embassy.
    Senator Webb. Needless to say, it's a very tedious task 
that you are going to take on and that, General Odierno, you 
have done so well on. We don't often pay enough attention to it 
up here. Once the casualty numbers went down in Iraq, we 
haven't focused on this, but it's clearly the most vital thing 
we have left to do in Iraq, is defining the nature of how all 
these components fit together. I wish you all the best.
    Thank you, Mr. Chairman.
    Chairman Levin. If Senator Sessions is ready, it goes to 
him.
    Senator Sessions. Thank you, Mr. Chairman. Being ranking 
member on the Senate Judiciary Committee is a full-time job. I 
have conflicts around here a lot, but I want to express my 
admiration for both of these individuals. I have great 
confidence in you and would sincerely wish to express my 
appreciation for your fabulous service. Anybody who's traveled 
into Iraq or Afghanistan and seen the hours and the dedication 
of our leaders and all of our personnel know how fabulous they 
are, and we appreciate you and salute you.
    One of the things, General Odierno, I don't want you to 
repeat maybe what you've been asked before, but from my 
conversation yesterday, you believe that we can meet our goals 
of troop reductions in Iraq as of September. How would you 
advise the American people as to what risks remain? Should we 
be very confident or should we feel good about where we are, 
but risks remain, or are there great risks? How would you 
evaluate what you are leaving onto General Austin?
    General Odierno. Senator, I would say we have continued to 
make steady progress inside of Iraq. On the date of 1 September 
or 31 August and the change of mission that is going to occur 
and the reduction to 50,000 transition forces is quite 
significant. But I think it is time for us to do that and it 
shows another point of progress. The fact that the Iraqi 
security forces have taken over responsibility, the fact that 
the Government of Iraq is increasing its ability to function. 
They still have a ways to go, but they are getting better in 
their ability to function. That's allowing us to transition and 
end combat operations and move to stability operations, where 
we can assist them and helping them to sustain long-term 
stability. I think it's another step.
    The next step is, how do we establish that long-term 
relationship? How do we implement the strategic framework 
agreement that allows us to have a long-term relationship with 
Iraq, in order to sustain stability not only inside of Iraq, 
but add to the stability in the region? I think that's what we 
have to gain. What do I worry about? I worry about not so much 
security, but the impact of the political progress and economic 
progress on security.
    We've talked a long time about buying time and space. 
They've done some work with that time and space, but we're now 
at a critical juncture of time in Iraq, the formation of a new 
government that will set the stage for Iraq for the next 4 
years. The letting of 12 oil contracts in 2010, which will 
start to come to fruition over the next several years. How well 
that goes will say a lot and how economically Iraq starts to 
move forward. I think all of those points is really what's 
important, and how that goes will determine Iraq's future, in 
my mind, Senator.
    Senator Sessions. You and your predecessor, General 
Petraeus, had fabulous relationships, as I understand it, with 
the ambassador. You will have a new ambassador coming into Iraq 
soon.
    General Odierno. It has not been officially announced yet, 
Senator. Ambassador Hill is currently the ambassador. I don't 
know how much longer he'll be there. He's been a great 
teammate.
    Senator Sessions. General Austin, in September, what do you 
understand how the relationships may change between you as 
combatant commander or the general at least in Iraq, with the 
State Department? Will they take on a greater leadership role 
and has that been sorted out? Have you worked that out before 
you get there or what's your thinking?
    General Austin. It's being worked out as U.S. Forces-Iraq 
gets smaller, the footprint decreases. I think, as General 
Odierno said, there's a great working relationship right now 
with Ambassador Hill. Certainly the ambassador is the senior 
person in country and I look forward to working with whoever 
the ambassador is.
    But I think that partnership, Senator Sessions, is 
absolutely critical. I think the example that we set flows down 
to all the folks in the State Department and in the military 
throughout the commands and directorates.
    I was there when Ambassador Crocker and General Petraeus 
were there, and was there with General Odierno worked with 
Ambassador Crocker as well. I was, and so I saw the great 
working relationship that they had and I look to create the 
same kinds of conditions for our troops and our State 
Department officials as we go back into country, if I'm 
confirmed.
    Senator Sessions. I think that's true and it's my 
understanding you've already discussed the importance of making 
sure we adequately apply our resources to the top priorities in 
Iraq, and that one of those is the Iraqi army and security 
forces. I really feel strongly that at this point in history, 
and I guess you both agree, that we shouldn't short change the 
immediate need and make sure that the Iraqi army gets the 
training and support to take on the higher level of 
responsibility we expect of them. Would you comment on that or 
have you already?
    General Odierno. Senator, we've talked our way through that 
already. I would just say that it is important that we set them 
up for success in order to mitigate the risks that are ahead. 
I've been very pleased with how the Iraqi army and police 
continue to perform. They still have some key things that they 
do not yet have that I think are necessary for them to be 
prepared to take on full responsibility at the end of 2011 when 
we leave, and that's what we're working towards now.
    Senator Sessions. Thank you both, thank you for your 
service.
    General Austin, I'm glad you have your masters as an Auburn 
War Eagle, that's another good thing in your training that's 
going to help you, I'm sure.
    Mr. Chairman, thank you for this hearing, and I just recall 
when you and I and others were in Iraq at the worst possible 
time, how discouraged and worried we were, but you should never 
count out the U.S. military in the efforts that they executed 
that turned that around, and now we're in such a better glide 
path that a lot of people would not have thought it possible. 
Our prayers are that we'll be able to do some of the same 
things in Afghanistan. It's looking difficult now, but perhaps 
we're seeing all the negatives now, and I think that we have to 
believe that we can put that on the right glide path too.
    Thank you, sir.
    Chairman Levin. Thank you very much, Senator Sessions.
    Senator Kaufman.
    Senator Kaufman. Thank you, Mr. Chairman.
    Thank you for your service and thank you to your wives and 
your family, and I feel totally inarticulate in trying to 
express how much I do appreciate how much more, as I travel 
around this country, how much the American people appreciate 
what you're doing.
    General Austin, you have literally big shoes to fill, and 
I'm sure you're going to fill them, and I'm sure you're going 
to do very well at it. The reason I came over here, because 
most of the questions when they get to me have already been 
asked, is I just couldn't pass up the opportunity to say, 
General Odierno, how much I appreciate, not just your service, 
not just the fact that you were there, but the quality of your 
service. I mean, just sitting here listening today, and we've 
embarked on a new counterinsurgency strategy, and requires a 
lot of new skills for our military. It's amazing how they've 
risen to it.
    But when you look back at the history of Iraq, your grasp 
on not just the military, but the economic and the political 
issues and how they interact, just like you were talking about 
a few minutes ago, about how the oil contracts are going to be 
important. I don't think people thought that's the way you 
fought a war 10, 15, 20 years ago. It's really key, and how the 
coalition works, and how you work with the secretary. I think 
Iraq is--when we look back in history--will be the place where 
we finally figured out how to deal with the bad guys in a new 
and creative way, and I think Iraq will be the thing, and I 
think one of the key players will be you. I just wanted to 
thank you for that.
    General Odierno. Thank you, Senator.
    Senator Kaufman. One of the things I wanted to talk about a 
minute, I've used this example of what a good job you do, is 
what you did with the problems between the Kurds and the Iraq 
army. When I was over there last year, I left Kirkuk pretty 
well convinced that they were going to be shooting at each 
other very shortly. I think your solution to go there and begin 
these joint checkpoints and the joint groups going into the 
cities and the rest of it worked real well. Is that continuing 
to work well?
    General Odierno. It is and, in fact, it's starting to 
expand. We now have agreement from the Prime Minister and 
President Barzani to now incorporate four brigades of the Pesh 
Merga to the Iraqi army, and that's an incredible step forward 
that we are now working.
    Senator Kaufman. Yes.
    General Odierno. We're now working at figuring how we can 
help to train and equip them as they now are able to be 
integrated into the Iraqi army.
    Senator Kaufman. General Austin, do you think--I know 
you're not going to know all the details of this--we're going 
to be able to continue to have U.S. forces after September 1st 
along that border to help keep bad things from happening?
    General Austin. Certainly, Senator, and I do believe that 
there will be a requirement to continue to work with the 
elements up there for some time. Again, what we want to see is 
the Iraqi Government, the leadership of the Iraqi Government 
embracing this issue to a much greater degree in the future. As 
time goes along, they have to establish a national vision so 
that we can unify the country. That's going to take some time, 
but I think it certainly can be done. We'll do everything we 
can to work with the ambassador and work with the leadership of 
both elements to ensure that they're making progress.
    Senator Kaufman. General Odierno, in your new position, how 
do you feel about Secretary Gate's effort to rebalance the 
military, to get more emphasis put on these counterinsurgency 
efforts as we move forward?
    General Odierno. I think the concept of regular warfare 
counterinsurgency are keys to the future. As I look back over 
the last 7, 8, 9 years, it's the complexity of the environment 
that we now have to operate in. There's so many different 
things that impact on military operations and the success that 
we have to have, is that we have to rethink how we do business 
and how we operate in this environment.
    People learn and watch what's gone in Iraq and Afghanistan, 
and they will try to take those lessons, if they ever have to 
come up against U.S. forces anywhere in the world, and we have 
to be able to be prepared in order to feel how we would deal 
with that and make ourselves more prepared than they ever will 
be. That takes some intellectual capacity and it takes thought 
and it takes experience and it takes thinking out of the box in 
some cases.
    But I think more importantly, that Secretary Gates has 
pointed out, is that we have to be efficient in what we do. We 
have to become more efficient, and I think that's the key. How 
can we become more efficient and make our forces more 
adaptable? That's what I think is important for me to focus on, 
if I'm confirmed and assume my new position.
    Senator Kaufman. This is my final question. One of the 
things I've been interested in more and more is nonlethal 
weapons; to give the warfighter an opportunity, if a bus is 
coming up to the back of the convoy, to either let them come 
and blow you up or having to shoot in there and kill women and 
children, or if you're at a forward operating base and there's 
a car coming at you at a high rate of speed or individuals. I 
went down to Dahlgren and I was impressed with where we're 
going. Can you just talk a little bit on your feeling about 
nonlethal weapons in terms of here?
    General Odierno. This kind of warfare is about precision 
and it's about collateral damage, it's about eliminating 
collateral damage, and it's actually killing innocent people 
that's really what this is about. What we've learned is, if 
we're not careful and we get careless, even though it's for our 
own force protection, if we kill innocent people, the negatives 
to the mission are significant. We have to continue to think of 
ways of how we can stop this. Nonlethal weapons is one.
    We've learned a lot about that and the importance of 
nonlethal weapons and other ways for us to do other things 
besides fire first. I think we've learned that over time, but 
those are very difficult decisions these young soldiers, 
sailors, or marines have to make on the ground. Sometimes you 
don't have a lot of time to make it, so you want to be able to 
provide them the capacity of something a little bit different 
than having to maybe fire live rounds. Maybe there's something 
else they can do to protect themselves and protect those 
innocent people that are in a situation they don't quite 
understand.
    Senator Kaufman. Thank you.
    Thank you both for your service.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Kaufman.
    I have just a few additional questions. General Odierno, 
the current readiness reporting systems in the process of being 
implemented to a system called Defense Readiness Reporting 
System (DRRS), which has been slow to come into operation, 
since a decision was made now, I think 8 years ago or so to 
switch from a previous system called Status of Resources and 
Training. Now, do you know or do you have an opinion as to why 
full implementation of this DRRS is taking so long?
    General Odierno. Senator, I don't know why it has taken so 
long. I think there's many nuances within the system that 
people are trying to work out, but I will take a look at it, 
Mr. Chairman, and find out more information.
    Chairman Levin. All right, will you give us, after you're 
confirmed, a chronology or timetable more accurately to 
complete that transformation? Will you do that?
    General Odierno. Absolutely, Senator.
    [The information referred to follows:]

    I am not familiar enough with the Defense Readiness Reporting 
System (DRRS) to speak with confidence about this topic. However, if 
confirmed, I will assess DRRS and Joint Forces Command's role in it, 
and answer your question within 90 days of assuming command of Joint 
Forces Command.

    Chairman Levin. General, let me make sure I understand 
something that you said about the Iraq budget. When it was 
adopted, the budget that they're currently operating on had a 
deficit, and since then, as I understand what you said, because 
of an increase in oil prices and therefore in oil revenues, the 
projected deficit in Iraq under this budget is $10 billion less 
than when the budget was adopted.
    General Odierno. What I said was, there was a budget of----
    Chairman Levin. In other words, there's no surplus.
    General Odierno. There's no surplus.
    Chairman Levin. But the deficit that was projected has been 
reduced because of the increase in oil prices.
    General Odierno. Because of a $10 billion surplus, of cash 
that they had.
    Chairman Levin. Is that the result of the increase in oil 
prices?
    General Odierno. No, I don't know. I need to get you an 
answer on that.
    Chairman Levin. Okay, but it was something that they didn't 
count on.
    General Odierno. They had $10 billion in cash reserves from 
last year. I think it had to do with their expenditures from 
2009.
    Chairman Levin. Were less than they expected.
    General Odierno. Were less than they expected.
    Chairman Levin. Okay, so they had $10 billion more in cash 
than was projected in that deficit.
    General Odierno. That's right.
    Chairman Levin. Excuse me, in that budget.
    General Odierno. That's correct.
    Chairman Levin. Okay.
    General Austin, I have one additional question for you and 
that has to do with the situation on the ground of religious 
minorities in Iraq. It continues to be very fragile in some 
places, and it's sometimes bleak. The U.S. Commission on 
International Religious Freedom concluded in their May 2010 
report that systemic ongoing and egregious religious freedom 
violations continue in Iraq, and that the religious freedom 
situation in Iraq remains grave, particularly for the country's 
smallest, most vulnerable religious minorities. I've been very 
much involved in trying to find ways to give greater protection 
to those minorities, particularly the Iraqi Christian 
community, and I'm wondering if you, when you are confirmed, 
will you keep this committee apprised of the security situation 
in the Ninevah area, particularly, but any other area where 
there are religious minorities. Also, on the conditions of 
those minorities in those regions, and will you take all 
reasonable steps to increase the security for those people?
    General Austin. I will, Mr. Chairman.
    Chairman Levin. Thank you.
    We thank you both again. We thank your wives, your families 
for their great support. We hope that we can get these 
nominations confirmed in the next few days, hopefully by the 
end of next week surely. We'll do everything we can to speed up 
these confirmations both before these votes, both in this 
committee, but also on the floor of the Senate.
    We will stand adjourned.
    [Whereupon at 11:34 a.m., the committee adjourned.]

    [Prepared questions submitted to GEN Raymond T. Odierno, 
USA, by Chairman Levin prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. The Department has made great progress in the joint arena 
since the enactment of Goldwater-Nichols. The changes to the Joint 
Officer Management process enacted by the National Defense 
Authorization Act of 2007 have corrected some longstanding shortfalls. 
I don't believe there is a need for any major modifications to the act; 
however, as we learn more about ourselves given the current world 
environment and the challenges we face, it is important that we 
continue to refine and review joint and interagency operations and 
requirements.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. We have learned the absolute necessity for strong civil-
military cooperation. Congress should consider means to increase 
integration of all U.S. Government agencies in appropriate training and 
force readiness environments in order to build the foundation for more 
effective ``whole-of-government'' approaches to crisis prevention or 
crisis resolution.
    Continue Departmental efforts, such as Capability Portfolio 
Management, to integrate acquisition and resource allocation processes 
in meeting joint capability requirements. In other words, Services 
develop `Service-Specific' systems and capabilities after joint review 
and authorization to ensure joint/interoperability issues are 
addressed.
                                 duties
    Question. What is your understanding of the duties and functions of 
Commander, U.S. Joint Forces Command?
    Answer. The Unified Command Plan focuses the command on two main 
missions: (1) providing conventional forces trained to operate in a 
joint, interagency, and multi-national environment, and (2) 
transforming the U.S. military's forces to meet the security challenges 
of the 21st century. The Commander, U.S. Joint Forces Command (JFCOM) 
serves as the chief advocate for jointness and interoperability, 
championing the joint warfighting requirements of the other combatant 
commanders. As such, he is responsible for five major areas:

        <bullet> Serves as the Primary Joint Force Provider for 
        conventional forces. In this role, JFCOM analyzes conventional 
        forces worldwide to identify the most appropriate and 
        responsive sourcing solutions that are then recommended to the 
        Chairman, Joint Chiefs of Staff to meet combatant commander 
        requirements. Commander, JFCOM provide those forces under its 
        combatant command authority as trained and ready joint capable 
        forces to the other combatant commanders when directed by the 
        Secretary of Defense. As the Department's Joint Deployment 
        Process Owner, it maintains the global capability for rapid and 
        decisive military force projection and redeployment.
        <bullet> Serves as the lead Joint Force Integrator, responsible 
        for recommending changes in doctrine, organization, training, 
        material, leadership and education, personnel, and facilities 
        to integrate Service, defense agency, interagency, and multi-
        national capabilities. As the Joint Command and Control 
        Capability Portfolio Manager responsible for leading the 
        Department of Defense's (DOD) effort to improve 
        interoperability, minimize capability redundancies and gaps, 
        and maximize capability effectiveness.
        <bullet> Serves as the Executive Agent for Joint Concept 
        Development and Experimentation. In this role, JFCOM leads and 
        coordinates the Joint Concept Development and Experimentation 
        (JCDE) efforts of the Services, combatant commands, and defense 
        agencies. Additionally, the Commander of JFCOM integrates 
        multi-national and interagency warfighting transformation and 
        experimentation efforts to support joint interoperability and 
        future joint warfighting capabilities.
        <bullet> Serves as the lead agent for Joint Force Training. 
        This effort is focused at the operational level with an 
        emphasis on Joint Task Force (JTF) Commanders and their staffs 
        and the ability of U.S. forces to operate as part of a joint 
        and multi-national force. Additionally, JFCOM is responsible 
        for leading the development of a distributed joint training 
        architecture and developing joint training standards.
        <bullet> Provides operational joint enabling capability 
        packages that deploy on short notice to assist combatant 
        commanders to rapidly form, organize, and operate a joint force 
        headquarters. Additionally, assists combatant commanders in the 
        planning, forming, training, and operation of their designated 
        JTF-Capable headquarters.
                       background and experience
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I'm very fortunate to have had the opportunity to not only 
serve for 34 years in uniform, but also to have commanded troops from 
the platoon level up to my present assignment as Commander of U.S. 
Forces-Iraq. Commanding in a joint, combined, interagency environment 
for almost 6 years, mostly in combat, at the division, corps, and 
force-level has provided me a unique perspective on joint interagency 
operations. I have conducted full-spectrum operations, 
counterinsurgency operations, and stability operations and have been on 
the leading edge of ground-breaking Army and Marine Corps doctrine. In 
every assignment I was fortunate to serve for, and lead, brave, 
innovative, and hardworking people, both in uniform as well as senior 
civilian leadership. Above all, I have tried to learn, mentor, and lead 
at every chance. All of this has prepared me for this opportunity.
                             relationships
    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense 
and from the Secretary of Defense to the commanders of the combatant 
commands. Other sections of law and traditional practice, however, 
establish important relationships outside the chain of command. Please 
describe your understanding of the relationship of the Commander, U.S. 
Joint Forces Command, to the following:
    The Secretary of Defense.
    Answer. The Commander, U.S. Joint Forces Command performs his 
duties under the authority, direction, and control of the Secretary of 
Defense, and is directly responsible to him to carry out its assigned 
missions.
    Question. The Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense, in accordance with 
established authorities, and except as expressly prohibited by law, has 
the full power and authority to act for the Secretary of Defense and to 
exercise the powers of the Secretary of Defense upon any and all 
matters concerning which the Secretary of Defense is authorized to act 
pursuant to law. If confirmed, I will keep the Deputy Secretary of 
Defense informed on appropriate matters.
    Question. The Under Secretaries of Defense for:
    Answer. The Under Secretaries of Defense, as the principal staff 
assistants, provide advice, assistance, and support to the Secretary of 
Defense in managing the Department and in carrying out such duties as 
prescribed by the Secretary or by law. Within their areas, Under 
Secretaries exercise policy and oversight functions. In carrying out 
their responsibilities, and when directed by the President and 
Secretary of Defense, communications from the Under Secretaries to 
commanders of the unified and specified commands are transmitted 
through the Chairman of the Joint Chiefs of Staff. If confirmed, I will 
work closely with the Under Secretaries in the areas of their 
responsibilities.
    Question. Policy.
    Answer. The Under Secretary for Policy is the principal staff 
assistant and advisor to the Secretary and Deputy Secretary of Defense 
for all matters on the formulation of national security and defense 
policy and the integration and oversight of DOD policy and plans to 
achieve national security objectives.
    Question. Personnel and Readiness.
    Answer. The Under Secretary for Personnel and Readiness is the 
principal staff assistant and advisor to the Secretary and Deputy 
Secretary of Defense for Total Force management; National Guard and 
Reserve affairs; health affairs; readiness and training; military and 
civilian personnel; language; dependents' education; equal opportunity; 
moral, welfare, recreation; and quality of life matters.
    Question. Acquisition, Technology, and Logistics.
    Answer. The Under Secretary for Policy is the principal staff 
assistant and advisor to the Secretary and Deputy Secretary of Defense 
for all matters relating to the DOD Acquisition System; research and 
development; modeling and simulation; systems integration; logistics; 
installation management; military construction; procurement; 
environment, services; and nuclear, chemical, and biological programs.
    Question. Intelligence.
    Answer. The Under Secretary for Intelligence is the principal staff 
assistant and advisor to the Secretary and Deputy Secretary of Defense 
for all matters regarding intelligence, counterintelligence, security, 
sensitive activities, and other intelligence-related matters.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman is established by title 10 as the principal 
military advisor to the President and Secretary of Defense. The 
Chairman serves as an advisor and is not, according to law, in the 
operational chain of command, which runs from the President through the 
Secretary to each combatant commander. The President directs 
communications between himself and the Secretary of Defense to the 
combatant commanders via the Chairman of the Joint Chiefs of Staff. 
This keeps the Chairman fully involved and allows the Chairman to 
execute his other legal responsibilities. A key responsibility of the 
Chairman is to speak for the combatant commanders, especially on 
operational requirements. If confirmed as Commander, JFCOM, I will keep 
the Chairman and the Secretary of Defense promptly informed on matters 
for which I am personally accountable.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. The Vice Chairman of the Joint Chiefs of Staff performs 
duties as prescribed by the Chairman of the Joint Chiefs of Staff with 
the approval of the Secretary of Defense. When necessary, the Vice 
Chairman of the Joint Chiefs of Staff shall act as the Chairman of the 
Joint Chiefs of Staff and shall perform the duties of the Chairman of 
the Joint Chiefs of Staff until a successor is appointed or the absence 
or disability ceases. If confirmed, I will keep the Vice Chairman 
informed on matters as appropriate.
    Question. The Secretaries of the Military Departments.
    Answer. The Secretaries of the Military Departments are responsible 
for the administration and support of the forces assigned to the 
combatant commands. The Commander, U.S. Joint Forces Command 
coordinates closely with the secretaries to ensure the requirements to 
organize, train, and equip forces assigned to JFCOM are met. Close 
coordination with each Service Secretary is required to ensure that 
there is no infringement upon the lawful responsibilities held by a 
Service Secretary.
    Question. The Chiefs of Staff of the Services.
    Answer. The Chiefs of Staff of the Services organize, train, and 
equip their respective forces. No combatant commander can ensure 
preparedness of his assigned forces without the full cooperation and 
support of the Service Chiefs. As a member of the Joint Chiefs of 
Staff, the Service Chiefs have a lawful obligation to provide military 
advice. The experience and judgment of the Service Chiefs provide an 
invaluable resource for every combatant commander. If confirmed as 
Commander, JFCOM, I will continue the close bond between the command, 
the Service Chiefs and the Commandant of the U.S. Coast Guard in order 
to fully utilize their service capabilities, and to effectively employ 
those capabilities as required to execute the missions of U.S. Joint 
Forces Command.
    Question. The Supreme Allied Commander Transformation (SACT).
    Answer. SACT is one of two co-equal Strategic Commanders within 
NATO's command structure. SACT supports NATO in the education, training 
and transformation of functional commands and staff elements that plan 
for and conduct operations, with multi-national and joint forces, over 
the full range of Alliance military missions authorized by the North 
Atlantic Council/Defense Planning Committee. I believe the vision to 
place NATO's North American Strategic Command in Norfolk alongside U.S. 
Joint Forces Command was exactly correct. Our current enemy mandates 
that we continue to build and support the symbiotic relationship 
between Joint Forces Command and Allied Command Transformation. 
Currently there is great synergy, collaboration, and support between 
the two Commands, and it is very much a two-way street that benefits 
both NATO and the United States.
    Question. The other combatant commanders.
    Answer. In general, JFCOM is a supporting command--its job is to 
make the other combatant commands more successful. If confirmed, I will 
continue the close relationships with other combatant commanders to 
increase the effectiveness we've created, and continue to build mutual 
support. The joint capabilities required by combatant commanders to 
perform their missions--today and in the future--forms a large basis of 
JFCOM's mission. Today's security environment dictates that JFCOM work 
very closely with the other combatant commanders to execute our 
national military strategy.
    Question. The commanders of each of the Service's training and 
doctrine commands.
    Answer. JFCOM's relationship with each of the Service's training 
and doctrine commands is marked by close cooperation and routine 
collaboration. U.S. Fleet Forces Command and U.S. Army Training and 
Doctrine Command are key partners in training and doctrine issues given 
their close proximity to JFCOM in the Hampton Roads area. JFCOM 
participates with all Service Doctrine Centers in Joint Doctrine 
Community conferences and the JFCOM doctrine staff is in daily contact 
with Service doctrine centers. DOD training programs that JFCOM manages 
such as the Joint National Training Capability and Joint Knowledge 
Online could not function without the direct support of the Services.
                     major challenges and problems
    Question. In your view, what are the major challenges and problems 
confronting the Commander, U.S. Joint Forces Command?
    Answer. From my present view, the most significant challenge is 
meeting the combatant commander's (COCOM) force sourcing requirements. 
The task of providing trained and ready joint forces on a predictable 
and stable schedule that is reactive to combatant commanders and 
minimizes stress on families while providing adequate time for 
training, will continue to be a challenge for anyone with the Global 
Force Provider mission.
    The second challenge is the continued implementation of Irregular 
Warfare competencies in the General Purpose Force and maintaining the 
appropriate level of balance between conventional and irregular 
capabilities.
    With my unique combat experience over the past 7 years, it will 
provide an opportunity to review and institutionalize joint warfighting 
and civil-military lessons learned and ensure the Joint Force is 
proactive and adaptive to the complex environment we will face today 
and in the future.
    Question. Assuming you are confirmed, what plans do you have for 
addressing them?
    Answer. Certainly, if confirmed, I will continue to work with the 
other combatant commanders, as well as the Services through JFCOM's 
component commands, to shape JFCOM's ability to provide the most 
logical and effective sourcing solutions for the Joint Warfighter. With 
respect to Irregular Warfare, I will continue to follow the Secretary 
of Defense's guidance and seek balance between our conventional, 
irregular, and nuclear capabilities. Finally, I will develop a 
mechanism to capture and implement joint and interagency operational 
and strategic lessons learned.
                          joint force provider
    Question. What is your understanding of the role of Joint Forces 
Command as the joint force provider to meet combatant commander 
requirements?
    Answer. As the conventional Joint Force Provider (JFP), it is 
JFCOM's goal to source all validated rotational and emergent force 
requirements in support of the combatant commanders. To accomplish 
this, JFCOM provides DOD leadership with recommended force sourcing 
solutions to make proactive, risk-informed force management and 
allocation decisions. JFCOM works to source these force requirements by 
collaborating with JFCOM Service components, each of the Services (both 
Active and Reserve) and combatant commands to meet combatant commands' 
force requirements.
    Question. From your experience as Commander, U.S. Forces-Iraq, what 
are your observations and evaluation of the performance of Joint Forces 
Command in meeting your command's force requirements?
    Answer. Overall, JFCOM, along with the other stakeholders in the 
Global Force Management process are doing a good job in supporting the 
combatant commands' force requirements. But demand is currently 
outpacing force supply in specific capability areas and the current 
systems are not perfect. Problems remain: force stress, persistent 
shortfalls, use of In-Lieu-Of (ILO) forces, etc. At times, the force 
providing processes have not proven agile enough to keep up with the 
pace of change and unplanned requirements. This is the source of some 
frustration. To their credit, however, JFCOM and other stakeholders in 
the Global Force Management Process are reviewing their processes: 
determining how to streamline procedures and increase visibility in 
order to increase responsiveness to combatant command force 
requirements.
    Question. In this regard, include your observations and evaluations 
of the use of `in lieu of' forces to meet theater requirements.
    Answer. In my judgment, ILO forces have provided effective 
solutions to meet theater requirements. ILO solutions are, by 
definition, substitutions of force when the standard force is 
unavailable. As such, ILO solutions provide capability to meet theater 
requirements that would otherwise go unfilled. I have been extremely 
pleased with the ability of the Joint Force to adapt to the needs of 
the theater commander. Of critical importance as ILO forces are 
continued to be employed is ensuring that they have received the proper 
training and equipment in order to enable their effectiveness. The 
quality of preparedness has been outstanding.
    Question. Based on your evaluation, what in your view are the most 
urgent challenges requiring Joint Forces Command attention and how 
would you propose to meet these challenges or improve the command's 
efficiency or effectiveness as the joint force provider to our 
combatant commands?
    Answer. The most urgent challenge impacting Joint Forces Command's 
effectiveness as Primary Joint Force Provider is access to high quality 
force readiness and force availability data. JFCOM is teaming with the 
Office of the Secretary of Defense (OSD), the Joint Staff, Service 
headquarters and technical organizations (DISA) in several initiatives 
that will integrate policy, processes, authoritative databases and 
technology that affect Joint Force sourcing and Global Force 
Management.
                         joint force readiness
    Question. Joint Forces Command's current mission statement 
acknowledges its responsibility to provide ``trained and ready joint 
forces'' to our combatant commanders. The readiness of our non-deployed 
forces, especially our ground forces, for worldwide commitment has been 
impacted by the ongoing wars in Iraq and Afghanistan.
    What is your unclassified assessment of the readiness of our non-
deployed land, air, and sea forces in general, and specifically with 
respect to homeland defense and counter-terrorism missions?
    Answer. That portion of the armed services making up the ground 
force is essentially either deployed forward supporting our Overseas 
Contingency Operations or is in some stage of resetting for future 
deployment. Those units that are in reset are challenged in their 
readiness by equipment needs, rotation of manpower and time to train. 
The Services have proven adaptive in preparing ground forces for their 
next deployment--but in many cases, they achieve a deployment ready 
state just in time for their next deployment rotation. The air and 
maritime forces are more ready across the board, but specific skill 
sets within those forces are also stressed due to deployments (e.g., 
Military Intelligence, EOD). As forces draw down in Iraq and the Army 
begins to realize some relief from its current high operational tempo 
(except in high demand skill sets), it is important we develop 
mechanisms to increase readiness of our non-deployed ground forces and 
develop ready force packages to meet worldwide needs.
    Question. What policies, programs, or actions would you 
specifically propose to strengthen the readiness of our non-deployed 
air, land, and sea forces?
    Answer. Continued support of current joint training and readiness 
programs that prepare our forces and joint headquarters to be ready 
when called upon by a combatant commander. Additionally, I will look to 
support initiatives such as inserting joint enabler into the immersive 
training environment, as well as continuing civil-military cooperation 
in a training environment.
                      readiness reporting systems
    Question. Global Status of Resources and Training System (GSORTS) 
measures unit readiness for combat missions at the high end of the 
spectrum of war rather than counterinsurgency, stabilization or other 
contingency missions. The Department has developed and begun fielding 
the Defense Readiness Reporting System (DRRS) to replace GSORTS.
    Based on your years of command experience, both in garrison and 
while deployed, what are your views of the importance of a 
comprehensive, objective, accurate, reliable, adaptable, and timely 
readiness reporting system?
    Answer. A readiness reporting system as you have described is 
obviously important. Such a system should incorporate both resource 
assessments as well as mission assessments. This will provide the basis 
for force analysis that underpins JFCOM's recommended sourcing 
solutions to meet the geographic combatant commander's force needs.
    Question. What in your view should be the requirements of a 
readiness reporting system capable of meeting Joint Forces Command's 
mission as joint force provider?
    Answer. In general terms, the readiness system should reflect 
objective readiness metrics and subjective assessments of a force's 
ability to carry out specific mission tasks or a spectrum of military 
missions.
    Question. In this regard, is it more important for Joint Forces 
Command to have a clear picture of available Service capabilities or 
the readiness data on specific units and systems, or both?
    Answer. JFCOM would require both to perform its Joint Force 
Provider role. JFCOM currently works with its Service components and 
each Service to generate the shared understanding of what Service 
capabilities are available and why they are available--based on unit 
readiness data. In its effort to improve Joint Force Provider 
processes, JFCOM has defined needs for information including:

        <bullet> Force availability
        <bullet> Force capabilities
        <bullet> Force structure
        <bullet> Force readiness
        <bullet> Global Force Management (GFM) strategic guidance 
        (priorities)
        <bullet> Force location
        <bullet> Force apportionment
        <bullet> Common operating picture
        <bullet> Works in progress (pending changes in the force)

    Question. What weight would you assign to each of the requirements 
you identify?
    Answer. High priority items include: force availability, force 
capabilities identifier, force structure, force readiness. GFM 
strategic guidance, force location and force apportionment are medium 
priority. Common operating picture and works in progress are low 
priority.
    Question. What is your understanding of, or experience with, the 
new DRRS?
    Answer. I have very little experience with this system. 
Theoretically, I believe this system will be an improvement over the 
current Joint Readiness System, although I need to discuss DRRS with 
the Service components to determine their confidence in the system 
before declaring my own overall assessment.
    Question. How would you evaluate this new system's ability to 
assess the personnel, equipment, and training readiness of forces and 
its utility in support of Joint Forces Command's joint force provider 
process?
    Answer. My brief understanding is that DRRS includes a subjective 
readiness reporting system that focuses on evaluation of a force's 
ability to execute mission essential tasks rather than just measuring 
equipment, supply, manning and training levels as a means of assessing 
readiness.
    Question. One of the concerns about the GSORTS and DRRS is the use 
or misuse of the commander's ``subjective upgrade.'' Commanders are 
authorized to raise or lower their reported level of readiness in a 
more subjective fashion than is otherwise required in a strict 
application of objective standards as defined in the readiness 
reporting regulation.
    During your years of command, in general have you used this 
authority to subjectively upgrade or downgrade your readiness reports? 
If so, what philosophy has guided your use of subjective upgrade or 
downgrade?
    Answer. I have used subjective reporting in the past within the 
parameters of the reporting system at the time. If the reporting system 
directs an assessment of a units full spectrum combat mission, then the 
full suite of equipment, manning and training is necessary to ready 
that unit to the full spectrum level. If the unit is tasked with a less 
demanding mission, for example, disaster relief--then a subjective 
report of readiness against that lesser mission is helpful to reflect 
that the unit is capable of success with the current state of manning, 
equipment and training. It's important to keep in mind that readiness 
reports are intended for senior headquarters consumption and their 
information needs and intents are key variables in defining any 
readiness system. I have never hesitated to apply my military judgment 
in assessing the readiness of units I commanded. No one understands the 
capabilities or shortfalls of a unit better than a commander and his 
chain of command. Quantitative assessments alone cannot adequately 
articulate a unit's readiness and I strongly endorse holistic 
appraisals by commanders.
    Question. How have you mentored your subordinate commanders in 
their use of subjective upgrade in their readiness reporting to and 
through you?
    Answer. The Army trains leaders to be honest, forthright, critical 
thinkers and they are selected to leadership positions based, in large 
part, on their demonstration of good judgment. I have relied on the 
good judgment of my subordinate commanders to reflect accurately their 
unit's capabilities within the parameters of the readiness reporting 
system. The readiness of their units has been a subject of frequent 
discussion with my subordinate commanders. I expect them to apply their 
judgment and report their honest assessment, even in open-ended 
environments where current readiness reporting does not apply.
    Question. What in your view are the benefits and dangers of the use 
of subjective upgrades or downgrades?
    Answer. The obvious danger is an overestimation of capabilities 
that may be used as the basis for a decision to commit a unit to a 
mission that it is not prepared to undertake. But commanders as well as 
their chain of command have a firsthand understanding that allows 
reflection of capabilities that are not measured in an objective based 
system (e.g., a unit with a great deal of leadership experience, but 
has not yet completed all training may be more capable than objective 
assessment reveals).
    Question. If confirmed, how would you monitor the use of subjective 
upgrades or downgrades in the readiness reporting system to ensure that 
Joint Forces Command has the most accurate, reliable, and timely 
information necessary to meet its responsibilities as joint forces 
provider?
    Answer. I will monitor reports of force readiness through my 
Service component commanders who are in the best position to 
continually assess the accuracy and reliability of readiness reports. I 
will also travel and observe unit training and share Joint training 
lessons learned.
                          joint force trainer
    Question. Joint Forces Command also serves as a major joint force 
trainer. In this role, the command certifies the training readiness of 
Joint Task Force headquarters to plan, organize and manage the 
execution of joint force operations at all levels of conflict. The 
command supports combatant commander joint exercises and mission 
rehearsal exercises prior to deployment of major headquarters. However, 
Joint Forces Command does not certify the training readiness of 
deploying forces at the unit or ``tactical'' level.
    Based on your experience as Commander, U.S. Forces-Iraq, what is 
your evaluation of the readiness of Army, Navy, Air Force, and Marine 
Corps units as they are arriving in Iraq?
    Answer. Overall, the readiness of units arriving in Iraq has been 
high. The strain on the force after 9 years of conflict is significant 
but I believe the Services have done a good job in resetting units and 
getting them ready to deploy.
    There will always be issues with manning, equipment, and training, 
but the Services have been adaptive and incorporated feedback from the 
theater by making necessary adjustments in their force preparations. 
There has been constant dialogue with JFCOM and the Service training 
centers to provide immediate feedback in order to adjust training and 
the training environment.
    Question. Based on your observations and evaluations, should U.S. 
Joint Forces Command be assigned a greater role in setting standards 
and the certification of the training readiness of tactical units prior 
to their deployment?
    Answer. I believe the supported combatant commander should set the 
requirements for what units need to be trained in, and in what 
conditions, and to what standard, if a standard can be determined. If 
there is something we have learned in Iraq and Afghanistan it is that 
this enemy is adaptive and does not follow doctrine. Trying to set a 
standard for everything that a unit must do is challenging but it 
should be done where possible.
    I also believe that the Services understand their role in providing 
trained and ready forces based on the supported commander requirements. 
When a unit commander states to his boss that he has conducted the 
required training then we must take that commander at his word.
    What JFCOM can do is facilitate the articulation of the supported 
commander's requirements to the Services. This can be done with the 
annual Joint Training Plan which provides training guidance to the 
Service components. JFCOM should also support the Service training 
programs in replicating the environments of Iraq and Afghanistan in 
their training.
                       contracting senior mentors
    Question. The number of contractors working under U.S. Joint Forces 
Command currently exceeds the number of uniformed military personnel 
assigned to U.S. Joint Forces Command. Those contractors who are hired 
as Senior Mentors can earn upwards of $1,600 per day for their 
services.
    In your view, what value do contracted Senior Mentors provide to 
U.S. Joint Forces Command and do you believe they are being overpaid?
    Answer. Senior mentors bring years of experience and expertise and 
they are vital to how we train, teach and mentor our commanders to lead 
complex, joint and combined operations. I have personally experienced 
the advantage of senior mentors as I prepared for combat operations as 
a Division, Corps, and Force Commander. They provide unique perspective 
and experience to manage large organizations and help solve complex 
problems. Not everyone is qualified to provide these unique insights.
    Our senior mentors are a key component of a training team that 
includes mid-grade active duty officers who act as Observer-Trainers. 
The senior mentor provides credibility for this training team due to 
his many years of experience.
    The impact of senior mentors on our exercise program and in senior 
leader education programs such as Capstone, Keystone, and Pinnacle 
cannot be overstated.
    It is difficult to put a price on the value of our senior mentors 
but the amount of time they spend mentoring a commander and staff 
during an exercise can often be significant. Their duties sometimes 
take them to locations such as Iraq, Afghanistan, and Djibouti where 
they might log significant amounts of time in austere locations.
    Question. In your view, is the Senior Mentor Program transparent 
enough with respect to potential conflicts of interest?
    Answer. I have not been involved in monitoring the program to 
provide an absolute yes. In all the years I have benefitted from senior 
mentors, did I ever experience or believe there was a conflict of 
interest. I understand that as part of the transition from senior 
mentor to a highly-qualified expert position, these flag and general 
officers will undergo ethics and conflict of interest training/
counseling and be required to file an Office of Government Ethics Form 
450.
    Question. How can the current process be made more cost-efficient 
and effective?
    Answer. My understanding is that JFCOM has been working with 
Department of the Navy, their Executive Agency, over the last 2 months 
to develop a quality senior mentor program at JFCOM that is fully in 
line with the Secretary of Defense's intent while ensuring they don't 
risk ongoing or planned mission support. It will be important to 
develop a risk mitigation plan phasing SM HQE transitions to ensure 
continued mission support during this time period. We will work to 
ensure every senior mentor has transitioned as soon as practicable and 
have a management process that will be in place to manage and support 
their mission activities.
    Question. Given the decision by Secretary Gates to convert and in-
source contractors into government employees, could U.S. Joint Forces 
Command also benefit from such a shift given the high percentage of 
contractors currently residing in U.S. Joint Forces Command?
    I believe JFCOM is currently striving to do this. JFCOM is 
currently working on a plan to transition many of the Senior Mentors 
used in the past, to government employees in the form of highly-
qualified experts. In addition, JFCOM will comply with the President's 
directive to reduce the portion of work performed by contractors and to 
hire government employees.
                            lessons learned
    Question. One of Joint Forces Command's missions is to conduct 
lessons learned studies that can result in changes to joint tactics and 
doctrine. These efforts are informed by the command's wargaming 
experimentation program, as well as a number of advisors, including 
retired general officers, who have been sent to Iraq to review the 
operational situation.
    Based on your experience as Commander, U.S. Forces-Iraq, what are 
your observations and evaluation of the Joint Forces Command's lessons 
learned efforts?
    Answer. JFCOM's Joint Center for Operational Analysis (JCOA) embeds 
collection teams with the supported combatant commands and Joint Task 
Forces to conduct lessons learned collection during the course of 
operations. This approach is a great leap forward over conducting 
interviews to collect information after the fact as we've historically 
done. It provides a level of timeliness, fidelity and impact that has 
not been achieved in previous lessons learned programs. Service teams 
also use this approach. From these collection efforts, JFCOM not only 
improves tactics and doctrine, but improves Joint warfighting across 
the full doctrine, organization, training, materiel, leadership, 
personnel, and facilities (DOTMLPF) spectrum. This has permitted rapid 
adaptation and sharing of ``best practices'' among our various services 
and units. Lessons learned are a proven force multiplier in making us a 
truly adaptive force.
    Question. What are your observations and evaluation of how these 
lessons learned impacted the conduct of operations in Iraq?
    Answer. I observed two types of impacts: the first is the immediate 
impact provided by forward collectors' observations to the operational 
commanders, and the second is the result of subsequent analysis and 
recommendations being shared with senior DOD, U.S. Government, and 
coalition leadership. JCOA analysis identified lessons and derived 
recommendations that were fed into multiple efforts. As a result of the 
sharing of joint and Service lessons learned, training has been re-
oriented in real time, organizations have been modified, and doctrine 
rewritten to strengthen our intellectual approach to this form of war. 
We have also on several occasions asked JCOA to conduct specific 
assessments of our ongoing programs such as Information Operations, 
Civil-Military Operations, and Joint-Combined Staff Integration.
    Question. If confirmed, how would you propose to improve the 
command's lessons learned systems?
    Answer. Key to the collection of needed data is trust in the 
purpose and concept of JCOA's embedded missions. I intend to work with 
my fellow combatant commanders to set positive conditions at the 
highest level for JCOA's employment as a tool for analytical support. 
We will continue to infuse a sense of urgency in disseminating best 
practices uncovered by sharing lessons learned.
    Additionally, the ability of U.S. forces to turn world-wide 
collected lesson observations into knowledge has reached a new level 
with the implementation of the Joint Lessons Learned Information System 
(JLLIS). JLLIS is the DOD Program of Record for Lessons Learned managed 
by the Joint Staff J-7. It allows for transparency among all the 
service and combatant commands' lessons learned databases. The key for 
JFCOM will be the development of business models to process this large 
amount of information into knowledge, which we can then use to guide 
improvements for the Joint Warfighter.
    Finally, if confirmed, I intend to engage the Secretary of Defense 
and Chairman on methods for ensuring resource allocations to the 
recommendations that go forward.
          national guard readiness for civil support missions
    Question. An issue of concern to the Congress is the apparent low 
levels of readiness of the National Guard for its domestic or civil 
support missions. The reality is that we do not know with great 
confidence the true ``readiness'' of the Guard for its domestic support 
missions because there is no national readiness reporting system that 
objectively captures the Guard's personnel, equipment, or training 
requirements or their status relative to those requirements.
    What is your assessment of the Guard's current readiness to respond 
to the range of domestic contingencies that our states may face?
    Answer. I believe the National Guard maintains a good level of 
readiness to respond to the range of domestic contingencies normally 
faced by a State in a given year. This year National Guard forces have 
responded, or are expected to respond under state control, to floods, 
fires, hurricanes, oil spills and tornadoes. Governors and their The 
Adjutant Generals (TAGs) generally will not offer National Guard forces 
for deployment if they believe that offering will negatively impact the 
state's ability to respond to its citizens needs. The National Guard 
forces that have returned from deployment to Iraq and Afghanistan 
generally are at lower readiness levels and the Army is working 
diligently to reset these forces.
    Question. What in your view is the role or responsibility of Joint 
Forces Command, as the joint force provider, in developing a readiness 
reporting system that monitors the Guard's readiness for civil support 
missions?
    Answer. I believe once the DRRS is fully evolved and National Guard 
units are reporting readiness via DRRS, the mission essential task 
based readiness system could reflect Guard readiness for civil support 
missions.
                  joint requirements oversight council
    Question. The Joint Requirements Oversight Council (JROC) has the 
responsibility to assist the Chairman of the Joint Chiefs of Staff in 
identifying and assessing the priority of joint military requirements 
to meet the national military strategy and alternatives to any 
acquisition programs that have been identified.
    How would you assess the effectiveness of the JROC in the 
Department's acquisition process?
    Answer. As the Multi-National Forces-Iraq and now the U.S. Forces-
Iraq Commander, I am the end user of capability requirement and 
development decisions the JROC makes. I believe the JROC is effective 
at engaging the acquisition and programming communities early on by 
validating COCOM, Service, and Agency requirements/capability gaps. The 
JROC has approved a streamlined method for managing requirements 
achieved through information technology. This requirements governance 
process allows the operational user more flexibility in prioritizing 
delivery of requirements as operational needs change and will 
synchronize well with the proposed changes in the information 
technology acquisition process. The JROC is very effective in assessing 
and conveying the COCOMs' needs to the acquisition process through a 
rigorous Capability Gap Analysis process.
    Question. Do you see the need for any change in the organization or 
structure of the JROC?
    Answer. I think the Department is already pursuing necessary 
changes to improve the process and I strongly support the VCJCS and 
JROC efforts to include an ``upfront'' assessment of cost, schedule, 
and performance as part of the requirements process; including the 
evaluation of trade-off alternatives. The JROC provides independent 
military advice to our senior leaders regarding which issues become 
validated military requirements and which do not. I think the JROC is 
organized and structured effectively to provide that independent 
military voice. I also believe the combatant commanders need a voice 
through the JROC to influence the resource and acquisition processes as 
they relate to joint requirements. If confirmed, I look forward to 
investigating options that include combatant commander representation 
in the JROC.
    Again, the JROC has already taken steps in this direction by 
delegating Joint Capability Board (JCB) authority to several of the 
functional combatant commands. This delegation included naming the 
Deputy Commander of JFCOM as the Chairman of the Command and Control 
(C2) JCB addressing all command and control requirements. This puts 
JFCOM very much in the role of primary advisor to the JROC on command 
and control issues. Similarly, the Deputy Commanders of U.S. Special 
Operations Command (SOCOM) and U.S. Transportation Command (TRANSCOM) 
have been delegated JCB Chairmanship for their respective functional 
areas.
    Further, the SASC has proposed in the 2011 National Defense 
Authorization Act to allow the Commander or Deputy Commander of any 
combatant command to participate in a JROC which has topics that 
significantly impact their operations and requirements. This will also 
enhance the ability of the combatant commanders to influence the JROC 
decisions.
    Question. In your view, should the Commander, U.S. Joint Forces 
Command, have a seat on the JROC?
    Answer. I do not believe it is necessary for the JFCOM Commander to 
have a seat on the JROC in order to be effective at influencing the 
direction and types of joint force capabilities. In October 2008, the 
JROC delegated the chairmanship of the command and control Joint 
Capabilities Board to the JFCOM Deputy Commander. In that role, JFCOM 
is the primary advisor to the JROC on command and control capabilities.
    Question. If confirmed, how would you plan to interact with the 
JROC in pursuing the development of improved joint force capabilities?
    Answer. I would offer the JROC as it is chartered is sound, and I 
am confident that General Cartwright will continue to lead us in the 
right direction. I will continue in the path set forth by General 
Mattis to bring significant issues to the attention of the JROC and 
leverage the JFCOM Chairmanship of the Command and Control JCB to the 
maximum extent possible to influence the development of joint force 
capabilities.
    Question. Do you feel that the Commander, U.S. Joint Forces 
Command, should have a larger role in the activities of the JROC, given 
the unique JFCOM mission to support joint warfighting?
    Answer. In my view, we must continue to ``operationalize'' the JROC 
and acquisition processes to respond with agility when Warfighter 
Challenges are presented and validated. The Joint Capability 
Integration and Development System (JCIDS) is designed to impact mid- 
to far-term capabilities and funding (3 years and beyond). The process 
has less flexibility to quickly respond to emerging requirements within 
the planning, programming, budgeting, and execution process in the 
near-term budget years (1-2 years). I strongly support initiatives such 
as the Information Technology Oversight and Management process that 
provides the required flexibility to take full advantage of evolving 
commercial information technology and incorporate it throughout a 
program's lifecycle. U.S. JFCOM's expanded role as the Chair of the C2 
JCB provides a stronger voice in the JROC process.
    The Joint Urgent Operational Needs process has been used 
effectively over the last several years. However, there still exists a 
gap in our ability to deliver joint warfighting capabilities that are 
needed in the 1-3 year range due to issues with all three core 
processes: requirements, acquisition and programming. I will be working 
with the VCJCS to identify ways to bridge this gap, potentially through 
changes in the JROC/JCIDS process that will then influence how we can 
acquire these capabilities in a timelier manner.
                           joint requirements
    Question. Commander, U.S. Joint Forces Command, is responsible for 
advocating for the interests of combatant commanders in the overall 
defense requirements and acquisition process.
    From your perspective has the U.S. Joint Forces Command effectively 
represented the requirements and needs of combatant commanders to the 
JROC and the Military Services?
    Answer. Yes, U.S. Joint Forces Command has well represented the 
requirements and needs of the combatant commanders to the JROC.
    Question. In your view, are combatant commanders capable of 
identifying critical joint warfighting requirements and quickly 
receiving needed capabilities?
    Answer. Yes, as one of the component commanders for U.S. Central 
Command it is my belief that the combatant commander, in working with 
their component commanders is perfectly and uniquely suited to identify 
those joint urgent needs for adjudication by the JROC. Enhanced 
representation by the combatant commanders on the JROC will ensure that 
these needs are given the appropriate priority for delivery.
    Question. What suggestions, if any, do you have for improving the 
requirements and acquisition process to ensure that combatant 
commanders are able to quickly receive needed joint warfighting 
capabilities?
    Answer. The combatant commanders often face issues that require new 
capabilities in the near-term that cannot be supported by the 
traditional requirements, acquisition and programming processes. While 
the Services have some flexibility to adapt to these needs, current 
processes are often too bureaucratic and focused on the long-term to 
meet these needs. I will work with the JROC to advocate improvements to 
the existing requirements process that will accelerate our ability to 
provide the required joint warfighting capabilities. Flexibility and 
adaptability of our processes is essential as we continue to operate in 
a dynamic and changing operations and strategic environment.
                      joint capability development
    Question. In your view, how successful has U.S. Joint Forces 
Command been in developing and delivering new joint capabilities to the 
warfighter?
    Answer. I think very successful. JFCOM continues to work with the 
COCOMs to determine warfighter gaps and challenges and look for 
solutions. JFCOM develops new capabilities, often partnering with the 
Services, and leverages experimentation expertise, Joint Capability 
Technology Demonstrations, and interim joint capability development 
efforts to find solutions that can be operationally tested and fielded. 
In response to a CENTCOM Joint Urgent Operational Need (JUON) JFCOM 
partnered with the Services to develop and field test the Joint 
Airborne Communication System (JACS). The JACS systems have evolved 
under the JFCOM Joint Communications Support Element (JCSE) from a 
1,000 lb. package that required aircraft support to a 100 lb. package 
that is currently undergoing final testing for ultimate integration on 
existing Service unmanned aircraft system (UAS) platforms. The JACS 
system more than triples the communication range capability of ground 
forces operating at extended ranges from forward bases. The early 
versions of JACS have been successfully tested in the Iraq AOR.
    Question. What steps would you take to improve JFCOM's efforts in 
this area?
    Answer. The ability to expeditiously develop new capability hinges 
not only on identifying the right technology, but also on having access 
to the resources (manpower and funding) to effectively pursue solutions 
that meet the warfighter's needs. In addition to Research and 
Development (R&D) funding, interim solutions also require temporary 
Operation and Maintenance (O&M) to ensure sustainability. If confirmed, 
I will work with my staff to ensure that JFCOM in partnership with OSD 
AT&L and others as appropriate, are adequately funded and provided the 
authorities necessary to enable the development and fielding of interim 
solutions, until a Service Program of record is available to meet COCOM 
urgent needs.
                          budget and resources
    Question. Since 2001, the U.S. Joint Forces Command budget 
authority has risen considerably because of additional functional 
mission responsibilities assigned to the command.
    Have the increases kept pace with the JFCOM taskings and do you 
foresee the need for future growth?
    Answer. As any organization reacts to changes in organizational 
priorities, customer demands (DOD and COCOMs), and other external 
influences, that organization is forced to reassess the resources 
available to it and the resource structure in place to meet the demand. 
I understand building the resources to support JFCOM missions and 
functions has been a departmental effort over 10 years, and the 
informed allocation of those resources is intended to provide for that 
mission in support of delivering the appropriate tools to the 
warfighter. At this point in time, I can only assume that the resources 
have kept pace with the growing mission responsibilities.
    I do not believe the JFCOM headquarters has any excess capacity, 
and a recent DOD COCOM Management Headquarters Analysis bears that out. 
So, as Joint Warfighting capability gaps are identified, it will be 
critical for the department to assess the risk as it relates to the 
overall ability of the force to complete its mission, and then 
determine the appropriate allocation/reallocation of resources as 
required to mitigate or accept that risk. We must seek efficiencies and 
constantly assess and adjust within the resources we have been given. 
However, with the current economic condition of our country, and the 
expected downward pressure on the overall budget, I view the near-term 
opportunity for growth unlikely.
    Question. In what specific areas do you see the need for future 
growth?
    Answer. Without having the opportunity to assess and evaluate 
JFCOM, I am not able to provide an informed answer to that question.
    Question. Do you believe that JFCOM has adequate staff to 
efficiently manage this increase in budget authority and mission 
responsibilities?
    Answer. I believe the answer is yes, but once again, that is 
something I will have to assess for myself. Anytime an organization 
experiences rapid growth like JFCOM, there is always concern about 
failure to address the management and oversight elements.
    Question. Approximately two-thirds of JFCOM headquarters staff is 
composed of government civilians or contractors.
    In your view, what explains this large civilian and contractor 
workforce?
    Answer. From the recently completed COCOM Baseline Review, I 
understand JFCOM's management headquarters staff is the leanest of any 
COCOM. Like every COCOM HQ, the civilian and contractor components of 
the workforce augment the military component. Taken together, I expect 
the components operate as a team to execute the unique missions and 
functions assigned by the Unified Command Plan and other directives. 
JFCOM's government civilians generally perform duties that are 
inherently governmental in nature, such as financial and program 
management, while our military personnel provide the essential element 
of recent and relevant operational experience and perspective. I expect 
to find the contractor component of JFCOM's workforce to be lean and 
well-managed by a trained cadre of government acquisition professionals 
and held accountable to specific and rigorous performance standards.
    Question. Do you believe that JFCOM has an appropriate mix of 
military and civilian personnel?
    Answer. I simply do not know at this time. This is something I will 
have to review and access once I am there. I understand significant 
workforce rebalancing is occurring in response to the legislative 
enablers, and the Department's guidance, on acquisition reform and in-
sourcing. Hopefully, these initiatives will lead to a workforce that is 
both more effective and less expensive.
           joint forces command limited acquisition authority
    Question. Congress has provided Commander, U.S. Joint Forces 
Command, with the authority to develop and acquire equipment for battle 
management command, control, communications, and intelligence and other 
equipment determined to be necessary for facilitating the use of joint 
forces in military operations and enhancing the interoperability of 
equipment used by the various components of joint forces.
    What is your assessment of the benefits of this authority?
    Answer. Limited Acquisition Authority (LAA), which was delegated by 
the Secretary of Defense to U.S. Joint Forces Command from 2004 through 
2008, proved to be a useful and flexible tool for JFCOM to support 
other combatant commands. LAA to JFCOM was discontinued at the end of 
fiscal year 2008.
    Question. Do you concur with the findings and recommendations of 
the Government Accountability Office (GAO) in its April 2007 report 
which were somewhat critical of JFCOM's use of limited acquisition 
authority?
    Answer. I am not familiar with the results of the GAO report.
    Question. What internal changes, if any, would you recommend to 
improve the execution of the authority?
    Answer. If confirmed I would commit to studying this more 
thoroughly.
    Question. Do you believe that an increase in acquisition staff size 
is necessary?
    Answer. I am not in a position to speak for USD(AT&L) on makeup or 
organization of the Defense Acquisition Work Force in DOD. I understand 
that JFCOM has no acquisition staff and none is required at this time, 
but we will study this more thoroughly.
    Question. Do you believe this authority should be made permanent?
    Answer. If confirmed, I will commit to studying this more 
thoroughly.
    Question. What additional acquisition authorities, if any, does 
U.S. Joint Forces Command require to rapidly address such joint 
warfighting challenges?
    Answer. If confirmed I will review. My initial reaction is none at 
this time.
    Question. Do you believe similar acquisition authority should be 
extended to other combatant commands, and, if so, which commands and 
why?
    Answer. SOCOM already has acquisition authority to meet specific 
needs of their special operations mission. It is my understanding that 
LAA was given to JFCOM to meet the unique interoperability and C2 
missions assigned to the command under the Unified Command Plan (UCP) 
and reinforced recently by the Joint C2 CPM mandate of the Deputy 
Secretary of Defense. For those missions, JFCOM should be the single 
entity determining the joint solutions to interoperability and C2 
problems faced by all the COCOMs.
    Question. Will you recommend that the Department directly fund 
JFCOM to support the authority--which has not occurred to date?
    Answer. No. Again, if the LAA statue was extended, or made 
permanent, and JFCOM was empowered by USD(AT&L) to execute all aspects 
of acquisition authority, I would recommend funding by way of an 
acquisition contingency fund (Program element) made up of RDT&E, O&M 
and OP subheads available to USD(AT&L) to fund LAA approved projects.
    Question. What role, if any, should oversight officials from the 
Office of the Under Secretary of Defense for Acquisition, Logistics, 
and Technology play in the utilization of JFCOM's acquisition 
authority?
    Answer. If the LAA statue was extended, and JFCOM was empowered by 
USD(AT&L) to execute LAA, I strongly believe approval of LAA projects 
should remain the decision of Commander, JFCOM. USD(AT&L) should have a 
responsibility to arrange funding for the LAA projects and continue to 
perform an oversight role in ensuring JFCOM doesn't violate acquisition 
regulations in the execution of the LAA mission.
                defense science and technology programs
    Question. The Department's Science and Technology (S&T) programs 
are designed to support defense transformation goals and objectives. 
These programs are intended to ensure that warfighters--now and in the 
future--have superior and affordable technology to support their 
missions and to give them war-winning capabilities.
    Do you believe there is an adequate investment in innovative 
defense science and technology activities to develop the capabilities 
the Department will need in the future?
    Answer. The Department's current S&T investment level is probably 
about right. If confirmed, I must continue JFCOM efforts to steer that 
investment on solutions to debilitating capability gaps and on the 
future warfighter enablers. That requires continuing to work closely 
with OSD and Joint Staff, other COCOMS, and the Services to ensure we 
are making the most effective and efficient use of the funding we 
currently receive. I know JFCOM has developed partnering relationships 
with the Services, Agencies, other Federal labs as well as with large 
and small private sector companies which need to be embraced to help 
speed capability development at reduced costs and promote that 
necessary future capability development.
    Question. Do you believe the Department's investment strategy for 
S&T programs is correctly balanced between near-term and long-term 
needs?
    Answer. This is an area where I plan to review and analyze more 
closely should I be confirmed. The challenge is ensuring that we have a 
proper S&T portfolio that allows us to invest in the more risky, 
revolutionary technologies; yet, sustain our investments in 
technologies that are needed for the current fight and programs of 
record in the POM. I intend to continue working closely with OSD, Joint 
Staff, other COCOMs, and the Services to ensure we maintain the proper 
balance to develop future capabilities while addressing the gaps 
identified in the Science and Technology Integrated Priority Lists and 
the identified Joint Warfighter Challenges.
    Question. What is the role of JFCOM's modeling and simulation 
program in the development of new warfighting capabilities for DOD?
    Answer. I believe JFCOM modeling and simulation (M&S) should focus 
on developing new warfighting capabilities, and facilitate a more 
comprehensive understanding of the national and global security 
environment of the 21st century. It needs to replicate the complexity 
and terrain of the security environment without placing soldiers, 
sailors, airmen, and marines in harm's way. In addition, JFCOM M&S 
should enable complete integration of the other key players in national 
security, such as multi-national and interagency partners, with little 
attendant risk (politically and operationally). Distributed operations 
allow participants greater access to joint venues through the network, 
and from their home stations, thus driving down costs and encouraging 
participation.
    Modeling and simulation not only enables development of new 
warfighting capabilities, but constitutes a new, emerging warfighting 
capability in itself. For instance, an experimental modeling and 
simulation capability that permitted the rapid assessment of enemy 
transportation routes through mountainous areas during laboratory 
experiments has been fielded and is in active use in Afghanistan. Other 
M&S transformational capabilities developed through experimentation and 
demonstration may be useful capabilities in planning, mission 
rehearsal, mission execution, and assessment in direct support of 
operators.
    Question. How would you characterize JFCOM's relationship between 
DARPA and the Services on S&T programs and how could those 
relationships be improved?
    Answer. My understanding is JFCOM has enjoyed a good relationship 
with DARPA and the Services. JFCOM supports a DARPA intern program, and 
also recently appointed the DARPA Director as a member of the JFCOM 
Transformation Advisory Group. This provides the JFCOM senior 
leadership with key strategic insight. I understand actions are ongoing 
to more fully embrace DARPA's capability and strengthen collective 
efforts. The Services' involvement with JFCOM appears healthy with a 
program that has Service officers at JFCOM to understand Joint and 
coalition needs, work on JFCOM's mission areas, and pull in Service 
equities and capabilities. JFCOM, in coordination with OSD and Joint 
Staff, leverages the Services S&T efforts to find opportunities for 
tighter integration of S&T programs in Joint capability development 
activities, such as Joint Capability Technology Demonstrations (JCTD). 
I will look to strengthen these relationships by keeping DARPA and the 
Services continuously informed of Joint and coalition needs, thus 
allowing them to address these needs within the Department's budget 
cycle.
                         technology transition
    Question. The Department's efforts to quickly transition 
technologies to the warfighter have yielded important results in the 
last few years. Challenges remain to institutionalizing the transition 
of new technologies into existing programs of record and major weapons 
systems and platforms.
    What are your views on the success of JFCOM programs in 
transitioning new technologies into use to confront evolving threats 
and to meet warfighter needs?
    Answer. JFCOM has an established track record of identifying Joint 
capability gaps and then developing solutions to meet the Joint 
WarFighter need. I have seen the results of these efforts first hand in 
Iraq. I do believe we need to work harder at fielding solutions faster 
using off-the-shelf technology and leverage private sector best 
practices. As the threat in the Irregular Warfare arena continually 
evolves at a quickening pace, we must be proactive in meeting the 
warfighters needs in a timely manner.
    Question. Do you believe there are improvements that could be made 
to transition critical technologies more quickly to warfighters?
    Answer. I believe our process for identifying capability gaps and 
joint warfighter requirements is solid--in the past I have made my fair 
share of recommendations. However, the solution development process 
under Joint Capability Integration Development System (JCIDS) is overly 
complex, burdensome and unable to respond quickly to urgent warfighter 
needs. All critical Joint Urgent Operational Needs (JUONs) require 
expediting within the existing Joint Rapid Acquisition Cell (JRAC). 
Increased resourcing and empowerment of the JRAC to address these needs 
would ensure quicker solution delivery.
    Question. What are your views on the current balance of activities 
in the Joint Experimentation portfolio across battlespace awareness, 
building partnerships, command and control, force application, 
logistics, and protection?
    Answer. A balanced joint experimentation portfolio is an important 
element of the Departments comprehensive approach to address the 
operational requirements of the warfighters. The UCP tasks JFCOM to 
lead and coordinate JCD&E efforts across the Department. JFCOM does 
this through an enterprise approach in order to balance the varied 
experimental needs of the combatant commands and Services.
      joint command and control (jc2) capability portfolio manager
    Question. DOD recently assigned JFCOM the acquisition oversight 
role of JC2 Capability Portfolio Manager. Note: DOD recently assigned 
JFCOM as the military lead for the C2 Capability Portfolio.
    As you understand it, what does this responsibility entail and do 
you believe it is consistent with the overall JFCOM mission and funding 
levels?
    Answer. Given the UCP responsibilities assigned by the President to 
U.S. Joint Forces Command, specifically in the area of joint 
integration and interoperability, I think our assigned role as the 
military lead for the Department's Command and Control (C2) capability 
portfolio is consistent with our mission and appropriately resourced. 
Command and Control is obviously a critical military capability, at 
every echelon and across the Services. We fight and operate as a joint 
force, which in turn requires that our C2 capabilities are integrated 
and interoperable. Our ability to manage information and present it to 
commanders in order to make decisions is imperative for success. The 
information environment becomes more complex every day. How we manage 
information to improve integrated Battle command must be a top 
priority.
    Question. What do you see as the major challenges towards the 
development and deployment of joint, interoperable command, control, 
and communications systems?
    Answer. The major challenge is trying to integrate all the C2 
capabilities developed and fielded by title 10 Service providers. This 
may sound like a simple task, but C2 requirements vary across the 
Services and Joint Force. There are also technical challenges 
associated with trying to integrate complex systems of systems, 
networks, data, C2 software interfaces and communications/delivery 
(space, aerial and surface layers). My preference is obviously for the 
Services to develop joint, interoperable C2 capabilities on the 
``front-end'' rather than the Joint Force Commander having to integrate 
these capabilities in theater. We are not there yet. We must work 
together to develop joint warfighting concepts, doctrine, requirements, 
training, and integrated joint architectures and standards.
                         joint experimentation
    Question. How would you rate the success of the joint 
experimentation activities of JFCOM, and the Department as a whole, in 
supporting the development of new concepts of operations?
    Answer. I understand that significant improvements in relevance and 
impact have been achieved in joint experimentation over the past few 
years. JCD&E results are delivering real change across DOTMLPF for the 
joint warfighter in response to DOD's most pressing problems. JFCOM's 
joint experimentation activities are an important element of the 
Department's efforts to ensure we remain superior in the future threat 
environment. JCD&E efforts generate solutions for the combatant 
commands' and Services' most significant challenges and provide a 
framework to understand the challenges of the future joint operating 
environment and the ways in which the joint force will operate. 
Warfighters are directly involved in developing and validating 
concepts, and transitioning solutions across the full spectrum of 
doctrine, organization, training, materiel, leadership and education, 
personnel and facilities.
    Question. What changes would you recommend to increase the 
effectiveness of joint experimentation activities?
    Answer. The joint experimentation community must continue to 
improve the relevance and impact of concepts and capabilities for the 
warfighter, while ensuring focus on the most pressing warfighter 
challenges while ensuring visibility and transparency of concept 
development and experimentation. Projects must focus on precisely 
defined military problem statements and produce results in 12 months or 
less. We must formalize partnerships between experiment sponsors, 
subject matter area experts and transition agents to ensure the 
accuracy and rapid transition of results to drive enduring change for 
the joint warfighter.
    Question. Based on your experience, do you believe that the overall 
Department commitment and investment in joint experimentation is 
adequate to ensure the effective integration and interoperability of 
our future forces?
    Answer. We are better, but we still have much work to do. The 
integration and interoperability of joint forces is improving; however, 
security challenges we face now and in the future mandate a 
comprehensive approach to include interagency and multi-national 
partners. My guess is that additional funding for joint experimentation 
would be needed to facilitate this broadened body of work.
    Question. What do you believe to be the appropriate role for JFCOM 
in determining how the respective Services should invest their 
experimentation dollars?
    Answer. The UCP assigns JFCOM responsibility to lead joint concept 
development and experimentation (CDE) and coordinate the CDE efforts of 
the Services, combatant commands, and defense agencies to support joint 
interoperability and future joint warfighting capabilities. The 
Commander of JFCOM is also tasked with leading the development, 
exploration, and integration of new joint warfighting concepts and 
serving as the DOD Executive Agent for joint warfighting 
experimentation. This does not require strict JFCOM control of how 
Services invest their experimentation dollar, but does require a clear 
communication of the planned activities of Service experimentation and 
the ability to develop a common vision of the course of experimentation 
with the CJCS and Joint Chiefs.
    JFCOM must be the proponent that creates an awareness of 
experimentation activities in the department and serves to synchronize 
the efforts of the JCD&E Enterprise. Services can then exercise their 
appropriate fiscal authorities under title 10, guided by that common 
vision of the course of experimentation.
                            urban operations
    Question. JFCOM's experimentation and lessons learned efforts have 
had significant recent activity dedicated to understanding and 
development of urban operations concepts.
    What is your assessment of current DOD capabilities to conduct 
urban operations?
    Answer. We are much better today than we were 8 years ago because 
our troops and their leaders are more experienced, truly adaptive and 
superbly trained. But we must now develop realistic training 
environments combined with simulations to continue to improve our 
ability to operate in an urban environment. If the enemy adapts, we 
must have the ability to think and constantly adapt. We must be able to 
confront an adaptive enemy that simultaneously combines irregular and 
conventional tactics, weapons and organizations.
    Question. What major issues need to be addressed to improve those 
capabilities?
    Answer.

        <bullet> Increased capacity for human intelligence.
        <bullet> Greater urban operations reconnaissance and 
        surveillance to assist in the counter-IED fight. This includes 
        C-IED organization and doctrine.
        <bullet> Joint command and control systems that enable the 
        integration not only of military capability, but also of 
        interagency capability in a coalition environment that enables 
        true information sharing with our partners.
        <bullet> Precise and non-lethal weapons that minimize 
        collateral damage and civilian casualties.
        <bullet> Strategic communications capabilities that improve our 
        ability to help the population understand the truth about what 
        we are doing and gain their support. Additional investment in 
        language and cultural awareness for our troops who interact on 
        a daily basis with the population we hope to positively 
        influence is also essential.
        <bullet> The ability to better visualize the urban operating 
        environment, including the ability to sense through the massive 
        structures of the city.
        <bullet> Force tracking in the urban environment to ensure we 
        know exactly where all of our forces are located.
        <bullet> Abilities to Process, Exploit, and Disseminate the 
        tremendous ISR capabilities that we possess to the lowest 
        tactical levels.
        <bullet> Creation of processes and simulation that enable the 
        development of our small units to perform at increasingly 
        higher levels.

    Question. Based on results from the JFCOM Urban Resolve 2015 
experiment last year, efforts are being made to promote the concept and 
fielding of airborne persistent surveillance assets such as Angel Fire.
    What is your assessment of the value of the development of improved 
sensors, aircraft, and downlink technology and the field testing and 
integration of these assets with feeds from other battlefield sensors?
    Answer. It is incredibly valuable. My experience in Iraq tells me 
that one of the keys to success in counterinsurgency is a focus on the 
environment that allows commanders to gain a view of the enemy that 
enables timely decisionmaking. The increase in numbers of intelligence, 
surveillance and reconnaissance platforms does not ensure that the 
information derived from those sensors is properly fused. A critical 
component in implementing this approach is the development/
implementation of capabilities to combine the information from these 
ISR platforms in a form accessible by the commander at the lowest 
operational level. If confirmed, I intend to continue to emphasize the 
development of improved sensors and to ensure processes are jointly 
synchronized and focused to enhance ISR integration with warfighting 
capabilities. ISR is working in Iraq because tactical leaders are 
maximizing the effectiveness of a limited resource. The optimal use of 
ISR is enabled through decentralized control that provides the greatest 
flexibility at the lowest levels within the command.
                           irregular warfare
    Question. The Secretary of Defense has stated that irregular 
warfare (IW) must become a Department core competency.
    What, in your view, does it mean to make irregular warfare a core 
competency and how will we know if that has been achieved?
    Answer. In my opinion, this means enhancing our ability to conduct 
a variety of missions such as: train, advise, and assist foreign 
security forces; create a safe secure environment in fragile state; 
provide essential government services and humanitarian relief as 
necessary; and identify and defeat irregular threats from both state 
and non-state actors. We will know that irregular warfare has been 
achieved as a core competency when we have institutionalized many of 
the lessons learned in Iraq and Afghanistan into our joint training and 
doctrine. We must define the role of conventional and unconventional 
forces and broaden the spectrum of operations so that we can routinely 
conduct operations in a variety of complex physical and mental 
environments.
    Question. What is your evaluation of the Department's efforts to 
date to achieve this objective?
    Answer. Significant lessons have been learned from recent 
operations, and the Services have made progress adapting force 
structure and fielding necessary capabilities to succeed in these 
complex environments. Modular Brigades, Human Terrain Teams, expanded 
Counter-IED capabilities, revised doctrine and concepts, enhanced pre-
deployment training are among many of the relevant, necessary 
adaptations that have been made. Nevertheless, U.S. forces must 
continue to adapt to stay ahead of determined adversaries intent on 
exploiting our weaknesses.
    Question. What, in your view, is the role of U.S. Joint Forces 
Command in achieving this objective for the Department and with each of 
the Services?
    Answer. U.S. Joint Forces Command is uniquely positioned to assist 
the Department in developing the right concepts and capabilities 
required to ensure irregular warfare becomes a core competency of the 
joint force. Specifically, JFCOM can assist the Department in 
establishing joint standards for IW relevant training and readiness, 
recommending mechanisms for increasing interoperability and integration 
of SOF and GPF related activities. Furthermore, JFCOM can assist in 
developing joint IW relevant doctrine and concepts, and regularly 
assessing the readiness and proficiency of the joint force to conduct 
Irregular Warfare related operations.
    Question. What, in your view, are the most important challenges to 
overcome in making irregular warfare a Department core competency?
    Answer. The challenge as we forge ahead is to improve our ability 
to be agile and responsive enough to stay ahead of an irregular enemy. 
This requires balance and agility. Additionally, to obtain a balanced 
force we must gain irregular warfare proficiency without forfeiting our 
conventional and nuclear dominance and do this in a resource 
constrained environment while engaged in two major contingencies. If 
confirmed, I will continue to work closely with the Office of the 
Secretary of Defense to increase our flexibility and adaptability for 
fielding capabilities on the battlefield in the present warfight as 
well as further institutionalize irregular warfare in military 
doctrine, training, capability development and operational planning.
    Question. What initiatives or improvements would you recommend, if 
any, to overcome these challenges or accelerate the achievement of this 
objective?
    Answer. Adoption of institutional education for noncommissioned 
officers and officers is absolutely critical to developing adaptive 
leaders with the understanding and skills necessary to overcome our 
future challenges. What quickly became clear to me from my deployments 
to Iraq, is that in war, human beings matter more than any other 
factor. We must equip our leaders with an education that gives them the 
understanding of the political, strategic, historical and cultural 
framework of a more complex world as well as a deep understanding of 
the nature of war. In addition, we must include our interagency 
partners in our training and education programs. Irregular warfare must 
include all of our interagency partners and their unique skills.
          ``whole of government'' approach in joint operations
    Question. The Secretary of Defense has emphasized a ``whole-of-
government approach'' to national security policies, programs, and 
operations.
    What, in your view, does a ``whole-of-government approach'' in 
joint operations mean?
    Answer. A ``whole-of-government approach'' to joint operations is 
applying all potential resources available within the U.S. Government 
to solve complex problems. It implies working with our civilian 
interagency partners throughout the process of assessing the situation 
on the ground, planning to address the challenges, executing 
strategies, and developing assessment tools to monitor our progress. In 
Iraq we have developed a comprehensive Joint Campaign Plan that 
integrates the unique capabilities of our interagency partners, the 
United Nations, nongovernmental organizations, and other governmental 
agencies.
    Question. What is your evaluation of the Department's efforts to 
bring a ``whole-of-government approach''?
    Answer. At all levels, departmental, Service, COCOM and in the 
field DOD is making an all out effort to improve our ability to 
coordinate and collaborate with our civilian agency teammates. In the 
field, civilian counterparts are imbedded with military units, like 
Provincial Reconstruction Teams. At the Service level, we use civilian 
consultation in the development of capabilities to address our security 
force assistance responsibilities. COCOMs have aggressively sought to 
improve civilian agency coordination and outreach functions and OSD and 
Joint Staff have taken steps to include civilian agency input in the 
development of our plans. But we must continue to break down 
interagency barriers to more effectively deal with the complexity of 
the modern security environment.
    Question. What, in your view, is the role of U.S. Joint Forces 
Command in developing and implementing a ``whole-of-government 
approach'' to joint doctrine, training, planning, and operations?
    Answer. JFCOM is in a supporting role for an overall DOD effort. 
Its particular niche is ensuring that all Joint doctrine, training, 
planning and approach to operations use a whole-of-government and 
comprehensive approach. Additionally, JFCOM's UCP charter makes it 
responsible for the conduct of interagency and multi-national 
experimentation and concept development. Joint leadership training 
programs from Capstone to Pinnacle must provide a forum for our senior 
leaders to grow, adapt, and forge interagency relationships.
    Question. What, in your view, are the important challenges to 
overcome in making a ``whole-of-government approach'' a central part of 
joint doctrine, training, planning, and operations?
    Answer. JFCOM is and has been addressing this challenge for a 
number of years, and I am told that the term ``whole-of-government'' 
approach was coined in a JFCOM experimentation effort. I think the most 
important challenge in making a ``whole-of-government'' approach a 
reality is to get buy-in from our interagency partners. This will build 
their capacity so that we can consistently train together, encourage 
them to participate in and consult with us on the development of 
improved methods and capabilities for planning and operations thru 
experimentation, and the revision of Joint doctrine.
    Question. What initiatives or improvements would you recommend, if 
any, to overcome these challenges or accelerate the achievement of this 
objective?
    Answer. I believe an assessment focused on the advantages and 
disadvantages of increasing their capacity would be the key to 
accelerating the achievement of this objective.
                    stability and support operations
    Question. Operations in Iraq and Afghanistan have underscored the 
importance of planning and training for post-conflict stability and 
support operations. Increased emphasis has been placed on stability and 
support operations in DOD planning and guidance in order to achieve the 
goal of full integration across all DOD activities.
    What is your assessment of the Department's current emphasis on 
planning for post-conflict scenarios?
    Answer. The Department has made great progress in its emphasis on 
military planning for post-conflict scenarios. These efforts have 
helped to codify the best practices and procedures that the recent 
experiences have taught us. Additionally, Department planning guidance 
now emphasizes activities associated with both precluding contingency 
plan execution as well as post-conflict requirements comparable to what 
we have historically placed on preparations for major combat 
operations.
    However, these activities require a whole-of-government effort. 
Typically during a crisis, those in military and civilian agencies have 
come together with the best intentions and eventually respond in a 
unified manner. The lack of integrated planning can make the initial 
efforts awkward, uncoordinated, and inefficient. The Department is an 
active participant in the executive branch's efforts to improve the 
integration of U.S. Government efforts.
    Question. How can the new directives on post-conflict planning and 
the conduct of stability and support operations be better implemented?
    Answer. The DOD Instruction on Stability Operations (16 Sep 2009) 
provides comprehensive guidance to the Department to ensure the 
development of both the capability and capacity to conduct stability 
operations. One of the most important highlights is the need to 
institutionalize and expand the Department's efforts towards 
integrated, ``whole-of-government'' planning and execution. If 
confirmed as Commander, JFCOM, I will keep the emphasis on matters for 
which I am personally accountable such as:

        <bullet> Capturing the Joint lessons learned and improving our 
        ability to share them with our interagency partners
        <bullet> Developing Joint concepts in collaboration with 
        interagency partners
        <bullet> Supporting the continued expansion of Interagency 
        partner participation in both the planning and execution of 
        joint training and experimentation events
        <bullet> Integrating Interagency partners into Joint Command 
        and Control solutions.

    Question. What lessons do you believe the Department has learned 
from the experience of planning and training for post-conflict 
operations in Iraq and Afghanistan?
    Answer. Most lessons learned from our experiences of planning and 
training for post-conflict operations are related to the importance of 
integrating our interagency, multi-national, and host nation partners. 
The integration issues emphasize the need to invest in:

        <bullet> Defining the lead and supporting roles and 
        responsibilities in the planning process
        <bullet> Developing collaborative decisionmaking processes
        <bullet> Developing compatible information systems to include 
        interface controls, data sharing and disclosure processes

    Continuing to expand opportunities to train with our interagency 
and multi-national partners in order to improve planning, execution and 
enhance mutual understanding.
   responses to wmd threats and natural and manmade disasters in the 
                             united states
    Question. The responses of Federal, State, and local agencies to 
Hurricane Katrina and, more recently, to the catastrophic oil spill in 
the Gulf of Mexico, have generated debate about the appropriate role 
for military forces in responding to national crises.
    In your view, what is the appropriate role, if any, for U.S. Joint 
Forces Command in supporting civil authorities responding to natural 
and manmade disasters or WMD threats within the United States?
    Answer. JFCOM's role is that of the Primary Joint Force Provider to 
Commander, NORTHCOM, or any other designated Supported Commander, 
following a WMD incident. JFCOM is tasked to develop sourcing solutions 
to meet force requests of the Supported Commander in a timely manner. 
JFCOM does not generally provide forces to Governors or TAGs who have 
purview over their own State National Guard forces. However, if those 
forces are Federalized by the President, they could be provided to the 
supported commander by JFCOM. It is generally assumed that in case of a 
WMD incident the President would choose to use forces under title 10, 
but there is no guarantee of that eventuality. Should the response be 
limited to title 32 forces, JFCOM would have a limited role in the 
response.
    Question. Hurricane Katrina has demonstrated the importance of 
joint and interagency training in preparation for support disaster 
operations.
    In your view, how could U.S. Joint Forces Command influence joint 
and interagency training to enable better coordination and response for 
natural and manmade disasters operations?
    Answer. There are probably two high-impact approaches JFCOM can use 
to enable coordination and response during natural disaster operations: 
experimentation and training. The first discovers best practices and 
the second trains the entire interagency and nongovernmental partners 
in those best practices.
               weapons of mass destruction response units
    Question. What role do you believe U.S. Joint Forces Command should 
play in the training, assessment of readiness, and employment of units 
with WMD response missions, such as the Weapons of Mass Destruction-
Civil Support Teams and the CBRNE Consequence Management Response 
Force?
    Answer. JFCOM, in its role as Primary Joint Force Provider, will 
develop sourcing solutions for the Defense CBRN Response force and two 
Command and Control CBRN Response Elements as defined in the QDR 2010 
and the most recent Guidance for Development of the Force. JFCOM 
ensures that Service training plans are aligned with NORTHCOM Joint 
Mission Essential Tasks (JMET) for consequence management units, and 
will also assess readiness against those JMETs and report that 
assessment to DOD leadership monthly. JFCOM will not employ those 
units, but will provide them in a timely manner to a supported 
combatant commander following the Secretary of Defense allocation 
decision.
                        joint qualified officers
    Question. How do you assess the necessity for and effectiveness of 
the current joint qualification system for military officers, including 
requirements for promotion to general/flag officer rank and 
professional military education?
    Answer. The fundamentals of the Department's professional military 
education programs that provide joint qualifications are sound, but 
there are areas that need improvement. As the Secretary articulated in 
his policy for the Department's Joint Qualified Officer program (DODI 
1300.19), today's joint force requires the largest possible body of 
fully qualified and inherently joint officers suitable for joint 
command and staff responsibilities. Officer career management plans 
that identify, develop, and track high-potential officers for joint 
qualifications are crucial to ensure our best officers are prepared for 
joint duty assignments and eventual promotion to general/flag officer 
rank.
    Question. In your opinion, does the existing framework for joint 
qualification contribute sufficiently to producing military leaders who 
possess the skills, intellect, and motivation to succeed in modern 
warfare, including counterinsurgency and stability operations?
    Answer. As confirmed by the recent House Armed Services Committee 
Oversight and Investigations Subcommittee Report on in-residence 
officer Professional Military Education, the Department's PME system is 
still basically sound. However, there are areas of PME that need 
improving. A significant challenge is that capacity limitations 
preclude every officer from completing this Joint Qualified Officer 
(JQO) requirement within traditional in-residence institutions. One way 
in which the Department is addressing this challenge is by developing 
paths for officers to earn joint qualification through alternative 
joint education, training and experience. These alternatives include 
online training and broader opportunities for officers to earn points 
toward joint qualification through operational experience. Another 
challenge that was confirmed by the HASC study is that curricula change 
is too often reactive rather than anticipatory. This reactive nature of 
PME curricula is particularly challenging in the dynamic mission areas 
of modern warfare such as counterinsurgency and stability operations.
    Question. What is your understanding of the role U.S. Joint Forces 
Command currently plays in overseeing the professional development of 
joint qualified officers, and do you think that role should change?
    Answer. I understand that U.S. Joint Forces Command works closely 
with the Joint Staff in overseeing the professional development of 
joint qualified officers. U.S Joint Forces Command actively supports 
the Chairman and the Joint Staff in development of both the Officer 
Professional Military Education Policy (OPMEP) and Enlisted Joint 
Professional Military Education Policy (EPMEP). U.S. Joint Forces 
Command is actively engaged with the Joint Staff and Offices of the 
Secretary of Defense to develop and implement a sustainable individual 
joint education and training program with the capacity to meet the 
Chairman's intent to ensure the largest possible body of fully 
qualified and inherently joint officers suitable for joint command and 
staff responsibilities.
                     allied command transformation
    Question. Joint Forces Command is responsible for leading the 
transformation of joint U.S. forces in the areas of providing joint 
forces to combatant commanders, joint training, joint interoperability, 
and joint innovation and experimentation. Until September 2009, the 
Commander of Joint Forces Command was dual-hatted as Supreme Allied 
Commander Transformation (SACT).
    What role, if any, does Joint Forces Command currently have in 
assisting SACT in accomplishing his mission of leading the 
transformation of NATO's military structures, forces, capabilities and 
doctrines to improve interoperability and military effectiveness of the 
Alliance and its partner nations?
    Answer. Similar mission sets and geographic co-location, provides 
both JFCOM and ACT an excellent opportunity for U.S. and NATO 
collaboration on joint and coalition warfighting issues. The work JFCOM 
accomplishes in the areas of Joint Experimentation and Joint Training 
directly complements similar efforts being undertaken by ACT. The 
expansion of the NATO/ISAF mission in Afghanistan has increased the 
frequency of cooperation between the two commands. Lesson learned in 
Afghanistan by NATO can be applicable for U.S forces in Iraq and the 
Horn of Africa.
    Question. What actions would you anticipate taking, if confirmed, 
to assist the SACT and his command in improving the capabilities of 
NATO?
    Answer. The co-location of NATO's Transformation Command with JFCOM 
has already proven to be an invaluable resource to the militaries of 
all NATO countries, including the United States. I believe SACT and 
JFCOM enjoy a transparent and collaborative relationship. Within all 
appropriate authorities, my intent is to build upon that positive 
relationship. Additionally, where our missions are complimentary, I 
intend to fully support SACT to improve our Alliance warfighting 
capabilities.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Commander, U.S. Joint 
Forces Command?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Mark Begich
                   joint pacific alaska range complex
    1. Senator Begich. General Odierno, the Joint Pacific Alaska Range 
Complex (JPARC) is the largest instrumented air, ground, and electronic 
combat training range in the world. Last year, the JPARC was accredited 
and certified by Joint Forces Command (JFCOM) as a Joint National 
Training Capability (JNTC) for command post exercises and field 
training exercises. There are only 33 JNTC certified sites and JPARC. 
If confirmed, please describe the importance of JPARC to training our 
forces and how you see the JPARC utilized in the future.
    General Odierno. I am not familiar enough with the JPARC to speak 
with confidence about this topic. However, if confirmed, I will assess 
the JPARC and answer your question within 90 days of assuming command 
of JFCOM.

    2. Senator Begich. General Odierno, the accreditation and 
certification process also identifies improvements needed in range 
capabilities and identifies measures to mitigate any shortfalls. If 
confirmed, please describe how JFCOM will work with Alaska Command to 
make improvements to the range to mitigate shortfalls identified in the 
accreditation process.
    General Odierno. I am not familiar enough with the JPARC and the 
accreditation and certification process to speak with confidence about 
this topic. However, if confirmed, I will assess the JPARC, and all 
processes, and answer your question within 90 days of assuming command 
of JFCOM.
                                 ______
                                 
            Questions Submitted by Senator Roland W. Burris
                      joint forces command mission
    3. Senator Burris. General Odierno, the JFCOM mission is to provide 
joint forces, training, experimentation, and capabilities for all of 
the unified commanders and joint commands. The requirements for joint 
capable forces will continue to grow as we work to meet our defense 
priorities. What priority will you place on joint qualification and 
education?
    General Odierno. I believe that joint qualification and education 
of our servicemembers is critical to our long-term development, growth, 
and success as a fighting force.
    JFCOM is actively engaged with the Joint Staff and Offices of the 
Secretary of Defense to develop and implement a sustainable individual 
joint education and training program with the capacity to meet the 
Chairman's intent to ensure the largest possible body of fully 
qualified and inherently joint officers suitable for joint command and 
staff responsibilities. As Commander of JFCOM, I plan to assess all of 
the education programs that fall under my area of responsibility to 
ensure that these programs meet the intent of the Secretary of Defense 
and the Chairman.
    Additionally, I will assess the effectiveness of the programs, with 
regards to current and future threats and battlespaces to ensure that 
we are spending our money and our time wisely. I'll make 
recommendations for changes based on that assessment.

    4. Senator Burris. General Odierno, do you see a major role for 
Reserve component forces to assist you in accomplishing your mission?
    General Odierno. In my time as Commanding General of all U.S. 
forces in Iraq, I can speak to the importance of the reserve fighting 
force to our continued success. Thousands of reservists came to the 
fight with a multitude of skill sets that were vital to our ability to 
solve the complex issues facing Iraq. While I still need to become 
better acquainted with the mission of JFCOM, I can say that I do 
believe in the importance of our Reserve component and am sure it will 
help us accomplish out mission there.
                                 ______
                                 
    [The nomination reference of GEN Raymond T. Odierno, USA, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      May 24, 2010.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the U.S. Army to the 
grade indicated while assigned to a position of importance and 
responsibility under title 10, U.S.C., section 601:

                             To be General.

    GEN Raymond T. Odierno, USA, 0000.
                                 ______
                                 
    [The biographical sketch of GEN Raymond T. Odierno, USA, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
           Biographical Sketch of GEN Raymond T. Odierno, USA
Source of commissioned service: USMA.

Military schools attended:
    Field Artillery Officer Basic and Advanced Courses
    U.S. Naval Command and Staff College
    U.S. Army War College

Educational degrees:
    U.S. Military Academy - BS - Engineering
    North Carolina State University - MS - Engineering, Nuclear Effects
    U.S. Naval War College - MA - National Security and Strategy

Foreign language(s): None recorded.

Promotions:

------------------------------------------------------------------------
                Promotions                      Dates of appointment
------------------------------------------------------------------------
2LT.......................................  2 Jun 76
1LT.......................................  2 Jun 78
CPT.......................................  1 Aug 80
MAJ.......................................  1 Dec 86
LTC.......................................  1 Feb 92
COL.......................................  1 Sep 95
BG........................................  1 Jul 99
MG........................................  1 Nov 02
LTG.......................................  1 Jan 05
GEN.......................................  16 Sep 08
------------------------------------------------------------------------


Major duty assignments:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
Oct 76..........................  Jan 78............  Support Platoon
                                                       Leader, later
                                                       Firing Platoon
                                                       Leader, C
                                                       Battery, 1st
                                                       Battalion, 41st
                                                       Field Artillery,
                                                       56th Field
                                                       Artillery
                                                       Brigade, U.S.
                                                       Army Europe and
                                                       Seventh Army,
                                                       Germany
Jan 78..........................  Aug 78............  Survey Officer,
                                                       1st Battalion,
                                                       41st Field
                                                       Artillery, 56th
                                                       Field Artillery
                                                       Brigade, U.S.
                                                       Army Europe and
                                                       Seventh Army,
                                                       Germany
Aug 78..........................  Oct 79............  Aide-de-Camp to
                                                       the Commanding
                                                       General, 56th
                                                       Field Artillery
                                                       Brigade, U.S.
                                                       Army Europe and
                                                       Seventh Army,
                                                       Germany
Nov 79..........................  Jul 80............  Student, Field
                                                       Artillery
                                                       Advanced Course,
                                                       Fort Sill, OK
Aug 80..........................  Dec 80............  Liaison Officer,
                                                       1st Battalion,
                                                       73d Field
                                                       Artillery, XVIII
                                                       Airborne Corps,
                                                       Fort Bragg, NC
Dec 80..........................  Dec 82............  Commander, Service
                                                       Battery, later A
                                                       Battery, 1st
                                                       Battalion, 73d
                                                       Field Artillery,
                                                       XVIII Airborne
                                                       Corps, Fort
                                                       Bragg, NC
Dec 82..........................  May 83............  Assistant S-3
                                                       (Operations), 1st
                                                       Battalion, 73d
                                                       Field Artillery,
                                                       XVLII Airborne
                                                       Corps, Fort
                                                       Bragg, NC
Jun 83..........................  May 84............  S-3 (Operations),
                                                       3d Battalion, 8th
                                                       Field Artillery,
                                                       XVIII Airborne
                                                       Corps, Fort
                                                       Bragg, NC
Jun 84..........................  Aug 86............  Student, North
                                                       Carolina State
                                                       University,
                                                       Raleigh, NC
Sep 86..........................  Jun 89............  Nuclear Research
                                                       Officer, later
                                                       Chief,
                                                       Acquisition
                                                       Support Division,
                                                       Defense Nuclear
                                                       Agency,
                                                       Alexandria, VA,
                                                       later detailed as
                                                       Military Advisor
                                                       for Arms Control,
                                                       Office of the
                                                       Secretary of
                                                       Defense,
                                                       Washington, DC
Jun 89..........................  Jun 90............  Student, U.S.
                                                       Naval Command and
                                                       Staff Course,
                                                       Newport, RI
Jul 90..........................  Dec 90............  Executive Officer,
                                                       2d Battalion, 3d
                                                       Field Artillery,
                                                       3d Armored
                                                       Division, U.S.
                                                       Army Europe and
                                                       Seventh Army,
                                                       Germany
Dec 90..........................  Jun 91............  Executive Officer,
                                                       Division
                                                       Artillery, 3d
                                                       Armored Division,
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany and
                                                       Operations Desert
                                                       Shield/Storm,
                                                       Saudi Arabia
Jun 91..........................  May 92............  Executive Officer,
                                                       42d Field
                                                       Artillery
                                                       Brigade, V Corps,
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany
Jun 92..........................  Jun 94............  Commander, 2d
                                                       Battalion, 8th
                                                       Field Artillery,
                                                       7th Infantry
                                                       Division (Light),
                                                       Fort Ord, CA,
                                                       (relocated to
                                                       Fort Lewis, WA)
Jun 94..........................  Jun 95............  Student, U.S. Army
                                                       War College,
                                                       Carlisle
                                                       Barracks, PA
Jun 95..........................  Jun 97............  Commander,
                                                       Division
                                                       Artillery, 1st
                                                       Cavalry Division,
                                                       Fort Hood, TX
Jun 97..........................  Aug 98............  Chief of Staff, V
                                                       Corps, U.S. Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany
Aug 98..........................  Jul 99............  Assistant Division
                                                       Commander
                                                       (Support), 1st
                                                       Armored Division,
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany to
                                                       include duty as
                                                       Deputy Commanding
                                                       General for
                                                       Ground
                                                       Operations, Task
                                                       Force Hawk,
                                                       Operation Allied
                                                       Force, Albania
Jul 99..........................  Jul 01............  Director, Force
                                                       Management,
                                                       Office of the
                                                       Deputy Chief of
                                                       Staff for
                                                       Operations and
                                                       Plans, U.S. Army,
                                                       Washington, DC
Oct 01..........................  Aug 04............  Commanding
                                                       General, 4th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Hood, TX,
                                                       and Operation
                                                       Iraqi Freedom,
                                                       Iraq
Aug 04..........................  Oct 04............  Special Assistant
                                                       to Vice Chief of
                                                       Staff, U.S. Army,
                                                       Washington, DC
Oct 04..........................  May 06............  Assistant to the
                                                       Chairman of the
                                                       Joint Chiefs of
                                                       Staff, Office of
                                                       the Joint Chiefs
                                                       of Staff,
                                                       Washington, DC
May 06..........................  Feb 08............  Commanding
                                                       General, III
                                                       Corps/Commander,
                                                       Multi-National
                                                       Corps-Iraq,
                                                       Operation Iraqi
                                                       Freedom, Iraq
Feb 08..........................  Sep 08............  Commanding
                                                       General, III
                                                       Corps and Fort
                                                       Hood, Fort Hood,
                                                       TX
Sep 08..........................  Dec 09............  Commander, Multi-
                                                       National Force-
                                                       Iraq, Operation
                                                       Iraqi Freedom,
                                                       Iraq
Jan 10..........................  Present...........  Commander, U.S.
                                                       Forces-Iraq,
                                                       Operation Iraqi
                                                       Freedom, Iraq
------------------------------------------------------------------------


Summary of joint assignments:

------------------------------------------------------------------------
                                         Dates               Rank
------------------------------------------------------------------------
Nuclear Research Officer, later   Sep 86-Jun 89.....  Captain/Major
 Chief, Acquisition Support
 Division, Defense Nuclear
 Agency, Alexandria, VA, later
 detailed as Military' Advisor
 for Arms Control, Office of the
 Secretary of Defense,
 Washington, DC.
Assistant to the Chairman of the  Oct 04-May 06.....  Lieutenant General
 Joint Chiefs of Staff, Office
 of the Joint Chiefs of Staff,
 Washington, DC.
Commander, Multi-National Corps-  Dec 06-Feb 08.....  Lieutenant General
 Iraq, Operation Iraqi Freedom,
 Iraq/Commanding General, III
 Corps.
Commander, Multi-National Corps-  Sep 08-Dec 09.....  General
 Iraq, Operation Iraqi Freedom,
 Iraq.
Commander, U.S. Forces-Iraq,      Jan 10-Present....  General
 Operation Iraqi Freedom, Iraq.
------------------------------------------------------------------------


Summary of operations assignments:

------------------------------------------------------------------------
                                         Dates               Grade
------------------------------------------------------------------------
Executive Officer, Division       Dec 90-May 91.....  Major
 Artillery, 3d Armored Division,
 U.S. Army Europe and Seventh
 Army, Operations Desert Shield/
 Storm, Saudi Arabia.
Deputy Commanding General for     Apr 99-Jun 99.....  Brigadier General
 Ground Operations, Task Force
 Hawk, Operation Allied Force,
 Albania.
Commanding General, 4th Infantry  Apr 03-Mar 04.....  Major General
 Division (Mechanized),
 Operation Iraqi Freedom, Iraq.
Commander, Multi-National Corps-  Dec 06-Feb 08.....  Lieutenant General
 Iraq, Operation Iraqi Freedom,
 Iraq/Commanding General, III
 Corps.
Commander, Multi-National Force-  Sep 08-Dec 09.....  General
 Iraq, Operation Iraqi Freedom,
 Iraq.
Commander, U.S. Forces-Iraq,      Jan 10-Present....  General
 Operation Iraqi Freedom, Iraq.
------------------------------------------------------------------------

U.S. decorations and badges:
    Defense Distinguished Service Medal (with Oak Leaf Cluster)
    Distinguished Service Medal (with Oak Leaf Cluster)
    Defense Superior Service Medal
    Legion of Merit (with five Oak Leaf Clusters)
    Bronze Star Medal
    Defense Meritorious Service Medal
    Meritorious Service Medal (with three Oak Leaf Clusters)
    Army Commendation Medal
    Army Achievement Medal
    Combat Action Badge
    Office of the Secretary of Defense Identification Badge
    Joint Chiefs of Staff Identification Badge
    Army Staff Identification Badge
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by GEN Raymond T. 
Odierno, USA, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Raymond T. Odierno.

    2. Position to which nominated:
    Commander, Joint Forces Command.

    3. Date of nomination:
    May 24, 2010.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 8, 1954; Dover, NJ.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Linda Marie Odierno (Maiden Name: Burkarth).

    7. Names and ages of children:
    Anthony, 31; Kathrin, 29; Michael, 23.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational or other institution.
    None.

    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    American Legion (Member), Association of the U.S. Army (Member), 
4th Infantry Division Association (Member), 8th Field Artillery 
Regimental Affiliation (Member), the 9th Infantry Regiment Association 
(Member), and the 1st Cavalry Division Association (Member).

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes, I do.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes, I do.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                            Raymond T. Odierno, General, U.S. Army.
    This 24th day of May, 2010.

    [The nomination of GEN Raymond T. Odierno, USA, was 
reported to the Senate by Chairman Levin on June 29, 2010, with 
the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on June 30, 2010.]
                              ----------                              

    [Prepared questions submitted to LTG Lloyd J. Austin III, 
USA, by Chairman Levin prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. Not at this time. The integration of joint capabilities 
under the Goldwater-Nichols Act has been a success. The integration of 
our military forces continues to improve and we are more interoperable 
today than ever in our Nation's history. This achievement has been 
remarkable. The next step is to ensure the ability of military and 
civilian departments to work closely together to foster whole-of-
government approaches to address concerns of national interest.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. Not at this time. However, I do believe that there are key 
principles of teamwork, cohesion, and interoperability that could be 
applied to enhance a whole-of-government approach to today's 
challenges.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commander, U.S. Forces-Iraq?
    Answer. U.S. Forces-Iraq (USF-I) is the military component of the 
U.S.-Iraq bilateral relationship, responsible for defense and security 
cooperation. Its mission is to strengthen security and stability in 
Iraq and to support Iraq's continued development as a sovereign, 
stable, and self-reliant strategic partner and thereby contribute to 
peace and stability in the region.
    The Commanding General of USF-I commands the U.S. military forces 
within Iraq and is responsible for all military activities in Iraq 
conducted in support of the U.S. Ambassador and U.S. objectives. He 
provides the political-military interface with the U.S. Embassy and 
Government of Iraq and is responsible for strategic and operational 
issues affecting security and stability in Iraq. USF-I is under the 
Operational Control of U.S. Central Command (CENTCOM). USF-I conducts 
operations in support of the Government of Iraq, U.S. Mission, and 
other international organizations.
    Question. What are the differences between the duties and functions 
of the Commander, U.S. Forces-Iraq and the Commander, Multi-National 
Corps-Iraq (MNC-I)?
    Answer. When I served as the Commander of MNC-I, an operational 
headquarters, it fell under Multi-National Force-Iraq (MNF-I), a 
strategic headquarters. Since that time MNF-I, MNC-I, and the Multi-
National Security Transition Command-Iraq headquarters have been 
combined to form the USF-I Headquarters. The USF-I Commander's 
responsibilities are substantially broader than those of the Commander 
of the former MNC-I and include national and regional strategic and 
political-military issues. The USF-I Commander also has direct 
responsibility for the missions previously performed by subordinate 
headquarters under MNF-I. This includes operations, training and 
assistance, and strategic engagement which now reside directly within 
the USF-I headquarters.
    Question. What background and experience, including joint duty 
assignments, do you possess that you believe qualifies you to perform 
these duties?
    Answer. My professional military education, operational experience, 
and assignment history over 35 years of service provides a broad 
knowledge and experience base and thorough understanding of what is 
needed to command USF-I in support of the strategic goals outlined by 
the President for the mission in Iraq. Multiple tours of duty in Iraq 
and Afghanistan coupled with service at U.S. CENTCOM and on the Joint 
Staff, have provided invaluable experiences and insights on this 
mission and enabled an appreciation for what is needed to accomplish 
our Nation objectives in Iraq during this transitional time in our 
bilateral relationship.
    A summary of key joint and operational assignments includes:

        <bullet> Assistant Division Commander (Maneuver), 3d Infantry 
        Division (Mechanized), Fort Stewart, GA, and Operation Iraqi 
        Freedom, Iraq
        <bullet> Commanding General, 10th Mountain Division (Light) 
        with duty as Commander, Combined Joint Task Force-180, 
        Operation Enduring Freedom, Afghanistan
        <bullet> Chief of Staff, U.S. Central Command
        <bullet> Commanding General, XVIII Airborne Corps/Commander, 
        Multi-National Corps-Iraq, Operation Iraqi Freedom, Iraq
        <bullet> Director, Joint Staff

    Question. Do you believe that there are any steps that you need to 
take to enhance your ability to perform the duties of the Commander, 
U.S. Forces-Iraq?
    I believe I am fully qualified and positioned to assume this 
important position. If confirmed, I would take steps to establish or 
re-establish relationships across the U.S. and Iraqi Governments, 
academia, and the business world to ensure full access to the most 
current information and diversity of perspectives on the strategic 
issues affecting Iraq and the region.
                                  iraq
    Question. What is your assessment of the current situation facing 
the United States in Iraq?
    Answer.
Overall:
    Iraq is generally secure and a return to levels of violence seen in 
the 2006/2007 timeframe is unlikely as long as all communities continue 
to pursue their goals through the political process. The Iraqi 
Government continues to improve its capability to provide security, 
essential services, effective governance, and a functioning legal 
system.
Security:
    Security incidents are the lowest on record and continue to 
decline. Although Iraqi and U.S. operations have eroded the strength 
and capability of most insurgent and terrorist groups, extremist groups 
still retain the will and a capability to conduct attacks. In 
particular Al Qaeda in Iraq (AQI) remains capable of high-profile 
attacks that damage public perceptions of stability in Iraq; however, 
the group lacks sufficient popular support to achieve its strategic 
goals of toppling the Iraqi Government and establishing a base for a 
new caliphate. The Iraqi security forces are continuing to develop 
their capability and capacity but remain reliant on U.S. enabling 
capabilities such as logistics, intelligence, and advisory and training 
assistance.
Governance:
    Iraq conducted a successful national election in March 2010, but 
political accommodation remains uneven. Mutual distrust among ethno-
sectarian groups limits progress in resolving major issues such as 
control of hydrocarbon resources, revenue sharing, and the relationship 
between Baghdad and the regions and provinces. An inclusive, popularly 
accepted new government would be a key indicator of Iraq's ability to 
eventually overcome these challenges, while prolonged government 
formation would likely perpetuate policy paralysis.
    Unresolved Arab-Kurdish issues, including the status of Kirkuk, 
remain a primary concern. Ongoing dialogue among Arab and Kurdish 
leaders, international mediation, the presence of U.S. forces in 
disputed territories and the deferral of controversial issues are 
important factors in helping prevent these disputes from escalating to 
violence.
Development:
    Economic conditions have stabilized but remain dependent on current 
oil prices and levels of production. I am encouraged by recent 
agreements with major international oil companies to expand the 
development of some of Iraq's largest oil Reserves. Such contracts have 
the potential to create jobs and stimulate growth. However, corruption, 
inadequate infrastructure and essential services, and a poor business 
environment remain obstacles to investment and hinder economic 
diversification.
    Question. What do you believe are the most important steps that the 
United States needs to take in Iraq?
    Answer. We need to address the primary areas of risk to stability 
in Iraq. A key to this effort will be support for the transition of the 
national leadership resulting from the recent elections and the 
establishment of effective relationships with the new Iraqi Government. 
The results of this election and the potential for an inclusive 
coalition government offer an opportunity to help Iraq move toward 
national unification and a national vision. We need to assist in the 
continued development of effective ministries to enable the Iraqi 
Government to appropriately meet the needs of the people and maximize 
their economic potential. We need to support efforts to develop 
positive strategic relationships between the Iraqi Government, its 
regional neighbors, and the United States. We need to support efforts 
to implement enduring solutions to Arab-Kurd issues. Security and 
stability are foundational requirements and necessary conditions for 
progress in these areas. Capable, professional Iraqi security forces 
are a prerequisite and our ability to effectively train, advise, and 
equip them is key.
    Question. In your view, what are the major challenges that confront 
the Commander, U.S. Forces-Iraq?
    Answer. The Commander USF-I will be faced with supporting the 
establishment of a new government and establishing relationships with 
new national leaders. The government formation process will span a 
period of months and potentially create a significant lapse in 
governing functions. This will undoubtedly create some degree of 
degradation in services to the people and legislative actions.
    The issues along the disputed internal boundary with the Kurdish 
Regional Government remain unresolved and the associated Arab-Kurd 
tensions remain a significant challenge. The underlying economic, 
social, and security issues must be addressed to achieve an enduring 
solution.
    The establishment of constructive relationships between Iraq and 
its regional neighbors is required for long term regional stability. 
Diplomatic efforts to foster these relationships and counter malign 
external influences will be key to U.S. interests in the region.
    The major challenge is managing and communicating risk during the 
responsible drawdown and transition to full Iraqi sovereignty thereby 
ensuring that internal and external violent forces do not threaten the 
security environment.
    Question. If confirmed, what broad priorities would you establish 
and what actions would you initially take as Commander, U.S. Forces-
Iraq?
    Answer. If confirmed, my priorities and initial actions would 
center around the essential elements of the mission and the key areas 
of risk. This would include sustaining the gains in security and 
stability, mitigating Arab-Kurd tensions, continuing the development of 
effective, professional Iraqi security forces, establishing positive 
relationships with the Iraqi Government, maintaining a whole-of-
government approach and productive integration with U.S. Embassy-
Baghdad efforts, protecting U.S. forces and activities, and managing 
the responsible drawdown of U.S. forces in accordance with the 
President's guidance.
                            lessons learned
    Question. What were the major lessons that you learned from your 
experience as Commander, Multi-National Corps-Iraq, that are most 
applicable to the duties you would assume if confirmed?
    Answer. A major lesson is that our counterinsurgency doctrine is 
sound and that the true center of gravity is the Iraqi people. To hold 
our gains we needed to stay among the people. To achieve long-term 
success we needed to have Iraqi security forces capable of holding 
those gains. This requires partnership based on mutual trust. That 
partnership had to extend across the Iraqi security forces, into the 
ministries, and throughout the Government of Iraq.
    A second lesson is that there must be a whole-of-government 
approach to operations in Iraq. A purely military approach is 
inadequate. Unity of effort amongst the interagency must be a top 
priority. Establishing effective relationships and partnerships are 
critical to accomplishing our national objectives. It is through 
military to military partnership that we maximize the development of 
the Iraqi security forces' capabilities, maintain situational 
awareness, and achieve common operational objectives.
    Question. What do you consider to be the most significant mistakes 
the United States has made to date in Iraq?
    Answer. We did not recognize and address the reasons for the rapid 
growth in the level of political disenfranchisement of the Iraqi people 
that led to the insurgency. This allowed extremist groups to establish 
themselves and gain support of the population.
    We failed early on to appreciate the requirements and adequately 
resource our forces and civilian agencies in Iraq with the appropriate 
capabilities that would enable them to work government formation and 
reconstruction tasks.
    We began to transition missions and responsibilities to the 
Government of Iraq and Iraqi security forces before they had adequate 
capacity to effectively govern and secure the population resulting in 
significant instability and ethno-sectarian violence that was exploited 
by extremist groups.
    Question. Which of these mistakes, if any, still impact U.S. 
operations, and what corrective action, if any, will you take if 
confirmed?
    Answer. I believe the evolution of our resourcing, force posture, 
doctrine, and operating procedures have effectively addressed these 
issues over time.
                     u.s. force reductions in iraq
    Question. By the end of August 2010, U.S. forces are expected to 
number at or below 50,000 troops primarily involved in training and 
equipping Iraqi security forces, force protection, and targeted counter 
terrorism operations. All U.S. forces are scheduled to depart by the 
end of December 2011.
    Do you believe that there is a purely military solution in Iraq, or 
must the solution be primarily a political one?
    Answer. Iraq requires a U.S. whole-of-government effort in support 
of our strategic relationship. The capabilities U.S. Government 
civilian agencies and international organizations provide are essential 
to progress in national unification, development of Iraq's Government, 
and the establishment of normalized strategic relations within the 
region and the rest of the international community.
    Question. In your view, what conditions on the ground in Iraq would 
allow for a recommendation to make further reductions in U.S. forces?
    Answer. If confirmed I would continually assess the operational 
environment and based on this assessment, I would shape the size of the 
force. It is possible that the environment could change allowing a 
recommendation for early troop reductions to occur. Examples of such 
conditions are:

        <bullet> Regional diplomatic progress that helps Iraq secure 
        its borders and decreases malign external influence.
        <bullet> The beginnings of a resolution of Arab-Kurd issues 
        including disputed internal boundaries, status of Kirkuk, and 
        hydrocarbons revenue distribution.
        <bullet> A significant increase in the capability and capacity 
        of national, provincial and local Iraqi Governments that 
        results in a marked increase in stability and the provision of 
        essential services.
        <bullet> An increase in the capability of Iraqi security forces 
        ahead of programmed development.

    Question. In your view, what is the risk, if any, associated with 
the delay or inability of the Iraqi's to form a government after 
certification of this year's election results?
    Answer. I am encouraged by recent signs of progress in the seating 
of the government and it appears that all sides are committed to a 
political resolution of the stalemate. Prolonged government formation 
is likely to delay movement on major policy issues and, over time, 
diminish Baghdad's capacity to improve the delivery of services. 
However, as long as all groups remain engaged in negotiations, Iraqis 
will probably tolerate a protracted government formation period. An 
inability to form a government, or marginalization of the Sunni Arabs 
or Sadrists in the new government, could result in broad cynicism about 
the political process and halt or reverse the generally positive 
trajectory of political accommodation in Iraq.
    Question. Do you believe that compromise among Iraqi political 
leaders is a necessary condition for a political solution?
    Answer. Yes. I think that an overwhelming majority of Iraq's 
political leaders are committed to compromise and realize that in order 
for the new government to be accepted it must be inclusive.
    Question. What do you believe will induce Iraqi political leaders 
to make the compromises necessary for a political solution?
    Answer. Political leaders appear dedicated to peaceful government 
transition in accordance with their constitution. Diplomatic engagement 
encouraging adherence to constitution procedures reinforces political 
leaders obligations to the people and the Nation. Key leaders of all 
Iraqi political blocs recognize, and have publicly called for, 
inclusiveness in the next government. This recognition is the key for 
Iraqi political leaders to make the compromises necessary for a 
political solution.
    Question. What leverage does the U.S. have in this regard?
    Answer. Our strategic relationship with the Iraqi Government and 
the Iraqi people, and our continued commitment and support for their 
development is a key lever. Iraqis perceive the U.S. to be an honest 
broker among all the players in government formation and value our 
role. The U.S. has and will continue to advocate for an inclusive and 
representative government that works on behalf of all the Iraqi people. 
In the longer term, our commitment to developing a broad strategic 
relationship with Iraq through the U.S.-Iraqi Strategic Framework 
Agreement sustains our credibility as a strategic partner in Iraq's 
future.
    Question. Earlier this year, current U.S. Forces--Iraq commander 
General Raymond Odierno stated that, based on the reasonably high voter 
turnout and low-level of violence during the Iraqi elections, U.S. 
forces are still on track to end its combat mission and continue the 
withdrawal of troops. According to General Odierno, ``Only a 
catastrophic event would keep us from doing that now.''
    Do you agree with General Odierno's assessment that the U.S. troop 
drawdown plan remains on track for August and beyond?
    Answer. Yes. I agree with General Odierno's assessment.
    Question. What, in your view, are the greatest remaining risks to 
the successful transition of the mission in Iraq and withdrawal of U.S. 
forces as planned and required by the Security Agreement, and what 
would you do, if anything, to mitigate these risks?
    Answer. The greatest remaining risks to the successful transition 
include continued communal rivalries across sectarian lines, the 
insufficient capacity of the Iraqi Government to provide for its 
people, violent extremist organizations, and malign influence from 
external countries. These risks cannot be mitigated by USF-I alone. 
They will require a whole of U.S. Government and Iraqi Government 
approach. This would include adequate funding for the continued 
development of the Iraqi security forces and the tasks associated with 
the transition to a State Department lead in Iraq.
                         intercommunal conflict
    Question. Over the last 2 years, civilian and military leaders in 
Iraq have noted that the conflict there has evolved and that, although 
there is still terrorism and insurgency, the greatest current threat is 
the potential intercommunal conflict over power.
    In your view, what have been the most important aspects of the 
enduring and changing fundamental nature of the conflict in Iraq?
    Answer. The absence of a shared national vision and development of 
a new political culture compatible with democracy represent enduring 
challenges to stability in Iraq. While there currently is not an 
effective insurgency that immediately threatens the survival of the 
Government in Iraq, a lingering Sunni Arab insurgency remains and will 
rise or further recede based upon political successes of the next 
government in integrating the Sunni Arabs into the system. Today, the 
vast majority of Iraqi people want peace, and they want effective 
governance and prosperity. The Iraqi people and their leaders 
increasingly see political accommodation and inclusion as the approach 
for peaceful unification. Some progress has been made in Northern Iraq, 
but Arab-Kurd tensions over Kirkuk and other disputed internal 
boundaries as well as hydrocarbons and revenue sharing remain key 
problems that could trigger violent conflict in the next year.
    Question. How would you recommend that military strategy adapt, if 
any, to the evolving nature of the conflict?
    Answer. I believe the current military approach is sound. As 
always, the commander must continuously assess the situation on the 
ground and adjust operational procedures accordingly. Based on current 
conditions the force is postured to transition its focus from combat to 
stability operations on 1 September 2010. We will partner with, enable, 
advise, train and equip the Iraqis to ensure the continued development 
of their capabilities. The development of effective government 
institutions and the Iraqi security forces is critical for lasting 
stability and security in Iraq. Confidence building measures like those 
we are promoting to ensure peaceful resolution of the disputed internal 
boundaries between the Iraqi Government and Kurdish Regional Government 
are also a key component.
    Question. What is the appropriate role of U.S. forces in response 
to the threat and conduct of intercommunal violence among militant 
groups vying for control, particularly in northern Iraq?
    Answer. The appropriate role of U.S. forces is to partner with the 
Iraqis to develop a non-sectarian army and police force capable of 
maintaining internal security and preventing intercommunal violence and 
a functioning legal system based on the rule of law. Additionally, USF-
I should continue to develop trust and interoperability between the 
Iraqi security forces and those of the Kurdish Regional Government 
through the combined security mechanisms established in northern Iraq. 
Assistance to the Iraqi Government to enhance situational awareness of 
conditions on the ground will reduce the probability of violent 
encounters.
    Question. Recent months have seen an increase in kidnappings and 
murders of non-Muslim religious leaders.
    In your opinion, are non-Muslim religious minorities in Iraq at 
greater risk?
    Answer. Non-Muslim minorities are vulnerable to the same sectarian 
tensions that exist throughout Iraq. Insurgent and militant groups 
continue to attempt to ignite ethno-sectarian violence though recent 
attacks and have failed to this point. The Iraq Constitution affords 
minorities the right of protection, and I believe that the Iraqi 
Government has made efforts to ensure their protection and that many 
Iraqis recognize minority rights.
    Question. Are there any groups that are particularly vulnerable?
    Answer. I believe non-Muslims, particularly Yazidis and Chaldean 
Christians are more vulnerable in certain distinct areas of Iraq, 
primarily in the central and northern portions of the country. 
Christians remain a target for AQI and historically they have been 
targeted in Mosul. The bombing of a bus with Christian students in 2010 
highlights the persistent threat posed by AQI. AQI has also attacked 
members of Iraq's Yazidi minority using suicide vests and vehicle borne 
improvised explosive devices. It is important to note, however, that 
every ethnic group in Iraq has been the victim of kidnappings and 
murders.
    Question. If so, what is the appropriate role, if any, for the U.S. 
military in addressing their vulnerability?
    Answer. This requires an Iraqi solution and commitment. We would 
advise and assist the Iraqi Government and the Iraqi security forces to 
provide equal protection and enforce minority rights of protection 
under the rule of law. As the institutions of the Iraqi Government 
strengthen and grow increasingly capable of providing security for all 
of its citizens, the threats to non-Muslim religious minorities will 
diminish.
                        confronting the militias
    Question. Based on your understanding, is the Iraqi Government 
taking the steps it must to confront and control the militias?
    Answer. Through a combination of security operations and engagement 
policies, the Iraqi Government is working to manage the challenges 
presented by Sunni and Shia militia groups. Programs like the Sons of 
Iraq aim to integrate former Sunni Arab insurgents into the government 
or security forces or retrain them for other professions. 
Reconciliation initiatives have also contributed to Muqtada al-Sadr's 
decision to suspend his Jaysh al-Mahdi militia. However, some terrorist 
groups, such as Kataib Hizballah, are more difficult for the Iraqi 
Government to target because they operate covertly and are backed by 
Iran.
    Question. What role would you expect to play on this issue, if 
confirmed?
    Answer. I believe our role would be to support the Iraqi 
Government's anti-militia policies, and improve the stability of Iraq 
in order to negate the conditions which generate support for militia 
groups. We would do this by continuing to develop the capabilities and 
professionalism of the Iraqi security forces and by encouraging 
inclusive political processes. Our intelligence capabilities also 
contribute significantly to this effort as Iraq's capabilities continue 
to grow. I would continue to monitor militia groups and provide 
recommendations to the Iraqi Government to address this issue.
                    long-term security relationship
    Question. If confirmed, what actions, if any, would you take to 
ensure an effective and efficient transition from the current military 
mission through December 2011 to a long-term security relationship with 
Iraq?
    Answer. Along with the U.S. Ambassador to Iraq, we will continue to 
work with the Iraqi Government, via the Strategic Framework Agreement, 
to build a long term security relationship with Iraq. In the short-
term, I would continue the progress made in developing the Iraqi 
security forces through our training and foreign military sales. As 
leadership for the U.S. mission in Iraq transitions from USF-I to 
Embassy Baghdad, I will continue to support planning for a robust 
Office of Security Cooperation under Chief of Mission authority. The 
Strategic Framework Agreement serves as the cornerstone of our 
partnership with Iraq and I would continue efforts through the Joint 
Coordinating Committees to solidify our long-term security relationship 
with Iraq.
    Question. If confirmed, what actions, if any, would you take 
immediately or in the near-term to build a standard security 
cooperation relationship with Iraq for long-term military sales and 
support such as the United States has with many other nations in the 
region and around the world?
    Answer. After I have made an assessment I will work with the 
Ambassador, CENTCOM, and our Iraqi partners to develop a security 
relationship based on U.S. interests which contributes to regional 
security and stability.
                         iraqi security forces
    Question. In your view, what are the minimum essential capabilities 
required by the Iraqi security forces in order to assume full and 
independent responsibility for the internal security of their nation?
    Answer. It is essential that the Iraqi people feel safe and believe 
that their police, army, and border forces provide them with an 
acceptable level of security. The Iraqi security ministries, 
institutions, and forces must be able to work together to secure the 
population and critical infrastructure; conduct basic manning, 
training, and equipping functions; support and enforce the rule of law; 
conduct operational level command and control; and sustain their 
respective forces.
    Question. What is your understanding of the level of agreement or 
disagreement, if any, on the definition of these minimum essential 
capabilities between the Government of Iraq, Ministry of Defense, and 
U.S. Forces-Iraq?
    Answer. I believe there is common understanding and agreement by 
all parties of what the Iraqi security forces must be able to do in 
order to assume full and independent responsibility for the internal 
security of their nation.
    Question. If there is disagreement between Iraq and the United 
States on the minimum essential capabilities required for Iraqi 
security forces, how would you propose to resolve this challenge if 
confirmed?
    Answer. We would routinely assess capabilities and maintain an 
ongoing dialog with the Iraqi leadership on missions, threats, 
readiness, and requirements. Through this partnered process, I would 
convey my assessments and best military advice. Experience has shown 
they have an appreciation for our capability assessment methodologies 
and understand the process to be very mature, based in a regional 
security context, and not a direct U.S. force comparison.
    Question. What is your understanding of the state of training and 
equipping of Iraqi security forces?
    Answer. Due in large part to USF-I's tremendous efforts to date, I 
believe the Iraqi security forces are now functioning well as an 
internal security force, and all organizations are striving to reach 
their minimum essential capability objectives. Within the MoD, the 
Iraqi Army is functioning well as a counterinsurgency force. The Iraqi 
Navy is providing point defense for both of the country's off-shore oil 
terminals and is on track to achieve its objectives. The Iraqi Air 
Force has shown significant improvements in accessions, training, and 
ground support. Within the MoI, both the Federal Police and Oil Police 
are assessed as operationally capable while the Provincial Police and 
Border Police have shown progress in performing their security 
functions.
    Question. What is your assessment of Iraqi security forces progress 
toward assumption of full responsibility for internal security?
    Answer. While we are witnessing Iraqi security forces that are 
increasingly independent and capable of providing internal security 
much work remains to be done. Continued U.S. efforts to train, advise 
and equip the Iraqi security forces will be required to meet the 
President's guidance and vision for a sovereign, stable, and self-
reliant Iraq. Without the continued support of the entire U.S. 
Government, including Congress, we put the achievement of our Nation's 
objectives for Iraq at risk
    Question. In your view, what is the importance, relative priority, 
and urgency, if any, of the Iraqi security forces developing the 
capability to defend its borders and airspace from external threats?
    Answer. In order to establish its legitimacy, both with its own 
population as well as with its neighbors, a sovereign nation must be 
able to defend and enforce its own borders and airspace from external 
threats. Iraq is no exception to this, as such, I consider this issue 
to be vital. Iraq is particularly vulnerable to border violations due 
to the malign intentions of some of its neighbors. We also recognize 
that there will be gaps in Iraq's ability to enforce its own airspace 
for some time to come. Both of these issues will require our continued 
attention and assistance to mitigate.
    Question. What is the appropriate role of U.S. forces, if any, in 
supporting the development of this capability with training, equipment, 
or other resources?
    Answer. Through training, advising, and assistance efforts, USF-I 
has and will continue to play a critical role in the development of the 
Iraqi security forces' capacity and capability. While we recognize that 
some gaps will exist when we withdraw, particularly in their ability to 
defend against external threats, we will make every effort to mitigate 
the risks associated with those gaps.
    Question. How would you characterize the performance of Iraqi 
forces in the conduct of security operations during and since the 
elections earlier this year?
    Answer. We are seeing Iraqi security forces that are increasingly 
capable of conducting counterinsurgency operations and providing 
internal security for the population of Iraq--a fact that was 
highlighted by their performance during the March elections. Their 
actions since the elections have also been critical to maintaining the 
relatively low level of violence that we have witnessed during the 
critical period of government formation.
    Question. As U.S. forces are withdrawn, are Iraqi Army units 
assuming the areas and missions of these units?
    Answer. Iraqi units have the lead for security throughout the 
country. U.S. forces and Iraqi Army units work together to ensure that 
as U.S. units move the Iraqi Army is prepared to assume responsibility.
    Question. If so, are gains in reduced violence and increased 
stability achieved by U.S. forces being effectively maintained in the 
areas for which Iraqi Army forces have assumed responsibility?
    Answer. Yes. Iraq's security environment remains stable at 
historically low levels of violence. The Iraqi security forces continue 
to lead the security efforts in Iraq and to disrupt the violent 
extremists networks.
    Question. What is your understanding of the ability and commitment 
of Iraqi security forces to adequately maintain the readiness of the 
equipment they have been given or purchased?
    Answer. My understanding is that over the past year, the two 
security ministries have made some progress in developing both 
infrastructure and capacity, but logistics and sustainment remain areas 
for continued focus. Supporting the maturation of the Iraqi supply and 
maintenance system, training a cadre of Iraqis to sustain and maintain 
their own equipment, and working to increase emphasis across the Iraqi 
leadership will ultimately result in an effective force. I believe the 
Iraqi security forces' leadership has an increasing appreciation for 
their shortfalls and will want our continued assistance to improve 
their strategic, operational, and tactical logistics systems.
    Question. If confirmed, what action would you take, if any, to 
expand the development of logistics capabilities and a commitment to a 
culture of maintenance within the Iraqi security forces to ensure that 
the equipment they have been provided is maintained and ready to meet 
their security needs and protect the investment of billions of U.S. and 
Iraqi dollars over the years?
    Answer. I would continue with our detailed efforts, and fully 
support the priority the Iraqis have placed on getting their logistics 
capability to a higher level. The U.S. has the best military 
logisticians in the world, and our example and mentorship for the Iraqi 
security forces' leaders have been key to improving Iraqi capabilities 
and leader competency. As commander of MNC-I, I took on the task of 
emphasizing the importance of logistics competency with the senior 
Iraqi security forces leadership during visits to Iraqi units, in 
senior commander forums, and with the national leaders. I would 
continue this effort if I return as the commander of USF-I.
    advise and assist brigades and military/police transition teams
    Question. In your view, does the size, structure, number, and 
operating procedures for U.S. Advise and Assist Brigades and Military 
and Police Transition Teams embedded with Iraqi security forces need to 
be changed in any way? If so, what would you recommend?
    Answer. As the MNC-I Commander I played a key role in the 
development of the size, structure, number, and operating procedures 
for U.S. Advise and Assist Brigades and am pleased to see that they are 
performing well. These organizations as well as the embedded Transition 
Teams provide the appropriate flexibility, partnership capacity, 
mobility, and force protection for the evolving conditions in Iraq. 
Adaptations will be addressed as conditions on the ground and feedback 
from tactical leaders dictate. Part of my responsibility is to 
recognize when change is needed and convey that to our Service 
institutions so they can responsively adapt to meet USF-I requirements.
    Question. What is your view of the potential transition of this 
mission to contractors?
    Answer. If confirmed, I would thoroughly assess the viability of 
contractors doing these type missions but I think this could be a 
viable option. I believe the best approach would be military led, 
managed, and directed training teams in which contractors provide 
instruction, subject matter expertise, and team/individual skills 
training.
    Contractors in a supporting versus lead role is appropriate in many 
if not most cases for military/police training. Based upon our 
department's recent experience, we utilize highly skilled, former and 
retired U.S. military and U.S. law enforcement personnel as contractors 
who are (often) Operation Iraqi Freedom experienced and have the 
requisite military and police skills. We can leverage contracts and 
contractors to accomplish this training mission by keeping a military 
to military or military to police relationship as the organizing and 
leadership principle that directs the training goals and objectives.
    The key to success in this effort as in almost all contracted 
support efforts is oversight. Oversight starts with adequate numbers of 
well trained contracting officer representatives. If we were to pursue 
this, ensuring we have the right oversight personnel and processes in 
place to monitor contractor performance would be one of my biggest 
priorities.
    Question. What in your view is the appropriate distribution of 
responsibility and resources for the security assistance, train, 
advise, and equip mission between special operations forces and general 
purpose forces in Iraq?
    Answer. I think the distribution is based on the nature of the 
security environment and the current capability of the Iraq special 
operations and general purpose forces. USF-I's Deputy Commanding 
General for Advise and Training has responsibility to assess both of 
these Iraqi forces, and provide recommendations to the USF-I Commander 
on any re-distribution. From my understanding, the current plan for 
distribution of resources is effective and producing good results. I do 
foresee the potential to adjust the ``distribution'' in the future, but 
I am not in a position now to give specific recommendations.
    Question. What is your understanding of how the Army is ensuring 
that general purpose forces are properly trained for the advise and 
assist or transition team mission, to include dissemination of 
``lessons learned'' to incoming brigades and teams?
    Answer. Our Army is doing a tremendous job in providing trained and 
ready forces for Iraq. The Army adapted quickly to these requirements 
and is meeting USF-I's requirements and continuously working to improve 
their procedures based on deployed unit feedback and USF-I requirements 
and recommendations. If confirmed, I would maintain the active ongoing 
dialog with our Military Services to make sure we properly train our 
servicemembers and their units for our remaining military tasks in 
Iraq.
    Question. If confirmed, what would you recommend in this regard?
    Answer. I foresee a potential requirement to better integrate our 
Transition Teams with the Advise and Assist Brigades. We started this 
initiative when I was last in Iraq, and I suspect we can always improve 
our integration efforts as we learn more lessons and reduce our 
presence. I also believe we can do the same for the integration of U.S. 
civilians into the construct. The civilian transition is a key 
component of our strategy and we must work together by sharing our 
military experiences and best practices with our civilian team members.
                          command and control
    Question. What is your understanding of the lessons learned about 
U.S.-Iraqi command and control of combined operations over the last 
year and especially since the withdrawal of coalition forces from Iraqi 
urban areas?
    Answer. Iraq is an extremely challenging environment in which to 
command control, but over the last several years we have learned 
valuable lessons and instituted many interoperable procedures. The most 
significant of these, which we began in earnest during 2008 and 2009, 
was working hand in hand with our Iraqi counterparts at their national 
and provincial operations centers, as well as in combined joint 
tactical operation centers and outposts throughout Iraq. As we reduce 
our presence at the tactical operations centers we must ensure that we 
maintain or increase our presence at the national and provincial 
centers.
    Question. What concerns, if any, do you have about command and 
control relationships with Iraqi forces in combined operations, and if 
confirmed, what actions would you take, if any, to mitigate challenges 
or improve capabilities in this regard?
    Answer. I do not have any major concerns over the command and 
control relationship with Iraqi forces, but I do foresee the need to 
routinely assess where we are and adjust accordingly as we draw down. 
It is imperative to maintain situational awareness and an active 
advisory capacity as force levels decline.
                             burden sharing
    Question. In your view, what is the appropriate role for the United 
States, and particularly of U.S. Force-Iraq, in reconstruction 
activities in Iraq going forward?
    Answer. In my view the role of USF-I and the United States in 
reconstruction activities needs to remain focused on Iraq's efforts and 
expenditures to improve essential services and infrastructure. USF-I 
plays a role in advising Iraqi counterparts on security implications, 
critical infrastructure protection, and security and support for U.S. 
Government and other international civil development efforts. I am 
encouraged by reports that the Government of Iraq is currently spending 
a significant portion of this year's budget on infrastructure and 
essential services improvements. I think this indicates the 
effectiveness of U.S. advice and that the Iraq Government recognizes 
its importance.
    Question. In your view, what capabilities or support should be the 
highest priorities for U.S. financial assistance to the Iraqi security 
forces?
    Answer. I believe the highest priority for U.S. financial 
assistance to the Iraqi Government should go towards those requirements 
directly related to the establishment of the minimum essential 
capabilities for the Iraqi security forces. Once that effort is 
complete, we should focus our long term security assistance efforts on 
building a credible capability to deter external threats.
    Question. In your view, what capabilities and support for the Iraqi 
security forces should be the sole financial responsibility of the 
Government of Iraq?
    Answer. I believe we should view this as a partnered effort that 
involves a variety of cost-sharing options that eventually leads to a 
long-term security relationship. The Iraqi Government funds the 
preponderance of the Iraqi security forces' costs, but U.S. financial 
assistance is still critical for ensuring that there is no degradation 
of progress.
                        readiness of u.s. forces
    Question. What is your assessment of the readiness of U.S. forces 
that have been deployed and are deploying in support of Operation Iraqi 
Freedom? Have you observed any significant trends or gaps with respect 
to personnel, equipment, or training readiness in units in theater?
    Answer. All forces I observed, inspected, and fought with on 
multiple tours to Iraq were well trained, led, and prepared for the 
mission.
    In my experience in Iraq, any significant gaps in readiness are 
proactively addressed by the Service Chiefs to ensure trained, 
equipped, and prepared forces. If confirmed, I will stay engaged with 
the Service Chiefs to ensure no lapse during our responsible drawdown.
    Question. What are your views on the growing debate over whether 
the Army is putting too much emphasis on preparing for 
counterinsurgency operations and/or too little emphasis on preparing 
for high intensity force-on-force conflict?
    Answer. I believe our current force is very capable of prevailing 
in other conflicts and contingencies that may arise. I believe our 
Nation has the intellectual capital, and institutional and industrial 
capacity to maintain the force we have, and to adapt that force to meet 
future defense and contingency requirements. I think we have adapted 
our Department of Defense and whole-of-government approaches to win the 
wars we are currently fighting with an eye on what the future may 
portend, and with the type capabilities our Nation will require in 
order to meet the security challenges of the future. At the tactical 
level the counterinsurgency fight is equally a force on force, 
controlled violence activity. We have the best trained and equipped 
military in the world, and we have the best, most adaptive and seasoned 
combat leaders in our Nation's military.
                     transition to lead u.s. agency
    Question. As the mission of U.S. military forces in Iraq changes 
and large numbers of troops begin to redeploy, responsibility for 
leading the planning and management of U.S. assistance to the 
Government of Iraq has begun to transition from the Department of 
Defense (DOD) to the Department of State.
    What is your understanding and assessment of the theater's plans 
for this transition?
    Answer. Considerable work has been done over the past year in both 
Washington and Baghdad to ensure the smooth transition from military to 
civilian lead in Iraq. I believe the transition plans, developed 
through the interagency process, are executable. The key to the plan in 
my mind is to synchronize the State Department's assumption of lead 
responsibility with our military troop withdrawal, and for our 
Government to resource the Department of State to accomplish the task. 
A close civil military partnership with the Ambassador and the 
interagency will be critical. If confirmed I would work closely with 
U.S. Embassy Baghdad in the coming months as these plans are put in 
motion.
    Question. What is your understanding and assessment of the progress 
being made toward the completion of this transition?
    Answer. I believe this will be a tough but essential effort. I 
understand that progress is being made, and Department of State and 
other U.S. agency capacity shortfalls are being identified and 
addressed by the administration and Congress. Substantial planning and 
coordination for this transition is ongoing. As an example, more than 
1,000 tasks currently being conducted in Iraq by members of USF-I have 
been analyzed to determine whether they should transition to Embassy 
Baghdad, transition to the Iraqi Government, or be terminated. It is 
this level of detailed planning that will ensure our transition 
success.
    Question. In your view, what are the most significant challenges to 
the efficient and effective transition of these agency roles?
    Answer. Our strategy depends on the development of Iraqi security 
forces that are capable of defending their population against internal 
threats and a robust civilian effort that can sustain the positive 
momentum gained over the last 2 to 3 years. Inadequate resourcing of 
either could have profoundly negative impact on our partnership with 
Iraq and their re-integration into the region. The challenge is 
seamlessly transferring these tasks without degradation in mission 
performance. This requires that the recipient of the transfers has 
sufficient capacity to perform the task.
    Question. If confirmed, what action would you recommend or take, if 
any, to deal with these challenges and ensure an efficient, effective, 
and timely transition?
    Answer. I would maintain constant interaction by teaming with the 
Ambassador and the embassy staff to ensure that all of our transition 
objectives are met in an effective and timely manner. I would provide 
my best military advice on how we can complete the transition 
effectively and efficiently within the scope of U.S. goals for a 
sovereign Iraq.
                          rule of law training
    Question. How important do you consider continued U.S.-supported 
training to Iraqi leaders in establishment of the ``rule of law''?
    Answer. I believe that U.S. supported training to Iraqi leaders in 
establishing the rule of law is critical to the success of the mission 
in Iraq. Establishment of the rule of law is key to providing domestic 
legitimacy to the Government of Iraq. The Iraqi Government must have 
this continued U.S. support to succeed, and I believe this model is an 
example for the entire region.
    Question. What is your understanding and assessment of the impact 
of previous rule of law training initiatives and the current 
organization of U.S. Government-led efforts to foster commitment to the 
rule of law in Iraq?
    Answer. Achieving U.S. objectives in Iraq hinges on advancing gains 
made over the last several years. As a result of previous initiatives, 
the Iraqis have made progress in the development of the rule of law. 
There is still much work to do to ensure that mature, professional 
judicial and criminal justice institutions are in place to complement 
an increasingly capable police force. It will be critical to our 
success in Iraq that the U.S. Government allocates the necessary 
resources to sustain further progress in this area.
    Question. Do you believe that additional effort is needed by U.S. 
military forces and through an interagency approach to develop doctrine 
and resources for rule of law training?
    Answer. I believe sustained effort by U.S. military forces through 
an interagency approach to continue developing doctrine and resources 
for rule of law training is important to our overall objectives and 
that our interagency approach is effective. This type of U.S. sponsored 
activity increases our democratic credentials in the world, and the 
application of this program affords the United States the opportunity 
to improve and refine our doctrine and resources for ``rule of law'' 
training efforts in Iraq, the region, and internationally.
                     sustainment of u.s. commitment
    Question. Based on your knowledge of the Army and its state of 
readiness, how long do you believe the Army can sustain U.S. troop 
levels in Iraq of approximately 50,000 troops at their projected 
operational tempo?
    Answer. I have tremendous confidence in the Army leadership and the 
American people to sustain the force requirements of the drawdown plan. 
All indications to date project a continued withdrawal of our forces in 
Iraq under the current timeline. This drawdown also supports our Army's 
initiative to put the force more in balance and within desired dwell 
rate ratios in order to improve readiness and Army Soldier and Family 
support programs.
                            force protection
    Question. What is your understanding of the status of U.S. forces' 
distribution in partnership with Iraq forces and to small local bases 
throughout the area of operations?
    Answer. Force distribution and force disposition plans focus on 
transferring responsibility to Iraqi Forces, and consolidating and 
protecting U.S. forces at larger bases as we withdraw. The plan is 
being executed under the guidelines that leaders ensure U.S. 
servicemembers are adequately trained and resourced for the mission, 
that they have the authorized rules of engagement that allow for their 
right of self-defense and unit protection, and that leaders implement 
thorough risk assessment and risk mitigation procedures. Also, 
stringent safety procedures for U.S. forces are being practiced and 
strictly enforced by leaders at all levels. Regardless, U.S. forces 
must maintain the logistical capability to conduct independent resupply 
operations throughout the theater.
    Question. If confirmed, how would you ensure the protection of 
those forces and the forces which would have to resupply them on a 
daily basis?
    Answer. Protecting U.S. personnel would be one of my overarching 
priorities. I have confidence in USF-I's base and route consolidation 
plan because it was developed in large measure to provide for 
protection of U.S. forces while we transition responsibility to Iraq, 
and conduct our withdrawal. Equally, the plan focuses on providing 
security to the U.S. civilians who will work in some of these 
locations. The ``hub and spoke'' bases and routes will require 
appropriate resourcing, and constant assessment, adaptation and 
adjustment to maximize force protection of U.S. personnel and conduct 
an effective transition and withdrawal.
                 intelligence support for ground forces
    Question. Since the attacks of September 11, 2001, U.S. Special 
Operations Command and the national intelligence agencies have 
developed effective equipment, tactics, and intelligence dissemination 
practices to target al Qaeda personnel and personnel from other related 
terrorist networks. The effectiveness of these tools and their utility 
for regular ground forces in battling militias and improvised explosive 
device networks are now more widely recognized. As a result, some of 
these tools and capabilities are migrating to Army and Marine Corps 
general purpose ground forces.
    Do you believe that regular Army general purpose ground forces can 
replicate the capabilities developed by special forces?
    Answer. Yes. Our U.S. general purpose forces have adopted many of 
the same technologies and procedures developed by Special Forces. For 
example, our Special Operations Forces developed an intelligence 
gathering, analysis, targeting, exploitation and dissemination process 
that our general purpose forces follow. We also have a greater level of 
integration and sharing at our combined fusion centers that provides 
enhanced intelligence and geo-location capabilities for special and 
general purpose forces.
    Question. What is your understanding of how commanders within U.S. 
Forces-Iraq are attempting to accomplish this?
    Answer. The sharing of tactics, techniques, and procedures is 
active in Iraq, and reinforced by our Service institutions and agencies 
through a variety of web-based information initiatives, and with 
forward deployed support elements in theater. Experience within both 
communities has increased dramatically in the last several years, and 
our forces in the field are receiving the benefit of growing 
institutional knowledge of threats and threat capabilities. An example 
is the Joint Improvised Explosive Device Organization's and their 
deployed Task Force Troy in Iraq. Commanders and leaders at all levels 
are aggressively gathering information and collaborating with deployed 
support agency elements to maintain a qualitative edge in the fight. As 
Commander of MNC-I, we benefited enormously from these efforts, and we 
were able to counter serious threats to our forces. We have also shared 
a tremendous amount of this knowledge and capability with our Iraqi 
partners so they can be more capable and independent. If confirmed, I 
would want to make sure the focus and support is commensurate with our 
withdrawal and the transition to the Department of State.
    Question. In your view, has DOD provided the resources necessary to 
acquire the equipment and intelligence dissemination support to enable 
Army and Marine Corps general purpose ground forces to adopt or adapt 
these tactics, techniques, and procedures?
    Answer. Yes, DOD has been committed to acquiring and fielding these 
resources to our general purpose ground forces. However, as U.S. Forces 
in Iraq continue their drawdown I expect there will be challenges 
meeting USF-I's intelligence needs. If confirmed, I would continually 
assess those needs and the ability to meet them with the capabilities 
available.
                      detainee treatment standards
    Question. Do you agree with the policy set forth in the July 7, 
2006, memorandum issued by Deputy Secretary of Defense England stating 
that all relevant DOD directives, regulations, policies, practices, and 
procedures must fully comply with Common Article 3 of the Geneva 
Conventions?
    Answer. Yes, I agree with the policy set forth in Deputy Secretary 
of Defense England's memorandum of July 7, 2006.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the 
Department of Defense Detainee Program, dated September 5, 2006?
    Answer. Yes, I support the standards of detainee treatment 
specified in the revised FM 2-22.3 and DOD Directive 2310.01E. I 
believe those standards and procedures are correct guidelines and were 
developed based on the hard lessons our forces learned early on in 
Iraq. They are consistent with our American national values.
    Question. Do you share the view of the Judge Advocates General that 
standards for detainee treatment must be based on the principle of 
reciprocity, that is, that we must always keep in mind the risk that 
the manner in which we treat our own detainees may have a direct impact 
on the manner in which U.S. soldiers, sailors, airmen, or marines are 
treated, should they be captured in future conflicts?
    Answer. I believe the rationale for prohibiting inhumane and 
degrading treatment goes far deeper than reciprocity. It is an 
important consideration and I agree it is an element that should guide 
us in the standard of treatment for detainees.
    Question. Do you believe it is consistent with effective 
counterinsurgency operations for U.S. forces to comply fully with the 
requirements of Common Article 3 of the Geneva Conventions?
    Answer. Yes, I believe that it is consistent with effective 
counterinsurgency operations for U.S. forces to comply fully with the 
requirements of Common Article 3. The joint doctrine for 
counterinsurgency operations explains the benefits of complying with 
the standards of the Geneva Conventions and risk associated with 
failure to comply.
                     iraqi state-owned enterprises
    Question. What is your understanding and assessment of the status 
of DOD efforts to help restart Iraqi state-owned enterprises to 
increase employment in Iraq?
    Answer. The Strategic Framework Agreement establishes the 
foundation for building a prosperous, diversified, and growing economy 
in Iraq. These principles are fundamental to achieving both short and 
long-term stability and security. On the tactical level, the 
Commander's Emergency Response Program (CERP), and on the strategic 
level, the Task Force for Business and Stability Operations (TFBSO) are 
utilized toward this end.
    The TFBSO is a great example, and one I am intimately familiar with 
from my last assignment in Iraq. TFBSO was dedicated to revitalizing 
Iraq's economy and creating jobs for Iraqis. TFBSO placed civilians 
with expertise in industrial operations and factory management on the 
ground in Iraq--skills previously absent from the American presence 
there. TFBSO provided training for employees, upgraded equipment, and 
prepared the factories for large-scale private investment, and provided 
the example for greater private investment in Iraq. Other efforts like 
Texas A&M University's in-country agricultural development teams 
improved Iraqi agricultural diversity, capacity, and environmental 
protection responsibilities.
    Programs like these proved vital for commanders at all levels, and 
were a key component in establishing the conditions for our withdrawal, 
and can continue to be a contributor to Iraq's stability and 
development during and after our transition. If confirmed, I will take 
a personal interest in these programs to make sure they are effective.
                             iraqi refugees
    Question. The United Nations estimates that over 2 million Iraqis 
have been displaced, of which 1.8 million have fled to surrounding 
countries while some 500,000 have left their homes to find safer areas 
within Iraq.
    What is your assessment of the refugee problem in Iraq? Are more 
Iraqis returning home?
    Answer. The refugee problem from the Iraq war is a regional 
problem, drawing interest from Syria and Jordan among others. There are 
over 200,000 Iraqi refugees registered with the UN High Commissioner 
for Refugees (UNHCR), and it is likely that there are a significant 
number of unregistered refugees.
    Approximately one million Iraqis remain displaced in Iraq from the 
Saddam era. I do not believe the refugees who are returning home are 
being supported by a mature Iraqi system that fully reintegrates them 
back to their homes, and provides for their basic needs. Ultimately, 
the solution to the problem of Iraqi refugees and internally displaced 
persons is a stable, secure environment where these displaced people 
can reintegrate into Iraqi society and obtain employment.
    Question. Beyond working to improve the security environment in 
Iraq, do you believe that the U.S. military should play a role in 
addressing this issue?
    Answer. USF-I can directly help in this effort by encouraging the 
Iraqi security forces to provide a safe and secure environment. 
Continued U.S. and international effort under the United Nations is 
needed to emphasize to the new Iraqi Government that the successful 
return and reintegration of Iraqi refugees is the Iraqi Government's 
responsibility, in their national interests, and a key component for 
normalized relations with their neighbors.
    Question. What should the role of the U.S. military be, in your 
view, with respect to those Iraqis who are returning to find their 
homes occupied by others?
    Answer. USF-I, in conjunction with Embassy Baghdad, will continue 
to assist the Government of Iraq in addressing the issue of displaced 
persons. It is important to remember that with the implementation of 
the Security Agreement in 2009, the Iraqis assumed sovereignty of their 
country and people. We will continue to advise and assist them as they 
handle these complex issues.
                       special inspector general
    Question. The Special Inspector General for Iraqi Reconstruction 
(SIGIR) conducts comprehensive audits, inspections, and investigations 
which are valuable to Congress.
    If confirmed, what steps, if any, would you take to support the 
audits, inspections, and investigations conducted by the SIGIR?
    Answer. The reports of the SIGIR provides valuable insights to the 
Force Commander, the Ambassador, officials in Washington, and to the 
Government and people of Iraq. I fully supported the activities of the 
SIGIR as the MNC-I Commander and, if confirmed, I would continue to 
embrace this important Congressional body.
                         traumatic brain injury
    Question. Recent press reports allege that there is a lack of 
leadership and policy with respect to the evaluation of and treatment 
for traumatic brain injuries (TBIs) in theater.
    What is your understanding of the policy or policies in place that 
address the needs of deployed servicemembers who have experienced an 
event which could result in TBI or a concussion?
    Answer. I acknowledge traumatic brain injury as a very real medical 
condition, and one that is adversely affecting many of our 
servicemembers who have served in Iraq. I know that our military 
services and medical professionals in and out of the military are 
aggressively pursuing strategies and treatments for this type injury. I 
understand that we are developing clinical care instructions for all 
levels of TBI severity to cover both the deployed, and the non-deployed 
environment which includes mandatory concussion screening. I believe 
the Department's protocol for diagnosing, evaluating, treating, and 
following up on combat related concussion injuries is based on the best 
scientific evidence available, which is being enhanced through ongoing 
research efforts. Emerging DOD guidance on mandatory evaluations and 
rest times after a defined event will help to better address these 
incidents. If confirmed, I would maintain constant attention on this 
issue, and the other issues that affect the health and well being of 
our servicemembers.
    Question. In your view, are these policies effective?
    Answer. In my view, we need to improve compliance with our 
protocols, encourage reporting of signs/symptoms, and stay ever 
vigilant for further improvements in procedures. Clearly in the past, 
we have missed servicemembers that sustained concussions or TBI whether 
because they didn't want to leave their unit or because they or their 
leadership did not understand the importance of being checked out and 
treated early. New DOD guidance will help as it mandates evaluations 
close to the injury and establishes policy, assigns responsibility and 
provides procedures on the medical management of traumatic brain injury 
in a deployed setting. Services and COCOMs have already begun to 
implement this guidance. If confirmed I would be committed to ensuring 
they are effective in Iraq.
                  mental health assessments in theater
    Question. The Army's Mental Health Advisory Team (MHAT) has made 
six separate assessments over the past several years detailing the 
immediate effects of combat on mental health conditions of U.S. 
soldiers deployed to Iraq. The most recent study, MHAT VI, found that 
``soldiers on their third and fourth deployment report lower morale and 
more mental health problems,'' and that stigma continues to prevent 
some soldiers from seeking mental health care. These types of reports 
lend support to the fact that increasing numbers of troops are 
returning from duty in Iraq with post traumatic stress, depression, and 
other mental health problems.
    What is your understanding of the key findings of this and previous 
MHAT assessments, actions taken by the Army to address key findings, 
and the effect of such actions?
    Answer. The MHAT is a great Army program. The results of MHAT VI 
reported that psychological problems and combat exposure in maneuver 
units are significantly lower than every year except 2004 in Iraq. It 
was also reported that multiple deployments and dwell time are 
correlated to mental health issues. There remain barriers to care and 
stigma associated with seeking care although some improvement in stigma 
was documented. The Army has augmented mental health staffing in both 
theaters, particularly Afghanistan where the need was shown to be high. 
In response to the observed need for resilience, in 2008, the Army 
established the Directorate of Comprehensive Soldier Fitness to correct 
the observed gaps in resilience capability. If confirmed, I would focus 
on effective implementation of corrective actions and procedures to 
address the underlining findings, and improve the mental health of our 
servicemembers in Iraq.
    Question. If confirmed, what measures would you support to ensure 
ongoing mental health assessments of U.S. forces in Iraq?
    Answer. I would support all DOD health assessment programs and 
emphasize leaders' roles in creating resilient units through leadership 
training and resiliency training. I would stress access of medical 
assessment teams to all our servicemembers. I would specifically work 
to decrease the perceived stigma of reporting one's own mental health 
concerns to medical personnel.
    Question. Do you have any views on how to best address the mental 
health needs of our troops, in terms of both prevention and treatment?
    Answer. I have great trust and confidence in our dedicated medical 
professionals. I would stay abreast of these issues and 
recommendations, and would work on how to best implement them in Iraq. 
I would emphasize leaders' roles in providing for the mental health 
needs of their servicemembers. I would work to ensure adequate 
staffing, increase access to mental health services, stress the 
importance of resiliency, and insist on positive, proactive leadership.
    Question. Do you believe that mental health resources in theater 
are adequate to handle the needs of our deployed servicemembers?
    Answer. I currently have not had an opportunity to assess all the 
resources available in theater. In previous tours in Iraq I found 
resources to be adequate and effective, but with room for improvement. 
My combat experience also showed me it wasn't necessarily about how 
many medical resources we had, but whether they were at the right 
locations, doing the right procedures. I would follow this approach but 
would not be hesitant to request more mental health resources if 
warranted.
                             sexual assault
    Question. If confirmed as Commander, U.S. Forces-Iraq, you will be 
responsible for ensuring compliance with DOD policies on prevention of 
and response to sexual assaults involving U.S. military and civilian 
personnel in Iraq.
    What lessons did you learn, if any, while implementing sexual 
assault training, reporting protocols, and command awareness while 
serving as Commander, XVIII Airborne Corps and Commander, Multi-
National Corps-Iraq that can help improve any of these policies or 
their implementation in theater?
    Answer. I believe that our policies are effective but this remains 
a core leadership responsibility. Leaders at all level must ensure that 
there is a culture and climate in place that allows victims to come 
forward and that each allegation is taken seriously and investigated 
thoroughly. The implementation of the ``I Am Strong'' campaign will 
help to address the concerns victims have about coming forward.
    Question. What are the unique issues, if any, that you believe need 
to be addressed to ensure that policies on prevention, reporting, 
medical treatment (including mental health care), and victim support 
are available in the operational environment of Iraq?
    Answer. There are several environmental issues in Iraq that have 
bearing on this issue. Forces and bases will be in a fairly continuous 
state of transition. The regular turnover of units and personnel could 
affect the continuity of and quality of care for servicemembers in 
theater. Maintaining the necessary capabilities to address sexual 
assault as we reduce our force structure must be carefully planned for 
to ensure our servicemembers' needs are being met.
    Question. What is your assessment of the adequacy of sexual assault 
prevention and response resources currently available in the U.S. 
CENTCOM area of responsibility?
    Answer. I currently have not had an opportunity to assess all the 
resources available, but during all my previous combat tours in 
CENTCOM, I found it to be adequate and effective, but with room for 
improvement. This is also being addressed in all Service programs like 
the Army's ``I Am Strong'' campaign.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes. I welcome congressional oversight and I look forward 
to a continued relationship.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes. I will always give my best military assessment to our 
Nation's leadership.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as Commander, U.S. Forces-Iraq?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
            Questions Submitted by Senator Roland W. Burris
                       advise and assist in iraq
    1. Senator Burris. Lieutenant General Austin, as you are aware our 
U.S. Forces will complete the drawdown by December 2011 and transition 
to an advise and assist role. It is critical that we accomplish this 
with the utmost efficiency to minimize risks to our military personnel. 
What do you feel is the biggest risk that must be mitigated to ensure 
that the drawdown goes well?
    General Austin. U.S. Forces-Iraq (USF-I) continues partnered 
operations as we conduct a responsible drawdown to no more than 50,000 
forces by August 31, 2010. Assigned forces are currently conducting 
stability operations and will continue to do so until the end of 
mission and drawdown of all forces by December 2011. During that time 
we will continue to train, advise, and equip Iraqi security forces 
(ISF); provide force protection for U.S. military and civilian 
personnel and facilities; assist the ISF in conducting counterterrorism 
operations; and support civilian agencies and international 
organizations in their capacity building efforts. By the end of 2011, 
enduring functions will transfer to the U.S. Embassy-Baghdad, the 
Government of Iraq (GoI), and other international organizations and 
agencies.
    Current risk is anything hindering the political and economic 
development that is essential for Iraq to become a stable, sovereign, 
self-reliant nation that contributes to the peace and security of the 
region. Iraq must develop an inclusive government that represents the 
Iraqi people, provides essential services and security, and 
demonstrates the capacity to address national unity challenges such as 
Arab-Kurd disagreements over disputed internal boundaries. At the same 
time, the country needs to recapitalize its infrastructure while 
developing a business climate that encourages economic development and 
foreign investment, including the establishment of rule of law.
    I am confident that our whole-of-government approach will mitigate 
these risks as we transition to a civilian-led effort. I will work 
closely with the U.S. Ambassador to encourage a smooth and effective 
transition to ensure continued progress in meeting our national 
objectives.

    2. Senator Burris. Lieutenant General Austin, how will you measure 
mission success for the advise and assist units?
    General Austin. Our advise and assist brigades (AABs) directly 
assist ISF as they become increasingly capable of providing for Iraq's 
internal and external security.
    A key measure of mission success for AABs includes their successful 
partnership with the ISF to provide effective security and development 
of the essential capabilities they will require before the end of 2011. 
Another measure is the critical role AABs play in the U.S. interagency 
process with their support of Department of State (DOS)-led provincial 
reconstruction teams. Finally, they provide connectivity as they engage 
with various echelons of Iraqi provincial and regional governments. 
Their capability to maintain situational awareness, support stability 
operations, operate in combined security areas, support 
counterterrorism operations, and maintain training and readiness 
improves as every day goes by. In addition, our AABs work with the ISF 
to enable them to independently manage shortfalls in Iraqi sustainment 
and logistics. We have seen great progress in the ISF's ability to 
perform these functions and I am confident this progression will 
continue.

    3. Senator Burris. Lieutenant General Austin, do you envision a 
larger or smaller role for Reserve component forces?
    General Austin. The Reserve components are key players in U.S. 
military operations in Iraq and around the world. In order to meet our 
national objectives, the Defense Department considers all Services and 
components when responding to Joint Staff and combatant commander 
requests for forces. I envision the role of our reservists and 
guardsmen remaining fairly consistent as we conduct our responsible 
drawdown of forces in Iraq.
                                 ______
                                 
              Questions Submitted by Senator David Vitter
                        state department request
    4. Senator Vitter. Lieutenant General Austin, last week, the 
Associated Press released an article outlining State Department plans 
to form a security force for their continued operations in Iraq 
following our military drawdown. This article cites documents which say 
the State Department wants 24 of the Army's Black Hawk helicopters, 50 
bomb-resistant vehicles, heavy cargo trucks, fuel trailers, and high-
tech surveillance systems. As I'm sure you are aware, this article 
raises concerns about the full transition from military presence to 
civilian presence in Iraq, and whether conditions are such that it can 
be accomplished as planned in 2011. As the nominee for Commander of 
U.S. Forces-Iraq, please describe your thoughts about this State 
Department request.
    General Austin. I believe we are on track to meet the President's 
stated objective of a responsible drawdown of forces by December 2011, 
with a successful transfer of responsibilities to the Government of 
Iraq, the Department of State, and other international organizations. A 
critical part of accomplishing these objectives is a strong partnership 
between myself and the U.S. Ambassador, something to which I am wholly 
committed.
    We have already accomplished a considerable amount of work to 
ensure the transfer of responsibilities will be a smooth one. We must 
take a whole-of-government approach to transition not just 
responsibilities, but the resources required to execute them. It is 
imperative for the U.S. Embassy-Baghdad to be properly resourced for 
the U.S. mission in Iraq to be successful.

    5. Senator Vitter. Lieutenant General Austin, based on your 
previous experience in Iraq and Afghanistan, do you feel that this 
military/security capability is appropriate for State Department?
    General Austin. DOS has a well established capability for providing 
diplomatic security for U.S. missions around the world. That said, the 
Department will face an unprecedented security challenge in Iraq after 
the withdrawal of U.S. forces.
    I believe unique capabilities required to successfully continue the 
mission after departure of U.S. forces should be carefully considered 
and fully resourced using a whole-of-government approach. Such 
resourcing will allow our partners at DOS to pursue sustained political 
engagement and regional diplomacy in support of a peaceful and 
prosperous Iraq.

    6. Senator Vitter. Lieutenant General Austin, will you concur with 
the request?
    General Austin. I believe the U.S. Embassy-Baghdad must be fully 
resourced in order to successfully perform its mission as Iraq becomes 
an increasingly stable, self-reliant sovereign nation. The Department 
of Defense is carefully reviewing the request from DOS to transfer 
military equipment, transportation, convoy support, base life support 
and core logistics services. We will work closely with them to find a 
feasible, whole-of-government approach to fulfilling these 
requirements.

    7. Senator Vitter. Lieutenant General Austin, should this committee 
be concerned that this request represents a veiled assertion that U.S. 
military forces are being withdrawn too quickly, and as such will be 
leaving State Department personnel at risk?
    General Austin. The responsible drawdown of forces currently taking 
place is consistent with the U.S.-Iraq Strategic Framework Agreement 
and gives us sufficient capability as we approach the transition to a 
civilian-led mission in December 2011. I believe this drawdown is 
taking place at an appropriate pace and will not leave U.S. Embassy 
personnel with an inappropriate level of risk.
    In addition, the security situation in Iraq has vastly improved; 
security incidents are the lowest on record and continue to decline. 
Since assuming full responsibility for planning and executing internal 
security in June 2009, Iraqi security forces have continued to improve 
their cability to maintain situational awareness, support stability 
operations, operate in combined security areas, support 
counterterrorism operations, and improve training and readiness of 
their personnel.

                           use of contractors
    8. Senator Vitter. Lieutenant General Austin, what are your views 
on the use of contractors in roles customarily left to the military?
    General Austin. I believe it is appropriate to use contractors in 
roles complementing the Defense Department's effort to provide support 
and services to the mission. Doing so allows commanders to allocate 
more forces for combat and other inherently military operations. This 
has been a critical component of our effort to achieve U.S. objectives 
in Iraq. However, the key to success in this effort, as in almost all 
contracted support efforts, is oversight. As conditions in theater 
evolve I will continually monitor not only force levels but also the 
role of contractors in support of the mission.

    9. Senator Vitter. Lieutenant General Austin, is this a risk in 
Iraq as the drawdown continues?
    General Austin. I do not believe our use of contracted personnel 
leads to an unacceptable level of risk as we conduct our responsible 
drawdown of forces. As USF-I Commander, I will continually evaluate the 
conditions on the ground to determine what composition of forces 
(including contracted personnel) is appropriate for us to achieve our 
national objectives.
                                 ______
                                 
    [The nomination reference of LTG Lloyd J. Austin III, USA, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      May 18, 2010.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the U.S. Army to the 
grade indicated while assigned to a position of importance and 
responsibility under title 10, U.S.C., section 601:

                             To be General.

    LTG Lloyd J. Austin III, USA, 0000.
                                 ______
                                 
    [The biographical sketch of LTG Lloyd J. Austin III, USA, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
          Biographical Sketch of LTG Lloyd J. Austin III, USA
Source of commissioned service: USMA.

Educational degrees:
    U.S. Military Academy - BS - No Major
    Auburn University - ME - Educational Administration
    Webster University - MA - Management

Military schools attended:
    Infantry Officer Basic and Advanced Courses
    U.S. Army Command and General Staff College
    U.S. Army War College

Foreign language(s): None recorded.

Promotions:

------------------------------------------------------------------------
                Promotions                      Dates of appointment
------------------------------------------------------------------------
2LT.......................................  4 Jun 75
1LT.......................................  4 Jun 77
CPT.......................................  18 Nov 79
MAJ.......................................  1 Jun 86
LTC.......................................  1 Jul 92
COL.......................................  1 Aug 97
BG........................................  1 Jan 02
MG........................................  1 Jan 05
LTG.......................................  8 Dec 06
------------------------------------------------------------------------


Major duty assignments:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
May 76..........................  Jan 78............  Rifle Platoon
                                                       Leader, A
                                                       Company, 1st
                                                       Battalion, 7th
                                                       Infantry, 3d
                                                       Infantry Division
                                                       (Mechanized),
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany
Jan 78..........................  Feb 79............  Scout Platoon
                                                       Leader, Combat
                                                       Support Company,
                                                       1st Battalion,
                                                       7th Infantry, 3d
                                                       Infantry Division
                                                       (Mechanized),
                                                       U.S. Army Europe
                                                       and Seventh Army,
                                                       Germany
Mar 79..........................  Sep 79............  Student, Infantry
                                                       Officer Advanced
                                                       Course, U.S. Army
                                                       Infantry School,
                                                       Fort Benning, GA
Oct 79..........................  Apr 81............  Commander, Combat
                                                       Support Company,
                                                       2d Battalion
                                                       (Airborne), 508th
                                                       Infantry, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC
Apr 81..........................  Oct 81............  Assistant S-3
                                                       (Operations), 1st
                                                       Brigade, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC
Oct 81..........................  Oct 82............  Operations
                                                       Officer, U.S.
                                                       Army Indianapolis
                                                       District
                                                       Recruiting
                                                       Command,
                                                       Indianapolis, IN
Oct 82..........................  Dec 84............  Company Commander,
                                                       U.S. Army
                                                       Recruiting
                                                       Battalion,
                                                       Indianapolis, IN
Jan 85..........................  Dec 85............  Student, Auburn
                                                       University,
                                                       Auburn, AL
Dec 85..........................  Jun 88............  Cadet Counselor,
                                                       later Company
                                                       Tactical Officer,
                                                       U.S. Military
                                                       Academy, West
                                                       Point, NY
Jul 88..........................  Jun 89............  Student, U.S. Army
                                                       Command and
                                                       General Staff
                                                       College, Fort
                                                       Leavenworth, KS
Jun 89..........................  May 91............  S-3 (Operations),
                                                       later Executive
                                                       Officer, 2d
                                                       Battalion, 22d
                                                       Infantry, 10th
                                                       Mountain Division
                                                       (Light), Fort
                                                       Drum, NY
Jun 91..........................  Oct 92............  Executive Officer,
                                                       1st Infantry
                                                       Brigade, 10th
                                                       Mountain Division
                                                       (Light), Fort
                                                       Drum, NY
Oct 92..........................  Apr 93............  Director,
                                                       Directorate of
                                                       Plans, Training,
                                                       Mobilization, and
                                                       Security, U.S.
                                                       Army Garrison,
                                                       Fort Drum, NY
May 93..........................  Mar 95............  Commander, 2d
                                                       Battalion, 505th
                                                       Parachute
                                                       Infantry
                                                       Regiment, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC, and
                                                       Operation Safe
                                                       Haven, Panama
Mar 95..........................  Jun 96............  G-3 (Operations),
                                                       82d Airborne
                                                       Division, Fort
                                                       Bragg, NC
Aug 96..........................  Jun 97............  Student, U.S. Army
                                                       War College,
                                                       Carlisle
                                                       Barracks, PA
Jun 97..........................  Jun 99............  Commander, 3d
                                                       Brigade, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC
Jun 99..........................  Jul 01............  Chief, Joint
                                                       Operations
                                                       Division, J-3,
                                                       The Joint Staff,
                                                       Washington, DC
Jul 01..........................  Jun 03............  Assistant Division
                                                       Commander
                                                       (Maneuver), 3d
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Stewart, GA,
                                                       and Operation
                                                       Iraqi Freedom,
                                                       Iraq
Sep 03..........................  Aug 05............  Commanding
                                                       General, 10th
                                                       Mountain Division
                                                       (Light) and Fort
                                                       Drum, Fort Drum,
                                                       NY, to include
                                                       duty as
                                                       Commander,
                                                       Combined Joint
                                                       Task Force-180,
                                                       Operation
                                                       Enduring Freedom,
                                                       Afghanistan
Sep 05..........................  Dec 06............  Chief of Staff,
                                                       U.S. Central
                                                       Command, MacDill
                                                       Air Force Base,
                                                       FL
Dec 06..........................  Feb 08............  Commanding
                                                       General, XVIII
                                                       Airborne Corps
                                                       and Fort Bragg,
                                                       Fort Bragg, NC
Feb 08..........................  Apr 09............  Commanding
                                                       General, XVIII
                                                       Airborne Corps/
                                                       Commander, Multi-
                                                       National Corps-
                                                       Iraq, Operation
                                                       Iraqi Freedom,
                                                       Iraq
Apr 09..........................  Aug 09............  Commanding
                                                       General, XVIII
                                                       Airborne Corps
                                                       and Fort Bragg,
                                                       Fort Bragg, NC
Aug 09..........................  Present...........  Director, The
                                                       Joint Staff,
                                                       Washington, DC
------------------------------------------------------------------------


Summary of joint assignments:

------------------------------------------------------------------------
                                         Date                Grade
------------------------------------------------------------------------
Chief, Joint Operations           Jun 99-Jul 01.....  Colonel
 Division, J-3, The Joint Staff,
 Washington, DC.
Commanding General, 10th          Sep 03-Apr 04.....  Brigadier General/
 Mountain Division (Light) with                        Major General
 duty as Commander, Combined
 Joint Task Force-180, Operation
 Enduring Freedom, Afghanistan
 (No Joint Credit).
Chief of Staff, U.S. Central      Sep 05-Dec 06.....  Major General
 Command, MacDill Air Force
 Base, FL.
Commanding General, XVIII         Feb 08-Apr 09.....  Lieutenant General
 Airborne Corps/Commander, Multi-
 National Corps-Iraq, Operation
 Iraqi Freedom, Iraq.
Director, The Joint Staff,        Aug 09-Present....  Lieutenant General
 Washington, DC.
------------------------------------------------------------------------


Summary of operations assignments:

------------------------------------------------------------------------
                                         Date                Grade
------------------------------------------------------------------------
Commander, 2d Battalion, 505th    Nov 94-Feb 95.....  Lieutenant Colonel
 Parachute Infantry Regiment,
 82d Airborne Division,
 Operation Safe Haven, Panama.
Assistant Division Commander      Mar 03-Apr 03.....  Brigadier General
 (Maneuver), 3d Infantry
 Division (Mechanized),
 Operation Iraqi Freedom, Iraq.
Commanding General, 10th          Sep 03-Apr 04.....  Brigadier General/
 Mountain Division (Light) with                        Major General
 duty as Commander, Combined
 Joint Task Force-180, Operation
 Enduring Freedom, Afghanistan
 (No Joint Credit).
Commanding General, XVIII         Feb 08-Apr 09.....  Lieutenant General
 Airborne Corps/Commander, Multi-
 National Corps-Iraq, Operation
 Iraqi Freedom, Iraq.
------------------------------------------------------------------------


U.S. decorations and badges:
    Defense Distinguished Service Medal (with Oak Leaf Cluster)
    Distinguished Service Medal (with Oak Leaf Cluster)
    Silver Star
    Defense Superior Service Medal (with Oak Leaf Cluster)
    Legion of Merit (with Oak Leaf Cluster)
    Defense Meritorious Service Medal
    Meritorious Service Medal (with four Oak Leaf Clusters)
    Joint Service Commendation Medal
    Army Commendation Medal (with six Oak Leaf Clusters)
    Army Achievement Medal (with Oak Leaf Cluster)
    Combat Action Badge
    Expert Infantryman Badge
    Master Parachutist Badge
    Ranger Tab
    Joint Chiefs of Staff Identification Badge
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by LTG Lloyd J. 
Austin III, USA, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Lloyd J. Austin III.

    2. Position to which nominated:
    Commander, U.S. Forces-Iraq.

    3. Date of nomination:
    May 18, 2010.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    August 8, 1953; Mobile, AL.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Charlene Denise Banner Austin (Maiden name: Banner).

    7. Names and ages of children:
    Reginald Hill (stepson), 41.
    Christopher Hill (stepson), 38.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed above.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Association of the U.S. Army.
    National Infantry Association.
    Rocks Incorporated.
    555 Parachute Infantry Regiment Association.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Patriot Award, October 2009, Awarded for exceptional service to 
country, Patriot Foundation, Pinehurst, NC.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                               Lloyd J. Austin III.
    This 18th day of May, 2010.

    [The nomination of LTG Lloyd J. Austin III, USA, was 
reported to the Senate by Chairman Levin on June 29, 2010, with 
the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on June 30, 2010.]


  NOMINATION OF GEN DAVID H. PETRAEUS, USA, FOR REAPPOINTMENT TO THE 
     GRADE OF GENERAL, AND TO BE COMMANDER, INTERNATIONAL SECURITY 
        ASSISTANCE FORCE, AND COMMANDER, U.S. FORCES-AFGHANISTAN

                              ----------                              


                         TUESDAY, JUNE 29, 2010

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:36 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Akaka, Ben Nelson, Bayh, Webb, McCaskill, Udall, Hagan, Begich, 
Burris, Kaufman, McCain, Inhofe, Chambliss, Graham, Thune, 
Wicker, LeMieux, Brown, Burr, Vitter, and Collins.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Ilona R. Cohen, counsel; 
Jessica L. Kingston, research assistant; Michael J. Kuiken, 
professional staff member; Gerald J. Leeling, counsel; Peter K. 
Levine, general counsel; William G.P. Monahan, counsel; Michael 
J. Noblet, professional staff member; Russell L. Shaffer, 
counsel; and William K. Sutey, professional staff member.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; Adam J. Barker, professional staff member; John 
W. Heath, Jr., minority investigative counsel; Michael V. 
Kostiw, professional staff member; David M. Morriss, minority 
counsel; Diana G. Tabler, professional staff member; and Dana 
W. White, professional staff member.
    Staff assistants present: Brian F. Sebold and Breon N. 
Wells.
    Committee members' assistants present: Vance Serchuk, 
assistant to Senator Lieberman; Carolyn A. Chuhta, assistant to 
Senator Reed; Nick Ikeda, assistant to Senator Akaka; Greta 
Lundeberg, assistant to Senator Bill Nelson; Ann Premer, 
assistant to Senator Ben Nelson; Patrick Hayes, assistant to 
Senator Bayh; Gordon I. Peterson, assistant to Senator Webb; 
Tressa Steffen Guenov, assistant to Senator McCaskill; Jennifer 
Barrett, assistant to Senator Udall; Roger Pena, assistant to 
Senator Hagan; Lindsay Kavanaugh, assistant to Senator Begich; 
Roosevelt Barfield, assistant to Senator Burris; Halie Soifer, 
assistant to Senator Kaufman; Anthony J. Lazarski, assistant to 
Senator Inhofe; Lenwood Landrum and Sandra Luff, assistants to 
Senator Sessions; Clyde A. Taylor IV, assistant to Senator 
Chambliss; Andy Olson, assistant to Senator Graham; Jason Van 
Beek, assistant to Senator Thune; Erskine W. Wells III, 
assistant to Senator Wicker; Brian Walsh, assistant to Senator 
LeMieux; Scott Clendaniel, assistant to Senator Brown; Brooks 
Tucker, assistant to Senator Burr; and Ryan Kaldahl, assistant 
to Senator Collins.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    Before we begin today's hearing, I want to comment on the 
loss that our committee, the Senate, and the Nation suffered 
yesterday morning. Robert C. Byrd was a member of this 
committee for nearly 3 decades. Just as he did in all of his 
Senate work, he was a relentless advocate for the enduring 
traditions of the Senate, including our respect for the 
legislative authority that the Constitution places in our hands 
to exercise and to defend. He was an eloquent spokesman for the 
vital role that Congress plays in national security and foreign 
affairs in our constitutional system. He was a treasured 
colleague and a friend to the members of the Senate Armed 
Services Committee, to the entire Senate, and to the people of 
this Nation. His life's work and his legacy will help guide us, 
and will guide future Senates.
    This morning, the committee considers the nomination of 
General David H. Petraeus to be Commander of the North Atlantic 
Treaty Organization (NATO) International Security Assistance 
Force (ISAF) and Commander, U.S. Forces-Afghanistan.
    General, you testified before this committee on Afghanistan 
just 2 weeks ago, and certainly no one foresaw the events that 
bring you to testify here again today. When confirmed, you will 
bring highly experienced leadership and a profound 
understanding of the President's strategy in Afghanistan, which 
you helped shape as Commander, U.S. Central Command (CENTCOM).
    I want to thank you for your willingness, at the 
President's request, to leave that position to take charge of 
the campaign in Afghanistan. We appreciate your sacrifice and 
that of your family. Your wife, Holly, is with you this 
morning. We all want to thank her personally for her commitment 
and her sacrifices along the way.
    I must tell you, General, that her understanding of your 
doing your patriotic duty, as you are now doing again, taking 
over the command in Afghanistan, her understanding and support 
of that is truly inspiring. We thank her.
    We profoundly thank you, Mrs. Petraeus.
    I also want to express my gratitude to General McChrystal 
for his great service to our Nation over 3 decades. Fate takes 
strange bounces at times, and working through them with dignity 
and honor, as has General McChrystal, is a hallmark of 
leadership and of character.
    The challenges in Afghanistan are in many ways as complex 
or more complex than those that General Petraeus inherited when 
he assumed command in Iraq. Recent news reports indicate that 
progress in Afghanistan is spotty. Casualties among U.S., ISAF, 
and Afghan security forces are higher. While some normal 
activities have returned to Helmand, insurgent intimidation and 
violence continues to threaten governance and development in 
the south. The Karzai Government has yet to deliver services to 
win allegiances locally. Recent reports suggest that 
Afghanistan's Tajik and Uzbek minorities are concerned about 
President Karzai's overtures to Taliban leaders through 
Pakistani intermediaries.
    At our hearing 2 weeks ago, General Petraeus emphasized 
that ``a counterinsurgency operation is a roller coaster 
experience,'' but he said that, in his view, the trajectory, 
``has generally been upward, despite the tough losses.''
    I have long believed that the number-one mission in 
Afghanistan is building the capacity of the Afghan security 
forces to be able to take increasing responsibility for their 
country's security. General Petraeus said, 2 weeks ago, that 
increasing the size and capacity of the Afghan security forces 
is ``central to achieving progress in Afghanistan.''
    U.S. and ISAF forces need to focus their resources and 
energy on this effort. There is a significant shortfall, still, 
of trainers to provide basic instruction to Afghan recruits, 
and of mentors to embed with Afghan units in the field.
    Building the capacity of the Afghan security forces to 
provide security is not simply what we seek, it's what the 
Afghan people seek. That's what we were told by a hundred or so 
elders at a shura in southern Afghanistan last year. When we 
asked them what they wanted the United States to do, they told 
us that we should train and equip the Afghan army to provide 
for their country's security, and then we should depart.
    The 1,600 delegates to the Afghanistan Consultative Peace 
Jirga at the beginning of this month adopted a resolution 
calling on the international community to ``expedite'' the 
training and equipping of the Afghan security forces so that 
they can gain the capacity to provide security for their own 
country and people.
    I remain deeply concerned, however, by reports that there 
are relatively few Afghan army troops in the lead in operations 
in the south, where fighting is heaviest. The Afghan army now 
numbers around 120,000 troops, including over 70,000 combat 
troops. In the past, ISAF reported that over half of Afghan 
battalions were capable of conducting operations either 
independently or with coalition support. However, a recent 
report, released just today by the Special Inspector General 
for Afghanistan Reconstruction (SIGAR), finds that the 
capability rating system used by the training mission 
``overstated operational capabilities of the Afghan security 
forces, and has not provided reliable or consistent 
assessments.''
    ISAF agreed with that report and recently has adopted a new 
standard for measuring Afghan capability by which measure 
around one-third of Afghan units are now determined to be 
effective, with coalition support, in conducting operations. 
However, even under that new measure, there are significantly 
more Afghan army troops that could lead operations in Kandahar 
than the 7,250 Afghan troops now in Kandahar. The level of 
Afghan security forces in Kandahar, both army and police, is 
scheduled to rise to only 8,500 personnel by the fall, 
according to a chart provided by General McChrystal last month. 
The influx of ISAF forces in and around Kandahar will outpace 
the increase in Afghan forces by October, according to that 
same chart.
    The current slower pace of operations in Kandahar provides 
the opportunity to get more Afghan combat-capable forces south, 
to take the lead in operations there. Having the Afghan army in 
the lead in operations in Kandahar is the insurgency's worst 
nightmare. The Afghan army enjoys the support of the Afghan 
people, and they are strong fighters.
    Meanwhile, according to a recent New York Times survey, 
only 40 percent of Afghans have a favorable view of the United 
States. General Petraeus, I hope you will promptly review the 
deployment of capable Afghan security forces to try to get more 
Afghan troops down to the south and in the lead in operations 
there before those operations are accelerated in the field in 
the fall.
    Finally, a few words about the July 2011 date set by the 
President for the beginning of reductions in our combat 
presence in Afghanistan. That decision also made clear that the 
pace of those reductions would be dependent on circumstances at 
that time, and that the United States would continue a strong 
strategic commitment to Afghanistan.
    That July 2011 date imparts a necessary sense of urgency to 
Afghan leaders about the need to take on principal 
responsibility for their country's security. We saw in Iraq the 
importance of setting dates as a way of spurring action. 
President Bush, in November 2008, decided to move all U.S. 
forces out of Iraqi cities and towns by June 2009, and to 
withdraw all U.S. forces from Iraq by the end of December 2011. 
That decision helped focus the Iraqi Government and military on 
the need to take principal responsibility for the security of 
their own country. The Afghan success and ours depends on that 
happening in Afghanistan, as well.
    We've already seen a positive effect of setting the July 
2011 date to begin reduction of our troops. Lieutenant General 
Caldwell, who commands our training efforts in Afghanistan, 
told us that, when President Obama announced the date, the 
Afghan leadership made a great effort to reach out to the local 
leaders and elders, resulting in a surge in recruits for the 
Afghan army. General Petraeus has said that he agrees with the 
President's policy, setting that July 2011 date; and indeed, he 
told me that, if he ceases to agree, that he would so advise 
his Commander in Chief, which, of course, he has a 
responsibility to do as a military commander.
    It is my hope--and I believe that Senator McCain and other 
members of this committee would surely join in this--that we 
can vote on General Petraeus's nomination by the end, possibly, 
even of today, so that the full Senate can act before the July 
4th break.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman.
    Let me thank our distinguished witness for joining us here 
today for a very unexpected and extraordinary hearing.
    I want to echo the Chairman in welcoming General Petraeus's 
wife, Holly. We all know that General Petraeus, like all of our 
fighting men and women, could never do his job for our Nation 
without the sacrifice and support of his family. On behalf of 
our entire committee, Mrs. Petraeus, we sincerely thank you, 
and we think you made a wise decision, more than 34 years ago, 
to accept a blind date with a young cadet. [Laughter.]
    As I said in our hearing 2 weeks ago, General Petraeus, I 
believe you are one of our finest-ever military leaders. I hope 
that does not provoke the same reaction as it did then. 
[Laughter] But, seriously, we're all grateful for your 
willingness to answer the call of service again in yet another 
critical mission. You're an American hero, and I am confident 
that you will be quickly and overwhelmingly confirmed.
    Before I go further, let me say a word of praise for 
another American hero, General Stanley McChrystal. He's a man 
of unrivaled integrity. What is most impressive about his long 
record of military excellence is how much of it remains cloaked 
in silence. Few understand fully how General McChrystal 
systematically dismantled al Qaeda in Iraq, or how he began to 
turn around our failing war in Afghanistan. These achievements, 
and others like them, are the true measure of Stanley 
McChrystal, and they will earn him an honored place in our 
history.
    The events that led to this hearing are unexpected and 
unfortunate, but they don't mean we are failing in Afghanistan. 
I agree with the President, that success in Afghanistan is ``a 
vital national interest,'' and I support his decision to adopt 
a counterinsurgency strategy backed by more troops and civilian 
resources. This is the only viable path to true success, which 
I would define as an Afghanistan that is increasingly capable 
of governing itself, securing its people, sustaining its own 
development, and never again serving as a base for attacks 
against America and our allies. In short, the same results we 
are slowly seeing emerge today in Iraq.
    Before heading out to Iraq 3 years ago, General Petraeus, 
you told this committee that the mission was ``hard, but not 
hopeless.'' I would characterize our mission in Afghanistan the 
same way. Nevertheless, many of the same people who were 
defeatist about Iraq are now saying similar things about 
Afghanistan. But, Afghanistan is not a lost cause. Afghans do 
not want the Taliban back. They're good fighters, and they want 
a government that works for them, and works well.
    For those who think the Karzai Government is not an 
adequate partner, I would remind them that, in 2007, the Maliki 
Government in Iraq was not only corrupt, it was collapsed and 
complicit in sectarian violence. A weak and compromised local 
partner is to be expected in counterinsurgency. That's why 
there's an insurgency. The challenge is to support and push our 
partners to perform better. That's what we're doing in Iraq, 
and that's what we can do in Afghanistan if we make it clear 
that, as long as success is possible, we will stay in 
Afghanistan to achieve it, as we did with Iraq, not that we 
will start to withdraw, no matter what, in July 2011.
    I appreciate the President's statement, last week, that 
July 2011 is simply a date to ``begin a transition phase to 
greater Afghan responsibility.'' For those who doubt the 
President's desire and commitment to succeed in Afghanistan, 
his nomination of General Petraeus to run this war should cause 
them to think twice.
    Still, what we need to hear from the President, what our 
friends and enemies in Afghanistan and the region need to hear, 
is that the withdrawal of U.S. forces from Afghanistan will be 
determined solely by conditions on the ground.
    Let me explain why I believe the July 2011 date is so 
harmful. What we're trying to do in Afghanistan, as in any 
counterinsurgency, is to win the loyalty of the population, to 
convince people, who may dislike the insurgency, but who may 
also distrust their government, that they should line up with 
us against the Taliban and al Qaeda. We're asking them to take 
a huge risk, and they will be far less willing to run it if 
they think we will begin leaving in a year. One U.S. marine put 
it this way about the Afghan/Shi'a encounters, ``That's why 
they won't work with us,'' she said, ``They say, `You'll leave 
in 2011,' and the Taliban will chop their heads off.''
    The same goes for the Afghan Government. We're told that 
setting a date to begin withdrawing would be an incentive for 
the Karzai administration to make better decisions, and to make 
them more quickly. I would argue it's having the opposite 
effect; it's causing Afghan leaders to hedge their bets on us. 
This is not only making the war harder, it's making the war 
longer. If the President would say that success in Afghanistan 
is our only withdrawal plan, whether we reach it before July 
2011 or afterwards, he would make the war more winnable and 
hasten the day when our troops can come home with honor, which 
is what we all want.
    In addition to being harmful, the July 2011 withdrawal date 
increasingly looks unrealistic. That date was based on 
assumptions made back in December about how much progress we 
could achieve in Afghanistan, and how quickly we could achieve 
it. But, war never works out the way we assume, as today's 
hearing reminds us all too well. Secretary Gates said last 
week, ``I believe we are making some progress, but it is slower 
and harder than we anticipated.'' I agree. Marjah is largely 
``cleared'' of the Taliban, but the ``holding and building'' is 
not going as well as planned. Our operation in Kandahar is 
getting off to a slower and more difficult start than expected. 
The Dutch and Canadian Governments plan to withdraw, soon. It 
looks increasingly unlikely that NATO will make its pledge of 
10,000 troops. Meanwhile, I think it's safe to say that the 
performance of the Afghan Government over the past 7 months is 
not as even or as rapid as we had hoped.
    None of this is to say that we are failing, or that we will 
fail, in Afghanistan; it just means that we need to give our 
strategy the necessary time to succeed. We cannot afford to 
have a stay-the-course approach to starting our withdrawal in 
July 2011, when the facts on the ground are suggesting that we 
need more time.
    This is all the more essential now, with General Petraeus 
assuming command, pending his confirmation. He is proof that we 
can win wars, and we need to give him every opportunity, and 
remove every obstacle, to win in Afghanistan.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    General Petraeus.

     STATEMENT OF GEN DAVID H. PETRAEUS, USA, NOMINEE FOR 
  REAPPOINTMENT TO THE GRADE OF GENERAL, AND TO BE COMMANDER, 
 INTERNATIONAL SECURITY ASSISTANCE FORCE, AND COMMANDER, U.S. 
                       FORCES AFGHANISTAN

    General Petraeus. Mr. Chairman, Senator McCain, members of 
the committee, thank you for the opportunity to appear before 
you today, and thank you for the rapid scheduling of this 
hearing.
    I am, needless to say, humbled and honored to have been 
nominated by the President to command the NATO International 
Security Assistance Force and U.S. Forces in Afghanistan, and 
to have the opportunity, if confirmed, to continue to serve our 
Nation, the NATO alliance, our non-NATO coalition partners, and 
Afghanistan, in these new capacities.
    At the outset, I want to echo your salute to the 
extraordinary service of Senator Robert Byrd. With his death, 
America clearly has lost a great patriot.
    I'd like to begin this morning by also saying a few words 
about General Stan McChrystal, someone I've known and admired 
for nearly 30 years. General McChrystal has devoted his entire 
professional life to the defense of this Nation, and he and his 
family have made enormous personal sacrifices during his 
lengthy deployments over the past 9 years, in particular. His 
contributions during that time were very significant.
    I can attest, for example, that the success of the surge in 
Iraq would not have been possible without General McChrystal's 
exceptional leadership of our Special Mission Unit forces 
there. Similarly, the development of the Joint Special 
Operations Command (JSOC) during his unprecedented tenure 
commanding JSOC was extraordinary, as well.
    Most importantly, of course, he has made enormous 
contributions in leading the coalition endeavor in Afghanistan 
over the past year. During that time, he brought impressive 
vision, energy, and expertise to the effort there. He made a 
huge contribution to the reorientation of our strategy, and was 
a central figure in our efforts to get the inputs right in 
Afghanistan, to build the organizations needed to carry out a 
comprehensive civil/military counterinsurgency campaign, to get 
the right leaders in charge of those organizations, to develop 
appropriate plans and concepts, and to deploy the resources 
necessary to enable the implementation of those plans and 
concepts.
    We now see some areas of progress amidst the tough fight 
ongoing in Afghanistan. Considerable credit for that must go to 
Stan McChrystal.
    As we take stock of the situation in Afghanistan, it is 
important to remember why we are there. We should never forget 
that the September 11 attacks were planned in southern 
Afghanistan, and that the initial training of the attackers was 
carried out in camps in Afghanistan before the attackers moved 
on to Germany and then on to U.S. flight schools.
    It was, of course, in response to those attacks that a 
U.S.-led coalition entered Afghanistan, in late 2001, and 
defeated al Qaeda and the Taliban elements that allowed al 
Qaeda to establish its headquarters and training camps in 
Afghanistan.
    In the subsequent years, however, the extremists were able 
to regroup, with al Qaeda establishing new sanctuaries in the 
tribal areas of Pakistan, and the Taliban and its affiliates 
reentering Afghanistan, in an effort to reestablish the control 
they once had in much of the country.
    In light of those developments, our task in Afghanistan is 
clear. Indeed, President Obama has explained America's vital 
national interests there, ``We will not,'' he has stated, 
``tolerate a safe haven for terrorists who want to destroy 
Afghan security from within and launch attacks against innocent 
men, women, and children in our country and around the world.''
    In short, we cannot allow al Qaeda or other transnational 
extremist elements to once again establish sanctuaries from 
which they can launch attacks on our homeland or on our allies.
    Achieving that objective, however, requires that we not 
only counter the resurgent Taliban elements who allowed such 
sanctuaries in the past, we must also help our Afghan partners 
develop their security forces and governance capacity so that 
they can, over time, take on the tasks of securing their 
country and seeing to the needs of their people.
    The United States is not alone in seeing the task in 
Afghanistan as a vital national interest. Indeed, 46 countries, 
including our own, are providing forces to the ISAF coalition, 
and others, like Japan, provide vital economic assistance.
    Earlier this year, our NATO allies and other coalition 
partners committed well over 9,000 additional troopers to the 
effort; approximately 60 percent of those additional forces are 
currently in place, and, when the rest are deployed, they'll 
bring the number of non-U.S. forces in Afghanistan to over 
50,000. That expansion takes place as we are in the final 
months of deploying the 30,000 additional U.S. troopers, a 
deployment that is slightly ahead of schedule, and that will 
bring the total number of U.S. servicemembers in Afghanistan to 
nearly 100,000 by the end of August. Notably, this number will 
be more than three times the number of U.S. forces on the 
ground in early 2009.
    Complementing the military buildup has been the tripling of 
the U.S. civilian structure in Afghanistan with substantial 
additional numbers still deploying. This is essential for, as 
the President has made clear, the campaign in Afghanistan must 
be a fully integrated civil/military effort, one that includes 
an unshakable commitment to teamwork among all elements of the 
U.S. Government, as well as unshakable commitment to teamwork 
with members of other NATO and coalition governments and the 
United Nations (U.N.) assistance mission in Afghanistan, as 
well as, of course, members of the Afghan Government itself. I 
will seek to contribute to such teamwork and to unity of effort 
among all participants.
    We know, in fact, that we can achieve such unity of effort, 
because we've done it before. During my more than 19 months in 
command of the Multinational Force-Iraq, I worked very closely 
with Ambassador Ryan Crocker, members of the U.S. Embassy, the 
U.N. Special Representative, and representatives of the 
embassies of key coalition partners, and we all worked closely 
together with our Iraqi partners.
    I look forward to working just as closely with Ambassador 
Karl Eikenberry and the U.S. Embassy in Kabul; Ambassador Mark 
Sedwill, the NATO senior civilian representative; Staffan de 
Mistura, the Special Representative of the U.N. Secretary 
General, the same position he held in Baghdad; Ambassador 
Vygaudas Usackas, the European Union (EU) Special 
Representative; and, most importantly, of course, with 
President Karzai and members of the Afghan Government. Indeed, 
I've talked, in recent days, with all of these members of the 
team, including President Karzai, as well as with Ambassador 
Holbrooke, the U.S. Special Representative for Afghanistan and 
Pakistan. We are all firmly united in seeking to forge unity of 
effort.
    As I noted in my testimony before this committee 2 weeks 
ago, I was part of the process that helped formulate the 
President's strategy for Afghanistan, and I support and agree 
with his new policy. During its development, I offered my 
forthright military advice, and I have assured the President 
that I will do the same as we conduct assessments over the 
course of the months ahead. He, in turn, assured me that he 
expects and wants me to provide that character of advice.
    As I also explained to this committee 2 weeks ago, I 
specifically agreed with the messages of greater commitment and 
greater urgency that the President expressed in his address at 
West Point in December, when he announced the new policy. As 
you'll recall, the greater commitment was explained in terms of 
the additional 30,000 U.S. forces, the tripling of the number 
of U.S. civilians, and the funding for an additional 100,000 
Afghan security force members. The greater urgency was 
highlighted by the President announcing the intent to begin a 
process, in July 2011, of transitioning tasks to Afghan forces 
and officials, and of beginning what the President termed ``a 
responsible drawdown of the U.S. surge forces,'' with the pace 
of both the transition of tasks and the drawdown of forces to 
be based on conditions on the ground.
    It is important to note the President's reminder, in recent 
days, that July 2011 will mark the beginning of a process, not 
the date when the U.S. heads for the exits and turns out the 
lights. As he explained, this past Sunday, in fact, we'll need 
to provide assistance to Afghanistan for a long time to come.
    Moreover, as President Karzai has recognized, and as a 
number of allied leaders noted at the recent G-20 summit, it is 
going to be a number of years before Afghan forces can truly 
handle the security tasks in Afghanistan on their own. The 
commitment to Afghanistan is necessarily, therefore, an 
enduring one, and neither the Taliban nor Afghan and Pakistani 
partners should doubt that.
    Our efforts in Afghanistan have, appropriately, focused on 
protecting the population. This is, needless to say, of 
considerable importance, for, in counterinsurgency operations, 
the human terrain is the decisive terrain. The results in 
recent months have been notable. Indeed, over the last 12 
weeks, the number of innocent civilians killed in the course of 
military operations has been substantially lower than it was 
during the same period last year. I will continue the emphasis 
on reducing the loss of innocent civilian life to an absolute 
minimum in the course of military operations.
    Focusing on securing the people does not, however, mean 
that we don't go after the enemy. In fact, protecting the 
population inevitably requires killing, capturing, or turning 
the insurgents. Our forces have been doing that, and we will 
continue to do that. In fact, our troopers and our Afghan 
partners have been very much taking the fight to the enemy in 
recent months. Since the beginning of April alone, more than 
130 middle- and upper-level Taliban and other extremist-element 
leaders have been killed or captured, and thousands of their 
rank-and-file members have been taken off the battlefield. 
Together with our Afghan partners, we will continue to pursue, 
relentlessly, the enemies of the new Afghanistan in the months 
and years ahead.
    On a related note, I want to assure the mothers and fathers 
of those fighting in Afghanistan that I see it as a moral 
imperative to bring all assets to bear to protect our men and 
women in uniform and the Afghan security forces with whom ISAF 
troopers are fighting, shoulder to shoulder. Those on the 
ground must have all the support they need when they are in a 
tough situation. This is so important that I have discussed it 
with President Karzai, Afghan Defense Minister Wardak, and 
Afghan Interior Minister, Bismullah Kahn, newly approved 
yesterday, since my nomination to be Commander, ISAF, and they 
are in full agreement with me on this.
    I mention this because I am keenly aware of concerns by 
some of our troopers on the ground about the application of our 
rules of engagement and the tactical directive. They should 
know that I will look very hard at this issue.
    Along with you and other members of this committee, Mr. 
Chairman, I recognize that enduring success in Afghanistan will 
require the development of Afghan national security forces in 
sufficient numbers and sufficient quality. This is, of course, 
hugely important and hugely challenging. Indeed, helping to 
train and equip host-nation forces in the midst of an 
insurgency is akin to building an advanced aircraft while it is 
in flight, while it is being designed, and while it is being 
shot at. There is nothing easy about it. But, our efforts in 
this important area have been overhauled in the past year, and 
those efforts are now broadly on track, for the first time, to 
achieve overall approved growth goals and to improve Afghan 
security force quality, as well.
    Indeed, Afghan security force development has been advanced 
considerably by partnering efforts that were expanded under 
General McChrystal's command by the establishment of the NATO 
Training Mission Afghanistan and by the appointment of 
Lieutenant General Bill Caldwell to command that organization.
    Despite the progress in recent months in Afghan security 
force development, there is considerable work, nonetheless, to 
be done to reduce attrition further and to develop effective 
leaders, especially with respect to the Afghan National Police. 
Further progress will take even greater partnering, additional 
training improvements, fuller manning of the training and 
mentoring missions, and expanded professional education 
opportunities. Initiatives are being pursued in each of these 
areas.
    Recent salary and benefits initiatives are helping to 
improve recruiting and retention of Afghan security forces. 
Training capacity has been increased significantly, and the 
density of trainers to trainees has been increased from 1 
trainer per 79 trainees to 1 trainer for 30 trainees. The 
unprecedented intensity of our teamwork with the Afghan forces 
is also beginning to show results.
    Today, Afghan military headquarters typically are colocated 
with ISAF unit headquarters, sometimes even sharing the same 
operating centers. Nearly 85 percent of the Afghan National 
Army (ANA) is now fully partnered with ISAF forces for 
operations in the field. In short, ISAF and Afghan forces train 
together, plan operations together, and fight together.
    Furthermore, I should note that Afghan forces are now in 
the lead in Kabul and in a number of other areas. In such 
cases, Afghan units are now the supported forces, operating 
with significant assistance from ISAF, to be sure, but already 
shouldering the responsibilities of leadership.
    An excellent example of this was the recovery operation for 
the Pamir Airways crash north of Kabul last month. Afghan 
border police found the site. Recovery operations were planned, 
coordinated, and executed jointly by the Afghan Ministry of 
Defense and Ministry of Interior at the Afghan National 
Military Coordination Center. The recovery operation, at an 
elevation of more than 12,500 feet, was executed by Afghan 
helicopter crews and Afghan commandos. Even the media, in 
information issues, were handled by Afghan personnel. That case 
is, to be sure, not the norm throughout Afghanistan. 
Nonetheless, the Afghan security forces are very much in the 
fight and sacrificing for their country, and nothing reflects 
this more than the fact that their losses are typically several 
times ours.
    There is no question that levels of violence in Afghanistan 
have increased significantly over the last several years. 
Moreover, the Taliban and its affiliates had, until this year, 
steadily been expanding the areas they control and influence. 
This year, however, ISAF has achieved progress in several 
locations. The initial main effort has been in the central 
Helmand River Valley, and Afghan, U.S., and United Kingdom 
(U.K.) forces have expanded security there, though, 
predictably, the enemy has fought back as we have taken away 
his sanctuaries in the districts of Marjah, Nad-i-Ali, Nawa, 
Lashkar, and elsewhere. Nothing has been easy in those 
operations, but, 6 months ago, we could not have walked through 
the market in Marjah, as I was able to do with the district 
governor there, 2 months ago.
    We are now increasing our focus on Kandahar Province, an 
area of considerable importance to the Taliban. We're working 
hard to ensure that our operations there are based on a strong, 
integrated civil-military, and Afghan-international approach to 
security, governance, and development. So-called ``shaping 
operations,'' including a high tempo of targeted Special Forces 
operations, have been ongoing for some months. President Karzai 
and his ministers have also conducted shura councils and a 
number of other political initiatives focused on increasing the 
sense of inclusivity and transparency in the province, elements 
of the way ahead that are essential, and have been stressed by 
President Karzai.
    In the months ahead, we'll see an additional U.S. brigade, 
from the great 101st Airborne Division, deploy into the 
districts around Kandahar City, where it will operate together 
with an additional Afghan army brigade. We'll see the 
introduction of additional Afghan police and U.S. military 
police to secure the city itself, along with other U.S. forces 
and civilians who will work together with the impressive 
Canadian-led Provincial Reconstruction Team that has been 
operating in the city.
    The combination of all these initiatives is intended to 
slowly but surely establish the foundation of security that can 
allow the development of viable local political structures, 
enable the improvement of basic services, and help Afghan 
leaders and local governance achieve legitimacy and greater 
support by the Kandaharis.
    While relentless pursuit of the Taliban will be critical in 
Kandahar and elsewhere, we know, from Iraq and other 
counterinsurgency experiences, that we cannot kill or capture 
our way out of an industrial-strength insurgency like that in 
Afghanistan. Clearly, as many insurgents and citizens as 
possible need to be convinced to become part of the solution 
rather than a continuing part of the problem.
    The National Consultative Peace Jirga, conducted in Kabul 
several weeks ago, was an important initiative in this arena. 
The reintegration policy that President Karzai signed today--
and I talked to him about it on the way here this morning--will 
be critical to the effort to convince reconcilable elements of 
the insurgency to lay down their weapons and support the new 
Afghanistan. We look forward to working with our Afghan and 
diplomatic partners in implementing this newly signed policy.
    Recent months in Afghanistan have, as you noted, Mr. 
Chairman, seen tough fighting and tough casualties. This was 
expected. Indeed, as I noted in testimony last year and again 
earlier this year, the going inevitably gets tougher before it 
gets easier when a counterinsurgency operation tries to reverse 
insurgent momentum.
    My sense is that the tough fighting will continue; indeed, 
it may get more intense in the next few months. As we take away 
the enemy's safe havens and reduce the enemy's freedom of 
action, the insurgents will fight back.
    In the face of the tough fighting, however, we must 
remember that progress is possible in Afghanistan, because we 
have already seen a fair amount of it, in a variety of 
different forms, beyond the recent security gains. For example, 
nearly 7 million Afghan children are now in school, as opposed 
to less than 1 million, a decade ago, under Taliban control. 
Immunization rates for children have gone up substantially and 
are now in the 70- to 90-percent range nationwide. Cell phones 
are ubiquitous in a country that had virtually none during the 
Taliban days, though the Taliban does try to shut down some of 
those towers at night; and does it, as well.
    Kabul is a bustling, busy city, as are Herat, Mazar-e-
Sharif, and Jalalabad. Roads and bridges and other 
infrastructure have been repaired or built. Commerce is 
returning to those parts of Helmand where ISAF and Afghan 
forces are present.
    Even in places where governance remains weak, innovative 
efforts, like the Afghan Government's National Solidarity 
Program, supported by American and international civilians, as 
well as by our troopers, have helped enable local shura 
councils to choose their own development priorities, and 
receive modest cash grants to pursue them.
    Enabling further such progress, though, and successfully 
implementing the President's policy, will require that our work 
in Afghanistan is fully resourced. It is essential for the 
conduct of this mission, for example, that the supplemental 
funding measure now before Congress be passed. This committee 
and the Senate have passed it, and it was heartening to hear 
Speaker Pelosi's call, last week, for the House to do the same, 
expeditiously.
    Beyond that, as always, I also ask for your continued 
support for the Commanders Emergency Response Program (CERP). 
CERP-funded projects are often the most responsive and 
effective means to address a local community's needs; indeed, 
CERP is often the only tool to address pressing requirements in 
areas where security is challenged. Our commanders value CERP 
enormously, and they appreciate your appropriating funds for 
CERP each year.
    As I close, I'd like to once again note the extraordinary 
work being done by our troopers on the ground in Afghanistan, 
Iraq, and elsewhere around the world. Our young men and women 
truly deserve the recognition they have earned as America's new 
greatest generation. There is no question that they comprise 
the finest, most combat-hardened military in our Nation's 
history.
    There is also no question that they and their families have 
made enormous sacrifices since September 11, in particular. 
Many of them have deployed on multiple tours to perform 
difficult missions under challenging circumstances against 
tough, even barbaric, enemies. We cannot, in my view, ever 
thank our soldiers, sailors, airmen, marines, and 
coastguardsmen enough, but what Americans have done to support 
those in uniform and our deployed civilians has been truly 
wonderful. Indeed, nothing has meant more to our troopers and 
their families than the appreciation of those here at home.
    As you noted, Mr. Chairman, my wife, Holly, is here with me 
today. She is a symbol of the strength and dedication of 
families around the globe who wait at home for their loved ones 
while they're engaged in critical work in Afghanistan, Iraq, 
and elsewhere. She has hung tough while I've been deployed for 
over 5\1/2\ years since September 11. So have untold other 
spouses, children, and loved ones, as their troopers have 
deployed and continued to raise their right hands, time and 
time again. Clearly, our families are the unsung heroes of the 
long campaigns on which we have been embarked over the past 
decade.
    One of America's greatest Presidents, Teddy Roosevelt, once 
observed that, ``Far and away the best prize that life has to 
offer is the chance to work hard at work worth doing.'' There 
are currently nearly 140,000 coalition troopers and over 
235,000 Afghan security force members engaged in hard work very 
much worth doing in Afghanistan. If I am confirmed by the 
Senate, it will be a great privilege to soldier with them in 
that hard work that is so worth doing in that country.
    Thank you very much.
    Chairman Levin. Thank you very much, General Petraeus.
    Let me, since we now have a quorum, take care of some 
important committee business. I would ask the committee now to 
consider a list of 3,839 pending military nominations, included 
in this list are the nominations of General Raymond Odierno to 
be Commander, U.S. Joint Forces Command, and Lieutenant General 
Lloyd Austin to be Commander, U.S. Forces-Iraq. These 
nominations have been before the committee the required length 
of time.
    Is there a motion to favorably report those nominations?
    Senator Lieberman. So moved.
    Chairman Levin. A second?
    Senator McCain. Second.
    Chairman Levin. All those in favor, say aye. [Chorus of 
ayes.]
    Opposed, nay. [No response.]
    The motions carry.
    [The list of nominations considered and approved by the 
committee follows:]
 Military Nominations Pending with the Senate Armed Services Committee 
 which are Proposed for the Committee's Consideration on June 29, 2010.
    1. In the Air Force, there are 2,990 appointments to the grade of 
major (list begins with Jeremy C. Aamold) (Reference No. 1519).
    2. Capt. Margaret A. Rykowski, USNR, to be rear admiral (lower 
half) (Reference No. 1527).
    3. Capt. Gregory C. Horn, USNR, to be rear admiral (lower half) 
(Reference No. 1528).
    4. Capt. Paula C. Brown, USNR, to be rear admiral (lower half) 
(Reference No. 1529).
    5. BG Rex C. McMillian, USMCR, to be major general (Reference No. 
1569).
    6. RADM(lh) Alton L. Stocks, USN, to be rear admiral (Reference No. 
1596).
    7. RADM(lh) William A. Brown, USN, to be rear admiral (Reference 
No. 1598).
    8. Capt. Elaine C. Wagner, USN, to be rear admiral (lower half) 
(Reference No. 1601).
    9. Capt. Colin G. Chinn, USN, to be rear admiral (lower half) 
(Reference No. 1602).
    10. In the Navy, there are two appointments to the grade of rear 
admiral (lower half) (list begins with Willie L. Metts) (Reference No. 
1625).
    11. Capt. Thomas H. Bond, Jr., USN, to be rear admiral (lower half) 
(Reference No. 1627).
    12. In the Air Force, there are 125 appointments to be major (list 
begins with Mark J. Aguiar) (Reference No. 1661).
    13. In the Air Force, there are 47 appointments to be lieutenant 
colonel (list begins with Verona Boucher) (Reference No. 1664).
    14. In the Navy Reserve, there is one appointment to the grade of 
captain (Lynn A. Oschmann) (Reference No. 1688).
    15. In the Navy Reserve, there is one appointment to the grade of 
captain (Diane C. Boettcher) (Reference No. 1689).
    16. In the Navy Reserve, there are four appointments to the grade 
of captain (list begins with Stephen J. Lepp) (Reference No. 1690).
    17. In the Navy Reserve, there is one appointment to the grade of 
captain (Caroline M. Gaghan) (Reference No. 1691).
    18. In the Navy Reserve, there are five appointments to the grade 
of captain (list begins with David W. Howard) (Reference No. 1692).
    19. In the Navy Reserve, there are two appointments to the grade of 
captain (list begins with Kevin A. Askin) (Reference No. 1693).
    20. In the Navy Reserve, there are three appointments to the grade 
of captain (list begins with John B. Holt) (Reference No. 1694).
    21. In the Navy Reserve, there is one appointment to the grade of 
captain (Jeffrey S. Tandy) (Reference No. 1695).
    22. In the Navy Reserve, there are three appointments to the grade 
of captain (list begins with Russell L. Coons) (Reference No. 1696).
    23. In the Navy Reserve, there are 12 appointments to the grade of 
captain (list begins with Kevin P. Bennett) (Reference No. 1697).
    24. In the Navy Reserve, there are 15 appointments to the grade of 
captain (list begins with Richard A. Balzano) (Reference No. 1698).
    25. In the Navy Reserve, there are four appointments to the grade 
of captain (list begins with John T. Archer) (Reference No. 1699).
    26. In the Navy Reserve, there are 18 appointments to the grade of 
captain (list begins with Steven T. Beldy) (Reference No. 1700).
    27. In the Navy Reserve, there are 72 appointments to the grade of 
captain (list begins with James D. Beardsley) (Reference No. 1701).
    28. RADM(lh) Samuel J. Cox, USN, to be rear admiral (Reference No. 
1718).
    29. RADM(lh) Michael S. Rogers, USN, to be rear admiral (Reference 
No. 1719).
    30. RADM(lh) David G. Simpson, USN, to be rear admiral (Reference 
No. 1720).
    31. RADM(lh) David A. Dunaway, USN, to be rear admiral (Reference 
No. 1721).
    32. In the Navy, there are two appointments to the grade of rear 
admiral (list begins with Terry J. Benedict) (Reference No. 1722).
    33. In the Navy, there are three appointments to the grade of 
captain (list begins with Lloyd P. Brown, Jr.) (Reference No. 1737).
    34. In the Navy, there are 19 appointments to the grade of captain 
(list begins with Danny K. Busch) (Reference No. 1738).
    35. In the Navy, there are 14 appointments to the grade of captain 
(list begins with William S. Dillon) (Reference No. 1739).
    36. In the Navy, there are five appointments to the grade of 
captain (list begins with Nora A. Burghardt) (Reference No. 1740).
    37. In the Navy there are 11 appointments to the grade of captain 
(list begins with Bruce J. Black) (Reference No. 1741).
    38. In the Navy, there are 12 appointments to the grade of captain 
(list begins with Chad F. Acey) (Reference No. 1742).
    39. In the Navy, there are 21 appointments to the grade of captain 
(list begins with James S. Biggs) (Reference No. 1743).
    40. In the Navy, there are five appointments to the grade of 
captain (list begins with Richard W. Haupt) (Reference No. 1744).
    41. In the Navy, there are five appointments to the grade of 
captain (list begins with Edward A. Bradfield) (Reference No. 1745).
    42. In the Navy, there are four appointments to the grade of 
captain (list begins with Brian D. Connon) (Reference No. 1746).
    43. In the Navy, there are four appointments to the grade of 
captain (list begins with Conrado K. Alejo) (Reference No. 1747).
    44. In the Navy, there are nine appointments to the grade of 
captain (list begins with Eric D. Cheney) (Reference No. 1748).
    45. In the Navy, there are 169 appointments to the grade of captain 
(list begins with James A. Aiken) (Reference No. 1749).
    46. Capt. James H. Rodman, Jr., USNR, to be rear admiral (lower 
half) (Reference No. 1751).
    47. Capt. Victor M. Beck, USNR, to be rear admiral (lower half) 
(Reference No. 1752).
    48. Capt. Gerald W. Clusen, USNR, to be rear admiral (lower half) 
(Reference No. 1753).
    49. Capt. Bryan P. Cutchen, USNR to be rear admiral (lower half) 
(Reference No. 1754).
    50. In the Navy Reserve, there are four appointments to the grade 
of rear admiral (lower half) (list begins with Kelvin N. Dixon) 
(Reference No. 1755).
    51. In the Navy, there is one appointment to the grade of captain 
(James R. Peltier) (Reference No. 1787).
    52. In the Navy, there are 76 appointments to the grade of captain 
(list begins with Joseph C. Aquilina) (Reference No. 1788).
    53. In the Navy, there are 13 appointments to the grade of captain 
(list begins with Stephen G. Alfano) (Reference No. 1789).
    54. In the Navy, there are 27 appointments to the grade of captain 
(list begins with Christopher A. Blow) (Reference No. 1790).
    55. In the Navy, there are 11 appointments to the grade of captain 
(list begins with Jeffrey A. Fischer) (Reference No. 1791).
    56. In the Navy, there are 25 appointments to the grade of captain 
(list begins with Catherine A. Bayne) (Reference No. 1792).
    57. In the Navy, there are 23 appointments to the grade of captain 
(list begins with John D. Brughelli) (Reference No. 1793).
    58. In the Navy, there are 13 appointments to the grade of captain 
(list begins with Billy M. Appleton) (Reference No. 1794).
    59. In the Navy, there are 12 appointments to the grade of captain 
(list begins with Eric M. Aaby) (Reference No. 1795).
    60. LTG Lloyd J. Austin III, USA, to be general and Commander, U.S. 
Forces-Iraq (Reference No. 1800).
    61. GEN Raymond T. Odierno, USA, to be general and Commander, U.S. 
Joint Forces Command (Reference No. 1818).
    62. RADM(lh) Scott A. Weikert, USNR, to be rear admiral (Reference 
No. 1819).
    63. RADM(lh) Patricia E. Wolfe, USNR, to be rear admiral (Reference 
No. 1820).
    64. RADM(lh) Donald R. Gintzig, USNR, to be rear admiral (Reference 
No. 1821).
    65. RADM(lh) Steven M. Talson, USNR, to be rear admiral (Reference 
No. 1822).
    66. RADM(lh) Lothrop S. Little, USNR, to be rear admiral (Reference 
No. 1823).
    67. In the Navy Reserve, there are three appointments to the grade 
of rear admiral (list begins with Garry J. Bonelli) (Reference No. 
1824).
    68. LTG Francis H. Kearney III, USA, to be lieutenant general and 
Deputy Director for Strategic Operational Planning Directorate, 
National Counter Terrorism Center (Reference No. 1827).
    69. In the Navy, there is one appointment to the grade of 
lieutenant commander (Axel L. Steiner) (Reference No. 1841).
    70. In the Navy, there is one appointment to the grade of commander 
(Clifford R. Shearer) (Reference No. 1842).
    71. In the Marine Corps, there are five appointments to the grade 
of major (list begins with Adam M. King) (Reference No. 1843).
    Total: 3,839.

    Chairman Levin. Now, General, we ask standard questions of 
all nominees that come before us. The standard questions are as 
follows:
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    General Petraeus. Yes.
    Chairman Levin. Do you agree, when asked to give your 
personal views, even if those views differ from the 
administration in power?
    General Petraeus. I do.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    General Petraeus. I have not.
    Chairman Levin. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record in hearings?
    General Petraeus. I will.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to the congressional requests?
    General Petraeus. I will.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    General Petraeus. Yes.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify, upon request, before this committee?
    General Petraeus. Yes.
    Chairman Levin. Finally, do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly-constituted committee, 
or to consult with the committee regarding the basis for any 
good-faith delay or denial in providing such documents?
    General Petraeus. I do.
    Chairman Levin. Thank you.
    Let us try a 7-minute first round for questioning.
    General, you've commented on these questions in your 
testimony, and I want to ask them again, to get very clear, 
direct answers to them.
    Two fundamental elements of the Afghanistan strategy that 
the President announced in December 2009 are, first, a surge of 
30,000 additional U.S. troops by the end of the summer, to help 
regain the initiative; and, second, the setting of a July 2011 
date for the beginning of reduction in our combat presence in 
Afghanistan, with the pace of a reasonable drawdown to be 
determined by the circumstances at that time.
    Do you agree with the President's policy?
    General Petraeus. I do.
    Chairman Levin. Do you agree that the setting of that July 
2011 date to begin reductions signals urgency to Afghan leaders 
that they must more and more take responsibility for their 
country's security which is important for success of the 
mission in Afghanistan?
    General Petraeus. I do.
    Chairman Levin. In a report released this morning, the 
SIGAR concluded that the way ISAF has been measuring the 
capability of the Afghan security forces was flawed. The ISAF 
command basically agreed and has revised its approach for 
measuring the capability of Afghan forces. With the revised 
approach, ISAF figures, now, that 30 percent of Afghan forces 
are assessed to be effective, with coalition support.
    At the end of May, there were some 120,000 Afghan army 
troops, including at least 70,000 combat troops. Taking just 
this lower combat troop level, that would mean that around 
25,000 Afghan troops can operate effectively, with coalition 
support. Yet, according to figures provided in your answers to 
advance policy questions, General, the Afghan army has only 
around 7,250 Afghan army soldiers present for duty in Kandahar 
Province, which is so central to success in Afghanistan. Now, 
that's less than one-third of the effective Afghan forces that 
are available.
    Would you agree, first of all, that the Afghan army has 
broad popular support, and that the Afghan people want the 
Afghan army to be taking the lead, where possible, to provide 
security?
    General Petraeus. I would.
    Chairman Levin. Would you also agree the Afghan army are 
excellent fighters?
    General Petraeus. By and large. Again, you'd need to walk 
your way around the country and discuss them a little bit more 
granularly, but that's generally correct.
    Chairman Levin. As a general statement.
    General Petraeus. Yes.
    Chairman Levin. Do you agree that it is in our interest, 
and it's in the interest of a successful outcome in 
Afghanistan, to increase the number of Afghan units who can 
lead, to take the lead in operations?
    General Petraeus. Absolutely.
    Chairman Levin. Why is that?
    General Petraeus. We want them doing the fighting, rather 
than us, obviously.
    Chairman Levin. What about the reaction of the Afghan 
people to the----
    General Petraeus. That's another piece of it. Again, we 
want Afghan ownership of Afghan problems, whether it's security 
problems, political problems, economic problems, you name it. 
That's part and parcel of that, obviously.
    Chairman Levin. General, will you review the--and I'm not 
going to keep asking you ``if confirmed,'' because I'm going to 
assume that, with all these questions--so, I'm going to say, 
``when confirmed,'' will you review the--you're not allowed to 
assume confirmation, by the way, but I am allowed to assume 
confirmation----[Laughter.]
    So, when confirmed, will you review the deployments of 
forces in Afghanistan, to see how more Afghan army and police 
forces can be brought in to increase the number of Afghan 
security forces in Kandahar, to take the lead in that campaign?
    General Petraeus. If confirmed, I will do that, Mr. 
Chairman.
    Chairman Levin. Thank you.
    General Petraeus. If not, I'll do it as the CENTCOM 
Commander. [Laughter.]
    Chairman Levin. One way or another, we're going to count on 
you to do that. [Laughter.]
    Earlier this month, General McChrystal announced that he 
was slowing the operations of Afghan and ISAF forces in and 
around Kandahar to allow more time for discussions with local 
leaders, and to try to get more of their buy-in, as well, try 
to get better governance, as well. ISAF taking additional time 
in Kandahar should mean that we will have more Afghan-led 
operations in a few months. I'm just wondering whether or not 
you would agree that, since we have slowed, somewhat, the pace 
of operations of Afghan and ISAF forces in and around Kandahar, 
that will present an opportunity, at least, to bring in more 
Afghan forces capable of leading in the Kandahar campaign 
during this period.
    General Petraeus. In fact, Mr. Chairman, as I mentioned in 
my opening statement, there is a plan to deploy an additional 
Afghan army brigade to partner with the additional U.S. 
brigade, and also additional Afghan police battalions and 
individual police, as well.
    Chairman Levin. If there are possibilities to increase the 
numbers of Afghan troops that can lead, above that plan, will 
you also take a look at that?
    General Petraeus. I will.
    Chairman Levin. Do you know off-hand how many Afghan troops 
there will be in Kandahar by September?
    General Petraeus. I think that it will be in the range of 
7,500 to 8,000 at that time.
    Chairman Levin. What about in Helmand?
    General Petraeus. Let me answer that for the record, Mr. 
Chairman.
    Chairman Levin. All right.
    [The information referred to follows:]

    We currently estimate that there will be 6,835 Afghan National 
Security Forces troops in Helmand Province in September 2010.

    Chairman Levin. Let me mention to you--and that's fine--the 
figures that your office provided to my staff last evening were 
somewhat surprising in that regard, and I want you just to 
doublecheck those figures for us.
    General Petraeus. I will do that.
    Chairman Levin. They showed that there is a total of 40,000 
Afghan and coalition security forces in Helmand, while there's 
only a total of about 11,000 in Kandahar. If you could 
doublecheck those figures and explain why there's so many fewer 
combined forces in Kandahar than in Helmand, since Kandahar is 
really going to be the central effort--if you could take a look 
at those numbers and explain that, for the record, I'd 
appreciate it.
    General Petraeus. Happy to do that.
    [The information referred to follows:]

    As of July 2010, there are approximately 4,700 International 
Security Assistance Force (ISAF) and 7,550 Afghan National Security 
Forces (ANSF) troops in Kandahar City in support of Operation Hamkari 
for a total of approximately 12,250. In September 2010, we estimate 
that there will be 7,000 ISAF and 9,470 ANSF troops for approximately 
16,470 total security forces.

    Chairman Levin. The press reported, last week, that 
Pakistani officials have approached the Karzai Government with 
a proposal that includes delivering the Haqqani network, which 
runs a major part of the insurgency in Afghanistan and is an 
ally of al Qaeda, into a power-sharing arrangement.
    Now, President Obama and Central Intelligence Agency 
Director Panetta have expressed skepticism about the likelihood 
that Taliban leaders would accept such a proposal, but the 
President also noted that attempts to draw Afghanistan and 
Pakistan interests closer together is a useful step.
    I'm wondering whether you share Director Panetta's 
skepticism about the potential for Pakistan to broker a 
reconciliation deal between the Taliban leadership and the 
Afghan Government at this time.
    General Petraeus. Let me just say, first of all, just an 
interesting item. In talking to President Karzai in the vehicle 
on the way over here, he assured me that he has not met with a 
Haqqani group leader, by the way, in recent days or I think, at 
any time.
    Now, with respect to Pakistani involvement in some form of 
reconciliation agreement, I think that is essential. Now, 
whether that is possible, such an agreement, I think is going 
to depend on a number of factors that will play out over the 
course of the summer, including creating a sense, among the 
Taliban, that they are going to get hammered in the field, and 
perhaps should look at some options.
    Now, we have already seen cases where lower- and mid-level 
Taliban leaders have, indeed, sought to reintegrate, and there 
have been more in recent days. Small numbers, here and there. 
The reintegration decree, that was approved by President Karzai 
today, will help codify the process for this. That should help. 
Again, as you'll recall in Iraq, we did a substantial amount of 
reconciliation. But, whether or not very senior leaders can 
meet the very clear conditions that the Afghan Government has 
laid down for reconciliation, I think, is somewhat in question. 
In that regard, I agree with Director Panetta.
    But, clearly we want to forge a partnership or further the 
partnership that has been developing between Afghanistan and 
Pakistan. Those countries are always going to be neighbors, and 
helping them develop a constructive relationship would be an 
important contribution.
    Chairman Levin. Thank you very much, General.
    Senator McCain.
    Senator McCain. Thank you, General. Just to follow up, 
obviously the key to success in reconciling with the Taliban is 
to first convince the Taliban that they cannot succeed, 
militarily, in prevailing. It's also true that the majority of 
the people of Afghanistan are in opposition to a Taliban return 
to power. Is that correct?
    General Petraeus. It is.
    Senator McCain. There's no doubt about that.
    General Petraeus. There's no love lost for the Taliban. 
They remember the barbaric activities, the oppressive social 
practices, and the extremist ideology practiced by the Taliban, 
and there's no love for them.
    Senator McCain. So, you could interpret that, in some ways, 
as an advantage over the situation you found in Iraq at the 
beginning of the surge?
    General Petraeus. That's correct, Senator, although over 
time we were able to hang around the neck of al Qaeda in Iraq 
the same kinds of labels--extremist ideology, oppressive 
practices, and so forth. Indeed, those weighed them down every 
time they carried out another act of indiscriminate violence, 
as the Taliban have done. We obviously will work with our 
Afghan partners to ensure that the Afghan people know who has 
been killing the vast majority of the civilians in that 
country.
    Senator McCain. Is Marjah going as well now as we hoped 
last December?
    General Petraeus. Probably not as well as the optimistic 
assessments. Now, again, I think I'm very clearly on the 
record--last year, this year, and so forth--in stating that 
this is going to be hard, and it was going to be hard all the 
time.
    Senator McCain. Right.
    General Petraeus. The truth is, I'm not surprised by these 
kinds of challenges.
    Senator McCain. I'm not either. In Kandahar, we're not 
where we had wanted to be 7 months ago, and the Afghan 
Government isn't performing as well as we had expected. Would 
you agree with Secretary Gates' comment, ``We are making some 
progress, but it is slower and harder than we anticipated''?
    General Petraeus. I would.
    Senator McCain. Do you agree with that statement?
    General Petraeus. I would, Senator.
    Senator McCain. That argues, then, for a reassessment of 
the July 2011 commitment to begin a withdrawal.
    Let me tell you why Americans are confused, and why our 
allies are discouraged and our enemies are encouraged. As short 
a time ago as Sunday before last, the President's chief 
advisor, Rahm Emanuel, said, ``Everybody knows there's a firm 
date. What will be determined that date, or going into that 
date, will be the scale and scope of that reduction, but there 
will be no doubt that's going to happen. July 2011 is not 
changing. Everybody agreed on that date.''
    David Axelrod, June 13, ``He is committed to begin that 
process of withdrawal in July of next year, and that continues 
to be the plan, and we're going to pursue that on that 
schedule.''
    Mr. Alter, in his book, said, ``This would not be a 5- to 
7-year nation-building commitment, much less an open-ended one. 
The timeframe the military was offering for both getting in and 
getting out must shrink dramatically, he''--Obama--``said. 
There would be no nationwide counterinsurgency strategy. The 
Pentagon was to present a targeted plan for protecting 
population centers, training Afghan security forces, and 
beginning a real, not a token, withdrawal within 18 months of 
the escalation.''
    That's why people are confused, I would say, General. I 
know you're put in the position where you have to say that it's 
based on conditions.
    Last January, a few of us were in Arghandab Province. We 
met an old tribal leader, who entertained us with stories, how 
they beat the Russians. He turned to me, and he said, ``Are you 
Americans staying, or are you leaving, like you did last 
time?''
    I quote from an article in today's New York Times--``A 
senior American intelligence official said the Taliban had 
effectively used their deadline to their advantage. He added 
that the deadline had encouraged Pakistani security services to 
`hedge their bets and continue supporting groups like the 
Haqqani network. They've been burned before, and they've seen 
this movie before,' the official said.''
    That's the problem here, in whether we are going to prevail 
and convince the people of Afghanistan to come over to our side 
and to stand up against the Taliban, rather than, as the 
military person said, ``They say you'll leave in 2011. The 
Taliban will chop their heads off.'' It's frustrating.
    General, at any time during the deliberations that the 
military shared with the President when he went through the 
decisionmaking process, was there a recommendation from you or 
anyone in the military that we set a date of July 2011?
    General Petraeus. There was not.
    Senator McCain. There was not. By any military person that 
you know of.
    General Petraeus. Not that I'm aware of.
    Senator McCain. I thank you.
    Do you think that it's of concern, the situation with 
Pakistan and the Inter-Services Intelligence (ISI), continuing 
to work with the Taliban?
    General Petraeus. Again, what we have to always figure out, 
with Pakistan, Senator, is, are they working with the Taliban 
to support the Taliban or to recruit sources in the Taliban? 
That's the difficulty, frankly, in trying to assess what the 
ISI is doing in some of their activities in the Federally 
Administered Tribal Areas, in contacts with the Haqqani network 
or the Afghan Taliban.
    There are no questions about the longstanding links. Let's 
remember that we funded the ISI to build these organizations, 
when they were the Mujahideen and helping to expel the Soviets 
from Afghanistan. Certainly residual links would not be a 
surprise. The question is what the character of those links is, 
and what the activities are behind them.
    Senator McCain. Obviously, one of the biggest problems 
we're facing is corruption. There's a Wall Street Journal 
article of June 28, 2010, ``Corruption Suspected in Airlift of 
Billions in Cash from Kabul.'' Do you have anything to tell us 
about that, what is one of the more disturbing news reports 
that I have seen?
    General Petraeus. There have been actions taken--this 
spring, in fact--by the Afghan Government, the establishment of 
new anticorruption bodies, the prosecution of certain cases, 
and also, on our side, for example, the establishment of a Task 
Force 2010, headed by a two-star naval contracting officer, she 
commanded the Joint Contracting Command that supported us in 
Iraq, which is going to examine where the contract money is 
going--not only who are the subcontractors, but who are the 
subs to the subcontractors, and so forth.
    President Karzai has committed to supporting this effort. 
I've discussed it with him in the past, and we will obviously 
focus on it intently, if confirmed.
    Senator McCain. I'm sure you may have seen that this 
committee, the majority decided that we would cut a billion 
dollars from aid to Iraq military and put in earmarked 
porkbarrel projects. Is that of concern to you, that they would 
cut half of the necessary aid to the Iraqi military?
    General Petraeus. It is of concern, Senator. We obviously 
contributed to the development of that particular request. We 
think that money is needed at a critical time in the transition 
in Iraq, where we are transitioning from Defense lead on a 
number of these different programs to State Department lead. To 
do that, the Iraqi Ministry of Interior and Ministry of Defense 
forces have to be at certain levels so that that transition can 
be successful. Indeed, therefore, there is concern about that. 
I know that General Odierno and the Secretary have expressed 
that, as well.
    Senator McCain. I thank you, General. Again, we're deeply 
appreciative of your willingness to serve, and your entire 
family.
    General Petraeus. Thank you, Senator.
    Chairman Levin. Thank you, Senator McCain.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    Again, thank you, General, not only for your testimony 
today, but your service to the Army and to the Nation.
    In the course of your colloquy with Senator McCain, you 
indicated that you did not make a recommendation with respect 
to a deadline. But, your statements indicate you support that 
approach. Is that correct?
    General Petraeus. That's correct.
    Senator Reed. You're fully supportive of the President's 
policy, including beginning a transition, based upon the 
condition on the ground, in July 2011.
    General Petraeus. Let me be very clear, if I could, 
Senator. Not only did I say that I supported it, I said that I 
agreed with it. This is, again, an agreement that was made 
back, of course, in the fall of last year, based on projections 
about conditions that we hoped would obtain, that we were going 
to strive to achieve in Afghanistan, a full year from now. That 
was an 18-month-or-more projection at that time.
    As I mentioned in my opening statement, I saw this, most 
importantly, as the message of urgency to complement the 
message of enormous additional commitment.
    Let's remember that it wasn't just this 30,000 additional 
forces. The President--and, actually, the previous President 
had started some deployment of additional forces before he left 
office. But, we started with some 30,000-31,000 U.S. forces in 
Afghanistan in 2009, and we will now be approaching 100,000 by 
the deployment of the final 30,000. This is a substantial 
additional commitment complemented, again, by a message of 
urgency.
    Senator Reed. In looking forward to next year, when there 
is a conditions-based redeployment of forces, we are starting 
at a much, much higher base than we've ever had in that 
country, in the 8 or 9 years that we engaged. Is that correct?
    General Petraeus. It's not just our forces. There will 
actually be more NATO forces, and, more importantly, there will 
be substantially more Afghan forces. But, again, all based on 
projections right now.
    Senator Reed. Right.
    One of the other aspects of the timeline is--particularly 
if the Taliban thought that this was sort of just playing out 
our hand and leaving--it raises a question of, why would they 
be so active on the ground, militarily?
    General Petraeus. They're active on the----
    Senator Reed. Their behavior suggests that they believe now 
that we're staying, but we're winning or at least we can win.
    General Petraeus. It's actually a great point. The reason 
they're active on the ground, militarily there's probably a 
couple of reasons. One is, they're fighting to retain safe 
havens and sanctuaries that they've been able to establish in 
recent years. Again, when we take them away, they must retake 
them. Marjah was the nexus of the Taliban. It had improvised 
explosive device (IED)-producing ``factories,'' if you will, 
supplies, headquarters, medical facilities, and the illegal 
narcotics industry, all tied into one. They lost a great deal 
when they lost Marjah, and it's not surprising that they fight 
back.
    Now, the other reason, though, is, they're also fighting to 
break our will. This is a contest of wills. They can sense 
concern in various capitals around the world. Of course, they 
want to increase that concern.
    Senator Reed. I'll ask the question, given our very 
aggressive operations, if we succeed in the next several 
months, their ability to be influential within Afghanistan is 
severely diminished. Is that correct?
    General Petraeus. It is correct. We have insights, 
intelligence, into when they're feeling pressure, and they are 
feeling pressure right now, there's no question about it--more 
in certain areas than others, to be sure, and not to say 
they're still not trying to expand, in certain areas, also. As 
I mentioned, 2 weeks ago, it is a roller coaster existence. 
There are setbacks for every small success. But, what you're 
trying to do is determine if the trajectory is generally 
upward. That's, indeed, how we see it.
    Senator Reed. Going back to Marjah, civilians have returned 
after the initial fighting, is that correct?
    General Petraeus. That is correct.
    Senator Reed. That they're conducting agricultural 
activities and permissible activities.
    General Petraeus. They are. As I mentioned, I walked 
through Marjah, about 2 months ago, with the district governor. 
The market was reopened. We sat there, ate bread that was 
produced right there--it was great bread--and chatted with the 
locals. Had a lot of security around, of course, but also had 
dozens, if not hundreds, of locals around.
    Senator Reed. Let me turn to an issue that you alluded to 
in your opening statement, General, and that is the rules of 
engagement.
    General Petraeus. Right.
    Senator Reed. Could you elaborate? Because this is a very 
sensitive balance between providing effective fire support for 
troops in contact, and also minimizing, hopefully eliminating, 
collateral casualties. Could you comment on it?
    General Petraeus. Okay. We must remain committed to 
reducing the loss of innocent civilian life to an absolute 
minimum in the course of military operations. Tragically, 
inevitably, there will be civilian casualties in the course of 
operations. Indeed, the Taliban will try to create situations 
in which that is the result. It's essential. Again, and 
President Karzai knows that I remain committed, continue the 
commitment that General McChrystal made in this area.
    Now, we have rules of engagement. Those are fairly 
standard. We also have a tactical directive that is designed to 
guide the employment, in particular, of large casualty-
producing devices--bombs, close air support, attack 
helicopters, and so forth. That's an area we have to look very 
closely at, because, of course, if you drop a bomb on a house, 
if you're not sure who's in it, you can kill a lot of innocent 
civilians in a hurry.
    Having said that, as I mentioned in my opening statement, 
we have to be absolutely certain that the implementation of the 
tactical directive and the rules of engagement is even 
throughout the force, that there are not leaders at certain 
levels that are perhaps making this more bureaucratic or more 
restrictive than necessary when our troopers and our Afghan 
partners are in a tough spot. When they are in a tough spot, 
it's a moral imperative that we use everything we have to 
ensure that they get out of it.
    Senator Reed. Thank you.
    One of the persistent issues here is the lack of 
governmental capacity on the part of the Afghanis. In Marjah, 
the criticism is, we cleared it, civilians have come back, but 
the Afghan Government hasn't come back or established itself. I 
know this gets into that gray area between civ-mil and your mil 
and there are civilians there. But, one of the structural 
defects within the Afghani Government is highly centralized 
government, and all the action is in the provinces, which needs 
much more effective provincial support, more independent 
governance. Is that an issue that you and Ambassador Eikenberry 
are going to take to President Karzai, along with our national 
security team, to talk about how they can empower local 
officials more than have a national ineffectual government?
    General Petraeus. Certainly. Again, a key to this is to 
helping the reestablishment of viable local social organizing 
structures, if you will. As you noted, this is a very 
centralized form of government. President Karzai is sensitive 
to the challenges that presents at lower levels. He has 
empowered governors in certain areas. Actually, interestingly, 
Helmand has one of the most active governors in all of 
Afghanistan. The challenge there is not one of desire, it's 
literally a lack of human capital, and, in particular, human 
capital that is willing to go into a really tough spot, like 
that in Marjah, when there are many requirements and demands 
and folks hiring human capital elsewhere, in locations that are 
safer. That's the challenge. But, it is certainly something 
that we have to address. It's critical. You must complement the 
activities, you must build on the security foundation that our 
troopers and Afghan troopers fight so hard to provide.
    Senator Reed. Thank you very much. My time's expired.
    Thank you.
    Chairman Levin. Thank you, Senator Reed.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I think the problem, General, all the discussion we're 
having right now, on the withdrawal and the timetable and all 
of that, is the mixed message. Frankly, I was relieved, a 
little bit, when the President spoke at West Point and he said 
it would be conditions on the ground. I think the conditions or 
the perception out there is whatever you want it to be. My 
perception is that we're not going to be pulling out until the 
conditions on the ground would justify it. But, I think the 
Taliban probably has the perception of ``cut and run,'' and 
that's what they're talking about.
    I just would say that I think it's important, as when 
you're communicating on the conditions there, that you talk 
about, ``Yes, we are in it to win, and conditions on the 
ground,'' and certainly there's enough that has been said that 
would fortify that position.
    General Petraeus. I tried to make that clear in my 
statement today when I mentioned that neither the Taliban nor 
our Afghan and Pakistani partners should have doubts about our 
continuing the fight.
    Senator Inhofe. You did. That's good. In your opening 
statement, you also talked about the merits of the CERP. I do 
appreciate that, because I've seen that in action, I see how it 
works. We actually cut that by $300 million, from $1.1 to $0.8 
million. Was that a mistake?
    General Petraeus. We asked for $1.1 billion because we 
believe we need $1.1 billion. We're also aware, though, that we 
have not used some of those funds in the past, and we've 
returned them. The truth is, though, that all we do is return 
them to the Service operation and maintenance account so that 
those funds are still used for very valid reasons. But, we 
believe that we will need that. That's why we asked for it. We 
would hope to get it.
    Senator Inhofe. I agree with that.
    I was real pleased to hear you mentioned, several times, 
your conversations you have had with Karzai. Frankly, I wasn't 
aware of that.
    General Petraeus. As the CENTCOM Commander, Senator.
    Senator Inhofe. Yes, I understand that.
    General Petraeus. In recent days.
    Senator Inhofe. I have to say this, though, in the years 
that I've been on this committee, and, previous to this, the 
House Armed Services Committee, when we go through 
confirmations, this is the first time that I've heard the 
chairman say ``when confirmed,'' not ``if confirmed.'' So, 
let's just keep that in mind.
    General Petraeus. We've had, actually, three conversations, 
Senator.
    Senator Inhofe. Yes, sir.
    General Petraeus. Once right after the nomination and then 
two more in recent days, including, as I mentioned, one coming 
over today. By the way, he asked that I give my best to 
Chairman Levin and Senator McCain. But we were talking, in 
fact, about the reintegration decree that he just approved this 
morning, which is really quite a positive development, and now 
the focus shifting to the Afghan People Protection Program 
effort that his national security team is working on.
    Senator Inhofe. I think that communications--that's 
important, because a lot of people don't realize you have that 
relationship. That is very important.
    There are a lot of things that have been done in Iraq that 
perhaps should be done. I am very comfortable that you're going 
to go in and take advantage of that. One of them was this Task 
Force Observe, Detect, Identify, and Neutralize that its 
objective was to take back the roads. General Petraeus, under 
your leadership in Iraq, our forces were using that ``take back 
the road'' strategy, combined man and unmanned surveillance 
aircraft, and quick reaction teams. The results were great, at 
least what I have read, that they have been credited with 
killing 3,000 IED emplacers, and capturing 150 high-value 
targets. I assume that program has not been taking place in 
Afghanistan. Am I correct? Is that something that will work 
there? Or is there some condition there that is different than 
Iraq?
    General Petraeus. There are small components of it. But, 
again, we just have to realize that, when you only have 30,000 
troops there which is what we had, up until 18 months or so 
ago, now this has become the main effort, appropriately, and we 
are now seeing that kind of commitment. As the CENTCOM 
Commander, and then also with the support of the Secretary and 
the President, we provided substantial additional intelligence, 
surveillance, and reconnaissance (ISR) assets. Those are among 
some of those that you talked about, but many others. This is a 
very comprehensive effort when you're trying to get the IED 
emplacers.
    Senator Inhofe. Is there anything you can think of that you 
could share with us that has met some success in Iraq that 
would also apply to Afghanistan?
    General Petraeus. Many, many things, Senator. We have 
shifted substantial numbers of them over there, and others are 
still being established.
    Senator Inhofe. Okay.
    General Petraeus. We've done a substantial amount of 
infrastructure development. Of course, that's what's necessary, 
because you have to have platforms for all of this.
    Senator Inhofe. Yes.
    General Petraeus. Indeed, we will take the same kind of 
approach there that we took in Iraq.
    Senator Inhofe. That's good. I think, for the record, it 
would be good if you could send us some of these things that 
have worked there that perhaps might be worthwhile in 
Afghanistan.
    General Petraeus. I'd be happy to do that.
    [The information referred to follows:]

    The biggest lesson learned from the counter improvised explosive 
device (IED) fight in Iraq is that it takes a comprehensive approach to 
address the problem, and that no one solution or technology alone will 
be sufficient. As in Iraq, reducing the IED threat in Afghanistan will 
result from a combination of efforts by International Security 
Assistance Force (ISAF) and our Afghan National Security Forces (ANSF) 
partners. The first critical component is that we are increasing the 
number of ISAF and ANSF security forces in Regional Commands South and 
Southwest. This has already allowed us to secure Marjah, which 
previously functioned as an insurgent sanctuary. In fact, there was 
significant IED manufacturing infrastructure in Marjah that the Taliban 
no longer enjoys access to. As we increase the ring of security around 
Kandahar City in Operation Hamkari, we will secure areas to the west 
and north of Kandahar that have also served the enemy as critical 
sanctuaries. There is no substitute for the persistent presence of ISAF 
and Afghan security forces on the ground, living among the population. 
The second requirement is to attack the enemy's network. This includes 
the leadership, logistics, and transportation components. To this end 
we are aggressively targeting and attacking these nodes. Finally, all 
of these efforts are enabled by intelligence, surveillance, and 
reconnaissance (ISR) platforms and the fusing of this data with 
information from other sources. Secretary Gates has placed significant 
emphasis on increasing ISR capability in Afghanistan, and the level of 
support we have there has more than doubled in the last 12 months. We 
are also in the process of fielding a significant number of persistent 
surveillance systems.

    Senator Inhofe. Quickly, an unnamed military official 
stated, recently, ``We're on an Afghan timetable, and the 
Afghan timetable is not the American timetable, and that is the 
crux of the problem.'' Then, after that, General Mills made the 
statement, that I'm sure you recall, talking about, ``I think 
we can move faster. We need to impart to our Afghan partners a 
sense of urgency. They have to understand there's a timeline.''
    The timeline they refer to here, how do you interpret his 
statement?
    General Petraeus. I've seen this movie before, as well. We 
used to talk about the different watches or different clocks 
that were out there when I was in Iraq, and you'd hit the 
Baghdad clock to see why it was going backwards, or to get it 
going forward, and, in the meantime, you were aware that there 
were other clocks, including perhaps one up here, that was 
moving a bit more rapidly.
    This, again, is common to counterinsurgency efforts. 
They're tough. There's nothing easy about them, and they aren't 
quick.
    Senator Inhofe. In 2004, our Oklahoma 45th was over there. 
They had the responsibility of training the ANA to train 
themselves. I went over there at, you could call it graduation 
time. I don't think they call it that.
    General Petraeus. Right.
    Senator Inhofe. But, we watched them in the field. I'm not 
sure whether you were there, but you certainly had people 
there.
    When I looked at the looks on the faces of these guys, they 
were very proud that they were taking over. That sense of pride 
was obvious. I was there for quite a while, because that 45th 
had been training them for a period of time. I received nothing 
but glowing reports.
    Then we get reports, like the one that has been referred to 
here, that was written up yesterday in the New York Times, 
where they talk about that the United States used the past 5 
years to rate the readiness and so forth, that it wasn't 
working. General Caldwell had said that--he was in charge of 
the training over there--the report was inaccurate. General 
Rodriguez said it was more accurate. I'm sure it's somewhere in 
between.
    But, in terms of these guys and the expressions on their 
faces and the pride that they had, do you think they've lost 
some of that, or do you still think that they have the 
capability of being great warriors and taking this thing over?
    General Petraeus. They are great warriors. But they're in a 
tougher fight.
    Senator Inhofe. Yes.
    General Petraeus. It's easy to stand tall when the enemy 
isn't all that significant. Again, we went through this in 
Iraq, as well, where the Iraqi security forces not only 
relatively went down, they went down absolutely, because they 
were so threatened by the deteriorating security conditions. 
That's what we have to ensure does not happen in Afghanistan.
    If I could, just briefly, about the report by the SIGAR, 
the Special Inspector General for Afghanistan--General Arnold 
Fields--by the way, with whom I had a very good relationship in 
Iraq, when he was in a capacity there--worked very hard to 
support in Afghanistan. I think very highly of him, and I will 
commit that to him, if confirmed, there, as well.
    The capability milestone rating, I think, truthfully, more 
has been made of this--all it does is tell you what the levels 
of manning, training, and equipping are. It didn't have the 
kind of subjective evaluation of fighting, which is really what 
you need. It sort of tries to project that, well, they could be 
independent, or they can't.
    What General Rodriguez, rightly, is referring to is a new 
evaluation system that's been brought online as he has gotten 
his operational headquarters online, because he's the one who 
oversees the fighting. General Caldwell does the training, the 
equipping, and the infrastructure, and then provides those 
forces, or the Afghans provide the forces, to partner outside 
the wire, along with our forces, who are under the command of 
General Rodriguez. I think, rightly, he has taken this on, and 
you'll get a more--this is a subjective evaluation of, Can they 
fight? Can they do it on their own? How much assistance do they 
need?--and so forth. I think that's where the debate is, 
really. I think General Caldwell trying to point out, rightly, 
that, over the course of the last 7 months or so, there's been 
substantial progress with the establishment of the NATO 
Training Mission Afghanistan and the overhaul of a whole bunch 
of processes.
    The fact is that what we were doing was recruiting police 
and then putting them in the fight. It was basically a recruit-
assign-and-then train-when-you-get-to-it model. That just can't 
be. You have to recruit, train, and then assign. The Afghan 
Government is fully supportive of that.
    There have been quite a few significant changes made with 
the advent of the NATO Training Mission Afghanistan and General 
Caldwell taking command of it.
    Senator Inhofe. That's a very valuable clarification. We 
appreciate it.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Inhofe.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I want to add my welcome to General Petraeus and your wife, 
Holly to this hearing.
    General Petraeus. Thank you, sir.
    Senator Akaka. I would like to congratulate you on your 
nomination to this very critical position, and also to thank 
the men and women that you lead. Their commitment and 
dedication is appreciated and honored.
    General Petraeus, I understand Secretary Gates to have said 
that you will have the flexibility to reconsider the campaign 
plan and the approach in Afghanistan. I'm sure that you will 
consider many issues as you assess operations in Afghanistan.
    General, what are some of the key elements you will look at 
in the assessment? Is there anything you plan on changing 
immediately?
    General Petraeus. Senator, I think the campaign plan is 
sound. First of all, I obviously contributed to the President's 
policy. At CENTCOM, we supported General McChrystal and 
Ambassador Eikenberry as they developed the civil-military 
campaign plan to operationalize the President's policy. We 
think it is sound. I've been one of those, of course, who 
oversees that process.
    Again, I will look hard at it, as any new commander does 
when he comes in, if confirmed, and see if there are tweaks 
needed in various places.
    As I did mention in my opening statement, I do think we 
have to look at the implementation of the tactical directive 
and the rules of engagement. That is something that clearly our 
troopers, in some cases, some units, have some concerns about; 
and therefore, they are my concerns.
    But, by and large, I think that this is more about 
executing, now, than it is about redesign. That's why it was 
important to hear that President Karzai, as I said, approved 
the reintegration policy. This is of enormous significance. 
This has been under development for months. It capitalizes on 
the National Consultative Peace Jirga that was held, of nearly 
2,000--between 1,500-2,000 participants in Kabul, several weeks 
ago. It presents a real opportunity, I think. It codifies all 
of the processes that we have been waiting for to integrate 
those elements of the insurgency who are reconcilable, an 
important element of any counterinsurgency effort.
    But, by the same token, we will continue to relentlessly 
pursue those who are irreconcilable. We will seek to empower 
and to secure villages and valleys with local security 
initiatives. This is something else that President Karzai and I 
discussed, literally on the way over here again this morning. 
It's the next big focus that he told me about, that he and his 
national security advisor, in fact, discussed yesterday, so 
that you have a comprehensive approach. That's what this 
takes--everything from the very hard-edged, targeted Special 
Mission Unit operations, to the reintegration of reconcilables, 
to conventional forces expanding their security zones, in some 
cases actually clearing, so that you can then hold and build. 
Then also local security initiatives, some of them working 
around our great Special Forces A Teams, who are out there, 
very courageously, in villages, and helping to empower and to 
support local elements that want to resist the Taliban, as 
well.
    All of that, of course, complemented by the whole host of 
political, economic, even diplomatic initiatives that can help 
produce progress, overall, and, over time, make it enduring, as 
that was the approach that we took in Iraq, and it's the 
approach you have to take in any counterinsurgency effort.
    Senator Akaka. General, last week the Army announced that 
it had exonerated the three officers who were issued letters of 
reprimand related to their actions prior to the Battle of 
Wanat. The independent investigating officer, a Marine 
lieutenant general, had recommended that two officers should 
receive reprimands. After your review, you added a third, and 
concurred with the results.
    General, first, I'm interested in your reaction to the 
Army's decision to withdraw the letters of reprimand to the 
three officers. Second, would your recommendation concerning 
the letters of reprimand change, based on any information 
presented to you by General Campbell, who was the Army official 
charged with reviewing and taking action on the independent 
investigation report?
    General Petraeus. In this case, Senator, what we did at 
CENTCOM--first, I directed Lieutenant General Natonski, 
supported by a very able U.S. Army two-star division commander, 
Major General Perkins, who, by the way, did the Thunder Run in 
Baghdad--but, they did a reinvestigation of the circumstances 
in this case. Your characterization of our findings is correct. 
We did not recommend any action. What we did is provide the 
results of our investigation, and then provided that to the 
authority that has jurisdiction, if you will--command 
authority, in this case, which is the U.S. Army.
    General ``Hondo'' Campbell, a very distinguished, great 
soldier, in fact, who is just about to retire, took that on, 
reviewed the investigation exhaustively, and did a further 
review of his own.
    This is like any process, where there was an original 
finding, then we reinvestigated another finding, then, again, a 
final review. We discussed that. I respect his view in this 
particular case. I support the process. But, I did not change 
the finding that I affirmed after the investigating officers 
provided it to me. Again, I support this particular process.
    Senator Akaka. Thank you very much for your responses, 
General.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Akaka.
    Senator Chambliss.
    Senator Chambliss. Thanks, Mr. Chairman.
    Again, General Petraeus, thanks to you, thanks to your 
family, for the great commitment that you continue to make to 
provide protection to America, as well as literally the whole 
world.
    I can't help but note the number of combat stripes you have 
on your sleeve there, which is certainly an indication not only 
of your commitment, but of the fact that you've been gone from 
your family for an awful long time over the last several years. 
I note, also, that those number of combat stripes are 
comparable to those on the sleeve of General Stan McChrystal. I 
was very pleased to hear you mention him the number of times 
that you did in your opening statement, because he certainly 
has laid the groundwork, in Afghanistan, for a successful 
military operation.
    General McChrystal has been a great military leader, he's a 
great man and a military officer that I had the privilege of 
visiting in theater several different times when he was under 
your command. I know the great work that he did there. I know 
how recognized it is by you. I also know the respect that he 
had of the men and women that served under him. Wherever life 
takes him now, obviously we all wish him the best and thank him 
for his service.
    General, I want to make sure that you appreciate the 
seriousness that this issue of the deadline, as well as the 
issue of the rules of engagement, are. I'm not going to really 
get into that, because I think you've had the opportunity, and 
you have adequately addressed those two issues. But, if we're 
going to have military success in Afghanistan--and there is no 
other option, I know, on our minds, as well as in your mind--
it's imperative that you have the tools with which you need to 
work. As you review the situation on the ground leading up to 
July 1, 2011, I know we'll be hearing more from you on that 
issue.
    I want to ask you about another side to the Afghan 
situation, and something that you and I have had a little bit 
of conversation about, but, your success in Iraq, particularly 
in the Ramadi area, when we saw a turn in the conflict there, 
was in large part due to the fact that the Iraqi people got 
engaged and decided they wanted to see a peaceful resolution of 
the conflict in Iraq, and joined forces with your army, as well 
as our colleagues and our partners in Iraq. Thus, we saw a 
complete change in the direction of that war.
    We haven't seen that situation in Afghanistan; and unless 
there's confidence on the part of the Afghan people that we're 
going to be there, I don't think it's going to happen. That's 
an issue that you'll address with respect to this deadline.
    But, there's another part to it. In Iraq, there was an 
economy which could be built upon. It was founded on oil. It 
has been rebuilt on oil. It appears to be moving in the right 
direction; the Iraqi people have a good feeling about it.
    In Afghanistan, I don't see that, number one, foundation to 
be built upon; but, second, until there is security within 
Afghanistan, it's going to be very difficult for that 
confidence to be achieved. Two areas of their economic 
situation that I know are available or are potentials:
    Number one, the agricultural economy of Afghanistan does 
have a lot of potential. You and I have talked about the fact 
that I had the opportunity to observe what's going on in 
Lashkar Gah with respect to what the U.S. Agency for 
International Development (USAID) and other partners are doing 
to build up that aspect of the economy.
    Also, with the recent finding of minerals and metals in 
Afghanistan, there is additional potential for providing the 
Afghans with some sort of quality of life.
    But, unless you have security in the country, neither one 
of those avenues for building that economy is going to be 
possible.
    I would simply like you to comment, number one, on your 
idea about partnering with the Afghan people and with the 
Afghan Government to start this economy, or move it in a 
positive direction, and second, how that interrelates with the 
ability to incorporate the mindset of the Afghan people to 
understand why it's important that we have peace and security 
there.
    General Petraeus. First of all, I think there is a good 
partnership between the military side of the campaign and, 
again, the Embassy--USAID Director Rajiv Shah--and also proper 
emphasis, enormous emphasis that Ambassador Holbrooke has put 
on the agriculture effort, along with Secretary Tom Vilsack. I 
think that has all been very positive.
    Clearly, what we have to do is expand the security bubble 
in key areas, when it comes to agriculture, provide alternative 
crops to those who are growing the poppy, and so forth, to make 
that more viable.
    There are a lot of initiatives, everything from rebuilding 
the canal structures or cleaning or what have you--refurbishing 
the canal structures that USAID, by the way, put into 
Afghanistan decades ago. The reason central Helmand Valley is 
so fertile is because it was an USAID project that was hugely 
successful. By the way, they remember the Americans for that. 
All of that founded on security, to be sure.
    Now, beyond that, I think it is worth recalling, because 
there were some news stories on it recently, that Afghanistan 
is not without natural blessings in a whole host of ways, 
including extraordinary mineral resources. It has extensive--
some of the largest resources of all, when it comes to lithium, 
iron ore. It has coal. It has tin. It has lumber. It has 
precious gems, and so forth.
    But, of course, you have to extract it. You have to have 
extractive industries. You have to have the lines of 
communication. Again, you have to have security. You also have 
to have the governance structures in which that can function. 
There has to be a legal framework that provides sufficient 
incentives. But, it's my hope, in fact, in all seriousness, 
that we could see some of what are called ``adventure venture 
capitalists'' enter Afghanistan who can help the Afghan 
Government and people capitalize on, take advantage of, these 
extraordinary mineral blessings that they have.
    Senator Chambliss. Thanks very much, General. Again, thanks 
for your commitment.
    General Petraeus. Thank you, sir.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Ben Nelson, and then Senator Graham will follow 
Senator Nelson. Then we're going to take a 10-minute break.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    General, thank you and your wife and your family for your 
continuing service to our country. We appreciate it. I know the 
country is in your debt for taking on this assignment.
    I'd like to follow up on a couple of questions that I had 2 
weeks ago about the Afghan population and whether or not they 
believe that the country is going in the right direction with 
the NATO and U.S. forces there directing it. Secretary Flournoy 
said, I think, that 59 percent of the Afghan people were of 
that opinion.
    Now, much has been made about the July 11 withdrawal. Is 
there a way that we can--and particularly with your 
leadership--assure the Afghan people that this is not a cut-
and-run deadline or a drop-dead date for decisions? Because I 
think that may impact what further acceptance there is, as 
you've indicated, of the effort on their behalf.
    General Petraeus. We absolutely can, Senator. In fact, I 
have sought to do that with my encounters, with the Afghan 
Government as the CENTCOM Commander, also with our Pakistani 
partners, with whom we've worked very hard to forge a good 
partnership, and who have done such impressive 
counterinsurgency operations, at high cost to themselves, 
against the Pakistani Taliban on their side of the Durand Line.
    As you note, Secretary Flournoy did point out the results 
of these polls that almost paradoxically seem to show that, 
although levels of violence have gone up, they have actually 
have greater hope for the future, and greater optimism. That's 
obviously something that we want to play on, and to show them 
that their hopes are well-founded by our actions, together with 
our Afghan partners.
    Senator Ben Nelson. There is some concern that many will, 
maybe, withhold their support because they're concerned about 
the Taliban coming back in and, as you've indicated, chop their 
heads off if they collaborate with us. You believe that we can, 
by showing our commitment, overcome some of that resistance, 
which is natural for people to be concerned?
    General Petraeus. I do. I think it would be a mistake for 
them to hedge their bets forever. Clearly that's what we want 
to demonstrate by our operations on the ground, by our 
development of the Afghan National Security Forces who can take 
over the tasks and show that, again, that is not just possible, 
but will happen. Also, to demonstrate to the Taliban that they 
should not continue what it is that they are doing, either. 
There are not only incentives for reintegration, there are 
enormous penalties for not reintegrating.
    Senator Ben Nelson. Will potential withdrawal of some of 
the NATO forces be a bump in the road, in terms of that 
perception, or will that be something that could simply 
embolden the Taliban?
    General Petraeus. I wouldn't say that it will embolden 
them. It will perhaps give them a little cause for optimism. 
What we have to do, obviously, is compensate. Whenever there is 
a shift, whenever there is an addition, a reduction, what have 
you, obviously, you have to redo your battlefield geometry, as 
it's said. We have done that already, to compensate for the 
expected departure of one nation's forces. We'll do that as we 
have to.
    On the other hand, we're also accommodating the additional 
forces, for example, that are coming from Jordan or, from 
Georgia, and also from some of the countries in the CENTCOM 
region, and then also some others around the world.
    Senator Ben Nelson. In that regard, as you satisfy the 
government that we are there to stay, and work toward building 
the confidence of the Afghan people, will the rules of 
engagement, by clearly stating them, as you have, also tell the 
Taliban that it's going to be ``game, set, match'' one of these 
days, in terms of their future?
    General Petraeus. I think what impresses the Taliban is not 
in the rules of engagement. It's the precise, targeted 
operations that are designed to give them no rest. The idea is, 
if you can get your teeth into the jugular of the enemy, you 
don't let go. This word ``relentless'' is an important word to 
describe the campaign against the Taliban, just as other 
efforts also have to be relentless in our commitment to try to 
help the Afghan Government provide a better future for their 
people.
    Senator Ben Nelson. We talked, a few weeks ago, about the 
benchmarks and metric measurement of our success. In that 
regard, what should we expect between now and December just as 
a date and point of time?
    General Petraeus. Certainly what we'll be looking at will 
be the security situation in districts, and, in some cases, 
even subdistricts, because you really do have to have a fairly 
granular look at this. You can look at levels of violence 
within districts, for example, because that's what matters.
    If you have been able, for example, to move the violence 
out of Marjah, and it's on the periphery, as it generally is 
right now--touch wood--again, that is important, because that 
is protecting the population. It allows commerce to resume, 
schools to reopen, health clinics to be rebuilt, much of which 
was damaged by the Taliban during its control of that 
particular area. So, that's important.
    Then, of course, as the Chairman has focused on, rightly, 
How are the Afghan security forces doing in these different 
efforts, different locations? Not just numbers, but level of 
contribution, capability, quality, and so forth, as well. Then 
you get into the areas of the provision and the establishment 
of local governance, of local services, and of that whole 
process of pointing to a brighter future for the people of that 
particular area.
    But, again, I think you have to do it in a fairly granular 
fashion to try to understand what's going on, and also to 
confirm that the approach does produce the kind of progress 
that we're seeking to achieve.
    Senator Ben Nelson. Is it fair to say that strengthening 
the local governments will have a positive impact on the 
central government of President Karzai's?
    General Petraeus. It is, certainly, as long as that local 
governance is, of course, distinguished by two very important 
qualities. Those are: inclusivity--in other words, everyone in 
that area feels as if they have a seat at the table and are 
involved and represented; and then, transparency, so that 
everyone has a sense of what's going on, and, in particular, 
where the money is going, because that's very important, 
needless to say, as well.
    Senator Ben Nelson. Is that why you said, ``It's hard, and 
it's hard all the time''?
    General Petraeus. That, and many other reasons, Senator. 
Thank you.
    Senator Ben Nelson. Thank you, and good luck. We're all 
depending on you.
    General Petraeus. Yes, sir.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    General Petraeus, I can't tell you how much it means to all 
of us that you're willing to do this. It is very unfortunate 
that General McChrystal is resigning from the Army. In case 
he's listening, I think about everyone here who's met him has 
nothing but great respect for his service, and the incident 
which led to his resignation is very unfortunate, should not be 
the end of his evaluation, in terms of being an Army officer. 
He was a terrific Army officer, and I want to let everyone know 
that most everybody who met him believes that.
    General Petraeus. Right.
    Senator Graham. Now, I don't know how this translates in 
Pashtun, but it's not translating well for me in English, in 
terms of where we're at and where we're going. I would not use 
the word ``relentless,'' General, in terms of the policy that 
we're embarking on, regarding the enemy. That's just my two 
cents' worth.
    From what I can take, here's the summary of your testimony, 
from my point of view, and I may be wrong. It doesn't appear 
there are going to be any civilian changes, in terms of the 
team in Afghanistan. Is that correct?
    General Petraeus. That's beyond my purview, Senator.
    Senator Graham. Okay. From what I can tell, it doesn't seem 
to be contemplated.
    From your testimony, I think you've created an expectation 
by the American people, in July 2011 we will begin to withdraw 
from Afghanistan. Is that a correct assumption I've made, or 
not?
    General Petraeus. What I have done is restate the policy as 
it currently exists, Senator. The policy, again, that, as I 
stated, I supported and agreed to, back last fall, to begin a 
process, in July 2011, under which tasks are transferred to 
Afghan security forces and government officials, and a 
``responsible drawdown'' of the surge forces begins, pace to be 
determined by conditions.
    Senator Graham. The Vice President has been quoted as 
saying, about this particular topic, ``Come July, we're going 
to begin to leave in large numbers. You can bet on it.'' Is his 
view of the policy correct?
    General Petraeus. Well, first of all, I've heard----
    Senator Graham. If that's----
    General Petraeus.--Secretary Gates----
    Senator Graham.--an accurate statement----
    General Petraeus. I've heard----
    Senator Graham. If that is an----
    General Petraeus.--Secretary Gates----
    Senator Graham. Excuse me.
    General Petraeus.--state that he----
    Senator Graham. Excuse me, sir. Let me ask my question.
    Is his statement, if accurate, does that make sense, in 
terms of what you think the policy to be?
    The Vice President of the United States has been quoted, in 
a book widely published in the United States, which I am sure 
the enemy can have access to, that, ``Come July 2011, we're 
going to be leaving in large numbers, you can bet on it.'' Is 
he right?
    General Petraeus. First, let me just state something that 
he said that I could share with you and others.
    Senator Graham. Okay.
    General Petraeus. In the National Security Council meeting 
that followed the meeting that I had with the President in the 
Oval Office, at which the President laid out what the future 
was going to be and described his expectations, the Vice 
President grabbed me and said, ``You should know that I am 100 
percent supportive of this policy.'' I said that, ``I'm 
reassured to hear that. Is it okay to share that with others?''
    Beyond that, I might add that I'm hosting the Vice 
President for dinner tonight at our quarters in Tampa. Again, 
we have another opportunity to continue that conversation.
    The third and final point is, Secretary Gates has said, I 
believe in testimony, that he never heard Vice President Biden 
say that remark, either. For what it's worth.
    Senator Graham. It's worth a lot, because he's saying one 
thing to one person, allegedly, and he's saying another thing 
to you, and they don't reconcile themselves. That is exactly my 
point. It depends on who you seem to be talking to, because a 
lot of liberal people in this country are being told, directly 
and indirectly, ``We're getting out, beginning July 2011. How 
fast, I don't know, but we're beginning to leave.'' Somebody 
needs to get it straight, without doubt, what the hell we're 
going to do, come July, because I think it determines whether 
or not someone in Afghanistan is going to stay in the fight.
    Now, this is not all your problem to fix. This is a 
political problem. Because I'm assuming the July deadline did 
not come from you. You said it didn't. You agreed to it, but 
somebody other than you came up with this whole July-get-out-
of-Afghanistan deadline, and I think it's all politics. But, 
that's just me.
    In the House, Friday, the Speaker of the House said, ``I 
don't know how many votes there are in the caucus, even 
conditions-based for the war hands down, I just don't. We'll 
see what the shape of it is the day of the vote.''
    A letter was sent to the President by Barbara Lee, a 
Democratic member of the caucus from the House Foreign 
Relations Committee. It said, ``Mr. President, we believe that 
it is imperative for you to provide Congress and the American 
people with a clear commitment and plan to withdraw U.S. forces 
from Afghanistan. This should include not only a date certain 
for the initiation of this withdrawal, but a date for the 
completion and a strategy to achieve it.''
    You're advising Congress now. We fund the war. What would 
you say to her recommendation that war funding have a condition 
placed upon it that no funds can be expended until you deliver 
to us, Congress, a withdrawal strategy?
    General Petraeus. What I have stated here this morning is, 
again, first of all, the importance of, of course----
    Senator Graham. Would it be wise of us to put that in 
legislation----
    Chairman Levin. I wonder if he could just finish the 
answer.
    Senator Graham. I think my question is pretty simple. Would 
it be wise for Congress to put such a condition on war funding? 
Would it undermine the mission?
    General Petraeus. Let's think about it from the enemy's 
perspective and from the perspective of our friends. As I 
sought to do in my opening statement this morning, they should 
be assured that, with respect to, one, we are going to pursue 
them relentlessly. With respect, Senator, earlier, we are 
pursuing the enemy relentlessly. Make no mistake about it. When 
you're back out there as ``Colonel Graham,'' you'll see it once 
again.
    Senator Graham. Yes, sir.
    General Petraeus. We look forward to having you as part of 
the ISAF Command, if confirmed.
    Senator Graham. I'll look forward, but my time's up. You 
have a chance to advise Congress. Should we put a condition on 
war funding that would say, ``You have to submit a plan for 
withdrawal by the beginning of next year''? Does that undercut 
our mission, or not?
    General Petraeus. It would be contrary to the whole policy, 
which has talked about conditions-based.
    Senator Graham. Thank you.
    General Petraeus. I hope that's enough of an answer.
    Senator Graham. Thank you.
    Chairman Levin. Thank you, Senator Graham.
    We're going to take a 10-minute break. [Recess.]
    We'll be back in order.
    Senator Bayh.
    Senator Bayh. Thank you very much, General.
    I want to express my appreciation for our phone call the 
other day. I really did appreciate your courtesy. It's great to 
see you here. Again, thank you for your continued service to 
our country, and your family's willingness to support you in 
that service.
    I just have three questions. It seems, predictably, that 
most of the dialogue here this morning is focused upon the July 
date for next year. There are some who have argued that a 
deadline is important, to create a sense of urgency on the part 
of the Afghans and our allies, and also to ensure that we don't 
enable dysfunctional behavior on their part. There are others 
of you, you have heard here, who think that the presence of a 
deadline shows a lack of resolve on our part, and undermines 
their willingness to do some of the tough things, over the long 
haul, that need to be done.
    It seems to me that you're attempting to strike a 
commonsense middle ground here, to get the benefits of creating 
a sense of urgency, while still reassuring our allies that the 
deadline is flexible and will take into account changes on the 
ground.
    If you could just elaborate a little bit upon the 
importance of trying to strike that balance, not choosing one 
or the other, but also the difficulties of getting it right. It 
seems to me, therein lies that major challenge we confront.
    General Petraeus. Therein does lie the challenge, I think. 
On the one hand, productivity experts say that there's no 
greater productivity tool than a deadline. Indeed, as I 
mentioned, the message of urgency that the deadline conveyed, 
keeping in mind that this 18 months or more, when it was 
announced, out in the future, I'm convinced it was not just for 
domestic political purposes. It was for audiences in Kabul, 
who, again, needed to be reminded that we won't be there 
forever. But, we will be there, and presumably for quite some 
time, as I mentioned in my opening statement--various 
quotations from various G-20 leaders, President Obama, and 
others.
    Senator Bayh. Can I interject just for a moment, General? 
It seems to me the message there to the Afghans is, ``Look, 
we're here, and you can rely on us, but you have to do your 
part, too. You cannot exclusively rely upon us.''
    General Petraeus. I think that's it. I think there is a 
sense, again, that, on the one hand, ``Don't take us for 
granted, but do expect us to be there. But, we want to be there 
with you.'' I think it did actually galvanize some degree of 
action. There may have been some message for some of us in 
uniform that we needed to get on with it.
    The truth is that early on in the process we were looking 
at a more deliberate campaign. We compressed that. Getting the 
troops on the ground much more rapidly than was originally even 
thought possible, frankly, much less desirable.
    I think, in that sense, again, all helpful. On the other 
hand, again, you have to make sure that the enemy does not 
interpret that as that moment where, as we've said, the United 
States is heading for the exits, looking for the light switch, 
to turn it off, because we're out of here. Because that is not 
accurate, at least not in my perception.
    Again, I was part of the process, actually went with the 
President to West Point to hear the speech. I sat there, heard 
it. What I took from it were two messages. Again, an enormous 
commitment, when you think about it, that it requires 
substantial additional resources, as we have discussed--and the 
funding for that is very important, but also the message of 
urgency. That's what this July 2011 conveyed. That's how I took 
that.
    Senator Bayh. It's always tempting to choose an all-or-
nothing approach, but on something this complex, sometimes the 
truth lies somewhere in the middle, and it seems to me that's 
exactly the approach you and the President have taken. I think 
it's the right one.
    My second question, there are some who question our mission 
there entirely by saying, ``Look, we were attacked from 
Afghanistan by al Qaeda, but al Qaeda is not really there 
anymore. They've moved over into the tribal areas in 
Pakistan.'' You touched upon this in your opening statement. 
Can you give us your assessment about the likelihood--if we 
were to withdraw from Afghanistan prematurely, and the Afghans 
did not have the capability of securing their territory--the 
likelihood that al Qaeda would reestablish itself in that 
place?
    General Petraeus. I think there's a high likelihood of it, 
especially if the pressure continues on them in the tribal 
areas. They have sustained significant losses, as is well 
known. In the tribal areas, their freedom of action has been 
reduced by operations by the Pakistani Army and Frontier Corps 
in the former Northwest Frontier Province, Khyber Pakhtunkha, 
and in several of the agencies of the tribal areas, certainly 
not all of them, and certainly there are still, without 
question, extremist elements there that have sanctuary there 
and are carrying out operations inside Afghanistan; and others 
that are transnational, as is the case of al Qaeda and some 
other elements in Pakistan, as well.
    But, the Pakistanis have carried out impressive operations 
over the course of the last year. Their means are not 
unlimited, however, and they have a lot of short sticks in 
hornets' nests right now, and they have to consolidate some of 
their gains. They have to do the hold and build and transition 
phases, as well as they did the clearance phases in places like 
Swat Valley.
    Senator Bayh. That is a good segue to my final question, 
General. As we were discussing yesterday, I'm confident that, 
with your leadership and the civilian leadership, we're going 
to do our part here. Certainly there are some differences of 
opinion--that's been well documented--but, we have a pretty 
good team, and particularly our men and women who wear the 
uniform are going to perform heroically and do their jobs well.
    But, ultimately, this is not up to us. Ultimately, it's up 
to the Afghans, primarily, and then some of the neighbors, 
principally the Paks, to do their job, as well.
    My final question to you would be first about the Afghans 
and then about the Paks. Are the Afghans willing to reconcile 
themselves to being, not a nation-state, perhaps, as we would 
ideally describe it, but at least to resolve enough of the 
ethnic tribal tensions to view themselves first as 
Afghanistanis, and second as members of ethnic and tribal 
groups, sufficiently to establish a strong enough state? That's 
number one. Do they have it within them to do their job?
    Second, the Paks: Are they in the process of reassessing 
their own strategic interests, which heretofore have led them 
to believe that a weak Afghanistan, subject to their influence, 
was in their national security interest? Do they now understand 
that an Afghan Government with sufficient strength to secure 
their own territory is, in fact, in the strategic interests of 
Pakistan?
    General Petraeus. I think the answer to both of those is 
yes. I think it is within the capacity of the Afghan people to 
see themselves as Afghans, perhaps first, even before their 
tribal or ethnic or sectarian identity. Certainly the country 
has existed as a country--arguably, it's existed as a country 
longer than ours has. It has had extended periods of time when 
it has been ruled by a leader out of Kabul.
    But, as with any society like that, what it will require is 
this inclusivity and transparency in the activities of 
governance. President Karzai has discussed that with me and 
Ambassador Holbrooke, on several occasions. That is something 
that we look forward to supporting him in striving to achieve.
    With respect to the Pakistanis, I think there is some 
reassessment that has gone on with respect to Afghanistan. I 
think as important has been the reassessment of the situation 
within their own borders.
    What took place about 12 to 18 months or so ago, when the 
Pakistani people, the leadership, and the clerics all came to 
recognize that the most pressing existential threat to their 
country was that posed by internal extremists who had 
threatened the writ of governance in Swat Valley and the rest 
of what is now called Khyber Paktunkwa, and then in a number of 
areas of the tribal areas.
    The fact is, I think they came to recognize that the 
concept that was in practice, and still may be in some areas--
that concept, that you can allow poisonous snakes to have a 
nest in your backyard, as long as they only bite the neighbors' 
kids, inevitably turns around and ends up biting you in the 
backside. I think they have come to see the challenges of this.
    Now, to be fair to them, let's remember that many of these 
groups were formed, in the beginning, with our money, through 
the ISI, when we were trying to help get rid of the Soviets out 
of Afghanistan, and the Mujahideen were our heroes at that 
time. Those very groups put down roots and, in some cases, 
turned into transnational extremist elements and other 
extremist elements that have threatened the idea of Pakistan 
being able to move forward, and actually want to turn the clock 
back several centuries. I think that they have come to 
recognize the threat that these groups pose to their country, 
but have also realized that they cannot deal with all of them 
simultaneously, and that their means, particularly when it 
comes to the holding, building, and transition phases, is 
somewhat limited.
    That's why the Kerry-Lugar-Berman bill was so important. 
That's why a sustained, substantial commitment--again, we 
talked about the idea of a sustained commitment--that's why 
that is so important, with respect to Pakistan, as well.
    Senator Bayh. General, thank you, again, for your service 
and for your leadership.
    General Petraeus. Thank you, sir.
    Chairman Levin. Thank you, Senator Bayh.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    General, thank you for once again answering the call to 
duty. As you can tell, members on this committee, I think 
Members of Congress, irrespective of their political 
affiliation, have tremendous confidence in you, as do the 
American people. Our hopes and prayers are with you and our 
troops that this can be a successful mission and undertaking. 
Thank you, to your wife, Holly, too, for being willing to take 
on the responsibilities and the sacrifice that goes with having 
you away all these months.
    I was pleased to hear you say, I think in response to an 
earlier question today, I raised the question a week ago, when 
you were here, about the issue of rules of engagement, 
particularly with regard to close air support, and to hear you 
say that you are going to evaluate those. I think it does get 
at this whole issue of not only protecting our men and women in 
uniform, but also the perception that we are in this to win. I 
appreciate you doing that.
    Could you speak to the importance, with regard to close air 
support, of the B-1 in the current fight in Afghanistan, both 
in terms of providing close air support, as well as providing 
ISR to our troops on the ground?
    General Petraeus. First of all, if I could, just to be 
precise, it's really about the implementation of the rules of 
engagement and the tactical directive, both of which I think 
are fundamentally sound. I don't see any reason to change them 
in significant ways.
    Rather, what we do need to do is make sure that the intent 
behind those, the intent being to reduce the loss of innocent 
civilian life in the course of military operations to an 
absolute minimum, that's an imperative for any 
counterinsurgent. We must achieve that. I have pledged to 
continue to do that, to continue the great work that General 
McChrystal did in that regard.
    But, at the same time, we have to find that balance between 
ensuring that we also bring everything to bear, if our troopers 
get in a tough spot, and make sure that process is very rapid 
in responding, when it is absolutely necessary to do that.
    Now, the B-1 does play a very big role in that regard. It 
is a great platform in at least two respects, maybe more. One, 
it carries a heck of a lot of bombs, substantial ordnance. 
Second, it has very good ISR capabilities. It can loiter for a 
good time, when it's not being used to drop bombs, which is, 
frankly, what it does most of the time, because we're not 
dropping bombs constantly. It is up there waiting, in a Combat 
Air Patrol. Then what we do is, we use whatever optics that 
particular bomber has on it, the sniper pod or what have you. 
It is almost like having another unmanned aerial vehicle, in 
terms of full motion video and so forth, not quite the same 
resolutions and differences in the capabilities, but it is very 
helpful in that regard, as well.
    It's not just a case of a very capable bomber just boring 
holes in the sky, waiting to open the bomb-bay doors. It is 
also a case of a platform that's very capable, even as it is 
just doing that, flying around in circles.
    Senator Thune. Let me ask you, I don't want to beat this to 
death; I think you answered it at great length, but this was in 
written response to the advance policy questions for the 
committee. You state that you agree with the President's 
decision to begin reductions of U.S. forces in July 2011.
    You also assess, in your responses to the committee's 
advance policy questions, ``An increasing percentage of 
insurgents are motivated by the perception that the Taliban 
will eventually emerge as the dominant Pashtun political entity 
in Afghanistan.''
    You also write in your response to the advance policy 
questions, ``The Taliban believe that they can outlast the 
coalition's will to fight, and believe the strategy will be 
effective, despite short-term losses.''
    Do you believe that the July 2011 date to begin reductions 
of U.S. forces contributes to the perception among the 
insurgents that Taliban will eventually emerge as the dominant 
Pashtun political entity in Afghanistan?
    General Petraeus. Only if it is interpreted what I think is 
incorrectly. Again, that really comes back to Senator Bayh's 
question, earlier, I think, of being very careful in how we 
explain what that represents. Of course, that's what I sought 
to do in my opening statement today, as well.
    This is a test of wills, though. The enemy has to know that 
we have the will to prevail.
    Senator Thune. I appreciate your efforts to try and clarify 
that. I think it is critical that the enemy knows that, that 
our friends, as you mentioned earlier, know that we are 
committed. We can't do this halfway. There has to be an 
understanding that we are in this to win.
    You know that the Senate passed its version of the war 
supplemental before the Memorial Day break, consistent with the 
Department's request. The House has yet to mark it up or to 
take up the legislation. I certainly, as I think my colleagues 
here all do, support funding for the troops. I was compelled, 
as many of my colleagues here were, to vote against the 
emergency supplemental when it left the Senate, because the 
majority had included a lot of additional domestic spending 
that many of us disagreed with. We are now seeing that the 
Democrat majority, some of our colleagues in the House, are 
seeking to add some domestic spending items to the bill, as 
well.
    My question is, Could you comment on the urgency of the 
funding, in the first place, and perhaps elaborate a little bit 
on what the consequences of delaying that funding would be, 
when it comes to our military operations, particularly those in 
Afghanistan?
    General Petraeus. As the old saying goes, ``You can never 
go wrong by quoting your boss.'' In this case, I'd like to 
recall what I believe Secretary Gates said--perhaps you might 
confirm it--but, I believe that he said something along the 
lines that, ``If the supplemental wasn't passed by the 4th of 
July, then what happens is, the Services have to start going 
into various drills,'' because the consequences won't be felt 
in Afghanistan. The Services will find the money to fund our 
operations in Afghanistan. I'm convinced of that. The Secretary 
and the President will ensure that is the case.
    What will happen, though, is, there will have to be a whole 
host of other activities, that are either reduced or shut down 
or stopped, to find the funding for that. I think that would be 
in other areas that the various Military Departments have 
operations, maintenance, training, recruiting, and other 
readiness activities.
    Senator Thune. I assume that you would like to see a clean 
supplemental appropriation, though. It was talked about 
earlier. I think Senator Graham alluded to some discussion in 
the House right now about perhaps attaching some conditions on 
Afghanistan to a supplemental appropriation bill.
    General Petraeus. Senator, I'll leave that up to Congress. 
All we want is the resources to enable us to continue the 
fight.
    Senator Thune. I suspect we have a better opportunity of 
getting you those resources if, in fact, it is a clean bill.
    There was a report that the Taliban had attacked a wedding 
party in Arghandab district, a few weeks ago, killing at least 
39 people. There are also reports the Taliban executed a 7-
year-old child in Helmand Province for cooperating with the 
Afghan Government. I'm curious to know, with regard to the 
village where the wedding party was attacked, what we've done 
to provide assistance to the survivors. Since this village was 
clearly allied with us against the Taliban, why were we not 
able to protect it? I know, as a counterinsurgency strategy, 
that's one of the main objectives, is to protect the 
population. Could you perhaps provide a little bit of insight 
about how that is going and that element of our strategy?
    General Petraeus. I don't know the circumstances of what 
security precautions were taken for this particular wedding. 
Again, no question but that the Taliban bombed and killed 
dozens of innocent civilians in attacking what should have been 
a celebration, and turned it into a tragedy.
    With respect to the assistance to the survivors, that one 
I'd like to take for the record and see what it is that the 
unit there has done.
    [The information referred to follows:]

    We believe that the Arghandab wedding was specifically targeted due 
the large number of Afghan National Police (ANP) who were present. This 
particularly brutal attack was perpetrated by an insurgent who employed 
a suicide vehicle born improvised explosive device, or in plain 
language a car bomb. By our numbers, he killed 38 Afghans, 14 of whom 
were Afghan Police. Eighty-four others were wounded in the attack.
    Our intelligence analysis determined that this was not a revenge 
killing, and the Taliban appear to have specifically targeted the ANP 
officers attending the wedding. This terrible act illustrates the 
desperation of the Taliban. While increased violence at the hands of 
the Taliban is deplorable, it must be viewed in context. Heightened 
violence throughout the summer was anticipated by International 
Security Assistance Force (ISAF) as a result of our increased 
operational tempo and efforts to separate the population from the 
insurgency.
    ISAF forces conducted key leader engagements with the ANP following 
this tragedy and extended its greatest condolences to the families of 
those who were wounded or killed. However, as ISAF was not involved in 
the incident itself, the Afghan Government is responsible for providing 
assistance to the survivors who were members of the Afghan National 
Security Forces.

    General Petraeus. I suspect, by the way, that this is what 
CERP is so useful for, is this kind of activity in immediate 
need in security circumstances that are challenging.
    But, what you have highlighted is something that I think we 
all need to highlight much more, and something that we will 
strive to do in our strategic communications, and it is just 
merely truthfully to report the extremist activities, the 
indiscriminate violence, and the oppressive practices that have 
always been associated with the Taliban.
    Despite their supposed change in strategy this year--they 
also have committed, they said, to not killing innocent 
civilians--despite all of that, they have continued to carry 
out actions, just like you have said. In fact, their IEDs kill 
innocent civilians in Afghanistan on a daily basis. We must get 
the word out on that more effectively.
    Senator Thune. Thank you, General. Thank you, again, for 
your service.
    General Petraeus. Thank you, sir.
    Senator Thune. Thank you, Mr. Chairman
    Chairman Levin. Thank you, Senator Thune.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    General, I would like to reiterate what I said to you in my 
office, and that's how much I respect your stepping forward 
here, in what is really an unusual historical circumstance, in 
that, at least on paper, you are accepting a demotion in order 
to undertake these responsibilities. As you alluded to a little 
earlier, you're kind of your own boss right now. There was a 
country song, when I was a kid, by a group called ``Flatt and 
Scruggs,'' called ``I'm My Own Grandpa.''
    General Petraeus. There's been an amazing alacrity of 
approving ISAF-submitted requests in the CENTCOM headquarters 
in the past several years.
    Senator Webb. Yes. Then the question becomes, ``If you 
don't like what you're doing, can you fire yourself?'' 
[Laughter.]
    I would also like to express my appreciation for the 
comments you're making about rules of engagement here, and the 
need to review them. I struggled with this as a rifle platoon 
and company commander in a very difficult war. I worry about 
it, as a father, in this war, with a son who is a lance 
corporal in Anbar Province. Actually, I wrote a movie called, 
appropriately enough, ``Rules of Engagement.'' It's a very 
delicate question in these politically-driven operations. But, 
as clearly as I can say this, there are no circumstances--
none--in which we should put our people unreasonably at risk, 
where they cannot take actions in order to protect themselves. 
There's a perception out there, among a lot of military people, 
that that has occurred. You can go a long way--I think you 
already have gone a long way, in terms of clarifying that to 
the people who are out there serving.
    Last year, a little more than a year ago, when you were 
testifying, I raised some of my concerns about this Afghanistan 
venture. They were basically based on uncontrollable unknowns, 
particularly when it comes to the use of the military itself, 
unknowns that are beyond the scope of military operations, as, 
for instance, Can the Afghanis really put together a viable 
national government? Can they really grow to 400,000?--which I 
assume is still the goal, when you combine the National Police 
Force with the National Army, which is probably five times as 
high as what any viable ANA before, on a national level, has 
ever reached.
    Also the question on the strategy of clear, hold, and 
build. I recall having a discussion with you a year ago on 
that. We kind of know who's going to clear, and they've done a 
pretty good job, in terms of clearing. It was not really clear, 
no pun intended, who was going to hold and who was going to 
build.
    I would like to share with you an excerpt from a letter 
that I received yesterday, and get your thoughts on the phase 2 
and phase 3 of this strategy. This letter was written by an 
individual who was a great mentor to me, as I became a Marine 
Corps general, and very thoughtful individual who's had family 
members--like so many of us have, he's had family members in 
Afghanistan for more than 5 years at this point. He said this, 
``The national strategy, as currently implemented, is seriously 
flawed,'' talking about clear, hold, and build. He went on to 
point out that the clear phase is a military responsibility. He 
has great faith in it, although he did have some discussion 
about the difference between living among the population and 
operating out of forward operating bases, and those sorts of 
things. He says, ``The hold phase is where the strategy's 
serious problems start. The Afghan National Police are the 
logical force to hold a cleared area. The bulk of the 
population, with ample reason, considers the ANP to be a 
corrupt, untrustworthy, and illegitimate organization. This 
problem is compounded by the fact that the bulk of the 
population also holds the same view of the Karzai Government. 
They consider the central government to be a corrupt, 
irrelevant entity. The build phase is now largely a figment of 
the imagination,'' according to this general. ``In the final 
analysis, the three-pronged strategy has two broken prongs. It 
is a charade summing to the point that the problem and its 
cures are essentially in the political, vice the military, 
realm. We have a solid military base in Afghanistan,'' writes 
the general, ``however, it is meaningless, unless the civilian 
leadership attacks the political problems.''
    I would imagine that, in concept, you would probably at 
least agree with his bottom line here. The question is, in your 
capacity, what do you believe can be done in order to attack 
these political problems and make this policy a success?
    General Petraeus. The truth is that, in counterinsurgency 
operations, military leaders end up getting involved in civil-
military activities; you've lived it, you know it. That is not 
just inevitable, it is essential. You must capitalize on every 
capability that is out there--host nation, U.S., international, 
whatever it may be. But, at times, you have to make up for what 
might not be there, same three categories.
    But, to reach an enduring situation, such as we were able 
to reach, I think--touch wood--and not just in Anbar, but in 
Iraq, writ large, although the final chapter is certainly not 
written, and there's plenty of political drama going on there 
now--but, over time, we were, obviously, able not only to clear 
areas and to turn bad guys into at least no longer bad, no 
longer opposing, in many cases supporting the new Iraq. Then 
citizens stepped forward, they were given a stake in the 
success of the new Iraq, they felt included, and there was a 
certain degree of self-policing among the community that is so 
important as it works forward, and then as you establish the 
formal security forces, and so on.
    There's no question that the police, in an insurgent 
situation, facing an insurgency, are the most vulnerable. They 
are very susceptible to intimidation, to assassination, and, in 
some cases, sadly, corrupt activities, as well, or even illegal 
activities. There has to be improvement in that very important 
element of the security forces.
    With respect, I think the build phases actually are coming 
along reasonably well. But, again, that's something that we are 
largely doing with our CERP, and then with our USAID comrades, 
and others--U.K. Department for International Development, and 
so on. But, again, the question there is to get to something 
that is sustainable, that's enduring, that's self-sustaining 
over the long term.
    Then there's really a fourth phase to the clear, hold, and 
build. There's a transition phase. That's the phase when we 
begin to thin out, we begin to hand off tasks.
    Of course, you don't merely need to do this so that, 
ultimately, we can reduce our forces in theater. You need to do 
it so that you can send your forces elsewhere, so that, as we 
solidify a situation, say, in Nawa, you can focus a bit more in 
Marjah or Nadi Ali, or push out a bit farther, to increase the 
security bubble for the people. You don't have to go 
everywhere. This is not a nationwide effort, in that regard. 
But, you do have to be able to protect the population and the 
key lines of communication.
    Now, I've talked, in recent days, with Ambassador 
Eikenberry, with Ambassador Sedwill, the NATO senior civilian 
representative, with Ambassador Holbrooke, General Lute, the EU 
rep, and various Afghan Government officials, NATO Secretary 
General, and a whole host of others, about these kinds of 
issues. There's no question that we have to do everything that 
we can to enable our Afghan partners to address the kinds of 
challenges that you have talked about right here.
    This all begins with a foundation of security, though, 
because you cannot expect local police to survive in a fierce 
insurgent situation. You can't expect local commerce to 
develop. You can't rebuild schools, and so forth. So, that's 
obvious. But, we have to get the foundation and the security. I 
think that is doable, as the writer of that letter mentioned. 
We clearly have to address the kinds of challenges that have 
made the hold and build phases so challenging, and then enable 
the transition phases, as well.
    Senator Webb. I thank you for that, and I wish you the 
best. I still have a great number of concerns about the 
stability of the political environment in that country. But, as 
I said to you in my office, I will do everything I can to 
support your effort here.
    You have my upmost respect for having accepted this call, 
because that's basically what it is, for someone who has 
already done what you've done. This is a call to service, and I 
respect that very much.
    Thank you, Mr. Chairman.
    General Petraeus. A privilege to do it, Senator. Thank you.
    Chairman Levin. Thank you, Senator Webb.
    Senator Wicker.
    Senator Wicker. Thank you very much, General.
    The compliments and best wishes, on both sides of the aisle 
from this committee, are heartfelt and genuine. I hope you hear 
them, and I hope you understand them. I do admire you, 
unqualifiedly, and appreciate what you're doing.
    Let me, first of all, echo what Senator Webb said about the 
rules of engagement. We should never have rules that put our 
troops in danger, in the hope that we're winning hearts and 
minds. We ought to win hearts and minds among the Afghans, but 
we need to make sure that our rules of engagement protect our 
troops.
    You said you are going to look very hard at this issue. I'm 
not asking a question here, but I would assume that means we're 
going to look very hard at, maybe, altering or amending those 
rules of engagement, and applying them uniformly across the 
board.
    General Petraeus. It's the latter piece of it, Senator. 
Again, rules of engagement are pretty straightforward. They 
don't vary enormously from place to place. Our troopers have 
been exercising similar rules of engagement in these various 
campaigns in recent years.
    What we need to do is ensure that the application of them, 
and, as importantly, the tactical directive, which talks about 
the use of close air support, and other, again, enablers, that 
is uniform, and again, there are not leaders at certain levels 
that are imposing additional checks and balances at times when 
lives are on the line. That's the real key.
    If I could also touch on one other topic, though. It is not 
mutually exclusive that you can ensure the security of the 
population, minimize the loss of innocent civilian life, and 
also ensure that you bring whatever is necessary to bear when 
your troopers are in a tough spot. Do we take a risk in 
military operations? Of course we do. I mean, in any operation. 
The minute you go outside the gate, if you don't want to take 
risk, then you shouldn't be there in the first place. That's 
what we do. But, we have a solemn obligation, really, a moral 
imperative, to ensure that when our troopers and our Afghan 
partners are in a tough spot, that we do what is necessary to 
support them in those tough spots.
    It's also important that they understand, again, the 
context in which they're operating. There are examples such as 
a house, and you're taking fire from the house. Now, our 
impulse is to take the fight to the enemy. We close with and 
destroy the enemy in the infantry. That's our motto, this kind 
of thing. This is not conventional combat, and if there are 
civilians in the house--if you don't know who's in the house, 
you really do need to think twice before you take out the 
house, if that fire on you is not pinning you down. Maybe you 
want to break contact, keep the house under observation for a 
while.
    Our soldiers are magnificent; as I mentioned, they're the 
most combat-experienced force and the finest force our Nation 
has ever fielded--they can understand the intent, on the one 
hand, to minimize loss of innocent civilian life, and, on the 
other hand, to make sure that we do whatever is necessary if 
they get in a tight spot.
    Senator Wicker. Thank you, General. That was not going to 
be my question, but it's such an important topic that I felt it 
was important to go ahead and let you enlarge on that.
    General Petraeus. It is an important topic. Thank you.
    Senator Wicker. Let me say, also, I take your testimony, 
about the timeliness, at face value. You said, 2 weeks ago, 
that, in an ideal world, timelines aren't the best, are not 
your favorite.
    General Petraeus. I said, ``I think you have to think hard 
about them,'' or something like that. It wasn't quite what you 
said, but something like that.
    Senator Wicker. You've talked about a responsible 
drawdown--2011 will begin a process--but, that our relationship 
and our partnership in Afghanistan is going to be an enduring 
one, and the Taliban know their enemy should not doubt our 
resolve. I take that at face value. I want to read some 
excerpts from the Wall Street Journal today, by Bret Stephens, 
and he speaks pretty plain. Free speech is great in the United 
States. He says, ``With a wink of its left eye, the Obama 
administration tells its liberal base that a year from now the 
United States will be heading for a quick Afghan exit. 
`Everyone knows there's a firm date,' insists White House Chief 
Rahm Emanuel. With a wink of its right eye, the administration 
tells Afghanistan, Pakistan, NATO allies, and its own military 
leadership that the July 2011 date is effectively meaningless. 
`The notion that a major drawdown will begin next year, 
absolutely has not been decided,' says Defense Secretary Robert 
Gates.''
    The problem with this is it appears, from what we're 
learning from the Speaker of the House today, that a wink to 
the left may not be sufficient, and that there is a move afoot 
in the other body to use the power of the purse to impose 
timelines that the administration has not agreed to, that you 
would feel uncomfortable with. I don't think it's your role, as 
general, to call for vetoes of legislation, but it is the role 
of the Secretary of Defense and the President. I would hope 
that they make it clear that such restrictions on a war-funding 
bill by the House of Representatives would be unacceptable, and 
should be, and would be, vetoed, should they reach the 
President's desk.
    The article goes on to say, ``General Petraeus won in Iraq 
because George W. Bush had his back, and the people in Iraq, 
friend and foe, knew it. By contrast, the fact that we've been 
unable to secure the small city of Marjah, much less take on 
the larger job of Kandahar, is because nobody, right down to 
the village folk, believes that Barack Obama believes in his 
own war.''
    Let me say this. There's no better fighting force in the 
history of the planet than the American fighting force in 
Afghanistan today. We are fighting an enemy that has 10 percent 
support among the Afghan people. There's no way on Earth that 
our fighting force can lose this war. The only way that our 
effort can be unsuccessful is that if we have a government in 
Washington, DC, that is unworthy of that fighting force. I want 
to be part of a bipartisan team that gives you the resources 
and the time to accomplish the mission.
    Since the General took a moment to talk about rules of 
engagement, let me just ask you this. Could you comment--
compare and contrast--the relationship you had in Iraq, between 
you, as the general, and Ambassador Crocker, and the approach 
that has been used in Afghanistan between General McChrystal 
and Ambassador Eikenberry? What lessons can we learn from your 
experience with Ambassador Crocker in Iraq? What do you hope 
the civilian-military relationship will look like, now that 
you're headed back to Afghanistan?
    General Petraeus. Let me just reiterate, if I could, what I 
said in my opening statement about being committed to forging a 
civil-military partnership, to achieving unity of effort 
between the civilian and military elements, and not just 
between U.S. military and civilian, but between the ISAF 
military and the international civilian efforts, and then, of 
course, between those efforts and those of our Afghan partners. 
I think I may have mentioned that, in the past several days, 
without presuming confirmation, I have had conversations with--
in fact, we did four-way conversations--we had Ambassador 
Eikenberry, Ambassador Holbrooke, General Lute, and myself on 
the phone. These have been quite productive. This is, I think, 
the way to go about it, so that everyone is all on there. 
Ambassador Eikenberry is going--if confirmed, depending on how 
rapidly--we have various timelines--the intent is to stop in 
Brussels, on the way, to meet with the Secretary General of 
NATO, the Chairman of the Military Committee, the permanent 
representatives of the North Atlantic Council, the military 
representatives, and so forth. Having talked to the Secretary 
General, the chairman, and then the NATO chain of command, the 
Supreme Allied Commander, Europe, and the Commander of Joint 
Forces Command, Brunssum, General Ramms, who's the ISAF boss on 
the NATO chain. Ambassador Eikenberry will join me in Brussels. 
We'll huddle there, after the activities with NATO and then fly 
into Kabul together. Ambassador Mark Sedwill, the NATO senior 
civilian representative for ISAF, will do the same.
    I think that there is every intent, and everyone has 
committed to forging this civil-military partnership that can 
help us achieve unity of effort on the U.S. and international 
side, and then, as I said, unity of effort with our Afghan 
partners, as well.
    Senator Wicker. Will you be applying lessons learned 
between you and Ambassador Crocker in Iraq?
    General Petraeus. Of course.
    Lessons learned from that, from the study of history, of 
watching other circumstances, watching it in Iraq, in previous 
assignments there, and so forth, as well, without question--and 
in Bosnia and Haiti and Kuwait and a variety of other places, 
too; Central America, for that matter.
    Senator Wicker. I wish you the very best, and want to be 
helpful in any way.
    Thank you for your service.
    General Petraeus. Thank you, Senator.
    Chairman Levin. Thank you, Senator Wicker.
    Senator Udall.
    Senator Udall. Good afternoon, General. Thank you for being 
here today.
    I want to share the same sentiments that Senator Webb did 
with you about taking a demotion and once again responding to 
the call.
    I want to also add my comments to the expectation, that I 
think we all have on the committee, that leadership, as you've 
demonstrated, and as Tom Ricks mentioned in a recent column, is 
about getting everybody on the same page. You don't need to 
respond, but I hold the President responsible, on down through 
the chain of command, that we'll get the kind of unified team 
in Afghanistan to make this strategy a successful one.
    I'm reminded, moving to the second point I'd like to make, 
that Lincoln, I think, famously said, ``The best generals 
always seem to work for the newspapers.'' I think that's what 
he said. There have been a whole slew of comments in columns, 
over the last few weeks, from people that I respect--Ignatius, 
Douthat, McCaffrey, Ricks, Viscovich, Cordesman--there's a long 
list of smart people who've laid out a lot of different 
approaches to the challenge we face in Afghanistan. I wanted to 
mention a couple of them in the following comments.
    For those who think the smart thing to do is just to leave 
Afghanistan, I think Douthat put it pretty well, when he said, 
``The best exit strategy is probably success strategy. For 
those who think that a counterterrorism approach or a 
containment strategy would be easy, think about the long term 
responsibilities that those would involve.''
    At the other end of the scale, you have those who say we 
ought to have an open-ended approach in Afghanistan, that there 
shouldn't be any real urgency. I disagree with that approach, 
as well. President Bush showed that timelines in Iraq could 
work. You made the point earlier that we've combined a sense of 
urgency with an enormously larger commitment of troops and 
support in Afghanistan.
    Again, you don't have to comment, but I hold those comments 
out as reflecting my point of view for the citizens of Colorado 
and members of this committee.
    Let me just move to a question you've been asked, and 
answered some different ways here this morning. A lot of people 
think we've had success in Iraq. We can just replicate it in 
Afghanistan. What's different, in Afghanistan, when it comes to 
our counterinsurgency strategy?
    General Petraeus. They are two very different countries, 
obviously. It might be worth recalling that, back in September 
2005, after I completed a second tour in Iraq, when we stood up 
the train-and-equip mission, and so forth, I was asked to come 
home through Afghanistan--by the Secretary of Defense--and to 
do an assessment of the situation over there, and particularly 
the train-and-equip program. I did that. In the course of doing 
that, when I reported out to him, of course with the aid of 
PowerPoint, which is one of the First Amendment rights of every 
four-star general in expressing his freedom of expression--but, 
anyway, we laid out a PowerPoint slide, and the title of the 
slide was ``Afghanistan''--and it had the does-not-equal sign--
``Afghanistan Does Not Equal Iraq,'' and then laid out the 
factors that were different: the very different level of human 
capital in Afghanistan, a country that's been wracked by well 
over 3 decades of conflict, and started out, prior to that 
time, as one of the fifth poorest countries in the world, the 
lack of infrastructure, the lack, at that time, to my awareness 
at that time, of the kinds of natural resource blessings, 
energy blessings that Iraq has; the lack of the very strong 
central government that Iraq had, arguably a bit too strong, 
under Saddam. But, again, you can just keep going on down the 
list: 70 percent illiteracy in Afghanistan, probably 80-some-
odd percent literacy in Iraq. So, we laid that out.
    All of this means that you have to adapt very 
substantially. You certainly can't take lessons learned in Iraq 
and just apply them in a rote manner in Afghanistan. They have 
to be applied with a keen understanding of the situation on the 
ground, village by village, valley by valley. All 
counterinsurgency is local, as they say. I think we have to be 
very measured, again, in trying to transfer anything from Iraq.
    Having said that, there are certainly principles of 
counterinsurgency, there are certainly experiences that we had 
there, and certainly there are capabilities and capacities that 
we developed there that are very much of value, when it comes 
to our abilities to fuse intelligence, the breakthroughs in 
each of the disciplines of intelligence imagery, human 
intelligence, signals intelligence, and so forth, and on and 
on. I think that has helped us.
    For example, we know that there are certain organizations 
that you need. When I talked about getting the inputs right in 
Afghanistan, what I meant was, trying to replicate, certainly, 
the organizations that we had in Iraq, in Afghanistan. We 
didn't have the inputs right. When I took over as CENTCOM 
Commander, having focused almost exclusively, for the previous 
5 or 6 years, on Iraq, and opened the aperture further, to 
really look hard at Afghanistan, I was struck by how many 
actions we needed to take to get the inputs right, in terms of 
the organizations, the people, the concepts, and above all, the 
resources.
    As I mentioned, on General McChrystal's watch--and on 
General McKiernan's, prior to that--there has been a 
substantial effort to get those inputs right. We're almost at 
the point where we have the additional forces on the ground 
that will enable the full implementation of the approach. That 
approach will have to be carried out with a keen and as precise 
an awareness of local circumstances on the ground in 
Afghanistan, and without some thought of, ``Well, it worked 
this way in Baghdad. Why won't it work this way in Kabul?''
    Senator Udall. Let me mention that Ambassador Crocker used 
to say, I believe, that ``Just because you walked out of a 
movie, it doesn't mean it's over.'' In that context, I've read 
some accounts that there's not much tangible planning being put 
in place for after July 2011, particularly on the civil-
military front. Could you speak to what kind of planning is 
being done, and what's in place for that timeframe after July 
2011?
    General Petraeus. The focus, I think, understandably, of 
really the last year and a half has been, first, to help the 
President contribute to getting the policy right, then to 
develop the implementation plans to operationalize that policy, 
in terms of a civil-military campaign plan, and then to expand 
it with our Afghan partners, and then to make, in some cases, 
some substantial tweaks along the way, particularly with the 
Afghan National Security Force effort. That has been the focus. 
Now we're into the implementation of those plans.
    At some point, obviously we'll start looking harder at 
this. But, I think right now, our effort, rightly, needs to 
look at what it is that we need to do between now and the end 
of this fighting season. There will be an assessment at the end 
of this year, after which, undoubtedly, we'll make certain 
tweaks, refinements, perhaps some significant changes to get us 
to that point at which we obviously want to begin these 
processes that we've talked about beginning in July 2011.
    Senator Udall. Thanks, General. I see my time's expired.
    I support the way forward, and I'm going to very carefully 
study the assessments at the end of this year and as we move 
forward.
    Thank you for being here.
    General Petraeus. Thank you, Senator.
    Chairman Levin. Thank you, Senator Udall.
    Senator LeMieux.
    Senator LeMieux. Thank you, Mr. Chairman.
    General, thank you for being here. Again, thank you, to you 
and to your wife, Holly, for again answering the call of duty. 
We are going to miss you at MacDill in Tampa, but we know we'll 
get you back to Florida eventually, like we get most folks to 
Florida.
    I also want to thank your senior team for also making the 
sacrifice and the commitment to go with you. I know that is a 
sacrifice. I am just very appreciative of all that you, your 
wife, your family, and your team has done for this country.
    General Petraeus. If I could, I'd just thank them, as well. 
CENTCOM hasn't exactly been sitting on the beach at Florida, 
much as we'd like to. A number of them have raised their right 
hands and volunteered to go back into the fray here, and to 
deploy to Afghanistan. I do appreciate that very much.
    Senator LeMieux. General, you said, a moment ago, in 
answering a question from Senator McCain, that you were not 
consulted on the development of the drawdown date.
    General Petraeus. I was consulted. Let's be very precise, 
if I could--did we propose it or it was something like that. I 
mean, we--there's no question that, in the final session, that 
this was discussed and we support it and agree to it.
    Senator LeMieux. But, it was not something that you 
proposed?
    General Petraeus. That is correct.
    Senator LeMieux. Not something, as far as you're aware, 
that was proposed by any of the other leadership of the 
military?
    General Petraeus. Not that I'm aware of.
    Senator LeMieux. You're a student of military history in 
this country, and you're well expert in it. Do you find that 
the adoption of something like that, coming from the civilian 
side, the elected leadership of the country, without being 
offered by the military--do you find that to be normal, based 
upon the history of this country?
    General Petraeus. I'm not a student of every deliberation 
that's ever taken place about this kind of stuff. I have 
watched enough of them, though, as the Executive Officer to the 
Chairman of the Joint Chiefs, and then, of course, in various 
capacities as a general officer, to know that a whole lot of 
things intrude that are--and appropriately intrude--because 
there are many other interests out there than the strictly 
military interests and strictly military advice.
    In fact, I've had good conversations with individuals, in 
recent days, about the role of a commander in a situation such 
as that of being Commander, ISAF. In my view, it is to 
understand the mission very clearly, to have dialogue with 
one's chain of command, and ultimately the Commander in Chief, 
to ensure that everyone understands it the same way--and, for 
what it's worth, this is a process I went through with 
President Bush at the beginning of the surge--to then develop 
and recommend what is believed to be the right approach to 
accomplish that mission; to assess the resources necessary to 
enable implementation of that approach that military strategy, 
and in this case, a civil-military strategy, frankly; to 
identify the levels of risk associated with different levels of 
resourcing; and then to have dialogue about all of that, as it 
goes forward, recognizing that, when Commander, ISAF made a 
recommendation to me, for example, as CENTCOM Commander, I had 
a broader purview. It wasn't only about Afghanistan in CENTCOM, 
we also certainly still had Iraq. There's Yemen, there's Iran, 
there's Lebanon. There's a whole host of other challenges. It 
goes to the Pentagon and, of course, now it's the whole world.
    You also now start to have, probably, resource implications 
and the opportunity costs of doing something in one place and 
not in another. Obviously and appropriately, when it goes 
across the river to the White House, the President has to be 
interested in fiscal considerations, political considerations, 
diplomatic considerations. All of that is appropriate.
    Senator LeMieux. I understand.
    General Petraeus. I won't find it unusual to have, again, 
something be inserted that was not from the bottom up.
    Senator LeMieux. I'm just trying to think of a precedent in 
American history where we were fighting a war, and, before 
we've won that war, we've decided that there would be a day 
that we would start withdrawing our troops. Are you aware of 
such a precedent?
    General Petraeus. You might just go back and look, with 
respect, at the 2005-2006 timeframe in Iraq; look at the 
efforts at transitioning of tasks to Iraqi security forces 
prior to the beginning of the surge, and so forth. I think I'd 
be careful, if I could, with respect, Senator.
    Senator LeMieux. The amount of troops that General 
McChrystal had recommended was 40,000. The President agreed to 
send 30,000 troops, with the understanding that 10,000 troops 
would be drawn down upon from our international partners. 
What's the status of those 10,000 troops?
    General Petraeus. I think that right now you are always 
recalculating numbers--but, the latest number that I was given 
is that 9,700 have been pledged. Of that, I think about 60 
percent of those are actually on the ground. Beyond that, 
Secretary Gates has been given--and he has explained this 
publicly--a ``flex factor,'' if you will, of some 10 percent on 
top of the 30 percent, so that he doesn't need to go back to 
the President if----
    Chairman Levin. The 10 percent on top of the 30,000?
    General Petraeus. I'm sorry--30,000, right--so that, if 
required for emerging force protection needs and so forth, that 
he can very quickly make determinations and enable the 
deployment of those forces to protect our forces, or to deploy 
something that is urgently needed without having to, again, get 
into a deliberation.
    Senator LeMieux. Are those international troops there 
without caveats? Are they able to fight, just as our U.S. 
troops are able to fight?
    General Petraeus. It varies from country to country, 
clearly. Certainly there are countries with caveats. For what 
it's worth, when I was the commander in Iraq, many of the 
international contributions had caveats, some of them official 
and, by the way, some of them non-official, or unofficial. 
Certainly, the coalition commander should ask for everything, 
there's never been a coalition commander that wouldn't like 
fewer caveats, more troops, more money, and now, by the way, 
more bandwidth, as well, because bandwidth is another key need.
    But, when you get all that, after having done that, your 
job is to stop whining and to get on with it and put it all 
together; understand the strengths and weaknesses, the 
capabilities and limitations of each element in the force, and 
try to make the best use of those elements that are provided.
    Senator LeMieux. When you get on the ground in 
Afghanistan--this will have to be my final question, because my 
time is up--I assume you're going to make an evaluation of the 
troops that have deployed, as well as our international 
partners that have troops. Is it possible that, in the next 
coming months, as you're on the ground making those decisions, 
that you could request additional troops, beyond those that 
have been pledged?
    General Petraeus. Not only is it possible, I will, if 
confirmed, do that at NATO when I am there. We're going to stop 
at NATO, en route to Kabul, and there is a requirement for 
forces that has not been met by NATO. This is a NATO standing 
requirement for additional trainers. Chairman Levin talked at 
considerable length about this, 2 weeks ago, as we worked our 
way through the numbers of what the requirement is, what has 
been already put on the ground, what is pledged, and then what 
is still out there as a requirement. I will state to our NATO 
partners the importance of filling, in particular, those 
trainer and mentor billets, because that's all about the 
development of the Afghan National Security Forces.
    Senator LeMieux. My question wasn't clear enough. Is it 
possible that you may ask the President for additional troops, 
as well?
    General Petraeus. Senator, as I said 2 weeks ago, as I said 
this morning, I will offer my best professional military 
advice, and if that's part of it, then that's what I'll 
provide.
    Senator LeMieux. Thank you again, General.
    Thank you, Mr. Chairman.
    General Petraeus. Thank you. Thanks for the tremendous 
support that Florida provides to those at MacDill, and all of 
our Armed Forces.
    Senator LeMieux. Yes, sir.
    Chairman Levin. Thank you, Senator LeMieux.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    General Petraeus, I am glad that the President has chosen 
you to be the Commander of U.S. forces in Afghanistan and 
NATO's ISAF. There's nobody better equipped to do this job than 
you. You wrote the counterinsurgency field manual when you were 
the Commanding General of the U.S. Army Combined Arms Center, 
and you implemented it as the commander in Iraq during the 
surge in troops and the change in the Iraqi strategy. You were 
also fundamental in helping to shape President Obama's strategy 
in Afghanistan. I want to say to you, thank you, and to Mrs. 
Petraeus, for your continued sacrifice and service.
    Mrs. Petraeus, I want to personally tell you how much we 
all appreciate your support and personal sacrifice. Your 
patriotism is most obvious. On behalf of the citizens and the 
soldiers and the families in North Carolina, I just want to 
tell you, once again, thank you very much.
    General Petraeus, earlier today you mentioned that 
President Karzai is sensitive to empowering provincial and 
district governors in Afghanistan. It seems that President 
Karzai tends to favor a more centralized government in Kabul. 
As you mentioned, it's important that there is inclusivity and 
transparency for all in Afghanistan. However, the Taliban 
shadow governments continue to pose significant problems 
throughout Afghanistan. How will you work with President Karzai 
to continue to develop local Afghan Government capacity? How 
will you ensure that President Karzai understands that it's in 
his best interest to build the local governance capacity?
    General Petraeus. First of all, Senator, thanks, to all 
those in the Tarheel State who do so much for our country. I'm 
hard-pressed to think of three greater platforms than what you 
have there with the Army, Air Force, and Marine Corps, and what 
a privilege it's been to serve at the center of the military 
universe--that being, of course, Fort Bragg, NC.
    With respect to the point about centralized government, of 
course, the constitution is what mandates the centralization of 
that government in Afghanistan, and President Karzai is, of 
course, carrying out the law of that constitution. But, without 
question, I will work very hard with Ambassador Eikenberry, 
with Ambassador Mark Sedwill, with Ambassador Staffan de 
Mistura, the special representative of the Secretary General of 
the U.N., who, by the way, again, had that same position in 
Iraq, to help President Karzai really operationalize these 
qualities that he has identified as being essential to 
successful local governance. Those are inclusivity and 
transparency.
    We've had long conversations about this. Ambassador 
Holbrooke and I, after we did the review-of-concept drill, a 
civil-military review-of-concept drill, a few months ago in 
Kabul, which involved not just the U.S. and ISAF and coalition, 
but also Afghan civilian, as well as military officials, sat 
for over 2 hours with President Karzai, and talked about this 
very subject. Because, again, we were giving him an outbrief 
from the conduct of this drill, where we identified certain 
areas that needed greater emphasis. Rule of law, by the way, 
was one of them--the judicial sector of that, in particular--
and which he very much agrees with.
    But, again, this discussion about, How do you ensure that 
all elements of a local community, subdistrict, district, 
province feel that they are represented adequately and fairly? 
That's critical.
    Arguably, one of the challenges in Kandahar is that that 
situation does not obtain. That's why he went down there twice 
in recent months alone to hold large shura councils. Folks will 
say, ``Well, he stacked them with all his own players.'' You 
could have fooled me, because some of them stood up, on camera, 
with the microphone, and criticized the government, criticized 
President Karzai. He did some self-criticism.
    That's the kind of process that needs to be carried out so 
that the people do feel that what the ``new Afghanistan,'' if 
you will, offers--what the Government of Afghanistan offers--
is, indeed, a better future, a fairer one, and has brighter 
prospects than the future that the Taliban might be able to 
hold out.
    The Taliban, in the past, has been able to play on 
grievances, some of them quite legitimate. When there has been 
predatory activity by local police or other security officials, 
or government officials, that obviously plays into the 
Taliban's hand. Clearly, the whole issue of corruption does, as 
well. We've had conversations with President Karzai about that, 
as well. He recognizes the seriousness of it. We have to help 
him there. Indeed, there are structures and activities on both 
the Afghan and the international side that have been 
established in recent months that should be able to help with 
that, including our task force, to look very hard at contracts.
    Senator Hagan. Thank you.
    As CENTCOM Commander, you have been able to effectively 
develop a good working relationship with the Pakistani military 
leadership. How do you plan to utilize those relationships, as 
Commander of the U.S. forces in Afghanistan?
    General Petraeus. That relationship is crucially important. 
We worked it very hard, as did Admiral Mullen, and as did, by 
the way, General McChrystal, who made a number of visits to 
Islamabad to meet with General Kayani and with other Pakistani 
officials. But, the relationship between the Afghan Government 
and the Pakistani Government, between the militaries, and so 
forth, is critical. As I mentioned earlier, they are always 
going to be neighbors. They have had, at various times, 
differing objectives in the future. What we need to do is to 
help them realize that there are mutual objectives that could 
help each country more, if they seek them, rather than by 
seeking objectives that are in conflict.
    Senator Hagan. Reportedly, Pakistan wants to have a role in 
the Afghan reconciliation initiatives, with senior members of 
the Afghan Taliban. It's also been reported that Pakistan wants 
to be a channel to the Pashtuns in Afghanistan, and wants to 
utilize reconciliation as a mechanism to influence Afghanistan 
and avert Indian regional encirclement. How will you work with 
the Afghan Government and military to manage Pakistan's 
strategic interests?
    General Petraeus. We can certainly facilitate that 
dialogue; participate in the dialogue; be perhaps, an honest 
broker in that dialogue. We are friends to both. We are 
enormously enabling both in a tough fight. One of its fights, 
by the way, is to keep our lines of communication open. You 
enable us to provide substantial amounts of coalition support 
funding to them, well over a billion dollars, for the course of 
their past fiscal and calendar year. Well up into the hundreds 
of billion--or, hundreds of millions in foreign military 
financing and other mechanisms, plus the $1.5 billion of Kerry-
Lugar-Berman for each of the next 5 years. That's very 
important. That's a symbol, again, of our sustained, 
substantial commitment. It shows that we do not want to do to 
them what we did after Charlie Wilson's war, which was, having 
achieved the outcome that we wanted, washed our hands of it and 
left. I think it's very important. They've seen that movie 
before, as well. I think it's very important that they realize 
that we are in this with them, with both of them--and, by the 
way, with India, as well. India has legitimate interests in 
this region, without question, as do others, if you want to 
extend it further.
    I think we can facilitate that. This would be--again, a 
civil-military effort, very much. But, we'll use those 
relationships that we have developed to that end.
    Senator Hagan. Thank you. I see that my time is up. I know 
you've had a long morning. We all look forward to your 
confirmation.
    General Petraeus. Thank you, Senator.
    Chairman Levin. Thank you, Senator Hagan.
    General, as you've reiterated, setting a July 2011 date to 
begin reduction of our forces is a message of urgency to the 
Afghan Government to take principal responsibility for their 
own security by increasing the capacity of their security 
forces, particularly their army.
    Now, that message to the Afghan Government reflects the 
urgency that I think we all feel. It's also an urgency for the 
Afghan units that are capable of leading operations, to take 
that leadership, particularly in Kandahar.
    Now, there's another target of this message of urgency, 
which is aimed at increasing the size and the capability of the 
Afghan forces, and the hope and belief that they need to take 
the lead in operations, particularly in Kandahar. That other 
target, beside the Afghan Government, of this message, is the 
Taliban itself.
    The size and capability of the Afghan army, and having 
Afghan forces leading operations more and more, is bad news for 
the Taliban. Now, I've described that as the Taliban's worst 
nightmare, because their propaganda, that they are fighting 
against foreign forces who want to control Afghanistan, will 
ring more and more hollow with the Afghan population as the 
Afghan army, which has support of the Afghan people, is leading 
the effort to defeat the insurgents. Is that something that you 
would generally agree with?
    General Petraeus. I would.
    Chairman Levin. Now, finally, General, you were asked, 
earlier, about the funding for the Iraq security forces. 
According to a Defense Department report, the Iraq Minister of 
Defense requested $7.4 billion as part of the 2010 budget, but 
the Iraq Minister of Finance cut the request to $4.9 billion. 
That's a $2\1/2\ billion cut in Iraqi support for their own 
military, from the request that was made by the Minister of 
Defense. Were you familiar with the Government of Iraq's cut to 
the Ministry of Defense request?
    General Petraeus. With respect, I missed that Mr. Chairman.
    Chairman Levin. That's all right.
    General Petraeus. However, having heard it, I want to 
assure you that I will communicate with my friend, Minister of 
Finance, Bayan Jabbar, and express my concern about that, my 
hope that they would increase that amount, and, if they can't 
do it in the formal budget, to do it in a supplemental, such as 
they have done in the past, because, it's very important that 
they get full funding for their forces, just as, obviously, it 
is for ours.
    Chairman Levin. The Minister of Finance recently announced 
that Iraq now has a windfall of an additional $10 billion in 
oil revenue, above what it had budgeted for in 2010. Are you 
familiar with that additional unexpected $10 billion in oil 
revenues for Iraq?
    General Petraeus. That sounds a bit high. It may be on 
projections, frankly. I think that's going to fluctuate with 
the price of oil, obviously. But, the fact is that they were 
ahead of their projected revenues. That is something that we 
typically watch. Once a month or so, we see that. That would 
enable them, indeed, to fund it more fully, clearly, than he 
did. I'll express that to him.
    Chairman Levin. General, we thank you. We admire you 
greatly. We wish you a successful mission, with all of your 
troops. We add our thanks, to all of the people who work with 
you, for, as you put it, raising their right hand, as well, and 
those that are able to go back to Afghanistan to do so.
    We will stand adjourned with, again, our gratitude to you 
and to Mrs. Petraeus.
    [Whereupon, at 12:49 p.m., the committee adjourned.]

    [Prepared questions submitted to GEN David H. Petraeus, 
USA, by Chairman Levin prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
           afghanistan-pakistan strategy and major challenges
    Question. What role, if any, did you play in the formulation of the 
President's strategy for Afghanistan and Pakistan?
    Answer. In my position as Commander, U.S. Central Command 
(CENTCOM), I was part of a group that included the President and his 
national security team that engaged in an extensive review of our 
options, mission, and objectives in Afghanistan. The review process 
involved multiple sessions with the President, in which we discussed 
and challenged the assumptions underlying the strategy in Afghanistan. 
Additionally, the process included a review of the situation in 
Pakistan, which is closely related to the situation in Afghanistan. 
While participating in each of these sessions, I offered to the 
President my best professional military advice.
    Question. In his speech at West Point in December 2009, the 
President formulated his strategy for Afghanistan and Pakistan.
    Do you agree with that strategy?
    Answer. Yes.
    Question. Do you agree with the President's decision to begin 
reductions of U.S. forces in July 2011?
    Answer. Yes.
    Question. Why or why not?
    Answer. I support the policy of the President. As the President has 
stated, July 2011 is the point at which we will begin a transition 
phase in which the Afghan Government will take more and more 
responsibility for its own security. As the President has also 
indicated, July 2011 is not a date when we will be rapidly withdrawing 
our forces and ``switching off the lights and closing the door behind 
us.''
    The President's speech at West Point was intended to convey two 
messages, one of enormous additional commitment and one of urgency. I 
believe there was value in sending a message of urgency--July 2011--as 
well as the message the President was sending of commitment--the 
additional, substantial numbers of forces. But it is important that 
July 2011 be seen for what it is: the date when a process begins, in 
which the reduction of U.S. forces must be based on the conditions at 
the time, and not a date when the U.S. heads for the exits, as the 
President reiterated on 24 June.
    Question. Do you agree with the President's decision that the pace 
of reductions beginning in July 2011 will be conditions based?
    Answer. Yes.
    Question. Why or why not?
    Answer. The pace of the drawdown of our forces in Afghanistan 
should, as the President has stated, be a responsible one, based on 
conditions on the ground beginning in July 2011, in order to ensure 
that Afghanistan can build the capacity to take full responsibility for 
its own security.
                   security situation in afghanistan
    Question. What is your assessment of the security situation in 
Afghanistan and the nature, size, and scope of the insurgency?
    Answer. The security situation in Afghanistan remains tenuous, with 
instability fueled by a resilient and still-confident insurgency, 
tribal tensions, political challenges, and competition for influence in 
the future. A deeply rooted criminal element, fueled by illicit 
economic activity and the narcotics industry, further threatens 
stability and continues to serve as an impediment to creating good 
governance and effective security forces. The formal governance system 
in Afghanistan appears weak, but is reinforced by strong power broker 
networks. The nexus between weak formal structures and strong informal 
ones is a key driver of support for the opposition and the insurgency, 
and also fundamentally undermines insurgents' interest in 
reconciliation and reintegration.
    While the Taliban are the dominant Afghan insurgent group, the 
insurgency is by no means monolithic. Moreover, primary motivations for 
joining the insurgency have evolved over the past 5 years from 
ideological affinity with Mullah Omar's beliefs to disenfranchisement 
with local and national conditions. While the key goals and values of 
insurgent leaders remain largely constant, an increasing percentage of 
insurgents are motivated by intra-Pashtun rivalries, political 
disenfranchisement, and the perception that the Taliban will eventually 
emerge as the dominant Pashtun political entity in Afghanistan.
    Meanwhile, the strategic objectives of the Taliban-dominated 
insurgency remain expelling foreign forces from Afghanistan, preventing 
the Government of the Islamic Republic of Afghanistan (GIRoA) from 
developing into an effective government, and reinstating the Islamist 
Government headed by Mullah Omar. Insurgent leaders view their tactical 
and operational losses in 2010 as inevitable and acceptable. The 
Taliban believe they can outlast the Coalition's will to fight and 
believe this strategy will be effective despite short-term losses. The 
Taliban also believe they can sustain momentum and maintain operational 
capacity. We assess that the Taliban strategy is largely designed to 
establish influence over the Afghan population, by whatever means 
necessary. In some cases this will mean exercising brutal, coercive 
intimidation, and in other cases providing services for the population, 
such as the application of Sha'ria law to fill the societal need for 
speedy justice. Nevertheless, polling consistently shows that Afghan 
public opinion is largely opposed to the Taliban, though public 
sentiment also reflects dissatisfaction with the GIRoA in some areas.
    It is difficult to arrive at quantitative estimates of Taliban 
manpower. Even though the increase in International Security Assistance 
Force (ISAF) strength in 2010 caused some concern for insurgent 
leaders, they continue to show an ability to adapt and respond to ISAF 
changes, and the size and intensity of the insurgency has increased in 
proportion to ISAF's expansion. The Taliban's increasing ability to 
project its influence in Regional Command-South, Regional Command-
Southwest and Regional Command-East and to create instability in 
Regional Command-West and Regional Command-North indicate the Taliban 
suffer no shortage of manpower. They likely believe they will be able 
to maintain their current strength and possibly grow.
    Central to Taliban themes and messages is their depiction of ISAF 
forces as occupiers supporting an apostate and corrupt regime. Senior 
Taliban leaders understand the ISAF strategy and have made adjustments 
to enhance their own population-centric insurgency in competition with 
the ISAF counterinsurgency approach. They recognize the need to keep 
the local population distanced from the GIRoA and ISAF, as exemplified 
by the recent increase in assassinations, murder, and intimidation 
tactics focused on Afghans who work with the GIRoA and ISAF. These are 
traditional insurgent tactics, which the Taliban likely deem sufficient 
to achieve their goals for the 2010 fighting season. They are unlikely 
to significantly alter their strategy, except to adapt to local 
conditions.
    Afghans remain optimistic, however, about the direction of their 
country, despite the many shortcomings of the GIRoA and the tumultuous 
security environment. Afghans overwhelmingly prefer the GIRoA to the 
Taliban. Additionally, many Afghans continue to support potential 
negotiations with the Taliban to end the years-long conflict.
              civilian-military cooperation in afghanistan
    Question. What is your assessment of the current level of 
cooperation and coordination between the military and civilian efforts 
in Afghanistan to implement the counterinsurgency strategy, both within 
the U.S. Government and between the North Atlantic Treaty Organization 
(NATO) ISAF and international civilian entities?
    Answer. My judgment is that the current level of civil-military 
cooperation and coordination is good and has been strengthened during 
the past year. Clearly, civil-military partnership is the key to 
establishing unity of effort in all our activities. It is my intention 
to take further steps to enhance civil-military planning and 
coordination as we move ahead in our campaign in Afghanistan.
    Much progress has been made in the past year. The Afghanistan-
Pakistan Strategic Implementation Plan of July 2009 called for greater 
civil-military cooperation and directed the development of U.S. 
Government integrated civil-military campaign plans for both 
Afghanistan and Pakistan. These plans were cooperatively developed by 
U.S. Embassy Kabul and U.S. Forces-Afghanistan (USFOR-A)/ISAF in 
conjunction with CENTCOM and the office of the Special Representative 
for Afghanistan and Pakistan. Indeed, we are currently in the process 
of reviewing the Afghanistan civil-military campaign plan to take into 
account the adoption of development clusters by the Afghan Government 
and the transition process which is being jointly developed by ISAF and 
the Afghan Government.
    Civil-military cooperation has also been strengthened with the 
ongoing ``civilian surge'' of approximately 1,000 additional civilian 
officials to help build governance and development capacity in 
Afghanistan. The civilian surge has enabled ISAF and the ISAF Joint 
Command Headquarters, along with each of the regional headquarters 
staffs, to evolve into fully integrated civil-military teams. The 
civilian surge has also increased civilian support at the provincial 
level, where Provincial Reconstruction Teams and District Delivery 
Teams are the tactical manifestation of our civil-military cooperative 
efforts. They prioritize our collective efforts and help to enhance 
unity of effort at the local level.
    The appointment of a NATO Senior Civilian Representative, currently 
Ambassador Mark Sedwill, as a NATO counterpart to Commander, ISAF has 
greatly improved cooperation between ISAF and international civilian 
agencies. Likewise, the appointment of Senior Civilian Representatives 
to each of the regional headquarters has served to improve our overall 
civil-military cooperation and coordination.
    We have also undertaken to synchronize our civil-military 
activities through periodic civil-military Rehearsal of Concept (ROC) 
Drills, which have helped identify areas where we can improve our 
partnership while giving us a shared understanding of future key events 
and operations. The most recent ROC Drill, which I co-hosted in April 
in Kabul with Ambassador Richard Holbrooke, brought together the senior 
leaders of practically every major Afghan, U.S., NATO, and 
international agency operating in Afghanistan. The conference yielded 
invaluable insights about how to better coordinate our collective 
efforts, and it is our intent to conduct a follow-up ROC Drill in the 
second half of this year.
              building the afghan national security forces
    Question. The current strategy for training and equipping the 
Afghan National Security Forces (ANSF) calls for growing the Afghan 
National Army (ANA) to a level of 171,000 and the Afghan National 
Police (ANP) to a level of 134,000 by October 2011.
    In your view, will the currently-planned end strength levels for 
the ANA and ANP be sufficient to provide security and stability in 
Afghanistan, or should these end strength levels be increased? If 
increased, what levels would you recommend for the ANA and the ANP?
    Answer. I am aware of ongoing analysis by the NATO Training 
Mission-Afghanistan (NTM-A) on the need for growth beyond currently 
approved goals. While the exact numbers needed are still being 
determined, I am not willing to say that the currently approved 
strength of 305,600 will prove sufficient. If I am confirmed, within 
90-120 days of assuming command, I will make my own assessment of the 
need for any increase, provide that recommendation to the U.S. and NATO 
chains of command, and continually assess the appropriate size and 
structure of the ANSF to ensure that we do all possible to enable 
transition of security tasks to Afghan forces as soon as is possible.
    Question. What in your view are the greatest challenges to building 
the capacity of the ANSF to assume responsibility for Afghanistan's 
security?
    Answer. The development of leaders remains our top priority and is 
essential for building a professional ANSF. Leadership deficiencies 
within the ANSF--including insufficient numbers of junior officers and 
noncommissioned officers, gaps in the midgrade ranks, and the presence 
of corruption in some ranks--pose the greatest threat to our Afghan 
allies. Significant efforts have been made to improve leader 
development programs, to include adding new and overhauling existing 
ANA and ANP leader courses.
    Attrition in some elements of the ANSF, particularly Afghan 
National Civil Order Police and the southern ANA Corps, also remains a 
problem. As we have executed our accelerated growth plans, it has 
become apparent that a complex interaction exists amongst recruiting, 
retention, and attrition. This interaction affects our efforts to meet 
quantitative goals while maintaining adequate quality. In order to meet 
both quantitative and qualitative objectives, training and instructor 
shortfalls must be filled.
    An additional challenge includes balancing current operational 
requirements with the demands of long-term programs that are focused on 
growth, quality, and supporting institutions. There is an inherent 
tension between running long training and education programs, and 
striving to keep a large percentage of the existing ANSF in near-
continuous operations. Our challenge is to find the appropriate balance 
between the two demands.
    NTM-A/Combined Security Transition Command-Afghanistan (CSTC-A) 
manning remains a challenge. Though these organizations have received a 
significant influx of U.S. personnel since November 2009, there remain 
unfilled requirements. The Joint Staff, the Services, and SHAPE are 
working to bring in personnel with the appropriate skill sets to meet 
ANSF quantitative goals in a timely manner, while simultaneously 
improving ANSF quality. If NTM-A/CSTC-A receives all confirmed NATO 
pledges, it will have approximately 724 additional personnel, bringing 
us to 91 percent of our required NTM-A/CSTC-A personnel.
    Finally, internal security depends on the three pillars of 
judiciary, corrections, and policing. While NTM-A/CSTC-A is directly 
responsible for supporting policing, other organizations are 
responsible for the development of corrections and the judiciary. The 
lagging progress of the judiciary is a serious concern, and if 
corrective measures are not taken soon to accelerate the development of 
the justice system, the professionalization of the Afghan police will 
be put at risk. It is for this reason that we have supported the 
development of a civil-military rule of law task force.
    Question. There remains a shortfall in the number of training 
personnel required for the NATO Training Mission Afghanistan (NTM-A). 
At a recent hearing, the committee heard testimony that NTM-A lacks 450 
``institutional'' trainers. In addition 574 trainers have been pledged 
by NATO members but have yet to arrive in theater, and another 235 
trainers are ``pending'' confirmation from NATO member capitals. 
Separately, the training effort is short some 14 Operational Mentoring 
and Liaison Teams (OMLTs) for training the ANA and 140 Police OMLTs for 
building the capabilities of the ANP.
    What is your assessment of the ANA?
    Answer. The ANA remains the most respected element of the ANSF. 
ANA, and police forces are now jointly leading security efforts in 
Kabul. They have recently conducted joint air mobile operations in the 
north, where Afghan Air Force helicopters transported army forces to 
support local police. Moreover, ANA commanders are now partnering with 
coalition forces during joint operational planning.
    In IJC's most recent assessment of ANSF operational effectiveness, 
5 of 19 assessed ANA brigades are capable of planning, executing, and 
sustaining regional security operations with limited, yet still 
essential, support from partnered ISAF units. The remaining 14 brigades 
are assessed as requiring partnered assistance to conduct the majority 
of their functions. Of the major ANA headquarters assessed, two (205th 
Corps and 111th Capital Division) are assessed as capable of performing 
their missions with limited support, while the remaining five major 
headquarters require comprehensive ISAF support.
    The ANA still lacks the combat power to adequately secure terrain, 
but new ANA growth is helping to ameliorate this shortcoming. The ANA's 
logistics efforts need greater emphasis, but the planned fielding of 
greater logistics assets should improve the Afghans' ability to 
adequately sustain themselves.
    Question. What in your view should be done to encourage NATO allies 
to provide more institutional trainers?
    Answer. Nations are generally resistant to additional contributions 
for two reasons: money and force caps. With regard to money, we can 
encourage our NATO allies by allowing the use of Afghanistan Security 
Forces Funds (ASFF) or Lift and Sustain money, when appropriate, to 
fund the deployment and life support of trainers. In some cases, 
especially regarding police trainers, allied organizations that are 
potential contributors to NTM-A do not have sufficient funding to 
support the deployment of their trainers. Under current U.S. policy, we 
cannot provide funding if nations do not qualify for L&S support or if 
the organization in question is outside the Ministry of Defense (MoD) 
structure.
    In the case of non-MoD forces, exceptions to policy may be made for 
nations already approved for L&S funding. However, L&S funds only cover 
MoD forces, and not police forces that work with the Ministry of the 
Interior. To meet this critical gap, NTM-A has sought approval to use 
ASFF funding for police trainers during the next 2 fiscal years to ease 
the issue of funding and provide resources for vital trainers during 
this critical period of ANSF growth.
    In addition, we should continue to coordinate and facilitate 
countries willing to donate funding for other countries that are 
willing to deploy but lack the necessary funds. The United Arab 
Emirates, for example, recently made a generous offer to help fund 
deployments to assist in overcoming the shortage of required trainers.
    NATO members are also constrained by force cap issues. Several 
member nations have limitations on the number of forces they can have 
in theater. Germany, Spain, France, U.K., and Italy are all examples of 
nations that could provide more trainers but are unable to do so 
because of domestic political reluctance to increase troop numbers. To 
overcome some of these force cap issues, we should ask our NATO allies 
to send instructors to teach in ANSF schools on a rotational, temporary 
duty basis. This would provide the specialized trainers required, while 
building capacity for the Afghan forces and enhancing the expertise of 
coalition partners.
    Question. What should be done to encourage NATO allies to provide 
additional OMLTs and Police Operational Mentor and Liaison Teams 
(POMLTs)?
    Answer. In addition to the proposals I have already mentioned, the 
United States can encourage our allies to provide more OMLTs and POMLTs 
by offering to provide NATO interoperable equipment that would give the 
OMLTs/POMLTs greater capability to move and communicate. Many nations 
are unable to equip their forces to meet NATO standards. The United 
States supports many such nations now, although we are constrained by 
our own resource requirements and the overall shortage of critical 
assets such as mine resistant ambush protected (MRAP) (though the MRAP 
shortage will be eliminated late this fall).
    Additionally, many Central and East European nations require U.S. 
augmentation, often through the State Partnership Program, to fill 
critical billets within the OMLT/POMLTs. We can continue to provide 
this augmentation, within the limits of our own force limitations.
                 partnering with afghan security forces
    Question. The committee received a briefing on plans for the 
campaign in Kandahar, which called for the deployment of Afghan and 
ISAF security forces partnered together to provide a ``rising tide'' of 
security in and around Kandahar over a period of months.
    How many Afghan troops are there now in Kandahar?
    Answer. As of 27 June, the ANA's 205th Corps has 7,261 soldiers 
present for duty in Kandahar province. New expansions to the ANA have 
allowed the 205th Corps to focus its efforts on Kandahar, effectively 
doubling the number of Afghan troops there, and additional new forces 
are expected to reach the 205th Corps in the remainder of 2010 and in 
2011.
    Question. How many Afghan troops are there now in Helmand?
    Answer. As of 27 June, the ANA's newly formed 215th Corps has 6,794 
soldiers present for duty in Helmand province. Over the remainder of 
2010, the 215th Corps will continue to be fielded towards its 
authorized strength of 11,000.
    Question. If confirmed, what steps, if any, would you recommend to 
increase the number of operations in which Afghan security forces are 
in the lead, particularly in RC-South?
    Answer. The tested concept of embedded partnering remains our most 
critical tool to increase the effectiveness of ANSF. As we complete the 
Coalition force flow and concentrate our combined efforts in both 
Helmand and Kandahar, embedded partnerships will enable us to 
accelerate the development of the fielded Afghan force and foster 
stronger leadership. The Afghans' local knowledge, cultural 
understanding, and intuitive feel for the operating environment, 
coupled with our technology, air assets, and logistics support are 
proving time and time again to be a powerful combination.
    Over time, this partnership will result in Afghan units that 
increasingly operate as the supported force in even more operations, 
and to a greater degree than they do today. Although coalition forces 
are already serving in a supporting role in many areas, we still 
provide many of the required enabling capabilities, such as access to 
fires, air assets, and logistics support. Even in a supporting 
capacity, our role will still be very significant. Embedded partnering 
will allow us to reduce the scope of our supporting role over time as 
Afghan forces continue to develop these capabilities for themselves. 
Afghan soldiers, police, and National Directorate of Security 
representatives recognize the great value of embedded partnering, 
appreciate sharing the risk, and want to lead.
          contract oversight and private security contractors
    Question. If confirmed, what steps, if any, would you recommend to 
ensure adequate oversight is in place for U.S. and ISAF contracts in 
Afghanistan?
    Answer. We will continue to work closely with the Commission on 
Wartime Contracting to implement their recommendations, while 
leveraging the newly established Joint Theater Support Contracting 
Command. This will eliminate duplicative contracts and ensure 
appropriate clauses are included in contracts. We will also strive to 
ensure sufficient manning of contracting officer representatives for 
all critical contracts.
    As we continue to refine inputs for Afghanistan, we have determined 
the need to redesignate Task Force Spotlight under one-star leadership 
and to stand up Task Force 2010 to manage contracts below prime 
contractor level. This will enable us to adequately enforce provisions 
requiring prime contractors and private security contractors (PSCs) to 
report detailed census data, 100 percent synchronized pre-deployment 
and operational tracker and biometric registration, 100 percent 
individual arming authorization, and serious incident reporting. 
Accurate and detailed information of this nature is paramount for 
effective oversight to prevent contracts below the prime contractor 
level from falling into the hands of malign actors.
    Question. The committee's review of Department of Defense (DOD) 
private security contracts found that private security companies 
actively recruit from the Afghan security forces and frequently pay 
more than the Afghan security forces. DOD reported in October 2009 that 
``private security contractors are, on average, paid more'' than the 
Afghan security forces.
    If so, what steps would you envision taking to correct that 
problem, if confirmed?
    Answer. Task Force Spotlight is currently examining the issue to 
ensure Afghan security forces' wages are competitive with those of 
PSCs. One solution may be to build comparative salary caps into our 
contracts to ensure PSCs and ANSF are paid more equitably. However, we 
must do so without degrading the quality of PSCs recruited, and without 
subverting the ability of companies to pay the fair market value for 
services. We are also taking steps to share biometric data collected by 
the Government of Afghanistan on ANSF personnel to ensure companies do 
not hire ANSF personnel who are absent without leave.
    Question. There is evidence that DOD security contractors are 
relying on local warlords and strongmen to provide men to staff their 
guard forces.
    If confirmed, what steps would you take to ensure that:
    a. providers of manpower for security contractors are properly 
vetted; and
    b. that individuals we rely on for security are not detracting from 
the counterinsurgency mission?
    Answer. To ensure proper vetting of PSCs, we must demand their 
immediate adherence to existing contractual requirements. We have not 
adequately enforced current provisions requiring prime contractors and 
PSCs to report detailed census data, register their employees properly, 
report serious incidents. Biometric data has been collected on only 
about 4,500 PSC and employees.
    To reduce the influence of malign actors and power brokers, we must 
leverage our intelligence communities and investigative agencies to 
bring actionable information into the contracting process. We may need 
legislative flexibility to terminate contracts for bad actors or to 
award contracts to those who adhere to requirements and are committed 
to partnering in the counterinsurgency campaign. Task Forces Spotlight 
and Task Force 2010 have been charged to examine these issues within 
USFOR-A.
    To ensure that PSCs are not detracting from the counterinsurgency 
mission, we must require that they adhere to rules for the use of 
force, guidelines for escalation of force, and the principles of the 
Law of Armed Conflict. They must use only appropriate and measured 
force for defensive purposes. To this end, we will work with the 
Government of Afghanistan to ensure PSC personnel are properly trained, 
regulated, inspected, and investigated when required.
    Our counterinsurgency mission depends heavily on perceptions, and 
therefore requires a clear distinction between licensed, trained, and 
restrained PSCs that help us accomplish our mission, and illegally 
armed groups that must be disbanded and held accountable for their 
actions. As the security environment in Afghanistan improves, our need 
for PSCs will diminish, but in the meantime, we will use legal, 
licensed, and controlled PSCs to accomplish appropriate missions.
                    reintegration and reconciliation
    Question. In your assessment, what percentage of low- to mid-level 
Taliban fighters may be willing to reintegrate with Afghan society and 
switch to supporting the Afghan Government if provided the right 
incentives, such as protection from reprisal and employment?
    Answer. It is difficult to make a reliable estimate of low- to mid-
level Taliban fighters willing to reintegrate, given the uncertainty 
regarding incentives and guarantees of protection and employment. 
Theoretically, it is possible to reintegrate many insurgent fighters--
indeed, all those that are not the ideologically driven, irreconcilable 
insurgents. Practically, the primary challenge to the reintegration 
process is that the Afghan Government must identify the right 
incentives and provide the necessary resources to ensure the effective 
and sustained reintegration of these fighters--all with coalition 
support and partnership, to be sure. The government must also develop 
the reconcilable fighters' confidence that it can deliver on 
reintegration promises, and must overcome the issue of corruption by 
some government and ANSF representatives that erodes trust in local 
governance. The program must also overcome the potentially corrosive 
effects of local power brokers who may inhibit its impartial 
implementation. In addition, overcoming the traditional Pashtunwali 
concept of revenge and reprisal may take a significant amount of time, 
as may overcoming the belief of other ethnic groups that the program 
would unfairly benefit and empower Pashtuns.
    Additionally, not every insurgent fighter will need to be 
reintegrated through a government program. Under the right 
circumstances, many will simply desire to stop fighting and return 
home, though we do not have a reliable estimate of this number. We 
assess that there are fighters who would not need government assistance 
to transition out of the insurgency, but we would encourage reconciled 
insurgents identify themselves in case they later decided to take 
advantage of government assistance in reintegration.
    Question. What is your assessment of the reintegration plan that 
has been developed by the Government of Afghanistan with ISAF 
assistance?
    Answer. The Afghan Government's reintegration plan will be of 
central importance in our efforts to improve Afghanistan's security and 
long-term stability. This GIRoA program, currently under final review 
by President Karzai, offers the potential to reduce violence and 
provide realistic avenues to assimilate Pashtun insurgents back into 
Afghanistan society.
    Afghan officials are still working to provide implementation 
details in a few key areas of the plan. First, the deliberate process 
for identification, tracking, execution, and oversight of the 
reintegration process from start to finish still has to be refined. 
These formal program processes are critical to ensure accurate 
reporting, identification of key insurgent candidates for 
reintegration, adequate protection of citizens and former insurgents, 
and impartial administration. Additionally, an oversight process will 
be needed to ensure compliance with standards and provide mechanisms 
for redress of systemic Afghan societal problems that have helped fuel 
the insurgency. The success of this program will require substantial 
support and resources from ISAF at national and local levels, which we 
will be prepared to provide.
    It will be important to ensure that reintegration processes are put 
into place and made functional speedily, so that GIRoA's invitation for 
insurgents to formally reintegrate can yield rapid results. Previous 
reintegration initiatives have failed, in part, because program 
implementation moved more slowly than policy discussion. Another 
failure of this sort could well harden insurgents to reject further 
reintegration overtures, and could risk dramatically eroding public and 
international trust and confidence in the Afghan Government. Finally, 
reintegration success will depend in part on enduring improvements in 
security and local governance, and on the perception that malign 
powerbrokers and corrupt government activities are being addressed and 
significantly reduced.
              civilian casualties and rules of engagement
    Question. A critical objective of the counterinsurgency strategy is 
to provide protection to the Afghan people, including minimizing the 
risk of civilian casualties. ISAF has issued revised procedures aimed 
at reducing the risk to civilians from military operations.
    In your view, do the current rules of engagement (ROEs) in 
Afghanistan, for both NATO and U.S. forces, provide the necessary 
flexibility to allow forces to engage the enemy, protect themselves, 
and minimize the risk of civilian casualties?
    Answer. There is an inherent tension in counterinsurgency 
operations between engaging the enemy and protecting the population. In 
fact, in the past few days, I have had a good discussion with President 
Karzai on this topic, noting that, if confirmed, I would continue the 
emphasis on reducing loss of civilian life in the course of operations 
to an absolute minimum, while also ensuring that we provide whatever 
assets are necessary to ensure the safety of ISAF and Afghan forces 
when they are in a tough spot. As we have done in numerous after action 
reports and through other feedback mechanisms in recent months, we will 
need to continue to educate our leaders on the implementation of the 
ROE moving forward.
    Question. If confirmed, what general changes, if any, would you 
make to the current ROEs?
    Answer. One of my highest priorities, should I be confirmed as 
Commander of USFOR-A, will be to assess the effect of our ROE on the 
safety of our forces and the successful conduct of our mission.
                          health of the forces
    Question. What is your assessment of the adequacy of health and 
mental health capabilities supporting our expanding force structure in 
Afghanistan?
    Answer. I believe that our forces in Afghanistan are properly 
postured with health professionals and required medical assets. A 
comprehensive Health Service Support assessment was completed as part 
of the force expansion planning, and we have worked closely with JFCOM 
and the Services to completely source all new requirements in medical 
force structure.
    In mental health support, we continue to refine our capabilities 
and assess this complex concern. We recently responded to 
recommendations made by Mental Health Advisory Team-6 and we are 
increasing behavioral health personnel to meet and maintain the 
recommended 1:700 ratio, while also appointing a theater behavioral 
health consultant that will proactively manage the provision of 
behavioral health services throughout Afghanistan.
    Question. How do you intend to implement the new DOD Policy on 
management of mild traumatic brain injury throughout Afghanistan 
including working with NATO forces?
    Answer. The DOD policy for mild traumatic brain injury (mTBI) 
(concussion) gives specific direction to line leaders and medical 
personnel in their response to mTBI. It also addresses exposures to 
blast events that are potentially related to mTBI. I will continue to 
ensure appropriate command emphasis is placed on this crucial effort to 
identify, evaluate, and manage all personnel exposed to potential 
concussive events, as defined in the policy. In addition, CENTCOM 
continues to develop a joint solution to track all such exposures by 
utilizing the operational Combined Information Data Network Exchange 
system already in use in theater. This will provide us a mechanism to 
ensure proper evaluation, post-event rest period, and future evaluation 
based on exposure to multiple events. While this DOD policy will not 
apply to other NATO forces, we will work to ensure the impact of its 
requirements on our coalition partners is minimized.
    Question. Will you, if confirmed, assess the adequacy of sexual 
assault and suicide prevention programs and if necessary request 
additional resources to support these essential programs?
    Answer. Yes.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this position, to appear before this 
committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the ISAF Commander/Commander, 
USFOR-A?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
            Questions Submitted by Senator Claire McCaskill
                           wanat, afghanistan
    1. Senator McCaskill. General Petraeus, last week the Army reversed 
a decision to reprimand commanders who had responsibility for the nine 
troops who were killed at Wanat. The decision to issue reprimands was 
based on an inquiry that you ordered to be conducted. In March 2010, 
letters of reprimand were issued to three officers for ``failing to 
properly prepare defenses'' at Wanat. This decision provided some 
vindication for the families, who maintained that their sons were left 
vulnerable by the chain of command. General Charles Campbell, USA, 
Commander of U.S. Army Forces Command, who conducted the review of your 
inquiry, revoked the reprimand, citing that it would have a ``chilling 
effect'' on ground operations. The Army said that the second look at 
the incident proved that the officers were ``neither negligent nor 
derelict'' and that ``their actions were reasonable under the 
circumstances.''
    One of those nine dead young men was Corporal Gunnar Zwilling, a 
Missouri native. His father, Kurt Zwilling, has been fighting a long 
time to get answers about what happened to his son and the reversal by 
the Army was really hard for him to take. It took away some measure of 
closure or explanation for the tragedy at Wanat. As we move into the 
next critical phase in the fight in Afghanistan, it is critical that 
our military leaders learn from the tragic lessons of Wanat and 
continue to work in every manner possible to protect our brave men and 
women in harm's way. Further, where there is a question about command 
decisions in instances where we lose soldiers in battle, the Army must 
better be able to review the questions and arrive at a single, 
responsible and definitive response. An ever-wavering process only 
provides for uncertainty and pain and erodes confidence in Army's 
leadership. As you modify and implement the current counterinsurgency 
strategy, do you anticipate continuing to use small outposts like the 
one at Wanat?
    General Petraeus. Beginning in 2009, senior U.S. commanders, in 
conjunction with International Security Assistance Force (ISAF) and the 
ISAF Joint Command, have been reviewing some of our more remote 
outposts, weighing the value that they provide to the campaign against 
the risk that they pose to our troopers on the ground. Through this 
process, we have in fact closed some outposts when it was determined 
that the outpost provided little or no tactical value but presented 
significant risk to the small element based there. It is, however, 
important to differentiate between remote outposts like Wanat and the 
combat outposts that we routinely employ around population centers like 
Kandahar. In order to separate the Taliban and other insurgent groups 
from the population, it is critical that we and our Afghan National 
Security Force partners live among the people we are protecting. 
Additionally, Special Forces units will continue to have small elements 
operating in remote locations as part of our efforts to build local 
protection forces and deny access support to our enemies in these 
remote areas.

    2. Senator McCaskill. General Petraeus, are these outposts an 
effective use of resources and manpower in the context of fighting the 
broader war?
    General Petraeus. Combat outposts that protect the population and 
deny insurgents access to that population are an essential component of 
our counterinsurgency campaign and an effective use of resources. 
Additionally, we often find it necessary to station forces in remote 
locations in order to achieve some tactical or operational advantage 
over the insurgency. When we do so, however, it is the result of a 
deliberate decisionmaking process that weighs the cost and benefits of 
putting our troopers in that outpost.

    3. Senator McCaskill. General Petraeus, how will you balance force 
protection with getting out to the Afghan people?
    General Petraeus. One of the key paradoxes in counterinsurgency is 
that when you focus too much on force protection, you inherently make 
yourself less safe. Finding the balance between force protection and 
operational effectiveness requires partnering our extremely capable 
ISAF troopers with Afghan soldiers and police who are more culturally 
aware. Beyond this, our commanders have to make difficult but 
deliberate choices about where and why we establish combat outposts. 
When we choose to position forces in remote outposts, our obligation is 
to ensure those forces are sufficiently resourced and have the ability 
to defend themselves. Commanders at every level have to make these 
decisions, and we have to give them the flexibility to use their best 
tactical judgment.

    4. Senator McCaskill. General Petraeus, do you feel that there was 
real accountability for this incident with all of these investigations?
    General Petraeus. I stand by the findings of fact, opinions, and 
recommendations I endorsed as Commander, U.S. Central Command 
(CENTCOM). This was a thorough investigation, undertaken with 
painstaking attention to detail over a 3-month period. Efforts included 
reviewing over 4,000 pages of documentation, reams of information, and 
interviews of all personnel involved in the incident. I remain 
committed to the thoroughness and accuracy of the report as well as my 
recommendations. I also support the administrative process by which it 
was adjudicated.

    5. Senator McCaskill. General Petraeus, how will you treat the fact 
that the Army has produced what are essentially conflicting results on 
this case?
    General Petraeus. CENTCOM was responsible for the investigation 
that primarily focused on the facts and circumstances that preceded the 
combat action at Wanat, Afghanistan on 13 July 2008. The Army did not 
dispute the findings of fact and opinions in my report. Those details 
were critical to our understanding of what occurred and how we can 
hopefully avoid incidents like this in the future. They have been used 
to develop lessons learned which are being shared throughout our 
various service programs and in pre-deployment training. This process I 
see as vital. The Army, having administrative control for the officers 
involved, was responsible for any actions against those officers. Any 
questions regarding ``reconciling'' the CENTCOM investigation with the 
Army review and actions in this case should be directed to the 
Department of the Army, the Chairman of the Joint Chiefs of Staff, and 
the Office of the Secretary of Defense.

                            lashkar-e-taiba
    6. Senator McCaskill. General Petraeus, there are indications that 
Lashkar-e-Taiba (LeT) has a growing role in Afghanistan. As you are 
aware, LeT is the Pakistani-based militant group identified with 
attacks on Indian targets (most notably the 2008 Mumbai terrorist 
attack), and there are fears that it has expanded its operations in 
Afghanistan, reportedly inflicting casualties on Afghans and Indians 
alike, setting up training camps, and adding new volatility to 
relations between India and Pakistan. The New York Times wrote recently 
that LeT is believed to have planned or executed three major attacks 
against Indian Government employees and private workers in Afghanistan 
in recent months, according to Afghan and international intelligence 
officers and diplomats in Afghanistan. Some fear that Afghanistan could 
become a proxy location for clashes between India and Pakistan.
    In addition, some believe that former and current Pakistani Inter-
Services Intelligence officers could be encouraging LeT's activities in 
Afghanistan. Many analysts say that it is likely that LeT has had help 
from other terrorist groups to get into Afghanistan and perhaps was 
assisted by the Haqqani network. In March, during CENTCOM's posture 
hearing with the Senate Armed Services Committee, I flagged concerns 
for you that LeT's role may be expanding in the region, and even around 
the world. Are you concerned about LeT potentially causing greater 
trouble along the border with Pakistan and in Afghanistan itself?
    General Petraeus. Senator McCaskill, there is no doubt LeT is a 
capable and dangerous terrorist organization with the intent to bring 
harm to anyone with a vested interest in a stable Afghanistan. LeT has 
maintained a presence in Afghanistan since its inception in the late 
1980s; however, that presence has been relatively small vis-a-vis the 
Afghan Taliban. We will continue to monitor and make efforts to counter 
the influence of LeT in Pakistan and Afghanistan.

    7. Senator McCaskill. General Petraeus, is it possible that LeT has 
had support from other terrorist groups, such as the Haqqani network?
    General Petraeus. Because LeT shares similar goals with other 
terrorist and insurgent groups in the region, it is possible that LeT 
has had support from other groups. LeT and the Haqqani network may 
mutually support each other in Afghanistan, however on a limited basis.

    8. Senator McCaskill. General Petraeus, how seriously do you take 
assertions about the potential for Afghanistan to become a proxy area 
for clashes between India and Pakistan?
    General Petraeus. I take this issue very seriously and remain 
committed to ensuring that Afghanistan does not become a proxy area for 
clashes between India and Pakistan. I plan to work closely with Admiral 
Mullen, CENTCOM, Ambassador Eikenberry, Ambassador Holbrooke, and 
Ambassador Patterson to facilitate a cooperative and productive 
relationship between the Governments of Pakistan and Afghanistan. In 
order to succeed in Afghanistan, ISAF must continue to work closely 
with Government of the Islamic Republic of Afghanistan to promote 
regional security, stability, and cooperation between Afghanistan and 
all of its neighbors and regional partners.

    9. Senator McCaskill. General Petraeus, is there the potential that 
LeT could be planning to attack U.S. targets in Afghanistan?
    General Petraeus. One of LeT's strategic goals is to eliminate U.S. 
and western influence in Afghanistan. With the increase of coalition 
forces in Afghanistan, the potential exists for increased targeting of 
U.S. personnel and assets. As with all threats to our U.S. and 
coalition forces, we continue to closely track all indications of 
planned attacks and take all appropriate measures to ensure the safety 
of our troopers.
                                 ______
                                 
            Questions Submitted by Senator Roland W. Burris
                       assessment of afghanistan
    10. Senator Burris. General Petraeus, the mission in Afghanistan is 
now in its 8th year and is currently at a very critical stage. The 
spring/summer offensive has started and casualties are increasing along 
with public disapproval. What do you envision as a show-stopper in 
meeting the President's projected date to begin a drawdown in forces in 
June 2011?
    General Petraeus. I support the President's decision to begin a 
process of responsible transition in July 2011. The thinning out of our 
forces will be a conditions-based process based on our commanders' 
assessments of what is occurring on the ground.

    11. Senator Burris. General Petraeus, what will be your first 
priority after you complete your initial assessment of the mission?
    General Petraeus. My assumption of command represents a change in 
personnel, not a change in the President's policy. As President Obama 
and the North Atlantic Treaty Organization (NATO) Secretary General 
Rasmussen have noted, our military objectives remain the same. To that 
end, we must first secure and serve the people of Afghanistan in 
cooperation with our Afghan partners, thereby providing time and space 
for enduring governance and development initiatives to take root. To 
accomplish this priority objective, we must help Afghan leaders develop 
their security forces and governance capacity so that they can, over 
time, take on the tasks of securing their country and see to the needs 
of their people.

    12. Senator Burris. General Petraeus, what do you see as 
impediments to fully implementing a whole-of-government approach in 
Afghanistan?
    General Petraeus. While striking the appropriate balance between a 
counterinsurgency campaign and laying the foundation for sustainable 
long-term stability is never easy, U.S. forces in Afghanistan are 
wholly committed to supporting the President's strategy and achieving 
the closest possible partnership between civilian and military 
personnel. Our teams strive daily to ensure our efforts work in tandem 
to implement a whole-of-government approach. Success in Afghanistan, 
however, is contingent upon more than simply U.S. synchronization. We 
must achieve unity within NATO, the broader international community, 
and the Government of Afghanistan if we are to succeed in our efforts 
to protect the Afghan people. Possible impediments to implementing a 
whole-of-government approach could include the withdrawal of key 
coalition civilian or military capabilities. To ensure these 
impediments do not arise, we continue to coordinate and update 
requirements closely with our NATO and coalition partners.

    13. Senator Burris. General Petraeus, do you envision a scenario 
where you would want a significant amount of the personnel and 
equipment being drawn down from Iraq being diverted to Afghanistan?
    General Petraeus. In my role as the Commander of U.S. Forces-
Afghanistan, I would command only those forces in theater once they are 
provided by the Services. Given the current situation and the uplift of 
U.S. and NATO forces, I do not currently foresee a requirement for 
additional forces. However, if circumstances arise that require the 
commitment of additional forces, I will not hesitate to request those 
troops or capabilities required.
    As the CENTCOM Commander, I worked closely with the Services to 
deploy refurbished MRAP vehicles from Operation Iraqi Freedom and 
anticipate this process will continue for this critical force 
protection system. Further questions regarding force generation and 
equipping could be better addressed by the Joint Staff and the 
Services.

    14. Senator Burris. General Petraeus, do you envision a bigger role 
for Reserve component forces to take advantage of their civilian-
acquired skill sets?
    General Petraeus. The Reserve component forces play a critical role 
in Afghanistan. They bring with them a high level of maturity and 
civilian-skill sets that we are able to leverage in theater. However, 
the sourcing of forces, whether Active, Reserve, or National Guard, is 
determined by the Joint Staff and Joint Forces Command and approved by 
the Secretary of Defense. As Commander, U.S. Forces-Afghanistan, my 
role is to determine the requirements for forces and capabilities, and 
then command those forces in theater once sourcing decisions are made 
and the forces deployed by their respective Services. Therefore, I 
cannot speak directly to the future commitment of Reserve component 
forces in theater. The Joint Staff and the Services could best answer 
this question.
                                 ______
                                 
               Questions Submitted by Senator John Thune
                    protecting the afghan population
    15. Senator Thune. General Petraeus, the Taliban reportedly 
attacked a wedding celebration in Arghandab District a few weeks ago, 
killing at least 40 people. There are also reports that the Taliban 
executed a 7-year-old child in Helmand province for cooperating with 
the Afghan Government. With regard to the village where the wedding 
party was attacked, what have we done to provide assistance to the 
survivors, and since this village was clearly allied with us against 
the Taliban, why weren't we able to protect it?
    General Petraeus. We believe that the Arghandab wedding was 
specifically targeted due the large number of Afghan National Police 
(ANP) who were present. This particularly brutal attack was perpetrated 
by an insurgent who employed a Suicide Vehicle Born Improvised 
Explosive Device, or in plain language a car bomb. By our numbers, he 
killed 38 Afghans, 14 of whom were Afghan Police. Eighty-four others 
were wounded in the attack.
    Our intelligence analysis determined that this was not a revenge 
killing, and the Taliban appear to have specifically targeted the ANP 
officers attending the wedding. This terrible act illustrates the 
desperation of the Taliban. While increased violence at the hands of 
the Taliban is deplorable, it must be viewed in context. Heightened 
violence throughout the summer was anticipated by ISAF as a result of 
our increased operational tempo and efforts to separate the population 
from the insurgency.
    ISAF forces conducted key leader engagements with the ANP following 
this tragedy and extended its greatest condolences to the families of 
those who were wounded or killed. However, as ISAF was not involved in 
the incident itself, the Afghan Government is responsible for providing 
assistance to the survivors who were members of the Afghan National 
Security Forces (ANSF).

    16. Senator Thune. General Petraeus, isn't it one of our strategic 
goals to protect the population?
    General Petraeus. Protecting the population is the priority of 
effort and it is ISAF's first line of operation. Our counterinsurgency 
doctrine places particular emphasis on the population's importance. 
Security, however, is not a blanket that can be pulled out of a closet 
and thrown over Afghanistan. It must be woven into the population with 
their own people providing that security. As we continue to deploy more 
ISAF and ANSF forces into former insurgent safe havens to create what 
we have characterized as a ``rising tide of security,'' we can expect 
that the Taliban will resort to high profile attacks such as these. As 
we continue to build the size and capabilities of the ANSF, we will 
also reach a point where our Afghan partners are capable of taking more 
of this responsibility with ISAF forces assuming more of a support 
role.

    17. Senator Thune. General Petraeus, what will happen to this 
village when we start to pull troops out of Afghanistan in July 2011?
    General Petraeus. The President's strategy calls for beginning to 
withdraw troops from Afghanistan in July 2011. The President has also 
made very clear that the pace of the withdrawal will be conditions 
based. A withdrawal of force will occur according to the security 
conditions on the ground and in a responsible manner. Our strategic 
main effort is the Afghan Security Forces. We currently plan to build 
the Army up to 134,000 and the Police up to 109,000 by October 2010; 
these numbers increase to 171,600 soldiers and 134,000 police by 
October 2011. Additionally, President Karzai has recently approved the 
creation of the MOI Afghan Local Police, which will not count against 
ANSF numbers, but will enhance community security and link communities 
to the Afghan Government. ISAF will not transition responsibility for a 
particular district or province until the commanders on the ground 
believe that the Afghan National Security Forces are capable of 
addressing the internal and external threats and protecting the 
population.

              army/air force duplicative unmanned vehicles
    18. Senator Thune. General Petraeus, the Army's fiscal year 2011 
budget proposal requested over $578 million toward the acquisition of 
MQ-1 unmanned aerial vehicles (UAVs), as well as their payload and 
weaponization. With that money, the Army would buy 26 more aircraft 
next year in addition to the 24 purchased this year with 158 total 
aircraft in the Army inventory by the end of 2015. By comparison, the 
Air Force has 144 MQ-1 remotely piloted aircraft today. The rationale 
for these duplicative purchases is that there is an urgent need for 
more intelligence, surveillance, and reconnaissance (ISR) platforms in 
the field. Specifically, the Air Force has been tasked to provide 65 
combat air patrols (CAPs) on a daily basis using these types of 
aircraft. What is your view of the use of the Army's MQ-1 aircraft in 
Afghanistan?
    General Petraeus. There is in fact a need for additional ISR 
platforms to support our operations in Afghanistan and the Army UAVs 
work very effectively--as do various Air Force platforms. We are 
working closely with the Secretary of Defense and the Services to 
ensure that we have all of the capabilities that our troopers need, 
including unmanned aerial systems.

    19. Senator Thune. General Petraeus, shouldn't we be using these 
aircraft to augment the Air Force's capabilities in order to achieve 
the requested goal of 65 CAPs?
    General Petraeus. It is important to get the UAVs into theater 
where they support our requirements. There remains more demand than we 
have resources available and we need additional capability, regardless 
of whether it is provided by the Army or the Air Force.

    20. Senator Thune. General Petraeus, with the drawdown of all 
combat troops in Iraq this August, and I assume this includes UAVs, 
what kind of immediate increase in capacity do you expect will be 
available to you in Afghanistan in terms of UAVs?
    General Petraeus. I currently do not anticipate an immediate 
increase in UAV capacity in Afghanistan due to the drawdown in Iraq. 
Fewer forces on the ground do not translate into an immediate reduction 
of intelligence requirements. It is even possible that the requirements 
will go up for a time. CENTCOM carefully balances capabilities across 
its area of operations and I am confident our requirements will remain 
under consideration during the drawdown process. Secretary Gates has 
placed considerable emphasis on increasing ISR capability for our 
deployed forces, but there is still much work to do in this regard.

    21. Senator Thune. General Petraeus, how will this immediate 
increase in capacity aid with the counterinsurgency strategy of 
securing the Afghan population?
    General Petraeus. I currently do not anticipate an immediate 
increase in UAV capacity in Afghanistan due to the drawdown in Iraq. 
Fewer forces on the ground do not translate into an immediate reduction 
of intelligence requirements. It is even possible that the requirements 
will go up for a time. CENTCOM carefully balances capabilities across 
its area of operations and I am confident our requirements will remain 
under consideration during the drawdown process. Secretary Gates has 
placed considerable emphasis on increasing ISR capability for our 
deployed forces, but there is still much work to do in this regard.

    22. Senator Thune. General Petraeus, Secretary Gates has directed 
each Service to find savings of $2 billion in next year's budget. What 
synergies do you envision could be made between the Army and the Air 
Force with regard to unmanned capabilities and where do you think they 
can save money and reduce duplication?
    General Petraeus. The role as Commander of U.S. Forces-Afghanistan 
is to command the forces provided by the Services within the theater of 
operations. With regards to redundancies or efficiencies, I believe 
that the Defense Department and the Services could provide a more 
useful perspective.
                                 ______
                                 
              Questions Submitted by Senator David Vitter
                         success in afghanistan
    23. Senator Vitter. General Petraeus, what is your definition of 
victory or success in Afghanistan? Is that definition the same as the 
President's definition?
    General Petraeus. As the President stated in his December 1 West 
Point address, our core goal remains the same: to disrupt, dismantle, 
and defeat al Qaeda in Afghanistan and Pakistan, and to prevent it from 
threatening America and our allies in the future. To meet that goal we 
must deny al Qaeda a safe haven, reverse the Taliban's momentum and 
deny it the ability to overthrow the government, and strengthen the 
capacity of Afghanistan's Security Forces and government so that they 
can take lead responsibility for Afghanistan's future. Success in 
Afghanistan will be defined by durable, measurable progress towards 
these objectives. We are working to ensure that the insurgency is 
defeated within Afghan capacity; that the ANSF has self-sufficient 
capacity for the provision of security; that legitimate connections 
between the national government and local communities (local, 
traditional structures that are sufficiently inclusive) are more than 
`Afghan good enough;' and that a degree of stability is achieved that 
allows for the provision of basic services, economic development, and 
the establishment of governance. To attain these goals, we must 
continuously assess the security situation in districts and sub-
districts. In order to sufficiently protect the population, our focus 
will also assess the ANSF in different efforts and locations-not just 
with regard to quantity, but also to their level of contribution, 
capability, and quality. We will also look for the establishment of 
local governance, services, and processes in a given area. We will need 
to conduct a granular assessment along the way to ensure that we 
understand if our approach is enabling the outcome we want to achieve.

                        afghan mineral deposits
    24. Senator Vitter. General Petraeus, do you believe that the 
discovery of minerals will have any impact on the campaign?
    General Petraeus. Properly developing Afghanistan's mineral 
potential may be an engine of job creation, economic growth, and 
revenue generation. However, much work remains to be done before this 
potential can be fully realized, particularly in security, 
infrastructure, capacity building, and regulatory, tax and license 
reforms.
    While long term economic development is essential to Afghan self-
sufficiency, I do not anticipate an immediate impact on the campaign as 
it will take several years to build the required infrastructure.

    25. Senator Vitter. General Petraeus, how do you plan on working to 
ensure that Afghanistan can potentially utilize the mineral deposits to 
develop a more stable economy and government?
    General Petraeus. While much of this is outside of ISAF's direct 
authority, we are working diligently to set the conditions necessary to 
help Afghanistan realize its full economic potential. U.S. and 
coalition forces are executing a deliberate counterinsurgency campaign 
to improve the security environment necessary to support the 
infrastructure development and encourage private sector investment in 
Afghanistan's extractive industries.
    ISAF is working with the Minister of Mines on a broad range of 
infrastructure and economic development issues impacting long-term 
economic growth and creation. Specifically, ISAF is supporting donor 
efforts to assist the Ministry of Mines in developing its capacity to 
plan and manage the mining sector. The challenge ahead is coordinating 
multiple donor programs with Ministry needs.
    Donor strategies, now underway, to engage with the Ministry of 
Mines include:

        <bullet> Technical assistance in mining policy, regulation 
        management, and licensing reform.
        <bullet> Creating oversight institutions to assure transparency 
        of mining operations consistent with international standards 
        and programs to enable the Ministry of Mines to support 
        responsible private sector investment
        <bullet> Capacity building to strengthen the technical 
        capabilities of the Ministry of Mines to assess and regulate 
        the mining sector.
        <bullet> Support for Ministry incentives for private sector 
        investment to reduce trade barriers and improve the enabling 
        business environment.

                        civilian-military levels
    26. Senator Vitter. General Petraeus, do you believe the current 
civilian-military levels are balanced out or will be balanced out after 
the 1,000 civilian surge is complete or do you believe more are needed 
in order to accomplish your definition of success?
    General Petraeus. In the current phase of the campaign, the 1,000 
person civilian surge is sufficient. However, as the ISAF expands into 
more of the Key Terrain Districts, the number of governance and 
development activities will grow. This means that the need for civilian 
expertise will most likely continue to grow.
                                 ______
                                 
    [The nomination reference of GEN David H. Petraeus, USA, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 24, 2010.
    Ordered, that the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the U.S. Army to the 
grade indicated while assigned to a position of importance and 
responsibility under title 10, U.S.C., section 601:

                             To be General.

    GEN David H. Petraeus, 0000.
                                 ______
                                 
    [The biographical sketch of GEN David H. Petraeus, USA, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
         Resume of Service Career of GEN David H. Petraeus, USA
Source of commissioned service: USMA.

Educational degrees:
    U.S. Military Academy--BS--No Major.
    Princeton University--MPA--International Relations.
    Princeton University--PHD--International Relations.

Military schools attended:
    Infantry Officer Basic and Advanced Courses,
    Armor Officer Advanced Course,
    U.S. Army Command and General Staff College,
    Senior Service College Fellowship--Georgetown University.

Foreign language(s): None recorded.

Promotions:

------------------------------------------------------------------------
                                                Dates of appointment
------------------------------------------------------------------------
2LT.......................................  5 Jun 74
1LT.......................................  5 Jun 76
CPT.......................................  8 Aug 78
MAJ.......................................  1 Aug 85
LTC.......................................  1 Apr 91
COL.......................................  1 Sep 95
BG........................................  1 Jan 00
MG........................................  1 Jan 03
LTG.......................................  18 May 04
GEN.......................................  10 Feb 07
------------------------------------------------------------------------


Major duty assignments:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
May 75..........................  Jan 79............  Platoon Leader, C
                                                       Company, later S-
                                                       4 (Logistics),
                                                       later S-1
                                                       (Personnel),
                                                       509th Airborne
                                                       Battalion Combat
                                                       Team, Vicenza,
                                                       Italy.
Jan 79..........................  Jul 79              Assistant S-3
                                                       (Operations), 2d
                                                       Brigade, 24th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Stewart, GA.
Jul 79                            May 81............  Commander, A
                                                       Company, later S-
                                                       3 (Operations),
                                                       2d Battalion,
                                                       19th Infantry,
                                                       24th Infantry
                                                       Division
                                                       (Mechanized),
                                                       Fort Stewart, GA.
May 81..........................  May 82............  Aide-de-Camp to
                                                       the Division
                                                       Commander, 24th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Stewart, GA.
May 82..........................  Jun 83............  Student, Command
                                                       and General Staff
                                                       Officer Course,
                                                       Fort Leavenworth,
                                                       KS.
Jun 83..........................  Jun 85............  Student, Princeton
                                                       University,
                                                       Princeton, NJ.
Jul 85                            Jun 87............  Instructor, later
                                                       Assistant
                                                       Professor,
                                                       Department of
                                                       Social Sciences,
                                                       U.S. Military
                                                       Academy, West
                                                       Point, NY.
Jun 87..........................  Jun 88............  Military Assistant
                                                       to the Supreme
                                                       Allied Commander
                                                       Europe, Supreme
                                                       Headquarters,
                                                       Allied Powers
                                                       Europe, Belgium.
Jun 88..........................  Aug 89............  S-3 (Operations),
                                                       2d Battalion,
                                                       30th Infantry,
                                                       later 1st
                                                       Brigade, 3d
                                                       Infantry Division
                                                       (Mechanized),
                                                       U.S. Army Europe,
                                                       Germany.
Aug 89..........................  Aug 91............  Aide/Assistant
                                                       Executive Officer
                                                       to the Chief of
                                                       Staff, U.S. Army,
                                                       Washington, DC.
Aug 91..........................  Jul 93              Commander, 3d
                                                       Battalion, 187th
                                                       Infantry, 101st
                                                       Airborne Division
                                                       (Air Assault),
                                                       Fort Campbell,
                                                       KY.
Jul 93                            Jul 94              G-3 (Operations)/
                                                       Director of
                                                       Plans, Training,
                                                       and Mobilization,
                                                       101st Airborne
                                                       Division (Air
                                                       Assault), Fort
                                                       Campbell, KY.
Aug 94..........................  Jan 95............  Senior Service
                                                       College Fellow,
                                                       Georgetown
                                                       University,
                                                       Washington, DC.
Jan 95..........................  Jun 95............  Chief Operations
                                                       Officer, U.N.
                                                       Mission in Haiti,
                                                       Operation Uphold
                                                       Democracy, Haiti.
Jun 95..........................  Jun 97............  Commander, 1st
                                                       Brigade, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC.
Jun 97..........................  Sep 97............  Executive
                                                       Assistant to the
                                                       Director of the
                                                       Joint Staff, The
                                                       Joint Staff,
                                                       Washington, DC.
Oct 97..........................  Aug 99............  Executive
                                                       Assistant to the
                                                       Chairman, Joint
                                                       Chiefs of Staff,
                                                       Office of the
                                                       Joint Chiefs of
                                                       Staff,
                                                       Washington, DC.
Aug 99..........................  Jul 00              Assistant Division
                                                       Commander
                                                       (Operations), 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC, and
                                                       Commanding
                                                       General, Combined
                                                       Joint Task Force-
                                                       Kuwait, Operation
                                                       Desert Spring,
                                                       Kuwait.
Jul 00                            Aug 00............  Acting Commanding
                                                       General, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, NC.
Aug 00..........................  Jun 01............  Chief of Staff,
                                                       XVIII Airborne
                                                       Corps, Fort
                                                       Bragg, NC.
Jun 01..........................  Jun 02............  Assistant Chief of
                                                       Staff for
                                                       Operations, SFOR
                                                       and Deputy
                                                       Commander, U.S.
                                                       Joint Interagency
                                                       Counterterrorism
                                                       Task Force,
                                                       Operation Joint
                                                       Forge, Sarajevo,
                                                       Bosnia-
                                                       Herzegovina.
Jul 02                            May 04............  Commanding
                                                       General, 101st
                                                       Airborne Division
                                                       (Air Assault) and
                                                       Fort Campbell,
                                                       Fort Campbell,
                                                       KY, and Operation
                                                       Iraqi Freedom,
                                                       Iraq.
May 04..........................  Sep 05............  Commander,
                                                       Multinational
                                                       Security
                                                       Transition
                                                       Command-Iraq/
                                                       Commander, NATO
                                                       Training Mission-
                                                       Iraq, Operation
                                                       Iraqi Freedom,
                                                       Iraq.
Oct 05..........................  Feb 07............  Commanding
                                                       General, U.S.
                                                       Army Combined
                                                       Arms Center and
                                                       Fort Leavenworth,
                                                       Fort Leavenworth,
                                                       KS.
Feb 07..........................  Sep 08............  Commander,
                                                       Multinational
                                                       Force-Iraq,
                                                       Operation Iraqi
                                                       Freedom, Iraq.
Oct 08..........................  Present...........  Commander, U.S.
                                                       Central Command,
                                                       MacDill Air Force
                                                       Base, FL.
------------------------------------------------------------------------

Summary of joint assignments:

------------------------------------------------------------------------
                                         Date               Grade
------------------------------------------------------------------------
Military Assistant to the Supreme     Jun 87-Jun 88  Major
 Allied Commander Europe, Supreme
 Headquarters, Allied Powers
 Europe, Belgium (Cumulative
 Joint Credit).
Chief Operations Officer, U.N.        Jan 95-Jun 95  Lieutenant Colonel
 Mission in Haiti, Operation
 Uphold Democracy, Haiti (No
 Joint Credit).
Executive Assistant to the            Jun 97-Aug 99  Colonel
 Director, The Joint Staff, later
 Executive Assistant to the
 Chairman, Joint Chiefs of Staff,
 Washington, DC.
Commanding General, Combined          Aug 99-Sep 99  Colonel
 Joint Task Force-Kuwait,
 Operation Desert Spring, Kuwait
 (No Joint Credit).
Assistant Chief of Staff for          Jun 01-Jun 02  Brigadier General
 Operations, SFOR and Deputy
 Commander, U.S. Joint
 Interagency Counter-Terrorism
 Task Force, Operation Joint
 Forge, Sarajevo, Bosnia-
 Herzegovina (No joint credit).
Commander, Multinational Security     May 04-Sep 05  Lieutenant General
 Transition Command-Iraq/
 Commander, NATO Training Mission-
 Iraq, Operation Iraqi Freedom,
 Iraq.
Commander, Multinational Force-       Feb 07-Sep 08  General
 Iraq, Operation Iraqi Freedom,
 Iraq.
Commander, U.S. Central Command,     Oct 08-Present  General
 MacDill Air Force Base, FL.
------------------------------------------------------------------------

Summary of operations assignments:

------------------------------------------------------------------------
                                         Date               Grade
------------------------------------------------------------------------
Chief Operations Officer, U.N.        Jan 95-Jun 95  Lieutenant Colonel
 Mission in Haiti, Operation
 Uphold Democracy, Haiti (No
 Joint Credit).
Commanding General, Combined          Aug 99-Sep 99  Brigadier General
 Joint Task Force-Kuwait,
 Operation Desert Spring, Kuwait
 (No Joint Credit).
Assistant Chief of Staff for          Jun 01-Jun 02  Brigadier General
 Operations, SFOR and Deputy
 Commander, U.S. Joint
 Interagency Counterterrorism
 Task Force, Operation Joint
 Forge. Sarajevo, Bosnia-
 Herzegovina (No Joint Credit).
Commanding General. 101st             Mar 03-Feb 04  Major General
 Airborne Division (Air Assault),
 Operation Iraqi Freedom, Iraq.
Commander, Multinational Security     May 04-Sep 05  Lieutenant General
 Transition Command-Iraq/
 Commander, NATO Training Mission-
 Iraq, Operation Iraqi Freedom,
 Iraq.
Commander, Multinational Force-       Feb 07-Oct 08  General
 Iraq, Operation Iraqi Freedom,
 Iraq.
------------------------------------------------------------------------

U.S. decorations and badges:
    Defense Distinguished Service Medal
    Distinguished Service Medal
    Defense Superior Service Medal (with Oak Leaf Cluster)
    Legion of Merit (with three Oak Leaf Clusters)
    Bronze Star Medal with ``V'' Device
    Defense Meritorious Service Medal
    Meritorious Service Medal (with two Oak Leaf Clusters)
    Joint Service Commendation Medal
    Army Commendation Medal (with two Oak Leaf Clusters)
    Joint Service Achievement Medal
    Army Achievement Medal
    Combat Action Badge
    Expert Infantryman Badge
    Master Parachutist Badge
    Air Assault Badge
    Ranger Tab
    Joint Chiefs of Staff Identification Badge
    Army Staff Identification Badge
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by GEN David H. 
Petraeus, USA, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    David H. Petraeus.

    2. Position to which nominated:
    Commander, International Security Assistance Force/Commander, U.S. 
Forces-Afghanistan.

    3. Date of nomination:
    24 June 2010.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    7 November 1952; Cornwall on Hudson, NY.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Hollister Knowlton Petraeus.

    7. Names and ages of children:
    Anne, 27; Stephen, 23.

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Council on Foreign Relations
    Association of the U.S. Army
    Association of Graduates, U.S. Military Academy
    82d Airborne Division Assosciation
    101st Airborne Division Association
    504th Parachute Infantry Regiment Association
    Static Line Association
    555th Parachute Infantry Regiment Association
    187th Infantry Regiment Association
    SHAPE Alumni Association
    7th Armored Division Association
    Princeton Alumni Association
    U.S. Parachute Association
    Command and General Staff Foundation

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements other than those listed on the 
service record extract provided to the committee by the executive 
branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 David H. Petraeus.
    This 23rd day of June, 2010.

    [The nomination of GEN David H. Petraeus, USA, was reported 
to the Senate by Chairman Levin on June 29, 2010, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on June 30, 2010.]


  NOMINATION OF GEN. JAMES N. MATTIS, USMC, FOR REAPPOINTMENT TO THE 
       GRADE OF GENERAL AND TO BE COMMANDER, U.S. CENTRAL COMMAND

                              ----------                              


                         TUESDAY, JULY 27, 2010

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 3:33 p.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, E. 
Benjamin Nelson, Webb, Hagan, Burris, Goodwin, McCain, Inhofe, 
Chambliss, Graham, Thune, LeMieux, and Brown.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jessica L. Kingston, 
research assistant; Michael J. Kuiken, professional staff 
member; Gerald J. Leeling, counsel; William G.P. Monahan, 
counsel; Michael J. Noblet, professional staff member; and 
William K. Sutey, professional staff member.
    Minority staff members present: Adam J. Barker, 
professional staff member; Christian D. Brose, professional 
staff member; David M. Morriss, minority counsel; and Richard 
F. Walsh, minority counsel.
    Staff assistants present: Paul J. Hubbard and Breon N. 
Wells.
    Committee members' assistants present: Carolyn A. Chuhta, 
assistant to Senator Reed; Nick Ikeda, assistant to Senator 
Akaka; Ann Premer, assistant to Senator Ben Nelson; Gordon 
Peterson, assistant to Senator Webb; Jennifer Barrett, 
assistant to Senator Udall; Roger Pena, assistant to Senator 
Hagan; Lindsay Kavanaugh, assistant to Senator Begich; Anthony 
J. Lazarski, assistant to Senator Inhofe; Clyde A. Taylor IV, 
assistant to Senator Chambliss; Andrew King, assistant to 
Senator Graham; Erskine W. Wells III, assistant to Senator 
Wicker; Brian Walsh, assistant to Senator LeMieux; Scott 
Clendaniel, assistant to Senator Brown; and Brooks Tucker, 
assistant to Senator Burr.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good afternoon, everybody. Sorry for the 
delay. A Senate vote, as I think you all know, takes 
precedence.
    The committee meets today to consider the nomination of 
General James Mattis for reappointment to the grade of general 
and to be Commander, U.S. Central Command (CENTCOM).
    General Mattis is no stranger to this committee. He's 
served for more than 30 years in the military, with tours in 
both Afghanistan and Iraq. In the last few years, General 
Mattis has served as the Commander of U.S. Joint Forces 
Command, where many have considered his work to be pioneering.
    General Petraeus told me, last week, that he and General 
Mattis have worked closely and well together. Indeed, General 
Mattis collaborated closely with General Petraeus in writing 
the book on counterinsurgency doctrine during General Mattis's 
tenure as Commanding General of the Marine Corps Combat 
Development Command. General Mattis will have an opportunity, 
as the CENTCOM Commander to see the fruits of his most recent 
labors.
    The coming months, in both Afghanistan and Iraq, are 
critical. In Afghanistan, a top priority for the next CENTCOM 
Commander will be ensuring that General Petraeus, the Commander 
of the International Security Assistance Force (ISAF), and U.S. 
forces--has what he needs to succeed.
    While there's been a change in leadership of the effort in 
Afghanistan, it does not represent a change in policy. Our goal 
there remains to prevent Afghanistan from being dominated by a 
Taliban-led insurgency that would once again provide a safe 
haven for al Qaeda to plan attacks against us and our allies, 
and, indeed, the world.
    Achieving this goal requires helping the Afghan Government 
and security forces to take principal responsibility for 
Afghanistan's security and affairs.
    The last 6 months have seen the Afghans make some progress 
in building the capacity of the Afghan security forces to 
assume principal security responsibility. These include a surge 
in the recruiting and growth of the Afghan army, resulting in 
the army meeting its current target strength of 134,000, and 
meeting that, months early. The partnering of Afghan security 
forces with coalition forces is improving, with combined forces 
in the field starting to be predominantly Afghan.
    In the coming days, a major joint Afghan Army ISAF 
operation will be conducted west of Kandahar City in the 
traditional Taliban heartland of the Arghandab Valley. This 
operation will involve approximately 10,000 troops, more than 
half of which will be Afghan forces. It has been jointly 
planned and, of critical importance, will be carried out with 
Afghan security forces in the lead. The significance of this 
will not be lost on the Afghan people, nor on the Taliban, 
because it will undermine the Taliban propaganda that the 
United States and its allies are looking to dominate 
Afghanistan.
    There are signs of progress, even if significant challenges 
remain. These challenges include the threat emanating from 
Pakistan, where insurgent groups, such as the Haqqani network, 
the Afghan Taliban, and Quetta Shura continue to find 
sanctuary. Other challenges include the failure of the Afghan 
Government to effectively deliver services and forcefully take 
on corruption, and the maligned influence of powerbrokers, 
warlords, and private security contractors who engage in 
bribery, blatant racketeering, and rip-offs in Afghanistan.
    In Iraq, we're on the threshold of another milestone for 
the President's strategy. By September 1, the U.S. combat 
mission in Iraq will end, and U.S. forces will transition to 
the role of advising and assisting the Iraqi security forces, 
as well as targeted counterterrorism missions. According to 
General Ray Odierno, the Commander of U.S. Forces Iraq, 
security continues to improve in Iraq, generally, despite 
recent high-profile attacks and the drawdown of U.S. forces 
from 70,000 currently, to 50,000 by the end of August, remains 
on track.
    Given this improvement, General Odierno recently 
acknowledged that Iraq's problems are principally political and 
economic. The new Iraqi Government still has not addressed 
longstanding issues, including the political future of its 
northern provinces and how to distribute Iraq's abundant oil 
revenues. A critical part of the drawdown of U.S. forces is the 
interagency transition from Department of Defense lead to 
Department of State lead, with respect to U.S.-Iraqi long-term 
relations and responsibility for stability and reconstruction 
activities in Iraq. We're interested to hear General Mattis's 
views on the importance of this transition. If confirmed, what 
actions he would take, if any, to ensure that it is 
accomplished efficiently and effectively.
    The attempted Christmas Day airline bombing near Detroit 
reminded Americans that al Qaeda is a global organization that 
continues to threaten harm to those who do not share its 
radical views. That nearly catastrophic incident also focused 
attention on Yemen, a country with an uneven record on 
counterterrorism, and large ungoverned spaces that serve as 
attractive sanctuaries for al Qaeda and its recruits. General 
Mattis will undoubtedly be confronted with challenges emerging 
from Yemen during his tenure at CENTCOM.
    Any counterterrorism successes in Yemen, and across the 
CENTCOM region, will probably lead to al Qaeda and its 
supporters moving to other countries in the region. General 
Mattis will have to reassess, constantly, his efforts, and 
change the application of resources to respond to changing 
threats. This committee stands ready to support General Mattis 
in these efforts.
    As General Mattis articulated in response to advance policy 
questions from this committee, also key among the challenges he 
will confront is helping to check any aggressive actions by 
Iran. Iran's pursuit of a nuclear program undermines stability 
and stokes fear across the region. The brutal tactics and human 
rights abuses of the Government of Iran in its efforts to 
silence the voices of the people of Iran are also of deep 
concern.
    As the new bilateral and multilateral sanctions regimes are 
implemented, it will be critical to continue to work with other 
countries in the region on robust sanctions enforcement. We 
expect General Mattis to keep us informed, on a regular basis, 
of events occurring relative to Iran.
    General Mattis, we appreciate the sacrifices that you have 
already made in the service of our country. We thank you in 
advance for your willingness to bear the burden of continued 
service.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman. Thank you also, 
Mr. Chairman, for holding this timely hearing. Hopefully we can 
move General Mattis' nomination as quickly as possible so he 
can get to work.
    We're pleased to hear testimony from General Mattis as we 
consider his nomination to be Commander of CENTCOM. General 
Mattis is one of America's most accomplished warrior-thinkers, 
a warrior who has led men in combat with success and valor in 
Afghanistan, Iraq, and in the wider war against violent Islamic 
extremism, and a thinker who has advanced our Nation's conduct 
of warfare in the 21st century through his work on the 
Counterinsurgency Field Manual and in his recent tour as 
Commander of U.S. Joint Forces Command.
    General Mattis is also known for engaging, at times, in a 
little straight talk, something that this Senator particularly 
appreciates.
    The CENTCOM area of responsibility (AOR) is the front line 
for U.S. forces today in this theater. Our men and women in 
uniform are fighting two wars and facing countless other 
challenges on behalf of our Nation. Now and in the coming 
years, we will look to CENTCOM's leadership on a host of 
critical priorities: to redeploy our forces from Iraq, under 
conditions of success, while consolidating our long-term 
strategic partnership with that essential country; to continue 
building a balance of power in the Middle East that curbs the 
Iranian Government's pursuit of regional hegemony and a nuclear 
weapons capability; to support the independence of democratic 
partners like Lebanon and longstanding friends in the Levant 
and the Gulf, all of whom are beset by violent enemies; and 
finally, to stand up for the human rights and democratic 
aspirations of citizens across the region, especially in a 
country like Egypt, which is entering a critical period of 
transition.
    But, perhaps the most important near-term priority in the 
CENTCOM AOR is winning the war in Afghanistan. Since the 
President's speech at West Point last December, our campaign in 
Afghanistan has been slower and harder than we had imagined. 
There have been setbacks and changes that we did not foresee. 
All of our surge forces will finally be in place by the end of 
next month.
    While many of the North Atlantic Treaty Organization (NATO) 
forces we were promised are not materializing, this is leading 
some to doubt whether the war is winnable, whether it's worth 
the sacrifice, and whether we should begin to withdraw our 
forces.
    Some are seizing on the recent leak of 92,000 highly-
classified documents about Afghanistan and Pakistan, drawn from 
2004 to 2009, as somehow proof that the war is lost. In 
actuality, the emerging picture from these documents appear to 
be little more than what we knew already, that the war in 
Afghanistan was deteriorating over the past several years, and 
that we were not winning. In this sense, the WikiLeaks 
disclosure is simply an extended footnote to a well-known 
reading of recent history.
    That's why a concerted effort has been made since 2009, 
both in the administration and in Congress, to make wide-
ranging changes to our strategy in Afghanistan, to increase our 
commitment of troops and resources, and to bring new and better 
leadership to the mission. As a result, we are beginning to 
address many of the problems highlighted within these leaked 
documents.
    It's only been 23 days since General Petraeus assumed 
command in Kabul, and we need to give him the time he needs to 
review and, if necessary, make changes to our campaign plan to 
achieve success. But, no matter how many good adjustments we 
make to our strategy on the ground, our ability to succeed will 
continue to be severely limited if Afghans and actors in the 
region, friends and enemies alike, all think we will begin 
leaving in a year.
    I just visited Afghanistan with Senators Lieberman and 
Graham, and we heard this concern everywhere we went. Our 
Afghan friends are worried that we will leave and the Taliban 
will cut their heads off. As long as they believe that, they 
will hedge their bets on this mission; and that goes for 
Pakistan, as well. The WikiLeaks controversy has reopened 
charges that elements of the Pakistani military and 
intelligence services are playing both sides of the fight in 
Afghanistan. But, this should not be surprising, especially 
when we are sounding an uncertain trumpet about our own 
commitment.
    General Petraeus has said about Afghanistan that, ``We're 
in this to win.'' I imagine you feel the same way, General 
Mattis. I appreciate that conviction, and I share it. But, we 
need to hear it, clearly and consistently, from the highest 
levels of the administration. We need to hear that, when 
winning a war is a, ``vital national security interest,'' as 
the President has rightly described the fight in Afghanistan, 
you don't surge for 1 year and then begin leaving, regardless 
of whether you've achieved your objectives, or not.
    We're asking our Afghan partners to take an enormous chance 
on us; a wager, in many cases, that could cost them their 
lives. We should not expect to summon that kind of total 
commitment and faith in us if we're not prepared to extend the 
same to them. I know that our military leaders and our troops 
on the ground are giving every ounce of devotion they have to 
this mission and to their Afghan partners, on whom success 
ultimately depends. It is the solemn obligation of political 
leaders, here in Washington, to be equal to that commitment and 
the sacrifice it entails. That's the only way we will be 
successful in this war.
    I thank you, General Mattis, for your willing to serve our 
Nation, once again, when we need you most.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    General Mattis, before I turn to you for your opening 
statement, we have a set of standard questions which we pose to 
all nominees.
    First, have you adhered to applicable laws and regulations 
governing conflicts of interest?
    General Mattis. Yes, sir.
    Chairman Levin. Do you agree, when asked, to give your 
personal views, even if those views differ from the 
administration in power?
    General Mattis. Yes, sir.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    General Mattis. No, sir.
    Chairman Levin. Will you ensure that your staff complies 
with the deadlines established for requested communications, 
including questions for the record, in hearings?
    General Mattis. Yes, sir.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    General Mattis. Yes, sir.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    General Mattis. Yes, sir.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify, upon request, before this committee?
    General Mattis. Yes, sir.
    Chairman Levin. Finally, do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner, when requested by a duly constituted committee, 
or to consult with the committee regarding the basis for any 
good faith delay of denial in providing such documents?
    General Mattis. Yes, sir.
    Chairman Levin. Thank you very much, General. Now, we'll 
turn to you for your opening statement.

     STATEMENT OF GEN. JAMES N. MATTIS, USMC, NOMINEE FOR 
REAPPOINTMENT TO THE GRADE OF GENERAL AND TO BE COMMANDER, U.S. 
                        CENTRAL COMMAND

    General Mattis. Thank you, Mr. Chairman, Senator McCain, 
members of the committee. I appreciate the opportunity to 
appear before you today.
    I am honored to have been nominated by the President to 
serve as the Commander of U.S. Central Command, and I request 
my written statement be accepted for the record.
    Chairman Levin. It will be.
    General Mattis. I wish to acknowledge General Petraeus and 
the Acting Commander of CENTCOM, Lieutenant General John Allen, 
and to express my appreciation for their selfless service.
    If I am confirmed as CENTCOM Commander, our troops, our 
regional partners, and our adversaries, alike, should know that 
CENTCOM's leadership has changed, but our strategy, our 
mission, and our activities have not. Despite any recent papers 
leaked to the media, we are remaining in the region. We are not 
leaving.
    There will also be harmony in our relationships. The wars 
we are fighting require highly integrated civilian-military 
efforts, from the highest to the lowest levels. If confirmed, I 
will make every effort to work closely with the civilian and 
military leaders charged with leading our operations, and to 
ensure they are fully resourced in a coherent and comprehensive 
manner.
    Consistency in our approach and harmony in our 
relationships are fundamental to achieving unity of effort in a 
region vital to our national interests and those of the 
international community. In the midst of the harsh realities we 
face, there are also opportunities to work with responsible 
moderate elements, and I will be eager to do so.
    I have no illusions that the CENTCOM region also includes 
elements that are irreconcilable, part of a movement that is 
intent on carrying out attacks on innocent civilians worldwide, 
and which must be confronted by the strongest possible 
coalitions. Our enemy's barbaric and medieval actions offer us 
opportunities to counter their extremist ideology. Those who 
deliberately kill innocents know their politically bankrupt 
message cannot win at the ballot box, and thus, repeatedly 
resort to violent intimidation. That violence alienates the 
larger population, whose support they seek to gain.
    We and our coalition and regional partners, by contrast, 
are involved in the noble cause of helping to realize a 
brighter future in the region and internationally. We are the 
``good guys.'' Yet, we're not perfect. Regrettably, we make 
mistakes, about which we are candid and constantly strive to 
correct. But, we are the ones working to protect the 
population, to reopen schools, to immunize children, to provide 
electricity, and to offer new hope, balancing chivalry to the 
innocent with unflinching military prowess against the 
irreconcilable elements who choose violence.
    This stands in sharp contrast to those we confront who 
target the innocent, from Kandahar to Islamabad, from London to 
New York, from Mumbai to Madrid, Moscow to Amman, and the list 
goes on.
    If confirmed, my immediate priority will be the campaign in 
Afghanistan. The stakes there are high. The military component 
of our strategy in Afghanistan is sound, and it requires firm 
execution. I support it fully. I believe that, by steadfastly 
executing our strategy, we will win in Afghanistan. Nothing 
about the mission will be easy, however. We recognize that 
achieving our goals in Afghanistan requires, also, the enduring 
commitment of the international community.
    Inextricably linked to our campaign in Afghanistan is our 
strategic partnership with Pakistan. Proximity to an area with 
affiliated terror groups has dealt the people of Pakistan a 
tough hand, geographically. Pakistan continues to endure great 
sacrifices in their effort to counter extremism, and I am 
heartened by their efforts.
    There are other significant challenges that will be among 
my highest priorities if I am confirmed. Among these is the 
responsible drawdown in Iraq, continuing from 128,500 troops, a 
year ago, to the September target. As with our current 
commander, the very able General Odierno, I have unbridled 
confidence in General Austin's leadership, and I will work to 
set the broader conditions for his success when he takes the 
reins.
    Iran offers the greatest long-term challenge in the region, 
as it continues to threaten regional and global stability by 
pursuing a nuclear weapons program and by funding, arming, and 
training militant proxies throughout the region. The task of 
CENTCOM will be to counter the Iranian regime's destabilizing 
activities, to deter the regime from aggression, and to work in 
concert with our partners in the region to advance our shared 
security interests.
    Further, al Qaeda and associated extremist groups pose a 
threat that spans the CENTCOM region and beyond, has threatened 
Yemen, and requires an integrated response that applies 
constant pressure to all elements of the enemy network.
    If confirmed, I will leverage my experiences in the region 
over the last 30 years to ethically carry out CENTCOM's 
missions in concert with our allies. I have keen respect for 
the peoples in the region and for their cultures, and I'm eager 
to work with them once again.
    Having been nominated for this position, I am mindful of 
the extraordinary privilege it has been to serve for over 38 
years alongside America's finest young men and women. I will 
hold our soldiers, sailors, airmen, and marines foremost in my 
thoughts if you confirm me.
    I will also provide my best professional military 
assessment to this committee and to our national security 
leadership.
    I want to thank Congress, and the members of this 
committee, in particular, for your support over many years.
    Thank you, Mr. Chairman.
    [The prepared statement of General Mattis follows:]
            Prepared Statement by Gen. James N. Mattis, USMC
    Mr. Chairman, Senator McCain, members of the committee, thank you 
for the opportunity to appear before you today. I am honored to have 
been nominated by the President to serve as the Commander of U.S. 
Central Command (CENTCOM). If confirmed, I will apply my experience and 
pledge my best efforts and my candid assessments in this position.
                        continuity of leadership
    I wish to acknowledge General Petraeus and to express my 
appreciation for the selfless service that he exemplifies. He, his wife 
Holly, and his family have made endless sacrifices in our country's 
service.
    General Petraeus and I share a similar view of the region. We have 
served together repeatedly: in the Pentagon; fighting together in Iraq; 
jointly developing the counterinsurgency manual when he was at Fort 
Leavenworth and I was at Quantico; and as fellow combatant commanders.
    I would also like to acknowledge that there has been no loss of 
momentum since General Petraeus left CENTCOM as Lt. Gen. John Allen 
continues to do superb work as the Acting Commander of CENTCOM. John 
has been a steady hand during this period of transition, resolutely 
continuing our regional strategy and reassuring our partners that there 
will be no change in our relationships with them.
                      consistency in our approach
    If I am confirmed as CENTCOM Commander, I will carry out a strategy 
that is consistent with the strategy currently in place. Our troops, 
our regional partners, and our adversaries alike should know that 
CENTCOM's leadership has changed, but our mission and activities have 
not. The CENTCOM team has generated a great deal of momentum, and if 
confirmed, I intend to sustain and strengthen what the team has set in 
motion.
                      harmony in our relationships
    The wars we are fighting require highly integrated civilian-
military efforts from the highest to the lowest levels. I will work in 
tandem with General Petraeus, General Odierno, General Austin, and the 
other military and civilian members of the President's National 
Security Team, as well as our many international partners in the region 
and around the world. If confirmed, my duty will be to pursue harmony 
in our civil-military relationships, to represent the needs of our 
commanders, and to ensure our military and civilian leaders are fully 
resourced in a coherent and comprehensive manner.
              view of the region: clear-eyed/no illusions
    Consistency in our approach and harmony in our relationships are 
vital because we face immense challenges in a region vital to our 
national interests and those of our partners. I will listen, learn, and 
understand the region's people and its leaders, finding opportunities 
in league with their interests to achieve broader objectives for 
stability, economic progress, and a better future. In the midst of the 
harsh realities in this vital region, there are also opportunities to 
work with responsible, moderate elements, and I will be eager to do so.
    The CENTCOM region also includes elements that are irreconcilable, 
part of a movement that is intent on carrying out attacks on innocent 
civilians worldwide, including the September 11 attack on American soil 
that killed 3,000 from over 90 countries; the 10/12/02 bombing in Bali, 
Indonesia that killed 202 and injured 209; the 3/11/04 train bombing in 
Madrid, Spain that killed 191 and injured 1,800; the 7/7/05 subway 
bombing in London, England that killed 52 and injured 700; the 11/26/08 
coordinated hotel attacks in Mumbai, India that killed 166 and injured 
308, among many other failed and successful attacks worldwide. In the 
CENTCOM region, the enemy has carried out attacks that have killed 
thousands, the vast majority of them Muslims.
    Our enemies' practices of targeting civilians offer us 
opportunities to counter their extremist ideology. Those who adopt 
terror as a way of war repeatedly make the mistake of revealing their 
disregard for human life and alienating the population whose support 
they need to operate. We and our coalition and regional partners, by 
contrast, are involved in the noble cause of helping to realize a 
brighter future in the region. We are the good guys. We're not perfect; 
regrettably, we make mistakes about which we are candid and constantly 
strive to correct, but we are the ones working to reopen schools, to 
build roads, to provide electricity, and to offer new hope. As the 
President stated during his inaugural address, ``We will not apologize 
for our way of life, nor will we waver in its defense. For those who 
seek to advance their aims by inducing terror and slaughtering 
innocents, we say to you, now that our spirit is stronger and cannot be 
broken--you cannot outlast us, and we will defeat you.''
       most pressing mission: support to afghanistan and pakistan
    If confirmed, my immediate priority will be the campaign in 
Afghanistan. The border zone between Afghanistan and Pakistan is home 
to a syndicate of extremists that includes al Qaeda, whose leaders 
conducted the initial planning for the September 11 attacks from 
Kandahar before going on to U.S. flight schools. Afghanistan and 
Pakistan are two countries of critical interest to our national 
security, to that of the region, and to all nations. These active 
theaters comprise a regional whole, for while they require differing 
operational approaches (with the character of our assistance adapted to 
the situation in each country), the extremists who traverse that border 
are threats to the people on both sides.
                              afghanistan
    The issues we currently face in Afghanistan are familiar to me. I 
fought there in November 2001, less than 3 months after the September 
11 attacks. From 2006 to 2007, I was Commander of Marine Corps Forces 
CENTCOM under General Abizaid and Admiral Fallon. From 2007 to 2009, I 
wore U.S. and North Atlantic Treaty Organization (NATO) hats, leading 
U.S. Joint Forces Command and NATO's Allied Command Transformation, 
requiring me to directly support operations in Afghanistan and to work 
closely with NATO allies and coalition partners.
    In Afghanistan today, the insurgency has proven to be resilient, 
while Afghan state institutions, decimated by decades of war, are 
struggling to develop, provide security, and deliver services to the 
Afghan people. These institutions are developing in the face of a 
murderous enemy who knows its empty message cannot win at the ballot 
box and thus must resort to violently intimidating the populace. Since 
2008, the enemy's indiscriminate use of improvised explosive devices 
(IEDs) alone has killed 1992 Afghan civilians and injured 4,110 others. 
Moreover, over a large period since 2004 IEDs have killed 2,267 U.S., 
coalition, and Afghan National Security Forces (ANSF) and wounded 
7,825. These numbers reflect the enormous sacrifices our Nation, our 
partners in Afghanistan, and the Afghans themselves are making for this 
effort and I am deeply aware of these costs.
                          defining the mission
    We have a clear mission in Afghanistan, as articulated by our 
President, who said, ``We will not tolerate a safe haven for terrorists 
who want to destroy Afghan security from within and launch attacks 
against innocent men, women, and children in our country and around the 
world.'' Specifically, the President said, ``to meet that goal, we will 
pursue the following objectives within Afghanistan. We must deny al 
Qaeda a safe haven. We must reverse the Taliban's momentum and deny it 
the ability to overthrow the government. We must strengthen the 
capacity of Afghanistan's security forces and government so that they 
can take lead responsibility for Afghanistan's future.'' The mission is 
consistent with the hopes of the overwhelming majority of the Afghan 
people who have faced cruel times for too long. Implementing the 
military component of our strategy there--by assiduously protecting the 
Afghan people; of helping to pragmatically build Afghanistan; and of 
relentlessly pursuing those who seek to kill and destroy--is sound and 
it requires firm execution. I support it fully.
                            defining winning
    I believe that by steadfastly executing our strategy we will 
succeed in enabling Afghanistan. Success in Afghanistan means that we 
are making progress in enabling the Afghan Government to take the lead 
in preventing its people from being abused by extremists and Afghan 
territory from again being used for destabilizing the region and 
exporting terror to the world. The key line of effort for us is 
building ANSF that are capable of standing against internal and 
external threats with only modest international support--so that al 
Qaeda and other transnational extremists cannot once again establish 
sanctuaries from which they can launch attacks on our homeland or on 
our allies. This vision must be achieved in parallel with efforts to 
help Afghans make progress toward their longer-term aspirations to 
build their economy, infrastructure, and capacity to govern.
    We all know achieving our goals in Afghanistan requires the 
enduring commitment of the international community. As outlined in the 
2010 National Security Strategy of the United States, the challenges 
such as those found in Afghanistan cannot be solved by any one nation 
alone--it requires the sustained cooperation and contributions of many 
nations. Secretary Gates, Secretary Clinton, and NATO Secretary General 
Rasmussen have also articulated the same message. We are united in our 
enduring commitment to the mission in Afghanistan.
                        the meaning of july 2011
    It is equally important to recognize that Afghans want to have the 
lead in protecting themselves, and that we have no interest in being 
occupiers. President Karzai told the Kabul Conference last week that 
his objective is for Afghanistan to be responsible for all security 
responsibilities in 2014. In this context, I understand the July 2011 
date that the President announced at West Point last December as the 
beginning of a transition of security tasks to the Afghans, based on 
conditions on the ground at that time, which will allow U.S. troops to 
begin returning home. Secretary Gates reaffirmed this last month when 
he said ``the pace . . . with which we draw down and how many we draw 
down is going to be conditions-based.'' The transition process will be 
more of a ``thinning out'' of coalition forces as ANSF move into the 
lead. Forces may shift missions and be ``reinvested'' in other elements 
of the effort before they return home, and this transition will occur 
on the district level and in functional areas as well.
                             the way ahead
    Moving forward, we are working alongside the Afghans to reverse the 
momentum of the Taliban insurgency and to build the capabilities of the 
Afghan security forces, while investing in a civil-military campaign 
plan to improve the Afghan Government's capacity to respond to the 
needs of its people. We are doing this with an uplift of 30,000 
additional U.S. Forces--nearly 85 percent of which have arrived--and 
9,700 additional forces from NATO and coalition partners--about 71 
percent of which have arrived. Once fully deployed, there will be more 
than 44,000 non-U.S. troops in Afghanistan, reinforcing the 243,000 
soldiers and police in growing Afghan security forces, carrying out a 
variety of combat, training, logistics, and intelligence missions 
needed for success.
                        progress in afghanistan
    We have already seen that progress is being made in assisting the 
Afghan people. Under the Taliban, fewer than 900,000 boys--and no 
girls--were enrolled in Afghanistan's schools. As of January 2010, 
nearly 7 million children are enrolled in over 11,000 schools nation-
wide; around 37 percent or 2.5 million are girls. There has also been 
an over eight-fold increase in the number of teachers to 170,000--30 
percent of them are women. As Chairman Levin recounted after a recent 
trip to Afghanistan, there is maturation in the Afghan National Army 
meeting its goals, with the Afghans increasingly shouldering a heavier 
burden in the fight, and partnered operations becoming the norm. The 
most visible evidence of this is in RC-Capitol, where ANSF forces are 
in the lead patrolling in the streets of Kabul and establishing 
security rings within the city for the recent Consultative Peace Jirga 
and the successful Kabul Conference, the biggest high-level gathering 
ever in the capital. In RC-South, the first fully Afghan-led operation 
occurred during Operation Malajat. This effort involved more than 550 
Afghan and coalition personnel tasked to search and secure 
approximately 10 square kilometers around Malajat, a community in 
Kandahar City.
    Violence will remain amidst this progress, as the enemy chooses to 
fight intentionally among innocent people in a war ``among the 
people.'' The enemy is alarmed that they are losing momentum and is 
fighting back, as expected. Working in partnership with Afghan forces, 
ISAF will apply unrelenting pressure to further roll back the enemy and 
protect the people. A lot has been accomplished, and much remains to be 
done.
    Nothing about this will be easy. I have witnessed the difficulties, 
the burdens, and the hopes carried by our troops, our coalition 
partners, and notably the Afghan people themselves. We will have some 
bad days ahead, but so long as we hold fast and adapt faster than the 
enemy, the enemy's situation will continue to worsen; it will become 
more desperate, continue to make mistakes, and turn the population 
against it. While reconcilable elements fold back into society, 
irreconcilable elements will be removed from it.
                                pakistan
    Inextricably linked to our campaign in Afghanistan is our strategic 
partnership with Pakistan. I am heartened by the Pakistanis' efforts in 
countering extremism in their country, and I am reminded that the 
initial amphibious operation that I led into Afghanistan in November 
2001 would not have been possible without their support. Today, the 
Pakistani people and their political parties have thrown tremendous 
weight behind military efforts to root out and destroy the Pakistani 
Taliban and other violent extremists, having increased the size of 
their forces committed to the fight in the Federally Administered 
Tribal Areas and Kyber-Pawktoon-Kwah to approximately 147,000, and 
retaking control over large sections of their territory that had been 
safe havens for our common enemies. Pakistan's Army and Frontier Corps 
have carried out increasingly effective and extensive operations in 
those parts of their country that have suffered under the Taliban and 
other violent extremist influence for many years, at the significant 
cost of more than 4,000 casualties since 2009. Clearly the Pakistan 
Government, military, and people deserve our support, and I thank 
Congress for its continuing support as we restore trust with our 
Pakistani counterparts, help them sustain their campaign against 
extremism, and deepen our partnership with this vital ally.
                                  iraq
    I have served in Iraq and seen first-hand the valor, adaptability, 
and ethical performance of our troops as they have fought to earn the 
trust of an initially skeptical Iraqi people. Among my highest 
priorities if confirmed as CENTCOM Commander will be to enable the 
critical continuation of our responsible drawdown in Iraq. The drawdown 
of our forces to 50,000 by September 1st is on track, as are the 
withdrawal of our equipment and base closures. The shift from our 
combat mission to stability operations will go forward thanks to the 
combined efforts of our military, the Iraqi security forces (ISF), and 
the Iraqi people themselves, while our Department of State takes on a 
more long-term role in our relationship with Iraq. Our forces will soon 
be led in this effort by General Lloyd Austin, who was recently 
confirmed as our next commander in Iraq and is a trusted comrade, as we 
have served together several times since 2002 and fought alongside each 
other in Iraq. As with General Odierno, I have unbridled confidence in 
General Austin's leadership and I will work to set the broader 
conditions for his success.
    Difficulties and challenges remain for Iraq. Although great 
progress has been made in Iraq, it is not yet enduring, primarily 
because many underlying sources of political instability have yet to be 
resolved. Nevertheless, the fact that security trends have remained 
positive over the past year in the context of a significant drawdown of 
U.S. forces is testament to the growing capabilities and 
professionalism of the ISF, who now lead in protecting the Iraqi 
population throughout the country. Their performance is particularly 
evident in this extended period of Iraqi Government formation, with 
enemy effectiveness continuing to decline, and the ISF serving as a 
protective windbreak between the Iraqi people and a merciless and 
increasingly desperate enemy. This combination of circumstances permits 
us to continue to responsibly draw down, thinning our lines over the 
coming year, and transitioning to a civilian-led, long-term, and 
mutually beneficial relationship between our two nations. I support 
robust resourcing of the ISF Fund, even as the Iraqis themselves commit 
17 percent of their national budget to their own security and, as a 
result, cover the lion's share of total security costs. The Iraqis 
still need our help as they continue to build their capabilities in 
order to protect against malign external influences seeking to foment 
ethno-sectarian violence and distrust.
                      other significant challenges
    Beyond Afghanistan, Pakistan, and Iraq, there are several other 
significant challenges to our interests and the interests of our 
partners in the CENTCOM area.
                                  iran
    Iran presents the greatest long-term challenge in the region as it 
continues to threaten regional and global stability. Despite the 
promise of its rich cultural heritage and educated populace, the 
Iranian regime continues to ignore the true aspirations of its people 
and appears less interested in hiding its ambitions to pursue a 
nuclear-weapons capability, heightening global concerns over a nuclear 
arms race that would destabilize the region.
    The Iranian regime also continues to challenge the authority of 
Iran's neighboring governments by funding, arming, and training 
militant proxies in the region, most notably in Iraq and Afghanistan. 
As General Odierno recently stated, these Iranian proxies continue to 
take advantage of our drawdown in Iraq by conducting attacks against 
our forces there, with the additional intent to intimidate and 
manipulate political outcomes inside Iraq. The Iranian regime has 
carried out these activities while violently suppressing the rights of 
its own citizens. The task of CENTCOM will be to counter the Iranian 
regime's destabilizing activities, to deter the regime from aggression, 
to forthrightly and prudently posture our forces, and to work in 
concert with our partners in the region to advance our shared 
interests. Our efforts need to back-stop the diplomatic and economic 
initiatives exercised by the United Nations and the international 
community, keeping a close eye on Iran's efforts to threaten and 
destabilize countries in the region.
                   al qaeda in the arabian peninsula
    Al Qaeda and the other extremist groups associated with it pose a 
threat that spans the CENTCOM region and requires a theater-wide 
response that applies constant pressure to all elements of the 
extremist network. Al Qaeda and its affiliates' growing challenge to 
stability in Yemen has made that country an area of emphasis for 
CENTCOM. Indeed, from locations in Yemen, al Qaeda in the Arabian 
Peninsula (AQAP) has shown it has the intent to conduct attacks that 
threaten not just Yemen, but surrounding countries and the U.S. 
homeland. Yemen is also an example of what rapidly-applied assistance 
through joint civil-military efforts can do for a nation in need. When 
al Qaeda began exerting its influence in Yemen, our Ambassador and the 
CENTCOM team worked closely with President Saleh to come up with a plan 
to provide a range of assistance to the Yemenis. We must continue to 
forge closely supportive relations with the Yemenis and regional 
partners to ensure a sustained whole-of-governments approach against 
AQAP.
                           regional approach
    As we endeavor to address these crosscutting and subregional 
challenges, I will carry forward an overall approach of assisting our 
partners in the region based on our shared interests. CENTCOM has made 
a great deal of progress in this respect and I will reinforce those 
efforts.
    In the Gulf region, for example, our partners are involved in a 
variety of activities that are contributing to the region's security. 
The Kingdom of Saudi Arabia is a powerful influence in the region. 
Moreover, the Kingdom's commitment to defeating al Qaeda and its 
effective program for reintegration of dissidents serve as valuable 
models for other states in the region. The Kingdom, with our 
assistance, is also undertaking an effort to protect its critical 
infrastructure. We also have a strong security relationship with the 
United Arab Emirates, and we have expanded our partnerships with 
Kuwait, Bahrain, Qatar and Oman. Kuwait is a pivotal partner that has 
been instrumental in supporting our efforts in Iraq. Bahrain, as well, 
has been a gracious host of the U.S. fleet for decades, while at the 
same time Qatar has been host to one of our largest bases in the region 
and our forward headquarters. Oman has continued to be a valuable 
partner in preserving stability in the region. CENTCOM's Regional 
Security Architecture bolsters and connects these relationships, 
strengthening partner capabilities to address existing and emerging 
threats. Understanding the region's unique geo-political realities and 
recognizing that our Gulf partners have much to offer, if confirmed I 
will work with them individually and collectively to sustain regional 
stability.
    Similarly, in Central Asia, we have opened new and encouraging 
opportunities for engagement with Uzbekistan, Kyrgyzstan, Tajikistan, 
and Kazakhstan by cooperating to establish the Northern Distribution 
Network as a supply route to Afghanistan, which will also serve to 
further future economic integration and stability. Strengthening our 
relationships greatly aids our cooperation on other issues, such as 
counterterrorism and counternarcotics. In similar fashion, we are 
reaching out to Turkmenistan, advancing our partnerships in Central 
Asia, and doing so transparently to avoid any misunderstanding of our 
motives.
    Elsewhere in the region, we must continue to strengthen our 
partnerships, building trust and national capabilities against 
terrorism through training, equipping, personnel exchanges, and 
exercises. In Lebanon, we are working to build the critical 
capabilities of the Lebanese Armed Forces, especially in 
counterterrorism. We have collaborated with the Kingdom of Jordan, 
having established a world-class irregular warfare training center 
where many nations train. Egypt continues to play a leadership role in 
the region by hosting the important multilateral Bright Star Exercise 
and conducting counterterrorism and counter-smuggling activities, 
besides remaining an intellectual center of gravity in the region.
                          external influences
    To complement these regional partnerships, CENTCOM also must 
recognize that none of its sub-regional challenges exists in a vacuum. 
Confronting each of them requires us to recognize that significant 
forces at work in the CENTCOM region originate from outside it. It is 
imperative to strengthen our understanding of these external elements 
and what they represent in terms of potential stabilizing influences. 
Turkey, Russia, and, increasingly, China and India exert major 
influences within the CENTCOM region. Similarly, the Middle East Peace 
Process, though it involves parties that are outside the CENTCOM 
region, has a significant impact upon the countries of the region and 
upon CENTCOM's ability to further our interests throughout the area. In 
addition, though on a smaller scale, we have seen an increasing impact 
in the region from the migration of extremists from Africa--whether 
from the al Qaeda-affiliated Somali group Al Shabaab or out of Muslim 
Nigeria--into Yemen and AQAP training camps. Al Shabaab has shown 
recently the intent to carry out terrorist attacks beyond the Horn of 
Africa. Finally, the pirates who prey on shipping in the waters off of 
the coast of Africa are based in ports that lie beyond CENTCOM's 
boundaries. Addressing these dynamics will require CENTCOM to maintain 
a close working relationship with U.S. Pacific Command (PACOM), U.S. 
European Command (EUCOM), and U.S. Africa Command, as well as other 
commands and agencies, and I pledge to do so.
                   personal experience in the region
    If confirmed by the Senate, I will leverage my experiences in the 
region over the last 30 years to advance the missions of CENTCOM. I 
have had the privilege of serving in the Central Command area of 
responsibility many times, starting as a young officer in 1979 on a 
naval deployment to the North Arabian Sea. I have respect for the 
peoples in the region and for their cultures. I have been fortunate to 
develop personal relationships with several leaders in the region--
military and civilian, plus U.S. and partner nations--for more than a 
decade, and I will expand those relationships to enhance the unity of 
effort and integrated harmony essential to success.
                                closing
    Having been nominated for this position, I am mindful of the 
extraordinary privilege it has been to serve for over 38 years 
alongside some of America's finest young men and women. These soldiers, 
sailors, airmen, marines, coast guardsmen, and civilians represent all 
that is great about our experiment in democracy that we call America. 
They sacrifice daily in difficult environments to defend our freedoms 
when they are threatened, and I would like to express my appreciation 
and respect for their incredible dedication and skill. I will hold them 
foremost in my thoughts if you confirm me and I will also provide my 
best professional military assessment to this committee and to my 
leadership with their interests in mind.
    I would also like to thank Congress, and the members of this 
committee, in particular, for your support. I remain mindful of the 
inherited freedoms we share here today, thanks to the blood, sweat and 
tears of our predecessors. Today, if confirmed, I pledge to give all 
that I have to build the strongest coalitions, the most agile forces 
and the most ethical defenders of our Nation. We, too, have the same 
obligation as past generations of Americans to pass along these 
freedoms to our children.
    In closing, I will reemphasize that I place a high priority on 
trust, unity of effort and harmony in protection of innocents from 
those who would attack them.
    Thank you very much.

    Chairman Levin. Thank you very much, General.
    We will have an 8-minute first round of questions. I think 
there might be time for a second round, if needed.
    General, in his speech at West Point in December of last 
year, President Obama announced a surge of 30,000 additional 
U.S. troops by the end of this summer. He set the date of July 
2011 for the beginning of reduction in our combat presence in 
Afghanistan, but with the pace of those reductions to be 
determined by the circumstances at the time.
    Is that your understanding of the President's policy, and 
do you agree with it?
    General Mattis. Yes, sir. That is my understanding, and I 
do agree with it.
    Chairman Levin. Do you agree that one of the advantages of 
that is that it signals urgency to Afghan leaders and to the 
Afghan army that they must, more and more, take responsibility 
for their country's security, which, in turn, is important to 
the success of our mission?
    General Mattis. Sir, it brings a sense of urgency, I think, 
because it starts a process that is conditions-based. We can 
also moderate the enemy's message that says we're there to 
occupy Afghanistan. But, the idea is for a bottom-up, not a 
top-down, thinning out of our forces as we reach the conditions 
that permits a responsible turnover. Again, it's a date when a 
process begins; it's not a handoff of a hot potato.
    Chairman Levin. General, for some time I have pressed that 
more units of the Afghan army that are considered the most 
effective move to Kandahar, where the challenge is perhaps the 
greatest, and to also get them into the lead in operations down 
there. When Senator Jack Reed and I were there earlier this 
month, we made the very same point with President Karzai, with 
Minister of Defense Wardak, with the chief of their general 
staff, during our visit to Afghanistan. Defense Minister Wardak 
wrote to me, saying that he agreed with that, and he has 
ordered additional two infantry battalions and two commando 
battalions to support operations in Kandahar, because that is 
in the heart of Taliban country, the area of their greatest 
strength. So, the Afghan army will have more than 8,000 
soldiers in Kandahar by September 2010.
    We've been told frequently that the Afghan army has broad 
popular support and that the Afghan people want their army to 
be taking the lead in providing their security.
    First of all, do you agree that the Afghan people generally 
have confidence in the Afghan army and want them to provide 
their security, where possible?
    General Mattis. Yes, sir. I've seen the same thing on my 
trips over there, and I believe it is probably the most admired 
and respected part of the Afghan Government right now.
    Chairman Levin. Will it help achieve the success of the 
mission that Afghan army units can take the lead in joint 
operations, wherever possible?
    General Mattis. Sir, I think I can quote you. This is the 
worst nightmare for the Taliban, that the Afghan army is 
increasingly effective, partnered with our forces and moving 
against an enemy that they know better than anyone. I think 
this is very heartening.
    Chairman Levin. There's going to be a major effort in the 
Arghandab Valley in the next--actually, it's already begun, 
perhaps--but, at the end of this month and the beginning of 
next month. It's going to be a joint Afghan Army-ISAF 
operation. There's going to be approximately 10,000 combined 
troops, or more--the majority, again, from the Afghan Army's 
205th Corps. The effort is to clear the area of insurgent 
domination. The Commander of the Afghan 205th Corps announced, 
publicly, a few weeks ago--his name is General Zazai--that he 
and his staff had participated jointly in planning the 
campaign, that he'd signed the orders, and that his forces 
would be in the lead in the Arghandab campaign.
    I'm wondering whether or not you will be focusing some 
major attention, as soon as you're confirmed, on that specific 
campaign. Do you agree with what you know of its design?
    General Mattis. Sir, until I'm confirmed, I'm not as 
familiar as I, perhaps, would be as the CENTCOM Commander. 
However, the partnering effort that's underway--the joint 
planning and the joint execution--and, as you're aware, there's 
already over 7,000 Afghan soldiers in Kandahar, so they are 
rapidly approaching the strength they need--I think it all sets 
the conditions for a very successful campaign, whenever they 
determine the conditions are right to kick it off.
    Chairman Levin. At the recently concluded Kabul conference, 
the participants endorsed the Afghan Government's plan, 
developed with NATO participation, for the phased transition to 
full Afghan responsibility for security. Now, that will be a 
transition which will take many years. But, the Government of 
Afghanistan and ISAF will assess, jointly, which provinces can 
be transitioned. They'll begin to do that, they expect, by the 
end of 2010. Are you aware of that Kabul conference 
announcement? Can you give us your reaction to the Kabul 
conference, generally, as to whether or not the fact that that 
conference was able to be held with relative calm demonstrates 
some progress?
    General Mattis. Mr. Chairman, I recognize that the Haqqani 
network had decided that conference would not be held. They 
threatened to attack. As we all know, Kabul has already 
transitioned to the Afghan security forces. So, they had the 
lead. They had the planning and the execution of providing 
protection for what was, I think, a very impressive showing of 
57 nations and 11 international organizations coming to Kabul. 
To pull off a conference like that in the midst of the kind of 
war this enemy is fighting, where they attack innocent people, 
and they actually attack the very people who are trying to come 
in and help, is very emblematic of the kind of enemy we're up 
against, but also the international support. I think it was 
very healthy for President Karzai to hear from all of them 
about the challenge of corruption. I think it was very healthy 
for them to see President Karzai as a man who could deal 
maturely with the international organization.
    I thought it was a very heartening conference, and I 
thought it was a real blow to the enemy's boasts that they were 
going to stop this. The Haqqani network was unable to defeat 
the Afghan security forces.
    Chairman Levin. Relative to the Haqqani network, which is 
based in North Waziristan, neither they nor the Afghan Taliban, 
Quetta Shura, which is based in Quetta, Pakistan, is on the 
State Department's list of foreign terrorist organizations. 
These groups and their senior leaders are involved deeply in 
supporting the ongoing insurgency in Afghanistan. There's 
little question that they engage in terrorist activities, to 
the detriment of the United States' national security interest 
and to the coalition. Designating those groups as foreign 
terrorist organizations, or, at a minimum, designating their 
senior leaders as terrorist-affiliated individuals, would make 
certain tools available for limiting the financial and 
logistical support that they receive, and also, perhaps even 
more importantly, would send a very important signal regarding 
the United States serious concern with their ongoing 
activities, including a signal to Pakistan.
    General, in your view, has the Haqqani network and the 
Afghan Taliban, Quetta Shura, engaged in terrorist activities 
that threaten our security interest? Do you believe that those 
groups, or at least their leaders, should be designated as 
foreign terrorist organizations?
    General Mattis. Mr. Chairman, both those groups have 
engaged in terrorism, and I believe the leaders of both groups 
should be placed on the State Department list.
    Chairman Levin. Thank you. My time is up.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    General, thank you, again, for your service.
    On the issue du jour of the WikiLeaks, what effect does the 
fact that these messages and information that were passed up 
the chain of command from the field, as to the assessment of 
the situation--what effect does this publication of these 
secret communications--what effect does that have on the degree 
of candor that military officers and senior noncommissioned 
officers in the field who are doing their best to report, the 
best of their ability--what effect does this have on them?
    General Mattis. Sir, I would speculate, but, due to the 
urgency of the operations in a combat zone, it probably won't 
have much, because, at the moment they're actually reporting, 
they're probably more eager to get the truth up the chain of 
command. That said, I just thought it was an appallingly 
irresponsible act to release this information. It didn't tell 
us anything, that I've seen so far, that we weren't already 
aware of. I've seen no big revelations. One of the newspaper 
headlines was that the war is a ``tense and dangerous thing.'' 
If that is news, I don't know who it's news to that's on this 
planet. It would probably not help candor, but I think I'd be 
more concerned about allies being more circumspect than our own 
troops, sir.
    Senator McCain. These leaks are certainly not helpful in 
you doing your job, particularly in coordination with our 
allies.
    General Mattis. That's correct. Yes, sir.
    Senator McCain. How many Pakistani military have been 
killed in operations against Taliban and al Qaeda in Pakistan, 
roughly?
    General Mattis. Senator, I'll have to take that question 
for the record.
    [The information referred to follows:]

    Since April 2009, the Pakistanis have sustained approximately 900 
service men killed and over 3,000 wounded. If counting their military 
casualties since 2002, the number killed is approximately 2,500 with 
over 7,000 wounded. This data is current as of June 2010.

    General Mattis. However, I will tell you that my Pakistani 
friends assure me they've lost more of their troops in the 
fight than NATO has lost on their side of the border.
    Senator McCain. I think it's in hundreds. Is that roughly 
correct?
    General Mattis. At least, sir.
    Senator McCain. We have been, at least to a significant 
degree, getting cooperation and assistance from the Pakistani 
military.
    General Mattis. Sir, I think we have a stronger strategic 
relationship and more support today from the Pakistani military 
than we've enjoyed in 10 years. It's trending in the right 
direction. They have sustained a 15-month counteroffensive, 
despite the casualties, in militarily, some of the worst 
terrain I've ever operated in, up along the border area. I 
think our counterterrorism cooperation is also at an all-time 
high.
    Senator McCain. But, there is also reports that certain 
elements of Inter-Services Intelligence are at least 
cooperating, to some extent, with the Taliban. Is that correct?
    General Mattis. That's correct. Yes, sir.
    Senator McCain. Could that be because they're hedging their 
bets as to whether the United States is going to remain, or 
not?
    General Mattis. Sir, I need to get more current. However, 
history didn't start at 2001, and some of those same groups, we 
had a relationship with, back when we were fighting the 
Soviets. It's no surprise to me that there may be some 
continued relationship there. But, whether or not it's because 
they're working with them, they're trying to infiltrate them--
there's any number of motives, and I'm just not current enough 
to say why. I think, though, that it's hard to wipe the slate 
clean and just start over at any one point. Clearly, the 
offensive against many of the people they allegedly used to 
work with is showing they're no longer friends with most of 
them.
    Senator McCain. Let me just be clear, again. You said that 
you were appalled at the publication of these documents--the 
WikiLeaks that just happened.
    General Mattis. Yes, sir. I thought it was grossly 
irresponsible.
    Senator McCain. I won't ask you to comment on the 
publications--or, the newspapers that chose to publish them.
    Are you concerned, as I have seen with my own eyes, the 
concern that exists in Afghanistan and in the region about a 
date for withdrawal for the middle of next year?
    General Mattis. Sir, I think that it is a misinterpretation 
that we would, and we have to be very clear that we're not 
leaving, that it starts a process of transition to the Afghan 
forces. It is not that we are pulling out of the region.
    Senator McCain. Wouldn't that be more impactful, your 
statement, if the President of the United States just said, 
``We're not turning out the lights and closing the door in the 
middle of next year?'' Wouldn't it be helpful if the President 
of the United States made clear what you have just said, and 
what the Secretary of State and the Secretary of Defense have 
said? I don't expect you to answer that.
    Are you satisfied with the withdrawal from Iraq, as it is 
on schedule?
    General Mattis. I am, sir. We're less than half the troops 
there today than where we were at a year ago. We're on track.
    Senator McCain. But, you're satisfied that the environment 
is such we can continue----
    General Mattis. Yes, sir. I'm actually very impressed by 
the Iraqi security forces, and how they're keeping the enemy 
off balance, even during this transition of the government 
that's taken longer than we expected.
    Senator McCain. What is your view--or maybe you could 
inform us--on Iranian involvement in Iraq, over time. What 
about reports of increasing Iranian involvement in Afghanistan?
    General Mattis. Yes, sir. As best I understand it right 
now, sir, I think they're playing both sides against the 
middle. I think that they are supporting President Karzai, in 
some ways. I think they're also hedging their bets and up to 
their usual kind of spreading of terrorism.
    Senator McCain. What about equipment and training?
    General Mattis. I need to get specific with you to answer 
that question, sir. But, we are very sure that they have done 
some things counter to our interests, supporting people we are 
fighting.
    Senator McCain. The last time we left a place, at the 
urging of many on the left, not the last time, but one of the 
times--was Cambodia; and horrible things happened. What do you 
think the consequences will be for the general population, 
specifically women, if we leave and allow the Taliban to return 
to power? Do you believe that al Qaeda will work with them and 
reestablish a base for attacks on the United States?
    General Mattis. Sir, I have no reason for optimism that, if 
the Taliban were left in control, that al Qaeda would not move 
back in. They did it before. I don't see any reason I would 
expect them not to do it again.
    As far as human rights abuses, Senator McCain, this Taliban 
approach to running a country is well known. They've 
demonstrated it for 5 years before we went in, in 2001. We have 
seen the human rights abuses. We're keenly aware that no girls 
went to school--to speak specifically to your question about 
the female population--no girls went to school for the 5 years 
they were in control, until we came in. It was against their 
law. I have no doubt that, again, the human rights abuses will 
be a challenge if we were to pull out. By that, I mean that 
they'll return to their same ways.
    Senator McCain. There's no doubt that al Qaeda would work 
again with the Taliban?
    General Mattis. Yes, sir. They are not monolithic. I 
realize that. There are ways that we can split off some of the 
reconcilables from the irreconcilables. But, the leadership of 
Taliban, I am very confident, would work again with al Qaeda.
    Senator McCain. I thank you, General, and thanks again for 
your service and your straight talk.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman. Mr. Chairman, for 
the record here, I'd like to point out that each Military 
Service has its own personalities, but there's no clearer 
measure of a marine than to be trusted with the responsibility 
of command. If you look at General Mattis's biographical 
statement, I count, I think, at least 12 different levels of 
command in his career, which is really an extraordinary career. 
He's commanded a platoon, company, battalion--these are 
operational commands--regiment, division, and marine 
expeditionary force. I know we have someone, here, who knows 
how to lead, who knows how to make decisions, and who knows how 
to accept responsibility for the consequences of his decisions. 
I think this is a good fit for our country, and I wish the 
General well.
    What I would like to do today, General, in the brief time 
that I have, rather than focusing on Afghanistan--I know you 
have a strong operational partner there, and someone who is 
already on the ground running--I'd like to ask your thoughts, 
first of all, about the diplomatic side of your job, for lack 
of a better term. You have a military hat, and you also have a 
responsibility to deal with a lot of civilian foreign leaders. 
What are your thoughts on how to conduct that?
    General Mattis. Thank you, Senator Webb. There is probably 
no problem in that region that can be addressed by a single 
country, or working just with a single country. It has to be a 
regional approach. It also has to be a political-military 
component in a holistic campaign. There is probably nothing 
over there that a purely military answer will provide the long-
term outcome that we need. The diplomatic aspects have to be 
ones that find common cause with those nations of like-minded 
principles, or with security issues that can find common cause 
with us, and find a way, bilaterally and, ultimately, in a 
regional manner, to ensure that we really solve problems; we're 
simply solving one to create another.
    The diplomatic aspects will be, I think, foremost, as we 
ensure that, by CENTCOM being military-ready, sends a message 
that we are staying in the theater, we are engaged, and we have 
the will to do so.
    Senator Webb. How do you see your role in that area?
    General Mattis. Specifically, meeting with the military 
leadership throughout the region of the 20-odd countries, and 
ensuring that we can build trust and confidence between us.
    Senator Webb. I'd like to go to your written testimony. On 
page 9, you have a paragraph that's titled ``External 
Influences,'' and you make, I think, a very interesting 
statement, and I'd like to hear your thoughts on this. I'll 
read it to you. ``Turkey, Russia, and, increasingly, China and 
India, exert major influences within the CENTCOM region. 
Somewhere, the Middle East peace process, though it involves 
parties that are outside the CENTCOM region, has a significant 
impact on the countries of the region and upon CENTCOM's 
ability to further our interests throughout the area.''
    Would you comment on your views on Turkey, Russia, China, 
India, and then the Middle East peace process?
    General Mattis. Yes, sir. Turkey has been an ally of ours 
since the Korean war, when they fought alongside us during that 
difficult period. They stood by us through the Cold War. They 
stood by us through sanctions against Saddam, at a time when it 
cost them, economically, severe consequences to their country. 
They are the only NATO country that is fighting an active 
insurgency in the southeast corner. I believe there is a lot of 
room for us to continue to work together on common interests. 
It is part of U.S. European Command, and I will work with 
Admiral Stavridis.
    In regards to Russia, I believe, in the short term, we will 
continue to have our engagement policy with Russia. I think 
Russia is also threatened by some of the same things that 
disturb us--for example, terrorism in the southern belt, in the 
Afghanistan area, and the drug trade. There is room for common 
interest to work with the Russians.
    China, I noticed, just recently actually bought more oil 
from Saudi Arabia than we did. It shows that they have a deep 
economic interest in the area. They also are trying to assure 
themselves of certain raw materials that they need. There are 
going to be continuing economic interests. But, also, between 
piracy and the challenge for them to remain fully capable of 
getting oil out of the Middle East, I think there are going to 
be opportunities for us to work together regionally, so if they 
stand by us in the United Nations, with United Nations Security 
Council resolutions sanctioning Iran, they are not, in effect, 
cutting off their own oil.
    Finally, India: Anything we do in the Pakistan and 
Afghanistan arena has to be considered in terms of its effect 
on India.
    Lastly, on the Middle East peace process, there is a 
political cost to the stagnation. I think it allows radicals to 
seize the issue between the Israelis and the Palestinians, and 
basically trap the moderates in the region. I very strongly 
endorse what our State Department is doing, pursuing the two-
state solution with both sides.
    Senator Webb. Final question, as a follow-on to that.
    We have serious logistical challenges in Afghanistan, 
because of the logistical routes through Pakistan, and also 
through the other ``stans.'' Do you see Russia as now assisting 
us, in cooperation, in ameliorating that situation? Or do you 
see an obstacle there?
    General Mattis. I see Russia helping us, right now, sir, 
with the northern distribution network.
    Senator Webb. Thank you.
    Thank you, Mr. Chairman
    Chairman Levin. Thank you very much, Senator Webb.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    First of all, I want to say, General Mattis, that you did 
such a great job in Joint Forces Command. You'll be missed 
there. But, this is probably even more challenging than your 
duties there. Particularly, 9 months, or so, ago, we had a 
chance to look over the programs, some of our joint successes. 
We'll continue to do that.
    I know that you said in your opening statement that your 
main focus is going to be on the war in Afghanistan. When I 
look at all the countries in CENTCOM and the AOR, I think that 
it's a pretty overwhelming thing that you are facing. A couple 
of interests that we have: I just got back, a month ago, from 
Iraq, and I met with Prime Minister Maliki, Ambassador Hill, 
General Cone, General Hunzeker, and the person I've always 
thought had the greatest leadership there is Barham Salih. We 
went up in the northern part of Iraq, had a chance to visit 
with him. They, at that time, were optimistic they were going 
to be able to get together some kind of a coalition government, 
but you have the Shia and Sunnis, and then you have the Kurds, 
up north. Have you had a chance, in anticipating getting into 
this job and looking to see what I think is going to be one of 
the great challenges in that whole AOR is some kind of a 
successful coalition government. What do you think the 
prospects are there?
    General Mattis. Senator Inhofe, in preparation for this 
hearing, I met with Ambassador Jeffrey, our Ambassador 
Designate, if he's confirmed by the Senate, to Baghdad. I've 
talked with General Austin, and at length with General Odierno. 
I think that it's taking longer than we or the Iraqi people 
wanted to see this take, but it's more important they get an 
inclusive government, I think, than they get a fast government 
right now. The three issues I think they must address: One is 
the political future of those northern provinces; one is the 
oil distribution, and the distribution of the oil funds that 
come out. Both of those touch right to the heart of your 
question.
    I think, right now, that we're on the right track, and I 
think, in some ways, the slow pace may give us more confidence, 
when we finally see it report out and we have a government, 
that it's going to be able to take on the political futures in 
a responsible way.
    Senator Inhofe. Yes. You talk about coordinating with the 
north. You've thought about it, and you've looked at the 
leadership qualities of different people--do you see a role for 
Salih to play in a new coalition government that might help, in 
that respect, in terms of up north?
    General Mattis. Right, sir. I think he is very impressive 
in his qualifications, but I, of course, would defer to the----
    Senator Inhofe. Sure. I understand that.
    General Mattis. Yes, sir.
    Senator Inhofe. This committee cut $1 billion from the 
President's request, $2 billion for the Iraqi Security Forces 
Fund. Even you mentioned, briefly, the fact that there is going 
to be a potential of oil revenues coming in.
    However, I've been told that Iraq will have about a $4-
billion budget deficit in 2010, and it will take Iraq 4 to 5 
years until it can fund itself; oil production at one-quarter 
the capacity, due to pipeline problems. What impact would the 
$1-billion cut have? Or have you had a chance to look at that 
and develop any ideas?
    General Mattis. Senator, I need to look at it more closely, 
if confirmed. The most important thing is that we have an Iraqi 
security force that can pick up and carry forward as we 
continue to draw down. They will run a budget deficit this 
year. They are spending, right now, I believe it's around 15 
percent of their national budget on security. It's not that 
they're just dropping this to us and expecting us to pick it 
up. However we keep the Iraqi security forces at the top of 
their game so, as we move out, a stable, successful Iraq is 
left in our wake, I think is critical.
    Senator Inhofe. I appreciate your saying that, because we 
hear a lot about, ``They have all these revenues. They're able 
to do this.'' It's as if they are not trying to do it on their 
own. It's been my experience, going over and talking to the 
leadership, that they are. I see progress there, in terms of 
these forces, whether it's the tribal forces against each other 
coming back together.
    I thought, when Senator McCain mentioned Iran, he was going 
to ask the question that I had in mind, but he went in a 
different direction. I've been concerned, for quite some time, 
of course, Iran is in CENTCOM and our unclassified intel has 
said that Iran, most likely, will have an intercontinental 
ballistic missile (ICBM) capability, the weapon and the 
delivery system, by as early, they said, as 2015. Then, just 
the other day, Central Intelligence Agency (CIA) Director 
Panetta said on ABC News--he was talking about when they would 
have the material. Then, moving it forward, it came to--some 
thing--closer to about 2013.
    We know they have the capability. We know that you have an 
AOR that would be affected by that. My concern, that I voiced 
from this table several times, has been addressing it, relative 
to pulling out the ground-based interceptor capability in 
Poland. But, with it is right now as this date moves forward--
and we're looking at maybe 2015, or maybe a little bit 
earlier--what's your assessment of Iran and its impact on the 
AOR of CENTCOM?
    General Mattis. If they continue in their current 
direction, sir, they can only have a negative impact. We are 
looking at a country that's undiminished in its efforts to 
enrich uranium, to oppress their own people, and to support 
murderous proxy units all over the region.
    Senator Inhofe. Yes.
    General Mattis. This is becoming emblematic of them, and it 
is unhelpful, in the extreme, to stability there in the region.
    Senator Inhofe. All right. Now, in your previous job, you 
didn't address my concerns but, you will have to address them--
and I'm talking about programs that I've talked about before, 
such as the train-and-equip program, the 1206, 1208--the 
Commander's Emergency Response Program (CERP) that has been cut 
a little bit. Every time I talk to commanders in the field, 
they talk about how valuable that program is. Have you looked 
at these programs, what your feelings are now, in terms of how 
significant they are? I'm talking about the Combatant Commander 
Initiative Fund, the CERP, the International Military Education 
and Training Program, the train-and-equip program, and those.
    General Mattis. These programs are absolutely critical, 
sir, because we cannot afford to be the world's policemen and 
carry it all ourselves.
    Senator Inhofe. Exactly.
    General Mattis. These programs are what actually provides 
the seed corn, in many cases, to allow others to do their 
share; and they want to do it. In some cases, just access to 
our technology; in others, it's training and equipping them so 
they can do their own thing. The CERP, for urgent humanitarian 
reasons, allows us to go in and make an immediate impact. These 
are great, adaptive programs that allow us to checkmate our 
enemies.
    Senator Inhofe. The amount of money the CERP you pay, at 
that time, it could be worth four times the normal process of 
going all the way through the steps and getting it done later.
    I know you'll be looking at these programs, and you're 
certainly the right man for the job, and we look forward to 
working with you over there.
    Thank you, Mr. Chairman.
    Senator Reed [presiding]. Thank you, Senator Inhofe.
    General Mattis, let me first state the obvious. You're one 
of the most remarkable combat leaders we have in our Military 
Services, and also one of the most thoughtful students of 
strategy in the profession of arms. I have every confidence 
that you're going to be a remarkable commander in CENTCOM. Let 
me proceed from that standpoint.
    Our initial engagement in this region was prompted by the 
need to protect the United States from terrorist groups that 
were operating there, but with a worldwide reach, regrettably, 
even into the United States. In your view, does that still 
remain our number-one strategic priority?
    General Mattis. Yes, sir, it does. The enemy is not 
monolithic, and we have to adapt to how the enemy has adapted, 
but, yes, sir.
    Senator Reed. In the carrying out of that responsibility to 
meet that strategic objective, the question that I posed to 
General Petraeus, and I'll pose to you, is it your view that 
our presence in Afghanistan is necessary to effectuate that 
strategic objective?
    General Mattis. There's no doubt in my mind it is, sir.
    Senator Reed. Even though what we know is that some of 
these groups have migrated into Pakistan, and elsewhere in the 
region, and indeed, our initial opponents, al Qaeda, have now 
sort of morphed into copycat groups and to a much more 
disparate sort of terrorist network. Is that a fair assessment?
    General Mattis. I think that's exactly on target, sir.
    Senator Reed. Now, there's a lot of discussion about what 
we want to achieve in Afghanistan. Could you give me a general 
idea of what your view of a successful end-state would be in 
Afghanistan, General?
    General Mattis. I think the President put it very well when 
he said, with Afghanistan, Pakistan, and our 46 international 
partners, we are basically going to break the Taliban's 
momentum, we're going to relentlessly attack al Qaeda, and 
we're going to build the Afghan and Pakistani capability to 
carry on once we pull out of there. I think if you look at 
those three points that the President outlined, sir, that 
outlines the overarching strategy.
    Obviously, we have both a military and a political 
component to our strategy. The military piece is well-
integrated, and increasingly well-integrated, with the civilian 
component, something that I probably could not have said quite 
so strongly a year ago, but we've made a lot of progress, sir.
    Senator Reed. With respect to this end-state, again, one of 
the things that strikes me as the most critical is building 
Afghan capacity; and the most immediate capacity they have to 
build is security forces, both Afghan National Army and Afghan 
Police. Is that your view, also?
    General Mattis. Yes, sir, absolutely.
    Senator Reed. Do you have an assessment, initially, about 
how well we're doing? I must confess, over the last 8 years, 
the record of building Afghan security forces has been not even 
mixed; it's been hit and miss, start and stop. Do you believe 
that we're on the right trajectory, and more importantly, will 
be able, in a reasonable amount of time, to field adequate 
forces so that they can relieve our presence, or at least 
substitute for our presence?
    General Mattis. Senator Reed, we are on the right track 
now. I think we have the organizational construct right, and 
that has the four-star strategic commander there in theater, 
General Petraeus. We have a three-star core commander who's 
fighting the battle. We have a three-star, Lieutenant General 
Caldwell, who's responsible for this training, advising, 
equipping effort. As the chairman pointed out, we are 3 months 
ahead on the recruiting target here. We're already at the 
October goal, right now, of 134,000. This is for the Army.
    We're making progress today, I think, in a way that we have 
been unable to make in the past because it just wasn't 
resourced enough. We did a lot of things right in the past. It 
just wasn't resourced enough.
    The Afghan police, we started later, frankly, with our 
responsibility there. I think it's on the right track now, but 
no longer do we recruit, assign, and then try to train them on 
the job. Today, we recruit them, we train them, and then assign 
them. The sense of urgency in the past competed with the 
longer-term effort, and I think we learned a lesson there. But, 
we're on the right track now, sir, and they will be able to 
take over from us. In Kabul, they already have transitioned to 
Afghan control, Afghan leadership. They were able to pull off 
that very complicated conference, last week, where our 
Secretary of State represented us, along with 57 other nations. 
The Haqqani network said that would not happen, and they lost 
to the Afghan security forces. I thought that was very telling.
    Senator Reed. As you pointed out, previously, there will be 
a transition point next summer. That transition point is not a 
withdrawal, but it is a transition to a different mission. One 
way at least I think about it is, moving from a emphasis on 
counterinsurgency to an increasingly important emphasis, and 
indefinite emphasis, on counterterrorism. Is that your 
approach, too? Or could you amplify on that?
    General Mattis. I think that is the approach, Senator. 
Because we're going to have to work this from the bottom up, 
some districts and provinces will transition much faster than 
others. That's the norm in this kind of war. But, that is the 
right approach. Of course, as the President's pointed out, the 
conditions on the ground will determine the pace of transition.
    Senator Reed. Right. As you've pointed out, too, that this 
is not a strictly, indeed, perhaps even most importantly, a 
military operation; it's a combined military-civilian 
operation. It struck me, in my visits, along with Senator Levin 
and others, that we have invested, appropriately, a lot of 
effort in the ministries in Kabul. But, do you think we should 
be devoting more time to a more decentralized approach that 
will engage tribal leaders, that will recognize that, even if 
we can develop effective ministerial capacity, there's a huge 
gap between Kabul and everyplace else that we're fighting?
    General Mattis. Senator Reed, violence and progress coexist 
in Afghanistan, and sometimes the violence blinds us to the 
progress, because it's so heartbreaking to see innocent people 
murdered for no reason by an enemy that intentionally fights 
from among innocent people. But, that said, I think the recent 
decision, even since General Petraeus arrived in Kabul, 
continuing General McChrystal's efforts, the continuity of the 
strategy, with Ambassador Sedwill of the United Kingdom being 
the NATO senior civilian representative, and it was President 
Karzai's decision to decentralize and having local security 
forces stood up, now--very heartening, very consistent with the 
line of thinking that you're proposing, sir.
    Senator Reed. One of the realities that certainly caught me 
by surprise, 7 or 8 years ago, when I first went into the 
theater, was the presence, both real and imagined, of the 
Indians in Afghanistan, particularly from the Pakistani 
perspective, which leads me to this sort of functional 
question. Your responsibilities embrace Afghanistan and 
Pakistan. But, India is a key factor in what happens in 
Pakistan, certainly, and to a surprising degree, to me, at 
least initially, in Afghanistan. Is this CENTCOM/Pacific 
Command (PACOM) structure--how do you bridge that, I would 
argue, in some cases, artificial gap between your 
responsibilities and the Pacific Commander's responsibilities?
    General Mattis. I think one of the key functions of a 
combatant commander is to ensure there are no gaps. I spoke 
with Admiral Willard yesterday, Senator, in preparation for 
this hearing, and, if you confirm me, we agreed to work very 
closely together. We cannot do something on one side of a 
combatant commander's boundary that complicates the other. 
We're committed to working together. It will be the closest 
collaboration between PACOM and CENTCOM, if you confirm me.
    What we don't want to do is ignore the reality that it's a 
regional problem that Pakistan has had a very difficult history 
with India. India has shown great forbearance, under some 
enormous pressure--a terrorist attack in Mumbai. At the same 
time, Afghanistan and Pakistan have to be able to work 
together. It is complicated, but it's the normal state of 
things in the world, and we can overcome any little boundary 
issues between PACOM and CENTCOM.
    Senator Reed. Let me conclude with a final very quick 
hypothetical. Should the Government of Pakistan, together with 
the United States--NATO, actually--effectively control their 
border, suppress the Haqqani network and the Quetta Shura, the 
operational tactical situation in Afghanistan would be 
remarkably improved, or marginally improved, or not affected?
    General Mattis. Senator Reed, the Pakistanis have moved 
against many of our common enemies, and I think that there is a 
growing awareness and a remarkable political consensus in 
Islamabad that what can be conveyed as ``poisonous snakes in 
the garden'' don't only bite other people's kids; they go after 
everyone. I think, in the longer run, as they are able to amass 
what they need, in terms of political will and military 
capability, that we will work against the common enemies.
    Senator Reed. Thank you very much, General.
    General Mattis. You're welcome.
    Senator Reed. Senator Brown.
    Senator Brown. Thank you, Senator Reed.
    General, first of all, congratulations. I'm certainly 
looking forward to casting my vote for you. I'm hopeful that 
the chairman will take this up as quickly as we took up General 
Petraeus's confirmation. I think it's very important for the 
security of the region, the security of our troops, and the 
security of our country.
    I did note with interest the recent article, ``Warrior 
Monk,'' that you were looking forward to growing onions in your 
spare time when you retired. I don't think that's going to be 
happening anytime soon. Thank you for stepping up and stepping 
to the plate again.
    Just a couple of questions, because I want to give my 
colleagues time also. When I was in Afghanistan and Pakistan, 
obviously I was very aware of the conflict in Afghanistan, but 
I also sensed--especially over water rights between India and 
Pakistan--that water is the lifeblood of Pakistan and India. 
There's a dam being built that, potentially, will divert water. 
What do you see the military's role in trying to kind of calm 
down that brewing conflict, or potential conflict, between 
those two countries over water rights? Do you see any 
involvement or anything that you could be doing?
    General Mattis. Senator, they've fought several wars over a 
number of issues. There's the Kashmir issue, there's any number 
of terrorist attacks. But, I think the most important thing we 
can do, in support of the diplomatic efforts, which will 
fundamentally be how we change something like this, is to help 
bring the officer corps of both militaries together and create 
trust between them; allow them to perhaps attend our school 
together, as they do, they get to know each other there; and 
even do some of the things we've done elsewhere in the world 
where we bring different sides, during frozen conflicts, 
together, for example, at the Army School at Leavenworth, or up 
at Carlisle Barracks, and let them study our civil war 
together. After a few days, they start warming up. I think 
there are ways for us to build trust between officer corps that 
will help stabilize these issues. But, it's fundamentally a 
political problem, not a military one, of course.
    Senator Brown. Thank you.
    With regards to a lot of the folks that have released, we 
had about 28,000, if my numbers are accurate, people who were 
detained and have been reintegrated. I know you haven't 
necessarily been dealing with it, but have you noticed what the 
recidivism rate is with a lot of these folks? Are they getting 
back into the battle at all? Anything you can comment on that? 
You're not there yet.
    General Mattis. I'm not current on the issue, right now, 
Senator, and I can take the question for the record and get 
back to you.
    [The information referred to follows:]

    The rate of persons captured and released, who later rejoin the 
insurgency, is unknown. The recidivism metrics only reflect individuals 
who re-enter the long-term Detention Facility in Parwan for a second or 
third time. Current facility records do not reflect those persons who 
return to the insurgency and avoid capture or are killed.
    The Detention Facility in Parwan recidivism numbers reflect only a 
small percentage of individuals who re-engage in active hostilities or 
support roles. Until late 2009, International Security Assistance 
Forces did not conduct long-term detention or maintain records or 
metrics. The U.S. Forces-Afghanistan Detention Operations metrics for 
measuring recidivism are narrow in scope and not linked to biometrics 
other than at the Detention Facility in Parwan. This means the database 
for measuring recidivism pertains only to those held at Detention 
Facility in Parwan and certain special facilities; does not include 
most insurgents captured and released due to Rules of Engagement; and 
does not include detainees taken and held by the Government of the 
Islamic Republic of Afghanistan. There is no consistent means for 
monitoring released persons in Afghanistan. Most insurgents released 
after being captured adjust their pattern of life to avoid recapture, 
and thus do not again appear in operational or intelligence reporting. 
Many who re-engage in the insurgency do not use their true names after 
incarceration which also complicates and confuses reporting.

    General Mattis. There has been some recidivism over the 
years that I've served there, but it's also gotten better as 
conditions in the society got better. You've seen the 
plummeting nature of the attack profile, where the attacks have 
dropped off significantly. Obviously the reintegration is going 
somewhat well. I would never say there's no recidivism at all. 
I think that would be unrealistic.
    Senator Brown. I know, when I was there, the sense I got 
from the coalition forces, the troops, the tribal leaders, the 
police, the army, is that the plan instituted by General 
McChrystal, where everyone was training, patrolling, being 
housed, eating, doing everything together was creating a sense 
that we weren't there as occupiers, we genuinely want them to 
do well so we can let them take over. I love the fact that they 
want to do everything and be everything and be the head of 
everything. But, with all due respect, until they can show us 
and the coalition forces and their citizens that they can do 
that we have to be there. Are you continuing to push that plan? 
Is it being tweaked by General Petraeus? What's your thought on 
that plan, and whether it's the way to move forward, and 
ultimately get us out of the region?
    General Mattis. Sir, partnering is absolutely the right way 
to go. It has worked well everywhere we've done it. Sometimes, 
it's better that they do something imperfectly than we try to 
come in and do it perfectly, because they know the people and, 
in the long run, they're actually probably doing it better. I 
was looking at the reports of casualties and incidents the 
other day, and I was impressed by the fact that 80 percent of 
the contacts with the enemy--80 percent--were out of partnered 
units. That's just a snapshot. I don't want to say that's a 
take-that-to-the-bank indicator of how we're doing things over 
there every day. But, when you look at how the enemy is 
fighting right now, they're running into more and more units 
that are partnered together and gaining that very maturity 
you're talking about, which will eventually ensure that we can 
back out into an advise-and-assist role while they carry the 
load.
    Senator Brown. Is it an accurate statement that the 
Taliban, al Qaeda, or the enemy, however its constituted in 
that region, are using civilians as shields, and so, some of 
the casualties that we're being part of are a result of that 
use of civilians in the battlefield?
    General Mattis. Sir, this enemy has no regard for the 
innocent on the battlefield. During the period from 1 June to 
10 July, 89 percent of the people killed and wounded over there 
in the midst of this fighting were killed or wounded by the 
enemy. They have no regard for innocent people. They do not 
fight by any conventions. They have opened, apocalyptically, 
who they think they can attack, whether it be on September 11, 
when thousands of innocent die, or on 7/7, in London, or in 
Mumbai. It's the same theme that you see, time after time, of 
them declaring that, basically, they don't care about the 
innocent. They fight intentionally from among innocent people, 
at times, I think, to draw fire on them if we fire back.
    Senator Brown. How do you get that message out, then, and 
win that kind of media battle, where you have to let people 
know and understand that a lot of the casualties that are 
happening--when you hear about civilian deaths in Afghanistan, 
you say, ``Oh, man, the military again, they're messing up''--
but, in reality, I'm aware of it, being in the military, that 
they're using them as shields. How do you, with your team, get 
that message out to the rest of the world, that we're actually 
being very judicious. The rules of engagement are very clear to 
the troops; they're very concerned about when to fire, when not 
to fire. At times, I feel that they're putting themselves in a 
little bit of jeopardy. How do we get that message out and win 
that battle of confidence, to let them know that we're doing 
the right thing, and we're there to do the right thing?
    General Mattis. Yes, sir. I think we have to display the 
data more. We have to talk about it more. Frankly, I think we 
need more political leadership to display it, as well, since 
there are times when you are speaking in venues that, 
generally, you don't find military people in. I think it has to 
be a full-court press, as we get this information distributed. 
But, also, in our military role, we have to make certain we're 
discussing this in international forums.
    The bottom line is, we have the most ethically-grounded 
military, I think, in the history of warfare. Yet, somehow we 
are not getting the message out that we are the good guys. 
We're not the perfect guys, but we are the good guys. We're 
fighting people who have much less concern for the innocent.
    Senator Brown. There is a perfect guy, and, in talking to 
him, he's the perfect guy for the job, so I wish you well, 
General. Thank you.
    General Mattis. Thank you, Senator.
    Senator Reed. Thank you, Senator Brown.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Thank you, General.
    I've been a long-time advocate for the use of benchmarks to 
measure progress, first in Iraq, and now in Afghanistan and 
Pakistan. In the role of the CENTCOM Commander, I'd like your 
assurances that you will ensure the benchmark reports continue 
to be delivered to Congress in a timely and honest assessment 
of our progress there.
    With regard to our operations in Afghanistan, what are the 
key metrics that you'll focus on to ensure that we're on the 
right track, that our strategy is sound, and that our progress, 
though it may be slow, can lead us to a successful end game in 
Afghanistan? Because, after all, that is what our purpose for 
being there consists of.
    Perhaps, as well, what are the biggest challenges in 
promoting regional stability? I know you've answered that to 
some degree already.
    General Mattis. Sir, on the benchmarks report, I will 
ensure that they get to you. I'll personally check on it to 
make sure that we're timely on that.
    The real challenge, Senator Nelson, is that what often 
counts most in war is the most difficult to quantify. We 
sensed, for example, in western Iraq--al Anbar Province--that 
we were going to turn the province against the enemy. But, it 
took months before it showed up in statistics. You don't want 
to be behind the statistics out there. You want to be dealing 
with people in the current fight and their current perceptions.
    What we're going to have to do is quantify, to the point we 
can, What is the size of the army? How many engagements? How 
many patrols are they running? How much of this is really 
transitioning in reality, not just a check-the-block that the 
unit exists? This sort of thing, and make certain that, at some 
point, we apply our military judgment so we're giving you a 
mature assessment, not a pure numerical assessment or something 
that really turns into nonsense.
    As far as the broader issues, obviously we have al Qaeda 
pinned down. They have not been able to do as many big 
operations. It's not because they've fallen in love with us, 
it's because they're trying to survive. That's their focus 
right now.
    At the same time, we're going to have to press against the 
Taliban in their heartland, both politically and militarily. 
We're going to have to break them for irreconcilable from 
reconcilable. If they're irreconcilable, we will neutralize 
them. If they're reconcilable, if they'll put down their 
weapons, if they'll work with the government and work within 
the constitution, then there's going to be a home for them. All 
wars come to an end, and we have to make sure we give them a 
way to end early.
    The larger issues, I think, that I'm concerned with in the 
region have to do with Iran. It is representative of that 
leadership that they treat their own people with the same level 
of oppression that they do externally, where they fund terror 
groups. I think it shows they're one and the same, internal and 
external.
    Of course, their enrichment activities with uranium has now 
drawn sufficient censure from the U.N. Security Council, where 
you see nations as different as China, Russia, France, the 
United States voting together. Just yesterday, the European 
Union voted to sanction them even further--restrict, further, 
their trade and their visas. Iran is, I think, the bigger long-
term state threat, and it is becoming increasingly isolated by 
its approach.
    Senator Ben Nelson. I'm encouraged by your discussion about 
the use of benchmarks to identify progress of a certain type. 
In that regard, I think it's helpful, because you have people 
who say we're winning and you have people who say we're losing, 
looking at the same set of circumstances. It's hard for them 
both to be right at the same time. But, we can begin to debate 
whether we're 60 percent toward the reduction in the number of 
missions taken by the enemy, where we realize that they're held 
down and they're not able to continue at the level they were 
before. That kind of information is helpful to anybody looking 
and trying to measure where we are, as well as where we're 
going.
    In addition, in your response to the committee's advance 
policy questions, you said that Pakistan is the highest 
priority in countering al Qaeda, citing that the tribal areas 
provide them a safe haven, and the Pakistanis have begun to 
take significant steps in addressing extremists within their 
borders.
    Is it possible to describe the effectiveness of our 
military cooperation with Pakistan over the last 6 months? 
Obviously, the information that was released, unfortunately, 
would lead us to believe that things, previously, were not as 
effective with cooperation between our forces and their forces 
because of what might have been double-dealing. But, do we 
think that our military cooperation with Pakistan and our 
relationship with them has improved over the last 6 months?
    General Mattis. Significantly, Senator, both in 
counterterror and in the counterinsurgency effort. I think we 
have growing trust and relationships, also, between the Afghans 
and the Pakistani military, so that we're getting more of a 
joint approach to that border area.
    Senator Ben Nelson. As we continue to work with them, I 
would imagine that the goal is to absolutely be certain that 
they can take over more of the responsibility directly.
    General Mattis. Yes, sir. Exactly.
    Senator Ben Nelson. It appears that they have been doing 
that over the last several months, as well.
    General Mattis. Sir, they have sustained a military 
offensive in some of the worst terrain I've ever seen, and 
against record snowfalls. They've sustained very high 
casualties amongst their junior officers, and that's usually a 
very strong indication that they're the aggressive ones who are 
going after the enemy. It's really, I think, quite impressive, 
what they've pulled off right now.
    Senator Ben Nelson. With respect to NATO, a third of the 
ISAF is composed of the international partner forces, and our 
NATO allies have made critical commitments to providing forces. 
On a whole, what is your view of the strength of the commitment 
of this international coalition?
    What will be your priorities in helping develop the 
regional support that's necessary for success in Afghanistan?
    General Mattis. Sir, with 40-odd nations there with forces 
committed, and that includes some 40,000 non-U.S. troops, from 
NATO, primarily, and organized from the NATO flag--that also 
includes non-NATO troop-contributing nations; for example, 
Australia--we're seeing, I think, very effective operations. 
Now, it's often said, the only thing more difficult than 
fighting a war with allies, is fighting one without them, so 
it's not that there's not any friction. But, when you look at, 
for example, the very mature German operations up in the 
northern sector, as we make certain that the enemy can't find a 
new home there, under increasing pressure in the eastern and 
southern areas--when you look at those kind of performances--
and those are the Romanians, the Estonians--these are countries 
that are fighting alongside us, thousands of kilometers from 
Europe, where we initially set NATO up to fight. I think it's 
going well.
    We also have 71 percent of their 9,700 reinforcements 
already on the ground. Frankly, that's ahead of where I thought 
it would be right now. Besides our 85 percent of our 30,000 
there, we're seeing this coalition reinforcement coming in, and 
also the civilians, so we're getting the civilian piece of it 
right. At the same time, on the Pakistani side of the border, 
we see the Pakistani Army in active operations in a number of 
regions against the enemy. This is coming together, sir, in a 
regional way with numbers of countries, international effort, 
working together. Just as we can all recall, when the Soviet 
Union went into Afghanistan, there was one country there. 
Today, there's 40-odd, and we just saw the U.N. and the 
European Union give an even more diplomatic strike to us. I 
think we're on the right track.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Thank you, General. Good luck.
    General Mattis. Yes, sir.
    Senator Reed. Thank you, Senator Nelson.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    General, thank you for avoiding retirement. I know you were 
probably looking forward to going into retirement, but we 
really appreciate your taking on this responsibility. All those 
years of deployment, training, and engagement on your behalf 
will serve the country well. I think it will all come to bear.
    Do you have any idea how 90,000 documents could get 
missing, or taken from the Pentagon and given to the press?
    General Mattis. Sir, I could only speculate, and I hate to 
do that in front of this committee.
    Senator Graham. Yes. I just hope we find out what happened, 
because that's not a very comforting feeling, knowing that 
90,000 classified documents could somehow leave the Pentagon, 
or wherever they were supposed to be.
    As we move forward, I think it's important for the American 
people to understand what lies ahead, don't you, General, in 
Afghanistan?
    General Mattis. Absolutely, sir.
    Senator Graham. It's going to be a tough road.
    General Mattis. Yes, sir.
    Senator Graham. The outcome is uncertain. We want to win. 
We should win. But, you have to do the things to win. Winning 
won't come by just talking about it, will it?
    General Mattis. No, sir, it will not.
    Senator Graham. Can the American people expect more of 
their sons and daughters, in terms of increased casualties? The 
death rate's going to go up, the casualty rate, in Afghanistan?
    General Mattis. Yes, sir. I believe it will be a difficult 
summer, right into the fall.
    Senator Graham. As a matter of fact, the American people 
need to brace themselves for increased casualties in 
Afghanistan.
    In terms of the cost of the war, we're about to pass the 
supplemental of $30, $40, $50 billion; after a while, it gets 
all blurry. We're going to have to spend a lot of money in 
Afghanistan in the near and long term, is that correct?
    General Mattis. We will, sir, and hopefully reinforced by 
the international community.
    Senator Graham. Secretary Gates said NATO's been pretty 
awful, when it comes to the Afghan security forces. There's a 
fund that was created, where NATO nations and other countries 
would contribute to paying for the cost of training the Afghan 
army and police force. Secretary Gates said that fund has 
accumulated 200 million Euros, which I think is pretty pitiful. 
Can you take this on, in your new assignment, to try to urge 
our colleagues to contribute more? If you can't send troops, if 
you're going to leave, at least help us financially, because 
the American people need to understand that, right now, we're 
paying for the Afghan army and police force in great measure, 
is that correct?
    General Mattis. We are, sir. Yes, sir.
    Senator Graham. The entire budget for Afghanistan is about 
$1 billion a year, maybe a little bit over, is that correct--
the actual budget for the country?
    General Mattis. I'd have to take that for the record, sir. 
I believe it's correct.
    [The information referred to follows:]

    According to the Department of Defense April 2010 Congressional 
Report on Progress Toward Security and Stability in Afghanistan, the 
Government of Afghanistan estimates approximately $1.3 billion in 
revenue and approximately $3.2 billion in expenditures during solar 
year 1389 which covers March 2010 to March 2011.

    Senator Graham. All right. Do you know what it costs, a 
year, to train the Afghan police and army, and to equip them?
    General Mattis. No, sir, I do not.
    Senator Graham. I think it's somewhere in the $6- to $10-
billion range. I hope the American people understand, not only 
are we going to have more casualties, we're going to be paying 
for their army, their police force, and ours. My question to 
you: Is it worth it, from a national security perspective?
    General Mattis. Sir, I believe it was worth it when I first 
went in to Afghanistan, in November 2001, right after September 
11. Although the years have gone by since we lost those people 
in New York and Washington, I believe it's still just as worth 
it today.
    Senator Graham. All right. Let's dig into this a little 
bit, about where we're at, as a Nation, vis-a-vis Afghanistan. 
How many tanks do the Taliban have?
    General Mattis. Sir, after about December 2001, zero.
    Senator Graham. How many airplanes do they have?
    General Mattis. None, sir.
    Senator Graham. How in the world are they able to come 
back? Here we are in 2010, and some people say they're stronger 
than they've ever been. How in the world did that happen, if 
they don't have an air force, navy, or armored divisions? How 
could they do this?
    General Mattis. Sir, they've chosen to fight a different 
kind of war. It's not a conventional war. It's not a 
traditional war, with icon weapons systems. They've chosen to 
hide among innocent people. They have an ideology that they 
stand on. There were times when we were not sufficiently 
resourced, in terms of counterinsurgency, to throw them off 
their game.
    Senator Graham. When I was in Afghanistan, not very long 
ago, we met with some leaders in the Kandahar region. These 
were different community leaders--they were all men, but they 
did speak pretty bluntly, and they told us that enemy consists 
of two groups--the Taliban and the Government of Afghanistan, 
from their point of view. They thought that the problem was 30 
percent the Taliban, and 70 percent the Afghan Government. 
What's your view of that?
    General Mattis. Sir, Kandahar, of course, was the spiritual 
home of the Taliban, and it still has the residue, very strong 
residue, as the primary location for them. I was first there, 
again, in December 2001, found many of the same ideas. However, 
it is interesting that, even there, once we go into an area and 
we stay there, they prefer us. This is from going in and out of 
areas, and having the wrong people in charge, has cost us 
credibility. But, also, if you go, for example, to Marjah, only 
150 kilometers further, I think it is, to the west, an area 
held by the Taliban for years, they changed their view once we 
came in and stayed.
    Senator Graham. You made a good comment, I think, about 
``had the wrong people in charge.'' We all make mistakes. But, 
do you believe it's possible to win in southern Afghanistan 
without some major shake-ups, in terms of the Afghan 
governance, without people being fired--local officials, 
governors, police chiefs? Is it remotely possible for us to win 
unless somebody new comes into the southern part of Afghanistan 
on the Afghan side?
    General Mattis. Sir, I'm not current enough, because I've 
been out of the country now for quite a few months. That said, 
you have to have competent and credible people representing the 
government.
    That's why the enemy is using assassination right now.
    Senator Graham. Right.
    General Mattis. Because where they find them, they have to 
take them out, as they try to maintain a less effective Afghan 
Government, sir.
    Senator Graham. What I learned in my visit to Kandahar is, 
there are four families pretty much running the place down 
there. You promised to be candid, and I know you will, so the 
next time you come before the committee, be prepared to answer 
the question, Is Wali Karzai the problem or the solution? Is 
there a commitment on the Afghan Government's part to clean 
house where they need to clean house? If you could remember 
that question, and come back, after a reasonable period of 
time, and give me the answer, I think it would help the 
committee and the American people, because, I'll tell you one 
thing, General, we can ``clear'' anywhere. We're not going to 
``hold'' unless the Afghan Government has the same desire to 
change their country as we do. I look forward to hearing your 
thoughts on how they're progressing.
    General Mattis. Yes, sir. I will get back to you, sir.
    [The information referred to follows:]

    Per your guidance, we will prepare to answer this question at the 
next hearing.

    General Mattis. I don't think the Taliban is as loved down 
there as some people portray them to be, because they've also 
lived under Taliban rule, and I was not rejected, when I walked 
the streets there, right after we threw them out.
    Chairman Levin [presiding]. Thank you, Senator Graham.
    Senator Goodwin.
    Senator Goodwin. Thank you, Mr. Chairman.
    General, thank you for being here today.
    As the newest member of this committee, and of the Senate, 
I also want to thank my colleagues for giving me a brief moment 
to say a few words and pose a question to you, General.
    During my admittedly brief tenure in the Senate, one thing 
I hope to contribute is giving voice to our brave men and women 
in uniform, particularly those from my home State of West 
Virginia. As you may be aware, General, West Virginia is among 
the top States in military volunteers per capita, and there 
have been over 10,000 deployments from West Virginia Guard 
members since September 11. West Virginians are no strangers to 
hard work and sacrifice, and if there's a job to do to protect 
this country, West Virginians are often a part of it.
    Yet, West Virginians are also acutely aware that we're 
engaged in two ground wars, and a global war on terror. As the 
challenges grow, General, so do the stakes. I think the people 
of West Virginia want to make sure that our strategies are 
working, we're moving in the right directions, and we're 
delivering the best possible results for our national security.
    In my short week in this esteemed body, I've obviously 
undertaken a wide range of pretty important responsibilities, 
perhaps none of which, however, is more important than our 
function here today, and ongoing conversation regarding our 
role in the CENTCOM region, especially Afghanistan. I think, as 
the recent news events have suggested, and as Senator Graham 
alluded to in his questions to you, there has been somewhat of 
a reignition of the conversation regarding our role in 
Afghanistan, and what our objectives should be.
    My question to you, General, would be, how would you 
suggest that I properly weigh our objectives that we're seeking 
to achieve in Afghanistan against the loss of American life and 
the substantial resources we are devoting there?
    General Mattis. Yes. Every loss that we've taken is a 
tragedy, and I deeply sympathize with the families that have 
paid this cost. I think that when you say, ``Why''--``Is it 
worth it?'' we have to look at what the enemy intends to do. 
They've been very candid. They've demonstrated, in their 
actions, what they intend. They've demonstrated it from New 
York City to London, from Washington, DC, to Mumbai. This is an 
enemy that we are going to have to confront. I think that's a 
harsh reality. The strategy that we have is a regional 
strategy. It is a civilian-military strategy, it has both 
political and it has security aspects to it--they are 
integrated.
    In Afghanistan, I believe I can say, with much more 
assurance today than I could have a year ago, they are 
integrated, with Ambassador Mark Sedwill of the U.K. being the 
leader, the General Petraeus counterpart, the senior NATO 
civilian representative there, integrating the civilian piece. 
Even as we're buying time and getting the Afghan Army stood up, 
and we're moving against the enemy, we are still doing those 
things that will allow us to see true progress, and eventually 
bringing our troops home and leaving more of an advise-and-
assist capability there in our wake.
    Senator Goodwin. Thank you, General.
    General Mattis. You're welcome.
    Senator Goodwin. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Goodwin.
    Senator LeMieux.
    Senator LeMieux. Thank you, Mr. Chairman.
    General, thank you for your service to this country. Thank 
you for again coming to the plate to serve your country in a 
very important role. On behalf of Florida--I know, upon your 
confirmation--welcome to CENTCOM, in Florida. We're excited to 
have you.
    I was just talking to the Tampa Chamber of Commerce, and 
they're ready to welcome you to Hillsborough County. It's 
important to us, in Florida, to have the relationship we have 
with the military, as I think you know, from the world's 
largest Air Force base, to, I guess, 22 or 23 military 
installations, including 3 commands, 1 of which, you will 
preside over. The military means a lot to Florida, and 
Floridians love the military. I just wanted to say, on behalf 
of my home State, we look forward to having you, upon your 
confirmation.
    I want to talk about a wide variety of different topics. I 
want to start, first, with Afghanistan and follow up with you 
on a point that General Petraeus and I have talked about 
before, and that is information operations. This goes back to 
the point that Senator Brown was making about trying to get the 
word out to Afghanis that when the Taliban comes in and says we 
killed all these children, or we've done something horrible 
that we haven't done, that we're getting the word out, as 
quickly and effectively as possible, that, ``That's not true, 
and here's the real truth of the case.''
    When I went to Afghanistan last fall, I met with a Colonel 
Craft, who I believe now is back from Afghanistan, but he was 
working with the Afghan commandos, and he was working with 
local territorial governors, and they were putting up radio 
stations, they were passing out leaflets, they were meeting 
with local commanders and village leaders to make sure that 
they had a network of people to get the word out, so that when 
the Taliban tried to lie about what we were doing, we could 
respond quickly and effectively. I would just want to encourage 
you that that information operations effort is extremely 
important, to stay focused on that, that there was a lot of 
room for improvement in that. I know General Petraeus was 
focused on it and had done a great job with it in Iraq. I 
wanted to just highlight that issue for you.
    This is outside of your AOR, but I wanted to--because this 
is the first time I've had a chance to talk to you in this 
setting--put this on your radar screen. I've talked to General 
Fraser about this, on several times, and it's in the U.S. 
Southern Command AOR, but there is a link with yours, and that 
is the growing threat that I think Venezuela poses to this 
country. The reason why I mention it to you is that there is a 
connection between Venezuela and Iran. There are direct flights 
between Tehran and Caracas, where we don't know who gets on the 
flight, we don't know who gets off it. They land at a separate 
part of the airport in Caracas. We know, by public information, 
that there are Iranian shock troops in Venezuela. We know that 
Hezbollah and Hamas have set up shop in Latin America. I'm very 
concerned that Hugo Chavez is going to play by the same 
playbook as Ahmadinejad.
    Again, not in your AOR, but I take the opportunity with 
everyone that I can to raise this topic, especially because it 
links up with Iran, which is in your area of responsibility.
    Let me ask you some questions now. I want to switch gears a 
little and talk about the Horn of Africa, and also about Yemen, 
because, as we've been successful against al Qaeda in 
Afghanistan, we know that they have taken up root in Pakistan, 
and we also know that al Qaeda is in Yemen, as well as in the 
Horn of Africa. I wanted to ask you about what your focus will 
be on those areas, what more we can do, what's the current 
state of affairs in our efforts in both Yemen and in Somalia, 
and also other parts of the Horn of Africa?
    General Mattis. Thank you, Senator LeMieux. I agree 100 
percent on information operations. It does us no good to win 
the tactical battle and lose it at the strategic communications 
level. We are committed to that, lock, stock, and barrel.
    On Iran/Venezuela, I register your concern, and I have no 
argument with you. It has my attention.
    Regarding Yemen, sir, first, we are working a civilian-
military, a pol-mil plan, with Yemen. It's a very poor country. 
It has severe water problems. It has an internal rebellion. Of 
course, it has al Qaeda, the terrorists. They're a threat not 
just to Yemen, but they're, also, to next door, Saudi Arabia. 
We are working it, I think, in as cohesive a way, a civilian, 
diplomatic, military role, as we can, considering the capacity 
of the country to take on support. I think it's going the right 
direction right now. It is going to be a problem. We are going 
to have to address it. We can do so, I think, in league with 
some of our friends in the region that can also assist.
    As far as the Horn of Africa, it's under U.S. Africa 
Command (AFRICOM), but due to the nature of it, and when you 
look at al Qaeda's links, or possible links with al Shabaab, we 
are going to have to get to a point of collaboration with 
AFRICOM that the enemy doesn't find a seam between CENTCOM and 
AFRICOM. I'm committed to doing that.
    Senator LeMieux. Thank you. That's the point that I wanted 
to raise with you, is that they're so close, they're 
trafficking between the two places. I think there was newspaper 
reports this weekend about al Shabaab committing a terrorist 
attack in Uganda, which is the first time that, I think, that's 
been reported. I look forward to traveling to the region, later 
this year, and learning more about what our efforts are.
    But, the use of our predator aircraft and other unmanned 
vehicles--and everything that we can do, I think, needs to be 
done, because as we saw with the Christmas Day bomber, the new 
terrorists are going to come from regions that are outside of 
Afghanistan, and we have to be ready for the next war. You know 
the expression better than I do, that you don't just fight the 
last war, but we have to be ready for the next war. I'm glad 
that you're focused on that, as well.
    If I can switch gears again, I'm sorry to go all over the 
place, but I only have so much time to ask you questions. I was 
looking at your testimony earlier this year, and it was a 
program you were watching closely, called Imminent Fury. The 
Navy submitted a reprogramming request for the second phase of 
this program, which was denied, for a bunch of different 
reasons. You were supportive of the program at the time. I 
don't know if that's still your opinion. I wanted to check in 
with you and see if you still think that's a program that is 
worthwhile pursuing.
    General Mattis. Yes, sir, I thought it was, at the time, 
and I still do. It's a test program to see if we can use 
turboprop planes to replace much more expensive planes, but, 
more importantly, more effectively in the counterinsurgency 
environment. But, there's an awful lot of data we would have to 
collect. That's why I wanted to do the test, which is what 
Imminent Fury would have done. But, yes, sir, I'm still 
supportive of it, but I think I need to build some support for 
it.
    Senator LeMieux. Okay. Thank you, General. Again, welcome 
to Florida. If we can be of any service to you, please let us 
know. I had a great relationship with General Petraeus, and 
want to have one equally as good with you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator LeMieux.
    I have a few questions, and then others may, or not. We 
will then end our confirmation hearing. I have just a few, and 
here they are.
    First, on private security contractors in Afghanistan. 
They're creating huge problems for us. They threaten our 
security in very real ways. In response to our advance policy 
questions, you wrote that you believe the transition from 
private security contractors to the Afghan security forces will 
occur gradually and at the direction and encouragement of the 
Afghan Government.
    Just to share with you a couple conversations which Senator 
Reed and I had when we were there a couple weeks ago, first 
with General Carter, who's the commander of the ISAF forces in 
the region, in Regional Command South, and with General 
Rodriguez, who's our commander of the ISAF Joint Command. Both 
those generals expressed real determination to go after the 
contractors because of the harm that they're causing to us. 
They are threatening the security of our own troops in a whole 
host of ways. They solicit bribes, they extract fees for 
convoys that are traveling through territory, instead of 
actually protecting our own convoys, as they're supposed to be 
doing. They're part of, in many cases--I don't want to overly 
generalize--but, they are often part of schemes that are worked 
with the warlord bosses to actually make us less secure and, 
therefore, have to hire them to provide security. It's a 
vicious circle. Both General Carter and General Rodriguez are 
determined to break it.
    General Carter, as a matter of fact, showed us a road--I 
think it was north of Kandahar--that he said is going to be 
free of these kind of warlord dominations. General Rodreguez 
flat-out said, ``We're going to end it.''
    I just want to let you know that there's real determination 
there, on the ground, with our commanders, to go after these 
security contractors who threaten our own well-being.
    I think I mentioned to you, the Senate Armed Services 
Committee has an ongoing investigation, which is close to 
conclusion, about the operations of so many of these security 
contractors and the way in which our own taxpayers' money, in 
effect, end up making our own troops less secure, endangering 
them, costing taxpayers' money in the process.
    That's just for your information. I don't have a question 
on that, other than I hope you'll really give some support to 
that effort.
    Second, while we are becoming less involved in Iraq, we are 
going to continue to have involvement there for the next year 
or so, and probably beyond that. I want to just highlight to 
you the situation of the religious minorities in Iraq, as I 
mentioned to you in the office. The U.S. Commission on 
International Religious Freedom concluded, last May, that, 
``systemic, ongoing, and egregious religious freedom violations 
continue in Iraq,'' and that ``the religious freedom situation 
in Iraq remains grave, particularly for the country's smallest, 
most vulnerable religious minorities.'' Now, what we're 
referring to, and they're referring to here, is the Christian 
community in Iraq. They are in a very fragile situation. They 
need whatever kind of support in various ways we can provide to 
them. I just want to make sure that's on your radar, as well, 
when you are confirmed. You are, I think, familiar, somewhat, 
with that situation, as we talked, and if you have any comment 
on that, we'd welcome it.
    General Mattis. Sir, two comments. One, I think the pace of 
putting the government together may actually be indicating that 
they're trying to put an inclusive government together. I think 
that's fundamental to protecting minorities' rights.
    The second point is the advise-and-assist mission that the 
U.S. military will continue to carry forward in September on 
out, will permit us to really, I think, make clear that the 
ethical use of force and the protection of all Iraqis is the 
job of the Iraqi security forces. I think there's nothing 
better than demonstrating that, as we go forward, to try and 
make an impression that that's their job, that the rule of law 
and protection of everyone is a testimonial to their own 
professionalism. I think that's the best we can do on this--
support the government that's inclusive and make certain you 
have a military and police force that tries to protect people 
in these communities.
    Chairman Levin. Okay. Your active involvement in 
reinforcing that position is very important. Even though our 
presence will be reduced, it's not going to be ending.
    Finally, Senator Graham made reference to the importance of 
governance down in Kandahar and throughout Afghanistan, and I 
couldn't agree with him more. In that regard, what Senator Jack 
Reed and I found when we got there was something which--at 
least it surprised me, and I'll let him speak for himself--that 
is that in Kandahar, when we met with the Governor of Kandahar 
and the mayor of Kandahar, both impressed us with their 
independence, their outspokenness against corruption. They've 
made no bones about it publicly. It's not just in a private 
meeting with us. Their lives are on the line whenever they do 
that. A neighboring governor in a province next door was 
assassinated. But, from what we could tell, it was kind of 
reassuring, because right in the province where you have 
evidence of significant corruption, you have, at least the 
impression we received--and I think our military folks said our 
impression is a correct one--that you have a courageous 
governor down there who's very much opposed to corruption, and 
you have a mayor in the city that is outspoken, as well, 
against it.
    There are some glimmers of hope, in terms of independence 
and a willingness to go after the corruption, which the Afghan 
people are so sick of, and which really jeopardizes the 
success--their success--it's not just our mission, it's their 
mission, which we're helping them to succeed with. We 
sometimes, in our rhetoric, talk as though this is our country, 
and it clearly is a country we care about which has had a big 
impact on our lives. But, it is a country whose sovereignty 
belongs to others. Our role there is to make sure that 
sovereignty is not destroyed by a extreme group, the Taliban, 
which, again, would give safe haven--and I agree with you--to 
al Qaeda, if the Taliban ever came back into power.
    But, there is, in other words, not only the right focus, in 
terms of the importance of governance, but it's also some 
evidence that, in a very difficult area, which is down in 
Kandahar, there is, apparently, if our impression is correct, 
some people who are willing to put their lives on the line to 
take on the corruption which has been so endemic.
    General, let me ask Senator Goodwin if he might have more 
questions.
    Senator Goodwin. No, Mr. Chairman.
    Chairman Levin. Okay. In that case, we again thank you for 
your service.
    We will try to see if we can't get you on the job here just 
as quickly as possible, hopefully in a matter of days. But, I 
know there's very broad support and very strong support for 
your nomination. We'll try to take this to the Senate floor as 
quickly as we can get a quorum together here, either in--
somehow, in a committee meeting or off the floor, so we can get 
the full Senate to approve you.
    We again thank you for your service.
    General Mattis. Thank you, Mr. Chairman.
    Chairman Levin. We will stand adjourned.
    [Whereupon, at 5:24 p.m., the committee adjourned.]

    [Prepared questions submitted to Gen. James N. Mattis, 
USMC, by Chairman Levin prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. The Department has made great progress in the joint arena 
since the enactment of Goldwater-Nichols. There is no room for 
complacency but I believe we're on the right track. I don't believe 
there is a need for any major modifications to the act.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. Beyond Goldwater-Nichols, Congress may consider means to 
increase integration of non-military agencies in appropriate training 
and force readiness environments in order to build the foundation for 
more effective ``whole-of-government'' approaches to crisis prevention 
or crisis resolution.
                             relationships
    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense 
and from the Secretary of Defense to the combatant commands. Other 
sections of law and traditional practice, however, establish important 
relationships outside the chain of command. Please describe your 
understanding of the relationship of the Commander, U.S. Central 
Command (CENTCOM), to the following officials:
    The Secretary of Defense.
    Answer. Subject to direction from the President, the Commander, 
CENTCOM, performs duties under the authority, direction, and control of 
the Secretary of Defense. In addition, the Commander, CENTCOM, is 
responsible to the Secretary of Defense for the preparedness of the 
command to carry out its missions.
    Question. The Under Secretaries of Defense.
    Answer. Commander, CENTCOM, coordinates and exchanges information 
with the Under Secretaries of Defense as needed to set and meet CENTCOM 
priorities and requirements for support.
    Question. The Assistant Secretaries of Defense.
    Answer. Commander, CENTCOM, coordinates and exchanges information 
with the assistant Secretaries of Defense as needed to set and meet 
CENTCOM priorities and requirements for support.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman is the principal military advisor to the 
President, National Security Council, and Secretary of Defense. Section 
163 of title 10, U.S.C., allows communication between the President or 
the Secretary of Defense and the combatant commanders to flow through 
the Chairman. As is custom and traditional practice, and as instructed 
by the Unified Command Plan, I would communicate with the Secretary 
through the Chairman of the Joint Chiefs of Staff. I anticipate a close 
dialogue with the Chairman on all significant matters.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. I would communicate and coordinate with the Vice Chairman 
of the Joint Chiefs of Staff as required and in the absence of the 
Chairman of the Joint Chiefs of Staff.
    Question. The Director of the Joint Staff.
    Answer. I would also communicate and coordinate with the Director 
as necessary and expect the Deputy Commander, CENTCOM, or Chief of 
Staff, CENTCOM, would communicate regularly with the Director of the 
Joint Staff.
    Question. The Secretaries of the Military Departments.
    Answer. The Secretaries of the Military Departments are responsible 
for the administration and support of forces assigned to the combatant 
commands. Commander, CENTCOM, coordinates closely with the Secretaries 
to ensure that requirements to organize, train, and equip forces for 
CENTCOM are met.
    Question. The Service Chiefs.
    Answer. Commander, CENTCOM communicates and exchanges information 
with the Service Chiefs to support their responsibility for organizing, 
training, and equipping forces. Successful execution of the CENTCOM 
mission responsibilities requires close coordination with the Service 
Chiefs. If confirmed, I intend to work closely with the Service Chiefs 
to understand the capabilities of their Services to clearly communicate 
to them the CENTCOM theater's requirements and to ensure effective 
employment of the Services' capabilities in the joint and coalition 
execution of the CENTCOM mission.
    Question. The other combatant commanders.
    Answer. Commander, CENTCOM, maintains close relationships with the 
other combatant commanders. These relationships are critical to the 
execution of our National Military Strategy, and are characterized by 
mutual support, frequent contact, and productive exchanges of 
information on key issues. This is especially true of European Command, 
Pacific Command (PACOM), and U.S. Special Operations Command (SOCOM).
    Question. The U.S. Ambassador to Iraq.
    Answer. I would necessarily have a relationship with the U.S. 
Ambassador to Iraq, in close coordination with the Commander, U.S. 
Forces-Iraq, in order to ensure unity of effort between U.S. military 
and all other U.S. Government activities in Iraq and in the CENTCOM 
region.
    Question. The U.S. Ambassador to Afghanistan.
    Answer. I would necessarily have a close working relationship with 
the U.S. Ambassador to Afghanistan, in close coordination with the U.S. 
commander there, in order to ensure unity of effort between U.S. 
military and all other U.S. Government activities in Afghanistan and in 
the CENTCOM region.
    Question. The U.S. Ambassadors to other countries within the 
CENTCOM area of operations.
    Answer. I would necessarily have a close working relationship with 
U.S. Ambassadors to other countries in the CENTCOM region, in close 
coordination with defense representatives or defense attaches in each 
country, in order to ensure unity of effort between U.S. military and 
other U.S. Government activities in the CENTCOM region.
    Question. Commander, Multi-National Forces-Iraq (MNF-I)
    Answer. Commander, CENTCOM requires close cooperation with the 
Commander, U.S. Forces-Iraq (USF-I) [as MNF-I has been formally 
redesignated] to support and resource the effort in Iraq to meet 
national policy goals. It is critical that the relationship between the 
Commander, CENTCOM and the Commander, U.S. Forces-Iraq be close, 
candid, and productive to meet this end.
    Question. Commander, North Atlantic Treaty Organization (NATO) 
International Security Assistance Force (ISAF), Afghanistan.
    Answer. Commander, CENTCOM requires close cooperation with 
Commander, NATO-ISAF to support and resource the effort to achieve the 
goals of the NATO mandate in Afghanistan. Commander, NATO-ISAF is dual-
hatted as the Commander, U.S. Forces-Afghanistan, who formally reports 
to Commander, CENTCOM, and a strong spirit of collaboration will 
characterize our interactions.
                             qualifications
    Question. If confirmed, you will be entering this important 
position at a critical time for CENTCOM.
    What background and experience do you have that you believe 
qualifies you for this position?
    Answer. My experience in the CENTCOM region spans 30 years, 
extending back to my first deployment to the Middle East in 1979 as a 
Marine infantry company commander. Since then, I have commanded in the 
CENTCOM area of responsibility (AOR) at the battalion, brigade, and 
division levels, first in Operations Desert Shield/Storm, and in the 
post-September 11 period during the initial invasions in Afghanistan 
and in Iraq. Additionally, I commanded I Marine Division in al Anbar 
Province during the Sunni Awakening, and following that, I commanded I 
Marine Expeditionary Force and Marine Forces CENTCOM. Finally, I have 
served as the Supreme Allied Commander, Transformation, working with 
our NATO Allies in support of our efforts in Iraq and in Afghanistan.
    I have been fortunate to develop personal relationships with 
several leaders in the CENTCOM region--military and civilian, plus U.S. 
and partner nations--for more than a decade, and if confirmed I will 
seek to expand those relationships to enhance the unity of effort and 
integrated harmony essential to success.
                    major challenges and priorities
    Question. In your view, what are the major challenges confronting 
the next Commander, CENTCOM? If confirmed, what plans do you have for 
addressing these challenges?
    Answer. Key among the challenges will be helping to check any 
aggressive actions by Iran and setting the regional conditions for 
success in Afghanistan and Iraq. Furthermore, there are significant 
challenges in several of CENTCOM's sub-regions that require sustained 
and significant attention. The region has been torn by interstate and 
ethno-sectarian conflicts that have only intensified in the past three 
decades with the emergence of al Qaeda, the specter of nuclear weapons, 
and the enormous wealth derived from petroleum and criminal enterprise. 
Today the area's stability is most seriously threatened by the 
proliferation of weapons of mass destruction, violent extremism, and 
the conflation of the two. These are the harsh realities of the CENTCOM 
region.
    Beyond these sub-regional challenges, a number of transnational 
challenges exist.
    Amid pockets of affluence, many of the half-billion people in the 
CENTCOM region suffer from the absence of sustainable economic 
development, which in large part is brought on by weak government and 
civil institutions, insufficient human capital, and endemic corruption. 
These contrasts, when combined with the proliferation of global 
communications and interaction, have left many of the states in the AOR 
struggling to manage change at a pace that reinforces stability rather 
than erodes it. These states often lack the capacity to deal with the 
continuing challenges posed by a range of criminal activities, to 
include piracy, smuggling, trafficking, and narcotics. The area's many 
ethnic, tribal, and religious differences have exacerbated this 
problem, as has the pressure of a rapidly expanding, youthful 
population that faces a future of underemployment and limited 
opportunity--all of which are factors that have led some groups to 
undermine traditional authority and seek radical change through 
militant means.
    Though it is premature to have specific plans to address these 
challenges, if I am confirmed I will carry forward an overall approach 
of assisting our partners in the region based on our shared interests. 
CENTCOM has made a great deal of progress in this respect and I will 
reinforce those efforts.
    Question. What management actions and time lines would you 
establish to address these challenges?
    Answer. Since I am not confirmed yet, I need to gain better 
understanding of each of CENTCOM's lines of operation and get advice 
from our regional partners to give a complete answer. I can say that if 
I am confirmed, I will periodically review and assess our strategy, 
activities, and programs to address the challenges in the CENTCOM 
region.
    Question. If confirmed, what broad priorities would you establish 
and what actions would you initially take as Commander, CENTCOM?
    Answer. Should I be confirmed, the mission in Afghanistan will be 
my immediate priority. Other significant priorities include helping 
Pakistan in its struggle against extremism, continuing the responsible 
drawdown in Iraq, deterring Iranian destabilizing activities, 
addressing the presence of al Qaeda and affiliated extremist groups in 
Yemen and throughout the region, and countering the scourge of piracy 
on the high seas.
    While it would be premature for me to have detailed plans to 
address these priority areas, my approach will be guided by several 
concepts if I am confirmed: I will require highly integrated civil-
military efforts from the highest to the lowest levels. To that end, I 
will seek to ensure harmony in the relationships of military and 
civilian leaders at all levels, emphasizing a strong spirit of 
collaboration with all concerned. I will strengthen and sustain our 
multilateral and bilateral partnerships in the region based on shared 
interests. Each of these elements will contribute to an overall 
approach that is comprehensive and capitalizes on comparative 
advantages of components within the whole of our own government and 
that of our partners.
    Question. What were the major lessons that you learned from your 
previous experience in Iraq and most recently as Commander, U.S. Joint 
Forces Command, that are most applicable to the duties you would assume 
if confirmed?
    Answer. One of the most important lessons I have learned throughout 
my 38-year career in commanding troops from the platoon level to the 
combatant command level is to appreciate and recognize the skill and 
sacrifice of those serving our country in the military or as civilians. 
Beyond that, and specifically related to the CENTCOM region, I have 
learned to appreciate the region's rich social and cultural history 
from my experiences leading marines in Iraq and in Afghanistan and from 
my many contacts in the region. I have obtained further insight as the 
Commander of the I Marine Expeditionary Force and Marine Forces 
CENTCOM, and in my present assignment. I have sharpened my 
understanding of counterinsurgency strategy in leading the Marine 
Corps' Combat Development Command, where I was able to help shape much 
of the current doctrine and training that the Marine Corps has since 
incorporated. It was also there that I was able to co-author, with 
General Petraeus, the new Army and Marine Corps counterinsurgency 
manual. In my current position, I have learned a great deal about the 
current operating environment in the CENTCOM region, and the needs of 
the forces that are operating there.
                          readiness of forces
    Question. What is your assessment of the readiness of U.S. forces 
that have been deployed to Operation Enduring Freedom (OEF)?
    Answer. I am riveted to this issue on a daily basis in my current 
position as U.S. Joint Forces Commander, and our forces are extremely 
well trained, and increasingly combat hardened--they are ready for the 
fight, technically and tactically. Those deployed to Afghanistan as 
part of OEF receive the best training and equipment possible, and they 
possess an unparalleled level of combat experience, which has been 
thoroughly integrated into the training process from the recruit to 
unit level. Pre-deployment training at the various Joint Training 
Centers provides tailored counterinsurgency scenarios and incorporates 
up-to-the-minute lessons learned from troops on the ground in 
Afghanistan. Fielding of critical protective equipment, such as the 
Mine Resistant Ambush Protective (MRAP) family of vehicles is on 
schedule. I have worked hard in my current position to ensure that all 
levels of command are appropriately focused on ensuring the readiness 
of U.S. OEF forces.
    That said, there is always room for improvement. Gaps in our 
counter-insurgency doctrine and training have been addressed as we 
adapted to the enemy situation.
    Question. What is your assessment of the readiness of U.S. forces 
that have been deployed to Operation Iraqi Freedom?
    Answer. My answer to this question mirrors the above response. Our 
forces in Iraq are highly-trained, well-led, and fully-prepared for the 
mission. Many of the senior leaders who will execute Operation New Dawn 
have been closely involved in Operation Iraqi Freedom over several 
years--LTG Austin, for one. We have a good understanding of the 
requirements for completing the military mission in Iraq and I am 
confident we are well postured to facilitate the transition to 
Department of State (DOS) led operations.
    Question. Have you observed any significant trends in or apparent 
gaps with respect to personnel, equipment, or training readiness in 
units upon arrival in either theater?
    Answer. No. Overall, the readiness of units arriving in the AOR has 
been high and the Services have done well preparing units to deploy. 
Where issues have arisen, the Services have been adaptive and 
incorporated feedback from the theater by making necessary adjustments 
in force preparations. There has been constant dialogue with U.S. Joint 
Forces Command and the Service training centers to provide immediate 
feedback in order to adjust training and the training environment. 
Where adjustment has been necessary, supplemental funding has been 
essential to meeting the requirements especially for counterinsurgency 
training during the pre-deployment phase and roll out of coalition 
command and control networks. Continued, expanded language training 
will remain a training focus for these sorts of wars.
    Question. What are your views on the growing debate over whether 
U.S. forces are putting too much emphasis on preparing for 
counterinsurgency and irregular warfare operations or too little 
emphasis on preparing for high intensity force-on-force conflict and 
full spectrum operations?
    Answer. War is war and I think the debate is overblown. Irregular 
warfare is important and conventional capability is important as well, 
and many skill sets are applicable to both types of fighting. As 
Secretary Gates has emphasized, irregular warfare must become a core 
competency of the U.S. military. That does not mean that every Service 
is ``50-50'' in a split of conventional versus irregular warfare 
capabilities. It means that they have to train and fight across the 
full range of military operations. We need to gain a competency at the 
national level right down to the tactical level without surrendering 
our nuclear deterrence or conventional superiority, behind which the 
international community gains great benefit. We do not have the freedom 
at this point in history to say that we are going to surrender one part 
of the spectrum--if we embrace a single, preclusive form of 
warfighting, we do so at our peril. The enemy will always move against 
perceived weakness, which means that we have to be strong across the 
full spectrum. This requires agile forces, educated leaders, and 
lengthened dwell times between deployments especially for the Army and 
Marine Corps.
           afghanistan-pakistan strategy and major challenges
    Question. In his speech at West Point in December 2009, the 
President formulated his strategy for Afghanistan and Pakistan.
    What role, if any, did you play in the formulation of the 
President's strategy for Afghanistan and Pakistan?
    Answer. None.
    Question. Do you agree with that strategy?
    Answer. I fully support the policy of the President and I believe 
the strategy is sound.
    Question. Do you agree with the President's decision to begin 
reductions of U.S. forces in July 2011?
    Answer. Yes.
    Question. Please explain why or why not.
    Answer. I support the policy of the President. I understand the 
July 2011 date to begin reduction of U.S. Forces that the President 
announced at West Point last December as the beginning of a transition 
of security tasks to the Afghans, based on our assessment of conditions 
on the ground at that time. The drawdown of U.S. Forces will be based 
on conditions on the ground at that time, as Secretary Gates reaffirmed 
this last month when he said ``the pace . . . with which we draw down 
and how many we draw down is going to be conditions-based.'' Consistent 
with our counter-insurgency lessons learned and our doctrine, the 
transition will involve a ``thinning out'' of forces rather than simply 
dropping them to Afghan National Security Forces (ANSF). Some forces 
may shift missions and be ``reinvested'' in other elements of the 
effort before they return home, and this transition will occur on the 
district level and in functional areas as well, as we checkmate the 
enemy's designs.
    Question. Do you agree with the President's decision that the pace 
of reductions beginning in July 2011 will be conditions based?
    Answer. Yes.
    Question. Please explain why or why not.
    Answer. The responsible drawdown of forces beginning in July 2011 
must be conditions based so that we ensure that ANSF can stand up 
against internal and external threats with only modest international 
support, thus leaving Afghanistan in a position to deny enemy use of 
its territory.
    Question. What are the major challenges and problems you foresee, 
if confirmed as the next Commander, CENTCOM, in the implementation of 
the President's strategy?
    Answer. The most urgent challenges will be to establish security 
and to protect the Afghan population, while increasing the numbers and 
capabilities of the ANSF. This will require the strong partnering 
between our forces and the Afghan Army, which synergistically improves 
coalition and ANA combat performance in checkmating the enemy. Other 
important challenges include strengthening trust among key regional 
actors, the process of reintegration and reconciliation, improving 
governance, and combating corruption.
    Question. If confirmed, what plans do you have for addressing these 
challenges and problems?
    Answer. Having confidence in the ability of General Petraeus to 
execute the President's strategy in Afghanistan and for he and I to 
work in the closest possible partnership, I will seek to ensure that 
the effort there is fully resourced in a coherent and comprehensive 
manner. I will also work to set broader regional conditions for the 
success of the mission.
                   security situation in afghanistan
    Question. What is your assessment of the security situation in 
Afghanistan and the nature, size, and scope of the anti-government 
insurgency?
    Answer. The insurgency in Afghanistan has proven to be resilient, 
and the security situation remains violent. The Taliban-dominated 
insurgency has shown an ability to adapt, and remains a threat in many 
populated areas. The insurgents fight among the people to deny the 
Afghan Government from developing and representing the will of the 
Afghan people. But I believe the enemy is losing its strategic 
initiative. In the roller-coaster effect we always see in counter-
insurgency, progress and violence coexist. While progress is spotty, 
overall the directions are trending toward the positive for us.
    Question. What is your understanding of the relationship between 
the Taliban and al Qaeda in Afghanistan and the nature and extent of 
their cooperation?
    Answer. Their relationship isn't as close as it once was. They 
still share similar ideologies and they both want the expulsion of all 
foreign forces from Afghanistan, but for different reasons. The Taliban 
want to re-establish their medieval government; al Qaeda wants to re-
establish its sanctuary and to spread its Salifist ideology, primarily 
through violent attacks on innocents.
                         coalition capabilities
    Question. Do you believe that the current level of ISAF troops and 
other U.S. troops and equipment in Afghanistan are sufficient to carry 
out the mission?
    Answer. I have reviewed the troop-to-task assessments and I believe 
that there are sufficient troops for combat operations, but there 
remains the need to adequately resource forces to partner, mentor, and 
help train the ANSF. Working to build the ANSF so that it can protect 
the population with minimal international support is the preeminent 
task for ISAF as it builds Afghan ability to protect its own people and 
territory.
    Question. If not, what are the current shortfalls in troops and/or 
equipment required for that mission?
    Answer. The shortage of trainers and partner-mentor personnel is 
approximately 1,000 personnel.
    Question. If confirmed, what recommendations would you have for 
meeting any current shortfalls in troops or equipment required for the 
mission?
    Answer. If confirmed, I will work with ADM Stavridis, our partner 
nations and other stakeholders to gain the needed personnel, equipment 
and forces.
    Question. Do you believe our NATO allies should be doing more to 
eliminate any shortfall in resourcing the NATO ISAF mission 
requirements?
    Answer. While I appreciate the increased commitments from Allies 
and partners that are adding about 10,000 troops in Afghanistan, I do 
feel there can be more contributions from other countries both from 
NATO and other Allies and partners, especially providing personnel for 
institutional trainers and Operational Mentor and Liaison Teams and 
Police Operational Mentor and Liaison Teams (POMLTs).
                   command structures in afghanistan
    Question. There have been a number of changes to the command 
structures in Afghanistan over the past year, including the standing up 
of the ISAF Joint Command under a three-star commander, U.S. Lieutenant 
General David Rodriguez, and the establishment of the NATO Training 
Mission-Afghanistan under a three-star commander, U.S. Lieutenant 
General William Caldwell.
    What is your assessment of the current command structures for ISAF 
and for U.S. Forces-Afghanistan (USFOR-A)?
    Answer. Monitoring these developments from my current position, I 
believe tremendous progress has been made over the past year. In 
addition to the ISAF Joint Command and NATO Training Mission 
Afghanistan, a Joint Task Force (JTF) has been established under VADM 
Robert Harward to address detainee and rule of law issues, and other 
arrangements have been put in place to address issues such as 
contracting and corruption. On the U.S. side, we have consolidated the 
majority of U.S. forces under the operational control of Commander 
USFOR-A, enhancing unity of effort considerably. These changes now 
provide the organizational structure necessary for successful execution 
of the mission.
    Question. What changes, if any, would you recommend to those 
command structures?
    Answer. I am satisfied with the current command relationships.
              civilian-military cooperation in afghanistan
    Question. What is your assessment of the current level of 
cooperation and coordination between the military and civilian efforts 
in Afghanistan to implement the counterinsurgency strategy, both within 
the U.S. Government and between NATO ISAF and international civilian 
entities?
    Answer. From my current position, I assess the level of cooperation 
as improving on a steady upward trajectory. I will closely monitor the 
level of cooperation to provide the best possible harmony to maintain 
our unity of effort.
    The integrated Civilian-Military Campaign Plan for Support to 
Afghanistan was developed by the U.S. Embassy and USFOR-A in close 
coordination with the International Security Assistance Force (ISAF), 
United Nations Assistance Mission to Afghanistan and the Government of 
the Islamic Republic of Afghanistan (GIRoA). I understand that this 
document integrates and synchronizes actions and activities across the 
civilian, military and international community to achieve common 
objectives in Afghanistan. This plan reflects significant ongoing 
collaboration and is the model for future planning.
    Civil-military cooperation has also been strengthened with the 
ongoing ``civilian surge'' of approximately 1,000 additional civilian 
officials to help build governance and development capacity in 
Afghanistan. The civilian surge has enabled ISAF and the ISAF Joint 
Command (IJC) Headquarters, along with each of the regional 
headquarters staffs, to evolve into fully integrated civil-military 
teams. The civilian surge has also increased the numbers of experts at 
the provincial level, under Provincial Reconstruction Teams and 
District Delivery Teams.
    Question. If confirmed, what changes, if any, would you recommend 
for improving the cooperation and coordination between the military and 
civilian efforts in Afghanistan?
    Answer. Unity of effort and civ-mil harmony in relationships are 
critical to the accomplishment of the mission in Afghanistan. If I am 
confirmed, I will work closely with the Special Representative to 
Afghanistan and Pakistan--the natural counterpart to the Commander, 
CENTCOM--as well as the civil-military team on the ground in Kabul, 
along with the NATO and other leaders to ensure that all of our work--
civilian and military--is mutually supportive in pursuit of our goals 
in Afghanistan.
              building the afghan national security forces
    Question. The current strategy for training and equipping the ANSF 
calls for growing the Afghan National Army (ANA) to a level of 171,000 
and the Afghan National Police (ANP) to a level of 134,000 by October 
2011.
    What is your assessment of the ANA?
    Answer. It would be premature for me to formally assess the ANA in 
my current position. In broad terms, I recognize that the ANA are often 
cited as one of the most respected institutions in the Afghan 
Government. ANA and police forces are now jointly leading security 
efforts in Kabul and elsewhere in a more limited fashion. I am also 
aware that ANA commanders are now partnering with coalition forces 
during joint operational planning, and on any given day, much of the 
combat against our enemy is conducted by ISAF-ANA partnered units. All 
of these factors lead me to believe that ANA is developing, while 
significant challenges remain, including the fielding of sufficient 
combat power to adequately secure terrain and the growth of logistics 
capabilities.
    Question. What is your assessment of the ANP?
    Answer. It would be premature for me to formally assess the ANP in 
my current position. In broad terms, I am familiar with the many 
challenges that confront the ANP, which can be attributed to the 
shortfall of POMLTs. Many ANP units have experienced poor retention and 
high attrition. The ANP also suffers from poor leadership and a 
scarcity of trained officers and NCOs, despite other, more positive 
signs of development. The decision to no longer deploy untrained police 
in an effort to more rapidly fill the ranks is the right one; they must 
be trained and this decision, shifting from recruit-deploy-train to 
recruit-train-deploy will improve ANP capability and standing. Recent 
increases in recruitment and the beginning of ISAF partnering with the 
ANP are positive gains.
    Question. In your view, will the currently-planned end strength 
levels for the ANA and ANP be sufficient to provide security and 
stability in Afghanistan, or should these target end strength levels be 
increased?
    Answer. This is a critical question that I will work with the 
Commander, ISAF (COMISAF), to explore further upon taking command, if 
confirmed. I am aware of ongoing analysis by NATO Training Mission-
Aghanistan (NTM-A) on the possible need for growth beyond currently 
approved goals. While this process is ongoing, I am not in a position 
to say that the currently approved strength of 305,600 will prove 
sufficient. COMISAF has expressed his commitment to closely evaluating 
end strength requirements--and I will interface with him on this issue 
at length, if confirmed.
    Question. What in your assessment are the greatest challenges to 
building the capacity of the ANSF to assume responsibility for 
Afghanistan's security?
    Answer. If confirmed, I will review the efforts that are currently 
underway in building the capacity of ANSF and provide my own 
assessment, as required. At that time, I'll be cognizant of those 
challenges that have already been identified, such as leader 
development, attrition, recruitment, retention, balancing current 
operational needs with long-term demands, and unfilled training 
requirements, among others.
    Question. If confirmed, how would you recommend addressing these 
challenges?
    Answer. I would work closely with COMISAF to ensure that NTM-A/
CSTC-A have the appropriate level of resources that are necessary to 
meet the identified mission objectives.
    Question. There remains a shortfall in the number of training 
personnel required for the NTM-A, both in terms of institutional 
trainers at training centers and training teams embedded with Afghan 
Army units and Afghan police units.
    What in your view should be done to encourage NATO allies to 
provide more institutional trainers?
    Answer. We can encourage our Allies and partners to provide more 
trainers by addressing their concerns on the issues of money and force 
caps. There are productive ways to coordinate and facilitate countries 
willing to donate funding for other countries that are willing to 
deploy but lack the necessary funds. The United Arab Emirates (UAE), 
for example, recently made a generous offer to help fund deployments to 
assist in overcoming the shortage of required trainers.
    To overcome some of these force cap issues, we should ask our 
Allies and partners to send instructors to teach in ANSF schools on a 
rotational, temporary duty basis. The recent decision by Malaysia to 
send police trainers to Afghanistan is a positive step. This would 
provide the specialized trainers required, while building capacity for 
the Afghan forces and enhancing the expertise of coalition partners. On 
all these matters, I will work closely with NATO's Civilian Senior 
Representative in Afghanistan Mark Sedwill and Admiral Stavridis.
    Question. What should be done to encourage NATO allies to provide 
additional trainers to embed with the Afghan Army and police?
    Answer. In addition to the proposals I have already mentioned, the 
United States can encourage our Allies to provide more embedded 
trainers by offering to provide NATO interoperable equipment that would 
give them greater capability to move and communicate. Many nations are 
unable to equip their forces to meet NATO standards. The United States 
supports many such nations now, although we are constrained by our own 
resource requirements and the overall shortage of critical assets such 
as MRAPs (though the MRAP shortage will be eliminated late this fall).
    Oversight responsibility for the contract to train the ANP is in 
the process of transitioning from the DOS to the Department of Defense 
(DOD). However, it will be several months before the DOD contract for 
ANP training is awarded while a full and open competition is conducted. 
In the interim, DOS is extending the existing DOS-managed ANP training 
contract and seeking appropriate modifications to address oversight 
deficiencies and align contract requirements with the NTM-A mission.
    Question. What is your view of the advisability of using 
contractors to perform this function?
    Answer. Contractors fill critical shortfalls in government manpower 
capacity. The demand for critical skills in low density areas is often 
filled with contractors to enable mission success. Without a larger 
force of military or government law enforcement, contractors must be 
used to fill this critical gap.
    Question. What level of performance do you believe we can 
reasonably expect from private security contractors engaged to provide 
training to the ANP?
    Answer. In the large majority of cases, the performance should be 
fully sufficient to accomplish the mission. With clear performance 
requirements stipulated in the contract, we should be able to achieve 
the desired levels of performance from ANP trainers. We will also 
ensure that proper levels of quality assurance processes are used to 
ensure required levels of performance are met. When the DOS contract 
was extended, desired performance requirements were clarified with the 
contractor. This issue will demand keen oversight to ensure the 
contractor training is sufficient.
    Question. If confirmed, what is your assessment of DOD's resources 
and capacity to conduct appropriate oversight of the ANP training 
contract for building the capabilities of the Afghan police forces?
    Answer. I feel DOD has the resources and capacity in place to 
conduct the necessary oversight. In response to the DOD Inspector 
General and DOS Inspector General concerns in their joint report 
entitled, ``DOD Obligations and Expenditures of Funds Provided to the 
DOS for the Training and Mentoring of the ANP,'' issued February 9, 
2010, DOD has made oversight of the new contract a priority. DOD is 
currently competing the new ANP contract and is in the process of 
planning an extensive oversight program that will include full-time 
contract oversight and management as well as increased contract officer 
representatives in the field, quality assurance personnel, and property 
managers.
    In December 2009, the Combined Security Transition Command-
Afghanistan (CSTC-A) identified 26 additional high-priority positions 
to strengthen oversight of the ASFF program, including acquisition 
officers, internal auditors, foreign military sales specialists, and 
finance specialists. These experts are providing CSTC-A with the depth 
of knowledge needed to oversee the budget and acquisition processes, as 
well as enhance contract oversight.
    CSTC-A also has: put new policies and procedures in place to 
implement adequate contract oversight; implemented a system to ensure 
quality assurance for all contracts; established a six-person Contract 
Management Team to monitor contracts, validate contract oversight, and 
share best practices across the command; and established a process to 
conduct a weekly contract performance review.
    Question. If confirmed, what steps would you take to ensure proper 
DOD oversight of the ANP training contract?
    Answer. I would work with CSTC-A and NTM-A to continue the progress 
that has been made in recent months and will look closely for 
additional ways to improve oversight.
                 partnering with afghan security forces
    Question. The committee received a briefing on plans for the 
campaign in Kandahar, which called for the deployment of Afghan and 
ISAF security forces partnered together to provide a ``rising tide'' of 
security in and around Kandahar over a period of months.
    What is your assessment of current efforts to partner Afghan 
security forces with ISAF forces in operations, particularly in 
Regional Command South (RC-South)?
    Answer. As U.S., NATO, and coalition partners concentrate efforts 
in Helmand and Kandahar, embedded partnerships will enable ISAF to 
accelerate the development of the fielded Afghan force and foster 
stronger leadership. The Afghans' local knowledge, cultural 
understanding, and intuitive feel for the operating environment, 
coupled with our troops, technology, air assets, and logistics support 
are proving time and time again to be a powerful combination, one that 
is increasingly effective against the enemy.
    Question. Do you support moving as quickly as possible to 
partnering ISAF forces and Afghan security forces together on at least 
a 1-to-1 basis--one ISAF partnered with one or more Afghan--in order to 
accelerate the transition of responsibility for Afghanistan's security 
to Afghan security forces?
    Answer. I do support moving as quickly as possible to partnering 
ISAF and Afghanistan Security Forces. Partnering for ANA and ANP units 
is now fully implemented in RC East, South, and Southwest. Partnering 
is more difficult to implement fully in RCs North and West because of 
limited allied numbers and differences in the way allied forces are 
organized.
    Question. If confirmed, what steps, if any, would you recommend to 
increase the number of operations in which Afghan security forces are 
in the lead, including in RC-South?
    Answer. I agree that Afghanistan forces need to take the lead in 
operations, but this should be done on a deliberate basis, following 
appropriate training, partnering and mentorship. Over time partnership 
will result in Afghan units that increasingly operate in the lead as 
the supported force. Although coalition forces are already serving in a 
supporting role in many areas, U.S. and coalition forces still provide 
many of the required enabling capabilities, such as access to fires, 
air assets, and logistics support. Even in a supporting capacity, the 
role of the U.S. and the international community will remain 
significant for some time to come, though embedded partnering will 
allow us to reduce the scope of our supporting role over time as Afghan 
forces continue to develop these capabilities for themselves. Afghan 
soldiers, police, and National Directorate of Security representatives 
recognize the value of embedded partnering, appreciate sharing the 
risk, and want to lead.
                counternarcotics efforts in afghanistan
    Question. According to the United Nations (U.N.) Office on Drugs 
and Crime, Afghanistan alone provides 85 percent of the estimated 
global heroin and morphine supply, a near monopoly. Of the estimated 
380 metric tons of heroin produced in Afghanistan, approximately 5 
metric tons stay in the country for local consumption or is seized by 
local law enforcement.
    What is your assessment of the current U.S. and NATO strategies for 
combating the production and trafficking of illegal narcotics in 
Afghanistan?
    Answer. I am generally supportive of the current counternarcotics 
(CN) strategies in Afghanistan which address not only narcotics 
production and trafficking but also focus on licit alternatives to 
poppy, agricultural development, demand reduction and treatment 
programs. This strategy is about dismantling the links between drugs, 
corruption, criminality and insurgency that plague the Afghan people. 
The CN team in Afghanistan is also heavily vested in the development of 
self reliant and effective CN law enforcement agencies such as the 
Counter Narcotics Police of Afghanistan, which help break the 
narcotics-insurgency-corruption nexus and help connect the people of 
Afghanistan to their government. If confirmed, I will closely examine 
the regional strategy to ensure it supports ISAF's efforts in 
Afghanistan and addresses the public health menace this crop produces.
    Question. What changes, if any, would you make to those strategies 
if you are confirmed?
    Answer. I support efforts to work closely with our coalition 
partners and NATO allies to reduce, when appropriate, the number of 
national caveats inhibit associated with CN. I believe it is also 
important to begin to address the narcotics problem as a regional 
threat. When we are successful in our Afghan CN efforts, those involved 
in the trade will move their operations elsewhere, and we need to deny 
these traffickers safe haven across both Central and South Asia.
    Question. A number of officials in DOD and the Intelligence 
Community (IC) have called for investing significantly more resources 
in identifying and tracking the flow of money associated with the 
illegal narcotics trade. The objective would be to identify key 
individuals within Afghanistan, as well as individuals enabling the 
flow of money outside of Afghanistan. Comparable efforts have been 
undertaken by the Joint Improvised Explosive Device Defeat Organization 
against the flow of money and components for improvised explosive 
devices.
    What are your views on efforts to invest additional resources into 
identifying and tracking the flow of money associated with the illegal 
narcotics trade, both inside and outside Afghanistan?
    Answer. Cutting off access to this vital component of insurgent 
funding is an important part of a comprehensive counterinsurgency 
campaign. From my current position, it would be premature for me to 
evaluate the appropriate distribution of resources to this part of the 
mission, which is implemented in large part by USFOR-A with CENTCOM in 
an oversight role.
    I am aware that recent international community studies indicate 
narcotics account for more than half of insurgent financing. While the 
specific percentages/amounts are debatable, there is consensus that 
narcotics are a pillar of insurgent financial resources. This is 
especially true in the Eastern and Southern Provinces of Afghanistan. 
Finding the various financial sources and tracking money flows into the 
insurgency is absolutely critical to defeating it.
    Part of my role, if confirmed, will be to ensure appropriate 
oversight of the funding flows. This will require a highly integrated 
interagency effort at all levels. Tracking financial data and flow is 
not a traditional military skill set, but our operations-intelligence 
personnel can provide value-added to interagency organizations devoted 
to maintaining the picture on financial resources of the insurgency. 
Examples include the Drug Enforcement Administration-led Afghan Threat 
Finance Cell (ATFC) and the proposed law-enforcement support centric 
Trans-National Crime Support Center, which will contain the DOD 
Counternarcotics Support Center. Investing in these types of 
organizations will be the key to maintaining unity of effort and 
maximizing resources.
                    reintegration and reconciliation
    Question. Do you support offering incentives--such as employment 
and protection from reprisal--to low- to mid-level Taliban fighters who 
are willing to reintegrate with Afghan society and switch to supporting 
the Afghan Government?
    Answer. Yes. I believe that reintegration is an important element 
of a successful counterinsurgency campaign. As such, I support 
incentives that promote the confidence necessary for former fighters 
and their host communities to feel secure. The Afghan Peace and 
Reintegration Program utilizes a community-based approach that should 
result in job creation for all members of a community, to include 
former fighters. These incentives provide alternatives to fighting, as 
well as promote the reintegration of former fighters into local 
communities.
    Question. What is your assessment of the reintegration plan that 
has been developed by the Government of Afghanistan with ISAF 
assistance?
    Answer. I believe that the Afghanistan Peace and Reintegration 
Program provides the necessary framework to support success by 
empowering Provincial and District governments with national-level 
support. Further guidance is expected from the Afghan Government that 
will provide the detailed guidance necessary for implementation, which, 
if confirmed, I will look forward to reviewing.
    Question. In your view, what should be the redlines for any 
negotiations with the leadership of the Taliban on reconciliation?
    Answer. I would support a reconciliation process as long as it is 
Afghan-led. Those that reconcile must respect the Afghan constitution, 
renounce violence, and have no material ties or support for al Qaeda or 
its associates.
                        local defense initiative
    Question. President Karzai has approved a program called the 
Village Stabilization program that is designed to empower local 
communities to provide for their own security. President Karzai has 
previously expressed concern, however, that the program risks 
strengthening local warlords.
    What is your assessment of the Village Stabilization program?
    Answer. Having monitored the situation closely, this has been one 
of COMISAF's highest priorities as he has engaged President Karzai and 
others on a number of occasions in recent weeks on this issue. This 
program, now called Afghan Local Police (ALP) will enable the local 
population to take a more active role in, and significantly improve, 
local security. It is specifically designed to link the local 
population with district governance, enabling this through community 
outreach and shuras, as well as vetting and training a local defense 
force. It is critical that we link these efforts to central government, 
and importantly, to the local and regional-based ANSF capabilities to 
maximize effect and develop enduring support. By doing so, the local 
population is empowered while the Afghan central government's 
legitimacy is simultaneously strengthened. I am heartened by the recent 
progress, the result of Afghan Government leadership, discussion, and 
decision.
    Question. What concerns, if any, do you have about the program? If 
confirmed, how would you seek to address those concerns?
    Answer. I am aware of concerns others have expressed that these 
programs may create a dependency on the enabling coalition special 
forces (SF) rather than the government, as well as concerns that 
without proper training and oversight, these programs may create local 
militias that abuse military training and threaten local populations or 
even result in a greater militia that competes with uniformed ANSF.
    I expect that such problems can be avoided by executing this plan 
well: understanding the programs' potential strengths and weaknesses, 
focusing intelligence, and taking prudent mitigation measures, such as: 
(1) ensuring program sites and participants are properly chosen, 
vetted, and trained; (2) ensuring the program is well balanced--the 
district governance and local/traditional leadership must be empowered 
in the decisionmaking process; and (3) the enabling element must be 
stabilized on-site to provide continuity for the force in training, and 
focus on developing partnered relationships with ANSF units and key 
leaders. However, ISAF elements should only act as enablers and ensure 
the community does not become dependent upon them.
                 reconstruction efforts in afghanistan
    Question. In your view, what should be the respective roles of the 
military and the U.S. civilian agencies in reconstruction efforts in 
Afghanistan?
    Answer. The civil-military partnership is the key to establishing 
unity of effort in all our activities--respective roles should not be 
stove-piped, but integrated within this framework. Civil-military 
cooperation has been strengthened with the ongoing ``civilian surge'' 
of approximately 1,000 additional civilian officials to help build 
governance and development. The role of the civil-military team should 
be as trainers, advisors, and mentors, positioning the Afghans to take 
the lead in making Afghanistan more self-reliant. The civil-military 
team must continue to conduct mutually supporting stability and 
reconstruction operations. As an example, the Afghanistan strategy for 
roads and electrification is the result of a concerted effort between 
GIRoA, DOD, USAID, and other donors.
    Question. What improvements, if any, do you believe need to be made 
in the coordination of military and civilian efforts to provide 
reconstruction relief and development and to enhance the governance 
capacity of the Afghan Government?
    Answer. In my current position, I understand that CENTCOM continues 
to leverage the strengthening of civil-military cooperation and 
capacity, which has been increased through the civilian surge in 
Afghanistan. To improve coordination, equal emphasis must be placed on 
improving our interagency partners' capacity and resources to ensure 
their expert knowledge is leveraged. Also, departments and agencies 
must reassess mechanisms for funding large-scale infrastructure 
projects in Afghanistan by identifying the proper authorities for 
execution between key interagency partners such as DOD and USAID, as 
well as by working with Congress to define appropriate authorities.
          contract oversight and private security contractors
    Question. The committee's review of DOD private security contracts 
found that private security companies recruit from and frequently pay 
more than Afghan security forces. DOD reported in October 2009 that 
``private security contractors (PSCs) are, on average, paid more'' than 
the Afghan security forces. The challenges associated with recruiting 
and retaining ANSF personnel has been attributed, in part, to this pay 
differential.
    Do you agree that U.S.-funded contractors for private security 
should not be paid more than Afghan security forces?
    Answer. The discrepancy in payments to PSC vis-a-vis ANSF can be a 
disruptive influence to organizing and maintaining effective and 
professional security forces. We need to find ways to stop the 
unintended competition between the PSC and ANSF and I will support 
General Petraeus and the Afghan Government leadership in this effort.
    Question. If so, what steps would you envision taking to correct 
that problem, if confirmed?
    Answer. A possible solution is building comparative salary caps 
into our contracts to ensure the PSC and ANSF have salaries more 
closely aligned with each other. However, the effort must be cautious 
so as not to degrade the quality of those recruited.
    Task Force Spotlight and Task Force 2010 have missions to 
facilitate the capability for greater oversight, regulation, 
operational transparency, and visibility of the flow of contracting 
funds and goods below the prime contractor level. I believe these 
efforts will eventually minimize malign actor influence, improve PSC 
accountability, and ensure an improved distribution of funds to the 
Afghan people. Their conclusions may illuminate additional ways to 
mitigate the consequences of pay disparity.
    Question. In his November 2009 inaugural statement, President 
Karzai stated that within the next 2 years, he wanted ``operations by 
all private, national, and international security firms to be ended and 
their duties delegated to Afghan security entities.''
    Do you believe that we should be working toward the integration of 
Afghan private security contractor personnel, who are currently 
performing security for facilities and supply convoys, into the ANSF?
    Answer. Yes, but until the Afghan Government has this capacity, we 
will need to use legal, licensed, and controlled PSCs to accomplish 
appropriate missions. Like the ANSF, the PSCs also require high-quality 
employees who are not supportive of malign activities we will look for 
ways to support the Afghan Government's intentions to transition PSCs. 
We do not want to force integration at the expense of PSCs involved in 
security activities, but phase it in, over time, as security improves. 
I believe the transition from private security contractors to ANSF will 
occur gradually and at the direction and encouragement of the Afghan 
Government.
    Question. If so, what steps would you envision taking to bring 
about that result, if confirmed?
    Answer. ISAF and the Afghan Government are working together to 
develop courses of action to reduce reliance on PSCs. I would insist 
that security personnel being considered for integration into the ANSF 
flow through the same vetting process as current ANSF personnel. We 
must better leverage and integrate our intelligence community and 
investigative agency assets to provide our partners with actionable 
information. If confirmed, I will assess the cooperation between ISAF 
and the Afghan Government as they develop a phased program to work 
toward this transition, and I will continue efforts which support the 
build-up of the ANSF.
    Question. There is evidence that DOD security contractors are 
relying on local warlords and strongmen to provide men to staff their 
guard forces.
    If confirmed, what steps would you take to ensure that:

    a.  providers of manpower for security contractors are properly 
vetted; and
    b.  individuals we rely on as providers of manpower for security do 
not detract from the counterinsurgency mission?

    Answer. If confirmed, it will be one of my highest priorities to 
further investigate all aspects of this issue, but I have a broad 
appreciation for the basic principles at stake. To ensure proper 
vetting of PSCs, we must demand contractors immediately adhere to 
existing, specified contractual requirements. We have not, to date, 
adequately enforced current provisions requiring prime contractors and 
PSCs to report detailed census data, register their employees properly, 
or report serious incidents in an efficient manner. In fact, biometric 
data has been collected on only about 4,500 PSC employees, inhibiting 
proper vetting; this must be corrected quickly.
    Reducing the influence of malign actors and power brokers demands 
that we leverage our entire national intelligence and investigative 
apparatus to identify, include, and action discovered derogatory 
information that might influence or undermine the contracting process. 
We may need to request legislative flexibility in allowing us to 
terminate contracts for bad actors, or to expedite awarding contracts 
to those who demonstrate adherence to requirements and are committed to 
full partnering in our counterinsurgency campaign.
    To ensure that PSCs are not detracting from, or acting 
contradictory to the USFOR-A counterinsurgency mission directives, we 
will need to work closely with Afghan Government authorities to require 
all contractors to adhere to mutually accepted rules regarding the use 
of force, to enforce guidelines for escalation of force, and to abide 
by the principles of the Law of Armed Conflict. As our values and 
ethics require from our own security forces, contractors must 
understand and be held accountable for measured response, using force 
for only appropriate defensive purposes. To this end, we will need to 
work with the Afghan Government and support USFOR-A efforts to ensure 
PSC personnel are properly trained, regulated, inspected, and 
investigated when required.
              civilian casualties and rules of engagement
    Question. A critical objective of the counterinsurgency strategy is 
to provide protection to the Afghan people, including minimizing the 
risk of civilian casualties. ISAF has issued revised procedures aimed 
at reducing the risk to civilians from military operations.
    In your view, do the current rules of engagement (ROEs) in 
Afghanistan, for both NATO and U.S. forces, provide the necessary 
flexibility to allow forces to engage the enemy, protect themselves, 
and minimize the risk of civilian casualties?
    Answer. We must balance two moral imperatives--that of doing 
everything humanly possible to protect the innocent, the Afghan people 
caught up in a war where our enemy intentionally endangers the 
noncombatants. The second imperative is that we never impede on our 
troops' right to self-defense; once in a fight they must be able to use 
all necessary force, constantly balancing this requirement with our 
commitment to protecting the innocent. From my own review, the ROE are 
sound. At the same time, I endorse General Petraeus' ongoing review of 
the tactical directive, both its tone and its execution, to ensure we 
are giving the right intent to our troops in the field.
    Question. If confirmed, what general changes, if any, would you 
make to the current ROEs?
    If confirmed, I will add my assessment to any changes that are made 
or proposed in this important area by General Petraeus in his capacity 
as COMISAF and Commander, USFOR-A.
            special operation forces airlift in afghanistan
    Question. A number of published reports indicate that Special 
Operations Forces (SOF) in Afghanistan face severe shortfalls in the 
availability of rotary wing airlift support for both direct and 
indirect missions.
    What is your understanding of the current rotary wing airlift 
support available to SOF?
    Answer. I understand that rotary wing lift is in high demand across 
the CENTCOM AOR, but particularly in Afghanistan where the roads are 
poor, the terrain is mountainous, and the use of Improvised Explosive 
Devices has increased the risk to our forces, markedly. SOF have their 
own organic rotary wing lift, and are supplemented by lift from general 
purpose forces in accordance with Commander USFOR-A's priorities.
    Question. If confirmed, how would you prioritize requests from SOF 
for rotary wing airlift support from general purpose forces?
    Answer. If I am confirmed, I will continue to delegate authority to 
Commander of USFOR-A to prioritize available rotary wing assets in 
support of the mission in Afghanistan. This responsibility includes 
meeting the requirements of SOF, should their organic assets be 
insufficient for a specific mission. My expectation will be that the 
Commander USFOR-A will continue to allocate these finite assets to the 
most prioritized SOF and conventional missions in accordance with his 
mission priorities.
                                pakistan
    Question. What is your assessment of the threat to U.S. and 
coalition forces in Afghanistan posed by the Afghan Taliban, the 
Haqqani network, al Qaeda and other militant extremists finding 
sanctuary in the border region between Afghanistan and Pakistan?
    Answer. The strategic intent of these extremist groups remains 
imposing their will over the people through the removal of foreign 
forces from Afghanistan, preventing GIRoA from developing into an 
effective and legitimate government, and reinstating the Islamic 
Government headed by Mullah Omar. Weak or ungoverned areas along the 
Afghanistan and Pakistan border region provide an unequalled haven for 
these violent extremist organizations. These physical havens, under 
increasing pressure on both sides of the border, provide sanctuary for 
leadership, nodes for command and control, training, media operations, 
external operational planning and other functions essential to the 
syndicate of extremist groups that include al Qaeda, the Afghan 
Taliban, the Haqqani Network, and others. Each of these groups 
continues to pose a threat to U.S. and coalition forces, but also to 
Afghan and Pakistani stability.
    Question. What is your assessment of the current status of U.S.-
Pakistan military cooperation on confronting this threat?
    Answer. I understand that CENTCOM has made great strides over the 
past 18 months in building an enduring strategic partnership with the 
Pakistan military. Cooperation is particularly strong between U.S. 
military counterparts and the Frontier Scouts. As well, important 
relationships have been forged across other services as we support 
their efforts for a sustained counterinsurgency campaign. The Office of 
Defense Representative Pakistan has been an integral part of this 
effort and continues to work closely with the U.S. Ambassador, her 
country team, and Pakistan General Headquarters to confront our shared 
threats in the region. This maturation has been challenged by past 
mistrust and requires continued efforts to enhance teamwork.
                                 india
    Question. How does the fact that India is in the PACOM AOR while 
Pakistan is in the CENTCOM AOR affect the U.S.'s ability to treat the 
region's challenges holistically?
    Answer. Close coordination between CENTCOM and PACOM is a 
recognized condition for the regions' challenges to be addressed. 
Though some advantages could be realized with India and Pakistan in one 
AOR, PACOM and CENTCOM, with adequate coordination mechanisms to 
address U.S. interests in the region, can work symbiotically on long-
term security measures.
    Question. In your view, how do our military cooperation and 
engagement with India affect our efforts in Pakistan and Afghanistan?
    Answer. Pakistan, naturally, has concerns about any military 
cooperation between the United States and India, which affects both our 
relationship with Pakistan and, indirectly, or efforts in Afghanistan. 
However, we make clear to Pakistan that our military cooperation and 
engagement is not a threat to Pakistan and that this is not a zero-sum 
game. We have important relationships and strategic partnerships with 
both countries that are not at the expense of either.
                                  iraq
    Question. What is your assessment of the current situation facing 
the United States in Iraq?
    Answer. The security situation in Iraq has greatly improved since 
the height of sectarian violence there in 2007, but a number of 
significant challenges remain. Although great progress has been made in 
Iraq, it is not yet enduring , primarily because many underlying 
sources of political instability have yet to be resolved. Nevertheless, 
the fact that security trends have remained positive over the past year 
in the context of a significant drawdown of U.S. forces is testament to 
the growing capabilities and professionalism of the Iraqi security 
forces, who now lead in protecting the Iraqi population throughout the 
country. Their performance is particularly evident in this extended 
period of Iraqi Government formation, with enemy effectiveness 
continuing to decline, and the ISF serving as a protective windbreak 
between the Iraqi people and a merciless and increasingly desperate 
enemy.
    Question. What do you believe are the most important steps that the 
United States needs to take in Iraq?
    Answer. The combination of circumstances described above permits us 
to responsibly draw down, thinning our lines over the coming year, and 
transitioning to a civilian-led, long term, and mutually beneficial 
relationship between our two nations. The Iraqis still need our help as 
they continue to build their capabilities in order to protect against 
malign external influences seeking to foment ethno-sectarian violence 
and distrust.
    The responsible drawdown of our forces to 50,000 by September 1st 
is on track, as is the withdrawal of our equipment. The shift from our 
combat mission to stability operations will go forward thanks to the 
combined efforts of our military, the Iraqi security forces, and the 
Iraqi people themselves, while our DOS takes on a more long-term role 
in our relationship.
    Question. In your view, what are the major challenges that confront 
the Commander, U.S. Forces-Iraq?
    Answer. Both Generals Odierno and Austin, in whom I have great 
confidence, will be faced with supporting the establishment of a new 
government and establishing or strengthening relationships with Iraq's 
national leaders. The government formation process will span a period 
of months, which carries with it a measure of uncertainty and requires 
further vigilance in the security arena. The issues along the disputed 
internal boundary with the Kurdistan Regional Government remain 
unresolved and the associated Arab-Kurd tensions remain a significant 
challenge. The underlying economic, social, and security issues must be 
addressed to achieve an enduring solution. The establishment of 
constructive relationships between Iraq and its regional neighbors is 
required for long term regional stability. Diplomatic efforts to foster 
these relationships and counter destabilizing external influences will 
also be critical to U.S. interests in the region. The major challenge 
is managing and communicating risk during the responsible drawdown and 
transition to a civilian led mission thereby ensuring that internal and 
external violent forces do not threaten the security environment. The 
ongoing performance of the care-taker government in terms of providing 
security, oil infrastructure improvements and basic services (e.g. 
electricity, etc.) is heartening.
                     u.s. force reductions in iraq
    Question. Earlier this year, current U.S. Forces-Iraq (USF-I) 
Commander, General Raymond Odierno, stated that, based on the 
reasonably high voter turnout and low-level of violence during the 
Iraqi elections, U.S. forces are still on track to end its combat 
mission and continue the withdrawal of troops. According to General 
Odierno, ``Only a catastrophic event would keep us from doing that 
now.''
    Do you agree with General Odierno's assessment that the U.S. troop 
drawdown plan remains on track for August and beyond?
    Answer. Yes. I agree with General Odierno's assessment.
    Question. What, in your view, are the greatest remaining risks to 
the successful transition of the mission in Iraq and withdrawal of U.S. 
forces as planned and required by the Security Agreement, and what 
would you do, if anything, to mitigate these risks?
    Answer. The greatest remaining risks to the successful transition 
include continued communal rivalries across sectarian lines, the 
insufficient capacity of the Iraqi Government to provide for its 
people, violent extremist organizations, and destabilizing influence 
from external countries. These risks cannot be mitigated by USF-I 
alone. They will require a whole of U.S. Government and Iraqi 
Government approach. This would include adequate funding for the 
continued development of the Iraqi security forces and the tasks 
associated with the transition to a State Department lead in Iraq.
    Question. What actions, if any, do you think should be taken by 
U.S. forces to protect, or limit reprisals against, Iraqi nationals who 
supported U.S. forces during Operation Iraqi Freedom?
    Answer. To my knowledge, there is no pervasive hostility today in 
the general populace of Iraq toward the large number of Iraqis who 
supported the liberation of Iraq from Saddam's regime. Of course, al 
Qaeda in Iraq and other violent extremists have ordered reprisals 
against those they felt threatened them or their cause. To the extent 
that we can, we should help the Iraqi Government protect its people in 
the line with the governing documents of our relationship moving 
forward.
 consideration of united nations peacekeepers replacing u.s. forces in 
                             northern iraq
    Question. Unresolved political disputes in northern Iraq over 
security, boundaries, and distribution of oil revenues continue to pose 
a risk to continued progress toward a stable and self-sufficient 
nation. In this regard, current U.S. Forces-Iraq Commander General 
Raymond Odierno stated that United Nations peacekeeping forces may need 
to replace U.S. forces in northern Iraq to manage this risk.
    What is your assessment of the risk in northern Iraq and the 
concept of replacing U.S. forces there with U.N. peacekeepers?
    Answer. Currently, the Combined Security Mechanisms are in place in 
northern Iraq as a temporary measure to help provide stability. Joint 
forces composed of U.S., Iraqi, and Kurdish troops protect the 
population from insurgent attacks, and U.S. forces are often called on 
to mediate tensions between Kurds and Arabs. Moving forward, I would 
need to review the concept of replacing U.S. forces with U.N. 
peacekeepers, in consultation with the Commander, USF-I (COMUSF-I), as 
well as appropriate interagency counterparts, if confirmed.
               u.s.-iraq long-term security relationship
    Question. If confirmed, what actions, if any, would you take to 
ensure an effective and efficient transition from the current military 
mission through December 2011 to a long-term security relationship with 
Iraq?
    Answer. In the short- and mid-term, I will work with the 
interagency to continue to support the President's guidance and the 
objectives, support COMUSF-I's efforts for U.S. Embassy Baghdad's Joint 
Campaign Plan, and fulfill the commitments of our Security Agreement 
with the Government of Iraq. As U.S. military forces draw down in Iraq, 
I will work to support the U.S. Embassy in Baghdad's Mission Strategic 
Resource Plan as discussed in last week's Iraq Transition Conference. 
In the longer term, I will work to support U.S. commitments for Iraq's 
security and stability as expressed in the Strategic Framework 
Agreement. Using traditional security cooperation tools, we will 
fulfill our Foreign Military Sales commitments to the Government of 
Iraq and conduct other security cooperation engagements, while 
supporting Iraq's integration with its moderate Arab regional 
neighbors, in support of U.S. regional security objectives.
    Question. If confirmed, what actions, if any, would you take 
immediately or in the near-term to build a standard security 
cooperation relationship with Iraq?
    Answer. If confirmed, in the short and mid-term, I will work with 
the rest of the U.S. interagency to continue to support the President's 
guidance and the objectives of the USF-I/U.S. Embassy Baghdad's Joint 
Campaign Plan, and fulfill the commitments of our Security Agreement 
with the Government of Iraq. As U.S. military forces draw down in Iraq, 
I will work to support the U.S. Embassy in Baghdad's Mission Strategic 
Resource Plan as discussed in last month's Iraq Transition Conference. 
In the longer term, I will work to support U.S. commitments to Iraq's 
security and stability as expressed in the Strategic Framework 
Agreement. Using traditional security cooperation tools, we will 
fulfill our Foreign Military Sales commitments to the Government of 
Iraq and conduct other security cooperation engagements that support 
Iraq's security and stability, while supporting Iraq's integration with 
its moderate regional neighbors, in support of U.S. regional security 
objectives.
                 transition to lead u.s. agency in iraq
    Question. As the mission of U.S. military forces in Iraq changes 
and large numbers of troops begin to redeploy, responsibility for 
leading the planning and management of U.S. assistance to the 
Government of Iraq has begun to transition from the DOD to the DOS. The 
Commission on Wartime Contracting in Iraq and Afghanistan recently 
reported that ongoing planning for this transition ``has not been 
sufficiently detailed.''
    What is your understanding and assessment of the plans for this 
transition?
    Answer. From my current position, I understand that DOD and DOS 
have completed substantial work over the past year in support of 
transition efforts from military to civilian lead in Iraq. As recently 
as Friday, 23 July, CENTCOM hosted a conference held here in 
Washington, DC, to further develop transition planning. My assessment 
is that the interagency transition planning process is on track. I have 
also met with the prospective U.S. ambassador to Baghdad. If we are 
both confirmed by the Senate, we are committed to working together with 
General Austin and the Iraqi Government for the smoothest possible 
transition.
    Question. What is your understanding and assessment of the progress 
being made toward the completion of this transition?
    Answer. From my current position, I understand that significant 
progress is being made as DOD, DOS, and other agencies work in unison 
to implement a seamless transition. The Iraq Transition Senior Leader 
Conference held last week was a significant milestone in ensuring that 
all agencies work together.
    Question. In your view, what are the most significant challenges to 
the efficient and effective transition of these agency roles?
    Answer. Efficient and effective transition is predicated on the 
following two efforts: the development of Iraqi security forces that 
are capable of defending their population against internal threats and 
a strong civilian effort capable of sustaining the positive momentum 
gained over the last couple of years.
    These two efforts require adequate resourcing, as well as a 
coordinated transfer of the tasks necessary to support these efforts. 
It is particularly important that the DOS is resourced to assume lead 
responsibility.
    Question. If confirmed, what action would you recommend or take, if 
any, to deal with these challenges and ensure an efficient, effective, 
and timely transition?
    Answer. If confirmed, I will continue to work with the Commander of 
USF-I, the U.S. Ambassador, the interagency, and where necessary, the 
Government of Iraq to ensure that all of our transition objectives and 
tasks are executed in an effective and timely manner.
                         iraqi security forces
    Question. What is your understanding of the state of training and 
equipping of Iraqi security forces?
    Answer. Having monitored this issue closely from my current 
position, I believe the Iraqi security forces are functioning well as 
an internal security force and are progressing towards their minimum 
essential capability objectives. Within the Ministry of Defense, the 
Iraqi Army is functioning well as a counterinsurgency force and the 
Iraqi Navy is providing defense for both of the country's off-shore oil 
terminals. The Iraqi Air Force has shown significant improvements in 
accessions, training, and ground support. Within the Ministry of 
Interior, both the Federal Police and Oil Police have been deemed 
operationally capable, while the Provincial Police and Border Police 
have shown progress in performing their security functions. As we 
observe the Iraqi security forces performance, we can also see 
declining enemy coherence, an indicator of ISF effectiveness which is a 
direct outgrowth of their training.
    Question. What is your assessment of Iraqi security forces progress 
toward assumption of full responsibility for internal security?
    Answer. Monitoring the situation from my current position, I 
understand that the Iraqi security forces are steadily improving and 
increasingly capable of providing internal security, which has been 
especially evident during the extended period of Iraqi Government 
formation. Difficulties and challenges remain for Iraq. The Iraqis 
still need our help, however, as they continue to build their 
capabilities in order to protect against destabilizing external 
influences seeking to foment ethno-sectarian violence and distrust.
    Question. In your view, what is the importance, relative priority, 
and urgency, if any, of the Iraqi security forces developing the 
capability to defend its borders and airspace from external threats?
    Answer. Among my highest priorities if confirmed as CENTCOM 
Commander will be to enable the critical continuation of our 
responsible drawdown in Iraq, while recognizing the importance of an 
Iraq Security Force capable of defending its borders against external 
threats who would harm Iraq. CENTCOM will balance security assistance 
programs to ensure Iraq can continue to sustain its gains in 
counterinsurgency, while simultaneously building capabilities to defend 
its sovereign territory.
    Question. What is the appropriate role of U.S. forces, if any, in 
supporting the development of this capability with training, equipment, 
or other resources?
    Answer. U.S. and Iraqi forces have fought together for several 
years and have shared best practices throughout that time. Iraqis have 
proven the ability to lead operations effectively. The appropriate role 
for the United States at this time is to shift our assistance to one of 
advising and assisting the Iraqi forces and transition tasks to the 
U.S. Embassy, to CENTCOM, and to the Iraqi Government.
    Question. How would you characterize the performance of Iraqi 
forces in the conduct of security operations during and since the 
elections earlier this year?
    Answer. The Iraqi security forces give clear evidence of strength 
and competence, leading the protection effort nation-wide. Their 
performance is particularly evident in this extended period of Iraqi 
Government formation, with enemy effectiveness continuing to decline, 
and the ISF serving as a protective windbreak between the Iraqi people 
and a merciless and increasingly desperate enemy.
    Question. If confirmed, what action would you take, if any, to 
expand the development of logistics capabilities and a commitment to 
efficient management within the Iraqi security forces to ensure that 
the equipment they have been provided is maintained and ready to meet 
their security needs and protect the investment of billions of U.S. and 
Iraqi dollars over the years?
    Answer. I fully support the priority the Iraqis have placed on 
raising their logistics capability to a higher level. Our exceptional 
U.S. military logisticians provide the example and mentorship which is 
key to Iraqi security force leaders improving logistics capabilities.
    advise and assist brigades and military/police transition teams
    Question. In your view, does the size, structure, number, and 
operating procedures for U.S. Advise and Assist Brigades and Military 
and Police Transition Teams embedded with Iraqi security forces need to 
be changed in any way? If so, what would you recommend?
    Answer. While I cannot address this question in detail from my 
current position, I find the overall concept of the Advise and Assist 
Brigades and Military/Police Transition Teams that are in place provide 
us appropriate flexibility, partner capacity, and force protection for 
the evolving operational environment in Iraq. I have no concerns at 
this time, but will consult with General Odierno on this issue if I am 
confirmed.
    Question. What is your view of the potential transition of this 
mission to contractors?
    Answer. Beyond this potential transition, there is a broad 
imperative to periodically assess the performance of contractors 
supporting security operations of all types. Contractors continue to 
perform admirably in a variety of supporting roles in theater. They are 
often highly-skilled government retirees with experience in theater, 
and many of them possess considerable military and police skills. My 
task, if confirmed, would be to oversee the evaluation and 
implementation of oversight and management processes led by military 
leaders in the region.
    Question. What in your view is the appropriate distribution of 
responsibility and resources for the security assistance, train, 
advise, and equip mission between SOF and general purpose forces in 
Iraq?
    Answer. I would need to evaluate this issue, if confirmed, in 
consultation with the Commander, USF-I, as well as appropriate 
interagency counterparts, to make a judgment about the appropriate 
distribution of resources.
    Question. What is your assessment of how the Army is ensuring that 
general purpose forces are properly trained for the advise and assist 
or transition team mission, to include dissemination of ``lessons 
learned'' to incoming brigades and teams?
    Answer. Our Army is doing a tremendous job in providing trained and 
ready forces for Iraq.
    The Army adapted quickly to this change of mission and is meeting 
USF-I's requirements, and continues to improve based on unit feedback 
and USF-I recommendations. If confirmed, I would maintain the active 
ongoing dialog with our Military Services to ensure we properly train 
our servicemembers and their units for our remaining military tasks in 
Iraq.
                          iraq burden sharing
    Question. In your view, what is the appropriate role for the United 
States, and particularly of U.S. Forces-Iraq, in reconstruction 
activities in Iraq going forward?
    Answer. The U.S. and Iraq Strategic Framework Agreement (SFA) lays 
out a solid foundation for a long-term bilateral relationship, which 
guides U.S. and Iraqi actions based on mutual interests. With the SFA 
serving as a roadmap, the U.S. strategy for reconstruction activities 
integrates the efforts of the U.S. Embassy Baghdad, USF-I, and other 
U.S. and international partners. Provincial Reconstruction Teams (PRTs) 
promote the development of reconstruction activities and enhance 
provincial and local governments in becoming self-sufficient, 
responsive, transparent, accountable, and capable of meeting the needs 
of the Iraqi citizens. Drawdown planning for all PRTs is underway as 
USF-I prepares to facilitate a seamless DOS assumption of 
reconstruction and development activities.
    The Commander's Emergency Response Program (CERP) remains a key 
counterinsurgency tool for commanders to hold security gains and 
undermine insurgent influence in Iraq. As we drawdown, CERP will remain 
essential to support limited civil-military operations, such as 
humanitarian assistance, battle damage repair, and repair of minor 
municipal infrastructure, where it supports the counterinsurgency 
mission.
    Question. In your view, what capabilities or support should be the 
highest priorities for U.S. assistance to the Iraqi security forces?
    Answer. From my current position, I understand that the Iraqi 
Ministry of Defense (MoD), with the exception of logistics and 
sustainment, is on track to develop key capabilities prior to the 
redeployment of U.S. Forces in December 2011. In addition to logistics 
and sustainment, there may be MoD challenges in the areas of planning 
and budgeting, procurement, and information technology. The 
capabilities of police, border security, and naval forces are 
improving; however, still require assistance to conduct effective 
internal, border, and maritime security. Iraqi command and control 
capabilities and logistical support nodes require further development 
to sustain these operational efforts, as well. The Iraqi Air Force, 
because of its more extensive training requirements and equipment 
shortfalls, requires a longer-term commitment. If confirmed, CENTCOM 
will continue to work to provide the best support and sustainment of 
property purchased for the Iraqi security forces, consistent with U.S. 
Embassy Baghdad guidance.
    Question. In your view, what capabilities and support for the Iraqi 
security forces should be the sole financial responsibility of the 
Government of Iraq?
    Answer. Future Foreign Military Sales (FMS) that introduce new 
capabilities to the Iraqi security forces (such as F-16s) need to be 
funded by the Government of Iraq. The Iraqis have demonstrated a 
serious commitment to funding their security needs through major M1A1 
and C-130 programs, as well as the purchase of naval ships and air 
force training aircraft. Recognizing the fiscal realities in the United 
States and Iraq, and the common enemies we face, I will continue to 
advise our Iraqi partners to acquire equipment designed to meet their 
specific requirements. Overall, FMS to the Iraqi security forces should 
focus on building security for the Iraqi people, improving and 
protecting its critical infrastructure, and securing Iraqi borders 
against malign influence.
                      internally displaced persons
    Question. The U.N. estimates that some 500,000 have left their 
homes to find safer areas within Iraq.
    What is your assessment of the internally displaced persons (IDP) 
situation in Iraq and what impact, if any, does it have on the U.S. 
military objective in Iraq?
    Answer. The IDP situation in Iraq is a significant challenge for 
the Iraqi Government. The Government of Iraq has taken steps to support 
the return of Iraqis, and the IDP situation is improving. Due in large 
part to security gains, an increasing number of refugee families are 
returning. Recent efforts in line with the government's increased 
emphasis on national unity have been positive. The United States 
supports the Government of Iraq as it reaches out to its displaced 
citizens and provides a transparent presentation of services and 
benefits. If confirmed, I look forward to supporting our commander in 
Iraq in the full implementation of measures to help the Government of 
Iraq further increase its assistance to its refugees and IDPs.
    Question. Beyond working with the Iraqi security forces to improve 
the security environment in Iraq, do you believe that the U.S. military 
should play a role in addressing the internally displaced person 
situation?
    Answer. The DOS is responsible as the U.S. Government lead on this 
issue, and this includes our efforts to support internally displaced 
persons and refugees. As the U.S. military moves to establish a 
traditional security cooperation relationship with Iraq, our force 
posture and our resources will change. Until the end of 2011, U.S. 
Forces-Iraq will support the U.S. Embassy-Baghdad when requested in 
accordance with the U.S.-Iraq Security Agreement and within the 
limitations of the military means and capabilities available when any 
request is made.
                 religious minority communities in iraq
    Question. Public reports of targeted kidnappings and murders of 
non-Muslim religious leaders continue in certain parts of Iraq, most 
notably in the Ninewah region.
    In your view, are non-Muslim religious minorities in Iraq at 
significant risk of being the victims of violence as a result of their 
religious status? Are there any of these groups that are particularly 
vulnerable?
    Answer. The Iraq Constitution affords protection to minorities, and 
the Iraqi Government has made measured progress in ensuring their 
protection. Nonetheless, non-Muslim religious minorities throughout 
Iraq remain at risk of violence. Extremists and insurgent militant 
groups continue efforts to ignite ethno-sectarian violence through 
attacks on vulnerable populations, to include non-Muslim religious 
minorities, but have failed to reignite the cycle of sectarian violence 
that plagued the country in 2006 and 2007 due to increasingly capable 
Iraq Security Forces.
    Question. If so, what is the appropriate role for the U.S. military 
in addressing their vulnerability?
    Answer. The U.S. military's mission to advise and assist the Iraqi 
Government and ISF must continue as planned and we must remain 
committed to the terms of the Security Agreement and the Strategic 
Framework Agreement, specifically focusing on the rule of law. Of note, 
ISF has demonstrated most recently that they are increasingly becoming 
a more professional and competent force that is capable of handling 
Iraq's internal threats.
        u.s.-iraqi security forces command and control relations
    Question. What is your understanding of the lessons learned about 
U.S.-Iraqi command and control of combined operations over the last 
year and especially since the withdrawal of coalition forces from Iraqi 
urban areas?
    Answer. As I am not confirmed as the Commander, CENTCOM, I do not 
have the full picture to adequately address this question. I do fully 
support highly integrated efforts with our Iraqi partners, while noting 
that command and control in a combined environment brings with it 
considerable challenges. To address these challenges, it will be 
necessary to integrate efforts at national and provincial operations 
centers as well as combined joint tactical operations centers. I think 
the proof of how well this is working today is found in the strong 
performance of the Iraqi security forces in this transition period when 
a new government is not yet formed. Frankly, I have been impressed with 
their stoic, capable performance, a key indicator of effective command 
and control.
    Question. What concerns, if any, do you have about command and 
control relationships with Iraqi forces in combined operations, and if 
confirmed, what actions would you take, if any, to mitigate challenges 
or improve capabilities in this regard?
    Answer. I am not in a position to address this question at this 
time. Should I be confirmed, I will continue to assess the 
effectiveness of relationships and procedures in place and adjust if 
necessary.
 u.s. forces in afghanistan and iraq command and control relationships
    Question. Policies directing and guiding command and control 
relationships for U.S. unified commands and their assigned and attached 
forces are found in statute, regulation, and in joint doctrine. In 
March 2010, changes were made to command relationships in Afghanistan 
to address operational challenges attributed to insufficient command 
and control authority for U.S. Forces-Afghanistan over forces attached 
to or operating in its AOR.
    What is your assessment of the current command relationship 
structure for U.S. forces attached to or operating in the U.S. Forces-
Afghanistan and U.S. Forces-Iraq AORs?
    Answer. I believe the current command relationships, as modified 
over this last year, align our structure for successful prosecution of 
the campaign.
    Question. In your view, do the Commanders of U.S. Forces-
Afghanistan and U.S. Forces-Iraq have appropriate and sufficient 
command and control authority over all U.S. forces operating in 
Afghanistan and Iraq to ensure unity of command and unity of effort?
    Answer. Yes, I believe the proper command and control authorities 
have been established for both USFOR-A and USF-I commanders.
    Question. If confirmed, what changes, if any, would you request 
with respect to command and control relationships for U.S. forces 
operating in Afghanistan or Iraq?
    Answer. I am currently satisfied with the command and control 
relationships in Afghanistan and Iraq. If confirmed, I would not make 
any immediate changes.
    Question. In your view, what are the critical criteria that should 
be used to determine whether forces allocated to U.S. Forces-
Afghanistan or U.S. Forces-Iraq are provided under ``operational 
control'' versus ``tactical control''?
    Answer. The critical criteria to determine the appropriate command 
and control relationship for U.S. forces in both Afghanistan and Iraq 
is mission accomplishment; ensuring the relationship give the commander 
the authority he needs to accomplish the mission. A wide range of 
others criteria also have bearing in any individual case. I am 
satisfied that in both Afghanistan and Iraq the current arrangements 
are adequate to ensure Generals Petraeus and Odierno have the authority 
they require.
          impact of iraq drawdown on special operations forces
    Question. As conventional forces continue to draw down in Iraq, the 
requirement for SOF is projected to remain the same for the foreseeable 
future. However, SOF rely heavily on their conventional counterparts 
for many support and enabling functions including airlift, medical 
evacuation, resupply, and intelligence, surveillance, and 
reconnaissance.
    What is being done to make sure SOF are adequately supported in 
Iraq as the drawdown progresses?
    Answer. CENTCOM has begun the responsible drawdown of forces from 
Iraq, working to sustain the hard-won security gains achieved since the 
summer of 2007 and placing on track to have 50,000 troops in Iraq after 
this August. If confirmed, a key priority will be to work closely with 
COMUSF-I to protect and facilitate SOF in Iraq. The disposition and 
composition of our conventional forces are specifically designed to 
sustain security and logistical requirements. Our Advisory and 
Assistance Brigades also possess the combat power to enable SOF 
operations across the battle-space, and logistical hubs are distributed 
to ensure responsive medical evacuation and other logistical needs for 
these forces.
    Question. Are we assuming additional risk in Iraq by moving some of 
these enablers to Afghanistan? If so, in what areas?
    Answer. No. I understand that we are assuming no additional risk to 
SOF in Iraq with respect to repositioning some enablers to Afghanistan.
                        confronting the militias
    Question. Do you believe that the Iraqi Government is taking the 
steps it must to confront and control the militias?
    Answer. Yes. The Iraqi Government has worked to manage the 
challenges presented by Sunni and Shia militia groups through a 
combination of security operations and engagement policies such as 
integrating the Sons of Iraq, and reconciliation initiatives with 
Muqtada al-Sadr's Jaysh al-Mahdi militia. However, some terrorist 
groups are more difficult for the Iraqi Government to target because of 
their covert nature and backing by Iran.
    Question. If confirmed, what role would you expect U.S. forces to 
play on this issue?
    Answer. The Commander, CENTCOM, plays an important role in setting 
broad conditions to prevent militia groups from being supported by 
regional actors. Additionally, if I am confirmed, I will work with the 
DOS and USF-I to foster inclusive political processes, to support the 
Iraqi Government's anti-militia policies--using U.S. intelligence 
capabilities, for example--and to continue to train, advise, and assist 
Iraqi security forces.
                       counterinsurgency doctrine
    Question. According to Field Manual 3-24, the new counterinsurgency 
manual, ``20 [soldiers or police forces] per 1,000 residents is often 
considered the minimum troop density required for effective 
counterinsurgency operations.'' Baghdad alone, according to doctrine, 
requires a force of 120,000-130,000 personnel to meet the minimum 
requirement. However, the increase in U.S. and Iraqi forces for Baghdad 
only provided for about 80,000 security forces.
    Do you believe that 80,000 U.S. and Iraqi troops has been and 
remains sufficient and if so, why?
    Answer. This is an issue that I will address in detail with the 
Commander, USF-I, if I am confirmed. The counterinsurgency threat in 
Iraq has considerably reduced since its peak levels in mid-2007. 
Additionally the Iraqi security forces are functioning well as an 
internal security force. Based on their current performance and our 
assessment of the security situation, the Iraqi security forces are 
well placed to assume the security role across all of Iraq, including 
Baghdad, within their current force structure in conjunction with 
continued USF-I advice and assistance.
    Question. What is your understanding of the status and adequacy of 
the risk assessment and mitigation plan associated with this deviation 
from doctrine?
    Answer. The USF-I force remaining to provide an advise and assist 
function provides appropriate risk mitigation. I am confident that the 
improved security situation, combined with the capabilities of the 
Iraqi security forces and the presence of remaining USF-I forces 
mitigates risk to an acceptable level, but I will remain alert to any 
indications to the contrary.
                                  iran
    Question. What, in your assessment, are Iran's goals with respect 
to Iraq's stability and security?
    Answer. Iran's motives are not entirely clear due to the nature of 
its government, though it appears that Iran seeks through its actions 
to influence the formation of the Iraq Government, to distance Iraq 
from its Arab neighbors, and to weaken the relationship between Iraq 
and the United States.
    Question. What, in your assessment, are Iran's goals with respect 
to Afghanistan's stability and security?
    Answer. Iran seeks the removal of coalition forces, particularly 
U.S. forces, along its eastern border, expanded influence among Afghan 
Government officials and its populace, and maintenance of a benign, 
friendly Afghanistan, increasingly reliant on Iran for trade, 
economics, reconstruction and cultural issues.
    Question. What options are available to the United States and its 
allies for influencing Iran's activities towards Iraq and how could 
CENTCOM play a role in that effort?
    Answer. The United States, its allies, and regional partners can 
counter Iranian influence in Iraq by establishing strong diplomatic, 
political, economic, and security relationships with Iraq and 
integrating Iraq into the international community. These efforts will 
allow Iraq to achieve national goals without support from Iran. The 
relationships also provide partner nations visibility on Iran's 
influence activities and provide an engagement platform with the Iraqis 
to diminish Iran's influence. Bilaterally, the U.S.-Iraq Strategic 
Framework Agreement serves as the foundation for a long-term 
cooperative relationship between our two nations and gives us access to 
deter Iran's influence. Additionally, Turkey's diplomatic and economic 
links are heartening and portend well for Iraq determining its own 
future, unhindered by Iran's designs.
    Question. What, in your view, are Iran's military goals in the 
region?
    Answer. Iran's foremost military goal is to ensure the survival of 
the regime. Another military goal is to maintain a power projection 
capability to influence other nations in the region, which may include 
the development of nuclear-weapons capability, but certainly includes 
proxy terror organizations.
    Question. What options do you believe are available to the United 
States to counter Iran's growing military and economic influence in the 
region and how could CENTCOM play a role in countering this influence?
    Answer. Options to counter Iran's growing influence in the region 
include: enhancing international diplomatic cooperation; influencing 
Iran to adopt policies favorable to stability; undermining internal, 
regional, and global support for malign Iranian policies and 
activities; and controlling regional escalation.
    I am aware that CENTCOM has established a Regional Security 
Architecture (RSA) with Gulf partners to advance shared interests and 
to build our partners defensive capabilities so they can resist Iranian 
intimidation.
    Question. Could a protracted deployment of U.S. troops in Iraq 
strengthen Iran's influence in the region?
    Answer. No. Iran's influence will not be strengthened with an 
extended U.S. presence in Iraq if regional governments and their 
respective populaces recognize the presence of U.S. troops is to 
improve the security and stability of Iraq.
    Question. Iran is clearly going to remain a significant factor in 
the CENTCOM AOR. One of the critical objectives for the United States 
in this region is to determine how to achieve a more stable situation 
with respect to Iran for the future.
    How do you believe CENTCOM could best participate in achieving a 
stable relationship with Iran in the future?
    Answer. CENTCOM can participate as part of whole-of-governments 
efforts in partnership with U.S. Allies and partners in the region. The 
presence of CENTCOM forces in the region is a visible reminder of U.S. 
power, which is one element of the dual track approach to bring Iran 
back into the responsible community of nations.
                          united arab emirates
    Question. The United States has been working in recent years to 
strengthen security cooperation with the United Arab Emirates (UAE) and 
other nations participating in the Gulf Security Dialogue.
    What do you believe are the potential benefits of our security 
cooperation with the UAE?
    Answer. The U.S.-UAE cooperative partnership is the model for the 
region and is getting stronger every day. Our enduring relationship is 
key to regional security and stability because, by working together, we 
disrupt violent extremist organizations, deter potential adversaries, 
and defeat those who use proxies or malign influences against the U.S. 
or other partners in the region.
    With the U.S.-UAE enduring partnership evolving, UAE continues to 
take a leadership role, with the United States, in supporting other 
partners. UAE support has enabled other regional partners to become the 
theater focal point to train the trainers which is critical to building 
the Afghan security and police forces. The UAE also assists its 
neighbors in developing the capability to conduct counterterrorism 
operations that will eliminate safe havens from which terrorists train 
and operate.
    By engaging with UAE and like-minded nations, we send a reassuring 
message to our friends in the region and a cautionary message to those 
who practice aggressive, destabilizing activities.
    Question. What do you believe is the appropriate role for CENTCOM 
in advancing U.S. security interests and cooperation with the UAE?
    Answer. CENTCOM must continue to partner with the UAE. The 
continued willingness of the UAE to support the presence of U.S. forces 
at key UAE locations, such as Al Dhafra Air Base, Fujariah and Jebel 
Ali Navy Bases, and Minhad Air Base, provides critical access and 
support for CENTCOM's operations across the region. We train and 
exercise together, which builds trust and confidence, so we can operate 
together as one team at the tactical and operational levels.
    CENTCOM should also continue to support the UAE's efforts to 
enhance regional security. The UAE's Air Warfare Center is already the 
acknowledged model of a regional center of excellence. The UAE's 
willingness to host the Integrated Air and Missile Defense Center of 
Excellence is another initiative in which CENTCOM and the UAE will 
cooperate. The Center of Excellence will be the regional hub for air 
and missile defense doctrine discussions, simulated exercises, and 
improved partnership capacity, while promoting regional security and 
stability against air and ballistic missile threats. The UAE Air Force 
has also performed well at the USAF Red Flag exercise, demonstrating a 
commendable level of capability and strengthening deterrence in the 
Gulf.
                                 yemen
    Question. Prior to the attempted Christmas Day bombing of a U.S. 
bound airliner by al Qaeda in the Arabian Peninsula (AQAP), the U.S. 
Government had a robust security assistance program with Yemen. Some 
observers, while supportive of U.S. security assistance to Yemen, have 
suggested that the problems being confronted by the Government of Yemen 
cannot simply be addressed with the provision of additional security 
assistance.
    What is your assessment of the situation in Yemen?
    Answer. Yemen is struggling to address a number of challenges to 
its governance in four areas--Houthi rebels, southern oppositionists, 
al Qaeda in the Arabian Peninsula (AQAP), and economic deterioration. 
Six years of intermittent conflict in northwest Yemen between the 
Yemeni Government and Houthi rebels threatens stability. Although 
currently under a fragile ceasefire, there has been a recent increase 
in violence between the Houthi and pro-Government tribes. In the south, 
an opposition movement threatens Yemen's unity, although this movement 
currently lacks cohesive leadership and a central message. ``Al Qaeda 
in the Arabian Peninsula'' has a haven in Yemen, taking advantage of 
weak central government control in Yemen's remote, tribal regions, and 
the Yemeni Government's preoccupation with other existential regime 
threats (Houthi, southern opposition). Yemen's economy is failing, 
marked by high unemployment and exacerbated by poor security, dwindling 
oil reserves, and depleted aquifers. This challenges Yemen's ability to 
provide necessary services to its people without significant regional 
and international donor support.
    While President Salih is able to manage these threats sequentially, 
a combination of spikes in the challenges listed above could stretch 
Sanaa's resources and military/security services to the breaking point. 
To date, Salih has managed these crises through negotiation and by co-
opting his opponents, but there are signs his ability to exert control 
is waning. A newly-inked National Dialogue agreement between the ruling 
General People's Congress party and the opposition Joint Meeting 
Parties holds a glimmer of hope for political reconciliation. While 
this is a positive step in reanimating the Yemeni political system, it 
remains too early to assess its ultimate outcome, given years of 
mistrust between the Yemeni Government and a segment of its 
constituents.
    Question. Do you believe U.S. objectives in Yemen should be 
strictly focused on counterterrorism military and intelligence support 
to the Government of Yemen or is it necessary to broaden the focus to 
include humanitarian and other development activities?
    Answer. No. While U.S. objectives in Yemen primarily address the 
growing regional and homeland terrorism threats presented by AQAP, this 
cannot be our sole focus. Yemen is looking for a long-term partner and 
if I am confirmed, I will work to solidify such a relationship. We must 
work with Yemen to not only build military and intelligence capacity, 
but we must also encourage, and where possible, provide development, 
humanitarian and technical assistance. This should be done through 
existing organizations such as the U.N., the Friends of Yemen process, 
World Bank, IMF and the international and regional donor community. The 
assignment of political, economic and social reform metrics is 
essential to proper distribution and application of assistance. A long-
term whole-of-government commitment to Yemen and its people, especially 
activities that assist Yemen in providing good governance and services 
to its people, will be most effective in bolstering government 
capacity, increasing stability and denying havens to extremists.
                     al qaeda and associated groups
    Question. Within the CENTCOM AOR, where do you consider the 
greatest terrorist threats from al Qaeda and al Qaeda-affiliated groups 
to be located?
    Answer. The greatest al Qaeda and al Qaeda-affiliated terrorist 
threats emanate from Pakistan, Afghanistan, and Yemen.
    Question. Which of these threats do you believe constitute the 
highest priority for efforts to counter al Qaeda's influence and 
eliminate safe havens for al Qaeda and affiliated groups?
    Answer. Pakistan's tribal areas remain the greatest danger as these 
areas are strategic footholds for al Qaeda and its Senior Leaders, 
including Usama bin Laden and Ayman al-Zawahiri. From Islamabad to New 
York, from east Africa to Europe, this area has hatched al Qaeda's 
murderous designs. Although al Qaeda Senior Leaders are under 
considerably more pressure in Pakistan than in previous years, the 
tribal areas of Pakistan remain key to extremist efforts to rally 
Muslim resistance worldwide. The tribal areas are home to al Qaeda 
training and media hubs, which al Qaeda uses to maintain relevance in 
Afghanistan, Pakistan, Yemen, and globally as well. Additionally, the 
tribal areas provide a haven to formulate attack plans and disseminate 
propaganda. However, al Qaeda tactical support to insurgents and 
extremists in Afghanistan, Pakistan, and Yemen from the tribal areas is 
minimal, with most of the actual fighting done by groups such as the 
Afghanistan Taliban, Tehrik-e Taliban, Haqqani, ``al Qaeda in the 
Arabian Peninsula,'' and more recently, al Shabaab.
                       former soviet union states
    Question. Several former Soviet states have played roles in 
supporting the U.S. and coalition forces.
    What is your assessment of current U.S. military relationships with 
these nations, including Uzbekistan, Tajikistan, and Kyrgyzstan?
    Answer. My assessment is that in Central Asia, CENTCOM has opened 
new and encouraging opportunities for engagement with Uzbekistan, 
Kyrgyzstan, Tajikistan, and Kazakhstan by cooperating to establish the 
Northern Distribution Network as a supply route to Afghanistan, which 
will also serve to further future economic integration and stability. 
Strengthening our relationships greatly aids our cooperation on other 
issues, such as counterterrorism and counternarcotics. In similar 
fashion, CENTCOM is reaching out to Turkmenistan, advancing our 
partnerships in Central Asia, doing so transparently to avoid any 
misunderstanding of our motives.
    Question. What security challenges do you see in this portion of 
the CENTCOM AOR?
    Answer. Narcotics, arms trafficking, and smuggling are 
transnational threats in the region. These threaten legitimate commerce 
and the flow of strategic resources, damage societies, and often 
benefit terrorist networks. The proliferation of material for weapons 
of mass destruction, associated delivery systems and the spread of 
technical expertise is another concern in the region.
    Following through on U.S. commitments to sustaining and securing 
prosperous and capable governments in this region will contribute 
immensely to the security of the Central Asian countries, especially 
those immediately bordering Afghanistan. Al Qaeda and its associated 
violent extremist organizations are, of course, the highest-priority 
terrorist threats to the states in the region, as well as to the United 
States and many of our allies around the world. There is considerable 
concern about the lack of sustainable economic development, which 
translates into a serious security concern, for without economic 
opportunity, poor and disenfranchised communities can serve as hotbeds 
for the spread of violent extremism. The countries of Central Asia 
offer abundant opportunities for building security and economic 
partnerships and for pursuing common interests.
                                somalia
    Question. While CENTCOM has the lead for counter piracy operations 
off the coast of Somalia, U.S. Africa Command has the lead for any 
military operations in Somalia.
    If confirmed, how do you envision managing this critical seam 
between the two geographic combatant commands (COCOMs)?
    Answer. A range of mechanisms are already in place to mitigate this 
critical seam, not just for counter piracy operations, but for littoral 
security, illicit trafficking, combating militancy, and developing 
partner capacity. Several standing Memoranda of Understanding between 
the two COCOMs regulate shared operational concerns; the respective 
staffs maintain close working relationships; and embedded personnel are 
exchanged regularly. If confirmed, I would assess whether these 
mechanisms are in fact sufficient or need to be enhanced. Further, I 
will ensure all diplomatic, U.S. Africa Command and CENTCOM efforts are 
characterized by a strong spirit of collaboration on my part.
    Question. What impact, if any, does Somalia have on the CENTCOM 
AOR?
    Answer. Somalia is a haven which has allowed a number of al Qaeda 
individuals, and the al Qaeda associated insurgent group al-Shabaab, to 
operate a continuously active training camp program which constitutes a 
threat to the Transitional Federal Government and to the region in 
general. Lack of governance allows piracy to thrive, with attendant 
demand on CENTCOM maritime assets. Additionally, Somali refugees in 
Yemen complicate Yemeni Government efforts to achieve stability and 
good governance.
           counter piracy operations off the coast of somalia
    Question. In the past 2 years, there have been a disturbing number 
of pirate attacks off the coast of Somalia--some ending in death and 
others ending in the payment of ransom. The shipping lanes off the 
coast of Somalia are some of the most economically and strategically 
important in the world. CENTCOM is now well into its second year of the 
counter piracy mission off the coast of Somalia.
    What is your assessment of the mission thus far?
    Answer. The effort of the international community is yielding 
positive results in the Gulf of Aden (GOA), where attacks have 
decreased since their spike in 2008. Concerned governments, agencies, 
militaries and the international maritime community meet regularly to 
address the evolving challenges of piracy. The increase in 
international presence and continued encouragement of the merchant 
community to adopt best practices has helped to stem the tide of 
piracy. Pirates, however, continue to adapt to the pressures of the 
international community by modifying their operating areas and tactics. 
If I am confirmed, I will continue to work with international partners 
to ensure our practices adapt faster than those of pirates and 
recommend, where needed, modifications to current international laws 
that may hinder our efforts.
    Question. In your opinion, how long should we continue the current 
mission as constituted and at what point should we consider a change to 
the strategy?
    Answer. The mission should continue as long as it supports U.S. and 
international objectives for countering piracy. If I am confirmed, 
CENTCOM will continually assess our whole-of-governments strategy and 
make recommendations to our partners where needed to checkmate this 
dangerous, disruptive activity.
    Question. In your opinion, what is the most appropriate maritime 
strategy in this region of the world, given the threats of weapons 
trafficking, human trafficking, and piracy?
    Answer. Our most appropriate maritime strategy is to build 
international collaboration. U.S. Maritime presence in international 
waters is an enduring influence and can, in league with other concerned 
nations, deter the ambitions of regional aggressors, prevent illicit 
activity, foster and sustain cooperative relationships, and prevent or 
mitigate disruptions and threats. We need to encourage regional states 
to have their own capacity to govern their territorial waters and exert 
that governance into the international waters beyond their territories.
                                 israel
    Question. While Israel is not part of the CENTCOM AOR, it does play 
a role in the Command's AOR.
    In your assessment, what are the most significant threats facing 
Israel in the Middle East?
    Answer. Although Israel is not in the CENTCOM region, progress in 
the Middle East Peace Process has an effect on advancing U.S. interests 
in the region. With respect to the threats Israel faces, the gravest is 
the prospect of a nuclear-armed Iran. Iran's nuclear weapons program, 
it should be noted, confronts many nations in CENTCOM's AOR with the 
same threat. Despite significant pressure from the international 
community, the Iranian regime continues to take steps that are seen by 
many to be associated with the development of a nuclear-weapons 
program. Because the Iranian nuclear-weapons program would not only 
present a threat to Israel but would also present a threat to our 
partners in the region and to the interests of the United States, we 
must work closely with many nations to check the Iranian efforts to 
threaten and destabilize the region. Other significant threats include 
a combination of Iranian and Syrian proxy elements, Lebanese Hezbollah, 
and Palestinian rejectionists such as Hamas and Palestinian Islamic 
Jihad (PIJ).
    Question. The Iraq Study Group report suggested that one of the 
most significant hurdles to broader stability in the Middle East was a 
final status agreement between the Israeli and Palestinian Governments.
    Do you agree with this conclusion of the Iraq Study Group? Please 
explain your answer.
    Answer. Clearly this conflict has an enormous effect on the region 
and sets the strategic context within which CENTCOM operates. 
Specifically, the conflict enables state sponsored terrorism and 
instability in our region by providing a common enemy for extremist 
ideological propaganda. Additionally, regional stability would be 
significantly enhanced if we could garner greater cooperation within 
the region between Arab and Israeli Governments on mutual security 
concerns like the Iranian nuclear program. However, moderate 
governments in our region are not likely to step out and begin 
cooperative engagement with Israel until this issue is resolved.
                                 egypt
    Question. Despite being on the African continent, Egypt remains 
within the CENTCOM AOR. Egypt has been criticized for its perceived 
failure to act along the Egypt-Gaza border to counter the smuggling 
threat posed by cross-border tunnels. Egypt has also played an 
important role, however, in ensuring peace on the southern border of 
Israel.
    What is your assessment of the role Egypt plays with respect to 
regional stability?
    Answer. Egypt continues efforts to maintain and enhance stability 
in the Middle East though Cairo's leadership role has changed since the 
days of Camp David. In the past two decades, the Gulf States have 
gained prominence politically and militarily largely through oil 
revenue. Egypt has looked inward in some respects in recent years, 
while remaining focued on Israel, the Nile Basin, and Africa writ 
large. Egypt has been less engaged, by comparison, with the rest of the 
Middle East. Today, Egypt rarely deploys its forces to any of its 
Middle Eastern neighbors for bilateral and multilateral exercises, 
though its moral weight and leadership role can still be felt 
throughout the region.
    Egypt's role on the African continent continues to ascend. 
Including the Nile Basin, Egypt regularly deploys hard and soft power 
across Africa. Recent examples include peacekeepers in Sudan and the 
Democratic Republic of Congo. Egyptian diplomats are actively engaged 
in the conflict between North and South Sudan, the ongoing disputes 
over Western Sahara, and in the Horn of Africa between Ethiopia, 
Somalia and the separatist movements within Somaliland.
    Question. What is your assessment of the U.S.-Egyptian military-to-
military relationship?
    Answer. Egypt receives the second largest allocation of Foreign 
Military Financing (FMF) at $1.3 billion. Egypt remains sensitive over 
U.S. conditions on FMF spending, and concerned over a perceived 
imbalance between Egypt and Israel.
    Egypt has capitalized on international military education training 
for three decades, including the professional development of many of 
Egypt's next generation of senior leaders. Egypt's biennial 
multilateral BRIGHT STAR exercise now involves modern threat scenarios 
linking together all participants. I view these positive trends as an 
opportunity for Egypt to continue to strengthen its traditional role as 
a key player in regional affairs and stability.
                  united nations peacekeeping missions
    Question. Within the CENTCOM AOR there are three U.N. peacekeeping 
operations. The United States contributes financially to all of these 
missions and on a limited case-by-case basis provides U.S. military 
personnel in the form of military observers or staff officers. Chairman 
of the Joint Chiefs of Staff, Admiral Michael Mullen, in response to 
advanced policy questions to the Committee indicated that ``[United 
Nations] peacekeepers help promote stability and help reduce the risks 
that major U.S. military interventions may be required to restore 
stability in a country or region. Therefore, the success of these 
operations is very much in our national interest.'' Further, as stated 
in the most recent Quadrennial Defense Review, ``America's power and 
influence are enhanced by . . . maintaining interactions with important 
international institutions such as the United Nations.'' In testimony 
before the Committee on Foreign Affairs of the House of Representatives 
on July 29, 2009, the U.S. Ambassador to the U.N. stated that the 
United States ``is willing to consider directly contributing more 
military observers, military staff officers, civilian police, and other 
civilian personnel--including more women I should note--to U.N. 
peacekeeping operations.''
    In your view, would an increase in the number of U.S. military 
personnel assigned to U.N. peacekeeping missions in the CENTCOM AOR 
help you advance the theater campaign plan?
    Answer. While this is not an issue that I am ready to fully assess 
as I am not the Commander, CENTCOM, there are many important factors to 
balance in making such an assessment, including the ongoing U.S. 
military commitments and engagements in the area and perceptions in the 
AOR that would result from an increase in U.S. Peacekeepers. I would 
need to study the issue further to ensure we did not address one issue 
but inadvertently create additional issues.
    Question. If confirmed, what would be your intentions regarding 
support to peacekeeping missions in the CENTCOM AOR?
    Answer. I would continue the current levels of support to the 
international forces operating in the CENTCOM region, closely 
coordinating all efforts through the Joint Staff and policy experts to 
maintain stability and impartiality in this part of the world. U.S. 
activities in the area support U.N. objectives, especially in promoting 
peace and stability in the region. An example of that is the CENTCOM 
support provided to the Lebanese Armed Forces, increasing their 
capabilities and capacities. I would also welcome reviews that examine 
where efficiencies may be realized in those peacekeeping missions.
                                lebanon
    Question. Over the past 5 years, the United States has provided 
over $500 million in security assistance to the Government of Lebanon.
    In your view, what is the appropriate role for CENTCOM in Lebanon?
    Answer. The component of CENTCOM partner with the Lebanese Armed 
Forces at the operational level and below to develop capabilities that 
build forces to maintain internal stability and protect borders. I 
support and, if confimed, will continue to drive CENTCOM partnership 
with the Lebanese Armed Forces in developing the following seven 
capabilities: border defense and security, close air support and 
precision delivery, special operations, establishment of a national 
defense secure-communications architecture, enhanced protected 
mobility, improved military training system and facilities, and 
development of a military logistics support architecture. This will not 
be a quick process, but CENTCOM and Lebanon have a mutually-agreed upon 
framework by which we can program our investment, exercises, 
activities, and engagements.
    Question. What are the U.S. national security interests in Lebanon?
    Answer. In my view, our interests in Lebanon are twofold. First, we 
must help Lebanon maintain a democratic government with fair 
representation from each of Lebanon's eighteen confessionals. Our 
second interest is Lebanon's sovereignty, which is challenged by the 
destabilizing activities of Hezbollah.
    Question. The current coalition government in Lebanon includes 
Hezbollah, a designated foreign terrorist organization under U.S. law.
    Given the involvement of Hezbollah in the Lebanese Government, what 
do you believe to be the appropriate level of engagement with the 
Lebanese Armed Forces?
    Answer. CENTCOM's engagements should be primarily focused at the 
operational level and below with the Lebanese Armed Forces, consistent 
with established U.S. policy. Our current focus on mutually developing 
the Lebanon's capabilities (described above) is the means to accomplish 
this end.
    Question. Do you believe the focus of U.S. security assistance 
should be on building the counterterrorism capabilities of the Lebanese 
Armed Forces or more broadly focused on building the institution of the 
Lebanese Armed Forces writ large?
    Answer. The Lebanese Armed Forces remains a functionally apolitical 
institution. I believe it would be productive to focus broadly on 
building capabilities in the Lebanese Armed Forces to provide an even-
handed counterweight to the influences of Syria and Hezbollah. 
Appropriately, counterterrorism is one of the Lebanese Armed Forces' 
four stated missions, along with defending and securing its borders, 
providing internal security and stability, and supporting social 
development. If confirmed, I intend to continue the CENTCOM focus on 
developing capabilities within and across each mission to include the 
use of Foreign Military Financing, International Military Education and 
Training, section 1206 funding, and other security assistance 
investments.
    A strong and effective Lebanese Armed Forces provides a pillar of 
stability for the Government of Lebanon and its citizens to lean upon, 
as demonstrated in the 2007 Nahr al-Bared conflict. Due in part to 
CENTCOM's security assistance being distributed broadly across the 
Lebanese Armed Forces, these forces had the resources and expertise to 
conduct this operation which effectively integrated elements across 
each of its four missions.
                              saudi arabia
    Question. What is your assessment of the U.S.-Saudi military-to-
military relationship? What are the pluses and minuses of this 
relationship?
    Answer. It is my assessment that the U.S.-Saudi Arabia military 
relationship is strong. Since 2008, the United States has expanded 
cooperation with the Saudi Arabian security establishment, adding to an 
already robust security cooperation program. CENTCOM established an 
Office of Program Management to train, equip, and advise the Saudi 
security forces that protect Saudi Arabia's critical energy 
infrastructure. It is important to our national interests that we 
continue to engage broadly with the Saudi military and to strengthen 
our cooperation in such vital areas as air and missile defense, 
ballistic missile early warning, critical infrastructure protection, 
and our efforts to degrade and disrupt extremist elements in the 
region.
    The scale of Saudi Arabian capacity provides significant 
opportunity for large-scale combined exercises like Red Flag and the 
Friendship series as well as large numbers of other bilateral 
engagements. The Saudis have expended great effort in expanding 
participation in regional military exercises and programs such as the 
annual Eagle Resolve and Bright Star exercises.
    Moreover, the Kingdom of Saudi Arabia is a powerful influence in 
the region that is committed to defeating al Qaeda and its effective 
program for reintegration of dissidents serve as valuable models for 
other states in the region. An increasingly shared appreciation of the 
enemy threats to regional stability gives me confidence that we have a 
solid basis for even stronger military-to-military cooperation in the 
future.
    Question. In your assessment what threat does a more regionally 
assertive Iran, including the possibility of a nuclear-armed Iran, pose 
to Saudi Arabia?
    Answer. Having not served as Commander of CENTCOM, I am not 
intimately familiar with Saudi security concerns, though I recognize 
the Kingdom's concerns about Iranian malign activities in the region. 
While King Abdullah has played a positive role through the inter-faith 
dialogue, Arab Peace Initiative, and warming of relations with Syria, 
there continues to be negative Iranian interference in Iraq, Lebanon, 
and the Palestinian territories. Saudi leadership has made it clear 
that a nuclear-armed Iran is incompatible with regional stability and a 
grave threat to Saudi strategic interests. Saudi Arabia is committed to 
open and transparent use of civilian nuclear technology; however a 
nuclear-armed Iran will cause a Saudi reassessment of this policy.
                      communications capabilities
    Question. The CENTCOM AOR is heavily dependent on timely and 
reliable communications capabilities including satellite based 
communications to support troops directly as well as a variety of ISR 
and related capabilities.
    In your view are there any gaps or deficiencies in communications 
capabilities that should or could be improved?
    Answer. I have a great appreciation for the role that communication 
capabilities play in today's operating environment. If confirmed, I 
will carry forward broad priorities to address any assessed gaps or 
deficiencies in this area, and I will work to increasing network 
capacity by tier (terrestrial, air, space); become more effective and 
efficient with existing capacity; increase information sharing--
enabling the ``need to share'' approach; and in Afghanistan moving the 
fight to the coalition network (Afghanistan Mission Network).
    Question. The Afghanistan Ministry of Telecommunications is 
attempting to complete a fiber-optic cable backbone both around Kabul 
and the Ring Road, with international extensions to Pakistan, 
Tajikistan, Uzbekistan, and Iran. If this network were fully 
operational, DOD could shift a lot of traffic from expensive satellite 
communications to fiber, which would save money, provide more 
bandwidth, and inject funds into Afghanistan. However, the fiber-optic 
backbone installation is mired down in precisely the areas where it is 
most needed--from Kabul to Pakistan, and from Kabul through the Pashtun 
belt in the South to Kandahar and beyond towards Herat. Moreover, the 
contracts for this backbone have been let to Chinese and Iranian firms. 
Elements of the U.S. Government now believe that, with a concerted U.S. 
effort and assistance, this network could soon be completed and 
executed in partnership with the United States, Afghan, and other 
companies.
    What is your understanding of this situation?
    Answer. Having not been confirmed as Commander, CENTCOM, I am not 
in a position to comment extensively on this highly important, yet 
technical topic. If confirmed, I will consult with COMISAF and the 
communications directorate to determine the best way forward.
    Question. Are there other opportunities to improve communications 
networks in Afghanistan that would serve our counterinsurgency 
strategy, provide better communications services to our forces 
operating there, and contribute to Afghanistan's governance?
    Answer. I have thought about these issues at length as part of the 
development of the Army and Marine Corps Counterinsurgency Manual, and 
I believe there are opportunities to enhance to the Company and platoon 
level, with extension to the mobile trooper. We can also enable greater 
flexibility and versatility in coalition task organization. This 
requires a change to the existing coalition network norm and forces the 
fight to move to the recently fielded coalition network.
      intelligence, surveillance, and reconnaissance capabilities
    Question. General McChrystal often stated that in his opinion there 
could never be enough ISR capability.
    What are your views regarding the level of ISR support deployed 
thus far to Afghanistan?
    Answer. Due to the nature of counterinsurgency and counterterrorism 
operations, ISR demand will always exceed ISR capacity. As I understand 
from my current position, there is a substantial amount of ISR support 
in Afghanistan today, heavily reinforced by Secretary Gates in response 
to theater requirements. I will be acutely aware of and responsive to 
any shortfalls that are identified in Afghanistan, if I am confirmed, 
and I will work to resource my commanders in the field appropriately.
    Question. What are the specific capabilities that you think we are 
short of and that may need attention?
    Answer. Assessments consistently demonstrate that Full Motion Video 
(FMV), Signals Intelligence (SIGINT), Ground Moving Target Indicator 
(GMTI) collection capacity, communications, and Processing, 
Exploitation, and Dissemination (PED) capacity remain the greatest 
shortfalls.
    I understand that the ISR Task Force has been extremely effective 
at focusing efforts and funding toward the CENTCOM's highest urgent 
operational needs. Continued funding is essential to maximizing ISR 
effectiveness through better collection management tools, increased PED 
capability and capacity, and expanded architecture capacity. Real time, 
Wide Area Surveillance is also being pursued on an urgent timeline.
    Question. Major General Flynn, the NATO ISAF J2, late last year 
published a sharp critique on the Intelligence Community's (IC) 
response to the shift to a counterinsurgency strategy in Afghanistan. 
He stated that the IC was too focused on identifying enemy forces and 
supporting kinetic operations against them and was not providing 
critical information on the people that the counterinsurgency strategy 
needed to protect and win over.
    Do you think that General Flynn's complaint remains valid, or have 
the national and military Intelligence Community adequately adjusted 
its priorities and improved its support for the counterinsurgency 
strategy? Where are we still deficient?
    Answer. Counterinsurgency is predicated on intelligence and 
information collection, which requires an accelerated and adaptive 
approach. The intelligence community has taken key steps to better 
understand the conflict and react to emerging opportunities to 
influence its trajectory. If confirmed, I will work closely with 
COMISAF to ensure we close any existing gaps in our joint interagency 
intelligence capabilities, and work collaboratively with the Service 
chiefs to ensure they understand the theater demands on the forces that 
they are organizing, training and equipping.
            regional ballistic missile threats and response
    Question. Iran has hundreds of short- and medium-range ballistic 
missiles today that are capable of reaching forward-deployed U.S. 
forces, allies, and other friendly nations in the CENTCOM AOR. Syria 
also has an inventory of ballistic missiles that pose a threat to the 
region. The Ballistic Missile Defense Review Report of February 2010 
stated that the United States intends to pursue a Phased Adaptive 
Approach to ballistic missile defense against such missile threats in 
various regions, including the Middle East.
    Do you agree that such a phased adaptive approach will provide 
CENTCOM with the missile defense capabilities needed to defend our 
forward deployed forces and our allies and partners in the region?
    Answer. Yes. The Phased Adaptive Approach framework can be applied 
in CENTCOM and supports building strong cooperative relationships, 
appropriate country burden sharing, and missile defenses tailored to 
the threats in the CENTCOM Region.
    Question. What role do you see for the Aegis Ballistic Missile 
Defense system with Standard Missile-3 interceptors in U.S. missile 
defense capabilities in the CENTCOM AOR?
    Answer. The Aegis BMD system is one of the critical components in 
the U.S. integrated layered missile defense architecture, which is 
designed to check regional threats, including Iran's Shahab 3 and 
Ashura missiles. When outfitted with the SM-3 interceptor missile the 
Aegis weapons system offers an upper-tier layer to our missile defense 
capability.
    Question. In addition to U.S. missile defense capabilities in the 
CENTCOM AOR, what role do you see for other nations in the AOR to 
contribute to regional missile defense capabilities, such as UAE 
interest in purchasing the Terminal High Altitude Area Defense (THAAD) 
system?
    Answer. I am aware that CENTCOM partner nations have shared their 
perception that Iran is posing a threat to them with its ballistic 
missile capabilities. CENTCOM is seeking to strengthen deterrence 
against this challenge by working agreements with partner nations to 
bring their BMD assets into a regional architecture. The primary 
purpose is for individual sovereign defense with a secondary purpose of 
integrating into a common defense. The purchase of U.S. BMD systems, to 
include THAAD, enables not only integration but interoperability into a 
regional BMD architecture.
                 centcom and dod global posture review
    Question. According to the 2010 Quadrennial Defense Review Report, 
DOD will conduct a global posture review that assesses U.S. strategic 
relationships and interests to identify where and at what levels the 
forward stationing of military forces supports those relationships and 
interests.
    What is your assessment of the current and future strategic 
requirement for U.S. military basing and prepositioning in the Persian 
Gulf region?
    Answer. In my current position as Commander, Joint Forces Command, 
I recognize the essential requirements to develop the forces, bases, 
and agreements necessary to ensure capabilities and access are 
available to meet current and future operational requirements. We need 
to ensure that our investments in infrastructure and capabilities are 
consistent with our long-term objectives for the region. To meet these 
challenges, we must continue to work with regional partners to maintain 
access, freedom of action, and capabilities at existing and new 
locations across the region. Doing so will improve our strategic depth, 
allow for rapid increases in operational surge requirements, and 
support our partners in the region, many of which have stood by us for 
decades.
    In addition, prepositioned equipment and material will enable the 
rapid deployment of selected forces to respond to a variety of 
requirements, from humanitarian assistance to combat operations. 
Prepositioning also signals U.S. commitment to regional partners. This 
requires restoring pre-positioned equipment stocks to full capacity. If 
confirmed, CENTCOM will partner with the Services to address any 
capability gaps to meet theater and global contingency requirements 
within a resource constrained environment.
    Question. In your view, what capabilities and facilities will be 
most critical to the CENTCOM mission after the withdrawal from Iraq is 
completed?
    Answer. The posture of U.S. forces, currently tailored towards 
ongoing operations, must transition over time to balance requirements 
for contingency operations and crisis response. If confirmed, I will 
ensure that CENTCOM continues to develop a defense posture and regional 
security architecture focused on strengthening our partners' national 
and regional defense capabilities and advancing regional stability and 
security. I understand that CENTCOM has identified several theater 
enduring support locations to meet these requirements, including 1 main 
operating base, 6 forward operating sites, and 17 cooperative security 
locations.
    In addition to theater locations, CENTCOM must continue to work 
with regional partners to secure adequate en route infrastructure, 
intermodal capacity, and global mobility for enhanced redundancy. This 
will require extensive cooperation between combatant commanders to 
further develop en route mobility from Europe, Africa, and the Caucasus 
into the Gulf region and Central and South Asia.
    Question. What is your view of arguments that an over-the-horizon 
presence would reduce tensions in the region?
    Answer. U.S. military posture in the CENTCOM region must support 
ongoing operations, prevent and deter conflict, and provide options to 
respond to a wide range of contingencies. Our deterrent ability is 
founded on the presence of land, air, and naval forces in the region 
capable of fighting limited and large-scale conflicts where anti-access 
weaponry and tactics are used by state and non-state actors. If I am 
confirmed, CENTCOM will continue efforts to respond to a wide variety 
of contingency scenarios, including defeating aggression by adversary 
states, supporting and stabilizing fragile states facing serious 
internal threats, and providing humanitarian assistance and disaster 
relief.
    I understand that CENTCOM employs two enduring principles: (1) 
minimize steady state force presence by relying on rotational forces, 
reach back capabilities, and prepositioning to meet requirements; and 
(2) maximize the use of maritime assets to provide operational 
flexibility, increase freedom of action, and minimize land based 
footprint. While enduring force presence at regional locations may not 
always be available or preferred, the need for access, freedom of 
action, and in place capacity and facilities will be required to enable 
the rapid flow of forces to those locations.
                         treatment of detainees
    Question. Section 1403 of the National Defense Authorization Act 
for Fiscal Year 2006 provides that no individual in the custody or 
under the physical control of the U.S. Government, regardless of 
nationality or physical location shall be subject to cruel, inhuman, or 
degrading treatment or punishment.
    If confirmed, will you take steps to ensure that all relevant DOD 
directives, regulations, policies, practices, and procedures applicable 
to U.S. forces in Afghanistan fully comply with the requirements of 
section 1403 and with Common Article 3 of the Geneva Conventions?
    Answer. Yes.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the DOD 
Detainee Program, dated September 5, 2006?
    Answer. Yes.
    Question. Do you believe it is consistent with effective 
counterinsurgency operations for U.S. forces to comply fully with the 
requirements of Common Article 3 of the Geneva Conventions?
    Answer. Yes. We have a legal and moral obligation to treat persons 
under our control humanely, to comply fully with Common Article 3 as 
construed and applied by U.S. Law and policy. It is not only the right 
thing to do; it is also an important component of successful counter-
insurgency operations.
    Question. How would you ensure a climate that not only discourages 
the abuse of detainees, but that encourages the reporting of abuse?
    Answer. If I am confirmed, I will continue to set forth clear 
standards and expectations and demonstrate to the troops that we are 
committed to those standards. We will provide clear guidance at every 
level of command, proper training, and prompt and effective action when 
we don't meet our standards. Additionally, we will continue conducting 
thorough inspections of all detention facilities and programs 
throughout the theater of operations, and we will continue to cooperate 
with the International Committee of the Red Cross. This is consistent 
with U.S. military policy on treatment of detainees since General 
George Washington commanded our troops and I am committed to no abuse 
of detainees.
    Question. JTF 435 in Afghanistan is working with the U.S. Embassy 
to address detention operations and rule of law issues. Concerns have 
been raised over the capacity and willingness of the Government of 
Afghanistan to detain and prosecute individuals detained in operations, 
particularly in the south.
    What is your assessment of detention operations in Afghanistan and 
how do these operations contribute to the overall counterinsurgency 
strategy?
    Answer. Though I am not confirmed as Commander, CENTCOM, I have 
been able to track this issue closely, and I am pleased with the 
progress that USFOR-A has made in regard to detention operations in 
Afghanistan. The opening of the new detention facility in Parwan, 
coupled with the formation of JTF 435, has ensured oversight over 
detainee operations and detainees in U.S. custody. With the new 
facility comes ample room and opportunity to provide several programs 
to help detainees reintegrate into Afghan society upon their release. 
These new programs include basic education classes that teach reading, 
writing and math skills as well as vocational programs such as bakery 
and carpentry to teach detainees a skill. The programs offered by JTF 
435 also provide for the de-radicalization of certain detainees by 
providing moderate religious classes and discussions with local Imams.
    Question. If confirmed, what steps, if any, would you recommend for 
addressing detention operations and rule of law issues in Afghanistan?
    Answer. I am generally supportive of steps toward establishing the 
Combined Joint Interagency Task Force 435 (CJIATF-435) that will 
centralize all USFOR-A detention, interrogation, and Rule of Law 
functions in Afghanistan. CJIATF 435 will help build capacity in the 
Afghan Government, including establishing a command element capable of 
coordinating coalition efforts with the Afghanistan Government.
    This will ultimately help the Afghan Government build the capacity 
to conduct safe, secure, lawful and humane detention operations 
including appropriate facilities and a fully trained Afghan guard 
force. There is also a need to ensure effective programs are in place 
for reintegrating detainees who are suitable candidates for release and 
ensure effective processes for investigating and prosecuting detainees 
for violations of Afghan criminal law. This effort is well underway 
and, if confirmed, I would follow implementation closely, and work with 
Commander, USFOR-A, and Commander, CJIATF 435, to make adjustments 
where appropriate.
                         traumatic brain injury
    Question. On June 21, 2010, the Deputy Secretary of Defense issued 
a new DOD-wide policy on the management of mild traumatic brain injury 
in deployed settings.
    If confirmed, how will you ensure that the policy is implemented 
consistently throughout the CENTCOM AOR?
    Answer. IEDs and the associated injuries are signature aspects of 
this war. If confirmed, I will continue to ensure appropriate command 
emphasis is placed on this crucial effort to identify, evaluate and 
manage all servicemembers exposed to potential concussive events. 
Defense Department policy provides specific direction to line leaders 
and medical personnel in their response to defined events--such as 
blasts--in the deployed environment which could result in mild 
traumatic brain injury/concussion, and CENTCOM has supplemented this 
policy with its own implementation order, which I will review and 
maintain if confirmed. In addition, CENTCOM has developed a single, 
joint solution to the tracking requirement for such exposures. This 
will provide a mechanism to ensure execution of proper evaluation, 
post-event rest period, and future evaluation, especially for those 
exposed to multiple events.
           mental health assessments and treatment in theater
    Question. The Army's Mental Health Advisory Team (MHAT) has made 
six separate assessments over the past several years detailing the 
immediate effects of combat on mental health conditions of U.S. 
soldiers and marines deployed to Iraq and Afghanistan. The most recent 
study, MHAT VI, found that ``soldiers on their third and fourth 
deployment report lower morale and more mental health problems,'' and 
that stigma continues to prevent some soldiers from seeking mental 
health care. These types of reports lend support to the fact that 
increasing numbers of troops are returning from duty in Iraq and 
Afghanistan with posttraumatic stress, depression, and other mental 
health problems.
    What is your understanding of the key findings of this and previous 
MHAT assessments, actions taken by the services to address key 
findings, and the effect of such actions?
    Answer. In my current position, I am charged with training and 
preparing joint forces to serve downrange, and I consider it among my 
highest responsibilities to monitor and take care of the mental health 
of these men and women. I find the MHAT results encouraging in some 
respects, but there is still room for significant improvement.
    During the third quarter of fiscal year 2009, MHAT IV reported that 
21 percent of maneuver soldiers and marines met screening criteria for 
depression, anxiety, or acute stress. Historically these numbers are 
similar to 2007, yet higher than 2005. Unit morale was reported as 
lower than in previous MHATs. Marital problems among junior enlisted 
and support/sustainment Soldiers and Marines were higher, as well as 
mental health and marital problems among NCOs on three or more 
deployment. The MHAT team recommended adding behavioral health (BH) 
personnel to meet the recommended ratio for 1 BH per 700 
servicemembers, maintaining the ratio through the surge in forces, and 
appointing a senior theater-wide BH consultant.
    These recommendations have been implemented in theater since the 
last MHAT. The impact of these actions has been positive thus far, and 
will continue to be evaluated by the joint team under MHAT-7. I also 
want to take advantage of the U.S. Army's advances, under the guidance 
of Brigadier General Rhonda Cornum, in strengthening the resilience of 
all troops deploying to the CENTCOM combat zones.
    Question. Do you have any views on how to best address the mental 
health needs of our troops in theater, in terms of both prevention and 
treatment?
    Answer. Addressing mental health, as in addressing physical health, 
cannot begin in theater--it must begin at home. This is accomplished by 
the Services through their various mental health support functions, 
resiliency training and provision of mental health services. In the 
pre-deployment period, individuals are screened for potential mental 
health problems, conditions or concerns. Individuals, who have specific 
behavioral health conditions that require specific treatments, and have 
not demonstrated adequate resolution of their behavioral health 
condition or symptoms, are not permitted to deploy.
    If confirmed, I will continue to emphasize the importance of mental 
health prevention and treatment for our servicemembers. This will 
require adequate provisions and access to behavioral health, the proper 
command emphasis, de-stigmatization, and positive officer leadership 
throughout the life-cycle of a deployment (pre, during, and post) in 
order to maintain combat resilient units. Brigadier General Cornum and 
the Army's efforts in this regard provide pragmatic steps to improve 
resilience for our young troops going into harm's way.
    Question. Do you believe that mental health resources in theater 
are adequate to handle the needs of our deployed servicemembers?
    Answer. Yes. Based on my experience at U.S. Joint Forces Command, I 
believe that current mental health resources are adequate to handle the 
needs of our deployed servicemembers. The MHAT-7 Team, which has just 
deployed to Afghanistan, will independently evaluate this. If 
confirmed, I will continue to work with the Services and our deployed 
behavioral health resources to identify and eliminate any barriers to 
care, especially among maneuver units where stigma has been found to be 
higher. While there is no room for complacency on our efforts to fully 
resource mental health support, we have made unmistakable progress.
    Question. If confirmed, would you request additional behavioral 
health resources from the services, if needed, to meet the needs of 
current and future units deployed to Iraq and Afghanistan?
    Answer. If additional behavioral health resources were deemed 
necessary, either by our own assessment or that of the MHAT-7, I would 
not hesitate to request such resources from the Services to fill any 
identified gaps. CENTCOM, its components, and the Services are all 
dedicated to ensuring the adequate provision of behavioral health 
resources to support our deployed warfighters.
                           suicide prevention
    Question. The numbers of suicides in each of the services continue 
to increase. A number of these military suicides are committed in 
theater.
    If confirmed, what resources would you use to help prevent suicides 
in theater and to prepare redeploying servicemembers for transition to 
life back at home?
    Answer. Prevention of suicide in theater and at home is a vital 
priority--the safety of all deploying, deployed, and returning 
servicemembers is always foremost among my priorities.
    Confronting the difficult reality of suicide in the force requires 
regularly exercising a broad complement of health resources within 
fully supportive command culture. This process begins with recognizing 
the importance of taking care of people, which will always remain the 
most important asset in our military. There are many elements and 
separate suicide prevention initiatives that comprise a comprehensive 
approach to suicide prevention, including embedded and organic 
behavioral health care assets ``in country,'' programs run by the 
Services, pre- and post-deployment ``eye-to-eye'' screening, alliance 
partnerships, and a host of other prevention, treatment, and care 
facilities. It is imperative that we implement these programs 
throughout the life cycle of the training and deployment so that 
servicemembers can receive appropriate counseling, assistance, respite, 
and support.
                             sexual assault
    Question. If confirmed, you will be responsible for ensuring 
compliance with DOD policies on prevention of and response to sexual 
assaults against military personnel and civilians throughout the 
CENTCOM AOR.
    What lessons have military leaders in Iraq and Afghanistan learned 
regarding sexual assault prevention, response, and reporting protocols 
that can be applied across the CENTCOM AOR?
    Answer. Commanders have learned that they have the responsibility 
to establish a command climate where safety is promoted, servicemembers 
are educated on sexual assault risk reduction techniques, and 
servicemembers feel free to report incidents without stigma or 
recrimination. They have also learned that sexual assault is a safety 
risk and a crime, it is incompatible with our military values, and that 
it negatively impacts unit cohesion and mission accomplishment.
    Question. What are the unique issues that you believe need to be 
addressed to ensure that policies on prevention, reporting, medical 
treatment (including mental health care), and victim support are 
available for military personnel and civilians in the operational 
environments of Iraq and Afghanistan?
    Answer. The unique issues that need to be addressed are a positive 
and supportive command climate, unit leadership that demonstrates 
intent to follow established policies, provision of caring assistance 
to victims of sexual assault, and firm disciplinary actions taken 
against offenders. In addressing each of these unique issues, 
commanders demonstrate that they are committed to preventing and 
reducing instances of sexual assault.
    Question. If confirmed, how would you assess the adequacy of such 
resources in the CENTCOM AOR?
    Answer. Continued command emphasis and involvement will insure the 
adequacy of resources. One best practice from Iraq involves the regular 
meeting of a multidisciplinary team with representation from across the 
command, chaired by a General Officer. This provides the appropriate 
forum for sharing concerns, identifying issues, and taking immediate 
corrective action.
                 deployed civilians in the centcom aor
    Question. The President has called on all agencies of the executive 
branch to encourage the assignment of highly qualified Federal civilian 
employees in support of CENTCOM operations, and DOD provides the 
majority of those employees.
    If confirmed, what would be your objectives for improving and 
sustaining the support of Federal civilians in the CENTCOM AOR?
    Answer. If I am confirmed, CENTCOM will continue to maintain the 
relationship we have developed with the Office of the Deputy Secretary 
of Defense for Civilian Personnel Policy (CPP) as it continues its 
implementation of the Civilian Expeditionary Workforce (CEW) program. 
During the past year, CPP has permanently transferred a Senior Human 
Resource CEW Program Manager to provide advisory services on 
compensation, benefits, medical care and entitlements, and more 
importantly, to be involved in the planning for mobilization of highly 
qualified civilian talent. I understand that the assignment of this 
billet to CENTCOM has already brought dividends, producing a 166 
percent increase in the number of DOD civilians augmenting our military 
forces across Iraq and Afghanistan since March 2009.
    CENTCOM has found that leveraging the expertise and the skill sets 
of highly-qualified DOD civilians improves operational effectiveness 
and helps reduce demand on the uniformed force. As such, I would 
endorse the Department's efforts to provide deployed civilians with 
uniform, fair and transparent incentives, and benefits that will enable 
us to further increase the use of a ready and able source of quality 
manpower.
              intelligence support for indirect activities
    Question. Some observers contend that the national intelligence 
agencies focus their assistance to the Defense Department in 
Afghanistan and Iraq on special operators engaged in direct action 
operations. As a consequence, it is alleged, general purpose forces and 
SOF engaged in indirect activities, including foreign internal defense 
and population protection, receive less intelligence support.
    If confirmed, how would you ensure SOF engaged in indirect 
activities receive adequate intelligence support?
    Answer. Our SOF require precise targeting data to be effective. 
Intelligence, especially ISR support, is allocated based upon theater 
requirements (to include requirements to support general purpose forces 
and SOF engaged in indirect activities) that are balanced against 
existing capabilities and capacity. If confirmed, I will work to expand 
intelligence and information sharing across the entire enterprise--
especially technology that will help to ensure the effectiveness of our 
special operators. At the same time, integrated special operations with 
general purpose force operations are key to success in this sort of 
war. A mission-oriented balance is my vision.
         special operations forces in support of country teams
    Question. SOCOM deploys personnel to work with country teams in a 
number of priority countries where the United States is not engaged in 
direct action operations, but rather trying to stop the spread of 
violent extremism. Their mission is to support the priorities of the 
Ambassador and the geographic combatant commander's theater campaign 
plan against terrorist networks.
    Please describe the potential value of these special operations 
personnel to CENTCOM and the country teams they are supporting.
    Answer. The limited visibility profiles, professional maturity and 
self-sufficiency of SOF provide unique capabilities to work within U.S. 
Embassy country teams. They provide the Ambassador and Commander, 
CENTCOM, the flexibility required to execute security assistance 
programs in fluid and culturally diverse environments. Also, their 
expertise in understanding the complex issues of interagency and 
international cooperation provides additional leverage that may not 
otherwise be realized.
    Question. If confirmed, what do you intend to do to make sure the 
goals of special operations personnel deployed to these countries are 
closely aligned with those of the Ambassadors they are working with?
    Answer. It is paramount that CENTCOM's military effort acts in 
unity and coordination with the Chief of Mission as the U.S. Government 
lead. If confirmed, I would work to establish close working 
relationships with every U.S. Ambassador in the region, and ensure that 
all CENTCOM efforts--not just those of special operations personnel--
align with their objectives.
                military information support operations
    Question. Al Qaeda and affiliated violent extremist groups work 
hard to appeal to local populations. In several cases throughout the 
CENTCOM AOR, most recently in Yemen, these efforts have allowed violent 
extremists to establish a safe haven, conduct operations, and expand 
their recruiting base. The composition and size of these groups in 
comparison to the U.S. Government permits it to make policy decisions 
very quickly.
    Do you believe CENTCOM and other agencies within the U.S. 
Government are appropriately organized to respond effectively to the 
messaging and influence efforts of al Qaeda and other affiliated 
terrorist groups?
    Answer. Not yet, but we are getting there. There are several key 
elements critical to our achieving success in this aspect of 
operations: Alignment and synchronization of our activities; 
authorities to engage in countering violent extremist messaging; 
capacity, and funding. Communication integration is equally important 
in regards to the interagency--there must be a robust, aligned 
interagency communication effort, since the battle of the narrative is 
a whole-of-government problem.
    CENTCOM continues to refine our processes to ensure alignment and 
synchronization of all of communication activities, not only within the 
CENTCOM Headquarters, but among all the components, the two Joint 
Operational Areas, and across the interagency. This includes public 
affairs, military information operations and key leader engagement. We 
are focused on improvements and, if confirmed, I anticipate I will be 
bringing more attention to this arena.
    Question. If confirmed, what steps, if any, would you explore or 
take to counter and delegitimize violent extremist ideologies?
    Answer. If I am confirmed, I would continue to use Military 
Information Operations in coordination with our partners in the 
interagency to degrade the violent rhetoric of our enemy, particularly 
on the Internet. In addition, our public affairs operations should be 
fully engaged in the emerging media environments within the AOR, 
including the use of all available tools to engage in blogs and social 
media to be first with the truth and correct the record when our 
adversaries attack us with disinformation and propaganda. Finally, DOD 
and the Combatant Commands have a critical role in the interagency 
effort to counter violent extremists, and I will work to ensure our 
commanders retain the authorities they need to execute their missions.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Commander, CENTCOM?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
            Questions Submitted by Senator Roland W. Burris
                              afghanistan
    1. Senator Burris. General Mattis, we now have a new commander in 
charge of the mission in Afghanistan that is now in its 9th year. 
Casualties are increasing along with public disapproval. What do you 
envision as the primary thing you can do to support General Petraeus 
and the overall political military situation in the region?
    General Mattis. The primary thing I can do to support General 
Petraeus is to work in the closest possible partnership with him to 
help him execute the President's strategy in Afghanistan. That will 
mean working to ensure that the effort is fully resourced in a coherent 
and comprehensive manner and to set broader regional conditions for the 
success of the mission.

    2. Senator Burris. General Mattis, what interagency efforts need to 
be abandoned or reinforced?
    General Mattis. We are undergoing a comprehensive review of all our 
key interagency efforts to ensure robust support of General Petraeus's 
work in Afghanistan. These efforts include our actions to expose 
corruption and disrupt enemy threat finance streams; neutralize the 
enemies improvised explosive device capability; degrade violent 
extremist ability to recruit and propagate violent ideology; expand 
training for Afghan security forces and border security; enhance Afghan 
governance, rule of law, and tribal engagement initiatives; and 
expedite economic and agriculture transition and advancement.
    While strengthening these efforts, and while acknowledging the good 
work currently being done, we will carefully seek means and methods to 
streamline established programs to reduce duplication and redundancy 
and better optimize our effectiveness and efficiency. You have my 
assurance that we will assess interagency efforts and work together 
with our interagency partners in order to achieve maximum 
synchronization, unity of purpose, and effort.
    One area of interagency effort that we must continue to reinforce 
is the whole-of-government approach in cyberspace and other information 
operations. Our adversaries continue to demonstrate an ability to 
rapidly adapt to and exploit an information domain without geographic 
boundaries. We must continue our interagency collaboration and 
coordination, thereby leveraging each agency's capabilities and 
authorities. To date, we have partnered with the Federal Bureau of 
Investigation, Department of State, and other agencies to successfully 
counter violent extremism in several key areas of the information 
domain. It is my intention to continue to expand our partnerships to 
more effectively engage violent extremists across the entire 
information domain.
    To that end, we respectfully request your full support to our 
partner agencies as they seek enhancements of their capabilities and 
support for this important collaboration. In the long-term, we will 
continue to work to refine our interagency team with a clear eye toward 
transitioning to less Department of Defense (DOD)-led efforts and, 
ultimately, to Afghan self-reliance and self-governance.

    3. Senator Burris. General Mattis, what efforts will you take to 
strengthen partnerships and commitments from the international 
community?
    General Mattis. U.S. Central Command (CENTCOM) will continue to 
pursue cooperative, multi-lateral solutions to the challenges in the 
region. Our efforts to strengthen international partnerships focus on 
the interests we share with other nations, and we will continue to 
pursue those interests by helping our partners bolster their 
capabilities and capacities. Cooperative efforts that build partner 
capacity both encourage participation in joint endeavors and increase 
the coalition's overall effectiveness in ongoing multi-lateral 
operations. Our initiatives have already led to partner nation 
contributions, funding, and forces for operations in Afghanistan and we 
will continue to develop these mutually beneficial partnerships to 
enhance stability and economic opportunity throughout the region.

                           leaked information
    4. Senator Burris. General Mattis, the unauthorized public release 
of confidential and classified information by WikiLeaks.org reveals 
some disturbing information about the Afghan/Pakistan cooperation. What 
is your assessment of the diplomatic and military effort between 
Afghanistan, Pakistan, and the International Security Assistance Force?
    General Mattis. While the disclosure by WikiLeaks is irresponsible 
and unwelcome, the diplomatic and military effort between Afghanistan, 
Pakistan, and the International Security Assistance Force continues to 
move in a positive direction.

    5. Senator Burris. General Mattis, what impact do you think this 
irresponsibility will have on our partnerships with Afghanistan and 
Pakistan?
    General Mattis. The people who released this information into the 
public domain have been grossly irresponsible and have caused harm to 
the efforts of the United States and our partners. Our relationships 
with Afghanistan and Pakistan will endure however, despite this 
unfortunate incident. We are doing all we can with our partners in 
order to minimize the damage caused.
                                 ______
                                 
               Questions Submitted by Senator John Thune
         strategic communication/taliban targeting of civilians
    6. Senator Thune. General Mattis, when General Petraeus was here 
before the committee a few weeks ago, he discussed the importance of 
strategic communication, and in particular the importance of merely 
truthfully reporting the extremist activities, the indiscriminate 
violence and the oppressive practices that have always been associated 
with the Taliban. For example, I understand that we recently 
intercepted a message from Mullah Omar ordering his fighters to target 
civilian Afghans. In June, they bombed a wedding in an Afghan village 
that killed 39 people who were simply celebrating a joyous occasion. 
Overall, insurgent actions have caused 1,074 civilian deaths in 
Afghanistan since January of this year. Do you view our strategic 
communication efforts in Afghanistan as effective?
    General Mattis. We have built a strategic communication effort that 
is beginning to yield positive results, yet we are challenged by an 
enemy that uses lies and propaganda without discretion and as a means 
of first resort. Our goal is to be ``first with the truth'' and to 
ensure our strategic communication effort is fully integrated into the 
interagency effort. I will continue to seek the authorities and 
resources to assist CENTCOM in general and General Petraeus in 
particular conduct full-spectrum communication programs to counter our 
enemies in Afghanistan and throughout the region.

    7. Senator Thune. General Mattis, as CENTCOM Commander, how would 
you approach this issue of amplifying the truth about the atrocities of 
the enemy?
    General Mattis. Our CENTCOM team uses military information 
operations, public affairs, key leader engagements, and a 
``traditional'' or tribal communication effort in coordination with our 
partners in the region to demonstrate the enemy's violent, extremist 
behavior against the Afghan people. These important activities are 
conducted in the theater and amplified at CENTCOM HQ through blogs, 
press releases, and other means. Additionally, CENTCOM will continue to 
coordinate with DOD and the Interagency to counter disinformation and 
propaganda using all available tools, including blogs and social media. 
Moreover, I will continue to work with our commanders ensuring they 
have the authorities necessary to execute the mission and I will work 
closely with friendly moderate countries in the CENTCOM region to 
amplify the brutal character of the enemy. I fully support not only the 
full resourcing of requirements for military information operations and 
public affairs, but also the programs of other Departments, such as 
State's public diplomacy, whose efforts are mutually supporting in this 
regard.

                          rules of engagement
    8. Senator Thune. General Mattis, General Petraeus told us he would 
be closely scrutinizing our rules of engagement in Afghanistan, 
particularly with regard to close air support (CAS), to see if there 
are any problems with implementation of these rules of engagement. What 
are your views of the rules of engagement in Afghanistan?
    General Mattis. I am satisfied that the Rules of Engagement in 
Afghanistan provide an appropriate balance between assuring our troops 
the right to self-defense and the requirement to apply force only when 
necessary and in a proportional way. I will, however, review them from 
time to time in consultation with the Commander in Afghanistan to 
ensure that they remain appropriate to the situation on the ground.

    9. Senator Thune. General Mattis, do you believe the CAS 
restrictions should be modified?
    General Mattis. I am satisfied that the rules for the employment of 
CAS provide a balance between the right to self-defense and the 
requirement to ensure appropriate application of force. I will review 
them from time to time in consultation with the Commander in 
Afghanistan to ensure that they remain appropriate to the situation on 
the ground.

  army unmanned aerial vehicles duplicating air force unmanned aerial 
                                vehicles
    10. Senator Thune. General Mattis, the Army's 2011 budget proposal 
requested over $578 million toward the acquisition of MQ-1 unmanned 
aerial vehicles (UAVs), as well as their payload and weaponization. 
With that money, the Army would buy 26 more aircraft next year in 
addition to the 24 purchased this year with 158 total aircraft in the 
Army inventory by the end of 2015. By comparison, the Air Force has 144 
MQ-1s today. The rationale for these duplicative purchases is that 
there is an urgent need for more intelligence, surveillance, and 
reconnaissance (ISR) platforms in the field. Specifically, the Air 
Force has been tasked to provide 65 combat air patrols (CAPs) on a 
daily basis using these types of aircraft. What is your view of the use 
of the Army's MQ-1 aircraft in Afghanistan?
    General Mattis. CENTCOM identifies its requirements for ISR through 
the Global Force Management process, Joint Urgent Operational Needs 
Statements, and Integrated Priority Lists. DOD and the Services 
determine how best to meet those requirements. The Air Force and the 
Army MQ-1 type aircraft offer complementary and additive capabilities 
that help to fulfill stated needs and both are crucial to the effort in 
Afghanistan.

    11. Senator Thune. General Mattis, shouldn't we be using these 
aircraft to augment the Air Force's capabilities in order to achieve 
the requested goal of 65 CAPs?
    General Mattis. As the Commander of CENTCOM, I am not in the best 
position to determine funding priorities or acquisition strategies for 
each Service. CENTCOM has substantial unmet ISR requirements and gladly 
accepts sourcing by both the Air Force and the Army. While 65 CAPs may 
be a goal of a single Service, if that were the end state for DOD ISR 
capacity, significant ISR capacity shortfalls within CENTCOM would 
remain.

    12. Senator Thune. General Mattis, with the drawdown of all combat 
troops in Iraq this August, and I assume this includes UAVs, what kind 
of immediate increase in capacity do you expect will be available to 
you in Afghanistan in terms of UAVs?
    General Mattis. There have never been enough UAVs to fully support 
requirements in Iraq and Afghanistan simultaneously, which has resulted 
in CENTCOM shifting UAVs from Iraq to Afghanistan over the last 18 
months as the priority of effort for operations has shifted. There will 
be no immediate UAV dividend when force levels reach 50,000 and Iraq 
will continue to have UAV requirements for as long as we have troops 
there. Even after we withdraw the last of the troops from Iraq and we 
reapportion UAVs, we will still not meet the complete requirement for 
the theater.

    13. Senator Thune. General Mattis, do you believe 65 CAPs will 
still be required?
    General Mattis. Yes, the 65 CAP acquisition strategy is one aspect 
of a total Air Force global ISR capability. The ISR capacity provided 
by 65 Air Force CAPs only partially fulfills CENTCOM's ISR 
requirements. As such, the 65 Air Force CAPs plus the remainder of DOD 
ISR capacity are required for the foreseeable future.

    14. Senator Thune. General Mattis, how will this immediate increase 
in capacity aid with the counterinsurgency strategy of securing the 
Afghan population?
    General Mattis. There are not enough UAVs to support operations in 
Iraq and Afghanistan, which has resulted in CENTCOM shifting UAVs from 
Iraq to Afghanistan for more than 12 months as the priority of effort 
for operations shifted. There will be no immediate increase in ISR 
capacity in Afghanistan as a result of the drawdown in Iraq.

    15. Senator Thune. General Mattis, Secretary Gates has directed 
each Service to find savings of $2 billion in next year's budget. What 
synergies do you envision could be made between the Army and the Air 
Force with regard to unmanned capabilities and where do you think they 
can save money and reduce duplication?
    General Mattis. As a combatant commander, my interest is in the 
capability provided by the UAV and not the Service that provides that 
capability. All the Services use UAVs and even similar systems may have 
different sensors that support unique mission tasks. I view the Air 
Force and Army UAV programs as complementary rather than as 
competitive. We have and will continue to work with the Services to 
avoid duplication of capability and work together for cost savings when 
cooperative development is justified.

                    reintegration and reconciliation
    16. Senator Thune. General Mattis, several weeks ago, President 
Karzai convened the National Council for Peace, Reconciliation and 
Reintegration. Do you agree with his approach and how does this 
proposal contemplate dealing with Taliban leadership figures like 
Mullah Omar?
    General Mattis. Reintegration and reconciliation are Government of 
the Islamic Republic of Afghanistan programs. While I agree with and 
welcome President Karzai's approach, I recognize that more 
implementation details need to be developed by the Afghan Government, 
particularly at the sub-national level, to include the issuance of a 
Government of Afghanistan Joint Order. While the specific methods and 
outcomes for dealing with Taliban leadership figures have not yet been 
articulated by the Government of Afghanistan, I would support proposals 
that ensure that individuals renounce violence against the Government 
of Afghanistan, live in accordance with the Afghan Constitution and 
law, and have no material ties to al Qaeda.

                      brief timeframe of the surge
    17. Senator Thune. General Mattis, a report in the London Times 
last month quotes Brigadier General Frederick Hodges, U.S. Director of 
Operations in Southern Afghanistan, as saying ``Our mission is to show 
irreversible momentum by the end of 2010--that's the clock I'm using . 
. . We'll never have more capacity than we have by late summer 2010. 
We'll never have it any better.'' Do you concur with General Hodges' 
assessment that we will either succeed or fail within the next 5 months 
in this area?
    General Mattis. I do not sense that declaring success or failure in 
the next 5 months was the point this officer was trying to make, but 
rather his mission is focused on using the additional resources being 
brought into Afghanistan to make observable progress. I do agree that 
by the end of 2010 our additional 30,000 troops will be in place and 
many of the additional troops offered by our partners will be in place 
by then, too. The next 5 months will be important and we will work to 
continue to achieve progress, but it will not be possible to declare 
success or failure in that timeframe.

    18. Senator Thune. General Mattis, if we will never have as many 
troops as we have right now, then is he right by saying that we have to 
win now?
    General Mattis. Coalition troops are only one part of the equation. 
I believe our strength will continue to grow as Afghan National 
Security Forces grow and develop. Over time, a range of other 
initiatives will mature--including advances in the Rule of Law, 
reintegration and reconciliation, the fight against corruption, and 
economic development--cumulatively adding weight to our effort. There 
are also important whole-of-government initiatives underway that will 
reinforce improvement in Afghan governance at all levels. We need to 
allow the time for these developments to occur.

    19. Senator Thune. General Mattis, with the recent death of al-
Yazid, the third highest ranking leader in al Qaeda, after Osama bin 
Laden and Ayman al-Zawahiri, do you believe we have that momentum now? 
What will it take to keep that momentum?
    General Mattis. While the May 2010 death of al Qaeda #3 al-Yazid 
(Shaykh Said al-Masri) is a notable loss for the al Qaeda organization, 
his death is not a momentum changing event by itself. Al Qaeda has 
suffered serious leadership losses since late 2007 due to 
counterterrorism (CT) operations. The death of al-Yazid will most 
impact al Qaeda in the areas of training, financing, and the perception 
that Pakistan's Federally Administered Tribal Areas may no longer 
provide a viable safe haven. Al Qaeda, however, still has the ability 
to plan and conduct operations globally, as witnessed during the 
Christmas Day bombing attempt by al Qaeda in the Arabian Peninsula. To 
maintain momentum, we must continue to execute regional CT operations 
and to train, equip, build capacity/capability of, and where feasible, 
conduct joint operations with our regional partners.

    20. Senator Thune. General Mattis, if the next 5 months are so 
critical, what do you need from us on this committee in order to 
succeed?
    General Mattis. Your continued support of our efforts in the 
CENTCOM Area of Responsibility (AOR) remains vital for the next 5 
months and the long-term. The 4 most critical areas are building the 
ANSF, providing the Afghan's with basic infrastructure, ensuring we can 
counter enemy messaging, and supporting the Afghanistan Reintegration 
program.
    First, we need full funding to train and equip the Afghanistan 
National Security Forces (ANSF) through the Afghanistan Security Forces 
Fund. A competent and capable ANSF is an essential requirement for 
transition.
    Second, we need flexibility and funding in the National Defense 
Authorization Act to enable us to address the basic needs for the 
average Afghan citizen. This flexibility should team us up with U.S. 
Agency for International Development to work on strategic 
infrastructure projects that will positively influence our 
counterinsurgency mission. We would welcome a transfer authority from 
the Commander's Emergency Response Program that would identify a 
specific amount for funding such infrastructure.
    Third, we need to be able to execute Information Operations 
programs against insurgents in Afghanistan and Iraq, as well as violent 
extremists across the CENTCOM AOR. The information battle space in 
which this war is fought has become increasingly complex, with violent 
extremist groups displaying the necessary acumen to use emerging 
Internet conduits to recruit forces, solicit funding, share tradecraft, 
and spread their ideology. They use the information environment as a 
key line of effort for their campaigns, and they use kinetic attacks to 
enable their Information Operations and to kill and injure our forces, 
those of our partners, and innocent civilians. In Iraq, we have seen 
the value of U.S. and coalition Information Operations, specifically in 
terms of contributions to host-nation stability, the increase in 
support for democratic processes and the rule of law, and the reduction 
of the levels of violence. However, these successes are not 
irreversible. Indeed, our adversaries are continuing to exploit the 
information domain to try to reverse our gains.
    Fourth, we need flexibility to support Afghanistan's Reintegration 
Program similar to how we are able to in fiscal year 2010, without the 
authority limitations in the House Armed Services Committee bill. The 
Current house bill restricts DOD from executing the program until the 
Department of State certifies they cannot execute the mission due to 
security reasons.

                    unity of effort/unity of command
    21. Senator Thune. General Mattis, one of the issues I'm concerned 
about in light of events of the past week is unity of command and unity 
of effort. Going forward, one of the obvious issues in terms of unity 
of command that arises from your nomination to this post is that while 
you are the head of CENTCOM, your technical subordinate in Afghanistan, 
General Petraeus, is the previous head of CENTCOM. Do you foresee a 
problem in terms of unity of command in light of the fact that General 
Petraeus would be technically a subordinate to you in your position as 
head of CENTCOM? What assurances can you give us that this will not be 
an issue?
    General Mattis. General Petraeus and I share a similar view of the 
region. We have served together repeatedly: in the Pentagon; fighting 
together in Iraq; jointly developing the counterinsurgency manual when 
he was at Fort Leavenworth and I was at Quantico; and as fellow 
combatant commanders. He is a great soldier and joint warfighter who is 
fully attuned to both my and his responsibilities, especially having 
served in my position previously. I am confident through our close 
collaboration we will be able to successfully support and resource the 
effort to achieve our goals in Afghanistan and there will be no problem 
with unity of command in CENTCOM.
                                 ______
                                 
    [The nomination reference of Gen. James N. Mattis, USMC, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     July 21, 2010.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment to the grade of general 
in the United States Marine Corps while assigned to a position of 
importance and responsibility under title 10, U.S.C., section 601:

                             To be General

    Gen. James N. Mattis, 0000.
                                 ______
                                 
    [The biographical sketch of Gen. James N. Mattis, USMC, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
                  Resume of Gen. James N. Mattis, USMC
Assigned: 9 Nov 07.

Projected Rotation: 9 Nov 10.

Education/Qualifications:
    Central Washington State University, BS, 1971
    National War College, MS, 1994
    The Basic School, 1972
    Amphibious Warfare School, 1978
    Marine Corps Command and Staff College, 1985
    National War College, 1994
    Capstone, 2001
    JFLCC, 2004
    Pinnacle, 2006
    Infantry Officer
    Joint Qualified Officer

Date of rank: 9 Nov 07.

Date of birth: 8 Sep 50.

Date commissioned: 9 Feb 72.

MRD: 1 July 12.

Languages: None.

Commands:
    Commanding General, I Marine Expeditionary Force; and Commander, 
U.S. Marine Corps Forces Central Command (Lt. Gen.: Aug. 06-Oct. 07).
    Commanding General, Marine Corps Combat Development Command (Lt. 
Gen.: Oct. 04-Aug. 06).
    Commanding General, 1st Marine Division (Maj. Gen.: Aug. 02-Aug. 
04).
    Deputy Commanding General, I Marine Expeditionary Force (BGen.: 
July 01-July 02)
    Commanding Officer, 7th Marines, 1st Marine Division (Col.: June 
94-June 96).
    Commanding Officer, 1st Battalion, 7th Marines (Lt. Col.: Feb. 90-
May 92).
    Commanding Officer, Recruiting Station Portland, OR (Maj: Jun. 85-
Aug. 88)

Joint assignments:
    Senior Military Assistant to the Deputy Secretary of Defense (BGen: 
Mar. 00-June 01).
    Executive Secretary, Office of the Secretary of Defense (Col: June 
96-June 98).

Service staff assignments:
    Director, Manpower Plans and Policies Division (BGen: Aug. 98-Feb. 
00).
    Head, Enlisted Assignments, Personnel Management Division (Lt. 
Col.: Apr. 92-Aug. 93).
    Executive Officer, 7th Marines, 1st Marine Division (Lt. Col.: Aug. 
89-Feb. 90).
    Operations Officer, 7th Marines, 1st Marine Division (Lt. Col.: 
June 89-July 89).
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Gen. James N. 
Mattis, USMC, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    James N. Mattis.

    2. Position to which nominated:
    Commander, U.S. Central Command.

    3. Date of nomination:
    July 21, 2010.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 8, 1950; Pullman, WA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Single.

    7. Names and ages of children:
    None.

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member of U.S. Naval Institute.
    Member of Marine Corps Association.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    After approval from my Agency Ethics officials, I accepted the 
Center for National Policy's 2009 Edmund S. Muskie Distinguished Public 
Service Award and the Atlantic Council's 2010 Distinguished Military 
Leadership Award.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify before any duly constituted 
committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                        Gen. James N. Mattis, USMC.
    This 17th day of July, 2010.

    [The nomination of Gen. James N. Mattis, USMC, was reported 
to the Senate by Chairman Levin on August 4, 2010, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on August 5, 2010.]

 
  NOMINATIONS OF JONATHAN WOODSON, M.D., TO BE ASSISTANT SECRETARY OF 
  DEFENSE FOR HEALTH AFFAIRS; NEILE L. MILLER TO BE PRINCIPAL DEPUTY 
 ADMINISTRATOR, NATIONAL NUCLEAR SECURITY ADMINISTRATION; AND ANNE M. 
       HARRINGTON TO BE DEPUTY ADMINISTRATOR FOR DEFENSE NUCLEAR 
       NONPROLIFERATION, NATIONAL NUCLEAR SECURITY ADMINISTRATION

                              ----------                              


                        TUESDAY, AUGUST 3, 2010

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:34 p.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, McCain, Thune, 
Wicker, and Brown.
    Committee staff member present: Leah C. Brewer, nominations 
and hearings clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Madelyn R. Creedon, counsel; Gabriella Eisen, counsel; Gerald 
J. Leeling, counsel; and Peter K. Levine, general counsel.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; Daniel A. Lerner, professional staff member; 
Diana G. Tabler, professional staff member; Richard F. Walsh, 
minority counsel; and Dana W. White, professional staff member.
    Staff assistants present: Hannah I. Lloyd and Breon N. 
Wells.
    Committee members' assistants present: Daniel Trope, 
assistant to Senator Bayh; Roger Pena, assistant to Senator 
Hagan; Lenwood Landrum, assistant to Senator Sessions; Jason 
Van Beek, assistant to Senator Thune; and Erskine Wells III, 
assistant to Senator Wicker.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good afternoon, everybody. The committee 
meets today to consider the nominations of Jonathan Woodson to 
be Assistant Secretary of Defense for Health Affairs, Neile 
Miller to be the Principal Deputy Administrator of the National 
Nuclear Security Administration (NNSA), and Anne Harrington to 
be Deputy Administrator for Defense Nuclear Nonproliferation of 
the NNSA.
    We welcome our nominees and their families to today's 
hearing. We appreciate the long hours and the other sacrifices 
that our nominees are willing to make to serve our country, and 
their families also deserve our thanks for the support that 
they provide that is so essential to the success of these 
officials. When we call on you for your opening statements, we 
will give you an opportunity to introduce your family members 
if they are with you today.
    Jonathan Woodson has been nominated to be Assistant 
Secretary of Defense for Health Affairs, and if confirmed, he 
will be principal adviser to the Secretary of Defense on 
healthcare policies, programs, and activities and will be 
responsible for administering the $50 billion military health 
system. Dr. Woodson is well qualified for this position as a 
result of his extensive experience as an Associate Professor of 
Surgery and Associate Dean at the Boston University School of 
Medicine, Adjunct Professor of Surgery at the Uniformed 
Services University of the Health Sciences, and Fellow and 
Governor of the American College of Surgeons.
    Perhaps most important, Dr. Woodson is a brigadier general 
in the Army Reserve, has seen military medical care firsthand 
during deployments to Kosovo, to Central America, to Saudi 
Arabia for Operation Desert Storm, and to Iraq and Afghanistan 
for Operation Iraqi Freedom and Operation Enduring Freedom.
    Our other two nominees have been nominated for positions at 
the NNSA. Neile Miller has been nominated to be the Principal 
Deputy Administrator of the NNSA, and if confirmed, Ms. Miller 
will be the chief operating officer of the NNSA at a time when 
the NNSA faces the challenging task of constructing two major 
technically complex multi-billion dollar facilities.
    The two new facilities, one at the NNSA Oakridge Y-12 plant 
and the other at the Los Alamos National Laboratory, will be a 
significant challenge, but they are essential to the long-term 
ability of the NNSA to maintain the nuclear stockpile. Ensuring 
that the requirements are well defined and that the design is 
sufficiently mature to support a fully independent cost 
estimate will be just the beginning of the challenges that Ms. 
Miller would face if she is confirmed.
    Her background at the Office of Management and Budget (OMB) 
and the experience she has gained in her current position as 
the Director of the Office of the Budget at the Department of 
Energy (DOE) should help her in this effort.
    Anne Harrington has been nominated to be the Deputy 
Administrator for Defense Nuclear Nonproliferation, and if she 
is confirmed, Ms. Harrington will have the challenge of 
managing the substantial growth plan for the nonproliferation 
programs at the NNSA. She will also have a large, technically 
complex project to complete--the mixed oxide fuel facility 
complex at the Savannah River site.
    Ms. Harrington is well qualified for these tasks by virtue 
of her extensive background managing nonproliferation programs. 
In the very early days of the Nunn-Lugar Cooperative Threat 
Reduction program, she was instrumental in getting the program 
off to a successful start. Since that time, she has worked to 
coordinate the activities of the Departments of State, Energy, 
and Defense in ongoing nonproliferation efforts.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman.
    I join you in welcoming our nominees and their families, 
and I thank them for their willingness to serve in these key 
leadership positions.
    As you mentioned, Dr. Woodson has been nominated to be 
Assistant Secretary of Defense for Health Affairs. He is an 
accomplished physician, administrator, educator, and soldier.
    Having served in the Army Reserve as a medical officer for 
over 20 years, he has a distinguished record of Active Duty 
service, having deployed to the Middle East during Operation 
Desert Storm, to Kosovo with Task Force Falcon, and again to 
the Central Command area of responsibility in support of 
Operations Enduring Freedom and Iraqi Freedom. He has staffed 
and commanded combat support hospitals, forward surgical teams, 
and medical brigades. Dr. Woodson is currently assigned as 
Assistant Surgeon General for Reserve Affairs, et cetera.
    The challenges facing the Department of Defense (DOD) and 
the Defense Health Program in providing care to over 9.5 
million eligible beneficiaries and sustaining the All-Volunteer 
Force are well documented. Ensuring continued world-class 
healthcare, including mental health support, in theater and at 
home to our wounded warriors and their families is essential.
    Improving the seamless transition of healthcare between DOD 
and the Department of Veterans Affairs (VA) has to be one of 
your top priorities, as well as working to make military 
service and careers in military healthcare professions 
attractive to students and practitioners alike. I look forward 
to your testimony about these issues, and I am grateful for 
your career of service.
    Ms. Neile Miller has been nominated to be the Principal 
Deputy Administrator for the NNSA. Ms. Miller currently is the 
Director of the Office of Budget at DOE and, if confirmed, will 
bring over 20 years of experience in the fields of nuclear 
energy, defense policy, and budget analysis at OMB and in the 
DOE, to NNSA.
    NNSA is responsible for the management and security of the 
Nation's nuclear weapons, nuclear nonproliferation, and naval 
reactor programs. If confirmed as Principal Deputy 
Administrator, Ms. Miller will perform an essential role in 
continuing management reform, recapitalizing infrastructure, 
and ensuring that each dollar spent assists our friends and 
partners in reducing the global nuclear threat and guarantees 
the quality and reliability of our own nuclear deterrent.
    Ms. Anne Harrington is the nominee to be Deputy 
Administrator for Defense Nuclear Nonproliferation. Currently 
she is the Director of the U.S. National Academy of Sciences 
Committee on International Security and Arms Control. She 
served in the Department of State from 1990 through 2005, where 
she worked on nonproliferation cooperative threat reduction 
programs aimed at preventing the proliferation of weapons of 
mass destruction (WMD) and missile expertise from Russia and 
Eurasia.
    Ms. Harrington was instrumental in shaping our arms control 
policies in the aftermath of the Cold War and clearly 
understands the need for a transparent common roadmap to reduce 
the threat of proliferation.
    One of the greatest threats we face is the possibility that 
terrorists or rogue states will acquire nuclear weapons or 
other WMD. NNSA, through its Office of Defense Nuclear 
Nonproliferation, works closely with a wide range of 
international partners, key U.S. Federal agencies, U.S. 
national laboratories, and the private sector to detect, 
secure, and dispose of nuclear and radiological material and 
related WMD technology and expertise. I believe that Ms. 
Harrington is well qualified for this key national security 
role.
    I look forward to the testimony of the nominees today, and 
I thank them and their families for their service to our 
Nation.
    [The prepared statement of Senator McCain follows:]
               Prepared Statement by Senator John McCain
    Thank you, Senator Levin.
    I join you in welcoming our nominees and their families, and I 
thank them for their willingness to serve in these key leadership 
positions.
    Dr. Woodson has been nominated to be Assistant Secretary of Defense 
for Health Affairs. He is an accomplished physician, administrator, 
educator, and soldier, having served in the Army Reserve as a medical 
officer for over 20 years. Dr. Woodson has a distinguished record of 
Active-Duty service having deployed to the Middle East during Operation 
Desert Storm, to Kosovo with Task Force Falcon, and again to the 
Central Command area of responsibility in support of Operations 
Enduring Freedom and Iraqi Freedom. He has staffed and commanded combat 
support hospitals, forward surgical teams, and medical brigades. Dr. 
Woodson is currently assigned as Assistant Surgeon General for Reserve 
Affairs, Force Structure, and Mobilization in the Office of the Army 
Surgeon General and is dual hatted as Deputy Commander, Army Reserve 
Medical Command.
    The challenges facing the Department of Defense (DOD) and the 
Defense Health Program in providing care to over 9.5 million eligible 
beneficiaries and sustaining the All-Volunteer Force are well 
documented. Ensuring continued world class health care, including 
mental health support, in theater and at home to our wounded warriors 
and their families is essential. Improving the seamless transition of 
health care between DOD and the Veterans' Administration has to be one 
of your top priorities, as well as working to make military service and 
careers in military health care professions attractive to students and 
practitioners alike. I look forward to your testimony about these 
issues, and am grateful for your career of service.
    Ms. Neile Miller has been nominated to be the Principal Deputy 
Administrator for the National Nuclear Security Administration (NNSA). 
Ms. Miller currently is the Director of the Office of Budget at the 
U.S. Department of Energy, and, if confirmed, will bring over 20 years 
of experience in the fields of nuclear energy, defense policy, and 
budget analysis at the Office of Management and Budget and in the 
Department of Energy to NNSA.
    The NNSA is responsible for the management and security of the 
Nation's nuclear weapons, nuclear nonproliferation, and naval reactor 
programs. If confirmed as Principal Deputy Administrator, Ms. Miller 
will perform an essential role in continuing management reform, 
recapitalizing infrastructure, and ensuring that each dollar spent not 
only assists our friends and partners in reducing the global nuclear 
threat and guaranteeing the quality and reliability of our own nuclear 
deterrent.
    Ms. Anne Harrington is the nominee to be Deputy Administrator for 
Defense Nuclear Nonproliferation. She is currently the Director of the 
U.S. National Academy of Sciences' Committee on International Security 
and Arms Control. She served in the Department of State from 1990 
through 2005 where she worked on nonproliferation and cooperative 
threat reduction programs aimed at preventing the proliferation of 
weapons of mass destruction (WMD) and missile expertise from Russia and 
Eurasia. Ms. Harrington was instrumental in shaping our arms control 
policies in the aftermath of the Cold War, and clearly understands the 
need for a transparent, common roadmap to reduce the threat of 
proliferation.
    One of the greatest threats we face is the possibility that 
terrorists or rogue States will acquire nuclear weapons or other WMD. 
The NNSA through its Office of Defense Nuclear Nonproliferation, works 
closely with a wide range of international partners, key U.S. Federal 
agencies, the U.S. national laboratories and the private sector to 
detect, secure and dispose of nuclear and radiological material and 
related WMD technology and expertise. You are very well qualified for 
this key national security role.
    I look forward to the testimony of the nominees today, and I again 
thank them and their families for their service.

    Chairman Levin. Thank you, Senator McCain.
    Now let me ask you all the standard questions that we ask 
of all nominees before this committee. You can answer together.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    [All witnesses answered in the affirmative.]
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation progress?
    [All witnesses answered in the negative.]
    Chairman Levin. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record in hearings?
    [All witnesses answered in the affirmative.]
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    [All witnesses answered in the affirmative.]
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    [All witnesses answered in the affirmative.]
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    [All witnesses answered in the affirmative.]
    Chairman Levin. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee or 
to consult with the committee regarding the basis for any good-
faith delay or denial in providing such documents?
    [All witnesses answered in the affirmative.]
    Chairman Levin. Thank you very much.
    Dr. Woodson, I think we are going to start with you for 
your statement and your introductions, if you have any.

 STATEMENT OF JONATHAN WOODSON, M.D., NOMINEE TO BE ASSISTANT 
            SECRETARY OF DEFENSE FOR HEALTH AFFAIRS

    Dr. Woodson. Mr. Chairman, Senator McCain, members of the 
committee, thank you very much for this opportunity to appear 
before you today.
    I am honored to have been nominated by the President to 
serve as the Assistant Secretary of Defense for Health Affairs, 
and I thank Secretary Gates for his support.
    If confirmed, I pledge to apply my experience and my best 
efforts to work with the Under Secretary of Defense for 
Personnel and Readiness, the Service Surgeons General, and 
Congress to promote and safeguard the health of military 
personnel and their families and deliver the best medical care 
to the wounded warriors and all DOD beneficiaries. You will 
always receive my candid assessment.
    With me today are my wife, Sherril, and my daughter, Sarah. 
My son, Jonathan, could not be here today. My family has always 
supported and served alongside of me throughout my career. 
Families are important, and those of us who have served in the 
military understand that when we raise our right hand and swear 
to protect and defend this great Nation, we not only commit 
ourselves to this mission, but our loved ones as well. Without 
our families, we could not have the greatest military in the 
world.
    If confirmed, I will collaboratively work with leaders from 
other DOD components, intradepartmental Government agencies, 
and civilian organizations to tackle the challenges that 
confront the military health system to create new opportunities 
and solutions to advance military health, its mission, and its 
benefits to its beneficiaries.
    I understand that the portfolio for the Assistant Secretary 
of Defense for Health Affairs is broad and includes policy and 
programmatic issues related to force health protection, 
readiness, wounded warrior care, deployment health, medical 
education and training, medical research, humanitarian disaster 
response, in addition to TRICARE benefits, and other global 
health issues.
    I will draw upon my career experiences as a military 
medical officer and leader, healthcare administrator, teacher, 
researcher, and physician to engage others, set the vision, and 
motivate and inspire others to work toward common goals.
    I have always been personally inspired by the commitment 
and dedication of our soldiers, sailors, airmen, marines, and 
coast guardsmen. The highlight of my career as a surgeon has 
been caring for the wounded warriors on the battlefield. These 
talented young men and women, who have been asked to shoulder 
the responsibilities for defending this Nation and have 
suffered the consequences of nearly a decade of war, deserve 
the best medical care both at home and abroad.
    Specifically, I will work with Congress and sister agencies 
on finding the most effective strategies for preventing 
suicide, preventing and treating post-traumatic stress disorder 
(PTSD) and traumatic brain injury, and enhancing medical 
readiness of our military forces.
    I look forward to working with Secretary Shinseki on 
improving the medical evaluation board and disability 
evaluation system and processes to produce a servicemember-
centered, streamlined process that produces efficient handoffs 
from Active service to veteran status. I understand that we 
must do this while keeping in mind that we have to be good 
stewards of public resources as we enter a resource-constrained 
time in our Nation's history.
    Over the past few years, Congress has been a great partner 
in supporting the military members, raising concerns, asking 
hard questions, and demanding answers when appropriate. If 
confirmed, I look forward to your continuing engagement and 
support.
    I cannot complete these opening remarks without expressing 
my admiration for the men and women who are the heart and soul 
of the military health system. These true professionals have 
soldiered alongside their combat arms colleagues and acted as a 
force multiplier. They deserve not only accolades, but real 
assistance in helping them to perform their jobs better and 
more efficiently.
    If confirmed, I pledge to pursue diligently and 
expeditiously the implementation of a new electronic health 
record, which will not only serve all servicemembers well, but 
give the healthcare providers decision support tools to enhance 
their ability to deliver quality care, which we can simply 
define as the right care at the right time, in the right 
amount, at the right cost, that is safe and patient centered.
    I believe the military health system has the ability to 
establish new models in the delivery of medical care, evidence-
based treatment algorithms, and medical education that the 
civilian sector will want to emulate.
    I thank the committee and you, Mr. Chairman, for the 
privilege and opportunity to make these opening remarks, and I 
stand ready to answer questions that you have for me.
    Chairman Levin. Thank you very much, Dr. Woodson.
    Ms. Miller?

 STATEMENT OF NEILE L. MILLER, NOMINEE TO BE PRINCIPAL DEPUTY 
    ADMINISTRATOR, NATIONAL NUCLEAR SECURITY ADMINISTRATION

    Ms. Miller. Mr. Chairman, Senator McCain, members of the 
committee, thank you very much for the opportunity to appear 
before you today.
    I am honored to be nominated by the President to serve as 
the Principal Deputy Administrator of the National Nuclear 
Security Administration.
    I am also very grateful for the confidence placed in me by 
Secretary Chu and Administrator D'Agostino in recommending me 
for this position, and I am excited about the opportunity to 
serve as a member of the NNSA leadership team.
    Only part of my family is here with me today. My husband, 
Dr. Werner Lutze, and our sons, Max Lutze and Daniel Lutze, are 
waiting for me to rejoin them in Italy as we continue our 
vacation. I thank them for their endless enthusiastic support 
and understanding, without which nothing I do would be 
possible.
    However, I am delighted that my mother, Belle Miller, and 
my sisters, Lisa Miller and Abbey Kreinik, are here with me 
today. I consider myself truly blessed to have always been able 
to count on their love and support, as well as that of my late 
father, Arthur Miller.
    I would like to thank the members of this committee for 
your strong support for the NNSA mission. If confirmed, I look 
forward to working closely with you and your respective staffs 
in carrying out to the best of my abilities the duties and 
responsibilities of the Principal Deputy Administrator.
    The NNSA has been charged by the President and Congress 
with the principal responsibility for carrying out the Nation's 
nuclear security agenda. Even as the Senate prepares to 
deliberate further reductions in the Nation's arsenal of 
strategic nuclear weapons, the challenges facing the NNSA are 
increasing. This committee is very aware of the challenges 
facing the NNSA, and I am greatly appreciative of their support 
in the annual NNSA authorization process.
    Based on my prior experience as a senior analyst at OMB 
and, most recently, as the senior career executive at the DOE's 
Office of Budget, I have gained a unique set of qualifications 
and experiences to serve as the Principal Deputy Administrator.
    Over the past 10 years, I have developed a detailed 
knowledge of the programs, the budgets, and the personnel of 
the NNSA, from both the OMB as well as the secretarial 
perspectives. I am well aware of the significant challenges 
facing the NNSA in implementing the national security policies 
established by the President and Congress.
    If confirmed by the Senate for this position, I plan to 
work closely with the Administrator in making the difficult 
decisions needed to ensure that the Nation's nuclear security 
enterprise operates in the most effective and efficient manner 
possible. It is my intention to focus my efforts in three 
areas.
    First, I will strive for excellence in the execution of the 
major new projects assigned to the NNSA for implementation. 
These investments are needed to ensure the safe and efficient 
operation of the nuclear weapons complex. These projects must 
meet our national security objectives with an increased 
attention to the Federal budget. Plus, it is important that the 
NNSA be agile as well as efficient in project execution.
    Second, I plan to work to maintain and strengthen the 
scientific and technological basis for NNSA activities so that 
we will be adequately prepared to meet the demanding challenges 
of the future. History has repeatedly shown that a robust 
science and technology capability is the best way to prepare 
for future uncertainties.
    Third, I will lead efforts to improve the professional 
capabilities of the NNSA staff. My Federal career experience at 
OMB and DOE has taught me the key role of the professional 
staff in ensuring effective program execution. If confirmed for 
this position, I intend to work constructively with the NNSA 
career managers and staff to develop the institutional 
capabilities to ensure continuous improvement in NNSA program 
execution and performance.
    In closing, I commit to communicating with you and your 
staffs in a timely and highly effective manner to further the 
overall goals and objectives of the NNSA. With your approval, 
it would be my great privilege to serve as the Principal Deputy 
Administrator of the NNSA.
    I sincerely appreciate the opportunity to appear before you 
today, and I look forward to your questions.
    Thank you.
    [The prepared statement of Ms. Miller follows:]
                   Prepared Statement by Neile Miller
    Mr. Chairman, Senator McCain, and members of the committee: I am 
honored to be nominated by the President to serve as the Principal 
Deputy Administrator of the National Nuclear Security Administration 
(NNSA). I am also very grateful for the confidence placed in me by 
Secretary Chu and Administrator D'Agostino in recommending me for this 
position. I am very excited about this opportunity to serve as a member 
of the NNSA senior leadership team.
    Only part of my family is here with me today. My husband, Dr. 
Werner Lutze, and our sons, Max and Daniel Lutze, are waiting for me to 
rejoin them in Italy as we continue our vacation. I thank them for 
their endless, enthusiastic support and understanding, without which 
nothing I do would be possible. However, I am delighted that my mother, 
Belle Miller, and my sisters, Lisa Miller and Abbey Kreinik, are here 
with me today. I consider myself truly blessed to have always been able 
to count on their love and support, as well as that of my late father, 
Arthur Miller.
    I would like to thank the members of this committee for your strong 
support of the NNSA mission. If confirmed, I look forward to working 
closely with you and your respective staffs in carrying out to the best 
of my abilities the duties and responsibilities of the Principal Deputy 
Administrator.
    The NNSA has been charged by the President and Congress with the 
principal responsibility for carrying out the Nation's nuclear security 
agenda. Even as the Senate prepares to deliberate further reductions in 
the Nation's arsenal of strategic nuclear weapons, the challenges 
facing the NNSA continue. I am greatly appreciative of the support 
provided by the committee in the annual NNSA authorization process to 
help us meet these challenges and our nuclear security mission.
    Based on my prior experience as a senior analyst at the Office of 
Management and Budget (OMB), and most recently, as the senior career 
executive at the Department of Energy's Office of Budget, I have gained 
a unique set of qualifications and experiences to serve as the 
Principal Deputy Administrator. Over the past 10 years, I have 
developed a detailed knowledge of the technical programs, budgets, and 
personnel of the NNSA, from both the OMB as well as the Secretarial 
perspectives. I am well aware of the significant responsibilities 
facing the NNSA in implementing national security policies established 
by the President and Congress.
    If confirmed by the Senate for this position, I plan to work 
closely with the Administrator in making the difficult decisions needed 
to ensure that the Nation's Nuclear Security Enterprise operates in the 
most effective and efficient manner possible. It is my intention to 
focus my efforts in three areas:
    First, I will strive for excellence in the execution of the major 
new projects assigned to the NNSA for implementation. These investments 
are needed to ensure the safe and efficient operation of the nuclear 
weapons complex. These projects must meet our national security 
objectives with an increased attention to the Federal budget. Thus, it 
is important that NNSA be agile as well as efficient in project 
execution.
    Second, I plan to work to maintain and strengthen the scientific 
and technological basis for NNSA activities, so that we will be 
adequately prepared to meet the demanding challenges of the future. 
History has repeatedly shown that a robust science and technology 
capability is the best way to be prepared for future uncertainties.
    Third, I will lead efforts to improve the professional capabilities 
of the NNSA staff personnel. My Federal career experience at OMB and 
DOE has taught me the key role of the professional staff in ensuring 
effective program execution. If confirmed for this position, I intend 
to work constructively with NNSA career managers and staff to develop 
the institutional capabilities to ensure continuous improvement in NNSA 
program execution and performance.
    In closing, I commit to communicating with you, and your staffs, in 
a timely and highly effective manner to further the overall goals and 
objectives of the NNSA.
    With your approval, it would be my great privilege to serve as the 
Principal Deputy Administrator of the NNSA. I sincerely appreciate the 
opportunity to appear before you today. I look forward to your 
questions, and I thank you for your consideration.

    Chairman Levin. Thank you, Ms. Miller.
    Ms. Harrington.

     STATEMENT OF ANNE M. HARRINGTON, NOMINEE TO BE DEPUTY 
 ADMINISTRATOR FOR DEFENSE NUCLEAR NONPROLIFERATION, NATIONAL 
                NUCLEAR SECURITY ADMINISTRATION

    Ms. Harrington. Mr. Chairman, Senator McCain, and members 
of the committee, I am honored to appear before you as the 
nominee for Deputy Administrator for Defense Nuclear 
Nonproliferation at the Department of Energy's National Nuclear 
Security Administration.
    I am grateful to President Obama for nominating me for this 
position and for the confidence expressed by Secretary Chu and 
Administrator D'Agostino in his selection.
    I am very fortunate to have the support of a wonderful 
family, most of which could not be here today. My mother, 
Margaret LaRocque, lives in northern New York. My daughter, 
Meredith Lynch, is finishing her dissertation at the University 
of St. Andrews in Scotland. My sister, Eileen Wetmiller, and my 
brother, George Harrington, also were not able to be here.
    I am delighted that my son, Owen Lynch, a student at 
Virginia Tech majoring in physics and philosophy, is here. 
Finally, I would like to thank my friends and colleagues who 
are here to support me today.
    I have devoted the last 20 years of my career to preventing 
the proliferation of WMD, first in the Department of State and 
for the last 5 years at the National Academy of Sciences. Those 
experiences have demonstrated the enormous challenges facing us 
every day and also demonstrate the incredible value that rests 
in developing partnerships, both without our Government and 
with others, to accomplish the tasks that we must confront.
    Mr. Chairman, I am truly humbled by the opportunity 
President Obama has given me. If confirmed, I pledge to work 
closely with you and with this committee to strengthen the 
Nation's security against nuclear threats.
    I thank you for your consideration and welcome any 
questions you may have.
    [The prepared statement of Ms. Harrington follows:]
                Prepared Statement of Anne M. Harrington
    Mr. Chairman, Senator McCain, and members of the committee, I am 
honored to appear before you as the nominee for Deputy Administrator 
for Defense Nuclear Nonproliferation at the Department of Energy's 
National Nuclear Security Administration. I am grateful to President 
Obama for nominating me for this important position and for the 
confidence expressed by Secretary Chu and Administrator D'Agostino in 
his selection.
    I am very fortunate to have the support of a wonderful family, most 
of which could not be here today. My mother, Margaret LaRocque, lives 
in northern New York, and my daughter, Meredith Lynch, is finishing her 
dissertation at the University of St. Andrews in Scotland. I am 
delighted that my son, Owen Lynch, a student at Virginia Tech majoring 
in physics and philosophy, is here. Finally, I would like to thank my 
friends and colleagues who are here today to support me.
    I have devoted the last 20 years of my career to preventing the 
proliferation of weapons of mass destruction, first in the Department 
of State and for the last 5 years at the National Academy of Sciences.
    Mr. Chairman, I am truly humbled by the opportunity President Obama 
has given me, and if confirmed, I pledge to work closely with you and 
this committee to strengthen the Nation's security against nuclear 
threats at the NNSA. I thank you for your consideration and welcome any 
questions you may have.

    Chairman Levin. Thank you very much, Ms. Harrington.
    Let us try a 7-minute round for questioning. First, Dr. 
Woodson, the Defense Health Program budget request, including 
retiree healthcare costs, has tripled from $16.6 billion in 
2001 to $51.7 billion in 2011. That is a huge increase, way 
above inflation in 10 years.
    Secretary Gates made the statement last year that, 
``Healthcare is eating the Department alive.'' In February of 
this year, he said that he ``would like to work with Congress 
in figuring out a way to try and bring some modest control to 
this program.''
    If you are confirmed, what would you do to try to address 
the rising costs of providing healthcare to our almost 10 
million eligible beneficiaries?
    Dr. Woodson. Thank you, Mr. Chairman, for that question.
    Obviously, the cost of healthcare is a concern not only in 
the military, but in the civilian population as well. I think, 
going forward, what we would need to do is work with a number 
of constituents and try and stem the rise of that cost.
    One opportunity is to look at more cost efficient care and 
do appropriate research in terms of therapies that are really 
effective. There is a lot of potential waste in the way we 
deliver care because of the culture of medicine, and there is 
opportunity to decrease the variability in care that might 
result in cost savings.
    We need to look at the issue of inter-Service coordination 
within the military health system and see where we can 
streamline measures there as well to increase the efficiency of 
the administrative process.
    There are a lot of other ideas and issues that need to be 
looked at, researched and developed, but those are two off the 
top of my head.
    Chairman Levin. One of the areas where there is a great 
deal of waste in the medical world has to do with the lack of 
use to date of electronic health records. We have taken some 
steps in a number of bills to try to promote this.
    But it is also important in terms of providing good care to 
our beneficiaries that there be a seamless transition between 
DOD and the VA healthcare systems so that we can share medical 
records of servicemembers who are moving from one system into 
another, and so we can share those records.
    In addition, there is still a lack of adequate 
interoperability between the DOD and the VA electronic record 
systems and the outside civilian contractors. I am wondering--
and you made reference to this in your opening comments, Dr. 
Woodson--can you give us your assessment of the strengths and 
the weaknesses of the DOD's electronic health record system 
called AHLTA [Armed Forces Health Longitudinal Technology 
Application]. How would you compare that system, that 
information technology system to the system which is used in 
civilian medicine today?
    Dr. Woodson. Again, thank you for that question.
    First, I would make a comment that I don't think you can 
find a common system within the civilian sector. Electronic 
health records are not that ubiquitous, number one, in 
healthcare systems. But number two, they utilize a number of 
off-the-shelf and homegrown technology to create the electronic 
health records. As a result, many don't talk to each other at 
all.
    It has been my experience, working both within the military 
health system and outside, that, actually, the AHLTA system is 
a little bit ahead of the curve. The problem with the AHLTA 
system is that it was developed mainly to capture a lot of 
administrative data. So, from the health provider user end, it 
is not an efficient tool to take care of patients.
    It is a little bit cumbersome. The various databases don't 
talk to each other, and it doesn't provide the decisionmaking 
tools to lead to efficient provider care that might actually 
reduce the cost of care.
    For example, decisionmaking tools on the right antibiotic 
at the right time, the issue that might lead to a safer use of 
drugs. For example, if you are going to use an antibiotic that 
might affect the kidneys, what the proper dosage should be.
    The issue is that it has a lot of administrative features 
to it that don't help the provider, and so, that would need to 
be reformed.
    Chairman Levin. Is this system, the AHLTA system, used 
between DOD and the VA, and between the two of them and the 
outside contractors?
    Dr. Woodson. Once again, I think the VA has a different 
system. The military health system has another electronic 
medical record. Then when you go out in the civilian world, 
there are a lot of varieties and flavors of electronic health 
records, and that is part of the problem.
    Looking ahead to 2015, of course, in some of the 
legislation that has been passed, the whole idea is to create 
some common properties of electronic health records so that 
they can talk to each other and information can be shared.
    Chairman Levin. So the VA and DOD are not now talking to 
each other through the AHLTA system?
    Dr. Woodson. Currently, there are a lot of efforts underway 
to be able to share the information. I don't think it is there 
yet.
    Chairman Levin. Okay. Now we, as a Congress, are extremely 
concerned about the increase in suicides in each of the 
Services over the last several years. Can you give us some of 
your thoughts on what role you might play in addressing that 
tragic problem?
    Dr. Woodson. Thanks again for that question. Of course, it 
has been of significant concern to both Members of Congress and 
a number of officials within the military health system, as 
well as providers and the Joint Chiefs of Staff.
    General Chiarelli came out with this report last week of a 
Department of the Army study, and I thank General Chiarelli for 
undertaking that effort. What he has done, I think, is painted 
a holistic picture of the many complex issues that come into 
the issue of suicide. He has made some 250 recommendations, 
some of which fall in the lane of health affairs and others 
within the institutional Army.
    The issue really is, I think, we have a better profile of 
who is at risk. Clearly, perhaps on the front end, we need to 
do a better job of screening candidates that might come into 
the military and see if they are fit to remain in the military. 
It appears that first year and that first tour and that first 
enlistment is a vulnerable period.
    We need to build resiliency training into the basic 
introduction of recruits into the military. Then, of course, we 
have to do better longitudinal assessments of their behavioral 
health needs. We are beginning to understand what the markers 
are for soldiers at risk--those with failed relationship, 
financial difficulty, drug and alcohol abuse.
    There is a piece of this that can be, I think, fixed with 
better monitoring and adherence to discipline. I think General 
Chiarelli has come up with a number of very good 
recommendations that we will have to examine further and help 
implement.
    Chairman Levin. Thank you, Doctor.
    Senator McCain.
    Senator McCain. Doctor, do you agree with Secretary Gates's 
statement, ``Healthcare costs are eating the department 
alive?''
    Dr. Woodson. I agree with that statement, and there has 
been----
    Senator McCain. Can you give me a couple of specific 
examples of steps that you think could be taken right away?
    Dr. Woodson. Sir, once again, I think Senator----
    Senator McCain. Specific examples.
    Dr. Woodson. Right. I think we have to look at the inter-
Service coordination to decrease some of the administrative 
costs of administering the healthcare system--the training 
costs, the cost of running military health facilities. These 
are things that we can look at.
    Senator McCain. Again, I would like to hear a specific 
example. Is that by putting health records online? In other 
words, it is nice to say we could do a better job, but I would 
like a couple of specific examples.
    Dr. Woodson. I think we can decrease the administrative 
costs. So I think each----
    Senator McCain. How do you do that?
    Dr. Woodson.--each of the Services----
    Senator McCain. How do you decrease the administrative 
costs?
    Dr. Woodson. Each of the Services has a structure that 
supports their delivery of care. As a result, if you have 
better coordination, you can reduce that structure.
    We also have to look at the delivery of healthcare within 
each military health facility. I think the electronic health 
record also, because it will be more efficient and have 
decisionmaking tools, will reduce the variability in care so 
that the individual practitioner will not be ordering extra 
tests, if you will, that add to the cost of delivering care.
    Senator McCain. You have a very tough job, Doctor, and the 
fact is that healthcare is really an incredibly increasing cost 
burden. I hope that as you get into your job more heavily, you 
will be able to give this committee some very specific ideas. I 
understand your answer, but we have to come up with some 
specific ideas and proposals, and I thank you for your 
willingness to serve.
    Ms. Miller, we have had the directors of the laboratories, 
as well as the former directors here before the committee. I 
hope you will consult with both former as well as present 
directors of the laboratories. I think there is a lot of 
knowledge and wisdom from past experience, as well as present 
experience.
    Ms. Miller. I absolutely will be doing that, and I can add 
that from a long career of working in and around DOE's 
laboratories, both the Defense laboratories as well as the 
others, I have had the opportunity to develop relationships 
over the years with many who were directors when I first met 
them and are now former directors, as well as the current 
directors. Even in my capacity at OMB, these have been ongoing 
relationships that I have had and certainly will continue to do 
so.
    Senator McCain. Thank you.
    Ms. Harrington, what is your assessment of the ability of 
Pakistan to secure their nuclear material and prevent 
proliferation?
    Ms. Harrington. Thank you for your question.
    That is a complicated issue, and I think if you give me the 
opportunity to be fully briefed on that subject, I would like 
to come back to talk to you and the rest of the committee, 
probably in a classified environment.
    Senator McCain. Would you rather we do that before or after 
your confirmation? [Laughter.]
    Ms. Harrington. Since I still have a day job at the 
National Academy of Sciences, it probably would be more 
appropriate afterwards.
    Senator McCain. But you do not have previous experience 
with the issue of the Pakistani nuclear stockpile?
    Ms. Harrington. I have had some contact with Pakistan in my 
current position. I visited there several years ago where we 
were hosted by General Kidwai and others involved in the 
Pakistani military. But specific questions on the security and 
safety of their stockpile were beyond the range of those 
discussions.
    Senator McCain. Do you believe that the A.Q. Khan network 
is still functioning? In other words, are they still providing 
expertise and equipment to other nations on nuclear weapons?
    Ms. Harrington. In my current position, I do not have full 
access to the intelligence that would allow me to give a 
comprehensive answer to that, but I think we must always be 
vigilant, and we must always assume that there are those who 
would sell expertise or sell technology for their own 
personal----
    Senator McCain. I was speaking specifically of the A.Q. 
Khan network.
    Ms. Harrington. Again, I would have to say I don't have the 
full benefit of intelligence to be able to answer your 
question, but I am happy to do that when I am fully briefed.
    Senator McCain. Thank you.
    Again, Dr. Woodson, you have a very tough job. On the issue 
of suicides, it is a very serious question, and the thing that 
I don't quite understand is it does not seem to be related with 
deployment. It seems to be related to other issues which are 
hard for us to really grasp, but it is obvious that it is a 
serious issue.
    We have made great progress in the transition from Active 
Duty military care to VA care, but there still emerges quite 
often glitches, problems, delays, paperwork, or computer work, 
and I hope you will continue to look at that aspect of your 
responsibilities.
    I know every member of this committee spends a great deal 
of time with our constituents who come to us and are veterans 
who have not received either timely or, in their view, 
appropriate addressing of the issues that arose as part of 
their military service. I hope you will pay close attention to 
that.
    I know you will. But your major challenge is to get this 
cost under control, and frankly, I don't know if you can do it, 
isolate military healthcare from the overall rising cost of 
healthcare in America. Maybe next January, when we repeal and 
replace Obamacare, we will have a better shot at it.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Wicker.
    Senator Wicker. Thank you very much.
    I appreciate all three witnesses coming, and I appreciate 
their families joining them.
    I do want to talk to Dr. Woodson a little more. You do have 
a tough job. There is no question about it. There is also no 
question that you bring some unique qualifications to this job, 
should you be confirmed.
    Not only are you a very experienced vascular surgeon, but 
you served in the Army Reserve as Assistant Surgeon General for 
Reserve Affairs, Force Structure and Mobilization. I believe it 
is also correct that you are Deputy Commander of the Army 
Reserve Medical Command. Is that correct?
    Also, you have been there. You have served us in Saudi 
Arabia with Operation Desert Storm, also in Kosovo, Operation 
Enduring Freedom, Operation Iraqi Freedom, and also you 
responded in New York City to the September 11 attack. Is that 
all correct?
    Dr. Woodson. Yes, Senator.
    Senator Wicker. Thank you very much for your service there. 
I do think that will bring a great deal of experience to this 
very tough job you have.
    We are saving a lot more of our troops that are injured. 
While we grieve the fatalities that we have and we regret the 
injuries we have, we do have to celebrate the fact that we are 
bringing a lot more people back to treat their injuries, rather 
than losing their lives on the field of battle.
    This affects our doctors and our medical personnel, no 
question about it. The length of deployments is decreasing for 
doctors and medics, but the rate of deployment among these 
personnel is increasing.
    Do you agree, Doctor, with the recent Government 
Accountability Office (GAO) report stating that military 
medical physicians are in high demand, and the Services have 
been consistently unable to meet their authorization levels?
    Dr. Woodson. I believe that is true. We have seen, 
particularly in the Army Reserve, that we are now at about 89 
percent of fill rate for some of these professionals.
    Senator Wicker. Okay. Would you characterize the shortages 
among medical professionals, including physicians, dentists, 
nurses, and the like as--would you characterize those shortages 
as severe at this time?
    Dr. Woodson. I would not characterize them as severe, but 
we need to implement some new strategies to ensure that we have 
the members in the ranks that we need for the future.
    Senator Wicker. All right. You may find yourself at odds 
with a majority of the members of this committee and with the 
leadership of this committee. One of the questions submitted to 
you by the joint leadership of this committee states flatly 
under the term ``Medical Health Professional Recruiting and 
Retention,'' and I quote, ``The DOD is facing severe shortages 
of military medical professionals, including physicians, 
dentists, nurses, and needed for its peacetime and wartime 
missions.''
    As a matter of fact, you answered several questions based 
on that premise. I want to ask you as this confirmation process 
continues, for you to rethink that, and it may very well be 
that we need someone in your position who understands the 
severe shortage of medical military professionals, as the 
chairman and the ranking member apparently do in submitting 
that question.
    You stated in your answers, ``Having fewer than the optimum 
number of uniformed healthcare professionals could result in 
increased private sector care costs and lower medical force 
morale.'' That might have been, perhaps, an answer to the 
request for specifics that Senator McCain propounded to you.
    You further say it is important to properly manage 
recruiting, pay, and retention programs to ensure appropriate 
balance. But then when asked, based on your service, which is 
extensive, ``Do you have any recommendations about the 
effectiveness of incentives?'' your answer is specifically 
``not at this time,'' that we need to do constant review and 
updating.
    You were further asked, Doctor, ``What other steps can be 
taken to eliminate shortages of medical personnel, including 
nurses and mental health providers?''
    Your response there is, ``I do not have any specific 
recommendations at this point. But if confirmed, I will work to 
understand what factors contribute to these shortages and take 
action to resolve these matters.''
    I just want to say I don't know how controversial this 
nomination is going to be, Doctor. But you have been asked by 
the first three questioners about this issue, and I would 
submit, with all due respect for your qualifications, for your 
educational level, your experience and your service to this 
country, that a lot more thought, sir, needs to be put into 
this issue as we go forward because I do think it is, indeed, 
severe.
    Let me tell you, I talked to a servicemember the other day. 
Now he is stationed in the continental United States. His wife 
has to routinely wait more than 3 weeks for an appointment for 
their infant because there are not enough doctors at their 
military medical clinic. This is not in a remote location, 
Doctor.
    There was a one-half hour slot available during an entire 
month. There clearly are not enough doctors because the clinic 
is forced to deploy doctors to meet the demand overseas. It 
seems to me that many State-side clinics are stretched too 
thin.
    Do you encounter this? Would you say this is an exception 
to the rule or that this is a frequent problem that we might 
have?
    Dr. Woodson. Senator, thank you very much for your comments 
and your question.
    I cannot speak specifically to the situation that you have 
just illustrated. I have spoken with Admiral Hunter, and she 
tells me that this situation is improving across the spectrum 
and cites that care is being delivered. But, again, I cannot 
speak to the specific example that you have given.
    Senator Wicker. Okay. Thank you very much.
    I think the chair has indicated we may have time for a 
second round. If so, Mr. Chairman, I will be here for that 
second round.
    Chairman Levin. There will be a second round if members 
desire. Absolutely.
    Senator Brown is next.
    Senator Brown. Thank you, Mr. Chairman. Good to see you.
    Dr. Woodson, I am always approached, being in the military 
and, obviously, with the healthcare reform that was passed, a 
lot of military folks are concerned about TRICARE and their 
coverages with TRICARE and how they match up with the new 
Federal plan. I have heard that there is going to be no change. 
Is that your understanding as well?
    Dr. Woodson. Yes, Senator, that is correct. That is my 
understanding.
    Senator Brown. We are going to have a national healthcare 
law that is supposedly going to reform the way that healthcare 
is delivered, yet we have a system in the military, and these 
folks--your understanding, they are going to be completely 
excluded from that? They will still get the TRICARE coverages 
that they have had for quite a while?
    Dr. Woodson. That is my understanding, Senator.
    Senator Brown. Okay. I echo what the folks have said here, 
what the Senators have said here. My biggest concern is it is 
about the money. What efforts can we do and make to save money 
so we can have more available for the soldiers individually?
    I just thought right off the top, how do you save money? I 
would say, we can consolidate the way we communicate between 
the different Services. We can update and modernize the billing 
procedure, the scheduling, the records keeping.
    We could also look if there is any duplication of services 
between the agencies. Can we share? Is there a base down the 
road that does that specialty better than shipping it outside 
our bases?
    Because when we talk about pushing things out the door and 
the civilians will cover it, my impression--and I know you 
obviously have Massachusetts roots--is that they don't have any 
ability to care for the soldiers either. What are they forced 
to do? They are forced to go to the emergency room.
    Then we are in a vicious cycle again of one of the reasons 
we in Massachusetts passed the healthcare reform that we did is 
because the folks were going into the emergency rooms and just 
using that care and not trying to go through the appropriate 
channels.
    Those are a couple of things I am concerned with. Here it 
is. I just reeled off a few things. I would really focus and 
provide answers, if possible, as to what specifically you plan 
to do, because it seems like that is what you are going to be 
tasked to do, to save the Government money, which, in turn, can 
be used, I am hopeful, to provide better and quicker service, 
hire more doctors, nurses.
    What do you need? What are the tools and resources you are 
going to need to do it better? That is kind of a statement. But 
a question would be, what is your philosophy with regard to 
what I just said? Am I going down the right path here with your 
philosophy, or is it different somehow?
    Dr. Woodson. Thank you very much, Senator, for those 
comments. In fact, you have hit upon a number of very key 
issues.
    If you look at the issues of TRICARE, a lot of the costs 
are in the retiree population that actually uses services on 
the economy. Both you and Senator McCain have hit the nail on 
the head that we have to be able to communicate with the 
civilian sector and be able to control those costs as they 
become consumers on the economy.
    This gets into the issue of information sharing and making 
sure that we put out good algorithms of care, that we reduce 
the variability, that we understand what sorts of treatment 
that they are receiving. Because, in fact, the way doctors 
practice contributes a lot to the cost of care. We are going to 
have to look at all of those issues comprehensively.
    Senator Brown. I would encourage you to do so because the 
fact that when I had my children and they were younger, the 
thought of waiting 3 weeks to have an ear infection taken care 
of or something like that, or some type of sore throat--it 
would be torture, not only at home with the constant yelling 
and crying and the like.
    If there is a way to certainly address the line issue, that 
would be greatly appreciated.
    For Ms. Miller and Ms. Harrington, how critical do you both 
feel the uranium processing facility and the chemistry and 
metallurgy research replacement facilities are to our future 
stockpile? Could the delays in construction lead to a need to 
either conduct an underground nuclear test or to withdraw from 
the New START Treaty?
    Ms. Miller. Thank you, Senator. I am going to answer that 
question on behalf of both of us.
    Both of those facilities are absolutely critical to the 
continued health of the nuclear weapons stockpile and certainly 
to the long-term commitment to nuclear security in this 
country. At this time, we do not anticipate any type of 
catastrophic delay in either of these facilities, although they 
are not meant to come online for a good number of years yet, 
that any sort of delay that would lead us to go down a 
different path than we are currently on with regard to the 
treaty or with regard to resuming testing right now. I have 
every reason to believe we are going to stay successful on the 
path we have established for both of those facilities.
    Senator Brown. Once again, it comes down to the money, Mr. 
Chairman. You know we are struggling to pay the bills. What do 
you see your role will be as to streamline, consolidate, 
update, and upgrade?
    Do you think there is any cost savings in what you are 
doing or plan to do in the future, in addition to obviously 
getting funds to do upgrade, update? What do you think you 
could do to help save the bottom line?
    Ms. Miller. I think, in my experience, there are several 
directions that you have to look at. One is how things are done 
now and whether there are ways to do them in a more efficient 
or a more cost-effective way, and that is certainly true of all 
the operations in the NNSA and certainly something that I will 
be looking at strongly.
    At the same time, I think what we would want to look at 
and, if confirmed, what I would be looking at personally is, as 
these projects develop, both in design and, as they go toward 
construction, to be sure that cost growth does not get ahead of 
good analysis. In other words, I think it is absolutely vital 
to be cognizant of the design and the construction plans as 
they proceed so that cost growth can be contained early and you 
do not wind up on a path of uncontrollable costs and 
unsustainable growth.
    Senator Brown. Thank you.
    I would also just suggest that some of these contracts that 
are awarded, you have to keep an eye on them and make sure they 
are timely, and they are not going over budget, and they are 
not doing some of these crazy reward packages for not hitting 
deadlines. I have never seen anything like it. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Brown.
    Let us try our second round, maybe the same length. But 
there could be a third round, too, Senator Wicker, should you 
want one.
    Ms. Miller, for you, the NNSA has two major new first-of-a-
kind, technically complex, multi-billion dollar facilities that 
it needs to build over the course of the next decade or so--one 
at Oak Ridge, one at Los Alamos. You are going to be playing a 
major role in the oversight of these projects, if you are 
confirmed.
    By the way, DOE is on the GAO list as a high-risk agency 
for project management. So the DOE is not doing well from the 
GAO perspective in terms of managing projects. These are huge 
projects. Now the question will be what do you think that the 
NNSA can do to get off the GAO list?
    Ms. Miller. With regard to the list, of course, the list 
includes NNSA projects, as well as projects from the rest of 
DOE, and there are problems in many different directions that 
have caused these projects to be on that list.
    Specifically, with the NNSA and with regard to the two 
projects that you referred to, I think that certainly the 
Administrator has testified to the increased efforts to be made 
in project management, both within the current DOE guidelines 
for construction management, the Order 413, as well as beyond 
that, the restrictions or the directions of that order. That 
includes, for example, strong, independent cost analysis at the 
outset.
    The Administrator is committed to, and I, if I am 
confirmed, would be certainly helping to lead the effort to 
have an independent cost analysis performed for those projects 
early on so that we have a better sense of what we are looking 
at in terms of costs.
    Right now, we have organized with DOD's cost analysis 
group, as well as the DOE's Office of Cost Analysis, an 
independent review that we expect to be carried out and 
completed in September in time to be able to inform the OMB 
Fiscal Year 2012 process. These cost analyses need to be done 
at the beginning, and it needs to be done later, as the design 
develops and the project develops. I think really good project 
management starts with good cost analysis.
    I think regular reviews with the contractor, as well as 
review of all of the program requirements, is also going to be 
essential in all of these cases. Has this gone on in the past? 
Of course it has, but probably not to the depth and length that 
it needed to and the frequency.
    Chairman Levin. The NNSA utilizes contractors to operate 
its major facilities and laboratories. Now that is an 
organizational structure unique in the Federal Government. I 
believe you just made reference to those contractors. Within 
that structure, there are some who think there is too little 
oversight. That is folks like GAO. There are folks that think 
there is too much oversight, and that is probably the 
contractor.
    The Strategic Posture Commission raised this as one of the 
issues that has led to inefficiencies in the execution of NNSA 
projects. Is it your view that there is too little or too much 
oversight of the contractor?
    Ms. Miller. It is my experience that it is very much 
dependent on the given situation. I can recall projects when I 
was at OMB that I was informed about after the fact. The 
project had gone very far afield from the original cost 
estimates, and the analysis at the end was that there was 
insufficient Federal oversight. This is not a new problem with 
any of these projects at DOE.
    I think it has been a problem that has very much gotten the 
attention of the current administration, and I think there are 
strong efforts, and again, this goes beyond the NNSA, but 
certainly within the NNSA, to be cognizant of how much Federal 
oversight is going to be necessary in particular with these 
large, expensive, complicated nuclear projects that we have to 
build.
    At the same time, I know it has been the view of many of 
the people of the science laboratories that oversight can, at 
the same time, become so micro that it prevents them from doing 
the science the way they think that science needs to be done. I 
think this really depends on the given situation, but I do 
believe that hard questions need to be asked and answered.
    Chairman Levin. The Deputy Secretary of Energy is engaged 
in a review now of the various DOE regulations and orders that 
govern the operations that you just talked about of the DOE 
contractors, including the NNSA contractors. Do you know what 
your role is going to be if you are confirmed in this review 
process?
    Ms. Miller. I do not, Senator, except to say that depending 
on at what point my confirmation might occur and at what stage 
of his review that would happen, I would be confident that I 
would be playing a role in it. But I can't speak to it 
specifically right now.
    Chairman Levin. The management of the protective forces at 
NNSA facilities is an issue which has been of concern to the 
committee, and a report on the way ahead for the management of 
these protective forces was supposed to be here by the end of 
April. Do you know the status of that report?
    Ms. Miller. My understanding is that the report is soon to 
be submitted to the committee. But beyond that, I am not sure.
    Chairman Levin. Okay. If you are confirmed, will you give 
us an update?
    Ms. Miller. I definitely will, Senator.
    Chairman Levin. Ms. Harrington, let me ask you about the 
mixed oxide fuel program, the MOX program. That is the U.S. 
portion of the U.S.-Russia joint commitment to transform and 
reuse 34 metric tons of excess weapons-grade plutonium to power 
commercial nuclear reactors.
    A facility to convert the plutonium into commercial power 
reactor fuel is underway, but apparently way beyond schedule--
way late and over budget. The approach to the companion 
facility to take apart the plutonium parts of a nuclear weapon 
has changed over time. So a decision needs to be made and 
implemented quickly, as there is already a risk that enough 
plutonium will not be ready in time to keep the new MOX 
facility running for more than a year or so.
    Have you had an opportunity to examine the options for the 
pit disassembly? What are your thoughts on how to approach the 
critical issue of timing to support the MOX facility, if you 
are familiar with it?
    Ms. Harrington. Thank you for your question, Senator.
    I have not been briefed in depth yet on this issue, but my 
understanding is the following. That the option is being 
considered at the moment to integrate both the MOX facility and 
the pit disassembly and conversion facility at the Savannah 
River site. That there is an awareness that there needs to be 
feedstock flowing into the MOX facility when it is completed 
and that the pit disassembly and conversion plant may not be 
prepared to provide that feedstock at that point. There have 
been I believe it is 10 metric tons of plutonium identified 
that can be the initial feedstock into the plant while the 
other facility is being completed.
    As I said, I haven't had a full briefing on this yet. I 
would be happy to come back and talk to the committee further 
on this after I have had an opportunity to learn more.
    Chairman Levin. Thank you, Ms. Harrington.
    Senator Wicker.
    Senator Wicker. Thank you, Mr. Chairman.
    Dr. Woodson, let me just get back to the shortages we have. 
Do you have any reason to quarrel with the assertion of the 
Navy leadership that the Navy falls short in these areas of 
personnel--aerospace medicine, preventive medicine, radiology, 
general surgery, cardiothoracic surgery, orthopedic surgery, 
and nursing? Would you say that is a fair and accurate 
statement that has been made by Navy personnel?
    Dr. Woodson. If Navy personnel have made those statements, 
I have no reason to quarrel with it.
    Senator Wicker. Okay. Likewise, if the Air Force leadership 
say they lack comprehensive dentists, oral surgeons, specialty 
nurses, independent duty medical technicians, and orthopedic 
technicians, you would have no reason to disagree with that 
assertion either?
    Dr. Woodson. Correct, Senator.
    Senator Wicker. It is correct that these types of 
personnel, both physicians and related medical personnel, are 
needed for our wounded when they return home. They are needed 
for our families, whether the service personnel themselves are 
stationed overseas or at home. Is that correct?
    Dr. Woodson. That would be correct, Senator.
    Senator Wicker. Do you have enough information at this 
point, based on your experience, to tell us whether, likewise, 
we have a problem with facilities? Or is it simply personnel 
where there is a shortage?
    Dr. Woodson. Senator, thank you very much for the question 
and the comments. I have not received a detailed briefing from 
all of the Services on their personnel and health facilities 
issues. I can't speak to the details of that.
    I would make one comment to bring context to this is that 
we do know that we have issues with certain what we call areas 
of concentration or specialties. General surgery, for example, 
is one of those specialties that has been difficult to recruit.
    I would just make one other comment to bring context to 
this, that the way medicine is now practiced in the civilian 
community, where we draw a lot of the practitioners from, and 
the way they train has produced particular issues and 
restrictions in terms of accessing these individuals into the 
military.
    Very early in careers now, doctors narrow the scope of 
their practice and practice in very narrow specialties, and 
oftentimes, we need them to come into the Service and practice 
more broadly. The numbers of individuals that are out there in 
civilian practice that could be accessed into the military has 
changed because of the way training is conducted and the way 
physicians practice in the civilian sector. So, we are going to 
have to look at this as well.
    Senator Wicker. A further problem that enhances the 
shortages. I would note at this point that this committee, if 
it persists in the Burris amendment, is about to make the 
situation worse. The Burris amendment would allow abortions to 
be performed in military health facilities, provided the 
patient pay for the abortion herself or through a different 
insurance program.
    Now, when we went to this procedure back in 1979, in that 
fiscal year, there were approximately 1,300 abortions performed 
during that fiscal year. Should the Burris amendment prevail on 
the Senate floor, where I will be moving to strike it, or 
should it prevail in the House of Representatives, where there 
is no such provision, there is no telling how many abortions 
our already taxed personnel and already strained facilities 
would have to accommodate, even though, theoretically, the 
abortion would be paid for by private sources or private 
insurance.
    Next year, if we perform 1,300 abortions in military 
facilities, Doctor, that is going to take personnel away from 
treating our wounded servicemen or treating their families. 
Isn't that correct?
    Dr. Woodson. Senator, I appreciate your concern, but I 
can't speak to that directly because I would have to do some 
analysis of personnel and where they are at. Also, we would 
have to consider the specialty that is involved in that 
procedure and see the numbers that are available. I am sorry I 
can't give you an answer at this time.
    Senator Wicker. Okay. If a women's facility or if a women's 
ward in a military hospital has to take up space to accommodate 
abortion, use of that facility that is not available for other 
uses, it stands to reason, doesn't it?
    Dr. Woodson. Again, I appreciate your concern. Generally, 
those are ambulatory procedures and use a different specialty. 
But I am sorry, Senator, I can't answer your question directly 
because I would have to do the personnel analysis and the 
facility utilization analysis in order to see how much of an 
impact that would have.
    Senator Wicker. Clearly, it would take a medical doctor to 
perform that abortion, would it not?
    Dr. Woodson. Correct, of a certain specialty.
    Senator Wicker. Exactly. It would require a facility to be 
taken up for a certain amount of time. Is that correct?
    Dr. Woodson. Again, most of those are ambulatory 
procedures.
    Senator Wicker. That ambulatory facility would be taken up, 
at that point, for that abortion. Isn't that correct?
    Dr. Woodson. Yes, sir.
    Senator Wicker. It stands to reason.
    I would just say this. Mr. Chairman, I will not take 
another round. But if we continue with the Burris amendment, it 
is going to weigh down this legislation to the extent where I 
do not know if we can have a bipartisan consensus to go forward 
with an essential DOD authorization bill during calendar year 
2010.
    Abortions not only would create demand in the hospital, 
they would create demand for facilities and among 
practitioners. They also are going to create demand for mental 
health professionals. You don't have to take my word for it as 
a layman. A 2008 study in the Journal of Psychiatric Research 
showed that abortion is a risk factor for PTSD, major 
depression, and more than a dozen different psychiatric 
disorders. That is the Journal of Psychiatric Research.
    The Medical Science Monitor found that of the women 
studied, 65 percent who had undergone abortions reported 
symptoms of PTSD. That is 65 percent, and 14 percent reported 
all of the symptoms necessary for a clinical diagnosis of PTSD.
    So, in addition to the drain on practitioners, the drain on 
facilities, we are going to have additional conditions and 
disorders to take care of. I would cite also to the committee 
members the Journal of Child Psychology and Psychiatry from New 
Zealand that found conclusively that abortion in young women is 
associated with increased risks of some of the things we have 
had questions about today--major depression, anxiety disorders, 
suicidal behaviors, and substance abuse.
    I appreciate the challenges that Dr. Woodson is going to 
have. I think this committee can lessen the burden that he is 
going to have if we will retreat from this Burris amendment. In 
the middle of two wars, constant deployments, and undermanned 
medical facilities, we should not add to the pressure on our 
military personnel. Instead, we should be looking for ways to 
lessen that pressure.
    Thank you very much, Dr. Woodson, for your indulgence.
    I thank the chairman for the time.
    Chairman Levin. Thank you very much, Senator Wicker. That 
decision, of course, as to whether to strike that amendment 
would be left up to the Senate.
    I would point out that the language leaves it up to a 
voluntary decision on the part of a doctor, and it is paid for, 
as you pointed out, Senator Wicker, by nongovernment funds, if 
a doctor volunteers to do it.
    I think, as a practical matter, it is aimed at the overseas 
facilities, which then if they are not available, if it is 
prohibited, then require a woman who has a right to an 
abortion, assuming it is legal, would have to then come home 
for that procedure.
    But I think that debate is best left for the Senate, 
assuming the bill will come to the floor, which I am hoping 
will happen soon after we return in September. Then, Senator, 
you know this debate is a debate which is an honest debate, and 
it would occur properly before the whole Senate on a motion to 
strike. I think that is the appropriate way to handle that 
debate.
    Senator Wicker. Do I understand and I will not belabor this 
at length, Mr. Chairman. But do I understand, though, that 
under the Burris language, if physicians at a facility 
conscientiously object, it would be the obligation of the 
Service to spend the money or the time and bring a private 
physician onto the post to perform that which the military 
personnel would conscientiously object to doing?
    Chairman Levin. I am looking at my staff. I don't have the 
language in front of me. I don't believe that is the case, but 
that is based on my memory.
    Senator Wicker. Well----
    Chairman Levin. I don't have that language in front of me. 
I just don't think that is correct.
    Senator Wicker. It is my understanding that under the 
previous language, that was very much like the Burris 
amendment, when that was the law of the land, many doctors 
objected as a matter of conscience--and I commend them for 
that--to performing an abortion. And so, a civilian physician 
had to be brought on post to perform that abortion.
    I would simply return to my major point, and that is, this 
if enacted, will be a burden on military personnel, on 
administrative personnel at the facility, and on the scarce 
space in the facility itself. I do agree it is a debate that we 
will have, and we will have a lot more opportunity to discuss 
that.
    Chairman Levin. Thank you very much, Senator Wicker.
    There are no other questions, and we will attempt to bring 
these nominations before the full committee for a vote, if 
possible, this week. If all things go well, which happens once 
in a while around here, we would be able to vote on these 
nominations before the end of the week.
    We thank you again. We thank your families. We will stand 
adjourned.
    [Whereupon, at 3:49 p.m., the committee adjourned.]

    [Prepared questions submitted to Jonathan Woodson, M.D., by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. Not at this time.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. N/A.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of Defense for Health Affairs?
    Answer. It is my understanding that the Assistant Secretary of 
Defense (ASD) for Health Affairs (HA) assists the Under Secretary of 
Defense for Personnel and Readiness (USD/P&R) and the Secretary of 
Defense in promoting and safeguarding the health of military personnel 
and their families, retirees and others eligible for the Department of 
Defense (DOD) health benefits. The role is primarily one of setting 
health policies, in consultation with other Office of the Secretary of 
Defense (OSD) components, the Chairman of the Joint Chiefs of Staff, 
the Joint Staff, the Military Departments, and Services' Surgeons 
General. These health policies include deployment health, both physical 
and mental. The ASD also has an important, though less direct, role in 
health education and research. Health Affairs is directly responsible 
for managing TRICARE and the Uniform Services University.
    Question. If confirmed, what duties and functions do you expect 
that the Secretary of Defense would prescribe for you?
    Answer. In May 2007, Secretary Gates said, `` . . . Our Nation is 
truly blessed that so many talented and patriotic young people have 
stepped forward to serve. They deserve the very best facilities and 
care to recuperate from their injuries and ample assistance to navigate 
the next step in their lives, and that is what we intend to give them. 
Apart from the war itself, this Department and I have no higher 
priority.'' I know that the ASD(HA) has been actively engaged with and 
leading efforts in DOD, in collaboration with partners in the 
Department of Veterans Affairs (VA), to address this priority--caring 
for our Nation's wounded, ill, and injured servicemembers, and their 
families. If confirmed, it would be my highest privilege to serve these 
great Americans and support this monumental DOD priority.
    I understand that the ASD(HA) portfolio includes the breadth of 
policy and programmatic issues related to force health protection and 
readiness, deployment health, clinical activities, health budget/fiscal 
management, medical education and training, medical research, and 
TRICARE/healthcare benefits. I believe the Secretary of Defense may 
call on the ASD(HA) for advice on disaster relief and humanitarian 
operations, civil/military operations, and global health issues. DOD 
has played an increasingly frequent and important role in disaster 
preparedness and response, both in the United States and abroad. 
Medical care is a critical part of this effort--both in the provision 
of health care, as well as in capacity-building (education and 
facilities) and pandemic prevention and surveillance.
    Finally, I realize that healthcare costs have garnered increasing 
attention in recent months. The Secretary may call upon the ASD(HA) to 
continue the efforts to work within and outside DOD to examine this 
important issue.
    Question. In carrying out your duties, how will you work with the 
following:

    A.  The Under Secretary of Defense for Personnel and Readiness.
    B.  The Under Secretary of Defense (Comptroller).
    C.  The Assistant Secretaries for Manpower and Reserve Affairs of 
the Services.
    D.  The Assistant Secretary of Defense for Reserve Affairs.
    E.  The Surgeons General of each of the Services.
    F.  The Joint Staff.
    G.  The TRICARE Regional Offices.
    H.  Commander, Joint Task Force National Capital Region Medical.
    I.  The TRICARE Support Contractors.
    J.  The U.S. Family Health Plan Designated Providers.
    K.  Beneficiary Groups.
    L.  Department of Veterans Affairs.
    M.  Centers for Medicare and Medicaid Services.

    Answer. If confirmed as ASD(HA), I will work collaboratively with 
leaders from other DOD components, interdepartmental government 
agencies, and civilian organizations in order to tackle challenges and 
create new opportunities. Like most leaders, I have learned that most 
problems arise from poor communication, and success relies on building 
partnerships through regular, frank meetings in order to gain consensus 
on near-term and long-term goals. If confirmed, I would commit to 
performing my duties with a spirit of simple, fair and transparent 
processes, and personal and organizational accountability.
                          goals and priorities
    Question. If confirmed, what are the major goals that you would 
seek to accomplish as the Assistant Secretary of Defense for Health 
Affairs?
    Answer. First, I would focus on efforts to improve care and support 
for our Nation's wounded, ill, and injured servicemembers, and their 
families.
    I also understand the power of an electronic health record (EHR), 
and would, if confirmed, work within the Department and with other 
Federal agencies and the private sector to advance EHR initiatives and 
interoperability.
    If confirmed, I also promise to work with Congress and the 
Department to find ways to address the rising cost of healthcare while 
ensuring benefit levels worthy of attracting and retaining the highest 
quality All-Volunteer Force, as well as recognizing the service of our 
retired beneficiaries.
    Question. If confirmed, what priorities would you establish for 
achieving those goals?
    Answer. I would re-assess and enhance the effectiveness of the 
Warrior Transition Units (WTUs) and Wounded Warrior Regiments (WWRs) to 
serve the needs of wounded warriors and their families and to bring 
greater focus on the efficiency of the Medical Evaluation Board (MEB)/
Disability Evaluation System (DES) process. In doing so, I would work 
diligently with VA officials to validate demonstration pilot projects.
    With regard to the EHR, I would work closely with USD(AT&L) to 
complete the analysis of alternatives (operational effectiveness, 
suitability and life-cycle cost). In addition, I would work quickly to 
have the appointment of a program manager and the establishment of a 
formal program office completed.
    If confirmed, I would move diligently and rapidly to reform 
processes and algorithms for care to reduce costs, waste and 
inefficiency in the MHS. In concert with the EHR efforts, I look 
forward to developing decision tools to allow health providers to work 
smarter and deliver a higher quality of care that is evidence-based.
    Question. How would you work with Health Affairs staff and the 
TRICARE Management Activity workforce to achieve these goals?
    Answer. I understand that the chartering documents for these 
organizations state that the Health Affairs staff develops policies 
that reflect legislative, executive and Department priorities, to 
include health budget and financial plans, while the TRICARE Management 
Activity implements programs and policies to manage the health plan. If 
confirmed, I would look forward to working not only internally, with 
Health Affairs and the TRICARE Management Activity, but also with the 
military departments and Services' Surgeons General to achieve our 
common goals for the Military Health System.
                     major challenges and problems
    Question. In your view, what are the major challenges and problems 
that confront the Assistant Secretary of Defense for Health Affairs?
    Answer. Delivering care to 9.6 million beneficiaries is a great 
challenge, and one worthy of our most ardent efforts. Ensuring quality 
health care and, particularly, mental health support will be paramount. 
DOD must deliver world-class support to families and to wounded, ill, 
and injured servicemembers. For our Wounded Warriors, ensuring 
comprehensive care from point of injury to point of definitive care--
whether in DOD or in the VA--and caring for their families and 
caregivers, are sacred obligations.
    Question. If confirmed, what plans would you put in place to 
address these challenges?
    Answer. I do not have specific recommendations at this time. 
However, if confirmed, I would review the plans that are currently in 
place to address these challenges, and determine whether they need to 
be modified or amplified. I would collaborate with my colleagues in the 
Office of the Secretary of Defense, the military departments, and the 
Joint Staff in charting the right course for the Department.
    Question. If confirmed, what management actions and time lines are 
needed in order to address these problems?
    Answer. I would have to evaluate this further to determine the most 
appropriate actions, milestones and timelines.
                               background
    Question. You currently hold the rank of brigadier general in the 
U.S. Army Reserve and are assigned as the Assistant Surgeon General for 
Reserve Affairs, Force Structure and Mobilization, and as Deputy 
Commander, Army Reserve Medical Command.
    Please describe your military experiences, particularly your 
service in Operations Iraq Freedom and Enduring Freedom. What do you 
consider to be your most significant accomplishments as an Army medical 
officer?
    Answer. It has been an honor and privilege to serve in the Army 
Reserves for nearly a quarter of a century. For me, any day I can wear 
the uniform is a good day because it ties me to the great men and women 
who currently serve and those who served before me and protected the 
freedoms we enjoy today. I am especially humbled to have served in 
support of those men and women who are asked to put themselves in harms 
way and sacrifice everything for this great Nation. I have served as a 
health care provider (physician/surgeon), teacher and leader/commander.
    As a surgeon, I have been there at those life-altering moments in a 
wounded warrior's life when they are told their limbs must be 
amputated, and I will never forget the courage of these resilient men 
and women who in these moments of pain and anguish will think not of 
themselves but will express concern for their fellow soldiers or a 
sense of having let their sister and brother soldiers down. Repeatedly 
I have heard from the wounded warriors their desire to return to the 
ranks to complete the mission. Throughout my entire career, I have been 
dedicated to helping sick and injured military men and women achieve 
the best possible health outcomes and to developing strategies to 
improve the military health system.
    I have participated in military medical missions in Central 
America, Europe, Balkans, Operations Desert Shield, Desert Storm, Iraqi 
Freedom, and Enduring Freedom. I have staffed and commanded combat 
support hospitals, forward surgical teams and medical brigades.
    I consider my contribution significant every time I add to the team 
effort of saving a life or limb. However, I am most proud of the times 
when I have deployed as a leader, commander, and surgeon. Functioning 
in these roles, I have been challenged not only with optimizing 
outcomes one injured soldier at a time, but with improving the 
performance of the organization I led, inspiring the men and women who 
followed, and solving problems which contributed to mission success. 
Developing and articulating a clear vision, in the volatile, uncertain, 
complex and ambiguous (or VUCA) environments as they are known and 
motivating people to work to achieve that vision has matured and 
exhilarated me.
    Question. What is the nature of your current duties?
    Answer. I currently serve in the dual-hatted position of Assistant 
Surgeon General for Reserve Affairs, Force Structure and Mobilization 
and Deputy Commander Army Reserve Medical Command (AR-MEDCOM).
    In the role of Assistant Surgeon General, I provide consultative 
services to the Active component, USAR, and Army National Guard on 
issues relating to the medical readiness (individual and unit) of the 
USAR and provide consultative services on strategic planning for all 
health care of USAR personnel, recruitment of medical personnel, and 
operational training issues relating to the USAR.
    In the role of DCG, AR-MEDCOM, I assume the duties of the 
Commanding General in his absence and provide oversight and guidance to 
the staff, particularly on operations and training issues, monitor 
readiness of subordinate units and guide training strategy.
    Question. If confirmed, what are your intentions regarding 
continued service in the Army Reserve?
    Answer. If confirmed, I intend to continue as a Reserve officer and 
will take appropriate action to de-conflict any roles. I consider my 
participation in the Reserves to be important in maintaining 
credibility with those I seek to serve in my role as ASD(HA), should I 
be confirmed. Military men and women should always know that I will be 
subject to the policies and procedures I promote, and that if 
necessary, I stand ready to deploy to any theater of operation.
    Question. What is your assessment of the readiness of the Army 
Reserve Medical Command?
    Answer. The Army Reserve Medical Command currently has more 
soldiers mobilized than any other Reserve medical command and has met 
every requirement for mobilization. We contribute to continental United 
States (CONUS)-based Temporary Duty Assignment mobilizations as well as 
units deploying to theaters of operation. In addition, we have assumed 
some responsibilities for homeland defense medical support. AR-MEDCOM 
has experienced and is experiencing the expected turbulence associated 
with the past years of transformation, reshaping, and right sizing the 
force.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I believe I have had many experiences that qualify me to 
perform the duties of ASD(HA). I have been a military and civilian 
health care provider, health care administrator, teacher, researcher 
and leader. My interests and career have provided me with experience in 
leading, strategic goal setting, health insurance issues, health care 
costs issues, quality improvement, research methods, ethical issues and 
medical error reduction. I have cared for military men and women (and 
dependents) at all echelons of the military health care system from 
forward surgical teams and medical detachments to combat support 
hospitals and medical centers such as Landstuhl, Tripler Army Medical 
Center (AMC) and Walter Reed AMC. I have, as part of my military 
duties, trained with the Air Force (CCAT--first army officer to do so) 
and served in joint exercises, as well as cared for sick and injured 
military personnel in medical treatment facilities (both deployed and 
otherwise) staffed by the three Services. At the U.S. Army War College, 
we studied and gained experience in the interagency, Program Objective 
Memorandum (POM), and legislative processes. I have had an adjunct 
faculty appointment at the Uniformed Services University of the Health 
Sciences. I have taught medical students, nurses, medics, and health 
executives. I have extensive experience with trauma care. As an 
administrator, military commander and staff officer, I have experience 
in directing and managing staffs. Most of all, I am fiercely dedicated 
to providing the best care to wounded and sick soldiers and DOD 
beneficiaries to ensure the best health outcomes.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Assistant Secretary 
of Defense for Health Affairs?
    Answer. Not at this time.
                    managing the cost of health care
    Question. According to DOD, and using 2010 constant dollars, the 
Defense Health Program base budget, including retiree health care 
costs, has increased from $16.6 billion in 2001 to $51.7 billion in 
2011, an increase of over 151 percent. Secretary Gates made the 
statement last year that ``health care is eating the Department 
alive.'' In February of this year he said he ``would like to work with 
Congress in figuring out a way to try and bring some modest control to 
this program.''
    If confirmed, how would you address the rising cost of providing 
health care to 9.5 million eligible beneficiaries?
    Answer. If confirmed, I promise to work with Congress and the 
Department to find ways to address the rising cost of healthcare, while 
ensuring benefit levels worthy of attracting and retaining the highest 
quality All-Volunteer Force, as well as recognizing the service of our 
retired beneficiaries.
    Question. If confirmed, do you plan to engage with Congress on this 
issue?
    Answer. Yes.
                    commitment to military retirees
    Question. By law, DOD and the Military Departments must provide 
health care through the Military Health Care System to those who have 
retired from the uniformed services and their eligible family members 
until they are eligible for Medicare. According to the report of the 
Task Force on the Future of Military Health Care, as of 2007, 56 
percent of TRICARE beneficiaries were retirees or their dependents.
    What is your view of the importance of delivering health care 
services to military retirees and their family members?
    Answer. Ensuring competitive compensation and benefits for today's 
All-Volunteer Force is paramount in attracting and retaining the 
highest quality servicemembers. Also, ensuring we ``keep faith'' with 
those who served before is also of great importance. I understand the 
significant commitment to delivering the highest quality care to all 
9.6 million DOD healthcare beneficiaries.
    The retired servicemembers and their families, who comprise the 
vast majority of those for whom DOD cares, are an integral part of 
clinical experience base that providers and staff require in DOD 
Military Treatment Facilities (MTFs) and in Graduate Medical Education 
programs to develop, maintain and advance their clinical skills.
    Military facility health care is a finite resource. Healthcare 
services under TRICARE, now available to retirees over 65 as well as 
under 65, provide assurance of comprehensive coverage for our retirees 
even when military providers are not available.
    Question. What is the current percentage of the TRICARE beneficiary 
population that consists of retirees or their dependents?
    Answer. It is my understanding that retirees and their family 
members constitute about 53 percent of the eligible beneficiaries.
    Question. What percentage of the current DOD budget goes towards 
paying for retirees' health care?
    Answer. It is my understanding that for fiscal year 2009, retiree 
health care was 57 percent of the health care budget or 3.0 percent of 
the total DOD budget.
                                tricare
    Question. If confirmed, what would be your short-term and long-term 
goals for TRICARE?
    Answer. From my review, I believe TRICARE offers robust coverage to 
the Department's beneficiaries. If confirmed, I would look for 
opportunities to make the link stronger between the direct care system 
and the vast purchased care network in order to make the benefit 
better, more seamless, of higher quality, and more affordable. I 
understand that one of TRICARE's strengths is that it is very 
inexpensive for the beneficiary, compared to commercial or other 
government health plans. I believe we need to look for ways to leverage 
the best public and private sector ideas to make the TRICARE system an 
example that beneficiaries and our Nations' taxpayers can be proud of.
    Question. If confirmed, how would you strengthen the partnership 
between the MTFs of the Services and the TRICARE support contractors 
that is necessary for the successful delivery of health care within the 
TRICARE Program?
    Answer. If confirmed, I would wholeheartedly commit to the 
strengthening of these relationships. I understand that in the past few 
years, key performance measures for TRICARE have improved 
dramatically--for example, claims processing and customer satisfaction. 
I am also told that enrollment, especially for the retiree population, 
has also increased. A key feature of my commitment would be to seek 
further improvements in the program, building on its many past 
successes. There may be even more opportunities to learn from 
commercial health plan experiences by building even stronger bonds with 
the Department's contract partners, to coordinate TRICARE with other 
Federal health care programs, and to better capitalize on the unique 
capabilities of military medicine.
    Question. Do you have any views on how health care support 
contracts could be restructured to incentivize effective disease 
management programs and cost-efficient delivery of health care 
services?
    Answer. I understand that this issue is a focus of the third 
generation of TRICARE contracts, and I believe it is a good example of 
how lessons learned from the private sector can be leveraged. I would 
look forward to working within the Department on this key health plan 
feature.
    Question. There continues to be concern expressed by TRICARE 
beneficiaries about the adequacy and availability of health care 
providers in some areas of the country. In a Personnel Subcommittee 
hearing last year, military spouses who testified said that access to 
health care was among military families' top issues. While health care 
support contracts have access standards and timeliness requirements to 
ensure beneficiaries have access to appropriate providers within a 
reasonable period of time, this does not always happen. In addition, 
many beneficiaries who choose the TRICARE Standard option report a lack 
of availability of health care providers willing to accept new TRICARE 
patients.
    Answer. I understand that the TRICARE contracts are working well 
and the contractors have developed robust networks. However, I 
understand that all health care is local. If confirmed and if a local 
problem exists, I will work to understand what contributes to the 
problem and then work with the appropriate Service Surgeon General and 
TRICARE contractor to take steps to ensure access is improved.
    Question. What recommendations, if any, do you have for improving 
the number and adequacy of providers under the TRICARE program?
    Answer. I do not have specific recommendations at this time. If 
confirmed, I would work with the TRICARE contractors to ensure 
appropriate access for the Department's healthcare beneficiaries.
                      quality of dod medical care
    Question. Please describe your knowledge of quality improvement 
programs in the civilian sector, and comment on how they compare to 
military health care quality programs.
    Answer. For approximately 10 years I was the medical director and 
associate chief medical officer for quality improvement at Boston 
Medical Center. I have formal training in Health Services Research and 
completed the nationally recognized Institute for Healthcare 
Improvement Patient Safety Officer Executive Development Program. I am 
very familiar with the Joint Commission on the Accreditation of 
Healthcare Organization's processes and standards and helped BMC 
through several successful accreditation reviews. At this time, I do 
not have details of where each of the military MTFs stands with regard 
to quality improvement programs, but in general, my experience is that 
they are good. In both the civilian and military setting, there is an 
ongoing question as to whether the right things are being looked at to 
optimize quality outcomes. This will be an important focus of mine, if 
confirmed.
    Question. If confirmed, what would your goals be in the area of 
improving quality and patient safety throughout the military health 
care system?
    Answer. Improving quality and patient safety have been high 
priorities for the health systems with which I have worked, and finding 
solutions to the problems we confront requires a multifaceted, team 
approach. Quality care begins with well-trained and qualified 
professionals who work together as a team. These professionals must be 
provided appropriate ancillary support services and facilities to 
create a safe ``environment of care'' focused upon the needs of 
patients and their families. We must have automated systems for 
documentation of care, surveillance, supply support, and to meet the 
information needs of the health care team. Finally, Senior Leaders must 
be committed to supporting health care quality and safety by 
establishing strategic objectives and providing the resources necessary 
to achieve them.
    I am aware that the Military Health System has been engaged in 
addressing quality and safety along with its civilian counterparts. 
Military professionals, graduate medical education programs, and 
facilities, also meet the same standards as those established for 
civilian sector professionals and organizations. If confirmed, I can 
assure you that providing high quality, safe health care for the men 
and women who serve, their families, and all other beneficiaries of the 
Military Health System would be one of my highest priorities.
                            wounded warriors
    Question. Despite the revelations in 2007 about outpatient care at 
Walter Reed and significant systemic improvements, some wounded 
warriors and their families still perceive that care, management, and 
transition to the VA are inadequate.
    What is your assessment of the factors that led to the inadequate 
wounded warrior outpatient conditions at Walter Reed Army Medical 
Center in 2007?
    Answer. It has been said that the first Commander in Chief of our 
country, George Washington, once said that the extent to which future 
generations of Americans will be willing to serve will be directly 
proportional to how they view current veterans are treated. He was and 
is right. Care and respect for veterans, particularly those wounded and 
ill, needs to be the highest priority. The factors, as I understand 
them as documented in the Washington Post's articles in February 2007, 
which led to the situation at Walter Reed, and particularly Building 
18, were many. Most factors reflected problems with a bureaucratic 
system ill-prepared for the current influx of wounded warriors and 
included: poor housing facilities; lack of case management; complex 
documentation systems; communication issues; a slow complex, 
inefficient, unevenly applied DES; and failure of leaders at many 
levels to recognize emerging and existing soldier issues and to 
advocate for appropriate funds and changes on behalf of soldiers and 
their families.
    Question. What is your assessment of the Army Warrior Transition 
Unit (WTU) and Marine Corps WWR concept?
    Answer. It is my understanding that both the WTUs and the Marine 
Corp WWRs have several goals and features in common. Both have as a 
central mission to provide soldier (WTU) and marine/sailor (WWR) 
centered programs to provide seamless (predominately) non-medical care, 
assistance and coordination during the transition of the soldier/
marine/sailor in the recovery phase of injury. The intent is to provide 
support to military personnel and families to ensure the best and most 
efficient possible outcome, which may include return to active service 
or transition to veteran status with disability determination and the 
highest functional/rehabilitation/employment status in civilian life. 
These administrative activities are carried out while soldiers, 
sailors, and marines receive coordinated, high quality follow-on 
medical care and rehabilitation services.
    Question. In your view, is it beneficial to assign wounded, ill, 
and injured servicemembers to these units?
    Answer. I believe this issue needs further study. I suspect one 
size does not fit all. Follow-on care and coordination for some 
minimally-injured service personnel might be more effectively done 
close to home with the supportive care of family members and the 
community. In other cases, where more complex resources are needed or 
families are not able to assist, more centralized service units are 
necessary.
    Question. If confirmed, and if casualties increase in Afghanistan 
as anticipated as a result of the troop increase ordered by the 
President, what will you do to ensure that care for wounded and 
seriously ill servicemembers and their families is of the highest 
quality?
    Answer. If confirmed, I will bring unrelenting leadership focus to 
this issue. Understanding that the potential exists for breakdown in 
care at many points in the system, leaders at all levels must be held 
accountable for the highest quality of care. We must constantly look 
forward to anticipate problems and improve the system, and not wait for 
problems to arise and find ourselves scrambling for answers. We need to 
understand that we need to constantly seek improvement, not only in 
specific medical treatments and technology, but in how we organize and 
deliver care (including administrative procedures) and how we 
communicate and show compassion to sick and injured servicemembers and 
their families--and we must do this while remaining good stewards of 
public resources.
              walter reed national military medical center
    Question. The Base Realignment and Closure Commission Act of 2005 
realigned medical operations from the current Walter Reed Army Medical 
Center to the Walter Reed National Military Medical Center (WRNMMC), 
Bethesda, and the Fort Belvoir Community Hospital. The National Defense 
Authorization Act (NDAA) for 2008 required that the new medical 
facilities be constructed as ``world class'' medical facilities, 
incorporating the best practices of premier private health care 
facilities throughout the country. When the new facilities open in 
2011, DOD will have achieved the most significant realignment of 
military medical resources in history, through both ``world class'' 
facilities and an integrated health care delivery system serving 
wounded and ill servicemembers and their families in the National 
Capitol Region.
    If confirmed, how would you ensure that WRNMMC achieves these 
goals?
    Answer. I understand that there has been much public discussion 
regarding the ``world class'' nature of construction of and integration 
at WRNMMC and other BRAC healthcare facilities in the National Capital 
Region. If confirmed, I will quickly familiarize myself with the 
history of these discussions and decisions in order to guide the 
efforts to effectively bring to fruition the goals for healthcare in 
the National Capital Region.
    Question. Are you committed to ensuring that any additional 
construction requirements based on the facilities masterplan for the 
NCR are completed as quickly as possible?
    Answer. Yes.
                            dental benefits
    Question. The committee has increasingly heard complaints that DOD 
dental benefits are less attractive than those offered by other 
employers. Also, DOD beneficiaries, especially members of the Reserve 
Components, have shown a reluctance to use their dental benefits.
    If confirmed, what action would you take to evaluate the 
effectiveness of dental programs for the active duty, reservists, 
retirees, and their dependents?
    Answer. If confirmed, I would expect my staff to evaluate the 
benefit on an ongoing basis, including analysis of enrollment and 
utilization, and surveys of members to determine their satisfaction. 
Additionally, if confirmed, I would work with Congress to make any 
necessary changes to the program.
           effect of private sector care on medical readiness
    Question. Currently more than 60 percent of military medical care 
is provided by civilian provider networks outside of MTFs.
    In your view, has this shift from MTF-based care to the TRICARE 
network affected military medical training programs in any way?
    Answer. If confirmed, I will study this issue and develop 
appropriate courses of action to ensure the military medical training 
programs remain of the highest quality.
    Question. If confirmed, how would you ensure that if we continue to 
see an increase in the use of private sector care, military medical 
training programs will remain viable?
    Answer. If confirmed, I will study this issue and develop 
appropriate courses of action to insure the military medical training 
programs remain of the highest quality. There are several potential 
ways to ensure viability of military medical training programs, which 
include, but are not limited to; simulation training, changing rotation 
sites for trainees, and more effective use of work hours. A big issue 
we have in medical training now is the growth of information and 
turning it into useable knowledge. In some ways, the Military Health 
System is better positioned to deal with needed changes in medical 
training than our civilian counterparts. All the elements of the 
training system are within our influence, including a medical school 
and advanced nursing programs, an insurance plan, medical training 
facilities, outpatient practices, simulation training platforms and 
research opportunities. We can shape the continuum of the training 
spectrum to produce the best educational outcomes while providing the 
best care and experiences for our beneficiaries.
         military health professional recruiting and retention
    Question. DOD is facing severe shortages of military medical 
professionals, including physicians, dentists, and nurses, needed for 
its peacetime and wartime missions. The Department relies on a 
combination of bonuses and incentives to recruit and retain military 
health care professionals to provide care to military members and their 
families.
    What are your views on the adequacy of existing bonus and pay 
incentive programs for both active and Reserve components?
    Answer. DOD, like any other major employer, must be able to use 
effective, competitive, and fair financial tools to be able to attract 
and retain highly-qualified professionals in both the Active and 
Reserve components. Having fewer than the optimum number of uniformed 
health care professionals could result in increased private sector care 
costs and lower medical force morale. It is important to properly 
manage recruiting, pay, and retention programs to ensure appropriate 
balance for Department missions and beneficiary needs. If confirmed, I 
would fully commit to working within the Department and with Congress 
to address this issue.
    Question. Based on your service as the Assistant Surgeon General 
for Reserve Affairs, Force Structure, and Mobilization and as Deputy 
Commander of the Army Reserve Medical Command, do you have any 
recommendations about the effectiveness of incentives for medical 
personnel to serve in the Reserve Forces?
    Answer. Not at this time. As medical specialties change and 
requirements for manpower shift, this issue will need constant review 
and updating.
    Question. What other steps can be taken to eliminate shortages of 
medical personnel, including nurses and mental health providers?
    Answer. I do not have any specific recommendations at this point, 
but if confirmed, I will work to understand what factors contribute to 
these shortages and take action to resolve these issues.
   disability evaluation system pilot program and seamless transition
    Question. DOD and VA are conducting a Disability Evaluation System 
Pilot in which the VA conducts a single medical examination for both VA 
and DOD purposes. This pilot was recently expanded.
    What is your assessment of the effectiveness of this pilot program?
    Answer. I have not been briefed on the effectiveness of current 
programs, but I understand that there is still room to improve. If 
confirmed, I will work with colleagues at the VA and the USD(P&R) to 
optimize programs, policies and procedures to produce the most 
efficient DES that serves the needs of servicemembers and future 
veterans.
    Question. What are the critical elements necessary for a seamless 
transition of health services from one agency's responsibility to 
another?
    Answer. Based on my past experience, I believe the critical 
elements for a seamless transition of health services from one agency 
to another are: a full understanding of medical care capabilities 
within both agencies by all medical providers involved; clear 
communications of the transition plan between providers in each agency 
and with the patient and patient's family; timely transfer of all 
pertinent medical records before or at the time of transfer of the 
patient; and, ongoing communication after the transfer of the patient 
between the medical providers in each agency and with the patient and 
patient's family.
    Question. How can the transition for disabled servicemembers 
between DOD and the VA be improved, especially in the area of health 
care?
    Answer. Improvements in the transition of health care between DOD 
and VA can be achieved by early and concise communications to 
servicemembers and their families about the DOD and VA benefits and 
programs they are entitled to based on their military status and 
service. Based on my experiences, I believe that two principal efforts 
would facilitate the early and concise communication we desire. The 
first would be to establish a program that assigns a specific DOD-VA 
team comprised of medical staff to support each patient and his/her 
family during the transition process. The second initiative would be to 
establish a single, user friendly disability evaluation system that is 
evidence-based, medically-endorsed, and most importantly, consistent 
with the civilian disability system. If confirmed, I would give this 
issue my fullest attention.
    Question. Even with accelerated processing in the Disability 
Evaluation System Pilot, required times for medical evaluation boards 
can be well over a year.
    Do you have any views about improvements that can be made quickly 
to the medical evaluation board process in order to reduce case 
processing times?
    Answer. I am aware that there are ongoing high-level efforts 
between DOD and VA to improve the Disability Evaluation System. Based 
on my experience, I understand that DOD's Physical Disability 
Evaluation System was designed to evaluate an individual's loss of 
capability to function once the medical condition has reached maximum 
benefit from continued medical care. The period of time necessary to 
make that assessment varies widely from person to person, and is 
dependent on individual rates of healing and response to restorative 
therapies. The medical evaluation board process requires that maximum 
benefits of medical care be completed. A change that would streamline 
the process would require care providers to make an early, initial 
medical prediction of capability after maximum benefits of medical care 
are complete, and, once the patient's medical condition is stable, then 
proceed with the disability benefits determination based on that 
assessment. This would require frequent re-evaluation of medical 
capability as the healing process is continuing, and possible 
redetermination of benefits. If confirmed, I would give this issue my 
fullest attention.
                         traumatic brain injury
    Question. In Iraq and Afghanistan, our troops are facing the threat 
of Improvised Explosive Devices (IED). Because of improved body armor, 
troops are surviving IED blasts, but frequently suffer traumatic brain 
injuries (TBI) from the concussive effects of the blasts.
    What tools are needed by medical personnel to adequately diagnose 
and treat TBI on the battlefield, and do you think the Services have 
adequate capabilities in Iraq and Afghanistan?
    Answer. Based on my experience, I understand that our medical 
personnel are doing a superb job identifying and treating the severe 
TBI incidents on the battlefield. Far forward surgical care is saving 
lives, and neurosurgical care is a significant contributor. I have 
learned that in August 2006, the Department started using the Military 
Acute Concussion Assessment, along with a clinical practice guideline, 
to help identify and document mild and moderate TBI. I greatly 
appreciate the significance of educating troops and their leadership 
about the importance of this evaluation as soon as possible, after even 
a mild injury, as well as educating medical providers on this new tool.
    Question. What is your understanding of the ability of medical 
personnel to diagnose and treat TBI in CONUS medical facilities?
    Answer. Medical personnel are cognizant of the potential for TBI in 
our personnel, both at home and on the battlefield. There is no easy, 
definitive test, such as a blood test, available today to quantify the 
nature and extent of injury associated with TBI. However, we are 
extending the use of neurocognitive assessment tools throughout the DOD 
system to help identify patients who had TBI and determine if they 
still have symptoms. The majority of mild TBI does not require specific 
treatment other than time to heal, but we now believe we must document 
the incident and an assessment of acute signs and symptoms as close to 
the time of injury as possible. I understand that treatment for 
persistent symptoms is available in MTF neurology clinics.
    Question. What is your understanding of the adequacy of the DOD 
physical evaluation system and its ratings to fairly address the 
conditions that result from TBIs?
    Answer. I am aware that there are ongoing high-level efforts 
between DOD and VA to improve the Disability Evaluation System. I am 
told that the DOD Physical Evaluation Board evaluates impaired function 
and rates individuals against established criteria for disability 
compensation, and that when that disability is severe, the system works 
very well. However, as DOD and VA shape a comprehensive DOD/VA system 
to assess, diagnose and treat mild and moderate TBI, the potential 
exists that the two Departments may have to modify the disability 
evaluation system. If confirmed, I would commit to ensuring the 
adequacy of the physical disability system to fairly address these 
conditions.
                           mental health care
    Question. The mental health of servicemembers and their families is 
of intense concern to the committee.
    What is your understanding of the scope of the problem of 
diagnosing and treating post-traumatic stress disorder (PTSD) and other 
mental health conditions in the Armed Forces?
    Answer. I am told that DOD is educating its personnel about PTSD. 
From my experience, I know that DOD assesses servicemember concerns and 
symptoms of PTSD and related mental health issues upon return from 
deployments and again 3 to 6 months later. Individuals who identify 
symptoms are medically evaluated and referred for further diagnosis and 
treatment if needed. PTSD and other mental health conditions are 
treatable.
    Question. If confirmed, what actions would you take to ensure that 
health care providers are appropriately trained in diagnosing post 
traumatic stress and other conditions including potential suicide?
    Answer. I understand that DOD and the VA have developed clinical 
practice guidelines for the diagnosis and treatment of PTSD. Continuing 
Medical Education is a requirement for all practicing physicians and 
DOD has many educational resources available to not only ensure its 
providers have the expertise to diagnose PTSD, but that its 
servicemembers and their families will be educated. I understand that 
the Defense Centers of Excellence for Psychological Health and TBI 
develop research and knowledge products that further expand the state 
of the art in diagnosis and treatment.
    Question. If confirmed, what steps would you take to destigmatize 
seeking care for post traumatic stress and other mental health 
conditions?
    Answer. Applying my professional experience as a physician, I 
understand that the first step to de-stigmatize PTSD and other mental 
health conditions is education of the military population. A major next 
step would be to validate that those who seek and receive mental health 
care are successful in continuing their military careers. Concerns 
about loss of status with peers, leaders, and family members, and loss 
of military career are the two major causes for individuals not seeking 
care for PTSD and other mental health conditions.
    Question. What would you recommend to the Secretary of Defense to 
reduce suicide among members of the Armed Forces?
    Answer. At this time I do not have specific recommendations for 
reducing suicides. This problem has received a lot of study and 
requires more. There are many initiatives that have been started to 
address this issue (as well as PTSD and TBI which may be related in 
some cases). We need to bring better evaluation of the programs that 
exist and enhance those that work and eliminate those that are of no 
value and perhaps harmful. Program evaluation should be grouped into 
tracts that can be validated, such as; prevention (including 
servicemember selection and resiliency training), identification of 
servicemembers at risk (tools), medical/behavioral therapies and 
interventions, follow-on care, long term outcomes, administrative and 
cultural issues that prevent optimizing identification and care of 
those at risk, and family issues.
                   psychotropic prescription drug use
    Question. According to a recent Military Times article, ``one in 
six servicemembers is on some form of psychiatric drug,'' ``17 percent 
of the Active-Duty Force and as much as 6 percent of deployed troops 
are on antidepressants,'' and the ``use of psychiatric medications has 
increased . . . about 76 percent overall . . . since the start of the 
current wars.''
    What is your understanding of the accuracy of these reports?
    Answer. It is my understanding that this data is based on 
information collected in the Army and the rates likely differ across 
the Services. Further data collection and analyses across the Services 
could provide the additional information needed to determine accurate 
rates both across and within each service. This will allow comparisons 
and monitoring for differences that may be of statistical significance.
    However, the data cited by the Military Times does direct us to 
important questions to be further studied and addressed about 
medication use in the deployed setting.
    Question. In your view, what is driving this increase in the use of 
psychotropic drugs?
    Answer. From my experience, I understand that a new era of combat 
has emerged, where counterinsurgency and asymmetric warfare are the 
norm. This places a great amount of strain on our servicemembers. 
Despite the challenges, they remain incredibly resilient, motivated and 
well-trained. Resources and programs are necessary to maintain 
resilience and motivation. The earlier the intervention the better; and 
servicemembers should be encouraged to reach out as an act of courage 
and strength. Psychopharmacological treatments are an important 
component of mental health care. Scientific evidence over the past 
several decades shows that medications limit the severity and duration 
of illness as well as being a key factor in preventing relapses and 
recurrences. I am aware that experience and clinical evidence have also 
been translated into recommendations for clinicians in the VA-DOD 
Clinical Practice Guidelines for Major Depressive Disorder, Post-
Traumatic Stress Disorder, Psychoses and Substance Use Disorder; and 
that these guidelines are updated periodically, as required, to reflect 
the most current knowledge concerning each of these conditions.
    Question. In your view, is it appropriate to prescribe psychotropic 
medication to military personnel in combat zones?
    Answer. Each clinical case must be evaluated individually. For some 
conditions, psychotropic medication may alleviate symptoms and permit 
the individual to continue to function well. However, other conditions 
could require medical evacuation for treatment or evaluation.
    Question. If confirmed, what actions will you take to monitor the 
issuance of psychotropic medications in combat theaters?
    Answer. If confirmed, I will work with the Services and combatant 
commanders to conduct a review of issuance of psychotropic medications 
in combat theaters.
                         medication management
    Question. The committee continuously receives reports that many 
wounded, ill, and injured military personnel are overly medicated.
    If confirmed, what action will you take to ensure that medications 
prescribed for wounded, ill, and injured servicemembers are medically 
appropriate and compatible with other prescriptions?
    Answer. I understand that the MHS does currently have a 
sophisticated and effective electronic prescribing process in place in 
MTF's that minimizes prescribing errors and provides real time feedback 
to providers on potential drug interactions. I am also aware that the 
DOD/VA Clinical Practice Guidelines especially focus on appropriate 
prescribing for common medical conditions in our population. If 
confirmed, I would strongly promote the continued development and 
refinement of these and other patient safety and provider education 
evidenced-based initiatives. I would also encourage the Services to 
ensure that processes are in place that both promote these and other 
evidenced-based safe prescribing initiatives through monitoring and 
incentive programs for healthcare providers that target the 
optimization of safe and effective health care outcomes for all DOD 
beneficiaries.
    Question. If confirmed, what policies and programs will you 
implement to improve pain management?
    Answer. I am aware that DOD currently reviews how individiual 
facilities are doing in the assessment and treatment of pain through 
the mandated accreditation process; and that DOD/VA Clinical Practice 
Guidelines are also in place for the promotion of optimal management of 
Low Back Pain, Post Operative Pain, and Chronic Opioid Therapy. The 
NDAA for Fiscal Year 2009 further mandated `the development and 
implementation of a comprehensive policy on pain management by the 
military health care system.' I am also aware that all three Services 
and TMA have initiated programs to further assess pain management 
within the MHS. If confirmed, I would ensure that the NDAA requirements 
are met, that the results of these programs are thoroughly evaluated, 
and valid conclusions are considered for implementation where 
appropriate.
                      drug maintenance treatments
    Question. The drug buprenorphine, which is similar to methadone, is 
used in private sector care to treat opioid-dependent patients in drug 
maintenance programs. The use of buprenorphine for this purpose is also 
covered by Medicare, Medicaid, and the VA health care program.
    What are your views on the use of buprenorphine for drug 
maintenance treatment for opioid dependence?
    In your view, should the use of buprenorphine for drug maintenance 
treatment be covered under the TRICARE benefit?
    Answer. I understand that while TRICARE does cover the cost of 
buprenorphine or methadone when used in detoxification or medically-
supervised withdrawal from opioids, regulation prohibits its use in the 
maintenance treatment of opioid dependence. There currently exists 
ample scientific support for the use of medications such as 
buprenorphine and methadone in the maintenance treatment of opioid 
dependence.
    I am also aware that TRICARE is pursuing changes in the Code of 
Federal Regulations that would permit the use of buprenorphine for 
opioid dependence maintenance treatment in non-active-duty 
beneficiaries.
                       electronic medical records
    Question. An area of frustration for both patients and providers is 
the inadequacy of seamless electronic medical records, despite nearly 
two decades of development by DOD.
    What experience do you possess in the area of health information 
technology?
    Answer. My career has spanned the transition from paper health 
records to the EHR. Boston Medical Center was one of the first health 
institutions in the Boston area to commit to an EHR. Many lessons have 
been learned about implementation of such an initiative including 
problems that arise with off-the-shelf components that do not 
communicate easily with each other (often requiring multiple data 
systems), development of novel in-house systems that do not communicate 
with outside data bases (and become obsolete quickly) and require great 
costs to maintain, requirements for training, poor acceptance by users 
(especially when end user issues are not considered in development) and 
portability of information as patients change health care venues 
frequently. Data systems need to be modifiable to accommodate the 
unique needs of departments and sub-activities within the organization 
if they are to get useful data for quality improvement processes. 
Intuitive systems with comprehensive data that are reliable, fast, 
portable, and communicate well internally and externally are some of 
the key features needed in the EHR.
    Question. What lessons from the civilian community are applicable 
to improving DOD electronic medical records?
    Answer. Civilian EHR and data systems struggle with solving the 
problems noted above and meeting the requirements of a good system as 
outlined. If confirmed, I would work with USD(AT&L) and the VA to find 
suitable, financially sound and sustainable answers to these issues. 
Success would be determined by implementing a system meeting the 
aforementioned requirements.
    Question. If confirmed, what priorities would you pursue to improve 
electronic medical records, and in your view what are the measures of 
success?
    Answer. See above answer.
                             women's health
    Question. In view of the expanding roles of women serving in the 
Armed Forces, what are the health challenges that DOD and the Services 
must address both in deployed and nondeployed environments?
    Answer. The contributions of women in the military increase every 
day as opportunities and roles expand for them. OEF and OIF have seen 
an unprecedented deployment of female military members from all 
Services and Components. We need to continue to expand our 
understanding of how best to support women's health needs both in the 
deployed and nondeployed status and as they transition to veterans 
status. Better understanding and delivery of services includes, but is 
not limited to, gynecologic and pregnancy care, urinary tract infection 
treatment and prevention, hygiene in the deployed environment, 
ergonomics and prevention of injury, fitness and strength development, 
weight and nutrition advice, psychological stress, eliminating and 
responding to sexual harassment and sexual assault and PTSD/TBI. Many 
of these issues overlap with general health promotion concerns for the 
force, but may require special focus to evaluate specific issues 
related to women.
    Question. If confirmed, how would you assess the adequacy of 
current health services for female servicemembers, and what steps would 
you take to improve them?
    Answer. If confirmed, I would seek input from a women's health 
advisory committee to evaluate current practices and future directions 
for addressing and improving women's health issues in the military. The 
committee would have broad input from health professionals, enlisted 
personnel and officers from constituent services. Priorities for care 
and research in women's health will be reviewed with the Surgeons 
General.
                               fort hood
    Question. Based on published reports assessing the tragic shooting 
at Fort Hood in November 2009 in which 13 people were murdered and 43 
injured, what, in your view, are the most important lessons learned for 
the medical departments of DOD?
    Answer. I have not been briefed on the findings of the official 
investigation into the tragic events that took place at Fort Hood on 
November 5, 2009 and therefore cannot comment on specific issues. 
However, it would appear that collectively we need to improve our 
abilities to identify home grown terrorists and those susceptible to 
radicalization. Furthermore, leaders at all levels need to accurately, 
honestly and with courage, assess the behaviors of those they are 
responsible for and call into question those who exhibit behaviors not 
compatible with military service and the oath to protect and defend the 
constitution of the United States. If confirmed, I will hold my leaders 
accountable for these responsibilities.
                  hiv/aids surveillance and treatment
    Question. According to the Centers for Disease Control and 
Prevention, the annual rate of AIDS diagnoses reported among males aged 
15-19 has nearly doubled in the past 10 years within the United States. 
In addition, the committee has received information that DOD 
surveillance programs and access to care need improvement.
    What is your assessment of the increase in AIDS diagnoses among 
this age group, and its potential impact on the military?
    Answer. The increasing incidence of HIV infection in the 
demographic group identified (male age 15-19) suggests that the lessons 
learned about prevention 2\1/2\ decades ago have been forgotten. We 
must redouble our efforts at education. The consequences of not 
reversing this trend are enormous, not only for the individuals at risk 
for death and complications from this disease, but also it will limit 
the number of individuals who might otherwise honorably serve in the 
military. In addition, the cost of treating those infected with HIV is 
substantial.
    Question. If confirmed, what steps would you take to ensure that 
DOD is effectively identifying and treating individuals diagnosed with 
HIV/AIDS?
    Answer. If confirmed, I would enhance programs aimed at HIV and STD 
education, prevention, and surveillance.
         use of live animals in medical education and training
    Question. The committee understands that the Department allows some 
limited use of live animals for medical research, education, and 
training purposes.
    Based on your background in medical education, please describe your 
views on the use of live animals for medical education and training 
given the many technologically advanced simulators in existence today.
    Answer. In the future I believe advanced simulation platforms 
should and will supplant the need for live animal use in medical 
education. Simulators will need to be validated to provide similar or 
superior training for medical personnel before they can substitute 
fully for live tissue training. Some simulators can breathe, bleed, 
urinate, speak, and respond to stimuli and drugs. These simulators, 
combined with patient actors and scenario based training may offer 
superior training models over live animals in the future. Live tissue 
training should only be used when, after exhaustive analysis, no other 
satisfactory substitute exists. Since student medics need to be able to 
repeat a realistic training experience to gain skill and confidence to 
prepare to be ready to save lives in battle, live tissue training 
remains a valuable training tool today.
                      research on gulf war illness
    Question. Both DOD and the VA have conducted research on Gulf War 
Illness stemming from health concerns of veterans.
    What is your assessment of the evolution of research in this field 
to date?
    Answer. I have witnessed the fact that more research has been done 
to understand the health concerns of veterans of the Gulf War than in 
any other war. A recent Institute of Medicine review of the medical 
literature from this research has stated that while there is no unique 
syndrome that has been identified, the Gulf War veterans experience a 
wide spectrum of symptoms at a rate nearly double that of military 
personnel who were on active duty at that time but did not deploy. The 
medical challenge is to better understand the causes of symptoms in our 
patients, particularly for the subjective symptoms.
    Question. What, in your view, are the promising areas for further 
research, especially for the treatment of symptoms resulting from 
neurological damage due to chemical exposures?
    Answer. Medical science is developing a better understanding of 
brain function and brain physiology due to better tools and better 
understanding from research that has been ongoing in the fields of 
mental health, TBI and the spectrum of neurological diseases like 
Alzheimer's, Parkinson's disease, amyolotrophic lateral sclerosis and 
others. Research focused on relating symptoms to specific brain 
functions, insults, or neurotransmitter changes would have major 
importance, not only to Gulf War veterans, but to the broader 
population.
    Question. If confirmed, what approach would you take to assess the 
core biomedical research programs of the DOD to ensure that the 
objectives and resourcing of such research is consistent with future 
potential threats to U.S. forces?
    Answer. I understand that the core biomedical research programs in 
DOD are requirement-driven, and those requirements are based on 
military unique issues. I also understand that the governance of the 
biomedical research is through the Armed Services Biomedical Research 
Evaluation and Management committee, which the ASD(HA) co-chairs. If 
confirmed, I would welcome the opportunity to fulfill this critical 
leadership role.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of 
Defense for Health Affairs?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Daniel K. Akaka
                             medical budget
    1. Senator Akaka. Dr. Woodson, the Assistant Secretary of Defense 
for Health Affairs (ASD(HA)) is charged with many duties and 
responsibilities. Among them is to serve as the program manager for all 
Department of Defense (DOD) health and medical resources and to prepare 
and submit a DOD Unified Medical Program budget to provide resources 
for the DOD Military Health System (MHS). These duties emphasize 
significant experience in the various areas of healthcare management 
and administration. The Unified Medical Program budget occupies a 
significant part of the overall DOD base budget. For example, the 
fiscal year 2011 DOD budget request includes $50.7 billion for the DOD 
Unified Medical Budget to support MHS. DOD's overall base budget 
request for fiscal year 2011 is $549 billion. You stated in your 
advance policy questions, as well as your confirmation testimony, 
before the Senate Armed Services Committee that you have experience as 
a healthcare administrator. What specific and relevant financial, 
logistical, human resource, and other healthcare administration 
education, certification, or experience do you have that will enable 
you to be an effective program manager of a $50 billion enterprise?
    Dr. Woodson. I fully understand the large set of budget 
responsibilities that are assigned to the ASD(HA) in leading the 
Military Health System enterprise. My previous work and career 
experience has been broad. As a physician and former senior medical and 
health care leader, I have dealt with, advised others on, and helped 
developed solutions to complex budget issues in a multi-dimensional 
healthcare system. Likewise, as an Associate Dean and senior leader in 
a major university, I have managed departmental budgets, and given 
advice on and contributed to developing strategic solutions to budget 
issues. In my role as USAR General Officer and Commander, I have been 
responsible for and managed millions of DOD dollars for training and 
readiness. Furthermore, I have been formally educated in DOD and POM 
budgeting process. Finally, I understand that the process of managing 
the MHS enterprise is a team effort, and the most important skills are 
those of leadership and knowing how to establish the vision of 
excellence and efficiency and how to get people to work toward common 
goals. If confirmed, assisting me in the role of ASD(HA) are a large 
number of talented and experienced experts. The Deputy Assistant 
Secretary of Defense (DASD) for Health Budgets and Financial Policy 
(HB&FP) acts as the principal staff assistant for all DOD financial 
policies, programs and activities. This office is responsible for 
budget formulation and oversight, program analysis and evaluation with 
my guidance. The ASD(HA) and DASD(HB&FP) must work closely together and 
are supported by several departments, as well as the Service Surgeons 
General and the Service Chief Financial Officers. The most important 
skills in budget management are clear guidance and management of staff 
process to produce timeliness of budget reviews, submission, and 
reporting. I have significant experience in all of these matters across 
the breadth of my work and career experience.

                        unified medical command
    2. Senator Akaka. Dr. Woodson, the House of Representatives' 
version of the National Defense Authorization Act (NDAA) for Fiscal 
Year 2011 [H.R. 5136] includes a provision for the creation of a 
Unified Medical Command (UMC). H.R. 5136 states that a UMC would remove 
many of the challenges present under the current structure caused by a 
disconnect between requirements determination, which is performed by 
the Services, and resource allocation, which is currently controlled by 
the ASD(HA). A UMC could result in significant savings for DOD as well. 
A 2006 Center for Naval Analyses study concluded that a single medical 
command could reduce DOD's healthcare cost by $344 million annually. 
What is your opinion of the UMC proposed in H.R. 5136?
    Dr. Woodson. It is my understanding that the Department has 
undertaken a number of studies over many years regarding the most 
effective organizational approach for health care delivery. The top 
health care priority of the Department is medical readiness--to ensure 
that servicemembers are medically ready for deployment and combat, and 
to ensure the medical forces are ready to support the warfighter 
anywhere in the world. All organizational approaches for consideration 
must not compromise this fundamental requirement. If confirmed, I will 
work with Secretary Gates and Under Secretary Stanley to determine what 
organizational model best enhances our medical readiness, offers 
greater agility for decisionmaking, introduces efficiencies in 
administrative processes, and reduces costs of those processes. 
Certainly, the UMC proposal in H.R. 5136 is one option that could be 
evaluated against these criteria.

    3. Senator Akaka. Dr. Woodson, what role do you see the ASD(HA) 
performing in UMC?
    Dr. Woodson. If confirmed, I will work with Secretary Gates and 
Under Secretary Stanley to determine what organizational model best 
enhances our medical readiness, offers greater agility for 
decisionmaking, and introduces efficiencies in administrative 
processes. The top health care priority of the Department is medical 
readiness--to ensure that the servicemembers are medically ready for 
deployment and combat, and to ensure the medical forces are ready to 
support the warfighter in the field. Regardless of the organizational 
approach ultimately chosen, I believe the ASD(HA) will remain the 
principal medical advisor for the Secretary of Defense, and in this 
capacity will have broad authority and responsibilities for the medical 
mission of the Department.

                         traumatic brian injury
    4. Senator Akaka. Dr. Woodson, recently some of my colleagues and I 
sent a letter to Secretaries Gates and Shinseki describing some of our 
concerns about traumatic brain injury (TBI) care in the Military 
Departments. One of the primary concerns was over the inadequacies in 
the Post Deployment Health Reassessment Program. If confirmed, what 
will you do to ensure these assessments are being completed?
    Dr. Woodson. The Post-Deployment Health Reassessment (PDHRA) is a 
critical part of our armamentarium in the area of health surveillance. 
The PDHRA is to be completed by every servicemember who returns from 
deployment in Operation Iraqi Freedom and Operation Enduring Freedom. 
Per Department of Defense Instruction 6490.03, the Secretaries of the 
Military Departments are to ensure that the post deployment assessments 
are completed within the established timeframes in the Instruction. The 
first step in assessing the efficiency and effectiveness of these post 
deployment activities is to ensure that the assessment forms are 
completed. For these efforts to succeed, it is critical that the 
Military Health System (MHS) work very closely with the Services to 
ensure the bridges between the commanders' responsibilities and the 
medical activities are well defined. We will reinforce the lines of 
communication with the Services, in conjunction with the Under 
Secretary of Defense for Personnel and Readiness, to ensure they have 
the mechanisms in place so that all returning servicemembers complete a 
PDHRA.
    We have to ensure with all certainty that all PDHRAs are reviewed, 
referred (if needed), and acted upon by a trained health care provider 
to ensure the servicemember's concerns or positive indications of a 
physical, neurological or mental health condition is evaluated and 
treated, if indicated. If confirmed, I will make sure that both the MHS 
and the Services have the procedures in place to achieve a goal of 100 
percent completed PDHRAs, and have the quality processes that go along 
to ensure the right and appropriate follow ups are done.

    5. Senator Akaka. Dr. Woodson, how will you ensure privacy to 
enable the collection of honest assessments?
    Dr. Woodson. The Military Health System (MHS) takes the issue of 
protecting personal information very seriously and strives to ensure 
that each beneficiary is afforded a health care environment that 
facilitates an honest, truthful, dialogue with his or her medical 
provider. This is best achieved in the nondeployed clinic setting, but 
is also afforded to those servicemembers in more austere environments. 
Our medical providers are regularly trained on the DOD Health Affairs 
(HA) and TRICARE Management Activity (TMA) policies and business 
practices which comply with Federal laws, DOD regulations, and 
guidelines governing the privacy of health visits and the security of 
medical information of our servicemembers. More specifically, DOD HA 
and TMA have an ongoing process for developing and managing the 
delivery of specialized, role-based Health Insurance Portability and 
Accountability Act (HIPAA) Compliance and Privacy Act training for all 
MHS personnel as a key element of the TMA Privacy Office training and 
awareness program. These efforts are augmented by the overall promotion 
of a culture of compliance through privacy and HIPAA security 
awareness, education, and outreach activities, including orientation 
sessions, seminars, and conferences.

    6. Senator Akaka. Dr. Woodson, how will you ensure that results are 
being properly screened and followed up on?
    Dr. Woodson. The first step in assessing the efficiency and 
efficacy of post deployment activities is to ensure that the assessment 
forms are completed. For these efforts to succeed, it is critical that 
the Military Health System works very closely with the Services to 
ensure the bridges between the commanders' responsibilities and the 
medical activities are well defined. We will establish a very solid 
line of communication with the Services, in conjunction with the Under 
Secretary of Defense for Personnel and Readiness, to ensure they have 
the mechanisms in place so that all returning servicemembers complete a 
PDHA and PDHRA. We must also ensure that we adhere to our own clinical 
practice guidelines on completing post deployment health assessments so 
that if a servicemember is screened or reviewed and subsequently 
requires a referral, it is acted upon by a trained health care provider 
and the servicemember's concerns or positive indications of a physical, 
neurological or mental health condition is evaluated and treated, if 
indicated.

                          va-dod collaboration
    7. Senator Akaka. Dr. Woodson, I understand that troops go through 
a demobilization process upon return from deployment. I have also been 
told that Department of Veteran Affairs (VA) representatives are not 
always present during the demobilization process, particularly for 
Guard and Reserve units. What advice can you offer to enable better 
collaboration with VA and DOD to ensure a successful demobilization 
process?
    Dr. Woodson. It is DOD policy that the VA is invited to the 
demobilization of all returning Reserve component (RC) forces (Active-
Duty Forces do not demobilize when they return to the United States). 
To improve the coordination between the Departments, we could actively 
coordinate our demobilization station activities with the regional VA 
centers and local Vet Centers. As an outreach activity, the regional VA 
representative from the home station of the returning unit could also 
be invited and actively engaged with the returning veteran population. 
The VA is also invited and is a key participant in the Yellow Ribbon 
Reintegration Program (YRRP), but since that is a voluntary program, 
there are still significant returning veteran populations that are not 
reached. As another option to increase participation in the YRRP, DOD 
could encourage the Services to require all of their demobilizing 
servicemembers to attend YRRP events prior to departing demobilization 
stations.
    Note: Currently, Touch Point 1 is Veterans Affairs' (VA) Reserve 
Component Demobilization Initiative to ensure Operation Enduring 
Freedom/Operation Iraqi Freedom (OEF/OIF) Veterans returning from the 
combat zone are introduced to VA during out-processing at the 61 
demobilization sites. Servicemembers receive an overview on VA services 
and benefits and are enrolled in VA healthcare.
    Servicemembers are assigned an OEF/OIF program manager to contact, 
who will set up initial health and dental appointments at the VA 
facility of their choice. Since May 2008, VA has supported over 1,295 
demobilization events, briefed over 73,000 Veterans, and enrolled over 
70,000 of them, for a 95-percent enrollment rate.'' VA's website at 
http://www.oefoif.va.gov/SevenTouchesOutreach.asp is very helpful.

                           suicide prevention
    8. Senator Akaka. Dr. Woodson, nearly as many American troops at 
home and abroad have committed suicide this year as have been killed in 
combat in Afghanistan. Preventing suicides is a tough challenge. But we 
must begin to change a culture that discourages at-risk servicemembers 
from seeking help when needed. If confirmed, what specifically will you 
do to change this culture?
    Dr. Woodson. DOD recognizes that the stigma of seeking help is at 
times a barrier to accessing needed care. Servicemembers need assurance 
that they can seek psychological health care and treatment, and 
maintain a successful military career. If confirmed, I will continue 
stigma-reduction initiatives such as the Real Warriors Campaign, and 
engage leadership to shift DOD to a culture that promotes healthy and 
help-seeking behaviors and lead collaboration efforts among the 
Services to combat a culture that discourages our military members from 
accessing necessary care. I will enhance ``safe-havens'' within 
commands for soldiers to seek behavioral health counseling and advice 
without suffering repercussions and allow transfer of behavioral health 
information important to monitoring soldiers ``at-risk'' as they move 
between commands. This will maximally protect soldiers, commanders and 
unit missions. It is imperative that servicemembers receive the care 
and treatment they need.

    9. Senator Akaka. Dr. Woodson, suicide prevention is difficult and 
challenging. There have been a lot of people in the Services and the VA 
who have worked diligently on this issue. The Services have experienced 
a rise in the number of suicides since the wars in Afghanistan and Iraq 
started. In order to prevent suicides, I believe we need to better 
understand its causes. If confirmed, what specific actions will you 
recommend for the Services to address suicide prevention?
    Dr. Woodson. I acknowledge that suicide is a complex issue, but the 
rise in suicides among servicemembers is deeply concerning and 
unacceptable. If confirmed, I will recommend the Services work in 
collaboration with each other and the VA to coordinate surveillance 
efforts, evaluate, and share best practices. I share and support DOD's 
commitment to ensure the well-being and safety of all servicemembers 
and their families.
    I will seek to enhance the effectiveness of the Defense Centers of 
Excellence and the National Intrepid Center of Excellence whose 
missions are to address and find answers to the concerns around 
behavioral health, suicide prevention and TBI. Also, I will support the 
findings and implement recommendations of the Task Force on Suicide 
Prevention led by General Chiarelli as they relate to actions that can 
be taken by ASD(HA). I will review the findings of the DOD Task Force 
report and will use its recommendations to guide the development of 
additional policies to reduce suicides as appropriate.

    10. Senator Akaka. Dr. Woodson, what specific actions will you 
recommend so that there is greater collaboration between the Services 
and VA regarding suicide prevention?
    Dr. Woodson. DOD and Department of Veterans Affairs (VA) have a 
strong partnership and I support continued collaboration between the 
agencies to optimize suicide prevention efforts for servicemembers, 
veterans, and families. If confirmed, I will recommend increased 
coordination and information sharing between the DOD and VA to 
facilitate collaboration on multiple areas of suicide prevention. I 
will work with Secretary Shinseki to enhance and leverage community-
based VA programs and available behavioral health specialists to treat 
servicemembers. I believe we can leverage each other's strengths to 
better serve our servicemembers, veterans, and their families.

                         joint duty requirement
    11. Senator Akaka. Dr. Woodson, the Goldwater-Nichols Act set a 
requirement that officers must complete a full tour of duty in a joint 
duty assignment or receive a waiver prior to being selected for 
appointment to the general or flag officer pay grade. Currently, a 
waiver for this requirement exists for medical officers, dental 
officers, veterinary officers, medical service officers, nurses, and 
biomedical science officers in the Services. If confirmed, will you 
recommend to the Secretary of Defense that the above named categories 
of officers be subject to the joint duty requirement of the Goldwater-
Nichols Act? Please explain.
    Dr. Woodson. If confirmed, I would not make this recommendation. 
The current statute allows for the flexibility for those career fields 
to promote along with their peers, so not to be disadvantaged due to 
the special nature of their work.
    By policy, a joint experience and a required joint duty assignment 
is defined as ``an assignment to a designated position in a multi-
Service or multi-national command or activity that is involved in the 
integrated employment or support of the land, sea, and air forces of at 
least two of the three Military Departments. The preponderance of the 
officer's duties involve producing or promulgating national military 
strategy, joint doctrine, joint policy, strategic plans, or contingency 
plans, or to commanding and controlling operations under a combatant 
command.''
    Due to the specialized nature of their work and career paths, these 
officers are unable to meet the intent of Goldwater-Nichols' joint 
experience and the Department's definition. However, the Department's 
increased focus in joint matters, allows each officer to apply for 
experience points due to the nature of their individual assignment 
regardless of career field in order to gain the joint qualification.
    It should be noted that many medical specialty officers actually 
have deployed and work in multi-service ``joint'' environments. Most of 
the MTFs in the current theaters of operation are staffed by tri-
service military medical officers. If confirmed, I will work with the 
Services and Service Surgeons General to define opportunities for 
medical officers to receive education and experience in joint and 
interagency operations.
                                 ______
                                 
                Questions Submitted by Senator Jim Webb
                      disability evaluation system
    12. Senator Webb. Dr. Woodson, in your responses to the advance 
policy questions, you stated you would give your fullest attention to 
the lengthy processing times that have occurred in the Disability 
Evaluation System (DES) pilot program. Delays of a year or longer have 
been reported. While extended processing time is sometimes necessary, 
it is generally not in the best interest of the servicemember. The 
responsibility for addressing this important transition issue lies with 
the joint DOD-VA Senior Oversight Committee (SOC), but I understand 
that the SOC's members are not working together as well as they should. 
What specific steps will you take to address this issue and other 
efforts to improve a servicemember's transition from DOD to DVA care, 
treatment, and benefits?
    Dr. Woodson. The DES Pilot, established in November 2007 and now 
operating at 27 locations, is processing Active component 
servicemembers on average, in 311 days. This is about 43 percent faster 
than the Legacy DES. As a member of the Senior Oversight Committee, we 
will continue to strive to improve the DES process. Only through 
collaboration between DOD and VA can we provide the health care and 
benefits our servicemembers need as they transition.

    13. Senator Webb. Dr. Woodson, what steps can be taken to foster 
better coordination and collaboration with your counterpart, the Under 
Secretary of Veterans Affairs for Health?
    Dr. Woodson. There is always much that can be done to improve the 
communications and collaboration between DOD and VA, especially as it 
affects the care and distribution of benefits for our returning 
servicemembers, veterans, and their families. As the DOD/VA Health 
Executive Council (HEC) is the established body to oversee and 
implement our joint programs, if confirmed, I intend to establish and 
maintain a continuous dialogue with my co-chair, the VA Under Secretary 
for Health, on ways to strengthen the HEC and its work groups.

    14. Senator Webb. Dr. Woodson, how will you ensure that the DES 
pilot program has the support it needs to ensure medical and 
administrative personnel are postured to support our wounded warriors 
in transition as effectively as possible?
    Dr. Woodson. Before implementing the DES pilot, DOD and VA examined 
the staffing requirements for DOD and VA administrators at each 
location. Upon implementation, the Military Departments increased 
staffing at some locations and will continue to assess DES staff 
requirements. Additionally, VA has identified new, Pilot-specific 
staffing requirements and is hiring additional personnel. As the Pilot 
expands, the Departments are exploring contract options to address 
examination requirements where VA needs additional support to meet DES 
requirements.
    I will also ensure that medical testing and consultations required 
for the disability evaluation process have the highest priority. I 
support temporary payment of premiums within the managed care network, 
to facilitate rapid evaluation and result reporting for wounded 
warriors within the disability evaluation process.

                           medical task force
    15. Senator Webb. Dr. Woodson, the NDAA for Fiscal Year 2010 
directed DOD to stand up a Task Force on the Care, Management, and 
Transition of Recovering, Wounded, Ill, and Injured Members of the 
Armed Forces within 180 days of its enactment; however, it is my 
understanding that neither this task force's charter nor its members 
have been approved by the Department. What is the status of this task 
force, and what steps will you take to ensure it can meet its reporting 
requirements as specified in the NDAA for Fiscal Year 2010?
    Dr. Woodson. The current status of the Task Force is that it has 
been funded by the DOD Comptroller ($2.25 million for the first year), 
a new Executive Director has been hired, and a draft charter is 
prepared. To ensure that the Task Force does not lose momentum and that 
it is accountable for its progress, there will be a public meeting 
(announced in the Federal Register) 60 days after the approval of the 
charter. The funding, charter approval, and public meeting will all 
serve to maintain the Task Force's positive momentum.
                                 ______
                                 
             Question Submitted by Senator Roland W. Burris
                        electronic health record
    16. Senator Burris. Dr. Woodson, in your advance policy questions, 
you state that one of your major goals is the Electronic Health Record 
(EHR). As a member of both the Senate Armed Services Committee and the 
Senate Veterans Affairs Committee, this is of particular interest to 
me. What are the major obstacles facing the EHR and how do you plan to 
advance this initiative?
    Dr. Woodson. The major obstacles facing the DOD EHR include first 
and foremost, ensuring the system is embraced by the majority of our 
healthcare providers. It must suit their technical needs and meet their 
human need for ease of use while guarding patient privacy, controlling 
and managing access and security. Technical challenges include 
operational availability, speed, and usability issues; and system 
challenges related to the ease and feasibility of updating the system 
to incorporate new capabilities. Much has already been done to address 
these issues and I will continue to expedite ongoing efforts to meet 
these challenges. Data systems need to be modifiable to accommodate the 
unique needs of departments and sub-activities within the organization 
if they are to get useful data for quality improvement processes. 
Intuitive systems with comprehensive data that are reliable, fast, 
portable, and communicate well both internally and externally are some 
of the key features needed in the EHR.
    I understand the power of EHRs and how they can help to enhance the 
quality of care we deliver to our patients. Our doctors, nurses, 
medics, corpsmen, and administrators have to be comfortable with the 
system they are using to ensure they fully embrace the power of the 
EHR. If confirmed, I will work within the Department and with other 
Federal agencies and the private sector to advance EHR initiatives and 
ensuring standards-based interoperability. To advance this initiative, 
I would work closely with the Under Secretary for Acquisition, 
Technology, and Logistics to complete the analysis of alternatives 
(operational effectiveness, suitability, and life-cycle cost); and to 
have the appointment of a program manager and the establishment of a 
formal program office completed. Additionally, I will work to address 
the constraining nature of the DOD acquisition process in order to 
respond to the rapidly changing demands of the IM/IT environment. In 
concert with the EHR efforts, I would look forward to developing 
decision tools to allow health providers to work smarter and deliver 
the highest quality of care that is evidence based.
    My career has spanned the transition from paper to electronic 
health records, and many lessons have been learned about implementation 
of such an initiative. Boston Medical Center was one of the first 
institutions in that area to commit to an EHR; as such, I am prepared 
to transfer that experience to inform my efforts in advancing the EHR 
for the Department and its highly mobile patient and provider 
populations.
                                 ______
                                 
               Questions Submitted by Senator John McCain
             adara networks health care technology contract
    17. Senator McCain. Dr. Woodson, just over a year ago, I called for 
an investigation into allegations of misconduct in connection with the 
award of a contract for military electronic medical records. In the 
years that preceded that contract award, the winning company (Adara 
Networks, Inc.) obtained more than $20 million in defense 
appropriations earmarks. From an investigation that followed, we 
learned: (1) the decision to award the contract to Adara did not adhere 
to Federal acquisition regulations; (2) there were errors in judgment 
and a lack of program and acquisition planning, transparency, and 
oversight; and (3) the electronic computer code from the military 
health system was improperly leaked to Adara--a violation designed to 
give it an unfair advantage. At the end of the day, this flawed 
contract was cancelled--but not before $10 million of the taxpayers' 
money was wasted, since none of the products that Adara delivered were 
ever used. Based on the Department's review, this contract scandal set 
back the development of a military electronic medical records system by 
at least 2 years. This is not a pretty picture. If confirmed, what are 
you going to do to fix it?
    Dr. Woodson. Within DOD, there is an understandable emphasis on 
streamlining the acquisition process to get results as fast as 
possible. While this is a desired outcome, acquisitions must still be 
conducted with absolute integrity and in full compliance with 
prescribed statutes, regulations, and policies.
    If confirmed, I will review the actions that have occurred to 
improve Military Health System acquisition processes and management 
since this contract was cancelled and will further continue to monitor 
and oversee positive changes to ensure future misconduct does not 
occur. I will continue to emphasize and commit to acquisition 
integrity, ensure that the TRICARE Management Activity acquisition 
workforce is properly credentialed to ensure acquisitions have the 
appropriate planning, transparency and oversight and implement any 
follow-up actions that guarantee adherence of acquisition policy and 
program management with all Federal and Department policy and 
procedure.

    18. Senator McCain. Dr. Woodson, exactly how will you assign a 
priority to ensuring that MHS develops its electronic medical records 
system with integrity and under a transparent procurement process that 
accords with all applicable Federal laws and regulations?
    Dr. Woodson. If confirmed, I will ensure that the proper ``checks 
and balances'' are in place among the Functional Sponsor (the system 
requirements owner), Component Acquisition Executive (CAE) (the system 
acquirer), Chief Financial Officer (the Defense Health Program 
financial manager), and Chief Information Officer (the system's 
assessor of Subtitle III of Title 40) and well-defined roles, 
responsibilities, and accountability of the aforementioned positions 
are clearly articulated. In addition, I will ensure policies are in 
place to support the governance structure and process and that those 
policies are enforced and enable program visibility. These 
organizations will work together to ensure an open and transparent 
acquisition process, with full accountability for integrity at every 
step along the way.

    19. Senator McCain. Dr. Woodson, how will you ensure that line 
management across the electronic medical health records procurement 
community will be held accountable to that standard of performance and, 
ultimately, to providing our service men and women with the best 
electronic health records capability at the most reasonable cost to the 
taxpayer?
    Dr. Woodson. Along with many other new acquisition reforms, TRICARE 
Management Activity (TMA) acquisition authority has being centralized 
under one organization, now led and managed by a Senior Executive 
Service employee dual certified in program management and contracting. 
This individual is the CAE. The CAE's acquisition authority and 
accountability will span all Military Health System procurements funded 
with the Defense Health Appropriation, which includes the electronic 
health records procurement community. This individual, along with new 
hired acquisition professional staff, will report directly to me and 
will directly manage the Program Executive Officer for the electronic 
health records program. It is my understanding that establishment of 
policy is underway for proactive enforcement and monitoring through use 
of metrics and conforms to DOD Directive 5000 guidance.
                                 ______
                                 
               Question Submitted by Senator David Vitter
                   abortion in dod medical facilities
    20. Senator Vitter. Dr. Woodson, given your expertise and previous 
comment that the men and women serving this country ``deserve the very 
best facilities and care,'' can you answer how much the allowing of 
abortions on military bases under the Burris amendment will increase 
the drain on medical facilities and practitioners on military bases 
adding to the pressure our military is already facing?
    Dr. Woodson. With respect to your specific question regarding the 
potential impact on highly engaged military treatment facilities of 
allowing the additional workload of pre-paid abortions, I am not aware 
of any firm workload projections. If history is an indicator, it may be 
relevant that according to a 2008 Congressional Research Service 
Report, in 1994, when pre-paid abortions were allowed in overseas 
military treatment facilities, none was performed. Thus, it may be 
difficult to develop a solid estimate of the number of pre-paid 
abortions that might be performed. Finally, for purposes of context, 
military treatment facilities reportedly provide 38 million outpatient 
visits per year, and it appears that pre-paid abortion services would 
impact a relatively select group of health care provider (e.g. 
gynecologists).
                                 ______
                                 
    [The nomination reference of Jonathan Woodson, M.D., 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    April 22, 2010.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Jonathan Woodson, of Massachusetts, to be an Assistant Secretary of 
Defense, vice S. Ward Casscells.
                                 ______
                                 
    [The biographical sketch of Jonathan Woodson, M.D., which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
          Resume of Career Service for Jonathan Woodson, M.D.
Education:
    City College of New York; September 1973-June 1977, B.S. Biomedical 
Sciences
    New York University; June 1977-June 1979, M.D., Medicine
    U.S. Army War College: May 2002-July 2004, M.S. S., Strategic 
Studies

Employment record:
    Massachusetts General Hospital/Harvard Medical School; June 1979-
June 1982, Residency Internal Medicine
    Massachusetts General Hospital/Harvard Medical School; June 1982-
December 1986, Resident General Surgery
    Massachusetts General/Harvard Medical School/Waltham Weston 
Hospital; January 1987-June 1987, Fellow General Surgery
    Massachusetts General Hospital/Harvard Medical School; July 1987-
June 1988, Fellow/Resident Vascular Surgery
    Boston University School of Medicine; July 1988-present

Honors and awards:
    Civilian:
        <bullet> Samuel Speigel Award - Academic Excellence (1979)
        <bullet> Merck Manual Award - Academic Merit (1979)
        <bullet> Jobst Vascular Fellows Award (1987)
        <bullet> Tyler Research Fund Award (1990)
        <bullet> Surgical Teaching Award, Boston University (1990)
        <bullet> Surgical Teaching Award, Boston University (1991)
        <bullet> Black Achiever Award, Boston, MA(1995)
        <bullet> Select one Top Vascular Surgeons in Boston (2007)
        <bullet> Selected for inclusion in listing of ``Top Surgeons'' 
        in the United States (2008)
        <bullet> Gold Humanism in Medicine Award, Association of 
        American Medical Colleges (2009)
        <bullet> Listed in Consumers Guide to ``Top Doctors'' in 
        America (2009)
        <bullet> ``Citizen of the Year'' Award, Omega Psi Phi 
        Fraternity, Boston, MA (2009)

    Military:
        <bullet> Legion of Merit
        <bullet> Bronze Star Medal
        <bullet> Meritorious Service Medal (OLC)
        <bullet> Army Commendation Medal (Two OLC)
        <bullet> Armed Forces Reserve Achievement Medal (Silver ULU)
        <bullet> National Defense, Service Ribbon (BSS)
        <bullet> Southwest Asia Campaign Ribbon (two Bronze Stars)
        <bullet> Armed Forces Reserve Medal (M-Device, Silver 
        Hourglass, Num 4)
        <bullet> Army Service Ribbon
        <bullet> Army Reserve Component Overseas Training Ribbon (Num 
        2)
        <bullet> Global War on Terrorism Medal (exped.)
        <bullet> Global War on Terrorism Medal
        <bullet> Kosovo Campaign Medal (BSS)
        <bullet> NATO Medal
        <bullet> Kuwaiti Liberation Medal (Kuwait)
        <bullet> Kuwaiti Liberation Medal (Saudi Arabia)
        <bullet> Meritorious Service Unit Award (86 EVAC-1991)
        <bullet> Army Superior Unit Award (2290th Field Hosp.-1991)
        <bullet> The Surgeon General's ``9A'' Proficiency Designator
        <bullet> Order of Military Medical Merit
        <bullet> Letter and Certificate of Commendation from U.S. 
        Ambassador (Richards), Kuwait (for support of Embassy Medical 
        Operations during Operation Iraqi Freedom), 2003
        <bullet> Expert Field Medical Badge
        <bullet> Flight Surgeons Badge
        <bullet> Air Assault Badge
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Jonathan 
Woodson, M.D., in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Jonathan Woodson.

    2. Position to which nominated:
    Assistant Secretary for Defense, Health Affairs.

    3. Date of nomination:
    April 22, 2010.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    July 27, 1956; Great Barrington, MA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Sherril Ann Woodson (Maiden name: Haggarty).

    7. Names and ages of children:
    Jonathan Michael Woodson, 23.
    Sarah Emily Woodson, 20.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    City College of New York - 1973-1977; B.S. (Biomedical Sciences)
    New York University School of Medicine - 1977-1979; M.D.
    (Combined 6 year B.S.-M.D. degree program)
    U.S. Army War College 2002-2004; MSS

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Boston University School of Medicine, Boston, Massachusetts.
    Associate Dean for Students and Diversity (2006-present).
    Associate Professor of Surgery (1999-present).
    Senior Surgeon (vascular, General) 1988-present.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Chronological Record of Duty Assignments:
         Surgeon, 373rd General Hospital (First Army Augmentation 
        Detachment) 1986
         Surgeon, 351st General Hospital (First Army Augmentation 
        Detachment) 1988
         Surgeon, 2290th Field Hospital, Active Duty; 1991
         Surgeon, 86th Evacuation Hospital. Hosp., Active Duty, Saudi 
        Arabia, 1991, Operation Desert Shield/Desert Storm
         Surgeon, National Augmentation Detachment, 1991
         Chief of Surgery, 399th Combat Support Hospital, USAR, 1993
         Chief Professional Services, 399th Combat Support Hospital, 
        USAR, 1998
         Commander, Acting, 399th Combat Support Hospital, 1999-2000
         Chief, Surgical Services, Task Force Medical Falcon IV, 30th 
        Medical Brigade FWD, Camp Bondsteel, Kosovo 2001 [Responsible 
        for all policies and procedures for care of surgical patients 
        treated at TFMF IV. Acted as principal advisor to Task Force 
        commander and USAEUR Surgeon for surgical matter. Worked with 
        United Nations/KFOR to upgrade surgical care at regional 
        hospital after war. Tutored/mentored junior staff. Provided 
        direct patient care to sick and injured soldiers. Additional 
        duties as flight surgeon.]
         Chief, Surgical Services, 399th Combat Support Hospital, 
        Taunton, MA 2001-2003
         Deputy Commander, Clinical Services, 865th Combat Support 
        Hospital (FWD)2003, Kuwait (OIF)[Responsible for developing all 
        programs and policies for care of sick and injured U.S. and 
        coalition forces, medical support to the U.S. mission (Embassy) 
        to Kuwait and coordination with host nation partners. Provided 
        forward surgical teams to augment advancing medical forces. 
        Provided for recovery/reintegration of prisoners of war. The 
        865th was the first Combat Support Hospital established to 
        support Operation Iraqi Freedom]
         Commander, 399th Combat Support Hospital, Taunton, MA 2003-
        2006 [Responsible for command and control of a medical 
        battalion of 700 soldiers including a full combat support 
        hospital, 2 Forward Surgical Teams, 2 minimal care wards, and a 
        Headquarters company. Responsible training and deploying units/
        soldiers for ongoing military operations. Completed medical re-
        engineering of USAR medical units]
         Senior Surgeon, Lansthul Regional Medical Center, Germany Nov 
        04-Mar 05 (OEF/OIF) [Provided direct care sick and injured war 
        victims as well as mentored junior staff. Assisted with aero 
        medical evacuations as flight surgeon/CCAT]
         Chief Professional Services, 804th Medical Brigade, Devens, 
        MA, Feb 06-Aug 06
         Commander, 330th Medical Brigade, Fort Sheridan, IL, September 
        2006-September 30, 2009; [Responsible for command and control, 
        administrative oversight, (including UCMJ actions), soldier 
        care, training and deployment of USAR soldiers and medical 
        units for current wartime operations. The 330th MED BDE has 64 
        units in 9 States and an authorized strength of 6,500 
        soldiers).
         President Real Property Board, Fort Sheridan, IL - Responsible 
        for administration, oversight and coordination of facilities at 
        Fort Sheridan (approx. 1.5 billion) 2007-2009
         Assistant Surgeon General for Reserve Affairs, Force 
        Management and Mobilization, Office of the Surgeon General 
        (OTSG), Falls Church, VA/Deputy Commander Army Reserve Medical 
        Command (AR-MEDCOM), Pinellas Park, FL, 1 October 2009-Present.

    Current Duties:
         Brigadier General, USAR-1, Oct. 2006-Present
         Commander 330th Medical Brigade - 1 October 2006-30 September 
        2009
         Assistant Surgeon General for Reserve Affairs, Force 
        Management and Mobilization - 1 October 2009-Present (Dual 
        hatted)
         Deputy Commander Army Reserve Medical Command (AR-MEDCOM) - 1 
        October 2009-Present (Dual hatted)
         Consultant to the Surgeon General (Vascular Surgery) - 2006-
        Present
         Adjunct Professor, Uniform Services University of the Health 
        Sciences, 1993-Present

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Governor, American College of Surgeons, 2006-present
    Board Member, Boston Medical Center/Boston University School of 
Medicine Faculty Practice Foundation, 2000-present
    Secretary, Boston Surgical Society, Jan. 2010-present

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Association of Military Surgeons, U.S., 1990-present
    Fellow, American College of Surgeons, 1991-present
    Governor American College of Surgery, 2006-present
    Councilor Massachusetts Chapter ACS, 2002-present
    International Society for Cardiovascular Surgery, 1998-Present
    Massachusetts Medical Society, 1983-present
    New England Medical Society, 1983-1986
    New England Society for Vascular Surgery (NESVS), 1993-present
    Issues Committee NESVS, 2003-2005
    Chair, Issues Committee NESVS, 2005
    New England Surgical Society, 1996-2008
    Society for Clinical Vascular Surgery, 1992-present
    Boston Surgical Society, 1994-present
    Executive Committee, Boston Surgical Society, 2006-present
    Suffolk District Medical Society, l983-1986
    The Association for Academic Surgery, 1992-1999
    Uniform Services University, Surgical Associates, 1989-present
    Society of U.S. Army Flight Surgeons, 2000-present

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Legion of Merit
    Bronze Star Medal
    Meritorious Service Medal (OLC)
    Army Commendation Medal (Two OLC)
    Armed Forces Reserve Achievement Medal (Silver OLC)
    National Defense, Service Ribbon (BSS)
    Southwest Asia Campaign Ribbon (two Bronze Stars)
    Armed Forces Reserve Medal (M-Device, Silver Hourglass, Num 4)
    Army Service Ribbon
    Army Reserve Component Overseas Training Ribbon (Num 2)
    Global War on Terrorism Medal (exped.)
    Global War on Terrorism Medal
    Kosovo Campaign Medal (BSS)
    NATO Medal
    Kuwaiti Liberation Medal (Kuwait)

          Kuwaiti Liberation Medal (Saudi Arabia)

                Meritorious Service Unit Award (86 EVAC-1991)
                Army Superior Unit Award (2290th Field Hosp.-1991)
                Awarded The Surgeon General's ``9A'' Proficiency 
                Designator
                        [Defines subject matter expertise and is 
                        awarded only to those who are qualified to lead 
                        major clinical departments and act as an 
                        advisor to The Surgeon General]

                Order of Military Medical Merit
                        [Order denotes distinguished service and 
                        significant contributions to the entire AMEDD 
                        which is recognized by the senior leadership of 
                        the Army Medical Department]

                Letter and Certificate of Commendation U.S. Ambassador, 
                Kuwait (for support of Embassy Medical Operations 
                during Operation Iraqi Freedom), 2003

    Badges:
          Expert Field Medical Badge
          Flight Surgeons Badge
          Air Assault Badge
          Sharpshooter Marksman's Badge (M-16)
          Sharpshooter Marksman's Badge (M-9)

    Awards:
          1979, Samuel Speigel Award -Academic Excellence
          1979, Merck Manual Award - Academic Merit
          1987, Jobst Vascular Fellows Award
          1990, Tyler Research Fund Award
          1990, Surgical Teaching Award, Boston University
          1991, Surgical Teaching Award, Boston University
          1995, Black Achiever Award
          2007, Select one Top Vascular Surgeons in Boston
          2008, Selected for inclusion in listing of ``Top Surgeons'' 
        in United States
          2009, Gold Humanism in Medicine Award, Association of 
        American Medical Colleges
          Listed in Consumers Guide to ``Top Doctors'' in America 
        ``Citizen of the Year'' Award, Omega Psi Phi Fraternity, 
        Boston, MA (presented November 22, 2009, Suffolk University)

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Publications:
     1.  Podlas, J., Barbieri, R. L., Salzman, R., Woodson, J., Fuller, 
A.: Toxic Shock Syndrome in the Luteal Phase of the Menstrual Cycle; 
American Journal of Obstetrics and Gynecology 141:2.
     2.  Fisher, J.B., Dennis, R.C., Valeri, R.C., Woodson, J., Doyle, 
J.E., Walsh, R.N., Menzoian, J.O.: Effects of Synthetic Graft Material 
on Blood Loss Following Aortic Surgery 1989 SG & 0 May 1991 173: 131-
136.
     3.  Hanrahan, L.M., Araki, C.T., Fisher, J.B., Rodriguez, A.A., 
Walker, T.G., Woodson, J., LaMorte, W.W., Menzoian, J.O.: Evaluation of 
the perforating veins of the lower extremity using high resolution 
duplex imaging. Journal of Cardiovascular Surg. 1991 32: 87-97.
     4.  Woodson, J., Rodriguez, A.A., Menzoian, J.O.: The Use of 
Autologous Internal Jugular Vein as Interposition Graft for Femoral 
Vein Reconstruction. A Useful Approach in Selected Cases. Annals of 
Vascular Surgery 1990 4:494-497.
     5.  Millham, F.H., Hudson, H.M., Woodson, J., Menzoian, J.O.: 
Intra-aortic Balloon Pump Entrapment. Annals of Vascular Surgery July 
1991 5:381-383.
     6.  Cordts, P.R, Hanrahan, L.M., Rodriguez, A.A., Woodson, J., 
LaMorte, W.W., Menzoian, J.O.: A Prospective, Randomized Trial of 
Unna's Boot versus Duoderm CGF Hydroactive Dressing Plus Compression in 
the Management of Venous Leg Ulcers. Journal of Vascular Surgery, March 
1992, Vol. 15, No. 3 480-486.
     7.  Hudson, H.M., Woodson, J., Hirsch, E.: The Management of 
Traumatic Aortic Tear in the Multiple Injured Patient. Annals of 
Vascular Surgery 1991; 5:381-384.
     8.  Gillespie D.L., Woodson, J., Kaufman, J., Parker, J., 
Greenfield, A., Menzoian, J.O.: The Role of Arteriography for blunt or 
penetrating injuries in proximity to major vascular structures - An 
evolution in management. Annals of Vascular Surgery March 1993; 7:145-
9.
     9.  Rosenblatt, M., Aldridge, S., Millham, F., Woodson, J., 
Hirsch, E.: Temporary Thoracotomy Wound Closure Following Penetrating 
Thoracic Aortic Injury. Military Medicine 1993; 158(l):58-59.
    10.  Gillespie, D.L., Cordts, P.R., Hartoni, C, Woodson, J., Obi-
Tabot, E., LaMorte, W.W., Menzoian, J.O.: The Role of Air 
Plethysmography (APG) in Monitoring Results of Venous Surgery J. Vase. 
Surgery 1992; 16:674-678.
    11.  Kaufman, J.A, Parker, J.E., Gillespie, D.L., Greenfield, A.J., 
Woodson, J., Menzoian, J.D.: Arteriography for Proximity of Injury in 
Penetrating Extremity Trauma. Journal of Vascular and Interventional 
Radiology Nov. 1992; Vol. 3, No. 4.
    12.  Woodson, J.: Management of Vascular Trauma. Comprehensive 
Therapy March 1994, Volume 20(3).
    13.  Gardner, G.P., Cordts, P.R., Gillespie, D.L., Lamorte, W., 
Woodson, J., Menzoian, J.O.: Can Air Plethymography Accurately Identify 
Upper Extremity Deep Vein Thrombosis? J. Vase. Surgery 1993:18:808.
    14.  Gardner, G.P., Josephs, L.J., Rosca, M., Rich, J., Woodson, 
J., Menzoian, J.O.: Retroperitoneal Incision: An Evaluation of 
Postoperative Flank Bulge. Archives of Surgery 1994; 129:753-756.
    15.  Duggan, M., Woodson, J., Scott, T., Ortega, Menzoian, J.O.: 
Functional Outcomes in Limb Salvage Surgery. The American Journal of 
Surgery 1994; 168:188-191.
    16.  Hirsch, E., Woodson, J., Levy, K., Gillespie, D.: Assessment 
of Trauma System Needs at Emergency Hospitals. World Journal of Surgery 
(Submitted)
    17.  Donald, K., Woodson, J., Hudson, H., Menzoian, J.O.: Multiple 
Mycotic Psuedoaneurysms Due to Yersinia Enterocolitica: Report of a 
Case and Review of the Literature. Annals of Vascular Surgery 1996; 
10(6):573.
    18.  Stanley, A.C., Barry, M., Scott, T.E., LaMorte, W.M., Woodson, 
J., Menzoian, J.O.: The Critical Pathway and Its Impact on Patient Care 
Following Infrainguinal Bypass J. Vase. Surgery 1998; 27:6.
    19.  Goldberg, R.M., Gianturco, L.E., Yucel, E.K., Feldman, L., 
Woodson, J., Menzoian, J.O., M R Angiography vs. X-Ray Angiography for 
Peripheral Vascular Planning: A Prospective Study at Two Institutions.
    20.  Reid, S.K., Pagan-Marin, H., Menzoian, J.O., Woodson, J., 
Yucel, K.E.: Contrast-Enhanced Moving Table MR Angiography:Prospective. 
JVIR Jan 2001.
    21.  Raffetto, J.D., Chen, M.N., LaMorte, W.W., Seidman, C.S., 
Eberhardt, R.T., Woodson, J., Gibbons, G.W., Menzoian, J.O.: Factors 
That Predict Site of Outflow Artery Anastamosis in Infrainguinal 
Revascularization. J. Vasc. Surgery 2002;35:6.
    22.  Woodson, J. ``Getting to Yes: A Look Inside IRB 
Deliberations'' IRB Times, Boston University Medical Center Internet 
Chronicle, Sept 2004.
    23.  Huang, A.L., Silver, A.E., Shvenke, E., Schopfer, D.W., 
Jahangir, E., Titas, M., Shiplman, A., Eberhardt, R.T., Menzoian, J.O., 
Watkins, M.T., Gibbons, G., Woodson, J., Shaw, P., Dhadly, M., Kearney, 
J.F., Gokce, N., Vita, J.; Predictive Value of Reactive Hyperemia for 
Cardiovascular Events in Patients with Peripheral Arterial Disease. 
Arterioscler Thromb. Vasc. Biol, November 2007.
    24.  Vladimir, F.G., Farber, A., Oropallo, A., Woodson, J., and 
Gibbons, G.; Unusual presentations of ruptured abdominal aortic 
aneurysm: Case report and review of the literature. Romanian J Angiol 
Vase Surg 8 (1-2): 41-44, 2007.
    25.  Magge, D., Farber, A., Vladimir, F., Woodson, J., Collins, K., 
Shaw, and Gibbons, G.: Diagnosis and Management of Traumatic 
Pseudoaneurysm of the Carotid Artery: Case report and review of the 
literature. Vascular 16:350-55,2008.
    26.  Semaan, E.; Hamburg, N., Nasr, W., Shaw, P., Doros, G., 
Eberhardt, R., Woodson, J., Farber, A.: Endovascular Management of the 
Popliteal Artery: Comparison of atherectomy and angioplasty Vase 
Endovascular Surg. 2010, 44: 25-31

    Book Chapters:

     1.  Non-operative Treatment of Venous Ulcers. Menzoian, J.O., 
Lamorte, W., Woodson, J.: Current Therapy in Vascular Surgery Third Ed. 
Mosby-Year Book, Inc. pps. 919,1994
     2.  Woodson, J., Menzoian, J.O.: Cerebral Protection During 
Carotid Surgery. In Vascular Surgery: Theory and Practice. Callow AD 
and Ernst JC, Editors. Appleton and Lange, Philadelphia, PA. pps 511, 
1995
     3.  Woodson, J.: Measuring Outcomes in Vascular Surgery. In 
Vascular Surgery: Theory and Practice Callow AD and Ernst JC, Editors. 
Appleton and Lange, Philadelphia, PA. pps 1739, 1995.
     4.  Review ``Decisionmaking in Vascular Surgery'' J.Vasc. Surgery 
Nov. 2002.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                  Jonathan Woodson.
    This 2nd day of August, 2010.

    [The nomination of Jonathan Woodson, M.D., was reported to 
the Senate by Chairman Levin on August 4, 2010, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on December 22, 2010.]
                              ----------                              

    [Prepared questions submitted to Neile L. Miller by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                                 duties
    Question. Section 3141 of the National Defense Authorization Act 
for Fiscal Year 2002 stated that the Principal Deputy Administrator 
shall be appointed ``from among persons who have extensive background 
in organizational management and are well qualified to manage the 
nuclear weapons, nonproliferation, and materials disposition programs 
of the administration in a manner that advances and protects the 
national security of the United States.''
    What background and experience do you possess that you believe 
qualifies you to perform these duties?
    Answer. I am honored and humbled to be nominated by the President 
to serve as the Principal Deputy Administrator of the National Nuclear 
Security Administration (NNSA). I also am grateful for the confidence 
placed in me by Secretary Chu and Administrator D'Agostino in 
recommending me for this position.
    As the senior career executive at the Department of Energy's (DOE) 
Office of Budget, I believe that I have a unique set of qualifications 
and experience to serve as the Principal Deputy Administrator. In 
addition, due to my prior experience as a senior analyst at the Office 
of Management and Budget (OMB), I bring to this position a detailed 
knowledge of the technical programs, budgets, and personnel of the 
NNSA.
    As a result of my prior experience in working with the NNSA and 
with its predecessor DOE programs, I have nearly 10 years of experience 
in reviewing the programs and budgets of the NNSA, both from the OMB as 
well as the Secretarial perspective. I am well aware of the significant 
challenges facing the NNSA in implementing the national security 
policies established by the President and Congress.
    As my prior experience was concentrated in the area of budget 
review, I am especially cognizant of the resource allocation issues 
facing the NNSA. I am prepared to work closely with the Administrator 
in making the difficult decisions needed to ensure that the Nation's 
Nuclear Security Enterprise operates in the most effective and 
efficient manner possible. My most recent experience in this regard was 
in negotiating the final budget allocations in the President's fiscal 
year 2011 budget needed to support modernization of the Nuclear 
Security Enterprise complex and prepare for implementation of pending 
nuclear arms reduction agreements.
    Finally, I want to stress my background as a Federal career 
official. My Federal career experience at OMB and DOE provides unique 
insights into the day-to-day operations and management of the NNSA. I 
am well-prepared to address the mechanics of making the NNSA programs 
work as well as possible. If confirmed for this position, I intend to 
work closely and constructively with the NNSA career managers and staff 
to improve all aspects of NNSA program execution and performance.
    The NNSA program structure is complex, due to the pervasive 
interaction between Federal officials, major contractors responsible 
for the operation of the NNSA physical plant and infrastructure, and 
the Nation's leading scientists and engineers working at the three 
major NNSA national laboratories to advance our scientific and 
technological capabilities. My prior experience in interfacing with 
this complex structure in several different capacities will enable me 
to support the Administrator in implementing the mission of the NNSA.
    In summary, my prior experience in the review of NNSA programs, 
budgets and management issues will enable me to quickly and easily 
transition into the position of Principal Deputy Administrator.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Principal Deputy 
Administrator?
    Answer. If I am confirmed by the Senate, one of my first tasks will 
be to review with the Administrator whether and what further actions I 
may need to take in order to enhance my ability to perform the duties 
of my position.
    As a result of my prior experience in the review of NNSA programs 
and budgets, I have a significant background level of knowledge of NNSA 
programmatic, budget, management, and technical issues. Consequently, I 
do not anticipate the need for any type of ``crash course'' in order to 
assume my responsibilities. Nonetheless, I am fully aware that the 
processes, procedures, policies, and requirements are evolving 
constantly, and I plan to avail myself of the opportunities to keep 
current with changing circumstances.
    I have benefited greatly throughout the course of my career from 
continuing professional development activities, and I plan to make 
continuing professional development an ongoing activity.
    Question. Section 3141 goes on to state that the Principal Deputy 
Administrator ``shall perform such duties and exercise such powers as 
the Administrator may prescribe, including the coordination of 
activities among the elements of the administration.''
    Assuming you are confirmed, what duties, and functions do you 
expect that the Administrator of NNSA would prescribe for you?
    Answer. Based upon discussions I have had with the Administrator, 
should I be confirmed as the Principal Deputy Administrator, I would 
serve as NNSA's Chief Operating Officer (COO). As such, I would provide 
management oversight for NNSA offices, while the Administrator would 
provide technical expertise, as the Chief Technical Authority. I would 
oversee the daily operations of the Office of the Administrator and the 
Headquarters organizations which report directly to this office. In 
addition, I would manage the interface between senior NNSA officials 
and DOE offices, primarily the Office of the Secretary, Deputy 
Secretary, and the other Under Secretaries, the Chief Financial Officer 
(CFO), General Counsel, Inspector General, Office of Management, Chief 
Information Officer, and the Chief, Human Capital Officer. I would also 
serve as the head of the NNSA Management Council. Also, as required by 
the NNSA Act, I would stay fully and currently informed on all major 
NNSA programs, operations, and activities so that in his absence, I 
could act for the Administrator.
    Question. Are there any special projects or assignments on which 
you will focus?
    Answer. Yes, based on my strong planning and budgeting background 
and experience in working with other Federal departments and 
congressional committees and staffs, I will do all that I can to make 
sure that the NNSA budget is requirements-based and sufficient to 
carryout the activities in the Stockpile Stewardship, Defense Nuclear 
Nonproliferation, Naval Reactors, Counterterrorism, Emergency 
Operations, Safeguards and Security, and all related support programs 
to meet the priorities and objectives set forth by the Administrator, 
Secretary Chu, and the White House. In addition, I would oversee the 
NNSA's current work being carried out on Governance, Management 
Reforms, Complex Transformation, and the development of the new NNSA 
Strategic Plan.
                     major challenges and problems
    Question. What is your understanding of the role that you will play 
in the overall administration of the NNSA, in the event that you are 
confirmed?
    Answer. As noted above, based on my discussions with the 
Administrator, if confirmed, I would serve as NNSA's COO. My primary 
emphasis would be managing the day-to-day activities required to ensure 
that the NNSA is functioning in the most effective and efficient manner 
possible. In addition, I would lead the complex-wide effort to develop 
a new Strategic Plan for the NNSA.
    The NNSA has numerous major program milestones and I see myself as 
the person charged by the Administrator to ensure that those milestones 
are met on time and within budget. Through my daily oversight of NNSA 
programs, and, as the Chair of the Program Review Council, the lead 
element of the NNSA's Planning, Programming, Budgeting, and Evaluation 
(PPBE) process, I would stay focused on each major program milestone, 
resolve issues impacting schedules, and, ensure compliance with 
completion dates. This would allow the Administrator to devote his time 
and attention to overseeing the highly specialized technical issues 
associated with NNSA's programs.
    Question. In your view, what are the major challenges that will 
confront the Principal Deputy?
    Answer. This is a moment of especially high expectations for the 
NNSA, on several fronts. The nuclear security complex is expected to 
continue to assure the safety, security, and effectiveness of the 
enduring stockpile, even as the complex must be modernized and 
recapitalized. Several major construction projects will be undertaken, 
each with an inherent set of risks and each estimated to cost in the 
neighborhood of several billions of dollars plus to construct. At the 
same time, the programs and projects of the Office Defense Nuclear 
Nonproliferation will be leading the way to meet the ambitious goals 
set forth by President Obama in his Prague speech. Given the critical 
role that strong program and financial management will play in 
determining whether NNSA will be successful in meeting all of these 
challenges, I believe I am well-qualified to make an important 
contribution to the Administrator and the organization.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. Initially, I would work on team building and establishing 
relationships based on mutual trust and confidence with all of my 
collegues in the NNSA. Regarding the NNSA Budget Request, I would 
address the NNSA's requirements with the DOE CFO, the Office of 
Management and Budget (OMB), other involved Departments', such as the 
Department of Defense (DOD), to secure the funds required to ensure 
that the NNSA can meet its commitments to DOD and other interagency 
partners. My approach to the Defense Programs' Complex Transformation 
initiative and Defense Nuclear Nonproliferation's ambitious efforts to 
meet the President's objectives set for in his Prague speech is 
basically identical in both cases. That is, I would: carefully assess 
the current status of both initiatives; identify any road blocks; take 
actions to ovcome them; take advantage of any lessons-learned to date; 
track milestones; and, ensure that all commitments are met on schedule 
and within their respective budgets.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Principal Deputy Administrator?
    Answer. I may sound overly optimistist in this response, but I do 
not see any serious problems associated with the performance of the 
functions of the Principal Deputy Administrator. This is not to say 
that I don't anticipate serious challenges and potential difficulties 
as NNSA confronts the future. However, if confirmed, I would feel 
extremely fortunate to have the opportunity to work closely with the 
Administrator, and the Headquarters and Site Office leadership team, 
the directors of the national laboratories and the managers of the 
production plants. I have longstanding relationships with many of these 
team members and I consider them to be public servants of the highest 
order, extremely competent, comitted to the mission, and to furthering 
the national security goals and objectives of the United States. I 
would consider it a high honor and privilege to serve as the Principal 
Deputy Administrator in such an outstanding organization.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, I would immediately meet with all of the NNSA 
senior leadership team followed by site visits to each major facility 
and focus on establishing effective working relationships at all levels 
of the organization. Based on my findings, I would work to develop 
whatever management tools I found necessary to ensure that all 
commitments would be met on schedule and within budget.
                               priorities
    Question. If confirmed, what broad priorities would you establish 
in terms of issues that must be addressed by the Principal Deputy 
Administrator?
    Answer. First, I would ensure that the NNSA management team is 
totally focused on the crucial role NNSA plays in implementing the 
President's nuclear security agenda, including his charge to secure all 
vulnerable nuclear material around the world within 4 years.
    Second, I would work within the Department, the administration, and 
with you in Congress to ensure we have the tools and capabilities, 
including the technical human capital base, required to effectively 
manage the nuclear weapons stockpile and the other NNSA missions to 
reduce the global nuclear danger.
    Third, I would do all I could to help recapitalize the NNSA nuclear 
infrastructure and deterrent capability. This includes the physical 
infrastructure needed to ensure a modern, sustainable Nuclear Security 
Enterprise. This investment will support the full range of nuclear 
security missions--including Stockpile Stewardship, nonproliferation, 
arms control and treaty verification, counterterrorism, nuclear 
forensics, and Naval nuclear propulsion--to ensure the security of the 
United States, now and in the future. Fourth, I would ensure that the 
Governance Model and the aggressive management reforms approved by the 
Administrator are fully implemented and completed. The NNSA must 
continue to be effective stewards of the taxpayer's money and ensure 
that the NNSA is an efficient and cost effective enterprise. Some 
examples of these reforms are:

        <bullet> the Zero-Based Security Review to implement greater 
        security efficiencies;
        <bullet> the Supply Chain Management Center which has already 
        saved taxpayers more than $130 million, largely through 
        ``eSourcing'' and ``Strategic Sourcing;'' and,
        <bullet> the Contracting and Acquisition Strategy must be 
        implemented wherein the NNSA would consolidate site operations 
        of the Y-12 National Security Complex and the Pantex Plant into 
        a single contract, with an option for the phase-in of Savannah 
        River Tritium Operations. This strategy is fully consistent 
        with the Administrator's vision to move toward a fully 
        integrated and interdependent enterprise.
                             relationships
    Question. Please describe your understanding of the relationship of 
the Principal Deputy Administrator with the following Officials:
    A. The Secretary and Deputy Secretary of Energy.
    Answer. I would report through the Administrator to the Deputy 
Secretary and Secretary and represent the Administrator with these 
officials in his absence.
    Question. B. The Administrator of the NNSA.
    Answer. He would be my immediate supervisor.
    Question. C. The Deputy Administrators of the NNSA.
    Answer. I would serve as the immediate supervisor for the Deputy 
Administrators for Defense Programs, Defense Nuclear Nonproliferation, 
and Naval Reactors.
    Question. D. The Assistant Secretary of Energy for Environmental 
Management.
    Answer. Within the NNSA, the Associate Administrator for 
Infrastructure and Environment is the principal interface with the 
Assistant Secretary for Environmental Management (EM). I would interact 
with the Under Secretary of Energy on EM matters, given that the 
Assistant Secretary for EM reports to that Under Secretary.
    Question. E. The Assistant to the Secretary of Defense for Nuclear, 
Chemical and Biological Defense Programs.
    Answer. The principal interface with this individual at the 
Pentagon is the NNSA's Deputy Administrator for Defense Programs. As 
necessary, I would represent the interests of the Administrator and the 
NNSA with this official.
    Question. F. The Chairman of the Nuclear Weapons Council (NWC).
    Answer. The Administrator, as a member of the NWC, is the principal 
interface with the Chairman. In the absence of the Administrator, I 
would represent the interests of the Administrator and the NNSA with 
the Chairman.
    Question. G. The Commander of United States Strategic Command.
    Answer. The Deputy Administrator for Defense Programs is the 
principal interface with this individual. As necessary, in the absence 
of the Administrator, I would represent the interests of the 
Administrator and the NNSA with the Commander in Chief of the U.S. 
Strategic Command.
    Question. H. The nuclear directorates of the Air Force and Navy.
    Answer. The Deputy Administrator for Defense Programs is the 
principal interface with these individuals. As necessary, I would 
represent the interests of the Administrator and the NNSA with these 
officials.
    Question. I. The Associate Administrator of NNSA for Facilities and 
Operations.
    Answer. (Infrastructure and Environment); I would serve as the 
immediate supervisor.
    Question. J. The Associate Administrator of NNSA for Management and 
Administration.
    Answer. I would serve as the immediate supervisor.
    Question. K. The DOE Director of Health, Safety and Security.
    Answer. In the absence of the Administrator, I would represent the 
interests of the Administrator and the NNSA.
    Question. L. The Under Secretary of Energy for Science and the 
Director of the Office of Science.
    Answer. In the absence of the Administrator, I would represent the 
interests of the Administrator and the NNSA.
    Question. M. The Defense Nuclear Facilities Safety Board.
    Answer. In the absence of the Administrator, I would represent the 
interests of the Administrator and the NNSA.
                         management of the nnsa
    Question. What is the role of NNSA's Management Council and, if 
confirmed, what would be your relationship with the Council?
    Answer. The NNSA Management Council is the formal mechanism to 
address cross-cutting issues and to identify opportunities for synergy 
across NNSA components (e.g. development and implementation of the 
NNSA's PPBE process: approval of major NNSA policies and directives; 
implementation of a new contractor performance evaluation system, 
etc.). The Council is the mechanism for high-level integration and 
dispute resolution. The Management Council is comprised of: the 
Principal Deputy Administrator; the Chief of Staff; the Deputy 
Administrator for Defense Programs; the Deputy Administrator for 
Defense Nuclear Nonproliferation; the Deputy Administrator for Naval 
Reactors; the Associate Administrators for Management and 
Administration; Emergency Operations; Infrastructure and Environment; 
and, Defense Nuclear Security.
    As the Principal Deputy Administrator, I would be the lead official 
for all Management Council activities, and as such, would strive to 
ensure that all NNSA programs and activities are carried out in the 
most efficient and effective manner possible. In this capacity, I would 
keep the Administrator fully current on all Management Council 
activities and make sure that the work of the Management Council is 
carried out in full consonance with his overall management style and 
general direction.
    Question. In your view are there any changes needed to the 
management structure of the NNSA?
    Answer. Based on my discussions with the Administrator and my 
interactions with NNSA senior management during my time at the OMB, and 
in my current assignment as the Director, Office of Budget for DOE, my 
view is that the NNSA is regarded as a highly effective and efficient 
organization. Therefore, I do not believe that any major changes are 
required at this time.
    Question. In your view are there clear lines of authorities and 
responsibilities in the NNSA?
    Answer. Yes. The lines of authorities and responsibilities in the 
NNSA are clearly articulated in the roles and responsibilities document 
issued by the Administrator and in the NNSA Safety Functions, 
Responsibilities, and Authorities Manual. The lines of authority and 
responsibility flow from the Administrator and Principal Deputy 
Administrator, who set the broad policy parameters and program goals, 
down through the Headquarters line managers who work with the Site 
Office Managers and the Management and Operating contractors to execute 
NNSA's major programs.
    Question. Do you believe that any changes are needed to ensure 
clear lines of authority and responsibility?
    Answer. No, however, there is always room for improvement. If 
confirmed, I will focus my attention on this matter and make sure that 
the lines of authority and responsibility throughout the entire complex 
are clear and understood.
                       weapons programs workforce
    Question. If confirmed, what specific steps would you recommend for 
the NNSA to retain critical nuclear weapons expertise, particularly 
design capabilities, in the Federal NNSA workforce and at the labs and 
the plants?
    Answer. I know that the NNSA has been addressing this issue for 
many years as a generation of the subject matter experts with weapons 
design and actual nuclear weapons testing experience have retired over 
the last decade. The congressionally-mandated Chiles Commission 
examined this issue and provided recommendations to Congress, the DOE, 
and the laboratories and production plants. Many of these 
recommendations have been implemented. The laboratories and production 
plants have identified the required skill sets and they have put into 
place programs to overcome this very real problem.
    Initially, I would assess where the complex is in addressing this 
matter. Once I was informed, I would review the incentives available 
for retention and recruitment and implement adjustments, if necessary. 
The more obvious incentives include: retention and recruitment pay 
incentives; special pay categories; enhanced continuing education 
opportunities; unique and challenging assignments, to include rotations 
to other laboratories and institutions; and, incentives to delay 
retirements. Regarding the NNSA Federal workforce, the NNSA has put 
into place numerous programs, such as the Future Leaders Program, the 
Nonproliferation Graduation Fellowships, the Computational Science and 
Stewardship Graduates Fellowship, and management internships to infuse 
the Stockpile Stewardship Program with young, technically competent 
individuals. Through these programs, there are special recruitment and 
retention allowances, special pay categories, continuing educational 
opportunities, rotational opportunities, and challenging assignments, 
and if warranted, rapid advancement.
    Before I suggest further steps to recruit and retain the needed 
technical talent required by the NNSA complex, I would like an 
opportunity to assess how these programs are working.
    Question. If confirmed, what specific steps would you recommend for 
the NNSA to ensure that adequate and appropriate technical skills are 
maintained in NNSA workforce and at the labs and the plants?
    Answer. I would stay current on the workforce plans developed by 
the laboratories and plants to address the critical skills required to 
maintain the safety, security, and effectiveness of an aging stockpile. 
A key element of maintaining technical skills is the assignment of our 
scientific, technical, and engineering personnel to tasks that exercise 
their weapons design, production, and technical capabilities. Having 
facilities like: the National Ignition Facility at the Lawrence 
Livermore National Laboratory (LLNL); the Device Assembly Facility 
(DAF) and JASPER at the Nevada Test Site; the Dual Axis Radiographic 
Hydrodynamic Test Facility at the Los Alamos National Laboratory 
(LANL); and, the Microsystems and Engineering Sciences Application 
(MESA) Facility at Sandia National Laboratories, together with the 
supercomputers at all three national laboratories, provide ample 
opportunities for our personnel to keep their skills finely tuned. 
These tools and the required activities necessary to annually certify 
the stockpile provide a high-level of assurance that these skills will 
not atrophy.
    The President has clearly outlined the importance of nuclear issues 
for national security, and for keeping the U.S. nuclear deterrent safe, 
secure, and effective for the foreseeable future. The administration's 
commitment to a clear and long-term plan for managing the stockpile, 
and the comprehensive nuclear security agenda, ensures the scientists 
and engineers of tomorrow will have the opportunity to engage in 
continuing challenging research and development activities.
    Question. In your view, what are the critical skills that are 
needed in the NNSA complex wide?
    Answer. Examples of the educational and scientific, technical, and 
engineering skills required for the Stockpile Stewardship Program cover 
a wide range of specialized study and experience. Working closely with 
a number of universities and industry, the national laboratories and 
production plants have developed specific curricula to help fill the 
needs in each discipline. The more obvious needs are for those with 
advanced degrees and post-doctoral degrees in physics, the nuclear 
sciences and radio-chemistry, plasma physics, molecular chemistry, 
applied mechanics and advanced manufacturing, computational scientists 
and mathematicians, micro-systems engineering sciences, high 
performance computing, parallel processing, advanced simulations, 
information technology, and protection and distributed computing. The 
laboratories and plants have been focused on their needs in these areas 
and they have taken action through their partnerships with universities 
to establish potential pipelines of those talented students to 
positions with the laboratories and plants to carry out the Stockpile 
Stewardship Program.
                        safeguards and security
    Question. What role, if any, will you have in ensuring safety and 
security in the nuclear weapons complex?
    Answer. In my discussions with the Administrator concerning my 
responsibilities, if confirmed, the Administrator will continue working 
closely with the Chief, Defense Nuclear Safety, the Environment, Safety 
and Health Advisor, and the Associate Administrator for Defense Nuclear 
Security, to provide the scientific and technical management oversight 
of our nuclear and nonnuclear safety programs as well as the nuclear 
security program. I will focus on the non-technical and business 
practices associated with each of these programs. I am well aware of 
the congressional intent in the establishment of the NNSA to address a 
series of security incidents and to ensure through the implementation 
of the NNSA Act that we preclude such incidents from occurring in the 
future. I will play a very active role and be a vocal advocate for 
these programs, and do my best, to make sure the workers and the 
communities surrounding NNSA's facilities are kept safe and secure. 
That is, I will do my best to ensure that these programs have high-
level management emphasis, and the highly skilled scientific and 
technical personnel, and financial resources required to safely 
carryout our potentially hazardous operations and to protect nuclear 
weapons, weapons components, including special nuclear material, and 
classified information in NNSA's custody.
    Question. In your opinion, what are the biggest safety and security 
threats to the facilities and materials in the nuclear weapons complex?
    Answer. Much of our work in NNSA is hazardous and requires the 
utmost rigor and proper controls. NNSA also places a high priority on 
nuclear safety operations at all of our nuclear facilities as it 
presents the most significant threat. In addition, keeping our workers, 
the public, and the environment safe is always our number one priority. 
We cannot and will not accept complacency. Recent events around the 
country have shown how devastating low probability, high consequence 
events can be and NNSA understands the importance of preventing such a 
serious event from ever happening at our sites. NNSA has learned over 
the years that sound management systems and a strong safety and 
security culture had to be established and continually maintained. 
Systems such as Integrated Safety Management (ISM) that was established 
in 1995 have resulted in significant improvements throughout DOE and 
NNSA operations. ISM has been implemented in DOE and NNSA for over a 
decade and has withstood the test of time and changes in 
administrations. The Administrator and I strongly support ISM and will 
continue to provide the necessary leadership commitment to support it 
into the future. It requires that work is adequately defined, hazards 
identified, proper controls rigorously implemented, and continuous 
improvement embraced. These core functions when properly implemented 
reduce our most significant safety threats across the NNSA complex.
    With respect to security, the NNSA continues to focus on defeating 
the threats posed by a well-organized, well-equipped terrorist 
organization bent on gaining access to a nuclear weapon and/or special 
nuclear material. The NNSA is also very concerned about the threats 
posed by knowledgeable insiders bent on a hostile act after gaining 
access to a nuclear weapon and/or special nuclear material. Also, 
thousands of cyber security attacks are directed at NNSA's classified 
and unclassified networks each week, and staying ahead of the latest 
attack modes is a major challenge for our subject matter experts at 
NNSA Headquarters, the national laboratories, and production plants.
    Question. What role, if any, will you have in ensuring operational 
nuclear safety in the nuclear weapons complex?
    Answer. I will be a vocal advocate for this nuclear safety program 
and provide high-level management emphasis and attention to its vital 
importance so that the NNSA Federal and contractor personnel recognize 
that this is our highest priority. Given that the Administrator has the 
specialized technical expertise to address specific program elements, I 
will support him and the NNSA Chief, Defense Nuclear Safety, by 
ensuring that our nuclear safety policies and procedures are clear and 
adhered to. I will also ensure that our nuclear safety commitments to 
the Defense Nuclear Facilities Safety Board (DNFSB) are met in a 
responsive and timely manner.
    Question. What role, if any, will you have with the Defense Nuclear 
Facilities Safety Board?
    Answer. Based upon my discussions with the Administrator, if 
confirmed, I will do my best to ensure that the NNSA meets all of its 
commitments to the DNFSB. Because of his superior technical 
qualifications, the Administrator has decided that he will continue to 
serve as NNSA's Central Technical Authority and the NNSA focal point 
for interacting with the Chairman of the DNFSB. I will fully support 
the Administrator to the best of my abilities and do all that I can to 
emphasize the importance of nuclear safety to the senior management of 
the NNSA's Headquarters, Site Offices, national laboratories and 
production plants. In addition, I will ensure that nuclear safety 
performance standards are in place for each nuclear facility and that 
each contractor's performance is properly evaluated as part of the 
annual performance evalution process.
                     stockpile stewardship program
    Question. What is your view of the Stockpile Stewardship Program's 
progress towards its goal of being able to continuously certify the 
U.S. enduring nuclear weapons stockpile as safe, secure, and reliable, 
without the need for underground nuclear testing?
    Answer. Based on my discussions with the Administrator, and my own 
experiences in assessing this program, I believe that the Stockpile 
Stewardship Program is highly effective and provides the data necessary 
to continually evaluate each weapon system in the stockpile. The NNSA 
is fully utilizing the tools and capabilities funded by Congress to 
ensure the Annual Certification of the Stockpile. This year's, ``Report 
on Stockpile Assessment'' confirms that the stockpile is safe, secure, 
and reliable. Critical to ensuring the annual assessment of stockpile 
effectiveness, the NNSA's fiscal year 2011-2015 budget request contains 
substantial increases necessary to implement the Nuclear Posture Review 
and, the President's nuclear security agenda.
    Question. In your opinion, what are the greatest challenges 
confronting the Stockpile Stewardship Program?
    Answer. I believe the greatest challenges are: retaining and 
recruiting individuals with the critical scientific, technical, and 
engineering expertise and capabilities needed to maintain an aging 
stockpile; constructing the facilities that are key elements of Complex 
Transformation, the major initiative to consolidate, modernize, and 
ensure the responsiveness of the NNSA's Nuclear Security Enterprise to 
meet future SSP requirements. Of primary importance are the Chemistry 
and Metalurogy Research Replacement (CMRR) Facility at Los Alamos 
National Laboratory, and the Uranium Processing Facility (UPF) at Y-12; 
and, maximizing the contributions of the NIF to address issues 
associated with the science of nuclear weapons.
    Question. Do you fully support the goals of the Stockpile 
Stewardship Program?
    Answer. Yes. The Stockpile Stewardship Program (SSP) has, from my 
perspective, been very successful in terms of providing the scientific 
and technical expertise, capabilities, facilities, and tools necessary 
to ensure that the U.S. nuclear deterrent is safe, secure, and 
effective. Problems in the stockpile have been identified through the 
application of the above capabilties as have the fixes necessary to 
maintain the effectiveness of specific weapon systems. The SSP is 
critical to the success of the NNSA Nuclear Weapons Program and is 
absolutely essential to the Annual Certification Process, wherein the 
Secretaries of Defense and Energy, the Commander in Chief of the U.S. 
Strategic Command, and the three weapons laboratory directors advise 
the President on the condition of the stockpile and whether resumption 
of underground nuclear testing is necessary. The SSP has been in 
continuing development and refinement since 1993. At this time, it 
would be hard to imagine how the NNSA complex could carryout all of its 
nuclear weapons responsibilities without the SSP.
    Question. In your view what additional capabilities will the 
Stockpile Stewardship Program need in the next 5 years?
    Answer. The recently submitted Stockpile Stewardship and Management 
Plan (SSMP) lays out all of the requirements as we know them today 
(e.g. prior to CD-2 on CMRR and UPF, Life Extension Programs (LEPs), 
etc). The SSMP reflects the direction contained in the Nuclear Posture 
Review, the President's blueprint for a safe, secure, and effective 
stockpile.
                 nuclear posture review and the complex
    Question. The Nuclear Posture Review (NPR), which was released in 
April, and the recently signed New START detail the administration's 
plan to reduce the number of operationally deployed strategic nuclear 
warheads to 1550.
    With the large number of refurbishment and other life extension 
program activities planned over the next 10 years, is there enough 
facility capacity and are there sufficiently qualified personnel in the 
NNSA workforce to also take on an increase in dismantlements during the 
same time period?
    Answer. I have discussed this with the Administrator and senior 
management of Defense Programs and, I have been to the Pantex Plant to 
see the capacities and capabilities of the plant and the workforce. 
Pantex's ability to conduct the LEPs and dismantle excess warheads is a 
mix of timeliness and workflow across the Nuclear Security Enterprise. 
I am confident that Pantex will execute the proper workload balance 
between LEPs and dismantlement as directed by the NNSA program 
managers. I do not believe additional facility capacity is needed to 
accomplish this workload.
    Question. To meet its long term responsibilities with respect to 
extending the life of nuclear weapons and components, the NNSA is 
planning to build a new uranium processing facility and a chemical and 
metallurgical replacement facility. Each of these new facilities will 
be multi-billion dollar, technically complex, construction projects.
    If confirmed, what actions would you take to ensure that 
requirements are clear and well defined, the cost is firmly 
established, the design is mature, and the schedule is fully developed 
before construction begins?
    Answer. DOE Order 413, Construction Management, requires a 
disciplined review and approval process at a number of key points 
(including the independent review of cost, scope, and schedule required 
at CD-2) throughout the planning, design, and construction process. For 
example, 80 percent of design must be completed before the NNSA can 
request funds from Congress for construction. If confirmed, I will work 
closely with the Administrator and the Deputy Administrator for Defense 
Programs, to make sure that all decisions relative to these projects 
are consistent with DOE Order 413 and other sound management 
principles.
    Question. If confirmed, what actions will you take to ensure that 
the project management team for each project is fully capable of 
executing the project and that the NNSA oversight is robust?
    Answer. It is my understanding that the project management teams at 
the Y-12 and Los Alamos Site Offices, and the respective contractors, 
possess the skills needed to execute these projects. As the Principal 
Deputy Administrator, I will conduct project reviews with the Federal 
and contractor teams and participate in the Deputy Secretary's 
construction project reviews (Deep Dives), to ensure the completion of 
these projects on schedule and within their respective budgets.
    Question. With respect to the two construction projects what, in 
your view are the most challenging issues for each project?
    Answer. Based on my experience with all projects, one must begin 
with a sound, independent cost, scope, and schedule review and, ensure 
that nuclear and operational safety is a major part of the design 
process. Quality assurance must also be carried out throughout 
construction of the project. The challenge is to adhere to those 
timelines and cost schedules. We will have regular project reviews at 
the NNSA and Departmental level to provide early indications of issues 
and identify solutions before they impact defined costs and schedules.
    Question. If confirmed, what role do you expect to play in the 
design, management, and construction of these two projects?
    Answer. Regarding design, I will work closely with the Deputy 
Adminisrator for Defense Programs to ensure that all aspects of DOE 
Order 413 are met (e.g. independent review). Regarding management, I 
will perform regular project reviews with the Federal and contractor 
teams, and participate in the Deputy Secretary's Deep Dives. I will 
also ensure that lessons learned from the construction of other major 
projects are shared with all involved parties. My fundamental role will 
be to ensure the early identification of any issues related to any 
project, and bring the appropriate Federal and contractor personnel 
together to address these concerns. Regarding the actual construction, 
my key role will be to ensure we have the right on-site teams who have 
the right experience and skill sets to identify any key issues that 
would impact the cost and schedule. In summary, I see my role as 
conducting close and frequent engagement with the Federal and 
contractor project managers to stay on top of these key projects.
                           regulatory reform
    Question. The Department of Energy (DOE) has announced that it is 
reviewing the regulations that govern the operations of the contractor 
operated facilities including those of the NNSA.
    What is your view on this process?
    Answer. Based on my discussions with the NNSA's safety and security 
professionals, as well as with the Administrator, I am in favor of the 
regulatory reforms initiated by Secretary Chu and Deputy Secretary 
Poneman. The approaches being taken to reform both the safety and 
security oversight programs are deliberate, measured, and well-thought 
out and should result in improved levels of performance. The 
perspectives of the DOE and NNSA safety and security professionals are 
given careful consideration and no precipitious actions have been taken 
that might compromise safety or security.
    Question. In your view will the process result in less oversight by 
NNSA?
    Answer. No. Based upon my understanding of the reform initiatives, 
the oversight of NNSA safety and security programs would be more 
dynamic and risk-based than in the past. The overall intent is to make 
these oversight activities more efficient, effective, and timely. Areas 
to be inspected would be selected and prioritzed based on current 
conditions and risks. This process would provide NNSA and the DOE 
Office of Health, Safety, and Security with mechanisms to be more 
responsive to changing conditions that may trigger the need for an 
independent review, to perform targeted appraisals of specific high-
consequence activities, and to monitor corrective action implementation 
in a timely manner. This process would be much more responsive to NNSA 
line management needs for assistance in solving complex programs that 
have remained unresolved by layers of duplicative oversight in the 
past. It is my understanding that this process was recently utilized 
for a security inspection at the Pantex Plant and that it was well-
received by the Pantex Site Office and NNSA senior management.
    Question. In your view will the process result in equivalent, more, 
or less, assurance that the safety and security of the facilities is 
adequately maintained?
    Answer. I believe that this process will provide greater assurances 
that the safety and security programs at NNSA facilities are being 
adequately maintained.
                             advisory board
    Question. The NNSA had an external advisory board, which included 
technical and other subject matter experts to provide advice to the 
NNSA. The charter for the board was allowed to expire.
    In your view is there any benefit to reconstituting an advisory 
board? Why or why not?
    Answer. Based on my review of the referenced NNSA Advisory Board 
Charter, which was essentially to provide advice and recommendations to 
the Administrator on matters of technology, policy, and operations 
within the mission and responsibilities of the NNSA, I do not see a 
need to reconstitute this Board at this time. However, I would defer to 
the Administrator, if in the future, he determined that the NNSA would 
benefit from the advice and recommendations of such a Board. Currently, 
the Administrator has a wide-range of objective, technically competent 
sources for advice and assistance. For example, the JASON's, the 
National Academy of Sciences, the National Science Foundation, the 
Foster Panel, the Chiles Commission, and other organizations and groups 
have lent their scientific and technical expertise to the assessment of 
many NNSA programs. In addition, through the NNSA's membership in the 
Nuclear Weapons Council, the Strategic Advisory Group Stockpile 
Assessment Team [fiscal year: part of a STRATCOM Advisory Committee 
that provides technical expertise to the STRATCOM Commander in Chief on 
nuclear weapons issues] and other formalized interagency organizations, 
the NNSA has received objective technical assistance necessary to 
ensure that NNSA meets its commitments to the DOD, and other 
interagency partners.
    In addition, the Administrator and Deputy Administrators also reach 
out to numerous nongovernmental organizations to discuss national 
security related matters to keep them informed on NNSA programs and to 
solicit their views and perspectives, which is always beneficial.
                     facilities and infrastructure
    Question. Upon its creation, NNSA inherited an infrastructure in 
need of significant repair and modernization, particularly at the 
nuclear weapons plants. At the request of the Department of Energy, 
Congress, in section 3133 of the National Defense Authorization Act for 
2002, established the Facilities and Infrastructure Recapitalization 
Program (FIRP). Although FIRP has made progress in addressing the 
maintenance backlog, the program will be coming to an end shortly.
    What recommendations would you make to ensure that current and 
future maintenance activities, under the Readiness in the Technical 
Base and Facilities program, are in line with industry benchmarks when 
FIRP is terminated?
    Answer. Based on my discussions with the Administrator and other 
officials in the NNSA, and my own experiences, I believe that the FIRP 
has been very successful in restoring the condition of mission critical 
facilities and infrastructure across the Nuclear Security Enterprise to 
an acceptable condition. It is my understanding that deferred 
maintenance has been reduced by almost $800 million; the overall 
Facility Condition Index has been improved from 8.7 percent to 5.5 
percent; and, over 3.2 million sq. ft. of facility space has been 
permanently removed. In addition, the FIRP has been instrumental in 
improving the energy efficiency at NNSA facilities by replacing older, 
less efficient equipment and, in meeting NNSA's small business 
contracting commitments. The pressure on the Readiness in the Technical 
Base and Facilities (RTBF) Program will be very high over the next 5 
years and beyond. The RTBF budget in the out-years must accommodate 
maintaining the current facilities and infrastructure, in addition to 
supporting several very large, long-term construction projects, the 
Chemistry and Metallurgy Research Replacement and the Uranium 
Processing Facility. In short, my recommendations are: acknowledge the 
importance of recapitalization; establish and communicate its high 
priority within the overall mix of NNSA critical activities; make the 
tough decisions/trade-offs to provide adequate funds; and, carry this 
message in all deliberations. I believe it is important to acknowledge 
what the loss of the FIRP combined with the increasing pressures on the 
RTBF budget mean to sustain the gains achieved over the past decade. 
The Administrator and I have discussed this and we agreed upon the 
critical importance of continuing efforts to restore the condition of 
mission critical facilities and infrastructure across the complex. To 
this end, I am committed to ensuring that funding for recapitalization 
of mission critical facilities remains a priority in budget 
deliberations at every level of discussion (e.g., with the Office of 
the Deputy Administrator for Defense Programs, the NNSA organization 
responsible for managing the RTBF Program; the NNSA Program Review 
Board, the NNSA executive council for framing budgeting decisions 
(which I would chair); the Deputy Secretary`s Resource Board, the 
Department's executive council for budgeting decisions; and, the OMB 
and Congress).
    Question. The Department of Energy and the NNSA have looked at, and 
have in some circumstances used, third party or other alternate 
financing options for construction projects.
    If confirmed, would you commit to review carefully any NNSA 
proposal to undertake construction projects with funding approaches 
that deviate from the traditional line item funding approach?
    Answer. Yes. Based upon my experiences in the Department and at the 
OMB, I am well aware of the concerns this committee has with some 
alternative funding approaches. If confirmed, before I would entertain 
such alternatives, I would ensure that all appropriate options are 
reviewed and considered that would provide cost, efficiency, and/or 
effectiveness information to meet mission requirements. I commit to 
work closely with this committee to ensure that any proposed 
alternatives were consistent with the committee's preferences.
    Question. In addition, would you commit to keep the committee fully 
informed of any such proposals, to fully coordinate any proposal with 
the Office of Management and Budget, and to ensure that any such 
proposals include a business case documenting that any alternative 
financing approach is in the best interests of the taxpayer?
    Answer. Yes. Alternative financing or third party financing, are 
often considered because they are viewed as providing a number of 
potential benefits such as reducing overall construction costs, 
reducing asset acquisition time, lowering operations and maintenance 
costs, and providing for a temporary need, while still meeting OMB 
Circular A-11 Criteria.
    NNSA's experience, although limited, has indicated these types of 
arrangements can be beneficial to the Federal Government under certain 
circumstances, but they must be evaluated carefully to fully understand 
all the long-term implications. I believe that it is essential that 
proposals of this type follow a rigorous and consistent approval 
process that take into account the best interests of the taxpayer. A 
critical part of this process must be an economic analysis that 
demonstrates that costs to the government are reasonable and are 
supported by the business case alternatives. If confirmed, I will 
ensure that the comprehensive DOE review process is followed 
consistently, and that any third party financing projects that are 
proposed, will be able to withstand the most rigorous review and 
analysis by Congress. I will work closely with OMB to protect the 
financial interests of the government, and of course, will keep the 
committee fully informed when these types of proposals are under 
consideration.
    Question. One of the goals of the effort to modernize the nuclear 
weapons complex is to reduce the number of square feet of building 
space.
    As the NNSA proceeds with construction projects in the future, 
would you commit to support the goal, and work to include in the total 
project cost of any new facility the cost to dispose of any buildings 
or facilities that are being replaced?
    Answer. I know from my own experience, as well as from my 
discussions with the Administrator, that reducing the overall square 
footage of the complex is one of the key goals in the Complex 
Transformation process, which is well underway, and is one which I 
fully support. Eliminating excess facilities saves operating costs in 
the short-term and reduces the Department's long-term liability. In an 
effort to ensure that older facilities are being removed when their 
replacements are constructed, the NNSA has been following a ``1 up, 1 
down'' policy whereby every square foot of newly constructed space must 
be offset by the elimination of a square foot of excess space. This 
requirement and the funding provided by the FIRP have resulted in the 
elimination of over 3.2 million sq. ft. of facility space.
    In my opinion, this approach is more effective and flexible than 
pursuing this goal by including the cost to dispose of any buildings or 
facilities being replaced in the overall cost of a line item. The ``1 
up, 1 down'' policy applies to all new construction, not just to 
projects which are replacing existing space. In this way, it 
potentially results in a greater reduction in square footage. Also, the 
costs to D&D existing older facilities can be very high, which could 
place an unnecessary burden on a new construction project. This could 
discourage or delay a project which might otherwise result in immediate 
benefits through cost reductions or mission accomplishment and, adds 
cost and schedule uncertainties which could make project and risk 
management more challenging.
    Question. In some instances the disposition of old buildings might 
be more appropriately handled by the Office of Environmental Management 
(EM). In your view under what circumstances should EM be responsible 
for the disposition and under what circumstances should the NNSA be 
responsible?
    Answer. It is my understanding that if a building is radiologically 
contaminated (e.g., contamination in the drains, sumps, and ductwork) 
then the mission and expertise reside with the EM organization. If a 
building is located over contaminated soil or groundwater, and the soil 
or groundwater are part of EM's cleanup scope, then I would support EM 
being responsible for the disposition of the building, so that the soil 
and groundwater could be appropriately remediated. NNSA has been 
responsible for disposition of noncontaminated or lightly contaminated 
buildings and structures (e.g., office buildings, trailers, 
laboratories, shops, etc.).
    Question. Do you believe that clear criteria exist on which to make 
disposition determinations?
    Answer. I believe that NNSA and EM have worked well together to 
understand the criteria to determine the appropriate disposition 
organization.
             environmental restoration and waste management
    Question. What responsibility do you believe the NNSA should have 
for funding, managing, and disposing of its current and future 
hazardous waste streams and for future environmental restoration?
    Answer. The current construct, which seems to work well, is that 
all NNSA sites are responsible to manage their newly generated waste 
streams, whether hazardous, radioactive or ``mixed'' (i.e., contains 
both hazardous and radioactive constituents). All sites maintain the 
necessary permits and must request adequate funding through NNSA to 
manage their waste treatment and storage facilities and disposal 
activities. In the case of transuranic waste, all NNSA sites are 
required to meet the Waste Acceptance Criteria for the Waste Isolation 
Pilot Plant (WIPP) where the transuranic waste is disposed.
    Regarding environmental restoration, EM-funded legacy cleanup 
(i.e., environmental restoration activities) are essentially completed 
at the: Livermore Main Site; Kansas City Plant; Sandia and Pantex, and 
these sites are considered to be in ``long-term stewardship,'' where 
the agreed upon remedy (e.g., pumping and treating of groundwater; 
maintaining engineered caps, etc.) is funded and managed by NNSA. The 
Agreements that define EM-completion of the environmental restoration 
activities and NNSA-long term stewardship requirements are codified in 
the Critical Decision-4 packages. There are provisions to reopen EM-
funded environmental restoration activities if: remedies prove 
ineffective; regulatory requirements become more stringent; and/or, a 
``new'' contamination stream is determined to require remediation. 
Although NNSA has only begun its role of Long-Term Environmental 
Stewardship, it seems to be working satisfactorily.
    Question. What specific steps do you believe the NNSA should take 
to negotiate programmatic responsibilities for environmental activities 
between the NNSA and the Office of the Assistant Secretary for 
Environmental Management?
    Answer. I do not believe that any action on this matter is 
required. The relationship and responsibilities between EM and NNSA is 
clear and well established. NNSA is responsible for dealing with newly 
generated waste and EM is responsible for dealing with legacy waste.
    Question. If confirmed, what role do you anticipate you will play 
in this process?
    Answer. If there are disagreements between NNSA program officials 
and EM that cannot be resolved at the Assistant Secretary level, I will 
meet with the Under Secretary of Energy to ensure that the responsible 
parties carry out their respective duties.
               defense nuclear nonproliferation programs
    Question. In your view, are any policy or management improvements 
needed in the Defense Nuclear Nonproliferation Programs? If so, what 
improvements would you recommend?
    Answer. I do not believe that any policy or management improvements 
are necessary in terms of program management, however, this program 
will benefit from the appointment of Anne Harrington, once she is 
confirmed and on-board as the Deputy Administrator. The President's 
Nuclear Security Agenda provides clear policy direction and this 
program's project plans, work scope, and actual threat reduction 
results show an effective management of these accelerating programs. 
For example, to date, NNSA has: completed security upgrades at 93 
percent of Russian nuclear material and warhead sites of concern; 
monitored the downblending of more than 380 MT of former Soviet-
weapons-origin HEU for use in U.S. power plants, providing 10 percent 
of U.S. electricity; developed new radiation detection methods and 
technologies in support of U.S. and international arms control 
verification requirements; and, completed the installation of radiation 
detection equipment at 30 MEGAPORTS, with work ongoing at another 19 
MEGAPORTS worldwide. This is a very impressive record of 
accomplishments and I believe Congress will continue to see similiarly 
successful results for this program in the future.
    Question. NNSA has significantly expanded its work in the Megaports 
program in cooperation with the Department of Homeland Security and in 
the new initiative to secure vulnerable weapons usable materials 
worldwide, the Global Lockdown program, which is being implemented in 
cooperation with DOD.
    If confirmed, would you commit to keeping Congress fully informed 
as to the success of, as well as any problems with these cooperative 
relationships?
    Answer. Yes, including the on-time submission of various reports 
now required by Congress. In addition, I will encourage the 
nonproliferation office to provide regular updates during the year on 
these relationships.
    Question. The NNSA has responsibility for the bulk of the Federal 
Government's basic research on radiation detection technologies as well 
as other nuclear technologies, such as those used in nuclear forensics.
    If confirmed, would you commit to undertake a review of the 
nonproliferation research and development program to ensure that it is 
adequately funded and fully coordinated with the activities of other 
Federal agencies?
    Answer. Yes. Recognizing the importance of the Nonproliferation 
Research and Development Program in the development of technologies for 
the global detection of proliferation and its critical role in 
verifying a CTBT, I will, if confirmed, continue to foster technology 
discussions with all appropriate interagency elements to ensure that 
technology needs are identified. I will work closely with the 
Department, the OMB, and Congress to secure appropriate funding for 
these efforts.
    Question. The NNSA nonproliferation programs have occasionally had 
implementation issues that have resulted in large carryover balances.
    In your view is the management in place to implement the new Global 
Lockdown program and to ensure that the funds are spent in a timely and 
effective manner?
    Answer. I believe that the management of our nonproliferation 
programs is effective. Regarding carryover balances, the NNSA's 
nonproliferation programs only pay for threat reduction work after it 
is completed and verified within the host country. Completion of many 
of these international projects often extends beyond the end of the 
fiscal year, which gives the appearance of large carryover when in 
fact; the carryover is due to work still in progress or pending final 
approval for payment.
    Question. If not, what changes would you recommend?
    Answer. Based upon my knowledge of the Defense Nuclear 
Nonproliferation programs and the management team, I believe the 
management is in place to implement the new Global Lockdown Program and 
ensure that funds are spent in a timely and effective manner. As noted 
above, the leadership and experience Anne Harrington will bring to the 
nonproliferation programs will be invaluable. Many of the current 
senior executives and senior program managers in the Office of Defense 
Nuclear Nonproliferation have been engaged in the nonproliferation 
programs from the beginning, dating back to the mid-1990s. As such, 
they are very experienced in negotiating terms of work with their 
foreign counterparts. Also, they have experience working with the 
technical specialists in the national laboratories who partner with the 
Federal program managers to accomplish work in a timely and cost 
effective manner.
    The U.S. Congress has facilitated the implementation of the Global 
Lockdown Program by providing the new funds necessary to undertake the 
negotiation of new work efforts. This has been critical. Availability 
of new funds translates into the ability to take on new work scope, 
which in turn, accelerates progress towards meeting the goal to secure 
and remove all vulnerable nuclear material from the most vulnerable 
sites by the end of 2012.
                         national laboratories
    Question. The NNSA, as the steward of the three National Security 
laboratories, has a responsibility to ensure that the labs are capable 
of meeting their broad national security obligations, not just those of 
the NNSA.
    What is your view on the role of the three National Security 
laboratories in addressing broad national security challenges and the 
role of the NNSA in overseeing those activities?
    Answer. I believe that the three NNSA national laboratories are 
truly national assets. The NNSA senior leadership team is implementing 
a vision and strategy that is transforming the nuclear weapons complex 
into a Nuclear Security Enterprise. A key element of this strategy is 
to partner with other Federal agencies, and the Department at-large, 
and use the remarkable scientific, technical, and engineering 
capabilities developed for Stockpile Stewardship and expand 
opportunities to deliver on national security priorities that a single 
agency working alone could not otherwise accomplish. If confirmed, I 
will do all I can to help the Administrator secure the expertise and 
resources required by these institutions to meet these national 
challenges.
    Question. In your view are there any changes that are needed to 
facilitate or improve the work for others program at the three National 
Security laboratories?
    Answer. I know that the Administrator has initiated actions to make 
the Work for Others (WFO) Program more effective in meeting the goals 
and objectives of other Federal agencies in the national security, 
energy, science, and innovation arenas. I would focus on making sure 
that these actions are fully implemented and I would look for 
additional ways to maximize the benefits of the WFO Program for the 
other agencies and the NNSA.
                     materials disposition program
    Question. The NNSA is responsible for implementing the U.S. 
commitment to the Russian Government to dispose of 34 metric tons of 
weapons grade plutonium. There are many issues and challenges facing 
the program including the fact that it is substantially over budget.
    What role will you play in ensuring that all aspects of this 
program will be on schedule and on budget?
    Answer. The NNSA's disposition programs will be carried out at the 
MOX Facility, which is now under construction at the Savannah River 
Site, and the new effort stemming from the Department's decision to 
evaluate an approach to combine NNSA's Pit Disassembly and Conversion 
Facility (PDCF) and EM's Plutonium Preparation Project (PuP). If 
confirmed, my fundamental role will be to ensure the timely 
identification of any issues related to these projects, and to bring 
together the appropriate Federal and contractor personnel to address 
any concerns. In summary, I see my role as conducting close and 
frequent engagement with the Federal and contractor project managers to 
stay on top of these key projects.
                       national ignition facility
    Question. The National Ignition Facility (NIF) is scheduled to 
achieve ignition by 2010 or early 2011 and become a facility that 
supports nuclear weapons experimental work but also has the capability 
to support a broad range of science and energy research challenges.
    If confirmed, what role, if any, will you play in ensuring the 
success of the NIF and to ensure that NIF is fully utilized?
    Answer. It is my understanding that work is currently underway to 
undertake the initial experiments, later this year, for the first 
attempt to demonstrate ignition. I will work very closely with the 
Administrator, the Deputy Administrator for Defense Programs, and if 
necessary, Congress to ensure that the LLNL has the resources necessary 
to achieve thermonuclear ignition. I will also do all I can to make 
sure that the NIF not only makes major contributions to the SSP, but 
also to the broader national science goals of the United States.
                     contractor operated facilities
    Question. What recommendations, if any, would you make to improve 
oversight of and contractor management of the facilities in the nuclear 
weapons complex?
    Answer. I believe that NNSA's oversight of its contractor operated 
facilities has been rigorous and is continually improving. In addition 
to oversight by the NNSA Site Offices, the NNSA Chief, Defense Nuclear 
Safety and Chief, Defense Nuclear Security, have been routinely 
conducting reviews of nuclear safety, and the Office of Health, Safety, 
and Security, routinely conducts independent assessments at our 
facilities. Beginning this year, the Senior Advisor for Environment, 
Safety, and Health will join those assessments for the purpose of 
evaluating nonnuclear programs and worker safety programs. These 
assessments evaluate both Site Office and contractor operations, and 
follow-up on previously identified findings. NNSA has continuously 
focused on learning from and improving its oversight. The Administrator 
has initiated reform activities and established an Enterprise Review 
Team to evaluate ways to improve operations across the NNSA enterprise. 
The conduct of Federal and contractor oversight is one of those 
initiatives or as we refer to it, Line Oversight and Contractor 
Assurance Systems (LOCAS). Our contractors are contractually bound to 
provide effective contractor assurance systems that include 
comprehensive corrective action programs and transparent reporting 
systems for use by NNSA Federal overseers. These improvements will not 
only result in improved contractor performance but allow NNSA 
Headquarters and Site Offices to allocate Federal oversight resources 
most efficiently focusing on nuclear safety, and other high risk areas 
or emerging issues. The NNSA has seen much improvement already. I am 
committed to provide my support to the Administrator to assure these 
initiatives continue to drive improvement across the NNSA Federal and 
contractor operations.
    Question. In your view what is the role of the NNSA field offices 
in the oversight of the contractor operated facilities?
    Answer. The Site Offices perform a broad array of functions 
regarding the oversight of the contractor operated facilities. These 
include: contract administration; business management; facilities, 
projects, and safety basis functions; safeguards and security; and, 
facility operations.
    The site offices are responsible for providing direction, day-to-
day oversight and contract administration activities related to the 
laboratory or plant contract and associated business management 
functions, such as: information technology; cyber security; human 
resources; procurement; personal property management, to list a few. In 
the area of construction project management, the site offices provide 
oversight and contract administration of construction project planning 
and execution. The site offices also provide direction for ensuring 
satisfactory development of the safety basis requirements for their 
respective laboratories or plants.
    Regarding security, the site offices provide oversight to ensure 
the effective implementation of the overall safeguards and security 
programs to include nuclear material control and accountability, 
personnel security, and emergency management. The site offices also 
evaluate the effectiveness of the contractor protection plans and 
strategies in comparison to the current Design Basis Threat and site-
specific vulnerability assessments.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Principal Deputy 
Administrator?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees in a timely manner?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
            Questions Submitted by Senator Claire McCaskill
                    strategic arms reduction treaty
    1. Senator McCaskill. Ms. Miller, the Strategic Arms Reduction 
Treaty (START) may have an impact at both Whiteman Air Force Base (AFB) 
and the National Nuclear Security Administration (NNSA) Kansas City 
Plant, both in Missouri. Whiteman AFB is home to the 509th Bomb Wing 
and is one of only two Air Force units to operate the B-2 Spirit 
stealth bomber, which is a nuclear-capable bomber. For the purposes of 
the New START, bombers count as one weapon. It is my understanding that 
Air Force commanders generally support the treaty but have some 
concerns with the level of scrutiny and access that Russian inspectors 
would have to the B-2 fleet. If confirmed, will you thoroughly review 
what a U.S. AFB like Whiteman could expect in terms of inspectors and 
verification visits from the Russians, if the START is ratified to 
determine whether it is appropriate?
    Ms. Miller. No, this would not be part of my responsibilities at 
the NNSA. The Air Force was actively engaged throughout the New START 
Treaty negotiations and, in conjunction with other Department of 
Defense elements, is the appropriate organization for assessing the 
anticipated impact of New START inspection activities at Air Force 
installations. The Air Force is currently working with the Office of 
the Secretary of Defense, the Defense Threat Reduction Agency, and 
other DOD elements to address the impact of the Treaty's verification 
regime and determine the most efficient manner to host effective New 
START Treaty inspections at Air Force sites while limiting the 
operational impact of such inspections at these bases.

    2. Senator McCaskill. Ms. Miller, will you please further comment 
on your current view of the level of access the START would provide to 
the Russians to inspect U.S. nuclear weapon facilities and whether you 
think it is appropriate.
    Ms. Miller. The facilities subject to inspection are military 
facilities. Sites within the NNSA's Nuclear Security Enterprise--to 
include the National Laboratories and NNSA production facilities--are 
not subject to New START inspection, and there will be no exchange of 
information regarding any of these sites.

    3. Senator McCaskill. Ms. Miller, the NNSA Kansas City plant, where 
skilled employees assemble and manufacture nonnuclear components for 
national defense systems, plays a critical role in maintaining our 
nuclear defense posture. Are you familiar with NNSA's plans to 
transform the Kansas City plant via the Kansas City Responsive 
Infrastructure Manufacturing and Sourcing (KCRIMS) project? Please 
comment on your understanding of the transformation and its importance 
to NNSA.
    Ms. Miller. I am familiar with the KCRIMS project, and I understand 
how important it is that NNSA receive full funding for this project in 
fiscal year 2011. Through the KCRIMS initiative, the NNSA will replace 
a 65-year old facility with a new, modern leased facility that enables 
$100 million in annual cost savings and is 50 percent smaller than the 
existing facility. This new facility is essential to NNSA's efforts to 
transform the nuclear weapons complex into a Nuclear Security 
Enterprise.

    4. Senator McCaskill. Ms. Miller, if confirmed, will you fully 
support NNSA's KCRIMS project, including working to ensure it is fully 
completed and executed on schedule?
    Ms. Miller. I will fully support NNSA's KCRIMS initiative. I am 
aware of Chairman Carl Levin's correspondence of August 2, 2010 
concerning the B61 Life Extension Program, which specifies that NNSA is 
to provide quarterly reports that lay out the schedule for the KCRIMS 
project, identify key milestones, the funding necessary to support key 
milestones, and the project's progress against the cost and schedule 
baseline. I will see that this reporting requirement is met.

    5. Senator McCaskill. Ms. Miller, in light of your current 
understanding of the proposed START, what is your understanding of how 
it will impact the Kansas City plant?
    Ms. Miller. The New START Treaty will not impact the Kansas City 
Plant. In fact, none of the Department of Energy and NNSA sites will be 
subject to the Treaty's limitations or inspections.
                                 ______
                                 
             Question Submitted by Senator Roland W. Burris
                  science and technology capabilities
    6. Senator Burris. Ms. Miller, as mentioned in your advance policy 
questions, one of your key focus areas is to strengthen the scientific 
and technological capabilities for NNSA activities. What can we do to 
attract our brightest minds to engage in an area of such critical 
importance to national security?
    Ms. Miller. I know that the NNSA has been addressing this issue for 
many years as a generation of the subject matter experts with weapons 
design and actual nuclear weapons testing experience have retired over 
the last decade. The congressionally-mandated Chiles Commission 
examined this issue and provided recommendations to Congress, the DOE, 
and the laboratories and production plants. Many of these 
recommendations have been implemented. The laboratories and production 
plants have identified the required skill sets and they have put into 
place programs to overcome this very real problem.
    If confirmed, I would begin by assessing where the complex is in 
addressing this matter. Once informed, I would review the realm of 
options available for recruiting and retaining the ``best and the 
brightest'' and implement adjustments, if necessary. I believe NNSA's 
mission and programs are exciting, vital, and offer unique challenges 
to our current and potential workforce. It is important to communicate 
this and to have in place the tools that can make the difference for 
current and potential employees. The more obvious incentives include: 
retention and recruitment pay incentives for critical skills; special 
pay categories; enhanced continuing education opportunities; unique and 
challenging assignments, to include rotations to other laboratories and 
institutions; and, incentives to delay retirements. Regarding the NNSA 
Federal workforce, the NNSA has put into place numerous programs, such 
as the Future Leaders Program, the Nonproliferation Graduation 
Fellowships, the Computational Science and Stewardship Graduates 
Fellowship, and management internships to infuse the Stockpile 
Stewardship Program with young, technically competent individuals. 
Through these programs, there are special recruitment and retention 
allowances, special pay categories, continuing educational 
opportunities, rotational opportunities, and challenging assignments, 
and if warranted, rapid advancement. We also have longstanding 
development programs with Historically Black Colleges and Universities 
and Hispanic Serving Institutions to promote minority interest in the 
mission work of NNSA. These programs deepen the recruiting pool of 
diverse scientific and technical staff available to NNSA and its 
National Laboratories in support of the Nation's national security 
programs.
    Before I suggest further steps to recruit and retain the needed 
technical talent required by the NNSA complex, I would like an 
opportunity to assess how these programs are working.
                                 ______
                                 
              Questions Submitted by Senator David Vitter
                defense nuclear facilities safety board
    7. Senator Vitter. Ms. Miller, what role, if any, will you have 
with the Defense Nuclear Facilities Safety Board (DNFSB)?
    Ms. Miller. Based upon my discussions with the Administrator, if 
confirmed, I will do my best to ensure that the NNSA meets all of its 
commitments to the DNFSB. Because of his technical qualifications, the 
Administrator has decided that he will continue to serve as NNSA's 
Central Technical Authority and the NNSA focal point for interacting 
with the Chairman of the DNFSB. I will fully support the Administrator 
to the best of my abilities and do all that I can to emphasize the 
importance of nuclear safety to the senior management of the NNSA's 
Headquarters, Site Offices, national laboratories and production 
plants. In addition, I will ensure that nuclear safety performance 
standards are in place for each nuclear facility and that each 
contractor's performance is properly evaluated as part of the annual 
performance evaluation process.

    8. Senator Vitter. Ms. Miller, how will you ensure operational 
nuclear safety in nuclear weapons complex?
    Ms. Miller. I will be a vocal advocate for this nuclear safety 
program and provide high-level management emphasis and attention to its 
vital importance so that the NNSA Federal and contractor personnel 
recognize that this is our highest priority. Given that the 
Administrator has the specialized technical expertise to address 
specific program elements, I will support him and the NNSA Chief, 
Defense Nuclear Safety, by ensuring that our nuclear safety policies 
and procedures are clear and adhered to. I will also ensure that our 
nuclear safety commitments to the DNFSB are met in a responsive and 
timely manner.
                                 ______
                                 
    [The nomination reference of Neile L. Miller follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      May 27, 2010.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Neile L. Miller, of Maryland, to be Principal Deputy Administrator, 
National Nuclear Security Administration, vice William Charles 
Ostendorff, resigned.
                                 ______
                                 
    [The biographical sketch of Neile L. Miller, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                 Biographical Sketch of Neile L. Miller
    Neile L. Miller is currently the Director of the Office of Budget 
at the U.S. Department of Energy. Ms. Miller is responsible for 
managing the continuous processes of formulating, defending, and 
executing the Department's $29 billion annual budget.
    Ms. Miller has over 20 years of experience in the fields of nuclear 
energy, defense policy, and budget analysis. Prior to becoming Budget 
Director, Ms. Miller served as a senior program examiner in the 
National Security Division of the White House Office of Management and 
Budget (OMB), where she was responsible for the Department of Energy's 
National Nuclear Security Administration and the Department of Defense 
Cooperative Threat Reduction program. Ms. Miller also served in two 
Associate Director positions in the Department of Energy's Office of 
Nuclear Energy--first as Associate Director for Resource Management, 
and later as Associate Director for International Nuclear Cooperation.
    Ms. Miller has spent the majority of her career in the public 
sector, including an earlier tour at OMB, as the examiner for DOE's 
radioactive waste management programs and for the Nuclear Regulatory 
Commission. She spent 2 years in Paris at the OECD's Nuclear Energy 
Agency serving as a policy and communications officer. Ms. Miller got 
her start on the Hill at the Congressional Research Service working on 
nuclear nonproliferation issues.
    Ms. Miller earned her undergraduate degree in political science 
from Vassar College and her Masters degree in International Affairs 
from the Georgetown University School of Foreign Service. Ms. Miller 
lives in Chevy Chase, MD, with her husband, Dr. Werner Lutze, and their 
two sons, Max and Daniel.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate, and certain 
senior military officers as determined by the committee, to 
complete a form that details the biographical, financial, and 
other information of the nominee. The form executed by Neile L. 
Miller in connection with her nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Neile L. Miller,
    aka Neile Miller Lutze,
    nee Neile Leslie Miller.

    2. Position to which nominated:
    Principal Deputy Administrator, National Nuclear Security 
Administration.

    3. Date of nomination:
    May 27, 2010.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    July 23, 1957; Decatur, Macon County, IL.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Dr. Werner Lutze.

    7. Names and ages of children:
    Max Lutze, 15.
    Daniel Lutze, 12.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Vassar College, August 1975 to May 1979, AB Political Science, May 
1979.
    Georgetown University School of Foreign Service, August 1979 to May 
1981.
    MSFS International Politics and Economics, Degree Awarded May 1985.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Director, Office of Budget, U.S. Department of Energy, Washington, 
DC, 2007-Present.
    Senior Program Examiner, National Security Division, Office of 
Management and Budget, Washington, DC, 2004-2007.
    Associate Director, Office of Nuclear Energy, U.S. Department of 
Energy, Washington, DC, 2003-2004.
    Senior Associate, Lutze Consulting, Chevy Chase, MD, 1999-2003.

    10. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Program Examiner, Energy and Science Division, Office of Management 
and Budget, Washington, DC, 1987-1990.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Hadassah, Life Member, 1994-present.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Registered Democrat.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Democratic National Committee, $100, 2008, 2009, 2010.
    Barack Obama Presidential Campaign, $250, 2008.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Office of Management and Budget Special Achievement Award 2006, 
2007.
    Annual SES Performance Award 2008, 2009.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                   Neile L. Miller.
    This 24th day of June, 2010.

    [The nomination of Neile L. Miller was reported to the 
Senate by Chairman Levin on August 4, 2010, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on August 5, 2010.]
                              ----------                              

    [Prepared questions submitted to Anne M. Harrington by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                                 duties
    Question. What is your understanding of the duties and functions of 
the Deputy Administrator for Defense Nuclear Nonproliferation?
    Answer. The Deputy Administrator for Defense Nuclear 
Nonproliferation provides leadership within the National Nuclear 
Security Administration (NNSA) team for nonproliferation programs whose 
goal is to keep weapons of mass destruction (WMD) out of the hands of 
state and non-state actors. This requires a coordinated effort on the 
part of suppliers of nuclear and nuclear-related materials, equipment, 
and technologies; improving capability to detect, deter, and interdict 
illicit WMD-related trade; strengthening export control systems in 
other countries; and supporting the transition of WMD-capable expertise 
and infrastructure in partner countries to peaceful purposes. The 
Deputy Administrator is also responsible for ensuring that resources 
and programs are aligned with national policy and strategy.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I have been privileged to dedicate over 20 years of my 
career to strengthening U.S. national security and countering the 
threat of WMD. My experience in developing and implementing projects to 
reduce nuclear, chemical, and biological threats in the former Soviet 
Union, Iraq, and Libya will serve me well if I am confirmed in the 
position of Deputy Administrator. This experience spans both 15 years 
of service in the Department of State and 5 years working on similar 
issues from the National Academy of Sciences. Those two perspectives 
have given me an appreciation of the grave nature of the challenges we 
face, but also that the government does not have to rely solely on its 
resources and capabilities to face those challenges. Partnerships can 
offer a powerful alternative to unitary government action.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Deputy Administrator 
for Defense Nuclear Nonproliferation?
    Answer. It has been my experience that every new job offers the 
opportunity to learn. Although I have devoted many years to the 
nonproliferation challenge, if confirmed, I will put considerable 
effort into studying those areas of the portfolio in which I do not 
have in depth experience. In addition to briefings and exchanges with 
colleagues and experts, I believe that it will be essential to plan 
early visits to the laboratories and facilities that are integral to 
the nuclear nonproliferation program, both in the United States and 
abroad.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Administrator of the NNSA would prescribe for you?
    Answer. If confirmed, I expect the Administrator to direct me to 
support our ability to reduce WMD risk to the Nation by helping to 
bring a new way of doing business to NNSA as part of his continued 
commitment to management reform. Over NNSA's 10 years of service to the 
Nation, much of its mission has been focused on completing the work 
begun in the aftermath of the collapse of the Soviet Union. Completing 
that task must remain a priority, but nuclear threats to the United 
States and its friends and allies play out on a global stage and can 
only be addressed by nurturing a network of partnerships and 
collaborations.
                             relationships
    Question. If confirmed, how would you work with the following:
    Other Deputies in the NNSA
    Answer. If confirmed, I expect to develop a close and collaborative 
relationship with the other Deputies in the NNSA. Each Deputy is 
responsible for a specific piece of the nuclear portfolio, but we all 
must work together if we are to accomplish our missions in the most 
effective way.
    Question. The Assistant Secretary of Energy for Environmental 
Management
    Answer. If confirmed, I would look forward to benefitting from the 
significant experience of the Assistant Secretary of Energy for 
Environmental Management as we develop programs in the U.S. and with 
foreign partners to ensure that environmental and waste issues that 
arise in nonproliferation programs are addressed in the most effective 
way possible.
    Question. The other Assistant Secretaries of Energy
    Answer. If confirmed, I would work closely with other Assistant 
Secretaries of Energy to ensure that there is maximum synergy between 
our areas of responsibility.
    Question. Heads of relevant nonproliferation offices at the 
Departments of Defense and State, and the National Security Council.
    Answer. If confirmed, I would work closely with colleagues in the 
Departments of Defense and State, and the National Security Council. 
Throughout the last 20 years, I have believed strongly that the habit 
of cooperation is the best basis for addressing problems.
    Question. The Department of Homeland Security, including the 
Domestic Nuclear Detection Office and offices responsible for customs 
and border security.
    Answer. If confirmed, I would work closely with the Department of 
Homeland Security, including the Domestic Nuclear Detection Office and 
offices responsible for customs and border security. Homeland security 
does not start at our borders. To provide the greatest degree of 
security for the Nation, NNSA, and DHS need to continue working 
together as part of a government-wide effort.
    Question. The Director of the Defense Threat Reduction Agency
    Answer. If confirmed, I would continue our already close working 
relationship with the Director of the Defense Threat Reduction Agency. 
I understand that there are currently monthly meetings between NA-20 
and DTRA and that a truly collaborative relationship is developing.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Deputy Administrator for Defense Nuclear Nonproliferation?
    Answer. First, meeting the President's challenge to lock down all 
nuclear materials worldwide is a mandatory first step to reducing the 
risk that state or non-state actors will obtain the materials necessary 
for a nuclear device. Second, developing the necessary partnerships to 
enable a truly global effort to prevent the illicit flow of nuclear 
materials. Third, continuing to work with Russia to eliminate surplus 
weapons plutonium. Fourth, strengthening global nuclear safeguards and 
our ability to verify arms control agreements. Fifth, supporting all 
these missions with a robust nonproliferation-related research and 
development program.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. To meet the first challenge, if confirmed, I intend to 
focus on actions taken to date, review the plan for completing 
implementation and consult with all the stakeholders in this effort to 
ensure that progress is being made as rapidly as possible. For the 
second challenge, I would work closely with the Department of State to 
strengthen existing partnerships and develop new ones. For the third 
challenge, I would closely monitor all aspects of the execution of this 
program. To address the fourth challenge, I would review the efforts we 
have underway and then consult with partners in the Departments of 
State and Defense as well as the IAEA and organizations responsible for 
implementing arms control agreements and monitoring them. For the fifth 
challenge, if confirmed, I expect to build on the excellent work that 
is being done and seek ways to enhance our research and development 
efforts.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Deputy Administrator for 
Defense Nuclear Nonproliferation?
    Answer. The most serious problem will be maximizing the impact of 
programs through the development of a network of committed partners. 
Major progress has been made in this area, but we cannot possibly 
address all threats to the U.S. unilaterally. We must develop a network 
of international partnerships that shares a vision and is willing to 
contribute to the human, technical, management and financial 
requirements to implement and sustain programs.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, I will first review the status of program 
partnerships and then identify a set of opportunities to expand or 
develop new relationships and then set action and time line targets.
                               priorities
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Deputy Administrator 
for Defense Nuclear Nonproliferation?
    Answer. First, placing a high priority on securing and controlling 
access to nuclear material. Second, building a broad set of 
partnerships across the U.S. Government, with nongovernment 
organizations, academy, industry, and international organizations. 
Third, build on the success of the Nuclear Summit to accelerate and 
broaden work around the globe to prevent nuclear proliferation. Fourth, 
ensure that we continue to explore new technologies to support our 
missions.
                  fissile material disposition program
    Question. The fissile material disposition program, under which the 
United States and Russia each committed to dispose of 34 metric tons of 
surplus weapons-grade plutonium, has been plagued by numerous problems 
and delays. Construction of the MOX fuel fabrication facility is a 
major construction project that is a substantial portion of the NNSA 
nonproliferation budget request.
    If confirmed will you commit to conduct a review of the project to 
determine the cost and schedule baseline and determine if the project 
is on budget and on cost?
    Answer. If confirmed, I will commit to conducting a review of the 
project.
    Question. The MOX fuel facility will need plutonium feed stock to 
operate, which is currently in short supply.
    What is your understanding of current planning to ensure that the 
feedstock is available in sufficient quantities and at the appropriate 
time to ensure that the MOX fuel fabrication facility begins operations 
on time and continues operations at an efficient level of production?
    Answer. I understand a source of feedstock has been identified to 
begin operations at the MOX facility, but that a pit disassembly and 
conversion capability is needed to ensure continued operation of the 
MOX facility.
    Question. Are there additional steps which you believe should be 
taken?
    Answer. I understand the next steps on the Pit Disassembly and 
Conversion project are currently under evaluation at the Department, so 
if confirmed, I will work to ensure timely execution of the project.
    Question. There are currently discussions underway between the NNSA 
and the Department of Energy Office of Environmental Management (EM) to 
jointly establish a facility, in the K-Reactor area at the Savannah 
River Site, to disassemble plutonium pits and to prepare plutonium pits 
as feed stock for the MOX fuel fabrication facility. It appears that 
this proposal is not fully supported in the DOE.
    What is your understanding of the status of these discussions and 
the key issues that remain to be resolved?
    Answer. I am not aware of any support issues for the project, but 
if confirmed, I will look into the matter.
    Question. If confirmed, would you commit to review this proposal 
and report back promptly to the committee on the status of this 
proposal and any issues that are associated with it?
    Answer. If confirmed, I would commit to review the proposal and 
report back promptly to the committee on the status and any associated 
issues.
    Question. If the joint NNSA and EM effort does not go forward what 
do you understand are the options to supply plutonium feedstock in 
sufficient quantities when needed for MOX fuel fabrication plant 
operations?
    Answer. I understand that in addition to this option, the 
Department is evaluating a stand-alone Pit Disassembly and Conversion 
capability at the Savannah River Site that will also be capable of 
supplying the plutonium feedstock necessary to sustain MOX operations.
            radiological detection research and development
    Question. In your view what are the primary requirements for 
improvements in radiation detection capabilities and, if confirmed, how 
would you go about improving these capabilities?
    Answer. Radiation detection technologies are crucial to many of the 
Defense Nuclear Nonproliferation (DNN) programs such as the Second Line 
of Defense and Megaports programs as well as for international nuclear 
safeguards. My understanding is that current technology, while meeting 
minimum requirements of these programs, has limitations with regard to 
sensitivity, size, and power requirements. I understand that DNN works 
closely with DNDO and DTRA on technology development, and I will 
continue that.
                   global threat reduction initiative
    Question. In your view what are the most significant challenges 
facing the Global Threat Reduction Initiative?
    Answer. The most significant challenges facing the Global Threat 
Reduction Initiative are receiving full funding to implement the 4-year 
effort to secure vulnerable nuclear material as well as negotiating 
agreements for removal of nuclear material from countries such as 
Belarus, South Africa, and Ukraine.
    Question. What strategy, if any, has the NNSA developed for 
prioritizing its activities under this initiative so that the material 
that poses the highest risk is identified and addressed first?
    Answer. NNSA has developed a detailed prioritization plan to 
identify and address the materials that pose the highest risk based on 
quantity and type of nuclear material, site security, country-level 
threat environment, and proximity to strategic interests. The 
prioritization process provides a systematic method to prioritize 
removal projects and assign resources based on the relative risk of the 
material and the expected risk reduction resulting from removal of the 
material.
    Question. What is the policy governing work with countries that can 
afford to pay for necessary upgrades?
    Answer. The current policy is that the 66 countries that are 
defined by the World Bank to be high income economy countries such as 
Kuwait and Hungary pay for security upgrades and removal of nuclear 
material. For countries that are defined by the World Bank to be other-
than-high-income economy countries, GTRI pays the majority of costs for 
security upgrades and removal of nuclear material.
    Question. Do you support these policies or do you believe that 
changes are needed, and if your answer is yes, what are the changes 
that you would recommend if confirmed?
    Answer. I support these policies, but believe that we should 
continue to explore ways to implement programs on a partnership basis 
wherever possible.
                            budget execution
    Question. The budget request for fiscal year 2011 for the NNSA 
nonproliferation programs is significantly higher than the amounts 
available for fiscal year 2010.
    If confirmed what steps would you take to ensure that these 
significant increases are executed to ensure the maximum programmatic 
benefit?
    Answer. If confirmed, I would work closely with the program and 
budget offices to ensure that there is maximum program benefit.
    Question. You have worked on establishing metrics for use by the 
Department of Defense Cooperative Threat Reduction Programs in 
assessing programmatic success and effectiveness.
    What is your understanding of the metrics currently in use for the 
NNSA nonproliferation programs?
    Answer. I do not have the specifics for how NNSA has developed its 
current metrics, however, this is an area of great interest to me. I 
believe that we can always improve how we measure the impact and 
effectiveness of our complex programs that support national security 
goals, and it has been a long term personal interest of mine. I know 
from conversations related to the DOD metrics study that program 
offices in NNSA, as am I, are open to exploring new approaches.
    Question. If confirmed, would you develop new metrics for these 
programs? What criteria would you use to develop such metrics?
    Answer. If confirmed, I believe we should continue to evaluate the 
way we measure program impact and effectiveness. We are learning from 
the DOD experience that not all programs can be measured in exactly the 
same way, but that it is possible to construct an analytical framework 
that can be adapted to different kinds of programs.
    Question. How would metrics be used to plan and develop budget for 
NNSA nonproliferation programs?
    Answer. Program measures of performance and measures of 
effectiveness need to be integrated into program design if they are to 
be a useful tool for evaluation and planning. If confirmed, I look 
forward to working with the program directors and with Congress to 
explore this further.
                      nuclear security cooperation
    Question. What, in your view, are the primary areas of nuclear 
security and nonproliferation cooperation that should be sustained or 
initiated with Russia in the next 5 years?
    Answer. Russia is a nuclear weapons state and has a growing nuclear 
power industry. DOE/NNSA has developed a strong cooperative 
relationship with our Russian colleagues that has resulted in 
significant improvements in the way nuclear materials are managed in 
Russia over the past two decades. While much has been accomplished, 
there is more that can and should be done to ensure the long-term 
sustainability of our investment. I believe we should continue to 
cooperate with Russia in all areas that can increase the security of 
nuclear materials.
    Question. How should future nonproliferation and threat reduction 
programs be structured to recognize the changes that have taken place 
in Russia since the early days of the NNSA nonproliferation programs, 
including funding for new programs?
    Answer. Many changes are already taking place in our working 
relationship with Russia. For example, I understand there is an active 
Best Practices exchange program where NNSA and Russian technical 
experts share appropriate lessons learned regarding nuclear security. 
Sharing such information is important as the threat of nuclear 
terrorism continues to evolve.
    Regarding funding, many programs are moving to a 50-50 cost share 
basis. This is an appropriate target for now, although we should 
continue to press our colleagues to assume a greater and greater share 
of the financial responsibility.
    Question. In your view what are the guidelines and objectives that 
should be part of developing nuclear security cooperation with China? 
India? Pakistan?
    Answer. Nuclear security cooperation with new partners should be 
evaluated on a case-by-case basis in consultation with other U.S. 
agencies and Congress. We will continue to work with our interagency 
partners to reach out to the relevant elements of these governments in 
order to establish a basis for information exchange and cooperation. If 
confirmed, I would hope to build on the commitments made by each of 
these countries at the recent Nuclear Security Summit to promote 
adequate security of their nuclear materials.
               nonproliferation research and development
    Question. If confirmed, would you commit to review the 
Nonproliferation Research and Development program to ensure that the 
requirements for the program are identified, that the program is 
meeting the needs of the users, and that the program is fully funded?
    Answer. If confirmed, I would commit to such a review of the 
Nonproliferation Research and Development Program.
    Question. One of the research and development requirements that has 
been identified in several studies is the need to improve nuclear 
forensics capabilities.
    What do you believe is needed in this area?
    Answer. The National Research Council released a classified report 
early this year and an abbreviated unclassified version of the same 
study on July 29. I participated in the early stages of that study and 
believe that the findings and recommendations are sound. The committee 
found that, ``Although U.S. nuclear forensics capabilities are 
substantial and can be improved, right now they are fragile, under 
resourced, and, in some respects, deteriorating. Without strong 
leadership, careful planning, and additional resources, these 
capabilities will decline.'' In the areas applicable to DNN, I 
understand that many of these areas are being addressed by the DNN 
Office of Nonproliferation and Verification R&D, such as:

        <bullet> development of prompt diagnostic systems;
        <bullet> simulations to better interpret data from prompt 
        diagnostics;
        <bullet> identification of useful short-lived signatures and 
        how to measure them;
        <bullet> R&D for new methods for air and ground sampling;
        <bullet> development of tools and procedures for sample 
        selection;
        <bullet> Development of faster, more reliable sample-
        preparation techniques;
        <bullet> Development of automated analytical techniques that 
        meet modern environmental, health, and safety requirements;
        <bullet> simulations to explore signatures of nuclear-material-
        production technologies; and

    Initiating international collaborative research projects in nuclear 
forensic analysis is also critical for developing the global analytical 
capabilities required for identifying unknown materials and to aid in 
the attribution of a terrorist nuclear event or the attempted smuggling 
of nuclear materials.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Deputy Administrator for 
Defense Nuclear Nonproliferation?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Question Submitted by Senator Roland W. Burris
                         illicit nuclear trade
    1. Senator Burris. Ms. Harrington, the President has stated that 
ultimately he would like to see a world free of nuclear weapons. There 
are many steps required to achieve this goal, however controlling the 
illicit flow of nuclear materials is paramount. How do you propose 
enhancing the global effort to control the illicit nuclear trade?
    Ms. Harrington. The illicit flow of nuclear materials is one of the 
greatest dangers we face. Unlike threats from biological or chemical 
weapons, where materials are readily available, the key to building a 
nuclear capability or improvising a nuclear weapon is the material 
itself. The President declared in his April 5, 2009, Prague Speech, 
that the United States would pursue new partnerships to lock down 
vulnerable nuclear material worldwide in 4 years. To that effort, he 
added, ``We must also build on our efforts to break up black markets, 
detect and intercept materials in transit, and use financial tools to 
disrupt this dangerous [nuclear] trade.'' The United States brings a 
great deal of experience and expertise to these efforts, much of which 
is centered in the programs of NA-20, including site security, 
establishing a second line of defense, and expanding the capacity of 
our partner governments to develop, strengthen, and sustain their own 
national export control and border security systems.
    The first line of defense, or securing material at the site, 
involves working cooperatively with international partners to secure 
and eliminate vulnerable nuclear material that could be used in weapons 
of mass destruction (WMD). NNSA has two primary programs that work 
towards securing nuclear material at the first line of defense: 
Material Protection Control and Accounting (MPC&A) and Global Threat 
Reduction Initiative (GTRI).
    The MPC&A Program emphasizes improvements in physical protection, 
protective forces, material control and accounting, nuclear security 
culture, and the creation of an indigenous infrastructure to support 
these programs. Since the program's inception 15 years ago, MPC&A has 
cooperated with Russia to install nuclear security upgrades at 91 
percent of buildings at Russian nuclear warhead and nuclear material 
sites. Work is ongoing at the other 9 percent of buildings. While the 
primary focus of the program has been with Russia, NNSA is also engaged 
in ongoing reciprocal nuclear security best practices dialogs with 
China, and pursuing a cooperative role in the establishment of Nuclear 
Security Centers of Excellence in both China and India. Enhancing site 
security and collaborating on best-practices dialogs allows the NNSA to 
work towards ensuring a security culture worldwide that can prevent 
nuclear material from entering into an illicit trafficking system.
    The GTRI Program achieves its mission by converting research 
reactors and isotope production facilities from the use of highly 
enriched uranium to low enriched uranium; removing and disposing of 
excess nuclear and radiological materials; and protecting high priority 
nuclear and radiological materials from theft/sabotage. GTRI's 
conversion and removal efforts result in permanent threat reduction by 
eliminating these materials of concern, preventing the possibility that 
they could ever enter the smuggling pipeline. GTRI has worked in over 
100 countries around the world to implement its nuclear and 
radiological threat reduction efforts.
    The second approach in the NNSA's effort to prevent the illicit 
movement of nuclear materials is the Second Line of Defense Program 
(SLD), which strengthens the capability of foreign governments to 
deter, detect, and interdict illicit trafficking in nuclear and other 
radioactive materials across international borders and through the 
global maritime shipping system. Under the SLD Program, NNSA works 
collaboratively with foreign partners to equip border crossings, 
airports and seaports with radiation detection equipment and associated 
communication equipment. The SLD Program provides training in the use 
of the systems for appropriate law enforcement officials and initial 
system sustainability support as the host government assumes 
operational responsibility for the equipment. To date, the SLD Program 
has installed radiation detection equipment and trained personnel at 
322 sites in Russia and 98 other sites around the world. Out of 100 
Megaports chosen to install radiation detection equipment, 30 have been 
completed, leading to approximately 50 percent of global shipping 
traffic being scanned by 2015.
    In addition to these programs, the NNSA recognizes that black 
market networks and non-state actors play a vital role in supplying 
proliferators. These networks seek both suppliers of sensitive goods 
and places where they can divert from legitimate trade shipments to 
proliferant programs. NNSA collaborates with other U.S. agencies and 
with foreign customs, export licensing officials and private industry 
to strengthen national and regional export control systems and to 
bolster interdiction capacities, reduce proliferation risk and prevent 
illicit nuclear trafficking.
    There is also a clear need to strengthen international cooperation 
in nonproliferation nuclear forensics. Nuclear forensics analysis of 
interdicted materials plays a critical role in nuclear and radiological 
trafficking investigations by contributing to the determination of 
isotopic, chemical and physical signatures to deter the unauthorized 
diversion or use of these materials. Building global capacity for 
effective forensics analysis and accurate attribution of interdicted 
materials is an integral part of NNSA's approach to controlling illicit 
nuclear trade.
    A key to success, however, is the concept of working in partnership 
with other countries and institutions. Global reach is only achievable 
through a global network and we will work diligently to fulfill this 
vision. U.S. cooperation with the International Atomic Energy Agency 
(IAEA) is well known and we will continue to carry out our programs in 
close collaboration and coordination with the IAEA. We have other 
partners whose commitment to securing nuclear materials is no less than 
ours and that help form the backbone of this global network. For 
example, in its June 15, 2010 news bulletin, the European Commission's 
Joint Research Centre (JRC) noted that it is responsible for the on-
site laboratories at the nuclear reprocessing plants in Sellafield (UK) 
and La Hague (France). These laboratories analyze spent fuel samples at 
the sites, which handle approximately 80 percent of the world's 
reprocessed spent nuclear fuel and assure compliance with IAEA 
safeguards. The JRC helped set up a similar facility in Rokkasho, 
Japan, and provides training to IAEA and Euratom safeguards inspectors. 
It is crucial to have partners like this, who share our concerns and 
are willing to devote resources to addressing global challenges.
                                 ______
                                 
               Question Submitted by Senator David Vitter
                      nuclear security facilities
    2. Senator Vitter. Ms. Harrington, given the President's nuclear 
security agenda, what role will you play in meeting the long-term 
responsibilities of nuclear security facilities?
    Ms. Harrington. The President's nuclear security agenda places a 
high priority on global efforts to ensure the physical protection of 
nuclear material and facilities. Security for the NNSA nuclear security 
enterprise is managed by the Office of Defense Nuclear Security. The 
Office of Defense Nuclear Nonproliferation (DNN) helps meet the 
administration's goals to secure nuclear material around the world 
through many programs, including: development and support of 
international nuclear security policy and guidance; assessment of 
foreign facilities holding U.S.-obligated nuclear material; bilateral 
and multilateral cooperation on nuclear security; and training of key 
personnel responsible for protecting nuclear material and facilities. 
In addition, under the DNN Global Threat Reduction Program, a number of 
important domestic security activities are performed for the protection 
of radiological sources at a variety of nonnuclear facilities.
    NNSA has led the international effort to complete a fifth revision 
to International Atomic Energy Agency's recommendations document, ``The 
Physical Protection of Nuclear Material and Nuclear Facilities'' 
(INFCIRC/225). This revision will help ensure that international 
nuclear security recommendations are consistent with the requirements 
contained in the 2005 amendment to the Convention on the Physical 
Protection of Nuclear Materials and Nuclear Facilities. The revision 
will provide guidance to states on implementing United Nations Security 
Council Resolution 1540 requirements and is anticipated to be completed 
before the end of 2010.
    As required by the Atomic Energy Act of 1954 and the 1978 Nuclear 
Nonproliferation Act (NNPA), NNSA has conducted over 170 bilateral 
visits to over 50 countries since 1974 to ensure adequate physical 
protection of U.S.-obligated nuclear material provided to other states 
for peaceful purposes. NNSA is planning to conduct six more visits over 
the next year. In addition to physical protection assessments, NNSA 
also formally engages with Japan, the Republic of Korea, Argentina, 
Brazil and France and informally collaborates with many other 
countries. The NNSA and its predecessors have conducted over 90 
exchanges with 30 countries since the 1970s to exchange information on 
best practices and lessons learned for securing nuclear materials at 
facilities and in transport.
    Finally, with respect to the training of personnel responsible for 
protecting nuclear material and facilities, since the beginning of 
2009, NNSA has trained 598 foreign officials in 81 countries who are 
responsible for the protection of nuclear materials and facilities, as 
required by U.S. law. Since 1978, NNSA has trained over 3220 students 
from 116 countries, as mandated by the 1978 NNPA.
                                 ______
                                 
    [The nomination reference of Anne M. Harrington follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 14, 2010.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Anne M. Harrington, of Virginia, to be Deputy Administrator for 
Defense Nuclear Nonproliferation, National Nuclear Security 
Administration, vice William H. Tobey, resigned.
                                 ______
                                 
    [The biographical sketch of Anne M. Harrington, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
               Biographical Sketch of Anne M. Harrington
    Anne Harrington is currently the Director of the U.S. National 
Academy of Sciences Committee on International Security and Arms 
Control, which was established in 1980 to bring the resources of the 
Academy to bear on critical problems of international security and arms 
control. During her tenure she was study director for Global Security 
Engagement: A New Approach to Cooperative Threat Reduction (2009), and 
was a staff member of a number of other studies on topics ranging from 
nuclear forensics to the future security environment between the U.S. 
and Russia.
    From 1990-2005, Ms. Harrington served in the U.S. Department of 
State, where she was a senior U.S. Government expert on 
nonproliferation and cooperative threat reduction responsible for 
developing policy and implementing programs aimed at preventing the 
proliferation of weapons of mass destruction (WMD) and missile 
expertise in Russia and Eurasia; she also launched similar efforts Iraq 
and Libya. Her positions included Acting Director and Deputy Director 
of the Office of Cooperative Threat Reduction, Senior Coordinator for 
efforts to redirect former Soviet WMD/missile experts, Senior Advisor 
to the preparatory committee of the International Science and 
Technology Center, and Science Analyst at the U.S. Embassy in Moscow, 
Russia. She was instrumental in negotiating the agreements that 
established the ISTC and the Science and Technology Center in Ukraine, 
and the agreement between the United States and Kazakhstan for the 
secure storage of spent fuel and safe shutdown of the Aktau BN-350 
breeder reactor.
    Ms. Harrington holds an A.B degree from St. Lawrence University, a 
M.A. from the University of Michigan, and a M.S. from the National 
Defense University National War College.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Anne M. 
Harrington in connection with her nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Anne M. Harrington.

    2. Position to which nominated:
    Deputy Administrator of the National Nuclear Security 
Administration for Defense Nuclear Nonproliferation.

    3. Date of nomination:
    June 14, 2010.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    February 17, 1951; Tupper Lake, NY.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Single.

    7. Names and ages of children:
    Meredith Harrington Lynch, age 24.
    Owen Harrington Lynch, age 20.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    1964-1968 - Long Lake Central School - New York State Regents 
Diploma; Long Lake Central School Diploma (1968)
    1968-1972 - St. Lawrence University - A.B. cumlaude (1972)
    1972-1974 - University of Michigan-M.A. (1974)
    2002-2003 - National War College/National Defense University - M.S. 
(2003)

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    2005-Present, U.S. National Academy of Sciences, Washington, DC, 
Director, Committee on International Security and Arms Control
    1993-2005, U.S. Department of State, Washington, DC

        <bullet> 2001-March 2005 - Deputy Director, Office of 
        Proliferation Threat Reduction
        <bullet> 2000-2001 - Acting Director, Office of Proliferation 
        Threat Reduction
        <bullet> 1993-2000 - Senior Coordinator, Office of Regional 
        Nonproliferation

    1991-1993 - U.S. Department of State, Moscow, Russia

        <bullet> 1992-1993 - Senior Advisor, International Science and 
        Technology Center (ISTC)
        <bullet> 1991-1992 - Science Analyst

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Intelligence Community Associates Program, Office of the Director 
of National Intelligence (ODNI), 2007-present

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    U.S. Equestrian Federation, member
    U.S. Dressage Federation, member
    Virginia Dressage Association/Northern Virginia Section, member
    Women in International Security, member

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Obama for President Campaign, 2009 - Occasional campaign volunteer.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    $250 - Obama for President.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    St. Lawrence University

        <bullet> Cum Laude, Phi Beta Kappa, Mortar Board, Dean's List, 
        Irving Bacheller English Honorary, Who's Who Among Students in 
        American Colleges and Universities, New York State Regents 
        Scholarship

    University of Michigan
        <bullet> Teaching Fellow, Dean's List, Outstanding Achievement 
        Award

    National War College

        <bullet> Research Fellow, Writing Award

    U.S. Department of State
        <bullet> 1990 - Meritorious Honor Award, U.S. Embassy Budapest
        <bullet> 1994-1997 - Outstanding Performance
        <bullet> 1999 - Superior Honor Award for creating and directing 
        the U.S.-Russia biotechnology engagement program
        <bullet> 2001 - Meritorious Honor Award - Office of 
        Proliferation Threat Reduction
        <bullet> 2001 - Superior Honor Award - Leadership in 
        Nonproliferation
        <bullet> 2003 - Superior Honor Award - Iraq Nonproliferation 
        Programs
        <bullet> 2004 - Superior Honor Award - Libya WMD Scientist 
        Engagement

    The National Academies

        <bullet> 2009 - Policy and Global Affairs Division Group Award 
        for Excellence
        <bullet> 2008 - Policy and Global Affairs Division Individual 
        Award for Excellence

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Articles

        <bullet> with Carleton J. Phillips et al., Global Disease 
        Surveillance, Enmergent Disease Preparedness, and National 
        Security, Museum of Texas Tech University, 2009.
        <bullet> with Joel Wit, ``Redirecting North Korean Nuclear 
        Weapons Scientists: An Initial Program Model,'' October 2008.
        <bullet> with Andrew Hood, Nonnuclear Options for Engagement of 
        Personnel Associated with the DPRK Nuclear Program,'' October 
        2008
        <bullet> with Amb. Joseph DeThomas, ``Organizational Options 
        for Redirecting DPRK Nuclear Experts,'' October 2008.
        <bullet> Encyclopedia of Bioterrorism Defense. `Threat 
        Reduction in the Former Soviet Union.' Richard F. Pilch and 
        Raymond A. Zilinskas, eds. Wiley-Liss 2005; revised 2010.
        <bullet> `Options for Reducing the Threat from Biological 
        Weapons: Perspectives on U.S. Strategy,' unpublished research 
        paper, National War College, 2003.
        <bullet> with John R. Deni, `Beyond Brain Drain: The Future of 
        `Nonproliferation Through Science Cooperation' Programs,' 
        presented March 30-31, 1995, Conference on New Frontiers in 
        Arms Control.
        <bullet> `Redirecting Biological Weapons Expertise: Realities 
        and Opportunities in the Former Soviet Union.' Chemical Weapons 
        Convention Bulletin 29. September 1995.

    National Academies Studies (the below items are studies on which I 
played a key staff role, but for which I was not an author):

        <bullet> Study Director, Global Security Engagement: A New 
        Model for Cooperative Threat Reduction, National Academy Press, 
        March 2009.
        <bullet> Study Staff, Internationalization of the Nuclear Fuel 
        Cycle - Goals, Strategies, and Challenges (2009)
        <bullet> Study Staff, Countering Biological Threats - 
        Challenges for the Department of Defense's Nonproliferation 
        Program Beyond the Former Soviet Union (2009)
        <bullet> Staff, Future of the Nuclear Security Environment in 
        2015, Proceedings of a Russian-U.S. Workshop (2009)
        <bullet> Study Staff, English-Chinese Chinese-English Nuclear 
        Security Glossary (2008)
        <bullet> Study Staff, The Biological Threat Reduction Program 
        of the Department of Defense--From Foreign Assistance to 
        Sustainable Partnerships (2007)

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    December 2009, 15th Anniversary Celebration of the International 
Science and Technology Center, Moscow, Russia--In the beginning--A 
personal perspective on the origins and future of the International 
Science and Technology Center.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                Anne M. Harrington.
    This 18th day of June, 2010.

    [The nomination of Anne M. Harrington was reported to the 
Senate by Chairman Levin on August 4, 2010, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on September 29, 2010.]

 
NOMINATION OF GEN. JAMES F. AMOS, USMC, FOR REAPPOINTMENT TO THE GRADE 
          OF GENERAL AND TO BE COMMANDANT OF THE MARINE CORPS

                              ----------                              


                      TUESDAY, SEPTEMBER 21, 2010

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Akaka, Webb, Hagan, Burris, Goodwin, McCain, Sessions, 
Chambliss, LeMieux, Brown, and Burr.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Creighton Greene, 
professional staff member; Gerald J. Leeling, counsel; Peter K. 
Levine, general counsel; Jason W. Maroney, counsel; William 
G.P. Monahan, counsel; John H. Quirk V, professional staff 
member; and William K. Sutey, professional staff member.
    Minority staff members present: Michael V. Kostiw, 
professional staff member; David M. Morriss, minority counsel; 
Lucian L. Niemeyer, professional staff member; and Richard F. 
Walsh, minority counsel.
    Staff assistants present: Jennifer R. Knowles and Hannah I. 
Lloyd.
    Committee members' assistants present: Christopher Griffin, 
assistant to Senator Lieberman; Carolyn A. Chuhta, assistant to 
Senator Reed; Juliet Beyler and Gordon Peterson, assistants to 
Senator Webb; Roger Pena, assistant to Senator Hagan; Lindsay 
Kavanaugh, assistant to Senator Begich; Joanne McLaughlin, 
assistant to Senator Goodwin; Lenwood Landrum and Sandra Luff, 
assistants to Senator Sessions; Clyde Taylor IV, assistant to 
Senator Chambliss; Jason Van Beek, assistant to Senator Thune; 
Brian Walsh, assistant to Senator LeMieux; Brandon Aitchison 
and William Wright, assistants to Senator Brown; and Brooks 
Tucker, assistant to Senator Burr.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. Today, the 
committee meets to consider the nomination of General James 
Amos to be the next Commandant of the Marine Corps.
    General Amos, you have a long history of military service, 
a highly distinguished history of military service, and now 
you're being asked again to add to that service. We are 
grateful for that, your willingness to do so. We welcome you 
and your family to today's hearing.
    Senior military officials put in long hours every day, 24/
7. We appreciate the sacrifices that our nominees are willing 
to make to serve their country. But, we also note the 
sacrifices that their families make in order to support those 
efforts. So, we thank your family for supporting you in your 
service. We also want to extend our heartfelt thanks to the men 
and women of the Marine Corps who are serving so ably and so 
valiantly in harm's way around the world. In Afghanistan, of 
course, but not just in Afghanistan.
    If confirmed, General Amos will assume leadership of the 
Marine Corps at a difficult time. Foremost among concerns is 
that the Marine Corps has to strain mightily to support ongoing 
operations in Afghanistan, and in support of our overall 
efforts there and in other places around the world. The Marine 
Corps is facing the prospects of moving operations from Okinawa 
to Guam to support the government-to-government agreement with 
the Japanese regarding the long-term presence of Marine Corps 
forces in the Western Pacific. Even at this date, there are 
concerns about the implementation of this agreement, how much 
it will cost, and the potential disruption to Marine Corps 
operating forces, and training for those forces.
    In the spring of 2010, Secretary Gates made several public 
statements in which he appeared to question the need for and 
the size of the Navy's amphibious fleet in future defense plans 
and budgets. Since that time, he has also questioned the need 
for the Expeditionary Fighter Vehicle (EFV) in the face of 
anti-access strategies of potential adversaries.
    The current lift capability of the Navy is for slightly 
more than two Marine Expeditionary Brigades which contain about 
six battalions. Some critics have argued that six battalions is 
too small a force to operate against a major adversary. They 
argue that this means that the Nation is really only prepared 
to use the Marine Corps in amphibious shipping to conduct 
forcible entry operations against countries of lesser 
capability, and the extra ability of an EFV to stand off 
farther from the beach is not needed.
    There's little room to breathe on the aviation front, 
either. There are well-known concerns about overall naval 
aviation and potential shortages of strike fighter aircraft, a 
problem that the Marine Corps share with the other Service, the 
Department of the Navy. There are well-publicized problems in 
the Joint Strike Fighter (JSF) program, which causes concerns 
about the Marine Corps' current plans to achieve an initial 
operational capability (IOC) for the JSF in calendar year 2012, 
while the other Services have delayed their IOC by a couple of 
years.
    We look forward to your testimony, General Amos, on these 
and other important issues.
    Now I'll call upon Senator McCain for his statement.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman.
    I join you in congratulating General Amos on his nomination 
to be the 35th Commandant of the Marine Corps, and in welcoming 
his family and friends. I thank him for his service and his 
willingness to serve in this critically important leadership 
position.
    If confirmed, General Amos will be the first Commandant of 
the Marine Corps not from the infantry ranks. Though every 
marine is a rifleman, his additional proficiency as a naval 
aviator can only be viewed positively, affording him an 
advantage. General Amos is well qualified to succeed General 
Conway as the next Commandant.
    As we all know, the Marine Corps today faces many 
challenges, including providing marines deployed in combat in 
Afghanistan with everything they need to fight and win, 
ensuring the well-being of wounded warriors and marines and 
their families, and recapitalizing key weapons systems, and 
preparing for future national security demands in a constrained 
budgetary environment.
    You've been fully engaged as Assistant Commandant in 
addressing these challenges, General, and we look forward to 
your testimony about these issues.
    If you are confirmed, you will be responsible, above all 
else, for ensuring the combat readiness of marines and Marine 
Corps units. A legendary wartime marine, General Victor Krulak, 
once stated, ``Being ready is not what matters. What matters is 
winning after you get there.'' Your job will be to ensure that 
happens, and no one in this room understands how to do that 
better than you do.
    You'll also be a member of the Joint Chiefs and a military 
advisor to the President, the National Security Council, and 
the Secretary of Defense. Clearly these two hats the Service 
Chiefs wear are related, and their views and advice about 
issues that could affect the Marine Corps should be sought out 
and given great weight by our national leaders.
    General, later today the Senate will vote on whether the 
National Defense Authorization Act for Fiscal Year 2011 should 
be taken up for debate. Despite the unanimous recommendations 
of the four Service Chiefs, the legislation includes a 
provision that would repeal the so-called ``Don't Ask, Don't 
Tell'' law. I want to emphasize, the Service Chiefs--and we'll 
be talking about this on the floor--all of them have said they 
wanted a complete study about the effect on morale and battle 
readiness of their respective Services before moving forward 
with the implementation of repeal of ``Don't Ask, Don't Tell.'' 
The study that the Defense Department is conducting does not do 
that. The study assumes that repeal will take place. For all 
intents and purposes, there is no study as to the impact on 
battle effectiveness and morale of repeal of this legislation.
    I continue to urge my colleagues to reject this effort to 
short-circuit the process--endorsed by the Department of 
Defense leaders, not by the Service Chiefs--a process that was 
supposed to inform us, with one that merely ratifies a 
politically driven decision. We all look forward to hearing 
your thoughts about whether the comprehensive review should be 
allowed to run its course in this fashion, and what you feel 
about the effect it could have on U.S. Marine Corps.
    We also look forward to hearing your professional military 
advice about what policy is best for your branch of the armed 
services, the effectiveness and readiness of which you will be 
entrusted with maintaining at the highest levels, if confirmed 
in this new position.
    Today, our military continues to be engaged in combat 
operations, and career officers, noncommissioned officers 
(NCOs), and their families are being asked to do so much. It 
would be a mistake to ignore the views of our troops and the 
military advice of the Service Chiefs, and for the Senate to 
act prematurely to repeal the current ``Don't Ask, Don't Tell'' 
law for the sake of fulfilling a political promise.
    I look forward to the testimony of General Amos today, and 
I again thank him and his family for their service.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    We have an esteemed member of our committee, Senator Hagan, 
who's with us to introduce the General, and now we'll call on 
Senator Hagan.

STATEMENT OF HON. KAY R. HAGAN, U.S. SENATOR FROM THE STATE OF 
                         NORTH CAROLINA

    Senator Hagan. Thank you very much, Mr. Chairman, Ranking 
Member McCain, members of the committee.
    It is with great honor and pleasure that I introduce to you 
an accomplished Marine general already well known to the 
committee, General Jim Amos. As the daughter-in-law of a former 
major general in the Marine Corps it is with great honor that I 
recognize that I have, today, to introduce General Amos to you.
    Though born in the great State of Idaho, he has very solid 
North Carolina ties. Between 2004 and 2006, he commanded the 
Second Marine Expeditionary Force, leading all Marine ground, 
aviation, and logistics forces at two of our great bases in 
eastern North Carolina, Marine Corps Base, Camp Lejeune, in 
Jacksonville, and Marine Corps Air Station, Cherry Point, in 
Havelock, locations that are home to a Marine Active Duty, 
dependent, retiree, and civilian employee population of over 
200,000.
    Also, Mr. Chairman, rumor has it that this accomplished 
fighter pilot, whom I should note is the first aviator 
nominated to be Commandant of the Marine Corps in its rich 235 
year history, maintains a residence in the western portion of 
the Tarheel State, where he likes to stay, when possible, to 
get away from the rigors of the Beltway. It is there, in Boone, 
NC, where we hope to lure him to reside after he has led the 
Corps in this great role as Commandant over the coming years.
    General Amos has not been alone in this journey of service 
to our Nation. Beside him for nearly 4 decades, as she is 
today, has been his wife, Bonnie. I actually spoke to Bonnie 
yesterday, and she shared with me that, almost 40 years ago, 
they met in September, were engaged in October, and were 
married in December. I think we have two very smart people 
here. They met in Pensacola, Florida, at the bank where she 
worked and, as a young lieutenant, he was in flight school. 
They have relocated 28 times in 39 years of marriage, to 19 
different locations; some better than others, and some more 
adventurous than others, but all have been filled with enough 
memories to last three lifetimes.
    While being active in the Marine Corps family readiness, 
spouse clubs, and various volunteer organizations Bonnie has 
also worked for a commercial real estate development company 
for 22 years.
    Throughout it all, their family has always been the number-
one priority. Jim and Bonnie Amos have two children, ages 36 
and 33, who are leading successful professional lives despite 
having attended 25 different schools in 24 cumulative years of 
primary and secondary education. Their daughter, Jaymie, was 
born in Hawaii, and now lives in Charlotte, NC, with her 
husband and two of the General and Bonnie's four grandchildren. 
They also have a son, Joshua, named after the great Old 
Testament general. He, too, is married, and his wife, Molly, is 
here--they have their other two grandchildren; and also, the 
grandson, Charlie, is also with us today. They live in 
Shenandoah Junction, WV. This military family loves the Marine 
Corps and counts it a blessing to have lived throughout the 
United States.
    General Amos has held the title of Assistant Commandant of 
the Marine Corps for the past 2 years. Today, we consider his 
nomination to be Commandant, to lead a force of 202,000 Active 
Duty and 39,000 Reserve marines serving on the frontiers of 
freedom, fighting in Afghanistan, providing humanitarian relief 
to flood-ravaged Pakistan, and rescuing vessels from pirates 
off the coast of Somalia.
    Born in 1946, General Amos is the son of a Navy man. His 
father received his wings flying seaplanes, and later obtained 
his commission, completing a 27-year career of service to our 
Nation as an aviator. Though you see a most distinguished 
Marine officer before you today, Mr. Chairman, I'll have you 
know that, growing up with a father who was a Navy pilot saw 
General Amos living in many warm locales--in Florida, 
California, and the British West Indies--balmy environments, 
which pushed him to develop a love for the beach, and perhaps 
too much so, in the eyes of his concerned high school guidance 
counselor, Mr. Jim Graham, who once wrote his parents that he 
feared that the General was, ``Destined for life as a beach bum 
if he didn't turn things around.'' [Laughter.]
    Obviously, he did turn things around. He graduated high 
school in California in 1964, then headed to Kodiak, Alaska, to 
work in a crab and halibut processing factory, later taking a 
job as a laborer in a construction camp. After 15 months of 
that life, he went back to the Midwest, attended the University 
of Idaho, and entered their Navy Reserve Officer Training Corps 
program. He graduated in 1970, with a degree in finance, and 
embarked on a military career with aspirations to be a pilot. 
He was designated a naval aviator in 1971, and learned to fly 
the F-4 Phantom 2 before transitioning later to the F/A-18 
Hornet. The rest, as they say, is history.
    Over the course of his 38-year career, he has commanded 
Marine aviation units from the squadron to wing levels. He 
commanded all Marine aviation in Iraq as the Commanding General 
of the Third Marine Aircraft Wing during Operation Iraqi 
Freedom I and II. He has served at the combined and joint 
levels, as the North Atlantic Treaty Organization's Deputy 
Commander of the Navy's striking forces in Italy, and as the 
Chief of Staff of U.S. Joint Task Force Noble Anvil during the 
1999 air campaign over Yugoslavia. He has been the Commanding 
General of the Marine Corps Combat Development Command, and the 
Deputy Commandant for Combat Development Integration. He has 
also been the Assistant Deputy Commandant for Plans, Policies, 
and Operations, and the Assistant Deputy Commandant for 
Aviation.
    General Amos fully understands that the price of the war is 
paid by the young men and women that make the ultimate 
sacrifice to our great Nation. While serving as the Third 
Marine Aircraft Wing commander in Iraq, he had the names of 
each of the marines and sailors whose lives were lost posted 
along the wall of his Combat Operation Center. In honoring the 
memory of America's heroes, General Amos ensured that their 
lives had not been in vain. The names of the fallen served as a 
daily reminder of what was at stake, and today they reinforce 
the General's personal commitment to our Corps.
    As the Assistant Commandant of the Marine Corps, he has 
been at the forefront of ensuring the personnel readiness and 
quality of life for marines and their families. He has 
championed and tackled head-on the critical readiness 
challenges facing our forces from the past 9 years at war.
    Mr. Chairman, the Marine Corps will face many challenges in 
the coming years, foremost of which include supporting our 
Marines in ongoing operations in Afghanistan and elsewhere. 
These times will require the steady hand of a leader tested and 
proven in combat operations, and an experienced manager with a 
clear vision for the future. You have such a general officer 
before the committee today.
    It is a pleasure both to welcome and introduce General Jim 
Amos. I hope both the committee and the full Senate will move 
swiftly to confirm him so that he can move forward to the 
important task of continuing to ensure our Marine Corps remains 
America's expeditionary force in readiness.
    Thank you very much, Mr. Chairman, it is my pleasure.
    Chairman Levin. Thank you so much, Senator Hagan, for 
really a wonderful introduction, a warm introduction, and a 
very powerful introduction, as well.
    General Amos, before we call on you for your opening 
statement, let me ask you a set of standard questions, which we 
ask of all of our nominees.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    General Amos. Yes, sir, I do.
    Chairman Levin. Do you agree, when asked, to give your 
personal views, even if those views differ from the 
administration in power?
    General Amos. Yes, sir, I will.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    General Amos. No, I did not.
    Chairman Levin. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record in hearings?
    General Amos. Yes, sir, I will.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    General Amos. Yes, sir, I will.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    General Amos. They will, Mr. Chairman.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify, upon request, before this committee?
    General Amos. I do.
    Chairman Levin. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly-constituted committee, 
or to consult with the committee regarding the basis for any 
good-faith delay or denial in providing such documents?
    General Amos. Yes, sir, I will.
    Chairman Levin. Thank you very much.
    Now we will call on you for an opening statement. Please 
feel free to introduce members of your family who are with you, 
and anyone else that you might wish to introduce.

      STATEMENT OF GEN. JAMES F. AMOS, USMC, NOMINEE FOR 
 REAPPOINTMENT TO THE GRADE OF GENERAL AND TO BE COMMANDANT OF 
                        THE MARINE CORPS

    General Amos. Thank you, Mr. Chairman.
    Chairman Levin, Ranking Member McCain, distinguished 
members of the committee, thank you for the opportunity to 
appear before this committee in support of my nomination to be 
the 35th Commandant of the U.S. Marine Corps.
    Senator Hagan, thank you. Thank you for introducing me, for 
your time and effort, and for your very kind and generous 
words. You have honored both me and my family, and I look 
forward to the next opportunity for the Amos clan to spend time 
at our log cabin in western North Carolina. Thank you for 
sharing a small, but beautiful, portion of the Tarheel State 
with the Amos family.
    While Senator Hagan has kindly introduced my best friend in 
life, my wife, Bonnie, I want to acknowledge for the record her 
selfless contributions to both me, personally, and to the 
thousands of Marine Corps families whose lives she has touched. 
As acknowledged earlier, during our 40 years of marriage to 
each other and to the Marine Corps she has raised our children 
in my absence. She's packed and unpacked our household goods 
more times than I am willing to publicly admit. She has 
repaired our family cars, our dishwashers, and our washing 
machines; she's helped with countless hours of homework for our 
two children. She is the epitome of the Marine spouse. She is 
the epitome of a mom and sage role model. She is the rock of 
our family.
    Also with Bonnie and me today is our daughter, Jaymie, and 
our daughter-in-law, Molly, and one of our four grandchildren, 
Charlie Bear. Behind them are a row of my high school 
classmates that bear testimony to Mr. John Graham's letter to 
my mom and dad. [Laughter.]
    I am humbled and honored to be nominated to serve as the 
35th Commandant of the Marine Corps. I am keenly aware of the 
challenges that our Nation faces today and those that we will 
most likely face in the future, and the critical role that 
America's expeditionary force and readiness will play in 
meeting those challenges.
    I have been fortunate to have served as the Assistant 
Commandant for the past 2 years, a position that has afforded 
me a broad view of the successes of your marines in every clime 
and place. From Afghanistan, where nearly 20,000 marines are 
fighting a determined enemy today, to the current flood relief 
efforts that are ongoing in Pakistan, to the recapture of the 
pirated ship, Magellan Star, 12 days ago, and finally, to the 
5,000 marines and 7 amphibious ships who responded faithfully 
and with compassion to the earthquake victims in Haiti earlier 
this year, the courage, determination and selflessness 
demonstrated by your marines has been remarkable. Thanks to 
General Jim Conway's leadership, our marines have never been 
better trained or better led. They are simply magnificent.
    Today, your Marine Corps' focus is on winning the war in 
Afghanistan. That will remain the Corps' principal focus unless 
directed otherwise. Concurrent with those efforts, however, we 
will look to the future to determine what our Corps needs to 
look like to optimize its relevance in the uncertain times that 
no doubt will lie ahead. We will shape the Corps to be our 
Nation's shock force, ever ready to respond to a looming 
crisis. While we cannot predict the future, we can certainly 
prepare for it. If confirmed, I will do everything in my power 
to ensure that our Nation continues to have a Marine Corps that 
is ready to answer the call: always faithful, always ready.
    Finally, thank you for the legendary support that this 
committee has provided its Corps of marines over many decades. 
We exist today because of the will of Congress and the will of 
the American people. If confirmed, I'll look forward to working 
with you to meet the challenges that lie ahead. I pledge you 
will always have my honest assessment of what's required to 
maintain the health of your Marine Corps and the security of 
our great Nation.
    Thank you for the opportunity to come before this committee 
and I'll look forward to your questions.
    Chairman Levin. Thank you so much, General.
    We will have a 7-minute first round, and perhaps a second 
round for questioning.
    General, two fundamental elements of the Afghanistan 
strategy that the President announced in December 2009 are, 
first, a surge of 30,000 additional U.S. troops by the end of 
this summer, to regain the initiative; and second, the setting 
of the July 2011 date for the beginning of the reduction in our 
combat presence in Afghanistan, with the pace of those 
reductions to be determined by the circumstances at that time. 
Do you agree with the President's policy?
    General Amos. Mr. Chairman, I absolutely agree that this 
needs to be a conditions-based effort. Everything I've read 
since the President has made his announcement at West Point 
last fall indicates that the withdrawal will begin and doesn't 
stipulate specifically what that means in terms of force 
structure. Everything I've read since then would indicate that 
the withdrawal will be conditions-based. I have great 
confidence in the leadership on the ground and General Petraeus 
and General Mattis; they know how to fight an insurgency, or a 
counterinsurgency. I have every belief that they will give the 
President and the Secretary of Defense their best military 
advice.
    Chairman Levin. General, do you agree that the setting of 
that date, July 2011, is important for the success of our 
mission in Afghanistan because it signals urgency to Afghan 
leaders that they must, more and more, take responsibility for 
their country's security?
    General Amos. Mr. Chairman, I do agree with that. I think 
it's helpful, and I'm particularly pleased that it's also 
undergirded and backed up by the conditions on the ground. 
Everybody understands that. Yes, sir, I do agree with you.
    Chairman Levin. The United States and Japan, now, have 
recently reaffirmed support for an agreement that realigns U.S. 
forces on Okinawa and moves 8,000 marines and their dependents 
to Guam. The agreement obligates Japan to build a replacement 
facility for the Marine air station, and requires the detailed 
management of more than $10 billion worth of projects to 
complete construction of all operational requirements, housing, 
training ranges, as well as the upgrade to the civilian 
infrastructure and utilities on Guam.
    The agreement between Japan and the United States outlines 
which troops will move to Guam, with the units selected largely 
being headquarters units. However, there are reports that the 
Marine Corps would prefer to change the force mix to include 
more operational troops and fewer headquarters units. It's my 
understanding that the Marines believe that their preferred 
force mix would be more efficient and more effective.
    Are you satisfied with the force mix of marines that are 
planned to be moved from Okinawa to Guam, and is there a mix 
that you believe would be preferable to the mix that is 
currently planned?
    General Amos. Mr. Chairman, the original agreement was made 
many years ago. I was not present when that was agreed to. But, 
after we stepped back, about 2 years ago, and took a look at 
this, at the laydown, we determined, in the Marine Corps, that 
there probably was a better laydown. What it did was, in an 
effort to try to optimize the presence across the Pacific, this 
laydown put what we would call a Marine air-ground task force 
in each one of the locations. Instead of having predominantly 
headquarters on Guam, we looked at the opportunity to put a 
Marine air-ground task force there; one in Okinawa, as well; 
and, of course, we have one in Hawaii. So, yes, sir, we do have 
an adjustment to the laydown, and we're negotiating right now. 
We're working with the Office of the Secretary of Defense 
policy and State Department.
    Chairman Levin. It's also a concern, over the Marines' 
ability to adequately train, once the move has been made, a 
parcel of land which I believe is called ``Pa-gat'' or ``Pay-
gat''--do you know the pronunciation of that?
    General Amos. Yes, sir, it's ``Paggot.'' [Pagat]
    Chairman Levin. Pagat has been identified as the only 
suitable place for certain small arms and individualized 
training ranges. However, Pagat has cultural significance, and 
this has raised opposition, on Guam, to relocating marines to 
the island. Do you believe that there are other acceptable 
training options if Pagat is not available?
    General Amos. Mr. Chairman, I think this recent discussion 
on Pagat and the whole issue of Guam and training requirements, 
I know that it's still in the negotiation phase. I don't think 
there's been any final decision with regards to Pagat. I think 
the message that the Marine Corps would like to leave our 
brothers and sisters on Guam is that their rich history, their 
Chamorro history, is important to us. We've been great stewards 
of our training areas and our land. Camp Pendleton is a prime 
example, along with Camp Lejeune. We have every expectation 
that, if we get Pagat and we're able to fire our heavy weapons 
out there, our machine guns and our 7.62 weapons, that it will 
be satisfactory in the end to our brothers and sisters on Guam. 
We will be good stewards of that.
    For us, sir, the issue is forward presence in the Pacific. 
What is that optimal laydown of marines for our Nation to be 
engaged forward? The second is available training areas, as 
you've just talked about; the importance of the Marine Corps to 
be able to train and maintain their proficiency. Finally, the 
quality of life for those 9,000 marines and family members that 
will move eventually to Guam.
    Those are our concerns, sir. I think we can work around the 
Pagat issue, and I think it's heading that direction.
    Chairman Levin. Thank you. Relative to the ``Don't Ask, 
Don't Tell'' issue, the Secretary of Defense and the Chairman 
of the Joint Chiefs of Staff both support the repeal of ``Don't 
Ask, Don't Tell.'' They also have undertaken a study relative 
to how to implement that change, and that study is underway. 
But, the decision to make the change is one that they decided 
was the right decision before they undertook that study. It's 
how to implement it which is the subject of the study that they 
have undertaken.
    Now, the House and the Senate Armed Services Committees 
have both passed a provision which would repeal ``Don't Ask, 
Don't Tell'' if, and only if, the President and the Chairman of 
the Joint Chiefs of Staff and the Secretary of Defense certify 
to Congress that they have received and considered the report 
of the Department of Defense working group, and only if they 
certify that the implementation of a repeal of the statute 
would be consistent with the standards of military readiness, 
military effectiveness, unit cohesion, and recruiting and 
retention.
    I understand that you have indicated that you have opposed 
a change in the policy. However, my question is this: If such a 
certification by civilian and military leadership were made 
following receipt of that report, could you, if confirmed, 
implement a repeal of the ``Don't Ask, Don't Tell'' policy in 
the Marine Corps?
    General Amos. Mr. Chairman, the Marine Corps is probably 
one of the most faithful Services you have in our country, and 
if the law is changed by Congress and signed by the President 
of the United States, the Marine Corps will get in step, and do 
it smartly.
    Chairman Levin. Thank you. My time is up.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    Thank you, General. This is very interesting, in time, for 
you to be here in your confirmation hearing. I know that some 
of these questions are very difficult for you.
    In your written statement in response to a question from 
the committee, ``My personal view, the current law, and 
associated policy have supported the unique requirements of the 
Marine Corps, and thus I do not recommend its repeal. Primary 
concern with proposed repeal is the potential disruption of 
cohesion that may be caused by significant change during a 
period of extended combat operations.'' Is that an accurate 
quote from your statement, General?
    General Amos. Yes, sir, that sounds accurate.
    Senator McCain. Have you seen the ``study'' that is being 
conducted by the Department of Defense?
    General Amos. Senator, I did. I went through all 103 
questions.
    Senator McCain. You note that this ``study'' does not 
assess the impact on morale and effectiveness of repeal of the 
law. What it does is ask questions as to how the military would 
adjust to repeal of the law. Therefore, we're now basing a 
decision by the President of the United States, Secretary of 
Defense, and the Chairman of the Joint Chiefs of Staff, based 
on a study that does not get to the fundamental question, which 
is, ``What is the effect of repeal on morale and battle 
effectiveness?''
    This study, this questionnaire that's being sent out, 
assumes repeal of the law. An incredible act of disingenuous 
behavior on their part. The four Service Chiefs--you included, 
and General Conway--all--request and state their positions 
unequivocally that a study should be conducted that would 
determine the effect of morale and battle effectiveness on the 
men and women who are serving. By the way, that's also the view 
of the senior enlisted personnel.
    I guess my question is, with this survey, will you be able 
to determine what the effect on morale and battle effectiveness 
would be, or would this survey tell you how best the repeal can 
be implemented?
    General Amos. Senator McCain, I've been a big fan of the 
Secretary of Defense's effort to introduce the survey since its 
beginning. As I said earlier, I've gone through the entire 
survey, looked at every single question. I determined how I 
would answer it myself if I were taking it electronically, 
which I did not.
    There were two other parts, in addition to the anonymous 
survey.
    The survey is still underway, by the way. It's out there 
right now among our family members; it has gone out to the 
active force in all the Services, and the Reserve Force. The 
family members now are in the process of responding to the 
survey.
    But, there are two other aspects of that effort. The first 
one is kind of a townhall--they weren't called ``townhalls,'' 
but they were effectively townhalls--at many military 
installations around this country, led by senior leadership, 
asking questions, talking to them, getting input. The second 
part is an online survey, where all the servicemembers can 
respond. It's a little bit like a blog site, but not quite--and 
they get on, and you can respond. That's not anonymous.
    To answer your question: at the end of the day, when all of 
this information comes, to whoever is the 35th Commandant of 
the Marine Corps in December, will there be enough information 
to provide the Chairman and the Secretary of Defense best 
military advice? My sense with the survey, having read it, is, 
in addition to those other matters, sir, I believe we will. I 
believe whoever the Commandant is will be able to give his best 
military advice from it.
    Senator McCain. The response, both online and at townhall 
meetings, I have been told, has been overwhelmingly negative. 
Is that true?
    General Amos. Sir, I've heard, at the Marine bases and the 
Marine input for the online survey, it has been predominantly 
negative. But, I don't know that for a fact. I have not seen 
that.
    Senator McCain. Thank you. As you well know, later today 
the Senate will act without having that--whether the survey is 
valid or not--study completed. The Service Chiefs will not be 
required to sign off on any decision which is made, those that 
are given direct responsibility for the morale and battle 
effectiveness of their respective Services. Unfortunately, this 
is all being done in light of the November 2 elections--I've 
never seen anything quite like it in my years that I have 
served here--because, obviously, there will be a different 
composition of this committee and the U.S. Senate after 
November 2.
    I'm a little concerned about your response to the 
Chairman's question about Afghanistan. I've visited, with my 
friends Senator Lieberman, Senator Graham, and others, many 
times, Afghanistan. I get the opposite impression from people, 
ranging from a police chief outside Kandahar to President 
Karzai. All of them say that the fact that we have set a date 
for withdrawal, that we will be withdrawing, has caused a 
ripple effect which is very damaging to our ability to succeed. 
It doesn't give Karzai a sense of urgency. What it gives him is 
a sense of survival. It doesn't give the Taliban a sense that 
they are about to be exterminated. It gives them the impression 
that all they have to do is hang on.
    A high ranking Taliban captive said to his interrogators, 
``You've got the watches; we've got the time.''
    If it were condition-based, and conditions-based alone, 
there would be no one more supportive than this member. But, 
condition-based and saying that we will be withdrawing, no 
matter what, has sent a signal throughout the region, from 
India to Iran to Pakistan to Afghanistan: ``Hang on, adjust to 
the new realities, that the United States is leaving.''
    The President made the announcement of the withdrawal, 
through the middle of next year, with no military advice to do 
so, or recommendation to do so, whatsoever. It is the 
President's ability to make that decision, or any decision 
along those lines. But, to believe that this is somehow going 
to hasten success, when the fact is that it enhances 
dramatically the chances of failure. The present Commandant of 
the Marine Corps said that the withdrawal, the middle of next 
year, provides the enemy with sustenance. I wonder if you 
disagree with General Conway's assessment.
    General Amos. Senator McCain, I read the entire press 
conference that Jim Conway had about 10 days ago, 2 weeks ago, 
from start to finish. I've worked for him for a long time. He 
certainly made that comment. But, if you look at the entirety 
of the press conference, shortly thereafter, he's making 
comments along the lines of, ``If the Taliban in the Helmand 
Province think that the Marines are going to begin to withdraw 
the summer of 2011, and it's August and September, and they 
wake up and walk out to do their business, they're going to 
find marines there. They're going to be the most surprised of 
all.''
    Taken in its context of the entire article, that's really 
what I believe General Conway was talking about.
    Sir, as I look at the Helmand Province, I would say that 
there is great success going on there with the Marines. I can 
speak about that province. I don't think there's an expectation 
that there is going to be a wholesale withdrawal out of the 
Helmand next summer.
    Senator McCain. My time is expired, but the media reports, 
as short a time ago as today, that the progress in Helmand 
Province has not been as rapid as we had expected, nor is it in 
Marjah, and that we are going to have to plan for more 
difficult times ahead. Casualties are up. I obviously have 
different information than you do about the degree of success 
that we have achieved so far.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    General Amos, and your family, thank you for your devoted 
service to the Marine Corps and to the Nation. You have a 
challenging assignment, but we're all very confident you will 
perform magnificently in that assignment.
    With respect to the ``Don't Ask, Don't Tell'' issue, do you 
feel confident that you'll be able to give your uninhibited 
advice to both the Secretary of Defense and the President 
before they make any final decision, going forward, if you're 
confirmed?
    General Amos. Senator, I absolutely do. I think we're going 
to spend some time taking a look at what those results look 
like, and interpreting them. Exactly what do they mean, what is 
it telling the Service Chief. It will tell each Service Chief, 
probably, something a little bit different, because I think 
each Service has its own culture and will end up with different 
results. But, I'm told that whoever's the Commandant in 
December will receive that information that's specific to the 
U.S. Marine Corps. Based on that information, and whoever is 
Commandant, with 40 years of experience, I'm absolutely 
confident that whoever's in that job will be able to provide 
the Secretary of Defense, the Chairman, the best military 
advice.
    Senator Reed. Do you feel that, in this process, you and 
your colleagues have been significantly educated on the issue 
and on the potential impact, both the pluses and the minuses?
    General Amos. Senator Reed, I think there's parts of this 
that we've not peeled back yet. By that, I'm talking some 
policy issues, some standards-of-conduct issues, the issue of 
unit cohesion. We're not quite sure what the impact will be on 
a All-Volunteer Force, especially a young force like the Marine 
Corps--predominantly young; 60-plus percent of all marines are 
21 years or younger. So, we're not quite sure what the impact's 
going to be.
    I think that that's the important part of the survey; it's 
going to inform us, it is to give us a sense for that impact. 
But, it's too soon to tell.
    Senator Reed. Now, in the process of--and I think you're 
right about informing yourselves--in turns, you will be in a 
position--as you said, you feel confident you can inform both 
the Secretary of Defense and the White House about your 
perspectives and the perspectives of the Corps. But, I would 
assume, whatever decision is made, that will entail another 
process of education, of educating the marines, the sailors, 
soldiers, Army, Department of Defense, about the new standards 
of conduct that might be imposed. I think that's obvious.
    General Amos. Senator, you're absolutely correct. The whole 
idea that--beginning with certification--we are able to come 
back to Congress and be able to say, ``We have thought through 
the policies, we have thought through the legal ramifications, 
we've thought through the monetary ramifications, the impact on 
things from--like building barracks, base housing--we've 
thought through all these things, and we understand what we 
would call kind of the whole Doctrine, Organization, Training, 
Materiel, Leadership and Education, Personnel and Facilities 
(DOTMLPF), which is the whole horizon of things that will be 
impacted by this.'' That will be required before certification, 
the way I understand the language of the bill. There's a lot of 
work to be done, once the results come in, to work through that 
before the certification can take place. After that, there 
certainly will be training, there will be a whole host of 
different aspects, that we haven't even thought of yet, that 
we're going to have to spend time working through.
    Senator Reed. Let me just switch gears quickly to 
Afghanistan. The sense I had from your response was that you 
see that the policy of the United States is to sustain a 
position, long-term indefinite position, in Afghanistan. But, 
the size is the issue. The President clearly indicated, next 
July, that his intention is to begin to downsize forces there. 
Again, I don't want to put words in your mouth--but, I don't 
hear you saying that maintaining a long-term military position 
in Afghanistan requires having that size troop force there 
indefinitely. Is that an accurate deduction?
    General Amos. Senator, I honestly don't know--historically, 
in combat, we typically guess wrong. We guess incorrectly. We 
do our best to try to be clairvoyant, but we typically are not 
completely accurate. I mean, that's the nature of warfare. A 
little bit similar to Iraq. I don't think any of us believed 
that we were going to be in Iraq as long as we have, and I 
remember talking to people, thinking about Ramadi and Fallujah, 
when I was there, and thinking, ``Okay, we have about another 
year, and then we'll be done, and we'll be able to come home.'' 
Well, it was a long time after that.
    I don't know what's going to happen in Afghanistan. I am 
confident in the U.S. military force on the ground, both Army, 
Air Force, Navy, and Marine Corps. I really am. I just spoke to 
the Marine commander on the ground last Thursday for about 45 
minutes on a video teleconference. He's a personal friend, I've 
worked with him for years, deployed with him in combat, so I 
trust his judgment. He is very encouraged by what he is seeing 
on the ground in Afghanistan--in his part of Afghanistan right 
now, in the Helmand Province.
    Militarily, I have to believe that that's taking place with 
your military forces, probably throughout the other provinces, 
where other Service brothers and sisters are. I have an air of 
confidence that we're headed in the right direction with this 
thing. I can't tell you how long the forces will need to be on 
the ground. I know that there are pockets of the Helmand 
Province right now that are optimistically improving every day. 
I mean, there's marked improvement in place like Nawa, in 
places like Nowzad, that just a year ago were absolutely 
Taliban territory, now the district governor is setting up 
schools, and bazaars are open. I can walk down--and I did--walk 
down through those markets without any helmet or flak jacket 
on.
    I'm optimistic. The commander on the ground is. I'm 
optimistic about our military forces, of all our Services, that 
they'll be able to do their mission. I just can't tell you how 
long we're going to need to be on the ground, and what size 
force.
    Senator Reed. Just a final topic, and that is: The 
traditional role of the Marine Corps was to conduct amphibious 
operations, to go across the beach into areas denied us, anti-
access operations. Over the last almost 10 years now, the 
Marine Corps has been on the ground, not in amphibious 
operations, but in traditional land-based operations; mobile 
operations, ground operations. How much of this--your basic 
skill set being--has been diminished because of all this focus 
on other tasks?
    General Amos. Senator Reed, first of all, the skill sets 
for combat are still there. In fact, they're probably better 
honed today than they had been in the last 30 or 40 years of 
our Marine Corps history. Those young men and women, those 
NCOs, those young staff NCOs and lieutenants and captains, are 
fearless. They know what they're doing, and they're very 
effective. So, the combat effectiveness is there.
    We have, today, three Marine Expeditionary Units, which is 
made up of nine amphibious ships, at sea--one of them off the 
coast of Pakistan, doing the relief operation and taking down 
the Magellan Star; the other one sailed 30 days early from the 
east coast of the United States just to get over there to 
help--another great effort by our Nation to help the people of 
Pakistan in humanitarian assistance. Then we have the 31st 
Marine Expeditionary Unit at sea right now, down in the 
Southern Pacific, doing operations there. We have amphibious 
expertise in the Marine Corps.
    Have we spent a lot of extra time doing it, other than what 
I've just described? The answer is no. Will we need to get 
there? Yes, sir, we will. I think, as our dwell begins to 
increase in the Marine Corps, thanks to Congress approving the 
202,000 growth of the Marine Corps, it's finally getting us up 
to a point now where, when we come home with a unit, we can 
actually do something besides go to Twentynine Palms and do 
counterinsurgency training. We can actually do the kind of 
training that you're talking about.
    Senator Reed. Thank you very much, General.
    Thank you. My time's expired.
    Chairman Levin. Thank you, Senator Reed.
    Senator Sessions.
    Senator Sessions. Thank you, General Amos. Thank you for 
your service, and your family for their service. I am so proud 
of the Marines. I've had the opportunity, as I know Senators 
Levin and McCain have, and others on this panel, to visit with 
marines in serious combat areas, and seen their performance, 
their courage, their dedication. They're the kind of people 
that we have to support, affirm, help, and train, in every way 
possible, to make them successful. I know you believe that, and 
I believe that you have the opportunity to play a critical role 
in the continued development of the Marine Corps.
    One of the visits I remember to Iraq was with Senators 
Levin and McCain, and we received a terrible, I thought, very 
worrisome briefing at one of the worst points in the Iraq war. 
The Marines gave us that briefing in the Al Anbar Province. 
Later, the situation turned, with The Awakening. As we were 
briefed, on a second visit, the Marines--officers--briefed us 
on how they bonded with the local leaders, supported the local 
leaders, and they turned against al Qaeda and ran them out, 
pretty much, in short order, supported by the U.S. military, 
and particularly the Marine Corps.
    I know one war model is not precisely that of another one, 
but it seems to me that we do have to have a modest view of 
what we can accomplish in Afghanistan. We need to understand 
that the remote areas of Afghanistan have never been directly 
ruled by Kabul; and we're going to have to work with local 
leaders, much in the way that occurred in Al Anbar.
    You understand that discussion. I'm sure it's been going on 
within the Marine Corps. Would you briefly give your comments 
about how you see the central government in Afghanistan 
relating to distant provinces, and how we can best bring safety 
and security in some of those distant provinces?
    General Amos. Senator Sessions, you are absolutely correct 
as you look back on the history of Iraq. When you were there, 
it was probably places like Ramadi, which was one of the most 
dangerous places, probably, on the face of the Earth when you 
were there. Those tribal sheikhs, when they finally figured out 
that we were not the enemy, took their families--by the 
hundreds--and The Awakening began.
    It's a different culture--and you know that--in Afghanistan 
than it is in Iraq. There are not tribal sheikhs that have the 
generational power and authority that we had in Iraq. But, we 
do have tribal chiefs. There is a hierarchal of leadership that 
we're finding in Afghanistan. It's different, it's a little 
more difficult to work with. We are working with it on the 
ground right now. Probably 70 percent, maybe 75 percent, of 
those great lessons learned--certainly the fundamental lessons 
on counterinsurgency--apply in Afghanistan, the same way they 
applied in Iraq.
    But, the way we deal with the culture, the way we interact 
with the leadership of the tribes, is a bit different. There 
are what we call ``district governors'' on the ground in places 
like Golestan, Nawa, Nowzad, Musekaylah, Garmsir, all these 
different names that you read in the paper. There are district 
governors appointed by the central government. Some, quite 
frankly, are more effective than others. There was always the 
expectation that if the military came in and provided the 
security--in other words, we came into a town like Nowzad, 
which the Taliban had been in that town for almost 5 years, and 
they came in 5 years ago, and they ran the villagers off. The 
marines liberated that village in early December of this past 
year. I went through, in December, and spent Christmas with the 
marines there, and walked through with the district governor. 
There's a good example of the central government providing a 
really strong district governor. He went in there, cleaned the 
place out, they rebuilt the marketplace, rebuilt the school.
    Each one of these little districts, with their governor, 
some are more effective than others.
    I'll tell you, I think that the key is, we can provide the 
security, but the central government needs to ensure that the 
government's part of helping that country is in place.
    Senator Sessions. I appreciate that. It's just the extent 
to which you believe that the central government is able to 
impose its will and order in distant provinces as a realistic 
goal is something that I think we have to wrestle with, and we 
don't need to be too optimistic about that. We need to be 
willing, in my view, to accept that--what happened in Al Anbar 
is, those local leaders brought in their children, their 
family, their young people, and they took it over without too 
much direction from Baghdad.
    Let me ask this, with regard to Senator McCain's questions 
on ``Don't Ask, Don't Tell.'' I'd like to say I share his 
views, in general, there, and was disturbed to read, recently 
in the Washington Times, that a general--an Army general--
General Bostick--who is the deputy chief in charge of personnel 
matters, spoke before several hundred troops in the European 
Command headquarters in Germany, and said, ``Unfortunately, we 
have a minority of servicemembers who are still racist and 
bigoted, and you will never be able to get rid of them all.'' 
He said, ``But, these people opposing this new policy will need 
to get with the program. If they can't, they need to get out. 
No matter how much training and education of those in 
opposition, you're always going to have those that oppose this 
on moral and religious grounds, just like you have racists 
today.''
    General Amos, you'll be setting the policy for the Marine 
Corps. How do you feel about what would appear to be a message 
that if you have traditional values, that you don't have a 
place in the military?
    If the policy changes all should comply with it, do you 
believe that any marine, or any Marine officer, is not able 
then to express a personal opposition to that policy without 
being attacked?
    I will note that, apparently, the general later said those 
words were taken out of context and not totally accurate. But, 
it raises the question that's an important question.
    General Amos. Senator Sessions, again I can't comment on 
that. I know the general from dealings, but I can't comment on 
it, because I wasn't there and I don't----
    Senator Sessions. Well, I want to know if you think it's an 
appropriate leadership position of the military, if this policy 
is adopted, to not allow people to have different views, and 
for them to get out of the military?
    General Amos. Senator, if we step away from the ``Don't 
Ask, Don't Tell,'' there are lots of things that go on today in 
the American military that the average marine out there might 
not agree with. But, the one thing we have in the Marine Corps 
is discipline. We have leadership. Those are the two things 
that I think will carry the day for us, should the law get 
changed. But, there's never been a gag order, and I don't 
anticipate one being put on marines. In fact, I would probably 
say that one of the rites of passage of being a young, enlisted 
marine is to be able to grouse. We do that, and they do that, 
and I did it as a lieutenant. Sir, I don't see that that would 
be an issue. I think leadership and discipline----
    Senator Sessions. Do you condone that kind of comment, if 
it was an accurate quote?
    General Amos. I'm sorry, Senator----
    Senator Sessions. Do you condone that kind of leadership 
from this lieutenant general?
    General Amos. Sir, I try to shy away from him and his 
comments, but I will tell you that, from my perspective, this 
is leadership. It's fundamental leadership and discipline. I 
don't see this as a racist issue. I don't see these as an issue 
of--I'm mean, it's an anxious issue for the Marine Corps, 
because we don't have any answers yet. We will get those. But, 
I don't see this in the same light as it was reported.
    Senator Sessions. I think good people can disagree on this. 
I think the military can survive changes. They have had changes 
before. But, as Tommy Sears, Executive Director of the Center 
for Military Preparedness, said, ``There will be no toleration 
of dissent. If, for whatever reason, you disagree, whether it's 
religious conviction or personal objection, your career will, 
in essence, be over.'' Do you think that's--that wouldn't be a 
policy--a view you would support, would it?
    General Amos. Sir, when he said that----
    Senator Sessions. Wouldn't you take action to protect 
someone who genuinely disagrees with the change, but is willing 
to live and work in the military, in accordance with that 
change?
    General Amos. Sir, we will. There's no question about it. 
I'm going to brag just for a minute. We are the most 
disciplined Service of all the ones that you have. We follow 
orders. The answer is, ``Absolutely, yes, we will.'' The last 
thing we'd want to do is to be able to not have--if this policy 
is changed, the last thing you're going to see your Marine 
Corps do is try to step in and push it aside. That will simply 
not be the case. There'll be issues; we're going to work 
through them----
    Senator Sessions. I'm not saying putting it aside, I'm 
saying respect somebody in the Marine Corps who didn't approve 
of the change, has genuine moral or principle opposition to the 
change. Will that be respected? Is their career going to be 
over?
    General Amos. Sir, unless there is something that happens 
that I'm unaware of, that career will not be over. We have 
plenty of issues out there where marines disagree. They 
disagree vocally, and you read about it in our publications.
    Senator Sessions. Thank you. I was just troubled by this 
comment by a top-ranking Army officer.
    Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    First, a minor correction for the record, if I may. When 
Senator McCain mentioned that General Amos would be the first 
Commandant not from the infantry ranks--as he and I discussed 
when he visited with me last week, General Chapman was an 
artillery officer and was a great Commandant. So, he certainly 
will be the first marine aviator to hold the Commandant rank. 
But, out of my profound respect for General Chapman, who was my 
Commandant when I was a marine, I think we ought to give him 
credit for his own military occupational specialty.
    General, I would like to thank you for the precise way that 
you have addressed this issue, on ``Don't Ask, Don't Tell,'' 
particularly with respect to the survey that was mandated after 
the hearings in February, when Secretary Gates and Admiral 
Mullen came forward and began this process. Because, I had an 
exchange with them, at the time, where it was my 
understanding--and I said it to them after their opening 
testimony--that the survey was vitally important, for two 
reasons. One is to make sure that those who we're surveying 
were a part of this process. Not the decisional process, not 
the political process, but that their input was vital, in terms 
of moving forward. The second, as you mentioned, was that this 
type of a survey would enable the military leaders to provide 
their best advice. I think you've made that point clearly 
today. It's the reason I've had hesitations about moving 
forward at this time. I just wanted to thank you for the 
precision with which you have answered these questions.
    We are going to have the opportunity, obviously, in the 
future, to discuss the major policy concerns, some of which 
you've been asked about today: the nature of the war against 
international terrorism; how we are deploying our forces 
operationally in places like Afghanistan; the drain on our 
people, operationally, with this type of structure. Second, the 
very key issue coming up now about the roles and missions of 
the Marine Corps.
    As I think most marines fully understand, marines do 
amphibious operations well. They have, historically. But, the 
amphibious role for the Marine Corps came out of the fact that 
they've always been on a cutting edge of tactical change. They 
developed the amphibious doctrine in the 1930s, after looking 
at what happened in World War I, and became the predominant 
innovators, but they're not simply amphibious warriors. If you 
look at--preaching to the choir here, but I think our 
colleagues need to understand this--the casualties from World 
War I, Vietnam, Korea, very few of those had anything to do 
with amphibious warfare.
    We are going to have to address, seriously, the 
reconfiguration of the Marine Corps forces in Asia. I spent 
some time as a military planner in Guam, Tinian, in the 1970s, 
putting together a facilities analysis out there then. I 
actually was very encouraged to hear your comment about moving 
more operationally into the Guam area, rather than 
headquarters. I think that fits Guam. I think we need to look 
more at Tinian, per se, particularly in terms of the ability to 
have firing ranges and small maneuver areas out there. I was 
out there again, this past February, looking at the training, 
going to Okinawa and then down into that area.
    But, today what I would like to get your thoughts on is 
something a little more provincial, but it's kind of disturbing 
to me, as I mentioned to you in our meeting. That is this 
legislative initiative that is moving forward to change the 
name of the Department of the Navy to the Department of the 
Navy and Marine Corps. When you talk about troops grousing and 
sitting around having a beer, this is something that came up 
many times over my many years of association with the Marine 
Corps, but in my view, there's some demagoguery going on over 
here on this issue. I'm not really sure what utility changing 
this name would bring about.
    Just to be frank here, it never bothered me, when I went to 
the Naval Academy, that I didn't go to the Naval and Marine 
Corps Academy. It didn't bother me when I was awarded the Navy 
Cross, that it wasn't a Marine Corps Cross. It didn't bother 
me, when I was Secretary of the Navy with responsibility for 
the Navy and Marine Corps, that I didn't have that title. I 
think that 235 years of tradition and excellence sort of 
answers the question.
    I'm trying to figure out, on the one hand, what's the 
upside of doing this? What is the impact, in terms of 235 years 
of tradition, if we do it?
    General Amos. Senator, all the former Commandants that have 
been asked this, for as long as I probably can remember being a 
general officer, have elected to stay out of this. They've 
elected to make comments such that this is a political effort--
and that's not a disparaging political effort--but this is a 
political effort, and it's probably not appropriate for the 
Commandant of the Marine Corps, as a Service Chief, to weigh in 
on. That's the current position of General Conway.
    Sir, I'd like to maintain that position. I'm not sure I'm 
going to be allowed to today, but I'd like to be able to 
maintain that. I am comfortable with that.
    I've thought through this a lot. You and I discussed it 
last week in the office call. But, at this point, I'd like to 
keep it that way. Now, is that going to be satisfactory, or do 
I need to dig into this a little bit more, here, and reveal 
myself?
    Senator Webb. Let me just ask people in the Marine Corps to 
be careful about this. There's an old saying, ``It takes 200 
years to develop a tradition, and 2 days to destroy one.'' If 
there is a serious upside that you don't want to discuss right 
now, I'm happy to listen to it.
    But, I think we ought to, at a minimum, really examine the 
impact that this would have, beyond what people are thinking 
about, in terms of maybe getting a more equal place in a budget 
process or something like that.
    General Amos. Sir, we talked budget the other day, a little 
bit, the process--just as the Commandant of the Marine Corps 
was not a member of the Joint Chiefs of Staff in the middle 
part of the last century, and that evolved; he wasn't invited 
to meetings at things like the Key West Agreement, when roles 
and missions were established for our country and for one of 
the great warfighting forces that clearly had a significant 
contribution in the Pacific--you have to wonder, ``Well, how 
did that happen?'' But, it was in the early 1950s, the 
Commandant of the Marine Corps was finally made a member of the 
Joint Chiefs of Staff.
    This whole process has been evolutionary since the 
beginning of the Department of the Navy. I think if you talk to 
the marines out there--I haven't gone out for a survey, but my 
instincts, in talking to marines, are that where we are in 
2010, today, because of where we have evolved, we are a pretty 
formidable force for our Nation. I think just viscerally--and 
this is subjectively, this is not that part that has analysis 
behind it--I think, subjectively, the average fleet marine 
would look at the Secretary and say, ``Yes, I'd like him to be 
called the Secretary of Navy and the Secretary of the Marine 
Corps.''
    Now, is that worth breaking those years of traditions? I'm 
not sure it is, but that's really kind of the basis behind it, 
sir. We paid a pretty healthy price in the last 9 to 10 years 
of combat, and we feel pretty relevant right now.
    So, that's it. It may not carry the day, but that's kind of 
a heartfelt answer.
    Senator Webb. The Marine Corps has always paid a heavy 
price, in every war, from World War I, particularly, forward. 
We know that. They've had the higher percentage of casualties. 
We took 103,000 killed or wounded in Vietnam. At the same 
time--and I know--if you and I'd have sat down over a beer in 
1969, people would say, ``Yes, why can't we be the Secretary of 
the Navy and Marine Corps?'' But, just think about the other 
implications here. I'm not sure people have really studied the 
other areas that this might affect.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Webb.
    Senator Brown.
    Senator Brown. Thank you, Mr. Chairman.
    General Amos, I'm honored to meet you. I've seen you on TV, 
as well. I know we met behind there, you referenced that, but 
I've also seen you on TV and in the newspapers. Thank you for 
your service--you and your family--and the sacrifice that your 
family has made to support your career.
    I was wondering if you could help define what you feel the 
Marine Corps' mission, post-Iraq and, hopefully, post-
Afghanistan, will be, if you have some general thoughts on 
that.
    General Amos. Senator Brown, thank you for the opportunity 
to maybe take the committee to a little glimpse of what we in 
the Marine Corps see in the future of the Marine Corps.
    The title of ``America's Expeditionary Force and 
Readiness'' captures it. It needs a little bit of explanation, 
but that's the overarching sense for what we need to provide 
our Nation.
    The Nation pays a price in readiness for its Marine Corps. 
In other words, to have a force that is ready when the 
President says, ``Send in a force. We have a crisis that is 
either brewing, that we want to circumvent, we want to 
terminate, we want to intervene on, early on,'' that requires a 
force that's ready.
    The Marine Corps needs to be that force and readiness. As 
we come out of Afghanistan, what I pledge this committee, if I 
become the 35th Commandant, is, we will maintain that force of 
readiness. I think our Nation expects it. That's why the motto 
of ``Send in the Marines'' resonates so well across this 
country. That's the first piece, is the readiness.
    The second piece is, I think we need to be forward-
deployed. Whether it be the Pacific or whether it be down in 
Africa, engaging in countries with what we would call Theater 
Security Cooperation, engagement with nations in war-prevention 
activities, the ability to train armies, the ability to be 
present and help nations train their forces--I think that's a 
vital role of the Marine Corps.
    Finally, I'd say that we need to be the Nation's crisis 
response force. Not everybody can be that. We need to be light 
enough to get there rapidly and heavy enough to carry the day 
for whatever the crisis is. It's our intention to refocus 
ourselves back on that ability to be our Nation's crisis 
response force. So, when the President says, ``Send in the 
Marines,'' we're either there or we can get there, and we can 
get there rapidly. That's going to be the focus of effort for 
the next 2 decades, once we come out of Afghanistan.
    Senator Brown. That being said, do you feel that you have 
the tools and resources you will need, especially based upon 
some of the cuts that are being proposed? Will you have those 
tools and resources, not only to do the job, but to keep your 
men and women safe?
    General Amos. Senator, we have what we call a Force 
Structure Review Group going on right now. In simple terms, 
that means we have an effort, by some of our best minds in the 
Marine Corps, to determine what the shape of the Marine Corps 
will look like, post-Afghanistan. What should it be? How many 
size units? What should be the composition of those units?
    Based on the results of that, which we should see in the 
early part of January, that will help us determine, ``Do we 
have the assets?'' We may have the organic assets right now.
    I do know that the equipment that we have in Afghanistan is 
going to have to be what we call ``reset.'' It's either going 
to go into depot-level maintenance and get completely 
refurbished or we're going to have to replace it. There is a 
reset bill that is out there to kind of help the Marine Corps 
get well, post-Afghanistan.
    It's too soon for me to tell, ``do we have the resources 
right now?'' I know that we'll be reshuffling the deck. I know 
that we'll--whenever that Force Structure Review Group comes 
out, and the Secretary of the Navy approves that, then we're 
going to begin to reorganize the Marine Corps. That will 
determine, then, what those assets and really it turns out to 
be money, ``what's going to be required to help reorganize the 
Marine Corps?'' So, it's too soon to tell right now.
    Senator Brown. How is the troop morale with all the 
deployments? The family morale, quite frankly? How are you 
working through the family assistance issues and trying to keep 
that family unit strong?
    General Amos. Sir, first, the issue on troop morale. It's 
interesting. While these are, you could say, some of the 
toughest times, these are also the best times. The morale among 
the marines is sky high. If you visit them--or, when you visit 
them down in the Helmand Province--and they're living in some 
pretty tough conditions, some of them are living in what we 
call ``tin cans,'' those small little trailers up at Camp 
Leatherneck. But, the bulk of those 20,000 marines are out, 
deployed in small little villages, living in pup tents, haven't 
had a bath in, in some cases, 30 days, eating meals ready-to-
eat, and living a pretty hard life. But, they're a happy lot. 
It's almost an oxymoron; I mean, it's almost counterintuitive 
that you could take young men and women and put them in an 
environment like that, or promise them that they're going to go 
to an environment like that, while they're in their training, 
and they'd be happy about it.
    The morale among the marines is happy. Our recruiting is 
up. In fact, if you signed up today, in September, to be a U.S. 
marine, an infantryman, you couldn't go to Parris Island or San 
Diego until probably around February or March. We're backed up 
with the number of applicants. That part is exceptional.
    My sense on that is that marines are actually getting to do 
what they signed up to do. We promise, ``You come in, it's 
going to be tough. You're going to join us, we're not the least 
bit interested in joining you. You join this elite 
organization, this warfighting organization, and we're probably 
going to put you into harm's way.'' My sense is, we're 
fulfilling our part of the promise, and I think that the young 
men and women are attracted to this. That's the first part.
    The second part of it is the morale of the families. I 
think that's the part that I worry the most about, because it's 
tough. It was exciting for the first couple of years. We have 
some of the best family readiness programs in the entire 
military. But, my sense right now is, our families are getting 
tired. We have families that are on their fifth and sixth 
deployment.
    So, when you start talking families, even though we're 
caring for them well, and we're reaching out to them, and we're 
doing everything in our power to put arms around them, our 
families are getting tired.
    Senator Brown. Thank you, Mr. Chairman.
    Thank you, sir. Good luck.
    Chairman Levin. Thank you very much, Senator Brown.
    The National Defense Authorization Bill is hopefully going 
to be coming to the floor at 11 o'clock. There'll be a cloture 
vote on that bill at 2:15 p.m. I must go to the floor, and 
Senator Goodwin has kindly offered to take the gavel. We 
appreciate that.
    I leave, with thanks again to you, General, and to your 
family, for your tremendous service, for your forthright 
answers here this morning. I wanted to pay, especially, thanks 
to your grandson, Charlie. He has sat there all morning, 
looking interested in what Grandpa had to say.
    I have five grandkids, and I know what a task it is to 
listen to your grandpa answer some technical questions for hour 
after hour. But, he deserves some kind of a medal for his 
wonderful behavior here today.
    Thank you for your passion for the Marine Corps. It came 
through very loud and clear this morning, and it's very 
inspirational to them and to us.
    So, Senator Goodwin, I'll turn the gavel over to you.
    Senator Goodwin [presiding]. Senator Hagan.
    Senator Hagan. Thank you, Senator.
    General Amos, I'm thrilled that you've been nominated to be 
the next Commandant of the Marine Corps. I can't think of 
anybody more qualified than you.
    I want to say thanks, again, to your wife Bonnie, your wife 
of 40 years, and Jaymie and Molly and Charlie. You and your 
family have committed so much, and I just thank them for their 
support for our country. It means a lot.
    I am extremely proud of our marines, especially their 
brilliant execution of military operations in Iraq and 
Afghanistan. North Carolina is honored to host the Second 
Marine Expeditionary Force and the Marine Corps Special 
Operations Command. Our marines have led the way in Regional 
Command South and Regional Command Southwest in Afghanistan; 
specifically, the Helmand and Kandahar Provinces.
    General Amos, before I get to my questions, I wanted to 
emphasize that I do look forward to working with you on the 
historical Camp Lejeune water contamination issue. It is 
certainly an issue that I am very committed to and feel 
strongly about. Affected marines and their families need 
closure.
    But, what I want to ask you about first is: The geographic 
combatant commanders have increased the demand for forward-
postured amphibious forces capable of conducting security 
cooperation, regional deterrence, and crisis response, such as 
the July 2006 noncombatant evacuation operation in Lebanon. 
This need for increased amphibious capabilities is emerging in 
the wake of geopolitical strategic uncertainties, increased 
challenges to access, and limited amphibious assets. The 
requirement for amphibious ships that has been agreed upon 
within the Department of the Navy is 38 ships. But, I'm aware 
that risk was accepted in reducing the amphibious fleet to 33 
ships. However, my understanding is that we are currently down 
to 31 amphibious ships, with that number possibly falling even 
lower.
    As Commandant of the Marine Corps, with a statutory 
requirement to organize, train, and equip forces in support of 
combatant commanders, are you concerned that further degrading 
amphibious capabilities may be imprudent? What capabilities 
might be lost with further fleet reductions?
    General Amos. Senator Hagan, thank you for the opportunity 
to talk about something that's been kind of my life for the 
last 4 years, both down at Quantico, as the head of 
requirements, and now the last 25 months, as the Assistant 
Commandant.
    Just bragging for a moment, the amphibious ship is, in my 
estimation, the most utilitarian vessel that is afloat within 
the U.S. Navy. You can do combat off of that ship, you can do 
humanitarian assistance operations off that ship.
    When the terrible earthquake happened in Haiti, seven 
amphibious ships went to their rescue. When the port was 
completely clogged and the airfield was a mess with airplanes 
and you couldn't fly people in and out and you couldn't get 
supplies in and out, those seven amphibious ships pulled off 
the coast. Out of them, both in helicopters and on seaborne 
craft, both the aircushion vehicles and on our Amtracs, our 
amphibious tractor, came marines, came sailors, came engineers, 
came equipment, came water, came medical supplies. They were 
there for over 45 days, providing command and control, 
providing those capabilities, bringing Haitians out to our 
ships, to our surgery units. So, there's a great example.
    But, what most people don't remember is when Katrina hit. 
When Katrina hit, I was down at Camp Lejeune at the time, and I 
think it was four or five amphibious ships sailed from Norfolk, 
and they swung by Camp Lejeune, Morehead City, and then off the 
beach at Onslow Beach. We loaded equipment, we loaded 
bulldozers, we loaded front-end loaders, we loaded big 7-ton 
trucks, water, food, communications equipment. No weapons were 
taken. We just put marines on those ships, along with the 
sailors. Once Katrina passed through, one of those big 
amphibious ships pulled pier-side in downtown New Orleans and 
provided the central command and control in the early stages of 
the aftermath of Katrina. Those amphibs pulled off the coast of 
Mississippi and off the coast of Louisiana, and they sent out 
their marines in those amphibious tractors and those aircushion 
vehicles, and they came across beaches that were otherwise 
unaccessible.
    You know what's just happening right now in Pakistan, with 
the three amphibious ships there. Not only are they flying 
combat operations in Afghanistan with their Harriers, they're 
also flying relief operations up in northern Pakistan, all the 
way up, with their CH-53 Echo helicopters. Then they managed to 
take one of their ships, the Dubuque, and go over and take down 
the Magellan Star and rescue the crew from the Somali pirates.
    We just launched the 26th Marine Expeditionary Unit, which 
is one of yours, from North Carolina. They left, a month early, 
to sail and get off the coast of Pakistan. They should be there 
by the end of this month. There's a further testimony to the 
fact of the utilitarian value of amphibious ship.
    So, not only in these Marine Expeditionary Units are they 
valuable, but one at a time they are. They can pull off and 
operate off of Africa with what we would call a Theater 
Security Cooperation Mission. They can bring engineers, they 
can bring medical and dental. It is a one-stop-shopping 
operation. I think the value of this ship is absolutely 
paramount.
    We have a Secretary of the Navy that believes in that. 
You're absolutely correct, we have agreed to a fiscal 
constraint of 33 ships. Everything we do now is informed by the 
budget, and I know you appreciate that. We are sitting at 31 
ships today. We are going to go down over the next couple of 
years. But, as we look at the Future Years Defense Program 
(FYDP), the fiscal defense planning effort--by the end of this 
FYDP, by the time we hit fiscal year 2016, we should be back up 
to 33 ships. Some of those ships will be brand-spanking-new 
ones. So, we're excited about it.
    Is 33 enough? We're not quite sure yet. It's certainly what 
we've agreed to. Over this Force Structure Review Group, we'll 
make a determination exactly what the right amount is.
    Senator Hagan. Thank you. I wanted to ask about wounded 
warriors. One of my priorities is to ensure that Wounded 
Warrior programs across the Services effectively assist our 
wounded warriors to reintegrate into their operational units, 
transition to another military occupational specialty, or 
transition to a productive civilian life. I know that the 
Marine Corps' Wounded Warrior Regiments have played a vital 
role in this regard.
    What are your thoughts on the long-term needs and 
requirement for the Wounded Warrior Regiment?
    General Amos. Senator Hagan, my personal opinion on the 
Wounded Warrior Regiment, the whole approach that has been 
taken to care for our wounded--and our ill and injured, by the 
way--we put our arms around all of them--I think it's become 
legendary. I think it was prescient, I think it was something 
that came in its time.
    I was speaking to a group, on Saturday night down in the 
Marine Museum, that had raised money to care for the families 
of our wounded. I likened the evolution of how we started this 
war, in 2003, to where we are today, as kind of like building 
an airplane while it's in flight. We weren't sure what all the 
requirements were, but over time we've evolved to this thing 
called the Wounded Warrior Regiment, with two battalions, one 
on each coast. I think it's probably one of the greatest 
success stories coming out of this war.
    My sense is that it will be around for a long time. I'm 
having a hard time envisioning when we're not going to do that. 
I say that for two reasons. One, I think the wounds of this war 
will be with us for a while. Even if we stopped 2 years from 
now, and came wholesale out of Afghanistan, or came next month 
out of Afghanistan, the wounds of this war are going to be 
there for a while, and our young men and women are going to 
need the care. We also have the typical things that happen to 
our young men and women: cancer, accidents, tragedies that 
happen. That is the ill and injured that find their way into 
our Wounded Warrior Battalions and their care. I think it'll be 
around for that.
    The second reason is that I think the world that we live in 
is going to require of its marines to live in some of those 
nasty, tough places to do the bidding of our Nation. I think 
we'll probably have wounded marines for the next decades to 
come, and they'll need a place to go, they'll need a place to 
refit and rearm.
    You mentioned the care for them. I just talked about that. 
I think it's absolutely first-rate. We have an effort underway 
to help them reintegrate in the Marine Corps, change their 
military occupational specialty. Truth of the matter is, most 
of our young men that are wounded are infantryman. You've met 
them in the hospital. The very first thing they say in the 
hospital is, ``I want to get back to my unit.'' Now, they may 
be missing a leg or an arm, or both legs, but, ``I want to get 
back to my unit,'' that's the first order of business. From 
their recovery, the second piece is, ``Okay. Now, that it looks 
like I may recover, I want to get back to being an 
infantryman.'' Truth of the matter is, in some cases, they may 
not be able to. In those cases, we work very deliberately to 
try to help them move into another military occupational 
specialty. It takes a while for them to get to a point where 
they're willing to do that.
    Finally, the matriculation back into civilian society. 
Ma'am, I know you know this. We work hard. We are plugged into 
industry. We are plugged into folks that want to hire wounded 
warriors. I was sitting at that dinner, on Saturday night, and 
I will not mention the major defense industry corporation, but 
there was a retired marine there that was employed by them, and 
he had just hired 32 of our wounded marines. There's that kind 
of effort that's going on across our country. It's a great 
newsstory.
    Senator Hagan. My time is up, but I want to thank you for 
your service. I look forward to your confirmation.
    Thank you.
    Senator Goodwin. Thank you, Senator Hagan.
    Senator Chambliss.
    Senator Chambliss. Thank you, Senator.
    General Amos, thanks to you and your family, for your 
commitment to freedom and democracy. Your nomination to be the 
next Commandant speaks to that commitment, as well as your 
leadership to our Nation. For that, we're very appreciative.
    I want to publicly thank the current Commandant, General 
Conway, who's been such a great asset, not just to the Marine 
Corps, but to our Nation, with his over 40 years of service. To 
the two of you, thanks for what you do every day.
    I intended to ask you a little bit about the resources at 
our logistics bases, because we have a Marine Corps Logistics 
Base (MCLB) at Albany, GA, and we're very proud to have the 
Marine Corps located in our State, and particularly that 
facility. The relationship between the community and MCLB is, I 
think, unparalleled. I think you've addressed that resource 
issue, so I'm not going to get to that.
    But, I do want to ask you about this July 1 deadline. I'm a 
little bit confused about your answer to that. I, frankly, 
think it's a huge mistake to have that deadline out there. Just 
like Senator McCain, I think it alerts our enemy that they can 
sit back and wait on us. I understand that you're saying that, 
just because you support the July 1 withdrawal, that, in August 
and September, if a bad guy raises his head, a marine is going 
to be there to take it off. But, that's what confuses me. Why 
do we want to tell them that we're going to even begin 
withdrawing in July, if, in fact, we are going to be there in 
August or September, or even in 2012, if need be, to finally 
achieve the mission to which you've been assigned?
    General Amos. Senator, obviously, I can't speak for the 
President. He's my Commander in Chief. He made the 
announcement. He's reconfirmed that. But, my sense, since he's 
reconfirmed that, is the leadership of the Department of 
Defense, the leadership of our combatant commands, leadership 
on the ground in Afghanistan, has confirmed to me that they're 
confident that the right decisions will be made. Those type of 
warfighting decisions that commanders--only commanders on the 
ground have access to the full situational awareness. I'm 
confident in the abilities of David Petraeus and Jim Mattis. I 
believe in our Secretary of Defense; I know he has our best 
interests at heart.
    Nowhere have I seen a deadline tagged onto the backside of 
the July 2011 announcement. In other words, there's not been a 
deadline that, ``at this date, the last U.S. service man or 
woman will be out of Afghanistan.'' I'm led to believe, and I'm 
led to be encouraged, that this not a precipitous as a cliff. 
July 2011 is not a cliff that we'll fall off; it will be some 
type of gradual decline. I can't speak to what that decline 
will look like or how rapid that decline will take place. I 
just go back to the fact that the commanders on the ground, who 
know best, are going to have a great amount of say about what 
forces come out at what rates, or where they need to be 
realigned. That's where I fall in on this.
    Senator Chambliss. Are you confident, beginning July 1, 
2011, that the withdrawal rate's going to be dictated by 
conditions on the ground?
    General Amos. Sir, I believe, first of all, that the 
President said, ``a withdrawal will begin.'' I believe that 
when President speaks, there'll be a withdrawal that will take 
place. Absolutely. What that will look like, I don't know. But, 
again, to answer your question specifically, I am confident. I 
am confident, at the leadership, that they're going to make the 
best decisions. We've paid a price for this. There are young 
men and women's lives that we've lost in that country. Those 
commanders on the ground have knowledge of that. They're not 
going to let those lives go in vain. I'm confident that the 
leadership will be able to have a direct input on this, 
Senator.
    Senator Chambliss. Let me switch gears for just a minute. 
Your background is in aviation. How comfortable are you with 
the 2012 IOC date for the F-35B? Do you believe it will be 
obtained? What are the possible alternatives if that IOC date 
is not achieved?
    General Amos. Senator, I've watched this program, since its 
birth, having been the Assistant Deputy Commandant of Aviation, 
as we've made the decisions to buy the Joint Strike Fighter, 
skip a generation of airplanes, and take a what we call a 
``procurement holiday'' while we waited for the Joint Strike 
Fighter. It's an exciting time for us.
    There are five Marine Corps Joint Strike Fighters flying 
over Patuxent River, Maryland, right now, going through test 
and evaluation, all the scheduled testing that has to take 
place, for an airplane or a new weapons system. So, they're 
over there now. Indications are, they're behind on their test 
schedule some, not a lot, but the airplanes themselves are 
flying very well.
    Our IOC, in December 2012, will give us 10 airplanes, and 
will give us the aircrew that are combat ready and ready to 
deploy. When you think about what that would mean to our 
Nation, to have its very first fifth-generation fighter attack 
airplane in our inventory, ready to deploy, or should something 
happen, is pretty significant. The Marine Corps are holding 
pretty firm on wanting to maintain that 2012 December IOC.
    Now, if the IOC slides to the right, then it will slide to 
the right, and we'll still have an IOC somewhere, hopefully not 
too many months after that, that we'll end up with a 10-plane 
squadron, fifth-generation aircraft, ready to deploy anywhere 
in the world.
    It's pretty important to us. I think it's important to our 
international partners. We're partnered with Italy and Spain 
and Great Britain, on the short takeoff and vertical landing 
variant, which the Marine Corps will be flying. Our IOC 
encourages them and shows them a record of progress. I think 
it's pretty important that we maintain that, if at all 
possible.
    Senator Chambliss. Your aviators in the Marine Corps have 
been very patient. We've experienced, as policymakers, the same 
frustrations you've experienced with this program. But, 
hopefully we're on track now and we're going to see that 2012 
IOC date reality, because I know the value of this weapon 
system to your inventory. I know how much it's going to mean to 
you as we go ahead down the road.
    Thanks very much for your service. We look forward to your 
confirmation.
    General Amos. Thank you, sir.
    Senator Goodwin. Thank you, Senator.
    Senator Burris.
    Senator Burris. Thank you, Senator Goodwin.
    Congratulations to you, General Amos.
    Earlier this year, during a trip to San Diego, I had the 
opportunity to visit the Marine Corps Air Station at Miramar 
and the Marine Corps Recruit Depot. Both visits reinforce my 
intense respect and admiration for the men and women who serve 
as marines. Based upon the exceptional career of General Amos, 
I am confident the President has made the right choice in his 
nomination for the next Commandant of the Marine Corps.
    Additionally, I would like to thank you, personally, 
General Amos for your continued service and dedication to our 
great Nation, because of individuals like you that make this 
Nation great. I'm pleased to extend my appreciation to your 
wife, Bonnie, and your family, for what she does to support the 
spouses and families of our marines and sailors.
    Mr. Chairman, I have a couple of questions I want to submit 
for the record, which my staff will do.
    I am very concerned, General Amos, in reference to the 
position on ``Don't Ask, Don't Tell.'' Please let me understand 
that your position is that, individually, you do not support 
the statute change. Is that correct?
    General Amos. Senator Burris, I do not. I don't because, if 
confirmed, I'll represent all those 202,000 young men and women 
that wear this uniform. I don't know, yet, what the impact on 
unit cohesion will be. I don't know yet what the impact on 
recruiting and retention will be, and our combat readiness. 
There's nothing more intimate in life than combat. I have a 
bunch of questions, and that's the reason why I said what I 
just said.
    Senator Burris. General, I understand that your birthday 
was in, what, 1947? Was that when you were born, sir?
    General Amos. Sir, I'm sorry. I couldn't hear you.
    Senator Burris. Was your birthday 1947?
    General Amos. I was born in 1946, sir.
    Senator Burris. 1946. You were 1 year old when President 
Truman issued the executive order integrating our armed 
services.
    General Amos. Yes, sir.
    Senator Burris. Because, at the time, we had segregated 
forces, segregated troops. My ancestors, who had an opportunity 
to serve, proceeded to serve in spite of racism and just out 
and out bigotry in reference to them. I can remember my uncles 
and my uncles-in-law and family members of 18, 19 years old, 
going off to war, in World War II, and talking about their 
limited experience and the racism that existed in the military. 
But, yet still, General, they were willing to fight and die for 
this country.
    My position to you is, there are individuals who happen to 
be of another persuasion, called either gay or lesbian. They're 
just as dedicated and committed to this country, and can serve 
just as valiantly and well, regardless of their sexual 
orientation. We have, today, thousands of them that are trying 
to continue to serve. Because of my position on this issue, 
General, I've had someone come to me and say, ``The reason why 
I did not go into the military--I'd love to be into the 
military, but I did not want to be hassled in reference to my 
sexual orientation.''
    I figure, General, we're not getting the best and the 
brightest, because of the limitations that this law placed on 
them. I know that you are an experienced warrior and a 
dedicated military man, and I respect your views. Please 
understand that. But, I think, in this instance, what we must 
do is not limit the opportunity for a dedicated American, 
regardless of his or her sexual orientation, to serve this 
country if they want to.
    General, we don't know the best and brightest we may be 
missing, who might even make the Marines even better--which 
might be hard to do, but we might be able to do that. What's 
your comment, General?
    General Amos. Sir, if I become the 35th Commandant, I'll 
have responsibility for a very----
    Senator Burris. You will, sir. There's no question about 
that. [Laughter.]
    We're going to make you the Commandant.
    General Amos. I'll be responsible for a very small segment 
of the American society. I mean, it's less than one-tenth of 1 
percent of all Americans, first of all, who would even want to 
be a marine, and, second of all, could probably physically and 
mentally qualify.
    Senator Burris. Sir, I saw them training. There's no way in 
the world I could have gone through the training that I saw 
those young kids do, and they make them train even though 
they're tripping--they're tired. What the trainer said, ``In 
combat, you can't get tired because you never know when that 
ounce of energy is going to be needed to save yourself or one 
of your partners.'' I saw those kids just crawl on the ground, 
roll on the ground. I couldn't do that when I was 20 or 30, and 
I was a bad little guy in my day. I couldn't handle it.
    General Amos. Those are the same wonderful young men and 
women, those bright, great sons and daughters that our parents 
of our country give us--loan to the Marine Corps. They don't 
give them to us, they loan them to us. We work pretty hard to 
train them into the kind of young men and women that you're 
talking about. Those fearless young men and women that would 
give their lives for one another in a very tough situation in a 
place like Afghanistan.
    Senator Burris. General, I was in a forum one day, and I 
made a mistake. There was a Marine recruiting section right 
there, they had a display there. There were several of the 
marines. One other gentleman was in civilian clothes, and I 
said, ``Oh, you're an ex-marine, are you?'' I made the biggest 
mistake in my life. You don't call a marine an ex-marine. What 
he told me, ``Sir, once a marine, always a marine.''
    General Amos. Sir, you're absolutely correct. In fact, you 
are always a marine. I'm on a one-man campaign to change this 
comment about ``former marine,'' and just get that out of the 
lexicon, because you're either a marine wearing this uniform, 
or you're a marine wearing another uniform, but you're a marine 
forever, for life.
    Senator Burris. I heard Senator Webb questioning you on the 
Navy and Marines. I know you can't comment on it, but I think 
that, given the fact that you're always first in battle, that 
you all are ready for the call, as you just stated, the 
President said ``Go,'' you're ready to go. I think that the 
Marines are at the point where they deserve that type of 
departmental recognition. I would support changing that title, 
to the Department of the Navy and Marine Corps, because even 
though you're a so called branch of that, what you all do needs 
to be recognized and commented on.
    General, just keep in mind that we need to give the best 
and the brightest an opportunity to serve, regardless to their 
sexual orientation. I know you'll follow the law if it's 
changed. I don't have any question about that. But, maybe one 
day we'll now get a chance to talk about this privately. But, 
being a person who experienced what racism is, what sexism is--
I'm a former attorney general, I've fought this in my State, 
for those persons who were of different persuasion of sexual 
orientation. They need the same opportunities, the same 
commitment to serve as anyone else.
    General Amos. Senator, thank you, first of all, for your 
high regard for the Marine Corps. You've made my day. It'll get 
me through the rest of the day.
    Senator Burris. Sir, I've seen marines sometimes that would 
bring tears to my eyes, because when you said that. I was at 
Walter Reed talking to one of ours from Illinois, an amputee. I 
said, ``You're being discharged. What do you want to do?'' You 
know what he said, General? ``I want to go back and join my 
unit.''
    General Amos. Yes, sir.
    Senator Burris. As old and as decrepit as I am, I just 
cried like a baby. I could not believe that that's the 
commitment that you all have trained those young men and women 
to have. God bless you, and thank you for protecting us, 
General.
    General Amos. Thank you, Senator.
    Senator Goodwin. Thank you, Senator Burris.
    Senator LeMieux.
    Senator LeMieux. Thank you, Mr. Chairman.
    General, thank you for being here. Thank you, to Bonnie and 
your family, for the sacrifice that they have made. We know 
that those who stand beside us oftentimes pay even a heavier 
price than those who get the opportunity to serve. We're 
grateful to your family and grateful to you for all of the 
years that you've served this country.
    I want to pick up, a little bit, on the topic that my 
colleague from Georgia discussed with you, and that's the F-35 
and the delivery of it. We are proud to have the Marine Corps 
in Florida; not as much of a presence as in other States, but, 
in Blount Island, where we do some of the refurbishing work 
that you referred to earlier, but also now coming to Eglin, 
with the F-35, and where they'll do the training for one 
squadron of military aviators.
    I am concerned about the F-35. We're obviously happy to be 
doing the training in Florida, but this project, this program, 
this plane, has taken an awful long time to develop and it has 
been overbudget and continues to be delayed. If we don't meet 
these delivery dates that you talked about, what impact is that 
going to have on your strike fighter community? Is it going to 
put you in any kind of strategic predicament if these planes 
don't come on time and don't come at the rate that they need to 
for you to be able to use them?
    General Amos. Senator, first of all thanks for, I think, 
having a real sense for understanding what the issues are here. 
I was down there when we stood that squadron up at Eglin Air 
Force Base that day, commissioned it. It's pretty exciting, and 
we're looking forward to the delivery of the first airplanes 
down there. I know the Marine lieutenant colonel, who's the 
commander, is building a great team.
    If the IOC moves to the right--again, if it does--I don't 
know whether it will or not--I know that there's discussions, 
right now, going on. I'm not privy to them, but I've heard 
that. But, if it moves to the right, it'll finally settle on 
some date to the right of that--however many months; hopefully, 
again, like I said earlier, not too many--we'll do IOC then. 
But, in the meantime, the Marine Corps set out just about, 
probably 6 or 7 years ago, to take a look at our strike 
fighters that we currently have, and how do we manage that? How 
do we manage total flight hours, on those airplanes, to sustain 
their service life? That's really what we're talking about.
    If we have a slide to the right of the Joint Strike 
Fighter, then we certainly don't have a slide to the right of 
our current requirements, to produce airplane squadrons, have 
carrier squadrons, and all that. What we did several years ago, 
to mitigate this and to be able to sustain this, is that we 
began to manage the service life of each one of our airplanes, 
to include our AV-8B pluses. We've done it with our F-18s. We 
move airplanes around within squadrons, based on the numbers of 
catapults and numbers of arrested landings they've had on 
carriers, because there's a limitation to that that you can 
have. The amount of g-forces pulled on those airplanes is 
registered in what we call ``strain gauges.'' Those are an 
indication of service life of the airplane, as well. Not to 
mention the total hours.
    What we've done now is, we've actually moved the deck 
chairs, so to speak, on the ship, to move low flight-hour 
airplanes or low g-loaded airplanes into squadrons where they 
are more apt to end up pulling more g's, low catapult and trap 
airplanes into our carrier squadrons.
    The short answer here is that we can manage that. We are 
managing it right now. We stood down a couple of squadrons of 
F-18s not too long ago, and have taken their assets, those 
airplanes, and kind of spread them around to sustain ourselves. 
We can do this, this is doable.
    Senator LeMieux. How long can you do it for?
    General Amos. Sir, I'm going to have to come back to you 
with a precise answer, because we know how long we can do it 
for. There are other mitigation efforts underway right now 
which is examining: How can we put some money in our fleet of 
F-18s and extend their life? That analysis is underway right 
now. But, I'll get back to you on that.
    Senator LeMieux. If you could supplement that for the 
record. I have a great concern about this project. Obviously, 
we need to get these F-35s out.
    General Amos. Yes, sir.
    [The information referred to follows:]

    It is best if I provide some background information first as there 
are many variables that affect the service life of our strike fighter 
platforms, primarily the F/A-18 A-D inventory. The four major variables 
for consideration are: flight hours; fatigue life expended (FLE); 
catapults and arrested landings; and total landings. Keeping those four 
variables in mind, flight hours and FLE are the two most critical 
elements in calculating the remaining service life of our F/A-18 A-D 
inventory.
    Approximately 10 years ago the Navy and Marine Corps made the 
decision to extend the service life of our shared legacy F/A-18 Hornets 
beyond 6,000 flight hours. Actions undertaken by Naval Air Systems 
Command (NAVAIR), Commander Naval Air Forces and Headquarters Marine 
Corps Aviation (HQMC AVN) resulted in the development of the F/A-18 
Service Life Management Plan (SLMP) which has extended F/A-18 A-D 
service life to 8,000 hours. The SLMP focuses on the most effective 
utilization of aircraft--meeting operational requirements and training 
readiness needs.
    Currently, NAVAIR has identified two pathways to extend the service 
life beyond 8,000 hours; the High Flight Hour inspection which extends 
the life of the aircraft another 600 hours, raising the service life to 
approximately 8,600 hours, and the Service Life Extension Program 
(SLEP). Upon completion of the SLEP, aircraft will have an additional 
1,400 hours of service life remaining. Combining these two pathways 
will give the airframe a service life of approximately 10,000 hours.
    Based on our current tactical aircraft transition plan, SLEP will 
enable the transitioning of our last active duty F/A-18 squadrons to 
the Joint Strike Fighter (JSF) in 2022, and in 2023 for our last 
Reserve component squadron. While the JSF production rate will be the 
largest single contributor that affects our transition plan, options 
still exist if there are any further delays in JSF procurement. For 
example, the AV-8B Harrier is not currently under the same fatigue life 
constraints as the F/A-18 community. Therefore, if the JSF is delayed, 
AV-8B squadrons will transition later than what is currently planned.
    Ultimately the Marine Corps, in conjunction with the U.S. Navy, 
continues to evaluate and rigorously manage the service life, as well 
as the warfighting effectiveness, of each of our legacy Hornets and 
Harriers to ensure their maximum contribution to the warfighter.

    Senator LeMieux. But, we've been working on this program 
since 1995 and it occurs to me that we went to the Moon faster 
than we built this airplane. I'm worried about continued 
delays, and also worried about the cost and overbudget of this 
plane. Thank you for that, and I look forward to getting that 
from you.
    I want to shift gears a little bit to Afghanistan. I don't 
want to replow the ground that was talked about before, but let 
me just ask you some straightforward, simple questions. Do you 
think that we're winning the war in Afghanistan?
    General Amos. Senator, that's probably the question that is 
the hardest to answer. There's not a yes or a no. I can't give 
you that. But, I can give you a glimpse into portions of what's 
happening in Afghanistan, and that's the glimpse in the Marine 
portion, which is down in what we call Regional Command Center 
Southwest, in the Helmand Province, sits right on the border, 
right next to Kandahar. Arguably, one of the toughest areas of 
all of Afghanistan. The Marines are there.
    I've watched the progress, personally, on my visits. Again, 
having just talked to the commander on the ground, I could give 
you indication after indication where things are actually 
moving well.
    Let me just give you a couple. I've talked to you about the 
town of Nowzad that was liberated by the Marines in December. 
Now the bazaars are opened, the town is rebuilt, the school is 
open. When the district governor held my hand and walked me in 
there, into the schoolhouse, in the four corners of a room, 
about one-tenth the size of this hearing room, were four large 
rugs, and the students were in four groups. The proudest that 
he was, was when he took me over and put me in front of a bunch 
of little girls. This district governor, in the town of Nowzad, 
which had been ruled and dominated by the Taliban, was the 
first female school class in all of the Helmand Province. Since 
then, they've opened up--for instance, in the town of Marjah, 
they've opened up 4 schools, and they have 400 students, to 
include young girls, in the town of Marjah right now.
    Those are the indications that there is positive evidence, 
things are happening. When I talked to the commander, he said, 
``You know, General, several months ago, when the Taliban 
attacked us, they'd attack in groups of 15 to 20, and they were 
pretty ferocious.'' We've worn them down now, where they do 
what he calls ``shoot and scoot operations,'' three to five. 
They will stick their muzzle of their AK-47 around a building 
and they'll fire a burst of fire, then they'll run off. There's 
no major sustained operation combat. I mean, there's combat 
operations, but the typical thing you see in these villages are 
these ``shoot and scoot'' things. I'm encouraged. That's why I 
say that I'm convinced that the American military knows how to 
fight a counterinsurgency operation, and will succeed 
militarily in the Nation of Afghanistan.
    Senator LeMieux. Is the July 2011 withdrawal date that 
we've talked about, is it harming your mission? Is it making 
your mission more difficult?
    General Amos. Sir, I asked that question of the commander 
on the ground, and to be honest with you, down at his end, they 
don't even talk about it. There's no discussion in the Helmand 
Province about, ``Is this an issue with the leadership down 
there?'' Now, the Afghanistan National Army, the Afghanistan 
National Police, the district governors, the leadership, the 
provincial governor of the Helmand Province, they are 
dedicated, there's not an ounce of flinching on this.
    Senator LeMieux. Last question I have for you, and it 
probably deserves a longer answer than you might be able to 
give today, but it occurs me, as an expeditionary force, the 
Marines have always been light on their feet, in and out, try 
to be the first in, secure the beachhead, secure the city, 
secure village, win the battle, and then be able to move on to 
the next battle. That seems to me to be in tension, with a 
counterinsurgency strategy that requires you to go in and work 
to build trust, to build relationships, to build local fighting 
forces. As the Commandant of the Marine Corps, I would assume 
that's something that you think about, the tension between your 
traditional role and this new way of warfighting. I wonder how 
you will reconcile those two competing demands, going forward.
    General Amos. Senator, I think when we leave Afghanistan, 
the last thing I would want to see the Marine Corps do would be 
to lose those skill sets that we've learned over the last 9 
years. Many of those skill sets--the cultural sensitivity, the 
importance of language, the ability to work with other nations 
in some pretty remote areas--are all things that we have 
learned. We've actually relearned those. We've done those 
throughout the 235 years of our Marine Corps history.
    We are on the land right now. That has happened to us 
periodically throughout the Marine Corps. It happened to us in 
Korea; it happened to us in Vietnam; it happened to us at 
Belleau Wood, in France. But, we come out, and we become our 
Nation's crisis response force that has that high state of 
readiness that I referred to earlier in my testimony.
    I will want to capture the very best of what we've learned. 
I will want to maintain that, because I think it will apply as 
we work with nations and other countries around the world. But, 
we are going to do our level best to begin to lighten the 
Marine Corps up. We are going to do our level best to work with 
our Navy brothers and the Chief of Naval Operations to be those 
forward-deployed forces, ready to do the Nation's bidding at a 
moment's notice.
    I think we'll be able to take the best of what we've 
learned and hang onto that, and then we'll get on with the rest 
of the business.
    Senator LeMieux. Thank you, General.
    Thank you, Mr. Chairman.
    Senator Goodwin. Thank you, Senator LeMieux.
    Thank you, General, for being here today.
    I'd like to begin by reiterating my appreciation to the 
committee and to Chairman Levin for having the opportunity to 
serve on this committee, where my predecessor, Robert C. Byrd, 
served honorably for decades. As the General may be aware, I 
was appointed to my position, caused by the passing of Senator 
Byrd, this summer, a man who's revered in my home State of West 
Virginia, and in many respects is a giant in American history, 
having served at the highest levels of our Government for 
nearly a quarter of the Republic's history. A daunting task, I 
suppose, in its own way, but one that, in many respects, pales 
in comparison to the challenges that await you in your new 
position.
    Which is why I'm particularly pleased to have had the 
opportunity to visit with you briefly here today, because it 
allows me to make good on a promise I made to a friend and a 
marine in West Virginia, upon receiving my appointment. Back in 
July, when the announcement was made, amidst the dozens of 
calls of congratulations and well wishes, I had the chance to 
have a conversation with a friend and former colleague in the 
West Virginia State government by the name of Bob Ferguson, a 
marine who's currently serving as the cabinet secretary for the 
West Virginia Department of Administration, and a man who is 
extremely active in veterans issues throughout the State of 
West Virginia and across our country. During our brief 
conversation, he cited me a simple figure, and that was 32. It 
was the number of suicides suffered by his fellow marines so 
far this calendar year. Certainly a startling figure, one 
perhaps even more troubling, given the high numbers over the 
past several years.
    Talk to me about the mental and behavioral health 
challenges facing the men and women under your command as they 
return from defending our country in places like Iraq and 
Afghanistan; and also the DSTRESS Program, the behavioral 
health counseling service, which you have previously expressed 
a desire to expand and grow.
    General Amos. Senator, thank you for the opportunity to 
address this key important issue. I suspect that of all the 
things I've spent my time on, the last 25 months as the 
Assistant Commandant, the issue of suicides in our Corps, the 
issue of psychological health, traumatic brain injury, post-
traumatic stress, probably occupied a clear majority of my 
time, all for the right reasons, all for the reasons you imply 
in your statement.
    We've lost 32 marines, as of this morning. That's 32 more 
marines than we should have lost. We lost 52 last year. 
Suicides are counted on a calendar year, not a fiscal year. We 
began, last year, about midway through last year, just looking 
at this trend going up and saying, ``Boy, we have to do 
something''--it's not a matter of we just woke up, we were 
doing things, but we're going to have to do things differently. 
Brought in marine noncommissioned officers and said, ``We need 
your help,'' because most of the suicides were young men, they 
were age 19 through 22, they were white, and they were young 
enlisted, and they were E-1s through E-5s. Predominantly, the 
ones we were losing were about E-3s and E-4s to E-5s. A 
noncommissioned officer said, ``Sir, let us take this on.'' We 
began to focus our efforts in the Marine Corps, a year and a 
half ago, on our noncommissioned officers. We had them help us 
build probably the most high-impact and most relevant training 
program for noncommissioned officers on suicide prevention that 
I've ever seen--in fact, in any Service that we have today.
    I'm encouraged to report to you today that the numbers of 
suicides in this year among our noncommissioned officers have 
dropped what I would consider to be markedly. This time last 
year, we had 37 suicides in the Marine Corps. On this date, we 
had 37. We have 32 today.
    Where are we headed? It's important. We're not done. We 
have another effort underway right now to take that same type 
of high-value or high-impact training and put it down to our 
young E-1s through E-3s. That is underway right now, the same 
thing for our lieutenants, first lieutenant and second 
lieutenants. We're going to build a separate training program 
for them. That is the focus of effort for suicide prevention.
    We're not done. We're not satisfied. I've had 32 more than 
we wanted to have this year, and we are determined to bring 
that number down and make a difference.
    The DSTRESS Program was an effort that came out of these 
noncommissioned officers. While we were addressing suicides a 
year and a half ago, I asked them, I said, ``Can you give me a 
suggestion on something that you might think would help?'' 
Looking at the suicides, and that a lot of them are based on or 
seem to have a common denominator of a problem with a 
relationship with a young woman--could be a wife, could be a 
girlfriend, could be a fiance--they said, ``Sir, you need to 
have a relationship hotline.'' Now, maybe, to us, we would look 
at that and go, ``That sounds--I don't understand that.'' But, 
we fussed with that for about 6 months, and we came to the 
conclusion that what we really needed was a hotline that would 
plug in to mental health providers, across this Nation, that a 
family member, a wife, a husband, a marine, one of our 
corpsmen, our docs, our sailors could call, completely 
anonymously, and get assistance. We broke ground on this about 
3 weeks ago. What we call a beta test is being done at Camp 
Pendleton, at Miramar, Yuma, Twentynine Palms, and it's in 
cooperation with our healthcare provider out there.
    We have a 24-hour hotline. We've advertised this now, and 
the early indications are that it's getting some traction. So, 
yet to be seen. When I come back to this committee, I'll be 
able to give you a full report on the value of that. But, the 
whole idea is to be able to provide another venue to reduce 
this issue of stigma, where a man or a woman can pick up a 
phone and call and talk to somebody, and then get referred to a 
mental health provider somewhere in the western part of the 
United States. It's the referral and the follow-on care, which 
is critically important.
    Sir, there's a host of things that we're doing, and I'd be 
happy to go through those things with you. But, I just want you 
to know, it's a great focus of effort with the Commandant.
    Senator Goodwin. I appreciate that, and I appreciate your 
answer.
    It's certainly been an honor for me to preside over part of 
your confirmation hearing today.
    Chairman Levin has indicated that the committee intends to 
meet as soon as possible to act on your nomination and 
encouraging the Senate to quickly confirm you.
    I want to wish you well and thank you and your family for 
being here today. I am in receipt of some information that you 
brought some West Virginians with you to the hearing today. 
That's why he was so well behaved, I imagine. [Laughter.]
    The record will remain open for 5 days if Senators wish to 
submit additional questions to you.
    This hearing is now adjourned.
    [Whereupon, at 11:39 a.m., the committee adjourned.]

    [Prepared questions submitted to Gen. James F. Amos, USMC, 
by Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff. These 
reforms have also vastly improved cooperation between the services and 
the combatant commanders, among other things, in joint training and 
education and in the execution of military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. Not as the act specifically applies to the military 
departments; however, I could see benefits with modifications to 
improve broader interagency coordination in response to world events.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. The complexities of warfare today, as evidenced in Iraq and 
Afghanistan, have demonstrated the need for greater coordination of all 
elements of national power in the pursuit of our goals. We need to 
continue to make progress in achieving greater coordination and 
effectiveness across departments.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commandant of the Marine Corps?
    Answer. Title 10 makes the Commandant of the Marine Corps 
responsible for organizing, training, and equipping forces in support 
of combatant commanders. Fundamentally, these duties and 
responsibilities are to prepare the Marine Corps to fight and win on 
the battlefield. Also, it is the Commandant's duty to advise the 
President, the National Security Council, the Secretary of Defense, and 
the Secretary of the Navy on military matters. He executes his 
responsibilities as a member of the Joint Chiefs of Staff. The 
Commandant also has the responsibility to lead marines, ensuring their 
readiness to execute missions across the full spectrum of warfare as 
the President may direct, and tending to their welfare and the welfare 
of their families.
    Question. What background and experience, including joint duty 
assignments, do you possess that you believe qualifies you to perform 
these duties?
    Answer. I have had the good fortune to serve in key service billets 
and joint assignments within the Department of Defense (DOD). I have 
commanded marines at every level up to and including command of a 
Marine Expeditionary Force (MEF). I served as the Deputy Commandant for 
Combat Development and Integration, an assignment that gave me great 
insights into the joint requirements process. As a general officer I 
have also served in NATO as the Deputy Commander, Naval Striking 
Forces, Southern Europe and as Chief of Staff of the Joint Task Force 
that conducted the air campaign over Serbia. I am currently assigned as 
the assistant Commandant of the Marine Corps, an assignment which has 
provided me a unique opportunity to understand the challenges facing 
the Service Chiefs today as they strive to meet their title 10 
responsibilities.
    Question. Do you believe that there are any steps that you need to 
take to enhance your ability to perform the duties of the Commandant of 
the Marine Corps?
    Answer. No. With the continued support of Congress, the leadership 
of the Secretary of the Navy and Secretary of Defense, the continued 
superb performance of our marines, and the steadfast support of my 
family, I believe I have the ability to perform the duties that will be 
expected of me if confirmed.
                    major challenges and priorities
    Question. In your view, what are the major challenges that will 
confront the next Commandant of the Marine Corps?
    Answer. The major challenges facing the next Commandant of the 
Marine Corps center on continuing to provide the marines fighting in 
Afghanistan the very best training, equipment, and support possible 
while ensuring the Marine Corps is ready for the uncertain threats of 
the future, all during what we anticipate to be a very challenging 
fiscal climate.
    We are at war and that must be our highest priority. At the same 
time, we must balance our capabilities to do what the Nation will 
likely ask of its marines in the coming decades. Additionally, as the 
Nation's premier Expeditionary Force in Readiness, the Marine Corps 
must always be ready to answer the call to do whatever the President 
may direct.
    The impact of 9 years of war has been significant, and the wear and 
tear on our equipment has taken a toll. The Marine Corps will require 
additional funding for several years after the end of operations in 
Afghanistan to reset our equipment.
    The cost of war has been felt most keenly by our wounded marines 
and sailors and their families. If confirmed, I will build on the 
tremendous work of General Conway to care for our wounded and their 
families.
    Fiscal realities place an additional strain in meeting our 
challenges and priorities. Difficult choices will have to be made. If 
confirmed, I will work with the Chief of Naval Operations and Secretary 
of the Navy to ensure that the Navy-Marine Corps team continues to 
provide the Nation a force capable of coming from the sea across the 
full range of military operations.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will continue to work with the Secretary of 
the Navy to ensure that we have the fiscal resources to support the war 
in Afghanistan while maintaining the Corps' ability to respond across 
the full range of military operations, now and in the future. I will 
work with the deputy commandants of the Marine Corps to develop plans 
to ensure our readiness to meet future requirements. At the same time, 
I will work to ensure that we retain our capability, along with the 
Navy, to carry the fight from the sea ashore to any adversary that 
would threaten our national security.
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Commandant of the 
Marine Corps?
    Answer. Our first priority will be to continue to ensure that our 
marines deployed in harm's way have everything they need to fight and 
win. Caring for the welfare of our marines and their families will also 
be a priority. For marines, looking to their welfare means providing 
them the absolute best training, equipment, and support. Therefore, I 
will work to ensure that our training, from boot camp through senior 
level professional military education and every step in between, 
incorporates the lessons learned in combat to make our marines more 
resilient, more ready, and more effective on the complex battlefield we 
see today and in the future.
    I will build on the tremendous foundation that has been established 
in our family readiness and wounded warrior programs. The strains of 
war require robust, effective support for the needs of our families and 
our wounded marines. These efforts will not be reduced when combat 
operations in Afghanistan are over. They will require sustained support 
to ensure that we honor the sacred trust the Nation has with those who 
serve and those who pay the heaviest price.
    We must ensure that we maintain the sustainable deployment to dwell 
ratio of about 1:2 for our force while fighting a war. A deployment to 
dwell ratio worse than 1:2 increases the stress on personnel and limits 
our ability to be ready for the broad range of threats and challenges 
the Nation will face. Our goal during peace is a 1:3 deployment to 
dwell ratio.
    We must ensure that we provide our marines the equipment and 
support they need. People, equipment and programs all cost money, and 
difficult decisions will have to be made. If confirmed, I will do my 
best to ensure that those decisions support a Marine Corps that remains 
the ready and capable force that the Nation has come to expect.
            role of the marine corps in the war on terrorism
    Question. The main focus of the U.S. military has been on the war 
in Iraq and Afghanistan, and the Marine Corps has had a major role in 
Operation Iraqi Freedom and Operation Enduring Freedom.
    What do you see as the Marine Corps' role in the continuing war on 
terrorism?
    Answer. The future security environment will be one of global 
uncertainty brought on by changing economic conditions and stressors on 
emerging and traditional democracies as well as a trend towards a rise 
in the numbers of troubled and failed states. I foresee enduring 
problems of continued aggression by al Qaeda and other non-state actors 
who seek to destabilize weak states to create safe havens, the 
acquisition of weapons of mass destruction, as well as other nefarious, 
asymmetrical plots against our Nation.
    In this environment, I envision a Marine Corps that must continue 
to engage forward to forge partnerships and prevent crises, respond 
rapidly and effectively to protect national interests, and project 
power in order to assure access to areas vital to our national 
interest. A balanced Navy-Marine Corps team--meaning one that is 
capable of promptly, effectively, and efficiently conducting operations 
along the range of military operations to include counter-terrorism--is 
critical to the continued prosperity of our Nation and is essential to 
the survival of our friends, allies, and partners.
    Question. What role do you envision for the Marine Corps in 
homeland security and homeland defense?
    Answer. I envision the Marine Corps continuing to use our 
expeditionary capabilities to support Homeland Security and Homeland 
Defense. We are a willing partner, responding when called, to support 
the Department of Homeland Security and other Federal agencies in 
crisis. The Marine Corps is a unique force with many capabilities (i.e. 
disaster response, amphibious capabilities along our Nation's shore 
lines, evacuation, providing security) to support civil and Federal 
officials as seen in our rapid mobilization to assist our fellow 
Americans during Hurricane Katrina. The Corps remains focused on 
defending the homeland forward. We will act wherever and whenever 
needed for homeland defense, and will do so in accordance with our 
title 10 authorities or others as directed by Congress and/or the 
President.
    Question. If confirmed, do you plan any major changes to Marine 
Corps warfighting doctrine?
    Answer. Marine Corps doctrine has evolved over time to meet current 
demands. The Corps continues to operate in an outstanding manner 
whether in the combat theaters of Iraq and Afghanistan or during 
expeditionary missions from the sea. We will continue to examine the 
future security environment to determine where our doctrine may need 
adjustments for the future.
 u.s. forces in afghanistan and iraq command and control relationships
    Question. Policies directing and guiding command and control 
relationships for U.S. unified commands and their assigned and attached 
forces are found in statute, regulation, and in joint doctrine. In 
March 2010, changes were made to command relationships in Afghanistan 
to address operational challenges attributed to insufficient command 
and control authority for U.S. Forces-Afghanistan (USFOR-A) over forces 
attached to or operating in its area of responsibility (AOR).
    What is your assessment of the current command relationship 
structure for U.S. forces attached to or operating in the USFOR-A and 
U.S. Forces-Iraq AORs?
    Answer. In as much as the current command relationship structure in 
Afghanistan meets the operational needs of the Commander, International 
Security Assistance Force and Commander, USFOR-A, then I support it. As 
it relates to Iraq, we have very few marines left in that theater, and 
I support the current command structure there as well.
    Question. In your view, do the Commanders of USFOR-A and U.S. 
Forces-Iraq have appropriate and sufficient command and control 
authority over all U.S. forces operating in Afghanistan and Iraq to 
ensure unity of command and unity of effort?
    Answer. As it relates to Marine forces, they have sufficient 
authority in my view. If the situation on the ground at either location 
impresses the respective Commanders of U.S. forces in Iraq or 
Afghanistan to call for a re-evaluation of the current command and 
control authority, I would support such a review.
    Question. If confirmed, what changes, if any, would you recommend 
with respect to command and control relationships for U.S. forces 
operating in Afghanistan or Iraq?
    Answer. For Marine forces, I would not recommend any changes at 
this time. The Marine Air Ground Task Force (MAGTF), with its balanced 
mix of dedicated and organic air, ground, and combat service support 
elements, provides a unique combat capability that is greater than the 
sum of its parts.
    Question. In your view, what are the critical criteria that should 
be used to determine whether forces allocated to USFOR-A or U.S. 
Forces-Iraq, or any other combatant command, are provided under 
``operational control'' versus ``tactical control''?
    Answer. Successful accomplishment of the mission and the ability of 
the joint force commander to exercise effective command and control of 
his subordinate elements should be the critical criteria in 
establishing command relationships.
             marine corps forces special operations command
    Question. Marine Corps Forces, Special Operations Command (MARSOC), 
is a subordinate component command to the U.S. Special Operations 
Command (SOCOM) established in 2005.
    What is your assessment of the progress made in standing up and 
growing MARSOC, and what do you consider to be the principal issues 
that you would have to address to improve its operations?
    Answer. Since its inception in mid-2006, the Marine Corps has 
resourced MARSOC to its current level of over 2,400 marines and 
sailors. There have also been significant investments made in military 
construction of MARSOC training facilities, barracks and headquarters. 
The principal, near-term issue to be addressed will be to consider an 
increase in the size of MARSOC's enablers (e.g. logisticians, 
intelligence and other support personnel). This issue will be examined 
as part of the Marine Corps' force structure review that begins in 
September.
    Question. Some have suggested that MARSOC personnel should be ``SOF 
for life,'' rather than rotating through the command for a 3- to 5-year 
rotation as they are currently doing. They argue that this would help 
SOCOM create and retain personnel with the special cultural and 
language skills that are critical for success in irregular warfare and 
foreign internal defense missions.
    Do you believe that Marine special operators should be ``SOF for 
life,'' just as Army special operations forces are?
    Answer. Marine Special Operators represent a significant investment 
in training time and money, and MARSOC has demonstrated the value of 
this investment on the battlefield for the past 4 years. The current 
assignment policy for Marine Special Operators is an assignment to a 5 
year tour. However, the Marine Corps is evaluating multiple options to 
ensure an efficient return on investment to both SOCOM and the Marine 
Corps. The personnel options being evaluated include multiple 
assignments, extended assignments beyond 5 years, and a Primary 
Military Occupation Specialty (MOS) for Marine Special Operators. The 
Marine Corps wants to ensure Marine Special Operators meet the 
operational needs of SOCOM while retaining their ``Marine'' ethos. I am 
absolutely committed to creating the highest quality Marine Special 
Operators possible and providing this nation, through SOCOM, the 
unique, combat-proven operational capabilities of MARSOC.
                  effects of deployments on readiness
    Question. What is your assessment of the current state of readiness 
of the Marine Corps?
    Answer. The Marine Corps is sourcing its best trained and most 
ready forces to meet global combatant commander requirements. 
Consequently, deployed units report the highest levels of readiness for 
their assigned mission. Deployed unit readiness has come at the expense 
of nondeployed units, which have sourced unstructured equipment and 
personnel requirements to meet the needs of our deployed forces. 
Currently, 63 percent of nondeployed units report degraded or 
nondeployable levels of readiness. The largest contributing factor to 
decreased readiness in nondeployed units is a shortage of equipment 
supply. This lack of equipment impacts the ability of nondeployed 
forces to respond to other potential contingencies and to train for all 
potential missions.
    Question. In your judgment, are combat operations in Afghanistan 
adversely affecting the readiness or retention of marines on active 
duty and in the Reserve component?
    Answer. No, combat operations in Afghanistan are not adversely 
affecting readiness and retention of Active Duty and Reserve marines. 
We are meeting our retention goals across the Marine Corps, and some of 
our highest retention rates come from units that have deployed. Marine 
Corps units, both active and Reserve, are deploying for all our global 
mission demands (e.g. theater security cooperation initiatives, Marine 
expeditionary unit operations, combat operations etc.) at the highest 
states of readiness. As long as we maintain a deployment to dwell ratio 
of about 1:2, I do not foresee adverse impacts on retention.
    Question. If confirmed, what will be your priorities for 
maintaining readiness in the near term, while modernizing the Corps to 
ensure readiness in the out years?
    Answer. If confirmed, my priority for readiness will be to ensure 
there are adequate funds to reset Marine Corps equipment for the years 
after we leave Afghanistan. Overseas Contingency Operations (OCO) in 
Iraq, Afghanistan and elsewhere have placed an unprecedented demand on 
ground weapons systems, aviation assets and support equipment. Assets 
have experienced accelerated ``wear and tear'' due to the harsh 
operating environments and have far exceeded peacetime usage rates. 
Many items have been destroyed or damaged beyond economical repair. 
Based on current analysis, the Marine Corps has estimated reset cost at 
$8 billion, consisting of $3 billion requested in the fiscal year 2011 
OCO budget and an additional long-term reset liability of $5 billion 
upon termination of the conflict. This estimate will continue to rise 
with continued combat operations. Additionally, our equipment sets have 
been modified based on the lessons we learned in OIF and OEF about what 
we need to be ready for future operations. The cost to make changes 
that have been proposed for our equipment sets is estimated to be $5 
billion.
                        recruiting and retention
    Question. What do you consider to be the key to the Marine Corps' 
success in recruiting the highest caliber American youth for service 
and retaining the best personnel for leadership responsibilities?
    Answer. The key to the Marine Corps' recruiting success is its 
continued focus on finding highly-qualified young men and women who are 
seeking the challenge of serving their Nation. Continued access to high 
schools and colleges not only assures that we have access to a quality 
market that reflects the face of the Nation, but also a market that has 
the mental abilities to serve in our technically challenging fields 
such as linguistics, aircraft and electronic maintenance and 
intelligence.
    Another key component of our recruiting success is the Marine 
Corps' image of smart, tough, elite warriors. The time-proven 
intangible benefits of service, pride of belonging, leadership, 
challenge and discipline are what we offer. The Nation's young people 
continue to answer the call of duty, responding to these intangibles, 
even during this time of war. Maintaining sufficient funding for 
recruiting advertising, enlistment bonuses, and select reenlistment 
bonuses will be instrumental to the continued success of recruiting and 
retaining the best personnel.
    Question. What steps do you feel should be taken to ensure that 
current operational requirements and tempo do not adversely impact the 
overall readiness, recruiting and retention, and morale of the Marine 
Corps?
    Answer. As it relates to operational requirements and tempo, one of 
the key factors to ensure that readiness, recruiting, retention and 
morale are not affected is to maintain our goal of a 1:2 or better 
dwell time throughout the force. We also need to weigh competing 
operational demands and requirements (e.g. exercise support, 
expeditionary missions, theater security cooperation, combat 
operations, etc) throughout the total Marine force, active and Reserve, 
to ensure there is proper balance. Lastly, we are committed to 
maintaining sufficient funding for enlistment and reenlistment bonuses, 
advertising, and sufficient numbers of recruiting personnel.
    Question. What is your assessment of current recruiting standards, 
particularly DOD-wide criteria for tier one recruits, and their 
propensity to accurately predict minimal attrition and future success 
in Military Service?
    Answer. The Marine Corps has not, and will not, reduce its quality 
standards or enlistment criteria. The Marine Corps recruiting of 
quality youth has translated into higher performance, reduced 
attrition, increased retention, and improved readiness for the 
operating forces. These quality standards and metrics are continuously 
assessed to ensure that we are meeting our manpower skill level needs. 
We believe that DOD-wide standards of 90 percent Tier I (high school 
graduates) and 60 percent Mental Group I-IIIA are appropriate. We know 
through studies that a high school graduate is more likely to complete 
recruit training. The DOD education tier divisions are appropriately 
grouped and adequately serve as attrition predictors. Applicants who 
score in the I-IIIA categories on the Armed Services Vocational 
Aptitude Battery have the intellect and mental agility needed to work 
with today's technology. So far this year, 99.7 percent of our enlisted 
accessions have been high school graduates and 72 percent have scored 
in the I-IIIA range, both far exceeding DOD standards.
                            quality of life
    Question. What do you consider to be the most essential elements 
supporting the quality of military life for marines and their families, 
and, if confirmed, what would be your goals in this regard?
    Answer. I consider the essential elements impacting quality of life 
for our marines, sailors, and their families to be dwell time, housing, 
schools, medical care, community services, and pay/benefits. If 
confirmed, my goal as it relates to quality of life will be to ensure 
that marines, sailors, and their families have availability and access 
to quality facilities and family support programs, as well as resources 
and benefits that afford a respectable, decent and healthy standard of 
living. Maintaining our deployment to dwell ratio at 1:2 or better is a 
key part of maintaining a good quality of life for all marines and our 
assigned sailors.
                         military compensation
    Question. What is your assessment of the adequacy of military 
compensation?
    Answer. I believe the cumulative increases in military pay and 
benefits that Congress has generously bestowed on the Armed Forces 
consistently over the past several years have been adequate.
    Question. What recommendations would you have for controlling the 
rising cost of personnel?
    Answer. We have the world's most competent, professional and ready 
military, but that comes at a tangible cost. Any cost-saving measures 
must consider the possible negative effects on the dynamic of an All-
Volunteer Force and our needs for national security. Our force 
structure review that begins in September will address our posture and 
organization for the future security environment and will give us a 
better insight into personnel requirements over the long term.
    Question. As the Marine Corps has the highest percentage of 
servicemembers who leave after their first term, what is your 
assessment of the adequacy of compensation and benefits available for 
noncareer servicemembers?
    Answer. The Marine Corps is a high-intensity, physically demanding 
military organization that requires a younger demographic (i.e. 17-25 
year olds) to meet force structure requirements. This demographic often 
has intentions of serving for only one term, especially as it relates 
to the combat arms occupational specialties. In my estimate, 
compensation and benefits are generally adequate to the needs of those 
with both career and noncareer goals.
                         education for marines
    Question. An important feature of the Post-9/11 GI Bill is the 
ability of career-oriented servicemembers to transfer their earned 
benefits to spouses and dependents.
    What is your assessment of the effect of the Post-9/11 GI Bill on 
recruiting and retention of marines?
    Answer. Given the Post-9/11 GI Bill was just implemented last year, 
we have not identified quantifiable metrics on the impacts this program 
has had on recruiting and retention; however, the provisions of the 
program seem to be universally welcomed and appreciated by marines.
    Question. In your view, what has been the effect of the 
transferability option on retention and career satisfaction of marines?
    Answer. Given the Post-9/11 GI Bill was just implemented last year, 
we have not identified quantifiable metrics on impacts this program has 
had on recruiting and retention; however, the provisions of the program 
seem to be universally welcomed and appreciated by marines.
    Question. How important do you believe tuition assistance benefits 
are to young marines, and what trends do you see in the Marine Corps' 
ability to pay for such programs at current levels over the Future 
Years Defense Program?
    Answer. I think tuition assistance benefits are extremely 
beneficial to young marines given their high levels of interest and use 
of that program. Tuition assistance provides marines the opportunity 
for scholarly and intellectual development, personal growth, and 
increased awareness and maturity. This benefits our Corps both on the 
battlefield and in garrison. Tuition assistance provides great 
opportunities for our young men and women to attain college degrees. 
With the fiscal challenges facing our government, we will have to 
closely monitor trends in our tuition assistance program to ensure 
adequate levels of funding. Historically, we have not executed our full 
tuition assistance account, therefore, we will continue to monitor this 
program during our budget development process.
                            women in combat
    Question. Women have a long history of honorable service in the 
Marines, and the Marine Corps recently notified Congress of its intent 
to open two intelligence-related occupational specialties to service by 
female marines.
    What other occupations, if any, do you believe could be opened to 
female servicemembers?
    Answer. The military occupation specialties (MOSs) currently open 
to female marines, including the intelligence-related MOSs you refer 
to, are appropriate for the Marine Corps. The Marine Corps conducted a 
review that resulted in the current recommendation that the 
Counterintelligence/Human Source Intelligence Specialist/Officer MOS be 
expanded to include women. I support that effort and recommendation.
                            general officers
    Question. At the request of the Secretary of Defense, Congress 
included a provision in the Duncan Hunter National Defense 
Authorization Act for Fiscal Year 2009 that designated up to 324 
general and flag officer positions as joint duty assignments that are 
excluded from the limitation on the number of general and flag officers 
in each Service, and specified the minimum number of officers required 
to serve in these positions for each Service.
    What is your view of the merits of this provision and its impact on 
the Marine Corps?
    Answer. It is too soon to know what the impact of this provision 
will be on the Marine Corps. As the smallest Service, with the fewest 
number of general officers, management of general officer assignments 
to billets in the joint pool and billets in the Marine Corps while 
ensuring appropriate career progression is challenging. The nominative 
nature of joint billets contributes to this challenge, particularly 
with our relatively small number of general officers.
    Question. What impact has the implementation of this provision had 
on joint officer assignments of Marine Corps general officers?
    Answer. It is too soon to know what the impact of this provision 
will be. Currently, 24 Marine general officers are assigned to joint 
billets in the joint pool. Our goal is 26. We currently have 2 general 
officers serving in joint billets that do not count towards our joint 
pool goal of 26. One impact of this provision is that we will look hard 
at assigning general officers to joint assignments that do not count 
towards our joint pool goal of 26.
    Question. In your view, does the Marine Corps have statutory 
authority for a sufficient number of general officers to meet mission 
requirements of the Corps and joint requirements?
    Answer. At this time, I believe we have the right number of general 
officers (GOs) to meet our requirements. The USMC is authorized 60 
Active component GOs to meet internal Marine Corps requirements, 26 GOs 
to meet joint requirements and ten Reserve component GOs for a total of 
96 GOs authorized. The USMC is currently filling seven GO requirements 
in Afghanistan. Of these, three are temporary joint assignments which 
will be drawn down parallel to U.S. force levels in the future. To meet 
internal GO requirements in support of overseas contingency operations, 
the Marine Corps has utilized, on average, four Reserve component GOs 
to fill internal billets.
    Question. The results of recent promotion selection boards for 
brigadier general have shown that a number of best qualified officers 
have not completed all requirements (i.e., joint professional military 
education, or joint tours of duty) before consideration by selection 
boards.
    What factors do you consider most important in the difficulty 
experienced by field grade Marine Corps officers in satisfying joint 
requirements for promotion?
    Answer. The most important factor is career progression. It is 
imperative for Marine Field Grade Officers to be assigned to billets 
within their military occupational specialty (MOS), thus certifying 
their credibility in maintaining relevancy and competitiveness with 
their peers. Current promotion rates create pressure on the available 
time an officer has to complete operational MOS tours, attend resident 
professional military education, and complete a joint tour. While great 
care is taken to create as much opportunity as possible for officers to 
be assigned to joint billets, there are still critical institutional 
requirements for these officers outside of these assignments. These 
include recruiting and training tours of duty, education support 
duties, security forces, and service-specific higher staff duties.
    Question. Do you think that in today's operational environment that 
these requirements for promotion to O-7 should be modified?
    Answer. I think we should seek ways to make Joint Professional 
Military Education (JPME) II more accessible. A constraining element on 
the critical path to Joint Qualified Officer designation is JPME II 
matriculation. Increasing opportunities for completion (e.g. increased 
JPME II seat capacity, distance learning options, additional JPME II 
accredited locations, and traveling JPME II education teams) will 
assist us in meeting our requirements.
    Question. What steps are being taken to ensure that officers who 
are competitive for promotion to general officer rank are able to 
fulfill all joint education and experience requirements?
    Answer. The Marine Corps is taking several steps that include:

    1.  Proactive assignment process. Our assignment policies include 
placing, at every opportunity available, competitive nonjoint qualified 
officers in available joint billet assignments. This action includes 
opening up additional Joint Duty Assignment List billets when critical 
occupational specialty incumbents reach their 24-month tour milestone.
    2.  Self nomination experience track. We are improving the 
recognition and marketing of joint qualifying experiences through the 
regular education of officers to encourage officers to petition for 
joint credit.
    3.  Goals-Driven Assignments Process. We have set goals of 100 
percent post Top Level School (Senior Level School) assignment to Joint 
Billets for nonjoint qualified officers and over 90 percent of nonjoint 
qualified Intermediate Level School graduates to available joint 
billets for majors.
                             family support
    Question. What do you consider to be the most important family 
readiness issues in the Marine Corps, and, if confirmed, what role 
would you play to ensure that family readiness needs are addressed and 
adequately resourced?
    Answer. Dwell time is the most important consideration impacting 
family readiness. After that, our interest is to provide top notch 
housing, schools, medical care, and other family-oriented programs to 
our Marine families. I support our recent initiatives to improve family 
readiness--the hiring of full time family readiness officers, 
improvements in support to families with exceptional family members, 
the establishment of School Liaisons to advocate for military school-
age children, and child care programs to name a few. If confirmed, my 
role in terms of family readiness will be to make informed decisions 
and balance competing budgetary requirements to ensure we provide our 
families with the very best quality of life that we can. I will also 
ensure that the needs of the Marine Corps in these areas are properly 
communicated to the DoN, DOD, and Congress.
    Question. How would you address these family readiness needs in 
light of global rebasing, BRAC, and multiple deployments?
    Answer. Regarding deployments, our goal during war is to maintain a 
deployment to dwell ratio of 1:2 or better across the force. In peace, 
our goal is 1:3. Our current end strength of 202,000 personnel will 
allow us to get close to our goal with the current commitment of 
marines in Afghanistan.
    In terms of global rebasing and BRAC, our goal is to maintain the 
standard of quality and availability with respect to facilities, 
housing, schools, community services, and medical care for all marines 
and their families. They deserve nothing less. We must be especially 
watchful during periods of transition and consolidation, as there can 
be stressors on the capacities of existing facilities or new 
requirements identified that must be addressed.
    Question. If confirmed, how would you ensure support of Reserve 
component families related to mobilization, deployment and family 
readiness, as well as active duty families who do not reside near a 
military installation?
    Answer. Support of our reservists' families during the 
mobilization, deployment and de-mobilization process is of utmost 
importance to me and the Marine Corps. The immediate benefit to our 
Reserve marines and sailors is the knowledge that their families are 
being taken care of by representatives of our commands during their 
absence. Accordingly, if confirmed I would encourage continued support 
and resourcing to Marine Forces Reserve's full-time nondeploying 
professional Family Readiness Officer (FRO) billets that are located at 
each battalion/squadron-level units and above. These FROs train and 
prepare their units' marines and families, and any active duty 
servicemembers and families in their area, on the challenges--and 
mitigating resources and strategies--of the military lifestyle. 
Additionally, these FROs ensure that the five statutorily-required 
Yellow Ribbon Reintegration Program events are delivered to their 
units' marines and family members throughout the deployment cycle.
    I would also ensure the continued allocation of resources necessary 
to support the Marine Corps' Unit Personal and Family Readiness Program 
(UPFRP). The UPFRP provides strong programs at the unit level, directs 
Commanding Officer involvement, and employs full-time, paid FROs who 
ensure continuous outreach to all marines--Active and Reserve--and 
their families. The UPFRP utilizes all support services available 
within the Corps and partners with DOD as well as other branches of 
service programs to expand the UPFRP capabilities and geographic 
outreach capabilities. The support services utilized include Marine 
Corps Community Services (MCCS), Military OneSource, Joint Family 
Services Assistance Program (JFSAP), TRICARE, and military family 
assistance centers.
    Lastly, mitigation of unique issues impacting servicemembers who do 
not reside near a military installation often requires special 
allocations, resourcing and benefits, and I will ensure these special 
needs are noted at the DoN, the DOD, and Congress via the authorization 
and appropriation processes.
                    morale, welfare, and recreation
    Question. Morale, Welfare, and Recreation (MWR) programs are 
critical to enhancement of military life for members and their 
families, especially in light of frequent deployments. These programs 
must be relevant and attractive to all eligible users, including active 
duty and Reserve personnel, retirees, and their eligible family 
members.
    What challenges do you foresee in sustaining and enhancing Marine 
Corps MWR programs and, if confirmed, what improvements would you seek 
to achieve?
    Answer. The Marine Corps Community Services (MCCS) programs are 
outstanding and have served the world-wide needs of our marines and 
their families over the past years of conflict. In the future, the 
fiscal environment may introduce budgetary challenges which must be 
considered to maintain an appropriate balance of programs offered by 
MCCS. We will focus on the sustainment of vital MCCS programs such as 
the Family Readiness Officer, Behavioral Health, Exceptional Family 
Member, and Child Care, and expansion of newer programs showing 
promising signs of success like the programs in support of our single 
marines.
                           suicide prevention
    Question. The Marine Corps suicide rate has been increasing over 
the last 3 years: 33 in 2007; 42 in 2008; and 52 in 2009.
    If confirmed, what changes in policies, programs, and practices 
would you make to reverse this trend in Marine suicides?
    Answer. In my duties as the Assistant Commandant of the Marine 
Corps, I have overseen Marine Corps suicide prevention efforts and am 
personally briefed on every suicide that occurs in our Corps. First and 
foremost, I view suicide prevention matters as a leadership issue. If 
confirmed I aim to capitalize on the early success of our new NCO 
training program entitled ``Never Leave a Marine Behind'' aimed at 
identifying at risk junior marines by expanding it to include training 
on suicide awareness and identification at the officer and SNCO level 
and even for our families. We will explore ways to help younger marines 
be more resilient as it relates to dealing with the stressors that we 
have identified by closely examining the cases of marines who have 
taken their lives. In all cases we will continue working to reduce the 
stigma that keeps too many of our marines from seeking mental health 
care and support.
    I will look to expand the reach of our newly operational behavioral 
health counseling service, ``DSTRESS''. While we continue to benefit 
from the counseling services provided by Military OneSource, VA 
Lifeline, and others, we know that sometimes a marine will only talk to 
another marine or someone intimately familiar with our culture. We are 
testing this ``by Marine--for Marine'' concept in the western United 
States with a confidential counseling line operated by marines and 
specifically trained clinicians. It is available to our Active Duty, 
Reserve, retired, and former marines as well as their families, and if 
it proves popular, we will expand coverage across the globe.
    We will ensure that we continue our ongoing efforts to work closely 
with the other Services, the DOD, and civilian and Federal agencies to 
build our programs, share our information and put our best practices 
forward. We are currently partnered with the DOD Joint Task Force on 
the Prevention of Suicide among members of the Armed Forces. We have 
joined with the Army in the National Institutes of Mental Health 
longitudinal study to assess the risk and resilience in servicemembers. 
We will also capitalize on the success of our Operational Stress 
Control and Readiness program and explore ways to expand it where 
needed.
    Question. What suicide prevention initiatives should be taken, in 
your view, with respect to Marine Corps reservists after they have been 
demobilized?
    Answer. Our reservists are a key component of the Marine Corps 
Total Force. Given that the signs of operational and combat stress and 
suicide can manifest long after a Marine returns home from deployment, 
there are unique challenges posed for reservists who can be isolated 
from the daily support network inherent in one's unit and vital medical 
care. We will ensure that demobilization and reintegration processes 
for our Reserve marines following deployment, such as the Yellow Ribbon 
Reintegration Program, are fully supported and resourced. With that 
stated, there are six suicide prevention initiatives that immediately 
come to mind regarding our Reserve marines and sailors:

    (1)  In-theater Assessment. reservists who exhibit or are 
struggling with clinically significant issues should be seen by 
competent medical authorities and evaluated for post-deployment 
treatment with follow-up decisions made prior to their return home.
    (2)  Post Deployment Health Reassessment (PDHRA). It is important 
that if any issues emerge during the reservist's PDHRA that they are 
immediately evaluated and referred for treatment by the clinician 
interviewer. This includes referral recommendations based on the 
available local resources, such as the VA, Military OneSource, private 
mental health providers, etc.
    (3)  Psychological Health Outreach Program (PHOP). I would urge 
continued delivery of the PHOP, a pilot program provided to the Navy 
Reserve in the NDAA for Fiscal Year 2007 and extended to the Marine 
Reserve in the NDAA for Fiscal Year 2010, which assists Marine and Navy 
reservists with screening for behavioral health, referring them for 
appropriate treatment, and assisting with follow up to ensure they are 
receiving the appropriate behavioral health services.
    (4)  Care Management Teams. The fourth suicide prevention 
initiative includes the VA's OIF/OEF care management teams that are a 
readily available resource for our reservists. That is, the VA assigns 
a Primary Care manager, who is responsible for referral and follow-up, 
to any reservist who has a health care issue. I would continue to 
encourage Marine Forces Reserve's active duty staff at the Reserve 
sites to develop close working relationships with these teams.
    (5)  Noncommissioned Officer (NCO) Suicide Prevention Course. I 
would continue to support Marine Forces Reserve's NCO Suicide 
Prevention Course. As of this summer, Marine Forces Reserve has 300-
trained marines who can deliver the NCO Suicide Prevention Course at 
130 different Reserve sites around the country.
    (6)  Telemedicine. We need to ensure there are effective mechanisms 
available to identify Marine reservists in need and a way to treat 
those who can sometimes be geographically isolated from the TRICARE 
networks. In this regard, I support telemedicine initiatives to help 
address this problem.

    Question. Are there additional suicide prevention measures that 
should be taken by the Marine Corps, in your view, with respect to 
Marine veterans?
    Answer. We will continue working at ways to reduce the stigma of 
seeking mental health counseling in the Marine Corps. We will make a 
concerted effort at working more closely with the VA to establish a 
substantive program to identify Marine veterans with combat stress as 
this is often an indicator of the potential for suicide. If we can 
improve our ability to identify veterans with stress-related needs, and 
provide them treatment, then we can potentially reduce the number of 
suicides among that same group.
                       wounded warrior regiments
    Question. What is your assessment of the effectiveness of Marine 
Wounded Warrior Regiments (WWRs) in treating and managing the medical 
needs of wounded, ill, and injured marines?
    Answer. The WWR provides nonmedical care management services to 
wounded, ill, and injured (WII) marines and their families. The 
comprehensive care coordination provided by the WWR, throughout the 
phases of recovery, has been highly successful. The results of internal 
assessments have substantiated that the creation of the WWR has had a 
positive impact on the support offered WII marines and families. 
Additionally, our assessments have shown positive satisfaction levels 
in important care areas, such as our Recovery Care Coordination Program 
(executed by the Regiment's Recovery Care Coordinators) and our family 
support staff.
    Question. Are you aware of any legislative authorities the Marine 
Corps may need in order to more effectively and efficiently run these 
WWRs?
    Answer. At this time, the WWR is working well within the 
authorities provided under the most recent National Defense 
Authorization Acts. We appreciate the committee's flexibility to help 
us serve WII and will remain engaged should any issues arise that 
require statutory changes.
                 sexual assault prevention and response
    Question. Prevention of sexual assault has been one of the highest 
priorities of the Secretary of the Navy. Many victims and their 
advocates, however, contend that they were victimized twice: first by 
attackers in their own ranks and then by unresponsive or inadequate 
military treatment. They assert that commanders failed to respond 
appropriately with basic services, including medical attention and 
criminal investigation of their charges.
    Based on your experience, what additional actions, if any, should 
the Marine Corps take in monitoring progress in order to ensure 
effective implementation of a ``zero tolerance'' policy relating to 
sexual assaults?
    Answer. Prevention of sexual assault is a leadership 
responsibility. Effective implementation of a ``zero tolerance'' policy 
begins with education of our leaders to ensure their full attention to 
the initiatives in place to reduce the incidence of this crime in the 
Marine Corps. Those initiatives include:

    (1)  Senior Leadership Engagement: We formed a general officer 
level Executive Steering Committee (ESC) to produce and implement a 30-
90-180 day action plan for the reduction of sexual assault. Sexual 
Assault Prevention and Response (SAPR) has been a topic at every 
conference for general officers and their spouses over the last 2 
years. The Commandant issued a letter to all commanders re-emphasizing 
their role and responsibilities in addressing sexual assault prevention 
and response.
    (2)  Increased Staff. We hired SAPR Program Managers for each 
installation with more than 1,000 marines assigned. Among other duties, 
these program managers are charged with conducting training, overseeing 
case management, and performing community outreach; thereby assisting 
installation commanders to create and more successfully implement 
necessary and effective prevention initiatives.
    (3)  Training. We have revised SAPR training to emphasize Values-
Based Leadership and Bystander Intervention Training to focus on 
intervention before a sexual assault occurs.
    (4)  Holding Offenders Accountable. We have appointed a permanent 
Judge Advocate field grade officer liaison to the USMC SAPR Office who 
is actively involved with SAPR policy development and improving 
attorney litigation training at every level. We have improved training 
for our prosecutors in the specifics of prosecuting sexual assaults.

    Question. What reporting requirements or other forms of oversight 
are most valuable in your view to ensure that the goals of sexual 
assault prevention and response policies are achieved?
    Answer. The Inspector General of the Marine Corps' inspection 
program (including site visits) is a valuable form of oversight in that 
it is the best method to evaluate whether prevention training is being 
effective. We will continue to administer frequent surveys among ``at-
risk'' population groups to determine if, when, and how their attitudes 
are changing. Reporting the number of victim treatment referrals is 
very valuable as it provides a snap-shot of how much our services are 
being utilized. It also helps determine resource allocation and whether 
proper staffing models are in place to meet our needs.
    Question. What is your understanding of the resources and programs 
the Marine Corps has in place in deployed locations to offer victims of 
sexual assaults the medical, psychological, and legal help that they 
need?
    Answer. Deploying Marine Air-Ground Task Forces (MAGTFs) have a 
Unit Sexual Assault Response Coordinator (SARC) assigned as a 
collateral duty, ensuring presence in the theater of operation. The 
Marine Corps further requires at least two Uniformed Victim Advocates 
(UVA) be available in all deploying battalions and squadrons. Medical 
and psychological doctors and specialists deploy as part of our MAGTFs 
and are prepared to treat victims of sexual assault. For legal 
services, victims of sexual assault have access to deployed Marine 
Judge Advocate legal assistance attorneys in-theater who provide legal 
support coincident to an assault.
    Question. What is your view of the steps the Marine Corps has taken 
to prevent sexual assaults in combat zones?
    Answer. Prevention efforts start before arrival in a combat zone, 
and continue throughout. Unit pre-deployment training includes 
awareness of sexual assault issues specific to deployments and 
prevention techniques, cultural awareness objectives appropriate to the 
region, and individual sexual assault risk reduction measures. 
Commanders responsible for base operating support in a combat zone also 
receive instruction on sexual assault risk reduction measures provided 
by Naval Criminal Investigative Service (NCIS) and the Command SARC.
    Question. What is your view of the adequacy of the training and 
resources the Marine Corps has in place to investigate and respond to 
allegations of sexual assault?
    Answer. We have a reliable system in place that functions capably 
in the majority of cases; however, there is room for improvement. 
Sexual assault cases are often very difficult to prosecute. The Marine 
Corps has taken several steps to improve our capability to handle 
sexual assault cases and our assistance to victims as they go through 
the criminal justice process.
    We have increased funding and training for our judge advocates in 
prosecuting sexual assault cases. Initiatives include providing 
specialized trial advocacy training on alcohol-facilitated sexual 
assault at the Naval Justice School; utilizing training offered by the 
Joint Mobile Training Team (NCIS/OJAG/JAM) focused on offender-based 
prosecution, and using Joint Computer Training Modules, with live 
actors online to work through scenarios related to sexual assault. We 
have taken steps to improve response and services for crime victims via 
the Victim Witness Assistance Program (VWAP), which is designed to 
minimize the effects of crime and to help victims and witnesses 
understand, and meaningfully participate in, the military justice 
system. In this regard, the Marine Corps held its first ever Corps-wide 
VWAP conference in June of this year, resulting in a plan for immediate 
improvement of Base VWAPs around the Corps.
    Question. Do you consider the current sexual assault policies and 
procedures, particularly those on confidential or restricted reporting 
to be effective?
    Answer. Yes. For a multitude of reasons, sexual assault has 
historically been an under-reported crime. Equally important as 
investigating and prosecuting those who commit sexual assault is the 
need to ensure victims of sexual assault get necessary and adequate 
support after an assault has occurred. Restricted reporting provides a 
way for victims to report the crime and access the full range of care 
and services without further public disclosure than he or she desires. 
This has been a positive influence on inducing victims to come forward 
for necessary treatment and victim support. About 1 in 10 reports in 
the Marine Corps typically are restricted.
    Question. What problems, if any, are you aware of in the manner in 
which the restricted reporting procedures have been put into effect?
    Answer. With the restricted reporting policy, there has been a 
learning curve of sorts for commanders and their senior enlisted 
advisors to overcome the tendency to seek justice and take care of 
their marines. We continue to educate our leaders on how restricted 
reporting works within their command to take care of their marines. 
Also, marines sometimes have a hard time understanding that there are 
representatives available that they can approach to report an assault 
without alerting the chain of command. Through ongoing training and 
education, we will continue addressing these points.
    Question. If confirmed, what actions would you take to ensure 
senior level direction and oversight of efforts to prevent and respond 
to sexual assaults?
    Answer. Sexual assault prevention begins at the top, with the 
Commandant. If confirmed, I will continue the initiatives underway to 
reduce the incidence of this crime within the Marine Corps and seek 
additional ways to improve our prevention and response. In terms of 
executive level direction on SAPR matters, I convened the Executive 
Steering Committee (ESC) and chaired its first meeting last December. I 
also chartered an Executive Working Group (EWG)--a cross-functional 
team comprised of talent and subject matter expertise in multiple 
disciplines from throughout the Marine Corps--to support the work of 
the ESC and devise implementation strategies for the policies and 
direction recommended by the ESC. If confirmed, I will ensure this 
senior level of attention and involvement continues.
                    ``don't ask, don't tell'' policy
    Question. Section 654 of title 10, U.S.C., titled ``Policy 
Concerning Homosexuality in the Armed Forces,'' includes findings and 
policy barring service by gay and lesbian individuals in the Armed 
Forces. Following their testimony recommending repeal of the policy on 
February 2, 2010, Secretary of Defense Gates and Chairman of the Joint 
Chiefs of Staff, Admiral Mullen, initiated a high level, comprehensive 
review of the impact of repealing current law.
    What is your view of the current ``Don't Ask, Don't Tell'' policy, 
and its impact on the Marine Corps?
    Answer. In my view, the current law (and associated policy) has 
been a reasonable compromise between the unique requirements of 
military service and the aspirations of qualified citizens who are 
interested in military service. I would characterize its impact on the 
Corps as being minor; about two tenths of 1 percent (.2 percent) of the 
roughly 626,000 marines discharged since 1993 were released for reasons 
of homosexuality.
    Question. In your personal view, should the current policy be 
repealed? Why or why not?
    Answer. In my personal view, the current law and associated policy 
have supported the unique requirements of the Marine Corps, and thus I 
do not recommend its repeal. My primary concern with proposed repeal is 
the potential disruption to cohesion that may be caused by significant 
change during a period of extended combat operations. Furthermore, I'm 
concerned that a change now will serve as a distraction to marines who 
are tightly focused at this point on combat operations in Afghanistan. 
The Secretary of Defense has instituted a comprehensive review of the 
law and policy, and that review should tell us a lot about whether such 
a change will be disruptive to unit cohesion. The review will also 
provide insights into how, if Congress approves of a change in law and 
the President signs it, the DOD should develop policy for its 
implementation.
                      navy-marine corps legal team
    Question. The grades of the Judge Advocates General and the Staff 
Judge Advocate to the Commandant were recently increased by Congress to 
enhance their ability to fulfill their responsibilities and, with 
respect to the Department of the Navy, an independent panel has been 
established under section 506 of the National Defense Authorization Act 
for Fiscal Year 2010 to review judge advocate requirements and the 
supervisory role and authority of the Judge Advocate General of the 
Navy.
    How would you evaluate the contribution by Marine Corps judge 
advocates to the mission of the Marine Corps in Operation Enduring 
Freedom (OEF) and Opeation Iraqi Freedom (OIF), and the success of the 
Corps overall in performing its mission?
    Answer. Marine judge advocates have made significant, critical and 
well-documented contributions to OIF and OEF, supporting our overall 
success as a Marine Corps. Since 2001 over 600 Active and Reserve judge 
advocates have deployed in support of OEF and OIF, serving in every 
level of command from infantry battalion to the headquarters of U.S. 
CENTCOM. The reviews from our commanders have been uniformly and 
overwhelmingly favorable on their performance as legal advisors, Marine 
Air-Ground Task Force (MAGTF) officers and contributors to the 
warfighting mission. Our judge advocates, as unrestricted line 
officers, are immersed in Marine Corps ethos from accession and mature 
into well rounded MAGTF officers, which facilitates their seamless 
integration into the warfighting effort at all levels.
    The contribution of our judge advocates to the overall success of 
the Corps has been similarly significant. We are aggressively working 
to get better and meet emerging challenges. The SJA to Commandant of 
the Marine Corps (CMC) has recently published a Strategic Action Plan 
(SAP) that fairly assesses our capabilities and charts a way forward. 
The SAP also details several recent initiatives aimed at enhancing the 
effectiveness and efficiency of the legal services community.
    Question. How important, in your view are command or operational--
i.e., nonlegal--assignments for field grade Marine judge advocates for 
their career and professional development?
    Answer. The opportunity to serve in command, operational, and other 
nonlegal billets is essential to the development of Marine judge 
advocates. We both consider, and are of the firm opinion, that our 
judge advocates are unrestricted line officers. For the past 50 years, 
we have maintained this approach because we believe service in nonlegal 
billets makes our judge advocates better Marine officers and better 
legal advisors. An analogy is to pilots who serve as forward air 
controllers with our combat arms maneuver units becoming better 
equipped to provide close air support as a result of their time out of 
the cockpit and on the ground with front-line combat units. As well, a 
common culture and philosophy, gained through shared professional 
background, experiences and hardships, builds comradeship--an essential 
component to establishing trust between commanders and their judge 
advocates. In short, service in nonlegal billets ensures that our judge 
advocates are fully integrated and enhances their credibility.
    This integral part of the professional development of our judge 
advocates has also proven beneficial to a successful career. As a 
testament to their integration as complete MAGTF officers, our judge 
advocates have historically been successful on promotion boards. They 
have also been competitive on command selection boards attaining 
commands, for instance, in charge of recruit training battalions, a 
Marine Corps Embassy Security Group, and a School of Infantry 
headquarters battalion. We also do not believe that this time out of 
one's legal occupational specialty detracts from the overall legal 
mission of the Corps. The amount of time a typical judge advocate 
spends in nonlegal billets (including nonlegal professional schools 
attended after the 9 months spent in early officer training) varies but 
is relatively small. Over the course of a 20 year career, a Marine 
Judge advocate spends, on average, about 20 months in nonlegal billets.
    Question. What is your understanding of the respective authorities 
and responsibilities of the Staff Judge Advocate to the Commandant and 
the Judge Advocate General of the Navy over the performance of the 
military justice mission within the Marine Corps and by judge advocates 
who are assigned military justice duties?
    Answer. My understanding is that the JAG has the responsibility and 
authority to set policy and oversee the performance of the USMC and USN 
military justice mission at the departmental level. The Marine Corps 
and the U.S. Navy have the service responsibility and authority to 
oversee execution of the mission and to oversee the performance of 
judge advocates performing legal duties, including military justice.
    Question. If confirmed, will you support the Independent Panel in 
investigating possible means of improving the Navy-Marine Corps legal 
team?
    Answer. Yes, the Marine Corps welcomes, and I fully support, the 
Independent (506) Panel reviewing possible means of improving the Navy-
Marine Corps legal community. I also trust the panel will recognize the 
unique role of the Marine Corps and our unique requirements. I am 
confident that our participation in the Panel will be comprehensive and 
transparent.
                            recapitalization
    Question. The Marine Corps intends to concurrently recapitalize 
several of its front line systems. The MV-22 Osprey tiltrotor aircraft, 
the Expeditionary Fighting Vehicle (EFV), and the Joint Strike Fighter 
(JSF) are all scheduled to be in production at the same time.
    Do you believe that these production plans are realistic in light 
of the demands on resources imposed by maintaining current readiness?
    Answer. Procuring new aircraft, vehicles, and equipment, while 
maintaining current readiness, is a continual and long-term process of 
balancing demands on resources to man, train and equip the Corps. The 
ongoing transition to the MV-22 and the future migration to the JSF and 
EFV are optimized to ensure an operational equilibrium across the 
Marine Corps.
    The EFV program is a component of our developing ground tactical 
vehicle strategy, and the full impact of its affordability versus 
capability will be defined in that document once published.
    We are procuring MV-22s at a rate that retains assault support 
readiness, and as recently demonstrated in OIF and OEF this aircraft 
delivers battlefield effectiveness in support of ground forces. We are 
confident in the rate of procurement and transition of the MV-22 and 
the need to realize our planned buy of 360 aircraft. The Marine Corps 
TACAIR strategy for the last 11 years has been to forego procuring new 
variants of legacy aircraft. It was our decision that continuing to buy 
legacy airframes left us with the inherent obsolescence, high ownership 
cost and fatigue life issues associated with those aircraft. We opted 
instead to transition to a new generation aircraft that takes advantage 
of technology improvements, generating substantial savings in total 
ownership cost.
    The capabilities of the F-35B enable the Marine Corps to replace 
three legacy aircraft types and continue to execute all of our 
missions. This was a wise management decision which minimized resource 
demands while retaining operational relevance and readiness. The 
planned procurement rate of the F-35B and the associated return on 
investment outweighs the unavoidable legacy aircraft operating and 
support cost increases we will incur with the F/A-18, AV-8B, and EA-6B. 
The timely delivery of the F-35B Short Take Off and Vertical Landing 
(STOVL) remains critical to maintaining current and future readiness.
    Question. Is it your understanding that MV-22 readiness rates in 
Iraq, Afghanistan, and in the United States have achieved desired 
levels?
    Answer. While our deployed MV-22 units have met all expectations 
placed on them in theater and are accomplishing their assigned missions 
around the world, we are not satisfied with our readiness rates. We 
have acknowledged this issue and are working on multiple fronts to 
improve aircraft readiness.
    Question. In your view, will the MV-22 be sustainable over time at 
an acceptable cost?
    Answer. Yes, it will be sustainable over time. Reducing operating 
costs for the MV-22 is an issue our government-industry team is 
addressing. Our coordinated strategy will provide incremental 
improvements over time. Component modification, improved maintenance, 
and diligent supply support practices are being implemented to reduce 
component removals and increase component availability.
    Question. What is your understanding of the steps that the Marine 
Corps and the contractor are taking to reduce costs and increase MV-22 
readiness rates?
    Answer. Our government-industry team has a coordinated strategy to 
increase readiness rates while reducing costs. This strategy is spiral 
in nature and will provide incremental improvements over time. Short 
term, we will procure spares at the correct range and depth, both to 
overcome inaccurate engineering estimates of component failure rates 
and to incorporate rapidly a select number of redesigned components.
    Simultaneously, our team is working on the program's long-term 
health and cost reduction with a three-pronged approach. First, we are 
focused on redesigning the specific components that are continuous 
degraders for the fleet. Second, we are improving maintenance practices 
and shifting to lower repair levels in order to achieve the most cost-
effective and efficient means of component repair. Third, our team is 
ensuring industry raises parts production capacity to meet demonstrated 
demand while designating additional candidates for potential redesign 
and retrofit. The full implementation of these three efforts will allow 
us to achieve our desired readiness levels while reducing overall 
aircraft life cycle costs.
                         aviator as commandant
    Question. If you are confirmed, you would be the first commandant 
to be an aviator. This achievement could bring particular new 
perspectives as well as potential challenges.
    What particular perspectives do you believe you would bring to the 
job of Commandant from your experiences with a career in aviation?
    Answer. Marine officers at all levels are first and foremost 
marines--an ethos transcending occupational specialty or categorization 
into classes, corps or branches of specialty. Although I am aviator by 
trade, for the last 8 years I have been in command at various levels to 
include an Aircraft Wing in combat and a MEF comprised of 60,000 
marines. I served as Deputy Commandant for Combat Development and 
Integration, overseeing all USMC warfighting requirements. For the last 
2 years, I have served as the assistant Commandant of the Marine Corps, 
fully engaged in the pressing issues of readiness, training and 
equipping that impact our Corps. That is the perspective I will bring 
to the job of Commandant if confirmed.
    Question. What challenges, if any, do you believe you would need to 
overcome as the first aviator serving as Commandant?
    Answer. If confirmed, I do not foresee any challenges serving as 
Commandant stemming from my background as an aviator.
                           tacair integration
    Question. Under the so-called TacAir Integration Program, the 
Department of the Navy has integrated certain Marine Corps F/A-18 
squadrons into its carrier air wings and deployed them as part of 
carrier battle groups. You commanded such a squadron. Additionally, 
some Navy squadrons are supposed to support Marine Corps land-based 
deployment commitments.
    From your perspective, how well has this program worked to support 
both carrier-based and land-based deployments?
    Answer. From my perspective, I believe TACAIR integration is a 
mutually supportive Navy-Marine Corps concept that has worked well. 
TACAIR integration provides the Department of the Navy with the 
flexibility to employ sea-based squadrons and move those squadrons 
ashore when required, and to surge both Navy and Marine Corps 
nondeployed squadrons to project dominant and decisive offensive power 
from the sea or ashore in support of combatant commanders and joint 
force objectives. The continued integration of naval aviation TACAIR 
units provides the framework for the Navy and Marine Corps to enhance 
further our core combat capabilities and provide a more potent, 
cohesive, and sustainable fighting force.
    Question. What, if any, have been the problems with this program 
that you have seen?
    Answer. There are no problems that I am aware of with TACAIR 
integration. TACAIR integration has increased the tactical acumen and 
interoperability of our pilots with those of the U.S. Navy. We continue 
to meet our obligations under the current TACAIR Memorandum of 
Understanding, TACAIR Memorandum of Agreement and TACAIR Integration 
Team Charter; and we look forward to increasing the Marine Corps' 
participation in 2012.
    Question. As the Marine Corps shifts from operating F/A-18 aircraft 
to F-35B aircraft, how will that affect the current TacAir Integration 
Program?
    Answer. The Marine Corps commitment to TACAIR integration is 
enduring, and our participation will continue after the introduction of 
the JSF. During the transition, the Marine Corps will continue to have 
F/A-18 squadrons integrated with Navy Carrier Air Wings through 2021, 
which is when the Marine Corps anticipates transitioning its last 
Active component squadrons to the JSF. TACAIR integration is more than 
single-seat F/A-18s aboard the carrier, however. Marine Corps AV-8Bs 
have been deploying aboard L-Class U.S. Navy ships for almost 30 years 
(the first deployment for AV-8 was aboard the USS Tarawa in October 
1980), and that relationship will continue as the Marine Corps acquires 
the F-35, with a vision of an all-STOVL force.
                   army and marine corps capabilities
    Question. What are your views regarding the joint development and 
acquisition of Army and Marine Corps equipment?
    Answer. Where it makes sense, I am a big proponent of joint 
development and acquisition with the Army, especially given our 
respective history working in a joint capacity during the prosecution 
of land campaigns. The Army and Marine Corps are well harmonized in the 
development and acquisition of equipment. The Army-Marine Corps Board 
has provided a great forum to identify and discuss areas of divergence 
and allow us to turn them into areas of convergence. We team well in 
those venues where we have common requirements and on those platforms 
we should be addressing jointly.
    I would like to stress, however, that the focus on joint 
acquisition should neither negate nor preclude an appreciation of an 
equal need for Service-specific programs or ones vital to 
legislatively-mandated Marine Corps competencies, which in some 
instances are truly divergent from those of the Army. The Marine Corps 
is a unique, combined arms, amphibious force unlike any other on the 
world stage and as such maintains unique needs that merit appreciation.
    Question. Do you believe the Joint Staff should have a role in 
synchronizing Army and Marine Corps requirements and service programs?
    Answer. I think the Joint Staff plays an essential role in the 
requirements, synchronization and validation cycle between the Army and 
Marine Corps and that such mechanisms currently exist via processes 
inherent in the Joint Requirements Oversight Council (JROC) and the 
Joint Capabilities Integration Development System (JCIDS).
    Question. What programs would you consider to be candidates for 
joint program development for the Army and Marine Corps?
    Answer. While this list is neither restrictive nor exhaustive, I 
think there may be opportunities for joint program development for the 
Army and Marine Corps in areas such as intelligence programs addressing 
collection and dissemination, common logistics systems such as Cargo 
UAS, unmanned aerial systems, indirect fire assets and command and 
control programs.
                 expeditionary fighting vehicle program
    Question. During the fiscal year 2011 budget deliberations, 
Secretary Gates decided to continue the EFV Program in research and 
development to see whether the redesigned EFV can achieve better 
reliability goals. Since that decision Secretary Gates has called into 
question various aspects of opposed amphibious landings in the future, 
including the costs and performance of the EFV program.
    Is there an enduring requirement for the capability to conduct 
opposed amphibious operations? If so, at what scale?
    Answer. There is absolutely an enduring requirement for the 
capability to conduct opposed amphibious operations; in simple terms 
this gives the United States an assured access capability under any 
circumstances. America remains a maritime Nation with global 
responsibilities. The majority of the world's population lives within 
200 miles of the sea. The Marine Corps-Navy team provides the Nation's 
only assured access force that can come from the sea to project and 
sustain power ashore in this environment. Seaborne amphibious forces 
provide a maritime power like the United States significant advantages 
including the ability to overcome the tyranny of distance and project 
power where we have no basing or infrastructure. The amphibious 
capability inherent in the Marine Corps also provides a powerful 
deterrent that is central to our National Security Strategy.
    Question. What is your view of the EFV and the role that it may 
play in future Marine Corps operations?
    Answer. The EFV program will help to fill a current gap in littoral 
capabilities and supports a waterborne assault capability the United 
States cannot live without--assured access and forcible entry from the 
sea. If the Nation wants the ability to come from the sea, it needs an 
amphibious tractor that is also a fighting vehicle for use across the 
continuum of threats and at every scale in the littorals. I am 
convinced of that. A modern amphibious tractor is required to maneuver 
the ground combat forces of the Marine Air Ground Task Force, a 
balanced air/ground team.
    Question. Would the Marine Corps be able to conduct opposed 
amphibious landings with the capability promised by the EFV?
    Answer. The Marine Corps will maintain the capability to conduct 
opposed amphibious landings with the EFV. The EFV's ability to conduct 
high speed maneuver at sea as well as on land, combined with its 
weapon, communication, and protective systems make it a highly-
survivable and lethal capability suitable for opposed landings as well 
as hybrid threats that accompany counter-insurgency environments. The 
program also includes a force protection component for use once ashore 
which consists of an underbody applique armor kit, employed to enhance 
survivability against IEDs, much as the Bradley and M1A2 underbelly 
appliques are employed. The range and speed of the EFV, up to 26 knots 
or greater, allows for a substantial over-the-horizon launch process, 
providing stand-off that protects our naval amphibious ships from high-
end littoral threats, such as anti-ship ballistic missiles.
    Question. Would the Marine Corps and the Navy be able to conduct 
opposed amphibious operations against capable adversaries without an 
armored vehicle with the attributes of the EFV?
    Answer. The Marine Corps and Navy have the ability now to conduct 
opposed amphibious landings against capable adversaries with our 
current amphibious vehicles, helicopters, and other equipment. My 
concern would be that our current amphibious vehicles are 40 years old, 
slow, and not equipped with a potent main gun to deal with the 
continuum of threats a formidable opposed landing could present. They 
require Navy vessels to be at closer ranges to the littorals exposing 
them to greater mine and anti-ship missile threats. In an era of 
increasing challenges to access, the capabilities of a vehicle like the 
EFV afford our amphibious ships the maneuver space and stand-off 
distance to better counter anti-access weapons.
                               sea basing
    Question. The Sea Base has long been envisioned as an element of 
the Department of the Navy's future concepts and had been seen as one 
of the centerpieces of the future force. In particular, the Maritime 
Prepositioning Force-Future (MPF-F) was being designed to support 
future Marine Expeditionary Brigades with logistics at sea to avoid 
having to rely on a large logistics footprint ashore.
    What compromises in future war fighting concepts or capabilities 
has the Marine Corps had to make to compensate for the elimination of 
the MPF-F program in its original design?
    Answer. The MPF-F program has been restructured into an enhanced 
Maritime Prepositioning Ships program that will not be capable of the 
full range and depth of sea-based operations that we envisioned with 
MPF-F. However, we are continuing to examine how we will execute 
seabasing with the capabilities provided by the improvements being made 
to MPF. We are using capabilities that include additional high-speed 
intra-theater lift, improved connectors that can transfer people and 
materiel at-sea, enhanced maritime prepositioning, and integrated naval 
logistics. These and other emerging initiatives are and will be 
employed in combination to continue to capitalize on existing Seabasing 
capabilities as well as reduce the joint force's reliance on ports in 
the operational area.
    Question. Will the Marine Corps' be more vulnerable to anti-access 
strategies in the future due to the elimination of the MPF-F?
    Answer. The differences in our fleet without MPF-F--the loss of 
three Aviation capable ships, three Large Medium-Speed Roll-On/Off 
(LMSR) Platforms, and changes to the three Mobile Landing Platforms 
(MLP)--means we will have a loss of sea-basing enabling capabilities. 
We simply will not have the capability we would have had with MPF-F.
    However, the addition of three Mobile Landing Platforms and three 
T-AKE auxiliary dry cargo ships to the Maritime Prepositioning Ships 
(MPS) squadrons, coupled with MPS's existing LMSR cargo ships, will 
enable the MPS squadrons to conduct true at-sea, sea-state three 
selective offload of vehicles, personnel, and equipment without 
complete reliance on fixed ports ashore. While not all of the MPS ships 
and stocks will be able to execute at-sea offload and maneuver ashore 
as envisioned in the MPF-F program, the introduction of MLPs, T-AKEs, 
and LMSRs provide the Navy and Marine Corps a substantial first step in 
attaining the full range of sea-basing capabilities. As stated in the 
Report to Congress on Annual Long-Range Plan for Construction of Naval 
Vessels for fiscal year 2011, the Navy intends to procure three MLPs to 
fulfill this capability. These ships will provide concept validation, 
operational testing and an incremental operational capability.
                     amphibious fleet requirements
    Question. In the spring of 2010, Secretary Gates made several 
public statements in which he appeared to question the need for and 
size of the Navy's amphibious fleet in future defense plans and 
budgets.
    What is your view of the need for and size of the Navy's amphibious 
fleet?
    Answer. The requirement for amphibious ships that has been agreed 
to within the Department of the Navy (DoN) is 38 ships; we have 
accepted risk down to 33 ships. This number gives a capability needed 
for both steady state operations and represents the minimum number of 
ships needed to provide the Nation with a credible sea based power 
projection capability of the assault echelon of two brigades--with 
risk. However, we currently have 31 amphibious ships with that number 
possibly falling even lower. So, I am concerned about the size and 
health of our current and future amphibious fleet.
    Combatant commanders have increased demand for forward-postured 
amphibious forces capable of conducting security cooperation, regional 
deterrence, and crisis response. In the past 20 years, U.S. amphibious 
forces have responded to crises and contingencies at least 104 times--a 
response rate more than double that of the Cold War.
    Amphibious ships are useful, flexible warships--ideal for the 
current and future demand signal for building partnership capacity and 
conducting NEOs and HA/DRs, as we are currently doing in Pakistan in 
response to the floods there. The inherent flexibility and utility of 
amphibious forces is not widely understood, as evidenced by the 
frequent--and erroneous--assumption that ``forcible entry 
capabilities'' alone define the requirement for amphibious ships. The 
greatest employment of amphibious ships is for steady state engagement 
and crisis response.
    Question. What are the alternatives if the amphibious fleet is 
allowed to decline in size or capabilities?
    Answer. If the amphibious fleet is allowed to decline in size or 
capabilities, our Nation will have a diminished capacity to support the 
objectives of the National Security Strategy--forward presence, 
building partners, deterring aggression, and assuring access.
                           f-35 requirements
    Question. The Marine Corps has stated that its F-35 requirement is 
420 aircraft. The total number of F-35s planned for the Department of 
the Navy is currently set at 680.
    To your knowledge, has the allocation of F-35s between the Navy and 
the Marine Corps been established?
    Answer. The allocation of F-35s within the Department of Navy by 
specific variant--the F-35B STOVL and the F-35C carrier variant--has 
not been established; and I feel such a decision would be premature at 
this time. We are committed to making a decision at the earliest 
opportunity based upon F-35 program maturity as defined by discrete and 
successful program events and accomplishments to include F-35B test 
burn down; F-35B/L-Class sea trials; F-35C test burn down; F-35C/CVN 
sea trials; and an assessment of F-35B/CVN interoperability. Upon 
completion of these and other key program milestones, the Marine Corps 
will determine the proper allocation of F-35 variants to support our 
operational commitments and remain the expeditionary force in readiness 
the Nation demands.
    Question. What is your understanding of when Congress will be 
informed of this allocation?
    Answer. I anticipate this decision could be made after the 
completion of the JSF program System Development and Demonstration 
(SDD) phase in accordance with the F-35 program restructure.
    Question. Do you believe that the current plan for 680 aircraft can 
fully accommodate the needs of both the Navy and the Marine Corps?
    Answer. The Marine Corps remains committed to the DoN's F-35 
Program of Record (POR) to procure 680 aircraft. Since 2001, the Marine 
Corps has consistently stated, documented and periodically re-verified 
a TACAIR requirement to meet our operational demands and commitments as 
being 420 F-35B JSF aircraft. Our inventory projection is based on 
detailed projected and historical operational analysis, optimization of 
JSF multi-mission capabilities, complete legacy TACAIR replacement by 
the F-35B, and expected improvements in reliability, maintainability, 
and survivability.
                          joint forces command
    Question. In your view, what is the appropriate role for the U.S. 
Joint Forces Command (JFCOM) with respect to Marine Corps 
experimentation, acquisition, and exercise planning and execution?
    Answer. The greatest impact that JFCOM has is through its influence 
on joint standards, experimentation and harmonization. It is 
appropriate for JFCOM to work in partnership with the regional 
combatant commanders to coordinate and synchronize worldwide joint 
exercises, provide joint training models and scenarios, and establish 
joint training tasks, conditions, and standards. With respect to 
acquisition programs, while we do not want to sacrifice what are truly 
unique contributions to national security in the name of jointness, it 
is important to consider alternatives. JFCOM can serve as a catalyst 
for this consideration through its experimentation efforts.
                       naval surface fire support
    Question. The DDG-1000 program was initiated to fill the capability 
gap for naval surface fire support. The original requirement for 24 to 
32 DDG-1000 ships, each with 2 155mm Advanced Gun Systems (AGSs), was 
reduced to 12 ships, then to 10 ships, then to 7 ships, and finally to 
3 ships.
    In your view, does this significant reduction in the number of DDG-
1000 destroyers meet the Marine Corps' requirement for naval surface 
fire support?
    Answer. Any reduction in naval platforms designed to contain a 
capability to contribute to the Marine Corps' overall requirement for 
naval surface fire support, with its proven record of an all-weather 
capability to provide precision, volume and lethality, is something of 
concern. However, I am confident the Navy can provide the surface fire 
support that we need in the Marine Corps with its current and future 
fleets. The Corps has an enduring requirement for fire support from 
naval vessels in the range of 41-63 nautical miles to support 
amphibious operations in the littorals. These fires are ones needed by 
tactical commanders to maneuver towards battlefield objectives once 
ashore. The 3 DDG-1000 ships, each with 2 AGS, 600 round magazines and 
employing the Long-Range Land Attack Projectiles can be augmented with 
surface fires from virtually all current surface combatants with their 
5-inch conventional ammunition capability.
    Question. What other capabilities would you rely upon to help meet 
naval surface fire support requirements?
    Answer. The Marine Corps adheres to the concept of a balanced and 
complementary use of the joint triad of fires. So, we will rely on 
other components of the joint triad of fires to include tactical 
aviation (Marine aviation and Carrier based naval aircraft) and ground 
fire systems. We also look towards the possibility of Air Force 
support. I am in favor of an all-weather system with lethality, volume 
and precision such as the AGS. I also support ongoing research and 
development efforts of transformational naval surface fire systems like 
the Electromagnetic Rail Gun.
                       joint acquisition programs
    Question. What are your views regarding joint acquisition programs, 
such as the Joint Tactical Radio System and the JSF?
    Answer. Joint acquisition programs work well when there is a 
commonality of mission and function, and when the Services involved are 
willing to work together and fully resource the effort to its 
conclusion. There have been some challenges with our Joint Tactical 
Radio System program. However, as the Marine Corps continues to 
participate in the Joint Tactical Radio System program, we find joint 
waveforms being developed that not only enhance the interoperability of 
the program but also that provide a more robust communications 
capability for the deployed war-fighter. Equally significant are the 
Joint Mine Resistant Ambush Protected Vehicle and the Joint Light 
Tactical Vehicle. These are current examples of programs where the 
Marine Corps and the Army have joined to produce a common solution.
    As it relates to joint and multinational acquisition of the JSF, 
there has been a directed effort towards design commonality into all 
aspects of the F-35 program. This will minimize acquisition and 
operating costs of Marine Corps tactical aircraft and will drive 
enhanced interoperability with the U.S. Air Force and the U.S. Navy 
along with the nine partner nations participating in the development of 
this aircraft. Unique to the STOVL variant is the additional benefit 
from collaboration in training, operations, and support with the 
British Royal Navy, British Royal Air Force, Italian Navy and Italian 
Air Force. We share common capability requirements and the need for 
basing flexibility, ashore and afloat, and these shared goals result in 
savings in development, procurement, and sustainment costs.
    Question. Do you see utility in encouraging the Services to conduct 
more joint development, especially in the area of helicopters and 
unmanned systems?
    Answer. Yes, there is clear utility in our continuing to exercise a 
preference for joint programs. Economy is gained throughout the life-
cycle of such programs. We are always looking for opportunities to 
capitalize on the investments that our sister Services have committed 
or to join together in a common endeavor that will save us both 
precious development and production dollars. The positive impact of 
common systems on training, sustainment and interoperability are clear 
from my perspective.
    Regarding unmanned systems, the real utility is in development of 
joint technical standards that will allow each service to modify 
existing command and control systems and unmanned systems to develop 
Joint or Service specific systems that will be interoperable. We need 
to specify these standards to industry to decrease cycle times and 
increase interoperability in this critical capability area.
    Question. If so, what enforcement mechanisms would you recommend to 
implement more joint program acquisition?
    Answer. Mechanisms and regulations currently in place seem 
adequate. However, with greater complexity of joint systems, 
particularly in the area of command and control, the need for the most 
qualified program managers and visionary governance becomes vital. For 
any joint program, ensuring the right number and mix of subject matter 
experts from each stakeholder is paramount to informing leadership in 
making appropriate risk-based decisions that consider the larger impact 
across DOD.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as Commandant of the Marine 
Corps?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator James M. Inhofe
                            challenges ahead
    1. Senator Inhofe. General Amos, the 2010 Quadrennial Defense 
Review objectives are significant undertakings for our armed services: 
prevail in today's wars, prevent and deter conflict, which includes 
fighting a two front war, prepare to defeat adversaries and succeed in 
a wide range of contingencies, and preserve and enhance the All-
Volunteer Force. In our current defense budgeting, we are mortgaging 
our future warfighting capability by reducing our modernization and 
research and development efforts in order to meet the near-term threats 
that have consumed our force for the last 9 years. Our equipment, such 
as aircraft, naval vessels, ground combat vehicles, and helicopters are 
in many instances legacy equipment, having for the last several decades 
been upgraded but not replaced. Just like the Army, the Marine Corps 
has been at war for 9 years in both Afghanistan and Iraq and suffering 
the impacts: high operation tempo, casualties, and higher rates of wear 
and tear on equipment. Suicides in both the Marine Corps and the Army 
remain high. Personnel costs, due to medical costs, have increased 
exponentially. Programs are being cut, efficiencies are being sought, 
and savings are being pursued. In your view, what are the major 
challenges that will confront the next Commandant of the Marine Corps?
    General Amos. The major challenges facing the next Commandant of 
the Marine Corps center on continuing to provide the marines fighting 
in Afghanistan the very best training, equipment, and support possible 
while ensuring the Marine Corps is ready for the uncertain threats of 
the future, all during what we anticipate to be a very challenging 
fiscal climate.
    We are at war and that must be our highest priority. At the same 
time, we must balance our capabilities to do what the Nation will 
likely ask of its marines in the coming decades. Additionally, as the 
Nation's premier Expeditionary Force in Readiness, the Marine Corps 
must always be ready to answer the call to do whatever the President 
may direct.
    The impact of 9 years of war has been significant, and the wear and 
tear on our equipment has taken a toll. The Marine Corps will require 
additional funding for several years after the end of operations in 
Afghanistan to reset our equipment.
    The cost of war has been felt most keenly by our wounded marines 
and sailors and their families. If confirmed, I will build on the 
tremendous work of General Conway to care for our wounded and their 
families.
    Fiscal realities place an additional strain in meeting our 
challenges and priorities. Difficult choices will have to be made. If 
confirmed, I will work with the Chief of Naval Operations and Secretary 
of the Navy to ensure that the Navy-Marine Corps team continues to 
provide the Nation a force capable of coming from the sea across the 
full range of military operations.

    2. Senator Inhofe. General Amos, assuming you are confirmed, what 
plans do you have for addressing these challenges?
    General Amos. If confirmed, I will continue to work with the 
Secretary of the Navy to ensure that we have the fiscal resources to 
support the war in Afghanistan while maintaining the Corps' ability to 
respond across the full range of military operations, now and in the 
future. I will work with the deputy commandants of the Marine Corps to 
develop plans to ensure our readiness to meet future requirements. At 
the same time, I will work to ensure that we retain our capability, 
along with the Navy, to carry the fight from the sea ashore to any 
adversary that would threaten our national security.

    3. Senator Inhofe. General Amos, if confirmed, what broad 
priorities would you establish in terms of issues which must be 
addressed by the Commandant of the Marine Corps?
    General Amos. Our first priority will be to continue to ensure that 
our marines deployed in harm's way have everything they need to fight 
and win. Caring for the welfare of our marines and their families will 
also be a priority. For marines, looking to their welfare means 
providing them the absolute best training, equipment, and support. 
Therefore, I will work to ensure that our training, from boot camp 
through senior level professional military education and every step in 
between, incorporates the lessons learned in combat to make our marines 
more resilient, more ready, and more effective on the complex 
battlefield we see today and in the future.
    I will build on the tremendous foundation that has been established 
in our family readiness and wounded warrior programs. The strains of 
war require robust, effective support for the needs of our families and 
our wounded marines. These efforts will not be reduced when combat 
operations in Afghanistan are over. They will require sustained support 
to ensure that we honor the sacred trust the Nation has with those who 
serve and those who pay the heaviest price.
    We must ensure that we maintain the sustainable deployment to dwell 
ratio of about 1:2 for our force while fighting a war. A deployment to 
dwell ratio worse than 1:2 increases the stress on personnel and limits 
our ability to be ready for the broad range of threats and challenges 
the Nation will face. Our goal during peace is a 1:3 deployment to 
dwell ratio.
    We must ensure that we provide our marines the equipment and 
support they need. People, equipment, and programs all cost money, and 
difficult decisions will have to be made. If confirmed, I will do my 
best to ensure that those decisions support a Marine Corps that remains 
the ready and capable force that the Nation has come to expect.

    4. Senator Inhofe. General Amos, what recommendations would you 
have for controlling the rising cost of personnel?
    General Amos. We have the world's most competent, professional and 
ready military, but that comes at a tangible cost. Any cost-saving 
measures must consider the possible negative effects on the dynamic of 
an All-Volunteer Force and our needs for national security. Our force 
structure review that begins in September will address our posture and 
organization for the future security environment and will give us a 
better insight into personnel requirements over the long term.

    5. Senator Inhofe. General Amos, as the Marine Corps has the 
highest percentage of servicemembers who leave after their first term, 
what is your assessment of the adequacy of compensation and benefits 
available for noncareer servicemembers?
    General Amos. The Marine Corps is a high-intensity, physically-
demanding military organization that requires a younger demographic 
(i.e. 17-25 year olds) to meet force structure requirements. This 
demographic often has intentions of serving for only one term, 
especially as it relates to the combat arms occupational specialties. 
In my estimate, compensation and benefits are adequate to meet our 
recruiting and retention goals.

    6. Senator Inhofe. General Amos, what do you consider to be the 
most essential elements supporting the quality of military life for 
marines and their families?
    General Amos. I consider the essential elements impacting quality 
of life for our marines, sailors, and their families to be dwell time, 
housing, schools, medical care, community services, and pay and 
benefits. If confirmed, my goal as it relates to quality of life will 
be to strive to ensure that marines and their families have 
availability and access to quality facilities and family support 
programs, as well as resources and benefits that afford a respectable, 
decent and healthy standard of living. I would also push for a 
continued dwell time ratio of 1:2 or better, which is important to 
maintaining a good quality of life for all marines and our assigned 
sailors.

    7. Senator Inhofe. General Amos, what areas should not be cut?
    General Amos. I believe there should be caution and judiciousness 
used when considering cuts to programs impacting our marines, sailors, 
and their families' quality of life such as housing, schools, medical 
care, community services, and pay and benefits. The current fiscal 
environment may introduce budgetary challenges and responsibility to 
maintain an appropriate balance of programs offered by Marine Corps 
Community Services (MCCS). I will advocate for sustainment of vital 
MCCS programs like ones funding family readiness officers, behavioral 
health resources, exceptional family member and child care as well as 
other programs in support of our single marines. I will advocate for 
retention of our current end strength to ensure the 1:2 dwell time we 
are just now achieving endures amidst existing force requirements at 
war. In the midst of any discussion on budgetary cuts, I will ensure 
the needs of the Marine Corps are properly communicated to the 
Department of Navy, Department of Defense (DOD), and Congress.

                         don't ask, don't tell
    8. Senator Inhofe. General Amos, when Don't Ask, Don't Tell was 
first implemented in 1993, I was staunchly against it and any 
recognition of homosexuals serving in the armed services. As I see it 
now, the policy approved in 1993 has worked. Earlier this year, in 
public testimony, General Conway, your predecessor, along with the 
other Service Chiefs, collectively stated that a review be conducted 
first to fully assess the situation and then, only then, make a 
decision as what is the best way forward. What is your view of the 
current Don't Ask, Don't Tell policy, and its impact on the Marine 
Corps?
    General Amos. In my view, the current law (and associated policy) 
has been a reasonable compromise between the unique requirements of 
military service and the aspirations of qualified citizens who are 
interested in military service. I would characterize its impact on the 
Corps as being minor; about two tenths of 1 percent (.2 percent) of the 
roughly 626,000 marines discharged since 1993 were released for reasons 
of homosexuality.

    9. Senator Inhofe. General Amos, in your personal view, should the 
current policy be repealed? Why or why not?
    General Amos. In my personal view, the current law and associated 
policy have supported the unique requirements of the Marine Corps, and 
thus I do not recommend its repeal. My primary concern with proposed 
repeal is the potential disruption to cohesion that may be caused by 
significant change during a period of extended combat operations. 
Furthermore, I'm concerned that a change now will serve as a 
distraction to marines who are tightly focused at this point on combat 
operations in Afghanistan. The Secretary of Defense has instituted a 
comprehensive review of the law and policy, and that review should tell 
us a lot about whether such a change will be disruptive to unit 
cohesion. The review will also provide insights into how, if Congress 
approves of a change in law and the President signs it, the DOD should 
develop policy for its implementation.

                           tactical aircraft
    10. Senator Inhofe. General Amos, as I understand it, the Marine 
Corps intends to concurrently recapitalize several of your critical 
systems. I am glad to hear you reference your tactical aircraft 
strategy--foregoing procurement of new variants of legacy aircraft and 
vehicles, in particular the Osprey. The MV-22 Osprey tilt-rotor 
aircraft, the Expeditionary Fighting Vehicle (EFV), and the Joint 
Strike Fighter (JSF) are all scheduled to be in production at the same 
time. You have stated that your F-35 requirement is 420 aircraft. The 
total number of F-35s planned for the Department of the Navy is 
currently set at 680. Just like with the Future Combat System, the DDG-
1000 destroyer, the F-22, and several other programs, I am concerned 
with Secretary Gates' comments that have called in to question the need 
for the EFV. Secretary Gates has also questioned the need for and size 
of the Navy's amphibious fleet in future defense plans and budgets. 
Your statement of ``Procuring new aircraft, vehicles, and equipment, 
while maintaining current readiness, is a continual and long-term 
process of balancing demands on resources to man, train, and equip the 
Corps'' is very appropriate and one that resonates significantly with 
me. As with all of the Services, I remain concerned with the great 
propensity to over mortgage our future for the near-term fight. While I 
do not discount the demands created by operations in Iraq and 
Afghanistan, I feel strongly that we must continue to substantially 
fund research, development, testing and evaluation efforts, striving to 
provide the best systems we can to the force. Do you believe that your 
production plans are realistic in light of the demands on resources 
imposed by maintaining current readiness?
    General Amos. Procuring new aircraft, vehicles, and equipment, 
while maintaining current readiness, is a continual and long-term 
process of balancing demands on resources to man, train, and equip the 
Corps. The ongoing transition to the MV-22 and the future migration to 
the JSF and EFV are optimized to ensure an operational equilibrium 
across the Marine Corps.
    The EFV program is a component of our developing ground tactical 
vehicle strategy, and the full impact of its affordability versus 
capability will be defined in that document once published.
    We are procuring MV-22s at a rate that retains assault support 
readiness, and as recently demonstrated in Operation Iraqi Freedom 
(OIF) and Operation Enduring Freedom (OEF) this aircraft delivers 
battlefield effectiveness in support of ground forces. We are confident 
in the rate of procurement and transition of the MV-22 and the need to 
realize our planned buy of 360 aircraft. The Marine Corps TACAIR 
strategy for the last 11 years has been to forego procuring new 
variants of legacy aircraft. It was our decision that continuing to buy 
legacy airframes left us with the inherent obsolescence, high ownership 
cost and fatigue life issues associated with those aircraft. We opted 
instead to transition to a new generation aircraft that takes advantage 
of technology improvements, generating substantial savings in total 
ownership cost.

    11. Senator Inhofe. General Amos, what is your view of the EFV and 
the role that it may play in future Marine Corps operations?
    General Amos. The EFV program will help to fill a current gap in 
littoral capabilities and supports a waterborne assault capability the 
United States cannot live without--assured access and forcible entry 
from the sea. If the Nation wants the ability to come from the sea, it 
needs an amphibious tractor that is also a fighting vehicle for use 
across the continuum of threats and at every scale in the littorals. I 
am convinced of that. A modern amphibious tractor is required to 
maneuver the ground combat forces of the Marine Air Ground Task Force, 
a balanced air/ground team.

    12. Senator Inhofe. General Amos, what is your view of the need for 
and size of the Navy's amphibious fleet?
    General Amos. The requirement for amphibious ships that has been 
agreed to within the Department of the Navy (DoN) is 38 ships; we have 
accepted risk down to 33 Ships. This number gives a capability needed 
for both steady state operations and represents the minimum number of 
ships needed to provide the Nation with a credible sea based power 
projection capability of the assault echelon of two brigades--with 
risk. However, we currently have 31 amphibious ships with that number 
possibly falling even lower. So, I am concerned about the size and 
health of our current and future amphibious fleet.
    Combatant commanders have increased demand for forward-postured 
amphibious forces capable of conducting security cooperation, regional 
deterrence, and crisis response. In the past 20 years, U.S. amphibious 
forces have responded to crises and contingencies at least 104 times--a 
response rate more than double that of the Cold War.
    Amphibious ships are useful, flexible warships--ideal for the 
current and future demand signal for building partnership capacity and 
conducting NEOs and HA/DRs, as we are currently doing in Pakistan in 
response to the floods there. The inherent flexibility and utility of 
amphibious forces is not widely understood, as evidenced by the 
frequent--and erroneous--assumption that ``forcible entry 
capabilities'' alone define the requirement for amphibious ships. The 
greatest employment of amphibious ships is for steady state engagement 
and crisis response.

    13. Senator Inhofe. General Amos, what is the allocation of F-35s 
between the Navy and the Marine Corps?
    General Amos. The Marine Corps remains committed to the DoN's F-35 
Program of Record to procure 680 aircraft. Since 2001, the Marine Corps 
has consistently stated, documented and periodically reverified a 
TACAIR requirement to meet our operational demands and commitments as 
being 420 F-35B JSF aircraft. Our inventory projection is based on 
detailed projected and historical operational analysis, optimization of 
JSF multi-mission capabilities, complete legacy TACAIR replacement by 
the F-35B, and expected improvements in reliability, maintainability, 
and survivability.

    14. Senator Inhofe. General Amos, how will the Marine Corps balance 
the near-term fight requirements with the need to ensure it remains a 
technologically advanced force?
    General Amos. Our marines in the near-term fight are unquestionably 
the priority. In ensuring that we enable their success, we will 
continue to focus on their requirements--both at home and overseas. To 
accomplish this goal, we will continuously and closely monitor where we 
accept risk. In terms of technological advantage, we recognize that we 
have to guard against over-reliance on technology as a solution in and 
of itself. Leveraging the advantages of technology we currently have to 
enhance the abilities of our marines and sailors is where we can 
continue to capitalize on our tremendous existing advantage.

    15. Senator Inhofe. General Amos, what systems are critical in 
maintaining that technological edge?
    General Amos. I do not see one particular system or asset as 
critical to maintaining a technological edge. The individual marine 
remains the single greatest determinant of success in any endeavor. Our 
ability to leverage mature and applicable technology to sharpen the 
skills and intellectual abilities of our marines and sailors is what I 
see as critical to both realizing the true value of any initiative and 
maintaining a technological edge.

                           suicide prevention
    16. Senator Inhofe. General Amos, you outlined some of the critical 
Marine Corps systems and services in your prepared statement that are 
applied against the mental health issues we are facing . . . DSTRESS 
[behavioral health counseling service]; ``by Marine--for Marine'' 
[marines counseling marines]; DOD Joint Task Force on the Prevention of 
Suicides; and your Operational Stress Control and Readiness program. 
There has been significant debate over the topic of suicides amongst 
servicemembers and veterans. You were part of the panel for the Senate 
Armed Services Committee hearing on suicides a few months back. As we 
discussed during that hearing, though much has been done to combat 
suicides, we still struggle to gain a clear understanding as to the 
best means of prevention. As you well know, I have special interest in 
how Traumatic Brian Injury (TBI) and Post Traumatic Stress Disorder are 
creating the conditions for these acts. I remain concerned and 
frustrated that there seems no one concrete solution to these problems, 
some 8 years later. As you have highlighted, the Marine Corps suicide 
rate has been increasing over the last 3 years: 33 in 2007; 42 in 2008; 
and 52 in 2009. Specific to TBI, you, along with the other Service 
Chiefs, stated that Automated Neuropsychological Assessment Metrics 
(ANAM) is not a good method of determining the impacts of a TBI event 
during the post deployment screening. In the 2008 National Defense 
Authorization Act, Congress directed DOD to utilize ANAM for both pre- 
and post-deployment screenings. If confirmed, what changes in policies, 
programs, and practices would you make to reverse this trend in Marine 
Corps suicides?
    General Amos. Over the past 2 years, the Marine Corps has 
instituted several policies, programs, and practices that have been 
well received among our marines and may be showing the signs of a 
positive effect. We are going to use these positive indicators to 
inform and shape our suicide prevention efforts. I believe that the 
best means of preventing suicides is through engaged, focused 
leadership that is sensitive to risk factors, warning signs, and the 
personal stressors that detract from our marines' quality of life. In 
that regard, we are taking the following actions:

        <bullet> Along with the Vice Chief of Staff for the Army, 
        General Chiarelli, I provided the framework for event-based TBI 
        evaluations that have been adopted in a DOD Directive Type 
        Memorandum and a CENTCOM order. We are using these evaluations 
        right now in Afghanistan and they have significantly increased 
        the likelihood that a marine who suffers a concussive injury 
        will receive the appropriate medical care.
        <bullet> We have established Combat and Operational Stress 
        Control for general application and Operational Stress Control 
        and Readiness for deployed environments as a primary prevention 
        tool to help marines identify and mitigate early signs of 
        stress and to encourage them to seek help within the unit 
        setting.
        <bullet> Our noncommissioned officers (NCOs) asked me if they 
        could take on the responsibility for lowering suicides within 
        their ranks and we created the ``Never Leave a Marine Behind'' 
        training program.

                <bullet> This new, dynamic training program is targeted 
                directly at the NCOs and it has been overwhelmingly 
                accepted by that peer group.
                <bullet> Since the program began 1 year ago, NCO 
                suicides have decreased and they now make up a number 
                proportional to their overall population in the Corps.
                <bullet> Because of the success of ``Never Leave a 
                Marine Behind'', we are releasing a version for junior 
                marines this month and will produce versions for staff 
                NCOs, officers, and family members next year.

        <bullet> In conjunction with Tricare Management Activity, we 
        are piloting the DSTRESS Line, a new, confidential, 24/7 call 
        center staffed by veteran marines, former Navy corpsmen, and 
        civilian counselors trained in Marine Corps culture. This `by 
        marine--for marine' concept gives any Marine, family member, or 
        loved one someone to talk to who can help them develop coping 
        skills, increase resiliency, and work their way out of the 
        personal battles confronting their lives.
        <bullet> We are participating in a longitudinal research study 
        with the National Institute for Mental Health (NIMH), called 
        the Study to Assess Risk and Resiliency in Servicemembers.
        <bullet> With peer and senior leadership, we are sending the 
        message to every marine that getting help for behavioral health 
        is a duty-not an option-and is consistent with our culture and 
        our ethos.
        <bullet> We are working closer than ever before with the other 
        Services, DOD, and civilian and Federal agencies to build our 
        programs, share our information, and put our best practices 
        forward.
        <bullet> We disseminate lessons learned from all suicide 
        debriefs to build knowledge and senior leader awareness.

    17. Senator Inhofe. General Amos, what suicide prevention 
initiatives should be taken, in your view, with respect to Marine Corps 
reservists after they have been demobilized?
    General Amos. Our reservists are a key component of the Marine 
Corps Total Force. Given that the signs of operational and combat 
stress and suicide can manifest long after a marine returns home from 
deployment, there are unique challenges posed for reservists who can be 
isolated from the daily support network inherent in one's unit and 
vital medical care. We will ensure that demobilization and 
reintegration processes for our Reserve marines following deployment, 
such as the Yellow Ribbon Reintegration Program, are fully supported 
and resourced. With that stated, there are six suicide prevention 
initiatives that immediately come to mind regarding our Reserve marines 
and sailors:

        <bullet> In-theater Assessment. reservists who exhibit or are 
        struggling with clinically significant issues should be seen by 
        competent medical authorities and evaluated for post-deployment 
        treatment with follow-up decisions made prior to their return 
        home.
        <bullet> Post-Deployment Health Reassessment (PDHRA). It is 
        important that if any issues emerge during the reservist's 
        PDHRA that they are immediately evaluated and referred for 
        treatment by the clinician interviewer. This includes referral 
        recommendations based on the available local resources, such as 
        the VA, Military OneSource, private mental health providers, 
        etc.
        <bullet> Psychological Health Outreach Program (PHOP). I would 
        urge continued delivery of the PHOP, a pilot program provided 
        to the Navy Reserve in the NDAA for Fiscal Year 2007 and 
        extended to the Marine Reserve in the NDAA for Fiscal Year 
        2010, which assists Marine and Navy reservists with screening 
        for behavioral health, referring them for appropriate 
        treatment, and assisting with follow up to ensure they are 
        receiving the appropriate behavioral health services.
        <bullet> Care Management Teams. The fourth suicide prevention 
        initiative includes the VA's OIF/OEF care management teams that 
        are a readily available resource for our reservists. That is, 
        the VA assigns a Primary Care manager who is responsible for 
        referral and follow-up, to any reservist who has a health care 
        issue. I would continue to encourage Marine Forces Reserve's 
        active duty staff at the Reserve sites to develop close working 
        relationships with these teams.
        <bullet> NCO Suicide Prevention Course. I would continue to 
        support Marine Forces Reserve's Noncommissioned Officer Suicide 
        Prevention Course. As of this summer, Marine Forces Reserve has 
        300-trained marines who can deliver the NCO Suicide Prevention 
        Course at 130 different Reserve sites around the country.
        <bullet> Telemedicine. We need to ensure there are effective 
        mechanisms available to identify Marine reservists in need and 
        a way to treat those who can sometimes be geographically 
        isolated from the TRICARE networks. In this regard, I support 
        telemedicine initiatives to help address this problem.

    18. Senator Inhofe. General Amos, are there additional suicide 
prevention measures that should be taken by the Marine Corps, in your 
view, with respect to Marine veterans?
    General Amos. We will continue working at ways to reduce the stigma 
of seeking mental health counseling in the Marine Corps. We will make a 
concerted effort at working more closely with the VA to establish a 
substantive program to identify Marine veterans with combat stress as 
this is often an indicator of the potential for suicide. If we can 
improve our ability to identify veterans with stress-related needs, and 
provide them treatment, then we can potentially reduce the number of 
suicides among that same group.

    19. Senator Inhofe. General Amos, in your opinion, why is ANAM good 
for pre-deployment but not for post-deployment cognitive assessments?
    General Amos. The Automated Neurocognitive Assessment Metrics 
(ANAM) test, a specific version of a neurocognitive test, obtained in 
the pre-deployment window serves adequately to establish a baseline for 
comparison later on if an individual is exposed to blast or suffers a 
concussion. The baseline ANAM is useful for future comparison and as 
such is acceptable for post-deployment testing on selected marines. 
However, neurocognitive assessments are focused on assessing a specific 
set of cognitive functions rather than evaluating the entire spectrum 
of possible post-concussive problems and as such they are not designed 
for nor perform well as a screening test for all deploying marines.
    The goal of the post-deployment screening is to identify all 
servicemembers who may be having persistent symptoms from a concussion/
TBI and thus need further evaluation. This is accomplished primarily 
through the completion of the Post-Deployment Health Assessment and 
PDHRA. Concussion can produce a variety of symptoms (with or without 
cognitive dysfunction) such as headache, dizziness, insomnia, 
irritability, mood and anxiety disturbances in addition to isolated 
cognitive disturbances. Our goal is to discover and then aid all 
marines suffering from any post-concussion symptoms.
    The Marine Corps continues to work with the medical community in 
research and development of an objective, simple and reproducible test 
procedure that can accurately distinguish between individuals with 
continuing post-concussive problems and marines who do not have these 
issues that can be administered to all deploying marines. As of now, it 
is our understanding that no such test exists.

                    readiness of nondeployed forces
    20. Senator Inhofe. General Amos, I appreciate your candid remarks 
regarding the readiness status of the Marine Corps: deployed unit 
readiness has come at the expense of nondeployed units, which have 
sourced unstructured equipment and personnel requirements to meet the 
needs of our deployed forces; currently, 63 percent of nondeployed 
units report degraded or nondeployable levels of readiness; the largest 
contributing factor to decreased readiness in nondeployed units is a 
shortage of equipment supply; this lack of equipment impacts the 
ability of nondeployed forces to respond to other potential 
contingencies and to train for all potential missions; and an estimated 
reset cost of $8 billion ($3 billion for fiscal year 2011 and $5 
billion upon termination of combat operations). Can you explain why 
there is a shortage of equipment?
    General Amos. OCO missions have placed an unprecedented demand on 
ground weapons systems, aviation assets, and support equipment. Despite 
these challenges, the Marine Corps remains committed to fully 
resourcing forward deployed forces with mission-capable equipment and 
the next-to-deploy units with sufficient training assets. To achieve 
this, we have taken critical equipment from nondeployed units and 
strategic programs to help fully equip our deployed and next-to-deploy 
units. Assets in theater have also experienced accelerated wear and 
tear due to the harsh operating environment and far exceeded planned 
peacetime usage rates.
    In the final analysis, Marine Corps nondeployed forces are 
suffering the greatest shortage of equipment within the Corps due to: 
(1) the requirement to fully resource forward-deployed units; (2) an 
increase in the tables of equipment (T/E) resulting from lessons 
learned after 9 years of sustained combat in Iraq and Afghanistan; and 
(3) a strategic shift from OIF to OEF resulting in critical equipment 
diverted from Iraq to Afghanistan that otherwise would have been reset 
and returned to units in dwell.

    21. Senator Inhofe. General Amos, if confirmed, what will be your 
priorities for maintaining readiness in the near term, while 
modernizing the Corps to ensure readiness in the out years?
    General Amos. My priority for readiness will be to ensure there are 
adequate funds to reset Marine Corps equipment for the years after we 
leave Afghanistan. Overseas Contingency Operations (OCO) in Iraq, 
Afghanistan and elsewhere have placed an unprecedented demand on ground 
weapons systems, aviation assets and support equipment. Assets have 
experienced accelerated ``wear and tear'' due to the harsh operating 
environments and have far exceeded peacetime usage rates. Many items 
have been destroyed or damaged beyond economical repair. Additionally, 
our equipment sets have been modified based on the lessons we learned 
in OIF and OEF about what we need to be ready for future operations.

    22. Senator Inhofe. General Amos, what has prevented the Marine 
Corps from decreasing shortages?
    General Amos. With the help of Congress, additional equipment is 
being procured with supplemental funds to meet wartime demands and 
finite baseline funds to support equipment replacement and 
modernization, but is slow to arrive due to long lead times for 
procurement and production rates. Since the decision to build combat 
power in Afghanistan, operational necessity has forced us to adjust our 
original plans to reset our Corps.
    Our equipment shortages are exacerbated by the requirement to fully 
resource forward deployed units in OEF, the increase in the tables of 
equipment (T/E), the strategic shift from OIF to OEF resulting in 
critical equipment diverted from Iraq to Afghanistan that otherwise 
would have been reset and returned to units in dwell, and the fact that 
OCO missions have created an unprecedented demand on equipment. Ongoing 
actions do continue based on our original OIF reset plan, and we 
continually seek to synchronize Marine Corps efforts to ensure we 
effectively and efficiently reset equipment to support follow-on combat 
operations.
                                 ______
                                 
    [The nomination reference of Gen. James F. Amos, USMC, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     July 21, 2010.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment as Commandant of the 
Marine Corps, and appointment to the grade indicated while assigned to 
a position of importance and responsibility under title 10, U.S.C., 
sections 5043 and 601:

                             To be General

    Gen. James F. Amos, USMC, 0000.
                                 ______
                                 
          Resume of Career Service of Gen. James F. Amos, USMC
Date of rank:
    2 Jul 08

Date of birth:
    12 Nov 46

Date commissioned:
    15 Jan 72

MRD:
    1 Dec 10

Education/qualifications:
    University of Idaho, BS, 1970
    The Basic School, 1972
    Armed Forces Staff College, 1984
    Air War College, 1997
    CAPSTONE, 1998
    JFLCC, 2004
    Pinnacle, 2005
    Leadership at the Peak, 2007
    Naval Aviator
    Joint Qualified Officer

Language(s):
    None.

Commands:
    Commanding General, II Marine Expeditionary Force (LtGen: Jul 04-
Aug 06)
    Commanding General, 3d Marine Aircraft Wing (MajGen: Aug 02-May 04)
    Commanding Officer, Marine Aircraft Group-31 (Col: May 96-Jun 98)
    Commanding Officer, VMFA-312, Marine Aircraft Group-31 (LtCol: Jun 
91-Jan 93)

Joint assignments:
    Chief of Staff, STRIKEFORSOUTH/Deputy CG, FMF Europe (BGen: Jun 98-
Jun 00)

Service staff assignments:
    Deputy Commandant for Combat Development and Integration (LtGen: 
Aug 06-Jun 08)
    Director, Strategy and Plans Division, PP&O Department (BGen: Dec 
01-Jul 02)
    Assistant Deputy Commandant, Aviation Department (BGen: Jul 00-Nov 
01)
    Deputy Director, MAGTF Staff Training Program (LtCol/Col: Jun 93-
Dec 95)
    Executive Officer, Marine Aircraft Group-31 (LtCol: Jan 93-Jun 93)
    Plans Officer, Marine Aircraft Group-31, 2d Marine Aircraft Wing 
(LtCol: Dec 90-Jun 91)
    Operations Officer; Chief Instructor, The Basic School (LtCol: Jun 
88-Jul 90)
    Executive Officer, VMFA-212, Marine Aircraft Group-24 (LtCol: Aug 
86-Jun 88)
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Gen. James F. 
Amos, USMC, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    James F. Amos.

    2. Position to which nominated:
    Commandant of the Marine Corps.

    3. Date of nomination:
    July 21, 2010.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    November 12, 1946; Wendel, ID.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Bonnie Jean (Covan) Amos.

    7. Names and ages of children:
    Jaymie N. Nielson, 34.
    Joshua J. Amos, 32.

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Marine Corps Association - Member.
    Marine Corps Aviation Association - Member.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    2007 - C.A. ``Mack'' McKinney Award, Marine Corps League, Camp 
Lejuene, NC, in recognition for professional dedication and service.
    2006 - ``Esprit de Corps'' Award, Fisher Foundation, New York City, 
NY, in recognition for care of our wounded.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.
    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                          Gen. James F. Amos, USMC.
    This 17th day of July, 2010.

    [The nomination of Gen. James F. Amos, USMC, was reported 
to the Senate by Chairman Levin on September 28, 2010, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on September 29, 2010.]

 
 NOMINATIONS OF GEN. CLAUDE R. KEHLER, USAF, FOR REAPPOINTMENT TO THE 
 GRADE OF GENERAL AND TO BE COMMANDER, U.S. STRATEGIC COMMAND; AND GEN 
CARTER F. HAM, USA, FOR REAPPOINTMENT TO THE GRADE OF GENERAL AND TO BE 
                     COMMANDER, U.S. AFRICA COMMAND

                              ----------                              


                      THURSDAY, NOVEMBER 18, 2010

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman), presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Bill Nelson, E. Benjamin Nelson, Webb, Udall, Hagan, Begich, 
Burris, Manchin, Coons, McCain, Inhofe, Sessions, Thune, 
LeMieux, and Brown.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Madelyn R. Creedon, 
counsel; Richard W. Fieldhouse, professional staff member; 
Michael J. Kuiken, professional staff member; Gerald J. 
Leeling, counsel; Jason W. Maroney, counsel; Robie I. Samanta 
Roy, professional staff member; and William K. Sutey, 
professional staff member.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; Adam J. Barker, professional staff member; 
Daniel A. Lerner, professional staff member; Richard F. Walsh, 
minority counsel; and Dana W. White, professional staff member.
    Staff assistants present: Jennifer R. Knowles, Kathleen A. 
Kulenkampff, and Brian F. Sebold.
    Committee members' assistants present: Christopher Griffin, 
assistant to Senator Lieberman; Carolyn Chuhta, assistant to 
Senator Reed; Jeffrey Fatora, assistant to Senator Bill Nelson; 
Gordon I. Peterson, assistant to Senator Webb; Jennifer 
Barrett, assistant to Senator Udall; Roger Pena, assistant to 
Senator Hagan; Lindsay Kavanaugh, assistant to Senator Begich; 
Nathan Davern, assistant to Senator Burris; Joanne McLaughlin, 
assistant to Senator Manchin; Halie Soifer, assistant to 
Senator Coons; Anthony Lazarski, assistant to Senator Inhofe; 
Lenwood Landrum, assistant to Senator Sessions; Clyde Taylor 
IV, assistant to Senator Chambliss; Jason Van Beek and Ryan 
Nelson, assistants to Senator Thune; Erskine W. Wells III, 
assistant to Senator Wicker; Brian Walsh, assistant to Senator 
LeMieux; and Brandon Aitchison, assistant to Senator Brown.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets this morning to consider the nominations of General 
Robert Kehler, U.S. Air Force, to be Commander of U.S. 
Strategic Command (STRATCOM), and General Carter Ham, U.S. 
Army, to be Commander of U.S. Africa Command (AFRICOM). We give 
both of you a warm welcome.
    We also have a warm welcome for two new colleagues, I 
believe, who are with us this morning. Senator Coons is with us 
this morning, from Delaware. A warm welcome to you, Senator. 
Senator Manchin is not here, but I expect that he will be here. 
Senator Burris is still with us.
    General Kehler and General Ham, each of you have long and 
distinguished careers in the U.S. military and it's a real 
pleasure to have both of you with us today. As you and we all 
know, without the strong and continuing support of your 
families that your military careers would not be possible. We 
thank each member of your families for the sacrifices that they 
have made and will continue to make when you assume the 
commands for which you have been nominated.
    General Kehler, you're well suited to be Commander of U.S. 
Strategic Command. You've spent your entire career in space and 
nuclear assignments, and that includes 2\1/2\ years as the 
Deputy Commander of Strategic Command. As you well know, 
Strategic Command is a challenging command with a global reach 
and a large number of challenging mission areas, including the 
following:
    Ensuring the United States has access to and freedom of 
action in space and cyberspace; maintaining a reliable nuclear 
deterrent and being prepared to respond if deterrence fails; 
providing targeting and other support to U.S. Joint Force 
Commanders; synchronizing global missile defense plans and 
operations; coordinating regional efforts to combat weapons of 
mass destruction (WMD); planning, integrating, and coordinating 
intelligence, surveillance, and reconnaissance (ISR), assets in 
support of strategic and global operations; and guiding the 
implementation of the New Strategic Arms Reduction Treaty 
(START) when it's ratified.
    On the subject of the New START treaty, I would note that 
there have been multiple hearings and briefings on the new 
treaty. Hundreds of questions for the record have been 
answered. A robust budget request for the nuclear weapons 
complex has been submitted to Congress. It's now been a year 
since the United States has gone without a replacement for the 
expired START treaty and thus no ability to implement the new 
and important inspection and verification regimes of the New 
START treaty, and we'll be asking General Kehler for his views 
on that new treaty.
    Much of the technical superiority of U.S. military forces 
is reliant on space systems. While these systems provide 
significant advantages, they also present the potential for 
significant vulnerability. Strategic Command helps to ensure 
that the global access to these important systems is maintained 
and sustained.
    One of the newest and most challenging areas of 
responsibility for Strategic Command is the area of cyber 
operations, protecting and defending Defense Department 
networks and cyber assets and, if directed, engaging in 
offensive cyber operations. Strategic Command must also plan 
and be prepared, if called upon, to assist other government 
agencies with the defense of their networks.
    There are many issues which remain unresolved in this area, 
in which you will be involved, General, and we look forward to 
your views on these issues, including the questions of 
authorities, responsibility, and rules of engagement.
    General Ham, you've had a distinguished career in the Army 
and we thank you for your willingness to serve our country over 
the last 3\1/2\ decades. If confirmed, you will be only the 
second Commander of the U.S. Africa Command, and you will be 
forced to balance the requirements of continuing to stand up 
this nascent geographic combatant command, as well as play a 
supporting role in advancing U.S. policy objectives on the 
continent of Africa.
    General Ham, the challenges facing AFRICOM are staggering: 
terrorism and violent extremists in Somalia and West Africa, 
conflicts between state and non-state actors that rage across 
borders, fragile governments that lack the capacity to project 
their presence beyond the bounds of their capitals, illicit 
arms smuggling routes, nations where peacekeeping or peace-
enforcing forces are the best and sometimes the only hope for 
security and stability. So we look forward to hearing your 
views on these and other matters.
    At present, one of the most pressing concerns in the view 
of members of this committee is the evolving threat posed by 
certain al Qaeda and al Shabab elements in Somalia, including 
the stated desire of these elements to attack the United 
States. In addition to Somalia, there are a number of other 
areas where the committee will be eager to learn of your views, 
including: the January 2011 referendum in Sudan; the threat 
posed by al Qaeda in an organization known as Al Qaeda in the 
Lands of the Islamic Maghreb (AQIM); ongoing atrocities being 
conducted by the Lord's Resistance Army (LRA); and potential 
areas for expanded military-to-military relations with a number 
of key countries in Africa.
    One area where you will be working together is in 
combatting the regional spread of WMD. You'll be working 
together on that issue; and, with the support of this 
committee, the Cooperative Threat Reduction (CTR) program now 
has the authority to make a more global approach to combatting 
WMD, including identifying issues and actions in Africa.
    Strategic Command's responsibility for coordinating both 
regional and global approaches to combatting WMD and the CTR 
program's new authorities should result in a more 
comprehensive, coordinated approach to dealing with these 
challenges.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman, and let me thank 
our distinguished witnesses for joining us this morning and for 
their service to our Nation. I'd also like to join the chairman 
in welcoming our two new members, Senator Coons and Senator 
Manchin. We look forward to working with you.
    I say to the witnesses, if confirmed, your respective 
commands will prove critical in countering a variety of 
strategic, asymmetric, and terrorist threats to the United 
States. General Kehler, Strategic Command is responsible for 
ensuring freedom of access to space and cyberspace, and 
coordinating global missile defense plans and operations. The 
missile threat from rogue nations like Iran and North Korea is 
increasing, but equally worrisome is China's growing air and 
conventional missile capabilities. According to the U.S.-China 
Economic and Security Review Commission 2010 Report to 
Congress, it concludes: ``China has the ability to strike five 
out of six U.S. Air Force bases in East Asia.''
    The report also highlights China's increasingly 
sophisticated cyber warfare capabilities. Earlier this year, 
the Chinese Internet service provider redirected global 
Internet traffic for at least 18 minutes, briefly hijacking 
what the commission report refers to as a ``large volume of 
Internet traffic,'' including data from the U.S. military.
    A large-scale cyber attack against Google in China was also 
reported. An incident Google described as a ``highly 
sophisticated and targeted attack on its corporate 
infrastructure, originating from China, that resulted in the 
theft of intellectual property.''
    I predict that this committee and you will be spending a 
great deal of time on this whole issue of cyber warfare. We 
don't know a lot about it. We haven't really understood some of 
the things that both friends and adversaries are doing, and it 
opens up, obviously, a whole new type of warfare that we are 
going to have to be much better prepared for than we are today.
    As Commander of STRATCOM, you will serve a critical role in 
countering these threats and advocating for our own nuclear, 
missile defense, space, and cyber capabilities. One of these 
responsibilities which the Senate has spent considerable time 
reviewing is the New START treaty, its references and legally 
binding limitations on ballistic missile defense, and the 
modernization of both the nuclear weapons complex and the triad 
of nuclear delivery vehicles.
    I look forward to hearing your views on the treaty's 
handling of missile defense, the current health of the nuclear 
weapons complex, and the need for investing in the development 
and deployment of the next generation of delivery vehicles.
    General Ham, I believe you are nominated for this command 
at a critical time, not only with respect to security on the 
continent, but with respect to possible growing threats to our 
homeland. In the past I've been critical of U.S. military 
involvement on the Horn of Africa. Other than providing more 
financial support for the United Nations (U.N.) mission there 
and humanitarian support, I'm unclear of what the 
administration's short- or long-term plan is to achieve 
stability on the Horn.
    But the threat from the region to our friends, our 
interests, and even our homeland has changed significantly in 
the past few years. AFRICOM was born in the shadow of a 
combatant command (COCOM) fighting two wars. Concerns about 
basing rather than the mission dominated the debate for years. 
Given the command's integrated interagency command structure, 
AFRICOM remains unique among equals, and that's why AFRICOM 
must be prepared and resourced to protect Americans, American 
interests, and American security throughout its area of 
responsibility.
    As we all might remember, in 1998 al Qaeda launched attacks 
on the U.S. embassies in Kenya and Tanzania, killing 12 
Americans. Al Qaeda and related groups have executed subsequent 
terrorist attacks in East Africa, including an American suicide 
bomber in Somalia in October 2008. This summer in Uganda, al 
Shabab, a Somali Islamist insurgent group with ties to al 
Qaeda, conducted its first successful attack outside Somali 
territory, killing 76 people, including 1 American.
    While al Shabab has focused primarily on its neighbors, 
then-Director of National Intelligence Dennis Blair, at a 
Senate Select Committee on Intelligence hearing, testified: 
``We judge most al Shabab and East Africa-based al Qaeda 
members will remain focused on regional objectives in the near 
term. Nevertheless, East Africa-based al Qaeda leaders or al 
Shabab may elect to redirect to the homeland some of the 
westerners, including North Americans, now training and 
fighting in Somalia.''
    On August 5, more than a dozen Somali Americans, permanent 
residents, were arrested. Attorney General Eric Holder 
announced that 14 people are being charged with providing 
financial support to al Shabab.
    I trust that AFRICOM will continue to deliver its unique 
brand of interagency theater security cooperation and building 
partner capacity. However, it's imperative that AFRICOM also 
evolve and acquire the necessary capabilities to identify, 
deter, and counter all relevant threats to our Nation's 
security.
    I look forward to our witnesses' testimony. Thank you, Mr. 
Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    Senator Manchin, welcome.
    There's a series of standard questions that we ask all of 
our nominees, that I'll now ask, and you can give us your 
responses together.
    First, have you adhered to applicable laws and regulations 
governing conflicts of interest?
    General Kehler. I have.
    General Ham. I have.
    Chairman Levin. Do you agree, when asked, to give your 
personal views, even if those views differ from the 
administration in power?
    General Kehler. I do.
    General Ham. I do.
    Chairman Levin. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    General Kehler. I have not.
    General Ham. I have not.
    Chairman Levin. Will you ensure that your staff complies 
with deadlines established for requested communications, 
including questions for the record in hearings?
    General Kehler. I will.
    General Ham. I will.
    Chairman Levin. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    General Kehler. I will.
    General Ham. I will.
    Chairman Levin. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    General Kehler. They will.
    General Ham. They will.
    Chairman Levin. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    General Kehler. I do.
    General Ham. I do.
    Chairman Levin. Finally, do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee, 
or to consult with the committee regarding the basis for any 
good faith delay or denial in providing such documents?
    General Kehler. I do.
    General Ham. I do.
    Chairman Levin. Thank you, General Kehler, General Ham. 
We're going to now turn to you for your opening remarks, and 
please feel free to introduce any members of your family or 
others who may be with you today. Thank you.
    General Kehler, why don't you start.

     STATEMENT OF GEN. CLAUDE R. KEHLER, USAF, NOMINEE FOR 
REAPPOINTMENT TO THE GRADE OF GENERAL AND TO BE COMMANDER, U.S. 
                       STRATEGIC COMMAND

    General Kehler. Mr. Chairman, thank you, sir. Before I 
begin, I would like to introduce my wife, Marjorie, who is 
here. This is the first time she's attended a hearing in the 
Senate. This is an exciting time for the Kehler family. 
Unfortunately, our two sons, who are grown, couldn't be here 
with us today. But I can tell you that, if I may just put a 
plug in for military spouses, the phenomenal things that they 
do for our airmen, soldiers, sailors, marines, coast guardsmen, 
Marj certainly represents that. I'm very proud of her and very 
grateful for the things that she does. Especially, she has set 
aside an accounting profession to be part of a team, to take 
care of our troops and their families. I'm especially proud 
because she and others like her have been doing an awful lot to 
work in support of our wounded warriors.
    Chairman Levin. We thank her for that and for all the 
things that she does for us and for you. We could use maybe 
some of your accounting talents in the Pentagon.
    Have you thought about joining forces with your husband? 
[Laughter.]
    You're very welcome indeed, Mrs. Kehler.
    General.
    General Kehler. Mr. Chairman, Senator McCain, distinguished 
members of the committee: Thank you for this opportunity to 
come before you today. It's my sincere honor to appear as the 
nominee to lead U.S. Strategic Command. I thank the President 
and the Secretary of Defense for nominating me for this 
important duty. I also thank the Chairman of the Joint Chiefs 
of Staff for expressing his confidence in my ability to serve 
as a combatant commander.
    If confirmed, I look forward to working with you to address 
the strategic challenges that face our Nation. They are 
complex, unremitting, and compelling, and U.S. Strategic 
Command plays a key role in each.
    Previous nuclear threats continue, while new ones, state 
and non-state, are emerging. New and complex transitional 
linkages provide opportunities for terrorism and other security 
concerns. Space is no longer the sole purview of two 
superpowers and it is certainly not a sanctuary. Cyber threats 
present national security problems that we are only beginning 
to understand, and organizing for this challenge is still in 
its beginning stages. International security relationships need 
to be forged with rapidly growing new regional powers.
    All these developments will require more intensive and 
extensive cooperation across many elements of our Government 
and the governments of our friends and allies. Our ability to 
shape events to our interests will depend, as always, on the 
skill and dedication of the great men and women who serve our 
Nation.
    Leading Strategic Command is an awesome responsibility. If 
confirmed, I pledge to you that the strategic challenges facing 
our Nation will command all the energy and commitment that I 
can muster. I'm very fortunate in that I have been the 
beneficiary of assignments, mentoring, operational experiences, 
and command opportunities that align with Strategic Command's 
mission set and that I believe have prepared me for this 
challenge.
    If confirmed, I will also be fortunate and deeply humbled 
in following the path blazed by some of our truly great 
national leaders. I want to particularly mention the most 
recent one, General Kevin Chilton. His leadership has been 
deeply important in these past critical years to shaping our 
national posture, and Marj and I are grateful to count Chilli 
and his wife Cathy as our dear friends, and we certainly wish 
them the best as they proceed into retired life.
    Of course, as always, if confirmed, I will look forward to 
working with and caring for the world's best soldiers, sailors, 
marines, airmen, civilians, and their families.
    Mr. Chairman, Senator McCain, distinguished committee 
members, it's a privilege to be here before you today and I 
look forward to your questions.
    Chairman Levin. Thank you very much, General Kehler.
    General Ham.

STATEMENT OF GEN CARTER F. HAM, USA, NOMINEE FOR REAPPOINTMENT 
   TO THE GRADE OF GENERAL AND TO BE COMMANDER, U.S. AFRICA 
                            COMMAND

    General Ham. Thank you, Mr. Chairman. My family's not here, 
but I'm hoping they're watching by webcast. My wife, Christie, 
is a lifelong educator, having taught and served as a principal 
in numerous schools as we moved during our Army service. Our 
daughter Jennifer was born in Vicenza, Italy, and she and her 
husband, Army Captain Kyle Burns, a Silver Star and Purple 
Heart recipient for actions in Afghanistan, live near Fort 
Benning, GA. Jennifer and Kyle are parents to 3\1/2\-month old 
Jackson, our first grandchild.
    Our son Jonathan was born in Weisbaden, Germany, and 
graduated from the University of Georgia. He and his wife Sarah 
live and work in Northern Virginia and they're expecting a baby 
girl this spring.
    I'm certainly proud of all of them and draw my strength 
from them, and thank you, Mr. Chairman, for allowing me to 
mention them.
    Mr. Chairman, Senator McCain, and members of the committee: 
When I enlisted in the Army as a private in 1973, never in my 
wildest imagination did I envision appearing before the Armed 
Services Committee of the U.S. Senate to be considered as a 
combatant commander. The day that Secretary Gates told me that 
he intended to recommend to the President that I be nominated 
to be the next Commander of U.S. Africa Command, I was struck 
by two contradictory feelings. First, I was exhilarated to have 
the possibility to serve in a command that I believe is of 
great importance and for which there is such great opportunity. 
Second, I felt a tremendous sense of humility, the humility and 
sense of honor that comes from being asked to continue to serve 
alongside the men and women of our Armed Forces as they and 
their families unselfishly serve our Nation.
    I also recognize that, if confirmed, I have big shoes to 
fill. I've been an admirer of General Kip Ward and Mrs. Joyce 
Ward for a long time, and I'm proud to be their friend. In my 
opinion, we owe General and Mrs. Ward our deepest thanks and 
appreciation.
    Africa is important to U.S. interests. These interests 
include concerns over violent extremist activities, piracy, 
illicit trafficking, Africa's many humanitarian crises, armed 
conflicts, and more general challenges such as the effect of 
HIV-AIDS. U.S. Africa Command, as the military component of a 
U.S. ``whole-of-government'' approach, has a role in addressing 
each of these issues. The key remains that Africa's future is 
up to Africans.
    If confirmed, I look forward to building upon the command's 
efforts, to continue expanding the unique interagency 
composition of the headquarters, and to enhancing partnerships 
with African nations. I acknowledge that, if confirmed, I have 
a lot to learn about Africa and about U.S. Africa Command, and 
I pledge to you, Mr. Chairman, to Senator McCain, and to the 
members of the committee the same pledge that I gave to 
Secretary Gates: I will do my best each and every day to uphold 
the trust and confidence you place in me, to accomplish the 
many and varied important missions of the command, and to the 
very best of my ability provide for the wellbeing of the 
soldiers, sailors, airmen, marines, Coast Guardsmen, civilians, 
and families entrusted to my care.
    If confirmed, I look forward to working closely with this 
committee to ensure U.S. Africa Command is correctly focused on 
accomplishing its role in support of U.S. policy objectives in 
Africa.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you so much, General Ham.
    Let's try a first round of 7 minutes for questioning. We 
have a good turnout here today.
    General Kehler, the committee has a provision in our 
National Defense Authorization Bill for Fiscal Year 2011 that 
would require the Secretary of Defense to report to Congress by 
March 1, 2011, on cyber warfare policy. The committee conducted 
an extensive examination of the Department's proposal to 
establish U.S. Cyber Command (CYBERCOM) as a sub-unified 
command under U.S. Strategic Command. Our examination revealed 
that there are substantial and worrisome gaps in the policy and 
guidelines needed to govern U.S. military operations in 
cyberspace. Senior Department of Defense (DOD) officials 
testified to this fact and assured the committee that the 
Secretary of Defense understands the situation well and intends 
to have answers to many, if not all, of the major policy 
questions by the end of this calendar year.
    Now, these are just a few of the unresolved issues: first, 
rules of engagement and authorities for various command 
echelons, including Cyber Command itself; second, how to limit 
escalation; third, what constitutes a use of force and an act 
of war in cyberspace, including for compliance with the War 
Powers Act; and fourth, the lack of a deterrence doctrine, what 
deters cyber attacks.
    Now, my question is kind of a status or process question. 
If you know the answer, what is the status of the Secretary's 
cyber policy review, and is the Department on track to fulfil 
the year-end commitment to complete the review that was given 
to the committee during the confirmation process for General 
Alexander?
    General Kehler. Thank you, Mr. Chairman. First let me say I 
recognize that in the whole area of cyberspace I have much to 
learn. If I'm confirmed, this is one of the areas that is going 
to command a great deal of my time and energy early on. My 
perspective today is as a Service component to Strategic 
Command, we have been working to align our cyberspace 
activities under the new construction of Strategic Command, 
U.S. Cyber Command, and then the Service components that fit 
that.
    There is much for me to learn here if I am confirmed, and I 
would be delighted to dig into this further. My understanding, 
you have defined, I think, the issues very well. In my mind, 
this is about authorities, responsibilities, oversight, 
doctrine, all of the pieces that need to be put in place to 
drive forward and where we need to be postured in cyberspace.
    That work is underway. I think you and the committee are 
aware that the Department of Homeland Security (DHS) and DOD 
have just signed a memorandum outlining roles and 
responsibilities and other steps that will be taken to partner 
together. Those are all positive steps, but there is much more 
to do.
    My understanding is that the work on the report that you're 
referring to is continuing. In my preparation for the 
confirmation hearing, I was told that the expectation is that 
they will be delivering that on time.
    Chairman Levin. Thank you.
    Last year the Secretary of Defense and the Joint Chiefs, 
with support from the combatant commanders, unanimously 
recommended the so-called ``Phased Adaptive Approach'' to 
missile defense in Europe, and the President approved their 
recommendation. This year the administration produced the 
Ballistic Missile Defense Review Report that set forth U.S. 
strategic policy and plans for missile defense.
    My question is, do you support the administration's missile 
defense policies and priorities, including the Phased Adaptive 
Approach, to missile defense in Europe?
    General Kehler. Yes, sir, I do support those policies and I 
do support the Phased Adaptive Approach.
    Chairman Levin. General Kehler, Secretary of Defense Gates, 
Admiral Mullen, the Chairman of the Joint Chiefs, General 
Chilton, the current Commander of Strategic Command, and 
Lieutenant General O'Reilly, the Director of the Missile 
Defense Agency, have all testified that the New START treaty 
does not limit or constrain our missile defense plans or 
programs. Do you agree?
    General Kehler. Mr. Chairman, that's my understanding as 
well. Yes, I do.
    Chairman Levin. Let me ask you a couple of questions about 
the New START treaty specifically. Does the New START treaty 
limit our non-nuclear long-range weapons?
    General Kehler. Mr. Chairman, the New START treaty as I 
understand it does not limit non-nuclear long-range weapons. It 
does, however, under certain circumstances cause them to be 
counted under the limits of the New START treaty.
    Chairman Levin. Does the New START treaty constrain our 
development and deployment of missile defense capabilities?
    General Kehler. Sir, in my opinion it does not. There's one 
relationship in the treaty, to put a finer point on it, about 
not being able to deploy missile defense interceptors in 
existing ballistic missile silos, except for the five that we 
have already done so at Vandenberg Air Force Base. However, it 
is not in our current plans, as I understand them, to do that.
    Chairman Levin. Is the administration committed to 
replacing and modernizing our aging nuclear weapons laboratory 
and industrial infrastructure?
    General Kehler. Sir, my understanding is that they are. The 
2011 budget is on the Hill and has sustainment and 
modernization funds in it. I have not seen the 2012 budget and 
can't comment on the 2012 budget.
    Chairman Levin. Thank you.
    General Ham, you and Jeh Johnson, the DOD General Counsel, 
are serving as co-chairmen of the Department of Defense Working 
Group tasked by the Secretary of Defense to conduct a 
comprehensive review of the issues associated with implementing 
a repeal of the law that's commonly referred to as ``Don't Ask, 
Don't Tell.'' Your report is due to the Secretary of Defense no 
later than the 1st of December, I believe.
    When we met yesterday, you informed me that you are not 
authorized to discuss the content of the draft report before 
that time. This committee will hold a hearing on the report 
shortly after the Secretary provides it to Congress. We're 
urging that be done, by the way, prior to December 1, if 
possible, and you will be available at that time to discuss the 
contents of the report.
    My question is just on the timing issue, then, because I 
won't ask you about your views on the substance or what the 
substance is. Do you anticipate that the working group's report 
will be ready to be presented to the Secretary of Defense 
before December 1st?
    General Ham. Mr. Chairman, I think it will take us until 
December 1. The key factor remaining for us and the review 
group is to receive the review and comments by the Service 
Chiefs and Service Secretaries, which is ongoing. We anticipate 
their comments soon. Mr. Johnson and I will review those 
comments, make final adjustments to the report, which is 
currently in draft form, and then deliver it to Secretary Gates 
on 1 December.
    Chairman Levin. Would you make every effort to deliver it 
prior to December 1st if possible?
    General Ham. Yes, sir, in consultation with the Secretary's 
office.
    Chairman Levin. Thank you.
    Senator McCain.
    Senator McCain. General Ham, since the issue has been 
brought up, the survey went out to 400,000 military personnel; 
is that correct?
    General Ham. That's correct, Senator.
    Senator McCain. What percent responded?
    General Ham. Senator McCain, we received a little over 
115,000 responses.
    Senator McCain. Like 25 percent.
    General Ham. A little more, about 28 percent, sir.
    Senator McCain. Excuse me, 28 percent.
    Isn't it true that the survey said in a preamble, that it 
is considering changes to the ``Don't Ask, Don't Tell'' policy 
that ``would allow gay and lesbian servicemembers to serve in 
the military without risk of separation because of their sexual 
orientation''? Is that true?
    General Ham. Yes, sir, it is.
    Senator McCain. The question was also preceded by a 
presumptive declaration that if ``Don't Ask, Don't Tell'' is 
repealed, ``the Services will maintain their high standards of 
conduct.'' Is that also true?
    General Ham. Sir, it is.
    Senator McCain. Thank you.
    General Ham, what do you understand to be the relationship 
between al Qaeda's senior leadership and al Shabab?
    General Ham. Senator, I know that, from open source 
reporting, that al Shabab has claimed that there is a 
relationship between----
    Senator McCain. What's your view of the relationship?
    General Ham. Sir, they're stating that they believe that 
they have a relationship certainly conveys to me that that's 
the type of operations that they want to engage in. I'm not 
privy to the detailed information and intelligence yet that 
would verify or refute that allegation. But they are certainly 
a dangerous and disruptive organization.
    Senator McCain. I'm sorry you couldn't answer the question. 
I was asking your view as to what the relationship was. But 
what is the threat to the United States from al Shabab, 
particularly given recent arrests of U.S. citizens apparently 
planning to travel to Somalia to join al Shabab?
    General Ham. Senator, my understanding is that al Shabab 
is, while primarily focused on internal matters in Somalia, 
their recent activities outside of the country convey to me a 
very disturbing interest in conducting more widespread 
terrorist activities, which certainly are of concern to the 
United States. If confirmed, it would be a very high priority 
for me to understand better how we might counter that threat.
    Senator McCain. Again it's evidence that Americans are 
joining al Shabab, right?
    General Ham. Sir, my understanding is that in this 
particular case that's true.
    Senator McCain. General Kehler, notwithstanding Russia's 
threat to withdraw from the treaty, are you committed to 
advocating for the funding, development, and deployment of all 
elements of the Phased Adaptive Approach for missile defense in 
Europe, as well as implementing the strategy as portrayed in 
the ballistic missile defense review?
    General Kehler. Yes, sir, I am.
    Senator McCain. Do you believe that the Russian unilateral 
statement that the treaty is ``effective and viable only in 
conditions where there is no qualitative or quantitative 
buildup in the missile defense system capabilities of the 
United States of America''? That statement was part of the 
signing statement at the time of agreement, right?
    General Kehler. Yes, sir.
    Senator McCain. Have the Russians made any public statement 
refuting that signing statement they made?
    General Kehler. Sir, I don't know if they have or not.
    Senator McCain. To your knowledge?
    General Kehler. To my knowledge, they have not.
    Senator McCain. Given your involvement, you might know 
probably if they did.
    General Kehler. Yes, sir. Yes, sir, although I will tell 
you that at this point in my current seat I may not have seen 
everything. But I have not seen anything. I'm not trying to be 
evasive, but I've not seen anything.
    Senator McCain. Does it concern you that they would make a 
signing statement at the time that the agreement was signed 
that basically said that if there was any change, ``qualitative 
or quantitative buildup in the missile defense system 
capabilities of the United States of America,'' that the treaty 
would not be viable, in their words?
    General Kehler. Sir, all I can answer with is that our 
position as I understand it has been that those two are not 
related.
    Senator McCain. But the Russians have made no statement 
that it is unrelated. It's just our position, right?
    General Kehler. Yes, sir.
    Senator McCain. Recent press reports state that North 
Korea's weaponry is showing design characteristics associated 
with the Shahab-3, Iran's most advanced missile.
    Are you concerned that apparently the two countries, Iran 
and North Korea, are collaborating to produce improvements in 
both arsenals?
    General Kehler. Sir, I am most definitely concerned.
    Senator McCain. We have seen, in an unclassified manner, 
published reports have been that apparently they are working in 
coordination together to improve both arsenals. Is that your 
view as well?
    General Kehler. It is. The proliferation of missile 
technology, I think, especially in those areas like North Korea 
and Iran, is especially disturbing. My view, the number one 
threat that we are facing these days is the proliferation of 
WMD in the hands of the regional actors that pose the threat.
    Senator McCain. Do you agree with DOD's assessment that 
with sufficient foreign assistance, ``Iran could probably 
develop and test an intercontinental ballistic missile capable 
of reaching the United States by the year 2015''?
    General Kehler. I agree with the DOD assessment, yes, sir. 
I wasn't aware that it was 2015. I've read that, but I do agree 
with the DOD assessment on this, yes, sir.
    Senator McCain. Again, I return to my previous statement. 
It seems to me that it's deeply concerning that both countries 
have areas of expertise on both nuclear capability as well as 
missile technology, and transfers between the two countries is 
deeply concerning.
    General Kehler. Yes, sir, I would agree with that.
    Senator McCain. Are you concerned about Mr. Ahmedinejad's 
new relationship with Mr. Chavez down in Venezuela?
    General Kehler. Yes, sir.
    Senator McCain. How serious do you think that relationship 
is?
    General Kehler. Again from my current perspective, I'm not 
much more aware of that relationship than what we've just been 
discussing here in an open forum. This is one of those areas 
that, if confirmed, I'm going to have to push into to get a 
better feel for those specific points. STRATCOM does have some 
responsibility here, working with the regional combatant 
commanders, to address these kinds of threats that can go 
outside the regional boundaries.
    Senator McCain. Thank you. I just want to repeat again what 
I said in my opening comments. This whole cyber war issue is 
one that we've been working on with Senator Lieberman and the 
Senate Homeland Security and Governmental Affairs Committee and 
Intelligence Committees. It covers a number of jurisdictions 
here in Congress. But I would argue that it is the greatest 
threat, of which we have the least knowledge and expertise, 
than just about any threat that we face. Would you view that as 
an overstatement?
    General Kehler. Sir, I wouldn't view that as an 
overstatement. I do think it's a significant area of concern. 
Certainly, again, in STRATCOM's portfolio, if I'm confirmed, 
this is one of those areas that demands I think the same sense 
of urgency that has been put on it here over the last year or 
so, and my pledge will be to dig right into this and be as 
helpful as I can.
    Senator McCain. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    As Senator McCain points out, the relationship of our 
committees that have jurisdiction over parts of that issue is 
extremely important, and our working together, which is 
underway, with Senator Lieberman and his ranking member, 
Senator Collins, and the Intelligence Committee is, if not as 
important, very important, just the way interagency working 
together is very significant and very important, as Senator 
McCain points out.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman. Let me just pick 
up from your comments and Senator McCain's about how real the 
threat of cyber attack is and how much I think that members of 
Congress and the general public are not aware of it. Perhaps 
even some are skeptical of how serious it is.
    Yesterday, in the Senate Homeland Security and Governmental 
Affairs Committee, we held a hearing on the so-called Stuxnet 
worm that was discovered. Really, this is another world, but 
the ability--just to show how complicated it is, as the experts 
said to us yesterday, we don't know where this originated, we 
don't know what its target was, but we know it's out there and 
it has now infected 60,000 different computer systems in the 
world, including some in the United States. It has the capacity 
essentially on command to disrupt the digital systems, the 
computer systems, that control, for instance, electric power 
plants.
    When you think about the havoc that could be unleashed in a 
country like ours, it's profoundly unsettling. I appreciate the 
very significant step forward in the memorandum of 
understanding between DOD and DHS, a pretty clear division of 
responsibility here. DOD has responsibility for, obviously, 
defense web sites and our offensive capacity and defensive 
capacity, DHS for the civilian infrastructure and the Federal 
Government non-defense web sites.
    But DOD and, of course, the National Security Agency have 
such extraordinary capabilities that they can now inform what 
DHS does. I appreciate that. Our committees are going to 
continue to work together.
    I was actually very proud yesterday that all the witnesses 
agreed that it was a group at DHS more than anybody in the 
private sector or anywhere else that actually had the 
comprehensive capability to unravel the Stuxnet puzzle, if you 
will. But we need your help, and I appreciate your commitment 
to that, General, and I look forward to working with you on 
both committees.
    Thank you both for your service to our country. You're both 
just extraordinarily prepared for this next assignment that the 
country has asked of you.
    General Ham, I just want to ask a quick question about the 
working group on ``Don't Ask, Don't Tell.'' First, I appreciate 
that you've told us this morning that the report will 
definitely be out by December 1 and, if possible, working with 
the Secretary, earlier if you complete the work.
    I wanted to ask you, just for informational purposes, not 
about the contents, but in a sense about the table of contents. 
There has been a lot of focus on the leaks about the survey 
down of military personnel, but am I right that that's just one 
part of what you're going to do? I wonder if, in summary, you 
could describe what else you and Mr. Johnson intend to cover in 
the report?
    General Ham. Senator, I would. Essentially, the terms of 
reference which Secretary Gates issued to Mr. Johnson and 
myself gave us two tasks. The first was to assess the impacts 
upon effectiveness, readiness, unit cohesion, recruiting, and 
retention should repeal occur.
    Senator Lieberman. Right.
    General Ham. Then the second part of our charge was, 
understanding those impacts, develop a plan for implementation, 
so that if the law is repealed and the policy changes the 
Department is prepared for that. We would call that in military 
parlance contingency planning.
    Senator Lieberman. Right.
    General Ham. The directive to assess the impacts contained 
a specific issue or statement from Secretary Gates to conduct a 
systematic engagement of the force, to include families. We did 
this in a number of ways. The survey of the servicemembers--
Active, Guard, and Reserve--was one. We also had a survey for 
family members.
    In addition to those two statistically sound and 
analytically rigorous assessments, we conducted a number of 
engagements across the force, in groups both large and small, 
to get a sense of what were the topics of interest to the force 
and to their families. We conducted small demographically 
focused focus groups, for example a group of perhaps 9 to 12 
junior enlisted marines from the combat arms and other 
similarly organized groups.
    We established what we call an on-line in-box, an 
opportunity for members of the military and their families to 
provide anonymously their comments to us with regard to their 
thoughts about ``Don't Ask, Don't Tell.''
    The most difficult challenge we had probably, at least in 
my opinion, was how do we get the sense from those who are gay 
men and lesbians that are serving in the force today without 
triggering the requirements of the law that would cause them to 
separate. We established what we called a confidential 
communication mechanism through a third party, non-DOD entity 
to try to get a better assessment of that.
    All in all, Senator, we believe this is probably as far as 
I could tell the most comprehensive assessment of a personnel 
policy matter that DOD has conducted.
    Senator Lieberman. Thanks for that. Obviously, I agree it's 
very comprehensive and should inform the decision that Congress 
makes in voting on the question, and also obviously, if it's 
repealed, facilitate the transition that DOD itself will make. 
I thank you for that.
    I want to ask you one question about Africa Command. I 
agree with you in highlighting the threat posed by al Qaeda in 
the Islamic Maghreb and al Shabab, that you're highlighting the 
two highest counterterrorism priorities in Africa. It also 
reminds us that really the war against Islamic terrorism is a 
world war. We're obviously involved intensively on the ground 
in Afghanistan, now scaling down in Iraq. But this enemy is 
appearing all over the world.
    I view these two terrorist groups in Africa and the 
countries in which they're located as tests of whether we can 
essentially stop them or contain them before they spread and 
they become something like Afghanistan, if you will. I note in 
your response to advance policy questions that you've said that 
AFRICOM faces significant resourcing challenges in almost every 
field. I hope upon your confirmation that you'll conduct a top 
to bottom assessment of your command's requirements for 
personnel, ISR, security assistance funding, and other 
resources and convey them directly, both up the chain of 
command, but when you appear before the committee, to this 
committee.
    Can we count on you to do that?
    General Ham. Yes, sir.
    Senator Lieberman. Thank you.
    That's all the questions I have this morning. Thank you, 
Mr. Chairman.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Let me get the unpleasantries out of the way first. As I 
read this, there are many things about the New START treaty I 
don't like, but the major concern is one that's brought up by 
Senator McCain. When I read something like this, the unilateral 
statement--this is the wording they used--they talk about the 
extraordinary events would cause them to release themselves. 
Consequently, ``the extraordinary events referred to in Article 
14 of the treaty also include a buildup in the missile defense 
system capabilities of the United States of America such that 
it would give rise to a threat to the strategic new era''--and 
then that was further simplified, I think, by the Russians when 
they said ``The treaty can operate and be viable only if the 
United States of America refrains from developing its missile 
defense capabilities quantitatively and qualitatively.''
    I guess my question is, what's ambiguous about that?
    General Kehler. Sir, I'm not exactly sure what you just 
asked me.
    Senator Inhofe. I read that and it says that they'd bail 
out if we enhance our systems.
    General Kehler. I see. It doesn't sound like the Russian 
position is ambiguous. But again, as I understand it, our 
position is not that one. Our position is that these are not 
related. Again as I understand it, the regional threat drives 
our missile defense planning. The strategic balance between the 
United States and Russia is driven by the strategic forces that 
are covered by the treaty.
    Senator Inhofe. We are going to have to enhance our missile 
defense system. I think most people here, they may not say it 
that way, but we are going to. I know a lot of us were very 
much concerned when the ground-based capability was taken out 
of Poland, and it was just pointed out by Senator McCain that 
Iran would have this capability with a delivery system by 2015. 
That's not even classified. That's a position that everyone 
agrees with.
    Now, I guess I'd just ask you one question: Do you think in 
the absence of that capability that we are not more 
endangered--and I'm talking about in Western Europe and the 
Eastern United States--by the removal of that system in Poland? 
A quick answer.
    General Kehler. As I understand it, I don't think we are 
endangered, provided that we go ahead with the Phased Adaptive 
Approach.
    Senator Inhofe. All right. General Ham, I enjoyed our long 
visit that we had on the subject that's been discussed here. I 
can only tell you that the soldiers in the field, the ones you 
talk to, don't feel that their input was heard during this 
inquiry that was announced that was supposed to be taking place 
until December 1. It was the impression, at least what I hear 
from them in the field, that they're saying: All right, we're 
going to adopt this position; now, how do we best implement 
this thing? I only want you to know that we'll be talking about 
this in some length in the future.
    But I am interested in what you're going to be doing, as I 
told you, in some of the problems in Africa that I'm very 
personally interested in. Admiral Mueller handled this thing 
during the transition. Then General Ward came along and has 
done an incredible job, I think with limited resources, with 
inadequate resources, at least it's my impression.
    We've had a problem, a lot of little problems, in Africa 
that people don't know about. Of course, they're familiar with 
what's happening in Zimbabwe. They're familiar with Somalia, 
the problems between Eritrea and Ethiopia. One of the biggest 
things that I've been concerned with and personally involved in 
trying to do something about is the Lord's Resistance Army 
(LRA). Starting in northern Uganda, it's also spread through 
Rwanda, eastern Congo.
    It wasn't until a few weeks ago that we passed and it was 
signed by the President a policy of this country to take out 
Joseph Kony and the LRA. I'd like to get your opinion for those 
members of the committee who might be new, let me just say that 
Joseph Kony started about 30 years ago in this. Some people 
call it the child soldiers, little kids, 13, 14 years old. They 
trained them to be soldiers, and the first thing they have to 
do is go back to their villages and murder their parents and 
all this. If they don't do it, they cut their limbs off. This 
is really something that nobody likes to talk about, that a lot 
of people don't know about.
    What's your level of concern and your interest in 
implementing the direction that we gave in the law that we 
passed a few months ago concerning the LRA?
    General Ham. Senator, I agree with you. I need to learn 
more about the LRA, but what I do know from my previous 
assignment as the Director for Operations on the Joint Staff 
and what I've read in open source, it is a horrific situation. 
As we discussed yesterday, Senator, I look to learn more about 
that personally and find ways that, if confirmed, that Africa 
Command can contribute to the solution to that problem.
    I am aware that Africa Command has been engaged in 
developing the capability of the Ugandan forces and I think 
that's a step in the right direction. If confirmed, Senator, 
I'll look at this issue much more closely to see what the 
command might be able to do.
    Senator Inhofe. I would say that President Museveni in 
Uganda and President Kigami in Rwanda and Joe Kabila, all three 
now agree that it's kind of a joint problem, because of the 
fact that this movement is moving around between these 
countries, and Central Africa, too, the Central African 
Republic.
    That's going to be something that I would like to be the 
clearing point for any activity that you have and be updated on 
on a regular basis, because I would like to have it during your 
command, and I think you're going to be doing a great job in 
that command, that we will have this problem be eradicated by 
that time.
    Now, there are a lot of others. People know about Somalia, 
people know about some things that get Sudan a lot of 
publicity. But a lot of things are happening that they're not 
aware of. I am quite upset with the Morocco attack on the 
western Sahara that took place. I want to try to do something 
on the floor with a resolution on the horrible thing that took 
place there, and these people, who have been out in the 
wilderness for some 30 years now.
    Are you interested in trying to come up with a solution, 
that James Baker was not able to do, I have not been able to 
do, but working with us to try to correct the problem that is 
out there in the Western Sahara?
    General Ham. Senator, my understanding is that the issues 
in Western Sahara and Morocco are not primarily military. But 
if confirmed, I certainly want to explore what the role of U.S. 
Africa Command might be, again in support of a U.S. ``whole-of-
government'' approach to that matter.
    Senator Inhofe. I appreciate that. I would think, though, 
that it becomes military when armed forces are invading there, 
although I understand what you're saying.
    My time is up and it went too fast. You and I talked at 
some length and I just want to make sure that you are on record 
on some of the things that you want to get done. One last 
question if I could, Mr. Chairman. That is, we made a decision, 
a good decision, in this committee several years ago--in fact, 
it was right after September 11--that we would assist the 
Africans in building five African commands, geographically 
located around. The Economic Community of West African States 
(ECOWAS) is successful in West Africa, but the rest has kind of 
been lingering. The Africans are not as aware of how we're 
trying to help them take care of their own needs.
    What I'd like to do is have you look at that--I'm sure that 
General Ward would agree that we haven't done enough with 
that--and before the terrorists start coming down in greater 
numbers through Djibouti and through the Horn of Africa, to try 
to have this in place, so that we won't be sending our troops 
over, they'll be able to take care of their own problems.
    Would you consider that to be a priority?
    General Ham. Senator, I would. I believe regional 
approaches are a good way ahead, in Africa.
    Senator Inhofe. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Thank you, General Kehler and General Ham, for your service 
and for your willingness to extend your service in these new 
positions, and a special thank-you to your families for 
supporting you in this effort.
    General Kehler, the current Commander of STRATCOM, General 
Kevin Chilton, recently has been very vocal about the need for 
a new Strategic Command headquarters building at Offutt Air 
Force Base. I've been extremely pleased with the progress that 
we've made so far in addressing this vital need. The existing 
facility's failings have put STRATCOM's mission and its 
personnel at some risk. I know you have previous duty as the 
Deputy Commander of STRATCOM and that you would have views on 
the need and importance of the new STRATCOM headquarters 
facility.
    To date, the design nears 60 percent completion and 
construction is planned to break ground in late 2011. The 
progress is a strong indication of the Department's commitment 
to STRATCOM's mission. What is your view on the need for a new 
headquarters at STRATCOM to replace the existing facility?
    General Kehler. Senator, I can base my view on this from 
the time that I was the Deputy Commander there and we went 
through a series of electrical fires, electrical outages, and 
other problems that reflect I think sort of the state of health 
of a building that was built in the 1960s.
    Clearly something needs to be done about all of that. The 
demands of the mission there at STRATCOM have placed some 
stresses on that facility, that whole complex--there's an 
underground complex as well--that it was never designed to 
address. If I'm confirmed, certainly I'll make sure that I am 
looking into that and looking after an appropriate way forward 
to make sure that the people there have what they need to get 
the job done.
    Senator Ben Nelson. I appreciate that.
    One of the things that I've always tried to look for back 
here, and as governor as well, stovepipes within government, 
whether it's in the military or whether it's in civilian 
government, which establishes duplicate services, duplication 
of efforts over mission effectiveness or the expenditure of 
taxpayers' money.
    General Chilton has previously highlighted the importance 
of sharing information among the agencies, including DHS, the 
Intelligence Community, DOD, in addressing the security risks, 
particularly in cyberspace. Just yesterday, Secretary Gates 
said that the future cyber threat was ``huge,'' and that's no 
understatement.
    My concern is that without strong coordination agencies 
will continue to build their own protective walls around their 
own unique situation. What is your view of the role of STRATCOM 
and its sub-unified command CYBERCOM? What is the role that it 
should play in coordinating this national defense against the 
growing cyber threat, both to our military and to our civilian 
agencies?
    General Kehler. Senator, I think that Strategic Command 
sits in a very unique position to have a very strong influence 
on the way DOD proceeds and also on these other relationships 
that you talked about. I think that as we look at STRATCOM's 
role to integrate, STRATCOM's role to advocate, STRATCOM's role 
to oversee some of the activities that go on in the sub-unified 
and the other activities, STRATCOM's role to engage with the 
other combatant commanders to make sure that cyberspace is 
being addressed across the military forces, and then of course 
STRATCOM's ability to look up into the policy world, where I 
think there is a role for the Commander of Strategic Command to 
play there as well.
    I think there's a big role there for Strategic Command to 
plan in all of this. Most of that is handed to them by the 
President and the unified command plan.
    Senator Ben Nelson. If we partner with all the private 
entities, whether it's Google or any other similar company that 
has significant interests and considerable experience in what 
we would call cyber, in developing that partnership could that 
also, let's say, enhance our national defense? In other words, 
can we learn something from the private sector as well as 
having the private sector learn something from us?
    General Kehler. Sir, my experience to date is that in many 
cases we're learning more from the private sector than they are 
learning from us. Some of the latest technologies, of course, 
techniques, and approaches are there. I think again you're 
defining the big challenge of cyberspace. It is the ultimate 
partnership activity, and that is something that we need to be 
working on.
    Again, I think Secretary Gates's comments yesterday about 
the DHS-DOD partnership is a real positive step here in terms 
of aligning responsibilities and authorities.
    Senator Ben Nelson. Maybe we'll some day tear down all the 
stovepipes.
    General Ham, AFRICOM has limited personnel to address a 
rather vast and diverse continent. One of the deficiencies we 
experienced in Afghanistan was that we lacked a cadre of 
soldiers that possessed the right language and cultural 
training. Given the diversity in Africa, are we developing the 
right skills, the right mix of skills, in our forces to be able 
to engage in successful operations, recognizing the diversity 
in Africa?
    General Ham. Senator, if confirmed I'll look at that. My 
sense is yes, but not quickly enough. I think we start to see 
that the cultural understanding, the language skills, emerge 
first in our special operating forces, where they develop those 
attributes. As forces become available, as general purpose 
forces become available, I think it would be highly appropriate 
to seek ways to further understanding of African matters in the 
general purpose forces.
    A way to do that is through the State partnership program.
    Senator Ben Nelson. This will be one of your high 
priorities as you step into the new position, to make certain 
that we direct enough of our resources so that we can get the 
kind of result that we need to get? We can't get it any other 
way. If we don't have the cultural and language understanding 
that is required, we're not going to be able to make our 
mission as successful as we might otherwise.
    General Ham. Senator, I agree, and if confirmed I know I 
have to do that personally and also look at that across the 
command.
    Senator Ben Nelson. My time has expired. Thank you, Mr. 
Chairman.
    Chairman Levin. Thank you very much, Senator Nelson.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    General Kehler and General Ham, thank you so much for your 
great service to our country and your willingness to take on 
these important positions of responsibility.
    General Kehler, in your response to the advance policy 
questions you state that the Commander of the U.S. Strategic 
Command is ``responsible for the plans and operations of U.S. 
forces conducting strategic deterrence,'' which includes the 
mission of deterring attacks on U.S. vital interests. As the 
nominee to be the combatant commander responsible for strategic 
deterrence and responsible for missions such as ensuring U.S. 
freedom of action and the delivery of integrated kinetic and 
nonkinetic effects in support of joint operations, how 
important in your view is it to you that the Air Force develop 
a new long-range nuclear and conventional strike aircraft 
that's capable of penetrating anti-access and area denial 
systems and technologies?
    General Kehler. Senator, I think it is critically important 
that we continue with both sustainment and modernization of all 
the legs of the triad, and I do agree that a long-range strike 
replacement is appropriate and would advocate for that.
    Senator Thune. The Air Force for some time has been working 
on requirements, to identify requirements and convince the 
Office of the Secretary of the need for a manned next 
generation long-range strike platform. What do you foresee as 
your role in developing and advocating for that type of system?
    General Kehler. Again, if confirmed I do think that one of 
the things that combatant commanders do is they establish 
requirements, and again if confirmed I would be responsible, I 
think, for setting requirements for such a platform. I know 
that the Air Force is looking, studying some preliminary ways 
forward and I would look forward to participating as a 
combatant commander if I'm confirmed.
    Senator Thune. There are on the order of about 25 studies 
that have been done with regard to next generation long-range 
strike aircraft and yet there hasn't been any significant 
progress made to date. As a follow-up to my previous question, 
what can you see yourself doing differently than your 
predecessors when it comes to successfully advocating for this 
capability to the Office of the Secretary?
    General Kehler. Sir, I don't know if there's anything 
different that needs to be done right now. I know, again from 
my Air Force hat, that this is getting a lot of attention. It's 
a difficult set of issues to grapple with, to make sure that 
they have the requirements correctly stated and outlined and a 
way forward that matches those requirements.
    I don't know that there is one thing if I was confirmed 
that I could do that would be different. However, I would just 
restate that, again, if confirmed, my belief is that the 
sustainment and modernization of the entire deterrent force 
elements and the sustaining stockpile that goes behind it, the 
command and control that supports it, and the ISR that 
contributes to it are all important and I would advocate for 
all of those.
    Senator Thune. As well as a follow-on or next generation 
long-range strike?
    General Kehler. Yes, sir, and that's part of that. In the 
mean time, there's also sustainment effort underway for the B-
52s and the B-2s. We shouldn't ignore that.
    Senator Thune. Another question. This has to do with the 
New START treaty, which I know you've answered, responded to 
some questions about that already, but the New START treaty 
includes a ceiling on operationally deployed nuclear warheads 
of 1,550 warheads and 700 strategic nuclear delivery systems. 
What do you foresee as the possible implications of reducing 
our number of delivery vehicles under the treaty?
    General Kehler. If you mean to get down to the treaty 
limits, again I haven't been part of the analysis, nor was I 
part of the negotiation activity. What I would say at this 
point is what I understand from my current seat. From my 
current seat, I understand that at those levels, 1,550 
operationally deployed warheads, 700 operationally deployed 
delivery vehicles, up to 800 deployed and non-deployed, that we 
can still achieve our deterrence objectives.
    Senator Thune. The current plan to comply with the treaty 
would reduce the number of nuclear-capable bombers to a maximum 
of 60, and if my math is right we have the 20 B-2s that would 
remain nuclear-capable, and it would require us to reduce the 
number of nuclear-capable B-52s by about half, to somewhere 
around 40, to stay under what they expect to be the 60 number 
of bomber delivery vehicles.
    What will the impact be in STRATCOM's mission of nuclear 
deterrence using the triad strategy and at what level of 
reduction in bombers do you start to become nervous about the 
viability of the bomber leg of the triad?
    General Kehler. Sir, first of all, we've decided to retain 
a triad, which I think is the foundational step that we've 
taken. The exact mixture of that triad has yet to be 
determined, and I know there have been some numbers stated, but 
we have entry into force plus 7 years to get to the appropriate 
mixture of weapons.
    I would like to take the opportunity, if I'm confirmed, to 
come back with a more fulsome discussion about what I think 
about the mixture of each individual leg.
    Senator Thune. If the United States develops a prompt 
global strike weapon, these systems would further reduce the 
number of bombers or Intercontinental Ballistic Missiles in our 
inventory. What's your position on the development of prompt 
global strike? Is this a must-have type capability, and is it 
important enough that we further reduce the other legs of the 
triad?
    General Kehler. Sir, first of all, again as I understand 
the treaty, a prompt global strike weapon could count. It 
depends on its characteristics, whether it is actually mated to 
an intercontinental-range ballistic missile. It wouldn't have 
to count, but it could, depending on how we went forward.
    My view is we should go forward on continuing to develop 
long-range strike, conventional strike, of some type. I think, 
again if confirmed, this is one I'd like to come back and have 
a further discussion with you.
    Senator Thune. I think it would be important in terms of 
reviewing the treaty, too, to determine whether or not whatever 
the prompt global strike would consist of would in fact fall 
under those caps and therefore impact the other considerations 
with regard to the triad.
    General Kehler. Yes, sir.
    Senator Thune. I see my time has expired, Mr. Chairman.
    Thank you all very much for your service.
    Chairman Levin. Thank you, Senator Thune.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Gentlemen, I'd like to congratulate both of you for having 
been selected to undertake these responsibilities. I have no 
doubt from the quality of the service you've already given our 
country that both these commands will be in excellent hands.
    General Kehler, it was interesting to visit with you 
yesterday. As we discussed, my father spent a good deal of his 
Air Force career in Strategic Air Command (SAC), did two tours 
at Vandenberg Air Force Base and one at Offutt Air Force Base. 
It brought back a lot of memories of the really amazing work 
that his generational cohort did in terms of pioneering these 
programs that have matured now into the discussions we're 
having today.
    A lot of people don't realize the jeopardy this country was 
in in the late 1950s after the Soviet Union had gotten ahead of 
us with the Sputnik program. So the discussions that we're 
having and the issues that we're facing now are a direct 
product of, I think, the quality of work that generation put 
into this.
    Having grown up a good part of my life on those two bases, 
I wish you the best.
    General Ham, we've had discussion here about the DOD study 
on the ``Don't Ask, Don't Tell'' issue. I would like to say, as 
the chairman of the Personnel Subcommittee, how much I 
appreciate the cooperation that you and Counsel Jeh Johnson 
gave us in terms of designing this study. I think it's 
important, if I may, to quote from what Senator Lieberman just 
said when he said this study should inform the decision that 
Congress makes in voting. We tend to forget that in our 
political haste here. This is a very important study for us, 
not simply to receive, but to examine and to discuss.
    Your background as a former enlisted and as an infantry 
officer I think is very important to the credibility of 
whatever comes out of that study. Having spent 5 years in the 
Pentagon, I can't remember a study on this type of issue that 
has been done with this sort of care, not even having seen it 
or knowing the results. But I know the preparation that went 
into it. It's going to be a very important study for us to look 
at and examine.
    As I told both of you yesterday, I regretfully put a hold 
on civilian and military nominations based on an issue of what 
I believe was noncooperation from DOD. More than 3 months ago, 
I asked for a series of comparable historical data that goes 
into our analysis of all of these commands and the efficiencies 
which Secretary Gates is attempting to put into DOD and the 
efficiencies I fully support. But this should not have taken 
this amount of time. This was a basic providing us data so that 
we can participate in a discussion.
    It was not a political ploy. Basically, if you don't have 
the information, if you don't have the tools, you can't do the 
analysis so that you can have a discussion about where these 
reductions might be going in our commands.
    I'm very happy to point out that last night at close of 
business we did receive the first cut on this data. So I'm 
happily going to release any of these holds that we were forced 
to put in place in order to do this. We're going to examine 
this data. We're going to have follow-on questions. But it's a 
very important part of how you're going to bring efficiencies 
into DOD. So you're free at last.
    I have a question, General Ham, on Africa Command. Where do 
you think the headquarters is going to go?
    General Ham. Senator, the headquarters today is in 
Stuttgart, Germany. When I had a discussion with Secretary 
Gates about the possibility of him recommending me to the 
President for this job, one of the things we talked about was 
the necessity to conduct an assessment of the headquarters 
location. If confirmed I will certainly do that, and we'll 
consider a wide variety of locations, to include the current 
location, perhaps other sites in Europe. I think we ought to 
consider locations in the continent of Africa, and certainly 
there are some locations in the continental United States that 
have asked to be considered as well. If confirmed, Senator, 
I'll do just that.
    Senator Webb. Let me suggest you examine Norfolk.
    General Ham. I understand, sir.
    Senator Webb. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Webb, and 
thank you so much for your action on the nominations.
    Senator Webb. Thank you, Mr. Chairman.
    Chairman Levin. Senator LeMieux.
    Senator LeMieux. Thank you, Mr. Chairman.
    I want to thank both of you for your service to our country 
and congratulate you on these appointments.
    General Ham, if I may ask you some questions about AFRICOM 
and some of the concerns I have about that region.
    Before I do, with all due respect to my friend from 
Virginia, please look at Florida also. We are so pleased to 
have three combatant commands in Florida. We would appreciate 
your evaluation of Florida as well.
    Chairman Levin. If you'd yield, I think you'd better add 
Illinois and Michigan at this point. [Laughter.]
    We don't have any commands and so we really feel we're 
entitled to one. I can't speak for Illinois.
    Senator Burris. We don't have any commands. We'd like one.
    Chairman Levin. It's about time we had a command.
    Anyway, Senator LeMieux, thank you.
    Senator LeMieux. Thank you, Mr. Chairman.
    I had the opportunity to visit Yemen as well as Djibouti 
this past August and talk about and see firsthand what our 
forces there are trying to do to combat al Qaeda in the Arabian 
Peninsula (AQAP) as well as al Shabab. I'm very concerned about 
what's happening in Somalia. I'm very concerned about the ties 
between AQAP as well as the ties that they have with al Shabab 
in that destabilized area.
    You may have already spoken to this point, but I'd like for 
you to tell me what your view is of the area, what will be the 
plan of this country in the coming years to combat terrorism 
and the links between Yemen and Somalia and other African 
countries and radical Islamic groups and what we're going to do 
to combat their threats to this country?
    General Ham. Senator, I agree with you. I believe that the 
extremist threat that's emerging from East Africa is probably 
the greatest concern that Africa Command will face in the near 
future. If confirmed, that becomes a very high priority, I 
think consistent with what I believe to be the command's 
highest priority, which is to detect, deter, and if necessary 
defeat threats that would emerge from the continent toward the 
U.S. homeland or to U.S. interests.
    One of the challenges I think for us will be that, as you 
correctly point out, Senator, that area sits astride two 
geographic combatant command areas of responsibility. One of 
the things I learned as the Director for Operations on the 
Joint Staff: It is in those boundary areas where we must pay 
great attention to ensure that extremist organizations and 
others find no safe haven and no opportunity to transition 
unimpeded between geographic combatant commands.
    Senator, if confirmed, I would look forward to working very 
closely with U.S. Central Command and General Mattis and his 
crew to ensure that we counter that threat appropriately.
    Senator LeMieux. I appreciate that. I believe that outside 
of the Pakistan-Afghanistan region, the most dangerous place in 
the world for us right now is Yemen and then the ties to 
Somalia. These ungoverned territories and the presence of 
people like Anwar Awlaki in Yemen, who are using sophisticated 
recruiting tools, who grew up in the United States, understands 
how to use social media to attract recruits, is as dangerous of 
a place in the world as it could be.
    There's a lot of concern, and it's probably not something 
for an open hearing, but there's a lot of concern about the 
communication and connection now between AQAP and al Shabab and 
the fact that they may be recruiting folks through Yemen and 
training them in Somalia. So being focused on that I think is 
of very high importance.
    General Ham. Sir, if confirmed I'd certainly take that as a 
high priority.
    Senator LeMieux. General Kehler, I want to talk to you a 
little bit about your new responsibilities at Strategic Command 
and the concerns about cyber concerns and cyber warfare. I know 
that we are looking at a Cyber Command, but tell me how that 
will play into your new responsibilities?
    General Kehler. Senator, when the Secretary of Defense 
decided, in consultation with the President, to stand up a 
subunified command, what he essentially did was he 
consolidated, if you will, a number of disparate activities 
that were going on inside DOD related to cyberspace into one 
place, with a four-star, much like the relationship between 
Pacific Command and U.S. Forces Korea, where that's a 
subunified command of Pacific Command. It exists within Pacific 
Command and yet it operates with some degree of autonomy to 
take care of a mission that they've been assigned.
    That's the same relationship that we have here. Strategic 
Command, as I have reread the mission here recently, still has 
responsibilities to advocate, to integrate, to be part of the 
command relationships with the other combatant commands. So 
there is still quite a bit of work, both direct and indirect 
work, that goes on at Strategic Command level. But the day-in 
and day-out activities and command and control of network 
activities, those types of things are going on in CYBERCOM.
    Senator LeMieux. So it won't be your specific day-to-day 
operations. It's kind of like a command within a command?
    General Kehler. It is a command within a command, yes, sir.
    Senator LeMieux. I want to talk to you a little bit about 
space policy.
    General Kehler. Yes, sir.
    Senator LeMieux. That is within your responsibility. With 
the degrading of our plans for the National Aeronautics and 
Space Administration (NASA), although we were able to make some 
accomplishments before we went out for our recess in trying to 
continue the space program, tell me about your views of where 
we'll be on the military side of our space program and whether 
or not you feel that we're doing all that we can to make sure 
that we command space for military purposes?
    There is always the view that we have to maintain the high 
ground. At one time, aviation was the high ground. But we know 
space is the ultimate high ground, and we do not want to be in 
a position where a future competitor to the United States has 
command over space.
    Tell me what your view is of where we are strategically in 
terms of the command of space?
    General Kehler. Sir, the nature of space really has changed 
pretty dramatically in the last 5 to 10 years. It is now--and 
you'll hear these words used in DOD--space is now congested, 
competitive, and complex. You'll also hear the word 
``contested'' used sometimes.
    I think what has happened is that from 1957, when there was 
one manmade object on orbit, to today when there are over 
20,000 that are softball-sized and larger, the fact that there 
are now over 50 nations that are involved in some way in space, 
the fact that those nations that are spacefaring with their own 
capabilities to get there and stay there are growing, given 
that China and others are emerging in space in a significant 
way, with very ambitious programs, things are different.
    As a result of that, a new national space policy was just 
issued. It says essentially that we need to still maintain the 
competitive advantages here that it gives us in terms of our 
warfighting capabilities, and it says that to go about that we 
will need to be more collaborative and cooperative with allies, 
with friends, with partners, and with commercial.
    From a military side, leveraging those kinds of space 
capabilities has become the way that we think we need to go to 
the future. We have turned the corner, I believe, in many cases 
in acquisition difficulties. That is not to say we don't have 
any, but we have turned the corner in many of our acquisition 
difficulties.
    Then finally, in terms of our relationship with NASA, of 
course those are two separate and distinct organizations, with 
two separate and distinct missions, but we do collaborate and 
we do partner since the beginning of the space age. We're 
looking for ways that we can leverage NASA, working together 
with DOD, and the National Reconnaissance Office to make sure 
that we are all to be more efficient while becoming more 
effective.
    Senator LeMieux. I thank you for those comments. My time is 
up. I think if I were in your position the two things that 
would be keeping me up at night would both be cyber and space, 
as two priorities where we have to keep our advantage. I 
appreciate your focus and attention on that.
    General Kehler. Sir, if I'm confirmed you can rest assured 
that those two will be at the top of my list, yes, sir.
    Senator LeMieux. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator LeMieux.
    Senator Burris.
    Senator Burris. Thank you, Mr. Chairman. Of course, this is 
more than likely my last appearance before your great 
committee, and I just want to commend you, Mr. Chairman, for 
your wonderful work and the opportunity to be able to serve on 
this Armed Services Committee.
    Chairman Levin. It's been a real pleasure for us and a real 
advantage for us to have you here.
    Senator Burris. Thank you, Mr. Chairman.
    To both the generals, I am pleased to meet both of you 
today. I have more of a statement than I do questions, but if I 
have enough time after my statement I would like to ask a 
couple of questions.
    After reviewing both of your resumes, I'm confident that 
you will both serve commendably in STRATCOM and AFRICOM. I've 
had the privilege of visiting both STRATCOM and AFRICOM over 
this past year, so I've been able to see the capabilities in 
which you will serve and the challenges which you face, and I 
say that there are some challenges out there, gentlemen.
    General Kehler, I traveled to Omaha to see the STRATCOM 
facilities in July and was impressed by the sophistication and 
dedication to mission shown by the entire staff. I hope that 
you look at those individuals and hold onto them. They're good 
people.
    I see in your biography that you were the Deputy Commander 
at STRATCOM, so you need not reiterate the important role that 
your command has played in defending our Nation from ballistic 
threats. I'm confident that you are the right man for the job, 
and should I be here to vote, rest assured you have my vote. 
But I will be following your success, sir.
    To General Ham, your predecessor has laid the groundwork to 
take this unified command to the next level of proficiency and 
interagency cooperation. The U.S. African Command does so much 
more than train African troops in stability and security 
operations. They represent the United States and our military 
throughout the entire continent of Africa.
    General Ham, what we find out in America, that most 
Americans speak of Africa as a country. They have no idea of 
the size of this continent, the complexity of this continent, 
with 53 different separate entities and countries on this 
continent. I stress that point clearly as it has the potential 
to be both your greatest challenge and your greatest success.
    The men and women that you command through the U.S. Agency 
for International Development, the Department of Agriculture, 
the Department of State operations throughout the continent, 
but it is the presence of your men and women in uniform that 
Africans will remember the most.
    General, this is a new and highly engaged command post. I'm 
excited to see its progress as I continue to follow your career 
upon leaving the Senate.
    Again, I would like to thank both of you for sitting before 
this committee today and for your service to our country. 
You've put a lot of years of service in. I take my hat off to 
all of you who made it through the ranks and made it up to the 
status that you've made it because of the contributions that 
you made and the confidence that people have placed in you. 
You've taken on added responsibility now with these two 
commands. I am proud to support your nomination and should I be 
here I would be voting for it.
    General Ham, I just have a couple points on AFRICOM. The 
African Union (AU), I visited them in Addis Ababa and come to 
find out I think I was the first U.S. Senator to visit. There 
have been a lot of Congresspersons that have been to the AU, 
but as the deputy minister of the AU told me, I was the first 
Senator to come and visit them at their headquarters. They're 
building a new wonderful headquarters there in Addis Ababa.
    Please encourage my colleagues through your contacts to 
check out the AU. They're looking forward to seeing us and to 
letting us hear their concerns.
    I also visited the East Africa Standby Brigade, that really 
has all these different countries in it, where they're 
certainly trying to bring peace and security into those East 
African nations. They are concerned, too, about our 
participation. General Ward has stood up this command. He's 
done his best, but the resources are a problem. The other 
agencies that are there are really seeking to do what their 
responsibilities are, but I think a lot of it is depending on 
the military.
    I found out that they were a little concerned about what 
standing up Africa Command was. They didn't communicate it 
properly. So you still have a public relations job to continue 
to do, as General Ward has tried to do, in terms of those 
African countries, on just what is our purpose.
    General Ham, you're also going to compete as well with 
China as they move into these various countries with their 
assistance. Africa is the future for all of our existing 
countries, because of the resources that are there. We have to 
look to how we can build our relationships with those African 
countries in spite of the terrorism and in spite of the 
conflicts that exist. We need to have a better presence on the 
continent.
    As far as the headquarters is concerned, I wouldn't mind 
Chicago. But I was in Stuttgart. By the way, my second language 
is German. I visited the headquarters in Stuttgart, had a great 
time there with the staff, and went on to Djibouti to visit 
Lemonnier there and to Nairobi in Kenya. I turned in to my 
chairman a report of my experience that I received there, and 
just hoping, General Ham, that we can really step up our 
presence and that the African countries understand that we are 
there to assist them. We're not there to, as they were 
concerned about, to take them over: Here comes big America. So 
you'll have that to deal with, as I was able to pick up, too, 
General Ham.
    But you also must work with those different factions that 
exist in all those different countries. I have a great deal of 
sympathy for you as you undertake that.
    You answered my headquarters questions, where do you think 
it's going to go. Do you have any idea?
    General Ham. Sir, I don't. I think I should approach this, 
if confirmed, essentially with a blank piece of paper and 
start, what's the requirement, and then come up with the best 
recommendation for the headquarters location.
    Senator Burris. I think every African country wants the 
headquarters there. You're going to have a problem unless you 
select an African country.
    I see my time is up. Gentlemen, continue the service, 
continue to do good for the American people and to take our 
message abroad to the other countries and let them know that we 
are here, not as conquerors, but we're here to help move 
civilization forward for the betterment of all mankind. God 
bless you all and your families, and keep up the good work.
    Thank you.
    Chairman Levin. Thank you very much, Senator Burris. Again, 
thank you for your major contribution to our Nation and to this 
Senate and to this committee. It's really been appreciated.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman. Let me echo your 
words about Senator Burris. I'm going to miss him. I've really 
enjoyed serving with the former attorney general of Illinois 
and now Senator Burris. I look forward to your advice and 
counsel as we continue our work in the Senate.
    Generals, thank you for being here today. Thank you for 
your service.
    General Kehler, if I might start with you. I think you're 
familiar with a joint op-ed that Secretary Gates and Secretary 
Clinton wrote on START this week, where they said that a 
ratified treaty creates ``a more stable, predictable, and 
cooperative relationship between the world's two leading 
nuclear powers.''
    Russia and the United States today, I think they comprise 
over 90 percent of the supply of nuclear weapons. As a strong 
regional power, Russia has a great deal of influence in dealing 
with Iran and its nuclear weapons program. I believe that the 
New START will help to bolster our relationship with the 
Russians and in turn our ability to leverage Russian support to 
put pressure on Iran.
    Would you agree? What are your thoughts on that particular 
situation?
    General Kehler. Senator, I would agree that an arms control 
agreement contributes as a piece of a broader relationship in 
many ways. I would agree that my personal opinion is that a 
treaty will in fact be helpful in the ways that you suggest.
    Senator Udall. Thanks for that insight.
    I am on the record strongly supporting New START as a new 
start, as a step forward. There will be more work to do. We 
discussed the other day the tactical weapon arsenal that the 
Russians have, but I think by passing New START we could 
continue to have those negotiations further about tactical 
nuclear weapons. But if we believe Iran is the center of our 
efforts in the Middle East, I think we have to ratify the New 
START treaty.
    Thank you for your comments.
    Let me move to cybersecurity, if I might. I recently spent 
some time with Secretary Napolitano. I know that DHS and DOD 
have signed a cybersecurity memorandum of agreement. I'm really 
encouraged by the progress that both Departments are making in 
leveraging their capabilities to keep our Nation's networks 
safe.
    Could you talk a little bit more about your involvement and 
the importance of this effort?
    General Kehler. Sir, again, if confirmed, as I mentioned 
before, Strategic Command I think has an important role to 
play. Strategic Command sits at the confluence of a lot of 
activity in DOD. Strategic Command I think has a strong 
advocacy role, certainly an integration role.
    My intent, if confirmed, would be to try to continue to 
make Strategic Command a better and better partner, both inside 
DOD and then as necessary with DHS and others.
    Senator Udall. I know you're passionate about this. I know 
we've talked about the very interesting similarities between 
outer space and inner space, inner space including this area of 
cyber and cybersecurity. I look forward to working with you 
when you're confirmed. I know that's certainly my intent.
    General Kehler. Thank you, sir.
    Senator Udall. General Ham, if I might move to you, and 
then I may have a comment to come--actually, let me, one final 
comment for General Kehler.
    Could you tell me about the status of the final space 
posture review? Can you provide any insights in when we would 
see it and any additional thoughts you might have?
    General Kehler. Sir, I'm not sure I can. I'll have to get 
that for the record. But what I do know is, of course, the 
space posture review in large part contributed to two important 
documents. One is the new national space policy that the 
President signed some months ago.
    The other is a strategy, a national security space strategy 
document that is being prepared as a follow-on to the policy. 
I'm not sure if there will be a separate space posture review 
document released or whether that is now rolled into the 
national security space strategy. That national security space 
strategy is in coordination and should be available soon. I 
can't specify exactly when, and I will get that information for 
the record for you.
    [The information referred to follows:]

    The National Security Space Strategy (NSSS) concludes the process 
of reviewing America's Space Posture by describing the Department of 
Defense and Office of the Director of National Intelligence's 
objectives for national security space and the interrelated approaches 
to achieve these ends. The NSSS builds upon the assessment of the 
strategic environment and those programmatic details identified in the 
interim Space Posture Review, submitted to Congress in March 2010, as 
required by Section 913 of the National Defense Authorization Act for 
Fiscal Year 2009.
    The NSSS is proceeding through final staffing for signature by the 
Secretary of Defense and Director of National Intelligence with an 
anticipated release early next year.

    Senator Udall. I would appreciate that. I think we both 
agree that we're increasingly reliant on space for our economy 
and for our national security. We also know that increasingly 
space is a congested and contested environment, and we need to 
stay on the front end of this. I'm looking forward to your 
continued advice and counsel in your new position, given your 
past experience and expertise.
    General Ham, I'd like to turn to you. As I understand it, 
one of AFRICOM's missions is to enhance the kinetic 
capabilities of Africa's militaries through assistance 
programs. Another part of your mission would be to conduct or 
support actions and programs in conjunction with U.S. 
Government agencies and other partners to reduce the 
potential--there's plenty of intra-state conflict, but there's 
also inter-state conflict in Africa, by enhancing the 
governance, stability, and economic development of the 
countries that are in the AFRICOM sphere of responsibility.
    Of those two basic missions, do you see either as more 
important than the other, particularly in the context of short-
, mid-, and long-term concerns? That's a big question, but it's 
an important question. I know you've considered it.
    General Ham. Senator, in my view they are indeed 
complementary efforts. I think the role of the command is 
through a wide variety of programs and authorities to help 
build the capacity that African nations need at their national 
level and then, importantly, also to build regional capacity. 
If confirmed, I think this becomes an important requirement, an 
important task, for the command, to see how we can best 
leverage the authorities and the resources that are available 
to achieve the best effect.
    Senator Udall. Those two basic missions, you don't elevate 
one above the other? You see them as both equally important, 
training the military and then also operating in that civilian-
military space to build governing capacity?
    General Ham. Senator, I think they do go hand in hand. If 
confirmed, I'd have to take a look at that, as I would all the 
other requirements of the command, and see if a prioritization 
was necessary, particularly in the application of resources. 
Certainly, if confirmed, I would take a look at that.
    Senator Udall. I see my time is about to expire. Let me 
make one final short remark and then ask you for a commitment I 
think you'll be able to meet.
    The Defense Science Board has been charged by the current 
AFRICOM Commander and the Under Secretary of Defense with 
assessing the security implications of climate change on Africa 
and the potential role for AFRICOM in addressing these impacts. 
I'd like to ask you to commit to providing the committee, once 
you get your feet on the ground, with your personal view on the 
findings and recommendations of that task force at an 
appropriate time next year. Could you do that?
    General Ham. Sir, if I'm confirmed I will.
    Senator Udall. Thank you, General.
    Thanks again to both of you for being here.
    Chairman Levin. Thank you, Senator Udall.
    Senator Begich.
    Senator Begich. Thank you, Mr. Chairman.
    Thank you both for being here. I will also just state for 
the record that I am looking forward to supporting both of you 
in these new positions. I think you are very qualified, highly 
qualified, for these new challenges that you're taking on. I 
also thank you and your families for the commitment they have 
to make in this new venture and stress that will be added to 
your households. So thank you both very much for that 
willingness.
    General Ham, most of my questions have been answered, 
except I would put in my pitch, of course, that Alaska would be 
happy to take the command when you look for a location. We 
would tell you that we're 90 percent by air to any place in the 
western world. We can access most places through our airport 
technology and we don't close our airports under any 
conditions. I'll just leave it at that.
    I know General Kehler knows that about Alaska and its 
uniqueness. But I had to get my pitch in. It seems like 
everyone else did.
    General Kehler, my questions are going to be a little 
parochial, but I want to give first a broad statement, because 
I did hear some comments, as usual on this committee, from some 
that are somewhat worked up over the New START treaty. I'm not. 
I think it's a good treaty and I'm looking forward, hopefully, 
to vote on this at some point.
    But let me be a little bit parochial, but really clarify, 
and I think you will--I anticipate your answer on this, so it's 
more of a setup because I want to make it clear one more time. 
That the New START treaty--and I know there was some discussion 
of missile defense and how it interacts with it. My 
understanding is that the New START treaty does not restrict 
the missile defense system in any way.
    Let me ask it in a formal way if I can: If confirmed, will 
the New START treaty hinder your ability to advocate for 
ballistic missile defense requirements for this country?
    General Kehler. Sir, I don't believe it will.
    Senator Begich. It's almost like we have to do this every 
hearing, with every person from the military, when we talk 
about the START, because there seems to be a discussion to kind 
of put it in the air, let people spin out there a little bit, 
and let the press carry it as maybe it will. But what I hear 
over and over, especially when we had Secretary Clinton here 
and Secretary Gates, that it was very clear that it does not 
hinder our capacity.
    Now, I want to just say first, thank you once again for the 
military putting it on the record so it's clear, and hopefully 
maybe we'll end that part of this debate around the New START 
treaty.
    But now let me kind of hone in, if I can, on the missile 
defense system, especially in Fort Greely, AK. The majority of 
the ground-based interceptors are deployed there, and I'm 
interested to know, assuming you're confirmed in your position, 
how you will help advocate and represent the requirements and 
the capability of what's up there? Can you give me your sense 
and your feeling or your understanding of the need, how you 
will advocate for basically our last line of defense when it 
comes to missile defense for this country?
    General Kehler. Sir, the current policy of our Government 
is that we will deploy a limited defensive system against long-
range threat from regional powers that could reach out and 
strike the United States of America. That is the basis on which 
the sensor network and of course the ground-based midcourse 
interceptors in Alaska and the handful at Vandenberg were 
postured.
    My responsibility, I believe, is to help advocate for that 
capability, certainly as long as that's our country's view 
about what we need to do.
    Senator Begich. Very good. I don't know if you've ever been 
to Fort Greely. Have you been up there?
    General Kehler. Sir, I have not.
    Senator Begich. We'll invite you.
    General Kehler. Yes, sir.
    Senator Begich. We would love to have you up there. I know 
the Director of the Space and Missile Defense Command always 
comes up. He always picks January. I think that's great. It 
gives him a lot of extra credit points when you come to Alaska 
in January.
    But we would love to have you up there. It's a very unique 
situation, but also there are some, what I would call some 
deficits. The nearest town has one doctor and there's no clinic 
on base, to give you a sense of what they have to work in, the 
conditions they work in. We would love to have you up there at 
some point, at your convenience, because I think once you're on 
the ground there, first, you'll find a very committed community 
within range of the base, that is very supportive and helping 
any way they can. But I think it's also important to see what 
we have.
    If you're confirmed, we would love to participate in any 
way we can to help make that happen.
    General Kehler. Yes, sir. Just to put a finer point, I've 
been to Alaska a number of times. I just haven't been to 
Greely. Typically I go to Clear Air Force Base.
    Senator Begich. Oh, very good. That's actually another 
piece of the equation with Fort Greely. I don't have questions 
on Clear, but I'm glad you brought it up, because at some point 
I'll want to have some conversation about the long-term plan--I 
know there is one--of the rehabilitation and renovation to the 
facility, and just to make sure we're on track on the dollar 
requirements.
    I know in these tight budget times everyone's looking to 
push where they can, but obviously we think Clear is critical 
long-term and that investment that is being considered over the 
next several years will hopefully be continued. I don't have to 
have a conversation on that right now.
    Let me ask you a general question on support and 
development of the two-stage ground-based interceptor as a 
hedge in the event that the proposed development and deployment 
of the long-range Phased Adaptive Approach is not achieved by 
2020. In other words, if we can't get to our schedule, do you 
see the two-stage ground-based interceptor as a hedge to make 
sure we're covered? Your thoughts on that?
    General Kehler. Sir, I don't know enough about this. I'd 
like to take that one for the record if I could.
    Senator Begich. I would like that. That would be great, 
because it's not that I would say that the military is not 
always on schedule, but there are times where planning and 
development of especially new technology gets delayed. If we 
don't have something that backs against it to protect ourselves 
as we develop our technology, as things change, I want to make 
sure we have a kind of cohesive plan in that arena, and not 
just say, we're done here because we have this new plan down 
the road, and then we miss some timetables.
    If you could take that for the record, that would be very 
good.
    General Kehler. I will, sir. I apologize, but I'm just not 
familiar enough with the details of General O'Reilly's laydown 
to render a comment.
    Senator Begich. No problem. I know when I talked to General 
O'Reilly he has it down to the detail. He lives and breathes 
it. But I know that you're just getting into this position, so 
I appreciate it if you could.
    General Kehler. Yes, sir.
    [The information referred to follows:]

    I agree with the Ballistic Missile Defense Review that we should 
continue development and testing of a two-stage ground-based 
interceptor and continue investing in Phased Adaptive Approach 
development to enable the United States to stay ahead of the emerging 
long-range ballistic missile threat.

    Senator Begich. The other one is, in some advance policy 
questions we gave you, you made a comment: ``Robust access to 
space is a national imperative,'' which I 100 percent agree. In 
Alaska we have the Kodiak launch complex. I'm not sure if 
you're familiar with that. It is very flexible, efficient, and 
does commercial as well as military launch capacity.
    The Space Development and Test Wing currently has two 
missions scheduled in Kodiak this year. It has very unique 
capability. I don't know if you're familiar with it, but I 
would love, again the same thing, if you're not I would 
encourage you to look at that, and then help our office 
understand, help me understand, what you see is the potential, 
if at all potential, of a long-term relationship from your 
office and your operation with the Kodiak launch facility.
    There is a lot of Federal dollars in there to build that 
facility. It has great capacity. Again, as I said, there 
already are two missions this year from one component of the 
military. If you could just briefly comment. My time has 
expired, but any comment on that at this point?
    General Kehler. Sir, I think the mission is tomorrow, 
actually. I think one of them is tomorrow.
    Senator Begich. I think you're right.
    General Kehler. Yes, sir, if confirmed I'd be more than 
happy to get involved with you and have discussions about 
Kodiak.
    Senator Begich. Excellent. Thank you very much.
    Mr. Chairman, that's all the questions I have, and I 
appreciate the time.
    Again, congratulations for your willingness to take on 
additional responsibility and commitments to this country. 
Thank you both.
    Chairman Levin. Thank you, Senator Begich.
    Senator Bill Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Gentlemen, congratulations on your appointments to these 
positions. Thank you both for your public service and your long 
service to our country.
    General Kehler, as we have discussed many times the 
Nation's space program now, now you're taking it to a different 
level. In Strategic Command, you are going to have to be 
concerned with the nuclear program. I would encourage you to, 
as one of your first things that you do, which I encouraged 
General Chilton to do the same thing, and I think he would 
reaffirm that this is good advice: Go visit the three national 
labs. That's my suggestion.
    Have you visited the three before?
    General Kehler. Sir, I have not visited all three. I've 
been through pieces of them in the past. You had mentioned this 
to me several days ago. I will do this if I'm confirmed, 
because there are some deficiencies that I have in getting eyes 
on to some of the aspects of what needs to happen, and I will 
go visit there. Plus the rest of the weapons complex I will go 
and put eyes on early on.
    Senator Bill Nelson. Also, with regard to the triad, the 
nuclear posture review states that ``Each leg of the triad has 
advantages that warrant retaining all three legs,'' and that 
``Strategic nuclear submarines represent the most survivable 
leg of the U.S. nuclear triad.'' Do you think that we should 
retain all three legs of the triad?
    General Kehler. Yes, sir, I do.
    Senator Bill Nelson. You want to discuss the significance 
of the next generation of the ballistic missile submarine?
    General Kehler. Sir, I think it's important that, as we 
look to the future, I think it's important that two things 
happen. Number one, I think it's important that we sustain the 
legs that we have today, and I know that the Services have 
invested in sustaining those legs. I think it's important that 
we sustain the command and control that makes sure that the 
President is always linked to those forces. I think it's 
important for us to sustain the ISR capabilities that support 
all of those activities.
    Then I think it's important that we put in place the 
modernization efforts to make sure that we can get to the next 
versions of each of these. My understanding of the 
programmatics of this, it looks like the first to come up for 
modernization investment will be the replacement to the Ohio-
class ballistic missile submarine, and I'm looking forward if 
I'm confirmed to working with the Department of the Navy to 
make sure that we understand and have clarified requirements 
and that they are actively moving forward.
    The other legs are underway, studies at various levels. I 
think it's important also to have a replacement long-range 
strike aircraft, and I also think it's important for us to 
begin the process to modernize the Nation's land-based 
strategic deterrent.
    I would mention one other thing. Clearly, survivability is 
a key aspect that the triad brings to bear. No doubt about it, 
on a day-in and day-out basis the submarine ballistic missile 
force is the most survivable. But, if generated, the bombers 
are equally survivable.
    Senator Bill Nelson. General Ham, we have a problem of 
drugs going into West Africa and then it just goes right on up 
to Europe. Do you want to comment on that? Unfortunately, even 
though they're coming out of Colombia, they go into Venezuela, 
and then from Venezuela they're either going straight to West 
Africa or they're going to the island of Hispaniola, either the 
Dominican Republic or Haiti, and they get dispersed out of 
there.
    But they're coming into West Africa, and they're using that 
as a transshipment point then to get it on into other places, 
primarily Europe. Do you want to comment about that?
    General Ham. Senator, it's a very real concern, certainly 
not exclusively a military or even primarily a military 
challenge. But I think Africa Command in its uniquely 
interagency composition is in a posture to contribute to 
countering that effort.
    The illicit trafficking of narcotics and other illicit 
trafficking destabilizes nations and regions, all of which are 
unhelpful in trying to provide security. I think this is a 
challenge for the whole of government and I will, if confirmed, 
look at AFRICOM's appropriate role in that regard.
    Senator Bill Nelson. Have you had any thoughts about what 
should we do about that as Commander of AFRICOM?
    General Ham. Senator, I think the way in which AFRICOM 
could probably bring military assets to bear are in maritime 
domain awareness. In this regard, if I'm confirmed I would very 
much like to partner with U.S. Southern Command, who 
participate in these types of efforts on a routine basis. I 
suspect, but don't know, that Africa Command has already done 
so, to learn from the experience of Southern Command and find 
how we might best leverage that experience in Africa.
    Senator Bill Nelson. Mr. Chairman, this is a great example. 
General Ham just mentioned Southern Command. Southern Command 
and Africa Command is just a great example, where all the 
agencies of government are coming together to address a 
particular problem. It has certainly been true with regard to 
drugs in South America, but it's also being true with regards 
to drugs in Western Africa and through that command.
    It's the Drug Enforcement Agency, it's the Federal Bureau 
of Investigation, it's the Central Intelligence Agency, as well 
as the military components, that are all working together. So 
often we are giving deference and kudos to our young men and 
women in uniform, which is most appropriate and they are held 
in such high esteem. Often we don't realize the changing nature 
of projecting the interests of the United States and the free 
world is a combination of all of these agencies, sometimes led 
by the U.S. military, but other times working directly in a 
partnership.
    I think it's fascinating. West Africa is clearly a place 
where we have that going on right now, as well as the U.S. 
Southern Command.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you for that comment. It's something 
that's important to make and it's not made often enough, and 
I'm glad, Senator Nelson, that you have pointed out, made that 
point.
    I just want to ask one question about the New START treaty 
and then, unless there's other questions, we can adjourn the 
hearing. You have pointed out, when you were asked about the 
Russian unilateral statement, that it's not part of the treaty, 
it's not binding on us, it's their point of view, and that 
we've made our own unilateral statement at the same time, that 
we're going to proceed with missile defense; and our statement, 
our unilateral statement, made at the same time theirs was 
made, on April 7, says that: ``U.S. missile defense systems 
would be deployed to defend the United States against limited 
missile launches and to defend its deployed forces, allies, and 
partners against regional threats.'' The United States further 
noted its intent to continue improving and deploying its 
missile defense systems in order to defend itself against 
limited attack as part of our collaborative approach to 
strengthening stability in key regions.
    I think you've pointed that out, General Kehler, that our 
unilateral statement was made the same time as their unilateral 
statement; their unilateral statement is not binding on us, it 
is not part of the treaty.
    But what is not pointed out enough, it seems to me, is that 
the exact same thing happened at the time of START I. There 
were unilateral statements made by the Russians. That had to do 
with the Anti-Ballistic Missile (ABM) Treaty: If we pull out of 
the ABM Treaty, then what they said was that--this is the 
unilateral statement at that time on the Soviet side, when 
there was a Soviet Union: ``This treaty may be effective and 
viable only under conditions of compliance with the treaty 
between the United States and the Union of Soviet Socialist 
Republics on the limitation of ABM systems as signed on May 26, 
1972.''
    That's the statement they made, and we made a unilateral 
statement at the same time saying: Sorry, we're not bound by 
that statement and we can make changes in the treaty or pull 
out of the treaty if it's in our supreme national interest to 
do so. As a matter of fact, we did pull out of the ABM Treaty, 
and as a matter of fact they did not as a result terminate the 
START I Treaty despite their unilateral statement.
    Is that correct, General? Are you with me so far?
    General Kehler. Yes, sir, that's the way I understand it.
    Chairman Levin. What I don't understand is why when our 
witnesses are asked about the unilateral statement and why, 
after they put out it's not binding on us, the Russian 
unilateral statement, and we've made our own unilateral 
statement saying it's not binding on us and we intend to 
proceed and that it's not going to threaten you in any way, why 
our witnesses don't point out: Hey, we've been there before; we 
just went through that exact same unilateral versus unilateral 
back in 1991.
    I'm just curious. You're aware of the history, I gather. 
But why is that something which is used to address this 
constant refrain we hear about a unilateral Russian statement 
on this particular treaty? Why isn't that part of the response, 
the history?
    General Kehler. It's probably a deficiency on my part.
    Chairman Levin. No, no. It's not a deficiency on your part. 
Most witnesses don't get there. I'm just curious as to, is it 
not as important as I think it is that they have been there, 
done that, listened to that before, and it had no effect?
    I'm not critical of you. I'm just curious, frankly, because 
witnesses don't seem to focus on what seems to me is not only 
obvious, that their unilateral statement isn't binding on us, 
that we make our own unilateral statement saying it's not 
binding on us and, by the way, we intend to proceed with our 
missile defenses, that we've been through this exact same 
unilateral, unilateral before, and it didn't have any impact.
    Rightly or wrongly, we pulled out of the ABM Treaty. I 
thought it was a mistake, but that's not my point. My point is 
we pulled out of the ABM Treaty and they did not pull out of 
the START I Treaty, even though they had made a unilateral 
statement saying the two were related. I'm really curious. I'm 
not at all critical, because your not making reference to that 
history is fairly typical of our witnesses.
    Is it not as important as I think it is? You can be totally 
blunt or diplomatic, as you wish, either one.
    General Kehler. No, sir. I just think certainly to describe 
the full context of the debate, you captured it better than I 
did, for sure. I don't know why I didn't capture it that way.
    Chairman Levin. No. Again, it's kind of a pattern, frankly. 
Maybe people don't want to sound defensive. Maybe that's it. 
But it's not defensive to make reference to this unilateral 
history, in my judgment. That's my opinion.
    I want to thank both of you. You've served our country 
well. Your family support, we know how critical that is. We 
thank your families again and appreciate your making reference 
to your families the way you do.
    Unless there's further questions by me, which there are 
none, and there's nobody else here to add any, we will again 
stand adjourned. I want to thank you both. But I also want to 
thank Senator Webb for the step that he's now taken to allow 
our nominations to proceed. He had a legitimate interest in 
getting information. He has obtained that information now and 
has indicated his release of the hold on nominations. 
Hopefully, that not only will facilitate a number of other 
nominations which have been pending, but also will help speed 
up your nominations and confirmation as well. We're going to 
try to get a quorum as quickly as we can of this committee so 
that we can address your nominations. Thank you both. We'll 
stand adjourned.
    [Whereupon, at 11:40 a.m., the committee adjourned.]

    [Prepared questions submitted to Gen. Claude R. Kehler, 
USAF, by Chairman Levin prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The enactment of the Goldwater-Nichols Department of 
Defense Reorganization Act of 1986 and the Special Operations reforms 
brought about fundamental change in the manner in which the Department 
of Defense (DOD) and the Services carry out the mission of national 
security.
    Do you support full implementation of these defense reforms?
    Answer. Yes.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. The defense reforms clarified military operations by 
defining responsibilities for each combatant commander for mission 
planning, preparation, and execution of forces across traditional 
Service boundaries. The clear chain of command from national leaders to 
combatant commanders is both effective and efficient. The focus on 
joint doctrine, assignments, professional military education and 
strategic planning led to an improvement in joint military operations.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. I believe DOD has successfully implemented these reforms.
    Question. The goals of Congress in enacting the Goldwater-Nichols 
Department of Defense Reorganization Act of 1986 and the Special 
Operations defense reforms, as reflected in section 3 of the Goldwater-
Nichols Department of Defense Reorganization Act, can be summarized as 
strengthening civilian control over the military; improving military 
advice; placing clear responsibility on the combatant commanders for 
the accomplishment of their missions; ensuring the authority of the 
combatant commanders is commensurate with their responsibility; 
increasing attention to the formulation of strategy and to contingency 
planning; providing for more efficient use of defense resources; 
enhancing the effectiveness of military operations; and improving the 
management and administration of DOD.
    Do you agree with these goals?
    Answer. Yes.
    Question. Do you foresee the need for additional modifications of 
Goldwater-Nichols in light of the changing environment and possible 
revisions to the national security strategy?
    Answer. No.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commander, U.S. Strategic Command (STRATCOM)?
    Answer. The Commander, STRATCOM is responsible for the plans and 
operations for U.S. forces conducting strategic deterrence and DOD 
space and cyberspace operations. These responsibilities include the 
following missions: deter attacks on U.S. vital interests, ensure U.S. 
freedom of action in space and cyberspace, deliver integrated kinetic 
and nonkinetic effects in support of U.S. Joint Force Commander 
operations, synchronize global missile defense plans and operations, 
synchronize regional combating weapons of mass destruction plans, 
provide integrated surveillance and reconnaissance allocation 
recommendations to the Secretary of Defense and advocate for assigned 
capabilities.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. My 35 year career includes assignments and responsibilities 
involving operational and staff assignments in the Air Force, Strategic 
Air Command, the Joint Staff and STRATCOM. I commanded at the squadron, 
group, wing and major command levels and have a broad range of 
operational and command tours in intercontinental ballistic missile 
(ICBM) operations, space launch, space operations, missile warning and 
space control. As the Deputy Commander, STRATCOM, I gained experience 
in delivering effects with the broad range of strategic capabilities 
for combatant commanders engaged across the spectrum of conflict around 
the world. As the Commander, Air Force Space Command for the past 3 
years, I organized, trained, and equipped space, cyberspace, and ICBM 
forces in support of the missions of STRATCOM, North American Aerospace 
Defense Command and other combatant commands. In this role, I led 
planning and activation activities for a new numbered Air Force 
dedicated to providing cyberspace capabilities to U.S. Cyber Command 
(CYBERCOM). If confirmed, I will leverage my experience to lead 
STRATCOM in fulfilling its responsibilities.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Commander, 
STRATCOM?
    Answer. I will seek to continue to enhance my expertise in 
STRATCOM's broad range of missions. If confirmed, I look forward to 
working with all the combatant commanders and the many organizations 
STRATCOM depends on for continued success, many of whom I worked with 
during my tour as the Deputy Commander, STRATCOM. I intend to establish 
clear lines of communication, define relationships and become more 
familiar with these organizations (e.g. Department of Homeland 
Security, Department of Energy-National Nuclear Security Administration 
(NNSA), Missile Defense Agency (MDA), Defense Threat Reduction Agency, 
and the Nuclear Weapons Council (NWC)) and their contributions to 
mission success.
                             relationships
    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense 
and from the Secretary of Defense to the commanders of the combatant 
commands. Other sections of law and traditional practice, however, 
establish important relationships outside the chain of command. Please 
describe your understanding of the relationship of the Commander, 
STRATCOM, to the following officials:
    The Secretary of Defense.
    Answer. Pursuant to title 10, U.S.C., section 164, subject to the 
direction of the President, the Commander, STRATCOM performs duties 
under the authority, direction, and control of the Secretary of Defense 
and is directly responsible to the Secretary for the preparedness of 
the command to carry out assigned missions.
    Question. The Deputy Secretary of Defense.
    Answer. In accordance with title 10, U.S.C., section 132, the 
Deputy Secretary of Defense will perform such duties and exercise 
powers prescribed by the Secretary of Defense. The Deputy Secretary of 
Defense will act for and exercise the powers of the Secretary of 
Defense when the Secretary is disabled or the office is vacant. If 
confirmed, I will work closely with the Deputy Secretary on appropriate 
matters.
    Question. The Under Secretaries of Defense for:
    Answer. The Under Secretaries of Defense, as the principal staff 
assistants (PSA), provide advice, assistance and support to the 
Secretary of Defense in managing the Department and in carrying out 
such duties as prescribed by the Secretary or by law. Within their 
areas, Under Secretaries exercise policy and oversight functions. In 
carrying out their responsibilities, and when directed by the President 
and Secretary of Defense, communications from the Under Secretaries to 
commanders of the unified and specified commands are transmitted 
through the Chairman of the Joint Chiefs of Staff. If confirmed, I will 
work closely with the Under Secretaries in the areas of their 
responsibilities.
    Question. Policy.
    Answer. The Under Secretary for Policy is the PSA and advisor to 
the Secretary and Deputy Secretary of Defense for all matters on the 
formulation of national security and defense policy and the integration 
and oversight of DOD policy and plans to achieve national security 
objectives.
    Question. Intelligence.
    Answer. The Under Secretary for Intelligence is the PSA and advisor 
to the Secretary and Deputy Secretary of Defense for all matters 
regarding intelligence, counterintelligence, security, sensitive 
activities and other intelligence-related matters.
    Question. Acquisition, Technology, and Logistics.
    Answer. The Under Secretary for Acquisition, Technology and 
Logistics is the PSA and advisor to the Secretary and Deputy Secretary 
of Defense for all matters relating to the DOD Acquisition System; 
research and development; modeling and simulation; systems integration; 
logistics; installation management; military construction; procurement; 
environment; services; and nuclear, chemical, and biological programs.
    Question. The Assistant Secretary of Defense for Homeland Defense 
and Americas' Security Affairs.
    Answer. The Assistant Secretary of Defense for Homeland Defense and 
Americas' Security Affairs under the authority, direction, and control 
of the Under Secretary of Defense for Policy, serves as the principal 
civilian advisor to the Secretary of Defense and the Under Secretary of 
Defense for Policy on homeland defense activities, Defense Support of 
Civil Authorities, Western Hemisphere security matters and provides 
overall supervision of homeland defense activities of DOD. If 
confirmed, I look forward to working with the Assistant Secretary of 
Defense for Homeland Security and Americas' Security in coordination 
with the Under Secretary of Defense for Policy on matters in the area 
of STRATCOM.
    Question. The Assistant to the Secretary of Defense for Nuclear, 
Chemical, and Biological Programs.
    Answer. The Assistant to the Secretary of Defense for Nuclear, 
Chemical, and Biological Programs advises the Secretary of Defense on 
nuclear energy, nuclear weapons and chemical and biological defense; 
serves as the Staff Director of the NWC; and performs such additional 
duties as the Secretary may prescribe. If confirmed, I will work 
closely with this office and the NWC in support of the nuclear 
deterrence mission.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. Title 10, U.S.C., section 163, clearly establishes the 
Chairman as the principal military advisor to the President, the 
National Security Council, the Homeland Security Council, and the 
Secretary of Defense. In this role, he is the most senior ranking 
member of the Armed Forces but does not exercise command over any 
military forces or serve in the Chain of Command between the President 
and Secretary of Defense and combatant commanders, although the 
President may transmit communications through him. By law and as 
directed by the Secretary of Defense, the Chairman consults with the 
combatant commanders, evaluates and assists in achieving their 
requirements and plans. The Chairman provides a vital link between the 
combatant commanders and other elements of DOD. If confirmed, I will 
keep the Chairman and the Secretary of Defense promptly informed on 
matters for which I am personally accountable as Commander, STRATCOM.
    Question. The Secretaries of the Military Departments.
    Answer. Under title 10, U.S.C., section 165, subject to the 
authority, direction and control of the Secretary of Defense, and 
subject to the authority of the combatant commanders, the Secretaries 
of the Military Departments are responsible for administration and 
support of forces that are assigned to unified and specified commands. 
The authority exercised by a combatant commander over Service 
components is quite clear but requires close coordination with each 
Secretary to ensure there is no infringement upon those lawful 
responsibilities which a Secretary alone may discharge. If confirmed, I 
look forward to building a strong and productive relationship with each 
of the Secretaries of the Military Departments.
    Question. The Chiefs of Staff of the Services.
    Answer. As a result of the Goldwater-Nichols Act, the Service 
Chiefs no longer serve in the operational chain of command. They now 
serve to provide organized, trained, and equipped forces to be employed 
by combatant commanders in accomplishing their assigned missions. 
Additionally, these officers serve as members of the Joint Chiefs of 
Staff and have a lawful obligation to provide military advice. 
Individually and collectively, the Service Chiefs are a tremendous 
source of experience and judgment. If confirmed, I will work closely 
and confer regularly with the Service Chiefs.
    Question. The Director of the National Reconnaissance Office.
    Answer. The National Reconnaissance Office (NRO) is a DOD 
organization engaged in the research and development, acquisition, 
launch and operation of overhead reconnaissance systems necessary to 
meet the needs of the Intelligence Community and of DOD. According to 
the Unified Command Plan, STRATCOM is the responsible combatant command 
for both space operations and for planning, integrating and 
coordinating intelligence, surveillance, and reconnaissance (ISR) in 
support of strategic and global operations, as directed. In these 
capacities, the Commander, STRATCOM, must maintain a close relationship 
with the Director of NRO to coordinate and represent requirements in 
these mission areas. If confirmed, I will work closely with the 
Director of NRO on matters of shared interest and importance.
    Question. The combatant commanders, particularly Commander, U.S. 
Northern Command, and Air Force Global Strike Command and CYBERCOM.
    Answer. The Commander, STRATCOM has both supported and supporting 
relationships with other combatant commanders, largely identified 
within the Unified Command Plan (UCP), the Forces for Unified Commands 
Memorandum, the Joint Strategic Capabilities Plan, specific command 
arrangement agreements, Operations Plans and Concept Plans. Air Force 
Global Strike Command is an Air Force major command that provides 
combat ready forces to STRATCOM to conduct nuclear deterrence and 
global strike operations as directed. CYBERCOM is a subordinate unified 
command to STRATCOM. CYBERCOM plans, coordinates, integrates, 
synchronizes, and conducts activities to direct the operations and 
defense of specified DOD information networks. STRATCOM supports U.S. 
Northern Command's mission to conduct homeland defense to secure and 
defend the United States and its interests. In many cases, STRATCOM is 
a supporting combatant commander for other UCP assigned missions. If 
confirmed, I look forward to working with other combatant commanders to 
broaden and enhance the level and range of these relationships.
    Question. The Administrator of the National Nuclear Security 
Administration.
    Answer. According to title 50, U.S.C., section 2402, the Department 
of Energy's Under Secretary for Nuclear Security serves as 
Administrator of the NNSA. The Administrator is responsible for all 
Department of Energy programs and activities related to nuclear 
weapons, including the Stockpile Stewardship Program (SSP). Although 
the Administrator serves outside the DOD's operational control, he does 
serve on the NWC and executes duties which closely concern and support 
STRATCOM. If confirmed, I will work closely and confer regularly with 
the Administrator.
    Question. The Director of the Missile Defense Agency (MDA).
    Answer. The MDA serves as the missile defense systems engineering 
and development organization for DOD. It provides the research, 
development, testing, and evaluation of the missile defense and 
associated systems that would be employed by combatant commanders. The 
current Unified Command Plan charges STRATCOM with synchronizing 
planning for global missile defense operations, including developing 
and advocating for missile defense and warning capabilities desired by 
combatant commanders. Given these closely aligned responsibilities, 
both the Commander, STRATCOM and its Joint Functional Component Command 
for Integrated Missile Defense must continue their close working 
relationship with MDA. If confirmed, I will work closely with the 
Director of MDA to ensure that combatant commanders' required ballistic 
missile defense and warning capabilities are appropriately and 
effectively represented to MDA.
    Question. The Director of Operational Test and Evaluation.
    Answer. Title 10, U.S.C., section 139, provides for a Director of 
Operational Test and Evaluation, who serves as the principal advisor to 
the Secretary of Defense and the Under Secretary of Defense for 
Acquisition, Technology, and Logistics on operational test and 
evaluation in DOD and the principal operational test and evaluation 
official within the senior management of DOD. The Director, as allowed 
by law and departmental regulations, formulates policy, provides 
guidance, coordinates, reviews, monitors and makes recommendations 
regarding test and evaluation matters under his purview. If confirmed, 
I will work closely with and seek the advice of the Director of 
Operational Test and Evaluation in assessing the progress of command 
programs of interest.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the next Commander, STRATCOM?
    Answer. The missions of STRATCOM are at the heart of U.S. national 
security and that of our allies and friends abroad. Today's national 
security environment is far more complex and diverse than ever before. 
Wider access to advanced technology, newly assertive states with rising 
aspirations regionally and globally, and still emerging vulnerabilities 
created by transnational linkages all fuel threats requiring 
synchronized efforts of many departments and agencies and other 
countries as well. Ensuring mission readiness and the proper policies, 
decision authorities and organizational relationships are in place to 
rapidly respond to complex and diverse threats will be a major 
challenge.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will work with other Federal departments, 
agencies, and allied partners to advance the policies and relationships 
needed to enhance a cooperative and collaborative approach. I will 
assess the STRATCOM organizational structure and work to streamline 
processes and enhance flexibility, effectiveness, and efficiency.
    Question. What are your priorities for STRATCOM?
    Answer. The first priority is to provide a safe, secure, and 
effective strategic nuclear force providing strategic deterrence for 
the United States and its allies. STRATCOM has a unique responsibility 
regarding the country's deterrent force in setting requirements and 
translating national guidance into operational readiness. Second, 
ongoing combat operations require many of the capabilities provided by 
STRATCOM and, if confirmed, I will consult with the Commander, U.S. 
Central Command (CENTCOM) and the other combatant commanders to provide 
capabilities for today's conflict. Third, in line with the new National 
Space Policy, STRATCOM must preserve U.S. access to space and freedom 
of action in space by improving awareness and providing resilient 
capabilities for the joint fight. Fourth, relationships across Federal 
agencies with cyberspace responsibilities need to be defined to enhance 
the Nation's cyber security and support to joint operations.
                           strategic threats
    Question. In your view, what are the most serious strategic threats 
facing the United States today?
    Answer. As outlined in the National Security Strategy, the pursuit 
of nuclear weapons by violent extremists and their proliferation to 
additional states is the greatest strategic threat facing the United 
States. Beyond this, a profound strategic challenge is defining 
strategic relations to ensure stability involving new and emerging 
powers. Additionally, the pace of technology is rapid, which is a 
serious concern in space and cyberspace. Finally, traditional and 
nontraditional threats pose serious consequences, some of which are not 
yet fully understood in these domains, and the United States is in the 
beginning stages of addressing these issues.
    Question. What future strategic threats should the United States 
prepare for?
    Answer. Surprise is a problem in a constantly changing world 
environment. In my view, the future requires adaptive and flexible 
capabilities to respond to unanticipated threats.
                    u.s. strategic command missions
    Question. In an overarching sense, how do you define the STRATCOM 
mission?
    Answer. STRATCOM promotes global security for the United States and 
its interests through strategic deterrence, ensuring U.S. freedom of 
action in space and cyberspace and through dedicated planning, advocacy 
and operational execution efforts to advance our warfighting 
priorities.
    Question. STRATCOM has absorbed multiple new missions since its 
creation, with the most recent addition being the establishment of the 
Cyber Command, as a subunified command of the STRATCOM.
    How successful has STRATCOM been at integrating these new missions 
and acquiring the expertise needed to perform them?
    Answer. My sense is that STRATCOM is on track with integrating 
mature missions, like space, while emerging missions, like cyberspace 
and missile defense, continue to advance. There is still more to be 
done among all the Services, and recruiting, training, and retaining 
the personnel with the right expertise is very important. If confirmed, 
I will move quickly to assess the scope of all mission areas, 
integration and expertise, and take appropriate action as needed.
    Question. What organizational challenges remain at STRATCOM related 
to these new missions? Specifically, what additional work, if any, 
remains to be done and what expertise, if any, needs to be acquired for 
these new missions?
    Answer. Cyberspace capabilities and capacity are still maturing 
across DOD and the national security enterprise. If confirmed, I will 
assess the status of capabilities and determine the proper course of 
action to align personnel and resources to address the issues.
    Question. If confirmed, would you recommend or support any changes 
in the missions currently assigned to STRATCOM? If so, what changes 
would you recommend?
    Answer. Not at this time. As my understanding of the missions 
evolved and integration matured, I would assess command mission 
effectiveness and recommend changes as appropriate.
    Question. Are you aware of any additional new missions that are 
being contemplated for STRATCOM?
    Answer. No.
                              organization
    Question. In addition to the Cyber Command, the Command is 
organized into a series of joint functional component commands that 
correspond to the mission areas of STRATCOM.
    If confirmed, would you anticipate maintaining or modifying this 
structure?
    Answer. I would not anticipate any immediate changes; however, as 
relationships across Federal agencies are defined and cyberspace 
capabilities are matured, there may be a need to make organizational 
changes. It is important to keep a flexible organizational structure 
that is capable of responding to a constantly changing threat 
environment and technology advances.
                       ballistic missile defense
    Question. How do you view the roles and responsibilities of the 
Commander, STRATCOM, related to ballistic missile defense?
    Answer. The UCP charges STRATCOM with responsibilities for 
synchronizing and planning for global missile defense operations, 
including developing and advocating for missile defense characteristics 
and capabilities desired by combatant commanders. If confirmed, I will 
ensure STRATCOM and its Joint Functional Component Command for 
Integrated Missile Defense (JFCC-IMD) continue their close working 
relationship with MDA and that they continue their work with the 
Geographic Combatant Commanders to integrate capabilities across 
combatant command boundaries.
    Question. What do you believe is the appropriate function of the 
JFCC-IMD?
    Answer. The JFCC-IMD was established to optimize planning, 
execution, and force management to deter or defend against attacks 
against the United States, its territories, possessions and bases, by 
planning, integrating and coordinating global missile defense 
operations and support for missile defense. If confirmed, I look 
forward to reviewing the current activities of JFCC-IMD to ensure that 
this is the most appropriate function for today's national security 
environment.
    Question. If confirmed, would you recommend or support any changes 
in the authorities of Commander, STRATCOM, as they relate to ballistic 
missile defense?
    Answer. As of today, I would not make any changes. If confirmed, I 
will continue the close working relationships with the combatant 
commanders and MDA and make recommendations to the Secretary of Defense 
regarding the appropriate authorities to support the defense of the 
United States and its allies.
    Question. If confirmed, what role would you anticipate playing in 
the assessment of the military utility of U.S. ballistic missile 
defenses against short-, medium-, intermediate-, and long-range 
ballistic missiles?
    Answer. DOD regulations require STRATCOM to direct, coordinate and 
report the Military Utility Assessment of the Ballistic Missile Defense 
System (BMDS). I understand that the last report was developed and 
submitted in 2010, and I plan to continue this important effort until 
such time as the BMDS architecture has matured and all elements have 
transitioned to their respective Services.
    Question. If confirmed, what role would you anticipate playing in 
representing and advocating for the views and needs of the combatant 
commanders for missile defense capabilities, and how do you believe 
that warfighter perspective should inform our missile defense program?
    Answer. The Ballistic Missile Defense Program exists to meet the 
limited defense of the United States and the theater defense needs of 
combatant commanders. STRATCOM participates in the missile defense 
Warfighter Involvement Process and manages the development of the 
missile defense Prioritized Capabilities List, to account for and 
prioritize combatant command requirements. If confirmed, I will consult 
fellow combatant commanders and advocate for their mission needs, 
always mindful of the joint warfighter.
    Question. Please describe your view of the appropriate roles for 
the Joint Staff and the Missile Defense Executive Board in guiding 
decisions on the development, acquisition, and deployment of effective 
missile defense capabilities.
    Answer. The Joint Staff is responsible for defining required 
systems interoperability and operational architectures while validating 
joint theater missile defense capabilities through both simulation and 
technology demonstrations. The role of the Missile Defense Executive 
Board is to provide oversight and guidance in a collaborative mode 
involving all missile defense stakeholders in DOD and other agencies 
and departments. Important considerations for both entities include the 
necessary transition of tested systems from MDA to a Military Service 
to be organized, trained, and equipped for eventual combatant command 
employment.
    Question. Do you agree that any BMDSs that are deployed must be 
operationally effective and cost-effective?
    Answer. The joint warfighter requires fielded systems with military 
utility. I agree with the Secretary of Defense Ballistic Missile 
Defense Review (BMDR) report that establishes the metrics to measure 
BMDSs cost effectiveness through comparison with available options, 
affordability, and comparison of incurred vice avoided costs.
    Question. Do you agree that ballistic missile defense flight tests 
need to be operationally realistic, and that operational testing is 
necessary, in order to demonstrate the capabilities of our systems and 
provide confidence that they will work effectively?
    Answer. I agree with the MDA testing approach outlined in the June 
2009 Integrated Master Test Plan. If confirmed, I will support this 
approach and assess the capabilities of BMDSs.
    Question. What are your views on the relationship between ballistic 
missile defenses and nuclear deterrence?
    Answer. Ballistic missile defenses protect the United States 
against the threat of a limited ICBM attack by a regional actor such as 
North Korea or Iran. Through deployment of limited defenses, the United 
States seeks to dissuade such States from developing an ICBM, deter 
them from using an ICBM if they develop or acquire such a capability, 
and defeat an ICBM attack by such states should deterrence fail. 
Ballistic missile defenses will also defend U.S. deployed forces from 
regional missile threats while also protecting our allies and partners 
and enabling them to defend themselves. Present plans for missile 
defense do not contemplate protection of the United States against 
large scale nuclear strikes. The U.S. strategic nuclear deterrent force 
of ICBMs, bombers and ballistic missile submarines will remain the 
primary deterrent of nuclear attacks against the United States, our 
allies, and partners.
    Question. Do you support the policies and priorities stated in the 
BMDR report of February 2010?
    Answer. Yes.
    Question. Do you support the Phased Adaptive Approach (PAA) to 
missile defense in Europe, and do you believe this approach will 
provide a timely and effective capability to address existing and 
emerging ballistic missile threats to Europe?
    Answer. Yes. The work is ongoing and, if confirmed, I will continue 
to assess our progress and make recommendations to the Secretary of 
Defense.
    Question. Do you support the development of the Two-Stage Ground-
based Interceptor as a technological hedge in the event the proposed 
development and deployment of the SM-3 IIB interceptor is not achieved 
within the planned 2020 timeframe?
    Answer. I agree with the BMDR that we should continue development 
and assessment of a two-stage ground-based interceptor and continue 
investing in SM-3 IIB development to enable the United States to stay 
ahead of the emerging long-range ballistic missile threat.
    Question. What role do you believe STRATCOM should play in the 
development and implementation of the PAA to missile defense in Europe 
and other regions?
    Answer. STRATCOM's role is to optimize planning, execution, and 
force management to deter or defend against attacks against Europe and 
other regions, by integrating and coordinating global missile defense 
operations and support for missile defense.
    Question. Do you believe it is in our interest to cooperate with 
Russia on ballistic missile defense, including the possibility of 
sharing radar early warning data?
    Answer. Yes. To quote the BMDR, ``The United States will also 
continue in its efforts to establish a cooperative BMD relationship 
with Russia . . . The administration is committed to substantive and 
sustained dialogue with the leadership of Russia on U.S. missile 
defenses and their roles in different regions . . . Our goals are to 
enlist Russia in a new structure of deterrence that addresses the 
emerging challenges to international peace and security posed by a 
small number of states seeking illicit capabilities.''
    Question. What do you believe are the most promising opportunities 
to work collaboratively with Russia to address emerging ballistic 
missile threats?
    Answer. As agreed by President Obama and President Medvedev at the 
July 2009 Moscow Summit, the most promising opportunity to work with 
Russia is in the joint assessment of the ballistic missile threat.
                             cyber security
    Question. What are your priorities for CYBERCOM?
    Answer. Our reliance on cyber capabilities, the many and varied 
threats, and the rapid rate of technological change all demand we place 
an initial and enduring focus on defense of our information networks. 
Priorities beyond defense include assuring the warfighting mission, 
strengthening and expanding partnerships in the domain, building 
capability to conduct full-spectrum cyberspace operations and 
developing processes to integrate cyberspace capabilities into 
combatant command operations and plans across DOD.
    Question. In your view, what are the most important unmet 
priorities for the development and deployment of cyber security tools 
and capabilities?
    Answer. STRATCOM, as a Global Combatant Command, is in a unique 
position to favorably influence two essential priorities in this area. 
The first is to advance the development of a multi-service cadre of 
cyber professionals, with emphasis on technical and tactical 
competence. This includes continuous training and education and focused 
career path development. The second is to accelerate the fielding of 
shared cyber situational awareness tools, taking advantage of emerging 
technologies to know friendly and threat activity within the network 
while understanding intent; and display and disseminate that 
information in an operationally relevant manner.
    Question. If confirmed, what role will you play in establishing 
policy for CYBERCOM?
    Answer. If confirmed, I will engage and advise senior leaders 
within DOD, Federal agencies, and with Members of Congress to advocate 
for the appropriate policies regarding cyberspace. There is still a lot 
of work to do regarding cyberspace, including policy development. It is 
important to focus on interagency relationships, authorities and 
building flexible and responsive capabilities.
    Question. If confirmed, what role will you play in establishing 
requirements for the Military Services to be able to support CYBERCOM?
    Answer. Each Service component brings a set of core competencies to 
CYBERCOM. The challenge is integrating those capabilities as part of 
ongoing operations and determining future requirements by balancing 
Service competencies with those of other government agencies to 
minimize duplication of effort, promote efficiency, and harness 
synergy.
                                 space
    Question. What is your view on the responsiveness of current space 
systems to meet warfighter needs and what are the opportunities for the 
Operationally Response Space (ORS) program to meet military and other 
space requirements?
    Answer. National Security Space systems are responsive to 
warfighters needs, but as the speed of warfare increases and military 
decision cycles decrease, space systems need to continue to evolve in 
their ability to deliver capability sooner. ORS will be an important 
program to respond to this environment, by providing augmentation 
capability, meeting urgent needs or leveraging developed technology for 
future warfighter capability.
    Question. What is your view of the ability of DOD to develop and 
deploy space systems in a cost-effective and timely manner?
    Answer. DOD and, in particular, the Air Force have worked 
extensively to reverse troubling acquisition trends. Significant 
strides are being made with a concentration on program stability, 
increasing the quantity and quality of the acquisition workforce and 
strengthening the requirements process to allow for incremental system 
development and increased technology maturation. The result is recent 
operational certification of new on-orbit systems with additional new 
systems preparing to launch to fulfill combatant commander needs.
    Question. What steps, if any, do you believe might be necessary to 
improve the responsiveness of current space systems?
    Answer. Responsiveness, as measured by the speed, capacity and 
fusion of data to the warfighter, are important in the evolution of 
warfare to counter adaptive adversaries. Providing the warfighter with 
dynamic situational awareness, such as for tailored ISR, while 
optimizing stressed communications and networks, will increase the 
value of current space systems.
    Question. In your view, what are the most important unmet 
requirements for space systems?
    Answer. Guaranteeing mission assurance, which includes resilience 
and space protection, is critical. Central to this is developing 
adequate Space Situational Awareness (SSA) in a domain that is 
increasingly competitive, congested and contested. Geographic Combatant 
Commanders require a sustained emphasis on meeting ISR needs and 
satisfying increased military satellite communication requirements in 
support of global military operations.
    Question. Do you believe any urgent needs or capability gaps exist? 
If so, please specify in detail.
    Answer. Urgent needs and capability gaps will exist in a constantly 
changing battlespace and a fiscally constrained environment. If 
confirmed, I will work through the Service components to mitigate 
capability gaps and responding to combatant commanders' urgent needs. 
With the pending launch of ORS-1, STRATCOM is demonstrating its ability 
to respond to a CENTCOM identified gap for an ISR capability.
    Question. What do you believe should be done to meet those 
requirements, and what space programs should be accorded highest 
priority?
    Answer. If confirmed, I will articulate national and joint 
warfighter imperatives, including a judicious blend of alliances, 
partnerships and commercial relationships. I will also press for 
improved SSA and ensure the highest priority is accorded to meeting 
continuing needs for assured communications, uninterrupted missile 
warning, persistent GPS, and overhead ISR. Additionally, I will 
advocate through the Services for greater investments in scientific and 
technical advancement to maintain our space systems advantages well 
into the future.
    Question. How important, in your view, is persistent surveillance? 
What programs do you believe are best able to provide this capability?
    Answer. Combatant commanders identify persistent surveillance as an 
enduring priority needed to detect, collect, disseminate, and 
characterize activity in the battlespace. Space, airborne, maritime, 
and terrestrial programs contribute to ISR, but where persistent 
surveillance can be achieved is through integration of sensors on 
multiple platforms, with space-based ISR providing unique contributions 
over deep and denied areas.
    Question. What is your view on the effectiveness of efforts to 
cooperate with the commercial space sector to improve SSA and how could 
this effort be expanded and made more successful?
    Answer. The SSA Sharing Program is a strong effort to share SSA 
information with commercial partners. Currently STRATCOM supplies high 
fidelity information to over 41,000 users from 141 countries. The 
Secretary of Defense's authority to conclude agreements with commercial 
entities was delegated to STRATCOM in September 2010. Since then, 
STRATCOM has concluded 17 agreements with major commercial providers 
and is in the process of concluding additional agreements. So far in 
2010, 64 satellites have maneuvered to avoid potential on-orbit 
collisions based on the information shared.
    The opportunity exists for STRATCOM to build relationships with 
individual operators to begin two-way exchanges of information. If 
confirmed, I will advocate for the continued development of expanded 
sharing opportunities with the commercial sector and improve SSA 
services, while protecting our national security interests.
    Question. In the National Defense Authorization Act for Fiscal Year 
2004, Congress approved a national policy to support two space launch 
vehicles, or families of launch vehicles, capable of launching national 
security payloads into space. The two launch vehicles have been 
combined into one company to provide launch services to the U.S. 
Government with the expectation that this would improve both the 
efficiency of space launch and reduce the cost.
    What are your expectations with respect to future space launch 
efficiencies and cost savings?
    Answer. The Evolved Expendable Launch Vehicle (EELV) program was 
the first step in gaining launch efficiencies as a replacement for 
expensive heritage systems. Today, the Launch and Range Enterprise 
Transformation initiative takes the next step with targeted 
reinvestment to enable efficient execution of the EELV program and 
serve the many diverse interests of the national ranges through 2030.
    Question. In the next several years the rate of space launches is 
expected to increase, what new approaches to space launch, in your 
view, should be implemented to handle this increased rate of launch?
    Answer. Recent improvements in the range manifest and scheduling 
process, such as the concept of matching boosters with satellites when 
there is a higher confidence of being ready for launch, will maximize 
the probability of meeting launch demands consistent with national 
priorities.
    Question. What, in your view, should the United States do in the 
future, and what steps would you take if confirmed, to ensure continued 
reliable access to space?
    Answer. I will continue to advocate for cooperative development of 
launch and range transformation initiatives between the Air Force, NRO, 
and National Aeronautics and Space Administration (NASA). Recently, 
these agencies signed a Letter of Intent pledging cooperation in 
initiatives for, among other things, stabilizing the launch vehicle 
industrial base, controlling cost growth, and leveraging commercial 
launch providers when their systems demonstrate operational reliability 
to support national missions.
    Question. Do you believe that the Nation should sustain redundant 
space launch capabilities?
    Answer. Robust access to space is a national imperative requiring 
flexible capability to ensure continuity of access. The Air Force 
commitment to mission assurance in the management of the EELV program 
has delivered a perfect launch record for more than a decade. 
Additional commercial capabilities are emerging. If confirmed, I will 
continue to review the viability of this approach to assure the 
Nation's access to space.
    Question. Recent decisions, and probably future decisions, about 
launch capabilities made by NASA will impact national security space 
launch cost and capacity.
    What in your view, should STRATCOM do to coordinate civil and 
national security space launch?
    Answer. Assured access to space is a national imperative that, in a 
fiscally constrained environment, could benefit from a whole-of-
government approach. The Letter of Intent between the Air Force, NRO, 
and NASA is a first step to commitment and cooperation that, if 
confirmed, I will advocate building upon this commitment.
    Question. In your view, what are the most significant challenges 
that the United States faces in military and national security space 
programs and policy?
    Answer. Our challenges are rooted in the increasingly congested, 
contested and competitive nature of the space domain with potential 
far-reaching impacts to U.S. interests. The challenge is to assure the 
required strength in the industrial base, workforce and acquisition 
processes and ensuring an innovative edge.
    Question. Training of U.S. military personnel to understand and to 
incorporate space assets into all aspects of operations is critically 
important to future military success.
    While much has been done to incorporate space assets into all 
aspects of military operations, in your view are there additional steps 
that should be taken to address this challenge?
    Answer. There is opportunity to leverage recent combat experience 
with operations in Iraq and Afghanistan to determine more efficient and 
effective ways to provide space capabilities to Joint Force Commanders. 
In addition to taking advantage of technological improvements of space 
systems, the U.S. military must create innovative ways of leveraging 
existing capabilities, and to communicate these efforts and 
availability of capability from the strategic to tactical levels.
    Question. What role does the National Security Space Institute 
(NSSI) play in the training process, and how could their training 
programs be improved?
    Answer. NSSI is a key element of the Space Professional Development 
Program and the advancement of space expertise. Recent upgrades to NSSI 
courses refined the operational focus, instructional methodology and 
content accuracy. Given growing requirements from the other Services 
and international partners, NSSI programs could be enhanced by added 
capacity to meet this increased demand.
    Question. What, in your view, are the priorities for improving SSA?
    Answer. There are three primary needs to support orbital safety, 
threat mitigation and effective space operations. First, there is a 
need to integrate, exploit and share SSA data. Second, it is important 
to improve the ability to detect, track, and identify objects. Third, 
it is critical to improve the ability to characterize events such as 
breakups and potential collisions.
    Question. What programs and policies, in your view, should be 
changed or added to ensure adequate SSA?
    Answer. SSA improvements are critical in a competitive, contested 
and congested domain. First, existing sensors and the space 
surveillance network need to be sustained, other organizations' sensors 
need to be integrated to augment SSA, and finally gaps need to be 
closed through new programs like Space Fence and the Joint Space 
Operations Center Mission System.
    Question. What are your views on how military and national security 
space should and could be better integrated?
    Answer. Significant synergy exists in those common, underlying 
``enablers'' such as the space industrial base, research and 
development, science and technology and the space workforce. If 
confirmed, where feasible and achievable, I will advocate effective 
integration of military and national security space where a ``whole-of-
government'' approach can best meet the needs of the Nation.
    Question. In your view, what role should the National Security 
Space Office play in integrating military and national security space?
    Answer. The functions assigned to NSSO are under review as part of 
a broader discussion of space management. Some functions have been 
recommended for realignment. If confirmed, I will assess whether 
additional adjustments would be useful
    Question. In your view, should the role of the National Security 
Space Office be modified or expanded in any way?
    Answer. There are a number of changes underway regarding National 
Space Management. If confirmed, I will participate in on-going 
discussions and reviews.
                         cruise missile defense
    Question. In your view, how serious is the vulnerability of our 
Nation and deployed military forces to the cruise missile threat?
    Answer. Cruise missiles represent a credible threat to our Nation 
and forces abroad.
    Question. What role do you believe STRATCOM should play in the 
cruise missile defense of our Nation?
    Answer. STRATCOM, as the Air and Missile Defense Integrating 
Authority, should continue advocating for cruise missile defense 
capabilities desired by the warfighters.
                          prompt global strike
    Question. In your view, how adequate are current efforts to 
establish requirements and develop a prompt global strike capability?
    Answer. The Department is developing requirements and investing in 
development and testing of prompt global strike capabilities. As these 
technologies mature, the Department will evaluate acquisition and 
deployment. If confirmed, I look forward to becoming more involved in 
this process.
                           nuclear deterrence
    Question. If confirmed as Commander of STRATCOM, you would be 
involved in implementing the new Nuclear Posture Review and the 
reductions under the New START treaty when it enters into force.
    Do you support the New START treaty?
    Answer. Yes.
    Question. Do you believe that a commitment to modernize the nuclear 
weapons complex should be a prerequisite to ratification of the New 
START treaty?
    Answer. Regardless of treaty ratification, the nuclear weapons 
complex needs modernization. The Strategic Posture Commission described 
the Nation's plutonium and uranium facilities as ``decrepit.'' To 
provide a safe, secure, and effective nuclear deterrent, we must invest 
in the facilities, equipment and personnel dedicated to sustaining and 
managing the nuclear weapons program.
    Question. In your previous position as Commander of Air Force Space 
Command you were responsible, until just recently, when the Air Force 
Global Strike Command was established, for the ICBMs.
    What in your view are the most pressing modernization requirements 
for the Minuteman III ICBM, following completion of the current 
upgrades?
    Answer. The Air Force is conducting sustainment programs to take 
the Minuteman III ICBM to 2030 as directed by Congress. If confirmed, I 
will advocate to sustain life extension programs as required and 
continue to monitor the status of the Minuteman III and make 
recommendations as issues arise.
    Question. Do you support the development and fielding of a follow-
on program to the Minuteman III ICBM? If so, when will a decision be 
necessary for pursuing the development of a follow on ICBM?
    Answer. Land-based ICBMs are an integral and enduring part of the 
nuclear triad, and the 2010 Nuclear Posture Review includes a 
commitment to begin an initial study of alternatives in fiscal years 
2011 and 2012. The Air Force is initiating a Capabilities Based 
Assessment (CBA) and will closely follow with an Analysis of 
Alternatives (AoA). The CBA and AoA findings will shape the plan and 
resource strategy to recapitalize our ICBM force beyond 2030.
    Question. Do you support and intend to advocate for the 
modernization of all legs of the triad of nuclear delivery vehicles?
    Answer. Yes. The nuclear triad has attributes that provide the 
President with multiple options for a variety of scenarios. The value 
of the triad lies with its flexibility for command and control of the 
force in a degraded environment, responsiveness to a changing world 
environment, technical failure of any one system or warhead type or 
breakout of another nation's deployed weapons.
    Question. In your view, is there a relationship between U.S. 
nuclear deterrence policy and nonproliferation policy? If so, please 
describe the relationship.
    Answer. Yes. Extended nuclear deterrence has provided a strong and 
attractive alternative for states considering whether to develop their 
own nuclear capability. The extended protection provided by U.S. 
nuclear forces reassures allies they do not need to seek or develop 
independent capabilities. The requirements for extended nuclear 
deterrence and nonproliferation further buttress the need for safe, 
secure, and effective weapons and operationally effective forces.
                        nuclear weapons council
    Question. If confirmed you would become a member of the NWC.
    What would your priorities be for the NWC?
    Answer. If confirmed, I would encourage vigorous and persistent 
attention to the sustainment and life extension of the nuclear weapons 
enterprise. This must include sufficient attention to scientific and 
technical personnel.
    Question. What changes if any would you recommend to the 
organization, structure, or function of the NWC?
    Answer. None at this time. The NWC is composed of the appropriate 
members to provide effective oversight of the nuclear weapons 
enterprise.
    Question. What role is the NWC playing or should it play in the 
discussion with respect to any future nuclear arms control treaties?
    Answer. NWC principals should provide policy, military, and 
technical recommendations.
           maintaining a safe, secure, and reliable stockpile
    Question. If confirmed, you would play a major role, in conjunction 
with the NNSA, to maintain the safety, security, and reliability of the 
U.S stockpile of nuclear weapons. What are your priorities for 
implementing that responsibility?
    Answer. If confirmed, I will continue, in conjunction with the 
NNSA, to conduct assessments, determine requirements and establish 
priorities for stockpile management. It is imperative to ensure 
unfailing excellence in the proper care and performance of nuclear 
weapons. If confirmed, I will ensure proper priority is given to this 
mission by insisting that the people performing the mission unfailingly 
observe procedures and have the equipment to accomplish the mission; 
that standards are clear and upheld; and that evaluation measures are 
in place to assure the mission.
    Question. STRATCOM is an integral part of the annual certification 
process for nuclear weapons. Would you recommend any changes in 
STRATCOM's role in the annual process or the process generally?
    Answer. Not at this time. If confirmed, I will closely monitor this 
process and its outcome to recommend any changes that may become 
necessary.
                     stockpile stewardship program
    Question. What is your view of how well the SSP is proceeding 
towards its goal of being able to continuously assess and annually 
certify the U.S. enduring nuclear weapons stockpile as safe, secure, 
and reliable, without the need for underground nuclear testing?
    Answer. The SSP appears to be effective at present and this will 
require continuous assessment.
    Question. In your opinion, what are the biggest challenges for the 
SSP?
    Answer. The SSP's most significant challenges are to understand the 
stockpile as it ages, confidently certify without underground nuclear 
testing, and respond to technical issues in a timely manner.
    Question. Do you believe that all nuclear weapon life extension 
methods, refurbishment, reuse, and replacement, should be given equal 
consideration?
    Answer. I fully support the Nuclear Posture Review's position 
regarding weapon extension options. It is important to study all 
options to determine the best solution.
               military-to-military cooperation programs
    Question. STRATCOM has a long history of conducting military-to-
military exchanges and discussions with its counterparts in Russia, but 
in recent years these exchanges and discussion have stopped for the 
most part.
    If confirmed, would you seek to continue or expand this dialogue?
    Answer. If confirmed, I would consult extensively with the 
Secretary of Defense, the State Department and the Commander, U.S. 
European Command to see what steps would be appropriate to engage 
Russia.
    Question. Would you seek to establish military-to-military programs 
to include other countries, such as China?
    If confirmed, I would consult extensively with the Secretary of 
Defense, the State Department and the Commander, U.S. Pacific Command 
to see what steps would be appropriate to engage China.
                     strategic forces and missions
    Question. During the Cold War, the primary mission for strategic 
forces was to deter the Soviet Union from using its nuclear weapons 
and, more broadly, to contribute to U.S. efforts to contain the Soviet 
Union. Strategic forces were therefore synonymous with nuclear forces. 
This isn't the case today, as the wide-ranging missions assigned to 
STRATCOM make clear.
    What, in your view, is the primary mission for U.S. Strategic 
Forces today and in the future?
    Answer. Our strategic forces are no longer synonymous with our 
nuclear forces. Consistent with the missions assigned to STRATCOM, I 
see strategic forces as including our Global Strike forces (nuclear and 
conventional), space forces, cyber forces, global Intelligence, 
Surveillance, Reconnaissance forces and ballistic missile defense 
forces. These forces serve to assure allies and deter, dissuade and if 
necessary, defeat adversary attacks on the United States or its allies.
    Question. Should we think differently about the use of strategic 
forces today?
    Answer. Yes, because the scope of those forces and their 
contributions to our security have expanded significantly since the 
Cold War.
    Question. Given the mission for strategic forces, as you define it, 
what capabilities are still needed to carry out that mission?
    Answer. Required strategic deterrence capabilities include warning, 
attribution, assured command and control, forces, weapons, and the 
infrastructure to sustain them. The Triad is the cornerstone of 
deterrence and strategic stability. Sustainment and recapitalization of 
strategic space, cyber, and nuclear forces, National Command and 
Control systems, nuclear weapons, and stockpile infrastructure are 
required to deter adversaries, assure allies and manage risk.
    Question. The nuclear weapons in Europe are under the command of 
the Commander of European Command.
    How would you plan to work with that command with respect to 
nuclear weapons security, and policy?
    Answer. If confirmed, I will consult with the Commander, U.S. 
European Command to assess his needs and collaborate on how to best 
provide safe, secure, and effective nuclear weapons. This includes 
advocating for the needs of European Command and planning, executing 
and assessing security cooperation activities supporting strategic 
deterrence.
                 nuclear weapons security and handling
    Question. What in your view are the most challenging aspects of 
maintaining security in the handling of nuclear weapons?
    Answer. Absolute denial of unauthorized access is a national 
security imperative. Meeting this standard is a multi-faceted challenge 
and if I am confirmed, it will have my utmost attention. Enhanced 
awareness and training, improved physical security, and intrinsic 
weapon security features are crucial.
    Question. What role do you think STRATCOM should play in ensuring 
that nuclear weapons are securely stored, transported, and handled when 
in control of the military services?
    Answer. STRATCOM has a critical oversight role spanning operations, 
maintenance, training and inspections by Service components as well as 
the conduct of exercises. If confirmed, I will advocate for increased 
resources to improve all aspects of weapons handling and security.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as Commander, STRATCOM?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator James M. Inhofe
                modernization and the u.s. nuclear triad
    1. Senator Inhofe. General Kehler, I continue to emphasize the 
criticality of modernization and the associated investment 
requirements. This concern is not unfounded or ungrounded. The Perry-
Schlesinger Strategic Posture Commission has provided an alarming 
assessment of the disrepair and neglect of our nuclear weapons 
stockpile and complex. Secretary Gates warned in October 2010, ``no way 
we can maintain a credible deterrent and reduce the number of weapons 
in our stockpile without either resorting to testing our stockpile or 
pursuing a modernization program''. During testimony to this committee 
earlier this year, Dr. Michael Anastasio of Los Alamos National 
Laboratory was: ``very concerned about that budget profile . . . much 
of the planned funding increase for weapons activities do not come to 
fruition until the second half of the 10-year period.''
    Our Trident submarines are an average age of 20 years and their 
replacement build does not start until 2019 and will not be completed 
until 2028. Our Trident II D-5 Fleet Ballistic Missile life is being 
extended but the timeline has slipped and there are concerns about the 
decline in our Solid Rocket Motor Industrial Base as well as 
refurbishment/life extension of the W-76 warhead. The W-76 warhead as 
well as the B-61 gravity bomb both pre-date the 1960s with variants 
developed in the mid-1990s. Our strategic bomber fleet of B-52s and B-
2s vary in age from 15 to 48 years with no definitive plan to replace 
these aging assets. Finally, there are currently no definitive plans to 
replace the 30 year old nuclear Air Launched Cruise Missile or field a 
follow-on to the Minuteman Intercontinental Ballistic Missile (ICBM). 
Do you believe the Life Extension Program (LEP) for the W-76 warhead is 
on track to meet the operational requirements of the Trident II missile 
in an appropriate timeframe?
    General Kehler. To the best of my knowledge, the W-76 LEP is on 
track to meet operational requirements. If confirmed, in conjunction 
with the National Nuclear Security Administration, I will assess the 
status of the W-76 LEP, along with the other planned and ongoing 
nuclear weapons sustainment and life extension efforts, and will make 
recommendations for any changes, if necessary.

    2. Senator Inhofe. General Kehler, do you believe the development 
of a replacement for the nuclear air-launched cruise missile (ALCM) is 
important?
    General Kehler. If confirmed, I will support and intend to advocate 
for modernization of all legs of the Triad of nuclear delivery 
vehicles. Regarding the ALCM, as stated in the November 2010 update to 
the section 1251 report to Congress, the Department intends to replace 
the current ALCM with the advanced long-range standoff cruise missile, 
a plan I support. The Air Force will conduct an assessment of 
alternatives from approximately spring 2011 through fall 2013. If 
confirmed, this assessment will be important in my understanding of the 
capabilities to be provided by the advanced long-range standoff cruise 
missile.

    3. Senator Inhofe. General Kehler, can the bomber leg of the triad 
remain viable without an ALCM replacement in the future?
    General Kehler. The types and specific capabilities of bomber-
delivered weapons are key questions that must be addressed as we 
sustain and modernize the bomber leg of the nuclear Triad. As stated in 
the November 2010 update to the section 1251 report to Congress, the 
Department intends to replace the current ALCM with the advanced long-
range standoff cruise missile, a plan I support. The Air Force will 
conduct an assessment of alternatives from approximately spring 2011 
through fall 2013. If confirmed, this assessment will be important in 
my understanding of the capabilities to be provided by a replacement 
nuclear standoff weapon for the bomber leg of the Triad.

    4. Senator Inhofe. General Kehler, what do you believe are the key 
factors driving the timelines for both a follow-on bomber and 
replacement ALCM?
    General Kehler. Service life and the ability of our bomber and ALCM 
capabilities to meet operational capability needs are the key factors 
that will drive timelines.

    5. Senator Inhofe. General Kehler, when do you think we need to 
start examining options for a follow-on ICBM?
    General Kehler. Land-based ICBMs are an integral and enduring part 
of the Triad, and the 2010 Nuclear Posture Review (NPR) includes a 
commitment to begin an analysis of alternatives (AOA) in fiscal years 
2011 and 2012. The Air Force is conducting sustainment programs to take 
the Minuteman III ICBM to 2030, as directed by Congress. The Air Force 
Capabilities Based Assessment (CBA) for an ICBM follow-on system is 
underway. The CBA and AOA findings will shape the plan and resource 
strategy to recapitalize our ICBM force beyond 2030. If confirmed, I 
look forward to helping to shape these discussions.

    6. Senator Inhofe. General Kehler, how long does it take to design 
and develop a new ICBM, based on prior experience?
    General Kehler. There has been a significant amount of time and 
technological progress since the development of the Peacekeeper and 
Minuteman III ICBMs, as well as changes in the industrial base. The CBA 
and AOA will frame the scope of the task and timing for the potential 
design and development of an ICBM follow-on system, and the time it 
likely will take to deploy.

    7. Senator Inhofe. General Kehler, specific to the Perry-
Schlesinger Strategic Posture Commission, its report highlights the 
fact that ``the triad of strategic delivery systems continues to have 
value. Each leg of the nuclear triad provides unique contributions to 
stability. As the overall force shrinks, their unique values become 
more prominent.'' What is your assessment on where the United States is 
today and where we are going with regards to modernization of our 
nuclear triad weapons and weapon systems?
    General Kehler. U.S. strategic forces--comprised of submarine-
launched ballistic missiles (SLBMs), ICBMs and nuclear-capable heavy 
bombers--continue to underwrite deterrence of nuclear attack against 
the United States, our allies, and partners. Today's nuclear Triad 
provides the President with flexibility, survivability and 
responsiveness. I support modernization of all three legs of the Triad 
along with the associated command and control and ISR capabilities. 
This modernization must be backed by a safe, secure, effective 
stockpile. If confirmed, I will undertake a thorough assessment of the 
modernization of our nuclear Triad weapons and weapon systems and will 
be a strong advocate for needed sustainment and modernization 
requirements.

    8. Senator Inhofe. General Kehler, what must be done to maintain 
our qualitative edge and nuclear deterrence capability?
    General Kehler. Maintaining a strong U.S. nuclear deterrent 
requires sustainment of a safe, secure, and effective arsenal. This 
requires modernization of both our strategic delivery vehicles and the 
nuclear weapons complex. Recent investments in both these areas, and 
commitments to maintain such funding, are prerequisites to sustaining 
our deterrent.

    9. Senator Inhofe. General Kehler, what do you think is the impact 
on the unique value of each leg of the triad as our overall nuclear 
force shrinks?
    General Kehler. The 2010 NPR considered whether the nuclear Triad 
of SLBMs, ICBMs, and heavy bombers should be retained, and determined 
that it should. Retaining all three Triad legs best maintains strategic 
stability at reasonable cost, while hedging against potential technical 
problems or vulnerabilities. Each leg of the Triad has advantages that 
warrant retaining all three legs at this stage of reductions:

        <bullet> Strategic nuclear submarines and the SLBMs they carry 
        represent the most survivable leg of the U.S. nuclear Triad.
        <bullet> Single-warhead ICBMs contribute to stability, and like 
        SLBMs are not vulnerable to air defenses.
        <bullet> Bombers can be visibly deployed forward, as a signal 
        in crisis to strengthen deterrence of potential adversaries and 
        assurance of allies and partners.

    The nuclear Triad has attributes that provide the President with 
multiple options for a variety of scenarios. A key value of the Triad 
lies with its flexibility for command and control of the force in a 
degraded environment, responsiveness to a changing world environment, 
and with the insurance it provides in the event of a technical failure 
of any one system or warhead type or breakout of another nation's 
deployed weapons. Each leg continues to contribute unique attributes 
and value to this overall effect as force levels go down.

                   conventional prompt global strike
    10. Senator Inhofe. General Kehler, there has been little public 
discussion over prompt global strike, even though we all know that the 
New Strategic Arms Reduction Treaty (START) will potentially restrict 
our abilities and are a point of concern with the Russians. Though the 
recent Quadrennial Defense Review (QDR) recommended to ``expand future 
long-range strike capabilities'', I am uncertain as to what the 
Department of Defense (DOD) actually is pursuing. As I understand it, 
one leading candidate appears to be a rocket that launches a hypersonic 
glide vehicle that reaches its targets by flying both outside and 
inside the atmosphere, as opposed to taking a ballistic trajectory 
common to ICBMs. The Navy's conventional Trident modification also 
remains an option, though I don't know what level of support it has in 
DOD or Congress. What is the requirement for conventional prompt global 
strike?
    General Kehler. DOD is currently studying the appropriate mix of 
long-range strike capabilities, including heavy bombers as well as non-
nuclear prompt global strike, in follow-on analysis to the 2010 QDR and 
the NPR. Along with these studies, the Department is developing 
requirements and investing in development and testing of prompt global 
strike capabilities. As these technologies mature, the Department will 
evaluate acquisition and deployment plans. If confirmed, I look forward 
to working with the Joint Requirement Oversight Council in the 
requirements development process.

    11. Senator Inhofe. General Kehler, what role will conventional 
prompt global strike play in the U.S. strategic posture?
    General Kehler. The Department is developing requirements and 
investing in development and testing of prompt global strike 
capabilities in order to fully understand the potential role such non-
nuclear systems could play in meeting deterrence and reassurance goals. 
As these technologies mature, the Department will evaluate acquisition 
and deployment plans. If confirmed, I look forward to becoming more 
involved in determining the role conventional prompt global strike will 
play in the U.S. strategic posture.

    12. Senator Inhofe. General Kehler, what concepts appear to be the 
most promising and what is the timeline to develop and deploy?
    General Kehler. If confirmed, I look forward to better 
understanding potential conventional prompt global strike capability 
and associated concepts such as the Hypersonic Test Vehicle, the 
Conventional Strike Missile, and the Advanced Hypersonic Weapon 
Technology Experiment.

    13. Senator Inhofe. General Kehler, how soon would you like to see 
such a capability fielded? Please discuss the pros and cons of each 
approach.
    General Kehler. If confirmed, I look forward to better 
understanding potential conventional prompt global strike capability, 
associated concepts, and which ones are most promising based on future 
technology demonstrations.

        u.s. nuclear deterrence doctrine and targeting guidance
    14. Senator Inhofe. General Kehler, will you pledge to inform 
Congress if the administration seeks to revise current nuclear 
deterrence requirements and nuclear targeting guidance?
    General Kehler. Yes.

    15. Senator Inhofe. General Kehler, will you make yourself 
available for regular briefings if a review of current guidance is 
undertaken?
    General Kehler. Yes.

    16. Senator Inhofe. General Kehler, do you agree it is important to 
determine deterrence requirements and the types of forces necessary to 
achieve those requirements before engaging with the Russians in another 
round of nuclear reductions?
    General Kehler. Yes.

    17. Senator Inhofe. General Kehler, will you pledge to provide 
detailed briefings to Congress on any future analysis in support of a 
future arms control negotiation?
    General Kehler. Yes.

    18. Senator Inhofe. General Kehler, what is your understanding of 
this administration's approach to nuclear deterrence? How might it 
differ from the approach taken in the 2001 NPR, which, according to an 
unclassified version of that document, describes overarching U.S. 
nuclear deterrence policy as the capability ``to hold at risk what 
opponents value, including their instruments of political control and 
military power, and to deny opponents their war aims. The types of 
targets to be held at risk for deterrence purposes include leadership 
and military capabilities, particularly WMD, military command 
facilities and other centers of control and infrastructure that support 
military forces.''
    General Kehler. The 2010 NPR outlines how ``the United States will 
maintain a safe, secure, and effective arsenal, both to deter potential 
adversaries and to assure U.S. allies and other security partners that 
they can count on America's security commitments.'' If confirmed, I 
will assess this approach to nuclear deterrence, witting of previous 
approaches, and provide recommendations and make decisions, as 
appropriate.

    19. Senator Inhofe. General Kehler, will you affirm publicly that 
this is the current U.S. deterrence policy?
    General Kehler. U.S. nuclear deterrence is only one component to 
the overall United States' deterrence policy which is outlined in a 
number of strategic documents such as the National Security Strategy 
and QDR.

    20. Senator Inhofe. General Kehler, does this apply to China and 
the Russian Federation?
    General Kehler. The U.S. nuclear deterrence policy, as stated in 
the 2010 NPR, applies to China, the Russian Federation and any 
potential adversary that possesses or are seeking to possess nuclear 
weapons.

    21. Senator Inhofe. General Kehler, will you notify Members of 
Congress who inquire if this changes?
    General Kehler. Yes. In coordination with the Secretary and the 
Chairman, I will respond to congressional inquiries regarding U.S. 
employment planning guidance consistent with executive branch policy 
regarding the release of such information.

    22. Senator Inhofe. General Kehler, is it your understanding that 
U.S. Strategic Command's (STRATCOM) support for new START nuclear force 
levels is predicated upon the ability of U.S. forces to carry out 
nuclear targeting guidance as established by the prior administration?
    General Kehler. Yes. New START's lower strategic force levels are 
based on analysis conducted during the 2010 NPR which considered 
nuclear targeting guidance and concluded that stable deterrence could 
be maintained at lower strategic levels.
    As General Chilton, the STRATCOM Commander, testified to Congress 
on July 20, 2010, ``New START's flexible limits on deployed and 
nondeployed delivery platforms retain sufficient flexibility in 
managing our triad of deterrent forces to hedge against both tactical 
or geopolitical surprise.''

    23. Senator Inhofe. General Kehler, how would you characterize that 
targeting guidance? What types of targets must be held at risk? What 
targets do our potential adversaries (i.e. Russia and China, 
respectively) hold dear?
    General Kehler. If confirmed, I would appreciate the opportunity to 
discuss, in coordination with the Secretary and the Chairman, specifics 
of targeting guidance in a closed session.

    24. Senator Inhofe. General Kehler, what types and numbers of 
strategic nuclear weapons (warheads and delivery vehicles) are 
necessary to carry out current targeting guidance? Will the guidance 
have to change to accommodate lower force levels?
    General Kehler. The baseline force structure provided in the May 
2010 Section 1251 Report to Congress fully supports U.S. strategy and 
guidance, and would conform with the New START treaty limits. My 
understanding is that the Department does not require new Presidential 
guidance to accommodate the lower force levels under the New START 
treaty. If confirmed, I will review targeting guidance with the 
Secretary and the Chairman and provide recommendations for potential 
changes.

    25. Senator Inhofe. General Kehler, would you be concerned if 
Russia began deploying large numbers of nuclear weapons capable of 
reaching the United States but not limited by the New START?
    General Kehler. Yes, I would be concerned about any nation that 
deploys large numbers of nuclear weapons capable of reaching the United 
States. If confirmed, my recommendations with regards to Russia would 
be informed by the 2010 NPR to maintain ``a stable bilateral balance 
and avoiding dangerous nuclear competition.''

    26. Senator Inhofe. General Kehler, according to a paper on the 
2001 NPR prepared by the National Institute for Public Policy, ``[w]ith 
the United States at 1,700-2,200 Operationally Deployed Strategic 
Nuclear Warheads, China would take at least a decade to achieve 
numerical parity with the United States and U.S. leaders would have 
time to respond with a combination of diplomatic and force posture 
initiatives.'' How much lead time will we have at 1,550 warheads and 
700 deployed delivery systems?
    General Kehler. The 2010 NPR states: China's nuclear arsenal 
remains much smaller than the arsenals of Russia and the United States. 
But the lack of transparency surrounding its nuclear programs--their 
pace and scope, as well as the strategy and doctrine guiding them--
raises questions about China's future strategic intentions.
    Numerical parity is but one issue with regards to China's nuclear 
force that needs close monitoring. If confirmed, I will work with the 
Intelligence Community to monitor China's nuclear force development and 
will make recommendations when appropriate.

    27. Senator Inhofe. General Kehler, how much lead time do we need 
to respond to an effort by China to become a peer competitor of the 
United States?
    General Kehler. The 2010 NPR states, ``the United States and 
China's Asian neighbors remain concerned about the pace and scope of 
China's current military modernization efforts, including its 
quantitative and qualitative modernization of its nuclear 
capabilities.''
    The United States' policy, as outlined in the NPR, of maintaining a 
stable, strategic relationship with China, is important as the United 
States responds to the multivariable aspects of China's nuclear 
capabilities. If confirmed, I will work with the Intelligence Community 
to monitor China's progress and make appropriate recommendations to 
sustain our deterrent force in a safe, secure, and effective posture.

    28. Senator Inhofe. General Kehler, is it your understanding that 
it is U.S. policy that China not be allowed to become a peer competitor 
of the United States when it comes to nuclear forces?
    General Kehler. U.S. policy with regards to China and nuclear 
forces is outlined in the 2010 NPR.
    The United States and China's Asian neighbors remain concerned 
about China's current military modernization efforts, including its 
qualitative and quantitative modernization of its nuclear arsenal. 
China's nuclear arsenal remains much smaller than the arsenals of 
Russia and the United States. But the lack of transparency surrounding 
its nuclear programs--their pace and scope, as well as the strategy and 
doctrine that guides them--raises questions about China's future 
strategic intentions.

                       nuclear weapons stockpile
    29. Senator Inhofe. General Kehler, early in his term at STRATCOM, 
General Chilton toured the National Nuclear Security Administration 
(NNSA) labs to get a direct perspective with his own eyes, so to speak, 
on the state of the nuclear weapons enterprise. Will you pledge to 
visit all of the laboratories and the plants at your earliest 
opportunity?
    General Kehler. Yes. If confirmed, I will visit the labs and other 
key locations throughout the nuclear weapons complex. Discussions with 
these highly capable members of the nuclear weapons enterprise will 
help me better understand the breadth and depth of their contributions 
to nuclear deterrence and the challenges they face.

    30. Senator Inhofe. General Kehler, are you committed to robust 
efforts to reach out to Members of Congress, especially on the House 
and Senate Energy and Water Appropriations Subcommittees, to ensure 
funding of the 1251 plan as updated/revised?
    General Kehler. Yes. The 1251 plan is directly tied to sustaining a 
strong nuclear deterrent force.

    31. Senator Inhofe. General Kehler, how important do you believe it 
is that the updated/revised 1251 plan be funded by the administration 
and Congress each year?
    General Kehler. The funding of the 1251 plan is important to 
sustaining a strong nuclear deterrent force.

    32. Senator Inhofe. General Kehler, please elaborate on the role 
that STRATCOM plays in annually assessing the nuclear weapons 
stockpile.
    General Kehler. If confirmed, I will continue, in conjunction with 
the National Nuclear Security Administration, to conduct assessments, 
determine requirements and establish priorities for stockpile 
management. It is imperative to ensure unfailing excellence in the 
proper care and performance of nuclear weapons.

    33. Senator Inhofe. General Kehler, will you continue to request 
the advice of respected scientists and other experts in preparing your 
annual letter to Congress?
    General Kehler. Yes. If confirmed I will seek their advice which is 
essential to understanding the complex nuclear field.

    34. Senator Inhofe. General Kehler, will you provide your judgment 
about your confidence in the reliability assessments of the directors 
based on sound statistical methodology?
    General Kehler. Yes.

    35. Senator Inhofe. General Kehler, do you agree that reductions in 
the nondeployed stockpile should be tied to a responsive nuclear 
weapons production capability?
    General Kehler. As stated in the 2010 NPR, implementation of the 
Stockpile Stewardship Program and investment in our nuclear 
infrastructure will allow the United States to shift away from 
retaining large numbers of nondeployed warheads as a hedge against 
technical or geopolitical surprise. If confirmed, I will conduct 
appropriate assessments of the nondeployed stockpile and our nuclear 
weapons production capability and make recommendations as needed.

    36. Senator Inhofe. General Kehler, when will that capability 
exist?
    General Kehler. If confirmed, I will conduct an assessment of the 
nondeployed stockpile and the potential for a responsive production 
capability.

    37. Senator Inhofe. General Kehler, should they also be kept as 
leverage to obtain future reductions from potential bilateral 
negotiations?
    General Kehler. If confirmed, I will look forward to participating 
in assessments of the nondeployed stockpile and its uses in any follow-
on analysis regarding potential future reductions.

    38. Senator Inhofe. General Kehler, do you support improvement of 
safety, security, and reliability in future weapons?
    General Kehler. Yes. I fully support improving the safety, 
security, and effectiveness of our nuclear stockpile.

    39. Senator Inhofe. General Kehler, how can STRATCOM ensure that 
the Services and NNSA properly implement requirements for improved 
safety, security, and reliability?
    General Kehler. If confirmed, I will continue, in conjunction with 
the National Nuclear Security Administration, to conduct assessments, 
determine requirements, and establish priorities for stockpile 
management. It is imperative to ensure unfailing excellence in the 
proper safety, security, care, and performance of nuclear weapons.

    40. Senator Inhofe. General Kehler, will you advocate using the 
replacement warhead option during future LEPs if so recommended by 
laboratory directors?
    General Kehler. I support the study of all options to ensure the 
safety, security, and effectiveness of the nuclear stockpile on a case-
by-case basis. If confirmed, I will consult with the laboratory 
directors and take their recommendations under advisement with regard 
to nuclear weapons stockpile issues.

                            missile defense
    41. Senator Inhofe. General Kehler, in a response to Senator Begich 
during the hearing, you stated: `` . . . my responsibility is to help 
advocate for that [Ground-Based Midcourse Defense (GMD)] capability.'' 
Please explain why you believe the current GMD capability, consisting 
of 30 ground-based interceptors (GBI), is necessary. After further 
examining plans to sustain and modernization the GMD system, please 
provide your views as to whether current plans for the GMD program are 
sufficient to pace the threat and sustain the GMD capability until its 
expected end of service in 2032.
    General Kehler. The GMD Program exists to defend the United States 
against the threat of limited ballistic missile attack on the U.S. 
homeland. If confirmed, I will assess our missile defense force 
structure, including GMD capability, to ensure it keeps pace with 
anticipated threats, and will advocate for changes as appropriate.

    42. Senator Inhofe. General Kehler, under current test plans, 
assuming no test failures, the Missile Defense Agency (MDA) will have 
six GBIs available for reliability flight testing from 2020 to 2032. Is 
this a sufficient number?
    General Kehler. If confirmed, I will work with the MDA on issues, 
such as GBI inventory for flight testing, to ensure GBIs meet 
operational needs.

    43. Senator Inhofe. General Kehler, the administration is 
completing eight additional GBI silos in Fort Greely, AK, that could be 
used in an emergency. Please explain under what circumstances these 
additional silos might be utilized for operational missiles.
    General Kehler. If confirmed, I will assess our missile defense 
force structure, including additional silo use.

    44. Senator Inhofe. General Kehler, do you feel that the current 
planned GBI inventory of 52 missiles is sufficient to accommodate 
continued developmental testing, stockpile reliability testing, and 
possible emergency deployment to Fort Greely?
    General Kehler. If confirmed, I will assess our missile defense 
force structure, including GBI inventory in light of testing, emergency 
deployments, and other operational needs.

    45. Senator Inhofe. General Kehler, please confirm that you have 
seen administration plans to develop and deploy the two-stage GBI and 
associated assets to Europe, if needed.
    General Kehler. I am familiar with the June 1, 2010 Report to 
Congress from the Under Secretary of Defense for Policy on the 
``Continuation of Two-Stage Ground-Based Interceptor Development.'' If 
confirmed, I will assess any additional administration plans for 
Missile Defense assets in Europe.
                                 ______
                                 
    [The nomination reference of Gen. Claude R. Kehler, USAF, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                September 15, 2010.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the U.S. Air Force 
to the grade indicated while assigned to a position of importance and 
responsibility under title 10, U.S.C., section 601:

                             To be General.

    Gen. Claude R. Kehler, 0000.
                                 ______
                                 
    [The biographical sketch of Gen. Claude R. Kehler, USAF, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
           Biographical Sketch of Gen. Claude R. Kehler, USAF
    Gen. Claude R. ``Bob'' Kehler is Commander, Air Force Space 
Command, Peterson Air Force Base, CO. He is responsible for organizing, 
equipping, training, and maintaining mission-ready space and cyberspace 
forces and capabilities for North American Aerospace Defense Command, 
U.S. Strategic Command and other combatant commands around the world. 
General Kehler oversees Air Force network operations; manages a global 
network of satellite command and control, communications, missile 
warning and space launch facilities; and is responsible for space 
system development and acquisition. He leads more than 46,000 
professionals, assigned to 88 locations worldwide and deployed to an 
additional 35 global locations.
    General Kehler entered the Air Force in 1975 as a distinguished 
graduate of the Air Force Reserve Officers' Training Corps program. He 
has commanded at the squadron, group and wing levels, and has a broad 
range of operational and command tours in Intercontinental Ballistic 
Missile (ICBM) operations, space launch, space operations, missile 
warning and space control. He commanded a Minuteman ICBM operations 
squadron at Whiteman Air Force Base (AFB), MO, and the Air Force's 
largest ICBM operations group at Malmstrom AFB, MT. He served as Deputy 
Director of Operations, Air Force Space Command; and commanded both the 
30th Space Wing at Vandenberg AFB, CA, and the 21st Space Wing, 
Peterson AFB, CO. As Deputy Commander, U.S. Strategic Command, he 
helped provide the President and Secretary of Defense with a broad 
range of strategic capabilities and options for the joint warfighter 
through several diverse mission areas, including space operations, 
integrated missile defense, computer network operations and global 
strike. General Kehler also commanded America's ICBM force before its 
transition from Air Force Space Command to Air Force Global Strike 
Command in December 2009.
    The general's staff assignments include wing-level planning and 
tours with the Air Staff, Strategic Air Command headquarters and Air 
Force Space Command. He was also assigned to the Secretary of the Air 
Force's Office of Legislative Liaison, where he was the point man on 
Capitol Hill for matters regarding the President's ICBM Modernization 
Program. As Director of the National Security Space Office, he 
integrated the activities of a number of space organizations on behalf 
of the Under Secretary of the Air Force and Director, National 
Reconnaissance Office.
                                 ______
                                 
Education:
    1974 - Bachelor of Science degree in education, Pennsylvania State 
University, State College.
    1980 - Distinguished graduate, Squadron Officer School, Maxwell 
AFB, AL.
    1982 - Air Command and Staff College, by correspondence
    1987 - Master of Science degree in public administration, 
University of Oklahoma, Norman.
    1988 - Armed Forces Staff College, Norfolk, VA.
    1992 - Air War College, by seminar.
    1995 - Naval War College, Newport, RI.
    1995 - Master of Arts degree in national security and strategic 
studies, Naval War College, Newport, RI.
    1998 - Program for Executives, Carnegie-Mellon University, 
Pittsburgh, PA.
    2002 - National Security Leadership Course, Maxwell School of 
Citizenship and Public Affairs, Syracuse University, NY.
    2006 - Program for Senior Executives in National and International 
Security, John F. Kennedy School of Government, Harvard University, 
Cambridge, MA.

Assignments:
    April 1975-June 1975, student, missile combat crew operational 
readiness training, Vandenberg AFB, CA.
    June 1975-January 1981, missile combat crew member, instructor, 
senior evaluator, and Emergency War Order instructor, 341st Strategic 
Missile Wing, Malmstrom AFB, MT.
    January 1981-April 1982, personnel staff officer, Air Staff 
Training Program, Headquarters U.S. Air Force, Washington, DC.
    April 1982-January 1985, missile operations staff officer, 
Headquarters Strategic Air Command, Offutt AFB, NE.
    January 1985-January 1988, resource planner, Directorate of Air 
Force Operations Plans, and Chief, Strategic Missile Branch, Secretary 
of the Air Force Office of Legislative Liaison, Headquarters U.S. Air 
Force, Washington, DC.
    January 1988-June 1988, student, Armed Forces Staff College, 
Norfolk, VA.
    July 1988-July 1991, nuclear employment and policy planner, Nuclear 
and Chemical Division, Joint Staff, the Pentagon, Washington, DC.
    July 1991-July 1992, Commander, 508th Missile Squadron, Whiteman 
AFB, MO.
    July 1992-February 1993, Deputy Commander, 351st Operations Group, 
Whiteman AFB, MO.
    February 1993-August 1994, Commander, 341st Operations Group, 
Malmstrom AFB, MT.
    August 1994-July 1995, student, Naval War College Newport, RI.
    July 1995-August 1995, Inspector General, Headquarters Air Force 
Space Command, Peterson AFB, CO.
    August 1995-June 1996, Deputy Director of Operations, Headquarters 
Air Force Space Command, Peterson AFB, CO.
    June 1996-June 1998, Commander, 30th Space Wing, Vandenberg AFB, 
CA.
    June 1998-September 1999, Chief, Space Superiority Division, and 
Chairman, Space Superiority and Nuclear Deterrence Panel, Office of the 
Deputy Chief of Staff for Plans and Programs, Headquarters U.S. Air 
Force, Washington, DC.
    September 1999-August 2000, special assistant to the Director of 
Programs, Office of the Deputy Chief of Staff for Plans and Programs, 
Headquarters U.S. Air Force, Washington, DC.
    August 2000-May 2002, Commander, 21st Space Wing, Peterson AFB, CO.
    May 2002-May 2005, Director, National Security Space Integration, 
Office of the Under Secretary of the Air Force, Washington, DC.
    May 2005-October 2007, Deputy Commander, U.S. Strategic Command, 
Offutt AFB, NE.
    October 2007-present, Commander, Air Force Space Command, Peterson 
AFB, CO.

Summary of joint assignments:
    July 1988-July 1991, nuclear employment and policy planner, Nuclear 
and Chemical Division, Joint Staff, the Pentagon, Washington, DC, as a 
major and lieutenant colonel.
    May 2005-October 2007, Deputy Commander, U.S. Strategic Command, 
Offutt AFB, NE, as a lieutenant general.

Operational information:
    Weapon systems: Minuteman II and Minuteman III, Defense Support 
Program
    Launch systems: Titan II, Titan IV, and Delta II

Major awards and decorations:
    Distinguished Service Medal
    Defense Superior Service Medal
    Legion of Merit with two oak leaf clusters
    Defense Meritorious Service Medal
    Meritorious Service Medal with three oak leaf clusters
    Air Force Commendation Medal

Publications:
    ``Nuclear Armed Adversaries and the Joint Commander,'' Naval War 
College Review, Winter 1996.

Effective dates of promotion:
    Second Lieutenant - April 10, 1975
    First Lieutenant - April 10, 1977
    Captain - April 10, 1979
    Major - May 1, 1985
    Lieutenant Colonel - June 1, 1989
    Colonel - February 1, 1994
    Brigadier General - July 1, 2000
    Major General - August 1, 2003
    Lieutenant General - June 1, 2005
    General - October 12, 2007
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Gen. Claude R. 
Kehler, USAF, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Claude R. Kehler, C. Robert Kehler.

    2. Position to which nominated:
    Commander, U.S. Strategic Command.

    3. Date of nomination:
    September 15, 2010.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    April 7, 1952; Danville, PA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Marjorie E. Kehler (Maiden name: Kitner).

    7. Names and ages of children:
    Matthew S. Kehler, 28; Jared P. Kehler, 24.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Association of Air Force Missileers
    Air Force Association
    American Institute of Aeronautics and Astronautics
    Alumni Association, Pennsylvania State University
    Alumni Association, Shamokin Area High School
    Military Officers Association of America
    AARP
    Ancient Accepted Scottish Rite, 32nd Degree Masonic Order
    Abraham C. Treichler Lodge 682, Masonic Order of PA
    Izaak Walton League of America, Inc.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    Distinguished Alumni; Pennsylvania State University, 2010
    General James V. Hartinger Military Space Achievement Award, 2009
    Associate Fellow, American Institute of Aeronautics and 
Astronautics, 2008,

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to Parts B-E of the committee 
questionnaire. The text of the questionnaire is set forth in 
the Appendix to this volume. The nominee's answers to Parts B-E 
are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                   Claude R. Kehler, General, USAF.
    This 8th day of June, 2010.

    [The nomination of Gen. Claude R. Kehler, USAF, was 
reported to the Senate by Chairman Levin on December 3, 2010, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on December 10, 2010.]
                              ----------                              

    [Prepared questions submitted to GEN Carter F. Ham, USA, by 
Chairman Levin prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff. These 
reforms have also improved cooperation between the Services and the 
combatant commanders, among other things, in joint training and 
education and in the execution of military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. No.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. N/A
    Question. Do you believe that the role of the combatant commanders 
under the Goldwater-Nichols legislation is appropriate and the policies 
and processes in existence allow that role to be fulfilled?
    Answer. Yes.
    Question. Do you see a need for any change in those roles, with 
regard to the resource allocation process or otherwise?
    Answer. No.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commander of U.S. Africa Command (AFRICOM)?
    Answer. The Unified Command Plan specifies the responsibilities of 
AFRICOM. If confirmed as the commander of AFRICOM, I would be 
responsible for ensuring their accomplishment. In my view, the most 
important requirement is to detect, deter, and prevent attacks against 
the United States, its territories, possessions, and bases and to 
employ appropriate force to defend the Nation should deterrence fail. 
AFRICOM's responsibilities also reflect a new and evolving focus on 
building partner operational and institutional capacity at the country 
and regional levels and, where appropriate, supporting the efforts of 
other U.S. Government agencies in the area of responsibility (AOR).
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. In my 35 years of military service I have served in 
numerous positions that prepared me for this command. Four assignments, 
I think, have been key in my preparation to serve, if confirmed, as a 
combatant commander. From 2001-2003, I served on the staff at U.S. 
Central Command in Tampa then in Qatar. There I learned how combatant 
Commands interact with the Joint Staff, with the Office of the 
Secretary of Defense, the Services, and with the other combatant 
commands. In 2004-2005 I commanded Multinational Brigade-North in 
Mosul, Iraq where I gained valuable experience in how U.S. and other 
coalition forces can effectively operate within a sovereign nation and 
alongside host nation security forces. In 2007-2008, I served as 
Director for Operations, J3, on The Joint Staff, gaining a worldwide 
view of U.S. military operations and gaining a keen appreciation for 
the interagency process. Finally, in my current assignment as Commander 
of U.S. Army forces in Europe, I have a full understanding of Service 
Component Command responsibilities in support of a combatant command 
and have first-hand experience in the value of theater security 
cooperation efforts and in building partner capacity.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Commander of AFRICOM?
    Answer. Yes. I recognize that I do not yet have the necessary depth 
of understanding of the varied security challenges in Africa. I know 
that I will have to develop relationships with U.S. officials who share 
responsibilities for U.S. policies and activities in Africa and with 
key African leaders as well. I must gain a better understanding of the 
cultural, racial, ethnic, religious, linguistic, and regional diversity 
of the many peoples of Africa. If I am confirmed, I will begin a series 
of briefings with the AFRICOM staff, the Office of the Secretary of 
Defense, Department of State (DOS), the Intelligence Community, and 
others to better understand the challenges of the command and to 
prepare myself for this important duty.
    Question. If confirmed, what duties and functions do you expect the 
Secretary of Defense would prescribe for you?
    Answer. The specific responsibilities of AFRICOM are defined in The 
Unified Command Plan which is approved by the Secretary of Defense and 
the President. If confirmed, I would expect to have discussions with 
the Secretary of Defense to confirm priorities for the command and to 
focus my efforts on those areas that require immediate attention.
                             relationships
    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense 
and from the Secretary of Defense to the combatant commands. Other 
sections of law and traditional practice, however, establish important 
relationships outside the chain of command. Please describe your 
understanding of the relationship of the Commander, U.S. Africa Command 
to the following offices:
    The Secretary of Defense.
    Answer. Subject to direction from the President, the Commander, 
AFRICOM, performs duties under the authority, direction, and control of 
the Secretary of Defense. In addition, the Commander, AFRICOM, is 
responsible to the Secretary of Defense for the readiness of the 
command to carry out its missions.
    Question. The Under Secretaries of Defense.
    Answer. A direct command relationship between the Under Secretaries 
of Defense and the AFRICOM Commander does not exist. However, I 
anticipate that the AFRICOM Commander will regularly interact, 
coordinate and exchange information with the Under Secretaries of 
Defense on issues relating to AFRICOM affairs. The Commander should 
directly communicate with the Under Secretaries of Defense on a regular 
basis.
    Question. The Assistant Secretaries of Defense.
    Answer. There is not a direct command relationship between the 
Assistant Secretaries of Defense and the AFRICOM commander. The AFRICOM 
Commander and the Assistant Secretaries of Defense will work together 
on issues of mutual concern.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. There is not a direct command relationship between the 
Chairman of the Joint Chiefs of Staff and the AFRICOM Commander. The 
Chairman functions under the authority, direction and control of the 
National Command Authority (NCA). The Chairman will transmit 
communications between the NCA and the AFRICOM commander as well as 
oversee the activities of the commander as directed by the Secretary of 
Defense. As the principal military advisor to the President, the 
National Security Council, and the Secretary of Defense, the Chairman 
is a key conduit between a combatant commander, Interagency 
organizations and the service chiefs. The AFRICOM commander will keep 
the Chairman informed on significant issues regarding the AFRICOM AOR. 
The commander will directly communicate with the Chairman of the Joint 
Chiefs of Staff on a regular basis.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. There is not a direct command relationship with the Vice 
Chairman of the Joint Chiefs of Staff. However, the AFRICOM commander 
will keep the Vice Chairman informed of all significant issues 
regarding the AFRICOM AOR. The Vice Chairman serves on several councils 
and boards whose decisions affect AFRICOM including the Joint 
Requirements Oversight Council, the Defense Acquisition Board, the 
Defense Advisory Working Group and the Senior Readiness Oversight 
Council. Interaction between the Commander, AFRICOM, and the Vice 
Chairman of the Joint Chiefs of Staff is important to ensure these 
boards and councils make informed choices on matters affecting the 
command. When so designated the Vice Chairman acts as chairman and 
performs the duties of the Chairman. When acting as Chairman, the 
Commander, AFRICOM, would regularly communicate and coordinate with the 
Vice Chairman of the Joint Chiefs of Staff.
    Question. The Director of the Joint Staff.
    Answer. There is no direct command relationship between the 
Director of the Joint Staff and the AFRICOM commander. The AFRICOM 
commander will work with the Director of the Joint Staff on issues 
related to AFRICOM.
    Question. The Secretaries of the Military Departments.
    Answer. There is no direct command relationship between the 
Secretaries of the Military Departments and the AFRICOM commander. The 
Secretaries of the Military Departments are responsible for all affairs 
of their respective departments including functions pertaining to the 
administration of and support to forces employed by AFRICOM. The 
secretaries fulfill their responsibilities by exercising administrative 
control through the Service Component Commands assigned to AFRICOM. In 
this manner, the Secretary of the Army is the executive agent for 
AFRICOM headquarters.
    Question. The Service Chiefs.
    Answer. There is no direct command relationship between the Service 
Chiefs and the AFRICOM commander. The Service Chiefs are responsible 
for ensuring the organization and readiness of each service branch and 
for advising the President. The Service Chiefs are also members of the 
Joint Chiefs of Staff and serve as military advisers to the President, 
National Security Council, the Homeland Security Council, and the 
Secretary of Defense. For matters affecting AFRICOM, I would anticipate 
regular communication between the Commander, AFRICOM, and the Service 
Chiefs. The Service Chiefs do not have operational command authority. 
The AFRICOM Commander will rely on the Service Chiefs to provide 
properly trained and equipped forces to accomplish missions in the 
AFRICOM AOR.
    Question. The other geographic and functional combatant commanders.
    Answer. Formal relationships between the AFRICOM commander and the 
other geographic and functional combatant commanders will derive from 
command authority established by title 10 U.S.C. section 164 and from 
the Secretary of Defense when such relationships are established by him 
during operational missions. Combatant commanders closely coordinate as 
necessary to accomplish all assigned missions. These relationships are 
critical to the execution of our National Military Strategy, and are 
characterized by mutual support, frequent contact, and productive 
exchanges of information on key issues.
    Question. The respective U.S. Chiefs of Mission.
    Answer. Each Ambassador serves the President directly as his 
personal representative for that country. If confirmed, I will ensure 
that all activities of the Combatant Command in each country are fully 
coordinated with the Chief of Mission, consistent with U.S. policy.
    Question. The respective U.S. Senior Defense Officials/Defense 
Attaches (SDO/DATT).
    Answer. There is a supervisory relationship between the AFRICOM 
Commander and the SDO/DATT. The U.S. SDO/DATT is formally evaluated by 
the AFRICOM commander. This relationship ensures the SDO/DATT maintains 
close coordination with AFRICOM on all matters involving U.S. military 
forces in the country. As the AFRICOM commander, I will maintain a 
close working relationship with the U.S. Senior Defense Official in 
each country in order to coordinate activities between the command and 
the respective country's military.
    Question. The National Security Advisor and National Security 
Council.
    Answer. There is no formal relationship between the National 
Security Advisor and AFRICOM, nor between the National Security Council 
and AFRICOM. I would expect that information or requests for 
information from the NSA and NSC would be passed thru the Chairman of 
the Joint Chiefs of Staff to the Commander, AFRICOM.
                   major challenges and opportunities
    Question. In your view, what are the major challenges and 
opportunities that would confront you if you are confirmed as the next 
Commander of AFRICOM?
    Answer. There have been positive changes in the past decade as many 
African nations have taken steps to increase the stability and security 
of the continent. There have been improvements in regional cooperation 
across the continent. For example the Gulf of Guinea nations are 
working more closely together in the field of maritime security and 
there has been an increase in the cooperation and effectiveness of 
Regional Economic Communities. I think it is important to seek 
opportunities to build upon these positive steps.
    There are also significant challenges in Africa that require 
sustained and significant attention. The emergence of transnational 
terrorist threats, piracy, narcotics, smuggling, and human trafficking 
create areas of instability which directly impact the quality of life 
of the population in those areas and affect U.S. national interests. I 
believe these problems are best addressed regionally.
    Question. If confirmed, what plans do you have for addressing these 
challenges and opportunities?
    Answer. As President Obama stated in his remarks in Ghana, 
``Africa's future is up to Africans.'' Addressing these problems will 
require the coordinated actions of AFRICOM, other U.S. Government 
organizations, multilateral organizations, and our African partners. If 
confirmed, I will continue the overall approach of assisting our 
partners in the region based on shared interests seeking African 
solutions to African problems. I will also closely review and assess 
AFRICOM's existing programs, policies and strategy before taking any 
actions.
                       u.s. objectives in africa
    Question. In his address in Ghana in July 2009, President Obama 
reaffirmed Africa's strategic importance to the United States and our 
national interests. He identified four priorities for the U.S. 
Government's engagement efforts: (1) supporting strong and sustainable 
democracies and good governance; (2) fostering sustained economic 
growth and development; (3) increasing access to quality health and 
education; and (4) helping to prevent, mitigate, and resolve armed 
conflict.
    In your view, what is AFRICOM currently doing to advance each of 
these objectives?
    Answer. AFRICOM plays a supporting role in all four. To support the 
first priority, AFRICOM works with the Nations of Africa to strengthen 
their security institutions including advancing civil authority over 
militaries. In order to achieve the second priority, sustained economic 
growth and development, the other three priorities must be addressed. 
AFRICOM also conducts programs that address medical readiness issues of 
African forces which support broader U.S. health efforts and also 
fosters professional military education opportunities for our African 
partners. AFRICOMs efforts in support of the training of peacekeeping 
forces and assistance to on-going international peace efforts support 
the final priority. Ultimately, these efforts combined help maintain 
stability in Africa, which sets conditions that fosters achievement of 
sustained economic growth and development.
    Question. If confirmed, what efforts do you hope to undertake 
during your time as the Commander of AFRICOM?
    Answer. If confirmed, I plan to continue the process of integration 
and cooperation with other U.S. Government agencies that the command 
has focused on since its formation. I would seek to enhance and 
continue the programs and activities that build partner security 
capacity among African nations, the African Union (and its Regional 
Economic Communities), and its African Standby Force.
                      counterterrorism priorities
    Question. Violent extremism by transnational terrorist 
organizations is a major source of regional instability. In the last 
year, al Qaeda and terrorist groups in Africa appear to have 
strengthened their collaboration. Al Qaeda operatives are active in 
East Africa, while al Qaeda in the Lands of the Islamic Maghreb (AQIM) 
operates across the trans-Sahara region of Northern and Western Africa. 
The leaders of Somalia-based Al-Shabaab have publicly aligned 
themselves with al Qaeda, having issued public statements praising 
Osama Bin Ladin and linking Somalia to al Qaeda's global operations. 
Al-Shabaab also announced its support to al Qaeda in the Arabian 
Peninsula (AQAP) at the same time that AQAP activities increased in 
Yemen, separated from Somalia by the 20-mile wide Bab-el-Mandab Strait.
    Within the AFRICOM AOR, what do you consider the highest 
counterterrorism priority?
    Answer. I recognize that I do not have access to the full range of 
intelligence concerning threats and counter-terrorism activities in the 
AFRICOM AOR. Based on my current understanding, I believe AQIM and al 
Shabab represent the two highest counter-terrorism priorities in 
Africa.
    Question. Given your current knowledge of AFRICOM programs, do you 
believe the Command's resources are aligned in a manner consistent with 
these counterterrorism priorities? If confirmed, do you plan to make 
any changes?
    Answer. I believe the Command's focus is consistent with the intent 
and objectives defined by the President and the Secretary of Defense. 
If confirmed, I will assess current and future programs before making 
any changes.
              al qaeda in the lands of the islamic maghreb
    Question. What is your assessment of the threat posed by al Qaeda 
in the Lands of the Islamic Maghreb (AQIM)?
    Answer. I recognize that I do not have access to the full range of 
intelligence concerning threats in the AFRICOM AOR. Based on my current 
understanding of the area, I believe AQIM is seeking to expand its 
operational reach and increase attacks within its current area of 
operations. AQIM at present is threatening to conduct attacks against 
government forces and installations and to conduct kidnappings for 
ransom of western citizens in Mali, Mauritania, and Niger. AQIM 
operations in vast, sparsely inhabited areas in the Sahel region also 
pose significant challenges to a coordinated state response.
    Question. In your view, does AQIM pose a threat to U.S. and/or 
western interests outside of its immediate operational area (Mali, 
Mauritania, and Niger)?
    Answer. Based on my current understanding of the area, yes. AQIM 
has threatened Western European nations, in particular France, with a 
campaign of terrorist violence based on attempts by the French 
administration to impose restrictions on traditional Muslim dress. AQIM 
is also hostile to recent attempts by the Italian Government to 
restrict immigration from North Africa and to detain and deport illegal 
immigrants living and working on the European continent.
    Question. What is your assessment of Operation Enduring Freedom-
Trans-Sahara (OEF-TS) and the Trans-Sahara Counterterrorism Partnership 
(TSCTP) program?
    Answer. OEF-TS is the military component of a coordinated U.S. 
Government effort under TSCTP. Based on my current understanding, OEF-
TS has been successful at building the capacity of northern Sahara and 
Sahel militaries through training, equipping, and advising programs and 
has brought about regional cooperation which has increase 
effectiveness.
    Question. If confirmed, what changes, if any, do you intended to 
implement vis-a-vis OEF-TS and TSCTP?
    Answer. If confirmed, I will assess the program prior to making any 
changes.
               connection between al qaeda and al shabab
    Question. In your assessment, what, if any, connection exists 
between al Shabab and al Qaeda and its affiliated groups (e.g., al 
Qaeda in the Arabian Peninsula)?
    Answer. I recognize that I do not have access to the full range of 
intelligence concerning any possible connection between these two 
entities. I am aware that al Shabab has claimed they have a 
relationship with al Qaeda. This terrorist group is one of the two 
major counterterrorism priorities in Africa. If confirmed, I will more 
thoroughly assess this area.
               horn of africa-regional security approach
    Question. Somalia is a collapsed state with a weak government 
unable to project either power or stability or to provide services to 
its people. Somalia is also a training and operations hub for al Shabab 
and al Qaeda violent extremists, pirates operating in the Indian Ocean 
and Arabian Peninsula, illicit traffickers of weapons, humans, and 
drugs, and remnants of the al Qaeda East Africa cell that was 
responsible for the destruction of our embassies in Dar es Salaam and 
Nairobi in August 1998. U.S. Central Command, according to public 
reports, is in the process of developing a multi-year $1.5 billion 
security forces assistance fund for Yemen. While the conditions in 
Yemen are different than Somalia, according to a July 2010 report to 
Congress from the State Department, the U.S. objectives in Somalia--
eliminate the threat of violent extremists and enable the Transitional 
Federal Government (TFG) to provide basic services to all Somalis--are 
not dissimilar from Yemen. By nearly all accounts, neither AFRICOM nor 
the U.S. Government are currently resourced to accomplish these 
objectives.
    Putting aside the ongoing DOD-State Department security assistance 
review, would you support or oppose a comparable security forces 
assistance fund dedicated to the Horn of Africa to combat the regional 
threat posed by Somalia?
    Answer. If confirmed, I would review the current resources and 
programs in the Horn of Africa to determine the merit of establishing a 
similar security assistance fund for Somalia. If there is a requirement 
or need I will not hesitate to communicate it through my chain of 
command.
                    somalia--threat to the homeland
    Question. A particularly concerning element of the threat emanating 
from Somalia is the reported increase in the number of resettled Somali 
refugees--many of whom carry western passports--returning home to 
Somalia to receive training from violent extremist elements operating 
in Somalia. The intentions of these individuals traveling to Somalia in 
most cases are unknown, but the threat they potentially pose to the 
homeland could be significant.
    In your view, what is your assessment of the threat posed to the 
homeland by violent extremist elements operating in Somalia?
    Answer. I recognize that I do not have access to the full range of 
intelligence concerning threats emerging from Somalia. Based on my 
current understanding of the area, I believe the al Qaeda organization 
as a whole is actively engaged in operational plotting against the 
United States. The organizations in Somalia appear to be one of the 
highest threats in the AFRICOM area of operations. If confirmed, I will 
assess this threat in depth.
    Question. Given the nature of this threat, any effort to counter it 
requires interagency collaboration.
    What you do believe to be the appropriate role of AFRICOM?
    Answer. Interagency collaboration is vital. The appropriate role of 
AFRICOM is to support the U.S. policy decisions on how to address the 
Somalia situation. At present, this includes helping build the security 
capacity of nations contributing forces to African Union Mission in 
Somalia (AMISOM).
                engagement with puntland and somaliland
    Question. The State Department recently announced the intention of 
the U.S. Government to engage more actively with the Governments of 
Puntland and Somaliland with a view towards helping improve their 
capacity to provide services to their people and develop their 
economies.
    What is your assessment of U.S. efforts to pursue an increased 
level of cooperation with Puntland and Somaliland?
    Answer. I read comments from assistant Secretary of State for 
African Affairs, Johnnie Carson, who stated ``We think that both of 
these parts of Somalia have been zones of relative political and civil 
stability, and we think they will, in fact, be a bulwark against 
extremism and radicalism that might emerge from the south.'' If 
confirmed, I would seek an opportunity to discuss with Secretary Carson 
and other senior policy-makers, how AFRICOM might support U.S. 
diplomatic and development assistance initiatives.
    Question. In your view, should security assistance be a component 
of any engagement strategy with Somaliland and Puntland?
    Answer. I believe that the security challenges in Somalia cannot be 
addressed solely through military assistance, but also require 
diplomatic and developmental engagement. U.S. Military assistance in 
Somalia is one small piece of a broader U.S. Government strategy for 
Somalia. If confirmed, I will review with other senior policymakers, 
how AFRICOM might support U.S. diplomatic and development assistance 
initiatives.
                                 sudan
    Question. Most observers of the current situation in Sudan have 
concluded that the January 2011 referendum will result in South Sudan 
seceding and violent conflict erupting along certain resource-rich 
portions of the undefined border.
    In your view, what role, if any, should AFRICOM play in the months 
leading up to the January 2011 referendum vote?
    Answer. The United States and international community are unified 
in support of the following principles: first, the referenda must be 
carried out on schedule and reflect the will of the people of the 
southern Sudan and, second, the results of the referenda must be 
recognized. The United States continues to be in close contact with the 
Government of Sudan, African leaders, and other members of the 
international community to ensure that these principles are upheld. 
AFRICOM's role is to support, as requested, the ongoing diplomatic 
initiatives to ensure a peaceful outcome.
    Question. If confirmed, what approaches would you expect to explore 
in the event violent conflict erupts following the January 2011 
referendum?
    Answer. If confirmed, I would provide support as directed in 
support of U.S. Government policy. I would be particularly concerned 
about the potential for violence to spread across borders into 
neighboring countries.
                        u.s. security assistance
    Question. The funding pool available for security assistance and 
other military-to-military engagement activities devoted to the AFRICOM 
AOR is extremely small and tends to be allocated to specific countries.
    What is your understanding of the role AFRICOM plays in developing 
U.S. security assistance (e.g., Section 1206, Foreign Military 
Financing, International Military Education and Training Assistance, 
Combatant Commander Initiative Fund, etc . . . )?
    Answer. Security cooperation planning is done in close coordination 
with the DOS, Department of Defense (DOD), country teams and requesting 
nations. This coordination is essential as there are various sources of 
funding and approval chains. For example, 1206 funding is a dual 
approval process between the DOD and DOS with a congressional 
notification requirement. This coordination also ensures 
synchronization of programs between agencies.
    Question. Section 1206 of the National Defense Authorization Act 
for Fiscal Year 2006, as amended, established a program that gives DOD, 
in coordination with the DOS, the authority to provide training, 
equipment, and supplies to foreign militaries to undertake 
counterterrorism or stability operations in which the U.S. Armed Forces 
participates.
    What is your assessment of the Section 1206 program?
    Answer. I believe 1206 funding is accomplishing the goals it was 
designed to achieve. Security cooperation activities are the foundation 
of our efforts to promote security, stability and partnership in Africa 
and elsewhere and ultimately support our National Security Strategy. In 
my current position as Commander U.S. Army Europe, 1206 funding allows 
for training that prepares our international security assistance force 
coalition allies in Europe to deploy to Afghanistan. Assisting our 
partners in developing professional militaries is a key factor in the 
stability of a nation.
    Question. Given your understanding of the program, what changes, if 
any, would you recommend based on your knowledge of the requirements of 
our partners in the AFRICOM AOR?
    Answer. If confirmed, I will assess the current programs before 
recommending changes.
       support to united nations peacekeeping missions in africa
    Question. In testimony before the House Committee on Foreign 
Affairs on July 29, 2009, Ambassador Susan Rice, U.S. Ambassador to the 
United Nations (U.N.), stated that the United States ``is willing to 
consider directly contributing more military observers, military staff 
officers, civilian police, and other civilian personnel--including more 
women I should note--to U.N. peacekeeping operations.'' Admiral Mullen 
has said he views ``U.N. peacekeeping operations to be extremely 
important and cost effective in comparison to unilateral operations'' 
and that ``the success of these operations is very much in our national 
interest.''
    In your view, should the United States increase the number of 
personnel it contributes in the form of staff positions and experts on 
mission positions to U.N. peacekeeping missions and other international 
peace operations?
    Answer. If confirmed, I will examine the number and position of 
U.S. military personnel serving on U.N. missions in Africa. DOD 
personnel have broad experience in working in multinational 
environments and leading multinational forces. For this reason, U.S. 
forces would be valuable to U.N. peacekeeping missions which are 
composed of forces from various nations. The commitment of a few 
experts to lead or advise peacekeeping missions potentially precludes 
the need to deploy larger number of U.S. forces. I have personal 
experience on a U.N. peacekeeping mission having served for 6 months in 
the Former Yugoslav Republic of Macedonia. I do believe that U.S. 
military personnel can make a valuable contribution to U.N. missions, 
but each mission must be evaluated carefully.
    Question. In your view, what are the advantages and disadvantages 
of contributing additional military personnel to U.N. operations in the 
form of staff positions and experts on mission positions?
    Answer. The advantages are that these operations are a limited 
commitment in terms of number of forces and have a potential for high 
return on investment--few personnel in return for not having to deploy 
large numbers of U.S. forces. Additionally, U.S. forces bring expertise 
which could increase the effectiveness of the operation. The 
disadvantages are that currently, U.S. forces are deployed in large 
numbers and more commitments will stress the force. Also, peacekeeping 
staff and experts tend to be senior military personnel which are 
currently in short supply due to operational needs.
                            counternarcotics
    Question. Illicit trafficking is a growing concern in Africa. West 
Africa is a node for Latin American drugs transiting to their primary 
destination in European markets. In addition, drugs originating in Asia 
are transported through South and East Africa on their way to Europe. 
The destabilizing influence of narcotics trafficking threatens to 
undermine stability in a number of countries in Africa and helps to 
expand the Latin American cartels' network throughout the region. 
Despite the increase in illicit trafficking across the African 
continent, AFRICOM has secured a limited amount of funding for its 
counternarcotics efforts.
    What is your assessment of the current AFRICOM counternarcotics 
program?
    Answer. If confirmed, I will review the role of AFRICOM and its 
interagency partners with respect to counternarcotics. I am aware that 
AFRICOM has a counternarcotics team that appraises the command of the 
broader national counternarcotics effort run by U.S. law enforcement 
agencies and helps develop defense contributions to those efforts.
    Question. Based on your review of the current program, if 
confirmed, what changes, if any, are you interested in exploring?
    Answer. If confirmed, I would assess the current program prior to 
recommending changes.
                   global peace operations initiative
    Question. In 2004, the President announced the Global Peace 
Operations Initiative (GPOI). The goal of this State Department 
initiative was to train 75,000 peacekeepers, many of whom are from 
African partner nations. In 2009, the GPOI reached its original goal 
and is continuing to train additional peacekeepers and trainers. 
Funding from this program currently comprises the vast majority of U.S. 
security related assistance on the African continent, but AFRICOM plays 
a limited role in providing advice for prioritization and programming 
of these funds.
    What is your understanding of the GPOI and African Contingency 
Operations Training Assistance (ACOTA) programs?
    Answer. AFRICOMs contribution to the GPOI is the ACOTA program. 
ACOTA has been a successful program that our African partners greatly 
appreciate. Africans value ``African solutions to African problems'' 
which this program fosters. ACOTA-trained peacekeepers have done well 
in a number of peacekeeping operations.
    Question. What is your understanding of AFRICOM's role vis-a-vis 
the GPOI and ACOTA?
    Answer. AFRICOM has a vested interest in the success of ACOTA, as 
it helps build the capacity of African militaries to provide for their 
own security which support the U.S. Government goals for Africa.
    Question. If confirmed, what steps, if any, would you expect to 
take relating to these two programs?
    Answer. If confirmed, I will assess the program before recommending 
any changes.
                          intelligence issues
    Question. Demand for intelligence, surveillance, and reconnaissance 
(ISR) capabilities of every kind has grown exponentially in recent 
years largely due to the enhanced situational awareness and targeting 
capabilities they bring to our commanders. Almost all of the geographic 
combatant commands have validated ISR requirements that are not being 
met.
    What is your understanding of the support AFRICOM is currently 
receiving to respond to its ISR requirements?
    Answer. ISR has improved our ability to better understand and 
develop the situation on the ground and assist our partners. With a 
finite number of assets available, the allocation of scarce assets must 
be weighed against our theater security priorities. If confirmed, I 
will assess the current ISR support and requirements before 
recommending changes.
    Question. Do you believe the threat emanating from Somalia should 
garner additional resources from within DOD?
    Answer. I believe the threat from Somalia is of great concern and 
should be a main focus of AFRICOM. If confirmed, I will closely examine 
this area.
    Question. In December 2004, Congress passed the 2004 Intelligence 
Reform and Terrorism Prevention Act (IRTPA), which created the National 
Counterterrorism Center (NCTC) and charged it with conducting 
``strategic operational planning'' to combat terrorist threats to U.S. 
interests at home and abroad. NCTC has taken the lead on developing the 
National Implementation Plan, a detailed, interagency plan for 
combating terrorism, which assigns roles and responsibilities to 
departments and agencies across the government.
    What is your understanding of the role of NCTC with respect to 
AFRICOM?
    Answer. My understanding is the NCTC leads our Nation's effort to 
combat terrorism at home and abroad by analyzing the threat, sharing 
that information with interagency partners, and integrating all 
instruments of national power to ensure unity of effort. The NCTC 
develops strategic guidance and national, interagency objectives and 
tasks on counter terrorism matters which AFRICOM and its interagency 
partners implement.
    Question. How will AFRICOM's responsibilities for integrating 
military and civilian planning interface with NCTC's responsibility for 
integrating military and civilian planning?
    Answer. I believe the correct approach would be to integrate the 
intelligence collected and made available by the NCTC in AFRICOM's 
planning efforts with its interagency partners. If confirmed, I will 
seek to ensure NCTC and AFRICOM stay closely linked.
    Question. How are the specific agency roles and responsibilities 
outlined in the National Implementation Plan integrated with AFRICOM's 
efforts to bring stability to Africa?
    Answer. AFRICOM routinely coordinates its plans with interagency 
partners which helps ensure agency roles and responsibilities are 
understood and respected. This coordination creates multi-faceted 
programs which address the root causes of instability that oftentimes 
are not areas military power alone can effectively address. African 
problems require a holistic approach that is best planned with all of 
our interagency and international partners to incorporate all the 
elements of national power.
    Question. In late 2009, Major General Michael T. Flynn, USA, the 
Chief, J-2, International Security Force and U.S. Forces-Afghanistan, 
published an article that criticized the intelligence community broadly 
for focusing excessively on support for kinetic operations against 
adversary forces in Afghanistan and failing to devote sufficient 
attention to the counterinsurgency strategy and its emphasis on 
population protection, tribal dynamics, cultural insight, the rule of 
law, and the like. Some observers contend that the national 
intelligence agencies focus their assistance to the Defense Department 
on special operators engaged in direct action operations. As a 
consequence, it is alleged, general purpose forces and special 
operations forces that are engaged in indirect activities, including 
foreign internal defense and population protection, receive less 
intelligence support. This focus on the human terrain and indirect 
activities would seem to have applications in the AFRICOM AOR.
    Do you think that General Flynn's criticism was accurate and, if 
so, has this imbalance been corrected?
    Answer. I generally agree with General Flynn's points. The 
intelligence community appears to be recognizing the need to broaden 
its approach to better understanding the environment and we are seeing 
some of this with the rebalancing of intelligence assets at all levels. 
The Intelligence Community needs to make an investment in the training 
base as well as dedicating analysts to developing regional expertise 
that includes an understanding of population problems. The intelligence 
community organizations and assigned analysts must understand the 
environment beyond just the enemy situation to tie together the 
problems that lead to instability and dissatisfaction of the population 
which when not addressed lead to conflict development.
    Question. In your view, has the intelligence community devoted 
enough resources to provide policy makers and combatant commanders with 
the information on the cultural, social, political, and economic 
dynamics needed to formulate sound strategies for other critical 
regions, like Sudan and Somalia?
    Answer. Major General Flynn highlights the need to better provide 
an emphasis on understanding these population related issues and 
focuses on U.S. intelligence support in Afghanistan. Africa has an even 
more diverse blend of tribes, cultures, religions, and environments, 
and is like no other theater. Much of Africa faces the potential of 
conflict. Other destabilizing threats such as crime, corruption, ethnic 
tensions, drought, disease, and political instability are too common 
throughout Africa. With the increased importance that we place on 
African countries, it is imperative that the proper emphasis be placed 
on understanding the complex environment of Africa. To accomplish this, 
DOD and other intelligence agencies will need to prioritize 
intelligence resources on Africa.
    Question. Is collection and analysis on these subjects in these 
areas a tier one priority for the intelligence community or is it 
classified as lower-priority general background intelligence 
information?
    Answer. At this time I do not have access to the full range and 
focus of AFRICOMs intelligence efforts. If confirmed, I will assess the 
intelligence focus of AFRICOM prior to making any changes.
                combined joint task force-horn of africa
    Question. What is your understanding of the mission of Combined 
Joint Task Force-Horn of Africa (CJTF-HOA) and its relationship vis-a-
vis AFRICOM?
    Answer. CJTF-HOA conducts operations in the East Africa region to 
build partner nation capacity in order to promote regional security and 
stability, prevent conflict, and protect U.S. and coalition interests. 
CJTF-HOA is AFRICOM's only subordinate task force at the present time.
    Question. How do its roles and responsibilities compare with 
AFRICOM's service component commands?
    Answer. There is no overlap between the components and CJTF-HOA. 
CJTF-HOA is a task force with a specific mission of countering violent 
extremism. The Service components are the representatives of their 
Services in the force provider role.
    Question. How does AFRICOM ensure that CJTF-HOA activities 
complement rather than conflict with activities being conducted by 
AFRICOM's Service components?
    Answer. CJTF-HOA is a task force with a specific mission of 
countering violent extremism while the Service components are the 
representatives of their Services in the force provider role. There is 
no conflict between the two. There is frequent coordination at all 
levels between the component commands and CJTF-HOA to ensure 
synchronization of actions and to prevent over or under laps in 
activities.
                           maritime security
    Question. Maritime security has proven to be a significant issue on 
the coasts of West and East Africa. In the west, northern migration to 
Europe and the Gulf of Guinea are the challenges, and, in the east, 
pirating in the major shipping lanes and transporting of terrorists to 
and from the Middle East are the challenges.
    What is your assessment of AFRICOM's ongoing maritime security 
initiatives?
    Answer. If confirmed, I will assess these programs prior to making 
any recommendations. My understanding is that these programs have been 
successful; however their effects are long term and it will take time 
to see lasting results. Many African nations have very limited navies 
or coast guards to begin with, and building their capacity will require 
a commitment of time and resources.
    Question. Very few African countries have the capacity to project 
naval forces beyond their coastal waters; as such the economic 
exclusion zones of many coastal African countries are exploited by a 
variety of international actors.
    What opportunities, if any, do you see for expanded U.S. engagement 
on maritime security in the AFRICOM AOR?
    Answer. This is already happening. The Africa Partnership Station 
(APS), for example, has completed five full deployments by U.S. ships 
along with deployments of ships from several European nations under the 
APS banner. Maritime Domain Awareness initiatives have been very 
successful. My current understanding is that on the whole, our African 
partners are very satisfied and have requested more support.
                               air assets
    Question. What is your understanding of AFRICOM's current airlift 
needs? Are they being met?
    Answer. AFRICOM has significant airlift needs because of the lack 
of air infrastructure and vast size of the continent of Africa. 
Commercial air travel can be very difficult and the distances are long. 
Close coordination is conducted between AFRICOM and TRANSCOM to provide 
airlift support for passenger and logistical requirements.
    Question. Given that the movement of African military personnel and 
equipment for crisis response and contingency operations remains 
largely reliant on international airlift support, what is the 
appropriate role of AFRICOM in supporting such efforts?
    Answer. If U.S. policy decisions support the provision of airlift 
to help employ and sustain partners on peacekeeping missions, then it 
is entirely appropriate. I believe the long-term goal should be for the 
Africans to build their own airlift capacity over time and AFRICOM 
would have a role in any such efforts.
                      support to the african union
    Question. In your view, what role, if any, should AFRICOM play in 
support of the African Union (AU) and its respective peacekeeping 
operations?
    Answer. It is appropriate for AFRICOM to help build the security 
capacity of participating nations and regional organizations when those 
nations or organizations request our support.
    Question. What role, if any, should AFRICOM play in support of the 
AU regional standby brigades?
    Answer. It is appropriate for AFRICOM to help build the security 
capacity of participating nations and regional organizations when those 
nations or organizations request support.
    Question. If confirmed, do you intend to explore any options for 
expanded engagement by AFRICOM with the AU?
    Answer. Yes. AFRICOM has programs that are helping build the 
command and control and enabling capacities of the AU to sustain its 
own operations and lessen dependence on foreign assistance. In this 
regard, our activities are tremendous investments and the AU has been 
very appreciative. If confirmed, one of the first organizations I would 
visit would be the AU and the U.S. mission to the AU.
                         lord's resistance army
    Question. Despite pressure by the Ugandan People's Defense Forces, 
elements of the Lord's Resistance Army (LRA) continue to operate and 
commit atrocities against civilian populations in the Central African 
Republic, Democratic Republic of the Congo, and Southern Sudan. The LRA 
Disarmament and Northern Uganda Recovery Act (P.L. 111-172) requires 
the President to submit to Congress a strategy to support multilateral 
efforts to protect civilians from the LRA, to apprehend or remove LRA 
leader Joseph Kony from the battlefield, and to disarm and demobilize 
LRA fighters.
    What role, if any, do you envisage AFRICOM playing in this 
strategy?
    Answer. Based on my current knowledge, AFRICOM will play a 
supporting role to the efforts of DOS and other organizations. AFRICOM 
currently conducts training for the Ugandan Defense Forces and I would 
expect this to be a part of the strategy.
    Question. In your view, what level of support would you consider 
appropriate to apprehend or remove Kony and his top commanders from the 
battlefield in the continued absence of a negotiated solution to the 
conflict?
    Answer. I recognize that I do not have access to the full range of 
intelligence concerning the Lord's Resistance Army nor the full range 
of activities U.S. Africa Command with regard to the LRA. If confirmed, 
I will assess the situation to fully understand the implications of any 
actions.
                               personnel
    Question. As of June 2010, AFRICOM reported that the command and 
its components had approximately 4,400 assigned forces and civilian 
personnel. Roughly 2,000 of these personnel were assigned to CJTF-HOA 
in Djibouti. With the exception of CJTF-HOA, AFRICOM's component 
commands do not have assigned forces and must request forces through 
the formal Joint Staff process.
    Do you believe that AFRICOM has adequate assigned forces, or is a 
shortage of assigned forces likely to have an adverse impact on 
AFRICOM's ability to implement its mission?
    Answer. There are advantages to having assigned forces; however, I 
have confidence in the current DOD global force management process to 
make forces available to combatant commanders.
    Question. If you see an adverse impact on AFRICOM's mission 
stemming from a shortage of assigned personnel, what steps, if any, 
would you take if confirmed to address this problem?
    Answer. If confirmed, I would use the current DOD force management 
process to request forces for AFRICOM missions. I believe that as 
forces committed to the CENTCOM AOR reduce over time, more forces will 
be available to meet other combatant command requirements.
                national guard state partnership program
    Question. In October 2010, the current commander of AFRICOM, 
General William ``Kip'' Ward, USA, stated ``[t]hat [the State 
Partnership Program (SPP)] model also works in Africa: Sustained 
security engagement being conducted by young men and women who are 
combat-tested, proven veterans with energy, enthusiasm, wanting to 
contribute, making a difference and doing it on a continent where those 
who are the recipients of that association are thankful for it.''
    What is your understanding of the SPP and its effectiveness, not 
only with State National Guard organizations but also with 
nongovernment organizations?
    Answer. In my current assignment as U.S. Army Europe commander, my 
experience with the SPP has been extremely positive. The relationships 
formed between National Guard members and a country's military creates 
the conditions for success in terms of continued events between the two 
forces. In Europe, the SPP has lead to combined Operational Mentor and 
Liaison Teams deployed to Afghanistan training Afghan security forces. 
The SPP also extends to the civilian sector enabling military to 
civilian and civilian to civilian events as well.
    Question. Given AFRICOM's lack of assigned forces, do you see the 
SPP as a potential force multiplier for AFRICOM?
    Answer. The SPP has enabled many events between the partners that 
would not have been possible without the SPP. I see the SPP as another 
resource to use in reaching our security cooperation goals.
               north atlantic treaty organization support
    Question. At the request of the African Union, the North Atlantic 
Treaty Organization (NATO) has provided support to the AU Mission in 
Sudan and assistance to the AU Mission in Somalia. It is also providing 
capacity-building support to the AU's long-term peacekeeping 
capabilities, in particular the African Standby Force, at the request 
of the AU. Through its assistance, NATO has developed a positive and 
promising level of cooperation with the African Union.
    Do you see any specific opportunities for NATO to expand its 
support of international peacekeeping and stability efforts on the 
African continent?
    Answer. Based on my current knowledge, I would not want to 
recommend any changes to current policy but, if confirmed, I would 
conduct a more thorough assessment of NATO missions in the AFRICOM AOR. 
AFRICOM and NATO work together in several areas--combating piracy in 
the waters off Africa and in NATO's Mediterranean Dialogue countries. 
Together with other U.S. Government agency partners, AFRICOM closely 
coordinates efforts to ensure unity of effort. Where possible and when 
authorized, AFRICOM and NATO work together.
    Question. If confirmed, do you intend to pursue expanded support 
from NATO?
    Answer. If confirmed, I will assess current operations with NATO 
before recommending any changes.
    Question. In your view, do China and the United States share common 
security objectives in the AFRICOM AOR?
    Answer. China and the United States both stand to benefit from a 
more stable and secure Africa. The United States and China will 
continue to look for areas in which we can cooperate with one another 
in Africa.
    Question. In your opinion, what effect has China's engagement with 
African militaries had on those militaries and on U.S. security 
interests?
    Answer. If confirmed, I will assess the situation to fully 
understand the impact of China's engagement in Africa.
    Question. Do you foresee China's growing energy demands affecting 
security developments in Africa?
    Answer. If confirmed, I will assess the situation to fully 
understand the impact of China's energy demand on security policy.
                         security sector reform
    Question. In your view, what role should AFRICOM play in U.S. 
security sector reform efforts in Africa?
    Answer. AFRICOM should play a supporting role to U.S. security 
sector reforms. Security sector reforms are complex involving, at 
times, rebuilding court systems, police forces, military forces, and 
the supporting government institutions. This requires an interagency 
approach and AFRICOM is best used in a supporting role focusing on 
building the defense sector.
    Question. In your view, what are the advantages and disadvantages 
of using uniformed U.S. military personnel (rather than contractors) to 
support AFRICOM's efforts in this area?
    Answer. I think there is an advantage in using U.S. uniformed 
personnel as they demonstrate on a daily basis the values we are trying 
to instill into military forces and are excellent trainers. U.S. 
military forces are also clearly the face of U.S. assistance. Using 
uniformed military also provides a model for African militaries to 
emulate and builds personal and professional relationships that last 
well beyond any training event. U.S. forces are currently in high 
demand and may be needed in other areas such as Afghanistan. When U.S. 
forces are unavailable, DOS contractors can and do provide valuable 
training for our African partners, but we pass up valuable 
opportunities to build stronger relationships between our militaries 
when we use contractors.
    Question. In your view, are current security cooperation 
authorities sufficient for AFRICOM to play an effective role in U.S. 
security reform efforts in Africa?
    Answer. There are separate authorities for DOD and DOS which make 
these efforts possible. If confirmed, I will assess the current 
authorities prior to making any recommendations.
         special operations forces in support of country teams
    Question. U.S. Special Operations Command deploys personnel to work 
with country teams in a number of priority countries where the United 
States is not engaged in direct action operations, but rather trying to 
stop the spread of violent extremism. Their mission is to support the 
priorities of the Ambassador and the geographic combatant commander's 
theater campaign plan against terrorist networks.
    What is your view of the potential value of these special 
operations personnel to AFRICOM and the country teams they are 
supporting?
    Answer. I recognize that I do not have access to the full range of 
special operations activities in the AFRICOM AOR. My understanding is 
special operations personnel are valuable for the training they conduct 
focusing on counterterrorism in support of Operation Enduring Freedom-
Trans Sahara. These forces are also valued since they are familiar with 
African cultures, speak the local language, and have specialized 
training. Although a small special operations team is able to make a 
significant positive impact, forces should be tailored to meet mission 
requirements.
    Question. What role, if any, do you see for AFRICOM in ensuring 
that the goals of special operations personnel deployed to these 
countries are closely aligned with those of the Ambassadors they are 
working with?
    Answer. The role for AFRICOM is to coordinate with the Ambassadors, 
country teams, and with higher headquarters in DOD to ensure special 
operation teams' activities are aligned with national and country team 
priorities.
                         information operations
    Question. Operation Objective Voice (OOV) is AFRICOM's information 
operation effort to counter violent extremism to repudiate extremist 
ideologies. OOV employs a variety of messaging platforms, such as the 
African Web Initiative, to challenge the views of terrorist groups and 
provide a forum for the expression of alternative points of view. While 
Congress remains supportive of efforts to counter violent extremism, it 
remains concerned about the lack of measures of effectiveness of these 
programs.
    What is your understanding of OOV and the current measures of 
performance and effectiveness?
    Answer. My understanding is that OOV is a named Information 
Operation to harness and orient all information operations and 
influence related activities in theatre to counter violent extremist 
organization ideology. If confirmed, I will assess OOV to fully 
understand the program and the measures of performance and 
effectiveness.
    Question. In your view, should AFRICOM be using the internet and 
other electronic forums to counter the message of violent extremists 
operating in its AOR?
    Answer. I feel the use of the internet and other electronic forums 
to counter the message of extremists is appropriate. Extremists' 
current use of the internet is effectively bringing people to their 
cause and severely hindering peace and stability for various regions 
throughout the AOR. Just as we challenge extremists' ability to force 
their agenda on a population through physical actions, we must also 
challenge their ability to influence through electronic media.
    Question. Al Qaeda and affiliated violent extremist groups work 
hard to appeal to local populations. In both the Horn of Africa and the 
Trans-Sahara, these efforts have allowed violent extremists to 
establish a safe haven, conduct operations, and expand their recruiting 
base. The composition and size of these groups permits them to make 
policy decisions very quickly.
    Do you believe AFRICOM and other agencies within the U.S. 
Government are appropriately organized to respond effectively to the 
messaging and influence efforts of al Qaeda and other terrorist groups?
    Answer. If confirmed, I will assess the organization of AFRICOM and 
its coordination with DOS and other government agencies to counter the 
influence of al Qaeda messaging.
    Question. What do you believe is the appropriate role for Military 
Information Support Teams (MISTs) in these activities?
    Answer. I believe an appropriate role for MISTs is to reinforce 
messages for a particular event or purpose. MISTs are one of AFRICOM's 
primary communication tools for countering violent extremism. While the 
lead department for combating terrorism remains the DOS, the problem of 
violent extremism requires a whole-of-government solution and one of 
DOD's contributions are its MISTs. These teams are charged to work 
closely with members of country teams, to gain Ambassador concurrence 
prior to conducting activities, and to vet all messages thru all 
participating organizations to preclude unintended effects. MISTs 
generally conduct activities to reduce recruitment and violence, 
thereby reducing the need for a kinetic U.S. military response and 
breaking the cycle of terrorism. My understanding is AFRICOM uses MIST 
teams for this purpose.
                        civil affairs activities
    Question. Civil affairs activities carried out by U.S. military 
personnel in partnership with host nation personnel play a role in 
developing infrastructure, supporting good governance and civil 
societies, and providing humanitarian assistance, including medical and 
veterinary services to needy populations. Civil Affairs activities are 
most effective when coordinated with other U.S. Government efforts, 
most notably those carried out by USAID.
    If confirmed, how would you ensure Civil Affairs activities by U.S. 
military personnel are integrated into larger U.S. Government efforts 
within your AOR?
    Answer. If confirmed, I will ensure that all Civil Affairs 
activities are vetted thru the country teams and with the USAID senior 
staff member on the AFRICOM staff to ensure all actions are properly 
synchronized and supporting.
    Question. Military Information Support Operations can amplify the 
effect on Civil Affairs activities by promoting the efforts of the U.S. 
military and host nation.
    If confirmed, how would you ensure Civil Affairs and Military 
Information Support Operations are adequately coordinated to achieve a 
maximum impact?
    Answer. If confirmed, I will ensure that actions of Civil Affairs 
and information operations are synchronized with the country team and 
USAID. This is most effectively done by having all organizations 
involved participate during all stages of planning and execution of any 
given event.
                          section 1208 funding
    Question. Section 1208 of the Ronald Reagan National Defense 
Authorization Act for Fiscal Year 2005 (Public Law 108-375), as 
amended, gave U.S. Special Operations Command the authority to provide 
support (including training, funding, and equipment) to regular forces, 
irregular forces, and individuals supporting or facilitating military 
operations by U.S. Special Operations Forces to combat terrorism.
    What is your assessment of this authority?
    Answer. If confirmed, I will assess the special operations 
activities in the AFRICOM area to determine if this funding is 
adequate. My understanding is that this funding has been valuable in 
Iraq and Afghanistan for SOF force training to indigenous personnel as 
well as for collecting human intelligence in areas where U.S. personnel 
are unable to infiltrate.
    Question. Do you believe this authority has been appropriately 
utilized in Africa?
    Answer. If confirmed, I will assess the special operations 
activities and funding in the AFRICOM area to determine if 1208 funds 
have been appropriately used.
    Question. If confirmed, how would you seek to have this authority 
used in Africa?
    Answer. If confirmed, I will assess the special operations 
activities and funding in the AFRICOM area to determine if 1208 funds 
have been appropriately used.
                          efficiencies issues
    Question. In an effort to identify efficiencies and ensure better 
support for the warfighter in Afghanistan and Iraq, Secretary Gates has 
directed a DOD-wide review of all organizations and associated 
programs.
    Given the Secretary's initiative, in your view, should AFRICOM 
continue to remain in existence?
    Answer. If confirmed, I will continue General Ward's examination of 
and efforts to increase the efficiency of his command.
                      africa health related issues
    Question. Health issues are a significant concern in many African 
nations and the U.S. Government's engagement strategy in Africa 
includes an emphasis on health-related issues.
    To what extent should the AFRICOM be involved in broader U.S. 
Government ``health diplomacy'' efforts in Africa?
    Answer. AFRICOM should continue to participate in DOD health 
related efforts such as the HIV/AIDs program and MEDFLAG exercises. 
AFRICOM should also be invited to planning and coordination sessions 
for new initiatives sponsored by other government agencies to 
synchronize efforts.
    Question. In your view, should AFRICOM's engagement strategy, 
perhaps more than other combatant command engagement strategies, 
include an emphasis on military health engagement?
    Answer. Given the poverty, health issues, and lack of basic 
healthcare of some African nations, I believe that AFRICOM should focus 
more on military health engagement than other combatant commands. My 
understanding is African militaries have high rates of HIV infection 
which directly impacts their readiness and ability to participate in 
assigned missions.
    Question. How much success has DOD had in efforts to counter AIDS 
in African militaries?
    Answer. Based on my current knowledge, I believe DOD has had 
success in AIDS education and prevention in Africa. According to the 
U.N. AIDS office, the rate of infection in Africa has declined. I am 
aware that DOD is very active in AIDS prevention, education, and 
dissemination of AIDS anti-retroviral treatments with the goal of 
increasing the readiness of African Nations' military forces.
    Question. If confirmed, how, if at all, would you like to see such 
efforts increased or programmatically altered?
    Answer. If confirmed, I will assess the program before recommending 
changes.
    Question. In your view, what should DOD's role be in the program 
relative to other elements of the U.S. Government?
    Answer. DOD should be in a supporting role to other U.S. Government 
agencies.
                technology support for africom missions
    Question. The defense research and technology community has 
developed a number of capabilities that are potentially supportive of 
AFRICOM's missions--including vaccines to combat infectious diseases, 
language translation systems, and cultural modeling and simulation 
tools and war games.
    What specific technology-based capabilities do you feel need to be 
developed or improved in order to best support AFRICOM's missions?
    Answer. In our quest to develop ``African systems for Africans'' we 
must partner with national industries to jointly develop technology to 
meet their requirements. One area that could be examined is 
communication systems. AFRICOM has been working to develop a command 
and control computer system that could be used in African Union 
peacekeeping missions. A second area is de-mining operations. An 
inexpensive method of identifying mines would be beneficial to many 
areas of the continent. A third area would be the development of water 
purification methods as much of the water is untreated and can causes 
disease. The key to technologies is to keep them inexpensive and simple 
to use and maintain.
    Question. If confirmed, how would you work with the defense 
research and acquisition community to ensure that they are aware of 
those needs and supportive of AFRICOM's missions?
    Answer. AFRICOM has a robust relationship with the members of the 
community. I feel the best way is to leverage the research and 
acquisition community members assigned to the AFRICOM staff.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Commander, AFRICOM?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
           Questions Submitted by Senator E. Benjamin Nelson
                     africom personnel requirements
    1. Senator Ben Nelson. General Ham, your nomination to be the 
Commander of U.S. Africa Command (AFRICOM) puts you in a unique 
position in that you will be moving from U.S. Army Europe, a component 
command of U.S. European Command (EUCOM), where you have over 50,000 
soldiers assigned under your command to AFRICOM, a geographic combatant 
command, where you will have no assigned forces. The lack of assigned 
forces will undoubtedly make completing the missions assigned to your 
command more difficult. Given your familiarity with the global force 
management system, do you think any changes should be made to the 
global force management process to accommodate geographic combatant 
commands like AFRICOM?
    General Ham. I do not feel changes to the global force management 
process are required at present. My experience as the Director for 
Operations on The Joint Staff leads me to have confidence that, based 
on the Secretary of Defense's established priorities, Combatant 
Commands have a systematic process through which their force 
requirements are addressed. There are advantages to having assigned 
forces, the primary one being predictable availability of forces to 
meet combatant command requirements. But, even forces assigned to 
geographic Combatant Commands are required to meet higher priority 
requirements. As an example, Army brigades assigned to EUCOM routinely 
deploy to Iraq or Afghanistan in support of U.S. Central Command 
requirements. I believe the global force management process is the best 
way to ensure the highest priority requirements are fulfilled first. I 
also think that as force requirements in the CENTCOM theater are 
reduced, more forces will become available in the global force pool to 
support AFRICOM's requirements. If confirmed, I will clearly articulate 
my force requirements to the Secretary of Defense and will, if those 
requirements cannot be fully met, convey to the Secretary of Defense 
the impact of such decisions.

    2. Senator Ben Nelson. General Ham, do you think having assigned 
forces--both Special Operations Forces and general purpose forces--
would enable AFRICOM to develop more quickly the cultural and language 
understanding required to operate effectively within the AFRICOM area 
of responsibility (AOR)? Please explain your answer.
    General Ham. Developing language skills and cultural understanding 
are challenging tasks under any circumstance. I do not believe assigned 
forces are necessary to develop cultural and language skills, although 
assigned forces clearly have some advantages in developing these 
skills. Special operations forces are not routinely assigned to 
geographic combatant commands but are normally assigned to U.S. Special 
Operations Command. Many such forces are given a geographic area of 
focus (as an example, the U.S. Army's 3rd Special Forces Group focuses 
primarily on Africa, and maintains language, cultural and area-specific 
skill sets). For general purpose forces, allocating or apportioning 
forces to AFRICOM for planning purposes accomplishes many of the same 
objectives as having assigned forces in that the combatant commander 
has input into the training requirements of such units. In this way, 
general purpose forces could gain some degree of language capability 
and cultural understanding. Also, improved personnel management 
processes could ensure servicemembers with African area expertise are 
assigned to key policy and operational assignments (i.e. personnel 
having served in Combined Joint Task Force-Horn of Africa would be 
ideally suited to serve on the Joint Staff or the Office of the 
Secretary of Defense staff in positions dealing with African issues). 
Additionally, the long-term relationships that develop through the 
National Guard State Partnership Program (SPP) are another mechanism 
through which units may gain language skills and country-specific 
cultural awareness. If confirmed, I would seek to foster such 
relationships. It would also be my responsibility, if confirmed, to 
determine and direct the training priorities of AFRICOM's Service 
components.

    3. Senator Ben Nelson. General Ham, you argued as Commander, U.S. 
Army Europe to retain assigned combat brigades as essential to your 
theater security force assistance and engagement missions. In your 
view, how are assigned forces essential in one theater and not in 
another?
    General Ham. In my view, the requirements of U.S. military forces 
in Europe and Africa have some significant differences. Our activities 
in Europe are designed to ensure that the U.S. and our NATO allies can 
fight and operate together as required by Article V of the NATO Treaty, 
either in Europe or, as we do currently, in Afghanistan, or other out 
of area missions. Additionally, the United States has longstanding 
basing agreements, Status of Forces Agreements, and training area usage 
agreements with our European allies and partners. For these reasons it 
makes sense to have troops stationed in Europe. In Africa, our 
objectives and obligations are different. We have no treaty 
obligations. We do not seek to station significant forces on the 
continent of Africa, nor (other than Camp Lemonnier in Djibouti) desire 
any long-term basing. Our objective with regard to African militaries 
is to help African states build national and regional capability, but 
normally without significant U.S. military participation in military 
missions. In my opinion, this demands a different approach than what is 
appropriate in Europe. To me, the most important requirement is to 
identify the forces necessary for AFRICOM's missions and, through the 
global force management process, press hard to have those requirements 
met.
                                 ______
                                 
               Questions Submitted by Senator Mark Udall
                         development in africa
    4. Senator Udall. General Ham, one of AFRICOM's missions is to 
assist in helping to enhance the kinetic capabilities of African 
militaries through various assistance programs; another is to conduct 
or support actions and programs in conjunction with other U.S. 
Government agencies and other partners to reduce the possibility of 
intra- and inter-state conflict in Africa by enhancing the governance, 
human well-being, stability, and economic development of countries in 
Africa. With regard to the second mission, do you think you have the 
tools in terms of authorities, funding, and staffing to effectively 
carry out that mission, and do you think that your component commands 
are organized and resourced, and have the strategic orientation needed 
to adequately support that mission?
    General Ham. The points you address in your question were highly 
influential in the concept for forming AFRICOM with significant 
interagency representation within the headquarters. Based on my 
experience as the Commander of U.S. Army Europe, I know that matching 
mission requirements with authorities and resources is a constant 
challenge. If confirmed, I fully expect to face the same, if not 
greater, challenges in AFRICOM due, at least in part, to the dual 
nature of the command's mission, as you cite in your question. In 
executing the second mission, AFRICOM uses a number of different 
authorities available to the Department of Defense (DOD) and Department 
of State such as Peacekeeping Operations Funds and also African 
Contingency Operations Training Assistance funds. Many of the key 
authorities for enhanced governance, human well-being, stability, and 
economic development are the domain of Department of State and USAID. 
AFRICOM has the advantage of interagency staff who understand their 
agencies' resource and authority processes. Concerning the Service 
component commands, through current planning and lessons learned from 
security force assistance operations, AFRICOM has identified the 
expertise required by the component commands to effectively execute 
missions. I recognize that I will, if confirmed, need to assess each 
headquarters to ascertain its capabilities and limitations based on 
current structure. I would seek first to better understand how the Navy 
and Marine Corps Service components meet the demands of serving as 
headquarters for two geographic combatant commands.

                  changing global security environment
    5. Senator Udall. General Ham, do you think that changes in the 
structure, authority, focus, and resourcing of security assistance 
programs are needed in light of the changed global security 
environment? If so, what are some of the changes you would like to see?
    General Ham. I believe that there could be improvements in 
coordination between U.S. Government organizations to better plan and 
conduct activities. The complexity of the environment has shown that 
simply cobbling together forces and personnel is cumbersome and 
ineffective. For this reason, I believe that as AFRICOM's interagency 
staff construct continues to mature and gain efficiency, it could 
become a model for other commands. There is also efficiency to be 
gained in streamlining the funding and authorities procedures to make a 
comprehensive, coordinated effort between different government 
organizations easier. An example success story of what is possible 
through combining authorities and funding is the African Partnership 
Station (APS), a multi-national engagement program operated by U.S. 
Naval Forces Africa. APS is largely funded with Navy Operations and 
Maintenance money. As of fiscal year 2011, this same money under the 
APS Program of Record is able to be used to conduct military-to-
military type familiarization engagements, conduct exercises, and 
facilitate conferences with participating nations. Where actual 
training is needed, DOD and DOS have created the African Maritime 
Strategic Initiative, a program that makes use of title 22 Peacekeeping 
Operations funds. PKO funds by their nature enable sustained, 
persistent engagement--not only by DOD, and DOS, but all agencies 
participating in APS events. Through the APS program, AFRICOM, DOD, and 
DOS have made, and continue to make, tremendous progress toward 
improvements in the areas mentioned above. The overall outcome of these 
Interagency efforts will be more efficient planning and execution of 
programs that follow APS.

                      energy development in africa
    6. Senator Udall. General Ham, DOD is making great strides in 
developing advanced energy systems like small-scale, deployable 
renewable energy systems and approaches to efficiency to minimize the 
need for an external energy logistics tail in support of deployed 
forces, forward operating bases, and the like. Do you think there is a 
potential for a system of technical transfer of those technologies to 
the civil sectors in Africa to assist in off-the-grid energy 
development in Africa as a leapfrog approach to energy similar to the 
progress made in telecommunications to leapfrog over wired systems? If 
so, what do you see as the role of DOD and specifically of AFRICOM in 
the context of any such technology transfer program?
    General Ham. This is the type of endeavor for which the interagency 
composition of AFRICOM is well-suited. Having the ability, within the 
same organization, to explore possibilities for non-military usage of 
military technologies (and vice versa) affords AFRICOM distinct 
advantages. If U.S. policy decisions allow such transfers to take 
place, partner nations would request them through the Department of 
State, who would coordinate the transfer. The AFRICOM role would be 
defined by the nature of the transfer. If confirmed, I would seek to 
have the AFRICOM staff, in conjunction with U.S. country teams, look 
for such opportunities.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                                africom
    7. Senator Inhofe. General Ham, I was extremely pleased when 
AFRICOM was created in February 2007. I am of the opinion that Africa 
remains a strategic interest to the United States. I continue to 
applaud the holistic approach AFRICOM has taken towards U.S. foreign 
policy in security, development, and the global fight on terrorism in 
Africa. I am Africa's and AFRICOM's biggest advocate in Congress; I 
have made 111 country visits to Africa and strongly support AFRICOM and 
its focus on working alongside Africans to help to build their ability 
in preparedness and response to security issues, humanitarian crises, 
and development in governance and economy. One of the critical 
components is our ability to build partnership capacity in Africa and 
is a key mandate for AFRICOM.
    As well, I am impressed with the number of operations being 
conducted in and around the African continent to include combating the 
transit of extremists, counter-piracy, military-to-military 
engagements, and building maritime security capacity through the Africa 
Partnership Station (APS) program. However, I remain concerned that 
AFRICOM remains secondary to resourcing, manning, and equipping. Though 
I am glad that we are looking at where to place the headquarters, the 
determination and decision timeline needs to be improved along with the 
focus for resourcing. AFRICOM's Service components are currently spread 
throughout Europe and many of them are dual-hatted in support of EUCOM. 
However, the size of the AFRICOM AOR would encompass the entire land 
masses of the United States, China, India, Eastern Europe, most of 
Western Europe, and Japan. I am concerned about the resources allocated 
to AFRICOM. What are your thoughts on location of the current 
headquarters and future bases on the continent of Africa?
    General Ham. I believe Stuttgart was the best choice for the start-
up of the command as AFRICOM assumed the African portion of the former 
EUCOM mission. As I discussed with Secretary Gates, if confirmed, I 
will assess where the command's headquarters should be located based on 
the costs, benefits, and limitations of potential locations in Europe, 
in the United States, and on the African continent. While I do not 
believe large, permanent U.S. military bases in Africa is in our (or 
Africans') best interest, there are, and will likely in the future be, 
requirements for the use of temporary Forward Operating Sites. 
Concerning the Service component commands, I recognize that I will, if 
confirmed, need to assess each headquarters to ascertain its 
capabilities and limitations based on current structure. I would seek 
first to better understand how the Navy and Marine Corps Service 
components meet the demands of serving as headquarters for two 
geographic combatant commands.

    8. Senator Inhofe. General Ham, what are your thoughts and concerns 
about the size of the AFRICOM AOR and resources currently assigned/
allocated?
    General Ham. Similar to most commanders, I could always use more 
resources. If confirmed, I will continually assess required missions 
and the resources available. If more resources are required, I will 
communicate that need through the Chairman of the Joint Chiefs of Staff 
to the Secretary of Defense. The sheer size and complexity of the 
AFRICOM's AOR will demand clear prioritization of effort and careful 
husbanding of resources, especially forces, monies, and time. If 
confirmed, part of my responsibility would be to ensure the command 
does not over-extend by trying to be all things to all concerned. It 
would fall to me, if confirmed, to ensure the command executes the 
highest priority missions to high standards and also to decide which 
missions may have to be deferred or to be addressed as ``economy of 
force'' missions.

                       state partnership program
    9. Senator Inhofe. General Ham, I am a huge fan of the SPP. I see 
the National Guard's unique capacity building capabilities a tremendous 
asset in direct support of U.S. national security interests and 
objectives. Unfortunately, it is not a well-regulated or cohesive 
program in the sense that it is not nested within DOD's overall efforts 
for international engagement. I have been working with the National 
Guard Bureau as they develop an overall strategic plan for SPP that 
looks at the world today and where we should be engaging with SPP. I am 
happy that one of these areas is the continent of Africa which 
currently has only eight active partnership programs. Next year, I will 
be working with my fellow Members in the House and the Senate to ensure 
SPP is properly funded and has the authorities needed to engage with 
our friends and allies around the world. If confirmed, will you take a 
look at SPP in Africa and provide feedback to this committee on how to 
improve that program's effectiveness in AFRICOM's AOR?
    General Ham. In my current assignment as U.S. Army Europe 
commander, my experience with the SPP program has been extremely 
positive. The relationships formed between National Guard members and a 
country's military create the conditions for long-term success and 
meaningful actions that truly build partner capacity. The SPP also 
extends to the civilian sector enabling military to civilian and 
civilian to civilian events as well. If confirmed, I will look for 
opportunities to expand the SPP to other nations in Africa. This is an 
area which I believe has great potential.
                                 ______
                                 
             Questions Submitted by Senator Roger F. Wicker
                                 sudan
    10. Senator Wicker. General Ham, with respect to Sudan, what is 
your assessment of the status of the Comprehensive Peace Agreement?
    General Ham. The Comprehensive Peace Agreement is at a critical 
stage with the referendum election on independence for Southern Sudan 
set for early January. There is speculation there could be violence 
after the election as the President of Sudan has publicly stated he 
will not recognize a divided Sudan and the southern Sudanese are 
campaigning for independence. The African Union and other organizations 
are working to keep the election fair and to provide security at 
polling stations. There is also concern about the lack of post-
referendum planning such as citizenship documents and nationality, 
natural resource management, currency, and assets. Based on my current 
knowledge of the situation, my assessment is the referendum is likely 
to occur as scheduled. I also believe that international support and 
diplomacy will be vital to ensure the results of the referendum are 
enacted fairly and without violence. If violence erupts, I would be 
most concerned about violence spreading outside the borders of Sudan to 
neighboring countries or a humanitarian crisis developing in southern 
Sudan. I did take note of the U.S. Special Envoy to Sudan's trip to 
Sudan to make a personal assessment. And, the recent agreement between 
North and South concerning security of the oilfields is a positive 
sign.

    11. Senator Wicker. General Ham, how it will impact the upcoming 
referendum?
    General Ham. I believe the referendum is likely to occur as 
planned. The registration of voters is ongoing and so far appears to be 
relatively orderly and free of widespread fraud.

    12. Senator Wicker. General Ham, if confirmed, what can AFRICOM do 
to deter possible violent conflict in Sudan regarding these issues?
    General Ham. A primary way AFRICOM can help deter conflict is by 
supporting and assisting with coordination of the efforts of the 
African Union and other African organizations to ensure Sudan is 
prepared for both the election and for post-referendum contingencies. 
The unique interagency composition of AFRICOM provides the opportunity 
to ensure all of the entities of the U.S. Government are synchronized 
and coordinated in their efforts with respect to Sudan. This would 
extend to interaction with nongovernmental and international 
organizations with interests in Sudan and neighboring regions.

    13. Senator Wicker. General Ham, what security contingency plans 
should AFRICOM prepare as the 2011 Southern Sudan Independence 
Referendum approaches?
    General Ham. I am aware that DOD planning efforts in support of 
U.S. Government policy determinations are in progress at this time. 
AFRICOM should prepare contingency plans based on the most likely and 
most dangerous outcomes. These could include noncombatant evacuation, 
humanitarian assistance, military options designed to deter increasing 
levels of conflict, and security force assistance operations to bring 
stability and security to the area. Other possible contingencies 
include assisting neighboring nations with displaced persons and 
assisting the United Nations and other regional or international PKO 
force contributors to perform their missions in Sudan by providing key 
enabling capabilities
                                 ______
                                 
    [The nomination reference of GEN Carter F. Ham, USA, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                September 15, 2010.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the U.S. Army to the 
grade indicated while assigned to a position of importance and 
responsibility under title 10, U.S.C., section 601:

                             To be General.

    GEN Carter F. Ham, USA, 0000.
                                 ______
                                 
    [The resume of GEN Carter F. Ham, USA, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
           Resume of Service Career of GEN Carter F. Ham, USA
Source of commissioned service: ROTC.

Educational degrees:
    John Carroll University - BA - Political Science
    Naval War College - MA - National Security and Strategic Studies

Military schools attended:
    Infantry Officer Basic Course
    Armor Officer Advanced Course
    U.S. Naval Command and Staff College
    Air War College

Foreign languages:
    None recorded.

Promotions:

------------------------------------------------------------------------
                                                             Date of
                                                           Appointment
------------------------------------------------------------------------
2LT....................................................        2 Jun 76
1LT....................................................        2 Jun 78
CPT....................................................        1 Aug 80
MAJ....................................................        1 Jun 87
LTC....................................................        1 Sep 92
COL....................................................        1 Apr 98
BG.....................................................        1 Oct 03
MG.....................................................       15 Dec 06
LTG....................................................        6 Aug 07
GEN....................................................       28 Aug 08
------------------------------------------------------------------------


Assignments:

------------------------------------------------------------------------
                From                      To            Assignment
------------------------------------------------------------------------
Jun 76..............................      Aug 76  Training Officer, II
                                                   Reserve Officer
                                                   Training Corps
                                                   Region, with duty at
                                                   4th Basic Combat
                                                   Training Brigade,
                                                   Fort Knox, KY
May 77..............................      Jan 78  Redeye Section Leader,
                                                   Combat Support
                                                   Company, 1st
                                                   Battalion, 509th
                                                   Infantry (Airborne
                                                   Combat Team), U.S.
                                                   Army Europe, Italy
Jan 78..............................      Dec 79  Rifle Platoon Leader,
                                                   later Executive
                                                   Officer, A Company,
                                                   later S-3 (Air),
                                                   later S-1
                                                   (Personnel), 2d
                                                   Battalion, 22d
                                                   Infantry, 4th
                                                   Infantry Division, V
                                                   Corps, U.S. Army
                                                   Europe, Germany
Dec 79..............................      Jun 81  Commander, C Company,
                                                   later S-3
                                                   (Operations), 2d
                                                   Battalion, 22d
                                                   Infantry, 8th
                                                   Infantry Division,
                                                   U.S. Army Europe,
                                                   Germany
Jul 81..............................      Feb 82  Student, Armor Officer
                                                   Advanced Course, Fort
                                                   Knox, KY
Feb 82..............................      Feb 84  Lima Area Commander,
                                                   Columbus District
                                                   Recruiting Command,
                                                   Columbus, OH
Mar 84..............................      Sep 84  Detachment Commander,
                                                   Forward Military
                                                   Support Element, 1984
                                                   Summer Olympics, Los
                                                   Angeles, CA
Sep 84..............................      Aug 86  Assistant Inspector
                                                   General, National
                                                   Training Center, Fort
                                                   Irwin, CA
Aug 86..............................      Feb 87  S-3 (Air), 6th
                                                   Battalion
                                                   (Mechanized), 31st
                                                   Infantry, National
                                                   Training Center, Fort
                                                   Irwin, CA
Feb 87..............................      May 89  S-3 (Operations),
                                                   later Executive
                                                   Officer, 1st
                                                   Battalion
                                                   (Mechanized), 52d
                                                   Infantry, National
                                                   Training Center, Fort
                                                   Irwin, CA
Aug 89..............................      Jun 90  Student, Naval Command
                                                   and Staff College,
                                                   Newport, RI
Jun 90..............................      May 93  Light Infantry Branch
                                                   Chief, later Chief,
                                                   Doctrine Division,
                                                   later Brigade Senior
                                                   Advisor to Saudi
                                                   Arabian National
                                                   Guard and Operation
                                                   Desert Storm, Saudi
                                                   Arabia, later
                                                   Executive Officer,
                                                   U.S. Army Infantry
                                                   School, Fort Benning,
                                                   GA
Jun 93..............................      Jun 95  Commander, 1st
                                                   Battalion, 6th
                                                   Infantry, 3d Infantry
                                                   Division, U.S. Army
                                                   Europe and Seventh
                                                   Army, Germany and
                                                   Operation Able
                                                   Sentry, Macedonia
Jun 95..............................      Jul 96  Senior Task Force
                                                   Observer/Controller,
                                                   Operations Group,
                                                   Combat Maneuver
                                                   Training Center, U.S.
                                                   Army Europe and
                                                   Seventh Army, Germany
Jul 96..............................      Jun 97  Student, U.S. Air War
                                                   College, Maxwell Air
                                                   Force Base, AL
Jun 97..............................      Jul 99  Assistant Chief of
                                                   Staff, G-3
                                                   (Operations), later
                                                   Chief of Staff, 1st
                                                   Infantry Division,
                                                   U.S. Army Europe and
                                                   Seventh Army, Germany
Jul 99..............................      Jun 01  Commander, Infantry
                                                   Training Support
                                                   Brigade (29th
                                                   Infantry Regiment),
                                                   U.S. Army Infantry
                                                   School, Fort Benning,
                                                   GA
Jul 01..............................      Aug 03  Deputy Director, J-8,
                                                   U.S. Central Command,
                                                   MacDill Air Force
                                                   Base, FL
Aug 03..............................      Feb 05  Deputy Commanding
                                                   General for Training
                                                   and Readiness, I
                                                   Corps and Fort Lewis,
                                                   Fort Lewis, WA, to
                                                   include duty as
                                                   Commander, Multi-
                                                   National Brigade
                                                   Northwest Operation
                                                   Iraqi Freedom, Iraq
Apr 05..............................      Jul 06  Deputy Director,
                                                   Regional Operations,
                                                   J-3, The Joint Staff,
                                                   Washington, DC
Aug 06..............................      Jul 07  Commanding General,
                                                   1st Infantry Division
                                                   and Fort Riley, Fort
                                                   Riley, KS
Aug 07..............................      Aug 08  Director for
                                                   Operations, J-3, The
                                                   Joint Staff,
                                                   Washington, DC
Aug 08..............................     Present  Commanding General,
                                                   U.S. Army Europe and
                                                   Seventh Army, Germany
------------------------------------------------------------------------


Summary of joint assignments:

------------------------------------------------------------------------
                                         Date               Grade
------------------------------------------------------------------------
Deputy Director, J-8, U.S.           Jul 01-Aug 03   Colonel
 Central Command, MacDill Air
 Force Base, FL.
Deputy Director, Regional            Apr 05-Jul 06   Brigadier General
 Operations, J-3, The Joint
 Staff, Washington, DC.
Director for Operations, J-3,        Aug 07-Aug 08   Lieutenant General
 The Joint Staff, Washington, DC.
------------------------------------------------------------------------


Summary of operations assignments:

------------------------------------------------------------------------
                                         Date               Grade
------------------------------------------------------------------------
Light Infantry Branch Chief,         Jun 90-May 93   Major/Lieutenant
 later Chief, Doctrine Division,                      Colonel
 later Brigade Senior Advisor to
 Saudi Arabian National Guard
 and Operation Desert Storm,
 Saudi Arabia, later Executive
 Officer, U.S. Army Infantry
 School, Fort Benning, GA.
Commander, 1st Battalion, 6th        Jun 93-Jun 95   Lieutenant Colonel
 Infantry, 3d Infantry Division,
 U.S. Army Europe and Seventh
 Army, Germany and Operation
 Able Sentry, Macedonia.
Commander, Multi-National            Aug 04-Feb 05   Brigadier General
 Brigade Northwest, Operation
 Iraqi Freedom, Iraq.
------------------------------------------------------------------------


U.S. decorations and badges:
    Distinguished Service Medal
    Defense Superior Service Medal (with two Oak Leaf Clusters)
    Legion of Merit (with Oak Leaf Cluster)
    Bronze Star Medal
    Meritorious Service Medal (with five Oak Leaf Clusters)
    Joint Service Commendation Medal
    Army Commendation Medal (with two Oak Leaf Clusters)
    Army Achievement Medal (with two Oak Leaf Clusters)
    Combat Action Badge
    Expert Infantryman Badge
    Parachutist Badge
    Ranger Tab
    Joint Chiefs of Staff Identification Badge
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by GEN Carter F. 
Ham, USA, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Carter F. Ham.

    2. Position to which nominated:
    Commander, U.S. Africa Command.

    3. Date of nomination:
    September 15, 2010.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    February 16, 1952; Portland, OR.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Christi Marie (Ignaut) Ham.

    7. Names and ages of children:
    Jennifer Marie Burns, 32.
    Jonathan Carter Ham, 30.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Association of the U.S. Army
    Society of the First Division
    Veterans of Foreign Wars
    Harley Owners Group

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements other than those listed on the 
service record extract provided to the committee by the executive 
branch.
    ROTC Scholarship, 1974-1976
    Eagle Scout, 1965
    John Carroll University Alumni Medal, 2010

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.
    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to Parts B-E of the committee 
questionnaire. The text of the questionnaire is set forth in 
the Appendix to this volume. The nominee's answers to Parts B-E 
are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                     Carter F. Ham.
    This 18th day of June, 2010.

    [The nomination of GEN Carter F. Ham, USA, was reported to 
the Senate by Chairman Levin on December 20, 2010, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on December 22, 2010.]
                                APPENDIX

Committee on Armed Services Questionnaire on Biographical and Financial 
               Information Requested of Civilian Nominees

                                ------                                

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearing and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)


    2. Position to which nominated:


    3. Date of nomination:


    4. Address: (List current place of residence and office addresses.)


    5. Date and place of birth:


    6. Marital Status: (Include maiden name of wife or husband's name.)


    7. Names and ages of children:


    8. Education: List secondary and higher education institutions, 
dates attended, degree received and date degree granted.


    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.


    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.


    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.


    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.


    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.

    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.

    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.


    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.


    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.


    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.


    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?


                    COMMITTEE ON ARMED SERVICES FORM
         FINANCIAL AND OTHER INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Information furnished in Parts B 
through F will be retained in the committee's executive files and will 
not be made available to the public unless specifically directed by the 
committee.

    Name:

                Part B--Future Employment Relationships
    1. Will you sever all business connections with your present 
employers, business firms, business associations or business 
organizations if you are confirmed by the Senate?


    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain.


    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization?


    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service?


    5. Is your spouse employed and, if so, where?


    6. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable?


                Part C--Potential Conflicts of Interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.


    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.


    3. Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.


    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy.


    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)


    6. Do you agree to provide to the committee any written opinions 
provided by the General Counsel of the agency to which you are 
nominated and by the Attorney General's office concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?


                         Part D--Legal Matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details.


    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details.


    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in any administrative agency 
proceeding or civil litigation? If so, provide details.


    4. Have you ever been convicted (including a plea of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense?


    5. Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.


                      Part E--Foreign Affiliations
    1. Have you or your spouse ever represented in any capacity (e.g., 
employee, attorney, business, or political adviser or consultant), with 
or without compensation, a foreign government or an entity controlled 
by a foreign government? If so, please fully describe such 
relationship.


    2. If you or your spouse has ever been formally associated with a 
law, accounting, public relations firm or other service organization, 
have any of your or your spouse's associates represented, in any 
capacity, with or without compensation, a foreign government or an 
entity controlled by a foreign government? If so, please fully describe 
such relationship.


    3. During the past 10 years have you or your spouse received any 
compensation from, or been involved in any financial or business 
transactions with, a foreign government or an entity controlled by a 
foreign government? If so, please furnish details.


    4. Have you or your spouse ever registered under the Foreign Agents 
Registration Act? If so, please furnish details.


                         Part F--Financial Data
    All information requested under this heading must be provided for 
yourself, your spouse, and your dependents.

    1. Describe the terms of any beneficial trust or blind trust of 
which you, your spouse, or your dependents may be a beneficiary. In the 
case of a blind trust, provide the name of the trustee(s) and a copy of 
the trust agreement.


    2. Provide a description of any fiduciary responsibility or power 
of attorney which you hold for or on behalf of any other person.


    3. List sources, amounts and dates of all anticipated receipts from 
deferred income arrangements, stock options, executory contracts and 
other future benefits which you expect to derive from current or 
previous business relationships, professional services and firm 
memberships, employers, clients and customers.


    4. Have you filed a Federal income tax return for each of the past 
10 years? If not, please explain.


    5. Have your taxes always been paid on time?


    6. Were all your taxes, Federal, State, and local, current (filed 
and paid) as of the date of your nomination?


    7. Has the Internal Revenue Service ever audited your Federal tax 
return? If so, what resulted from the audit?


    8. Have any tax liens, either Federal, State, or local, been filed 
against you or against any real property or personal property which you 
own either individually, jointly, or in partnership?


    (The committee may require that copies of your Federal income tax 
returns be provided to the committee. These documents will be made 
available only to Senators and the staff designated by the Chairman. 
They will not be available for public inspection.)

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                ----------------------------------.

    This ---------- day of --------------------------, 20------.
                                 ______
                                 

Committee on Armed Services Questionnaire on Biographical and Financial 
       Information Requested of Certain Senior Military Nominees

                                ------                                

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                    COMMITTEE ON ARMED SERVICES FORM
   BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES FOR 
                   CERTAIN SENIOR MILITARY POSITIONS
                      Instructions to the Nominee:
    Complete all requested information. If more space is needed use an 
additional sheet and cite the part of the form and the question number 
(i.e. A-9, B-4) to which the continuation of your answer applies.
    If you have completed this form in connection with a prior military 
nomination, you may use the following procedure in lieu of submitting a 
new form. In your letter to the Chairman, add the following paragraph 
to the end:

    ``I hereby incorporate by reference the information and commitments 
        contained in the Senate Armed Services Committee form 
        `Biographical and Financial Information Requested of Nominees 
        for Certain Senior Military Positions,' submitted to the 
        Committee on [insert date or your prior form]. I agree that all 
        such commitments apply to the position to which I have been 
        nominated and that all such information is current except as 
        follows: . . . .'' [If any information on your prior form needs 
        to be updated, please cite the part of the form and the 
        question number and set forth the updated information in your 
        letter to the Chairman.]

                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)


    2. Position to which nominated:


    3. Date of nomination:


    4. Address: (List current place of residence and office addresses. 
Also include your office telephone number.)


    5. Date and place of birth:


    6. Marital Status: (Include name of husband or wife, including 
wife's maiden name.)


    7. Names and ages of children:


    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.


    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational or other institution.


    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.


    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.


    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?


    13. Personal views: Do you agree, when asked before any duly 
constituted committee of the Congress, to give your personal views, 
even if those views differ from the Administration in power?


                    COMMITTEE ON ARMED SERVICES FORM
         FINANCIAL AND OTHER INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Information furnished in Parts B 
through E will be retained in the committee's executive files and will 
not be made available to the public unless specifically directed by the 
committee.

    Name:

                Part B--Future Employment Relationships
    1. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your military 
service. If so, explain.


    2. Has anybody made a commitment to employ your services in any 
capacity after you leave military service?


                Part C--Potential Conflicts of Interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.


    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.


    3. Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.


    4. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)


    5. Do you agree to provide to the committee any written opinions 
provided by the General Counsel of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?


    6. Is your spouse employed and, if so, where?


                         Part D--Legal Matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details.


    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
Federal, State, county or municipal law, regulation or ordinance, other 
than a minor traffic offense? If so, provide details.


    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in any administrative agency 
proceeding or litigation? If so, provide details.


    4. Have you ever been convicted (including a plea of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense?


    5. Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.


                      Part E--Foreign Affiliations
    1. Have you or your spouse ever represented in any capacity (e.g., 
employee, attorney, business, or political adviser or consultant), with 
or without compensation, a foreign government or an entity controlled 
by a foreign government? If so, please fully describe such 
relationship.


    2. If you or your spouse has ever been formally associated with a 
law, accounting, public relations firm or other service organization, 
have any of your or your spouse's associates represented, in any 
capacity, with or without compensation, a foreign government or an 
entity controlled by a foreign government? If so, please fully describe 
such relationship.


    3. During the past 10 years have you or your spouse received any 
compensation from, or been involved in any financial or business 
transactions with, a foreign government or an entity controlled by a 
foreign government? If so, please furnish details.


    4. Have you or your spouse ever registered under the Foreign Agents 
Registration Act? If so, please furnish details.
      

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                ----------------------------------.

    This ---------- day of --------------------------, 20------.

                                 <all>

</pre></body></html>
